<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-440]
[From the U.S. Government Printing Office]


                                                 S. Hrg. 108-440, Pt. 1
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2400

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2005 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 1

                            MILITARY POSTURE
                             SERVICE CHIEFS
                          SERVICE SECRETARIES
                    UNIFIED AND COMBATANT COMMANDERS
                            MISSILE DEFENSE
      ATOMIC ENERGY DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY
   ROLE OF U.S. NORTHERN COMMAND AND U.S. SPECIAL OPERATIONS COMMAND
                    UNIFIED AND REGIONAL COMMANDERS
                    CONTINGENT RESERVE FUND REQUEST

                               __________

     FEBRUARY 4, 10; MARCH 2, 4, 11, 23, 25; APRIL 1; MAY 13, 2004


         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

93-571 PDF                       WASHINGTON : 2005 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 













  


                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)




































                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
                            Military Posture
                            february 4, 2004

                                                                   Page

Rumsfeld, Hon. Donald H., Secretary of Defense; Accompanied by 
  Hon. Dov S. Zakheim, Comptroller, Department of Defense; Gen. 
  Peter Pace, USMC, Vice Chairman, Joint Chiefs of Staff; Hon. 
  Steven Cambone, Under Secretary for Intelligence; and Hon. 
  David S.C. Chu, Under Secretary for Personnel and Readiness....    10

                             Service Chiefs
                           february 10, 2004

Schoomaker, GEN Peter J., USA, Chief of Staff, United States 
  Army; Accompanied by LTG Steven Blum, USA, Chief, National 
  Guard Bureau...................................................   143
Clark, ADM Vernon E., USN, Chief of Naval Operations.............   186
Hagee, Gen. Michael W., USMC, Commandant of the Marine Corps.....   209
Jumper, Gen. John P., USAF, Chief of Staff, United States Air 
  Force..........................................................   227

                          Service Secretaries
                             march 2, 2004

Brownlee, Hon. Les, Acting Secretary of the Army.................   886
England, Hon. Gordon R., Secretary of the Navy...................   902
Roche, Hon. James G., Secretary of the Air Force.................   917

    Unified and Regional Commanders on Their Military Strategy and 
                        Operational Requirements
                             march 4, 2004

Abizaid, GEN John P., USA, Commander, United States Central 
  Command........................................................   990
Jones, Gen. James L., USMC, Commander, United States European 
  Command, and Supreme Allied Commander, Europe..................  1007

                       Ballistic Missile Defense
                             march 11, 2004

Wynne, Hon. Michael W., Acting Under Secretary of Defense for 
  Acquisition, Technology, and Logistics.........................  1082
Christie, Hon. Thomas P., Director, Operational Test and 
  Evaluation.....................................................  1086
Ellis, ADM James O., Jr., USN, Commander, United States Strategic 
  Command........................................................  1090
Kadish, Lt. Gen. Ronald T., USAF, Director, Missile Defense 
  Agency.........................................................  1096
Dodgen, LTG Larry J., USA, Commander, Space and Missile Defense 
  Command........................................................  1110

      Atomic Energy Defense Activities of the Department of Energy
                             march 23, 2004

Abraham, Hon. Spencer, Secretary of Energy.......................  1178

 The Role of U.S. Northern Command and U.S. Special Operations Command 
      in Defending the Homeland and in the Global War on Terrorism
                             march 25, 2004

O'Connell, Hon. Thomas W., Assistant Secretary of Defense for 
  Special Operations and Low Intensity Conflict..................  1233
Brown, GEN Bryan D., USA, Commander, United States Special 
  Operations Command.............................................  1239
McHale, Hon. Paul, Assistant Secretary of Defense for Homeland 
  Defense........................................................  1247
Eberhart, Gen. Ralph E., USAF, Commander, United States Northern 
  Command, and Commander, North American Aerospace Defense 
  Command........................................................  1256

    Unified and Regional Commanders on Their Military Strategy and 
                        Operational Requirements
                             april 1, 2004

Fargo, ADM Thomas B., USN, Commander, United States Pacific 
  Command........................................................  1313
LaPorte, GEN Leon J., USA, Commander, United Nations Command and 
  Republic of Korea/United States Combined Forces Command, and 
  Commander, United States Forces Korea; Accompanied by Maj. Gen. 
  Timothy Donovan, USMC, C-5, United States Forces Korea.........  1338
Hill, GEN James T., USA, Commander, United States Southern 
  Command........................................................  1355

                    Contingent Reserve Fund Request
                              may 13, 2004

Wolfowitz, Hon. Paul D., Deputy Secretary of Defense.............  1405
Kaplan, Hon. Joel D., Office of Management and Budget............  1411
Pace, Gen. Peter, USMC, Vice Chairman of the Joint Chiefs of 
  Staff..........................................................  1415


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

                              ----------                              


                      WEDNESDAY, FEBRUARY 4, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                            MILITARY POSTURE

    The committee met, pursuant to notice, at 9:34 a.m. in room 
HR-2118, Rayburn House Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, 
Roberts, Sessions, Collins, Ensign, Talent, Chambliss, Graham, 
Dole, Cornyn, Levin, Kennedy, Reed, Akaka, Bill Nelson, Ben 
Nelson, Dayton, Bayh, Clinton, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; Marie Fabrizio Dickinson, chief clerk; Cindy Pearson, 
assistant chief clerk and security manager; and Leah C. Brewer, 
nominations and hearings clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; L. David Cherington, counsel; Regina 
A. Dubey, research assistant; Brian R. Green, professional 
staff member; William C. Greenwalt, professional staff member; 
Ambrose R. Hock, professional staff member; Gregory T. Kiley, 
professional staff member; Thomas L. MacKenzie, professional 
staff member; Elaine A. McCusker, professional staff member; 
Lucian L. Niemeyer, professional staff member; Paula J. 
Philbin, professional staff member; Lynn F. Rusten, 
professional staff member; Joseph T. Sixeas, professional staff 
member; Scott W. Stucky, general counsel; Diana G. Tabler, 
professional staff member; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Madelyn R. Creedon, minority counsel; Kenneth M. 
Crosswait, professional staff member; Gabriella Eisen, research 
assistant; Evelyn N. Farkas, professional staff member; Richard 
W. Fieldhouse, professional staff member; Creighton Greene, 
professional staff member; Jeremy L. Hekhuis, professional 
staff member; Bridget W. Higgins, special assistant; Maren R. 
Leed, professional staff member; Gerald J. Leeling, minority 
counsel; Peter K. Levine, minority counsel; and William G.P. 
Monahan, minority counsel.
    Staff assistants present: Michael N. Berger, Andrew W. 
Florell, and Sara R. Mareno.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; Arch Galloway II, assistant to 
Senator Sessions; James P. Dohoney, Jr. and Derek J. Maurer, 
assistants to Senator Collins; Lindsey R. Neas, assistant to 
Senator Talent; Clyde A. Taylor IV, assistant to Senator 
Chambliss; Aleix Jarvis and Meredith Moseley, assistants to 
Senator Graham; Christine O. Hill, assistant to Senator Dole; 
Russell J. Thomasson, assistant to Senator Cornyn; Sharon L. 
Waxman, Mieke Y. Eoyang, and Jarret A. Wright, assistants to 
Senator Kennedy; Elizabeth King, assistant to Senator Reed; 
Davelyn Noelani Kalipi, assistant to Senator Akaka; William K. 
Sutey, assistant to Senator Bill Nelson; Eric Pierce, assistant 
to Senator Ben Nelson; Todd Rosenblum, assistant to Senator 
Bayh; Andrew Shapiro, assistant to Senator Clinton; and Terri 
Glaze, assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, everyone. I am not sure what 
the precedents are for the Senate Armed Services Committee 
commandeering the other body's chamber, but nevertheless, 
sitting up here, I feel somewhat like a bishop. A very 
impressive setting. I thank my distinguished friend, the 
chairman of the House Armed Services Committee, Duncan Hunter; 
and the ranking Democrat, another dear friend, Ike Skelton; and 
Robert Rangel, the staff director.
    The committee meets today to receive annual testimony from 
the Secretary of Defense and the Joint Chiefs of Staff--this 
morning represented by the Vice Chairman, General Pace, in the 
absence of General Myers, who had the untimely loss of his 
brother, Chuck Myers.
    Senator McCain. Mr. Chairman, I do not think we have order 
here.
    Chairman Warner. I think you have a point, and I cannot 
judge from the noise up here. We will ask the audience to 
refrain from conversation, please. Thank you.
    We are to receive the posture of the United States Armed 
Forces and President Bush's defense budget request for fiscal 
year 2005 and the Future Years Defense Program (FYDP). 
Secretary Rumsfeld and Vice Chairman Pace, we welcome you again 
back before the committee and commend you once again for the 
outstanding leadership that you both continue, as a team, to 
provide our Nation and to our men and women in uniform and 
their families.
    There are few precedents for the challenges you face in 
this post-September 11 world, but in every way you have met the 
challenges.
    I start today by recognizing the men and women of the Armed 
Forces of the United States who, together with a coalition of 
nations, liberated Iraq, a country larger than Germany and 
Italy combined, in roughly 3 weeks. This combined force 
accomplished this with unprecedented precision and casualties 
were far below the estimates. Nevertheless, we grieve each and 
every one who was lost or wounded and express our compassion to 
their families.
    Iraq, a nation that for decades had known only tyranny and 
oppression, is now moving forward to a future of freedom and 
opportunity for all of its people.
    While the mission of the U.S. and the coalition forces 
continues in Iraq, much has been accomplished since Operation 
Iraqi Freedom began last March. The world is a safer place and 
Iraq is a better place because, along with many nations, the 
U.S. confronted a brutal dictator who has defied the mandates 
of the international community for over a decade.
    Disagreements will continue about the process and the 
timing of the decision to use force, but on one thing there can 
be no disagreement: the professionalism, the performance, and 
the sacrifices of the men and women in uniform were, are, and 
always will be inspiring. Every American is justifiably proud 
of the U.S. Armed Forces. The security of the United States of 
America is in good hands today with its military.
    As we meet this morning, hundreds of thousands of our 
service members are engaged around the world and here at home, 
defending our Nation in Operation Enduring Freedom, Operation 
Iraqi Freedom, and other military operations in the ongoing 
global war on terrorism. These brave men and women and their 
families deserve our continued support, and they will get it 
from this committee--the equipment, the resources, the support 
they need to perform their missions today and tomorrow and into 
the future.
    We must remember that defense of our homeland begins on the 
distant battlefields of the world. Our forward-deployed forces 
are and will remain our first line of defense. This committee's 
responsibility will continue to be to ensure that these troops 
remain the best equipped, the best trained, and the most 
capable forces in the world.
    I am encouraged by my initial review of the President's 
defense budget for the fiscal year 2005. This request of $401.7 
billion for the Department represents a 5-percent increase over 
the fiscal year 2004 authorized level and the fourth straight 
year of growth for the defense budget. This sends a strong 
signal to the world of America's commitment to freedom, and the 
President and you, Mr. Secretary, deserve special recognition 
because we know the competitive forces in our budget today. But 
to get this increase was necessary.
    As Congress works its will on the budget request, we must 
be mindful of potential problems. We are putting increased 
demands on our forces around the world, increased demands on 
their families, and increased demands on our Reserve and 
National Guard. We are blessed with a military that is 
responding to these demands with extraordinary commitment, but 
even the best military has its limits.
    As we proceed with the hearing today--and I am going to ask 
unanimous consent that the full balance of my statement be 
included in the record--we are learning of the President's 
initiative to strengthen America's Intelligence Community. I 
commend the President for this leadership, and we await greater 
details about the commission envisioned and its membership. In 
testimony before this committee last week, Dr. David Kay, 
former Special Adviser to Director Tenet, told us that, based 
on the findings to date of the Iraq Survey Group (ISG)--that is 
the military force in country conducting the survey--prewar 
estimates about large stockpiles of weapons of mass destruction 
(WMD) may have been incorrect. As Dr. Kay stated, ``We were 
almost all wrong, and I certainly include myself there.''
    While that is one serious finding to date, he also told us 
of positive findings: that the ISG had discovered a quantum of 
evidence that includes evidence of Saddam Hussein's intent to 
pursue a WMD program on a large scale; evidence of actual and 
ongoing chemical and biological research programs; evidence of 
an active program to use the deadly chemical ricin as a weapon, 
a program that was only interrupted by the start of the war in 
March; evidence of ballistic missile programs that clearly 
violated terms of the United Nations (U.N.) Security Council 
resolution; and there was much more.
    The work of the ISG under General Dayton and Mr. Duelfer 
continues. Final judgments should in fairness await the outcome 
of their work.
    Dr. Kay also told us that he had found absolutely no 
evidence of any intelligence analyst being pressured to change 
or exaggerate any intelligence conclusions. On the contrary, he 
reminded us all that the basic assessment of Iraq's WMD 
holdings had been consistent since 1998, when U.N. inspectors 
left Iraq. Dr. Kay as well as many others have reminded us that 
intelligence efforts often differ from what is later actually 
found on the ground. The important thing is when they differ to 
understand why.
    Based on the intelligence available to the President, not 
only U.S. intelligence but that of the U.N. and other nations, 
Dr. Kay felt that the President could have reached no other 
conclusion: Iraq had caches of chemical and biological weapons, 
had used them in the past, and was likely to use them in the 
future.
    As Dr. Kay stated, ``It was reasonable to conclude that 
Iraq posed an imminent threat. What we learned during the 
inspection made Iraq a more dangerous place potentially than in 
fact we thought it was even before the war.''
    As I stated earlier, the world is a safer place and Iraq is 
a better place because a real and growing threat has been 
eliminated. We did the right thing at the right time to rid 
Iraq of this brutal regime.
    There are currently six ongoing investigations--the 
President's contemplated commission would be the seventh--
concerning Iraqi WMD programs, including, most importantly, the 
ISG. As I mentioned, it is an ongoing operation, fully funded 
by Congress. It is under the direction of General Dayton and 
Charles Duelfer. It is important that the work of these 
investigations be completed, and I hope that we will receive 
from the Secretary some estimates of the timetable in which 
that is likely to be done.
    An independent panel can build on the good work already 
begun and ultimately contribute to the recommendations on how 
to make our Intelligence Community stronger and more effective.
    The security of our troops in harm's way and of our Nation 
will be improved by these reviews. I wish to commend the 
distinguished chairman of the Intelligence Committee. I am 
privileged to serve on that committee with him, and I believe 
that that committee has done notable work, and perhaps you will 
comment on that in the course of the hearing.
    Mr. Secretary, I hope you can address your views on these 
issues related to the Iraqi WMD and the current situation in 
Iraq in your opening testimony. For example, the President's 
National Security Adviser, Condoleezza Rice, stated, ``There 
are differences between what we knew going in and what we found 
on the ground.'' The question to you is, what steps are you 
taking to ensure that the ongoing intelligence activities of 
defense intelligence agencies, particularly the Defense 
Intelligence Agency (DIA) and the National Security Agency 
(NSA), are as complete and analytically rigorous as possible?
    We must bear in mind that a lot of focus is on the Central 
Intelligence Agency (CIA) and George Tenet, but our 
distinguished witness today has under his jurisdiction a very 
considerable component of the Intelligence Community.
    Mr. Secretary, are you beginning to examine your prewar 
planning and preparation in light of the findings we know to 
date? There have been public accusations of manipulation or 
exaggeration of prewar intelligence by policymakers. You are 
among the first of the administration witnesses to testify 
before Congress on this subject. I say to you most 
respectfully, how do you respond?
    I have been privileged to have known you and worked with 
you for I suspect over 30 years and, speaking for myself, I 
have absolutely 100 percent confidence in your integrity. But 
you should look us square in the eye and give us your own views 
on this subject.
    Mr. Secretary, the plan as laid down by Ambassador Bremer 
and approved by the Iraqi Governing Council calls for a series 
of steps over the next few months culminating in the transfer 
of sovereignty to Iraqi authority on June 30 of this year. Are 
these milestones and final target dates achievable? What 
significant challenges remain? What accommodations are being 
made to ensure our troops can continue to operate and the ISG 
can continue its important work in a sovereign nation, 
presumably, after this transfer on the 30th?
    Again, gentlemen, we welcome you. General Pace, we will 
have the opportunity to hear your testimony and your views, and 
I would certainly invite you to make any comments that you wish 
to make about the WMD program.
    Senator Levin.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    The committee meets today to receive annual testimony from the 
Secretary of Defense and the Joint Chiefs of Staff on the posture of 
the U.S. Armed Forces and President Bush's defense budget request for 
fiscal year 2005 and the Future Years Defense Program.
    Secretary Rumsfeld and Vice Chairman Pace, we welcome you back 
before the committee and commend you, once again, for the outstanding 
leadership you both continue, as a team, to provide our Nation and to 
our men and women in uniform and their families. There are few 
precedents for the challenges you face in this post-September 11 world, 
but you have been equal to the task.
    I start today by recognizing the men and women of our Armed Forces 
who, together with a coalition of nations, liberated Iraq, a country 
larger than Germany and Italy combined, in roughly 3 weeks. This 
combined force accomplished this with unprecedented precision and 
casualties far below estimates. Iraq, a nation that for decades had 
known only tyranny and oppression, is now moving forward to a future of 
freedom and opportunity for all of its people.
    While the mission of U.S. and coalition forces continues in Iraq, 
much has been accomplished since Operation Iraqi Freedom began last 
March. The world is a safer place, and Iraq is a better place, because, 
along with many nations, the U.S. confronted a brutal dictator who had 
defied the mandates of the international community for over a decade. 
Disagreements will continue about the process and timing of the 
decision to use force, but on one thing there is no disagreement: the 
professionalism, performance, and sacrifice of our troops was, is, and 
always will be, inspiring. Every American is justifiably proud of the 
U.S. Armed Forces. The security of America is in good hands with 
today's military.
    As we meet this morning, hundreds of thousands of our service 
members are engaged around the world and here at home, defending our 
Nation in Operation Enduring Freedom, Operation Iraqi Freedom, and 
other military operations in the ongoing global war on terrorism. These 
brave men and women, and their families, deserve our continued support. 
They will get it from this committee--the equipment, the resources, the 
support they need to perform their missions.
    As President Bush remarked when he signed last year's Defense 
Authorization Act in November:

        ``Every member of the United States military is now involved in 
        a great and historic task. The stakes for our country could not 
        be higher. We face enemies that measure their progress by the 
        chaos they inflict, the fear they spread, and the innocent 
        lives they destroy. America's military is standing between our 
        country and grave danger. You're standing for order and hope 
        and democracy in Afghanistan and Iraq. You're standing up for 
        the security of all free nations, and for the advance of 
        freedom.''

    Our President continues to provide the strongest of leadership.
    We must remember that defense of our homeland begins on the distant 
battlefields of the world. Our forward deployed forces are--and will 
remain--our first line of defense. This committee's responsibility will 
continue to be to ensure that these troops remain the best equipped, 
best trained, most capable forces in the world.
    It is critical that we fully honor the service of our men and women 
in uniform, and that we keep faith with their dedication to duty 
through adequate pay raises, timely modernization of equipment and 
facilities, and sustained investment in those programs that enhance the 
quality of life of our service personnel and their families.
    I am encouraged by my initial review of the President's defense 
budget request for fiscal year 2005. This request of $401.7 billion for 
the Department represents a 5-percent increase over the fiscal year 
2004 authorized level, and the fourth straight year of growth for the 
defense budget. This sends a strong signal to the world of America's 
commitment to freedom.
    As Congress works its will on this budget request, we must be 
mindful of potential problems. We are putting increased demands on our 
forces around the world, increased demands on their families, and 
increased demands on our Reserve and National Guard. We are blessed 
with a military that has responded to these demands with extraordinary 
commitment, but even the best military has its limits.
    As we perform our annual budget review, we must--and we will--
carefully analyze the effects of these challenges on our men and women 
in uniform, and their families. Congress will, I am confident, make the 
investments needed to ensure we have the people and the capabilities 
necessary to meet these challenges.
    There will be many questions. To assist Congress, I hope you can 
address some of these questions in your testimony this morning, 
including:

        <bullet> Do we have enough people, the right mix of people, and 
        the capabilities in the Armed Forces to meet the threats of the 
        foreseeable future?
        <bullet> Are we doing all we can to ensure that our forces 
        deployed overseas--both active and Reserve components (RC)--
        have the best possible equipment and support?
        <bullet> Are the lessons learned from recent military 
        operations being rapidly shared and integrated across the 
        entire force and with our allies?
        <bullet> What increased role can we realistically expect NATO 
        and other nations to play in the global war on terrorism?
        <bullet> As we reposition forces to meet new global threats, do 
        we have the facilities, infrastructure, and mobility assets we 
        will need?

    These are but a few of the complex issues we must work on together 
to solve in the months and years ahead.
    As we proceed with this hearing today, we are learning of the 
President's initiative to strengthen America's intelligence community. 
I commend the President for his leadership.
    In testimony before this committee, last week, Dr. David Kay, 
former Special Advisor to Director Tenet, told us that, based on the 
findings of the Iraq Survey Group, to date, prewar estimates about 
large WMD stockpiles may have been wrong. As Dr. Kay stated, ``. . . we 
were almost all wrong, and I certainly include myself here.'' While 
that is one serious finding, to date, he also told us that the ISG had 
discovered a quantum of evidence, that includes:

        <bullet> evidence of Saddam Hussein's intent to pursue WMD 
        program on a large scale;
        <bullet> actual, ongoing chemical and biological research 
        programs;
        <bullet> an active program to use the deadly chemical ``ricin'' 
        as a weapon a program that was only interrupted by the start of 
        the war in March; and,
        <bullet> evidence of ballistic missile programs that clearly 
        violated the terms of U.N. Security Council Resolutions.

    Dr. Kay also told us that he had found absolutely no evidence of 
any intelligence analyst being pressured to change or exaggerate any 
intelligence conclusions. On the contrary, he reminded us all that the 
basic assessment of Iraq's WMD holdings had been consistent since 1998, 
when U.N. inspectors left Iraq. Dr. Kay, as well as many others, have 
reminded us that intelligence efforts often differ from what is 
actually found on the ground later. The important thing is when they 
differ, to understand why.
    Based on the intelligence available to the President not only U.S. 
intelligence but that of the U.N. and other nations, Dr. Kay felt that 
the President could have reached no other conclusion: Iraq had caches 
of chemical and biological weapons, had used them in the past, and was 
likely to use them in the future. As he stated, ``. . . it was 
reasonable to conclude that Iraq posed an imminent threat. What we 
learned during the inspection made Iraq a more dangerous place, 
potentially, than, in fact, we thought it was even before the war.''
    As I stated earlier, the world is a safer place and Iraq is a 
better place because a real and growing threat has been eliminated. We 
did the right thing to rid Iraq of this brutal regime.
    There are currently six ongoing investigations concerning Iraqi WMD 
programs, including the work of the Iraq Survey Group funded by 
Congress and under the direction of General Dayton and Charles Duelfer. 
It is important that the work of these investigations be completed. An 
independent panel can build on the good work already begun and, 
ultimately, contribute to the recommendations on how to make our 
intelligence community stronger and more effective. The security of our 
troops in harm's way and of our Nation will be improved by these 
reviews.
    I hope you can address your views on these issues related to Iraqi 
WMD and the current situation in Iraq in your opening testimony. For 
example:

        <bullet> The President's National Security Advisor, Condoleeza 
        Rice, has stated, ``. . . there are differences between what we 
        knew going in and what we found on the ground.'' What steps are 
        you taking to ensure that the ongoing intelligence activities 
        of Defense intelligence agencies particularly DIA and NSA are 
        as complete and analytically rigorous as possible?
        <bullet> Are you beginning to examine your pre-war planning and 
        preparation in light of the findings we know, to date?
        <bullet> There have been public accusations of manipulation or 
        exaggeration of pre-war intelligence by policy makers. You are 
        among the first in the administration to testify before 
        Congress on this subject. How do you respond to these 
        accusations?
        <bullet> The plan, as laid down by Ambassador Bremer and 
        approved by the Iraqi Governing Council calls for a series of 
        steps over the next few months, culminating in a transfer of 
        sovereignty to Iraqi authority on June 30 of this year. Are 
        these milestones and final target date achievable? What 
        significant challenges remain?
        <bullet> What accommodations are being made to ensure our 
        troops can continue to operate, and the ISG can continue its 
        important work, in a sovereign nation after this transfer of 
        sovereignty?

    Again, gentlemen, I thank you for your service. Your continued 
commitment to our uniformed and civilian personnel and their families, 
your leadership during time of war, and your focus on preparing our 
Armed Forces to meet the threats of the future have greatly enhanced 
our national security.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman.
    Let me first join you in welcoming Secretary Rumsfeld, 
General Pace, and Dr. Zakheim back to the Armed Services 
Committee for their annual posture hearing. Much has happened 
in the world since our last posture hearing. The rapid advance 
of our Armed Forces in Operation Iraqi Freedom (OIF) and the 
total collapse of the Iraqi regime stand as a testament to the 
courage and to the dedication of our men and women in uniform, 
who remain by far the best trained, best equipped, and most 
capable military force in the world today. They are the 
standard against which all other military forces are measured.
    Unfortunately, military operations in Iraq did not come to 
an end with the President's announcement on May 1. In early 
July, General Tommy Franks announced that continued violence 
and uncertainty in Iraq would make significant reductions in 
U.S. force levels unlikely for the foreseeable future. Six 
months later, we still have roughly 125,000 troops in Iraq, 
with almost 180,000 more serving in support roles outside of 
the country. We are in the process of rotating in fresh units 
to ensure that we will be able to sustain this presence for 
years to come.
    The current rotation of U.S. forces into Iraq will result 
in a drawdown to 110,000 troops. The drawdown is based upon the 
belief that Iraqi police in the Iraqi Civil Defense Corps 
(ICDC) will be able to take the lead in providing security in 
Baghdad and other Iraqi cities. I am concerned that this will 
set the Iraqi security forces up for failures, as there is a 
real question as to whether they are ready to take on and 
defeat the insurgents who are targeting Iraqis as well as U.S. 
and other coalition forces.
    The new Iraqi army, whose mission is limited to external 
defense, will not have a role in providing domestic security 
for their fellow citizens. I remain convinced, as I have 
written to Secretary Rumsfeld, the President, and others in the 
administration, that the recall of units of the Iraqi army at 
the middle grade and below would have been a better way to help 
handle the insurgent threat.
    Our troops in Iraq face extremely hazardous conditions, 
including improved explosive devices, ambushes, car bombs, 
mortar attacks, and shoulder-fired antiaircraft missiles.
    In addition, roughly 10,000 American troops continue to 
engage in military operations against hostile forces in 
Afghanistan. Tens of thousands more soldiers, sailors, airmen, 
and marines are deployed in Korea and other hot spots around 
the world, including numerous countries that had not seen an 
American in uniform before September 11, 2001.
    Congress and the American people will provide the support 
that is needed by our troops in the field. In less than a year, 
we have enacted two emergency supplemental appropriation acts, 
for $62 billion and $87 billion, to cover the costs of our 
operations in Iraq and Afghanistan. It has been reported that 
an additional supplemental appropriation of $50 billion to $55 
billion will likely be required to fund continued operations 
over the next fiscal year.
    I have no doubt that if our troops need the money Congress 
will provide it. However, that money should have been part of 
the budget before us, not left to a supplemental and therefore 
not part of the projected budget deficit. A fair deficit 
projection would have included those costs since we are 
planning on those costs.
    The pace of operations has placed a great strain on our 
forces. We have seen the imposition of stop-loss requirements 
to prevent troops from leaving the force when their term of 
service is finished. Some have been deployed for extended 
periods, and some have been deployed repeatedly. Some units 
have been told that they would be going home soon, only to have 
their tours of duty extended. Others have been denied clear 
information about when their deployments would end. In the last 
2\1/2\ years, we have seen the largest sustained call-ups of 
National Guard and Reserve components since the establishment 
of an all-volunteer military force.
    A year ago, as our Nation was being prepared to go to war 
in Iraq, a number of us expressed the view that our cause would 
be strongest and our long-term success would be more certain if 
we actively solicited the support of the international 
community. While America's Armed Forces have proven and 
continue to prove every day that they are ready to take on any 
military challenge anywhere in the world, I continue to believe 
that we are paying a steep price for the failure to obtain the 
political support of the international community, which would 
make the occupation one of the world community, to include 
Muslim nations, and not just an occupation by Western nations. 
It would therefore be less difficult and less dangerous.
    The strains on our Armed Forces are very real. Concerns 
about morale and potentially about recruitment and retention 
are real. The risks posed to our Guard and Reserve system are 
real. These are issues that we must do everything in our power 
to help address.
    Finally, in the wake of the testimony of Chief Weapons 
Inspector Dr. David Kay, who concluded that the prewar 
intelligence on Iraqi WMD was fundamentally wrong, this 
committee has a particular responsibility to look into how 
intelligence failures affected planning for and the conduct of 
Operation Iraqi Freedom. I am deeply concerned that my request 
to the Department of Defense (DOD) for information concerning 
the impact that intelligence had on the planning for and the 
conduct of Operation Iraqi Freedom has so far been denied by 
the Department.
    My specific request was for a briefing on the planning 
process generally, including how the intelligence affected that 
planning, and an overview of the final approved war plan for 
Operation Iraqi Freedom to the extent that it can be shared 
with Congress.
    I am also concerned that it has taken so long for the 
Department to respond to my request of November the 25th of 
last year for information relating to the Office of Special 
Plans, which was established by Under Secretary Feith and which 
reportedly involved the review, analysis, and promulgation of 
intelligence outside of the U.S. Intelligence Community.
    My specific request in the case of the Office of Special 
Plans was for documents relating to the establishment, 
functions, and responsibilities of that office and the Policy 
Counterterrorism Evaluation Group, and for documents produced 
by either of those two entities, a list of personnel directly 
related to those two offices, and communications from those two 
offices to key agencies.
    Finally, this morning apparently some of the information 
was delivered to us. But after, just at a quick perusal of that 
information, we also see that much of what we asked for is 
still being denied by the Department, and that is simply 
indefensible. We have an obligation and a responsibility to 
oversee the operations of this Department. I have been 
repeatedly promised that information by Mr. Feith and there 
just was no justification for the long delay in forwarding what 
information came to us this morning. I do hope, Mr. Secretary, 
that you will straighten this out for us.
    I look forward to the testimony of our witnesses and I 
welcome them all back to this committee.
    Chairman Warner. Thank you, Senator Levin.
    Mr. Secretary.

  STATEMENT OF HON. DONALD H. RUMSFELD, SECRETARY OF DEFENSE; 
ACCOMPANIED BY HON. DOV S. ZAKHEIM, COMPTROLLER, DEPARTMENT OF 
DEFENSE; GEN. PETER PACE, USMC, VICE CHAIRMAN, JOINT CHIEFS OF 
 STAFF; HON. STEVEN CAMBONE, UNDER SECRETARY FOR INTELLIGENCE; 
  AND HON. DAVID S.C. CHU, UNDER SECRETARY FOR PERSONNEL AND 
                           READINESS

    Secretary Rumsfeld. Thank you very much, Mr. Chairman, 
members of the committee. I appreciate this opportunity to 
testify on our DOD budget and request that my full statement be 
included in the record.
    I, too, regret that General Myers could not be with us 
today because of the loss of his brother. I have, in addition 
to General Pace and Dr. Zakheim, brought two individuals, two 
under secretaries, along in the event that there are questions 
on the intelligence side or on the force level side. Dr. David 
Chu is here and is available, and Dr. Steve Cambone. Dr. Chu of 
course is the Under Secretary for Personnel and Readiness, and 
Dr. Cambone is the Under Secretary for Intelligence.
    I, too, want to commend the courageous men and women in 
uniform and also the civilians in the DOD that serve all over 
the globe as well. What they have accomplished since our 
country was attacked 28 months ago is truly impressive. They 
have helped to overthrow 2 terrorist regimes, to capture or 
kill 45 of the 55 most wanted in Iraq, including Saddam Hussein 
and his sons, to capture or kill close to two-thirds of known 
senior al Qaeda operatives, and to disrupt terrorist cells on 
several continents. We value their service, their sacrifice, 
and the sacrifice of their families as well.
    When this administration took office 3 years ago, the 
President charged us to change the status quo and prepare the 
Department to meet the new threats of the 21st century. To meet 
that charge, we have fashioned a new defense strategy, a new 
force sizing construct, a new approach to balancing risks. We 
have issued a new unified command plan, taken steps to attract 
and retain the needed talent in our Armed Forces, including 
targeted pay raises and quality of life improvements for the 
troops and their families.
    We have instituted what we believe to be more realistic 
budgeting so that the Department now looks to budget 
supplementals for unknown warfighting costs and not to simply 
sustain readiness. We have completed a nuclear posture review. 
We have transformed the way the Department prepares its war 
plans. We have adopted a new lessons-learned approach during 
Operation Iraqi Freedom and undertaken a comprehensive review 
of our global force posture. With your help, we are 
establishing the new National Security Personnel System (NSPS) 
that should better enable us to manage our 746,000 civilian 
employees.
    The scope and scale of what has been done, what has been 
accomplished, and what has been initiated is substantial. Our 
challenge is to build on these efforts even as we fight the 
global war on terror.
    One effect of the global war on terror has been a 
significant increase in operational tempo and an increased 
demand on the force. To manage the demand on the force, we have 
to first be very clear about what the problem really is, so 
that we can work together to fashion appropriate solutions.
    The increased demand on the force we are experiencing today 
is, we believe, very likely a spike, driven by the deployment 
of 115,000 troops in Iraq. For the moment, the increased demand 
is real, and we have taken a number of immediate actions. We 
are increasing international military participation in Iraq. We 
have accelerated the training of Iraqi security forces, now 
more than 200,000 strong. Our forces are hunting down those who 
threaten Iraq's stability and transition to self-reliance.
    Another way to deal with the increased demand on the force 
is to add more people. Well, we have already done so--we might 
want to put up a chart there----
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    --a fact that many people seem not to understand. Using the 
powers granted by Congress, we have already increased Active-
Duty Force levels by nearly 33,000 above pre-emergency 
authorized end strength. We have done this over the past 2 
years, as you can see. If the war on terror demands it, we will 
not hesitate to increase force levels even more using those 
emergency authorities provided by Congress.
    But it should give us pause that even a temporary increase 
in our force levels was and remains necessary. Think about it. 
At this moment we have a pool of about 2.6 million men and 
women, active and Reserve. Yet the deployment of 115,000 troops 
in Iraq has required that we temporarily increase the size of 
the force by 33,000. That suggests strongly that the real 
problem is not the size of the force per se, but rather the way 
the force has been managed and the mix of capabilities at our 
disposal. It suggests that our challenge is considerably more 
complex than simply adding more troops.
    General Pete Schoomaker, the Army Chief of Staff, compares 
the problem to a rain barrel in which the spigot is near the 
top. When you turn the spigot on, it only draws off the water 
at the very top. The task--you have two choices: You can either 
increase the size of the barrel and leave the spigot where it 
is or you can lower the spigot and start drawing on the 
contents of the entire barrel.
    The answer in my view is most certainly not a bigger rain 
barrel. The answer is to move the spigot down so that all the 
water is accessible and can be used and so that we can take 
full advantage of the skills and talents of everyone who serves 
in the Guard and Reserve.
    Another chart, please, Commander.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    I do not know if you can see that up there. But I keep 
hearing people talk about the stress on the Guard and the 
Reserve. The fact is that since September 11, 2001, we have 
mobilized only 36 percent of the Selected Reserve, a little 
over one-third of the available forces in the Selected Reserve. 
But while certain skills are in demand, as the chart shows, 
only a very small fraction of the Guard and Reserve, just 7.15 
percent, have been involuntarily mobilized more than once since 
1990, 13 years ago. Over 13 years we have mobilized only 7.15 
percent of the Guard and Reserve involuntarily more than once.
    That means that the same people are getting stressed and 
they are getting used and used, but the vast majority of the 
Guard and Reserve are not being used. Over 60 percent have not 
been mobilized to fight the global war on terror. Indeed, I am 
told that a full 58 percent of the current selected Reserve, or 
about 500,000 troops, have not been involuntarily mobilized in 
the past 10 years.
    Now, what does that tell us? First, it argues that we have 
too few Guard and Reserve Forces with the skill sets that are 
in high demand. We obviously, therefore, have too many Guard 
and Reserve Forces with skill sets that are in little or no 
demand.
    Second, it indicates that we need to rebalance the skill 
sets within the Reserve components and also between the active 
and the Reserve components so that we have enough of the right 
kinds of forces available to accomplish the needed missions.
    Third, it suggests that we need to focus on transforming 
the forces for the future, making sure we continue to increase 
the capability of the force, thus our ability to do more with 
the forces that we have. We are working to do just that.
    In looking at our global force posture review, some 
observers had focused on the number of troops, tanks, and ships 
that we might add or remove from a given part of the world, 
Europe, Asia, or somewhere else. I would submit that that may 
well not be the best measure. If you have 10 of something, say 
ships, and you reduce the number by 5, you end up with half as 
many. But if you replace the remaining half with ships that 
have double the capability, then you have really not reduced 
your capability even though the numbers have been reduced.
    That is true of troops. That is true of aircraft. It is 
true of going from dumb bombs to precision bombs. Today the 
Navy is reducing force levels. Yet, because of the way they are 
arranging themselves, they will have more combat power 
available than they did when they had more people. In Operation 
Iraqi Freedom, the Navy surged more than half of the fleet to 
the Persian Gulf region for the fight. With the end of the 
major combat operations, instead of keeping two or three 
carrier strike groups forward, they quickly redeployed all 
their carrier strike groups to home base. By doing so they 
reset the force in a way that will allow them to surge over 50 
percent more combat power on short notice to deal with future 
contingencies.
    The result? Today six aircraft carrier strike groups are 
available to respond immediately to any crisis that might 
confront us--all while the Navy is moderately reducing the size 
of its Active Force.
    The Army, by contrast, has put forward a plan that, by 
using emergency powers, will increase force levels by about 6 
percent. Because of the way he will do it, the Army estimates 
that they will be adding, not 6 percent, but up to 30 percent 
more combat power. Instead of adding more divisions, Pete 
Schoomaker and the acting Secretary of the Army are focusing 
instead on creating a 21st century modular army made up of 
self-contained, more self-sustaining brigades that are 
available to work for any division commander.
    As a result, the intention is that 75 percent of the Army's 
brigade structure would always be ready in the event of a 
crisis. The Army plans will increase the number of active and 
Reserve brigades significantly over the next 4 years, but 
because we will be using emergency powers we will have the 
flexibility to reduce the number of active troops if, as, and 
when the security situation permits.
    The point is this: The focus needs to be on more than just 
numbers. We should be focusing on finding ways to better manage 
the forces we have and on increasing the speed, agility, 
modularity, capability, and usability of those forces. Today 
DOD has several dozen initiatives under way to improve 
management of the force and to increase its capability. We are 
investing in new information age technologies and less 
manpower-intensive platforms and technologies.
    We are working to increase the jointness of our forces, 
taking civilian tasks currently done by uniformed personnel and 
converting them into civilian jobs, freeing military personnel 
for military tasks. We have begun consultations with allies and 
friends about ways to transform our global force posture to 
further increase our capability. We are working to rebalance 
the active and Reserve components, taking skills that are found 
almost exclusively in the Reserves and moving forces out of 
low-demand specialties, such as heavy artillery, and into 
higher demand capabilities, such as Military Police, civil 
affairs, and Special Operations Forces.
    A number of the members of the committee have served in the 
Guard and Reserve. Each of us knew when we signed up that it 
was not simply to serve 1 weekend and 2 weeks active duty. We 
signed up so that if war was visited on our country we would be 
ready to become part of the Active Force, and on September 11 
war was visited on our country.
    If we were not to call up the Guard and Reserves today, 
then why would we have them at all? This is the purpose of the 
Guard and Reserve. It is what they signed up for, and, God 
bless them, the vast majority are eager to serve, a fact borne 
out by the large number of those who stepped forward and 
volunteered to be mobilized for service in Afghanistan and in 
Iraq.
    Our responsibility is to do everything we can to see that 
they are treated respectfully, managed effectively, and that we 
have the tools they need to win today's wars and to deter 
future conflicts.
    Today, because DOD has the flexibility to adjust troop 
levels as the security situation may require, we believe that a 
statutory end strength increase will take away our flexibility 
to manage the force. First, if the current increased demand 
turns out to be a spike, the Department would face a 
substantial cost of supporting a larger force when it may no 
longer be needed.
    Second, if we permanently increase statutory end strength, 
we will have to take the cost out of the DOD top line. That 
will require cuts in other parts of the defense budget--
crowding out investments and the programs that will allow us to 
manage the force better and to make it more capable.
    I urge Congress not to lock us into a force size and 
structure that may or may not be appropriate in the period 
ahead. During the period of the emergency, we have all the 
flexibility that is required and we have been using it.
    The 2005 budget before you is in a real sense a request for 
a second installment on funding for the transformational 
priorities set out in the President's 2004 request. In 2005, we 
have requested $29 billion for investments in transforming 
military capabilities. We have requested additional funds to 
strengthen intelligence, including critical funds to increase 
DOD human intelligence capabilities, persistent surveillance, 
as well as technical analysis and information-sharing.
    We have requested $11.1 billion to support procurement of 
nine ships in 2005. In all, the President has requested $75 
billion for procurement in 2005 and $69 billion for research, 
development, testing, and evaluation.
    We also need your continuing support for two initiatives 
that are critical to the 21st century transformation, the 
Global Posture Review and the Base Realignment and Closure 
(BRAC) Commission scheduled for 2005. These are important 
initiatives. We need BRAC to rationalize our infrastructure and 
the new defense strategy and to eliminate unneeded bases and 
facilities that are costing the taxpayers billions of dollars 
to support. We need the global posture changes to help us 
reposition our forces around the world so that they are 
stationed--not where the wars of the 20th century happened to 
end, but rather arranged in a way that will allow them to deter 
and, as necessary, defeat potential adversaries who might 
threaten our security or that of our friends and allies in the 
21st century. These two are inextricably linked.
    Mr. Chairman, the President has asked Congress for $401.7 
billion for fiscal year 2005. It is an enormous amount of 
taxpayers' hard-earned money. Such investments will likely be 
required for a number of years to come because our Nation is 
engaged in a struggle that could well go on for a number of 
years. Our objective is to ensure that our Armed Forces remain 
the best trained, best equipped fighting force in the world and 
that we treat the volunteers who make up the force with the 
respect commensurate with their sacrifice and their dedication.
    Before turning to questions, let me make some comments in 
response to your request on the subject of intelligence and WMD 
and the testimony that Dr. Kay presented to this committee. 
During my confirmation hearing before this committee, I was 
asked what would keep me up at night, and I answered, 
``Intelligence.'' I said that because the challenge facing the 
Intelligence Community today is truly difficult. Their task is 
to penetrate closed societies--and you might want to put that 
picture of a closed society up----
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    --and organizations and try and learn things our 
adversaries do not want them to know.
    That is the Korean Peninsula. The Demilitarized Zone (DMZ) 
is the line in the middle. South Korea, the same people as in 
North Korea, has light. It is a satellite photo. It has light 
and energy and opportunity and a vibrant, democratic system. 
North Korea is a dark, dark country. The little dot of light to 
the left in the center of North Korea is Pyongyang.
    So their task is to penetrate these closed societies and 
organizations, to try and learn things that our adversaries do 
not want them to know, the Intelligence Community, often not 
knowing precisely what it is that we need to know, while our 
adversaries know precisely what it is that they do not want 
them to know. That is a tough assignment.
    Intelligence agencies are operating in a era of surprise, 
when new threats can emerge suddenly, with little or no 
warning, as happened on September 11. It is their task to try 
to connect the dots before the fact, not after the fact. It is 
hard enough after the fact, but they are trying to connect the 
dots before the fact so action can be taken to protect the 
American people.
    They have to do this in an age when the margin for error is 
modest, when terrorist networks and terrorist states are 
pursuing weapons of mass destruction and the consequences of 
underestimating a threat could be the loss of potentially tens 
of thousands of lives. The men and women in the Intelligence 
Community have a tough and often thankless job. If they fail 
the world knows it, and when they succeed, as they often do, to 
our country's great benefit, their accomplishments often have 
to remain secret.
    Though we cannot discuss those successes always in open 
session, it would be worth the committee's time to hear of 
them, and I hope and trust that the Director of Central 
Intelligence, George Tenet, will be able to make some of those 
recent examples of successes--and there have been many--public 
so that the impression that has and is being created of broad 
intelligence failures can be dispelled.
    I can say that the Intelligence Community's support in 
Afghanistan and Iraq, as well as the global war on terror 
overall, have contributed to the speed, the precision, and the 
success of those operations and saved countless lives. We are 
blessed that so many fine individuals have stepped forward to 
serve in the Intelligence Community and are willing to work 
under great pressure and in more than a few cases risk their 
lives.
    They faced a difficult challenge in the case of Iraq. They 
knew the history of the Iraqi regime, its use of chemical 
weapons on its own people and its neighbors. They knew what had 
been discovered during the inspections after the Persian Gulf 
War, some of which was far more advanced, particularly the 
nuclear program, than the pre-Gulf War intelligence had 
indicated. They were keen observers of the reports of the U.N. 
Special Commission (UNSCOM) in the 1990s. They and others did 
their best to penetrate the secrets of the regime of Saddam 
Hussein after the inspectors left in 1998.
    It was the consensus of the Intelligence Community and of 
successive administrations of political parties and of Congress 
that reviewed the same intelligence and much of the 
international community, I might add, that Saddam Hussein was 
pursuing WMD. Saddam Hussein's behavior throughout that period 
reinforced that conclusion. He did not behave like someone who 
was disarming and wanted to prove he was doing so. He did not 
open up his country to the world, as Kazakhstan, Ukraine, and 
South Africa had previously done and as Libya is doing today.
    Instead, he continued to give up tens of billions of 
dollars in oil revenues under U.N. sanctions when he could have 
had the sanctions lifted and received those billions of dollars 
simply by demonstrating that he had disarmed if in fact he had. 
Why did he do this?
    His regime filed with the U.N. what almost everyone agreed 
was a fraudulent declaration and ignored the final opportunity 
afforded him by U.N. Security Council Resolution 1441. Why?
    Congress and the national security teams of both the 
Clinton and the Bush administrations looked at essentially the 
same intelligence. They came to similar conclusions: the Iraqi 
regime posed a danger and should be changed. Congress passed 
regime change legislation in 1998. In the end, the coalition of 
nations decided to enforce the U.N.'s resolutions.
    Dr. David Kay served in Iraq for some 6 months directing 
the work of the ISG and reporting to Director Tenet. He and the 
ISG have worked hard under difficult and dangerous conditions. 
They have brought forward important information. Dr. Kay is a 
scientist and an extremely well experienced weapons inspector. 
He has outlined for the committee his hypothesis on the 
difference between prewar estimates of Iraq's WMD and what has 
been found thus far on the ground.
    While it is too early to come to final conclusions, as he 
indicated, given the work that is still to be done, there are 
several alternative views that are currently being postulated. 
First is the theory that WMD may not have existed at the start 
of the war. I suppose that is possible but not likely.
    Second is that it is possible that WMD did exist but was 
transferred in whole or in part to one or more other countries. 
We see that theory put forward.
    Third, it is possible that the WMD existed but was 
dispersed and hidden throughout Iraq. We see that possibility 
proposed by various people.
    Next, that it is possible that WMD existed but was 
destroyed at some moment prior to the end--the beginning of the 
conflict--or that it is possible that Iraq had small quantities 
of biological or chemical agents and also a surge capability 
for rapid buildup and that we may eventually find it in the 
months ahead.
    Or, finally, there is the theory that some have put forward 
that it could have been a charade by the Iraqis, that Saddam 
Hussein fooled his neighbors and fooled the world; or that 
Saddam Hussein fooled the members of his own regime; or that 
the idea that Saddam Hussein himself might have been fooled by 
his own people, who may have tricked him into believing that he 
had capabilities that Iraq really did not have.
    These are all theories that are being put forward today. 
This much has been confirmed: The Intelligence Community got it 
essentially right on Iraq's missile programs. Iraq was 
exceeding the U.N.-imposed missile range limits and documents 
found by the ISG show evidence of high-level negotiations 
between Iraq and North Korea for the transfer of still longer-
range missile technology. If we were to accept that Iraq had a 
surge capability for biological and chemical weapons, his 
missiles could have been armed with WMD and used to threaten 
neighboring countries.
    It is the job of Dr. Kay's successor, as the chairman 
indicated, and the ISG to pursue these issues wherever the 
facts may take them. It is a difficult task. Think, it took us 
10 months to find Saddam Hussein. The reality is that the hole 
he was found hiding in was large enough to hold enough 
biological weapons to kill thousands of human beings. Our 
people had gone past that farm several times--had no idea he 
was there. Unlike Saddam Hussein, such objects, once buried, 
can stay buried. In a country the size of California, the 
chances of inspectors finding something buried in the ground 
without their being led to it by people knowledgeable about 
where it was are minimal.
    As Dr. Kay has testified, what we have learned thus far has 
not proven Saddam Hussein had what intelligence indicated and 
what we believed he had. But it also has not proven the 
opposite.
    The ISG's work is some distance from completion. There are 
some 1,300 people in the ISG in Iraq working hard to find 
ground truth. When that work is complete, we will know more. 
Whatever the final outcome, it is important that we seize the 
opportunity to derive lessons learned to inform future 
decisions. In the DOD, the Joint Forces Command has done an 
extensive review of Operation Iraqi Freedom. The Intelligence 
Community is also looking at lessons learned. It is doing it 
under the leadership of Director Tenet with Dr. Kerr. It is 
being done in other elements of the community as well.
    It is important also that we step back and take a look at 
the bigger picture and see that U.S. intelligence capabilities 
are strengthened sufficiently to meet the threats and 
challenges of this century. The President has announced that he 
will be forming a bipartisan commission on strengthening U.S. 
intelligence capabilities. The commission will review the past 
successes of the Intelligence Community as well as the cases 
that have not been successes, to examine whether the 
Intelligence Community has the right skills, the proper 
resources, and the appropriate authorities to meet the 
challenges and the threats of the 21st century.
    Intelligence will never be perfect. We do not, will not, 
and cannot know everything that is going on in this world of 
ours. If at this important moment we mistake intelligence for 
irrefutable evidence, analysts might become hesitant to inform 
policymakers of what they think they know and what they know 
that they do not know, and even what they think. Policymakers 
bereft of intelligence will find themselves much less able to 
make prudential judgments, the judgments necessary to protect 
our country.
    I am convinced that the President of the United States did 
the right thing in Iraq, let there be no doubt. I came to my 
conclusions based on the intelligence we all saw, just as each 
of you made your judgments and cast your votes based on the 
same information. The President has sworn to preserve, protect 
and defend the Nation. With respect to Iraq, he took the 
available evidence into account; he took into account September 
11; he took into account Saddam Hussein's behavior of 
deception; he took into account Iraq's ongoing defiance of the 
U.N. and the fact that he was still shooting at U.S. and U.K. 
aircraft and the crews that were enforcing U.N. resolutions in 
northern and southern no-fly zones; and he took into account 
the fact that this was a vicious regime that had used WMD 
against its own people and its neighbors and murdered and 
tortured the Iraqi people for decades.
    The President went to the U.N. and the Security Council and 
passed a seventeenth resolution, and he came here to this 
Congress and, based on the same intelligence, you voted to 
support military action if the Iraqi regime failed to take that 
final opportunity to cooperate with the U.N.
    When Saddam Hussein did pass up that final opportunity, the 
President nonetheless gave him an ultimatum, a final final 
opportunity to leave the country. Only then, when all 
alternatives had been fully exhausted, did the coalition act to 
liberate Iraq. Ours is a safer world today, and the Iraqi 
people are far better off for that action.
    Senator Warner asked in his opening statement if I know of 
any pressure on intelligence people or manipulation of 
intelligence, and the answer is absolutely not. I believe that 
Senator Roberts has attested to that from the analysts and 
witnesses that he and his committee have interrogated over a 
period of many months. I believe that Dr. Kay answered exactly 
the same way--that he talked to analyst after analyst and no 
manipulation of the data and no indication of anyone expressing 
concern about pressure.
    I thank you, Mr. Chairman, and I would be happy to turn it 
over to General Pete Pace.
    [The prepared statement of Secretary Rumsfeld follows:]
             Prepared Statement by Hon. Donald H. Rumsfeld
                              introduction
    Mr. Chairman, members of the committee, I am pleased to be here 
today to discuss the progress in the global war on terrorism, our 
transformation efforts, and to discuss the President's 2005 budget 
request for the Department of Defense.
    First, I want to commend the courageous men and women in uniform 
and the Department civilians who support them. They are remarkable--and 
what they have accomplished since our country was attacked 28 months 
ago is truly impressive. In less than 2\1/2\ years, they have:

        <bullet> Overthrown two terrorist regimes, rescued two nations, 
        and liberated some 50 million people;
        <bullet> Captured or killed 45 of the 55 most wanted in Iraq--
        including Iraq's deposed dictator, Saddam Hussein;
        <bullet> Hunted down thousands of terrorists and regime 
        remnants in Iraq and Afghanistan;
        <bullet> Captured or killed close to two-thirds of known senior 
        al Qaeda operatives;
        <bullet> Disrupted terrorist cells on most continents; and
        <bullet> Likely prevented a number of planned terrorist 
        attacks.

    Our forces are steadfast and determined. We value their service and 
sacrifice, and the sacrifice of their families, who also serve.
    We thank the members of this committee for the support you have 
shown for the troops during the global war on terror. With your 
support, we have the finest Armed Forces on the face of the Earth.
    We have a common challenge: to support the troops and to make sure 
they have what they will need to defend the Nation in the years ahead.
    We are working to do that in a number of ways:

        <bullet> By giving them the tools they need to win the global 
        war on terror;
        <bullet> By transforming for the 21st century, so they will 
        have the training and tools they need to prevail in the next 
        wars our Nation may have to fight--wars which could be notably 
        different from today's challenges; and
        <bullet> By working to ensure that we manage the force 
        properly--so we can continue to attract and retain the best and 
        brightest, and sustain the quality of the All-Volunteer Force.

    Each represents a significant challenge in its own right. Yet we 
must accomplish all of these critical tasks at once.
    When this administration took office 3 years ago, the President 
charged us with a mission--to challenge the status quo, and prepare the 
Department of Defense to meet the new threats our Nation will face as 
the 21st century unfolds.
    We have done a good deal to meet that charge. Consider just some of 
what has been accomplished:

        <bullet> We have fashioned a new defense strategy, a new force 
        sizing construct, and a new approach to balancing risks--one 
        that takes into account not just the risks in immediate war 
        plans, but also the risks to people and transformation.
        <bullet> We have moved from a ``threat-based'' to a 
        ``capabilities-based'' approach to defense planning, focusing 
        not only on who might threaten us, or where, or when--but more 
        on how we might be threatened, and what portfolio of 
        capabilities we will need to deter and defend against those new 
        threats.
        <bullet> We have fashioned a new Unified Command Plan, with

                <bullet> A new Northern Command, that became fully 
                operational last September, to better defend the 
                homeland;
                <bullet> The Joint Forces Command focused on 
                transformation; and
                <bullet> A new Strategic Command responsible for early 
                warning of, and defense against, missile attack and the 
                conduct of long-range attacks.

        <bullet> We have also transformed the Special Operations 
        Command, expanding its capabilities and its missions, so that 
        it can not only support missions directed by the regional 
        combatant commanders, but also plan and execute its own 
        missions in the global war on terror, supported by other 
        combatant commands.
        <bullet> We have taken critical steps to attract and retain 
        talent in our Armed Forces--including targeted pay raises and 
        quality of life improvements for the troops and their families.
        <bullet> We have instituted realistic budgeting, so the 
        Department now looks to emergency supplementals for the unknown 
        costs of fighting wars, not to sustain readiness.
        <bullet> We have reorganized the Department to better focus our 
        space activities.
        <bullet> Congress has established a new Under Secretary of 
        Defense for Intelligence and an Assistant Secretary of Defense 
        for Homeland Defense.
        <bullet> We have completed the Nuclear Posture Review, and 
        adopted a new approach to deterrence that will enhance our 
        security, while permitting historic deep reductions in 
        offensive nuclear weapons.
        <bullet> We have pursued a new approach to developing military 
        capabilities. Instead of developing a picture of the perfect 
        system and then building the system to meet that vision of 
        perfection, however long it takes or costs, the new approach is 
        to start with the basics, roll out early models faster, and 
        then add capabilities to the basic system as they become 
        available.
        <bullet> We have reorganized and revitalized the missile 
        defense research, development, and testing program, and are on 
        track to begin deployment of our Nation's first rudimentary 
        ballistic missile defenses later this year.
        <bullet> We have established new strategic relationships, that 
        would have been unimaginable just a decade ago, with nations in 
        Central Asia, the Caucasus, and other critical areas of the 
        world.
        <bullet> We have transformed the way the Department prepares 
        its war plans--reducing the time it takes to develop those 
        plans, increasing the frequency with which they are updated, 
        and structuring our plans to be flexible and adaptable to 
        changes in the security environment.
        <bullet> We adopted a new ``Lessons Learned'' approach during 
        Operation Iraqi Freedom, embedding a team with U.S. Central 
        Command that not only studied lessons for future military 
        campaigns, but provided real-time feedback that had an 
        immediate impact on our success in Iraq.
        <bullet> We made a number of key program decisions that are 
        already having a favorable impact on the capability of the 
        force. Among others:

                <bullet> We are converting four Trident nuclear-powered 
                ballistic missile submarines (SSBN) into conventional 
                nuclear-powered cruise missile attack submarines (SSGN) 
                capable of delivering special forces and cruise 
                missiles into denied areas.
                <bullet> The Army has deployed its first Stryker 
                brigade to Iraq, is completing conversion of the 
                second, and is replacing the Crusader with a new family 
                of precision artillery that is being developed for the 
                Future Combat System.
                <bullet> We have revitalized the B-1 bomber fleet by 
                reducing its size and using the savings to modernize 
                the remaining aircraft with precision weapons and other 
                critical upgrades.

        <bullet> We have also undertaken a comprehensive review of our 
        global force posture, so we can transform U.S. global 
        capabilities from a structure driven by where the wars of the 
        20th century ended, to one that positions us to deal with the 
        new threats of the 21st century security environment.
        <bullet> Using authority granted to us last year, we have 
        established a new Joint National Training Capability, that will 
        help us push joint operational concepts throughout the 
        Department, so our forces train and prepare for war the way 
        they will fight it--jointly.
        <bullet> We have worked with our Allies to bring NATO into the 
        21st century--standing up a new NATO Response Force that can 
        deploy in days and weeks instead of months or years, and 
        transforming the NATO Command Structure--including the creation 
        of a new NATO command to drive Alliance transformation.
        <bullet> With the help of Congress last year, we are now 
        establishing a new National Security Personnel System that 
        should help us better manage our 746,000 civilian employees, 
        and we are using the new authorities granted us last year to 
        preserve military training ranges while keeping our commitment 
        to responsible stewardship of the environment.

    The scope and scale of what has been accomplished is remarkable. It 
will have an impact on the capability of our Armed Forces for many 
years to come.
    We will need your continued support as we go into the critical year 
ahead.
    Our challenge is to build on these successes, and continue the 
transformation efforts that are now underway. In 2004, our objectives 
are to:

        <bullet> Successfully prosecute the global war on terror;
        <bullet> Further strengthen our combined and joint warfighting 
        capabilities;
        <bullet> Continue transforming the joint force, making it 
        lighter, more agile and more easily deployable, and instilling 
        a culture that rewards innovation and intelligent risk-taking;
        <bullet> Strengthen our intelligence capabilities, and refocus 
        our intelligence efforts to support the new defense strategy 
        and our contingency plans;
        <bullet> Reverse the existing WMD capabilities of unfriendly 
        states and non-state actors, and stop the global spread of WMD;
        <bullet> Improve our management of the force;
        <bullet> Refocus our overseas presence, further strengthen key 
        alliances, and improve our security cooperation with nations 
        that are likely partners in future contingencies;
        <bullet> Continue improving and refining DOD's role in homeland 
        security and homeland defense; and
        <bullet> Further streamline DOD processes, continuing financial 
        management reform, and shortening acquisition cycle times.

    So, we have an ambitious agenda. But none of these tasks can be put 
off.
    Our task is to prepare now for the tomorrow's challenges, even as 
we fight today's war on terror.
                           managing the force
    One effect of the global war on terror has been a significant 
increase in operational tempo, which has resulted in an increased 
demand on the force. Managing the demand on the force is one of our top 
priorities. But to do so, we must be clear about the problem--so we can 
work together to fashion the appropriate solutions.
    The increased demand on the force we are experiencing today is 
likely a ``spike,'' driven by the deployment of nearly 115,000 troops 
in Iraq. We hope and anticipate that that spike will be temporary. We 
do not expect to have 115,000 troops permanently deployed in any one 
campaign.
    But for the moment, the increased demand is real--and we are taking 
a number of immediate actions. Among other things:

        <bullet> We are increasing international military participation 
        in Iraq.

                <bullet> As the President noted in his State of the 
                Union address, 34 countries now have forces deployed in 
                Iraq with U.S. forces and Iraqi security forces.
                <bullet> Japan began deploying its Self-Defense Forces 
                to Iraq last month--the first time Japanese forces have 
                been deployed outside their country since the end of 
                World War II.

        <bullet> As more international forces deploy, we have 
        accelerated the training of Iraqi security forces--now more 
        than 200,000-strong--to hasten the day when the Iraqis 
        themselves will be able to take responsibility for the security 
        and stability of their country, and all foreign forces can 
        leave.
        <bullet> As we increase Iraq's capability to defend itself, our 
        forces are dealing aggressively with the threat--hunting down 
        those who threaten Iraq's stability and transition to self-
        reliance.

    Another way to deal with the increased demand on the force is to 
add more people. We have already done so. Using the special powers 
granted by Congress, we have increased force levels by nearly 33,000 
above the pre-emergency authorized end strength.

        <bullet> The Army is up roughly 7,800 above authorized end 
        strength;
        <bullet> The Navy is up roughly 6,000;
        <bullet> The Marine Corps is up some 2,000, and
        <bullet> The Air Force is up about 17,000.

    If the war on terror demands it, we will not hesitate to increase 
force levels even more using our emergency authorities. Because we are 
using emergency powers, we have the flexibility to reduce force levels 
in the period ahead, as the security situation permits, and as our 
transformation efficiencies bear fruit.
    But it should give us pause that even a temporary increase in our 
force levels was, and remains, necessary. Think about it: At this 
moment we have a force of 2.6 million people, both active and Reserve:

        <bullet> 1.4 million Active Forces,
        <bullet> 876,000 in the Selected Reserve--that is the Guard and 
        Reserve Forces in units; and
        <bullet> An additional 287,000 in the Individual Ready 
        Reserves.

    Yet, despite these large numbers, the deployment of 115,000 troops 
in Iraq has required that we temporarily increase the size of the force 
by some 33,000.
    That should tell us a great deal about how our forces are 
organized.
    It suggests strongly that the real problem is not the size of the 
force, per se, but rather the way the force has been managed, and the 
mix of capabilities at our disposal. It suggests that our challenge is 
considerably more complex than simply adding more troops.
    General Pete Schoomaker, the Army Chief of Staff, compares the 
problem to a barrel of rainwater, on which the spigot is placed too 
high up. When you turn it on, it only draws water off the top, while 
the water at the bottom can't be used. The answer to this problem is 
most certainly not a bigger rain barrel; the answer is to move the 
spigot down, so that more of the water is accessible and can be used.
    In other words, our challenge today is not simply one of increasing 
the size of the force. Rather, we must better manage the force we 
have--to make sure we have enough people in the right skill sets and so 
that we take full advantage of the skills and talents of everyone who 
steps forward and volunteers to serve.
    Consider another example: I keep hearing people talk about the 
stress on the Guard and Reserve--that we can't keep calling them up for 
repeated mobilizations. Well the fact is, since September 11, 2001, we 
have mobilized roughly 36 percent of the Selected Reserve--a little 
over one-third of the available forces--and most of those mobilizations 
are concentrated in certain skill sets. For example:

        <bullet> We have called up 86 percent of enlisted installation 
        security forces
        <bullet> 69 percent of enlisted law enforcement forces
        <bullet> 67 percent of enlisted air crews
        <bullet> 65 percent of enlisted special forces
        <bullet> 56 percent of civil affairs officers
        <bullet> 51 percent of military police officers
        <bullet> 48 percent of intelligence officers

    But, while certain skills are in demand, only a tiny fraction of 
the Guard and Reserve--just 7.15 percent--have been called up more than 
once since 1990. The vast majority of our Guard and Reserve Forces--
over 60 percent--have not been mobilized to fight the global war on 
terror. Indeed, I am told that a full 58 percent of the current 
Selected Reserve--or about 500,000 troops--have not been involuntarily 
mobilized in the past 10 years.
    What does that tell us?

        <bullet> First, it argues that we have too few Guard and 
        Reserve Forces with certain skill sets that are high demand and 
        too many Guard and Reserve with skills that are in little or no 
        demand.
        <bullet> Second, it indicates that we need to rebalance the 
        skill sets within the Reserve component, and between the active 
        and Reserve components, so we have enough of the right kinds of 
        forces available to accomplish our missions.
        <bullet> Third, it suggests that we need to do a far better job 
        of managing the force. That requires that we focus not just on 
        the number of troops available today--though that is 
        important--but on transforming the forces for the future, 
        making sure we continue to increase the capability of the 
        force, and thus our ability to do more with fewer forces.

    We are working to do just that.
                          mass vs. capability
    One thing we have learned in the global war on terror is that, in 
the 21st century, what is critical to success in military conflict is 
not necessarily mass as much as it is capability.
    In Operation Iraqi Freedom, coalition forces defeated a larger 
adversary. They did it not by bringing more troops to the fight, which 
we could have done, but by overmatching the enemy with superior speed, 
power, precision and agility.
    To win the wars of the 21st century, the task is to make certain 
our forces are arranged in a way to ensure we can defeat any adversary, 
and conduct all of the operations necessary to achieve our strategic 
objectives.
    In looking at our global force posture review, some observers have 
focused on the number of troops, tanks, or ships that we might add or 
remove in a given part of the world. I would submit that that may well 
not be the best measure.
    If you have 10 of something--say ships, for the sake of argument--
and you reduce the number by 5, you end up with 50 percent fewer of 
them. But if you replace the remaining five ships with ships that have 
double the capability of those removed, then obviously you have not 
reduced capability even though the numbers have been reduced.
    The same is true as we look at the overall size of the force. What 
is critical is the capability of the Armed Forces to project power 
quickly, precisely, and effectively anywhere in the world.
    For example, today the Navy is reducing force levels. Yet because 
of the way they are arranging themselves, they will have more combat 
power available than they did when they had more people.
    In Operation Iraqi Freedom, the Navy surged more than half the 
fleet to the Persian Gulf region for the fight. With the end of major 
combat operations, instead of keeping two or three carrier strike 
groups forward deployed, as has been traditional Navy practice, they 
quickly redeployed all their carrier strike groups to home base. By 
doing so, they reset their force in a way that will allow them to surge 
over 50 percent more combat power on short notice to deal with future 
contingencies.
    The result? Today, six aircraft carrier strike groups are available 
to respond immediately to any crisis that might confront us. That 
capability, coupled with the application of new technologies, gives the 
Navy growing combat power and greater flexibility to deal with global 
crises--all while the Navy is moderately reducing the size of its 
Active Force.
    The Army, by contrast, has put forward a plan that, by using 
emergency powers, will increase the size of its Active Force by roughly 
6 percent or up to 30,000 troops above authorized end strength. But 
because of the way they will do it, General Schoomaker estimates the 
Army will be adding not 6 percent, but up to 30 percent more combat 
power.
    This is possible because, instead of adding more divisions, the 
Army is moving away from the Napoleonic division structure designed in 
the 19th century, focusing instead on creating a 21st century ``Modular 
Army'' made up of self-contained, more self-sustaining brigades that 
are available to work for any division commander.
    So, for example, in the event of a crisis, the 4th Infantry 
Division commander could gather two of his own brigades, and combine 
them with available brigades from, say, the 1st Armored Division and 
the National Guard, and deploy them together. The result of this 
approach is jointness within the Service, as well as between the 
Services. That jointness--combined with other measures--means that 75 
percent of the Army's brigade structure should always be ready in the 
event of a crisis.
    The Army's plan would increase the number of active and Reserve 
brigades significantly over the next 4 years. But because we will be 
using emergency powers, we will have the flexibility to reduce the 
number of troops if the security situation permits--so the Army would 
not be faced with the substantial cost of supporting a larger force as 
the security situation and the efficiencies permit.
    Yet even if the security situation, and our progress in 
transformation, were to permit the Army to draw down the force, the new 
way they are arranging their forces will ensure the U.S. still has more 
ground combat power--more capability.
    So we have two different approaches:

        <bullet> In one case, the Navy is reducing force levels while 
        increasing capability;
        <bullet> In the other, the Army is increasing troop levels--but 
        doing so in a way that will significantly increase its 
        capability.
        <bullet> In both cases, the increase in capability of each 
        Service will be significant.

    The point is: our focus needs to be on more than just numbers of 
troops. It should be on finding ways to better manage the forces we 
have, and by increasing the speed, agility, modularity, capability, and 
usability of those forces.
                            dod initiatives
    Today, using authorities and flexibility Congress has provided, DOD 
has several dozen initiatives underway to improve management of the 
force, and increase its capability.
    Among other things:

        <bullet> We are investing in new information age technologies, 
        precision weapons, unmanned air and sea vehicles, and other 
        less manpower-intensive platforms and technologies.
        <bullet> We are working to increase the jointness of our 
        forces, creating power that exceeds the sum of individual 
        services.
        <bullet> We are using new flexibility under the Defense 
        Transformation Act to take civilian tasks currently done by 
        uniformed personnel and convert them into civilian jobs--
        freeing military personnel for military tasks.
        <bullet> This year, we will begin to move 10,000 military 
        personnel out of civilian tasks and return them to the 
        operational force--effectively increasing force levels by an 
        additional 10,000 service members in 2004. An additional 10,000 
        conversions are planned for 2005.
        <bullet> We have begun consultations with allies and friends 
        about ways to transform our global force posture to further 
        increase capability.

    We are also working to rebalance the active and Reserve components. 
We are taking skills that are now found almost exclusively in Reserve 
components and moving them into the Active Force, so that we are not 
completely reliant on the Guard and Reserve for those needed skills. In 
both the active and Reserve components, we are moving forces out of low 
demand specialties, such as heavy artillery, and into high-demand 
capabilities such as military police, civil affairs, and Special 
Operations Forces.
    Already, in 2003, the Services have rebalanced some 10,000 
positions within and between the active and Reserve components. For 
example, the Army is already transforming 18 Reserve field artillery 
batteries into military police. We intend to expand those efforts this 
year, with the Services rebalancing an additional 20,000 positions in 
2004, and 20,000 more in 2005--for a total of 50,000 rebalanced 
positions by the end of next year.
    We are also working to establish a new approach to military force 
management called ``Continuum of Service.'' The idea is to create a 
bridge between the active and Reserve components--allowing both Active 
and Reserve Forces greater flexibility to move back and forth between 
full-time and part-time status, and facilitating different levels of 
participation along that continuum.
    Under this approach, a reservist who normally trains 38 days a year 
could volunteer to move to full-time service for a period of time--or 
some increased level of service between full-time and his normal 
Reserve commitment, offering options for expanded service that do not 
require abandoning civilian life. Similarly, an active service member 
could request transfer into the Reserve component for a period of time, 
or some status in between, without jeopardizing his or her career and 
opportunity for promotion. It would give military retirees with needed 
skills an opportunity to return to the Service on a flexible basis--and 
create opportunities for others with specialized skills to serve, so we 
can take advantage of their experience when the country needs it.
    For example, coalition forces in Iraq need skilled linguists--so 
under the Continuum of Service approach we have recruited 164 Iraqi-
Americans into a special Individual Ready Reserve program, and expect 
to deploy the first program graduates to Iraq this spring.
    The ``Continuum of Service'' would allow the Armed Forces to better 
take advantage of the high-tech skills many reservists have developed 
by virtue of their private sector experience--while at the same time 
creating opportunities for those in the Active Force to acquire those 
kinds of skills and experiences. It encourages volunteerism and 
improves our capability to manage the military workforce in a flexible 
manner with options that currently exist only in the private sector.
    We have also been working to fix the mobilization process. We have 
worked hard over the past year to add more refined planning tools to 
the process, and make it more respectful of the troops, their families, 
and their employers. Among other things:

        <bullet> We have tried to provide earlier notifications, giving 
        troops as much notice as possible before they are mobilized, so 
        they can prepare and arrange their lives before being called 
        up;
        <bullet> We have worked to ensure that when they are called up, 
        it is for something important and needed--and not to replace 
        someone in a task that could wait until a contingency is over;
        <bullet> We've tried to ensure that the number of people who 
        have been recently mobilized is as small as possible, and that 
        as many of the forces as possible that are remobilized or 
        extended are volunteers;
        <bullet> We have tried to limit tours, and give the troops some 
        certainty about the maximum length of their mobilization and 
        when they can expect to resume civilian life. We are doing 
        better, but in my opinion, the process is still not good 
        enough.

    We are working each day to make the process better, and more 
respectful of the brave men and women who make up the Guard and 
Reserve.
    As you can see, we have a number of initiatives underway that we 
are confident will improve the management and treatment of the Guard 
and Reserve Forces.
    The men and women who make up the Guard and Reserve are all 
volunteers. They signed up because they love their country, and want to 
serve when the country needs them.
    A number of you on this committee have served in the Guard and 
Reserve, as have I. Each of us knew when we signed up, it was not to 
serve 1 weekend a month and 2 weeks active duty. We signed up so that 
if war was visited upon our country, we would be ready to leave our 
work and family, and become part of the Active-Duty Force.
    Well, on September 11, war was visited on our country. Our nation 
was attacked--more than 3,000 innocent men, women, and children were 
killed in an instant. At this moment, in caves and underground bunkers 
half-a-world away, dangerous adversaries are planning new attacks--
attacks they hope will be even more deadly than the one on September 
11.
    We are a nation at war. If we were not to call up the Guard and 
Reserves today, then why would we want to have them at all? Why were we 
asking them to sacrifice time with their families every month to train? 
Why are the taxpayers paying for postservice benefits, including 
healthcare and retirement pay, that add up to between $250,000 and 
$500,000 per reservist?
    This is the purpose of the Guard and Reserve. It is what they 
signed up for. I know that the vast majority are eager to be in the 
fight--a fact born out by the large number of those who stepped forward 
and volunteered to be mobilized for service in Iraq.
    Our challenge--our responsibility--is to do everything we can to 
see that they are treated respectfully, managed effectively, and that 
they have the tools they need to win today's war, and to deter future 
wars.
    We are working to do just that--to better manage the force, and to 
transform the force to make it more capable for the 21st century.
    Today, with authority granted by Congress, DOD has the flexibility 
to adjust troop levels, as the security situation requires.

        <bullet> We have authority to increase or decrease, as need 
        arises.
        <bullet> We are using that authority; and
        <bullet> We are working on a number of new initiatives that 
        will allow us to better manage and transform the force.

    However, we believe that a statutory end strength increase would 
take away our current flexibility to manage the force:

        <bullet> First, if the current increased demand turns out to be 
        a spike and if we are successful in the transformation and 
        rebalancing initiatives underway, the Department would face the 
        substantial cost of supporting a larger force when it may no 
        longer be needed--pay and benefits, such as lifetime 
        healthcare, for each service member added, not to mention the 
        additional costs in equipment, facilities, and force 
        protection.
        <bullet> Second, if we permanently increase statutory end 
        strength, instead of using the already available emergency 
        powers, we will have to take the cost out of our top line. That 
        will require cuts in other parts of the defense budget--
        crowding out investments in the very programs that will allow 
        us to manage the force and make it more capable.

    None of us has a crystal ball to see into the future. You have 
given us the authority to adjust the size of the force and the 
flexibility to deal with unknowns. We have been using that authority 
over the past 2-plus years, even as we work to implement comprehensive 
measures to better manage the force. I urge Congress to not lock us 
into a force size and structure that may or may not be appropriate in 
the period ahead.
    Instead, help us to support the Armed Services with the 
transformational initiatives they now have underway; help us rebalance 
the Active and Reserve Force, and give the troops more options to 
contribute along an expanded continuum of service; help us add 
capability, and transform the force for the future.
                              2005 budget
    The President's 2005 budget requests the funds to do just that.
    The President's first defense budgets were designed while our 
defense strategy review was still taking place. It was last year's 
budget--the 2004 request--that was the first to fully reflect the new 
defense strategies and policies.
    One of the key budget reforms we implemented last year is the 
establishment of a 2-year budgeting process in the Department of 
Defense--so that the hundreds of people who invest time and energy to 
rebuild major programs every year can be freed up and not be required 
to do so on an annual basis, and can focus more effectively on 
implementation.
    The 2005 budget before you is, in a real sense, a request for the 
second installment of funding for the priorities set out in the 
President's 2004 request.
    We did not rebuild every program. We made changes to just 5 percent 
of the Department's planned 2005 budget, and then only on high-interest 
and must-fix issues--and then only when the costs incurred to mitigate 
risks could be matched by savings elsewhere in the budget.
    The President's 2005 budget requests continued investments to 
support the six transformational goals we identified in our 2001 
defense review:

        <bullet> First, we must be able to defend the U.S. homeland and 
        bases of operation overseas;
        <bullet> Second, we must be able to project and sustain forces 
        in distant theaters;
        <bullet> Third, we must be able to deny enemies sanctuary;
        <bullet> Fourth, we must improve our space capabilities and 
        maintain unhindered access to space;
        <bullet> Fifth, we must harness our advantages in information 
        technology to link up different kinds of U.S. forces, so they 
        can fight jointly; and
        <bullet> Sixth, we must be able to protect U.S. information 
        networks from attack--and to disable the information networks 
        of our adversaries.

    In all, in 2005, we have requested $29 billion for investments in 
transforming military capabilities that will support each of these 
critical objectives.
    The President's 2005 budget requests $10.3 billion for missile 
defense, including:

        <bullet> $9.2 billion for the Missile Defense Agency--an 
        increase of $1.5 billion above the President's 2004 request; 
        and
        <bullet> $1 billion for Patriot Advanced Capability-3, the 
        Medium Extended Air Defense System, and other short and medium 
        range capabilities;

    The budget also includes $239 million in funding for accelerated 
development of Cruise Missile Defense, with the goal of fielding an 
initial capability in 2008;
    The 2005 budget request includes critical funds for Army 
Transformation, including:

        <bullet> $3.2 billion to support continued development of the 
        Future Combat Systems--an increase of $1.5 billion over the 
        2004 budget; and
        <bullet> $1.0 billion to fund continued deployment of the new 
        Stryker Brigade Combat Teams, such as the one now serving in 
        Iraq.

    We have also requested additional funds to strengthen intelligence, 
including critical funds to increase DOD Human Intelligence (HUMINT) 
capabilities, persistent surveillance, as well as technical analysis 
and information sharing to help us better ``connect the dots.''
    To enhance our communications and intelligence activities, we are 
requesting:

        <bullet> $408 million to continue development of the Space 
        Based Radar (SBR)--which will bring potent and transformational 
        capabilities to joint warfighting--the ability to monitor both 
        fixed and mobile targets, deep behind enemy lines and over 
        denied areas, in any kind of weather. SBR is the only system 
        that can provide such capability.
        <bullet> $775 million for the Transformational Communications 
        Satellite (TSAT) which will provide the joint warfighter with 
        unprecedented communication capability. To give you an idea of 
        the speed and situational awareness the TSAT will provide, 
        consider that transmitting a Global Hawk image over a current 
        Milstar II, as we do today, takes over 12 minutes with TSAT it 
        will take less than a second.
        <bullet> $600 million for the Joint Tactical Radio System, to 
        provide wireless internet capability to enable information 
        exchange among joint warfighters.

    The budget also requests $700 million for Joint Unmanned Combat Air 
Systems (J-UCAS)--a program that consolidates all the various unmanned 
combat air vehicle programs, and focuses on developing a common 
operating system.
    The budget requests $14.1 billion for major tactical aircraft 
programs, including:

        <bullet> $4.6 billion for the restructured Joint Strike Fighter 
        (JSF) program;
        <bullet> $4.7 billion to continue procurement of the F/A-22;
        <bullet> $3.1 billion to continue procurement of the F/A-18E/F; 
        and
        <bullet> $1.7 billion to support development and procurement of 
        11 V-22 aircraft.

    The budget requests funds for Navy fleet transformation, including 
$1 billion to continue funding the new CVN-21 aircraft carrier, and 
$1.6 billion to continue development of a family of 21st century 
surface combatants including the DDX destroyer, the littoral combat 
ship, and the CG(X) cruiser.
    We have requested $11.1 billion to support procurement of 9 ships 
in 2005. Fiscal year 2005 begins a period of transition and 
transformation for shipbuilding as the last DDG 51 destroyers are 
built, and the first DD(X) destroyer and Littoral Combat Ship are 
procured. This increased commitment is further shown in the average 
shipbuilding rate for fiscal years 2005-2009 of 9.6 ships per year. 
This will sustain the current force level and significantly add to Navy 
capabilities.
    In all, the President has requested $75 billion for procurement in 
2005 and $69 billion for Research, Development, Testing and 
Evaluation--funds that are vital to our transformation efforts.
    Another area critical to transformation is joint training. Last 
year, Congress approved funding to establish a new Joint National 
Training Capability (JNTC), an important initiative that will 
fundamentally change the way our Armed Forces train for 21st century 
combat.
    We saw the power of joint warfighting in Operation Iraqi Freedom. 
Our challenge is to bring that kind of joint warfighting experience to 
the rest of the forces, through both live and virtual joint training 
and exercises. Thanks to the funds authorized in the 2004 budget, the 
JNTC's initial operating capability is scheduled to come online in 
October of this year. We have requested $191 million to continue and 
expand the JNTC in 2005.
    With your help, we have put a stop to the past practice of raiding 
investment accounts to pay for the immediate operation and maintenance 
needs. The 2005 request continues that practice. We have requested full 
funding for the military's readiness accounts, providing $140.6 billion 
for Operation and Maintenance (O&M) including $43 billion for training 
and operations. These funds are critical to transformation because they 
allow us to pay today's urgent bills without robbing the future to do 
so.
    We have also requested funds to support pay and quality of life 
improvements for the troops--including a 3.5 percent military base pay 
raise. We have requested funds in the 2005 budget that will also help 
the Department keep its commitment to eliminate 90 percent of 
inadequate military family housing units by 2007, with complete 
elimination projected for 2009. We have requested funds to complete the 
elimination of out-of-pocket housing costs for military personnel 
living in private housing. Before 2001, the average service member had 
to absorb over 18 percent of these costs. By the end of fiscal year 
2005, it will be zero. These investments are important to the troops, 
and also to their families, who also serve--and deserve to live in 
decent and affordable housing.
    I am also appointing a commission to conduct a comprehensive review 
of military compensation and benefits, with a view toward simplifying 
and improving them. Today, we have too many pay categories that serve 
overlapping purposes, or provide incentives where they are most needed. 
Before making major changes, I urge you to allow the Department to 
first develop a comprehensive and integrated set of compensation 
proposals, which we will submit to you next year.
    We are also making progress in getting our facilities replacement 
and recapitalization rate in proper alignment. When we arrived in 2001, 
the Department was replacing its buildings at a totally unacceptable 
average of once every 192 years. Today, we have moved the rate down for 
the third straight year, though it is still too high--to an average of 
107 years. The 2005 budget requests $4.3 billion for facilities 
recapitalization, keeping us on track toward reaching our target rate 
of 67 years by 2008. We have funded 95 percent of facilities 
maintenance requirements--up from 93 percent in fiscal year 2004.
    The budget also supports our continuing efforts to transform the 
way DOD does business. With the passage of the Defense Transformation 
Act last year, we now have the needed authority to establish a new 
National Security Personnel System, so we can better manage DOD's 
civilian personnel. Initial implementation will begin this year, and 
cover roughly 300,000 of DOD's 746,000 civilian employees.
    Yet, while progress has been made, the Defense Department still 
remains bogged down by bureaucratic processes of the industrial age, 
not the information age. We are working to change that. To help us do 
so, we have requested funds for a Business Management Modernization 
Program that will help us overhaul DOD management processes and the 
information technology systems that support them.
    We have also requested that Congress nearly double the Department's 
General Transfer Authority, from the current limit of $2.1 billion to 
$4 billion, or roughly 1 percent of the DOD budget. In an age when 
terrorists move information at the speed of an email, money at the 
speed of a wire transfer, and people at the speed of a commercial 
jetliner, it is critical that we have the ability to shift funds 
between priorities.
    We also need your continuing support for two initiatives that are 
critical to 21st century transformation: the Global Posture Review, and 
the Base Realignment and Closure (BRAC) Commission round scheduled for 
2005.
    Mr. Chairman, I cannot overemphasize the importance of proceeding 
with both of these initiatives.
    We need BRAC to rationalize our infrastructure with the new defense 
strategy, and to eliminate unneeded bases and facilities that are 
costing the taxpayers billions of dollars to support.
    We need the Global Posture Review to help us reposition our forces 
around the world--so they are stationed not simply where the wars of 
the 20th century ended, but rather are arranged in a way that will 
allow them to deter, and as necessary, defeat potential adversaries who 
might threaten our security, or that of our friends and allies, in the 
21st century.
    These two efforts are inextricably linked.
    It is critical that we move forward with both BRAC and the Global 
Posture Review--so we can rationalize our foreign and domestic force 
posture. We appreciate Congress' decision to authorize a BRAC round in 
2005--and will continue to consult with you as we proceed with the 
Global Posture Review.
                               conclusion
    Mr. Chairman, the President has asked Congress for a total of 
$401.7 billion for fiscal year 2005--an increase over last year's 
budget. Let there be no doubt: it is a large amount of the taxpayer's 
hard-earned money. Such investments will likely be required for a 
number of years to come because our Nation is engaged in a struggle 
that could well go on for a number of years to come.
    Our objective is to ensure that our Armed Forces remain the best 
trained, best equipped fighting force in the world--and that we treat 
the volunteers who make up the force with respect commensurate with 
their service, their sacrifice, and their dedication.
    Their task is not easy: they must fight and win a global war on 
terror that is different from any our Nation as fought before. They 
must do it, while at the same time preparing to fight the wars of 2010 
and beyond--wars which may be as different from today's conflict, as 
the global war on terror is from the conflicts of the 20th century.
    So much is at stake.
    Opportunity and prosperity are not possible without the security 
and stability that our Armed Forces provide.
    The United States can afford whatever is necessary to provide for 
the security of our people and stability in the world. We can continue 
to live as free people because the industriousness and ingenuity of the 
American people have provided the resources to build the most powerful 
and capable Armed Forces in human history--and because we have been 
blessed with the finest young men and women in uniform--volunteers 
all--that the world has known.
    They are courageous; they are selfless; and they are determined. 
They stand between this nation and our adversaries, those who wish to 
visit still further violence on our cities, our homes and our places of 
work. The men and women of the Armed Forces are hunting the enemies of 
freedom down--capturing or killing them in the far corners of the 
world, so they will not kill still more innocent men, women, and 
children here at home.
    We are grateful to them and proud of them. We stand ready to work 
with you to ensure they are treated with the dignity they deserve, and 
the respect they earn every day.
    Thank you, Mr. Chairman. I'd be pleased to respond to questions.

    Chairman Warner. Thank you, Mr. Secretary. That was a very 
strong, informative, and forthright statement, and I commend 
you for it.
    General Pace. Mr. Chairman, members of the committee: Thank 
you very much for this opportunity, and thank you, Mr. 
Chairman, for your words of condolence to General Myers and his 
family. I know they deeply appreciate that.
    General Myers did write a written statement for submission 
to this committee, and I would ask that his statement be 
accepted.
    Chairman Warner. Without objection, the statement of all 
witnesses today will be incorporated in entirety in the record.
    General Pace. Thank you, sir.
    Sir, I will keep my remarks short, but I would be remiss if 
I did not say a couple of things. First, thank you to this 
committee and to Congress for your strong, sustained, 
bipartisan support of the military. I would like to dwell on 
that for a second. This is not a pro forma statement. You said 
in your statement, Mr. Chairman, that we have the best trained, 
best equipped, most capable Armed Forces in the world. We have 
that because of the resources that Congress provides, and we 
deeply appreciate it.
    Second, a thank-you to the service men and women who serve 
our country. They are magnificent. They are doing everything we 
are asking them to do, and we are very proud of what they are 
doing.
    Next, their families who serve at home, whose sacrifices at 
home are often as equal to or greater than the servicemen and 
women that they are providing support to overseas--we owe a 
great debt of gratitude as a Nation to their families.
    We also should thank the employers of our National Guard 
and Reserve. We could not do what we are doing without the 
skills of our Guard and Reserve. They are quality people, and 
because they are quality people, there is no doubt in my mind 
that there are businesses around the United States that have 
gaps of quality in them because their reservist or their 
guardsman is away from home. We deeply appreciate the 
employers' support of those members so they can help protect 
our country.
    We are a Nation at war, but we are not alone. We have 
invaluable coalition partners, and, together with those 
coalition partners, we will protect our homelands and we will 
defeat terrorism.
    This will be a long and difficult fight, but it is a fight 
worthy of the extraordinary efforts of your soldiers, sailors, 
airmen, marines, and coast guardsmen. When you visit them--and 
many of you have and we thank you for that--you look them in 
the eye. You know they get it. They understand what is at 
stake. They are proud of what they are doing. They know that 
their good works do not always make the evening news, but they 
also know that the roads, the hospitals, schools, electric 
grids, power plants, all the things that they are doing to help 
restore the basics of society in both Iraq and Afghanistan, are 
in fact critical to success.
    Their extraordinary efforts have been and must continue to 
be matched here at home by our collective will, patience, and 
commitment. Our Nation and those who defend her deserve no 
less.
    I am proud to sit here before you today representing all 
the men and women of our Armed Forces. I am proud to be a part 
of this process with you, and I look forward to your questions.
    [The prepared statement of General Myers follows:]
           Prepared Statement by Gen. Richard B. Myers, USAF
    I am privileged to report to Congress on the state of the United 
States Armed Forces.
    As they were a year ago, our Nation's soldiers, sailors, airmen, 
marines, and guardsmen are currently operating within our borders and 
around the globe with dedication, courage and professionalism, 
alongside our coalition partners, to accomplish a variety of very 
demanding missions. Global terrorism remains a serious threat, and the 
stakes in the global war on terrorism remain high.
    Over the past year, I have told you that with the patience, will, 
and commitment of our Nation we would win the war on terrorism. The 
support we have received from Congress has been superb. From 
congressional visits to deployed personnel, to support for 
transformational warfighting programs, to funding for security and 
stability operations, to improved pay and benefits for our troops, your 
support for our service men and women has enabled us to make 
significant progress in the war on terrorism.
    We are winning. Saddam Hussein no longer terrorizes the Iraqi 
people or his neighbors; he is in custody awaiting justice. The Iraqi 
people are well on their way to establishing a prosperous and peaceful 
future. They have already assumed a significant role in providing for 
their own security, and the list of important accomplishments in every 
sector--education, medical care, business, agriculture, energy, and 
government, to name a few--is long and growing. We have made 
substantial progress in Afghanistan as well. The recent Constitutional 
Loya Jirga is an encouraging example of democracy in action. In both 
countries, as in the Horn of Africa and other areas, U.S. and coalition 
personnel work together to capture or kill terrorists, while at the 
same time improving infrastructure and economic conditions so that 
peace and freedom can take hold.
    Despite the operational demands on our forces, we remain ready to 
support the President's National Security Strategy to assure our 
allies, while we dissuade, deter and defeat any adversary. The draft 
National Military Strategy (NMS), developed in consultation with the 
service chiefs and combatant commanders describes the ways we will 
conduct military operations to protect the United States against 
external attack and aggression, and how we will prevent conflict and 
surprise attack and prevail against adversaries. The strategy requires 
that we possess the forces to defend the U.S. homeland and deter 
forward in four critical regions. If required, we will swiftly defeat 
the efforts of two adversaries in an overlapping timeframe, while 
having the ability to ``win decisively'' in one theater. In addition, 
because we live in a world marked by uncertainty, our forces must also 
be prepared to conduct a limited number of lesser contingencies while 
maintaining sufficient force generation capabilities as a hedge against 
future challenges.
    We appreciate your continued support giving our dedicated personnel 
the warfighting systems and quality of life they deserve. Our challenge 
for the coming year and beyond is to stay the course in the war on 
terrorism as we continue to transform our Armed Forces to conduct 
future joint operations. We cannot afford to let our recent successes 
cause us to lose focus or lull us into satisfaction with our current 
capabilities. The war is not over, and there is still dangerous work to 
do. To meet this challenge, we continue to focus on three priorities: 
winning the war on terrorism, enhancing joint warfighting, and 
transforming for the future.
                            war on terrorism
    Twenty-eight months after the terrorist attacks on September 11, 
defeating global terrorism remains our military's number one priority. 
We will continue to fight this war on many different fronts, because 
terrorism comes in many different forms. The stakes remain high, but 
our resolve remains firm.
    The more experience we gain in this fight, the more we recognize 
that success is dependent on a well-integrated military, interagency 
and coalition effort. This means the coordinated commitment of the 
military, diplomatic, informational, economic, financial, law 
enforcement, and intelligence resources of our Nation--all instruments 
of our national power. On the international level, coalition military 
and interagency cooperation has been remarkable. In Iraq, coalition 
forces from 34 nations are working hard to bring peace and stability to 
a country brutalized for 3 decades. In Afghanistan, 37 nations are 
working to secure a democratic government and defeat al Qaeda and 
remnants of the Taliban regime, with NATO assuming an increasing role 
in stability and reconstruction efforts.
    We have made significant strides coordinating U.S. Government 
efforts within the interagency and with our coalition partners. One of 
the ways we have been successful at coordinating interagency efforts is 
through venues such as the Strategy Working Group, the Senior 
Leadership Review Board and the Regional Combating Terrorism 
Strategies. Continued success in this war will depend largely on our 
ability to organize for a sustained effort and coordinate seamlessly 
among all government agencies. An even more demanding task is 
coordinating the efforts of our coalition partners, now numbering more 
than 90 nations. Coalition contributions have been significant, ranging 
from combat forces, to intelligence, logistics, and medical units. They 
have complemented our existing capabilities and eased the requirement 
for current U.S. forces in Iraq and Afghanistan. Coordinating the 
efforts of our coalition partners is critical to combating the 
remaining terrorist threat.
    The al Qaeda network, though damaged, remains resilient, adaptable 
and capable of planning and executing more terrorist acts, such as the 
attacks in Saudi Arabia and Turkey toward the end of 2003. Al Qaeda 
continues to receive support and recruit operatives from sympathizers 
around the world. Al Qaeda will increasingly focus on Iraq as today's 
jihad. As the network consolidates its efforts in Iraq, the threats of 
attacks will grow. In fact, four al Qaeda audiotapes released in 2003 
prominently mentioned Iraq, demonstrating Osama bin Laden's emphasis on 
staging attacks there. Ansar al-Islam also remains a formidable threat 
in Iraq, despite damage inflicted by coalition forces during Operation 
Iraqi Freedom (OIF). Its key leadership remains at large and continues 
to plot attacks against U.S. and coalition interests.
    Other terrorist groups also pose significant threats to U.S. 
interests, and we believe that some of these terrorist groups have 
developed contingency plans for terrorist attacks against U.S. 
interests abroad. The Revolutionary Armed Forces of Colombia continue 
to conduct terrorist attacks throughout Colombia. They currently hold 
three U.S. hostages captured in early 2003, and directly threaten 
efforts to bring peace, stability and an end to the drug trade in 
Colombia. Jemaah Islamiyah in Southeast Asia is another terrorist group 
that shares al Qaeda's goals and methods, adding to the transnational 
terrorist threat. The intelligence that led to recent heightened alert 
levels in the U.S. show that the threat of a major terrorist attack 
against the U.S. homeland remains very real.
    Disturbingly, terrorist groups continue to show interest in 
developing and using chemical, biological, radiological, and nuclear 
(CBRN) weapons in terrorist attacks. Terrorists have attempted to 
acquire military-grade materials, and interest in CBRN weapons and 
materials by several groups is well documented.
    The coalition's efforts in the war on terror represent the 
significant first step in curtailing WMD proliferation. Our strategy 
for combating WMD calls for the combatant commanders to detect, deter, 
deny, counter, and if necessary, interdict WMD and its means of 
delivery. Combating WMD relies on a continuum of interrelated 
activities, employing both defensive and offensive measures, and 
confronting the threat through mutually reinforcing approaches of 
nonproliferation, counterproliferation, and consequence management. 
This multi-tiered and integrated effort will greatly reduce the threat 
of WMD falling into the hands of terrorists. Following the liberation 
of Iraq and the collapse of Saddam Hussein's brutal regime, the 
countries of Iran, and most recently, Libya have been more forthcoming 
about their illegal WMD programs to the international community. This 
should also help to apply international pressure on North Korea and its 
nuclear declarations.
    To counter the potential threat of the proliferation of WMD, the 
President's Proliferation Security Initiative (PSI) is the most far-
reaching attempt to expand our efforts to impede and interdict the flow 
of weapons of mass destruction, their means of delivery, and related 
materials, between state and non-state actors of proliferation concern. 
It is part of a larger effort to counter proliferation of weapons of 
mass destruction and missile-related technology by interdicting 
shipments of these materials by air, land, and sea. To date, there are 
11 partner nations actively participating in PSI operations and 
exercises. Our goal is to expand PSI participation in order to be 
postured to respond quickly to assist in the interdiction of the 
proliferation trade.
                         oif and oef operations
    U.S. Central Command (CENTCOM) is still center-stage in the war on 
terrorism, and doing a magnificent job under difficult circumstances. 
Iraq is well on its way to becoming a sovereign country. Our coalition 
is strong, with 34 countries directly supporting stability and security 
in Iraq. As part of the 15 November 2003 agreement, the U.S., our 
coalition partners, and the Iraqi Governing Council are forging plans 
and agreements to allow for the transfer of sovereignty to Iraq this 
June. Since the end of major combat operations, we have made steady 
progress towards meeting our objectives. Essential services are being 
restored, and a political transformation is already underway in Iraq. 
Security in Iraq is steadily improving, and we are transitioning to a 
time when the face of security in Iraq is an Iraqi face, and coalition 
forces are in the background.
    Today, coalition forces continue to rout out remnants of the former 
regime attempting a desperate last stand. Using intelligence provided 
by Iraqi citizens, we are conducting thousands of raids and patrols per 
week alongside Iraqi security forces. We have seized massive amounts of 
ammunition, and captured or killed 45 of the 55 most wanted former 
Iraqi leaders, as well as thousands of other Saddam loyalists, 
terrorists and criminals. We have captured or killed all of the top 
five, most notably Saddam Hussein and his sons, Uday and Qusay.
    The Iraq Survey Group is continuing its examination of Saddam's WMD 
programs by interviewing Iraqi citizens, examining physical evidence, 
and analyzing records of the old regime. We know that this process will 
take time and patience, and must be able to stand up to world scrutiny.
    Our soldiers, sailors, airmen, marines, and guardsmen in Iraq are 
now supporting over 203,000 Iraqi security forces. The Iraqi police 
continue to expand their training pipelines in Jordan and Iraq, 
producing hundreds of trained officers each month. We are well on track 
to meet our goal of 71,000 Iraqi police by August 2004. The Facilities 
Protective Service has fewer training requirements and has already 
reached its goal of 50,000 members. They have taken over security from 
coalition forces at most fixed site locations, such as power lines and 
parts of the oil infrastructure--key targets for sabotage. Our goal for 
the Border Enforcement Force is to have 25,700 members by December 
2004. They will relieve coalition forces guarding checkpoints along 
Iraq's border. U.S. military forces continue to vet former members of 
the Iraqi military and other security services for employment in the 
new Iraqi security services, but Iraqis are formally in charge of de-
Baathification efforts and have established guidelines for that 
process. The Emergency Supplemental Appropriations Act for Defense and 
for the Reconstruction of Iraq and Afghanistan 2004 that Congress 
approved last year was instrumental in enabling our planned accelerated 
development of these security forces, and we are grateful for that 
support.
    The New Iraqi Army continues to train additional battalions. Iraq's 
Army needs more than just military skills. They must have a deep-rooted 
sense of professionalism, focused on protecting all Iraqis while 
operating firmly under civilian control. The new army will reflect 
Iraq's religious, regional, and ethnic mix, will be apolitical, and 
indoctrinated in their role of defense and security. We will spend the 
time and resources necessary to ensure the Iraqi Army is a well-trained 
and highly capable force.
    The linchpin of our security efforts during this transition period 
is the Iraqi Civil Defense Corps (ICDC), which is currently planned for 
a force of 40,000 by the summer of 2004. The ICDC is a light military 
force, created to deal with the current stability issues in Iraq. As we 
have done from the beginning, we continue to reassess the security 
environment in Iraq. These security assessments could change force 
goals for the various components of Iraqi security forces. With the 
resources allocated from the supplemental, we have made great headway 
in providing them with vehicles, uniforms and other gear, including 
communications systems that will enable them to succeed in their 
critical tasks. Military commanders in Iraq tell me that the Iraqi 
Civil Defense Corps has been highly effective, and as such, we 
increased the goal from 18 to 36 Battalions and provided $124 million 
extra funding to reinforce the success of this Iraqi Security Force.
    These supplemental funds also provided commanders with one of the 
most successful tools in winning the hearts and minds of the Iraqi and 
Afghan people, the Commander's Emergency Response Program (CERP). These 
funds provide commanders and the resourceful young troops they lead 
with the means to respond to urgent humanitarian and stabilization and 
reconstruction needs such as water and sanitation projects, irrigation 
and small-scale agriculture assistance, school house repairs, and civic 
cleanup projects. This program is an invaluable tool for establishing 
relationships with the Iraqi and Afghan people, assisting in economic 
development, and creating a safer environment.
    The United Nations and the international community are also playing 
vital roles in the political and economic transformation of Iraq. Over 
70 countries and international organizations including the U.S., 
pledged $33 billion at the Madrid Donors Conference. U.N. Security 
Council Resolution 1511 called upon Iraqis, initially through the Iraqi 
Governing Council, to determine the course and speed of their political 
reformation. In response, the Iraqi Governing Council has submitted its 
plan and timetable for selecting a transitional National Assembly and 
interim government, drafting a constitution and holding elections. It 
is an ambitious schedule, but one that they can accomplish with our 
help.
    In addition to security and political progress, we continue to help 
Iraq rebuild the infrastructure required for economic progress and a 
stable democracy. The Coalition Provisional Authority (CPA) and Task 
Force Restore Iraqi Electricity are managing a comprehensive 
maintenance and upgrade program designed to improve power generation, 
transmission, efficiency and capacity to meet the future needs of the 
Iraqi people. Through the coordinated efforts of the Army Corps of 
Engineers and the Iraqi Ministry of Electricity, we met the initial 
October 2003 goal of 4,400 mega-watts (MW) of peak power generation. 
The next goal is 6,000 MW of power by 1 June 2004. In order to meet 
this goal the CPA developed the Power Increase Plan to offset recent 
system failures from severe weather and continuing sabotage and 
looting. This plan increases electrical power generation through an 
increase of generator rehabilitation and maintenance projects, the 
increase of new power generators to the national power grid, increasing 
electrical power imports from other nations, and improving system-wide 
power transmission and distribution. Other progress continues 
throughout Iraq in potable drinking water projects, supplying hospitals 
with medical supplies, providing school supplies for Iraqi school 
children and rebuilding classrooms. Living conditions are improving 
everyday in Iraq, as many of you have seen for yourselves on recent 
trips to Iraq.
    In Afghanistan, our military strategy combines both combat and 
stability operations. U.S. and coalition forces are conducting combat 
operations to rid Afghanistan of al Qaeda and Taliban remnants, and 
stability operations to assist in building Afghan security 
institutions, governing bodies, and economic prosperity. A few weeks 
ago the interim Afghan government held their first Constitutional Loya 
Jirga, approving a new constitution for Afghanistan.
    Security and stability operations are being conducted by 11 
Provincial Reconstruction Teams (PRTs) operating throughout 
Afghanistan, with 1 more PRT planned for this year. PRT representatives 
are making great strides improving the quality of life for the Afghan 
people by building schools, clinics, wells, roads, and other community 
infrastructure projects. Reopening the Kabul-to-Kandahar road was a 
major success. Our efforts have increased security and stability in 
Afghanistan.
    In August 2003, NATO assumed responsibility for the International 
Security Assistance Force (ISAF) in Afghanistan. In October 2003 the 
United Nations Security Council passed a resolution extending ISAF's 
mission in Afghanistan for 1 year, and authorizing ISAF to operate 
outside Kabul and its environs. In February 2004, a Canadian officer 
will assume command of the NATO ISAF headquarters from the German 
commander. NATO's role in Afghanistan is expanding. The first phase of 
NATO expansion included transfer of responsibility for the U.S. PRT at 
Konduz to NATO, with Germany as lead nation, and temporary NATO 
deployments outside Kabul. NATO is planning future ISAF expansion 
throughout Afghanistan.
    The Afghan National Army (ANA), now numbering 5,785 trained 
personnel, is at the forefront of efforts to improve security and 
stability and establish a strong national identity among the Afghan 
people. They are well on their way to reaching the annual throughput 
goal of 10,800 personnel by June 2004. To date the ANA has performed 
well, fighting side-by-side with U.S. and coalition forces during 
recent successful combat operations to capture or kill Taliban, Hezb-I-
Islami-Gulbiddin, and al Qaeda elements. Most of the funding provided 
in the Afghanistan portion of the Fiscal Year 2004 Emergency 
Supplemental is being targeted to efforts that strengthen the ANA, such 
as new infrastructure and equipment that will also improve recruitment 
and retention efforts. These efforts include increased pay, plans to 
field 15 new regional recruiting centers by this spring, and 
establishing military benefit packages.
    Congress has demonstrated its commitment to the future of 
Afghanistan, but there is still much more the international community 
could and should contribute to the reconstruction of Afghanistan. The 
Afghan government, with the help of the U.S. Government, is seeking 
more donations for several infrastructure projects such as a new 
Ministry of Defense headquarters, a hospital in Kabul, and a military 
academy, as well as donations of certain equipment, weapons and 
ammunition.
    In neighboring Pakistan, working closely with President Musharraf, 
we have been able to increase coordination among U.S., Coalition, 
Afghan, and Pakistani Forces along the Pakistan-Afghanistan border. The 
Pakistani government has taken some initiatives to increase their 
military presence on the border, such as manned outposts, regular 
patrols and security barriers, including areas of the Pakistan 
federally Administered Tribal Areas, an area historically avoided by 
Pakistan's military forces. The Tripartite Commission consisting of 
U.S., Afghan, and Pakistan representatives concluded its fifth session 
in December, and among its accomplishments was the establishment of a 
subcommittee to investigate means to prevent cross-border conflict. 
U.S./Pakistani military cooperation continues to improve, and we are 
helping Pakistan identify equipment requirements for their 
counterterrorism efforts.
    Operations in the Horn of Africa remain an essential part of the 
war on terrorism. The Joint Task Force Horn of Africa at Camp Lemonier, 
Djibouti is conducting counterterrorist and civil affairs operations in 
Eastern Africa. Although these operations have impacted al Qaeda's 
influence in the region, a continued military presence is essential to 
stop the movement of transnational terrorists and demonstrating to the 
region our resolve to wage the war on terrorism in Africa.
    In support of Operation Enduring Freedom (OEF)--Philippines, U.S. 
Pacific Command (PACOM) used congressionally-approved funds this past 
year to continue counter-terrorism training for the Armed Forces of the 
Philippines. A small contingent of U.S. military personnel remains in 
the southern Philippines managing these efforts and other humanitarian 
assistance projects.
                       other overseas operations
    U.S. European Command (EUCOM), in accordance with Secretary of 
Defense (SECDEF) guidance, has developed a concept for the reduction of 
U.S. forces supporting U.S. Kosovo Force in the Province of Kosovo, and 
U.S. Stability Forces in Bosnia-Herzegovina. Implementation of this 
plan is dependent on the North Atlantic Council's Periodic Mission 
Review recommendation for the Balkans.
    When EUCOM concludes the Georgia Train and Equip Program in May 
2004, they will meet their objective of improving Georgia's ability to 
confront transnational terrorism operating within Georgia. Training is 
being provided for two staffs, four battalions, and one mechanized/
armor company team. To build on this success and momentum, EUCOM is 
reviewing a possible follow-on Georgia Capabilities Enhancement Program 
to sustain and improve the Georgian military's newly acquired 
capabilities, and demonstrate a continued U.S. commitment to the 
Georgian Armed Forces' development.
    Maritime Interdiction Operations took on a new global focus last 
year, beyond the historical CENTCOM and EUCOM missions, when the 
President approved Expanded Maritime Interception Operations to 
interdict terrorists and their resources globally. Expanded Maritime 
Interception Operations are now significant mission areas for every 
deployed battle group, especially along maritime transit lanes and 
choke points. Results from these maritime operations, such as in the 
Mediterranean Sea, have produced lower insurance premiums in the 
shipping industry, considerably less illegal immigration in countries 
such as Spain, Italy, and Greece, and a reduction in crime at sea. 
Maritime Interdiction Operations are a truly international effort. 
German and Spanish led multi-national naval forces patrol the CENTCOM 
area of responsibility, and this past year coalition naval forces have 
been responsible for boarding over 30 ships within EUCOM's area of 
responsibility.
    U.S. Southern Command (SOUTHCOM) continues to support 
counternarcotics trafficking and counterterrorism efforts in the 
Caribbean and Central and South America. They are assisting the 
Colombian military in its fight against designated terrorist 
organizations by providing military advice, training, and equipment 
with an emphasis on the pursuit of narcoterrorist leadership, 
counternarcotics tactics, and security for major infrastructure such as 
the Cano Limon pipeline. SOUTHCOM supported the formation of the 
Colombian Army Special Operations Command and is continuing its efforts 
to train the Commando Battalion, and a Ranger-type unit. Training was 
successfully completed for the first Colombian Commando Battalion, and 
training has begun for the second battalion. The Colombian military has 
been very successful over the past year in their fight against 
narcoterrorism. The Tri-Border Area between Argentina, Brazil, and 
Paraguay is another focal point for drug and arms trafficking, money 
laundering, document fraud and Islamic terrorist-supported activities 
in South America. U.S.-sponsored multilateral exercises are promoting 
security, improving effective border control, and denying terrorist 
groups such as Hizballah, Hamas, and other Middle Eastern terrorist 
safe havens, restricting their ability to operate.
    SOUTHCOM is also providing nearly 2000 military personnel to manage 
detainee operations at Guantanamo Bay, Cuba. We operate in close 
coordination with several U.S. agencies. We are constantly reviewing 
the status of each detainee, and to date have transferred 87 of the 
detainees who were determined to be of no intelligence or law 
enforcement value, or no threat to the U.S. or its interests, back to 
their countries of origin for release. Four detainees have been 
transferred back to their country of origin, under an agreement for 
continued detention by that country. More await similar agreements to 
allow for transfer or continued detention. A number of detainees have 
been assessed as high intelligence and or law enforcement value, or 
pose a significant threat to U.S. interests. These detainees will 
remain for further exploitation. Other cases are being considered for 
referral to the Military Commission, although no one has been referred 
to date. Information gleaned from detainees, many of whom continue to 
make threats against Americans, has already helped prevent further 
terrorist attacks against the U.S. and our allies. Furthermore, 
continued detention of those who pose a threat to U.S. interests 
prevents those enemy combatants from returning to the battlefield.
    In accordance with the Unified Command Plan 2002 Change 2 
implemented last year on 1 January 2004, U.S. Strategic Command 
(STRATCOM) reported significant progress in all of their new mission 
areas: global strike; missile defense; DOD information operations; and 
command, control, communications, computers, intelligence, 
surveillance, and reconnaissance missions. Further, they are on 
schedule to achieve full operational capability in each of the newly 
assigned mission areas this year. The Secretary of Defense (SECDEF) has 
already approved the Information Operations Roadmap, which has 57 wide-
ranging recommendations that aid combatant commanders in planning and 
executing fully integrated information operations.
    As we become more reliant upon information to conduct operations, 
the defense of our network is paramount. This requires properly trained 
people, common operating standards, and a well-stocked arsenal of 
information assurance tools. We are working diligently to centralize 
network operations and defense, and to formalize information sharing 
policy, guidance, and procedures. These steps, along with our 
cryptographic modernization plan, will safeguard our vital information.
    We are formalizing the role of U.S. Special Operations Command 
(SOCOM) in the war on terrorism. In the near future, we will be 
recommending a change to the Unified Command Plan assigning SOCOM 
specific responsibility to coordinate DOD actions against terrorist 
networks. We are also drafting planning guidance that will designate 
SOCOM as the supported commander for planning and, when directed, 
executing operations against terrorist networks. These changes will 
provide SOCOM and all of DOD improved focus in our global effort to 
combat terrorism.
                  current homeland defense operations
    Last year, U.S. Northern Command (NORTHCOM) reached full 
operational capability in their mission to deter, prevent and defeat 
threats and aggression aimed at the U.S. and its territories. Upon 
SECDEF approval, NORTHCOM can now deploy Quick Response Forces 
(company-sized units) and Rapid Response Forces (battalion-sized 
forces) to support time-sensitive missions such as defense of critical 
infrastructures or consequence management in support of the Department 
of Homeland Security (DHS). To improve interagency collaboration, DOD 
has been working with DHS to develop and implement the National 
Response Plan, a national-level, all-hazards plan that will integrate 
the current family of Federal Domestic Emergency Response Plans into a 
single plan.
    The Joint Staff has developed a contingency plan (CONPLAN) for 
consequence management operations, and NORTHCOM and PACOM have 
developed supporting plans. NORTHCOM's Joint Task Force Civil Support 
maintains strong interagency relationships to integrate command and 
control of DOD forces with Federal agencies to manage the mitigation of 
chemical, biological, radiological, nuclear, and explosive (CBRNE) 
incidents. This past summer, DOD, Nevada National Guard and Reserve 
units, Federal Emergency Management Agency (FEMA), 27 other Federal 
agencies, and Nevada State and local agencies participated in a 
consequence management exercise in Nevada called Determined Promise 
2003. I was thoroughly impressed by the coordination and cooperation 
among active and Reserve component forces, Federal, State, and local 
authorities. We are conducting similar exercises across the country.
    In regards to antiterrorism and force protection measures, the 
Joint Staff is working to ensure that combatant commanders at home and 
abroad have the resources to mitigate threats and respond to emergent 
requirements through the Combating Terrorism Readiness Initiatives 
Fund. My staff is involved in developing and updating antiterrorism 
standards and policies to reflect current worldwide operations and 
lessons learned so that we can address any vulnerabilities. We 
coordinate with various agencies in the areas of training, planning, 
operations and intelligence sharing, all essential for developing sound 
antiterrorism policies.
    In an effort to improve the security of U.S. military installations 
and personnel around the world, the Joint Staff has created the 
Antiterrorism Enterprise Portal, an evolving web-based portal that 
aggregates the resources and programs required to support the DOD 
Antiterrorism Program. This portal is fast becoming DOD's one-stop 
location for antiterrorism/force protection information.
    A program that complements this portal capability is the Joint 
Protection Enterprise Network (JPEN). Operated by NORTHCOM, this 
network provides the means to share unclassified force protection 
information rapidly between military installations in the continental 
United States, increasing their situational awareness and security 
significantly. Although currently operating only on military 
installations, JPEN has the potential to be expanded to share terrorist 
information with Federal, State, and local agencies as well.
    The war on terrorism requires collecting relevant data and turning 
it into knowledge that will enable us to detect and preempt the plans 
of an elusive, skilled enemy dispersed across the globe. Although many 
obstacles remain, we are making significant progress in the area of 
information sharing. The Joint Intelligence Task Force for Combating 
Terrorism (JITF-CT) at DIA is a prime example of effective intelligence 
cooperation in the war on terrorism. In the area of counterterrorism, 
we are making significant progress toward transparency and full 
information sharing. JITF-CT has experts from 12 intelligence and law 
enforcement organizations, and JITF-CT personnel are embedded in 15 
other organizations, including some forward deployed personnel.
                    readiness for future operations
    Our Nation's number one military asset remains the brave men and 
women serving in our Armed Forces. This past year, they demonstrated to 
the world their dedication, perseverance, and compassion as they 
liberated the Iraqi people and worked to bring peace and prosperity to 
the region. The administration, Congress, and DOD have made raising 
their standards of living a top priority. The 2004 budget provided an 
average military pay raise of 4.15 percent and targeted increases of up 
to 6.5 percent for some enlisted personnel. The 2005 budget's proposed 
reduction of out-of-pocket housing expenses from 3.5 percent to 0 is a 
sound investment, as are future pay increases based on the Employment 
Cost Index plus .5 percent.
    DOD has a focus group that continues to look at programs to enhance 
the combat effectiveness and morale of service and family members 
associated with OIF and OEF. Areas where we have made significant 
progress are Rest and Recuperation Leave, danger area benefits to 
include incentive options for extended tours of duty in Iraq and 
Afghanistan, exchanges, childcare and communications initiatives.
    All Services generally met or exceeded active duty and Reserve 
component recruiting and retention goals in both fiscal years 2002 and 
2003 and entered fiscal year 2004 with healthy Delayed Entry Program 
levels. However, recruiting and retention of both active and Reserve 
personnel will continue to require attention and continued investment 
as we face the challenges of an improving economy and the high 
operations tempo associated with the war. I view all of the quality-of-
life issues as inseparable from overall combat readiness, and we 
greatly appreciate congressional support for all of these initiatives.
    The overall readiness of our Armed Forces--whether forward 
deployed, operating in support of contingency operations, or employed 
in homeland defense--remains good. Our forces are the world's best 
trained and, possess the requisite personnel, equipment, and resources 
necessary to accomplish the military objectives outlined in the 
Strategic Planning Guidance. Challenges do exist, especially with 
regard to ground forces in Iraq. We are currently in the midst of 
rotating our combat troops in Iraq--a feat that will rival any in 
history. We will continue to examine force levels and size them 
appropriately as security dictates.
    We continue to rely heavily on our Reserve and Guard personnel, who 
are playing critical roles in homeland defense, and serving with 
distinction around the world in the war on terrorism. Some missions 
like the ones in Bosnia-Herzegovina and Kosovo are almost exclusively 
made up of Reserve and Guard units, and they are doing a magnificent 
job. We are well aware of the strains on members, their families, and 
their employers, and continuously seek better ways to support them.
    There are several initiatives underway, collectively by DOD, the 
Services, combatant commands, and the Joint Staff to reform the 
mobilization process and to relieve the stress on the force. United 
States Joint Forces Command (USJFCOM), in conjunction with the 
Services, is leading the mobilization reform effort by evaluating 
policy changes and identifying other solutions to streamline the 
mobilization/demobilization process, and preliminary recommendations 
are expected in early 2004. Two Operational Availability sub-studies 
were conducted last year and identified the active component/Reserve 
component mix and low density/high demand assets as two areas of 
immediate concern to relieve stress on the Reserve component forces. As 
an example, the Army has already begun converting some Reserve 
component artillery forces into Military Police forces to meet one of 
the expected high demand roles of the foreseeable future. This, and 
other ongoing rebalancing efforts will ensure that Active and Reserve 
Forces continue to complement each other. The Services are actively 
engaged in reviewing how much of a given capability they need for this 
new security environment, and which capabilities belong in each 
component. Other key DOD areas of concern are reducing the need for 
involuntary mobilization of the Reserve component early on in rapid 
response operations, establishing a more rigorous process for reviewing 
joint force requirements, and ensuring efficient use of mobilized 
Reserve component personnel. A comprehensive Rebalancing the Force 
Report by Assistant Secretary of Defense (Reserve Affairs (ASD(RA)) 
will summarize these efforts, while a study by Assistant Secretary of 
Defense (Health Affairs (ASD(HD)) will define Reserve component 
requirements for homeland defense.
    U.S. Armed Forces are capable of achieving all assigned objectives 
in the defense strategy. However, current stresses on the force remain 
considerable. The increased demands of the war on terrorism, sustaining 
post-conflict operations in Iraq and Afghanistan, and other global 
commitments are unlikely to change significantly in the near-term. 
Moreover, while committed globally, our Armed Forces must continue to 
defend the homeland, reconstitute forces returning from contingency 
operations, transform to meet future challenges, strengthen joint and 
combined warfighting capabilities, and maintain readiness. Today, given 
these commitments and requirements, we are carefully managing the risk 
in executing an additional major combat operation.
    When units return home from combat operations, they must undergo a 
reconstitution process, which generally means a drop in their 
readiness. However, this does not necessarily indicate that a unit is 
either unavailable for or incapable of executing part or all of their 
assigned wartime missions. We have initiated new measures in the 
current readiness reporting system to identify Service and combatant 
command requirements, determine the scope of required reset actions, 
and develop appropriate solutions to mitigate shortfalls and manage 
risk. Our workload remains high, but we remain prepared to accomplish 
those missions assigned to us.
    Army units returning from OIF I/OEF require focused maintenance 
efforts to return them to pre-hostility readiness levels, while 
continuing to meet combatant commanders' maintenance requirements. The 
Army's goal is to return OIF I/OEF active duty units to pre-deployment 
readiness within 6 months and Reserves within 1 year after return to 
home station. However, some critical aviation systems may require 
additional time in order to complete depot level repairs. Funding was 
programmed from the 2004 supplemental for these organizational and 
depot level maintenance requirements. Army Materiel Command is the lead 
agency for developing a plan to repair major equipment items from OIF 
I/OEF. Approximately 1,000 aviation systems, 124,400 communications and 
electronics systems, 5,700 combat/tracked vehicles, 45,700 wheeled 
vehicles, 1,400 missile systems, 6 patriot battalions, and 232,200 
various other systems are included in this repair plan. As OIF II and 
beyond maintenance requirements are further defined, DOD will refine 
estimates and update costs.
    Combatant commanders and the Services identified preferred 
munitions as one of their risk areas of concern via periodic readiness 
reporting. Supplemental funding, as well as augmented annual budget 
requests, have allowed us to meet our requirement for Joint Direct 
Attack Munitions and laser-guided bomb kit demands. In the near-term, 
we are focused on improving how we determine our munitions 
requirements. Over the long-term, we plan to field improved guided 
munitions systems that build on our already superb precision-delivery 
capabilities.
    Our military training areas are facing competition from population 
growth, environmental laws, and civilian demands for land, sea, and 
airspace. The Services are proud of their success in protecting the 
environment, endangered species and cultural resources. We are grateful 
to Congress for their assistance in the Fiscal Year 2004 Defense 
Authorization Act, which precluded designating certain DOD lands as 
critical habitat, and preserved valuable Navy training while ensuring 
protection of marine mammal species. Having the world's most 
sophisticated weapons systems and simulators cannot substitute for our 
most important military training activities, air, land, and sea 
maneuver and live-fire training. Some installations, ranges, and 
training areas are losing critical military value because encroachment 
is impairing their capability to provide useful readiness and 
operational support. Such facilities should be reviewed during the next 
round of Base Realignment and Closure. We will continue to seek 
congressional support that balances environmental concerns and 
readiness.
    Our Nuclear Readiness continues to evolve. In December 2001, the 
Nuclear Posture Review established a New Triad composed of Offensive 
Strike capabilities (both nuclear and non-nuclear), Defenses (active 
and passive) and Responsive Infrastructure in order to respond to a 
wide range of contingencies. DOD is in the midst of a Strategic 
Capabilities Assessment to assess the progress in fielding the New 
Triad and determine the number and types of forces to meet the 
President's goal of 1,700 to 2,200 operationally deployed strategic 
nuclear warheads by 2012.
    We continue our efforts to ensure we can operate effectively in a 
CBRN environment, since our potential adversaries, both nation states 
and terrorists, seek to acquire and develop weapons of mass 
destruction, including biological warfare agents. Vaccinations 
represent an important countermeasure against biological threats and 
provide our military personnel with the best available protective 
measures. To date, approximately 695,000 military personnel have been 
vaccinated against anthrax and more than 520,000 military personnel 
have received smallpox vaccinations. The anthrax and smallpox 
vaccination programs are very successful, and it is imperative to 
develop effective countermeasures against other biological threats to 
protect our warfighters.
    While our warfighting team has always included contractors, their 
involvement is increasing. The Joint Staff is leading a joint group to 
develop overarching DOD policy for management of contractor personnel 
during contingency operations.
    We must also reexamine our ability to get to the fight. The 
Mobility Requirements Study 2005, completed in 2000, is the current 
baseline mobility requirements document. DOD is actively engaged in 
conducting a new full-scale mobility study that reflects our current 
defense strategy and incorporates lessons learned from OEF and OIF to 
further clarify strategic lift requirements. The goal is to complete a 
new Mobility Capabilities Study by June 2005, in time to influence 
preparation of Program Objective Memorandum-08 (POM-08).
    Sustaining our overseas presence, responding to complex 
emergencies, prosecuting the global war on terrorism, and conducting 
operations far from our shores are only possible if our ships and 
aircraft are able to make unencumbered use of the sea and air lines of 
communication. Our naval and air forces must be able to take advantage 
of the customary, established navigational rights that the Law of the 
Sea Convention codifies. We strongly support U.S. accession to the 
convention.
    Although C-17 production is not planned to terminate until fiscal 
year 2008, production of several C-17 long lead items is planned to 
close in fiscal year 2006. The Air Force and DOD are studying the 
benefits and risks (including financial and war fighting) of continuing 
or terminating the C-17 long lead items production line, and plan to 
complete this assessment in time to inform the fiscal year 2006 POM and 
the Enhanced Planning Process.
    Increasing costs, decreasing reliability and maintainability, and 
an increased need for air-refueling capability dictate modernization of 
the KC-135 fleet. Congress has authorized the Air Force to lease 20 and 
purchase 80 new Boeing 767 tanker aircraft. In early December 2003, DOD 
suspended negotiations with Boeing, pending the outcome of ongoing 
Inspector General investigations. Based on the results of that 
investigation, the Air Force will recommend a cost-effective strategy 
for acquiring a suitable replacement for the KC-135 fleet to meet joint 
warfighting requirements to support our National Security Strategy.
    The F-35 Joint Strike Fighter (JSF) will be a giant leap over 
existing attack/fighter capabilities. JSF is in the third year of an 
11-year development program, and we have seen some design challenges. 
The current design challenge for all three variants is weight, which 
impacts performance requirements, particularly for the Short Takeoff 
and Vertical Landing variant. Design teams are working diligently to 
solve this issue, and we have moved the first planned production 
procurement to the right 1 year, and added extra money to the 
development. The weight issue is within normal parameters of design 
fluctuation, and this issue will be worked out through the development 
and design process.
    Protection of our troops remains a top priority. Interceptor Body 
Armor (IBA) was in the initial fielding phase at the start of OIF. The 
Army has been aggressively managing this critical item, and accelerated 
fielding and production rates when CENTCOM identified the need due to 
the threat situation. The Army has been issuing the IBA directly for 
use in the combat theater of operations. IBA consists of an Outer 
Tactical Vest (OTV) and a set of Small Arms Protective Inserts (SAPI). 
As of 26 January, 93 percent of the troops and DOD civilians operating 
in Iraq had been outfitted with IBAs with SAPI. The OTV and SAPI assets 
needed to equip the remainder of the force are in theater being 
distributed. During the upcoming force rotation, all OIF II forces will 
be outfitted in Kuwait prior to entering Iraq. We will continue to work 
diligently to provide the best protective equipment for our servicemen 
and women and DOD civilians.
    The up armored version of the high mobility multi-purpose wheeled 
vehicle (HMMWV) has proven to be effective at protecting our soldiers 
against mines, improvised explosive devices (IED) and direct fire 
weapons. Currently there is a shortfall in Iraq and worldwide. To fill 
this shortfall, in the near term, the Joint Staff, the Services, and 
the combatant commanders are conducting an aggressive campaign to 
redistribute worldwide inventories of up armored HMMVVs to Iraq. In the 
longer-term, Congress' Emergency Supplemental provided funding to 
accelerate production of up armored HMMVVs to meet CENTCOM requirements 
by January 2005.
    OIF reaffirmed how critical the deployment and distribution process 
is to joint warfare. The Joint Staff is working with DOD and the 
Service logistics experts to develop an integrated end-to-end 
deployment and distribution process that is responsive to rapid 
projection of forces, the delivery and handoff of joint forces, and 
worldwide sustainment in support of the Joint Forces Commander.
    During the fiscal year 2004 budget cycle, Congress voiced concern 
over the Department's overseas basing plans. Since then, our global 
posture strategy has matured. We are now in the process of detailed 
consultation with our allies and Members of Congress. The overseas 
portion of the fiscal year 2005 military construction budget submission 
includes projects at enduring locations. These projects reflect our 
combatant commanders' most pressing base and infrastructure needs. I 
urge Congress to support our combatant commanders and fund the overseas 
military construction projects submitted in the fiscal year 2005 budget 
request. These projects contribute directly to our readiness and the 
quality of life our personnel deserve.
                           joint warfighting
    Protecting the U.S., preventing future conflicts, and prevailing 
against adversaries require our military to sustain and extend its 
qualitative advantage against a very diverse set of threats and 
adversary capabilities. Maintaining our qualitative advantage begins 
with improving education programs across the Services. We must also 
adapt and transform organizations and functions to eliminate gaps and 
seams within and between combatant commands, agencies at all levels of 
government, and potential coalition partners. Information sharing is at 
the forefront of this effort.
    Recent operations in Afghanistan, Iraq, the Philippines, and Africa 
have demonstrated the impact timely sharing of intelligence has on 
planning and executing military operations. Since this is a global war 
requiring an international effort, we must also improve coalition 
command and control capabilities, and consolidate the numerous networks 
that exist today. These disparate networks hinder our ability to plan 
in a collaborative environment and exercise timely and effective 
command and control with our multinational partners.
    We must also review policies and implement technology that 
safeguard our vital sensitive information while ensuring critical 
operational information is shared with all those who fight beside us. 
JFCOM has been tasked to take the lead in identifying specific 
multinational information sharing requirements and recommending policy 
changes. Our goal is to establish a multinational family of systems 
with common standards as part of the Global Information Grid enterprise 
services. I view this as a top priority and ask for congressional 
support--information sharing with our allies is critical to winning the 
war on terrorism.
    During OIF, our military forces benefited from unprecedented 
situational awareness through a common operational picture. In 
particular, one new system, Blue Force Tracker, was critical to the 
success of our forces as they sped towards Baghdad. Some of the 3rd 
Infantry Division, V Corps, and I Marine Expeditionary Force (MEF) 
vehicles were equipped with transponders that automatically reported 
their positions as they maneuvered across the battlefield--greatly 
improving situational awareness for our battlefield commanders, and 
reducing the potential for blue-on-blue engagements. Despite 
significant improvements in joint combat identification, challenges 
remain to reduce incidents of friendly fire, and maximize the synergy 
of combined arms to provide all front-line tactical units with friendly 
and threat information during decisive engagements. To address these 
challenges, JFCOM has the lead in the comprehensive effort to improve 
Joint Battle Management Command and Control, which includes the 
integration of Common Operational and Tactical Pictures, Combat 
Identification, and Situational Awareness across the force.
    We are taking command and control lessons learned from OIF like the 
capability to track Blue Forces, and running them through the Joint 
Capabilities Integration and Development System process to help shape 
future systems requirements. The objective is to ensure all of the 
critical considerations of Doctrine, Organization, Training, Material, 
Leadership and Education, Personnel, and Facilities (DOTMLPF) are 
employed in an approach that synchronizes material and non-material 
solutions.
    We are also improving our military war planning process. The Joint 
Staff has developed an adaptive planning process--whose key concepts 
are agility and speed--to reduce the time to develop and update war 
plans, while adding flexibility and adaptability to respond to the 
rapid changes in the global strategic security environment. The goal is 
to provide the President and SECDEF the best options possible. We have 
also been developing a collaborative campaign-planning tool for crisis 
action planning and execution. These tools should allow commanders the 
ability to assess multiple courses of action, rapidly compressing plan 
development time while increasing plan flexibility.
    Our warfighting effectiveness is also enhanced by our Joint 
Exercise Program, which provides combatant commanders with the means to 
train battle staffs and forces in joint and combined operations, 
evaluate their war plans, and execute security cooperation plans with 
our allies and coalition partners. In order to improve joint training 
opportunities, JFCOM has established a Joint National Training 
Capability (JNTC), which will achieve Initial Operational Capability in 
October 2004. JNTC will combine live and virtual play at multiple 
locations. The goal is to provide realistic joint combat training 
against an adaptive and credible opposing force, with common ground 
truths, and high quality exercise feedback.
    Strategic airlift is available to exercises only on an as-available 
basis, since it is prioritized for operational needs first. Providing 
the personnel and assets to accomplish meaningful joint training during 
this period of high operations tempo (OPTEMPO) has also been 
challenging. To balance these competing requirements, the combatant 
commanders are reviewing their fiscal year 2004 exercise programs with 
a view to canceling, downsizing, or postponing exercises. We must 
continue to balance operational and exercise requirements against 
operations/personnel tempo (OPS/PERSTEMPO) and available lift.
    Prior to combat operations in Iraq, we established a process for 
adapting OIF lessons learned for future operations as rapidly as 
possible. JFCOM has the lead role in turning identified operational 
level lessons learned into required capabilities through the Joint 
Capabilities Integration and Development System. A consolidated OIF 
After Action Review will be presented to Congress in July 2004. The top 
three OIF Strategic Lessons Learned, from the Joint Staff perspective, 
are the need for an improved deployment process (including Reserve 
component mobilization), redistributing specialties between the active 
and Reserve components, and improving the Phase IV planning and 
transition process.
    Phase IV transition and Stability Operations require significant 
adjustments in how we plan, train, organize, and equip our forces. We 
can expect future adversaries to attempt to offset U.S. military 
strengths through asymmetric means, to include terrorist insurgency, as 
combat operations transition to post conflict operations. The lessons 
learned process continues during stability operations in Afghanistan 
and Iraq.
    The Joint Staff, in coordination with the Services and the 
combatant commanders, is revising the National Military Strategy to 
link strategic guidance to operational warfighting and serve as a 
military plan to implement the National Defense Strategy and the 
National Security Strategy. The National Military Strategy provides the 
context for other military documents such as the Joint Operations 
Concept, Joint Strategic Capabilities Plan, and other plans. It will 
incorporate lessons learned from Operations Noble Eagle, Enduring 
Freedom, and Iraqi Freedom and establish specific military priorities, 
objectives, employment concepts, and capabilities for combatant 
commands and Services. The 2004 National Defense Authorization Act 
requires that the National Military Strategy include the Chairman, 
Joint Chiefs of Staff (CJCS) annual risk assessment, which is due 15 
February 2004.
      considerations and recommendations for goldwater-nichols act
    For the past 18 years, joint operations have been improving under 
the provisions of the Goldwater-Nichols Act. The act strengthened 
civilian control of the military and facilitated better military advice 
to the President, SECDEF, National Security Council (NSC) and Congress. 
Now, it is time to consider new ideas for improving the effectiveness 
and efficiency of the military instrument of power in today's new 
security environment.
    The war on terrorism and other recent military operations have 
demonstrated the need for improved interagency cooperation, integration 
and execution of National Security Council decisions. We also need to 
improve how we coordinate the efforts of international, regional and 
non-governmental organizations. I fully support initiatives to 
formalize a mechanism that creates effective lines of authority and 
provides adequate resources to execute interagency operations. For 
example, designating the Chairman of the Joint Chiefs of Staff as the 
principal military advisor to the Homeland Security Council would 
improve homeland defense and prosecution of the war on terrorism beyond 
our borders.
    Joint Officer Management codified in the 1986 Goldwater-Nichols 
legislation was based on the threats and force structure evident late 
in the Cold War. We are developing a strategic plan to shape joint 
officer management based on the type and quantity of officers needed to 
perform current and future joint missions, and the education, training, 
and experience joint officers require. This strategic approach will 
ensure future joint officers meet the needs of joint commanders.
    We are already taking some initiatives to improve our Joint 
Professional Military Education system, with the goal of educating and 
training the right person for the right task at the right time. 
Historically, we waited until officers became majors and lieutenant 
colonels before we provided them with joint education. We are finding 
that the war on terrorism requires noncommissioned officers and junior 
officers from all Services to work in the joint environment more often 
than they have before. We are developing courses tailored to the needs 
of our younger troops that expose them to joint warfighting far earlier 
in their careers. To improve joint officer management and education, 
and prepare officers for joint duty earlier in their professional 
careers, I request consideration to allow the Service War Colleges to 
teach Joint Professional Military Education (JPME) Phase Two and the 
authority to determine the appropriate length of the Joint Forces Staff 
College's JPME Phase II course. We also have pilot programs providing 
joint education to Senior Noncommissioned Officers and our Reserve and 
Guard component members. Additionally, we are reviewing our joint 
general and flag officer training programs to ensure our senior 
officers are prepared to command joint task forces and work effectively 
with interagency and coalition partners.
    Today, the chairman remains well positioned to assist in providing 
strategic direction to the Armed Forces, assess impacts on the long-
term readiness of the force, and evaluate current and potential levels 
of risk associated with global military activities. Already, we are in 
the process of transforming our internal processes make them more 
responsive in the current dynamic environment. In a similar vein, I 
request we also reevaluate and streamline our current reporting 
requirements to Congress, many of which seem of questionable utility. I 
propose the formulation of a working group composed of members from the 
House Armed Services Committee (HASC), Senate Armed Services Committee 
(SASC), House Appropriations Committee (HAC), Senate Appropriations 
Committee (SAC), Office of the Secretary of Defense (OSD), Office of 
Management and Budget (OMB), and Joint Staff to identify the best means 
and frequency of communications to meet congressional oversight needs.
                transformation of the u.s. armed forces
    We cannot focus solely on the threats we face today and assume 
there are not other, perhaps even more challenging threats on the 
horizon. Maintaining our unchallenged military superiority requires 
investment to ensure the current readiness of deployed forces while 
continuing to transform military capabilities for the future. Our 
adversaries will learn new lessons, adapt their capabilities, and seek 
to exploit perceived vulnerabilities. Therefore our military must 
transform, and must remain ready, even while we are engaged in war.
    Before the events of September 11, transforming the force was 
viewed as DOD's greatest near-term challenge. Since then, we have had 
to fight battles in the mountains of Afghanistan, in the cities of 
Iraq, and around the world for the security of America. Putting 
transformation on the back burner and focusing solely on the fight at 
hand is simply not an option. We are fighting a war unlike any we have 
fought before--it demands new ways of thinking about military force, 
new processes to improve strategic agility, and new technologies to 
take the fight to the enemy. DOD continues to invest heavily in 
transformation, both intellectually and materially. Given that 
transformation begins with innovative thought, we have developed a 
suite of concepts that will define how the joint commander will fight 
in 2015 and beyond.
    We recently published an overarching concept document titled Joint 
Operations Concepts to provide a framework for developing capabilities 
and defining concepts. Using this document as a foundation, the Joint 
Staff completed development of five joint functional concepts to define 
how joint warfighting will be conducted across the range of military 
operations. These functions include force application, protection, 
command and control, battlespace awareness, and logistics. Meanwhile, 
the combatant commands have been working on four high-level operating 
concepts that include strategic deterrence, stability operations, 
homeland defense, and major combat operations.
    Collectively, functional and operating concepts define how we want 
to fight in the future, and will help us transform from the threat-
based force of the Cold War to a capabilities-based force postured to 
respond to a wide variety of threats, some of which we cannot 
confidently predict today. To aid the Joint Requirements Oversight 
Council in determining warfighting needs with a capabilities-based 
approach, we are developing joint integrating concepts. These concepts 
are far more focused than functional and operating concepts, and define 
specific tasks to be conducted. They are designed to bridge the gap 
between how we want to fight and the capabilities we need. Examples 
include urban operations, global strike operations, and forcible entry 
operations. The functional, operating, and integrating concepts will 
continue to evolve over time. The first round of this very important 
concept work should be done within the year.
    For each functional concept area we have established a Functional 
Capability Board to integrate the views of the combatant commands, 
Services, defense agencies, Joint Staff, and OSD. These boards comprise 
functional experts from across DOD who will provide the best advice 
possible for our planning, programming, and acquisition processes. 
Functional Capability Boards also support a new process called the 
Joint Capabilities Integration and Development System, which replaces 
the previous Cold War-era Requirements Generation System. The new 
system recognizes that less expensive programs can have a significant 
impact on joint operations. Virtually all programs are reviewed through 
the JROC process for potential joint impact before they get a green 
light, ensuring all Service future systems are born joint.
    Based on the recommendations of the Joint Defense Capabilities 
Study--the Aldridge Study--we established the Strategic Planning 
Council chaired by SECDEF, and composed of the Service Secretaries, the 
Joint Chiefs, principal under secretaries, and the combatant 
commanders. The first meeting was held 28 January 2004. To capture and 
disseminate this top-down strategic direction, we will produce a new 
Strategic Planning Guidance document as the mechanism to provide 
subordinates with this strategic guidance. The first Strategic Planning 
Guidance document should be complete by February 2004.
    We are also developing an Enhanced Planning Process that integrates 
DOD-wide lessons learned, experimentation, concept development, study 
results, capability gap analysis, and technology development into a 
collaborative capabilities planning function. The goal is to offer 
distinct and viable alternatives to senior leadership rather than a 
consensus driven, single point solution, and implement their decisions 
into the Joint Programming Guidance document, the first of which will 
be issued in May 2004.
    These three transformational process initiatives--Functional 
Capability Boards, Joint Capabilities Integration and Development 
System, and the Enhanced Planning Process--work together improving our 
planning and programming agility for future joint capabilities. JFCOM 
is working with the Functional Capability Boards to incorporate lessons 
learned from OEF and OIF into a list of materiel and non-materiel 
recommendations to the Joint Requirements Oversight Council to turn 
lessons learned into identified capabilities needs as quickly as 
possible.
    JFCOM is also coordinating with the Services, combatant commands, 
other U.S. agencies, and coalition partners to ensure experimentation 
efforts support the warfighter. One of JFCOM's key experimentation 
initiatives is the Standing Joint Force Headquarters, which will 
provide combatant commanders a rapidly deployable command and control 
team, along with supporting information systems and reachback 
capabilities, that will enable us to respond to regional conflicts with 
smaller and more effective joint operational headquarters. JFCOM is 
establishing the prototype Standing Joint Force Headquarters this year, 
and in fiscal year 2005 we will field the communications portion known 
as the Deployable Joint Command and Control System to CENTCOM and 
PACOM. EUCOM and SOUTHCOM receive follow on systems in fiscal year 2006 
and fiscal year 2007. The Deployable Joint Command and Control System 
will use state-of-the-art information technology to enhance Joint Force 
command and control.
    Communications systems are a prime target for transformational 
ideas. The Joint Tactical Radio System is a software programmable radio 
that will provide seamless, real-time, voice, data and video networked 
communications for joint forces. It will be scalable allowing 
additional capacity (bandwidth and channels) to be added, backwards-
compatible to communicate with legacy systems, able to communicate with 
multiple networks, and able to accommodate airborne, maritime and land 
based systems. It provides the tactical warfighter with netcentric 
capabilities and connectivity to the Global Information Grid, and is 
essential to meeting our 21st century joint communications warfighting 
requirements.
    Transformation also means developing multiple, persistent 
surveillance capabilities that will let us ``watch'' situations and 
targets by looking, smelling, feeling, and hearing with a variety of 
long-dwell sensors from space, air, ground, sea and underwater and 
integrating these capabilities into a ``system of systems.'' The 
exploitation of Measurement and Signature Intelligence (MASINT), holds 
great promise. MASINT collects information from many diverse sources to 
detect, characterize and track a target or activity by its distinctive 
properties, or ``signatures'' that are very difficult to conceal or 
suppress. Last year, DIA created its Directorate for MASINT and 
Technical Collection to develop new forms of technical collection and 
integrate MASINT into collection strategies and operations.
    Another example of the transformational technologies we have just 
fielded is the Army's Stryker Brigade, which is centered on a new, 
fast, and quiet vehicle that can deliver 11 troops to the fight. This 
effort is far more than simply fielding a new vehicle; it is also a new 
way to organize a brigade, and link that brigade to a networked command 
and control system that shares intelligence, surveillance, and 
reconnaissance information. Our Stryker Brigade Combat Teams (BCTs) are 
organized and trained to take advantage of this new technology. The 
first Stryker BCT is already proving its worth in Iraq.
    To reduce our vulnerability to weapons of mass destruction, we have 
made progress on providing missile defenses for our homeland, our 
deployed forces, and our friends and allies. In the coming year, we 
plan to deploy six ground-based interceptors in Alaska and four in 
California to provide an initial capability to defend the U.S. from 
ballistic missile attack. The Patriot missile defense system and the 
emerging AEGIS-based SM-3 system will provide short and medium range 
missile defenses, as well as critical surveillance and tracking 
essential to our Ballistic Missile Defense System. Coupled with an 
upgraded launch detection capability provided by the Space-Based 
Infrared System, our ballistic missile defenses will continue to 
improve significantly over the next few years.
    The Global Positioning System (GPS) offers an excellent example of 
a system that transformed modern warfare. GPS delivers worldwide 
positioning, navigation and timing data that provide U.S. and allied 
forces an all-weather, precision engagement capability. Over the last 
decade, the success of combat operations was largely due to GPS-aided 
precision-guided munitions. We must continue to modernize GPS, improve 
capabilities, protect U.S. and allied access to reliable military 
positioning, navigation and timing information, and deny this 
information to our adversaries, while minimizing impacts to peaceful 
civil users. We are engaged with NATO and the European Union to resolve 
our concerns with the proposed Galileo system, a civil satellite system 
that puts at risk our programmed military enhancements to GPS. A U.S. 
interagency team has made significant headway with some tough technical 
issues over the past year, but continued negotiations are essential to 
address the remaining technical, and more importantly, the political 
issues. Once these issues are resolved, we can confidently move forward 
with our vision of space superiority to support future joint and 
coalition operations.
    As recent military operations have demonstrated, space is a 
critical dimension of the battlespace. Lessons learned from OEF and OIF 
highlight our increasing reliance on space communication assets and our 
demand for bandwidth. Our challenge is meeting future warfighter 
requirements in the face of an aging satellite constellation. Despite a 
planned 10-fold increase in capability through Advanced Extremely High 
Frequency (EHF) and Wideband Gapfiller Systems, projected capacity may 
not meet the growing demand. This shortfall will potentially impact our 
ability to maintain a technological advantage over our adversaries. 
Work on Transformational Satellite Communications continues, which is 
designed to improve communications for mobile systems, particularly 
those that provide intelligence, surveillance, and reconnaissance. Our 
unmanned aerial vehicles and the Army's Future Combat System place 
heavy demands on bandwidth, particularly when real-time video feeds are 
required. The frequency spectrum is critical not only to joint 
warfighting, but to all Federal, State, and local agencies to ensure 
national security and public safety. Military and civilian technology 
is rapidly moving to a wireless medium. As pressures from commercial 
sources to free up more Federal spectrum mount, we must ensure our 
long-term spectrum accessibility for our military forces.
    These are just a few examples of our ongoing transformation 
efforts. We are working hard to integrate old systems with new, in 
innovative ways. Interoperating between our own legacy and 
transformational systems is a challenge for us, but it is an even 
greater challenge to our coalition partners, who must participate in 
key decisions on how transformation will enhance combined operations in 
the future.
    Over the past year, NATO has achieved great success in progressing 
toward a transformed military organization. The alliance has developed, 
approved, and begun implementing a new, more streamlined command 
structure, which will make it viable in the 21st century global 
security environment. The catalyst for modernization will be the new 
Allied Command Transformation, which will maintain a close partnership 
with JFCOM. Also, on the forefront of transformation, NATO has created 
the NATO Response Force, a key enabler of NATO's new operational 
concept. It is designed to be a combined, deployable, sustainable, and 
lethal force intended to be NATO's first responders, able to respond 
quickly to a crisis anywhere in the world. In a display of NATO's new 
focus, on August 11, 2003, NATO assumed command of International 
Security Assistance Force (ISAF) in Afghanistan, the first out of area 
mission in the history of the Alliance. To be an effective joint force 
in the future, we must ensure that our allies keep pace with our 
transformation efforts.
                               conclusion
    Responding to today's dynamic threat environment requires our Armed 
Forces to be innovative, agile, and flexible. With Congress' strong 
support, our military has made significant progress combating 
terrorism, improving our joint warfighting capabilities, and 
transforming our military into a 21st century fighting force. We 
appreciate your efforts to help us be responsive to a changing world, 
and make that world a safer and better place.

    Chairman Warner. Thank you very much, General.
    Members of the committee, we have a quorum present, and it 
is the desire of the chair and the ranking member to address to 
the committee promotions of three flag officers and general 
officers who are in combat commands today. I propose that we 
briefly go into executive session to consider and act upon 
several important nominations.
    [Whereupon, at 10:27 a.m., the hearing was recessed, the 
committee proceeded to other business in executive session, 
then reconvened the hearing at 10:29 a.m.]
    Chairman Warner. Colleagues, the Secretary will be 
addressing the House in the posture statement beginning at 1 
o'clock. We will therefore have to conclude our work by the 
hour of 12:00, so we will hold to 5-minute rounds for each 
member. I will proceed at this point in time.
    Mr. Secretary, I thought your comprehensive statement on 
transformation is one that this committee will try and support 
in every way. Do you know of any special legislation that you 
will further require for the implementation of this package? 
The legislative package is in the normal sequence of events to 
come to the committee here in a week or so, but perhaps you 
could tell us at this time. An example is the important 
institution of reform in the civil service that you proposed 
last year and which I think in large measure was adopted. Any 
other legislative proposals you could alert us to at this time?
    Secretary Rumsfeld. Mr. Chairman, there is nothing of the 
magnitude of the new national security personnel system that we 
will be proposing. But there will be a number of smaller items, 
lesser items, that we will be recommending for approval, 
consideration of the committee.
    Chairman Warner. Do you feel that the budget provides the 
needed dollars to implement the transformation that you have 
undertaken and continue to undertake?
    Secretary Rumsfeld. I do.
    Chairman Warner. That involves not only pay and benefits 
for the military, but also the acquisition of new equipment?
    Secretary Rumsfeld. I do.
    Chairman Warner. The plan of the United States Army under 
the direction of a very able Chief of Staff and a very able 
Acting Secretary requires sort of fracturing the existing force 
into another series of units. Are they going to be fully 
equipped?
    Secretary Rumsfeld. They will be. Pete Schoomaker and I 
briefed the President on the Army's proposal. The President 
approved it. General Schoomaker will be presenting it to this 
committee at a time of your choosing. It is important that it 
be considered carefully.
    It has multiple dimensions. Not only does he intend to go 
from 33 to 48 brigades over a period of 4 or 5 years--5?
    General Pace. Four years to 43, sir, and then an additional 
4 to the 48.
    Secretary Rumsfeld. So it is 4 years to the 43 brigades and 
then an additional period for the remaining 5 brigades, with an 
off ramp in the event they are not needed.
    But, in addition, he intends to more fully equip these 
brigades with division capabilities that currently are only at 
the division level and to make them more modular, so that they 
can be mixed and matched and deployed. There is no doubt in my 
mind but that if this plan is completed in the time frame 
indicated then we will have a much improved tooth-to-tail 
ratio.
    Chairman Warner. Thank you.
    Returning to the question of the WMD, the ISG, the military 
force augmented by a number of civilians from the Agency and 
other departments of the government, is one that is under the 
command of General Dayton, and now Mr. Duelfer will join. Is 
the funding adequate for them to continue and fulfil their 
mission? Because you and I both stressed that this mission must 
be completed.
    You described in your statement a number of, as you call 
it, ``theories'' of things that could have happened. Now, we 
wish to develop all the facts that we can possibly find to 
determine the answers to the various theories that you have 
represented.
    Secretary Rumsfeld. The ISG has somewhere between 1,200 and 
1,300 people currently assigned.
    Chairman Warner. That is correct.
    Secretary Rumsfeld. General Dayton is the individual who is 
responsible for those people. He had reported to Dr. Kay, and 
Dr. Kay had the responsibility for the judgment calls as to the 
pace at which people should be interviewed and interrogated, 
the pace at which various documentation should be translated, 
and all of those judgment things that are more appropriate to 
the CIA than the DOD.
    General Dayton has done a superb job of managing that task. 
There is a natural tension. You never have enough Arabic 
speakers or enough people to go over all the documentation that 
exists. They do not exist in our country or even through 
contractors. On the other hand, they have a good cadre of these 
folks. As you said, they come from all departments and 
agencies. It is fully budgeted for in this budget, and they are 
doing a terrific job under very difficult circumstances.
    The tension that exists is our people are not currently 
being killed by WMD; they are being killed by terrorists. The 
same individual that one might interrogate or the same document 
that one might translate could produce information, for 
example, on the location of Saddam Hussein; it could produce 
information on counterterrorism, and it could produce 
information on the location of WMD. You do not know that as you 
go through that process.
    So we are continuing to focus on WMD, but we are also 
focusing on counterterrorism.
    Chairman Warner. The mission basically remains the same?
    Secretary Rumsfeld. It does.
    Chairman Warner. The structure of leadership remains the 
same?
    Secretary Rumsfeld. It is identical.
    Chairman Warner. You will keep this committee informed if 
at any time you feel those resources of a significant amount 
have to be diverted away from that mission?
    Secretary Rumsfeld. Dr. Cambone, am I correct when I said 
that the mission has not been altered?
    Dr. Cambone. Yes, sir.
    Secretary Rumsfeld. It has not.
    Chairman Warner. Fine. Thank you very much.
    I was pleased that you directly answered my question with 
regard to the WMD. You also added your personal dimension to 
it, which is important because you have served under a number 
of presidents for a very long time in many challenging tasks, 
and you understand government service and the importance of 
being honest and forthright, as you are.
    General Pace, on the question of the transfer of 
sovereignty, you have looked at the various steps that have to 
be performed. One of them General Abizaid addressed, and in our 
preliminary discussions in preparation for this hearing you 
felt that he might have been misquoted with regard to the 
appropriate protections of the coalition forces and the ability 
of them to continue their work, not only the ISG, but the 
hunting down of the insurgents and the terrorists.
    Are you satisfied, one, that the schedule can be kept; and, 
two, that the basic military missions of the coalition forces 
can continue after June 30?
    General Pace. Sir, your Armed Forces right now are 
currently protected by the provisions of U.N. Resolution 1511, 
which gives us the protections of an agreement like the Status 
of Forces Agreement (SOFA) as we do what we do right now in 
Iraq. Our State Department, working with the U.N., working with 
the Iraqi Governing Council, knows exactly the kinds of 
protections that our Armed Forces will continue to need after 
the turnover of sovereignty, and they are working that.
    General Abizaid has had his input to that. We are watching 
that very carefully. We will ensure that our soldiers, sailors, 
airmen, marines, and coast guardsmen continue to have the 
requisite protection of their own individual rights as they do 
the mission that we have asked them to do.
    Chairman Warner. Lastly, Mr. Secretary, the forces under 
your supervision in the military are dependent on intelligence 
daily, I mean today, tomorrow, and in the future. While there 
are six and possibly seven investigations of the questions 
associated with WMD, we cannot wait until the final outcome to 
make some corrective measures. Are you personally looking at 
the DIA, the NSA, and other organizations, and contributing 
also your views to the greater Intelligence Community, about 
such corrections that have to be made today to see that the men 
and women of the Armed Forces and indeed others engaged in 
intelligence work that are on the front lines are receiving 
accurate, to the best we can, intelligence?
    Secretary Rumsfeld. Yes, sir. The things that are under way 
with respect to the DOD: number one, we are participating with 
the Director of Central Intelligence's (DCI), review of lessons 
learned that is led by Mr. Kerr. The DIA has its own lessons 
learned activity under way, as do the Services.
    In addition, we, needless to say, have been cooperating 
with the 9/11 Commission. We have been cooperating and will be 
cooperating with the commission to be appointed.
    I should add, however, that the intensive lessons learned 
activity that took place looking from the U.S. perspective 
after the Iraq war and also from the Iraqi perspective, 
interrogating Iraqi military people, has provided information 
as well with respect to intelligence. So there have been a 
whole series of things that the people have been proceeding on 
in an orderly way.
    Chairman Warner. Corrective measures are taken as you and 
others deem they are appropriate?
    Secretary Rumsfeld. Absolutely.
    Chairman Warner. In a timely way to protect our people?
    Secretary Rumsfeld. As the lessons are learned, they are 
implemented and have been. That process has been under way and 
ongoing.
    Chairman Warner. Thank you.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    There was an article about a week ago in the press that 
said that in two rounds of talks at the U.N. and Washington the 
United States told U.N. representatives that everything is on 
the table except the June 30 deadline for handing over power to 
a new Iraqi Government. Is that an accurate description of the 
President's position, that there will be no extension of that 
deadline regardless of the situation on the ground or 
regardless of whether or not that deadline has the support of 
the U.N.?
    Secretary Rumsfeld. First, let me come right back to that, 
but let me clarify some confusion. I have been reading things 
where critics and people have been saying that the Iraqi 
security situation is not sufficiently good that we could turn 
over sovereignty and then leave on June 30. There was never any 
intention to do that.
    Senator Levin. I just wonder, though, if you could answer 
my question----
    Secretary Rumsfeld. I will.
    Senator Levin.--because of the time problem.
    Secretary Rumsfeld. Okay.
    Senator Levin. Is that the position of the administration, 
that there will be no extension despite whatever happens on the 
ground and even if the U.N. does not support the turnover of 
sovereignty on that date?
    Secretary Rumsfeld. A decision on changing the date or 
changing whatever are really decisions for the President and 
not for me. These issues involving the governance pass-over are 
things that are basically in the hands of the President and the 
NSC, not the DOD.
    Senator Levin. Thank you.
    On the WMD issue, in September 2002, DIA produced a 
classified study called ``Iraq--Key WMD Facilities: An 
Operational Support Study.'' Part of that study has now been 
declassified. It included the following statement: ``There is 
no reliable information on whether Iraq is producing and 
stockpiling chemical weapons or where Iraq has or will 
establish its chemical warfare agent production facilities.'' 
That is from a September DIA study, which was classified until 
recently.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Now, on September 19, 2002, the same month of that 
classified DIA assessment, you publicly stated that Saddam has, 
``amassed large clandestine stockpiles of chemical weapons'' 
and ``we know he continues to hide biological and chemical 
weapons, moving them to different locations as often as every 
12 to 24 hours and placing them in residential neighborhoods.''
    How do you explain the contrast between the DIA-reported 
intelligence that said there was no reliable information about 
production or stockpiling of chemical weapons and your public 
statements that you knew that Saddam has such weapons? What 
explains the discrepancy there?
    Secretary Rumsfeld. First, let me say that, on your prior 
question, I would never say never on the deadline myself. 
Clearly the goal is to pass sovereignty as soon as possible, 
but what judgments the President might or might not make depend 
on the way the world evolves.
    Needless to say, I am sure I never saw that piece of 
intelligence and whether or not it was the DIA's view overall 
or an analyst's view I cannot tell from the way you have 
presented it. I have relied not on any one single intelligence 
entity, like the DIA or the CIA. I have relied on the 
Intelligence Community's assessments, and the Intelligence 
Community's assessments were what they were, and they were as I 
stated them.
    Senator Levin. Do you see a difference between saying with 
certainty that we know something and saying that there is some 
evidence of something?
    Secretary Rumsfeld. I do.
    Senator Levin. That was not the way in which the public 
statements of the administration were made. It was not that 
there is evidence or that there is belief. It was the 
statements of great certainty, that we know that there are 
amassed stockpiles of weapons, we know where they are. 
Everything was stated with certainty. What is not part of any 
of those investigations, those six that you have mentioned, is 
a review of the policymakers' certainty in their statements and 
what was the basis in intelligence for those statements of 
certainty.
    That is one of the issues here, as to whether or not those 
statements, made with certainty by many members of the 
administration, should be reviewed in terms of what the 
intelligence was that did or did not back up such certain 
statements. I am not asking the question. I just want to let 
you know that that is not being looked at by any of the 
investigations that you refer to. The investigation or inquiry 
that I am attempting to make at the Armed Services Committee 
with my staff is to look at that issue as well as all the other 
issues.
    But here is my question for you. It relates to the 
operation of Under Secretary of Defense for Policy Doug Feith. 
He made an analysis of the links between al Qaeda and Iraq and 
apparently presented a briefing to you on that analysis of the 
intelligence. Apparently the briefing that he made to you was 
then made to the DCI, the Intelligence Community staff, the 
NSC, and then to the Office of the Vice President.
    Was the Feith operation supposed to look at intelligence 
through a different prism from the rest of the Intelligence 
Community? Why was it formed other than for that? Why did it 
bypass the usual channels with the product of his analysis? It 
is kind of a two-part question.
    Secretary Rumsfeld. There was something that the press has 
characterized as an intelligence cell in the Office of Policy, 
Mr. Feith's office. It had two people in it at any given time. 
The people changed, and there may be two more. Maybe there were 
four or five at some point.
    All they did was to try to, as I understand it--and I 
talked to Mr. Feith about this. Their task was simply to read 
the intelligence, not to gather intelligence, but to read the 
intelligence that existed and to assist him in developing 
policy recommendations in his role as Under Secretary for 
Policy.
    At one moment, you are quite right, two people who had been 
looking at this thought they had an interesting approach to it. 
He asked me to be briefed. I sat there and listened to them. I 
said, ``Gee, that is interesting; why do you not brief the 
people at CIA?'' They did.
    Senator Levin. And the Vice President.
    Secretary Rumsfeld. I did not say that. I said exactly what 
I said. I asked them to brief the people at the CIA, and they 
did that. I do not know if they briefed anyone else besides 
that, but they did do what I asked.
    The implication that this two-person activity, or four or 
five over time, was gathering intelligence or doing something 
unusual is just not correct, as I understand it.
    Senator Levin. My question, though, was it intended that 
they look at intelligence through a different prism?
    Secretary Rumsfeld. No. As I understand it, just what I 
said. Their task was to take the intelligence that existed, 
look at it and see what they could figure out about it, just as 
I do when I read it and you do when you read it. In this case, 
Doug Feith asked a couple of people--there are mountains of 
this stuff and it is a big task to integrate it in your mind. 
He had this small group doing that, and they looked at 
terrorist networks, which seems to me to be a perfectly logical 
thing to do after September 11.
    Senator Levin. Thank you. My time is up.
    Chairman Warner. Senator McCain.
    Senator McCain. Thank you.
    Mr. Secretary, I am certainly glad to hear of the increase 
of 30,000 members in the United States Army, although it was 
done in a rather bizarre fashion by the Chief of Staff of the 
Army, as I understand. It is usually an announcement made by 
the Secretary of Defense, but it is not important.
    But a year and a half ago a number of us on this committee 
recognized the need for additional Marine Corps and Army 
troops, and I am sorry it took you so long to reach that 
conclusion. The reason I say that is because 40 percent of the 
troops in Iraq now will be Guard, National Guard, and Reserves 
and, despite your testimony, from my conversations with Guard 
and reservists around the country, you are going to see a very 
large exodus of members of the Guard and Reserve because of the 
incredible deployment burden that has been laid upon them. I 
hope that I am wrong, but that is what I am hearing from 
National Guardsmen and reservists throughout the Nation.
    Mr. Secretary, is it your intention still not to provide 
this committee with the communications concerning the Boeing 
decision, despite the fact that there is an Inspector General 
(IG) investigation and a Department of Justice investigation, 
and this is an issue of very serious consequence? I only have 5 
minutes, Mr. Secretary.
    Secretary Rumsfeld. Let me comment. First of all, it seems 
to me that your suggestion that it took us a long time to 
increase the size of the Army is not correct. The Army has been 
being increased over a 2-year period, under the emergency 
authorities authorized by Congress. General Schoomaker has only 
been in for a short period of months and he has fashioned a 
plan, presented it, and it seems to me a perfectly proper 
approach for the Chief of Staff of the Army to be the one 
discussing the way the Army is going to be organized and 
arranged. I do not consider it strange or unusual.
    In terms of the exodus issue from the Army, we certainly 
hope not. Pete Pace, do you want to comment on the retention 
and recruiting in the Army?
    General Pace. Sir, I can, sir. It is a snapshot in time, 
and we all need to be attentive to how we use our folks and 
what the downstream effects are. But, currently, all our 
retention goals, all of our recruiting goals, are being met. In 
fact, those Army and Guard units that are notified of going 
overseas, they have had an increase in those whose window was 
coming up for retention or getting out. They have increased 
that number by about 130 percent across the board.
    So the immediate snapshot is one of heroes--not victims--
stepping forward to support their country. But you are correct, 
Senator, we do need to keep an eye on it that we have them 
doing missions that are viable, missions that they should be 
conducting, that we treat them with respect, that they know 
ahead of time when they can be called up, that they know how 
long they are going to be called up for, and that they know 
when they are going to be demobilized--all things we need to do 
better.
    Senator McCain. We will see. I hope I am wrong. That is not 
what I am hearing from the people that actually are being 
deployed and are returning, including in my own State.
    But please answer the question about whether you intend to 
turn over the documents to this committee or not, particularly 
in light of actual criminal investigations that are going on.
    Secretary Rumsfeld. The first thing I would say is that you 
have not received a definitive answer in a long period and for 
that, I regret that. The complexity of it, as I understand it, 
is that it is not a DOD issue in total. It is a matter of a 
longstanding practice of the DOD and other executive branch 
departments of not turning over internal documents that reflect 
advice and opinions of employees as they advise senior 
decisionmakers. You are aware of this. E-mails are considered 
that type.
    With respect to the tanker issue, because of the concerns 
that a great many people have raised and the criminal 
investigation--the investigation, I should say, that you 
mentioned----
    Senator McCain. You answered my question, Mr. Secretary. I 
would like your long answer to be made part of the record, 
okay?
    Secretary Rumsfeld. Fair enough.
    [The information referred to follows:]

    There is a longstanding practice in the Department of not turning 
over internal documents that reflect the opinions of our employees as 
they advise senior decisionmakers. Electronic mail, like any other 
document, is subject to this principle. Generally, electronic mail 
messages that have been disclosed outside the executive branch or that 
do not reflect communications of Federal employees in advising on 
decisions will be turned over. Those internal electronic mail messages 
that do reflect advice to decisionmakers will not be turned over. It is 
important that officials of this Department receive open and candid 
advice and assessments from its employees. Turning over documents 
containing the frank opinions and candid advice of employees at many 
levels in the Department could discourage them from providing the 
crucial communications that our officials need to make the important 
decisions they are charged to make. On the proposed tanker program, we 
have provided, in addition to documents, comprehensive explanations of 
this program in testimony, briefings, and interviews. We stand willing 
to provide briefings and interviews on this and other important issues 
as we have in the past.

    Senator McCain. Does it bother you when there are e-mails 
that have already been disclosed that say things, for example 
from Boeing, ``Boeing doing good stuff, Rudy and Andy met with 
Bill Schneider, Bill Schneider very supportive, will work issue 
in OSD''? Understand, Mr. Schneider is Chairman of the Defense 
Science Board (DSB), which will be, according to what you are 
about to tell me, reexamining the requirement. So you have the 
fox guarding the henhouse.
    Does it bother you, ``We have ghostwritten several op-eds, 
including former Commander in Chief of the Pacific Fleet 
(CINCPAC) Archie Clemins, we will have one in Navy Times and 
maybe in Air Force Times, and get an early bird when 
published''?
    Does it bother you when the Secretary of the Air Force 
calls in the Boeing lobbyist--these are according to the e-
mails that we got from Boeing and why we need your e-mails, Mr. 
Secretary--and says, ``You have to put pressure on Mike 
Wynne.'' He chastises the Boeing lobbyist for not putting 
pressure on Mike Wynne?
    Does it bother you when, even after you had put a pause on 
the Boeing tanker deal, that Mr. Sambur sends out an e-mail 
that says the ``lease should be published today because all 
concerns concerning Ms. Druyun have been resolved''?
    Does it bother you when there are many members of the 
Defense Policy and Science Board who were lobbying DOD and Air 
Force officials to approve the lease of 100 Boeing 767s? Some 
of them are mentioned in the Boeing e-mails: Richard Perle, 
Bill Schneider, General Fogleman, Admiral Jeremiah, and Admiral 
Clemins.
    Does not all of this bother you, Mr. Secretary, that this 
incestuous relationship went on between Boeing, the United 
States Air Force, the Secretary of the Air Force in particular, 
and Mr. Sambur, and none of these people have been called to 
account for this kind of behavior?
    Secretary Rumsfeld. Senator McCain, I personally and we the 
Department take seriously any and every allegation of 
wrongdoing.
    Senator McCain. These are facts, Mr. Secretary. These are 
facts on paper, of e-mails that were sent within the DOD and by 
Boeing.
    Secretary Rumsfeld. As you are well aware, there is a DOD 
Inspector General's investigation of the entire aspect of this, 
and we are proceeding in an orderly and systematic way to try 
to come to the truth as to what took place. I assure you that 
if there has been wrongdoing, as there appears to have been, we 
will take appropriate action.
    I would say one other thing. When I left the DOD in 1977, I 
made it a point not to be connected with anything related to 
the Defense Department that was for profit. I did it so that I 
could always feel I could say whatever I wanted on a defense 
issue and not have someone do what you just did and suggest 
that, simply because I was connected to a defense company, 
therefore what I said----
    Senator McCain. I am not suggesting----
    Secretary Rumsfeld. Just a minute.
    Senator McCain. I am not suggesting, Mr. Secretary. I am 
telling you that Admiral Clemins, who is on your board, had 
ghostwritten by Boeing an article praising the tanker lease.
    Secretary Rumsfeld. I understand what you said, and I say 
we are looking into those things. But I do not think that 
simply reading off all of those names of people who happen to 
serve the government in a nonprofit way, on the Defense Science 
Board or the Defense Policy Board or some other advisory board 
of the DOD, that they are suddenly supposed to be in a 
cellophane package and not have any other thoughts or any other 
role in life. We understand----
    Senator McCain. I am talking about their actions. I am 
talking about their actions, not their position, Mr. Secretary.
    Secretary Rumsfeld. Well, we are looking into it. If we 
find any wrongdoing, I can assure you we will take appropriate 
action, as we have in the past.
    Senator McCain. Well, the Senate Armed Services Committee 
has the responsibility of oversight of the activities of your 
Department, and I do not see how we are going to be informed as 
to exactly what happened unless we see the communications and 
what went on in this decisionmaking process.
    I thank you, Mr. Chairman.
    Chairman Warner. I listened to you in your response to 
Senator McCain and you acknowledged that your Department was 
tardy in the response to some of the material which can be 
forthcoming, because, as the Senator said, this committee has 
oversight responsibilities, and we must continue to perform 
those and not just await IG reports and the like.
    I thank you.
    Secretary Rumsfeld. The IG reports, well, I will not get 
into the details, but the reason for the delay is because it is 
not totally a DOD decision. It is a decision for the executive 
branch, and we have to coordinate with the White House and the 
Office of Management and Budget.
    Chairman Warner. Thank you, Mr. Secretary.
    Senator Kennedy.
    Senator Kennedy. Thank you very much, Mr. Chairman, Mr. 
Secretary, General Pace. Thank you for representing the 
servicemen and speaking about their continued service to the 
country, which all of us are grateful for.
    Mr. Secretary, the U.S. Iraqi weapons inspector David Kay 
made it clear in recent days that his exhaustive postwar 
inspections leave little doubt that Saddam Hussein had no WMD 
at the time the war began. His conclusion is a devastating 
refutation of the Bush administration's case for war in Iraq 
and seriously undermines our credibility in the world.
    Until now, the administration has resisted the independent 
investigation of the issue, but now it is proposing 
investigation by a committee handpicked by the administration, 
with findings to be made only after the 2004 election. The 
White House agenda is clear--to blame the failure, the 
administration's case for war, on the Intelligence Community 
rather than the administration's manipulations and 
misrepresentations on the available intelligence.
    The debacle cannot all be blamed on the Intelligence 
Community. Key policymakers made crystal-clear the results they 
wanted from the Intelligence Community. Mr. Kay said, ``We were 
all wrong.'' He is wrong. Many in the Intelligence Community 
were right. There were clear warnings from the Intelligence 
Community. The dissents within the Intelligence Community to 
many of the positions taken by the administration were not 
noted or glossed over.
    As Senator Levin pointed out, your own DIA in September 
2002 said: ``There is no reliable information''--``no reliable 
information,'' Mr. Secretary--``whether Iraq is producing, 
stockpiling, chemical weapons or where Iraq has or will 
establish its chemical warfare agent production facilities.''
    The State Department Bureau of Intelligence and Research 
(INR) concluded: ``The activities we have detected do not add 
up to a compelling case that Iraq is currently pursuing what 
INR would consider to be an integrated, comprehensive approach 
to acquire nuclear weapons. INR considers the available 
evidence inadequate to support such a judgment.''
    Department of Energy intelligence disagreed that the famous 
tubes were a nuclear weapons program. The INR also concluded 
that the tubes were not intended for use in Iraq's nuclear 
weapons.
    Greg Thielmann, a retired career State Department official 
who had served as Director of the Office of Strategic 
Proliferation and Military Affairs at the INR, said it all last 
July: ``Some of the fault lies with the performance of the 
Intelligence Community. Most of it lies with the way senior 
officials misused the information they were provided.'' He 
said: ``They surveyed the data, picked out what they liked. The 
whole thing was bizarre. The Secretary of Defense had this huge 
Defense Intelligence Agency and he went around it.''
    Lieutenant Colonel Karen Kwiatkowski, a recently retired 
Air Force intelligence officer who served in the Pentagon 
during the buildup to the war, said: ``It was not intelligence; 
it was propaganda. They take a little bit of intelligence, 
cherry-pick it, make it sound much more exciting, usually by 
taking it out of context, usually by juxtaposition of two 
pieces of information that do not belong together.''
    We have seen in the examples that were mentioned this 
morning, for example just on the issues of stockpiling on 
chemical weapons, as mentioned by Senator Levin, in 2002 DIA 
said no reliable information on whether producing and 
stockpiling. You said in 2002 before this committee, ``We do 
know that.'' ``We do know that.'' I understand the Intelligence 
Community never says ``We know.'' But you said in September, 
``We do know that.''
    In October the National Intelligence Estimate (NIE) said we 
have 100 metric tons, 500 metric tons of chemical weapons. We 
found that out in the last year. Secretary Powell says in 
February, ``That is a conservative estimate.'' The stockpile of 
100 tons to 500 tons--``That is a conservative estimate.''
    Then you say in March 2003, ``We know where they are.'' 
``We know where they are.'' That is an extraordinary leap, and 
that extraordinary leap was wrong.
    Do you not think that that independent commission ought to 
be really reflective of men and women that can look hard and 
fast, at not just what the intelligence was, but how it was 
manipulated, and interrogate career individuals in the 
Intelligence Community that believe that to be the case?
    Secretary Rumsfeld. Senator Kennedy, you might not have 
been here for my opening statement on the intelligence piece, 
but there was not a single thing in there that blamed the 
Intelligence Community or put any cast on it even slightly like 
you suggested.
    Second, I never have gone around the Intelligence 
Community. The Intelligence Community does not always agree. 
You have hundreds of people, and they have footnotes and they 
have different opinions. You develop a consensus. I have stuck 
with the consensus----
    Senator Kennedy. Are we not entitled to hear what the 
dissent was as well?
    Secretary Rumsfeld. Absolutely.
    Senator Kennedy. Did we ever? Was that provided----
    Secretary Rumsfeld. Absolutely.
    Senator Kennedy. Will you provide where these dissent 
positions were provided us prior to the time that we voted?
    Secretary Rumsfeld. I am not in the Intelligence Community. 
I do not deal with the Intelligence Community committees in 
Congress. I am saying that within the executive branch, when 
intelligence is circulated it includes footnotes, it includes 
differing opinions, as it always has for the last 30 years to 
my certain knowledge.
    Next, you have twice or thrice mentioned manipulation. I 
have not heard of it. I have not seen any of it, except in the 
comments you have made.
    Third, I am told by Dr. Cambone sitting behind me that the 
document you read from and possibly the same document that 
Senator Levin read from also has a paragraph in it that says 
the following: ``Although we lack any direct information, Iraq 
probably possesses chemical warfare agent in chemical 
munitions, possibly including artillery rockets, artillery 
shells, aerial bombs and ballistic missile warheads. Baghdad 
also probably possesses bulk chemical stockpiles primarily 
containing precursors, but that also could consist of some 
mustard agent and stabilized VX.'' That is in the same 
document, I am told.
    Last----
    Senator Kennedy. You said ``probable'' and ``possible,'' 
``probable'' and ``possible'' rather than ``we know.'' It is a 
big difference.
    Secretary Rumsfeld. I am coming to ``we know.''
    I could be wrong. I am asked a lot of questions. I use a 
lot of words, and I am sure from time to time I say something 
that in retrospect I wish I had not. However, I remember the 
moment I said ``we know'' something, and it was this: The 
forces had gone in, out of Kuwait into Iraq, and they were 
moving up and they had gotten in a day or two possibly, and 
they were a long way from Baghdad.
    As everyone on this committee will remember, the suspect 
sites, which is what they generally call them, for WMD that the 
Intelligence Community produced, the suspect sites tended to be 
north. They tended to be in the Baghdad and north area. Our 
troops were a long way from even Baghdad. I was asked, ``Where 
are the WMD?'' I think I said: ``We know where they are. They 
are up north; they are not down here.'' I was referring to the 
suspect sites.
    You are quite right. Shorthand ``we know where they are'' 
probably turned out not to be exactly what one would have 
preferred in retrospect.
    But let me say one other thing. General Pace, would you 
please describe what the United States Armed Forces did every 
day by putting on chemical gear? They believed, we believed, 
everyone believed, they had chemical weapons. These people did 
not get into these----
    General Pace. Yes, sir. What we did, sir, was, as you would 
expect, prepare for the potential capabilities of the enemy. 
Even if you disregard all of the intelligence that was current 
at that time, if you simply looked at the fact that he had used 
chemicals against his own people, had used chemicals against 
Iran, it was prudent for military planners to believe that he 
might use chemicals against us when we attacked.
    So as we went across the line of departure, as we crossed 
from Kuwait into Iraq, all of our troops were in mission 
protective chemical gear, and they stayed in that, either just 
the suits themselves, sometimes the boots and the gloves, and 
on occasion the mask as well, as the tactical intelligence 
changed. They put that gear on and stayed in that well past the 
line at which we thought, which was about 60 miles south of 
Baghdad--well north of that line, they stayed in chemical 
protective gear.
    It was reinforced by discoveries on the battlefield, like 
3,000 brand new sets of chemical protective suits and atropine 
injectors that were found on the Iraqi side when they uncovered 
them in a school. Those kinds of discoveries led us to believe 
that if the Iraqis themselves had that kind of equipment and we 
knew we did not have chemical weapons, that they were preparing 
to use it.
    That is the kind of environment inside of which we wore the 
chemical protective gear. It was not only for the troops who 
were on the ground, but everyone in theater. The Navy guys at 
sea, the Air Force folks where they were, all had the chemical 
equipment right there with them and practiced daily getting 
into it in case they were attacked.
    Senator Kennedy. Thank you, Mr. Secretary.
    I just say that in your September 19, 2002, testimony to 
the committee you said five times that Iraq has or we know they 
have WMD.
    Thank you, Mr. Chairman.
    Secretary Rumsfeld. I am not going to go back and quote the 
comments from the previous administration and President Clinton 
and Vice President Gore and Secretary Cohen and all of that the 
way you have. I can just say that the stream of intelligence 
over a period of a long time in both administrations led the 
same people in similar jobs to the same conclusions.
    Chairman Warner. Mr. Secretary, that is an important point. 
You must recognize, we are slightly handicapped, that our 
offices are locked. We cannot get to a lot of the information 
we had intended to bring with us this morning. I will see that 
our record will remain open for an indefinite period of time 
until our offices are once again opened and material is 
available to members to put in the record and ask such further 
questions as may be appropriate.
    But you are quite correct on that, Mr. Secretary, and there 
is a continuity between the manner in which these facts were 
brought to the attention of the American public by the 
succession of the Clinton and the Bush administrations. I think 
in time we will get the answers to it.
    But I would like to note one thing. In the mystery of where 
these weapons may be, perhaps it will be solved, but we should 
thank God that they were not there to be used against our 
troops, bottom line.
    Yes, Senator.
    Senator Levin. Mr. Chairman, I just want to make it clear 
that the record will be kept open and not just for whatever 
submission you referred to, but for other submissions and for 
additional questions, given the short period of time that we 
have to question the Secretary.
    I wonder, just how long would that record be kept open? A 
couple of days?
    Chairman Warner. You and I will consult. We have to know 
when our offices are opened, and that is an undetermined period 
of time.
    We will now proceed to Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman.
    Senator Kennedy has indicated that we need somebody to take 
a hard look at the intelligence that is hard and fast. Senator 
Kennedy, if I could have your attention.
    Senator Kennedy. Excuse me.
    Senator Roberts. I am hard; I am fast; I am from Dodge 
City; and I am chairman of the Select Committee on 
Intelligence. We have under Senate Resolution 400 marching 
orders to investigate or to make an inquiry in regards to the 
timeliness and the credibility of the prewar intelligence in 
reference to WMD and any terrorist activity, the atrocities 
that were committed in Iraq, which are obvious, and also 
regional stability.
    I want people to know that in this committee, with this 
hard and fast and tough chairman from Dodge City, we have had a 
7-month, 24-7, 10 staff members, work just tremendous overtime 
effort. We have a working draft over 300 pages long that will 
be presented to the members of the Intelligence Committee as of 
tomorrow.
    We have interviewed over 200 analysts, including critics, 
including people mentioned by Senator Kennedy. I must say that, 
after repeated interviews by our staff, to date we still have 
yet to find any coercion or intimidation on the part of any 
analyst to change their analytical product. It is the most 
comprehensive inquiry in intelligence in at least a decade.
    After this Thursday, we will meet again after a week, after 
members of the Intelligence Committee are able to digest and 
educate themselves to what is in this report. We hope to agree 
on a report. That may be a little tough, but we are going to 
get that job done. We will be making some recommendations, as 
opposed to simply pointing fingers of blame.
    We will redact the classified material. We will work with 
the Agency to get that done. We will have deadlines. We will 
make a public report. I hope we can do it in March.
    If there are any egregious policy decisions that we find in 
this report, we will look into it. Under Secretary Feith will 
again appear before the Intelligence Committee, along with his 
subordinates. CIA Director Tenet will also appear, and I cannot 
emphasize enough how aggressive, how strongly I feel that we 
will let the chips simply fall where they may.
    Over the course of the inquiry that we hope to complete 
soon in the Intelligence Committee, we have found a large and 
consistent body of analysis, as you have indicated, Mr. 
Secretary, over 10 years in regards to Saddam Hussein in 
reference to his WMD capability. This intelligence was used, 
the famous word ``used,'' by the executive, by President 
Clinton, by President Bush, and also by those of us in 
Congress. It was used on the no-fly zones, on the sanctions, on 
the targeted bombing attacks, and, finally, in regards to 
military action.
    I would just like to quote the President when he indicated 
that ``We simply cannot allow our adversaries to build arsenals 
of nuclear, chemical, and biological weapons and missiles to 
deliver them. There is no more clear example of this threat 
than Saddam Hussein. The UNSCOM inspectors believe that Iraq 
still has stockpiles of chemical and biological munitions, a 
small force of Scud-type missiles, and the capacity to restart 
quickly its production program and build many more weapons. Let 
me be clear: A military operation cannot destroy all the 
weapons of mass destruction, but it can and will leave him 
significantly worse off than he is now in terms of the ability 
to threaten the world with these weapons or to attack his 
neighbors. He will know that the international community 
continues to have the will to act when he threatens again.''
    That statement was made by President Clinton, and I am not 
trying to point out President Clinton or President Bush. The 
key question is, did you find this intelligence to be true and 
consistent prior to the military action? I think your answer is 
going to be ``yes.'' I think that is going to be stressed all 
the way through this hearing and your answer. So I will leave 
that to you to answer that question, after I have answered it 
for you.
    Secretary Rumsfeld. I agree. It has become developed and 
adjusted as one goes along, but the threads have been 
consistent.
    Senator Roberts. All right. Now, as everybody knows, there 
has been a global Intelligence Community failure, on the other 
hand, in regard to whether or not they had WMD stockpiles and a 
challenge really to recommend systemic reform. You have gone 
over some action steps that the military is taking. If I can 
find my list, you said the DCI is having a review with the Kerr 
report. The DIA is conducting their review. All the Services 
are conducting their reviews. You are working with the 9/11 
Commission.
    We have the House Intelligence Committee investigation, the 
Senate Intelligence Committee investigation, and now this 
outside Warren Commission type of investigation. There are at 
least six or seven panels now doing investigation on the 
systemic reform that must take place because of the mistake in 
regard to the stockpiles. I hope the hell there is somebody 
left down at the CIA to actually conduct the global war on 
terrorism, with all of these activities.
    But I guess my question to you is, we will have Mr. Tenet 
up again. We will have Secretary Feith up again. We will get 
our work done. I trust that you are committed to really trying 
to find out how we can do this better because, as the Senator 
has indicated--I am talking about Senator Kennedy now--many 
strong statements were made. I believed that we would find the 
WMD. Dr. Kay believed that. Dr. Duelfer even still believes 
that. Still there was a failure in regard to intelligence.
    Would you have any comment?
    Secretary Rumsfeld. Well, Dr. Kay is probably correct when 
he said that we are not completed; we are 85 percent down the 
road, and there is more to be looked at. We will know ground 
truth before it is over, and the ISG and Dr. Duelfer have a big 
task to finish it up.
    I agree completely; the country, the President of the 
United States, is determined to get to the bottom of this 
question. Your committee is determined; Congress is determined; 
and I am sure we will as a country get the answers as to what 
took place. I personally believe that the independent 
commission that the President has proposed is a good thing to 
do. I agree with you that there are a great many people looking 
at this, but it is a big subject. It is an important subject.
    As we go into the 21st century and look at the challenges 
and threats we face, we have to have a high degree of 
confidence that we understand them and we understand what we 
know about them and what we do not know about them.
    Chairman Warner. Thank you, Senator Roberts.
    Senator Roberts. As we say as individual Senators, I know 
my time has expired, but I do want to quote Dr. Kay in regards 
to: The world is far safer with the disappearance and removal 
of Saddam Hussein. When we have the complete record, you are 
going to discover that after 1998 it became a regime that was 
totally corrupt. Individuals were out for their own protection. 
In a world where we know others were seeking the WMD, the 
likelihood at some point in the future of a seller and a buyer 
meeting up would have made that a far more dangerous country 
than even we anticipated with what may turn out to be not fully 
accurate estimating.
    I thank the chairman for his leniency.
    Chairman Warner. Thank you very much.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman, Mr. 
Secretary.
    I do not think I am the only one who is alarmed at the 
significant costs associated with Afghanistan and Iraq that are 
not included in this budget, and alarmed that these off-book 
transactions are potentially dangerous and misleading.
    Secretary Rumsfeld. Pardon me, I am having trouble. What 
was misleading?
    Senator Reed. Well, I think there is a number of costs that 
we assume----
    Secretary Rumsfeld. A number of what?
    Senator Reed. Costs.
    Secretary Rumsfeld. Costs?
    Senator Reed. Costs associated with Iraq and Afghanistan: 
the ongoing commitment of over 100,000 troops, the 
recapitalization of equipment, the bonuses that we will have to 
use to maintain troop strength. All these costs do not seem to 
be properly included within the budget going forward. There 
seems to be a prospective reliance upon a supplemental sometime 
down the road.
    Secretary Rumsfeld. Well, Senator----
    Senator Reed. May I complete?
    Secretary Rumsfeld. Sure.
    Senator Reed. It seems that the operative logic here is 
that if it cannot be properly or accurately estimated, then it 
is assumed to be zero or it is excluded from the budget. In 
fact, what I find alarming is that seemed to be the logic that 
applied to post-combat operations in Iraq last year, when many 
people on this committee asked for estimates about the cost of 
ongoing operations, the costs of occupation, and we were told 
essentially, ``Well, we cannot estimate them, so we will not 
include them in our specific budget request.''
    That led to a $79 billion--a huge supplemental last year. I 
feel we could be on the same track.
    I just want your view, Mr. Secretary.
    Secretary Rumsfeld. Well, Senator, I am confused by your 
comment. Last year we came before Congress and had a plug 
number to propose--or 2 years ago, I guess it was--for 
Afghanistan. We were told by Congress: ``Do not do that. 
Supplementals are for wartime operations; we will not consider 
any proposals for the wartime operation in Afghanistan or 
Iraq.''
    The reason the budget is cast the way it is cast is because 
Congress insisted that it be cast the way it is currently cast.
    Senator Reed. Well, Mr. Secretary, I do not believe I 
insisted on that; did I?
    Secretary Rumsfeld. You are a Member of Congress.
    Senator Reed. I know, but I am not going to accept an 
argument saying that we forced you to disregard costs, not to 
include proper estimates, not to include in your proposal to 
Congress what you think you need.
    Secretary Rumsfeld. Senator, we were zeroed out. We 
proposed it, and it was zeroed out. We were told, ``Do not do 
it this way.''
    Senator Reed. Do you think that is the right approach, Mr. 
Secretary?
    Secretary Rumsfeld. No. Obviously, we wanted----
    Senator Reed. Then why do you not propose a budget that 
reflects accurately all the costs that you anticipate over the 
next year for Afghanistan and Iraq?
    Secretary Rumsfeld. The decision was made, after Congress 
rejected that approach, that the executive branch would try to 
use supplementals for the purpose of wartime operations, but 
not for various things that just were not included in the 
budget.
    Senator Reed. Mr. Secretary, as I recall the debate about 
the $10 billion, it was not the fact that we were telling you 
do not put the money in. We wanted to know what you were going 
to spend it for. You wanted $10 billion unconditional, to be 
spent anyway you wanted. That is a usurpation of our 
responsibility to appropriate money for specific items.
    You have the obligation to come before us with a detailed 
estimate of the cost and what you propose to do in the way of 
covering those costs. I cannot understand how you can argue 
that we are forcing you to disregard costs.
    Secretary Rumsfeld. I did not suggest that at all. That was 
your statement, not mine, Senator. What we are doing is we will 
come before Congress with the proposal for what should be spent 
in a supplemental. There will be the details; there will be the 
justification, just as there would have been in the budget.
    Senator Reed. Why can you not include those costs today in 
your budget, so that we can make appropriate decisions about 
offsets, about priorities? This is to me extraordinarily 
ineffective and misleading budgeting, and it is not because 
Congress has ordered you. I would suspect that the law requires 
you to send up a budget here that covers all your anticipated 
costs.
    Secretary Rumsfeld. Well, Senator, if you go back over the 
years you will find that every war has been funded by 
supplementals. That is what has been done throughout my adult 
lifetime. I do not know a single situation where there has been 
a war that has been funded by a budget----
    Senator Reed. Mr. Secretary----
    Secretary Rumsfeld.--that is developed a year and a half 
before and then submitted to Congress for a war that is 
ongoing.
    Senator Reed. Mr. Secretary, we both understand that 
supplementals are used to cover unanticipated costs that arise 
after the budget documents are presented and because of other 
exigencies that take place. You know fully well, as we all do, 
that we will be committing over 100,000 troops to Iraq, other 
troops to Afghanistan. These troops have costs. Their costs are 
numerous, myriad costs. Yet you are telling us now that, 
because we have told you you have to operate with a 
supplemental, you are not putting those costs in the budget?
    Chairman Warner. Senator, your time is up.
    I would like to observe that the Appropriations Committee 
has a lot to do with the supplementals and the policy governing 
those supplementals. I believe if you will consult with Senator 
Inouye and Senator Stevens that this is their domain and they 
made that decision. If I am incorrect, Mr. Secretary----
    Senator Reed. Mr. Chairman, the Secretary basically said 
that he has not included all the costs that he anticipates this 
year for operations in Afghanistan and Iraq in this budget, 
and, therefore, we are not getting a full picture in the budget 
of the anticipated, the known, the most likely military 
operations of this Government for the next year.
    Secretary Rumsfeld. I would phrase it quite close to that, 
but not exactly--that it is not possible to predict costs a 
year in advance in a war. Wars are uncertain things. It is 
possible to say, you are correct, Senator, that the funds for 
the ongoing conflict in the global war on terror and 
Afghanistan and Iraq are not in the budget. That was specified 
in the budget when it was presented. That is the pattern that 
has developed during the 3 years I have been back in this post, 
as I understand it, as a result of an interaction between the 
executive and the legislative branches at a level far above me.
    Chairman Warner. Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Mr. Secretary and General Pace, let me make sure that we 
remind you, as you do every opportunity you have and every 
opportunity we have, to convey to our men and women in uniform 
how much we appreciate the great job they are doing. As we go 
through this budget process, we want to make sure that we pass 
a budget that is reflective of the great work that they are 
doing and the great appreciation that all Americans have for 
that terrific work that all of our men and women are doing.
    I want to talk about a couple of specific issues, Mr. 
Secretary, relative to the budget. The two issues are first of 
all tactical air (TACAIR) and second air mobility. I know this 
is probably General Myers' specialty, but again you and I have 
talked about each of these in enough detail that I know you are 
prepared on this.
    First of all with respect to TACAIR, we have been talking 
about this train wreck that may be forthcoming down the road 
relative to Joint Strike Fighter, F/A-18, F-15, and the F-22. I 
note with very much approval that you have 24 F-22s funded in 
this authorization proposal. Last year during the Senate 
deliberations on the budget we had an issue relative to the F-
22 and we worked through it. I am assuming because of your 
proposal that you are satisfied that procurement of F-22 is on 
time, on schedule, and continues to be on budget.
    Second, with respect to the TACAIR issue, I note that we 
are having some problems with the Joint Strike Fighter. It is 
the same kind of problems we always have with every aircraft--I 
do not care what it is. We experienced it with the F-22, and 
our critics were quick to jump on us with respect to the F-22. 
But I want to make sure that you are satisfied that this weight 
issue on the Joint Strike Fighter is not something that is 
going to delay that, that both of these programs are on 
schedule, and that this train wreck that we have all feared may 
be forthcoming is going to be able to be avoided.
    Secretary Rumsfeld. Well, I certainly hope you are right. 
The F-22 has a cost cap on it. It had some troubles with the 
software, and the costs have gone up. The Joint Strike Fighter 
has a weight problem, and that is being worked on. As you 
properly indicate, that is not unusual in programs of this 
type. It is in its very early stages.
    If one talks to the experts in the Air Force, they seem 
reasonably confident that they have noted the problems, have 
addressed them, and have people proceeding on them in an 
orderly way.
    Do you want to add anything to that, Dov?
    Dr. Zakheim. Yes. Senator, as you well know, this is not a 
problem that is unique to the United States. This is an issue 
that always arises when you go from computer-aided design to 
actual engineering. It affects every country that builds an 
airplane.
    The decision that was taken, which was very prudent, was to 
deal with the issue now and to have cost control and 
essentially to get our arms around the problem now instead of 
taking some systems out and then having to reintegrate them 
later on at a much higher cost to the taxpayer. Of course, the 
Joint Strike Fighter is an international program and all our 
partners have agreed to this approach.
    Senator Chambliss. I am taking the response from both of 
you that you are very comfortable with the schedule of both of 
those programs at this point?
    Secretary Rumsfeld. I am never comfortable. They are always 
complicated; they are always difficult; they always seem to 
take a little longer than you wish; and they always seem to 
cost a little more than you would hope. But the folks that are 
working on them believe they have their arms around the 
problems, and they are working on them hard.
    Senator Chambliss. Mr. Chairman, I note my time has 
expired.
    Senator Sessions [presiding]. I believe Senator Warner 
asked that Senator Akaka be recognized. Senator Akaka, you are 
next.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I would like to begin by permitting Senator Levin 30 
seconds.
    Senator Levin. Thank you very much, Senator Akaka.
    The issue of whether or not an intelligence investigation 
by an outside commission should be a truly outside commission 
or one just appointed by the President we can save for another 
place. If it is going to be independent, it has to be 
independent of the President, and that means Congress has to be 
involved in the selection of that commission and the rules. 
That is number one.
    Another issue, which we are not going to resolve here, is 
we believe on the Democratic side that the Intelligence 
Committee should look at the use of intelligence by the 
policymakers, not just at the production and creation by the 
Intelligence Committee. That is another issue for another place 
and another day.
    I want to put in the record something relative to the 
alleged continuity of intelligence between the Clinton 
administration and the Bush administration. I am going to put 
in the record three tables that were produced by the Carnegie 
Endowment. Table 3 compares pre-2002 intelligence assessments 
with October NIE assessment in 2002. So I am going to go down 
the list and put these tables in the record comparing pre-
October intelligence with post-October 2002 intelligence.

          ``Iraq reconstituted its nuclear program after 
        1998'': pre-2002, probably not; October 2002, yes.
          ``Iraq attempted to enrich uranium for use in nuclear 
        weapons'': pre-2002, maybe; October 2002, yes.
          ``Iraq attempted to purchase uranium from abroad'': 
        pre-2002, no; October 2002 NIE assessment, yes.

    Now, on the chemical weapons programs: ``Iraq had large 
stockpiles of chemical weapons:'' pre-2002, maybe; October 2002 
NIE, yes.

          ``Iraq had covert chemical weapon production 
        facilities'': before 2002, not sure; October 2002, yes.

    On and on, the significant differences in the intelligence 
between before and after October 2002, laid out in this 
Carnegie Endowment study. I would ask that these be made part 
of the record.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Warner. Without objection. The Secretary should be 
given the opportunity to put in the record a rebuttal.
    Senator Levin. That was on Senator Akaka's time, so I 
appreciate it----
    Chairman Warner. I understand that.
    Secretary Rumsfeld. I would be happy to. I will say this; 
George Tenet was the DCI in the last administration and this 
administration, and he has indicated repeatedly that there are, 
as I said, threads of the intelligence that are consistent and 
provide continuity over a sustained period of time. He is the 
DCI.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Levin. Thank you, Senator Akaka.
    Chairman Warner. Thank you very much.
    Senator Cornyn.
    Senator Levin. No, no. Senator Akaka still has the rest of 
his time.
    Senator Akaka. General Pace, various lessons learned 
reports have highlighted the problems associated with theater 
logistics during Operation Iraqi Freedom. My understanding of 
the problem is that there were two major drivers: first, 
shipments. Shipments were not well-configured for in-theater 
distribution when they left the United States, which shifted a 
major burden onto the deployed units there. Second, this 
problem was exacerbated by the lack of timely deployment of 
distribution units and equipment.
    My first question to you is, what is your assessment of 
these problems. Has DOD taken steps to ensure that these 
problems will not arise again as new units are deployed into 
Iraq?
    General Pace. Thank you, Senator. As I think you know, 
Senator, we had, as part of our prewar workup with the team 
that was going to be leading it in Central Command, folks who 
were focused on lessons learned. They went down to Tampa. They 
worked with the leadership in Tampa. They went with the forces 
overseas and they have worked with the forces since they have 
come back to collect just the kind of data you are talking 
about.
    When we looked at deploying the force, we knew that we did 
not need to repeat what we did last time, to move so much gear 
to theater. Literally last time, I am told, although I do not 
know the exact figures, about 90 percent of the logistics that 
were taken to the theater and Operations Desert Shield-Desert 
Storm had to be put back aboard ships and brought home. We 
wanted to avoid that problem.
    We wanted to make sure that we had the tooth forward and 
the tail sufficient, but coming up behind to support. In the 
process of doing that, the number of ships that were available, 
the numbers of planes that were available, were allocated by 
the Transportation Command commander in support of the troops 
on the ground.
    In doing so, there were certainly lessons about how to load 
ships and the kinds of things that, had they been there a 
little sooner, would have helped. But we have absorbed those 
lessons and we are taking those and redesigning our logistics 
system to make a joint logistics system. What we were able to 
do in this last one was coordinate and de-conflict each 
Service's logistics push forward. What we need, as we had with 
the joint fighting force, we need a joint logistics system that 
allows us to better coordinate and get the right gear to the 
battle at the right time.
    Were there problems? Certainly, sir. We have identified the 
problems and we are working on them.
    Chairman Warner. Thank you very much, General.
    Senator Cornyn.
    Senator Cornyn. Mr. Secretary, the London Financial Times 
reports February 4, 2004, that the ``U.S. is preparing to cut 
its troop levels in Europe by up to a third.''
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    My question is, with the ongoing Global Defense Posture 
Review and the likely decision to bring home troops from 
overseas bases, whatever that number may be--and perhaps you 
could comment on that--not to mention the decision to 
temporarily increase Army end strength levels, how will these 
be factored into the BRAC process?
    Secretary Rumsfeld. The BRAC process is just getting under 
way, and, of course, one would hope that the answer to your 
question would be that the BRAC Commission would do it 
skillfully. But at the moment we do not have a good solid 
number as to the number of forces that would be coming out of 
Europe, although there certainly will be forces coming out of 
Europe and also some out of Asia as well as elsewhere.
    The BRAC process task will be to look at that and see that, 
if the theory is right that there is something like 20 percent 
base capacity, facility capacity, excess at the present time. 
If that is true and then one brings forces home from overseas, 
one would think that the excess capacity here at home would be 
somewhat less than that and the BRAC Commission would have to 
take those things into account.
    Senator Cornyn. My next question has to do with the fiscal 
year 2003 creation of the Assistant Secretary of Defense for 
Homeland Defense, the purpose of which was to better coordinate 
and provide policy oversight for DOD homeland defense 
activities. Could you please explain how you see DOD's role in 
homeland defense evolving and how that will be factored into 
the BRAC process as well?
    Secretary Rumsfeld. Well, I do not know that it will have a 
relationship with the BRAC process. The forces we have, of 
course, around the world are available for homeland defense. 
The ones that are here are closest. The ones that are elsewhere 
are available. The principal responsibility for homeland 
defense, as we know, is the first responders, depending on the 
nature of the problem.
    But very quickly the DOD gets engaged. For example, at the 
Olympics last year in Salt Lake City we had a lot of forces 
there. In fact, we had a lot more forces there than we did in 
Afghanistan at that time. When there is a difficulty like at 
the Senate Office Building today, we have a chem-bio unit that 
is coming up to assist in that.
    But the Assistant Secretary for Homeland Defense task is to 
keep us in the Department sensitive to the responsibilities of 
the Department with respect to supporting the first responders 
here in the United States and to working closely with the 
Homeland Security Department and in the interagency process to 
see that there are the kinds of exercises and testing of 
systems to see that we are prepared and able to respond and 
coordinate properly with the people who have the principal 
responsibility.
    Senator Cornyn. Well, I know, for example, in my State the 
military bases frequently have memoranda of understanding with 
local communities so that if there is an emergency of some 
nature on base that the fire department, the first responders, 
off base can augment the resources available on base and vice 
versa. That is the thrust of my question.
    But to that extent, do you deem that relevant to the 
process? I mean, is that going to be factored in somehow or 
another?
    Secretary Rumsfeld. Well, certainly the statute lists a 
whole series of things that need to be taken into 
consideration, and I would think that those kinds of 
considerations would be included.
    Senator Cornyn. Thank you.
    Chairman Warner. In the instance of the last question and 
other questions, you might amplify for the record your 
responses, so that we can move along here expeditiously. I 
thank the witnesses and the questioners.
    [The information referred to follows:]

    Homeland defense mission requirements will be factored into the 
military value evaluation of DOD's installations within the Base 
Realignment and Closure process 2005 analytical effort.
    The criterion to be used in the Base Realignment and Closure 
process is as follows (as published in the Federal Register on February 
12, 004):
Military Value
    1. The current and future mission capabilities and the impact on 
operational readiness of the Department of Defense's total force, 
including the impact on joint warfighting, training, and readiness.
    2. The availability and condition of land, facilities and 
associated airspace (including training areas suitable for maneuver by 
ground, naval, or air forces throughout a diversity of climate and 
terrain areas and staging areas for the use of the Armed Forces in 
homeland defense missions) at both existing and potential receiving 
locations.
    3. The ability to accommodate contingency, mobilization, surge, and 
future total force requirements at both existing and potential 
receiving locations to support operations and training.
    4. The cost of operations and the manpower implications.
Other Considerations
    5. The extent and timing of potential costs and savings, including 
the number of years, beginning with the date of completion of the 
closure or realignment, for the savings to exceed the costs.
    6. The economic impact on existing communities in the vicinity of 
military installations.
    7. The ability of both the existing and potential receiving 
communities' infrastructure to support forces, missions, and personnel.
    8. The environmental impact, including the impact of costs related 
to potential environmental restoration, waste management, and 
environmental compliance activities.
    Homeland defense mission requirements will be factored into the 
military value evaluation of DOD's installations within the BRAC 2005 
analytical effort.
    The security of our Nation, whether expressed as homeland defense, 
domestic preparedness, or the global war on terrorism, is the primary 
DOD mission. Both the Base Realignment and Closure legislation and 
DOD's implementation of it ensures that homeland defense and security 
are considered in the BRAC process. Specifically, criterion two 
requires DOD components to consider ``the availability and condition of 
land, facilities, and associated airspace . . . as staging areas for 
the use of the Armed Forces in homeland defense missions.'' 
Additionally, as a mission of DOD, all of these issues (homeland 
defense, domestic preparedness, and the global war on terrorism) are 
captured by the requirements of criteria one and three.

    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Mr. Secretary, General, it is a pleasure to be able to 
recognize the men and women in the military and the wonderful 
job that they do. It is also a sobering experience for my 
colleagues and I to call the parents, the spouses of those who 
have been lost in Iraq or anywhere around the world.
    My question today is going to be a basic question. General 
Pace, last November I asked Acting Secretary of the Army Les 
Brownlee when every soldier in Iraq would be equipped with the 
most advanced body armor. I asked this question after a 
constituent called my office to complain that his son was 
conducting house to house searches in Iraq and still wearing 
kevlar. Secretary Brownlee said that all troops in Iraq would 
have the advanced body armor by December.
    My question, of course, is, do you know if this is now the 
case?
    General Pace. Sir, it is the case. In fact, it was January, 
last month, that 100 percent of DOD military and civilians in 
Iraq had been issued to them individually the advanced body 
armor. As we rotate the force, before they go into Iraq the new 
troops will have issued to them the new body armor. Thanks to 
the funding of Congress, we have been able to take the initial 
capacity of industry--when this war began, it was still in the 
technology environment. We were able to take that 1,600 set per 
month capacity, and we have built it up now, thanks to your 
funding, to 25,000 sets per month. We have met the objective 
and we will be able to ensure that everyone continues to have 
it as they enter the country.
    Senator Ben Nelson. I now hear that the 1057th 
Transportation Company, part of the 37th Theater Supply 
Command, is not outfitted with advanced body armor. They have 
some newer vests, but not the insert of the body armor. Their 
mission, as you may know, is the transportation of supplies and 
personnel into southern Iraq, which then also takes them into 
harm's way on a very regular basis.
    Do you know whether they have or can you look into that if 
you do not know whether they have it by now?
    General Pace. Sir, I will find out specifically whether or 
not every soldier in that unit currently has that. I can tell 
you for a fact that there are sufficient sets in Kuwait and in 
Iraq to have every single service member and DOD civilian with 
their own personal set. It is the plan as they rotate to ensure 
that each gets a set before they go in. But I will find out on 
that unit.
    Senator Ben Nelson. Thank you. I know that all of you are 
committed to the best protection for our men and women in 
uniform. You can appreciate the fact that when a call comes in 
from a parent concerned about the safety of his son or 
daughter, that is a matter of critical interest, as well it 
should be. I will communicate that information back to that 
very concerned parent.
    General Pace. Thank you, sir.
    Senator Ben Nelson. Thank you very much.
    Thank you.
    Chairman Warner. Thank you, Senator. That is a very 
important series of questions.
    Senator Ben Nelson. And my time is up.
    Chairman Warner. Thank you very much.
    Senator Collins----
    Secretary Rumsfeld. Mr. Chairman, could I just make a quick 
comment?
    Chairman Warner. Yes, sir.
    Secretary Rumsfeld. On reflection, Senator Levin mentioned 
a Carnegie report. I do not know. I have never seen it, but I 
suspect it is unclassified. If it came from open sources, one 
ought not to be surprised that there might be a difference 
between an open source document and what the DCI told me.
    Chairman Warner. We note that for the record. Thank you.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Secretary, in your testimony today you have a whole 
section entitled ``Mass Versus Capability,'' and you state, 
``Critical to success in military conflict in the 21st century 
is not necessarily mass as much as it is capability.'' But the 
fact is, whether we are talking about troops or weapons systems 
or body armor or ships, numbers still matter.
    For that reason, I want to talk to you about the 
shipbuilding budget. Our naval fleet now consists of only 294 
ships, and there are some projections that say that as cruisers 
and destroyers are decommissioned, the number may drop to as 
low as 180 ships. The Chief of Naval Operations has testified 
many times that a more appropriate fleet size would be 
approximately 375 ships. I realize that these ships of the 
future are going to be far more capable ships, but nevertheless 
the Chief of Naval Operations is still saying that our fleet 
size is considerably too small.
    There are also reports that the Navy is slipping 
construction of a second DDX destroyer by 1 year, from fiscal 
year 2006 to 2007. If that occurs, it will be the first year in 
more than 20 years that our military will not be procuring a 
major surface combatant. That threatens to exacerbate what is 
already a shortfall in the number of ships that would ideally 
be maintained in our fleet. But it also raises serious 
questions about the impact on our industrial base.
    I would like you to discuss the shipbuilding budget in 
light of the Chief of Naval Operations' belief that we are 
significantly underfunding shipbuilding and also with regard to 
the possibility of the DDX destroyer construction slipping.
    Secretary Rumsfeld. Yes, Senator Collins. This is the Chief 
of Naval Operations and the Secretary of the Navy's proposed 
budget for shipbuilding. This is their recommended budget. You 
are right: the ships at the end of fiscal year 2003 have 
dropped below 300 to 296. You are also correct that in the case 
of ships, capability is important, to be sure, but numbers do 
also matter because of presence. I agree completely with that.
    The DDX situation as I understand it, they provided a gap 
year, a delay of a year, to allow lessons learned from the 
first ship to be applied to the following ships. That was the 
judgment that was made in the Department of the Navy.
    With respect to the total shipbuilding program over the 
forward year defense plan, the numbers go from 7 to 9 to 6 to 8 
to 8 to 17, the 17 being because the ships nature, the littoral 
ships, and that you can do more of them.
    But we agree that, with the program that the Department of 
the Navy has put forward, it is a less manpower-intensive Navy. 
It is important that what they have arranged is a surge 
capability so that they are going to be able to provide greater 
seapower in more places, at more times, than had been the case 
in the past.
    General Pace, do you want to comment on it?
    General Pace. I can. Let me just take for example, ma'am, 
aircraft carriers, which in the past have been one-third on 
deployment--about four on deployment, one-third coming back and 
reconstituting and changing out ship's crews, and one-third 
getting ready for the next deployment. You have had generically 
about four that you could get to a battle right away.
    What Admiral Clark has done in his transformation of the 
Navy has made it so that he is going to be able to provide to 
any combatant commander anywhere in the world six of these 
carrier battle groups on demand. He is doing that by things 
like integrating Marine Corps and Navy aviation, so he has the 
wings that fly off the carriers working together as a unit and 
trained up.
    I will not take more of your time.
    Senator Collins. We are going to have to have further 
discussions on that.
    In closing, let me just say very quickly that I am also 
very concerned about reports that I am hearing from Federal 
employees' representatives and from the Office of Personnel 
Management (OPM) on the progress with the new personnel system. 
I will be following up in writing with some of those concerns.
    Chairman Warner. Senator, you keep a very watchful eye on 
this man's Navy. Thank you very much.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    Mr. Secretary, thank you again for being here and doing 
what you do. Let me commend you on one thing in your budget, if 
I may, and that is your treatment of housing for our men and 
women in uniform. Basically the way you have it structured now 
the housing is now a tax-free benefit that they receive, and 
that is a very positive thing. It is good for morale and good 
for the quality of life.
    There is one thing that I would love to work with you on 
this year, though, Mr. Secretary, and that is that, given the 
structure of the earned income tax credit and also the child 
tax credit, our men and women in uniform, even in a combat 
zone, could be penalized under the Federal tax system for 
serving in the military, and they could lose up to $4,000 a 
year.
    I do want to work with you on that this year. I was not 
aware if you were aware of that problem and if it is something 
that you perceive as a problem that we can solve in your 
budget.
    Secretary Rumsfeld. I am not aware of what you are 
referring to, but we would be happy to look into it and work 
with you.
    Senator Pryor. I look forward to working with you on that.
    I also want to look at Halliburton. I know there has been a 
recent spate of news stories about Halliburton. One said it 
overbilled about $28 million for food service over in the 
region in and around Iraq. I believe that was five different 
facilities if I have my facts straight. Then there was the 
story that we have all read and seen about overbilling for 
gasoline.
    There is another story about $6.3 million in overbilling 
for sort of unspecified services. I am not quite sure what that 
is, but I was reading some of the press clips on that.
    As I see these stories, I am sensing a pattern with 
Halliburton's billing practices. Mr. Secretary, I was wondering 
if you had that same concern that I do about Halliburton's 
billing practices?
    Secretary Rumsfeld. I will just make a brief comment and 
then Dov can comment on it, Dr. Zakheim.
    A prime contractor ends up with subcontractors. The 
subcontractor ends up then billing the prime, and the prime 
bills the person letting the contract. We have hundreds and 
thousands--not hundreds of thousands, but hundreds and probably 
thousands--of auditors. They are constantly looking at all of 
these things.
    In these things, they frequently come up with differences 
of opinion. They are all making the press, and that is fair 
enough. Those are all also things that we are concerned about, 
and the auditors are crawling all over them.
    Dov?
    Dr. Zakheim. Yes, Mr. Secretary.
    Senator, let me first tell you that in April of this year, 
with the Secretary's approval, I sent a team of auditors to 
Iraq. With the exception of the one press report about the $6.3 
million, and I will get back to that, every single report, in 
fact every single revelation, came from our auditors in our 
Department. Those auditors are also working with our inspector 
general and with the General Accounting Office (GAO), because 
they are on top of not just the issues you just raised, but of 
every single contract in Iraq, are every single contractor.
    You are right about the $28 million. That reflects what our 
auditors found relative to 5 of 58 facilities, and they are 
still working their way through the other 53. Kellogg Brown and 
Root (KBR) has agreed that there will be a withhold on that 
charge simply because there is a disagreement over how to 
estimate the number of people being served.
    With respect to the gasoline, again $61 million was 
identified. That has gone to the Inspector General, so I really 
cannot say very much more about that.
    With respect to the $6.3 million, that was something that 
KBR found themselves and they reported it. That gives you an 
indication, and it goes back to what the Secretary said: The 
prime contractor is doing its best to do the right thing when 
it has literally billions of dollars in contracts not that such 
funds have necessarily already been received and spent, but in 
terms of the size of the undertaking. A good part of that, the 
logistics, or ``logcap'' as it is called, was something they 
were awarded several years before the Iraq war and was for 
worldwide support.
    The basic issue that our auditors are finding is that of 
relationships with subcontractors, and we are working our way 
through that.
    Chairman Warner. Thank you very much.
    Senator Pryor. Mr. Chairman, I am out of time. Thank you.
    Chairman Warner. Thank you.
    Senator Ensign.
    Senator Ensign. Thank you, Mr. Chairman.
    Mr. Secretary, I want to try to protect you from something 
you said today that hopefully nobody will hold against you in 
the future. You said that we will know before it is over. In 
other words, ``we will know''--and I just want to make sure 
that you had a chance to correct that.
    Secretary Rumsfeld. Thank you. I'll correct it right now. 
We will know what we know, but we may not know all we would 
like to know when it is over. I thank you very much for that. 
You have saved me a tough question from Senator Levin a year 
from now. [Laughter.]
    Senator Levin. No, he has not. [Laughter.]
    Senator Ensign. I actually do want to go along that line of 
questioning, though, simply because I want to point out 
something that everybody is saying. That is that we basically 
know we have an intelligence failure, we think we know we have 
an intelligence failure, but yet members of the panel are 
saying it like it is fact.
    The reason that I am bringing that out is because to their 
best guess, they are saying it like it is fact, just like when 
you were before this committee, just like you said today, we 
know because in all probability we should know whether or not 
there were WMD and things like that.
    We should be a little more careful, but it certainly was 
not the intent of anybody on this committee to mislead the 
American public, hopefully it was not, just like I do not 
believe it was your intent on the ``we know'' comments.
    Secretary Rumsfeld. No indeed.
    Senator Ensign. So that is really important.
    But when we are doing these intelligence investigations--
the most important part for all of us to keep in mind is that 
this should not be a witch hunt to find somebody, to find a 
scapegoat. It is important, if people did something wrong or if 
they purposely did something and misled people, then they 
should be held accountable. But the purpose it seems to me for 
the investigation, just like we did an intelligence 
investigation after the missiles of October, was so that we 
could improve our intelligence-gathering capabilities.
    We know right now that we have some problems. We have known 
that, actually, maybe for quite some time, and some people have 
been arguing that we need to improve the human intelligence 
instead of relying so much on our high-tech stuff.
    I guess I would just like maybe your comment on the focus, 
where the focus should be into the future. You have put up that 
satellite photo of North Korea. Okay, we identify, but how do 
we get into the future? How do we really improve our 
intelligence capabilities into the future?
    Secretary Rumsfeld. Well, my impression is that Director 
Tenet has done a lot to improve intelligence over these past 
years. The funding has been increased. Improving human 
intelligence--there has been a good deal of effort on that. It 
takes a long time, years, 4, 5, 6, 7 years, to actually 
strengthen that aspect of it.
    I am hopeful that the Senate Intelligence and the House 
Intelligence Committees, when they complete their report, will 
have thoughts on this subject, and certainly the commission 
will have thoughts on this subject.
    Senator Ensign. I guess one of the other comments that I 
want to make of us leaning forward, because of the media 
attention that has been focused on intelligence and possible 
intelligence failures, is that it will stop us from doing the 
right thing in the future. Some people might use this as we 
cannot trust our Intelligence Community.
    What Dr. Kay said has to be emphasized more than we can 
possibly emphasize it, in that, yes, there were probably some 
intelligence failures, but it does not take away from the fact 
that it may have been a more dangerous world than we thought. I 
am hoping that it does not change the administration's policy 
on forward-leaning, the idea of preemption, the idea of, ``If 
we could have prevented September 11, would we not have done 
everything we possibly could?''
    What we did in Iraq was prevent more September 11s, and I 
am hoping that this recent revelation does not change 
administration policy.
    Secretary Rumsfeld. Senator, you are on a very important 
point. We have to know that there are always going to be 
intelligence failures, and there also are going to be 
intelligence successes and they have saved people's lives.
    Second, there is a risk that policymakers would hesitate to 
make decisions or that analysts would hesitate to explain what 
they thought. One thing that is important that worries me about 
the discussion here this morning: it is critically important 
that there be interaction between users of intelligence and 
suppliers of intelligence. Each informs the other.
    The implication that if there is an interaction between a 
policymaker and a supplier of intelligence that somehow or 
other that is pressure or that is manipulation or that is not 
right or fair to them is wrong, because we each learn from each 
other. Inattentive users of intelligence have a responsibility 
to interact with suppliers, and the suppliers learn from that--
of intelligence--and the user of intelligence learns, because 
they end up talking to each other in a very open way. That is a 
healthy thing, not a worrisome thing.
    Senator Ensign. Mr. Chairman, my time has expired and for 
the record I would like to ask the Secretary and your people to 
give us an idea of when you will have a plan on transforming 
the Guard and the Reserve, the idea of that spigot, when, 
approximate timetable you will have a plan for us.
    Secretary Rumsfeld. We have the plan, and we can brief you 
at your desire, whenever, particularly the Army. General 
Schoomaker is well along in it, and the Navy and the Air Force 
have some Reserve Forces, and they have some plans also.
    Senator Ensign. Thank you.
    Chairman Warner. Thank you, Senator.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    Mr. Secretary, I share the concern of Senator Reed about 
the fact that there is no money in the budget you submitted for 
fighting the ongoing wars in Afghanistan and Iraq. In your 
testimony you refer to the unknown costs of fighting wars. I 
guess I am incredulous that that is not something that DOD and 
the service branches can quantify fairly accurately. That is 
what you do. With all your experience and success in the 
private sector as well as the public sector, I just cannot 
believe that that is an unknowable figure for fiscal year 2005.
    Can we just, given that it is not in there, try to identify 
what we, for the purposes of our discussion and our 
decisionmaking, or it is already a factor in the transportation 
bill that we are considering now? I have seen numbers that said 
$4 billion a month is the cost of the current operation in 
Iraq--these are published reports--and $800 million in 
Afghanistan. Is it for estimation purposes reasonable to 
extrapolate that for fiscal year 2005?
    Secretary Rumsfeld. Senator, fiscal year 2005 starts 
October 1, 2004. It is what, 10 months from now? The budget for 
2005 that was submitted by the President this week was prepared 
starting in January 2003 and completed in November 2003, and 
given to the OMB, sent up to Congress in January 2004 for the 
year that starts in October 2005 and goes to September 2006.
    Now, if one thinks about it, that is anywhere from at the 
minimum 12 and at the maximum 24 months in advance. We do not 
know, we cannot know, how many troops we are going to want in 
Iraq in the period----
    Senator Dayton. Mr. Secretary, you must for planning 
purposes be making some assumptions. I am just asking you, can 
we reasonably assume on an estimated basis that the numbers I 
just read--$4 billion a month for the current operation in 
Iraq, $800 million a month for the current operation in 
Afghanistan, multiplied by 12 are an approximation for what it, 
under a best guess, will cost?
    Secretary Rumsfeld. You get into best guesses and you 
misinform people.
    Senator Dayton. I consulted last night an oracle. I said, 
who is best qualified to shed some light on this, and I went 
looking for Rumsfeld's Rules. I discovered it is not that easy 
to find them now. You are off the Web site. You are probably 
one of the few in the administration who practices them, 
especially as it relates to budget matters.
    But a couple of them that come to mind are: ``Be precise. 
Lack of precision is dangerous when the margin of error is 
small.'' This is Stephen Friedman. I do not know if he is 
quoting you precisely. He references a couple of them. ``If you 
cannot measure it, you cannot manage it. That which require to 
be reported on you will improve if you are selective.''
    It seems to me if we are going to manage--our role is to 
manage and we are making decisions first now in the next couple 
weeks about overall Federal budget and then as an authorizing 
committee about levels for the--this is the lineup we have and 
the timetable we are on. If you will not give us numbers, how 
can we manage and fulfil our responsibilities?
    Secretary Rumsfeld. My first choice would have been to do 
it. I tried to do it 2 years ago, and I was told by Congress, 
``Do not do it.'' Now, that is a fact.
    Senator Dayton. But ``Congress'' covers a multitude of 
sins. I am only one.
    Secretary Rumsfeld. You said that. I did not.
    Senator Dayton. I did not have a role in that. I do not 
agree with Congress all the time, but I guess I am trying just 
to go back again because we are going to have to deal with 
this. Is this a state secret, what this estimate is for 2005?
    Secretary Rumsfeld. Of course not. What one can do and what 
we tried to do--in fact, what we proposed and were rejected on 
2 years ago--was to say: ``Look, you have alternative futures. 
You could end up with 115,000 troops in Iraq, or it could go up 
because the security situation could deteriorate and you might 
have to do something else, or it could go down because the 
Iraqi security forces exceed 200,000 and are capable of taking 
over a number of those responsibilities. It could be any one of 
those.''
    We came in with a budget that said that and said here is a 
midpoint; we do not know whether it will have to go up or stay 
the same or go down. We were told: ``Listen, wars are funded 
with supplementals; do it that way.''
    Senator Dayton. My time is up.
    Chairman Warner. Senator Sessions.
    Senator Dayton. Thank you, Mr. Chairman.
    Chairman Warner. Thank you.
    Senator Sessions. It may be in terms of spending money and 
Congress, ``Congress'' means Senator Ted Stevens. I do not 
know, but if I recall it was his belief that we should do it by 
supplemental. It certainly gives those few in Congress who 
oppose the war a readily available number to claim how much we 
are spending as justification for their opposition from the 
beginning.
    The intelligence issue will roll along. I do know that the 
truth always generally comes out. It was interesting that Dr. 
Kay, in his testimony the other day before us, indicated that 
the Republican Guard commanders in Iraq thought they had WMD. 
Only they would say: ``No, I did not have it, but my fellow 
commander had it. They would interview him and he would say: I 
do not have it, but commander such-and-such has it.'' They all 
thought they had it, but apparently it has not been found yet.
    Mr. Secretary, I commend you on continuing a steady train 
of transformation of the defense of America. I remember one of 
the first hearings I asked Mr. Wolfowitz that he had not broken 
enough glass, not enough people were hollering about the 
changes; maybe you were not making enough changes. He said: 
``We have a plan and a thought to move steadily forward to make 
our Defense Department more relevant to the threats facing 
America, and I think you will see us accomplish that.''
    Do you feel that, even with this war that fell upon us, you 
are on track to make us, as Coach Eddie Robinson said, ``more 
hostile, agile, and mobile.''
    Secretary Rumsfeld. Indeed I do. There was a lot of 
discussion after September 11 as to whether the global war on 
terror should take precedence and we should try to forget 
transforming and not try to do two things at once. But, in 
reality, the transformation supports the global war on terror, 
and it is critically important.
    It not only supports it, but it informs it. It gives us the 
impetus to achieve the kinds of transformation and changes that 
are so necessary.
    Senator Sessions. Well, I thank you for having a historical 
vision of where we are today and where we need to go and moving 
steadily and effectively in that direction.
    I am so proud of our Guard and Reserve. I have visited a 
number of their ceremonies where they were activated and left 
their home communities, like Foley, Alabama, and Mobile, and 
the crowds were enthusiastic. They feel a sense of service. 
They do not feel, General Pace, they are victims. They feel 
like they are serving America. They want to be used well. They 
want to be used wisely.
    I have had personal interviews, Mr. Secretary, with the 
head of Guard and Reserve Forces, the commanders, and they tell 
me you are pushing them; you not only support them, but you are 
encouraging them to study how we activate people, to make it 
less burdensome on families. Would you share your personal view 
of how we can do better about handling Guard and Reserve?
    Secretary Rumsfeld. I will indeed. We have all three 
Services working to rebalance the active and Reserve components 
so that we do not have to overuse those Guard and Reserve units 
that have special skills that are in short supply in the Active 
Force. That rebalance is going forward, and it is going forward 
apace.
    Second, we have looked at the deployment and redeployment 
process, and we recognize the importance of certainty on the 
part of people. We are taking steps to improve the tools, the 
planning tools that will enable us to do a vastly more nuanced 
job. I am impressed with the effort that Transportation Command 
is engaged in. I am impressed with the effort the Joint Forces 
and the Joint Staff are engaged in. We have simply got to do a 
better job to make sure it is respectful of them and their 
families and their employers.
    Chairman Warner. Thank you, Senator, for discussing that 
Guard issue.
    Secretary Rumsfeld. Mr. Chairman, could I make one comment?
    Chairman Warner. One other thing. When you and I talked you 
told me a very important fact about the quantum of the Guard 
and Reserve which you felt, although they would serve and serve 
willingly, simply their skills did not match to the needs. Do 
you remember that discussion we had?
    Secretary Rumsfeld. Exactly, and that is what General 
Schoomaker particularly in the Army is in the process of 
working very hard to do. He knows what to do; he has it 
calculated; he knows the units--I believe he knows the units--
and he is well along in that task.
    Could I make a quick comment?
    Chairman Warner. Yes.
    Secretary Rumsfeld. I hate to have the meeting end without 
making a statement that should have been made at the time 
Senator McCain was asking questions. I am advised that in 
selecting the DSB for the tanker recapitalization evaluation, 
the DOD took significant measures to ensure that individuals on 
the task force leading the evaluation--Admiral Don Pilling, USN 
retired, and Dr. Ted Gold as co-chairmen--had no relationship 
with Boeing or the tanker lease program, and the committee can 
be assured that no member of the task force will have any 
association with Boeing or the tanker lease program.
    I can further assure the committee that the chairman of the 
DSB, Dr. Bill Schneider, will recuse himself from any 
association with the evaluation or the task force efforts. 
Furthermore, the process and results will be entirely open 
since the evaluation task force will be operated in accordance 
with the provisions of P.L. 92-463, the Federal Advisory 
Committee Act, and DOD Directive 5105.4, the DOD Federal 
Advisory Committee Management Program.
    Chairman Warner. Thank you, Mr. Secretary. Could we get a 
copy of that document such that we can give it to Senator 
McCain?
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Warner. Now we will turn to Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    Mr. Secretary, when Senator Reed and I were in Afghanistan 
over Thanksgiving we learned that the North Atlantic Treaty 
Organization (NATO) had not yet met its obligations or its 
commitment to provide additional troops for the provisional 
reconstruction teams (PRTs) and other purposes. So far as I am 
aware, they still have not done so. Could you please advise us 
as to what, if any, progress is being made to persuade NATO 
countries to contribute additional troops, as they had 
obligated to do so?
    Secretary Rumsfeld. I know that Lord Robertson, before he 
left at the end of December, had worked very hard on it, and 
the U.S. had been involved in assisting. The new Secretary 
General has been working on it as well. The last time I looked, 
there were still, out of the totality of the requirements, a 
few pieces that had not been filled.
    I suspect that what is happening is that the U.S., which 
has been under a memorandum of understanding first with the 
International Security Assistance Force (ISAF) and now with 
NATO ISAF, has worked together with them to fill in gaps as 
they occur from time to time. But to my knowledge, they have 
not fully completed everything, although they must be in the 
high 90 percent.
    Do you know?
    Dr. Zakheim. There is that. Also, with respect to the PRTs 
that you mentioned, the British are in fact in Mazar-e-Sharif. 
The Germans have one up and running as well. One of the issues 
has been where they go. We have eight of those now up and 
running, and the idea is to have new ones stood up. We are 
talking, to my knowledge, to at least five different NATO 
countries that have given preliminary indications that they do 
want to go in and set up PRTs. The question is, how do you do 
that in an organized fashion?
    Senator Clinton. You will keep this committee informed as 
it goes forward?
    Dr. Zakheim. Absolutely, Senator.
    Senator Clinton. Is Turkey one of those five countries?
    Dr. Zakheim. They are one of them, but there are several 
others, as I say.
    Senator Clinton. With respect to the budget, it is my 
understanding that, at least during the Vietnam War, the costs 
of the war were in the budget. Supplementals were used for 
additional costs. In September of this past year, I asked 
Ambassador Bremer when he appeared before our committee whether 
the administration would request an additional supplemental for 
Iraq and Afghanistan. He replied, ``If there is any further 
need, I would anticipate any further request will be done 
through the normal appropriations process. In other words, it 
will come forward as part of the regular appropriations 
process, the 2005 budget, presumably early next year.''
    With respect to the comments that Congress instructed----
    Secretary Rumsfeld. Excuse me. Were you referring to Iraq 
or Afghanistan in that last comment?
    Senator Clinton. Iraq and Afghanistan.
    Secretary Rumsfeld. Both?
    Senator Clinton. Both.
    With respect to the comments that you have made, Mr. 
Secretary, that Congress essentially told you not to do it a 
certain way, would you provide this committee with the names of 
those Members of Congress or the staff and with whom they 
communicated that demand in the Secretary's office at some very 
early date, please?
    Secretary Rumsfeld. Well, it was Congress overall. They 
just simply took it all out. They zeroed out the $10 billion we 
had requested.
    Senator Clinton. But Mr. Secretary, that was for a 
discretionary pool of $10 billion to be used as presumably you 
saw fit. We are talking about a budget that connects costs to 
missions and functions. As late as September 2003, Ambassador 
Bremer, who I believe reports to you, assured this committee 
that there would be requests done through the normal 
appropriations process. Now, if there is someone in Congress--
not just Congress as a large undifferentiated mass--that is 
saying, ``Do not do that,'' we would like to know it.
    What the response from Congress was: We are not about to 
give you a blank check of $10 billion to be used with no 
oversight. We need to clarify that, because it goes right to 
the heart of the authority of this body and the kind of 
oversight that we are expected to provide.
    Indeed, it raises some questions because at least the press 
reports that there will be a supplemental after the election, 
which seems to me to be inappropriate. I would hope that we 
could get to a meeting of the minds as to exactly what is 
expected from the budget to these ongoing expenses in both Iraq 
and Afghanistan.
    Secretary Rumsfeld. Senator Clinton, I am told that you are 
right, that there have been some portions of wars that have 
been funded through the normal process. It appears that from 
1967 to 1970 in the Vietnam War they included some estimates. 
After 1970, I am told, they stopped putting cost estimates in 
because they did not prove to be very accurate and thereafter 
the Vietnam War was not, nor have, I believe, subsequent wars.
    Second, I suppose you could say $10 billion; it would not 
be fair to say what you said, ``Ten billion dollars to be spent 
any way you want, without any oversight.'' No department of 
Government does that. They always report; they always say what 
they are doing. They have to get it cleared, if it is major 
changes at all, from eight different committees. So there is 
plenty of oversight.
    The answer to your question about what Bremer said is also 
correct, and that is that if you take the supplemental, a 
portion of it was for the Coalition Provisional Authority 
(CPA), $18.6 billion as I recall. He said, and I believe Mitch 
Daniels and later Josh Bolten said, that that was for that 
period and that funds for non-military purposes, the $18.6 
billion, would, in fact, be put into normal appropriation 
process, and that is what is planned to be done.
    Senator Clinton. Planned to be done. It is not in the 2005 
budget?
    Secretary Rumsfeld. Anything--as I understand it--maybe you 
ought to say it in the Office of Management and Budget (OMB) 
language, Dov.
    Dr. Zakheim. Essentially the money was for reconstruction, 
and, as you recall, Senator, when that money was asked for, it 
was meant to extend beyond just 1 year. Then the idea was, and 
I believe Director Bolten has reiterated that, that once we get 
past that amount of money laid out, everything that is 
requested will become part of the normal budget and such 
requests are normally outside the Defense Department budget. So 
I do not think there is an inconsistency there.
    Senator Clinton. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Mr. Secretary, I appreciate your generosity of time. I am 
just going to throw out some concepts to follow up with you 
later. Number one, my big fear after listening to this debate 
and discussion is that we are going to rush to get out of Iraq 
before the job is done. I know you will not do that. I want to 
let you understand that some of us up here know that predicting 
the future is a very hard thing to do. What it costs is what it 
costs, and what good have we done if we leave before the job is 
done?
    I am very hopeful that in the long term Iraq will become 
more stable. There is one less dictator to give money to 
suicide bombers in the Mideast. I think we are better off, and 
if we want to have that discussion politically, as Senator 
Kerry says, bring it on.
    But, bottom line, that is my political statement. Here is 
something that a lot of us agree on, and it may be I find 
myself on the outs with the Pentagon, the Guard, and the 
Reserve. You have tunnel vision about the role of the Guard and 
Reserve. The Guard and Reserve do not just answer the Nation's 
call; it also answers its State's call. There are 500,000 
people you say that are being underutilized. I would like some 
information about how many times those citizen soldiers are 
called up to deal with disasters in Alabama, South Carolina, 
Virginia, California, wherever.
    Second, I believe our homeland security needs are not being 
adequately met, that the Guard and Reserve has an additional 
role there that could supplement our homeland security needs. 
When you look at restructuring your force to meet the needs of 
the 21st-century war model, Iraq and other places like Iraq, 
let us not forget that the Guard has more missions than just 
that one mission.
    I want to leave with you a couple thoughts. Number one, I 
believe that 40 percent of the force in Iraq will be Guard and 
Reserve in the immediate future. I believe that it is going to 
get worse before it gets better, and it is time to start 
upgrading the benefits of those who are doing a good job for 
this country.
    Specifically, would you support reducing the retirement age 
from 60 to 55 for those who serve 30 years as a member of the 
Guard and Reserves?
    [The information referred to follows:]

    I do not support retirement reform that is solely for the purpose 
of reducing the age of eligibility. Simply reducing the eligibility age 
would provide an immediate benefit only to individuals who are already 
retired or eligible for retirement, and provides no immediate benefit 
to the vast majority of members who are bearing the burden of 
activation and deployment today. I view the Reserve retirement system 
as part of a total Reserve compensation package that should enable the 
Department to shape the force and achieve strategic human resource 
management objectives. It should enhance retention, particularly among 
members bearing increased burdens of mobilization; attract members to 
the force, both prior service and non-prior service personnel; and 
enhance personnel management flexibility. We need to make a careful 
examination of this issue in the context of total compensation. I will 
be forming an advisory committee to look at the total compensation 
program, including Reserve retirement.

    Secretary Rumsfeld. First, Senator, I agree completely. The 
President has said that we should stay in Iraq as long as is 
necessary and not a day longer. There is no suggestion of a 
premature departure.
    Second, I am not sure I agree completely with what you said 
about the Guard and Reserve. The implication of what you said 
was that they necessarily were the only forces available for 
U.S. needs, home needs, and domestic needs, and I do not agree 
with that. The Active Force also does a lot with respect to 
fighting fires or hurricanes or various other things that may 
happen. We look at it as a total force concept.
    Senator Graham. Right. But the primary mission of the Guard 
in its day-to-day training is title 32, not title 10.
    Secretary Rumsfeld. I understand, but I would not want to 
leave the impression that the Active Force is disinterested in 
homeland defense or in the domestic needs that they get called 
up to assist on.
    Senator Graham. No, sir, and I do not want to give you the 
impression that the Active-Duty Forces are somehow not doing 
everything. They are doing everything and then some. So I have 
some problems with you on end strength, too.
    But I do not want to get tunnel vision about the role of 
the Guard. Unlike the Active-Duty Forces, which have done a 
marvelous job, that are stretched too thin, are being asked to 
do too much in my opinion. You cannot rearrange the pie until 
you grow the pie. That is just my opinion about this. The Guard 
has a specific function, unlike the Active Forces, under title 
32.
    Chairman Warner. Ladies and gentlemen, we have to move 
right along.
    Senator Graham. Thank you.
    Chairman Warner. That is an important question, and I would 
hope you would provide your response for the record, because 
this distinguished member of our committee is an active member 
of the National Guard.
    Senator Graham. I am not part of the solution. I am 
probably part of the problem. I am not up here tooting my horn.
    Chairman Warner. If we do not stop, he is going to call you 
to active duty and send you overseas.
    Senator Graham. If that happens, you know we are really in 
trouble.
    But I do want to work with you, Mr. Secretary, to address 
the Guard and Reserve role in its entirety, to look at end 
strength, not just from an army like Iraq but maybe an army 
like North Korea, and see if this makes sense. But stay the 
course. The investigation will be done by an independent group. 
You have done a great job. You helped bring people out that 
were hurt during September 11. You are the right guy at the 
right time. So hang in there, and any differences I have with 
you will be honest differences, openly displayed. I am proud of 
what you have done for our country, so hang in there.
    Secretary Rumsfeld. Thank you very much.
    Chairman Warner. Well stated. Thank you very much.
    Now, gentlemen, the two of you will wrap up.
    Senator Bayh, you lead off.
    Senator Bayh. Thank you, Mr. Chairman.
    Chairman Warner. We are obligated to yield these chambers 
back to the other body here.
    Senator Bayh. I will move quickly. Thank you, Mr. Chairman.
    I would like to touch upon just a couple of things I hear 
frequently from the public, the first dealing with the adequacy 
and the quality of the intelligence we receive. I am interested 
in your opinion as a consumer of intelligence. I agree with all 
the things you said at the beginning. It is a tough and 
thankless assignment. We have a lot of good men and women 
trying to deal with circumstantial evidence, gaps in the 
evidence, contradictory evidence, denial and deception, 
etcetera, etcetera, etcetera. It is possible that good people 
get a lot of things right but occasionally make some mistakes.
    With that as a preface, many Americans would be interested 
in your opinion as a consumer of intelligence. On a scale of 1 
to 100, 100 being omniscience, 1 being clueless, how would you 
characterize the quality and the adequacy of the intelligence?
    Secretary Rumsfeld. In between. [Laughter.]
    Senator Bayh. Can you try and quantify it a little better? 
Many Americans right now look at perhaps the failure that we 
have experienced in Iraq, they look at the fact that we maybe 
underassessed Libya and Iran, and they wonder: ``Gee, just we 
are having to make decisions of great import. Just how adequate 
and reliable is this information?''
    Secretary Rumsfeld. You want to put that chart back up?

    See previously inserted chart.

    This is the problem. We are dealing with closed societies, 
dictatorial regimes. There is North Korea, not a light there. 
It is enormously difficult. The reality is we have had some 
wonderful successes, and some of them are not public. I hope 
George Tenet will make some of them public this week or next 
week because I think he ought to. The failures are very 
visible, and that is always the case.
    I cannot give it a grade. It would vary depending on the 
collection source. It would vary depending on the target. One 
has to live with that in this world of ours. You end up making 
the best policy judgments you can off of that.
    Senator Bayh. Perhaps this is a job for this commission, 
because when we make decisions about going to war or other 
things based upon understandably imperfect information, many 
people wonder just how imperfect is it. Is this an aberration 
or is this more the normal course of events?
    My second question just very briefly has to do with 
priorities, Mr. Secretary. I hear from a number of people, not 
a man or woman on the street, but from people more who follow 
these things more regularly. They look at the situation in 
North Korea, with their capabilities, their experimentations 
with longer range missiles, and the belligerent and erratic 
nature of that regime. They look at Iran with their well-known 
connections to terrorists and the fact that their program is 
further advanced than we thought. They now look at what we do 
know about Iraq, and they say that perhaps Iran and North Korea 
constitute even greater threats, yet we are spending over $100 
billion to address Iraq. We obviously have used force to 
liberate that country and trying to introduce democracy in that 
part of the world, and they wonder, ``Is this an appropriate 
ordering of priorities? Should we not be devoting more to 
trying to address the problems of Iran and North Korea, given 
now what we know?''
    Secretary Rumsfeld. Well, they are each being addressed in 
a different way. North Korea is being addressed in a diplomatic 
way in the relatively early stages since they made the 
announcements of their capabilities. Iraq had been addressed in 
a diplomatic manner through 17 resolutions of the U.N. over a 
period of a decade and a half. Iran has just been revealed to 
have more advanced nuclear activities than they had indicated.
    On the other hand, if you look at North Korea, they have 
lowered the height requirement to go into the Army to under 5 
feet, to 4 feet 10, because so many people were starved. There 
is abuse of the food distribution system at the present time. 
It is hard to know what is actually going on in there. We do 
know there are concentration camps. We do know that there are a 
lot of people that are trying to flee the country.
    We have imperfect knowledge in this world of ours. We do 
today and we will into the future. I personally believe that 
the President made the right decision with respect to Iraq. He 
is making the right decision to try diplomacy with respect to 
North Korea and to work those problems with the neighbors in 
China, Russia, and South Korea and Japan.
    With respect to Iran, there is obviously ferment and 
turmoil going on with the young people and the women and the 
people who want reform in that country, going on as we meet 
today. Each is going to play out in a way that I suppose is 
different.
    Chairman Warner. Thank you, Mr. Secretary. They are very 
clear responses to an important question.
    Senator Bill Nelson.
    Senator Bill Nelson. Good afternoon, Mr. Secretary.
    Secretary Rumsfeld. It is suddenly afternoon.
    Senator Bill Nelson. Mr. Secretary, I spoke to you about my 
meeting with President Asad in Syria. When I confronted him 
with why he did not stop the jihadists from going from Syria 
into Iraq, where they are killing our men and women, he 
answered without an answer, saying, ``Well, I cannot control my 
borders; you cannot control your borders.''
    Then he talked of the historical smuggling that goes on 
across that border, but then said, ``I would like to cooperate 
with the Americans.''
    I have reported that conversation to many people in our 
government, including you, and you seemed to dismiss that that 
was worth following up. Can you tell me why?
    Secretary Rumsfeld. Senator, my portfolio is not Syria and 
foreign policy. I do not believe I dismissed it, and I try not 
to be dismissive of anything. On the other hand, we know he has 
been notably unhelpful on his border. We know that he is 
working with Iran in funding Hezbollah and bringing them down 
through Damascus into Lebanon, into Israel.
    Senator Bill Nelson. I confronted him with all of those, 
and he was not cooperative.
    Secretary Rumsfeld. We know he is testing chemical weapons.
    Senator Bill Nelson. I confronted him with that.
    Secretary Rumsfeld. We know he has taken the Iraqi funds 
that are in Syria and refused to give us access to those funds, 
and they belong to the Iraqi people. That is a regime that has 
been almost consistently unhelpful.
    Senator Bill Nelson. I confronted him about the withholding 
of those funds. But if he were sincere, I do not see that there 
is any down side for us to explore that----
    Secretary Rumsfeld. I do not either.
    Senator Bill Nelson.--because it would lessen the people 
going in trying to harm Americans.
    Secretary Rumsfeld. Senator, we explored it with Libya, and 
Libya said, ``Here it is, let us come in and take it out.'' We 
sent airplanes in and took it out, and it is in the United 
States being examined--the documentation and the materials. He 
is opening up his country to inspectors. That is a very good 
thing. There is a model there.
    Saddam Hussein did not follow it. Qaddafi is following it. 
Asad is not.
    Senator Bill Nelson. Well, General Myers was interested in 
that, but General Myers works for you. It might be something 
worth exploring, and I would respectfully suggest that that is 
in the interests of the United States.
    Secretary Rumsfeld. I agree.
    Chairman Warner. Senator----
    Senator Bill Nelson. Mr. Chairman, I have been waiting this 
whole time. I have one more thing.
    Chairman Warner. I was not going to cut you off. Go ahead, 
take 1 more minute.
    Senator Bill Nelson. Good, thank you.
    Chairman Warner. I just commented I thought your question 
was well taken.
    Senator Bill Nelson. Oh, well, you are very kind. I thought 
you were asking me to stop.
    I have reported to you and Senator Levin on this very same 
thing.
    Now, the other thing that----
    Secretary Rumsfeld. I am going to have to ask it to end 
quite soon. I have the House hearing at 1:00.
    Chairman Warner. We are going to end in about a minute.
    Secretary Rumsfeld. I have to make a phone call in between 
and get prepared for that.
    Chairman Warner. Right.
    Senator Bill Nelson. Respectfully, Mr. Secretary, I was 
told not only about the WMD prior to the vote in the Senate, 
but I was specifically told what has now been made public by 
the President and the Secretary of State: that there were 
unmanned aerial vehicles (UAVs) that could be put on ships off 
the eastern seaboard and flown over eastern seaboard cities 
with the WMD. You can understand that I thought that was an 
imminent threat to the interests of the United States.
    However, what I was not told was that there was a dispute 
in the Intelligence Community over the veracity of that 
information, specifically, as reported by The Washington Post, 
that it was Air Force intelligence that specifically discounted 
that, that it was not true.
    My question to you is, why was I not told that there was 
this disagreement in the Intelligence Community, instead of 
being told that it was gospel truth that those UAVs could be 
flown over eastern seaboard cities?
    Secretary Rumsfeld. I do not know who told you that, and I 
would not use the word ``veracity.'' I would use the word 
``accuracy.'' There was a discussion in the internals, in the 
Intelligence Community, and I have forgotten exactly how it 
worked. But one agency believed that the--I am trying to--is 
this unclassified or classified now?
    Chairman Warner. Mr. Secretary, I suggest you answer that 
for the record. It is an important question, and it will give 
you adequate time.
    Secretary Rumsfeld. It is, and there is a classified answer 
and an unclassified answer. I can give you an unclassified 
answer here and we would be happy to--Dr. Cambone can give you 
a classified answer in 1 minute.
    Senator Bill Nelson. Mr. Secretary, everything that I have 
said has been unclassified.
    Secretary Rumsfeld. Right. I am talking about my answer, 
not your question. Your question clearly is unclassified.
    My understanding is there was a discussion and some people, 
as is usual in intelligence, believed that the equipment 
associated with the Iraqi UAVs--which we saw and watched 
tested, they flew considerable distances, they were not big, 
but they did have the ability to carry something, and they had 
some vehicles in close proximity to them during some tests. 
There was a debate as to whether those vehicles had a role in 
connection with the UAVs or whether the vehicles had a role in 
connection with hydrogen balloons or weather balloons or 
something else.
    Dr. Cambone. Well, that is two different things.
    Secretary Rumsfeld. Is that two different things? Steve 
Cambone, come up and answer it for me.
    Senator Bill Nelson. Mr. Chairman, if you want to receive a 
classified answer I would be happy.
    Chairman Warner. Fine. At this point, Mr. Secretary, time 
has expired for everybody. You have been most patient.
    I thank you, Senator, and thank you, General. We have had 
an excellent hearing----
    Secretary Rumsfeld. Steve can give a 2-minute unclassified 
answer.
    Chairman Warner. All right, if you wish. Then we will 
proceed as you desire.
    Dr. Cambone. Yes, sir. There was, Senator, a dispute on the 
role of the UAVs. The Air Force had a different view than 
others in the community, and I think that you have two parts of 
the story combined that I would like to separate for you, if I 
may, in a closed session.
    But there was a dispute by the Air Force. It was resolved 
as part of the ordinary process of doing the NIEs and the 
estimates that are done. The Air Force maintained its dissent. 
What you are reporting on is an after-the-fact report of the 
Air Force's dissent.
    But let me clean up the parts for you in a different 
setting.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Levin. His question is why he was not informed of 
the dissent.
    Dr. Cambone. That I cannot answer, sir.
    Chairman Warner. Okay, gentlemen----
    Senator Bill Nelson. That is the question.
    Chairman Warner. We thank you very much, Mr. Secretary, 
General. We have had an excellent hearing.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
                              end strength
    1. Senator McCain. Secretary Rumsfeld, there seems to be some 
confusion relating to increasing Army end strength. The press has 
recently reported that you will increase Army end strength by 30,000 
over 4 years. Last week, my staff was briefed by the DOD Comptroller 
Dr. Zakheim that those reports were false and you still oppose 
increasing end strength. Where do you stand on increasing Army end 
strength?
    Secretary Rumsfeld. While I oppose a permanent increase in the 
Army's end strength, I strongly support a temporary increase of 30,000 
that allows the necessary flexibility for the Army, while fighting the 
global war on terrorism, to increase the number of Active Force brigade 
combat teams (BCT) from 33 to 43 between now and fiscal year 2007. A 
determination for an additional 5 BCTs (for a total of 48) will be made 
at a later date. This temporary measure will enable the Army to field 
standardized unit designs and transition to a unit-based personnel 
management system. Our intent is to make the Army more ready and 
relevant for the unpredictable nature of the emerging strategic 
environment. Once this restructuring is complete, the Army will return 
to their authorized strength by fiscal year 2009.

    2. Senator McCain. Secretary Rumsfeld, paying for the 30,000 
increase in troops is not included in the budget. Do you plan on 
relying on supplemental spending bills for the next 4 years to pay for 
this increase?
    Secretary Rumsfeld. No decision has been made on how to pay for 
this increase. Since the increase is not reflected in the fiscal year 
2005 request, we likely would need to fund it as part of a fiscal year 
2005 supplemental.

    3. Senator McCain. Secretary Rumsfeld, supplemental bills are 
submitted by the administration for emergency spending requests. Why is 
future end strength considered an emergency spending request? These are 
the same accounting gimmicks we accused the previous administration of 
committing.
    Secretary Rumsfeld. For fiscal year 2005, including this end 
strength increase in a fiscal year 2005 supplemental would be 
consistent with the administration position because it is directly 
related to the global war on terrorism, whose incremental costs are 
being funded in supplementals. Beyond fiscal year 2005, no decision has 
been made on how to fund the end strength increase.

    4. Senator McCain. Secretary Rumsfeld, every independent expert has 
called for increasing Army end strength. The demands of the global war 
on terror have stretched our military thin. Will the administration 
continue to oppose legislative efforts by Congress to increase end 
strength?
    Secretary Rumsfeld. While reducing stress on the Active and Reserve 
Forces continues to be a top priority within the Department, the 
addition of permanent end strength is not the most effective or 
efficient means to relieve stress on our forces. The Department is 
already using existing legislation that allows for temporary increases 
in end strength to meet mission requirements. Furthermore, the Army is 
aggressively reworking its division structure to create additional 
combat brigades from within existing end strength.
    In addition to the Army initiatives, there are several dozen other 
initiatives across the Department that will reduce stress on the force 
while increasing our capabilities. For example, actions are underway to 
realign units and specialties within the active and Reserve components 
to reduce mobilization and deployment imbalances. Also, the Services 
are taking actions over the next 2 years to convert as many as 20,000 
military positions that are civilian in nature to civilian status, so 
that more military billets will be available to support current 
operations.

                        national call to service
    5. Senator McCain. Secretary Rumsfeld, you are pursuing a temporary 
increase in manpower levels for the Army which will need to be phased 
out in a short time and could well reside in the Reserves. Does it not 
make sense to employ the Call to Service Act's 18-18-18 plan to augment 
the required end strength you are pursuing?
    Secretary Rumsfeld. The Army has implemented the National Call to 
Service Plan (NCSP) and established a 1-year test to quantify the 
impacts of this program. We want to allow NCSP to mature and to 
complete the 1-year test to help us make better decisions on the 
program and its place in the Army. Currently, our force stabilization 
and modularity efforts are key elements of our transformation. Some of 
the increase will be covered with the 15-month variable enlistment 
(VEL), although it does not mesh with the Army's stabilization plan. 
Furthermore, the structure the Army is creating during the increase is 
primarily infantry and armor. If we were to fill the ranks of the new 
Units of Action (UAs) with 15-month VEL soldiers, we would not have a 
sufficient population of infantry and armor noncommissioned officers to 
fill the ranks of these UAs later. Considering the historical loss 
rates of 3-year and 4-year term soldiers, and the propensity of the 15-
month VEL soldiers to not reenlist, relying on the 15-month VEL to 
create temporary strength would create a critical shortage of junior 
leaders in our future UAs.

    6. Senator McCain. Secretary Rumsfeld, I would like you to discuss 
the implementation of the 18-18-18 plan that Senator Bayh and I 
included in the Fiscal Year 2003 National Defense Authorization Act. If 
the Army is envisioning only a temporary increase in end strength, it 
may be well-suited for the Call to Service Act's 18-18-18 plan. What 
percentage of your total force will be made up of personnel under this 
type of contract?
    Secretary Rumsfeld. The Army has implemented the NCSP and 
established a 1-year test to quantify the impacts of this program. We 
want to allow NCSP to mature and to complete the 1-year test to help us 
make better decisions on the program and its place in the Army. 
Currently, our force stabilization and modularity efforts are key 
elements of our transformation. The 15-month VEL cannot realistically 
be used, except on a marginal basis, as it does not mesh with the 
Army's stabilization plan. The temporary strength increase of the Army 
will need to occur across all parts of the military structure, not just 
the initial entry soldier. Our solution is focused on long-term results 
for shaping the Army as a whole. The Army is keeping the number of 15-
month VEL accessions at approximately 2 percent of the annual accession 
mission. Assuming minimal reenlistment rates for these soldiers, less 
than half a percentage of the total force will be made up of personnel 
under this type of contract at any one time.

    7. Senator McCain. Secretary Rumsfeld, do you envision expansion of 
this program?
    Secretary Rumsfeld. The DOD initiated the National Call to Service 
(NCS) enlistment option on October 1, 2003, with all four Services 
participating. Although the program is new, we are pleased with its 
start and are enthusiastic about the future of the program. We are 
currently evaluating the program.

    8. Senator McCain. Secretary Rumsfeld, what is the role of the 18-
18-18 plan playing in each of the Services?
    Secretary Rumsfeld. The NCS program plays a role in each of the 
Services as they implement the program in accordance with overall 
departmental guidance.

        <bullet> The Air Force goal for fiscal year 2004 is 370 NCS 
        participants. They started the program on October 1, 2003, with 
        the first NCS enlistee on that day. To date, the Air Force has 
        enlisted 295 NCS participants.
        <bullet> The Army's goal for fiscal year 2004 is 2 percent of 
        non-prior Service accessions, or about 1,450 participants. 
        Unique among the Services, the Army is offering NCS program 
        participation in 10 of its 41 recruiting battalions. The RAND 
        Corporation will analyze the NCS program to determine its 
        effects on other enlistment options and the degree to which NCS 
        is a market expander in the high quality recruit market. 
        Through February 20, the Army has enlisted 213 participants.
        <bullet> The Marine Corps' goal for fiscal year 2004 is 175 NCS 
        participants. The Marine Corps has enlisted 39 NCS participants 
        to date, but expects no difficulty meeting the 175 participant 
        goal.
        <bullet> The Navy's goal for fiscal year 2004 is 1,000 NCS 
        participants. Due to initial challenges with their recruit 
        reservation system, the Navy did not start enlistments under 
        NCS until January 2004. To date, they have enlisted 55 
        participants, but see no problem in meeting the 1,000 
        participant goal.

                                 bases
    9. Senator McCain. Secretary Rumsfeld, I applaud your leadership in 
reassessing our force structure in Europe and around the globe. Bases 
in the Central Asian nations of Uzbekistan and Kyrgystan have been 
invaluable in the Afghan theater. Reports indicate Romania, Poland, and 
Bulgaria as sites for future bases. Can you comment on this? What other 
countries are being considered?
    Secretary Rumsfeld.

        <bullet> Global posture is really more than bases and 
        facilities. It encompasses several factors--facilities, 
        activities, relationships, usability of forces, surge and 
        personnel management.
        <bullet> As part of our process each combatant commander 
        provided proposals for realigning the posture in their 
        respective Area of Responsibility (AOR). A key theme in the 
        realignment effort has been to strengthen and transform 
        existing alliances, as well as build new partnerships.
        <bullet> We are currently compiling a report on the overall 
        Global Posture effort. It will contain a classified annex that 
        will enumerate countries, by region, where we intend to 
        position forces and capabilities.

    10. Senator McCain. Secretary Rumsfeld, I applaud your leadership 
in determining our future force structure, global basing strategy, and 
efforts to more fully integrate Active and Reserve Forces. What 
deadlines have you established to ensure these initiatives are folded 
into the upcoming BRAC process?
    Secretary Rumsfeld.

        <bullet> We will use the Global Posture Review to inform the 
        BRAC process. The review enables us to provide specific input 
        on overseas changes for the BRAC 2005 process.
        <bullet> This input will allow domestic implications of the 
        review--with forces and personnel either returning to or moving 
        forward within U.S. territory--to be effectively accounted for 
        within the BRAC decisionmaking process.
        <bullet> BRAC decisions in will be critical in preparing 
        appropriate domestic infrastructure for those U.S. forces that 
        will be returning to the U.S. and its territories.
        <bullet> Rather than sub-optimizing through individual moves, 
        BRAC looks at the whole picture, thus yielding more efficient 
        and effective placement of forces.

                <bullet> BRAC is the best way to determine the 
                placement of forces relocating to the U.S. Both efforts 
                are necessary for a true capabilities-based 
                infrastructure prioritization.

                               guantanamo
    11. Senator McCain. Secretary Rumsfeld, we commend our service 
members for treating the detainees at Guantanamo humanely and in a 
manner consistent with the principles of the Third World Geneva 
Convention of 1949. That said, many of the detainees in Guantanamo have 
been in captivity for 2 years. As you are aware, as time elapses, the 
quality of intelligence you can gather decreases. In December, Senator 
Lindsey Graham, Senator Cantwell, and I wrote you to inquire about your 
plans for the detainees in Guantanamo. Since I have not heard a 
response, can you please update me on your plans for prosecuting the 
detainees?
    Secretary Rumsfeld. I am likewise proud of our service members and 
the tremendous job they have been doing and continue to do in the 
operations at Guantanamo.
    It is important to note that the intelligence-gathering mission at 
Guantanamo continues to provide vital intelligence in the current 
conflict. The individuals being held at Guantanamo are providing us 
with important information that continues to help us in our efforts to 
undermine the al Qaeda network and defend the Nation against that 
network. For example, intelligence gained from Guantanamo has provided 
U.S. and coalition forces with information for use in planning and 
executing counterterrorism missions. It has enhanced and continues to 
expand our understanding of jihadist motivation, selection, and 
training process.
    As I mentioned in my February 18 letter, the President has 
designated six detainees as eligible for military commissions, and we 
are working through each case systematically. In  February, Guantanamo 
detainees Ali Hamza Ahmed Sulayman al Bahlul of Yemen and Ibrahim Ahmed 
Mahmoud al Qosi of Sudan were charged with conspiracy to commit war 
crimes. Prior to being charged, these detainees were assigned military 
defense counsel. Their trial dates and commission panel members will be 
selected at a later time. In addition to the assignment of counsel to 
and the charging of al Bahlul and al Qosi, military defense counsel 
have been assigned to Salim Ahmed Hamdan of Yemen and David Hicks of 
Australia.
    In addition to the above progress in the cases of those currently 
designated as eligible for commissions, we have also finalized a number 
of decisions that we believe are essential to moving forward and 
ensuring that the proceedings are full and fair. On December 30, the 
Department of Defense announced the selection of John D. Altenburg, Jr. 
to serve as the Appointing Authority. On March 17, 2004, I issued 
Military Commission Order No. 5 officially delegating the appointing 
authority responsibility to Mr. Altenburg. Mr. Altenburg brings with 
him a wealth of legal and military experience that will serve our 
Nation well in his performance of the Appointing Authority's duties. 
The progress made in the military commission process requires day-to-
day management by an individual, like Mr. Altenburg, who can devote his 
entire attention to the process.
    The Department also announced the selection of Air Force Brigadier 
General Thomas L. Hemingway as legal advisor to the appointing 
authority. As legal advisor, Brigadier General Hemingway will aid Mr. 
Altenburg in the day-to-day management of the process by overseeing 
Appointing Authority personnel and advising him on legal matters 
concerning the military commissions.
    The Department of Defense also announced four individuals who will 
be designated to serve on the Military Commission Review Panel 
established by Military Commission Order No. 1 (Mar. 21, 2002). Those 
individuals are: Griffin B. Bell, who served as Attorney General under 
President Carter and as a judge on the U.S. Court of Appeals for the 
Fifth Circuit; Edward G. Biester, a Pennsylvania state court judge, 
former Pennsylvania Attorney General and former member of the U.S. 
House of Representatives; William T. Coleman, an attorney currently in 
private practice who has served as Secretary of Transportation and as 
an adviser to several administrations; and Frank Williams, chief 
justice of the Rhode Island Supreme Court. As you may know, the Review 
Panel is responsible for hearing appeals from the decisions of the 
military commission. In that capacity, the panel plays an integral part 
in ensuring the fullness and fairness of the military commission 
process.
    The General Counsel of the Department of Defense also issued a 
military commission instruction that provides specific details on the 
Review Panel's responsibilities and operation. Among other things, this 
instruction establishes term limits and permits removal of review panel 
members only for good cause and protects them against undue influence.
    As we continue to move forward with the military commission 
process, it is important to bear in mind that in past conflicts we 
generally prosecuted war criminals after we had been victorious. In so 
doing, we greatly diminished the need to protect information. In 
today's war on terrorism, we are prosecuting our enemies even while the 
war clearly remains ongoing. In this current conflict, perhaps more so 
than any other conflict before it, information is the critical weapon 
for defeating our enemies and the need for the protection of vital 
information continues.

    12. Senator McCain. Secretary Rumsfeld, on December 12, 2003, 
following a visit to the facilities in Guantanamo, Senator Graham, 
Senator Cantwell, and I expressed our serious concern over issues 
regarding the disposition of the detainees--some of which have been 
detained for over 2 years. Since we are waiting for your written reply 
to this matter, when will you make a determination on the final 
disposition of the detainees' status?
    Secretary Rumsfeld. I very much appreciate the time that you and 
Senators Graham and Cantwell took to see for yourselves the operations 
at Guantanamo as well as your thoughtful concerns and questions about 
the detention of enemy combatants at Guantanamo.
    As I noted in my February 18, 2004 response, at the time of capture 
and based on available information, the detaining combatant commanders 
determined that those detained were part of, or otherwise supporting, 
forces hostile to the United States. Under the law of war, enemy 
combatants such as those detained at Guantanamo may be detained until 
the end of hostilities. Our Nation continues to be in an armed 
conflict. As with any armed conflict, no one can predict when its end 
will occur. Regarding detainee disposition and status, there is an 
interagency process in place to review the status of detainees 
regularly, to asses their intelligence value, if any, and evaluate 
whether they remain potential threats. Although a stark departure from 
U.S. Government practice in past conflicts, we have already released 
some detainees and are currently engaged with a number of countries to 
seek arrangements to return detainees to their home countries.

    13. Senator McCain. Secretary Rumsfeld, when and how will you begin 
the process outlined in the Order of the Military Commissions that the 
President signed in November 2001, and will you have outside observers?
    Secretary Rumsfeld. That process is already well underway. In July 
2003, the President determined that six individuals were subject to his 
November 13, 2001 Military Order. In February 2004, Guantanamo 
detainees Ali Hamza Ahmed Sulayman al Bahlul of Yemen and Ibrahim Ahmed 
Mahmoud al Qosi of Sudan were charged with conspiracy to commit war 
crimes. Prior to being charged, al Qosi and al Bahlul were assigned 
military defense counsel. Their trial dates and commission panel 
members will be selected at a later time. In addition to the assignment 
of counsel to and the charging of al Bahlul and al Qosi, military 
defense counsel have assigned to Salim Ahmed Hamdan of Yemen and David 
Hicks of Australia.
    Approximately 80 members of the media will be permitted to attend 
and an offer has been extended to the International Committee of the 
Red Cross to have a representative observe military commission 
proceedings. We are currently examining whether it is logistically 
possible for additional groups or individuals to attend.

                                 budget
    14. Senator McCain. Secretary Rumsfeld, I notice in the new budget 
there are large increases in funding for already existing programs. How 
does this year's budget proposal figure into your long-term 
transformation plans?
    Secretary Rumsfeld. The fiscal year 2005 budget sustains our 
ongoing transformation plans. Transformation is a large undertaking, 
but it does not consume the entire acquisition budget. Many ongoing 
programs remain vital to the short-term and long-term superiority of 
our military--for example new ships, transport aircraft, trucks, 
communications gear. These ongoing programs will continue to consume 
large portions of our acquisition budget.

    15. Senator McCain. Secretary Rumsfeld, during your first 
appearance in front of this committee you questioned the need for three 
tactical aviation programs. Can we still afford three new tactical 
aviation programs: F/A-18E/F, F/A-22, and Joint Strike Fighter (JSF)?
    Secretary Rumsfeld. The fiscal year 2005 budget continues the 
multiyear plan we formulated in preparing the fiscal year 2004 request. 
This plan made adjustments in our tactical aviation programs to ensure 
that they were realistically funded and executable, i.e. affordable. 
These and all other major programs will again be subject to new 
scrutiny as we prepare our fiscal year 2006-fiscal year 2011 multiyear 
plan.

                            missile defense
    16. Senator McCain. Secretary Rumsfeld, under the fiscal year 2005 
DOD budget, top-line funding for missile defense is going up to $9.2 
billion, an increase of $1.5 billion over the previous year. In fiscal 
year 2005, the Missile Defense Agency (MDA) will start to ``initiate 
technology development and testing of advanced, lightweight space-based 
interceptor components'' with the goal of incorporating them into its 
Block 2012 capability. Arguably, these space-based interceptors cross 
the line from militarizing space to weaponizing space. Yet, this move 
is being done without any real debate on U.S. security needs. Is the 
U.S. space policy being updated to include the option to weaponize 
space?
    Secretary Rumsfeld. The MDA continues to study space-based 
interceptors along with many other technology programs and future 
capabilities. Building on prior technology assessment studies of space-
based missile defenses, MDA will conduct an analytical effort in 2004 
to assess the potential benefits of these capabilities to support a 
layered missile defense system. MDA's current five year budget calls 
for continuing research and development in this area, with the option 
of developing a space-based test bed in Block 2012. Ultimately, any 
future decision to deploy interceptors in space would require 
additional Department and congressional decisions and funding.

    17. Senator McCain. Secretary Rumsfeld, MDA states that the Initial 
Defensive Operations system will not be considered to have achieved 
Initial Defensive Capability until after an assessment from the 
Director of Operational Test and Evaluation (DOT&E). Will this be 
DOT&E's report on the missile defense system that is expected in summer 
2004?
    Secretary Rumsfeld. Initial Defensive Capability will be achieved 
when a militarily useful increment of missile defense capability is 
available to place on alert. DOT&E will include appropriate comments on 
the Ballistic Missile Defense System (BMDS) the February 2005 report to 
Congress.

    18. Senator McCain. Secretary Rumsfeld, as you likely know, the 
DOT&E, Mr. Christie, has publicly expressed serious concern about the 
lack of operational test data for his office to evaluate. Given these 
concerns, how much can DOT&E really analyze this system?
    Secretary Rumsfeld. DOT&E will have access to all the testing data 
available on the BMDS deployable test bed. I expect that DOT&E will use 
the available data to provide the Department its fair and objective 
assessment of the defensive capabilities of the system.

    19. Senator McCain. Secretary Rumsfeld, the designation of a 
program as undergoing spiral development is crucial because, according 
to section 803 of the National Defense Authorization Act for Fiscal 
Year 2003, once a program is designated to be undergoing spiral 
development, it must show its development strategy, test plans, 
performance parameters, exit criteria, and operational assessment. 
Furthermore, from 2003 to 2008, the Secretary of Defense must give an 
annual report to Congress by September 30 on the status of each program 
undergoing spiral development.
    In the MDA budget request, this phrase is used to explain its 
development process (``Spiral development enables the execution of an 
iterative process for developing the BMDS. . . .'' p. 2), yet according 
to the GAO, there are no programs that are officially undergoing spiral 
development. Is the BMDS ever going to be officially designated a 
program undergoing spiral development?
    Secretary Rumsfeld. The BMDS was identified as undergoing spiral 
development after September 30, 2003 and, therefore, will be included 
in the Department status report due by September 30, 2004.

    20. Senator McCain. Secretary Rumsfeld, is it still reasonable to 
believe that the BMDS will be capability operational by the end of 
2004? Will the missiles be fully operationally tested by then?
    Secretary Rumsfeld. We still expect the BMDS to have operational 
capability by the end of 2004. As we have stated previously, this will 
be a limited capability with improvements to follow.
    The Ground-based Interceptors (GBIs) that are a part of the Ground-
based Midcourse (GMD) element will not be fully operationally tested by 
the end of 2004; however, they will be proven in developmental tests 
against threat-representative targets. Operational testing of this 
initial and evolving capability will proceed as the test bed is 
complete and continue as part of the development program and as part of 
our validation and verification effort.

 joint requirements oversight council decision on joint standoff weapon
    21. Senator McCain. General Pace, in General Myer's posture 
statement he states that you are ``establishing a more rigorous process 
for reviewing joint requirements.'' He also affirms that ``in the near 
term, [you] are focused on improving how [you] determine our munitions 
requirements. Over the long-term, [you] plan to field improved 
munitions systems that build on our already superb precision-delivery 
capabilities.''
    It appears to me that the cancellation of the United States Air 
Force's (USAF) joint participation in the Joint Standoff Weapon (JSOW) 
program in favor of the USAF's Wind Corrected Munitions Dispenser 
Extended Range (WCMD-ER) is totally counter to the direction Secretary 
Rumsfeld is setting for the department.
    With respect to requirements, WCMD-ER has half the range, increases 
the signature for the delivery platform, and offers no plan to 
accommodate for the unexploded hazard of aging explosives.
    With respect to the business case, the decision ignores the sunk 
costs that have already been spent on integrating the JSOW into five 
USAF aircraft in favor of future integration of the WCMD-ER into two 
USAF platforms at the time when the USAF is about to realize their 
return on investment. How do you explain this decision?
    General Pace. The Joint Staff has absolutely increased its rigor in 
reviewing service as well as joint munitions requirements. We are 
currently coordinating between combatant commanders (COCOM), individual 
Services, and the Joint Staff to accurately depict warfighter needs 
through the Munitions Requirement Process. This effort will enable 
Services to better define the capability and funding requirements 
needed to support the combatant commander's operations plan (OPLAN) 
requirements and threat assessment.
    Addressing the USAF decision to terminate the JSOW program in 
fiscal year 2005, Director, J-8 directed a review of several munitions 
programs. Over a 3-month period, the Force Application Functional 
Capabilities Board (FCB) conducted an assessment of standoff weapons 
capabilities and the impact of the USAF termination initiative on the 
overall JSOW program. The Joint Staff assessment did not focus on a 
pure comparison between JSOW-A and WCMD-ER. The tasking sought to 
identify gaps, seams, and redundancies in comparing JSOW with other 
joint and Service munitions. The unique attributes of JSOW were 
recognized and these capabilities weighed against their cost/benefits 
to the warfighter. JSOW is a standoff outside point defense weapon 
(SOPD). WCMD-ER is also a SOPD weapon. While it does not have the same 
range as JSOW, WCMD-ER does have the ability to be launched outside the 
range of most tactical threat systems. We recognize the issue with the 
unexploded ordnance hazard, but this is a challenge for our entire 
inventory of area target munitions. A final theme in the assessment 
included Strategic Planning Guidance direction to accept risk when 
existing capabilities sustain our advantage.
    The USAF based its decision to end JSOW-A procurement on 
requirements analysis that concluded JSOW-A provided a capability that 
would be served by other weapons. The USAF, even considering the 
funding for JSOW to date, projected a cost savings of $398 million in 
the FYDP.
    The Joint Staff recommended canceling the JSOW program, stating 
that advancements in precision capability of other current and funded 
munitions could effectively serve the JSOW target set. Current standoff 
munitions, together with direct attack munitions delivered by stealthy 
platforms, provide the necessary capabilities to meet COCOM 
requirements. The Joint Staff concluded that cancellation of the JSOW 
program would present limited risk in joint warfighting capabilities 
and offer substantial offsets for other critical requirements.
    The Joint Staff concluded that DOD should accept limited risk and 
capture substantial offsets for future programs.

                           air force tankers
    22. Senator McCain. General Pace, regarding tanker aircraft, the 
National Defense Authorization Act for Fiscal Year 2004 calls for an 
``Analysis of Alternatives,'' a long-term maintenance and training 
requirements study, and a corrosion study to be completed by March, 
April, and May 2004, respectively. Where are we with regard to each 
project? Specifically, who is conducting them? When will each be 
completed?
    General Pace. Independent Analysis of Alternatives (AoA) Public Law 
108-136 Section 134 directs the Secretary of the Air Force to submit an 
AoA by a federally-funded research and development center or another 
independent agency no later than March 1, 2004. The AoA Guidance was 
approved by the Under Secretary of Defense for Acquisition, Technology, 
and Logistics (USD(AT&L)) outlining the conduct of an AoA using a 
federally-funded research and development center or other entity 
independent of the DOD. This effort is expected to take 18 months to 
complete.
    Maintenance and Training Public Law 108-136 Section 135 requires 
the Secretary of Defense to submit a report, no later than April 1, 
2004, regarding long-term tanker aircraft maintenance and training 
requirements. The Air Force, more specifically the KC-767 and Trainer 
System Program Offices, are preparing the report, with Logistics and 
Materiel Readiness as the Office of the Secretary of Defense (OSD) 
lead. The report is expected to be submitted to Congress by USD(AT&L) 
no later than April 1, 2004.
    Aircraft Material Condition Public Law 108-136 Section 345 requires 
the Secretary of Defense to submit a report, no later than May 1, 2004, 
on the material condition of the KC-135 fleet. The statement of work 
has been prepared and the Center for Naval Analysis (CNA) is under 
contract. CNA is reviewing the available data and beginning their 
assessment.

    23. Senator McCain. General Pace, on December 1, 2003, the Deputy 
Secretary ordered a ``pause'' in the execution of the tanker contracts 
until the Office of the Inspector General (OIG) completes an 
independent assessment of allegations related to the tanker proposal. 
As you likely know, the Justice Department is also investigating 
matters related to the tanker program. It seems to me that the need for 
a ``pause'' prompted by the OIG's assessment applies with equal if not 
greater force to the Justice Department's investigation. In other 
words, the tanker contracts should not be executed until the Justice 
Department has completed its investigation. Do you agree? If not, why 
not?
    General Pace. I'm not in a position to comment about ongoing 
investigations. The Joint Requirements Oversight Council (JROC) 
approved the Air Refueling Aircraft Program Operational Requirements 
Document, thus validating the need for air refueling capability. This 
capability is essential to COCOMs, and we should take every appropriate 
action to satisfy it as soon as possible.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                         targeted pay increases
    24. Senator Chambliss. Secretary Rumsfeld, I am concerned as I know 
you are about retention and morale among our troops, particularly those 
who continue to be deployed overseas for long periods of time. 
Apparently as DOD was putting together its fiscal year 2005 budget 
recommendation, the OMB took out DOD's proposals for targeted pay 
raises, primarily for career enlisted members. I realize that resources 
are tight and that we can't always fund every pay and benefit program 
on the table. Having said that, I would appreciate your thoughts on how 
we can continue to retain high quality personnel, most of whom have 
other options outside the military, and what you believe is the proper 
mix of pay increases and quality of life enhancements that will ensure 
we create an environment that will retain the necessary amount of 
soldiers, sailors, airmen, and marines in our Armed Forces.
    Secretary Rumsfeld. We've made great strides in reaching our goal 
of improving military compensation so that it is equal to or greater 
than the 70th percentile of private sector incomes for military members 
with comparable education and years of service. We've closed the gap 
for officers and will have closed nearly 80 percent of the gap for mid-
grade non-commissioned officers (NCOs) with this year's 3.5 percent 
(Employment Cost Index (ECI) plus \1/2\ percent) across-the-board pay 
raise. We remain committed to achieving this goal. Our service members 
have seen this commitment over the past few years in increases to pay 
and housing allowances. This year's budget provides the resources to 
eliminate the remaining 3.5 percent out-of-pocket housing expenses for 
the average member on the first of January.
    Further, I am appointing a Defense Advisory Committee on Military 
Compensation to conduct a comprehensive review of military compensation 
for Active and Reserve Forces with a view toward simplifying and 
improving our compensation program to ensure we retain the right mix of 
soldiers, sailors, airmen, and marines in our Armed Forces.

       temporary increase in end strength/guard-reserve missions
    25. Senator Chambliss. Secretary Rumsfeld, I applaud your recent 
decision to float up the Army end strength over the next several years 
in order to better meet the demands being placed on our Armed Forces. 
As I interact with my constituents who are military members it 
continues to become clear to me that they are, overwhelmingly, proud to 
serve their country and willing to do so when called. At the same time, 
they want predictability in their lifestyle and a sustainable 
deployment schedule. The temporary increase you are instituting will 
help spread mobilizations and deployments over more people, and I 
believe that will help relieve some of the strain on our military 
members. Part of your plan for creating a more operational, deployable 
Army is to move people into skill sets that have high demand from those 
that are not in high demand. Regarding how this rebalancing may affect 
the Reserve components, can you explain in more detail which skill sets 
you are talking about and how this shift in skill sets will affect the 
way the Guard and Reserve look and how they are used in the future?
    Secretary Rumsfeld. Specialties such as Civil Affairs, Security/
Police Forces, Intelligence, and Special Operations Forces are examples 
of the most highly stressed career fields that need rebalancing. 
Converting skills from lower demand areas such as Field Artillery, Air 
Defense Artillery, and Combat Heavy Engineers to these higher stressed 
career fields increases the number of these units. Expanding the 
rotational base allows the Services to achieve mobilization rates that 
are both reasonable and sustainable.

                        guard/reserve retention
    26. Senator Chambliss. Secretary Rumsfeld, our Guard and Reserve 
members have done a great job over the last several years and have 
played a major role in military operations overseas and at home. Based 
on the planned ratio of Reserve to Active Forces in Iraq during OIF 2, 
they will be playing an even larger role in the future. Indications I 
get from Guard and Reserve personnel I've talked to are that we have a 
possible retention crisis brewing. People I've talked to who have been 
deployed or are currently deployed claim that as many as 70 percent of 
the people in their units plan to get out when they are demobilized. 
It's unclear if they actually will, however the fact they say they are 
going to is troubling. The additional feedback I get that I think is 
important to mention is that predictability in lifestyle is more 
important to retaining these people than any kind of pay and benefit. I 
know you and your staff are working right now to revamp the 
mobilization process and develop new standards for how Guard and 
Reserve personnel will be used. But I want you to know that this issue 
is in the forefront of my concern as well and I look forward to seeing 
how DOD will address this issue which I believe is absolutely central 
to the future of our Armed Forces. On that note, I would appreciate any 
preliminary thoughts you have on the standards the Department intends 
to put in place for using and retaining our Guard and Reserve Forces.
    Secretary Rumsfeld. We are acutely aware that the Reserve 
components are being called upon now more than they have in the past, 
and we are concerned about the impact of this increased use on our 
ability to meet our future human resource requirements. It is unclear 
at this point what current and long-term effects this increased use may 
have. While we are currently achieving our strength objectives, we 
remain vigilant about future enlistment and reenlistment behavior and 
trends. In our efforts to strengthen Reserve recruiting and retention, 
the Department is examining proposals for enhanced bonus programs and 
exploring opportunities to improve the quality of life for our members. 
We have stepped up our family and employer support programs, and we 
monitor employer- and family-related issues and concerns for potential 
serious problems. In addition, we are considering a number of 
initiatives that are focused on limiting the personal turbulence for 
our Reserve component members.
    To promote judicious and prudent use of the Reserve components and 
to reduce the strain on Reserve component members, we are focusing much 
of our effort on developing new standards for their use. We are 
exploring policies that will provide more predictable periods of 
mobilization and more advanced planning time for overseas tours. For 
example, a member could plan for not more than 1 year of mobilization 
in every 6 years of Reserve service and arrange his personal and family 
affairs accordingly. We are examining ways to enhance our use of 
volunteers in an effort to minimize the need for involuntary activation 
orders. Additionally, our efforts to prepare proposed legislation and 
revise our policies to support the continuum of service are ongoing. 
These efforts are focused on removing barriers to optimal use of 
Reserve component members across the spectrum of military operations in 
both peacetime and in times of national emergency.
    Although there are no immediate indications that the current 
mobilization has negatively impacted recruiting and retention, we are 
working to identify early warning indicators that will assist us in 
targeting enlistment and reenlistment incentives before problems become 
serious.
    The Secretaries of the military departments are individually 
responsible for determining their strength requirements and skill mix 
and applying available resources to ensure manning requirements are 
achieved. We will continue to work with them to ensure that our 
programs are sufficient to provide a strong force with the requisite 
numbers and skills.

                           strategic airlift
    27. Senator Chambliss. General Pace, strategic airlift has been 
absolutely central to our success in Afghanistan and Iraq over the past 
3 years, and central to the success of the Expeditionary Air Force for 
much longer than that. You are currently in the process of revising the 
Mobility Requirements Study to incorporate lessons learned from 
Operation Enduring Freedom (OEF) and OIF, and I understand that this 
study will be complete by June 2005. However, I don't think it takes a 
complex, time-consuming study to determine that we simply don't have 
enough airlift. We can't build C-17s fast enough and we can't modify C-
5s fast enough to produce the amount of airlift capability that we 
need. One illustration of this which I find a little troubling is that 
over the last few years DOD has contracted with the Russians to use AN-
124 aircraft for strategic airlift because we simply don't have enough 
of our own. At the same time, DOD and the Air Force in particular are 
dragging their feet in funding C-5 modernization programs which could 
help alleviate our need to contract with the Russians. I would 
appreciate your comments on this situation as well as your comments on 
how you will fund the C-5 modernization effort in order to increase the 
United States' strategic airlift capacity.
    General Pace. The AN-124 is only used on a limited basis as the 
last option for airlifting outsized cargo. Our preferred method of 
cargo shipment is sealift. Only when the material is needed at 
destination before sealift can get it there, do we resort to airlift. 
Certain large shipments, known as outsized cargo, can only fit on a C-5 
or C-17. The Fly America Act mandates that when the appropriate 
aircraft are not available, we must first offer a contract to U.S./
Civil Reserve Fleet carriers. However, no U.S. carriers have the 
capability to move outsized cargo. In the past 5 years we have 
contracted the AN-124 125 times, with the vast majority of those 
instances being in fiscal year 2002-2003 as we were building up and 
executing OIF. In fiscal year 2003, the AN-124 flew less than one-half 
of 1 percent of the total strategic airlift missions flown (79 out of 
180,000).
    As part of the C-5 modernization effort, we have funded the 
Avionics Modernization Program (AMP) for 55 aircraft. In fiscal year 
2005, $103 million is included in the President's budget request, 
including funds for procurement of kits for 18 additional aircraft. We 
have also requested $322 million in the fiscal year 2005 budget for the 
Reliability Enhancement and Re-Engining Program (RERP). Three test kits 
(two C-5Bs and one C-5A) were procured in fiscal year 2004 with 
operational test and evaluation scheduled to be complete in fiscal year 
2008. The Air Force has programmed funds for procurement of 12 
additional kits through fiscal year 2009, scheduled to begin as the 
Operational Test and Evaluation ends. Although budgetary constraints 
have delayed this program, we plan to AMP all remaining C-5s in the 
fleet and RERP the required amount to meet mobility requirements.
                                 ______
                                 
            Questions Submitted by Senator Lindsey O. Graham
                            tricare funding
    28. Senator Graham. Secretary Rumsfeld, last year, Congress 
appropriated $400 million to the Defense Health Program for an expanded 
TRICARE benefit for reservists and their families. Recognizing your 
reluctance to rely on unnamed sources, I have received information that 
a significant amount of these funds have been expended without program 
implementation. How much of that $400 million remains, and for what 
purpose has the money been used?
    Secretary Rumsfeld. Thank you for your support of our reservists. I 
share your respect and appreciation for their contribution to our 
Nation. Implementing the enhanced access to TRICARE provided to 
reservists by the Fiscal Year 2004 National Defense Authorization Act 
(NDAA) presents the Department with both fiscal and administrative 
challenges.
    As no additional funds were appropriated to support the new 
requirement, a prior approval reprogramming from within the 
Department's current appropriated funds is required. That reprogramming 
action is currently being staffed within the Department and should be 
forwarded to Congress shortly. As an interim measure, costs associated 
with the benefit are being absorbed within funds appropriated to the 
Defense Health Program appropriation as part of the Fiscal Year 2004 
Appropriations Act. Given that the ability to absorb these costs is 
limited, I request your support expediting congressional approval of 
the reprogramming request.
    The enhanced benefit also introduces a number of administrative 
challenges. As sections 703 and 704 of the NDAA for Fiscal Year 2004 
represent the extension of current periods of eligibility, the benefit 
became active and the Department began to incur costs on November 6, 
2003. At that time, the system capability to capture and report actual 
program expenditures did not exist. The Department is aggressively 
pursuing the necessary systems changes and contract modifications to 
properly administer these benefits, but those efforts are not yet 
finalized. As such, actual benefit expenditures are currently not 
available. However, current analysis indicates expenditures through 
March 2004 will be approximately $244 million. This estimate includes 
the provision of health care benefits under section 703 and 704, as 
well as associated system changes and contract modifications.
    Section 702 requires regulatory action which is currently under 
development within the Department. The Department is developing the 
program to ensure administrative and health care costs do not exceed 
the $400 million limit specified by Congress in fiscal year 2004.

    29. Senator Graham. Secretary Rumsfeld, could you please comment on 
the status of the implementation of this vital readiness and retention 
program?
    Secretary Rumsfeld. The Emergency Supplemental Appropriations Act 
and the NDAA for Fiscal Year 2004 temporarily revise statutes governing 
healthcare services for Reserve component (RC) sponsors and their 
family members. We are committed to making these changes as quickly as 
possible to ensure eligible members have access to TRICARE health 
benefits.

        <bullet> The Department has begun a series of steps to 
        implement these new temporary benefits such as changing systems 
        and contracts, and developing marketing and educational 
        materials to get information out to the RC members and their 
        families.
        <bullet> The law limits the fiscal year 2004 outlays to $400 
        million for authorized benefits. The Department is setting up 
        systems to accurately track and account for all administrative 
        and healthcare costs to stay within this limit.
        <bullet> Looking to the future, we need to proceed cautiously 
        in considering costly new entitlements for reservists who have 
        not been activated. A key issue would be the effect of a new 
        entitlement on recruitment and retention of both active duty 
        and Reserve component members.

                           air national guard
    30. Senator Graham. Secretary Rumsfeld, since the 1950s, the Air 
National Guard has followed a policy of maintaining at least one flying 
mission in every state. This policy is no doubt due to the invaluable 
contributions that the Guard provides not only to the national defense 
but also in recognition of the positive role Guard members play in 
their communities offering most individuals their only exposure to the 
military. Do you intend to continue that longstanding policy?
    Secretary Rumsfeld. I appreciate your long-standing support for our 
Nation's men and women in uniform as well as your concern for the 
continued relevance of our citizen airmen of the Air National Guard. 
The support of Congress will be critical as we transform the DOD to 
meet the national security requirements of the 21st century.
    The Department anticipates an overall reduction in the number of 
manned aircraft as we transform. This is due not only to constrained 
resources, but also the capabilities the Nation will require from the 
Department in the future. Information age warfare requires a different 
portfolio of capabilities than industrial age warfare, and we are 
transforming the joint force to meet that challenge. Also, the aircraft 
the Department is planning on procuring will be vastly more capable 
than our current legacy systems, which will result in a lower number of 
aircraft being procured. The Department is also very interested in the 
potential of unmanned systems.
    The USAF is committed to ensuring the Air National Guard is a full 
and equal partner in the Air Force of the future. I strongly support 
their efforts to ensure the future relevancy of the Air National Guard 
in their transformation plans. Our shift to capabilities based planning 
and the resulting shift in focus away from legacy systems require a 
commensurate change of focus by the Air National Guard. Lieutenant 
General James has developed a strong transformation vision, and I am 
confident that his approach will help to ensure a relevant Air National 
Guard.
    The Air Force and Air National Guard assure me their intent is to 
maintain a Guard flying unit in every state; however, first and 
foremost, they are committed to providing a relevant and more capable 
Air National Guard presence in every state, to provide required 
capabilities to the joint force. While it has always been a goal, there 
is no stated policy to keep a flying unit in each State. The Department 
believes such a policy would not be in the best interests of the 
Nation. The Air Force and Air National Guard leadership require the 
flexibility to transform the Air National Guard to ensure it has the 
required capabilities needed for the future.

                           rebalancing forces
    31. Senator Graham. Secretary Rumsfeld, you mention in your brief 
prepared for Congress the need to manage/reduce the need for Reserve 
mobilization but at the same time you want to ``restructure'' the 
Reserves to serve in more ``high demand'' units such as military 
police. Please comment on your plan to achieve both of these goals.
    Secretary Rumsfeld. The rebalancing strategy has as its objectives: 
to enhance early responsiveness by structuring forces to reduce the 
need for involuntary mobilization during the early stages of a rapid 
response operation; to resolve stressed career fields by structuring 
forces to limit involuntary mobilization to reasonable and sustainable 
rates; and to employ innovative management practices such as the 
continuum of service, reachback, enhanced volunteerism, mobilization 
process improvements, and predictable rotational overseas presence. 
Through this comprehensive rebalancing strategy the Department will 
gain added efficiencies from its existing force structure that may 
preclude any necessity to increase force end strength. For example, the 
Army's rebalancing plans will convert lower priority, less stressed 
field artillery force structure to higher priority and higher demand 
military police. This will increase the number of both active and 
Reserve component military police units. Expanding the rotational base 
allows the Services to achieve mobilization rates that are both 
reasonable and sustainable.

    32. Senator Graham. Secretary Rumsfeld, it was mentioned in the 
budget brief that, contrary to what has been reported, Army end 
strength numbers are not going to be temporarily increased; instead, 
active duty personnel are going to be ``restructured.'' Who will 
replace those active duty positions that are being restructured?
    Secretary Rumsfeld. The President has authorized the Army to 
temporarily increase active component strength by 30,000, using 
emergency powers provided in statute, for the purpose of resetting the 
force and creating 10 additional brigade UAs to address demands on the 
force based on current global war on terrorism emergency operations. 
The Army will increase its strength by up to 30,000 over the next 4 
years and then return to statutory limits provided in the NDAA. It will 
employ a number of methods to return to the prescribed statutory 
limits. These methods include restructuring of ``Cold War'' 
capabilities deemed unnecessary or excessive for the emerging strategic 
environment, converting selected military spaces to civilian spaces in 
the institutional force, and headquarters delayering to provide more 
soldiers in deployable units. The exact number of spaces to be 
restructured is still under review. The spaces for ``Cold War'' 
capabilities that are no longer needed are being reinvested to create 
brigade UAs and associated support elements. Spaces in the 
institutional force that can be converted to civilian positions will be 
filled through the hiring of general schedule civilians or contractors.

                     military retention/recruiting
    33. Senator Graham. Secretary Rumsfeld, in your opinion, what 
effect will the lack of targeted pay raises have on military retention 
in light of an improving economy and the current strain on military 
forces?
    Secretary Rumsfeld. In my opinion, the lack of targeted pay raises 
will not adversely affect retention. The proposed 3.5 percent pay raise 
is one-half percent greater than the average pay raise in the private 
sector. When we also consider that the Basic Allowance for Housing, for 
some members about one-third of their regular military compensation, 
increased 6.9 percent and the Basic Allowance for Subsistence rose 4.8 
percent, military compensation growth was significantly higher than for 
the average civilian.

    34. Senator Graham. Secretary Rumsfeld, what effect do you believe 
the current stop losses will have for long term recruiting and 
retention goals?
    Secretary Rumsfeld. I believe the current Stop Loss program will 
have minimal effect on long-term recruiting goals. The current Stop 
Loss program is small in scale, impacting approximately 45,000 (as of 
the end of January 2004) out of the 2,000,000 active and Reserve 
Service members. As of today, the Army is the only Service currently 
executing stop loss. Army Stop Loss programs are expected to remain in 
effect until their unit stabilization system and increased manning 
initiatives are fully realized in 3 to 4 years. We are closely 
monitoring retention rates. When we ask the force about their 
intentions to stay in uniform, the signals remain positive.

                            stockpile report
    35. Senator Graham. Secretary Rumsfeld, over the last several 
years, the Senate has supported a number of Department of Energy (DOE) 
programs essential to the Nation's nuclear deterrent force. Many of 
those programs support DOD as the end ``customer.'' When do you intend 
to finalize the Stockpile Report?
    Secretary Rumsfeld. We are currently conducting a periodic review 
of our plans for implementing the Nuclear Posture Review. The updated 
plans will serve, among other things, as the means to change the 
projection of our specific stockpile requirements. We will make a two-
thirds reduction in number of our operationally deployed nuclear 
weapons that President Bush has announced. The plan must also protect 
against a number of unknowns in the 2012 timeframe and beyond, 
including the international environment, the limited progress we have 
made toward restoring our nuclear infrastructure, and the condition of 
the aging stockpile. Infrastructure is of particular concern, since the 
U.S. cannot build complete replacement warheads or build new ones from 
scratch if it were required to do so. Because of this and other 
infrastructure shortfalls, we must rely on those warheads we have in 
secure storage to respond to new threats by incorporating new 
technology into these existing warheads when required.
    Nearly all of the weapons in the stockpile were designed and built 
during the Cold War. For now, our plan is to retain some, explore 
modifications of others to give them improved capabilities, and to 
prudently reduce the overall inventory of warheads. Predicting specific 
stockpile requirements that will meet our deterrence needs for the next 
decade and beyond, is a very complex problem. This initial stockpile 
plan for 2012, now in development, will involve significant reductions. 
We will continue to refine our requirements in the future taking into 
account progress made in restoring the nuclear infrastructure and the 
condition of the stockpile.
                                 ______
                                 
             Questions Submitted by Senator Elizabeth Dole
                             transformation
    36. Senator Dole. General Pace, in a recent article in the National 
Journal, the operational linking of individual Service training ranges 
at Nellis, the National Training Center, Twentynine Palms, and San 
Diego was hailed as one of the greatest transformation achievements 
stemming from operations in Iraq. Where do you see further 
``transformational'' opportunities emerging in joint training and 
operations?
    General Pace. While the Joint National Training Capability (JNTC) 
has demonstrated initial success in providing a capability to conduct 
joint training at a collective level, we are also making strides to 
develop an enhanced capability to provide distance learning and 
training at an individual level. This capability is referred to as the 
Joint Knowledge Development and Distribution Capability (JKDDC).
    JKDDC will transform the way our joint military forces receive 
joint individual training. Through this capability we will develop and 
distribute joint knowledge via a dynamic, global-knowledge network that 
provides immediate access to joint education and training resources. 
This capability facilitates a transformed culture by preparing future 
decisionmakers and leaders (officers, enlisted, and DOD civilians 
across the joint community) to employ joint operational art, understand 
joint doctrine, and respond innovatively to adversaries.

                         rebalancing the forces
    37. Senator Dole. General Pace, while end strength is certainly an 
area of concern, I am more concerned about force mix particularly, the 
total force of active, Reserve and Guard. How are you addressing the 
short-term issue of manning high demand career fields?
    General Pace. The Services are taking a number of actions to reduce 
stress on high demand career fields beginning in fiscal year 2004-2005. 
Generally, they will move force structure from high-density, low-demand 
capabilities (air defense and artillery) into high-demand capabilities 
(military police and civil affairs).
    The Army will begin the restructuring of 40,000 billets in fiscal 
year 2004-fiscal year 2005. This includes beginning realignment of 
30,000 billets in fiscal year 2004--affected career fields include 
Civil Affairs, Psychological Operations, Chemical Defense, Special 
Operations Forces, Intelligence, and Military Police. Realignment of 
the remaining 10,000 billets will begin in fiscal year 2005 affected 
career fields include Military Police, Transportation, and 
Quartermaster.
    The Navy will complete realignment of over 14,600 billets by fiscal 
year 2005 in its Antiterrorism/Force Protection, Intelligence, and 
Medical career fields. Additionally, the predominantly RC Naval Coastal 
I Warfare capability will gain active component structure: (1) four 
active component Maritime Security Force Squadrons will be commissioned 
by end fiscal year 2004; and (2) two of eight RC Naval Coastal Warfare 
Squadrons transfer to AC in fiscal year 2005.
    The Air Force will realign 3,800 billets in fiscal year 2004-fiscal 
year 2005. This includes 2,700 billets in the highly stressed Special 
Operations career field and 1,100 across 16 other stressed AC career 
fields.
    The U.S. Marine Corps will realign billets in Air/Naval Gunfire 
Liaison Companies and examine further rebalancing efforts for Law 
Enforcement, Civil Affairs, and Intelligence. In fact, three Air/Naval 
Gunfire Liaison Companies will be established resulting in a 54/46 AC/
RC mix of forces in a capability that was previously 100 percent in the 
RC.

    38. Senator Dole. General Pace, in your proposal to reassign some 
units (namely air defense and artillery) to units such as military 
police and civil affairs, are we sacrificing a capability of a core 
mission in order to meet a short-term requirement?
    General Pace. We are not sacrificing a capability of a core mission 
in order to meet short-term requirements. The rebalancing efforts by 
the Services are the result of detailed analysis. In general, the 
Services will move force structure from high-density, low-demand 
capabilities (air defense and artillery) into high-demand capabilities 
(military police and civil affairs).

    39. Senator Dole. General Pace, could you discuss in further detail 
how you plan to rebalance the forces between the active, Guard, and 
Reserve components?
    General Pace. The Services are taking a number of actions, in 
addition to those already mentioned for the near-term, to rebalance 
forces between the AC and RC to better match the force structure to the 
Defense Strategy.
    The Army will realign up to an additional 85,000 billets beginning 
in fiscal year 2006 upon the completion of the Total Army Analysis 06-
11. This is in addition to the 40,000 billets that will begin 
realignment in fiscal year 2004. The primary capabilities affected will 
be: (1) significant decreases in Field Artillery, Air Defense, 
Engineers, and Armor; and (2) significant increases in Military Police, 
Transportation, Petroleum, Oils, and Lubricants/Water Distribution, 
Civil Affairs, Psychological Operation, and Chemical Defense.
    Other actions by the Services that will affect the AC/RC include:

        --  All Services will increase the use of ``reach-back'' 
        capabilities, particularly in the Medical and Intelligence 
        career fields, in order to reduce the deployment requirements 
        for high-stressed RC career fields;
        --  The U.S. Navy (USN) and USMC will integrate AC/RC F/A-18 
        units to improve overall carrier air wing availability and 
        reduce reliance on one component or the other, exclusively;
        --  The Air Force will reduce reliance on the RC by 24 percent 
        over the FYDP through AC/RC realignment in the highly stressed 
        career fields of Combat Search and Rescue (CSAR) helicopters 
        and the C-130s that refuel the CSAR helicopters.

                   mobilization of the national guard
    40. Senator Dole. General Pace, with this month's deployment of 
North Carolina's 30th Heavy Enhanced Separate Brigade, I have been made 
painfully aware of some of the problems faced by our National Guard 
(NG) units as they mobilize. What are you doing to guarantee that these 
service members are expediently transitioned to active duty payrolls 
and that their lodging and subsistence are of the same quality as the 
active units training on the same bases?
    General Pace. For pay and lodging and subsistence, we are doing the 
following:

          Pay. Since the mid-1990s, mobilized Army National Guard 
        (ARNG) soldiers remain on the Defense Joint Military Pay System 
        (DJMPS) and are not rolled over to the active component (AC) 
        pay system. When an ARNG soldier is mobilized, the NG United 
        States Property and Fiscal Officer (USPFO) issues a pay order 
        which establishes entitlements using an AC accounting 
        classification; thereby, transitioning the soldier to active 
        duty.
          Problems arise when an ARNG soldier reports to an AC Finance-
        Office with a pay concern, as the AC is not familiar with the 
        DJMPS-RC system. However, the U.S. Army Finance Command in 
        conjunction with the Defense Finance and Accounting System 
        established RC training teams to conduct training at various AC 
        installations on the DJMPS-RC. In addition, the ARNG has 
        implemented a toll-free number and set up an email address for 
        ARNG soldiers to use when they have questions or concerns 
        regarding their pay. Also, three ARNG Mobilization Pay Teams 
        (MPTs) are being organized to identify and make necessary pay 
        adjustments and corrections. The toll-free number and email 
        address were operational March 1, 2004, and the MPTs should be 
        operational April 1, 2004.
          Lodging and Subsistence. The Army has experienced significant 
        challenges in billeting mobilized soldiers. In response, the 
        Installation Management Agency (IMA) has created a standard 
        policy for all installations to use when accommodating 
        mobilized soldiers regardless of component affiliation. This 
        standard is based on the fundamental principle that AC and RC 
        soldiers are on one team and are to be treated equally within 
        the installation's capabilities.

    41. Senator Dole. General Pace, the budget request news release 
sent out by your office proposes the use of innovative management to 
improve the mobilization process. Could you go into some specifics 
about that objective?
    General Pace. In order to relieve stress to the RC force, we are 
evaluating several innovative management practices to improve the 
flexibility of the total force. We also want to reduce the impact on 
critical career fields in the RC and the need for involuntary 
mobilization. Our four approaches include: establish the paradigm of 
the continuum of service, increase use of reachback, improve 
predictability of rotational overseas presence, and improve the 
mobilization process.
    The paradigm of the continuum of service is a new practice that 
provides individual service members greater opportunities to serve in 
support of the Department's mission. Currently, the RC force is made up 
of either full-time or traditional reservists. With the new approach, 
RC individuals will be able to perform military service in a variety of 
ways, at varying levels of service, moving between full-time and part-
time status, as circumstances in their lives and needs of the 
Department evolve.
    Increased use of reachback refers to the ability to connect 
electronically to information sources and resources at home base or 
other locations around the world to accomplish essential tasks and 
missions. By employing reachback, the in-theater force can be smaller 
and more agile, with corresponding reductions in combat support and 
physical security requirements. Additionally, by using computer 
connectivity, RC units and individuals can provide mission support 
during drill periods as well as short-rotation active duty tours, thus, 
further lessening the requirements for RC mobilizations.
    Improving the predictability of rotational overseas presence allows 
longer lead-time to plan for overseas deployment. RC members benefit 
from additional time to prepare their families, employers, and train 
with their units. Incorporating RC forces into a more predictable 
rotational overseas presence plan also allows the Department to free up 
active component units to support rapid-response requirements that may 
arise, and the Services are able to better manage the operational tempo 
of the total force.
    Improvements to the mobilization process include: establishing 
standards to ensure judicious and prudent use of the RC, gaining better 
access to the Individual Ready Reserve pool (for greater source of 
military manpower and depth of capabilities), and continuing Service 
refinements to automation systems, thus, enhancing visibility of 
activated RC members and improving the ability to meet mobilization 
requirements.

    42. Senator Dole. Secretary Rumsfeld, since September 11, 2001, 21 
North Carolina NG units have been mobilized. Of those, only one unit 
was given anywhere close to a 30-day notice. With the announcement of 
the OIF 2 rotation, the 30th Heavy Enhanced Separate Brigade received 
their orders 4 days prior to their mobilization date. While I 
understand the urgent requirements immediately following September 11, 
this holding of notice orders for an anticipated rotation is 
unacceptable, especially given the additional preparations required for 
our citizen soldiers. What is being done to address this ongoing 
problem?
    Secretary Rumsfeld. The 30th Enhanced Separate Brigade alert order 
was released by Headquarters, Department of the Army on July 25, 2003. 
The 30th Enhanced Separate Brigade mobilization order was released by 
Headquarters, Department of the Army, on September 27, 2003, with a 
mobilization date of October 1, 2003. While it is the Army's policy to 
issue mobilization orders 30 days prior, operational requirements 
sometime dictate otherwise. While it was unfortunate that it was only 4 
days from mobilization order receipt to report for duty, it did allow 
for the soldiers families to become eligible for the benefits and 
entitlements that come with activation, such as medical care, dental 
care, and lower interest rates for loans. It is the Department's policy 
to ensure the predictable use of Reserve Forces shall be extended to 
the maximum amount possible by notifying Reserve members early that 
they are being considered for activation and by issuing orders as soon 
as it is operationally feasible to do so with the goal of providing 
them to the activating member at least 30 days prior to the report 
date.

                    brac/guard and reserve training
    43. Senator Dole. Secretary Rumsfeld, with the proposed 25 percent 
reduction in domestic facilities with BRAC and movement away from 
large, forward-operating bases, how are you planning to accommodate 
Guard and Reserve training, basing, and quality-of-life needs when 
worldwide operations require a manpower ``spike''?
    Secretary Rumsfeld. The Department of Defense is committed to 
meeting the quality-of-life needs of our service members and their 
families as we transform our military for the 21st century. Just as our 
forces are dealing with the global war on terrorism, so too, are our 
military families. We have the honor and the obligation to assist them 
in meeting the stresses and challenges of military life. Because of the 
unique challenges of our times, we formed a Joint Family Readiness 
Working Group in October 2002. The working group is critical in the 
Department's efforts to monitor deployment and family readiness and 
serves as an advisor to DOD leadership on emerging policy and 
operations issues.
    Each of the military services has comprehensive deployment support 
programs. These programs educate families and help them cope with the 
demands of military life and separations. Outreach efforts include 
personal contact with families on a regular basis. Through technology 
(toll-free numbers, Military OneSource, and Web sites), families can 
access information or link to services virtually around the clock. 
Personal services include emergency assistance, respite care for 
children, financial assistance, and help in navigating military 
systems.
    The military family lives with a high level of stress not only 
because of frequent deployments that place the service member/parent/
spouse in harm's way, but also because of frequent moves, disruptions 
in the military spouse's employment, and the challenges created by 
children changing schools. The OneSource program is a primary means of 
support to families dealing with these challenges, especially the two-
thirds who live off-base and the 60 percent with family 
responsibilities. Through the Military OneSource programs, service 
members and their families can also access prepaid nonmedical family 
assistance counseling to help them deal with deployment separations, 
parent-child communication, financial issues, and reunion/reintegration 
issues.
    Our service members have strong family values and high aspirations 
and expectations for their quality of life. To that end, the 
Department, in its new social compact, has entered into a written 
commitment to improve life in the military, underwrite family support 
programs, and work in partnership with families to accomplish the 
military mission. Family support is a continuous effort, and there is 
no finish line for readiness.
    As we continue to support our Active and Reserve Forces and their 
families, we are closely monitoring our programs so that resources are 
available and accessible to all affected by mobilization and 
deployment. We are being particularly vigilant and supportive of our 
family readiness volunteers. They do a superb job and are an incredible 
group of dedicated and effective volunteers.

    44. Senator Dole. Secretary Rumsfeld, while I understand the 
temporary nature of many of the facilities now housing our Guard and 
Reserves units training for deployment, the deplorable state of those 
facilities is not understandable. How will remedying this situation be 
factored into the considerations for the 2005 BRAC round?
    Secretary Rumsfeld. As the Department rationalizes its base 
infrastructure with defense strategy through the BRAC process, excess 
base capacity can be eliminated. This will release scarce resources 
that would otherwise not be available for other higher-priority 
requirements, such as modernizing weapons, improving quality of life 
for military members, and improving the readiness of our forces by 
upgrading the facilities that support them. To the extent funding can 
be diverted from unnecessary facilities through BRAC, the facilities 
you mention could be improved.

                  transformation and postwar stability
    45. Senator Dole. Secretary Rumsfeld, while our latest military 
innovations have been significant in ``winning the war,'' we seem to 
have a ways to go in ``keeping the peace.'' How does your 
transformation vision address the need to maintain a postwar stability 
operation or peacekeeping capability?
    Secretary Rumsfeld. Our vision of transformation encompasses 
developing new concepts for the employment of military force across the 
range of military operations, from major force-on-force combat to 
stability operations. To support this vision, the Joint Staff, 
combatant commands, and the military services are developing future 
joint concepts that will support our operational goals as laid out in 
the 2001 Quadrennial Defense Review. For example, the April 2003 
Transformation Planning Guidance included specific guidance on 
developing a joint operating concept (JOC) for stability operations, 
with particular emphasis on peace enforcement. That JOC is now under 
development and is expected to be completed soon. To make the concept a 
reality, the military will conduct experiments and wargames to ensure 
the force adopts the new concept. Such transformational capabilities 
are critical to adapting our forces' combat capabilities into useful 
tools for resolving crisis situations. In addition, we continue to work 
with our friends and Allies to increase global capacity to conduct 
stability operations and to develop policies, concepts, and doctrines 
that ensure we can operate together effectively during stability 
operations.

                     welfare of the military family
    46. Senator Dole. Secretary Rumsfeld, the welfare of the military 
family is undoubtedly a key to the success of our All-Volunteer Force. 
I would like to take this opportunity to thank the countless volunteers 
and military family advocacy employees for their dedicated work during 
OEF and OIF. How is DOD formalizing the family advocacy mission, and 
how is this mission included in you transformation vision?
    Secretary Rumsfeld. The Department of Defense is committed to 
meeting the quality of life needs of our service members and their 
families as we transform our military for the 21st century. Just as our 
forces are dealing with the global war on terror, so too, are our 
military families. We have the honor and the obligation to assist them 
in meeting the stresses and challenges of military life. Because of the 
unique challenges of our times, we formed a Joint Family Readiness 
Working Group in October 2002. The working group is critical in the 
Department's efforts to monitor deployment and family readiness and 
serves as an advisor to DOD leadership on emerging policy and 
operations issues.
    Each of the military services has comprehensive deployment support 
programs. These programs educate families and help them cope with the 
demands of military life and separations. Outreach efforts include 
personal contact with families on a regular basis. Through technology 
(toll-free numbers, Military OneSource and Web sites), families can 
access information or link to services virtually around the clock. 
Personal services include emergency assistance, respite care for 
children, financial assistance, and help in navigating military 
systems.
    The military family lives with a high level of stress not only 
because of frequent deployments that place the service member/parent/
spouse in harm's way, but also because of frequent moves, disruptions 
in the military spouse's employment, and the challenges created by 
children changing schools. The OneSource program is a primary means of 
support to families dealing with these challenges, especially the two-
thirds who live off-base and the 60 percent with family 
responsibilities. Through the Military OneSource programs, service 
members and their families can also access pre-paid non-medical family 
assistance counseling to help them deal with deployment separations, 
parent-child communication, financial issues and reunion/reintegration 
issues.
    Our service members have strong family values and high aspirations 
and expectations for their quality of life. To that end, the 
Department, in its new social compact, has entered into a written 
commitment to improve life in the military, underwrite family support 
programs, and work in partnership with families to accomplish the 
military mission. Family support is a continuous effort and there is no 
finish line for readiness.
    As we continue to support our Active and Reserve Forces and their 
families, we are closely monitoring our programs so that resources are 
available and accessible to all affected by mobilization and 
deployment. We are being particularly vigilant and supportive of our 
family readiness volunteers. They do a superb job and are an incredible 
group of dedicated and effective volunteers.

    47. Senator Dole. Secretary Rumsfeld, given that our current 
deployments are drawing heavily on Guard and Reserve Forces, what is 
the Department doing to ensure necessary and appropriate support for 
all families, especially those from rural communities who live long 
distances from military installations?
    Secretary Rumsfeld. We have been working with the Services and the 
RCs to create more of a joint service, total force family readiness and 
support perspective, so that any member or family can go to any 
installation or family support group and receive the assistance they 
need, regardless of the Service or component affiliation of the member.
    Family readiness is a command function that must start at the 
battalion/squadron level. The unit commander is in the best possible 
position to determine what is needed to support his or her unit members 
and their families. Thanks to the National Guard Bureau, over 400 
family assistance centers have been brought online to augment the 
family support system in America's hometowns in support of mission 
readiness. These joint centers provide an outreach capability not only 
to Guard and Reserve families that are not located near an 
installation, but they also support the large number of active service 
and family members who reside off the installation. Combined with the 
active duty family centers, there are over 700 family assistance 
centers around the world.
    Through technology (toll-free numbers, Military OneSource, and Web 
sites), families can access information or link to services around the 
clock. We have been extremely pleased with the success of the OneSource 
program. This program offers service members and their families, from 
any location in the world, 24 hours a day, 7 days a week, access to a 
professional counselor via a toll-free telephone line, the Internet, 
and e-mail. The program offers the service in more than 130 languages. 
Personal services include emergency assistance, respite care for 
children, counseling, financial assistance, or help in navigating 
military systems. In addition, military members and their families can 
access prepaid family assistance counseling services on issues ranging 
from parent-child communications to reunion/reintegration of the family 
following deployments. A licensed provider provides this counseling 
within 30 minutes of the military family's home.
    The military family lives with a high level of stress not only 
because of frequent deployments that place the service member/parent/
spouse in harm's way, but also because of frequent moves, disruptions 
in the military spouse's employment, and the challenges created by 
children changing schools. The OneSource program is a primary means of 
support to families dealing with these challenges, especially the two-
thirds who live off-base and the 60 percent with family 
responsibilities.
    Our service members have strong family values and high aspirations 
and expectations for their quality of life. To that end, the 
Department, in its new social compact, has entered into a written 
commitment to improve life in the military, underwrite family support 
programs, and work in partnership with families to accomplish the 
military mission. The OneSource program leverages the power of public-
private partnerships and technology to deliver services.

    48. Senator Dole. Secretary Rumsfeld, what is the Department doing 
to facilitate coordinated, targeted support for these troops and their 
families from local community resources, like schools, churches, and 
public agencies?
    Secretary Rumsfeld. The National Guard Family Assistance Centers, 
located at over 400 sites in communities throughout the country, work 
with local agencies to ensure support is made available to military 
families. Moreover, the Family Centers at the installation have always 
worked with the local public agencies to ensure military families 
receive the appropriate support for which they are eligible. A number 
of veteran service organizations have also stepped up to the plate and 
are assisting families whose loved ones are deployed with home repairs, 
cars, lawn mowing, and other tasks that the deployed service member did 
while at home. The community response to our military families has been 
and continues to be very inspiring.
    The family support systems at the installation level work with the 
schools to ensure that their staffs are aware of the unique needs of 
military children and, in particular, students with a parent deployed. 
Family Center staff and School Liaison Officers work regularly with the 
local schools providing training and other resources to help them 
assist military children.
    Military OneSource, our recently implemented toll-free telephonic 
information and referral service links military families directly to 
local civilian community services. Military OneSource verifies 
referrals and frequently conducts a three-way call to introduce the 
military family to community service providers. In addition, families 
can access prepaid nonmedical family assistance counseling, provided by 
local civilian counselors, through the Military OneSource program.
    I am pleased to recount a number of initiatives: for example, DOD 
sponsors www.MilitaryStudent.org, a Web site designed for children and 
parents of military families on deployment, their teachers, military 
installation leaders and families of special needs. The Web site is an 
extensive collection of information, skills, and strategies to help 
students and their families address deployment challenges as well as 
information and suggestions for those in support roles.
    We help educators become aware of the challenges of the military 
child. To foster national awareness and highlight best practices for 
public school and military leaders, the DOD and the Military Impacted 
Schools Association (MISA) sponsored the National Conference for the 
Military Child. An outgrowth of the conference was the Promising 
Practices Program, which promotes worldwide replication of school 
programs and policies that schools can emulate for the benefit of 
military children and is located on the DOD Web site, 
www.MilitaryStudent.org.
    The Department has initiated several partnerships. A partnership 
with the Department of Education's Safe and Drug Free Schools has 
expanded to include work with the National Child Traumatic Stress 
Network (sponsored by the University of California, Los Angeles, Duke 
University, and the Department of Health and Human Services) and world-
renowned trauma experts to develop publications such as: ``Educator's 
Guide to the Military Child During Deployment'' and ``Educator's Guide 
to the Military Child During Post Deployment: Challenges of Family 
Reunion.'' In addition, Parent's Guide to the Military Child in 
Deployment has been written in collaboration with the same agencies. A 
partnership with child psychologists and the Child Study Center of New 
York University School of Medicine has made their outstanding 
guidebook, Caring for Kids After Trauma and Death: A Guide for Parents 
and Professionals, available on our www.MilitaryStudent.org Web site 
where the DOD publications mentioned above also reside.
    A partnership with Generations United is allowing the DOD to work 
with a nonprofit organization to develop a literacy tutoring program 
for children of deployed military families by training retired military 
members to offer educational and emotional support on a one-to-one 
basis. It will be piloted in six heavily impacted public school 
districts. In addition, the National Child Traumatic Stress Network and 
DOD are working with Walter Reed Army Medical Center and the Veterans 
Administration to develop a program to work with children of severely 
wounded military members returning from Iraq and Afghanistan to help 
children comprehend the life-altering changes of the military member 
and the impact on the family.
    To give national prominence to military child education issues and 
to encourage states to work together to solve many of the challenges of 
military children in transition and deployment, DOD is sponsoring the 
National Education Consortium of Highly-Impacted States. It will be 
held in Washington, DC, in 2004 and attended by Chief State Schools 
Officers of the most heavily impacted military states. The agenda 
includes discussion regarding reciprocity and legislative initiatives, 
establishment of partnerships, and future consortium plans.

    49. Senator Dole. Secretary Rumsfeld, does the Department play a 
direct role in helping these types of organizations help our troops and 
families, or are we merely assuming that they are all doing their part 
to support military families? What type of feedback are you receiving?
    Secretary Rumsfeld. In October 2002, we established a Joint Service 
Family Readiness Working Group. This working group has family program 
representatives from all active and Reserve components, nonprofit 
organizations such as the Red Cross, the National Military Family 
Association, and relevant Federal agencies such as, the Department of 
Veterans Affairs. This group casts a wide net of information gathering 
from their field programs and offices. Through this we get a great deal 
of feedback. I am pleased that the feedback indicates a great deal of 
community support for our military families.
    Family support leaders conduct site visits to highly impacted 
areas. The visits are intended to get a pulse of family and community 
support operations. During these visits, they meet with families, 
family readiness group leaders, and family support staff. Leaders come 
back from these trips impressed with the strength of our family support 
infrastructure but also with the incredible amount of community support 
for our troops and their families.
    We work closely with the President's USA Freedom Corps to provide a 
means of channeling public service to military communities and 
individuals in need. Industries, not-for-profit organizations, schools, 
and individuals have rallied to support our troops and their families 
in countless ways from repairing cars to providing respite care.
    The DOD plays an active role in partnerships with many 
organizations. We are not only the beneficiaries of the efforts of not-
for-profit organizations, we are also active participants. With the 
MISA, for example, we contribute publications, Web site information, 
and programs that can benefit schools highly impacted by our children 
of military families. We have hired outstanding educators, researchers 
and child psychologists to develop an on-line course that educators 
anywhere in the world can access for free. The course contains cutting 
edge strategies, research, and teaching and counseling techniques that 
will help to support our military children.
    Military OneSource is a success story for us. We constantly receive 
feedback from our service members that our 24/7/365 information and 
referral service for our military families is providing a much needed 
support function, everything from locating a dentist for their autistic 
child to providing school district information for family relocation. 
In addition, military members and their families can access prepaid 
family assistance counseling services on issues ranging from parent-
child communications to reunion/reintegration of the family following 
deployments. A licensed provider provides this counseling within 30 
minutes of the military family's home. Military OneSource tracks the 
requests from military members and gives us constant feedback regarding 
concerns and needs of our families. This invaluable information is used 
to guide our decisions regarding new programs, policies, and procedures 
necessary to improve military family quality of life.

        guard and reserve activations/separation from businesses
    50. Senator Dole. Secretary Rumsfeld, many of our Guard and Reserve 
personnel either work for a small business or actually run their own 
small business. Given the historic magnitude of current Guard and 
Reserve activations and the substantial economic implications 
associated with these activations, could you outline for the committee 
how the Department is preparing these business owners and employees for 
separations that could last 12 to 18 months, both before they leave and 
after they return?
    Secretary Rumsfeld. Employer support is an important part of an 
individual's decision to remain in the Reserves under normal conditions 
and is even more important in a time of mobilization when employees are 
absent from their employers for more extended periods. Absences by 
reservist-employees may create work problems and increased costs for 
civilian employers and may significantly affect the operations of a 
self-employed reservist's business. Employers of America's NG and 
Reserve members have become inextricably linked to a strong national 
defense.
    The Department chartered the National Committee for Employer 
Support of the Guard and Reserve (ESGR), an agency within the Office of 
the Assistant Secretary of Defense for Reserve Affairs, in 1972 to 
promote cooperation and understanding between Reserve component members 
and their civilian employers and to assist in the resolution of 
conflicts arising from an employee's military commitment. Today, ESGR 
operates through a network of more than 4,500 volunteers throughout 55 
committees located in each State, the District of Columbia, Guam, 
Puerto Rico, the Virgin Islands, and Europe. The Department tasks ESGR 
to ``. . . promote both public and private understanding of the 
National Guard and Reserve in order to gain U.S. employer and community 
support through programs and personnel policies and practices that 
shall encourage employee and citizen participation in National Guard 
and Reserve programs.''
    ESGR uses the military chain of command to promote better 
understanding of the importance of maintaining positive working 
relations between employers and their RC employees, in order to sustain 
NG and Reserve participation. ESGR also solicits the assistance of 
military agencies, military training schools, and military and civilian 
associations in educating the Reserve Forces about their rights and 
responsibilities regarding terms and conditions of civilian employment, 
as stipulated in the Uniformed Services Employment and Reemployment 
Rights Act (USERRA).
    Congress also provided clear protection for all members of the 
uniformed services (including noncareer NG and Reserve members, as well 
as active duty personnel) in October 1994, with passage of the USERRA 
chapter 43 of title 38, U.S. Code. The Department of Labor is the 
enforcement authority for USERRA, and it processes all formal 
complaints of violations of the law. The Act seeks to ensure that 
members of the uniformed Services are entitled to return to their 
civilian employment upon completion of their service. They should be 
reinstated with the seniority, status, and rate of pay they would have 
obtained had they remained continuously employed by their civilian 
employer. The law also protects individuals from discrimination in 
hiring, promotion, and retention on the basis of present and future 
membership in the armed services.
    There is a difference between the reservist who is self-employed 
and chooses to also pursue a military career in the Guard or Reserve, 
and the small business owner who employs a reservist who is called up 
for an extended period of time. About 15 percent of employed reservists 
are either small business owners, manage or work in a family owned 
business, or have their own professional practice. About 18 percent are 
employed by small businesses (firms with fewer than 100 employees). The 
Small Business Administration (SBA) advises small business owners, and 
small businesses with essential employees who are members of the 
Reserve or NG to have a plan in place to work through any potential 
disruption that may result from a broad call-up to active duty. The SBA 
Office of Veterans Business Development has created a new Web site 
where small business owners or small businesses with key employees who 
are members of the Reserve or NG can find relevant information. The Web 
site is part of a comprehensive plan to provide members of the NG and 
Reserve who own or are an essential employee of a small business with 
timely information on all SBA programs and services available to them 
if and when they are called to active duty.
    Through a vast array of programs and services, the U.S. SBA 
provides tools to assemble and enact a plan designed to prevent or 
reduce the potential disruption caused a business by the sudden absence 
of a key player. The SBA and its resource partners offer managerial, 
technical, and financial assistance, counseling, and training to assist 
small businesses with any conceivable business-related issue, from how 
to market their products and services, to financial assistance, to what 
to do if called to active duty.
    Additionally, the SBA has implemented the Military Reservist 
Economic Injury Disaster Loans (MREIDL) program. Small Businesses may 
qualify for MREIDL, the purpose of which is to provide funds to 
eligible small businesses to meet its ordinary and necessary operating 
expenses that it could have met, but are unable to meet, because an 
essential employee was ``called-up'' to active duty in their role as a 
military reservist. These loans are intended only to provide the amount 
of working capital needed by a small business to pay its necessary 
obligations as they mature until operations return to normal after the 
essential employee is released from active military duty. Interest 
rates are determined by formulas set by law and recalculated quarterly 
but the maximum interest rate for this program is 4 percent. Loan terms 
up to a maximum of 30 years are available, and SBA determines the term 
of each loan in accordance with the borrower's ability to repay. The 
actual amount of each loan is limited to the actual economic injury as 
calculated by SBA, not compensated by business interruption insurance 
or otherwise, and beyond the ability of the business and/or its owners 
to provide. If a business is a major source of employment, SBA has 
authority to waive the $1,500,000 statutory loan limit.
    Little data is available on the actual or specific employer costs 
associated with Reserve employees. To address this lack of information, 
the Department is conducting a study to determine if and when 
significant problems with employer support of the Guard and Reserve 
arise due to RC call-ups or other reasons. The Department is also 
collecting information about the costs that mobilizations impose on 
employers of RC personnel and to evaluate various approaches of 
offsetting those costs. Also, last July the Secretaries of Defense and 
Labor signed a Memorandum of Understanding that provides the framework 
for a broad range of continuing and new partnership efforts between the 
two departments to ease reentry into the civilian workforce and ensure 
military skills are translated into civilian employment.

                         military intelligence
    51. Senator Dole. Secretary Rumsfeld, in recent interviews, Dr. 
David Kay, the former head of the ISG, stated that the CIA became far 
too dependent on spy satellites and intercepted communications. This 
statement concerns me, especially as we move to ``transform'' the 
military aspects of the intelligence community. I was, however, 
encouraged to see the DOD's initiative to improve human intelligence 
collection mentioned as part of the budget request. Could you discuss 
in more detail how you plan on balancing technology-based intelligence 
data with the necessary elements of human intelligence and data 
analysis?
    Secretary Rumsfeld. Our efforts to balance technology-based 
intelligence data with human intelligence (HUMINT) reform began in 2003 
with a broad-based, 4-month study entitled ``Taking Stock of Defense 
Intelligence'' and a simultaneous initiative to reform HUMINT. Based on 
on-site research and discussion with every COCOM, Service, and Combat 
Support Agency, the ``Taking Stock'' study yielded a comprehensive 
account of intelligence issues and shortfalls, including the need for 
more and better HUMINT. Concurrently, as we strove to reform our HUMINT 
activities, we also uncovered numerous unaddressed problems in other 
areas: analysis, horizontal integration, dissemination, training, and 
professional development--to name a few. Thus, it became clear to us 
that broad-based changes are needed in the way we conduct defense 
intelligence activities. We are now engaged in a comprehensive 
remodeling effort for all of defense intelligence, which will address 
many, if not most of these problems, balance HUMINT and technical 
collection, provide robust support to the warfighter, and serve the 
greater needs of the DCI and the National Intelligence Community.

                          reserve mobilization
    52. Senator Dole. Secretary Rumsfeld, one of your proposals to 
manage demand placed on our military forces is rebalancing the forces 
to reduce the need for Reserve mobilization. Within the context of 
today's extended rotations, this appears to be a prudent measure; 
however, there may be a long-term implication to address. Having a 
military less reliant on Reserve mobilization places less of a 
requirement on the executive branch to seek congressional approval when 
deploying the United States Military. Could you elaborate on how you 
envision the end state of the military after restructuring the Active 
and Reserve Forces?
    Secretary Rumsfeld. Use of RCs is an integral part of the 
Department's total force policy in support of our Nation's challenges 
and interests, and will continue to be so as we meet the emerging 
challenges of the 21st century and the myriad of requirements 
associated with the global war on terrorism. Our focus is to have a 
force with the right amount of capabilities in the right place, able to 
use them at the right time. Access to the RC without reliance on 
mobilization, especially in the early phases of rapid response 
operations, is both prudent and necessary. In the end, our goal is to 
rebalance the RC to ensure reasonable and sustainable mobilization 
rates.

    53. Senator Dole. Secretary Rumsfeld, more specifically, will the 
transformed military still depend on mobilizing the Reserve Forces to 
execute significant military operations?
    Secretary Rumsfeld. The transformed military will still depend on 
mobilizing the Reserve Forces to execute significant military 
operations. The forces that will be most readily available in the early 
stages of a rapid response operation will be those in the AC. At the 
same time, unique capabilities resident within the RC can still be used 
through enhanced volunteerism without the need for early mobilization. 
The Reserves remain a critical part of our total force, and as such 
will always be essential to major combat operations.

    54. Senator Dole. Secretary Rumsfeld, partial mobilization, by law, 
authorizes the mobilization of Ready Reserve members, without their 
consent, for a period not to exceed 24 consecutive months. Yet a policy 
has been instituted within the Department that requires our Ready 
Reserve Forces, who have been previously mobilized (but still have not 
met the 24 month cap), to sign statements declaring that they volunteer 
to be mobilized for a second tour. In most cases, if the service member 
refuses to volunteer for a second tour, they will not be mobilized with 
the rest of their unit. In one specific case in my State, service 
members were reluctant to volunteer, not for lack of motivation or an 
unwillingness to deploy, but because they feared long-term 
consequences, both financially and socially. Service members are 
concerned that by volunteering (via a signed document retrievable 
through the Freedom of Information Act (FOIA)) for active duty they may 
give up protections afforded them under the Servicemembers Civil Relief 
Act. They fear employers will be less likely to hold their jobs because 
their return to active duty was voluntary. Additionally, some service 
members fear societal repercussions; their spouse, for example, may not 
share the service member's enthusiasm as they consider another year 
apart. In this situation the service members fear that a signed 
volunteer form, if made public, may come back to haunt them. Thus, the 
requirement for a signed volunteer statement has the unintended 
consequence of forcing mobilized units to find individual replacements 
for soldiers electing not to volunteer. I fear this policy may also 
contribute to more force turbulence in the long run.
    Can you explain why a policy has been instituted that seems 
contrary to the edicts of an executive order directing the partial 
mobilization of the Ready Reserve? Why does the Department feel this 
documentation is necessary?
    Secretary Rumsfeld. There is no Department-wide policy to that 
effect. The Department's policy is to encourage and maximize the use of 
volunteers to reduce the need for involuntary mobilizations. 
Volunteerism is a cornerstone of the current mobilization, and it has 
served the Nation well.
    It is important to note that whether service is voluntary or 
involuntary, the service member enjoys and retains the same rights, 
benefits, and protections under both the service members Civil Relief 
Act and the Uniformed Services Employment and Reemployment Rights Act.
    However, to best employ its total force, the Department of Army 
established a set of guidelines or priorities regarding how they select 
units and individuals for deployment, both active duty and Reserve 
component members. These involve readiness, time at home station, and 
length and number of times mobilized. One of these guidelines with 
respect to Guard and Reserve units and individuals is that they will 
only be mobilized for a second time as a last resort. However, if there 
are soldiers who wish to volunteer for a second mobilization, the Army 
has informally asked them to acknowledge that they are volunteering for 
a second mobilization to insure the guidelines are being followed.
    Though the intent of this practice is valid, it may, as you pointed 
out, be counterproductive. Accordingly, I have initiated a Department-
wide review of individual call up documentation to ensure that 
volunteerism is not hampered, that unintended consequences are not 
generated, and that we properly account for our service members. 

    55. Senator Dole. Secretary Rumsfeld, on a related issue, please 
provide me the actual numbers of Guard and Reserve members who have 
been mobilized since 1991, the number mobilized more than once, more 
than twice, and the number mobilized more than three times. Of those 
mobilized multiple times, how many signed volunteer statements?
    Secretary Rumsfeld. The best available data reflects the number of 
Reserve component (RC) members mobilized (fiscal year 1991 (1 October 
1990)--first quarter fiscal year 2004 (31 December 2003)):
    Total Mobilized from fiscal year 1991 (1 October 1990) first 
quarter fiscal year 2004 (31 December 2003): 575,057 (Desert Shield/
Desert Storm; Haiti; Bosnia; SouthWest Asia; Kosovo, Noble Eagle/
Enduring Freedom/lraqi Freedom)
    Mobilized once (for one contingency only): 517,942
    Total mobilized two times: 53,060
      (Mobilized two times--for current contingency only): (15,982)
      (Mobilized two times--for two contingencies only): (37,078)
    Mobilized three times (for three contingencies only): 3,520
    Mobilized more than three times (for more than three 
contingencies): 535
    Data includes all members who served in the Reserve components over 
this time period, including those who are no longer in the force.
    The total number of individuals who have served in the Selected 
Reserve during this time period is about 2,549,855.
    Most of the members mobilized were Selected Reserve members.
    About 45,000 of those mobilized were Individual Ready Reserve 
members.
    Some of the Army RC members mobilized did volunteer for 
mobilization under involuntary orders. Army information reveals that 
the policy of having volunteers sign forms, indicating that they are 
true volunteers, began in late 2003. 
    From January 1, 2004 through March 31, 2004, 1,883 Army RC members 
signed such forms. This is 6.9 percent of the total Army RC members 
mobilized (27,428) in the first quarter of 2004.
    It is important to note that a member's military obligation to 
serve in the Ready Reserve as part of the All-Volunteer Force is with 
the understanding that the member is liable for active duty in times of 
war or national emergency. Therefore, if these members did not 
volunteer for duty, others, or possibly even these members themselves, 
would have been called-up.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin
                              iraq and wmd
    56. Senator Levin. Secretary Rumsfeld, on September 26, 2002, you 
stated ``We know they have weapons of mass destruction. We know they 
have active programs. There isn't any debate about it.'' On January 7, 
2003, you said: ``There is no doubt in my mind but that they currently 
have chemical and biological weapon.'' What was the basis for your 
statements that you knew that Iraq possessed WMD, and that there 
``isn't any debate about it''?
    Secretary Rumsfeld. [Deleted.]

    57. Senator Levin. Secretary Rumsfeld, on March 11, 2003, you said 
that Saddam Hussein ``claims to have no chemical or biological weapons, 
yet we know he continues to hide biological and chemical weapons, 
moving them to different locations as often as every 12 to 24 hours, 
and placing them in residential neighborhoods.'' What was the basis for 
your statement that you knew that Iraq continued to hide biological and 
chemical weapons and move them every 12 to 24 hours?
    Secretary Rumsfeld. [Deleted.]

                     intelligence/al qaeda and iraq
    58. Senator Levin. Secretary Rumsfeld, in the summer of 2002, the 
staff of the Under Secretary of Defense for Policy, Doug Feith, 
presented a briefing to you on analysis of the intelligence concerning 
the links between Iraq and al Qaeda. That same briefing was later 
provided, reportedly at your suggestion, to the DCI, then to 
Intelligence Community staff, then to the National Security Council 
(NSC), and then to the Office of the Vice President. What was the 
purpose of this intelligence analysis product that was prepared outside 
of the Intelligence Community?
    Secretary Rumsfeld. There is no ``intelligence analysis product 
that was prepared outside the intelligence community'' as you state. A 
briefing was prepared, as you note, to point out information obtained 
from a CIA report published during the Clinton administration. The 
information in this CIA product led to information contained in several 
other CIA publications, and this data was immediately brought to the 
attention of the DIA, the Joint Staff J-2, and the Defense Intelligence 
Officer (DIO) for the Middle East in April 2002--the Intelligence 
Community, in other words. This information was subsequently briefed, 
as you noted, to the DCI, to Intelligence Community staff, and to the 
NSC--hardly the hallmark of preparing an intelligence product ``outside 
the Intelligence Community.''
    The purpose of the briefing was to help to clarify the various 
kinds of support and relationships that existed between terrorist 
groups and various state sponsors based on existing intelligence.

                            postwar planning
    59. Senator Levin. Secretary Rumsfeld, in the current edition of 
the Atlantic Monthly magazine, James Fallows has an article describing 
problems with the postwar planning effort for Iraq. One of his 
recurring points is that the Defense Department, specifically your 
office, told military personnel they could not participate in the 
various planning studies and exercises that were being conducted by the 
CIA, the State Department, the Army War College, and the U.S. Agency 
for International Development (USAID). Did you or your office ever tell 
any military personnel not to participate in any such planning effort 
and, if so, why?
    Secretary Rumsfeld. Mr. Fallows' article says Pentagon personnel 
``were forbidden by OSD to attend'' numerous interagency meetings, 
including a January 2003 National Intelligence Council exercise. This 
is not the case. As just one example, Dr. Joseph J. Collins, Deputy 
Assistant Secretary of Defense for Special Operations and Low-Intensity 
Conflict, certainly an important part of OSD, participated not only in 
this particular National Intelligence Council meeting, but from early 
fall of 2002 and through March 2003, also participated in countless 
interagency meetings and conferences, working hand in glove with our 
colleagues at the Department of State, USAID, the CIA, and the NSC, 
acting as the Pentagon's ``point man'' for postwar planning.

    60. Senator Levin. Secretary Rumsfeld, according to James Fallows' 
article in this month's Atlantic Monthly, you called retired General 
Jay Garner and told him to fire Tom Warrick, the head of the State 
Department's ``Future of Iraq'' study team, from General Garner's 
reconstruction planning staff. According to Fallows, your direction to 
fire Warrick came from higher authority, believed to be Vice President 
Cheney. Did you tell General Garner to fire Tom Warrick, and did Vice 
President Cheney have any involvement in this issue?
    Secretary Rumsfeld. This is not true. I did not direct Jay Garner 
on matters related to junior staff. As I did not call him, questions 
regarding the Vice President's ``direction'' in this matter are moot.

    61. Senator Levin. Secretary Rumsfeld, why did the administration 
not want Tom Warrick to serve on General Garner's staff, especially 
given that General Garner reportedly indicated that Tom Warrick was a 
highly valued member of his team?
    Secretary Rumsfeld. State Department officials, including Mr. 
Warrick, participated in daily interagency planning meetings on post-
Saddam Iraq from their beginning in the summer of 2002. When it came 
time to staff the Office of Reconstruction and Humanitarian Assistance 
(January 2003), State Department experts were a significant percentage 
of the interagency team assigned.

                      iraq and biological weapons
    62. Senator Levin. Secretary Rumsfeld, on September 19, 2002, you 
told this committee of the ``need to focus on the immediate threat from 
biological weapons. . . . Iraq has these weapons. They are much simpler 
to deliver than nuclear weapons and even more readily transferred to 
terrorist networks who could allow Iraq to deliver them without Iraq's 
fingerprints on the attack.''
    Dr. David Kay testified last Wednesday that the ISG had found no 
evidence that Iraq had any stockpiles of biological weapons before the 
war. What was the basis for your comment that Iraq's biological weapons 
posed an ``immediate threat''?
    Secretary Rumsfeld. The last NIE of the previous administration had 
this to say in December 2000:
    [Deleted.]
    In October 2002, the CIA stated that, ``there are compelling 
reasons to be concerned about BW activity at other sites and in mobile 
production units and laboratories. Baghdad has pursued a mobile BW 
research and production capability to better conceal its program.'' 
(Emphasis in original: (U) CIA, ``Iraq's Weapons of Mass Destruction 
Programs,'' p. 17.)
    The basis for my comment, then, was (a) intelligence from the 
experts at the UN, operating in Iraq from 1991 through 1998; (b) 
contemporary intelligence from the CIA; and (c) the intelligence 
presented during the previous administration.

    63. Senator Levin. Secretary Rumsfeld, on September 19, 2002, in 
testimony to this committee about Saddam Hussein's WMD programs, you 
said ``Many of his WMD capabilities are mobile and can be hidden to 
evade inspectors.''
    The administration has said that the two trailers found in Iraq 
were intended to produce biological warfare (BW) agents. Last week Dr. 
Kay told this committee ``I think the consensus opinion is that when 
you look at those two trailers . . . their actual intended use was not 
for the production of biological weapons.''
    Were you referring to mobile biological trailers in your testimony? 
If so, what is your current view on whether those trailers were 
intended to produce biological agents? If not, what were you referring 
to?
    Secretary Rumsfeld. The consensus opinion of the entire 
Intelligence Community in October 2002, was that there were compelling 
reasons to be concerned about BW activity in mobile production units 
and laboratories. ``Iraq has now established large-scale, redundant, 
and concealed BW agent production capabilities based on mobile BW 
facilities.'' (U) CIA, ``Iraq's Weapons of Mass Destruction Programs,'' 
p. 17.

    64. Senator Levin. General Pace, in the current edition of the 
Atlantic Monthly magazine, James Fallows wrote a long article about the 
problems with the planning for the postwar situation in Iraq. He 
described numerous studies and planning efforts conducted outside of 
the Defense Department and military, including by the CIA, USAID, State 
Department, Army War College, and others. His article says that the 
military and the Defense Department ignored these studies. Is that 
true? If so, why were they ignored?
    General Pace. DOD Deputy Assistant Secretary of Defense (DASD) 
Joseph J. Collins has already formally provided a rebuttal to that 
article. The rebuttal was printed in the April 2004 issue of the 
Atlantic (copy included). I concur with DASD Collins' assessment, that 
Mr. Fallows' article overemphasized bureaucratic conflict in the 
executive branch and distorted the nature of the contingency planning.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    All components of the executive branch involved in national 
security, Defense, State (to include USAID), the CIA, and the NSC, were 
involved in the contingency planning for postwar Iraq. The fact that 
different agencies did not completely agree during the planning process 
is well-known and requires no further explanation, but when the time 
came for national-level decisions in an NSC meeting, all points of view 
were vetted and resolved.
    Planning by interagency representatives occurred for OIF and its 
possible contingencies every single day. The level of coordination for 
the planning for Iraq was unprecedented. Our planners did not work in a 
vacuum; they participated in the ``Future of Iraq'' project; they went 
to the war colleges for seminars, and they interacted through the 
policy and academic communities at periodic events.
    Planners do not have a perfect crystal ball. Some of our 
assumptions were correct; some were incorrect. Regardless, we have 
adjusted for current circumstances, modified our path where required, 
and continued to move forward. Not surprisingly, there are disputes. In 
our open system of government, combined with a free media, these 
disputes sometimes play themselves out in our newspapers and magazines 
and television. But that does not mean we are blind about the realities 
of the situation in Iraq or lacking in energy and thought about 
crafting a way forward.
    The positive results are often overlooked. One of the most heinous 
dictators of the 20th century is permanently vanquished, and over 25 
million people liberated from his tyrannical regime of oppression and 
death. Over 80 percent of Saddam's senior leadership have been killed 
or captured, while rebuilding in Iraq proceeds at a pace unknown in 
other examples of postwar contingencies. Furthermore, Iraq was 
liberated while protecting most of its infrastructure and natural 
resources, providing key enablers to allow Iraq to rapidly return to 
the world's family of peaceful nations, and soon the family of 
democratic nations as well. The Iraqi Governing Council signed into 
being Iraq's first ever--in a society many millenniums old--interim 
constitution establishing the elements of a democratic government with 
guarantees of basic human rights--another first for the Middle East. 
This would never have happened under Saddam or his sons.

                            missile defense
    65. Senator Levin. Secretary Rumsfeld, the Department has announced 
plans to ``field'' a national missile defense in September, despite the 
fact that the system has not yet been operationally tested. Your budget 
request also asks for hundreds of millions of dollars to continue 
production of missiles for this system, which have yet to be 
realistically tested.
    DOD officials testified last year that the Department had no intent 
to waive operational testing for missile defense. For example, then-
Under Secretary of Defense for Acquisition Pete Aldridge testified 
that: ``the reason we have the [national missile defense] test bed. . . 
is to enable operational testing.'' However, in a recent article the 
Pentagon's chief tester, Tom Christie, said: ``I don't know when we're 
going to run operational tests, to be brutally frank. That's off in the 
future.''
    When do you plan to have the Pentagon's chief tester conduct formal 
operational testing for the National missile defense system, in 
accordance with the law, so that we will all know whether the system 
will actually work against a real threat?
    Secretary Rumsfeld. At Initial Defensive Operations (IDO) the BMDS 
will provide a modest operational capability to defend the Nation 
against a limited ballistic missile attack. The test bed will enable 
testing to improve system maturity and, through the next year, 
incorporation of operational testing objectives for developmental 
testing. These tests will incorporate increasing levels of operational 
realism using alert-configured hardware and software, operational 
tactics, techniques and procedures, threat-representative targets, and 
trained warfighters. They will facilitate assessment by the tri-Service 
Operational Test Agency team in support of the DOT&E's annual reporting 
requirements. Title 10 operational testing of the integrated system 
will be planned and executed as appropriate.

    66. Senator Levin. General Pace, General Myers' written testimony 
says that we will achieve ``full operational capability'' for missile 
defense this year. According to Defense Department documents, full 
operational capability means, ``the full attainment of the capability 
to employ effectively a weapon, item of equipment, or system.''
    Yet, according to a report recently sent to Congress by the 
Pentagon's chief tester, the national missile defense the Department 
intends to deploy in September of this year has not yet had end-to-end 
operational testing. This report also says that ``at this point in 
time, it is not clear what mission capability will be demonstrated 
prior to [deployment].'' Furthermore, Secretary Rumsfeld has said that 
the missile defense to be deployed this year will only be 
``rudimentary,'' and that any ``capability'' will be with a small 
``c.''
    How can you assert that missile defense will be ``fully 
operational'', when the Pentagon's chief tester says we have no idea 
how well the system will work, because we haven't realistically tested 
it yet?
    General Pace. The missile defense capability to be delivered this 
year is an initial capability intended to provide a rudimentary means 
to defend against a limited, long-range ballistic missile attack 
against the United States. The chairman and I are confident that we are 
on track to field and operate this capability.
    Admiral Ellis at U.S. Strategic Command (USSTRATCOM) is conducting 
a Military Utility Assessment (MUA) providing the COCOMs assessment of 
the missile defense operational capabilities and limitations. His 
initial increment of the assessment is based on data available in the 
September-December 2003 timeframe. The additional test events, 
exercises, and war games to be executed in 2004 will allow for a more 
in-depth assessment, and confidence in the assessed capabilities will 
grow as more system performance data is collected.
    The MUA and the assessment by the DOT&E are closely related. They 
share a common database of observations derived from testing and 
simulation at the system, element, component and subcomponent level. 
The warfighter and Operational Test Agencies are working 
collaboratively to develop test objectives, quantify system 
performance, and assess mission execution.
    Unlike a traditional operational test and evaluation, the MUA is 
not assessing performance against a fixed performance level; instead it 
is determining the extent to which a developmental system contributes 
to mission accomplishment. The missile defense system to be fielded 
this year will make us safer than we are now and serve as the 
foundation for increasingly effective capabilities in the future.

                              jsf program
    67. Senator Levin. Secretary Rumsfeld, the DOD press release on the 
budget states that the development cost for the JSF program has 
increased more than $7 billion from $33.0 billion to $40.5 billion in 
the last year, and that ``schedule delays on this very complex aircraft 
are prudent and necessary.'' Is this 22 percent cost growth in the JSF 
program a reflection of unrealistic cost estimates or poor program 
management?
    Secretary Rumsfeld. The Acting USD(AT&L) directed a restructuring 
of the program to improve the performance of the aircraft through 
additional design work. The focus is on reducing the weight of each 
variant, since weight control is always a challenge for aircraft, and 
is particularly critical for the short-takeoff-and-vertical-landing 
(STOVL) variant. This additional work and schedule extension contribute 
to the increased cost of the System Development and Demonstration (SDD) 
phase of the JSF program. Developing three JSF variants for the 
Services is an aggressive undertaking. I view these budget changes as 
cost and schedule realism, inherent in a program unmatched in scope, 
complexity, and importance, rather than as the product of unrealistic 
estimates or poor management.
    We are replanning JSF SDD to make sure that we succeed. 
Specifically, our SDD plan recognizes that: (1) STOVL performance is 
absolutely vital; (2) we must focus on STOVL performance upfront to 
ensure the viability of that variant for our warfighters; (3) we must 
aggressively pursue trade studies to improve performance by reducing 
weight; (4) we must aggressively pursue propulsion enhancements to 
improve performance; and (5) fiscal year 2007 is the right time to 
begin low-rate initial production. We also are reviewing the program, 
with the assistance of an independent team, to establish that we are 
doing all we can to succeed.
    I want to point out that the development of propulsion, subsystems, 
avionics, and autonomic logistics has gone well. The extensions in the 
schedule and increases in cost will allow us to improve the design of 
the airframe, but do not reflect difficulties in all aspects of 
development.

    68. Senator Levin. Secretary Rumsfeld, in your view, is a 1-year, 
22 percent cost growth in a major program like this acceptable?
    Secretary Rumsfeld. Cost growth in any program is a reason for 
concern and should be examined to identify its causes. The 22-percent 
cost increase spans fiscal year 2005 through fiscal year 2013. In the 
President's budget for 2005, the Department extended the design phase 
and reprogrammed procurement funds to account for the additional work. 
The increase in cost also reflects the development of anti-tamper 
capability, technical risks, and adjustments to the cost estimate to 
reflect those risks with a greater degree of confidence. The increase 
in cost, over the full course of development, is reasonable for a 
program of this magnitude and complexity.

                            nonproliferation
    69. Senator Levin. Secretary Rumsfeld, the President's budget 
request would reduce funding for the Nunn-Lugar Cooperative Threat 
Reduction (CTR) program by $40 million--from $449 million to $409 
million. At a time when we are all deeply concerned about the danger 
that WMD--and especially nuclear weapons--could end up in the wrong 
hands, why would we want to cut back on the one program that has proven 
most successful in preventing the proliferation of such weapons?
    Secretary Rumsfeld. The decrease you are questioning is largely due 
to the Chemical Weapons Destruction Facility having completed the 
capital-intense phase of construction. The question implies that the 
annual budget request is the single measure of progress and the single 
indicator of commitment. It is an important metric. But there are three 
others: actual threat reduction, value for US investments, and 
increasing recipients' stake in the success of specific projects. 
Measured against the aggregate of all four metrics, the CTR program 
continues to be a vital component of the U.S. Government's national 
security strategy. The President and his administration remain firmly 
committed to his 2002 pledge of $10 billion over 10 years for 
nonproliferation and threat reduction programs in the former Soviet 
Union, including--but not limited to--CTR. Yearly programmatic 
requirements mean that some annual requests, as for fiscal year 2005, 
will slightly below the $1 billion average; others will be slightly 
above.
    It is important to acknowledge that, of the 62 CTR program areas 
Congress has funded since the program's inception, 51 of those areas 
are now complete. This reflects the large amount of former Soviet 
nuclear weapons inventory and infrastructure that CTR has helped 
eliminate or secure. Many of CTR's original array of projects is 
reaching completion. These include projects that were capital-intense 
in their early construction phases. CTR's fiscal year 2005 program plan 
includes only two ``infrastructure-heavy'' projects: the Shchuch'ye 
chemical weapons destruction project already under way, and 
infrastructure supporting Nuclear Weapons Site Security enhancement 
projects. Newer areas of CTR focus--Biological Weapons Proliferation 
Prevention and Weapons of Mass Destruction-Proliferation Prevention 
Initiative--do not require capital-intense construction projects to 
achieve their threat reduction goals.

                     development of nuclear weapons
    70. Senator Levin. Secretary Rumsfeld, the President's budget 
request would increase the funding for new or modified nuclear weapons 
and include funds intended to cut in half the time needed to resume 
nuclear weapons testing. What is the military requirement for new 
nuclear weapons?
    Secretary Rumsfeld. Military requirements stem from a lack of 
capability to perform a mission. If existing nuclear weapons cannot 
perform a mission or meet only a portion of our deterrence objectives, 
we are obligated to pursue ways to correct these deficiencies in order 
to maintain the U.S. deterrent. Our current situation is that our 
forces are equipped with nuclear systems whose average age is 20 years 
and that were designed for a Cold War deterrence posture. We have 
requested a few programs to examine the potential to adapt existing 
weapons to give them improved capabilities. We also need to explore new 
technologies and processes that will keep our scientists and engineers 
at the forefront of nuclear weapon science.
    The main thrust of test readiness is aimed at reducing the amount 
of time we required in order to address a potentially serious problem 
in the stockpile using an underground nuclear test. We believe that 36 
months is too long; the U.S. needs a more responsive test readiness 
posture, which is reflected in the President's fiscal year 2005 
request.

    71. Senator Levin. Secretary Rumsfeld, what are the target types 
for these new nuclear weapons?
    Secretary Rumsfeld. First, there are no current programs to produce 
any new nuclear weapons. We made that point clear in the Nuclear 
Posture Review, which was submitted to Congress in December 2001. 
However, the Nuclear Posture Review did identify limitations in 
capabilities of the existing nuclear arsenal. We are examining both 
nuclear and non-nuclear options that could correct the existing 
limitations. For example, hard and deeply-buried targets, which are 
often associated with adversary weapons of mass destruction facilities, 
are one area where it would be very useful to improve our current 
capabilities. We are studying an option to repackage an existing weapon 
to do so.

    72. Senator Levin. Secretary Rumsfeld, are these new nuclear 
weapons intended to be used in a preemptive fashion?
    Secretary Rumsfeld. The United States is not developing any new 
nuclear weapons for any purpose. The President of the United States is 
the sole authority for employing nuclear weapons to protect U.S. 
territory, troops, allies, or friends against aggression. Today, the 
United States and our friends and allies are threatened by rogue states 
that possess weapons of mass destruction. As a matter of policy, no 
President forecloses options that can be used to deter and defeat 
aggression. It is my job to ensure the President has the flexibility 
and the options to address the variety of risks that our Nation may 
face today and in the foreseeable future.

    73. Senator Levin. Secretary Rumsfeld, will we have to resume 
nuclear weapons testing to support new and modified nuclear weapons?
    Secretary Rumsfeld. The administration is currently observing as 
matter of policy a test moratorium, although we continue to oppose 
ratification of the Comprehensive Test Ban Treaty (CTBT). Annually, the 
Secretary of Energy and I review an assessment of the safety and 
reliability of the stockpile. At this time, the Secretary of Energy and 
I have not recommended that the U.S. resume nuclear testing to resolve 
technical issues affecting the safety and reliability of the nuclear 
stockpile.

                      detainees at guantanamo bay
    74. Senator Levin. Secretary Rumsfeld, the President has determined 
that six detainees being held in Guantanamo are eligible to be tried by 
military commissions, though the actual decision whether to charge 
someone will be made by the Appointing Authority, Major General John D. 
Altenburg, Jr. My understanding is that no date has been set yet to 
start commission proceedings. In the meantime, five detainees have been 
assigned defense counsel, and these military attorneys have filed a 
friend-of-the-court brief to the U.S. Supreme Court. They argue that 
prisoners convicted by military commissions should have the right to 
appeal to civilian courts. This is an issue that I raised when we held 
a hearing in December 2001 on military commissions. In addition, my 
staff has been told that even if a detainee is tried and acquitted of 
all charges, the DOD may continue to detain that individual 
indefinitely. When will you begin military commission proceedings, and 
how long do you expect it to take for the government to either release 
or charge and try all 650 or so detainees?
    Secretary Rumsfeld. In February, Guantanamo detainees Ali Hamza 
Ahmed Sulayman al Bahlul of Yemen and Ibrahim Ahmed Mahmoud al Qosi of 
Sudan were charged with conspiracy to commit war crimes. Prior to being 
charged, these detainees were assigned military defense counsel. Their 
trial dates and commission panel members will be selected at a later 
time. In addition to the assignment of counsel to and the charging of 
al Bahlul and al Qosi, military defense counsel have been assigned to 
Salim Ahmed Hamdan of Yemen and David Hicks of Australia.
    As you point out, military defense counsel have filed a friend-of-
the-court brief to the U.S. Supreme Court. I have no doubt that 
military defense counsel will mount a vigorous defense for any 
individual they are assigned to represent and that the efforts of the 
prosecution will be no less vigorous. Those involved in the military 
commission proceedings must take the time to do things properly so that 
every accused receives a full and fair trial. It would be inappropriate 
and impossible for me to predict a date certain for a conclusion to all 
of the cases in which charges will be brought.
    Moreover, it is important to bear in mind that the war with al 
Qaeda is real and ongoing. Since the massive attacks of September 11, 
al Qaeda has continued to launch attacks as well as to attempt attacks. 
In December 2001, Richard Reid, who has been linked to al Qaeda 
attempted to bomb a transatlantic commercial flight. In April 2002, al 
Qaeda firebombed a synagogue in Djera, Tunisia. Last spring, al Qaeda 
suicide bombers attacked three residential compounds for foreign 
workers in Riyadh, Saudi Arabia, killing 34 people including 10 U.S. 
citizens. In August 2003, Jemaah Islamiyah, an al Qaeda affiliated 
group, set off a car bomb outside the J.W. Marriott Hotel in Jakarta, 
Indonesia, killing 12 and wounding 150. This past fall, the Taliban 
stepped up its insurgency in Afghanistan. U.S. troops and coalition 
forces remain on the ground in Afghanistan. Between August 2003 and 
January 2004, 11 U.S. soldiers have been killed in Afghanistan. Just 
recently, several Army Rangers were killed in an ambush in Afghanistan. 
It is clear that the war is far from over.
    Those detained at Guantanamo have been captured in a real war. They 
include not only rank and file soldiers who took up arms against the 
coalition in Afghanistan but also senior al Qaeda and Taliban 
operatives, some who have been linked to potential attacks against the 
United States, and others who continue to express their commitment to 
kill Americans if released.
    We detain them to prevent them from returning to the conflict--to 
prevent them from hijacking a plane and using it as a weapon of mass 
destruction, returning to the battlefields of Afghanistan, or rejoining 
the armed conflict against the United States elsewhere. We detain these 
individuals for the security of our citizens and our soldiers. When we 
believe that these individuals can be either transferred to the control 
of another government or released without impairing the security of our 
service men and women as well as our citizens we have done so. To date, 
146 detainees have been released or transferred from Guantanamo. We 
have done so despite the fact that the law of war does not require it. 
Moreover, we have done so through a multi-layered and interagency 
process that likewise is not required by the law of war.
    We are not limited to either charging or releasing these detainees. 
The law of war does not require the release of enemy combatants prior 
to the cessation of hostilities. It does not require it because to do 
so would be to undermine the very purpose of the law of war itself: 
minimizing the loss of life and damage inflicted by war. Releasing 
individuals who would return to the fight could only serve to inflict 
more damage on U.S. citizens and their sons and daughters who bravely 
serve this country. This reasoning would also lead to the unacceptable 
conclusion that the only means to remove the enemy from the battlefield 
is to kill him. Nor does the law of war require that we charge the 
detainees held at Guantanamo. Enemy combatants are held at Guantanamo 
not as punishment but to prevent them from continuing the fight.
    During the course of any war, the end of the war remains uncertain. 
It could have very easily been said during the middle of World War II 
or Vietnam that prisoners of war captured during those wars were going 
to be held indefinitely. No one could predict with certainty the end to 
either of those conflicts. Nor can we predict today with certainty the 
conclusion of al Qaeda's war against the United States.
    In a very real sense, the release of detainees not suspected of 
violations of the law of war lies in the hands of al Qaeda and its 
affiliates and supporters. Only al Qaeda and its affiliates and 
supporters can stop waging war against the United States. Until they 
stop, we will not rest and we will not increase their strength by 
permitting their fighters to return to the battlefield anywhere in the 
world. This war will not last forever. It is a war that I am confident 
we will win.

                   north korea's nuclear capabilities
    75. Senator Levin. Secretary Rumsfeld, North Korea has taken some 
alarming actions and made some alarming announcements over the last 2 
years. Last October, Pyongyang declared that they had reprocessed all 
8,000 plutonium fuel rods that had been canned and frozen for 7 years 
under the Agreed Framework--from 1994 to 2003. This came after North 
Korea had expelled the International Atomic Energy Agency (IAEA) 
inspectors, withdrawn from the Non-Proliferation Treaty (NPT), and 
stated that it had restarted its five-megawatt nuclear reactor. 
According to a new report, North Korea may already have as many as 
seven nuclear weapons. How solid is our intelligence regarding North 
Korea's nuclear capabilities and intentions, and specifically regarding 
the reprocessing of the spent plutonium?
    Secretary Rumsfeld. As you are aware, North Korea presents an 
extremely difficult intelligence target. Its extreme isolation and 
Stalinist society present daunting obstacles to fully understanding and 
ascertaining events within its borders. Nevertheless, we have 
concluded, as have North Korea's neighbors (China, Japan, South Korea 
and Russia), that North Korea does have an ongoing and active nuclear 
weapons program. We have all come to this conclusion independently, and 
are actively engaged in the Six Party Talks with North Korea aimed at 
ending this program and its threat to regional peace and stability.
    As reported in the press, a recent, non-official U.S. delegation to 
North Korea, containing former nuclear weapons experts, was allowed to 
tour North Korea's primary nuclear facility at Yongbyon. They were 
shown an empty area where the 8,000 spent fuel rods containing 
plutonium had been stored and material they adjudged to be reprocessed 
plutonium from this fuel. It is possible that North Korea has 
fabricated several nuclear weapons from this plutonium, but we cannot 
confirm this.  
    Dr. David Kay states unequivocally in his ``Interim Progress Report 
on the activities of the Iraq Survey Group (ISG)'' that there were 
prohibited weapons programs in Iraq and that Saddam was in violation of 
the U.N. Security Council resolutions regarding weapons of mass 
destruction. In addition, by expelling UNSCOM he clearly showed his 
contempt for the U.N. and international norms. It is also a fact that 
Saddam's regime sheltered and met with terrorists over the course of 
the 1990s and into the new century.
    As the President has said, he ``will not wait on events while 
dangers gather.'' The Saddam regime was dangerous, in clear violation 
of U.N. Security Council Resolutions regarding WMD, and was a state 
sponsor of terrorism. In light of these facts, there does not seem to 
be a need to reexamine the decisions that led to the liberation of the 
people of Iraq.

    76. Senator Levin. Secretary Rumsfeld, how willing is the rest of 
the world likely to rely upon this intelligence, in light of concerns 
that have been raised about the intelligence that we relied upon in 
Iraq?
    Secretary Rumsfeld. China, Japan, South Korea, and Russia, have all 
independently concluded that North Korea has an ongoing and active 
nuclear weapons program. In light of the number of disparate 
intelligence agencies that have all independently come to this 
conclusion, including three of the most powerful countries on Earth--
Russian, China, and Japan--I think it very likely the rest of the world 
will consider this intelligence to be reliable.

                          preemption doctrine
    77. Senator Levin. Secretary Rumsfeld, press reports have quoted 
David Kay as saying ``If you cannot rely on good, accurate intelligence 
that is credible to the American people and others abroad, you 
certainly can't have a policy of preemption.'' In light of the 
intelligence failures which clearly undercut the prime rationale for 
the war in Iraq, do you continue to espouse a doctrine of preemption 
for the future?
    Secretary Rumsfeld. America's future depends on our willingness to 
lead in the world. One of the important lessons from September 11 is 
that we must take threats seriously before they fully materialize. The 
United States has long maintained the option of preemptive actions to 
counter a sufficient threat to our national security. The greater the 
threat, the greater is the risk of inaction--and the more compelling 
the case for taking anticipatory action to defend ourselves, even if 
uncertainty remains as to the time and place of the enemy's attack. To 
forestall or prevent such hostile acts by our adversaries, the United 
States will, if necessary, act preemptively.
                                 ______
                                 
            Questions Submitted by Senator Edward M. Kennedy
                        office of special plans
    78. Senator Kennedy. Secretary Rumsfeld, it has been suggested that 
the Pentagon established the Office of Special Plans (OSP) to sift for 
yourself the information on Iraq. Many believe that by establishing OSP 
you were signaling your lack of confidence in the Intelligence 
Community and its assessment of the threat posed by Iraq. What was your 
goal in establishing OSP? Was it to develop intelligence to contradict 
that produced by the CIA, as some have suggested?
    Secretary Rumsfeld. The Directorate of Special Plans (often 
referred to as the OSP) was an expansion of that part of the Bureau of 
Near East and South Asian Affairs (NESA) that dealt with Iraq and Iran. 
It was renamed ``Special Plans'' because we did not want to undercut 
the President's diplomatic efforts in the United Nations and elsewhere 
with respect to Iraq by attracting attention to the fact that the part 
of NESA that dealt with Iraq was being expanded.
    This directorate was an expansion of the Northern Gulf Directorate 
within NESA in September 2002. It was established due to the increased 
workload related to the war on terrorism and to what was then a 
possible Iraq contingency. It was a policy planning group and was a 
consumer, rather than a producer, of intelligence. It helped develop 
policy with respect to subjects such as deployment planning, coalition 
building, media in a putative postwar Iraq, potential war crimes 
investigations, possible oil issues in a postwar Iraq, and 
implementation of the 1998 Iraq Liberation Act (Public Law 105-338, 
passed unanimously by the Senate).

    79. Senator Kennedy. Secretary Rumsfeld, did it, indeed, reflect a 
lack of confidence in the analysis you were receiving from the 
Intelligence Community? If so, what was your principal complaint with 
the community's analysis?
    Secretary Rumsfeld. As stated earlier, the organization that was 
then known as the Directorate of Special Plans (often referred to as 
the OSP) did not provide ``competitive analysis'' of intelligence.

    80. Senator Kennedy. Secretary Rumsfeld, did OSP ever go beyond 
analysis and collect any intelligence of its own, at any time?
    Secretary Rumsfeld. No. It was a policy planning group and was a 
consumer, rather than a producer, of intelligence.

    81. Senator Kennedy. Secretary Rumsfeld, did OSP ever task the 
Iraqi National Congress (INC) to collect intelligence? If so, how were 
tasking priorities established?
    Secretary Rumsfeld. No.

    82. Senator Kennedy. Secretary Rumsfeld, what was your assessment 
of the intelligence the INC collected?
    Secretary Rumsfeld. Any assessment of the intelligence the INC 
collected was provided to me by the professionals of the Intelligence 
Community, having been processed in accordance with long-established 
vetting procedures used throughout the Intelligence Community.

    83. Senator Kennedy. Secretary Rumsfeld, was this intelligence 
subsequently vetted for accuracy?
    Secretary Rumsfeld. The professionals of the DIA treated the data 
obtained in exactly the same way it treated any other intelligence 
source information, processing it in accordance with long-established 
vetting procedures used throughout the Intelligence Community.

    84. Senator Kennedy. Secretary Rumsfeld, how accurate was it 
determined to be at the time? How accurate is it now determined to be?
    Secretary Rumsfeld. The professionals of the DIA treated the data 
obtained in exactly the same way it treated any other intelligence 
source information, processing it in accordance with long-established 
vetting procedures used throughout the Intelligence Community.
    There are many examples of excellent information provided by the 
INC Information Collection Program. Here are a few categories:
    [Deleted.]

    85. Senator Kennedy. Secretary Rumsfeld, was this information sent 
directly to the White House, circumventing regular Intelligence 
Community channels?
    Secretary Rumsfeld. No.

    86. Senator Kennedy. Secretary Rumsfeld, was it used in White House 
speeches and statements?
    Secretary Rumsfeld. You'll have to ask the White House how speeches 
and statements were researched.

                          questionable sources
    87. Senator Kennedy. Secretary Rumsfeld, according to critics like 
Ken Pollack, a former analyst and supporter of the war in Iraq, OSP 
chose to believe reports that trained intelligence officers considered 
unreliable or downright false. Pollack further states that OSP gave 
great credence to reports from INC and its administration-backed 
leader, Ahmed Chalabi, because the INC was telling the administration 
what it wanted to hear. Do you agree with that assessment? As a long-
time and practiced intelligence consumer, isn't one of the cardinal 
rules of the business to abstain from wishful thinking?
    Secretary Rumsfeld. I do not agree with that assessment. The DIA 
considered the INC's Information Collection Program a reliable source 
of intelligence. That intelligence went through the normal Intelligence 
Community review. Another cardinal rule of intelligence is to never 
rely on a single source of analysis.

    88. Senator Kennedy. Secretary Rumsfeld, did OSP pass raw 
intelligence to the White House, and, specifically to the Vice 
President's office, or did OSP pass only finished all-source evaluated 
intelligence that contained an assessment of the reliability of the 
sources upon which it was based?
    Secretary Rumsfeld. No, to neither. OSP was a consumer, not a 
provider of intelligence.

    89. Senator Kennedy. Secretary Rumsfeld, did DCI George Tenet, who 
oversees the Intelligence Community, ever express concern to you, or 
that you became aware of, regarding OSP's role? If so, what were his 
concerns?
    Secretary Rumsfeld. No.

    90. Senator Kennedy. Secretary Rumsfeld, why did you close OSP last 
summer?
    Secretary Rumsfeld. The office is not closed. It has simply 
returned to its original name.
    The Directorate of Special Plans (often referred to as the OSP) was 
an expansion of that part of the NESA that dealt with Iraq and Iran. It 
was called ``Special Plans'' because we did not want to undercut the 
President's diplomatic efforts in the United Nations and elsewhere with 
respect to Iraq by attracting attention to the fact that the part of 
NESA that dealt with Iraq was being expanded.
    This Directorate was an expansion of the Northern Gulf Directorate 
within NESA in September 2002. It was established due to the increased 
workload related to the war on terrorism and to what was then a 
possible Iraq contingency. Once the administration decided to proceed 
with the liberation of Iraq, it was decided to change the designation 
of this Directorate back to its previous name of the NESA Northern Gulf 
Affairs Directorate.

    91. Senator Kennedy. Secretary Rumsfeld, you're a great fan of 
lessons learned exercises. Given the OSP's controversial role, have you 
asked that the OSP concept be the subject of a lessons learned 
exercise? If so, what have you learned? If not, why not?
    Secretary Rumsfeld. I do not consider controversy (or the lack 
thereof) as an indicator of the effectiveness of an office. Such 
controversies seldom have anything to do with the facts involved in a 
matter and are not a sufficient reason for in-depth reexamination of 
every decision.

                        iraqi national congress
    92. Senator Kennedy. Secretary Rumsfeld, did the Pentagon oversee 
the INC's own intelligence collection program?
    Secretary Rumsfeld. [Deleted.]

    93. Senator Kennedy. Secretary Rumsfeld, did the U.S. fund INC's 
collection effort?
    Secretary Rumsfeld. [Deleted.]

    94. Senator Kennedy. Secretary Rumsfeld, what did the Pentagon's 
oversight consist of, and what was the purpose of the INC's collection 
program?
    Secretary Rumsfeld. [Deleted.]

    95. Senator Kennedy. Secretary Rumsfeld, how many Iraqi defectors 
did the INC produce?
    Secretary Rumsfeld. [Deleted.]

    96. Senator Kennedy. Secretary Rumsfeld, who at the Pentagon was in 
charge of the defectors program and responsible for vetting each 
defector for reliability?
    Secretary Rumsfeld. [Deleted.]

    97. Senator Kennedy. Secretary Rumsfeld, how many INC-produced 
defectors did you judge to be reliable?
    Secretary Rumsfeld. The DIA Defense HUMINT Service made those 
judgments--as they do with all foreign intelligence programs.

    98. Senator Kennedy. Secretary Rumsfeld, how was reliability 
determined? For example, did you polygraph them? If so, how many of 
those polygraphed showed deception?
    Secretary Rumsfeld. The reliability of any intelligence data 
presented to me or to other policy makers is determined by the 
professionals of Intelligence Community. The DIA treated the data 
obtained from the INC Information Collection Program in exactly the 
same way it treated any other intelligence source information, 
processing it in accordance with long-established vetting procedures 
used throughout the Intelligence Community.

    99. Senator Kennedy. Secretary Rumsfeld, did the Intelligence 
Community share your views on INC defector reliability? If not, why 
not?
    Secretary Rumsfeld. Assessing defector reliability is something 
which the Intelligence Community has decades of extensive experience. 
The reliability of any intelligence data, of the reliability of what a 
putative defector's information might be, is presented to me after 
having been determined by the professionals of the Intelligence 
Community. The DIA treated the data obtained from the INC Information 
Collection Program in exactly the same way it treated any other 
intelligence source information, processing it in accordance with long-
established vetting procedures used throughout the Intelligence 
Community.
    [Deleted.]

    100. Senator Kennedy. Secretary Rumsfeld, given the apparent 
inaccuracy of much of the information the INC-produced defectors 
provided, have you initiated a lessons learned exercise to determine 
how this inaccurate intelligence was not detected and how, in some 
cases, it found its way to policymakers?
    Secretary Rumsfeld. Your premise that ``much of the information the 
INC-produced defectors provided'' is inaccurate, is itself not correct. 
[Deleted.]
    There are many other examples of good information that the INC 
Information Collection Program has provided. Here are a few categories:
    [Deleted.]
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                           service readiness
    101. Senator Akaka. General Pace, the Army is planning to go to a 
unit manning system, which will result in a cycle of very ready units 
for a period of time and will then ``stand down'' for a period of time 
before reconstituting themselves with new personnel. The Navy has begun 
to implement the Fleet Response Plan (FRP) that attempts to raise the 
average level of readiness over time, but will minimize the readiness 
``peaks and valleys'' of the previous inter deployment training cycle. 
It seems that the Navy is moving to a system that will produce Army-
like readiness cycles at the same time that the Army is moving to a 
readiness cycle that is more like the Navy's. Also, these proposals 
seem to be ``bottom up'' and have come from Service initiatives 
designed for various purposes. Has the Joint Staff looked at the impact 
of these changes and whether it is sound to have the Services heading 
in opposite directions on this issue?
    General Pace. Although seemingly divergent, both Services are 
actually converging on concepts to transform from Cold War paradigms to 
more continental U.S. (CONUS)-based, highly mobile and rapidly 
deloyable constructs. This would support anticipated continued high 
tempo of operations (OPTEMPO), while increasing overall force readiness 
and reducing unit stress. Already a core capability of the Marine 
Corps, the Air Force's Air Expeditionary Force concept supports this as 
well.
    Navy forces currently deploy under the Global Naval Force Presence 
(GNFPP), which is a Secretary of Defense-approved rotational schedule. 
The Navy's FRP would provided sustained rotational forward deployed 
forces ``on demand,'' while affording a significant surge response for 
contingencies (six Carrier Strike Groups within 30 days, plus two 
additional as follow-on forces). This would enable the Navy to maintain 
more forces at a higher level of readiness.
    The Army has traditionally worked from a ``steady-state'' concept 
where it deployed forces when needed for emerging crises/missions, 
while maintaining a large forward-based presence. The Army concept, 
still very early in development, would use scheduled unit rotations 
into and out of forward-based locations, so it would be similar to 
GNFPP in that regard. The intent of the Army's concept would be to 
provide a predictable deployment schedule, preserve a ready surge-
capability for contingencies, and reduce the overall footprint of 
permanently forward-based forces.

    102. Senator Akaka. General Pace, what will the impact be on the 
Services' ability to provide ready units to combatant commanders?
    General Pace. Both initiatives are being developed in close 
coordination with the Joint Staff and Joint Forces Command (JFCOM) with 
readiness, sustainment, Global Force Management, and, most importantly, 
warfighting effectiveness issues in the forefront.

    103. Senator Akaka. General Pace, your statement says, ``When units 
return home from combat operations, they must undergo a reconstitution 
process, which generally means a drop in their readiness. However, this 
does not necessarily indicate that a unit is either unavailable for, or 
incapable of, executing part or all of their assigned wartime 
missions.'' My understanding of the term ``readiness'' is that it is 
generally used as shorthand for ``readiness to execute wartime 
missions.'' Are you using the term in some other way? If not, how does 
a drop in readiness not equate to a reduced ability to execute assigned 
missions, either in whole or in part?
    General Pace. A reduction in readiness does mean a unit has a 
reduced ability to execute its wartime mission, as was stated. But that 
does not mean the unit is necessarily unavailable for tasking, or that 
a unit is not capable of executing all or portions of its wartime 
mission. A unit could be tasked to execute only the portions of its 
wartime mission for which it is ready. Or it could be augmented with 
equipment and/or manning, termed ``cross-leveling,'' to quickly 
increase its readiness status for deployment/employment. Or a unit 
could simply be tasked to execute its wartime mission at a reduced 
readiness level, but with a commensurate higher risk to mission 
accomplishment.

    104. Senator Akaka. General Pace, if drops in readiness do not 
necessarily mean that units can't perform their missions, what system 
are you using to evaluate what their true capabilities are?
    General Pace. Chairman, Joint Chiefs of Staff Instruction (CJCSI) 
3401.02, Global Status of Resources and Training System (GSORTS), 
governs the readiness system used by DOD. GSORTS provides a monthly 
assessment of selected unit status indicators (personnel, equipment/
supplies, equipment condition, training) and includes a commander's 
subjective assessment on the unit's ability to execute the mission(s) 
for which it was organized or designed.
    Unit readiness status is reported as C-1 through C-5:

        C-1--Unit possesses required resources and is trained to 
        undertake its wartime mission(s).
        C-2--Unit can undertake portions of its wartime mission(s), but 
        may have reduced flexibility and could require some 
        compensation for deficiencies.
        C-3--Unit can undertake many, but not all, portions of its 
        wartime mission(s), with significantly reduced flexibility and 
        required compensation.
        C-4--Unit requires additional resources/training to undertake 
        its wartime mission(s), but may be directed to undertake 
        portions of its wartime mission(s).
        C-5--Unit is undergoing Service-directed resource action and is 
        prepared to undertake wartime mission(s).

                   improving overseas training ranges
    105. Senator Akaka. Secretary Rumsfeld, I know that the budget 
request assumes that most of the changes in overseas presence will 
occur in concert with BRAC, and, therefore, that most of the associated 
funding will not be required until fiscal year 2006. However, it 
appears that a decision has been made to make greater use of overseas 
training ranges, and I understand that many of these ranges are fairly 
primitive and undeveloped. How much do you anticipate will be required 
to expand and improve overseas ranges to support the new presence 
policy?
    Secretary Rumsfeld. There have been no decisions yet on any aspect 
of the proposed global posture changes, so it is premature to speculate 
where we may use overseas training ranges in the future. We will indeed 
seek the use of overseas ranges where such use provides us unique 
training opportunities, supports our security cooperation priorities, 
and helps with the transformation process of our allies and partners. 
However, we are still analyzing the advantages and cost implications of 
combatant commander proposals and therefore cannot speculate on exact 
requirements for such ranges.

    106. Senator Akaka. Secretary Rumsfeld, are any funds for this 
purpose included in the fiscal year 2005 budget request, and, if not, 
when do you expect they will be required?
    Secretary Rumsfeld. Any fiscal year 2005 budget proposals related 
to overseas training ranges are connected to ongoing service 
initiatives, and separate from the broader Global Posture Review. An 
example is the Army's Efficient Basing Graffenwoer initiative. Because 
we are still conducting our posture review, we cannot speculate on when 
any new funding requests related to future use of overseas training 
ranges will be forthcoming.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor
        tax-free treatment of military personnel in combat zones
    107. Senator Pryor. Secretary Rumsfeld, I would like to again 
commend you for addressing family housing in the DOD's fiscal year 2005 
budget. This is an issue which I believe is close to the hearts of our 
military personnel. I want to work with you to ensure that our military 
is fairly compensated. I understand that under the tax code, military 
pay is given tax-free treatment while the soldier, sailor, airman, or 
marine is serving our Nation in a combat zone. Congress provided this 
tax-free treatment because of the sacrifice these men and women are 
making to their country. However, the exclusion of combat pay has 
penalized some military personnel with families by limiting the 
benefits of the earned income and child tax credits. In some cases, our 
military personnel with families lose as much as $4,000 in these tax 
credits because they are serving our Nation. Do you see this as a 
problem, and is this something that should be addressed this year?
    Secretary Rumsfeld. Yes, the DOD agrees that this is a problem. In 
the summer of 2003, my staff began working with representatives from 
the Treasury Department and the Internal Revenue Service on a solution 
that will prevent service in a combat zone from interfering with a 
service member's eligibility for tax credits. The solution requires 
legislation. The DOD would like to see this issue addressed this year 
and is working with the Treasury Department to alleviate this 
unintended tax consequence to the Service members serving in combat 
zones.

                              halliburton
    108. Senator Pryor. Secretary Rumsfeld, I have heard from many 
constituents concerned about defense contracts to Halliburton. Three 
recent news stories indicate that Halliburton over-billed $28 million 
for food services at five different food service facilities, that 
Halliburton overbilled for gasoline, and that Halliburton overbilled 
$6.3 million for unspecific services. Which, if any, of these contracts 
were competitively bid?
    Secretary Rumsfeld. Two prime contracts are represented here. The 
first contract is known as the Logistics Civil Augmentation Program 
(LOGCAP III) contract. It covers the referenced ``food services'' and 
``unspecific services.'' This contract was awarded on the basis of 
competitive procedures. The second contract is a sole source contract 
for fuel. It covers the referenced ``gasoline.'' This contract has 
since been replaced with contracts awarded using competitive 
procedures. The $6.3 million represents a voluntary disclosure and 
refund from a subsidiary of Halliburton: Kellogg, Brown, and Root on 
the original fuel contract. This apparent overbilling and the others 
are presently being investigated.

    109. Senator Pryor. Secretary Rumsfeld, how many noncompetitive DOD 
contracts have been awarded to Halliburton in the last 3 years?
    Secretary Rumsfeld. In the last 3 years, DOD awarded Halliburton 80 
contract actions on a noncompetitive basis and 1,732 contract actions 
on the basis of competitive procedures.

    110. Senator Pryor. Secretary Rumsfeld, what penalty does 
Halliburton face for overbilling the DOD?
    Secretary Rumsfeld. When an overbilling is identified, the 
government auditor immediately notifies the contractor, the 
government's disbursing officer, and the government's contracting 
officer. The overbilled amount is deducted from subsequent contract 
payments. Other possible remedies (criminal, civil, contractual, or 
other) for overbilling will depend upon the reasons for the 
overbilling, as determined by various investigations.

               business management modernization program
    111. Senator Pryor. Secretary Rumsfeld, you have proposed in your 
budget an effort to implement the Business Management Modernization 
Program (BMMP). I understand that the program would overhaul the DOD 
management processes, consolidate and integrate information systems, 
and facilitate auditable financial statements. Will BMMP help to 
prevent the billing problems we have seen with Halliburton in the 
future?
    Secretary Rumsfeld. The BMMP is transforming business processes to 
implement common processes, data, and controls. BMMP will improve the 
business of the Department as a whole.

    112. Senator Pryor. Secretary Rumsfeld, do we have to wait for the 
passage of the fiscal year 2005 bills to implement the BMMP?
    Secretary Rumsfeld. The answer to your question is no. We don't 
have to wait for the fiscal year 2005 bill to implement BMMP.

                 iraqi wmd/recommendation to go to war
    113. Senator Pryor. Secretary Rumsfeld, Secretary of State Colin 
Powell stated in an interview with The Washington Post that he might 
have made a different recommendation on war with Iraq, if he had known 
that Iraq had no prohibited weapons. If you knew Iraq had no, or 
little, WMD, would you still have recommended military action? If yes, 
please articulate the threat. If no, please elaborate.
    Secretary Rumsfeld. Dr. David Kay states unequivocally in his 
``Interim Progress Report on the activities of the Iraq Survey Group 
(ISG)'' that there were prohibited weapons programs in Iraq and that 
Saddam was in violation of the U.N. Security Council resolutions 
regarding weapons of mass destruction. In addition, by expelling UNSCOM 
he clearly showed his contempt for the U.N. and international norms. It 
is also a fact that Saddam's regime sheltered and met with terrorists 
over the course of the 1990s and into the new century.
    As the President has said, he ``will not wait on events while 
dangers gather.'' The Saddam regime was dangerous, in clear violation 
of U.N. Security Council Resolutions regarding WMD, and was a state 
sponsor of terrorism. In light of these facts, there does not seem to 
be a need to reexamine the decisions that led to the liberation of the 
people of Iraq.

    [Whereupon, at 12:40 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

                              ----------                              


                       TUESDAY, FEBRUARY 10, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                             SERVICE CHIEFS

    The committee met, pursuant to notice, at 9:31 a.m. in room 
SR-325, Russell Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Allard, 
Sessions, Collins, Talent, Chambliss, Dole, Levin, Kennedy, 
Lieberman, Reed, Akaka, Bill Nelson, E. Benjamin Nelson, 
Clinton, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; L. David Cherington, counsel; Regina 
A. Dubey, research assistant; Brian R. Green, professional 
staff member; William C. Greenwalt, professional staff member; 
Ambrose R. Hock, professional staff member; Gregory T. Kiley, 
professional staff member; Thomas L. MacKenzie, professional 
staff member; Elaine A. McCusker, professional staff member; 
Lucian L. Niemeyer, professional staff member; Lynn F. Rusten, 
professional staff member; Joseph T. Sixeas, professional staff 
member; Scott W. Stucky, general counsel; Diana G. Tabler, 
professional staff member; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Madelyn R. Creedon, minority counsel; Richard W. 
Fieldhouse, professional staff member; Creighton Greene, 
professional staff member; Maren R. Leed, professional staff 
member; Gerald J. Leeling, minority counsel; and William G.P. 
Monahan, minority counsel.
    Staff assistants present: Sara R. Mareno, Nicholas W. West, 
and Pendred K. Wilson.
    Committee members' assistants present: Cord Sterling, 
assistant to Senator Warner; Christopher J. Paul and Dan 
Twining, assistants to Senator McCain; Jayson Roehl, assistant 
to Senator Allard; Arch Galloway II, assistant to Senator 
Sessions; Derek J. Maurer, assistant to Senator Collins; 
Lindsey R. Neas, assistant to Senator Talent; Clyde A. Taylor 
IV, assistant to Senator Chambliss; Meredith Moseley, assistant 
to Senator Graham; Christine O. Hill, assistant to Senator 
Dole; Mieke Y. Eoyang and Jarret A. Wright, assistants to 
Senator Kennedy; Terrence E. Sauvain, assistant to Senator 
Byrd; Frederick M. Downey, assistant to Senator Lieberman; 
Elizabeth King, assistant to Senator Reed; William K. Sutey, 
assistant to Senator Bill Nelson; Eric Pierce, assistant to 
Senator Ben Nelson; Andrew Shapiro, assistant to Senator 
Clinton; and Terri Glaze, assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, everyone.
    We start today's hearing by first welcoming back one of the 
members who has been absent without leave (AWOL), the 
distinguished Senator from Connecticut. If you would like to 
take a moment to explain your absence, we would be glad to have 
your views.
    Senator Lieberman. Well, Mr. Chairman, thanks for welcoming 
me back. It was quite a journey. I feel as if I was actively 
deployed and now I am returning to my home base. I appreciate 
very much the opportunity to return.
    I do want to say very briefly that along the way in this 
journey I met a number of families who have service members on 
active duty in Iraq, and I met some of the service members 
themselves who had returned. The level of pride and morale is 
extremely high. Cutting through all the natural debate that 
goes on about the war, it was very reassuring.
    If you will allow me, I carry this around with me because 
we lost Anthony De Agostino from Waterbury, Connecticut, and I 
was in touch with his folks and they sent me a mass card after 
the funeral. The father sent me this note: ``Dear Senator 
Lieberman: Please continue to support all our men and women in 
uniform. Please keep America the true leader of peace in the 
world. Tony was our only son, our only legacy. Although this 
was a great loss to our family, we wish you godspeed in making 
the world a safer place.''
    I had the honor to go on my own journey across America, but 
these are the real heroes. I wanted to say this in front of you 
and the Service Chiefs, with great honor and admiration. I 
return to work with you and Senator Levin with a sense of 
purpose to work on the critically important work of this 
committee, to make sure that we complete the mission we started 
with success, and to return our service men and women home as 
soon as possible in peace, and in what I would describe as 
victory.
    I thank you for your welcome. I promise not to give 
extended remarks any other time you call on me.
    Chairman Warner. No, that is all right. We are very 
appreciative of your sentiments. I recall vividly when you 
first joined this committee and you were one of the principal 
co-sponsors of the resolution in 1991 to authorize the use of 
force against Iraq. You were a member of the four of us who 
were co-sponsors in the recent resolution. You have always been 
a very strong voice on behalf of the men and women of the Armed 
Forces, and I appreciate your sentiments that we should 
complete this mission with a measure of unquestioned success.
    Your statement is so powerful that I am thinking about 
waiving mine, but I think I will go ahead.
    We meet today to receive the annual testimony of the 
Service Chiefs on the posture of each of our military services 
and on their respective portions of President Bush's defense 
budget request for fiscal year 2005 and the Future Years 
Defense Program (FYDP). We have a great team before us today, 
military men of great distinction and humility, men who have 
served this Nation well during previous conflicts, in most 
instances combat conflicts. Equally important, if not of 
greater importance, today in this global war on terrorism you 
bring to bear that vast experience that each of you have.
    Thank you for what you do every day for our men and women 
in uniform and their families. It has been a challenging year 
for our military. You have provided the leadership they need to 
successfully accomplish their mission and to understand just 
how important their service is to the security of the United 
States and indeed to the whole free world.
    I start by recognizing the extraordinary professionalism 
and courage of the men and women of our Armed Forces. In this 
past year, together with a coalition of nations, they freed 
Iraq from the tyrannical rule of Saddam Hussein. They are 
valiantly fighting today in Afghanistan and other far-flung 
points on the globe.
    In Iraq they did this mission quickly, with precision, and 
with casualties well below the estimates. This is proof of the 
training, equipment, readiness, and inspiration that you 
individually and collectively have provided your forces. Their 
sacrifices and the sacrifices of their families are deeply 
appreciated by every citizen in this Nation, most particularly 
the sacrifices of those families who lost their loved ones, and 
those families who welcomed home those who bear the wounds of 
war. I ask you to communicate one message to the uniformed 
service members and their families that you represent: America 
is proud of you.
    We need not let the critics of the moment diminish the 
importance of what our military has accomplished. In my 
opinion, there is no doubt that a very dangerous threat has 
been removed. The United States and indeed the world is a safer 
place because of the efforts of our military and coalition 
partners in Iraq.
    The Nation will continue, as it should, the debate over 
whether or not Saddam Hussein had large stockpiles of weapons 
of mass destruction (WMD), and the debate on other issues 
relative to the WMD program. However, not all the facts are in 
on the specific issue of stockpiles and on the other issues. We 
cannot reach final judgments and conclusions. We have upwards 
of 1,300 men and women in uniform together with many other 
civilians still as a part of the Iraq Survey Group (ISG) who 
are continuing that mission.
    What we do know at this point is as follows: We know that 
Saddam Hussein was indeed a threat. He has used WMD on his 
neighbors and on his own people, and he was maintaining his 
capability to quickly produce these weapons. Clearly he had 
breakout capability on a range of weapons, some of mass 
destruction.
    We know that Dr. Kay testified that Saddam Hussein had 
restarted Iraq's nuclear weapons program. Although there are no 
estimates, it was a matter of time until he acquired some 
measure of capability with those awesome, ultimate weapons of 
mass destruction.
    We know that Iraq was continuing research and development 
(R&D) on chemical and biological weapons, and had an active 
program to use the deadly chemical ricin as a weapon. We know 
that Iraq was developing and producing ballistic missiles that 
clearly violated United Nations (U.N.) Security Council 
mandates that were imposed following the first Gulf War.
    As Dr. Kay told this committee 2 weeks ago, and I quote 
him: ``It was reasonable to conclude that Iraq posed an 
imminent threat. What we learned during the inspection made 
Iraq a more dangerous place potentially than in fact we thought 
it was even before the war.'' Our military men and women in 
uniform under your leadership, have removed this threat.
    There have been allegations that the President and his 
senior advisers manipulated and exaggerated the prewar 
intelligence on Iraq. I personally have seen no clear and 
convincing evidence of this. In fact, many of the basic 
conclusions reached by President Bush, Vice President Cheney, 
and others, are entirely consistent with the basic conclusions 
of officials in the previous administration. I have with me 
today a whole series of those quotes.
    An examination of United States intelligence, intelligence 
of other nations, and reports in the U.N., combined with Iraq's 
past history, led 77 members of this body, the United States 
Senate, to basically reach the same conclusions that two 
administrations' senior officials had reached: Saddam Hussein 
represented a great threat that had to be confronted with 
military force.
    Diplomatic efforts were tried repeatedly and failed. The 
last of 18 U.N. Security Council Resolutions, 1441, passed 
unanimously by 15 members of the Security Council on November 
8, 2002, found Iraq to be ``in material breach of its 
obligations'' that the U.N. Security Council had set down. The 
council then specifically said ``the final opportunity to 
comply with its disarmament obligations is before Iraq'' and 
warned of serious consequences if Saddam Hussein failed to 
comply. He did not comply.
    Before us today are the leaders of our four military 
Services, three of whom were at their current positions at the 
start of Operation Iraqi Freedom (OIF). Now, the Goldwater-
Nichols Act, which I brought with me today, fundamentally 
reshaped the duties and responsibilities of the Chiefs and then 
the body of the Joint Chiefs, including special provisions to 
ensure that any dissenting opinions from the members of the 
Joint Chiefs of Staff could reach the President. I direct you 
to section 151, title 10, subsection D, ``Advice and Opinions 
of Members Other than Chairman.''
    I think it is appropriate, since this is your first 
appearance as a group before this committee since the 
commencement of hostilities, that each of you in your opening 
statements, with your exception, General Schoomaker, 
specifically advise this committee. There is a presumption 
raised by Goldwater-Nichols that you had the opportunity to 
approach the President and indeed the Chairman of the Joint 
Chiefs and others if you had any doubts concerning the 
advisability of the use of force at the time it was used 
against Iraq, and this is that opportunity today.
    I think it is very important for America to understand how 
their professional military leaders felt about the decision to 
go to war before the use of force, and also how they feel today 
in light of revelations about certain portions of our 
intelligence. This is that opportunity.
    Operations continue in Iraq, Afghanistan, and elsewhere in 
the global war on terrorism. The circumstances of our times 
demand, however, that we not rest on the laurels of our recent 
successes. We must prepare now for the future, a future fraught 
with new challenges and new dangers.
    The President's budget request anticipates this uncertain 
future. The fiscal year 2005 budget request for the Department 
of Defense (DOD) of $401.7 billion represents a 5-percent 
increase over the fiscal year 2004 authorized level and the 
fourth consecutive year of growth in the defense budget.
    Much is being asked of each military Service. You have all 
been looking for better and more efficient ways to use each 
taxpayer dollar, from developing new capabilities to changing 
concepts of operations to better integrating the very valuable 
National Guard and Reserve Forces that we have in this Nation. 
We look forward to hearing about your initiatives and welcome 
your insights on the challenges that you face.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman.
    First let me join you in welcoming back our friend Joe 
Lieberman. He in his own way has been serving the Nation, both 
in the campaign that he just waged and also in his 
extraordinarily fine service here in the United States Senate, 
the civility, the thoughtfulness which he brings to his every 
task that he undertakes. I just want to join you, Mr. Chairman, 
I know speaking for every member of this committee, in 
welcoming Joe home.
    As we meet today, America's Armed Forces are heavily 
engaged in trying to bring stability to Iraq. Additionally, 
almost 40,000 more stand on the front lines in Korea, within 
range of North Korean artillery and rockets. Thousands of 
American troops are risking their lives every day in continued 
operations in the global war on terrorism in Afghanistan and 
other hot spots around the world. Of course, many more continue 
to work to keep the peace and to build a more stable future in 
the Balkans and elsewhere.
    To support these efforts, the President has already called 
up nearly 190,000 members of the Reserve components to active 
duty. Given the presence of all of our Service Chiefs, we all 
want to extend to those men and women serving us and through 
our Service Chiefs our thanks to both active duty and Reserve 
Forces for the work that they are doing with bravery and 
dedication on behalf of all Americans.
    I also want to note that they and their families are making 
sacrifices for all of us and that there are stresses and 
strains on all of them, and that the military is stretched 
thin.
    Mr. Chairman, you have made reference to the inquiry into 
intelligence failures prior to the war. It is essential that 
there be an inquiry into massive intelligence failures relative 
to the presence of WMD in Iraq. It was the presence of those 
weapons which was given as the reason for urgency in proceeding 
to attacking Iraq. It is essential that there be an inquiry 
made into the way in which our intelligence was projected and 
represented by our policymakers, and it is essential that there 
be an inquiry made into the planning which either existed or 
did not exist relative to the post-Saddam period as to what we 
could expect in that period and how we would address it.
    Whatever we determine about those issues, let nobody doubt 
that those who ask those questions, all of us, stand four-
square behind our men and women who serve our Nation around the 
world. We will provide our men and women in uniform with 
everything that they need to ensure that they succeed in their 
mission. People who are asking the questions about intelligence 
so that our future intelligence and decisions are better are 
just as determined to help us succeed in our mission and to 
give our men and women in uniform everything they need to 
achieve that success as persons who are taking different 
positions relative to those inquiries.
    The budget before us represents a peacetime budget. It 
fails to include funding to pay for the incremental costs of 
operations in Iraq and Afghanistan. So while the exact costs of 
those operations in fiscal year 2005 are not presently known, 
many of the costs can be readily estimated.
    I want to just emphasize this so that everyone understands 
what I have said. The budget before us does not include items 
that we know have to be paid for, and should be paid for and 
will be paid for, in terms of supporting our men and women and 
giving them all the resources that they need. Now, some of 
those costs, although they are not included in this budget, can 
be readily estimated and should be estimated at this time.
    For instance, we know that forces are going to be rotating 
into and out of Iraq in the October time frame, just after the 
beginning of fiscal year 2005. It is my understanding again 
that these costs are not in the budget. But this, coupled with 
the announced policy of the administration of not asking for a 
supplemental appropriation for the DOD this calendar year, is 
going to result in forcing the Services to plan on supporting 
deployed operations from within the normal budget, at least for 
several months.
    That puts the Services, it seems to me, in a very difficult 
position. I would be interested in hearing from our witnesses 
this morning about the measures that they may have to take if 
they are to live within these constraints until a supplemental 
appropriation is requested next January.
    The U.S. military is by far the best trained, best 
equipped, most capable fighting force in the world today. Its 
readiness can be attributed in large measure to the hard work 
that the Service Chiefs and their staffs have put forward in 
support of their responsibilities mandated by title 10, U.S. 
Code, to organize, train, and equip their respective Services. 
We are going to do everything we can to ensure that our 
military remains the best, and it is to that end that we are 
going to be exploring some critical issues with the witnesses 
before us today and other witnesses who will be called before 
this committee.
    So, Mr. Chairman, I want to join you in welcoming our 
witnesses today. I want to thank them for their service, for 
their leadership. It has made a critical difference during 
these very difficult times. I want to give a special welcome to 
General Schoomaker, who is making his first appearance as our 
Army Chief of Staff before the committee at a posture hearing. 
Welcome, all of you.
    Chairman Warner. Thank you very much, Senator Levin.
    General Schoomaker, as the senior Service, the Army, you 
may lead off.

  STATEMENT OF GEN PETER J. SCHOOMAKER, USA, CHIEF OF STAFF, 
UNITED STATES ARMY; ACCOMPANIED BY LTG STEVEN BLUM, USA, CHIEF, 
                     NATIONAL GUARD BUREAU

    General Schoomaker. Thank you very much, Mr. Chairman. Good 
morning. Mr. Chairman, distinguished members of the committee. 
It is a pleasure to appear before you today. With your 
permission, I would like to submit the 2004 Army Posture 
Statement for the record.
    Chairman Warner. Without objection, it will be admitted to 
today's record in its entirety, together with the statements of 
the other members of the panel.
    General Schoomaker. Thank you, sir.
    I would like to begin by thanking each of you for the 
tremendous support you continue to show for our men and women 
in uniform, as witnessed by your statements this morning 
already.
    The fiscal year 2004 defense legislation and supplemental 
appropriation have provided our soldiers the tools they need to 
carry on their important, often dangerous work. The fiscal year 
2005 President's budget request provides our Army with the 
resources we need to meet the noncontingency requirements of 
the national security strategy. It fully funds our statutory 
end strength of 482,400 soldiers. It supports training 
requirements in accordance with our joint and combined arms 
training strategy.
    The budget request funds depot maintenance for the 15 
critical systems in our recapitalization program. It provides 
funds to upgrade barracks, family housing, and funds facilities 
sustainment at 95 percent.
    The budget request also provides for future readiness by 
funding upgrades for Stryker Brigade Combat Team 5 and our 
continuous investment in the Future Combat System (FCS).
    As with any budget, it reflects a balance. We have accepted 
risk in some lower priority depot maintenance, base operations, 
and other areas. The budget request does not fund our 
contingency requirements for OIF and Operation Enduring Freedom 
(OEF). We do not know with certainty what these requirements 
will be, but we will need a supplemental to fund them once they 
are known.
    All of this has been carefully weighed and I ask for your 
support of the fiscal year 2005 budget request.
    There is no question that the pace of our Nation at war 
challenges our Army. It is hard to recall a time in history, 
with the exception of World War II, when we have been busier, 
as we deploy and redeploy nearly a quarter of a million 
soldiers over the next 4 months. We continue to meet these 
challenges with the seamless commitment of active, Reserve, and 
National Guard soldiers who continue to give so selflessly to 
our great Nation. Accompanying me today are Lieutenant General 
Steve Blum, the Chief of the National Guard Bureau, and 
Brigadier General Gary Profit from the Office of the Chief of 
the Army Reserve. I appreciate their presence here today.
    Chairman Warner. Gentlemen, we welcome you to the hearing. 
Thank you.
    General Schoomaker. This is not easy and we cannot approach 
it as if it is business as usual. This state of war requires us 
to challenge old paradigms, to be flexible and adaptable. Using 
the authority provided by Congress and the flexibility you have 
built into our law, the Secretary of Defense and the President 
of the United States supported my request to temporarily grow 
the Army by up to 30,000 soldiers above its statutory end 
strength. I asked for your support as well.
    I appreciate the concern that many of you have shown over 
this issue. This temporary end strength increase is the right 
choice. A permanent increase in statutory end strength before 
the Army has implemented our ongoing force structure reforms 
would be inefficient and could jeopardize the future readiness 
of our Army.
    I have asked to temporarily grow the force under the 
authorities provided in title 10, section 123[a] because the 
real issue we must address is improving Army capabilities, by 
tailoring our structure to better meet the requirements of our 
national security strategy. Capability is the issue, not the 
number of soldiers. With the flexibility I have requested, we 
can grow the active component from 33 to 43 combat brigades 
while increasing the number of National Guard combat brigades 
that are identical to the Active Force.
    In the future we will make a decision on adding an 
additional five active component combat brigades to further 
enhance our capability. Combined with other initiatives, such 
as adjusting the balance between the active component and the 
Reserve component, increasing the pool of soldiers in high-
demand specialties, and the implementation of unit modularity 
and stabilization, this restructure will provide the Nation and 
the Joint Forces Commanders with an Army better suited to meet 
rotational or readiness requirements such as we face today, 
while remaining ready to meet the challenges of the future.
    We must never lose sight of the fact that it is our 
soldiers who put it all on the line. We will do everything in 
our power to prepare them for the challenges they face. I could 
not be more proud of them and the professionalism, courage, and 
competence that they demonstrate every day. I would include our 
family members in that who have already been recognized. They 
pay a tremendous price and they are with us.
    In closing, I would like to thank this committee for the 
opportunity to appear before you today and for your continued 
support for the men and women in our Army, deployed in Iraq, 
Afghanistan, and throughout the world.
    I look forward to answering your questions. Thank you, sir.
    [The 2004 Army Posture Statement follows:] 

    [GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]
    
    Chairman Warner. Thank you very much, General.
    Admiral Clark.

     STATEMENT OF ADM VERNON E. CLARK, USN, CHIEF OF NAVAL 
                           OPERATIONS

    Admiral Clark. Thank you.
    Chairman Warner and Senator Levin, distinguished members of 
the committee: Good morning to each of you. I very much 
appreciate the opportunity to be here this morning and to talk 
to you about your great Navy, the Nation's great Navy.
    It is also my privilege, like my friend General Schoomaker, 
to thank you, on behalf of the men and women of the United 
States Navy--the uniformed members, the civilian members, 
active and Reserve--for the support provided by Congress to 
make our Navy ready to respond to the issues that face us in 
the world today, and for helping us create the Navy of the 
future.
    The support of Congress in the face of difficult choices, 
choices that each of you must make each year, has made a 
difference to our people and to our Nation's defense. All of us 
in the Navy are very grateful for what you do.
    Of course, your Navy is just one part of an unparalleled 
joint warfighting team. I am also very grateful for these great 
partners that I am sitting here with today at this table. It 
has been my privilege to serve with these great professionals 
and I consider them the best of the best. We spend quite a bit 
of time together, oftentimes just the Joint Chiefs and 
sometimes with the Secretary. But I can tell you that this 
group of individuals is dedicated and committed to delivering 
the kind of joint operating concepts and transformational 
capabilities that this Nation needs for the future.
    We recognize that it will take all of us working together 
to bring the kind of joint capabilities that the Nation needs 
now and in the future.
    I have outlined, Mr. Chairman, in some detail our Navy's 
accomplishments over the last year in my written statement. So, 
in the interest of time, I will not dwell on them here, except 
to say that this has been an incredible year for our Navy. Your 
Navy was built to take credible, persistent, combat power to 
the far corners of the Earth, anywhere, any time the Nation 
needs us to take it there. Our operations this past year have 
proved again the value of being truly ready to meet combat and 
ready to perform combat operations.
    At the height of OIF, 7 of our carriers were deployed, 7 of 
our 10 air wings, and 75 percent of our amphibious structure. 
In total, 55 percent of our fleet was deployed overseas.
    This last year proved again the importance and the need to 
exploit the vast maneuver space provided to us and the 
independence to operate from the seas. Most importantly, it 
proved once again that our Navy's actions this year highlighted 
the asymmetric advantages that we possess in this country. That 
is the ability to deploy unparalleled technology and the genius 
of our people. The things that you have said about our young 
men and women are greatly appreciated.
    With this year's budget request, we seek to accelerate our 
advantages into the future, to deliver the right readiness for 
this Nation at the right cost, to respond to the Nation's 
warfighting needs, to shape the 21st century workforce, to 
deepen our investment in the growth and development of our 
people, our number one asset, to accelerate our investment in 
our Seapower 21 vision, to recapitalize and transform our Navy, 
and to improve its ability to operate as part of the joint 
warfighting team.
    As General Schoomaker pointed out, this is not an easy 
task. Our budget request this year assesses the capabilities we 
need for today and tomorrow, and it balances the investment, 
and the key word here is ``balance.'' It balances the 
investments that we need so that we can take on the challenges 
and deal with acceptable risks.
    As I indicated to this committee last year, we seek to make 
improvements in our investments for the future. This year we 
are requesting procurement dollars for 9 new ships and 104 
aircraft. As a point of reference, that's 30 percent more than 
we projected in last year's budget. The key thing that I have 
spoken with this committee a number of times about is 
investment streams and the requirement to get the shipbuilding 
investment stream to the level that it needs to be.
    As a point of reference, the year I arrived in this post 
the account for the Navy shipbuilding and conversion (SCN) was 
$4.7 billion. We invest this year a little over $11 billion in 
new construction and in modernization of our force. I am proud 
of those improvements.
    Our investment in aircraft programs is significantly higher 
than it was 4 years ago as well. We have invested nearly $6 
billion in our 2005 budget request and this is almost double 
our investment in 2001. This does not include the investment of 
over $6.3 billion in aviation R&D. This number is triple what 
it was 3 years ago.
    We have focused these investments on important new 
capabilities. The heart of our future family of ships is the 
DD(X), the 21st century destroyer, a ship that will absolutely 
revolutionize naval fire support and almost everything that we 
know about shipbuilding. The DD(X) has a new, stealthy hull 
form; integrated electric drive and power generation system; 
modularity and enhanced human systems engineering will reduce 
manning, and it is estimated that that alone will save the 
taxpayers over $18 billion in the life of this program; 
leveraging the platform for future growth and spiral 
development. It will change the way we develop and construct 
ships and it will change the way we fight for the next half 
century. DD(X) starts this year.
    The EA-18G was brand new in the budget last year. This 
year's budget will greatly accelerate the recapitalization of 
the just plain old EA-6B, the Nation's only joint electronic 
attack capability. OIF and congressional action last year 
accelerated the aging process on this airplane. With your 
support this year means that relief is on the way, and it 
cannot happen too soon.
    We will commission the first Virginia class submarine later 
this year. Virginia will incorporate unmanned vehicles and the 
ability to plug into joint networks like no other submarine 
ever has in history. Congress' authorization for multi-year 
procurement of five of these submarines in last year's budget 
has helped make these important, complex platforms more 
affordable for the future.
    Of course there are others, like the Littoral Combatant 
Ship (LCS). We will award it with this year's budget. Our first 
new aircraft carrier in 3 decades, CVN-21, continues to be 
funded as well as a sea-based missile defense and a nuclear-
powered cruise missile attack submarine (SSGN) and F-18E and 
Joint Strike Fighter (JSF), and the Advanced Hawkeye program. 
We accelerate our request for the LPD-17 class.
    We have other initiatives in this budget, like our Fleet 
Response Plan (FRP), mentioned the other day in front of this 
committee, that will deliver the right readiness and the 
ability to surge 50 percent more combat power than we have ever 
been able to do routinely in the past.
    General Pace described to you this transformational 
approach. It is a change in the way we organize, train, and 
equip our force. It means that we can surge this morning, if 
the President needs us, to six carrier strike groups anywhere 
we need to in the world.
    It is all about maximizing the investment that the 
taxpayers make in the Nation's defense. The bottom line is that 
we have framed in this budget the right current readiness at 
the right cost to the Nation, and for that I seek your support.
    Of course, at the heart of everything good that is 
happening in the Navy today is this: We are winning the battle 
for people. The momentum here is fantastic. The Navy has seen 
higher quality recruits, and the best retention that I have 
ever seen in my life. In fact, for the third straight year, it 
is the highest retention in the history of the United States 
Navy. This was made possible with innovative incentive pay 
pilot programs. We have experienced dramatically reduced 
attrition, competitive reenlistments in detailing and 
outstanding deckplate leadership. In short, this is the highest 
quality Navy this Nation has ever seen, and it is all about the 
people.
    The authorities you have granted us in this regard are 
incredibly important and in my view, have made the difference. 
I ask you to continue to give us the tools to be successful. 
These tools have been critical in our ability to attract, 
retain, and shape the kind of workforce we need for the future.
    I will say this, as I said last year: Manpower is never 
free. So in this budget I am suggesting and requesting that we 
reduce our end strength by some 7,900 people from the 2004 
levels. Our strategy for doing this is simple. We are capturing 
the work on our ships and stations, improving our training 
processes, leveraging technology advances, decommissioning our 
older, most manpower-intensive platforms where the risks allow 
us to do so, and rebalancing our Reserve and Active Forces in a 
way that delivers the right skills when we need them and 
reduces the personnel strain.
    I am committed, Mr. Chairman and members of this committee, 
to building a Navy that can maximize the capability of our 
people and minimize the total number on the payroll. We will 
continue to invest in our sailors' growth and development, and 
our ability to provide them meaningful and challenging careers 
that lets them make a difference. This is part of our covenant 
with them.
    As our Navy delivers the more high-tech systems that I 
mentioned, it is my intent for us to also develop a smaller yet 
smarter workforce. We will spend whatever it takes to equip and 
enable our sailors. We do not want to spend one extra penny for 
manpower that we do not need.
    There is a lot more to talk about, and we will in the 
closed hearing that follows.
    Mr. Chairman, in response to your question about my 
position and understanding and beliefs prior to OIF, I say 
this: As I watched the hearing the other day with the Secretary 
and General Pace, I watched the kind of questions that you were 
asking, and I thought about where we were at that point in time 
in our history. I asked the Secretary of Defense if I could 
read just part of a private correspondence that I sent to him 
on the morning we commenced combat operations.
    It is a private correspondence, I will not read the whole 
thing, but this part he said would be appropriate for me to 
share with you, and this was at my request. I started by 
telling him that we were ready. I said that the leadership in 
the fleet was confident. I said that our readiness was higher 
than I had ever seen it.
    Then I said this: ``For some this is about weapons of mass 
destruction, for others it is about al Qaeda. For us it is 
about all of that and more. Iraq has been shooting at our 
aircraft for over 5 years.'' I went on to say to him that it 
was my belief that this cause was just and our people believed 
in it. Mr. Chairman, that was my position then and that is what 
I believe today.
    I look forward to your questions and I thank you again for 
the opportunity to be here.
    [The prepared statement of Admiral Clark follows:]
             Prepared Statement by ADM Vernon E. Clark, USN
    Mr. Chairman and members of the committee, I appreciate this 
opportunity to appear before you. I want to express my gratitude for 
the substantial investment you have made in making this Navy the best 
Navy the Nation has ever seen.
    Your Navy is built to take credible combat power to the far corners 
of this Earth, taking the sovereignty of the United States of America 
anywhere we need to take it and at anytime we choose to do so. It is 
capable of delivering the options this Nation needs to meet the 
challenges of today and it is committed to the future capabilities the 
joint force will need to win throughout the 21st century.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    It is a wonderful time to be a part of this Navy and a great 
privilege to be associated with so many men and women--active and 
Reserve, uniformed and civilian--committed to the service and defense 
of this Nation. I speak for all of our men and women in thanking you 
for your exceptional and continuous support.
  i: your navy today--projecting decisive joint power across the globe
    Your Navy's performance in Operations Enduring Freedom (OEF) and 
Iraqi Freedom (OIF) last year proved--more than anything else--the 
value of the combat readiness in which you have invested. It 
demonstrated the importance of the latest technology in surveillance, 
command and control, and persistent attack. It highlighted our ability 
to exploit the vast maneuver space provided by the sea. Most 
importantly, it reaffirmed the single greatest advantage we hold over 
every potential adversary: the genius of young Americans contributing 
their utmost in their service to this Nation.
    This past year, the fleet produced the best readiness levels I have 
seen in my career. We have invested billions of dollars to training, 
maintenance, spare parts, ordnance, flying hours and steaming days 
accounts these last few years, and that investment resulted in the 
combat ready response of more than half the Navy to operations 
worldwide.
    Seven aircraft carriers and 9 big deck amphibious ships were among 
the 164 U.S. Navy ships forward deployed last spring in support of OEF 
and OIF and contingencies worldwide. The Military Sealift Command 
sailed and chartered more than 210 ships and moved 94 percent of the 
Nation's joint and combined capability to the fight. We also deployed 3 
fleet hospitals, a hospital ship, 22 P-3 aircraft, 25 naval coastal 
warfare detachments and we mobilized more than 12,000 reservists.
    OIF and OEF were the most joint operations in our history and they 
have provided the best possible opportunity to dissect, study, and 
analyze some of the limiting factors and effects of how we fight. 
Beyond the mere numbers, these operations confirmed that we should 
continue to pursue the capabilities that enhance our power projection, 
our defensive protection and the operational independence afforded by 
the sea.
    While we recognize that we must continue to challenge all of our 
assumptions in a variety of scenarios, our lessons learned indicate 
that the capabilities-based investment strategies, new warfighting 
concepts and enabling technologies we are pursuing in our Sea Power 21 
vision are on the right vector. Let me give you some examples.

    <bullet> The reach, precision, and persistence of our Sea Strike 
capability added lethality to ground combat engagements in Afghanistan 
and Iraq. The joint surveillance and attack technologies and processes 
that we have already put in place forced enemy combat formations to 
either disband and desert or be destroyed in place by precision 
weapons. Navy aviation generated more than 7,000 combat sorties in 
support of OIF, sometimes flying joint missions with land-based Air 
Force tankers more than 900 miles from their carriers. Surface 
combatants and submarines struck targets throughout Iraq with more than 
800 Tomahawk missiles. The initial deployments of new F/A-18E/F Super 
Hornet squadrons greatly extended our range, payload, and refueling 
options. We will realize more of these capabilities in the future 
through the conversion of the first of four Trident nuclear-powered 
ballistic missile submarines (SSBNs) into the nuclear-powered cruise 
missile attack submarine (SSGN) conventional strike and Special 
Operations Forces (SOF) platform.
    <bullet> U.S.S. Higgins (DDG 76) provided early warning and 
tracking to joint forces in Kuwait and southern Iraq to help warn 
forces and defend against the threat of theater ballistic missiles. 
This tracking-only capability demonstrated the initial potential of 
extending Sea Shield defenses to the joint force. In a sign of things 
to come, we advanced our missile defense capability with another 
successful flight test of our developmental sea-based defense against 
short-to-medium range ballistic missiles. U.S.S. Lake Erie (CG 70) and 
U.S.S. Russell (DDG 59) combined to acquire, track, and hit a ballistic 
test target in space with an SM-3 missile in support of the ballistic 
missile defense program. This was the fifth success in six tests.
    Our OIF mine warfare efforts cleared 913 nautical miles of water in 
the Khor Abd Allah and Umm Qasr waterways, opening 21 berths in the Umm 
Qasr port and clearing the way for operations in the littoral areas of 
the Northern Persian Gulf and for humanitarian aid shipments into Iraq. 
These operations included the use of the High Speed Vessel X1 (Joint 
Venture), Navy patrol craft and six unmanned, autonomous underwater 
vehicles (AUVs) directly from our science and technology (S&T) program 
in the littoral for special operations and mine clearance operations, 
and gave us important insights into our vision for both future littoral 
and mine warfare concepts and capabilities.
    <bullet> We projected joint combat forces across the globe with 
greater speed and agility than we have ever done in the past. Along 
with our number one joint partner, the United States Marine Corps, we 
put more than 60,000 combat-ready marines ashore in Kuwait in 30 days. 
The Navy's Military Sealift Command delivered more than 32 million 
square feet of combat cargo and more than 1 billion gallons of fuel to 
the Nation's warfighters in OEF and OIF. We were able to sustain the 
strategic and operational flexibility afforded by Sea Basing to 
generate a three-axis attack on Iraq from our dispersed aircraft 
carriers, surface combatants, and submarines in the Red Sea, the 
Mediterranean Sea, and the Persian Gulf.
    We forged ahead in our shipbuilding investments. We awarded three 
preliminary design contracts for the Littoral Combat Ship (LCS), 
leading to the construction of the first LCS in fiscal year 2005. We 
selected the baseline design for the DD(X) 21st century multi-mission 
destroyer, launched San Antonio (LPD 17), christened Virginia (SSN 774) 
and began fabrication of Makin Island (LHD 8) and Lewis and Clark (T-
AKE 1).
    <bullet> In OIF, we were able to know more, decide faster, and act 
more decisively than ever before. Our three-axis, multi-platform attack 
from the Persian Gulf, Red Sea, and Mediterranean Sea--as well as the 
geometric increases in striking power, defensive protection and speed 
of maneuver generated by our joint forces--is made possible by the 
power of joint command, control, communications, computers, 
intelligence, surveillance, and reconnaissance (C\4\ISR). Fully 80 
percent of targets struck with precision ordnance were unknown at 
aircraft launch. We developed and installed CENTRIX and COWAN networks 
to enhance joint and coalition interoperability on all of our deploying 
ships, and we also promulgated the FORCEnet campaign plan, defining the 
architecture and standards that will help us further integrate 
warriors, sensors, weapons, and platforms.
    These accomplishments this past year have taught us more about who 
we are and where we are headed. We know that the combat power of the 
truly joint force is much more than the sum of the Services' 
contributions. We understand the value of readiness and the importance 
we must place on improving the fleet's ability to respond and surge 
with decisive combat power. We relearned the lesson that over flight 
and basing is not guaranteed; our dominance of the maritime domain and 
our consequent ability to quickly deliver an agile combat force is a 
priceless advantage for our Nation. We reaffirmed that our people are 
now, and always will be, the root of our success.
          ii: your navy tomorrow--accelerating our advantages
    Readiness, advanced technology, dominance of the maritime domain, 
and the genius of our people--these are our asymmetric advantages. They 
are the core of our Sea Power 21 Navy and we intend to accelerate these 
advantages over the coming year. We are in a position to continue to 
build upon and recapitalize these strengths, to innovate and 
experiment, and to push the envelope of operational art and 
technological progress. Our ability to project persistent, sovereign 
combat power to the far corners of the Earth now and in the future 
depends on it.
    In last year's statement, I discussed principally the advantages 
brought by advanced technology and the vast maneuver area of the sea in 
our Sea Power 21 vision.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    This year, I would like to spend a few moments on the efforts we 
have taken to improve our other advantages: our readiness to respond to 
the Nation's defense needs and the tools we will need to ensure the 
right people for our Sea Power 21 Navy.
    Today's naval forces and personnel are superbly trained and well 
provisioned with ordnance, repair parts and supplies. They are ready 
earlier--for a longer period of time--and they are deploying at a 
higher state of readiness than ever before. In short, the Navy this 
Nation has paid for is truly ready to accomplish its missions and it is 
more ready to do so than I have ever seen it in my career.
    I mentioned the results; in OIF, we surged more than half the fleet 
to fight half a world away. The combined power of our forward presence 
forces and those that we were able to surge overseas helped keep our 
enemies on the run. This conflict and our analysis of future campaign 
scenarios make it apparent that the readiness of both our forward 
forces and the forces that must surge forward will be critically 
important to our future. It is no longer good enough to be able to 
surge just once every 10 years or so.
    The war on terrorism and the unpredictability of the global 
security environment make this an immediate imperative. The Nation 
needs a Navy that can provide homeland defense and be both forward and 
ready to surge forward to deliver overmatching and decisive combat 
power whenever and wherever needed. We are committed to do so.
    With this in mind, we launched the Fleet Response Plan (FRP) this 
past year. The FRP resets the force in a way that will allow us to 
surge about 50 percent more combat power on short notice and at the 
same time, potentially reduce some of the personnel strain of forward 
rotations.
    In simplest terms, rather than having only two or three Carrier 
Strike Groups (CSGs) forward-deployed and properly equipped at any one 
time--and an ability to surge only a maximum of two more--the FRP 
enables us to now consistently deliver six forward deployed or ready to 
surge CSGs almost immediately, plus two additional CSGs in the basic 
training phase in 90 days or less. This FRP capability is commonly 
known as six plus two.
    To do this, we have fundamentally reconfigured our employment 
policy, fleet maintenance, deployment preparations and fleet manning 
policies to expand the operational availability of non-deployed fleet 
units. We have shifted the readiness cycle from one centered solely on 
the next-scheduled-deployment to one focused on returning ships to the 
right level of readiness for both surge and deployed operations. The 
net result is a fleet that is more ready, with more combat power--more 
quickly--than was possible in the past.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Our forward rotations remain critically important to our security, 
to strengthening alliances and coalitions, and to the global war on 
terrorism. But it is clear we must make these rotations with purpose, 
not just to fill the calendar.
    For example, implementing the new Proliferation Security Initiative 
to counter weapons of mass destruction (WMD) as a tool for terrorists 
and their sponsors is likely to involve the use of forward naval forces 
in maritime interdiction. Additionally, we plan to be ready to 
establish initial missile defense operations using forward-deployed 
Arleigh Burke class guided missile destroyers and their Aegis systems 
in Long-Range Tracking and Surveillance roles. Of course, we will 
continue to provide combatant commanders with the combat-credible, 
rapidly employable forward forces required for the Nation's defense.
    But at the same time, we recognize that our ability to rapidly 
surge significant additional combat power and provide a range of joint 
employment options is critically important to the swift and decisive 
combat operations that must be our future. The FRP allows us to do just 
that.
    We have an obligation to accurately assess the readiness needs and 
create the resources necessary to support this FRP capability. This has 
also been a major focus this past year.
    Readiness is a complex process. It is much more than a count of our 
end strength, our ordnance and spares, and the number of hours and days 
spent training. It is the product of our ability to deliver the 
required effects needed to accomplish the mission. We know too that 
readiness at any cost is unacceptable; as leaders we must achieve and 
deliver the right readiness at the right cost.
    The Integrated Readiness Capability Assessment (IRCA) was developed 
for the fiscal year 2005 budget to more carefully examine our readiness 
processes. Starting with our new FRP operating construct, we took a 
hard look at everything that we needed to have on hand and what we 
needed to do to deliver the required combat readiness for the Nation's 
needs.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    The IRCA assessment helped us understand the collective 
contributions of all the components of readiness, accurately define the 
requirements, align the proper funding, and provide a balanced 
investment to the right accounts. It improved our visibility into the 
true requirements and it gave us a methodology to assess and understand 
both acceptable and unacceptable risks to our current readiness 
investments.
    The end result is this: we have carefully defined the readiness 
requirement. We have identified areas where we can streamline or cease 
activities that do not add to readiness. We have requested the funds 
our commanders need to create the right readiness for fiscal year 2005. 
I ask for your support of this year's current readiness request as 
we've redefined these processes and already taken acceptable risks. We 
will deliver the right readiness at the right cost to the Nation.
    These improvements to our operational availability of forces and 
the associated readiness elements will not be made on the backs of our 
people.
    We have a smart, talented cadre of professionals who have chosen a 
lifestyle of service. Our ability to challenge them with meaningful, 
satisfying work that lets them make a difference is part of our 
covenant with them as leaders.
    A new operating concept like the FRP could not be made if we still 
had the kind of manpower-intensive mindset to problem solving we had 
even 5 years ago. But today, thanks to your sustained investment in S&T 
among others, we have already realized some of the advancements in 
information technology, simulators, human system integration, 
enterprise resource planning, Web-enabled technical assistance and ship 
and aircraft maintenance practices that can reduce the amount of labor 
intensive functions, the training, and the technical work required to 
ensure our readiness.
    These advances speak to our larger vision for our Sea Power 21 Navy 
and its Sea Warrior initiative. Our people are today's capital assets. 
Without them, all the advanced weaponry in the world would sit dormant. 
But at the same time, it is the effects they deliver that are the true 
measure of their contribution to readiness and capability.
    We have long had a force stove-piped into active and Reserves, 
uniformed and civilian, sea and shore, and enlisted and officer 
components, all with work driven largely by the limits of industrial 
age military capabilities, personnel practices, technology, and the 
organizational models of the day.
    In today's era, when we have whole corporations bought or sold just 
to capture the intellectual capital of an organization, we recognize 
that our human resource strategy must capture the talents and efforts 
of our capital as well. Our vision for the future is a more truly 
integrated workforce wholly committed to mission accomplishment. This 
must include a total force approach that can functionally assess 
missions, manpower, technology, and training and produce an enterprise-
wide resource strategy.
    The principles of this strategy are clear. We will capture the work 
that contributes to mission accomplishment. We will define enterprise-
wide standards. We will leverage technology to both enhance and 
capitalize on the growth and development of our people. We will 
streamline organizational layers. We will instill competition. We will 
incentivize the talents and behaviors needed to accomplish the mission.
    There is still much to study and discuss as we develop our total 
force approach in the months and years ahead, but we can already see 
that the application of these principles will help us more accurately 
define our manpower requirement and lead us to a smaller workforce in 
the future.
    The benefits are enormous. Our people will be powerfully motivated 
and better educated and more experienced in the coming years. They will 
be properly equipped to maintain, operate and manage the higher 
technology equipments that are our future. Our combat capabilities will 
continue to grow.
    We must be committed to building a Navy that maximizes the 
capability of its people while minimizing the total number in the 
manpower account. Manpower is never free; in fact, manpower we do not 
truly need limits both the true potential of our people and the 
investments needed to transform our combat capability for the future.
    Our developing human resource strategy will likely require changes 
in the way we recruit, assess, train and manage the workforce. Sea 
Warrior of course, is crucial here. Last year's authorization of the 
National Security Personnel System (NSPS) is very important to such an 
effort as well. The NSPS Act authorized a more flexible civilian 
personnel management system that allows the Department of Defense (DOD) 
to be a more competitive and progressive employer at a time when our 
national security demands a highly responsive system of civilian 
personnel management. The legislation also ensures that merit systems 
principles govern changes in personnel management, whistleblowers are 
protected, discrimination and nepotism remain illegal, and veterans' 
preference is protected. This will facilitate the kind of competition 
and performance we need for the future. The Navy has volunteered to be 
in the first wave of conversions to NSPS in 2004.
    Most importantly, I believe we will also need these kinds of 
flexible authorities and incentive tools to shape the career paths and 
our skills mix in a way that lets us compete for the right talent in 
uniform, not just within the Navy, but with all the Nation's employers 
as well.
    In the months ahead, I will continue to discuss with you our 
developing human resource strategy and the kinds of authorities we'll 
need to deliver on it.
    We are beginning to realize the powerful warfighting capabilities 
of Sea Power 21. Our culture of readiness and our commitment to 
developing a 21st century workforce will help us employ those 
transformational capabilities to achieve unprecedented maritime power.
                iii. our fiscal year 2005 budget request
    This past year our Navy's budget request continued our effort to 
sustain our current readiness gains, deepen the growth and development 
of our people and invest in our transformational Sea Power 21 vision 
while harvesting the efficiencies needed to fund and support these 
three critical priorities.
    This year we intend to:

        <bullet> Deliver the right readiness at the right cost to 
        support the war on terror and the Nation's warfighting needs,
        <bullet> Shape the 21st century workforce and deepen the growth 
        and development of our people, and
        <bullet> Accelerate our investment in Sea Power 21 to 
        recapitalize and transform our force and improve its ability to 
        operate as an effective component of our joint warfighting 
        team.

    At the same time, we will continue to pursue the Sea Enterprise 
improvements that make us a more effective Navy in both fiscal year 
2005 and beyond. Our Navy budget request for fiscal year 2005 and the 
future supports this intent and includes:

    <bullet> Nine new construction ships in fiscal year 2005, including 
construction of the first transformational destroyer (DD(X)) and the 
LCS, the acceleration of a San Antonio Class Amphibious Transport Dock 
Class ship from fiscal year 2006 to fiscal year 2005, and one SSBN 
conversion and refueling. Our request this year includes the following 
ships:

        <bullet> Three Arleigh Burke Class Guided Missile Destroyers 
        (DDG)
        <bullet> One Virginia class submarine (SSN)
        <bullet> One San Antonio Class Amphibious Transport Dock (LPD)
        <bullet> Two Lewis and Clark Class Dry Cargo and Ammunition 
        ships (T-AKE)
        <bullet> One 21st century Destroyer (DD(X))
        <bullet> One LCS, and
        <bullet> One SSBN conversion/refueling

    The investment plan across the Future Year's Defense Plan (FYDP) 
also includes three Maritime Prepositioned Force (Future) (MPF (F)) 
ships and advanced procurement for an MPF (F) aviation variant. While 
our build rate dips to six ships in fiscal year 2006, this is a 
reflection of a shift in focus to the next generation surface 
combatants and sea basing capabilities. We have also assessed the risks 
and divested several assets that have high operating costs and limited 
technological growth capacity for our transformational future; this 
includes decommissioning two coastal mine hunter ships, and the 
accelerated decommissioning of the remaining Spruance-class destroyers, 
Sacramento Class Fast Combat Store Ships and the first five 
Ticonderoga-class guided missile cruisers in the FYDP.

    <bullet> Procurement of 104 new aircraft in fiscal year 2005, 
including the F/A-18 E/F Super Hornet, the MH-60 R/S Seahawk and 
Knighthawk Multi-mission Combat Helicopter, the T-45 Goshawk training 
aircraft, and the Marine Corps MV-22 Osprey among others. We continue 
to maximize the return on procurement dollars through the use of multi-
year procurement (MYP) contracts for established aircraft programs like 
the Super Hornet and we have increased our research and development 
investment this year in the Joint Strike Fighter (JSF), the EA-18G 
Airborne Electronic Attack (AEA) aircraft and the broad area anti-
submarine, anti-surface, maritime and littoral intelligence, 
surveillance, and reconnaissance (ISR) capable Multi-mission Maritime 
Aircraft (MMA).
    <bullet> Investment in transformational unmanned underwater 
vehicles (UUVs) like the Long-Term Mine Reconnaissance System, and 
unmanned aerial vehicles (UAVs) such as the Broad Area Maritime 
Surveillance UAV and the Joint-Unmanned Combat Air System. The budget 
also requests funding for experimental hull forms like the X-Craft, and 
other advanced technologies including the Joint Aerial Common Sensor 
(JACS).
    <bullet> A 3.5 percent basic pay raise, and a reduction in average 
out-of-pocket housing costs from 3.5 percent to 0, allowing sailors and 
their families more of an opportunity to own their own homes and have 
more of a stake in their communities;
    <bullet> Investment in housing and public-private ventures that 
will help eliminate inadequate barracks and family housing by fiscal 
year 2007 and enable us to house shipboard sailors ashore when their 
vessel is in homeport by fiscal year 2008;
    <bullet> Readiness investment that supports the FRP, including 
sustained funding for ship and aircraft operations, aviation depot 
maintenance, and precision-guided munitions. This includes improvements 
in ship maintenance and training scheduling to maximize surge 
capabilities.
A. Delivering the Right Readiness at the Right Cost
    To me, the ``right readiness'' is the return on your investment in 
the Navy. Readiness is the catalyst that brings combat power to bear 
whenever it is needed. Achieving readiness at any cost however is not 
good for the Nation. This year's request accurately defines our 
readiness needs, assesses the risks to our investment and--as 
requested--will deliver the resources necessary for leaders in the Navy 
to create the required readiness.

    <bullet> Ship Operations and Flying Hours requests funds for ship 
operations operational tempo (OPTEMPO) of 51.0 days per quarter for our 
deployed forces and 24 days per quarter for our non-deployed forces. We 
have properly funded the flying hour account to support the appropriate 
levels of readiness and longer employability requirements of the FRP. 
This level of steaming and flying hours will enable our ships and air 
wings to achieve the required readiness over the longer periods defined 
by the FRP, and as a result, it will improve our ability to surge in 
crisis and sustain readiness during deployment.
    <bullet> Ship and Aviation Maintenance. We have made significant 
improvements these last few years by reducing major ship depot 
maintenance backlogs and aircraft depot-level repair back orders; 
improving aircraft engine spares; adding ship depot availabilities; 
ramping up ordnance and spare parts production; maintaining steady 
``mission capable'' rates in deployed aircraft; fully funding aviation 
initial outfitting; and investing in reliability improvements.
    Our fiscal year 2005 request continues to improve the availability 
of non-deployed aircraft and meets our 100 percent deployed airframe 
goals. Our ship maintenance request continues to ``buy-down'' the 
annual deferred maintenance backlog and sustains our overall ship 
maintenance requirement. We are making great strides in improving the 
visibility and cost effectiveness of our ship depot maintenance 
program, reducing the number of changes in work package planning and 
using our continuous maintenance practices when changes must be made.
    <bullet> Shore Installations. Our Facilities Sustainment, 
Restoration, and Modernization (SRM) program remains focused on 
improving readiness and quality of service for our sailors. While our 
fiscal year 2005 Military Construction and Sustainment program reflects 
difficult but necessary trade-offs between shore infrastructure and 
fleet recapitalization, the majority of the SRM trends are very good. 
Facilities sustainment has increased in fiscal year 2005. Our budget 
request keeps us on a course to achieve the DOD goal of a 67-year 
recapitalization rate by fiscal year 2008, achieve Navy goals to 
eliminate inadequate family and bachelor housing by fiscal year 2007 
and provides Homeport Ashore Bachelor Housing by fiscal year 2008. We 
are exploring innovative solutions to provide safe, efficient 
installations for our service members, including design-build 
improvements, and base realignment and closure (BRAC) land sales via 
the General Services Administration (GSA) Internet. Additionally, with 
the establishment of Navy Installations Command, we have improved our 
capability to manage our dispersed facility operations, conserve 
valuable resources, establish enterprise-wide standards and continue to 
improve our facility infrastructure.
    <bullet> Precision-guided munitions receive continued investment in 
our fiscal year 2005 request with emphasis on increasing the Joint 
Stand-Off Weapon (JSOW) baseline variant, Joint Direct Attack Munition 
(JDAM), Tactical Tomahawk (TACTOM), and Laser-Guided Bomb (LGB) 
inventory levels, while the JSOW penetrator variant enters full-rate 
production. We have also entered into a common missile program with the 
U.S. Army to replace the aging inventory of TOW, Maverick, and Hellfire 
missiles. Joint partnerships with the Air Force and Army in several of 
our munitions programs continue to help us optimize both our 
inventories and precious research and development investments and will 
remain a focus for us in the future.
    <bullet> Training Readiness. We continue to make significant 
strides in this critical area. In fiscal year 2004, Congress supported 
two important programs to advance our training readiness. First, you 
endorsed the Training Resource Strategy (TRS), to provide more complex 
threat scenarios and to improve the overall realism and value of our 
training. Additionally, you funded the Tactical Training Theater 
Assessment and Planning Program to provide for a comprehensive training 
range sustainment plan. Our fiscal year 2005 budget continues this 
work. We are working to make the Joint National Training Capability a 
reality. We have established a single office to direct policy and 
management oversight for all Navy ranges as well as serve as the 
resource sponsor for all training ranges, target development and 
procurement, and the Navy portion of the Major Range Test Facility Base 
(MRTFB).
    <bullet> Environmental Readiness. In the last 2 years, Congress has 
provided significant legislative relief from encroachment and 
environmental requirements by amending the Endangered Species Act, the 
Migratory Bird Treaty Act, and the Marine Mammal Protection Act. These 
amendments help to balance environmental stewardships and realistic 
military training. We will continue to focus the use of our ranges on 
military training, and remain committed to our environmental 
obligations through integrated natural resource management plans. We 
will make every effort to protect marine mammals while ensuring our 
sailors are properly trained and our transformational systems are 
properly tested. We look forward to demonstrating our ongoing 
commitment to environmental stewardship.
B. Shaping the 21st Century Workforce
    At the heart of everything good in our Navy today is this: We are 
winning the battle for people. Higher quality recruits, historic 
retention rates, innovative incentive pay pilots, reduced attrition, 
competitive reenlistments and detailing, and outstanding leadership in 
the ranks has made this the highest quality workforce the Navy has ever 
seen.
    In 2003 specifically, we exceeded all of our aggregate retention 
goals for the third straight year; our recruiters reached their quotas 
for the 28th consecutive month; we reduced attrition another 10 percent 
from fiscal year 2002 levels; and, through decommissioning older, 
manpower-intensive platforms, improving training and employment 
processes, and more efficient infrastructure organization, we have 
reduced gaps at sea to less than 1,000, down from 18,000 gaps just 6 
years ago.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    These accomplishments will help us develop the 21st century 
workforce we will need for our Sea Power 21 Navy. As our Navy becomes 
more high tech, so must our workforce. Our people will be a more 
educated and experienced group of professionals in the coming years, 
and we must properly employ their talents. We will spend whatever it 
takes to equip and enable these outstanding Americans, but we do not 
want to spend one extra penny for manpower we do not need.
    As part of that effort, we continue to pursue the kind of new 
technologies and competitive personnel policies that will streamline 
both combat and non-combat personnel positions, improve the two-way 
integration of active and Reserve missions, and reduce the Navy's total 
manpower structure. To that end, we are proposing a fiscal year 2005 
Navy end strength reduction of 7,900 personnel.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    We will use existing authorities and our Perform To Serve (PTS) 
program to preserve the specialties, skill sets and expertise needed to 
continue the proper balancing of the force.
    We intend to build on the growth and development momentum of the 
last 3 recordbreaking years. We are fully committed to ensuring every 
sailor has the opportunity and resources to successfully compete. Our 
goal remains attracting, developing, and retaining the most highly 
skilled and educated workforce of warriors we have ever had, to lead 
the 21st century Navy.
    As I testified last year, Sea Warrior is designed to enhance the 
assessment, assignment, training, and education of our sailors.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Our fiscal year 2005 budget request includes the following tools we 
need to enhance mission accomplishment and professional growth:

    <bullet> Innovative personnel employment practices are being 
implemented throughout the fleet. Optimal manning experiments in U.S.S. 
Boxer (LHD-4), U.S.S. Milius (DDG 69) and U.S.S. Mobile Bay (CG 53) 
produced revolutionary shipboard watch standing practices, while 
reducing overall manning requirements and allowing sailors to focus on 
their core responsibilities. The fleet is implementing best practices 
from these experiments to change Ship Manning Documents in their 
respective classes. Optimal manning means optimal employment for our 
sailors.
    We have our fourth crew aboard U.S.S. Fletcher (DD 992) and our 
third crew aboard U.S.S. Higgins (DDG 76) in our ongoing Sea Swap 
initiative. This has saved millions of dollars in transit fuel costs 
and increased our forward presence without lengthening deployment times 
for our sailors. Fletcher and Higgins will return to San Diego this 
year after a period of forward deployed operations of 22 months and 17 
months respectively. We will continue to assess their condition and 
deep maintenance needs to develop and apply lessons learned to future 
Sea Swap initiatives.
    <bullet> Selective Reenlistment Bonus (SRB). Targeted bonuses such 
as SRB are critical to our ability to compete for our highly trained 
and talented workforce both within the Navy and with employers across 
the Nation as well. Proper funding, adequate room for growth, and the 
flexible authorities needed to target the right skills against the 
right market forces are important to the shape of the workforce. This 
program specifically targets retention bonuses against the most 
critical skills we need for our future. We ask for your continued 
support and full funding of this program.
    <bullet> Perform to Serve. Last year, we introduced PTS to align 
our Navy personnel inventory and skill sets through a centrally managed 
reenlistment program and instill competition in the retention process. 
The pilot program has proven so successful in steering sailors in 
overmanned ratings into skill areas where they are most needed that the 
program has been expanded. More than 2,400 sailors have been steered to 
undermanned ratings and approved for reenlistment since the program 
began last February and we will continue this effort in 2005.
    <bullet> Assignment Incentive Pay (AIP) is a financial incentive 
designed to attract qualified sailors to a select group of difficult to 
fill duty stations. AIP allows sailors to bid for additional monetary 
compensation in return for service in these locations. An integral part 
of our Sea Warrior effort, AIP will enhance combat readiness by 
permitting market forces to efficiently distribute sailors where they 
are most needed. Since the pilot program began last June, more than 
1,100 AIP bids have been processed resulting in 238 sailors receiving 
bonuses for duty in these demanding billets. We ask for continued 
support of this initiative.
    <bullet> Professional Military Education (PME). We are taking a 
more comprehensive approach to the education of our people than we have 
done in the past. We are in the process of developing a PME continuum 
that integrates general education, traditional Navy-specific PME, and 
Joint PME (JPME) curricula. This will allow us to develop a program 
that fully incorporates all aspects of our professional and personal 
growth and development training needs. Improvements so far include 
establishing networks with civilian educational institutions, 
developing new degree programs, and establishing partnerships with 
other services' institutions. We are also expanding opportunity through 
distance learning and the Internet. We are committed to broadening the 
professional and intellectual horizons of both our officers and our 
enlisted men and women to prepare them to operate tomorrow's fleet and 
assume key naval and joint leadership roles.
    <bullet> The Human Performance Center (HPC) has been established to 
apply Human Performance and Human System Integration principles in the 
research, development and acquisition processes. In short, the HPS will 
help us understand the science of learning. They will ensure training 
is driven by fleet requirements and they will focus requirements on the 
performance needed to carry out our missions. This will eliminate 
potential performance and training deficiencies, save money and help us 
improve our readiness.
    <bullet> The Integrated Learning Environment (ILE) is the heart of 
our revolution in training. ILE is a family of systems that, when 
linked, will provide our sailors with the ability to develop their own 
learning plans, diagnose their strengths and weaknesses, and tailor 
their education to support both personal and professional growth. They 
will manage their career requirements, training and education records. 
It will match content to career requirements so training is delivered 
at the right time. Most importantly, these services will be provided 
anytime, anywhere via the Internet and the Navy-Marine Corps Intranet 
(NMCI).
    We are taking advantage of every opportunity to accelerate the 
tools we need to develop our 21st century workforce. The improvements 
and pilots that Congress has supported--including bonuses, pay table 
adjustments, retirement reforms, better medical benefits, and our Sea 
Warrior initiatives--are having the desired impact.
    Your support of our fiscal year 2005 request for a 3.5 percent 
basic pay raise, for our efforts to transform our manpower structure in 
some fundamental ways, and for a reduction in average out-of-pocket 
housing costs from 3.5 percent to 0 will have a direct effect on our 
ability to properly size and shape the 21st century workforce that is 
our future.
C. Accelerate Our Investment in Sea Power 21
    As I testified last year, Sea Power 21 defines the capabilities and 
processes that the 21st century Navy will deliver. We now have an 
opportunity to accelerate the advantages that our vision for a joint, 
netted, and sea-based force provides this Nation, thanks to the 
tremendous investments that you have made in our battle for people, in 
the quality of service for each of our sailors, and in readiness.
    This year, we will pursue distributed and networked solutions that 
could revolutionize our capability. We will focus on the power of sea 
basing and our complementary capability and alignment with our number 
one joint partner, the U.S. Marine Corps. We will sustain a robust 
science and technology program, and we will exploit investments made in 
joint research and development (R&D) wherever possible.
    For example, we are urgently pursuing technical advances to support 
our sailors, soldiers, airmen, and marines in Iraq. The Naval Sea 
Systems Command and the Office of Naval Research are working closely 
with all Services, government agencies, industry, and academic and 
government laboratories to identify, test, and deploy promising 
technologies that can counter improvised explosive devices (IEDs), 
snipers, suicide bombers, and other force protection threats. We are 
also pursuing other quick-reaction technology initiatives such as 
persistent wide-area surveillance using small UAVs, blue force tracking 
technology, body armor, and extremity protection. We are committed to 
ensuring that the joint force on the ground is as equipped as they 
possibly can be to accomplish their mission.
    Our highest priority programs within each of the core capability 
sets that define our Sea Power 21 vision.
    Sea basing is the projection of operational independence. Our 
future investments will exploit the largest maneuver areas on the face 
of the Earth: the sea. Sea basing serves as the foundation from which 
offensive and defensive fires are projected--making Sea Strike and Sea 
Shield a reality. Sea basing capabilities include, Joint Command and 
Control, Afloat Power Projection and Integrated Joint Logistics.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Our intent is to maximize our sea basing capability and minimize as 
much as possible our reliance on shore-based support nodes. To do this, 
we will make doctrinal, organizational and operational changes mandated 
by this concept and by the underlying technology that makes it 
possible. We have an opportunity here, along with the U.S. Marine Corps 
and the U.S. Army, to reexamine some of the fundamentals of not only 
how we move and stage ground forces, but how we fight ashore as well. 
Our highest priority sea basing investments include:

    <bullet> Surface Combatant Family of Ships. As I have already 
testified, the power of joint forces in OIF was in the synergy of 
individual Service strengths. The same concept holds true within the 
Navy itself. We seek the synergy of networks, sensors, weapons, and 
platforms that will make the joint force greater in combat power than 
the sum of the individual parts. Development of the next generation of 
surface combatants as ``sea frames''--analogous to ``air frames''--that 
are part of a modular system is just such an endeavor.
    The surface combatant family of ships allows us to dramatically 
expand the growth potential of our surface combatants with less 
technical and fiscal risk. To bring these concepts to life and to take 
them--and the fight--to the enemy, we have decided upon three entirely 
new ship classes. The first to premier will be the LCS in 2007. The 
DD(X) will follow in about 2011. Just a few years after the first 
DD(X), the keel will be laid on the first CG(X), the next class of 
cruiser designed from the keel up for theater air and ballistic missile 
defense.
    Our R&D efforts and experimentation with high speed and theater 
support vessels like Swift, and the X-Craft later this year, are 
helping us reduce our technical risk and apply important lessons in 
hull design and mission modularity to the development of the surface 
combatant family of ships. DD(X)is the heart of the family and will 
spiral promising technologies to both CG(X) and LCS in the future. I 
will discuss each one of these ships in more detail below.

    <bullet> CVN 21 is the centerpiece of the Navy CSG of the future. 
It will bring transformational capabilities to the fleet, including a 
new electrical generation and distribution system, the electromagnetic 
aircraft launching system (EMALS), a new/enlarged flight deck, weapons 
and material handling improvements, and a crew reduction of at least 
800 personnel. It will be able to generate higher daily and sustained 
sortie rates than our Nimitz-class aircraft carriers. Our fiscal year 
2005 request of $979 million in R&D and procurement funding continues 
the development of CVN 21 and several critical technologies in the lead 
ship, including the EMALS prototype and testing already ongoing in 
Lakehurst, New Jersey. Construction of the CVN 21 remains on track to 
start in fiscal year 2007.
    <bullet> CVN 70 RCOH. The fiscal year 2005 budget provides advanced 
procurement funds for the U.S.S. Carl Vinson (CVN 70) RCOH, now 
scheduled to begin in fiscal year 2006. CVN 70 has sufficient reactor 
fuel for one additional deployment. This action makes the best possible 
use of Carl Vinson's remaining fuel capacity and improves shipyard work 
loading.
    <bullet> MPF(F). These future Maritime Prepositioning Ships will 
serve a broader operational function than current prepositioned ships, 
creating greatly expanded operational flexibility and effectiveness. We 
envision a force that will enhance the responsiveness of the joint team 
by the at-sea assembly of a Marine Expeditionary Brigade that arrives 
by high-speed airlift or sealift from the United States or forward 
operating locations or bases. These ships will off-load forces, weapons 
and supplies selectively while remaining far over the horizon, and they 
will reconstitute ground maneuver forces aboard ship after completing 
assaults deep inland. They will sustain in-theater logistics, 
communications and medical capabilities for the joint force for 
extended periods as well. Our fiscal year 2005 request accelerates the 
lead MPF(F) from fiscal year 2008 to fiscal year 2007 to reflect our 
emphasis on Sea Basing capabilities.

    Sea Strike is the projection of precise and persistent offensive 
power. The core capabilities include Time Sensitive Strike; ISR; Ship 
to Objective Maneuver; and Electronic Warfare and Information 
Operations.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    We are already investing in impressive programs that will provide 
the capabilities necessary to support Sea Strike; these include the 
following fiscal year 2005 priorities:
    <bullet> DD(X). The technology engine for the fleet, DD(X) is the 
centerpiece of a surface combatant family of ships and will deliver a 
broad range of capabilities. This advanced multi-mission destroyer will 
bring revolutionary improvements to precise, time-critical strike and 
joint fires and our Expeditionary Strike Groups of the future.
    Transformational and leap ahead technologies include an electric 
drive and integrated power system; an advanced gun system (AGS) with 
the high rate of fire and precision to reach almost 8 times farther and 
command more than 110 times the area of our current five inch 
capability; the new Multi-Function Radar/Volume Search Radar suite; 
optimal manning through advanced system automation, stealth through 
reduced acoustic, magnetic, infrared, and radar cross-section 
signature; and enhanced survivability through automated damage control 
and fire protection systems. DD(X) is an enabler both technically and 
operationally. This seaframe will also reduce our seagoing manpower 
requirements and will lower total ownership costs.
    This program will provide a baseline for spiral development of 
technology and engineering to support a range of future seaframes such 
as CG(X). It will also enable the transformation of our operations 
ashore. Imagine an Army or Marine rifleman on the ground and Navy petty 
officer at sea looking at the same real-time picture of enemy troops 
encamped at a municipal airport. With the push of a button, the 
rifleman sends targeting coordinates to the petty officer in a DD(X) 
more than 50 miles offshore. Within a few minutes, rounds from the AGS 
start falling on the airport with incredible accuracy. That kind of on-
demand, persistent time-critical strike will revolutionize our joint 
fire support and ground maneuver concepts of operation and it will free 
our strike fighter aircraft for more difficult targets at much greater 
ranges.
    DD(X)'s all-electric drive, called the Integrated Power System 
(IPS), will not only drive the ship through the water, but will also 
generate the kind of power capacity that will enable eventual 
replacement of the AGS. When combined with the physical capacity and 
volume of the hull form, DD(X) could lead us to revolutionary 
technologies from the naval research enterprise like the 
electromagnetic rail gun and directed energy weapons. The fact that 
rail guns do not require any explosives will free up magazine space for 
other mission areas. This capability is projected to be a reality in 
the 2015 to 2018 timeframe. DD(X) will be in service for decades after 
that; having the kind of growth potential to install those kinds of 
technologies dramatically lowers our future development costs.
    The funding profile for DD(X) supports the 14,000-ton design and 
the S-Band Volume Search Radar (VSR). Lead ship detail design and 
construction are planned to start in fiscal year 2005.

    <bullet> JSF. The JSF will enhance our Navy precision with 
unprecedented stealth and range as part of the family of tri-Service, 
next-generation strike aircraft. It will maximize commonality and 
technological superiority while minimizing life cycle cost. The JSF has 
just completed the second year of a 10-11 year development program, and 
is experiencing a variety of typical challenges that affect System 
Development and Demonstration (SDD) program schedule and cost. 
Additional design work is required to address technical issues, 
primarily weight projections. The budget therefore realigns $5 billion 
from procurement appropriations in fiscal year 2005 through fiscal year 
2009, and Low Rate Initial Production (LRIP) was deferred 1 year to 
fiscal year 2007. The JSF remains vital to our future. It will give us 
the range, persistence and survivability needed to keep our strike 
fighters viable for years to come.
    <bullet> SSGN. Funding is included in fiscal year 2005 to continue 
the SSGN conversion program. Our future SSGN capability will provide 
covert conventional strike platforms capable of carrying 150 Tomahawk 
missiles. The SSGN will also have the capacity and capability to 
support SOF for an extended period, providing clandestine insertion and 
retrieval by lockout chamber, dry deck shelters or the Advanced Seal 
Delivery System (ASDS), and they will be arrayed with a variety of 
unmanned vehicles to enhance the Joint Forces Commander's knowledge of 
the battlespace. The inherently large capacity of these hulls will 
enable us to leverage future payloads and sensors for years to come. We 
still expect our first SSGN to be operational in 2007.
    <bullet> EA-18G. Last year, you initiated funding at our request to 
replace the aging EA-6B Prowler with the EA-18G AEA aircraft. Increased 
EA-6B usage in 2003 has resulted in wing center section or outer wing 
panel fatigue for some 43 EA-6B aircraft, making your support last year 
critical to our ability to dramatically accelerate the recapitalization 
of the Nation's only joint electronic attack capability. Using the 
demonstrated growth capacity of the F/A-18E/F, the EA-18G will quickly 
recapitalize our electronic attack capability at lower procurement 
cost, with significant savings in operating and support costs; all 
while providing the growth potential for future electronic warfare 
system improvements. It will use the Improved Capability Three (ICAP 
III) receiver suite and provide selective reactive jamming capability 
to the warfighter. This will both improve the lethality of the air wing 
and enhance the commonality of aircraft on the carrier deck. We begin 
purchasing airframes in fiscal year 2006 and will achieve initial 
operating capability in 2009.
    Sea Shield is the projection of layered, global defensive power.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Sea Shield will enhance deterrence and warfighting power by way of 
real-time integration with joint and coalition forces, high speed 
littoral attack platforms setting and exploiting widely distributed 
sensors, and the direct projection of defensive power in the littoral 
and deep inland. Sea Shield capabilities include: homeland defense, sea 
and littoral control, and theater air and missile defense. Our highest 
priority Sea Shield programs this year include:
    <bullet> Mine Warfare Programs. We intend to field a set of 
unmanned, modular mine countermeasure (MCM) systems employable from a 
variety of host platforms or shore sites to minimize our risk from 
mines and sustain our national economic and military access to every 
corner of the globe. Our future MCM capability will be faster, more 
precise and organic to both Expeditionary and Carrier Strike Groups and 
will ultimately remove both the man and our mammals from the minefield. 
Within the FYDP, we expect to reduce the time that it takes to render 
sea mining ineffective by at least half of the time that it takes us 
today.
    Our fiscal year 2005 budget request includes funding to realize 
organic mine warfare capabilities in one Strike Group this year, while 
maintaining the funding necessary for a potent and dedicated MCM force. 
We have also requested an increase of $167 million across the FYDP for 
mine warfare programs, to include unmanned vehicles such as the Long-
Term Mine Reconnaissance System (LMRS) to provide a clandestine mine 
reconnaissance capability from our Los Angeles-class submarines, and 
the Remote Minehunting System on Arleigh Burke-class destroyers (DDGs 
91-96). Both of these programs are scheduled to reach initial operating 
capability (IOC) milestones this year. Future introduction of the LCS 
with mine warfare mission modules will improve the ability of Strike 
Groups to neutralize mine threats in parallel with--not in sequence 
before--other operations.
    <bullet> Littoral Combat Ship. The role of LCS is to provide access 
to joint forces in the littorals; a capability gap we identified as a 
result of the 2001 Quadrennial Defense Review. During the past year and 
a half, considerable campaign analysis and fleet battle experiments 
have demonstrated that naval forces need better ways to fight mines; 
small, fast, highly armed boats; and quiet diesel and advanced air-
independent propulsion submarines operating in shallow waters. The 
performance of U.S. Navy Patrol Craft and the experimental HSV-X1 Joint 
Venture in the Iraqi littoral was critical to the early detection and 
destruction of the Iraqi mine threat. The same kind of capability needs 
to be delivered in a fast, maneuverable, shallow-draft platform that 
has the survivability to operate independently. LCS will have these 
characteristics, along with self-defense, navigation, and command-and-
control systems.
    LCS will be built from the keel up to be a part of a netted and 
distributed force, and will be the first ship designed with FORCEnet as 
a requirement. The main battery of LCS will be its off-board systems: 
manned helicopters and unmanned aerial, surface and underwater 
vehicles. It is the off-board vehicles--with both sensors and weapons--
that will enter the highest threat areas. Its modular design, built to 
open-systems architecture standards, provides flexibility and a means 
to rapidly reconfigure mission modules and payloads. As technology 
matures, the Navy will not have to buy a new LCS platform, but will 
upgrade the mission modules or the unmanned systems.
    LCS also will have an advanced hull design and be significantly 
different from any warship that has been built for the U.S. Navy. 
Detail design and construction of the first LCS Flight 0 ship is 
planned in fiscal year 2005. The LCS requirements process is tailored 
to support the rapid delivery of two flights (Flight 0 and 1) of ships, 
using an evolutionary, ``spiral'' acquisition approach. The spiral 
development process allows time-phased capability improvement for ship 
and mission systems. This incremental development and delivery strategy 
supports the ship's accelerated acquisition schedule, diverse threat 
and capability requirements, and dynamic levels of technology push/
pull. The ship's modular, open design will also enable lifecycle 
adaptability and affordability. Four LCSs have been added since last 
year's budget plan was submitted.
    <bullet> Missile Defense. Our Navy is poised to contribute 
significantly in fielding initial sea based missile defense 
capabilities to meet the near-term ballistic missile threat to our 
homeland, our deployed forces, and our friends and allies. We are 
working closely under the authority of the Missile Defense Agency (MDA) 
to deliver this much-needed capability to the Nation's combatant 
commanders. Our sea-based missile defense programs experienced 
tremendous success on the test range this year, scoring two of three 
intercepts. Continued development and testing will support initial 
defensive operations beginning in the fall of 2004, with select Arleigh 
Burke-class destroyers providing long range surveillance and tracking 
to the Nation's capability late this year.
    <bullet> MMA--Broad Area Maritime Surveillance (BAMS). We 
significantly increased this year's R&D funding for the MMA to 
recapitalize our 1950s-era Lockheed ``Electra'' based P-3 force. Our 
acquisition plan was further refined this past year with the 
integration of the BAMS-UAV program into the overarching Maritime 
Patrol and Armed Reconnaissance requirement. This lethal combination of 
manned and unmanned reconnaissance aircraft will recapitalize our 
maritime patrol anti-submarine warfare, anti-surface warfare and armed 
ISR capability. We also developed a robust sustainment plan for the 
current P-3 fleet that includes special structural inspections (SSI) 
and kits that extend P-3 service lives by a minimum of 5,000 hours. 
This SSI program will replace, correct or modify our current P-3 force 
to ensure that they do not prematurely reach the end of their fatigue 
life before we achieve IOC of the MMA in 2013.
    <bullet> Virginia-class submarine (SSN-774). The first ship of this 
class was christened this year and will commission in 2004. This class 
will replace Los Angeles-class (SSN-688) attack submarines and will 
incorporate new capabilities, including unmanned vehicles, and the 
ability to support SOF. It will be an integral part of the joint, 
networked, dispersed 21st century fleet. Our fiscal year 2004 budget 
funded the first of five submarines under the MYP contract authorized 
by Congress last year. The second submarine of the MYP contract is 
funded in fiscal year 2005. Approximately $240 million in economic 
order quantity advance procurement is funded in fiscal year 2005 in 
support of this contract.
    <bullet> CG Modernization. Funding for the Ticonderoga-class 
cruiser modernization continues in fiscal year 2005. The Cruiser 
Modernization Program is a mid-life upgrade for our existing Aegis 
cruisers that will ensure modern, relevant combat capability well into 
this century and against evolving threats. These warships will provide 
enhanced area air defense to the Joint Forces Commander. These 
modifications include installations of the Cooperative Engagement 
Capability, which enhances and leverages the air defense capability of 
these ships, and an antisubmarine warfare (ASW) improvement package. 
These converted cruisers could also be available for integration into 
ballistic missile defense missions when that capability matures. Our 
first cruiser modernization begins in fiscal year 2006.
    FORCEnet is the operational construct and architectural framework 
for naval warfare in the joint, information age. It will allow systems, 
functions, and missions to be aligned in a way that will transform our 
situational awareness, accelerate speed of decisions and allow naval 
forces to greatly distribute its combat power in a unified, joint 
battlespace. FORCEnet provides the world-class information and 
technology (IT) tools that we need to continue to be the world-class 
Navy.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Programs that will enable the future force to be more networked, 
highly adaptive, human-centric, integrated, and enhance speed of 
command include:
    <bullet> Navy Marine Corps Intranet. NMCI is operational and 
providing commercial IT services for more than 300,000 Navy employees 
and two combatant commanders. This initiative, as part of our FORCEnet 
strategy, is providing a single, secure shore-based network and will 
link with our tactical networks to provide end-to-end collaboration 
within the Navy and across the joint community. fiscal year 2005 
funding of $1.6 billion provides for NMCI operations and, at the same 
time, continues transition of the remaining legacy IT networks to NMCI 
enterprise network services. This past year, with the help of the 
authorizing language you provided, the NMCI program finalized a full 
partnership agreement with the Defense Information Systems Agency 
(DISA) for operations and provisioning.
    <bullet> Mobile User Objective System (MUOS). The new MUOS 
Satellite Communications (SATCOM) program will increase DOD narrowband 
ultra-high frequency (UHF) SATCOM capacity by roughly 1,300 percent 
over current capabilities. MUOS is a $6.4 billion joint interest 
program, and it supports a particularly important ``Comms-on-the-Move'' 
capability for handheld terminals, aircraft, missiles, and UAVs in 
urban and heavily wooded terrain. We plan to reach the initial 
operational capability (IOC) milestone in 2009, with full operational 
capability in 2013.
    <bullet> Joint Aerial Common Sensor (JACS). We have partnered with 
the Army in the JACS development program in our pursuit of a 
replacement for the aging EP-3 airborne information warfare and 
tactical signals intelligence (SIGINT) aircraft. JACS will provide 
multi-intelligence strike targeting data and Signals Intelligence 
capabilities, and will include a Synthetic Aperture Radar, Ground 
Moving Target Indicator, electro-optical and infrared sights, and 
measurements and signature capabilities. These will be coupled with 
automatic/manual data fusion. Our fiscal year 2005 request includes $25 
million for this program.
    <bullet> Joint Tactical Radio System (JTRS). JTRS will be the 
wireless ``last tactical mile'' component of the Global Information 
Grid (GIG) and will transform Navy's tactical communications systems by 
incorporating Internet Protocol (IP) communications over multi-spectral 
radio frequency (RF) media. JTRS is a software programmable, multi-
band, multi-mode family of net-workable radios, capable of simultaneous 
voice, data, video communications and mobile ad hoc networking. Our 
fiscal year 2005 request includes $56 million for JTRS.
    <bullet> Deployable Joint Command Control System (DJC2). DJC2 is 
the priority command and control (C2) transformation initiative. DJC2 
will provide a standing, fully deployable, scaleable, and standardized 
C2 capability to the regional combatant commanders (RCC) and Joint 
Force Commanders. DJC2 responds to the need for joint, deployable C2 
capability, with first RCC delivery to Pacific Command (PACOM) in 
fiscal year 2005. DJC2 is an enabler for the Standing Joint Force 
Headquarters concept being developed by Joint Forces Command (JFCOM). 
The Navy is lead component for the acquisition program, and we ask your 
support for the $81 million we've requested in fiscal year 2005.
D. Improving Effectiveness
    As I have testified, your Navy today is the most capable and most 
ready Navy in our history, thanks in large part to the support of 
Congress and of the American people. But, I believe that we can do 
better--that, in fact, we must do better--as stewards of the public 
trust in determining not just how much we should spend on programs, but 
how those defense dollars are spent. This is especially true today 
because of the strategic challenges posed by the ongoing global war on 
terrorism, because of our need to recapitalize aging, Cold War-era 
infrastructure and capability, and because of the burgeoning 
technological and operational changes that will dramatically alter the 
way we fight. Revolutionizing the way in which our defense dollars are 
spent presents opportunities to increase our effectiveness, both now 
and in the future.
    Sea Enterprise is focusing headquarters leadership on outputs and 
execution, and is creating ideas that will improve our productivity and 
reduce our overhead costs. Its key objectives are to:

        <bullet> Leverage technology to improve performance and 
        minimize manpower costs;
        <bullet> Promote competition and reward innovation and 
        efficiency;
        <bullet> Challenge institutional encumbrances that impede 
        creativity and boldness in innovation;
        <bullet> Aggressively divest non-core, underperforming or 
        unnecessary products, services and production capacity;
        <bullet> Merge redundant efforts;
        <bullet> Minimize acquisition and life-cycle costs;
        <bullet> Maximize in-service capital equipment utilization; and
        <bullet> Challenge every assumption, cost, and requirement.

    Department of the Navy senior leadership is actively engaged in 
tracking the execution of ongoing Sea Enterprise initiatives totaling 
approximately $40 billion, and identifying $12.4 billion in cost 
savings and requirements mitigation across the FYDP. We are committed 
to efficiency and productivity improvements that will generate the 
savings necessary to augment our investment stream and implement our 
Sea Power 21 vision--delivering the right force, with the right 
readiness, at the right cost. Specific highlights of these fiscal 
transformation initiatives include:

    <bullet> Right Readiness. Along with the FRP, we have also 
initiated processes ashore that will generate a more effective force. 
As just one example, we have established a single shore installation 
management organization, Commander, Navy Installations (CNI), to 
globally manage all shore installations, promote ``best practices'' 
development, and provide economies of scale, increased efficiency, 
standardization of polices, and improved budgeting and funding 
execution. This initiative is anticipated to save approximately $1.2 
billion across the FYDP.
    <bullet> Right Cost. We have taken a hard look at our ``level of 
effort'' programs to maximize return on taxpayer investment. This 
year's effort generated $2 billion in future savings in programs not 
supported by specific performance metrics in force structure, readiness 
or cost benefit. In addition, we focused on streamlining our 
organizations and processes as a means to harvest efficiencies and 
control costs. Innovative programs like Shipmain and the Naval Aviation 
Readiness Integrated Improvement Program are aiding in developing and 
sharing best practices, streamlining maintenance planning and improving 
performance goals in shipyards, aviation depots, and intermediate 
maintenance activities. We also reorganized the Navy Supply Systems 
Command, including the establishment of the Naval Operational Logistics 
Support Center to consolidate transportation, ammunition and petroleum 
management. We will continue to look for additional opportunities in 
this area while leveraging the gains already made.
    <bullet> Right Force. We believe transformation to our future force 
must include improving our buying power. To improve upon our force 
structure, we are divesting non-core, redundant, underperforming, and 
outdated products and services. We are using multi-year procurement 
contracts and focusing where possible on economic order quantity 
purchase practices to optimize our investments. An excellent example 
lies in the F/A-18E/F multi-year procurement contract that anticipates 
procurement of 210 aircraft while saving us in excess of $1.1 billion 
across the FYDP. We also recognize the need to transform our single 
greatest asymmetric advantage, our people. The upcoming year will focus 
on ensuring we not only have the right number, but the right mix of 
military, civilian, and contractor personnel to accomplish the mission 
at the lowest possible cost. You have given us a tremendous tool to 
enhance our flexibility in this area, the NSPS, and we plan to take 
full advantage of it.
    Building on prior efforts, I am dedicating a significant amount of 
personal time to conducting execution reviews with leadership at the 
major commands across the Navy because, as I see it, leadership 
engagement in execution is an essential step to achieving our Sea 
Enterprise objectives. These reviews have provided me the opportunity 
to focus on the intricate details of the organizations while ensuring 
commanders are aligned with the vision and direction in which we are 
steaming. We focus on ways to swiftly move from strategy to 
implementation, as well as innovative ways to reduce costs and return 
resources to the enterprise for reinvestment.
    In 2005, the Navy will continue to pursue product and process 
efficiencies and the opportunities to be more effective while improving 
our warfighting capability. Harvesting the savings for recapitalization 
is a vital part of that effort, and we will continue to balance the 
benefits of new productivity initiatives against operational risks. Our 
intent is to foster a culture of continuous process improvement, reduce 
overhead, and deliver the right force structure both now and in the 
future.
                             iv. conclusion
    For us, winning the global war on terrorism remains our number one 
objective--and victory is the only acceptable outcome. To achieve this, 
we are accelerating the advantages we bring to the Nation.
    The FRP will improve upon the operational availability of fleet 
units, providing forward deployed forces for enhanced regional 
deterrence and contingency response, while at the same time, retaining 
the ability to rapidly surge in times of crisis.
    We are investing in enhanced warfighting capability for the joint 
force, using the extended reach of naval weapons and sensors to reach 
farther and more precisely with striking power, and deliver broader 
defensive protection for joint forces ashore and fully leverage our 
command of the sea.
    We are creating a personnel environment that attracts, retains, and 
relies upon creative, effective, and competitive people. We are 
investing in the tools, the information technology, and the training 
that delivers more meaningful job content to them because it is they 
who offer us our greatest advantage.
    The support of Congress is vital to our readiness today and to 
building the Navy of tomorrow--I thank you for your dedicated efforts 
and support.

    Chairman Warner. Thank you very much, Admiral. I felt it 
important to pose that question at this particular time because 
we are very proud in this Nation of civilian control of the 
military. Nevertheless, those in the ranks look up and they see 
you as Chief of Naval Operations (CNO) and they repose in you 
and the other chiefs a very special trust and confidence. That 
statement that you just made will resonate throughout the Armed 
Forces of the United States.
    Thank you.
    General Hagee.

  STATEMENT OF GEN. MICHAEL W. HAGEE, USMC, COMMANDANT OF THE 
                          MARINE CORPS

    General Hagee. Thank you. Mr. Chairman, Senator Levin, 
distinguished members of the committee: It is my privilege to 
report to you that your marines, active and Reserve, are well 
trained, well equipped, highly motivated, and they are ready. 
As Senator Lieberman so beautifully articulated, their families 
are behind them.
    Your support, and that of the American people, is critical 
and deeply appreciated. Your sustained commitment to improving 
our Nation's Armed Forces to meet the challenges of today as 
well as those of the future is vital to our Nation's security.
    Mr. Chairman, in answer to your question, I was in sort of 
a unique position over the last couple of years, two positions 
actually. Before becoming Commandant of the Marine Corps, I was 
the Commanding General of the First Marine Expeditionary Force 
(MEF). That, of course, was the force that fought up on the 
right flank in Iraq. In that role I was very involved in the 
planning of that particular operation. I can tell you, sir, 
that based on the intelligence that I had received from 
throughout the Intelligence Community and the analysis of our 
own internal intelligence individuals, I was absolutely 
convinced that Saddam Hussein had chemical weapons, if not 
biological weapons, and that he would use them when we crossed 
the line of departure.
    We prepared those marines for that contingency. We went to 
great lengths to secure the Saratoga suits. We went to great 
lengths to ensure they all had protective masks and the 
appropriate number of filters. We had both chemical and 
biological detection devices, devices that we did not normally 
have in the Marine Corps, brought in for that contingency.
    I took over as Commandant of the Marine Corps on January 13 
of last year. The intelligence that I saw once I came back here 
to Washington convinced me that I was correct in my analysis. 
When we crossed the line of departure last March, I was still 
convinced that he was going to use chemical weapons on our 
marines and our soldiers. In that particular stance, I am happy 
that I was wrong on that.
    But looking back on the intelligence that we had at that 
particular time, there is nothing different that I would do, 
even having perfect vision looking back.
    Sir, the Marine Corps' first priority is and will continue 
to be warfighting readiness and excellence in support of our 
Nation. In the near term, the Marine Corps is focused on 
readiness to provide expeditionary forces that meet our 
Nation's demanding needs. For the long term, the Marine Corps 
and the Navy are committed to developing a sea basing 
capability that will provide a critical joint competency for 
assuring access and projecting power from the sea worldwide.
    During this past year, your marines, both active and 
Reserve, were engaged in operations in support of the global 
war on terrorism from Afghanistan to the Horn of Africa to 
Liberia. Highlighting the value of our expeditionary 
capability, in OIF we deployed a combat-ready sustainable force 
of almost 70,000 marines and sailors in less than 60 days.
    We are now preparing to deploy forces to relieve Army units 
in western Iraq in support of OIF 2. Beginning this month, we 
will deploy approximately 25,000 marines into Iraq. In our 
preparations we are working closely with Army forces in and 
outside concerning equipment, tactics, techniques, and 
procedures. We are also drawing on analysis of our experiences 
last year in southern Iraq, the tactics of the British, and our 
own extensive small wars experience.
    Before we deploy, we are conducting rigorous urban 
operations training and language and cultural education. We are 
paying particular attention to individual and vehicle 
protective equipment enhancements and procedures. We are also 
continuing to improve our warfighting capabilities by 
leveraging advancements in technology, developing innovative 
organizations, and improving our joint training. Currently the 
First Expeditionary Strike Group, which combines the 
capabilities of essentially a surface action group, submarine 
and maritime patrol aircraft, with those of an amphibious ready 
group and a Marine expeditionary unit, special operations 
capable, is returning from its deployment to the U.S. Central 
Command (CENTCOM) area of responsibility (AOR).
    We are combining our analysis of OEF and OIF with the 
lessons from this initial deployment in order to enhance our 
adaptability, flexibility, and lethality. In addition, naval 
tactical air (TACAIR) integration continues to be implemented 
and we are aggressively improving our interoperability with 
special operations forces.
    Our top ground and aviation programs are adequately funded. 
The introduction of new systems such as the MV-22 Osprey, the 
Expeditionary Fighting Vehicle, the JSF, the Lightweight 155 
Howitzer, the Four-Bladed Cobra and Huey Upgrade Helicopters, 
and the High Mobility Artillery Rocket System into our force 
structure will significantly increase our speed, flexibility, 
and our overall expeditionary and amphibious warfighting 
capabilities.
    In planning for the future uncertainties, the Secretary of 
the Navy, the CNO, and I are committed to developing a sea 
basing capability that will provide a critical joint competency 
for assuring access and projecting power that will greatly 
improve the Nation's security. Sea basing in the future will 
assure joint access by capitalizing on the dilemma created by 
the operational maneuver of forces from the sea. The 
replacement ships for the amphibious assault ships (LHA) class 
are an essential part of our concept of joint sea basing.
    Mr. Chairman, lastly I would like to emphasize the 
magnificent performance of your individual marines, the most 
agile and lethal weapon system we possess.
    On behalf of all marines, I thank this committee for your 
steadfast support and I look forward to your questions.
    [The prepared statement of General Hagee follows:]
           Prepared Statement by Gen. Michael W. Hagee, USMC
    Chairman Warner, Senator Levin, distinguished members of the 
committee; it is my honor to report to you on the state of readiness of 
your United States Marine Corps. Your marines are firmly committed to 
warfighting excellence, and the support of Congress and the American 
people has been indispensable to our success in the global war on 
terrorism. Your sustained commitment to improving our Nation's Armed 
Forces to meet the challenges of today as well as those of the future 
is vital to the security of our Nation. On behalf of all marines and 
their families, I thank this committee for your continued support.
                            i. introduction
    In the near-term, the Marine Corps' top priorities are to maintain 
our high state of readiness and to provide capable forces that meet the 
demanding needs of the unified combatant commanders in order to 
prosecute the global war on terrorism in support of the Nation. For the 
long-term, the Marine Corps and Navy are committed to developing a sea 
basing capability that will provide a critical joint competency for 
assuring access and projecting power that will greatly improve the 
security of the United States. The marked increase in our warfighting 
capability will be apparent as we introduce new systems such as the MV-
22 Osprey, the Expeditionary Fighting Vehicle (EFV), the Joint Strike 
Fighter (JSF), and the Lightweight 155mm Howitzer into our force 
structure, using them to enhance the already potent combat power of our 
Marine Air-Ground Task Forces (MAGTFs) as integral elements of our 
Nation's joint force.
    The Navy-Marine Corps team continues to play a critical role in the 
global war on terrorism and in the establishment of stability and 
security throughout the world. During this past year, the Marine Corps, 
both active and Reserve, was engaged in operations from Afghanistan to 
the Arabian Gulf, the Horn of Africa, Liberia, the Georgian Republic, 
Colombia, Guantanamo Bay, and the Philippines. Most prominent in 
highlighting the value and power of the Nation's naval expeditionary 
capability was the Marine Corps' participation in Operation Iraqi 
Freedom (OIF). Success in this operation underscored the unique 
contributions of our multi-dimensional naval dominance, our 
expeditionary nature, our flexibility to deal with complex situations 
and challenges, and the adaptability of our forces and individuals in 
order to defeat the challenges posed by adaptive, asymmetric enemies, 
and long-term threats.
    Early last year, the I Marine Expeditionary Force (MEF) deployed a 
combat ready force of almost 70,000 marines and sailors in less than 60 
days using the full array of our complementary power projection 
capabilities. Forward deployed Marine Expeditionary Units (MEUs) 
(Special Operations Capable) again demonstrated their proven value for 
immediate response. Eleven strategically located Maritime Prepositioned 
Force ships were unloaded in 16 days to provide the equipment and 
sustainment for two Marine Expeditionary Brigades. A 7 ship amphibious 
force from each coast embarked a total of 11,500 marines, sailors, and 
their equipment and within 30 days these 14 ships began to arrive and 
offload in Kuwait. Strategic sea and air lift was also vital to our 
success in this effort. Exploiting the operational speed, reach, and 
inherent flexibility of seapower, the Navy-Marine Corps team achieved a 
rapid buildup of sustained warfighting power that was combat ready to 
support U.S. Central Command (CENTCOM) on March 1, 2003.
    Closely integrated with our joint and coalition partners, as well 
as Special Operations Forces (SOF), the I MEF provided the combatant 
commander with a potent combined arms force comprising a balance of 
ground, aviation, and combat service support elements all coordinated 
by a dynamic command element. This teamwork--the product of demanding 
and realistic Service and joint training--presented a multi-dimensional 
dilemma for the Iraqi regime's forces and loyalists. It also greatly 
increased the range of options available to our leadership as they 
addressed each unique and complex situation. The integration of the 1st 
United Kingdom Division within the I MEF provides outstanding lessons 
for achieving merged coalition capabilities and consistent goals in the 
future.
    The combat power of I MEF generated an operational tempo that our 
enemy could not match. With short notice that operations would commence 
early, the marines and their joint and coalition partners rapidly 
secured key strategic objectives. The I MEF then engaged in 26 days of 
sustained combat operations. Using the tenets of maneuver warfare, they 
executed four major river crossings, fought 10 major engagements, and 
destroyed 8 Iraqi divisions before stopping in Tikrit--almost 500 miles 
inland. In support of Joint Special Operations Forces Northern Iraq, 
the 26th MEU inserted a MAGTF from the Eastern Mediterranean into 
Northern Iraq--almost 1,200 miles distance. The sustained resources of 
the Marine Force, which were derived primarily from our seaborne 
logistics, provided us unrivaled advantages. While our logistics were 
stretched by the operational commanders, our combat service support 
units demonstrated flexibility and resourcefulness.
    Highlighting the expeditionary mindset of marines, our combined 
arms force successfully operated in desert, urban, swamp, and rural 
environments while effectively conducting combat, peacekeeping, and 
humanitarian operations--at times simultaneously. Marines also 
demonstrated the ability to re-task and reorganize to conduct 
unanticipated missions like the taking of the city of Tikrit. Following 
major combat operations, I MEF assumed responsibility for security and 
stability in five Central Iraq provinces until they were relieved of 
the last province by coalition forces this past September. Flexibility 
and adaptability are key characteristics of an expeditionary force, and 
they are critical advantages that we must seek to optimize for the 
future, particularly in this era of global uncertainty.
    Recent operations also emphasize the increased importance of access 
to key regions for projecting our Nation's power. With global 
interests, the United States must retain the capability to secure 
access as needed. Power projection from the sea greatly increases the 
range of options available to avert or resolve conflicts. A credible 
naval forcible-entry capability is critical to ensure that we are never 
barred from a vital national objective or limited to suboptimal 
alternatives.
    Since the end of major combat operations, the Marine Corps has been 
setting the force in order to enhance warfighting readiness for future 
contingencies. We are reloading combat equipment and materiel on the 
ships of the Maritime Prepositioned Squadrons while also ensuring that 
the requirements for OIF 2 are fulfilled. We are using provided funding 
to repair, refurbish, and where necessary, replace equipment. During 
this period, marines have continued to forward deploy. Marine Corps 
units are supporting Operation Enduring Freedom (OEF) in Afghanistan, 
operations in the Horn of Africa, exercises critical to supporting the 
Combatant Commanders' Theater Security Cooperation Plans, and 
counterdrug operations in support of joint and joint-interagency task 
forces. In addition, we have conducted a major program to identify and 
analyze lessons learned from the Iraqi campaign. We have also begun to 
assimilate these lessons and determine where and how our force should 
be rebalanced.
    As the last few years have demonstrated, the Marine Corps Reserve 
is a full partner in our total force. Reserve units participated in all 
aspects of the war in Iraq, providing air, ground, and combat service 
support as well as a large number of individual augmentees to marine 
and joint staffs. Mobilized Marine Reserve infantry battalions have 
also served as ready reaction forces, ``on call'' to support the 
Federal Emergency Management Agency's (FEMA) role in homeland security.
            ii. building on success for immediate operations
    We continue to execute global operations and exercises with our 
joint and coalition partners. The Marine Corps is preparing to deploy 
forces to relieve the 3d Armored Cavalry Regiment and the 82d Airborne 
Division in Western Iraq in support of OIF 2. These forces will be 
deployed in two rotations of 7 months each. This rotation policy will 
result in the least disruption for the long-term health of the Marine 
Corps, precluding stop-loss/stop-move and unnecessary interruptions in 
recruit training, career progression and development, professional 
military education, and other deployment requirements. The first 
rotation, from March until September 2004, will include 25,000 marines 
and their equipment and includes almost 3,000 Reserve component 
marines. A second rotation--of like size and composition--will overlap 
the first and ensure a smooth and stable transition.
    In preparation for OIF 2, I MEF has analyzed lessons learned from 
their experiences in conducting security and stability operations from 
March to September 2003, and recent Army lessons learned. As they did 
last year, I MEF is working closely with the Army Forces in Iraq; they 
have conducted a number of liaison visits with the Army units they will 
relieve. They have drawn from procedures used by the Los Angeles Police 
Department for neighborhood patrolling in gang dominated areas, the 
tactics of the British in Iraq--which reflect years of experience in 
low intensity conflicts and peacekeeping operations, as well as the 
Marine Corps' own extensive ``Small Wars'' experience. We have 
assimilated these lessons through a comprehensive training package that 
includes tactics, techniques, procedures for stability and counter-
insurgency operations. We have conducted rigorous urban operations 
training and exercises. Over 400 marines are receiving Arabic language 
immersion training, and all deploying marines and sailors are receiving 
extensive cultural education. Our supporting establishment is focused 
on the equipment, logistics, and training requirements of this force--
paying particular attention to individual protective equipment, 
enhanced vehicle and aircraft hardening, and aviation survival 
equipment and procedures. This training and support are critically 
important as we send marines back to war in a volatile, dangerous, and 
changing situation.
    During this next year MEUs will still deploy as part of Naval 
Expeditionary Strike Groups in support of combatant commander 
requirements. Units will continue to rotate to Okinawa and Iwakuni 
Japan, and some of those forces will further deploy in support of OIF 
2. While the operational tempo (OPTEMPO) remains high, recruiting and 
retention continue to exceed our goals. We are monitoring the health of 
our Service, and we are focused on ensuring that the Marine Corps 
remains ready for all current and future responsibilities.
                      iii. taking care of our own
    Events of the past year continue to highlight the value of the 
individual marine over all other weapon ``systems.'' While we always 
strive to provide our marines with the best equipment and weapons, we 
never forget that people and leadership are the foundations of the 
Marine Corps' readiness and warfighting capabilities. OIF demonstrated 
that the Marine Corps' recruiting, training, and education of the force 
are extremely successful in maintaining the high standards of military 
readiness our Nation requires. The Marine Corps remains committed to 
taking care of our marines, their families, and our civilian marines.
Marines
    End Strength
    The Marine Corps is assimilating the congressionally authorized 
increase in Marine Corps end strength to 175,000. The increase of 2,400 
marines previously authorized by Congress addressed an urgent need to 
train and maintain enough marines for the long-term requirements 
associated with the global war on terrorism. It has been particularly 
important in enabling us to provide the Nation with a robust, scalable 
force option specifically dedicated to antiterrorism--the 4th Marine 
Expeditionary Brigade (Antiterrorism).
    The Marine Corps is expeditionary by nature and therefore 
accustomed to deploying in support of contingency and forward presence 
missions. We are structured in such a way as to satisfy our enduring 
requirements and meet operational contingencies as long as the 
contingencies are temporary in nature. While the force is stretched, we 
are meeting our current challenging operational commitments. Our high 
operational and personnel tempos have not negatively impacted 
accessions or retention efforts; however, we continue to monitor both 
very closely.
    Recruiting
    Sustaining our ranks with the highest quality young men and women 
is the mission of the Marine Corps Recruiting Command. Recruiting 
Command has consistently accomplished this mission for more than 8 
years for enlisted recruiting and 13 years for officer recruiting. This 
past year the Marine Corps recruited over 100 percent of its goal with 
over 97 percent Tier I High School graduates. In order to continue 
attracting America's finest youth, Recruiting Command provides its 
recruiters the best tools available to accomplish their mission.
    The Marine Corps Reserve achieved its fiscal year 2003 recruiting 
goals with the accession of 6,174 non-prior service marines and 2,663 
prior service marines. With regard to our Reserve component, officer 
recruiting and retention to fill out the requirements of our Selected 
Marine Corps Reserve (SMCR) units remains our most challenging concern. 
This is primarily due to the fact that we recruit Reserve officers 
almost exclusively from the ranks of those who have first served a tour 
as an active duty marine officer and currently the Corps is 
experiencing a low attrition rate for company grade officers in our 
Active Force. We are attempting to alleviate this challenge. Two 
successful methods include increasing awareness of the benefits of 
service in the Reserves to the company grade officers who are leaving 
the active ranks and Reserve officer programs for qualified enlisted 
marines.
    Retention
    Retaining the best and the brightest marines is a constant goal; 
history has proven that superb leadership in the staff noncommissioned 
officer ranks is a major contributor to the Corps' combat 
effectiveness. The ranks of this elite group of leaders can only be 
filled by retaining our best enlisted marines. The Marine Corps has two 
retention measures and both clearly indicate healthy service 
continuation rates. Our First Term Alignment Plan (first tour) has 
consistently achieved its reenlistment requirements over the past 9 
years. With just over one-third of the current fiscal year completed, 
we have achieved 76 percent of our first-term retention goal. 
Furthermore, our Subsequent Term Alignment Plan (second tour and 
beyond) reveals that we have already retained 47 percent of our goal 
for this fiscal year.
    Current officer retention is at a 19-year high, continuing a 4-year 
trend of increasing retention. Despite the increased retention overall, 
certain military occupational specialties perennially suffer high 
attrition. We are attempting to overcome this challenge by offering 
continuation pay for those marines with military occupational 
specialties that include special qualifications and skills. Military 
compensation that is competitive with the private sector provides the 
flexibility required to meet the challenge of maintaining stability in 
manpower planning.
    Marine Corps Reserve
    In 2003, the Marine Corps Reserve rapidly mobilized combat ready 
marines to augment and reinforce the active component. Marine Corps 
Reserve activations in support of OIF began in January 2003, and peaked 
at 21,316 Reserve marines on active duty in May 2003. This represented 
52 percent of the SMCR. Of the approximately 6,000 reservists currently 
on active duty, over 1,300 individual mobilization augmentees, 
individual ready reserves, and retirees fill critical joint and 
internal billets. As of January 2004, the Marine Corps Reserve began 
activating approximately 7,000 SMCR marines in support of OIF 2. 
Judicious employment of Reserve marines remains a top priority of the 
Marine Corps to ensure the Marine Corps Reserve maintains the 
capability to augment and reinforce the active component. Marine Corps 
Reserve units and individuals are combat ready and have rapidly 
integrated into Active Forces commands demonstrating the effectiveness 
of the Total Force Marine Corps.
    A strong inspector-instructor system and a demanding Mobilization 
and Operational Readiness Deployment Test program ensured Marine Corps 
Reserve units achieved a high level of premobilization readiness. 
Marine Reserve Units continuously train to a C1/C2 readiness standard, 
eliminating the need for post-mobilization certification. Ninety-eight 
percent of SMCR marines called up for duty reported for mobilization 
and less than 1 percent requested a deferment, delay, or exemption. The 
Marine Corps Reserve executed a rapid and efficient mobilization with 
units averaging 6 days from notification to being deployment-ready, and 
32 days after receiving a deployment order they arrived in theater. 
Many activated Marine Reserve units were ready to deploy faster than 
strategic lift could be provided.
    Building on the important lessons of the last year, the Marine 
Corps is pursuing several transformational initiatives to enhance the 
Reserves' capabilities as a ready and able partner with our active 
component. These pending initiatives include: increasing the number of 
Military Police (MP) units in the Reserve component; establishing a 
Reserve Intelligence Support Battalion to include placing Reserve 
Marine Intelligence Detachments at the Joint Reserve Intelligence 
Centers; returning some of our civil affairs structure to the active 
component to provide enhanced planning capabilities to the operational 
and Service headquarters; and, introducing an improved Individual 
Augmentee Management Program to meet the growing joint and internal 
requirements.
    When called, the Marine Corps Reserve is ready to augment and 
reinforce. Our Reserve marines are a vital and critical element of our 
total force. The training, leadership, and quality of life of our 
Reserve component remain significant Marine Corps priorities.
    Marine For Life
    The commitment to take care of our own includes a marine's 
transition from active service back to civilian life. The Marine For 
Life Program's mission is to provide sponsorship for our more than 
27,000 marines who honorably leave active service each year. The 
program was created to nurture and sustain the positive, mutually 
beneficial relationships inherent in our ethos, ``Once a Marine, Always 
a Marine.'' In cities across the United States, Reserve marines help 
transitioning marines and their families get settled in their new 
communities. Sponsorship includes assistance with employment, 
education, housing, childcare, veterans' benefits, and other support 
services needed to make a smooth transition. To provide this support, 
Marine For Life taps into the network of former marines and marine-
friendly businesses, organizations, and individuals willing to lend a 
hand to a marine who has served honorably.
    Initiated in fiscal year 2002, the program will reach full 
operational capability in fiscal year 2004. In addition to 110 Reserve 
marines serving as ``Hometown Links,'' an enhanced web-based electronic 
network, easily accessed by marines worldwide, will support the 
program. The end state of the Marine For Life Program is a nationwide 
marine and marine-friendly network available to all marines honorably 
leaving active service, that will improve their transition to civilian 
life.
Civilian Marines
    Civilian Workforce Campaign Plan
    Recognizing that our civilian marines are integral to the success 
of military operations, General James L. Jones, the 32nd Commandant of 
the Marine Corps, charged our senior Marine Corps officials with the 
development and implementation of a strategic 5-year plan for the 
recruitment, development, and retention of our civilian marines. The 
Civilian Workforce Campaign Plan (CWCP) consists of six strategic 
goals: (1) nurture, build, and grow civilian marines; (2) provide 
flexible career opportunities; (3) create leaders at all levels; (4) 
improve the performance evaluation system; (5) strengthen workforce 
management expertise; and (6) establish an integrated total force 
management approach. As commandant, I have provided the following 
additional implementing guidance.
    Our vision is to make the Marine Corps the employer of choice for a 
select group of civilians imbued with the Marine Corps values of honor, 
courage, and commitment. Through implementation of the CWCP, we will 
not only define what the Marine Corps will offer its civilian marines, 
but what the Corps expects from them. We will attract, nurture, build, 
and grow civilian marines by providing innovative recruitment, 
development, retention, reward, and acculturation programs throughout 
the work-life cycle.
    National Security Personnel System
    We want to take this occasion to thank again the committee and 
Congress for enacting the National Security Personnel System (NSPS) in 
the National Defense Authorization Act for Fiscal Year 2004. The act 
authorized a more flexible civilian personnel management system for the 
Department of Defense (DOD) that allowed DOD to be a more competitive 
and progressive employer at a time when our national security demands a 
highly responsive system of civilian personnel management. The 
legislation ensures that merit system principles govern any changes in 
personnel management, whistleblowers are protected, discrimination 
remains illegal, and veterans' preference is protected. The Department 
will collaborate with employee representatives, invest time to try and 
work out our differences, and notify Congress of any differences before 
implementation. In January, DOD officials met with union 
representatives to begin the development of a new system of labor-
management relations. Later this year, following an intensive training 
program for supervisors, managers, human resources specialists, 
employees, as well as commanders and senior management, the DOD plans 
to begin implementing NSPS. The Marine Corps, along with the entire 
Department of the Navy, expects to be in the first wave of 
implementation.
    Military-Civilian Conversions
    The Marine Corps will continue to actively pursue a review of all 
functional areas within the Marine Corps in an effort to return more 
marines to the operating forces. Through fiscal year 2003, we have 
returned over 2,000 manned structure spaces to the operating forces, 
and we will return approximately 650 more marines in fiscal year 2004. 
The fiscal year 2005 President's budget converts roughly an additional 
1,400 more billets from marines to civilian marines, which will provide 
us more options to increase manning in the operating forces.
Education
    Amid today's uncertain, volatile security environment, our most 
effective weapon remains the individual marine who out-learns, out-
thinks, and out-fights any adversary. Such warfighting competence is 
secured only through intellectual development. Recent events 
demonstrated how quality education instills confidence in marines. Our 
educational standards and programs produce innovative leaders who take 
initiative and excel during challenging situations involving 
uncertainty and risk. These high educational standards are inculcated 
by the Marine Corps University and are designed to target every rank in 
both our Active and Reserve Forces. Each year the Marine Corps 
University student population includes members of the other Services, 
various government agencies as well as dozens of international military 
officers from over 30 different countries.
    The Marine Corps endeavors to provide its marines with `lifelong 
learning' opportunities through a variety of educational programs, 
college courses, and library services on our bases and stations. 
Furthermore, distance learning programs through the Marine Corps 
University make continuing education available to marines regardless of 
their location. In addition, the Marine Corps will continue to fully 
fund the Tuition Assistance Program in accordance with DOD guideline--
funding for 100 percent of tuition cost up to $250 per semester hour 
with a maximum of $4,500 per year. In fiscal year 2003, there were 
25,662 marines enrolled in almost 80,000 courses with the help of the 
Tuition Assistance Program.
    Joint Initiatives
    The Marine Corps synchronizes its educational objectives with those 
of the other armed services in order to provide regional combatant 
commanders with the most capable joint force. We support the proposal 
for a Joint Advanced Warfighting School (JAWS) and for broadening Joint 
Professional Military Education (JPME) opportunities for the Total 
Force. By working closely with Joint Forces Staff College and our 
sister services, JAWS has the potential to empower future combatant 
commanders with talented officers who are experienced in campaign 
planning. Intent on broadening our joint experience base, the Marine 
Corps is pursuing an accredited advanced joint curriculum (JPME Phase 
II) at the Marine Corps War College and will continue to work to 
provide JPME opportunities for both active and Reserve components.
    Senior Leader Development Program
    The Senior Leader Development Program was developed last year to 
address General Officer and Senior Executive Service career development 
and to link education opportunities to career progression. A study was 
commissioned to identify the competencies required in each of our 
general officer billets in an effort to link core and complimentary 
curriculum with the assignment process. Within the core curriculum, 
senior leaders will attend the Joint Warfare series of courses as 
prerequisites by rank and billet while they study innovation, business 
transformation, and resource management through complementary courses.
Quality of Life/Quality of Service
    The Marine Corps works to improve the quality of life for marines 
and their families in order to continue the success of the all 
volunteer force. We provide excellent quality of life programs and 
services, while also helping new marines to better understand what to 
expect in the military lifestyle. We continuously assess, through a 
variety of means, the attitudes and concerns of marines and their 
families regarding their quality of life expectations. With 67 percent 
of our marines deployed away from their home installations at the 
height of OIF, we carefully captured lessons learned to ensure quality 
of life programs meet the needs of deployed marines and families who 
remain at home. Community and family assistance centers were 
established at Camp Lejeune, Camp Pendleton, Marine Corps Air Station 
Miramar, and Marine Corps Base Twentynine Palms to provide marine 
family members and loved ones access to relevant information and 
referral services.
    To further help marines and their families before, during, and 
after deployments, the Marine Corps implemented Marine Corps Community 
Services (MCCS) One Source, a Marine Corps-conducted, DOD funded pilot 
program providing around-the-clock information and referral services. 
MCCS One Source is especially useful to our activated Marine Reserves 
and their families as they negotiate the requirements and procedures 
associated with utilization of military programs such as TRICARE and 
other benefit services. In recognition of the importance of the 
transition home after deployments for both marines and their families, 
the Marine Corps developed a standardized return and reunion program 
consisting of a mandatory warrior transition brief for returning 
marines, a return and reunion guidebook for marines and family members, 
a caregiver brief, and briefs designed for spouses.
    We greatly appreciate the supplemental appropriations bills during 
2003, that contained additional help for deployed marines and their 
families. In 2004, quality of life efforts will continue to focus on 
issues related to supporting deployed forces and their families.
Safety
    Safety programs are vital to force protection and operational 
readiness. Marine leaders understand the importance of leadership, 
persistence, and accountability in the effort to reduce mishaps and 
accidents. The fiscal year 2003 off-duty and operational mishap rates 
were driven upward by the mishaps that occurred during and post OIF, 
while the aviation mishap rate decreased. To meet the Secretary of 
Defense's challenge to all Services to reduce mishaps by 50 percent in 
2 years, the Marine Corps is focusing on initiatives that deal 
particularly with the development of strategies and specific 
interventions to reduce all mishaps. Our leadership at every level 
understand the challenge, and we are actively involved in the effort to 
safeguard our most precious assets--marines and sailors.
                 iv. building on success for the future
    The Marine Corps, in partnership with our Navy brethren, provides 
our Nation with unrivaled maritime power to help secure peace and 
promote our national interests. The President's fiscal year 2005 
budget, together with your support, will provide a strong foundation 
for our continued success. The fiscal year 2005 budget--predicated on a 
peacetime OPTEMPO--sustains a high level of readiness and ensures our 
ability to rapidly respond to emerging situations. It also allows us to 
assimilate new technologies and explore new concepts that will help 
realize the full potential of our people and their equipment. We will 
continue to seek improved means to increase the efficiency of our 
investments and increase the combat effectiveness of our forces.
Technology and Experimentation
    The Marine Corps has a long history of innovation and adaptation. 
Experimentation is our principle means to explore new ideas and 
technologies in order to develop new capabilities to overcome emerging 
challenges. The Marine Corps Combat Development Command has realigned 
its experimentation program around the Sea Viking campaign. This 
campaign will explore both concept and prototype technology development 
pathways leading to the sea-based expeditionary capabilities envisioned 
for the future, to include forcible entry from the sea. The Sea Viking 
campaign is complementary to the joint concept development and 
experimentation campaign of Joint Forces Command (JFCOM) and the Navy's 
Sea Trial experimentation process. As an integral part of this effort, 
the Marine Corps is refining the expeditionary combat capabilities best 
suited to participate in future Expeditionary Strike Group (ESG) and 
Expeditionary Strike Force operations. It is also exploring the 
potential for an expanded Seabasing capability in support of future 
joint operations.
    The Marine Corps Warfighting Laboratory has experimented with 
several new pieces of equipment to enhance individual and small unit 
effectiveness. Based on successful experimentation, limited numbers of 
the M16A4 Modular Weapons System, Rifle Combat Optic, and the 
Integrated Intra Squad Radio were fielded for use during OIF. The 
Marine Corps continues to seek enhanced capabilities for the future as 
we continue to improve and transform the force. In addition, we have 
procured sufficient quantities of the Outer Tactical Vest and its Small 
Arms Protective Insert plates to ensure all marines participating in 
OIF 2 are equipped with enhanced ballistic protection.
New Concepts and Organizations
    The Expeditionary Force Development System implemented this past 
year is a methodological process that is designed to facilitate the 
development and realization of military operational concepts. It is a 
streamlined and integrated system that covers all phases of concept 
development to the acquisition of necessary equipment and weapons 
systems. The Expeditionary Force Development System proved to be of 
great value to our forces engaged in combat operations and is proving 
to be a helpful means of ensuring that the Marine Corps quickly profits 
from recent operational experiences. The system is compatible with and 
supports naval and joint transformation efforts as it integrates 
transformational, modernization, and legacy capabilities and processes. 
Several emerging concepts and organizational structures are maturing 
that will benefit the Marine Corps and ensure we can meet the future 
demanding requirements of the combatant commanders.
    The Sea Basing Concept
    Sea basing, envisioned as a national capability, is our overarching 
transformational operating concept for projecting and sustaining multi-
dimensional naval power and selected joint forces at sea. As stated by 
the Defense Science Board in its August 2003 Task Force report: ``Sea 
basing represents a critical future joint military capability for the 
United States.'' It assures joint access by leveraging the operational 
maneuver of forces globally from the sea, and reduces joint force 
operational dependence upon fixed and vulnerable land bases. Sea basing 
unites our capabilities for projecting offensive power, defensive 
power, command and control, mobility and sustainment around the world. 
This will provide our regional combatant commanders with unprecedented 
versatility to generate operational maneuver. Sea basing will allow 
Marine Forces to strike, commence sustainable operations, enable the 
flow of follow-on forces into theater, and expedite the reconstitution 
and redeployment of Marine Forces for follow-on missions. As the core 
of naval transformation, sea basing will provide the operational and 
logistical foundation to enable the other pillars of naval 
transformation (Sea Strike, Sea Shield, Sea Base, and FORCEnet).
    This year, the Marine Corps has continued to refine plans for the 
Marine Expeditionary Brigade of 2015, in concert with our concept for 
sea-based operations. Similarly, the analysis of alternatives for our 
Maritime Prepositioning Force (Future) (MPF(F)), a critical component 
of Seabasing, will provide valid choices for achieving Seabasing 
capabilities. These initiatives will complement, rather than replace, 
the amphibious lift and forcible entry capacity of the LHA(R), LPD-17, 
and LHD, and will provide the Nation a deployment and employment 
capability unmatched in the modern world.
    Expeditionary Strike Groups
    The Marine Corps and Navy continue the series of experiments that 
will refine the ESG concept. This concept will combine the capabilities 
of surface action groups, submarines, and maritime patrol aircraft with 
those of Amphibious Ready Groups and enhanced MEUs (Special Operations 
Capable) to provide greater combat capabilities to regional combatant 
commanders. Navy combatants are incorporated within the existing 
training and deployment cycle of the Amphibious Ready Group. Further 
experimentation will also allow us to test command-and-control 
arrangements for the ESG. We will soon complete the pilot deployment in 
this series, ESG-1, composed of West Coast Navy and Marine Forces. The 
ESG-2, composed of East Coast Navy and Marine Forces, will deploy later 
this year. Currently, the Marine Corps Combat Development Command is 
working with Navy and Marine operating forces to capture critical 
information from these experimental deployments to ensure that the ESG 
capability thoroughly integrates doctrine, organization, training, 
materiel, leadership, education, personnel, and facilities. Also, the 
Marine Corps Combat Development Command is working with the Navy to 
develop the concept for the employment of the additional capabilities 
that the ESG provides regional combatant commanders. Finally, the 
Center for Naval Analyses is evaluating the series of experiments 
through embedded analysts deployed with both ESGs and will submit their 
consolidated reports to the Navy and Marine Corps in October 2004.
    Marine Corps--U.S. Special Operations Command Initiatives
    The Marine Corps continues to aggressively improve interoperability 
with SOF. The U.S. Special Operations Command-Marine Corps Board has 
developed over 30 initiatives to support our interoperability goals. 
The Marine Corps and U.S. Special Operations Command (SOCOM) are 
working to leverage existing pre-deployment and deployment training as 
a means to ``operationalize'' our relationship. Our deploying MEUs 
(Special Operations Capable) exchange liaison officers with the Theater 
Special Operations Commands as the MEUs deploy within the various 
theaters. On June 20, 2003, a Marine Corps ``proof of concept'' 
detachment that is task organized to complement SOCOM mission areas in 
Direct Action, Special Reconnaissance, Coalition Support and Foreign 
Internal Defense formally stood up at Camp Pendleton, California. The 
Detachment transferred to the operational control of SOCOM last 
December, to facilitate joint pre-deployment training and is scheduled 
to deploy in April 2004, with a Naval Special Warfare Squadron 
supporting CENTCOM. Finally, we are conducting joint training with 
SOCOM in the areas of fixed and rotary wing air support of special 
operation missions.
    Reestablishment of Air-Naval Gunfire Liaison Companies
    During this past summer the Marine Corps reestablished an Air-Naval 
Gunfire Liaison Company in I MEF and another in the II MEF. These 
companies provide teams that specialize in all aspects of fire 
support--from terminal control to support of division fire support 
coordination centers. They greatly enhance the MAGTF Commanders' 
liaison capability--with foreign area expertise--to plan, coordinate, 
employ, and conduct terminal control of fires in support of joint, 
allied, and coalition forces. Each company will be fully stood up by 
this summer, and a separate platoon will be stood up in III MEF in 
October 2004.
    Tactical Aircraft Integration
    Naval Tactical Aircraft (TACAIR) Integration makes all naval 
strike-fighter aircraft available to meet both Services' warfighting 
and training requirements. As part of the TACAIR Integration plan, a 
Marine fighter-attack squadron will eventually be attached to each of 
the 10 active carrier air wings and will deploy aboard aircraft 
carriers. In addition, three Navy strike-fighter squadrons will be 
assigned into the Marine Corps' Unit Deployment Program for land-based 
deployments. Force structure reductions associated with this plan 
should result in a total cost savings and cost avoidance of over $30 
billion. The integration of the fifth marine squadron into a Carrier 
Air Wing and the first Navy squadron into the Unit Deployment Program 
are scheduled for later this year.
    TACAIR Integration retains our warfighting potential and brings the 
naval services a step closer to the flexible sea based force we 
envision for the future. A leaner, more efficient naval strike-fighter 
force is possible because of three underlying factors. The first factor 
is ``Global Sourcing''--the ability to task any non-deployed Department 
of Navy squadron to either Service's missions, allowing for a reduction 
in force structure. Second, `Level Readiness'--applying the proper 
resources to training, maintenance, and modernization, will ensure the 
smaller force is always capable of responding to the Services' and 
Nation's needs. Third, the development of an operational concept that 
will efficiently manage the employment of this integrated strike-
fighter force within the naval and joint context. Support of readiness 
accounts, modernization programs, and our replacement of the F/A-18 and 
AV-8B with the short takeoff and vertical landing (STOVL) JSF will 
ensure the potential promised by this integration.
Better Business Practices
    The Secretary of Defense and Secretary of the Navy have emphasized, 
and the Marine Corps is committed to, business transformation in order 
to optimize resource allocation. The Marine Corps is employing a 
variety of business transformation initiatives including: competitive 
sourcing of over 3,500 commercial billets to save $57 million annually; 
outsourcing garrison food service in our mess halls in the continental 
United States in to free up 594 marines for other duties; using public-
private ventures to fund new family housing and to increase the 
quantity of safe, comfortable, and affordable homes; consolidation of 
equipment maintenance from five to three echelons in order to improve 
maintenance effectiveness and efficiency; and, regionalizing garrison 
mobile equipment to realign marines and dollars with higher priorities. 
The Marine Corps continues to develop its activity based costing 
capability in order to support fact based decision making.
    In March 2003, the Marine Corps began participation in the Navy 
Marine Corps Intranet (NMCI)--a network outsourcing initiative that 
will provide a common end-to-end Department of the Navy information 
system capability for voice, video, and data communications. By 
outsourcing information technology services not considered to be core 
competencies, the Marine Corps has been able to return 355 supporting 
establishment personnel structure spaces to the operating forces. As a 
result of this improved business practice, the NMCI operating 
environment will promote greater naval interoperability. The Marine 
Corps will continue to refine our business practices and increase the 
effectiveness of warfighting potential.
             v. our main effort--excellence in warfighting
Training
    Training at Eglin Air Force Base
    In anticipation of the cessation of naval expeditionary forces 
training in Vieques, Puerto Rico, efforts began in September 2002 to 
establish a new training capability at Eglin Air Force Base (AFB). 
Training at Eglin AFB is envisioned to provide a near-term pre-
deployment training capability for East Coast Navy Amphibious Ready 
Groups/ESGs and MEUs (Special Operations Capable), with the potential 
to be part of the long-term solution. The training concept was designed 
for up to two 10-day training periods per year. The long-term objective 
is that during each 10-day event, the ESGs will be able to conduct the 
full spectrum of training required. The Marine Corps has invested 
approximately $4.2 million in environmental assessment/mitigation and 
infrastructure development required to establish an initial training 
capability at Eglin AFB.
    In December 2003, the Marine Corps completed its first 10-day 
training period at Eglin AFB, at an additional cost of approximately $1 
million. The Marine Corps is assessing the quality the training offered 
at Eglin AFB while continuing to explore and develop other options, 
both within the United States and abroad. While Eglin AFB has the 
potential for enhanced live fire and maneuver training, developing this 
capability will require a significant investment by the Department of 
the Navy and DOD to upgrade existing facilities.
    Joint National Training Capability
    As described by the Deputy Secretary of Defense: ``The centerpiece 
of our Training Transformation effort will be a Joint National Training 
Capability.'' The Joint National Training Capability is one of the 
three pillars of Training Transformation, and will improve joint 
interoperability by adding certified `joint context' to existing 
Service training events. The Joint National Training Capability is a 
cooperative collection of interoperable training sites, nodes, and 
events that synthesizes combatant commander and Service training 
requirements with the appropriate level of joint context.
    The first in a series of pre-Initial Operational Capability (IOC) 
Joint National Training Capability exercises was held in January 2004, 
linking a Marine Corps Combined Arms Exercise with live close air 
support sorties, a Navy Stand-off Land Attack Missile Exercise, an Army 
rotation at the National Training Center, and an Air Force Air Warrior 
Exercise. The Marine Corps will be actively involved in future Joint 
National Training Capability exercises including Combined Arms 
Exercises and Marine Aviation Weapons and Tactics Squadron-1 evolutions 
scheduled for fiscal year 2005. The Marine Corps is fully engaged in 
the Joint National Training Capability program development, and is on 
track to enhance Service core-competency training with the appropriate 
level of joint context. In concert with the other Services, the Marine 
Corps is working with JFCOM to refine the phrase ``joint context,'' 
certify ranges, and accredit exercises to ensure the force is training 
properly.
Infrastructure
    Blount Island Facility
    The acquisition of the Blount Island facility in Jacksonville, 
Florida, is critical to our Nation and to our Corps' warfighting 
capabilities. Blount Island's peacetime mission is to support the 
Maritime Prepositioning Force. Its wartime capability and capacity to 
support massive logistics sustainment from the continental United 
States gives it strategic significance. The Blount Island facility has 
a vital role in the National Military Strategy as the site for 
maintenance operations of the Maritime Prepositioning Force. The Marine 
Corps thanks Congress for your role in supporting this acquisition 
project. Phase II, funded by the $115.7 million appropriated in the 
Defense Authorization Act of 2004, gives the Marine Corps ownership of 
the leased maintenance area and supporting dredge disposal site 
consisting of 1,089 acres.
    Encroachment
    We are grateful to Congress for providing a tool to facilitate the 
management of incompatible developments adjacent to or in close 
proximity to military lands. We are working with state and local 
governments and with non-governmental organizations such as the Trust 
for Public Lands, The Nature Conservancy, the Sierra Club, and the 
Endangered Species Coalition to acquire lands buffering or near our 
bases including Camp Lejeune, Marine Corps Air Station Beaufort, and 
Camp Pendleton. In return for our investment, the Marine Corps is 
receiving restrictive easements that ensure lands acquired remain 
undeveloped and serve as buffer zones against future encroachment on 
our bases.
    We are also grateful to Congress for codifying legislation that 
gives us the opportunity to partner with the U.S. Fish and Wildlife 
Service and State fish and game agencies in order to manage endangered 
species present on military lands. Management via our Integrated 
Natural Resources Management Plans, which we prepare in partnerships 
with these agencies, allows us to protect and enhance populations of 
these species on our lands while allowing marines to train. Finally, we 
support the Secretary of Defense's efforts to provide flexibility under 
the Clean Air Act and to clarify the governing authorities under which 
the DOD would manage operational ranges. The Marine Corps strives to be 
a good environmental steward and the growing number of endangered 
species on our lands and their increasing populations are examples of 
our successes. We remain committed to protecting the resources 
entrusted to us by the American people.
    Base Realignment and Closures
    A successful Base Realignment and Closure (BRAC) process, resulting 
in recommendations in 2005, is critically important to the Nation, the 
DOD, and the Department of Navy. By eliminating excesses and improving 
efficiencies, the armed services will achieve a transformation of our 
infrastructure in the same way we are achieving a transformation of our 
forces. Recommendations will be developed only after a thorough and in-
depth review.
Command and Control
    Naval expeditionary warfare will depend heavily on the ability of 
the forces to share linked and fused information from a common source 
which will, in turn, ensure command and control of widely dispersed 
forces. Exploiting the use of space, ground and aerial platforms 
requires a networked, protected, and assured global grid of 
information. Leveraging command and control technology to improve our 
interoperability continues to be our focus of effort.
    Advances in technology and a need to leverage existing 
infrastructure requires us to establish a new information technology 
(IT) framework--one that is more reliable, efficient, secure, and 
responsive. This new IT framework must provide enhanced information 
access and improved information services to the operating forces. By 
streamlining the deployment of IT tools and realigning our IT 
resources, the Marine Corps Enterprise IT Services will shift the 
burden away from the operating forces by establishing a new IT 
environment. This IT environment will fuse and integrate Department 
wide, net-centric enterprise services to provide a common set of 
sharable IT services to the entire Marine Corps. By eliminating 
individual organizations providing duplicative and redundant services, 
we will reduce the IT burden on the operating forces through enterprise 
provided IT services, and improve our ability to process information 
and enhance the speed of decisionmaking.
Intelligence
    Our fiscal year 1996 through fiscal year 2004 enhancements to 
Marine Corps intelligence improved the intelligence capability within 
Marine Corps units and established a ``reach-back'' intelligence 
production capability between forward deployed units and our Marine 
Corps Intelligence Activity in Quantico, Virginia. These improvements 
are proving to be remarkably beneficial to our efforts in OIF and OEF. 
Marine intelligence is concurrently supporting ongoing operations, 
preparing for near term operations, and transforming our intelligence 
systems to meet future warfighting requirements. Marine Intelligence 
Specialists have provided significant contributions to ongoing 
operations in Iraq, Afghanistan, and Djibouti and will play a crucial 
intelligence role as Marine Forces return to Iraq in larger numbers 
this year. Before again deploying to Iraq, we will train over 400 
marines in basic Arabic to aid in our efforts to work with the Iraqis 
at the patrol level, and we will provide enhanced language training for 
some of our Arabic heritage speakers and others trained linguists to 
increase our operational influence and effectiveness. Meanwhile, we 
prepare for future conflicts by ensuring that our intelligence training 
and systems funded in the fiscal year 2005-2009 program incorporate the 
latest technological advances and become more capable of seamless 
interoperability with the systems used by other Services and national 
agencies.
Mobility
    As preliminary assessments of operations in Iraq highlight, 
operational and tactical mobility are essential to overcome the current 
range of threats. The ability to rapidly respond and then flexibly 
adapt to a changing situation is critical to address future challenges. 
Increasing the speed, range, and flexibility of maneuver units that are 
enhanced by logistical power generated from the sea, will increase 
naval power projection. The following initiatives are vital to achieve 
greater operational mobility:
    MV-22 Osprey
    The MV-22 remains the Marine Corps' number one aviation acquisition 
priority. While fulfilling the critical Marine Corps medium lift 
requirement, the MV-22's increased range, speed, payload, and 
survivability will generate truly transformational tactical and 
operational capabilities. With the Osprey, Marine Forces operating from 
a sea base will be able to take the best of long-range maneuver and 
strategic surprise, and join it with the best of the sustainable 
forcible-entry capability. Ospreys will replace our aging fleets of CH-
46E Sea Knight and CH-53D Sea Stallion helicopters.
    KC-130J
    Continued replacement of our aging KC-130 fleet with KC-130J 
aircraft is necessary to ensure the viability and deployability of 
Marine Corps Tactical Air and Assault Support well into the 21st 
century. Acquisition of the KC-130J represents a significant increase 
in operational efficiency and enhanced refueling and assault support 
capabilities for the Marine Corps. The KC-130J provides the aerial 
refueling and assault support airlift resources needed to support the 
Osprey, the JSF, and the MAGTF and Joint Force Commanders.
Expeditionary Fighting Vehicle
    The EFV, formerly known as the Advanced Amphibious Assault Vehicle 
(AAAV), will provide Marine Corp surface assault elements the requisite 
operational and tactical mobility to exploit fleeting opportunities in 
the fluid operational environment of the future. Designed to be 
launched from naval amphibious shipping from over the horizon, the EFV 
will be capable of carrying a reinforced Marine Corp rifle squad at 
speeds in excess of 20 nautical miles per hour in sea state three. This 
capability will reduce the vulnerability of our naval forces to enemy 
threats by keeping them well out to sea while providing our surface 
assault forces mounted in EFVs the mobility to react to and exploit 
gaps in enemy defenses ashore. Once ashore, EFV will provide Marine 
Corp maneuver units with an armored personnel carrier designed to meet 
the threats of the future. EFV will replace the aging Assault 
Amphibious Vehicle (AAV). With its high speed land and water 
maneuverability, highly lethal day/night fighting ability, and advanced 
armor and Nuclear, Biological, and Chemical (NBC) protection, the EFV 
will significantly enhance the lethality and survivability of Marine 
Corp maneuver units and provide the MAGTF and ESG with increased 
operational tempo across the spectrum of operations.
    Power Projection Platforms
    Combined with embarked marines, amphibious warships provide our 
Nation with both a forward presence and a flexible crisis response 
force. These power projection platforms give decisionmakers immediately 
responsive combat options. As the sea basing concept matures, enhanced 
naval expeditionary forces will be optimized to provide a full spectrum 
of capabilities.
    Inherent in the Sea Strike pillar of the sea basing concept is the 
ability to both strike with fires from the sea base and from units 
maneuvering within the littoral region. The dilemma that these two 
offensive capabilities impose on an enemy and the multitude of options 
they create for our leadership increase our ability to achieve success 
effectively and efficiently. The built-in flexibility and survivability 
of amphibious ships coupled with their combat sustainment capability 
ensure the rapid achievement of a full range of offensive operations 
that either allow us to accomplish operational objectives directly or 
enable us to set the conditions for major joint operations. The ability 
to defeat an anti-access strategy--before it is completed or even once 
it is developed--is vital to our national security objectives.
    The LPD 17 class amphibious ships, currently planned or under 
construction, represent the Department of the Navy's commitment to a 
modern expeditionary power projection fleet. These ships will assist 
our naval forces in meeting the fiscally-constrained programming goal 
of lifting 2.5 Marine Expeditionary Brigade Assault Echelons (AEs). The 
lead ship detail design has been completed and the construction process 
is over 80 percent, complete with a successful launch in July 2003. 
Production effort is focused on meeting test milestones for a November 
2004 delivery. Construction of LPD 23 has been accelerated from fiscal 
year 2006 to fiscal year 2005, leveraging Fiscal Year 2004 Advance 
Procurement resources provided by Congress. LPD 17 replaces four 
classes of older ships--the LKA, LST, LSD, and the LPD--and is being 
built with a 40-year expected service life.
    LHAs 1-5 reach their 35-year service life at a rate of one per year 
in 2011-2015. LHD-8 will replace one LHA when it delivers in fiscal 
year 2007. In order to meet future warfighting requirements, the Navy 
and Marine Corps leadership is evaluating LHA (Replacement)--LHA(R)--
requirements in the larger context of joint sea basing, power 
projection, the global war on terrorism, and lessons learned from OEF 
and OIF. The resulting platform will provide a transformational 
capability that is interoperable with future amphibious and Maritime 
Preposition Force ships, high-speed connectors, advanced rotorcraft 
like the MV-22, JSF, and EFVs.
    Maritime Prepositioning Force
    The leases on the current Maritime Prepositioning Ships begin to 
expire in 2009. The MPF(F) will be a key enabler to sea-based 
operations. It will allow us to better exploit the maneuver space 
provided by the sea to conduct joint operations at a time and place of 
our choosing. When the MPF(F) becomes operational, the maritime 
prepositioning role will expand far beyond its current capability to 
provide the combat equipment for a fly-in force. MPF(F) will serve four 
functions that the current MPF cannot: (1) at-sea arrival and assembly 
of units; (2) direct support of the assault echelon of the Amphibious 
Task Force; (3) long-term, sea-based sustainment of the landing force; 
and (4) at-sea reconstitution and redeployment of the force. The 
enhanced capabilities of these ships will significantly increase the 
capability of the Sea Base--in the sea basing concept--to provide 
unimpeded mobility and persistent sustainment. This enhanced sea base 
will minimize limitations imposed by reliance on overseas shore-based 
support, maximize the ability of the naval elements of the joint force 
to conduct combat operations from the maritime domain, and enable the 
transformed joint force to exploit our Nation's asymmetric advantage of 
our seapower dominance. The ability to rapidly generate maneuver forces 
from this sea base will augment our forward presence and forcible entry 
forces, increasing the overall power and effect of the joint campaign. 
Acceleration of the lead MPF(F) from fiscal year 2008 to fiscal year 
2007 in the fiscal year 2005 budget reflects an emphasis on sea basing 
capabilities. The fiscal years 2005-2009 plan procures three MPF(F) 
ships and advanced construction for an MPF(F) aviation variant.
    High Speed Connectors
    High Speed Connectors (HSCs) possess characteristics that make them 
uniquely suited to support the sea base and sea-based operations. HSCs 
are unique in combining shallow draft, high speed, and large lift 
capacity into a single platform. HSCs will help create an enhanced 
operational capability by providing commanders with a flexible platform 
to deliver tailored, scalable forces in response to a wide range of 
mission requirements. The range and payload capacity of HSCs, combined 
with their ability to interface with current and future MPF shipping 
and access austere ports greatly enhances the operational reach, 
tactical mobility, and flexibility of sea-based forces.
    Mine Countermeasure Capabilities
    There is a great need to continue the development of our mine 
countermeasure capabilities. A major challenge for the Navy-Marine 
Corps team is ensuring the effective delivery of ground forces ashore 
when mines and other anti-access measures are employed in the surf zone 
or ashore beyond the high water mark. We are currently exploring with 
the Navy how the technology of Joint Direct Attack Munitions (JDAM) 
promises a short-term solution and may lead to a better long-term 
solution to the challenge of mines in the surf zone. Using unitary 
bombs, fuses, and JDAM tail kits, we have designed a mine 
countermeasure known as the JDAM Assault Breaching System (JABS). 
Preliminary test results are showing promise as an interim solution for 
breaching surface laid minefields and light obstacles in the beach 
zones. Further testing and characterization of the JABS system is 
proceeding throughout fiscal year 2004 with tests against Surf Zone 
Mines and obstacles.
    Some aspects of JABS development may lead to a long-term solution 
to the mine threat. One possible solution that is envisioned includes 
developing bomb-delivered darts that physically destroy buried mines in 
the Beach Zone and Surf Zone region. In addition, the Navy has adopted 
the Marine Corp Coastal Battlefield Reconnaissance and Analysis (COBRA) 
mine sensor system for the beach zone with a planned product 
improvement enhancement for COBRA called the Rapid Overt Airborne 
Reconnaissance (ROAR) that extends detection to the very shallow water 
and the surf zone regions by 2015. In addition, the Marine Corps seeks 
to improve breaching capability beyond the high water mark by 
developing both deliberate and in-stride breaching systems. These 
include the Advanced Mine Detector program and the Assault Breacher 
Vehicle program.
Fires and Effects
    As events over the past year have demonstrated--and suggest for the 
future--the increased range and speed of expeditionary forces and the 
depth of their influence landward has and will continue to increase. To 
fully realize these capabilities the Nation requires a range of 
complementary, expeditionary lethal and non-lethal fire support 
capabilities. During OIF, 60 AV-8B Harrier aircraft were based at-sea 
aboard amphibious shipping--minimizing the challenge of airfield 
shortages ashore. This prelude to future sea-based operations was 
extremely successful with over 2,200 sorties generated--mostly in 
support of I MEF ground units. A key factor to this success was the 
employment of forward operating bases close to the ground forces which 
allowed the AV-8B to refuel and rearm multiple times before returning 
to their ships. In addition, the complementary capabilities of surface 
and air delivered fires were highlighted in this campaign. Further, the 
importance of both precision and volume fires was critical to success. 
Precision fires assisted in reducing both collateral damage and the 
demands on tactical logistics. I MEF also validated the requirement for 
volume fires in support of maneuver warfare tactics. These fires allow 
maneuver forces to take advantage of maneuver warfare opportunities 
before precision intelligence can be developed and precision fires can 
be employed against fleeting targets or rapidly developing enemy 
defensive postures.
    Short Take Off Vertical Landing Joint Strike Fighter
    The STOVL JSF will be a single engine, stealth, supersonic, strike-
fighter capable of short take-offs and vertical landings. The aircraft 
is designed to replace the AV-8B and FA-18 aircraft in the Marine Corps 
inventory. The operational reliability, stealth, and payload capability 
designed into the STOVL JSF represents a great improvement in combat 
capability over existing legacy platforms. The aircraft is in the 
second year of a 10-12 year development program. The STOVL JSF force is 
integral to our future warfighting capabilities. Its design and 
capabilities will fulfill all Marine Corps strike-fighter requirements 
and better support the combined arms requirements in expeditionary 
operations. Continued support of the STOVL JSF is vital to the Marine 
Corps.
    Indirect Fires Support
    In response to identified gaps in our indirect fires capability, 
the Marine Corps undertook an effort to replace the aging M198 155mm 
towed howitzers and provide a full spectrum all-weather system of 
systems fires capability. Operations in Iraq confirmed this requirement 
and the direction that the Marine Corps has undertaken. This system of 
systems will be capable of employing both precision and volume 
munitions.
    The Lightweight 155mm Howitzer (LW 155) is optimized for 
versatility, pro-active counter fire and offensive operations in 
support of light and medium forces. It supports Operational Maneuver 
from the Sea and replaces all M198s in the Marine Corps, as well as the 
M198s in Army Airborne, Light Units, and Stryker Brigade Combat Teams. 
Compared to the current system, the LW 155 is more mobile, capable of 
more rapid deployment, more survivable, and more accurate. IOC is 
expected during fiscal year 2005, and a full operational capability 
will be reached 3 years later.
    The High Mobility Artillery Rocket System (HIMARS) fulfills a 
critical range and volume gap in Marine Corps fire support assets by 
providing 24 hour, all weather, ground-based, responsive, General 
Support, General Support-Reinforcing, and Reinforcing indirect fires 
throughout all phases of combat operations ashore. HIMARS will be 
fielded in one artillery battalion of the active component and one 
battalion of the Reserve component. An IOC is planned for fiscal year 
2007 with a full capability expected during fiscal year 2008. An 
interim capability of one battery during fiscal years 2005-2006 is also 
currently planned.
    The Expeditionary Fire Support System (EFSS) is the third element 
of the triad of ground firing systems, and it will be the principal 
indirect fire support system for the vertical assault element. EFSS-
equipped units will be especially well suited for missions requiring 
speed, tactical agility, and vertical transportability. The estimated 
Approved Acquisition Objective is 88 systems. Initially, this provides 
eleven batteries to support our MEUs (Special Operations Capable). IOC 
is planned for fiscal year 2006 and full operational capability is 
planned for fiscal year 2008.
    Naval Surface Fire Support
    An important element of our fires and effects capability will 
continue to be surface ships that provide direct delivery of fires from 
the sea base. Critical deficiencies currently exist in the capability 
of the Navy to provide all-weather, accurate, lethal and responsive 
fire support throughout the depth of the littoral in support of 
expeditionary operations. In the critical period of the early phases of 
the forcible entry operations when organic Marine Corps ground indirect 
fires are not yet or just beginning to be established, the landing 
force will be even more dependent on the complementary capability 
required of naval surface fire support assets. To date, no systems have 
been introduced or are being developed which meet near- or mid-term 
Naval Surface Fire Support requirements. The DD(X) destroyer--armed 
with two 155mm Advanced Gun Systems--continues to be the best long-term 
solution to satisfy the Marine Corps' Naval Surface Fire Support 
requirements. Our Nation's forcible entry, expeditionary forces will 
remain at considerable risk for want of suitable sea-based fire support 
until DD(X) joins the fleet in considerable numbers in 2020. Currently, 
the lead ship of this class will not be operational until fiscal year 
2013. In addition, the Marine Corps is closely monitoring research into 
the development of electromagnetic gun technology to support future 
range and velocity requirements. Electromagnetic guns could potentially 
provide naval surface fire support at ranges on the order of 220 
nautical miles, and could eventually be incorporated into ground mobile 
weapon systems like the future EFVs as size, weight, and power 
technology hurdles are overcome.
    H-1 (UH-1Y/AH-1Z)
    The current fleet of UH-1N utility helicopters and AH-1W attack 
helicopters is reaching the end of their planned service life and face 
a number of deficiencies in crew and passenger survivability, payload, 
power availability, endurance, range, airspeed, maneuverability, and 
supportability. The Department of the Navy has determined that the H-1 
Upgrade Program is the most cost effective alternative that meets the 
Marine Corps' attack and utility helicopter requirements until the 
introduction of a new technology advanced rotorcraft aircraft. The H-1 
Upgrade Program is a key modernization effort designed to resolve 
existing safety deficiencies, enhance operational effectiveness of both 
the UH-1N and the AH-1W, and extend the service life of both aircraft. 
Additionally, the commonality gained between the UH-1Y and AH-1Z 
(projected to be 84 percent) will significantly reduce life-cycle costs 
and logistical footprint, while increasing the maintainability and 
deployability of both aircraft. On October 22, 2003, the program to 
enter Low-Rate Initial Production (LRIP), and on December 29, 2003, the 
LRIP Lot 1 aircraft contract was awarded to Bell Helicopter.
    Information Operations
    The Marine Corps is exploring ways to ensure marines will be 
capable of conducting full spectrum information operations, pursuing 
the development of information capabilities through initiatives in 
policy and doctrine, career force, structure, training and education, 
and programs and resources. Marine Forces will use information 
operations to deny, degrade, disrupt, destroy or influence an adversary 
commander's methods, means or ability to command and control his 
forces.
    New Weapons Technologies
    The Marine Corps is particularly interested in adapting truly 
transformational weapon technologies. We have forged partnerships 
throughout DOD, other agencies, and with industry over the past several 
years in an effort to develop and adapt the most hopeful areas of 
science and technology. Several notable programs with promising 
technologies include: (1) Advanced Tactical Lasers to potentially 
support a tactical gunship high energy laser weapon, (2) Active Denial 
System--a high-power millimeter-wave, non-lethal weapon, (3) Free 
Electron Lasers for multi-mission shipboard weapons application, and 
(4) various promising Counter Improvised Explosive Device technologies.
Logistics and Combat Service Support
    Logistics Modernization
    Since 1999, the Marine Corps has undertaken several logistics 
modernization efforts to improve the overall effectiveness of our 
MAGTFs as agile, expeditionary forces in readiness. Some of these 
initiatives have reached full operational capability or are on track 
for complete implementation. Applying the lessons learned from OIF 
resulted in new initiatives concerning naval logistics integration, 
naval distribution, and the integration of the Combat Service Support 
Element with Marine Corps Bases.
    The Marine Corps' number one logistics priority is the re-
engineering of logistics information technology and the retirement of 
our legacy systems, which is described in the next section. The Marine 
Corps is working to enhance the integration of its distribution 
processes across the tactical through strategic levels of warfare, 
providing the warfighter a ``snap shot'' view of his needed supplies in 
the distribution chain to instantly locate specific items that are en 
route. This capability, described in the following section, will result 
in increased confidence in the distribution chain and will reduce both 
the quantity of reorders and the amount of inventory carried to support 
the warfighter.
    Logistics Command and Control
    The Global Combat Support System-Marine Corps is the Marine Corps' 
portion of the overarching Global Combat Support System Family of 
Systems as designated by the Joint Requirements Oversight Council 
(JROC) and the Global Combat Support System General Officer Steering 
Committee. It is a Marine Corps acquisition program with the 
responsibility to acquire and integrate commercial off the shelf 
software in order to satisfy the information requirements of 
commanders, as well as support the Marine Corps Logistics Operational 
Architecture. The Global Combat Support System--Marine Corps program 
will provide modern, deployable information technology tools for all 
elements of the MAGTF. Existing Logistics Information Systems used 
today in direct support of our MAGTFs are either not deployable 
(mainframe based) or are deployable with such limited capability 
(tethered client server) that our commanders lack in-transit and asset 
visibility. Global Combat Support System-Marine Corps requirements 
include a single point of entry, Web-based portal capability to 
generate simple requests for products and services, logistics command 
and control capability to support the MAGTF, and back office tools to 
assist in the management of the logistics chain. These capabilities 
will improve warfighting excellence by providing commanders with the 
logistics information they need to make timely command and control 
decisions. The key to improving the accuracy and visibility of materiel 
in the logistics chain is to establish a shared data environment.
    End-to-End Distribution
    The Marine Corps is aggressively pursuing standardization of the 
materiel distribution within the Marine Corps to include interfacing 
with commercial and operational-level DOD distribution organizations. 
Furthermore, distribution processes and resources used in a deployed 
theater of operations need to be the same as those used in garrison. We 
strongly support United States Transportation Command's designation as 
the DOD's Distribution Process Owner. In this capacity, United States 
Transportation Command can more easily integrate distribution processes 
and systems at the strategic and operational levels and provide the DOD 
a standard, joint solution for distribution management. Materiel End-
To-End Distribution provides Marine Corp commanders the means to 
seamlessly execute inbound and outbound movements for all classes of 
supply while maintaining Total Asset and In-transit Visibility 
throughout the distribution pipeline.
                             vi. conclusion
    The Marine Corps remains focused on organizing, training, and 
equipping our forces to best support combatant commanders throughout 
the spectrum of combat. Incorporating recent experiences, increasing 
our forces' integration with joint capabilities, exploiting the 
flexibility and rapid response capabilities of our units, and 
preserving the adaptability of our marines, will collectively lead to 
more options for the combatant commanders. The Marine Corps' commitment 
to warfighting excellence and the steadfast support we receive from 
this committee will lead to success in the global war on terrorism 
while helping to ensure America's security and prosperity.

    Chairman Warner. We thank you for your service, General, 
and I thank you for your very clear and forthright statement, 
which again will be listened to very carefully by your forces 
and their families for your actions and judgment concerning the 
conflict in Iraq. I share your view, as we all do. WMD were not 
there readily available to be used.
    General Jumper.

STATEMENT OF GEN. JOHN P. JUMPER, USAF, CHIEF OF STAFF, UNITED 
                        STATES AIR FORCE

    General Jumper. Mr. Chairman, Senator Levin, members of the 
committee: It is a pleasure for me to be here today and to 
represent more than 700,000 active duty, Air National Guard, 
Air Force Reserve, and Air Force civilians who serve in our 
United States Air Force.
    I would like to thank this committee for their continued 
support of all that we do around the world to deal with this 
global war on terrorism and the other contingencies that we 
support globally. Senator Lieberman, I am particularly taken by 
your acknowledgment of our families that are out there, that we 
hear from every single day. I am encouraged every day at the 
courage and the bravery of those families, and I would also 
include in that the commitment of the employers who support our 
mobilized Air National Guard and Air Force Reserve members that 
have served throughout this crisis.
    I would also like to take this time, Mr. Chairman, to make 
the point that during Operation Desert Shield and Operation 
Desert Storm in 1990 and 1991 I was put in charge of preparing 
for biological and chemical warfare defense by then Chairman of 
the Joint Chiefs of Staff Colin Powell when I worked for him on 
the Joint Staff. The evidence then was compelling, and 
continued to be throughout the years of our no-fly zone 
operations, of stored chemical and biological weapons, even 
weaponizing on warheads. We did not know the disposition of 
their Scud missiles, but we knew that there were missiles left 
over after the Operation Desert Storm and Operation Desert 
Shield crisis.
    We watched for years as the Iraqis made attempts to evade 
the inspectors that were on the ground finding these weapons, 
and then we watched, as was pointed out earlier, the attempts 
to shoot at our airplanes that were patrolling the no-fly 
zones. I was, as Admiral Clark said, convinced then and I was 
convinced as we went into the war that they were there, and I 
stand by my position at that time.
    Chairman Warner. Thank you, General.
    General Jumper. Sir, as Admiral Clark pointed out, the 
group at this table spend a lot of time together, and we talk 
about our capabilities jointly and the ability to go to war 
jointly. We have decided among ourselves that we will never be 
going alone to any confrontation that this Nation undertakes. 
We have embarked on a series of joint concepts of operations so 
that we can be together when we do deploy at the Nation's 
bidding.
    As the Army undertakes its new concept of operations 
(CONOP) for a brigade combat team and as the sea basing CONOP 
unfolds, we are configuring our Air Force to be able to 
maintain the superiority in air and space and to join in on 
these concepts of operations as required to make them 
successful. We are also undertaking dedicated efforts to 
improve our close air support for the United States Army. You 
will see in this budget efforts that will assure that we have 
dedicated and improved close air support on into the future.
    We in the United States Air Force have completed our 
configuration to the Air Expeditionary Force, an effort that 
has taken us since 1994 and in a more dedicated way since 1997 
to complete this configuration into 10 equally capable 
expeditionary force packages. Today I can report to you that 75 
percent of our people in the Air Force are on tap to be 
mobilized if required.
    OIF required us to deploy 8 of our 10 Air Expeditionary 
Forces. We pulled them forward. We deployed into 32 bases and 
locations around the world. I can tell you that at the height 
of OIF I do not think we had one tent left in the United States 
Air Force. We continue today with 14 bases open throughout the 
AOR to conduct operations.
    Like the Army, the Air Force helped us with our security 
needs. They provided us with their National Guard security 
forces when we experienced increased threat conditions after 
September 11. We now have almost 100 percent of our combat 
engineers deployed to help the transition in and out between 
the United States Army and the United States Marine Corps.
    We have invested, and will continue to invest, a great deal 
in the technology of air and space. We will see continued 
development of the space-based radar (SBR), and of the 
transformational communications system. We will see the F/A-22 
in the budget as it continues to go through its operational 
testing. This is a system that will be able to deal with the 
surface-to-air missiles that we see being developed and 
deployed right now around the world, and will also be able to 
deal with anything that comes up to challenge us in the air.
    We are developing a new series of joint weapons, to include 
standoff munitions. We are developing a 250-pound small 
diameter bomb that will be able to glide with internal wings 
out many miles, allowing it to deal with targets far away. When 
we are able to incorporate this on an F/A-22 we will be able to 
support the brigade combat team concept deep behind enemy lines 
to support people on the ground.
    As for mobility, you will see that we continue to acquire 
additional C-17s, airplanes that have been renownedly 
successful. We saw in OIF the drop of over 1,000 members of the 
173rd Brigade in northern Iraq, which proved to be a very 
successful operation. Jumping with the Army were 22 airmen who 
got to the ground and made sure that the air field was able to 
be used to land aircraft as quickly as possible.
    In concert with the United States Navy, we continue to 
develop unmanned aerial vehicles (UAVs) and to put these UAVs 
out there in the hands of the people who need them: the 
Predator unmanned vehicle, the Global Hawk, and the Predator B. 
These are armed Predators: The two versions of the Predator are 
both armed and can deal with targets, as we saw them do in Iraq 
when we took out a satellite TV station being used by Baghdad 
Bob that was parked right near the Grand Mosque. We were able 
to do that with great precision, with only a very small warhead 
used from the Predator UAV.
    We continue to ask that we be able to recapitalize our 
tanker force in a way that is appropriate and is approved by 
this committee and by Members of Congress.
    We ask for continued improvement of our bomber force, to 
include standoff capability on our B-1s. We ask that we may 
develop a bomb rack from which we can drop 80 individually 
guided, Global Positioning System (GPS)-guided munitions from a 
single B-2. This has been tested and proven to be successful.
    Of course, as the other Service Chiefs have testified, none 
of this is made possible without absolutely magnificent people. 
More than 20 percent of each of our Air Expeditionary Force 
packages are made up of members of the Air National Guard and 
the Air Force Reserve. We cannot go to war without them. They 
volunteer in normal times to go on these rotations, and then we 
have innovative concepts that are working. Take, for example, 
the blended unit in Senator Chambliss' State of Georgia that 
has the Air National Guard and the Active-Duty Force in the 
same unit. In this case, it is commanded by a guardsman, but 
the command can transfer back and forth, and it provides us a 
terrific way to have ready forces that Air National Guard 
members can fall in on in times of surge. We are going to look 
at this concept also in the future with our fighter forces, to 
include the F/A-22.
    We are happy to report, as are the other Services, great 
progress and success in retention and in recruiting. Before 
this fiscal year started, we had 43 percent of this year's 
recruiting already in the bank and ready to go. Retention again 
for several years in a row now is at 100 percent in all 
categories. We expected some drop after stop-loss was dropped 
last summer. We saw no dropoff in retention. I am proud to 
report, sir, that in my travels overseas where I have visited 
with soldiers, sailors, airmen, and marines in the AOR, the 
highest morale I have ever seen and a pride that I can tell you 
I have never felt before.
    Sir, it is a pleasure to be here today and I look forward 
to your questions.
    [The prepared statement of General Jumper follows:]
            Prepared Statement by Gen. John P. Jumper, USAF
    Mr. Chairman, Senator Levin, and distinguished members of the 
committee, the Air Force has an unlimited horizon for air and space 
capabilities. Our Service was borne of innovation, and we remain 
focused on identifying and developing the concepts of operations 
(CONOPs), advanced technologies, and integrated operations required to 
provide the joint force with unprecedented capabilities and to remain 
the world's dominant air and space force.
    Throughout our distinguished history, America's Air Force has 
remained the world's premier air and space power because of our 
professional airmen, our investment in warfighting technology, and our 
ability to integrate our people and systems together to produce 
decisive effects. These Air Force competencies are the foundation that 
will ensure we are prepared for the unknown threats of an uncertain 
future. They will ensure that our combatant commanders have the tools 
they need to maintain a broad and sustained advantage over any emerging 
adversaries.
    In this strategic environment of the 21st century, and along with 
our sister Services, our Air Force will continue to fulfill our 
obligation to protect America, deter aggression, assure our allies, and 
defeat our enemies. As we adapt the Air Force to the demands of this 
era, we remain committed to fulfilling our global commitments as part 
of the joint warfighting team. In partnership, and with the continuing 
assistance of Congress, we will shape the force to meet the needs of 
this century, fight the global war on terrorism, and defend our Nation.
    The 2004 Posture Statement is our vision for the upcoming year and 
is the blueprint we will follow to sustain our air and space dominance 
in the future. We are America's Air Force--disciplined airmen, dominant 
in warfighting, decisive in conflict.
                              introduction
    In 2003, U.S. and coalition military operations produced 
unprecedented mission successes--across the spectrum of conflict and 
around the globe. The joint warfighting team demonstrated combat 
capability never previously witnessed in the history of conflict. 
Integrating capabilities from air, land, sea, and space, the U.S. and 
coalition allies achieved considerable progress in the ongoing global 
war on terrorism. In our most recent engagements, our Armed Forces 
fulfilled our immediate obligations to defend America, deter 
aggression, assure our allies, and defeat our enemies.
    The foundation of these achievements can be found in the Department 
of Defense's (DOD) commitment to teamwork and excellence. Operation 
Iraqi Freedom (OIF) was a joint and coalition warfighting effort from 
planning to execution. Air, ground, maritime, and space forces worked 
together at the same time for the same objectives, not merely staying 
out of each other's way, but orchestrated to achieve wartime 
objectives. Our air and space forces achieved dominance throughout the 
entire theater, enabling maritime and ground forces to operate without 
fear of enemy air attack. Our airmen demonstrated the flexibility, 
speed, precision, and compelling effects of air and space power, 
successfully engaging the full range of enemy targets, from the 
regime's leadership to fielded forces. When our ground and maritime 
components engaged the enemy, they were confident our airmen would be 
there--either in advance of their attacks, or in support of their 
operations. America's Air Force was there, disciplined, dominant, and 
decisive.
    These operational accomplishments illustrate the growing maturation 
of air and space power. Leveraging the expertise of our airmen, the 
technologies present in our 21st century force, and the strategies, 
CONOPs, and organizations in use today, the U.S. Air Force continues to 
adapt to meet the demands of this new era, while pursuing the war on 
terrorism and defending the homeland.
    On September 11, 2001, the dangers of the 21st century became 
apparent to the world. Today, the U.S. faces an array of asymmetric 
threats from terrorists and rogue states, including a threat that poses 
the gravest danger to our Nation, the growing nexus of radicalism and 
technology. As we continue our work in Afghanistan and Iraq, we stand 
ready to respond to flashpoints around the world, prepared to counter 
the proliferation of weapons of mass destruction (WMD) to unfriendly 
states and non-state entities.
    We are adapting to new and enduring challenges. As we do, we are 
exploiting the inherent sources of strength that give us the advantages 
we enjoy today. It is a strategy predicated on the idea that, if we 
accurately assess our own advantages and strengths, we can invest in 
them to yield high rates of military return. This approach helps us 
create a portfolio of advantages allowing us to produce and continue to 
exploit our capabilities. Our goal is to create a capability mix 
consistent with CONOPs and effects-driven methodology, relevant to the 
joint character and increasingly asymmetric conduct of warfare.
    Since 1945, when General Henry ``Hap'' Arnold and Dr. Theodore von 
Karman published Toward New Horizons, the Air Force has evolved to meet 
the changing needs of the Nation--with the sole objective of improving 
our ability to generate overwhelming and strategically compelling 
effects from air and now, space. It is our heritage to adapt and we 
will continue to do so. During this comparatively short history, we 
became the best air and space force in the world through our focus on 
the development of professional airmen, our investment in warfighting 
technology, and our ability to integrate people and systems to produce 
decisive joint warfighting effects.
    The Air Force is making a conscious investment in education, 
training, and leader development to foster critical thinking, 
innovation, and encourage risk taking. We deliberately prepare our 
airmen--officer, enlisted, and civilian--with experience, assignments, 
and broadening that will allow them to succeed. When our airmen act in 
the combined or joint arena, whether as an Air Liaison Officer to a 
ground maneuver element, or as the space advisor to the Joint Force 
Commander (JFC), this focused professional development will guide their 
success.
    We are also investing in technologies that will enable us to create 
a fully integrated force of intelligence capabilities, manned, unmanned 
and space assets that communicate at the machine-to-machine level, and 
real-time global command and control (C2) of joint, allied, and 
coalition forces. Collectively, these assets will enable compression of 
the targeting cycle and near-instantaneous global precision-strike.
    As we cultivate new concepts of global engagement, we will move 
from analog to digital processes and adopt more agile, non-linear ways 
of integrating to achieve mission success. This change in thinking 
leads to capabilities including: networked communications; multi-
mission platforms which fuse multi-spectral sensors; integrated global 
intelligence, surveillance, and reconnaissance (ISR); robust, all-
weather weapons delivery with increased standoff; small smart weapons; 
remotely-piloted and unattended aircraft systems; advanced air 
operations centers; more secure position, navigation, and timing; and a 
new generation of satellites with more operationally responsive launch 
systems.
    Investment in our core competencies is the foundation of our 
preparation for future threats. They ensure we have the tools we need 
to maintain strategic deterrence as well as a sustained advantage over 
our potential adversaries. Ultimately, they ensure we can deliver the 
dominant warfighting capability our Nation needs.
    Potential adversaries, however, continue to pursue capabilities 
that threaten the dominance we enjoy today. Double-digit surface-to-air 
missile systems (SAMs) are proliferating. China has purchased 
significant numbers of these advanced SAMs, and there is a risk of 
wider future proliferation to potential threat nations. Fifth-
generation advanced aircraft with capabilities superior to our present 
fleet of frontline fighter/attack aircraft are in production. China has 
also purchased, and is developing, advanced fighter aircraft that are 
broadly comparable to the best of our current frontline fighters. 
Advanced cruise missile technology is expanding, and information 
technology is spreading. Access to satellite communications, imagery, 
and use of the Global Positioning System (GPS) signal for navigation 
are now available for anyone willing to purchase the necessary 
equipment or services. With this relentless technological progress and 
the potential parity of foreign nations, as well as their potential 
application in future threats, the mere maintenance of our aging 
aircraft and space systems will not suffice. Simply stated, our current 
fleet of legacy systems cannot always ensure air and space dominance in 
future engagements.
    To counter these trends, we are pursuing a range of strategies that 
will guide our modernization and recapitalization efforts. We are using 
a capabilities-based planning and budgeting process, an integrated and 
systematic risk assessment system, a commitment to shorter acquisition 
cycle times, and improved program oversight. Our goal is to integrate 
our combat, information warfare, and support systems to create a 
portfolio of air and space advantages for the joint warfighter and the 
Nation. Thus, we continue to advocate for program stability in our 
modernization and investment accounts.
    The principal mechanisms that facilitate this process are our Air 
Force CONOPs. Through the CONOPs, we analyze problems we will be asked 
to solve for the JFCs, identify the capabilities our expeditionary 
forces need to accomplish their missions, and define the operational 
effects we expect to produce. Through this approach, we can make 
smarter decisions about future investment, articulate the link between 
systems and employment concepts, and identify our capability gaps and 
risks.
    The priorities that emerge from the CONOPs will guide a reformed 
acquisition process that includes more active, continuous, and creative 
partnerships among the requirement, development, operational test, and 
industry communities who work side-by-side at the program level. In our 
science and technology (S&T) planning, we are also working to 
demonstrate and integrate promising technologies quickly by providing 
an operational ``pull'' that conveys a clear vision of the capabilities 
we need for the future.
    We are applying this approach to our space systems as well. As the 
DOD's executive agent for space, we are producing innovative solutions 
for the most challenging national security problems. We have defined a 
series of priorities essential to delivering space-based capabilities 
to the joint warfighter and the Intelligence Community. Achieving 
mission success--in operations and acquisition--is our principal 
priority. This requires us to concentrate on designing and building 
quality into our systems. To achieve these exacting standards, we will 
concentrate on the technical aspects of our space programs early on--
relying on strong systems engineering design, discipline, and robust 
test programs. We also have many areas that require a sustained 
investment. We need to replace aging satellites, improve outmoded 
ground control stations, achieve space control capabilities to ensure 
freedom of action, sustain operationally responsive assured access to 
space, address bandwidth limitations, and focus space S&T investment 
programs. This effort will require reinvigorating the space industrial 
base and funding smaller technology incubators to generate creative 
``over the horizon'' ideas.
    As we address the problem of aging systems through renewed 
investment, we will continue to find innovative means to keep current 
systems operationally effective. In OIF, the spirit of innovation 
flourished. We achieved a number of air and space power firsts: 
employment of the B-1 bomber's synthetic aperture radar and ground 
moving target indicator for ISR; incorporation of the Litening II 
targeting pod on the F-15, F-16, A-10, and the B-52; and use of a 
Global Hawk for strike coordination and reconnaissance while flown as a 
remotely piloted aircraft. With these integrated air and space 
capabilities, we were able to precisely find, fix, track, target, and 
rapidly engage our adversaries. These examples illustrate how we are 
approaching adaptation in the U.S. Air Force.
    Ultimately, the success of our Air Force in accomplishing our 
mission and adapting to the exigencies of combat stems from the more 
than 700,000 active, Guard, Reserve, and civilian professionals who 
proudly call themselves ``airmen.'' In the past 5 years, they have 
displayed their competence and bravery in three major conflicts: the 
Balkans, Afghanistan, and Iraq. They are a formidable warfighting 
force, imbued with an expeditionary culture, and ready for the 
challenges of a dangerous world.
    Poised to defend America's interests, we continue to satisfy an 
unprecedented demand for air and space warfighting capabilities--
projecting American power globally while providing effective homeland 
defense. This is the U.S. Air Force in 2004--we foster ingenuity in the 
world's most professional airmen, thrive on transitioning new 
technologies into joint warfighting systems, and drive relentlessly 
toward integration to realize the potential of our air and space 
capabilities. We are America's airmen--confident in our capability to 
provide our Nation with dominance in air and space.
              air and space dominance in a new environment
    The U.S. Air Force ensures a flexible, responsive, and dominant 
force by providing a spectrum of operational capabilities that 
integrate with joint and coalition forces. To sustain and improve upon 
the dominance we enjoy today, the Air Force will remain engaged with 
the other Services, our coalition partners, interagency teams, and the 
aerospace industry. As we do, we will incorporate the lessons learned 
from rigorous evaluation of past operations, detailed analyses of 
ongoing combat operations, and thoughtful prediction of the 
capabilities required of a future force.
    The pace of operations over the past year enabled us to validate 
the function and structure of our Air and Space Expeditionary Forces 
(AEFs). Operations in 2003 demanded more capability from our AEFs than 
at any time since their inception in 1998. However, for the first time 
we relied exclusively on our AEFs to present the full range of our 
capabilities to the combatant commanders. Through our 10 AEFs, our AEF 
prime capabilities (space, national ISR, long range strike, nuclear, 
and other assets), and our AEF mobility assets, we demonstrated our 
ability to package forces, selecting the most appropriate combat ready 
forces from our Total Force, built and presented expeditionary units, 
and flowed them to the theaters of operation in a timely and logical 
sequence. We rapidly delivered them to the warfighters, while 
preserving a highly capable residual force to satisfy our global 
commitments.
    More than three-fourths of our 359,300 active duty airmen are 
eligible to deploy and are assigned to an AEF. Through much of the past 
year, Total Force capabilities from 8 of the 10 AEFs were engaged 
simultaneously in worldwide operations. The remaining elements were 
returning from operations, training, or preparing to relieve those 
currently engaged. By the end of 2003, more than 26,000 airmen were 
deployed, supporting operations around the world.
    In 2004, we will continue to use the AEFs to meet our global 
requirements while concurrently reconstituting the force. Our number 
one reconstitution priority is returning our forces to a sustainable 
AEF battle rhythm while conducting combat operations. Attaining this 
goal is about revitalizing capabilities. For most airmen, that will 
include a renewed emphasis on joint composite force training and 
preparation for rotations in the AEF. Through the AEF, the Air Force 
presents right-sized, highly trained expeditionary units to JFCs for 
employment across the spectrum of conflict.
Global War on Terrorism
    The year 2003 marked another historic milestone for the U.S. and 
the Air Force in the global war on terrorism. Since September 11, 2001, 
air and space power has proven indispensable to securing American 
skies, defeating the Taliban, denying sanctuary to al Qaeda and other 
terrorist organizations, and most recently, removing a brutal and 
oppressive dictator in Iraq. This global war on terrorism imposes on 
airmen a new steady state of accelerated operations and personnel tempo 
(PERSTEMPO), as well as a demand for unprecedented speed, agility, and 
innovation in defeating unconventional and unexpected threats, all 
while bringing stability and freedom to Afghanistan and Iraq. The Air 
Force and its airmen will meet these demands.
Operation Noble Eagle
    High above our Nation, airmen protect our skies and cities through 
air defense operations known as Operation Noble Eagle (ONE). The Total 
Force team, comprised of active duty, Air National Guard, and Air Force 
Reserve airmen, conducts airborne early warning, air refueling, and 
combat air patrol operations in order to protect sensitive sites, 
metropolitan areas, and critical infrastructure.
    This constant ``top cover'' demands significant Air Force assets, 
thus raising the baseline of requirements above the pre-September 11 
tempo. Since 2001, this baseline has meant over 34,000 fighter, tanker, 
and airborne early warning sorties were added to Air Force 
requirements.
    This year the Air Force scrambled nearly 1,000 aircraft, responding 
to 800 incidents. Eight active duty, 8 Air Force Reserve, and 18 Air 
National Guard units provided 1,300 tanker sorties offloading more than 
32 million pounds of fuel for these missions. Last year, over 2,400 
airmen stood vigilant at air defense sector operations centers and 
other radar sites. Additionally, in 2003, we continued to 
institutionalize changes to our homeland defense mission through joint, 
combined, and interagency training and planning. Participating in the 
initial validation exercise Determined Promise-03, the Air Force 
illustrated how its air defense, air mobility, and command and control 
capabilities work seamlessly with other agencies supporting U.S. 
Northern Command (NORTHCOM) and Department of Homeland Security (DHS) 
objectives. The integration and readiness that comes from careful 
planning and rigorous training will ensure the continued security of 
America's skies.
Operation Enduring Freedom--Afghanistan
    Operation Enduring Freedom--Afghanistan (OEF) is ongoing. Remnants 
of Taliban forces continue to attack U.S., North Atlantic Treaty 
Organization (NATO), coalition troops, humanitarian aid workers, and 
others involved in the reconstruction of Afghanistan. To defeat this 
threat, aid coalition stability, and support operations, the Air Force 
has maintained a presence of nearly 24,000 airmen in and around the 
region. Having already flown more than 90,000 sorties (over 72 percent 
of all OEF missions flown), the Air Force team of active, Guard, and 
Reserve airmen continue to perform ISR, close air support (CAS), aerial 
refueling, and tactical and strategic airlift.
    While fully engaged in ONE and OIF, the men and women of the Air 
Force provided full spectrum air and space support, orchestrating 
assets from every Service and 10 different nations. Of these, Air Force 
strike aircraft flying from nine bases flew more than two-thirds of the 
combat missions, dropped more than 66,000 munitions (9,650 tons) and 
damaged or destroyed approximately three-quarters of planned targets. 
In 2003 alone, Air Force assets provided more than 3,000 sorties of on-
call CAS, responding to calls from joint and/or coalition forces on the 
ground.
    Last year, the Air Force brought personnel and materiel into this 
distant, land-locked nation via 7,410 sorties. Over 4,100 passengers 
and 487 tons of cargo were moved by airmen operating at various Tanker 
Airlift Control Elements in and around Afghanistan. To support these 
airlift and combat sorties and the numerous air assets of the coalition 
with aerial refueling, the Air Force deployed over 50 tankers. In their 
primary role, these late 1950s-era and early 1960s-era KC-135 tankers 
flew more than 3,900 refueling missions. In their secondary airlift 
role, they delivered 3,620 passengers and 405 tons of cargo. Without 
versatile tankers, our Armed Forces would need greater access to 
foreign bases, more aircraft to accomplish the same mission, more 
airlift assets, and generate more sorties to maintain the required 
duration on-station.
    Operations in Afghanistan also highlight U.S. and coalition 
reliance on U.S. space capabilities. This spanned accurate global 
weather, precise navigation, communications, as well as persistent 
worldwide missile warning and surveillance. For example, OEF relied on 
precision navigation provided by the Air Force's GPS constellation, 
over-the-horizon satellite communications (SATCOM), and timely 
observations of weather, geodesy, and enemy activity. To accomplish 
this, space professionals performed thousands of precise satellite 
contacts and hundreds of station keeping adjustments to provide 
transparent space capability to the warfighter. These vital space 
capabilities and joint enablers directly leveraged our ability to 
pursue U.S. objectives in OEF.
Operations Northern Watch and Southern Watch
    During the past 12 years, the Air Force flew over 391,000 sorties 
enforcing the northern and southern no-fly zones over Iraq. With the 
preponderance of forces, the Air Force, along with the Navy and Marine 
Corps, worked alongside the Royal Air Force in Operations Northern 
Watch (ONW) and Southern Watch (OSW). Manning radar outposts and 
established C2 centers, conducting ISR along Iraq's borders, responding 
to almost daily acts of Iraqi aggression, and maintaining the required 
airlift and air refueling missions taxed Air Force assets since the end 
of Operation Desert Storm. Yet, these successful air operations had 
three main effects: they halted air attacks on the ethnic minority 
populations under the no-fly zones; they deterred a repeat of Iraqi 
aggression against its neighbors; and they leveraged enforcement of 
United Nations (U.N.) Security Council Resolutions. Throughout this 
period, our airmen honed their warfighting skills, gained familiarity 
with the region, and were able to establish favorable conditions for 
OIF. For more than a decade, American airmen rose to one of our 
Nation's most important challenges, containing Saddam Hussein.
Operation Iraqi Freedom
    On March 19, 2003, our airmen, alongside fellow soldiers, sailors, 
marines, and coalition teammates, were called upon to remove the 
dangerous and oppressive Iraqi regime--this date marked the end of ONW/
OSW and the beginning of OIF. OIF crystallized the meaning of jointness 
and the synergies of combined arms and persistent battlefield 
awareness.
    In the first minutes of OIF, airmen of our Combat Air Forces (USAF, 
USN, USMC, and coalition) were flying over Baghdad. As major land 
forces crossed the line of departure, Air Force assets pounded Iraqi 
C\2\ facilities and key leadership targets, decapitating the 
decisionmakers from their fielded forces. Remaining Iraqi leaders 
operated with outdated information about ground forces that had already 
moved miles beyond their reach. As the land component raced toward 
Baghdad, coalition strike aircraft were simultaneously attacking Iraqi 
fielded forces, communications and command and control centers, 
surface-to-surface missile launch sites, and were supporting Special 
Operations Forces, and ensuring complete air and space dominance in the 
skies over Iraq. Due to these actions and those during the previous 12 
years, none of the 19 Iraqi missile launches were successful in 
disrupting coalition operations, and not a single Iraqi combat sortie 
flew during this conflict. Twenty-one days after major combat 
operations began, the first U.S. land forces reached Baghdad. Five days 
later, the last major city in Iraq capitulated.
    The Air Force provided over 7,000 CAS sorties to aid land forces in 
the quickest ground force movement in history. Lieutenant General 
William S. Wallace, Commander of the U.S. Army V Corps said, ``none of 
my commanders complained about the availability, responsiveness, or 
effectiveness of CAS--it was unprecedented!'' As Iraqi forces attempted 
to stand against the integrated air and ground offensive, they found a 
joint and coalition team that was better equipped, better trained, and 
better led than ever brought to the field of battle.
    Training, leadership, and innovation coupled with the Air Force's 
recent investment in air mobility allowed U.S. forces to open a second 
major front in the Iraqi campaign. Constrained from access by land, Air 
Force C-17s airdropped over 1,000 paratroopers from the 173rd Airborne 
Brigade into northern Iraq. This successful mission opened Bashur 
airfield and ensured U.S. forces could be resupplied.
    Before 2003, the Air Force invested heavily in the lessons learned 
from OEF. Shortening the ``kill chain,'' or the time it took to find, 
fix, track, target, engage, and assess was one of our top priorities. 
This investment was worthwhile, as 156 time-sensitive targets were 
engaged within minutes, most with precision weapons. The flexibility of 
centralized control and decentralized execution of air and space power 
enabled direct support to JFC objectives throughout Iraq. Coalition and 
joint airpower shaped the battlefield ahead of ground forces, provided 
intelligence and security to the flanks and rear of the rapidly 
advancing coalition, and served as a force multiplier for Special 
Operations Forces (SOF). This synergy between SOF and the Air Force 
allowed small specialized teams to have a major effect throughout the 
northern and western portions of Iraq by magnifying their inherent 
lethality, guaranteeing rapid tactical mobility, reducing their 
footprint through aerial resupply, and providing them the advantage of 
``knowing what was over the next hill'' through air and space-borne 
ISR.
    The Air Force's C\2\ISR assets enabled the joint force in 
Afghanistan as well. This invaluable fleet includes the RC-135 Rivet 
Joint, E-8 JSTARS, and the E-3 Airborne Warning and Control System 
(AWACS). This ``Iron Triad'' of intelligence sensors and C\2\ 
capabilities illustrates the Air Force vision of horizontal integration 
in terms of persistent battlefield awareness. Combined with the Global 
Hawk unmanned aerial vehicle (UAV) and Predator remotely piloted 
aircraft, spaced-based systems, U-2, and Compass Call, these invaluable 
system provided all-weather, multi-source intelligence to commanders 
from all services throughout the area of responsibility.
    OIF was the Predator's first ``networked'' operation. Four 
simultaneous Predator orbits were flown over Iraq and an additional 
orbit operated over Afghanistan, with three of those orbits controlled 
via remote operations in the U.S. This combined reachback enabled 
dynamic support to numerous OIF missions. Predator also contributed to 
our operational flexibility, accomplishing hunter-killer missions, 
tactical ballistic missile search, force protection, focused 
intelligence collection, air strike control, and special operations 
support. A Hellfire equipped Predator also conducted numerous precision 
strikes against Iraqi targets, and flew armed escort missions with U.S. 
Army helicopters.
    Space power provided precise, all-weather navigation, global 
communications, missile warning, and surveillance. The ability to adapt 
to adverse weather conditions, including sandstorms, allowed air, land, 
and maritime forces to confound the Iraqi military and denied safe 
haven anywhere in their own country. As the Iraqis attempted to use 
ground-based GPS jammers, Air Force strike assets destroyed them, in 
some cases, using the very munitions the jammers attempted to defeat. 
As Defense Secretary Donald Rumsfeld noted, this new era was 
illustrated by the coalition's ``unprecedented combination of power, 
precision, speed, and flexibility.''
    During the height of OIF, the Air Force deployed 54,955 airmen. 
Ambassador Paul Bremer, Chief of the Coalition Provisional Authority 
(CPA), pronounced, ``In roughly 3 weeks [we] liberated a country larger 
than Germany and Italy combined, and [we] did so with forces smaller 
than the Army of the Potomac.'' Led by the finest officers and non-
commissioned officers, our airmen flew more than 79,000 sorties since 
March 2003. Ten thousand strike sorties dropped 37,065 munitions. The 
coalition flew over 55,000 airlift sorties moved 469,093 passengers and 
more than 165,060 tons of cargo. In addition, over 10,000 aerial 
refueling missions supported aircraft from all services, and 1,600 ISR 
missions provided battlespace awareness regardless of uniform, Service, 
or coalition nationality. This was a blistering campaign that demanded 
a joint and combined effort to maximize effects in the battlespace.
    Today, Air Force airmen continue to contribute to the joint and 
coalition team engaged in Iraq. At the end of the year, 6,723 airmen 
from the active duty, Reserve, and Air National Guard conducted a wide 
range of missions from locations overseas, flying approximately 150 
sorties per day including CAS for ground forces tracking down regime 
loyalists, foreign fighters, and terrorists. On a daily basis, U-2 and 
RC-135 aircraft flew ISR sorties monitoring the porous borders of Iraq 
and providing situational awareness and route planning for Army patrols 
in stability and support operations. Providing everything from base 
security for 27 new bases opened by the coalition to the lifeline of 
supplies that air mobility and air refueling assets bring to all joint 
forces, Air Force airmen are committed to the successful accomplishment 
of the U.S. mission in Iraq.
Other Contingency Operations
    In 2003, the Air Force remained engaged in America's war on drugs 
and provided support to NATO ground forces in the Balkans. Since 
December 1989, Air Force airmen have been an irreplaceable part of the 
interagency fight against illegal drug and narcotics trafficking. 
Deployed along the southern U.S., in the Caribbean, and Central and 
South America, airmen perform this round-the-clock mission, manning 
nine ground-based radar sites, operating 10 aerostats, and flying 
counter drug surveillance missions. The Air Force detected, monitored, 
and provided intercepts on over 275 targets attempting to infiltrate 
our airspace without clearance. Along with our interagency partners, 
these operations resulted in 221 arrests and stopped hundreds of tons 
of contraband from being smuggled into our country.
    In the Balkans, airmen are fully committed to completing the 
mission that they started in the 1990s. Today, Air Force airmen have 
flown over 26,000 sorties supporting Operations Joint Guardian and 
Joint Forge. These NATO-led operations combine joint and allied forces 
to implement the Dayton Peace Accords in Bosnia-Herzegovina and enforce 
the Military Technical Agreement in Kosovo. At the end of 2003, 
approximately 800 airmen were supporting NATO's goal of achieving a 
secure environment and promoting stability in the region.
    Additionally, the Air Force engaged in deterrence and humanitarian 
relief in other regions. While the world's attention was focused on the 
Middle East in the spring of 2003, our Nation remained vigilant against 
potential adversaries in Asia. The Air Force deployed a bomber wing--24 
B-52s and B-1s--to the American territory of Guam to deter North Korea. 
At the height of OIF, our Air Force demonstrated our country's resolve 
and ability to defend the Republic of Korea and Japan by surging bomber 
operations to over 100 sorties in less than 3 days. This deterrent 
operation complemented our permanent engagement in Northeast Asia. The 
8,300 airmen who are stationed alongside the soldiers, sailors, 
marines, and our Korean allies maintained the U.N. armistice, marking 
50 years of peace on the peninsula.
    Our strength in deterring aggression was matched by our strength in 
humanitarian action. In response to President Bush's directive to help 
stop the worsening crisis in Liberia, we deployed a non-combat medical 
and logistics force to create a lifeline to the American Embassy and 
provide hope to the Liberian people. An AEF of airmen provided airlift 
support, aeromedical evacuation, force protection, and theater of 
communications support. Flying more than 200 sorties, we transported 
and evacuated civilians and members of the Joint Task Force (JTF) from 
bases in Sierra Leone and Senegal. The 300 airmen deployed in support 
of JTF-Liberia reopened the main airport in Monrovia, and ensured the 
security for U.S. military and civilian aircraft providing relief aid.
Strategic Deterrence
    The ability of U.S. conventional forces to operate and project 
decisive force is built on the foundation of our strategic deterrent 
force; one that consists of our nuclear-capable aircraft and 
intercontinental ballistic missile (ICBM) forces, working with the U.S. 
Navy's Fleet Ballistic Missile Submarines. In 2003, these forces as 
well as, persistent overhead missile warning sensors and supporting 
ground-based radars, provided uninterrupted global vigilance deterring 
a nuclear missile strike against the U.S. or our allies. The dedicated 
airmen who operate these systems provide the force capability that 
yields our deterrent umbrella. Should that deterrence fail, they stand 
ready to provide a prompt, scalable response.
Exercises
    The Air Force's success can be attributed to the training, 
education, and equipment of our airmen. Future readiness of our 
operations, maintenance, mission support, and medical units will depend 
on rigorous and innovative joint and coalition training and exercising. 
This year we are planning 140 exercises with other Services and 
agencies and we anticipate being involved with 103 allied nations. We 
will conduct these exercises in as many as 45 foreign countries. 
Participation ranges from the joint/combined command post exercise 
Ulchi Focus Lens with our South Korean partners to the tailored 
international participation in our FLAG exercises and Mission 
Employment Phases of USAF Weapons School. From joint search-and-rescue 
forces in Arctic Sarex to Partnership for Peace (PFP) initiatives, our 
airmen must continue to take advantage of all opportunities that help 
us train the way we intend to fight.
    In addition to previously designed exercises, recent operations 
highlighted the need for combat support training. During OEF and OIF, 
the Air Force opened or improved 38 bases used by joint or coalition 
forces during combat. Our Expeditionary Combat Support teams 
established secure, operable airfields in Kyrgyzstan, Uzbekistan, 
Pakistan, and in Iraq. They also built housing, established 
communications, and erected dining facilities that are still used by 
other Services and follow-on forces today. To prepare our airmen for 
these missions, we have created Eagle Flag, an Expeditionary Combat 
Support Field Training Exercise. During this exercise, combat support 
personnel apply the integrated skills needed to organize and create an 
operating location ready to receive fully mission capable forces within 
72 hours. From security forces and civil engineers to air traffic 
controllers and logisticians, each airman required to open a new base 
or improve an austere location will eventually participate in this 
valuable exercise.
    Our ranges and air space are critical joint enablers and vital 
national assets that allow the Air Force to develop and test new 
weapons, train forces, and conduct joint exercises. The ability of the 
Air Force to effectively operate requires a finite set of natural and 
fabricated resources. Encroachment of surrounding communities onto Air 
Force resources results in our limited or denied access to, or use of, 
these resources. We have made it a priority to define and quantify the 
resources needed to support mission requirements, and to measure and 
communicate the effects of encroachment on our installations, radio 
frequency spectrum, ranges, and air space. We will continue to work 
with outside agencies and the public to address these issues. The Air 
Force strongly endorses the Readiness Range and Preservation 
Initiative. It would make focused legislative changes, protecting the 
Air Force's operational resources while continuing to preserve our 
Nation's environment.
Lessons for the Future
    As we continue combat operations and prepare for an uncertain 
future, we are examining lessons from our recent experiences. Although 
we are currently engaged with each of the other Services to refine the 
lessons from OIF, many of the priorities listed in the fiscal year 2005 
Presidential budget submission reflect our preliminary conclusions. The 
Air Force has established a team committed to turning validated lessons 
into new equipment, new operating concepts, and possibly new 
organizational structures. Working closely with our joint and coalition 
partners, we intend to continue our momentum toward an even more 
effective fighting force.
    One of the most important lessons we can draw was envisioned by the 
authors of the Goldwater-Nichols Act. ONE, OEF, and OIF all validated 
jointness as the only acceptable method of fighting and winning this 
Nation's wars. In OIF, the mature relationship between the Combined 
Forces Land Component Commander (CFLCC) and the Combined Forces Air 
Component Commander (CFACC) led to unprecedented synergies. The CFACC 
capitalized on these opportunities by establishing coordination 
entities led by an Air Force general officer in the supported land 
component headquarters and by maintaining internal Army, Navy, Marine 
Corps, and coalition officers in his own headquarters. Both of these 
organizational innovations enabled commanders to maximize the 
advantages of mass, lethality, and flexibility of airpower in the area 
of responsibility.
    Another lesson is the Air Force's dependence on the Total Force 
concept. As stated above, September 11 brought with it a new tempo of 
operations, one that required both the active duty and Air Reserve 
component (ARC) to work in concert to achieve our national security 
objectives. The synergy of our fully integrated active duty, Air 
National Guard, and Air Force Reserve team provides warfighters with 
capabilities that these components could not provide alone.
    Our Reserve component accounts for over one-third of our strike 
fighters, more than 72 percent of our tactical airlift, 42 percent of 
our strategic airlift, and 52 percent of our air refueling capability. 
The ARC also makes significant contributions to our rescue and support 
missions, and has an increasing presence in space, intelligence, and 
information operations. In all, the ARC provides a ready force 
requiring minimum preparation for mobilization. Whether that 
mobilization is supporting flight or alert missions for ONE, commanding 
expeditionary wings in combat, or orchestrating the Air Force Special 
Operations roles in the western Iraqi desert, the ARC will remain 
critical to achieving the full potential of our air and space power.
    A third lesson was validation of the need for air and space 
superiority. Through recent combat operations, the Air Force maintained 
its almost 50-year-old record of ``no U.S. ground troops killed by 
enemy air attack.'' Without having to defend against Iraqi airpower, 
coalition commanders could focus their combat power more effectively. 
In addition, air and space superiority allowed airmen to dedicate more 
sorties in support of the ground scheme of maneuver, substantially 
reducing enemy capability in advance of the land component.
    We also need to continue to advance integration and planning--
integration of Service capabilities to achieve JFC objectives, 
interagency integration to fight the war on terrorism, and information 
integration. Integration of manned, unmanned, and space sensors, 
advanced command and control, and the ability to disseminate and act on 
this information in near-real time will drive our combat effectiveness 
in the future. Shared through interoperable machine-to-machine 
interfaces, this data can paint a picture of the battlespace where the 
sum of the wisdom of all sensors will end up with a cursor over the 
target for the operator who can save the target, study the target, or 
destroy the target.
    Finally, there are three general areas for improvement we consider 
imperative: battle damage assessment, fratricide prevention/combat 
identification, and equipping our battlefield airmen. First, battle 
damage assessment shapes the commander's ability for efficient 
employment of military power. Restriking targets that have already been 
destroyed, damaged, or made irrelevant by rapid ground force advances 
wastes sorties that could be devoted to other coalition and joint force 
objectives. Advances in delivery capabilities of our modern fighter/
attack aircraft and bombers mean that ISR assets must assess more 
targets per strike than ever before. Precision engagement requires 
precision location, identification, and precision assessment. Although 
assets like the Global Hawk, Predator, U-2, Senior Scout, and Rivet 
Joint are equipped with the latest collection technology, the Air 
Force, joint team, and Intelligence Community must work to ensure that 
combat assessments produce timely, accurate, and relevant products for 
the warfighters.
    We are also improving operational procedures and technology to 
minimize incidents of fratricide or ``friendly fire.'' In OIF, major 
steps toward this goal resulted from technological solutions. Blue 
Force Tracker and other combat identification systems on many ground 
force vehicles allowed commanders situational awareness of their forces 
and enemy forces via a common operational picture. Still, not all joint 
or coalition forces are equipped with these technological advances. We 
are pursuing Fire Support Coordination Measures that capitalize on the 
speed and situational awareness digital communications offer rather 
than analog voice communications and grease pencils.
    A third area we are actively improving is the effectiveness of the 
airmen who are embedded with conventional land forces or SOF. With 
assured access to Air Force datalinks and satellites, these 
``Battlefield Airmen'' can put data directly into air-land-sea weapon 
systems and enable joint force command and control. We have made great 
progress in producing a Battlefield Air Operations Kit that is 70 
percent lighter, with leading-edge power sources; one that will 
increase the combat capability of our controllers. This battle 
management system will reduce engagement times, increase lethality and 
accuracy, and reduce the risk of fratricide. This capability is based 
upon the good ideas of our airmen who have been in combat and 
understand how much a single individual on the battlefield can 
contribute with the right kit.
Summary
    The airmen of America's Air Force have demonstrated their expertise 
and the value of their contributions to the joint and coalition fight. 
These combat operations are made possible by Air Force investments in 
realistic training and education, superior organization, advanced 
technology, and innovative tactics, techniques, and procedures. In the 
future, our professional airmen will continue to focus advances in 
these and other areas guided by the Air Force CONOPs. Their charter is 
to determine the appropriate capabilities required for joint 
warfighting and to provide maximum effects from, through, and in air 
and space. This structure and associated capabilities-based planning 
will help airmen on their transformational journey, ensuring continued 
operational successes such as those demonstrated in 2003.
           ensuring america's future air and space dominance
    Air Force lethality, mobility, speed, precision, and the ability to 
project U.S. military power around the globe provide combatant 
commanders the capabilities required to meet the Nation's military 
requirements and dominate our enemies. Consistent with the DOD's focus 
on Joint Operating Concepts, we will continue to transform our force--
meeting the challenges of this era, adapting our forces and people to 
them, and operating our service efficiently. We will adopt service 
concepts and capabilities that support the joint construct and 
capitalize on our core competencies. To sustain our dominance, we 
develop professional airmen, invest in warfighting technology, and 
integrate our people and systems together to produce decisive joint 
warfighting capabilities.
        developing airmen--right people, right place, right time
    At the heart of our combat capability are the professional airmen 
who voluntarily serve the Air Force and our Nation. Our airmen turn 
ideas, tools, tactics, techniques, and procedures into global mobility, 
power projection, and battlespace effects. Our focus for the ongoing 
management and development of Air Force personnel will be to: define, 
renew, develop, and sustain the force.
Defining our Requirements
    To meet current and future requirements, we need the right people 
in the right specialties. The post-September 11 environment has taxed 
our equipment and our people, particularly those associated with force 
protection, ISR, and the buildup and sustainment of expeditionary 
operations. Our analysis shows that we need to shift manpower to 
stressed career fields to meet the demands of this new steady state, 
and we are in the process of doing this. We have realigned personnel 
into our most stressed specialties and hired additional civilians and 
contractors to free military members to focus on military specific 
duties. We have also made multi-million dollar investments in 
technology to reduce certain manpower requirements. We have redirected 
our training and accession systems and have cross-trained personnel 
from specialties where we are over strength to alleviate stressed 
career fields, supporting the Secretary of Defense's vision of moving 
forces ``from the bureaucracy to the battlefield.''
    Since 2001, we have exceeded our congressionally mandated end 
strength by more than 16,000 personnel. In light of the global war on 
terrorism and OIF, DOD allowed this overage, but now we need to get 
back to our mandated end strength. We are addressing this issue in two 
ways: first, by reducing personnel overages in most skills; and second, 
by shaping the remaining force to meet mission requirements. To reduce 
personnel, we will employ a number of voluntary tools to restructure 
manning levels in Air Force specialties, while adjusting our Active 
Force size to the end strength requirement. As we progress, we will 
evaluate the need to implement additional force shaping steps.
    We are also reviewing our ARC manpower to minimize involuntary 
mobilization of ARC forces for day-to-day, steady state operations 
while ensuring they are prepared to respond in times of crisis. Since 
September 11, 2001, we have mobilized more than 62,000 people in over 
100 units, and many more individual mobilization augmentees. Today, 20 
percent of our AEF packages are comprised of citizen airmen, and 
members of the Guard or Reserve conduct 89 percent of ONE missions. We 
recognize this is a challenge and are taking steps to relieve the 
pressure on the Guard and Reserve.
    In fiscal year 2005, we plan to redistribute forces in a number of 
mission areas among the Reserve and active components to balance the 
burden on the Reserves. These missions include our Air and Space 
Operations Centers, remotely piloted aircraft systems, Combat Search 
and Rescue, Security Forces, and a number of high demand global 
mobility systems. We are working to increase ARC volunteerism by 
addressing equity of benefits and tour-length flexibility, while 
addressing civilian employer issues. We are also looking at creating 
more full-time positions to reduce our dependency on involuntary 
mobilization.
    We are entering the second year of our agreement to employ Army 
National Guard soldiers for force protection at Air Force 
installations, temporarily mitigating our 8,000 personnel shortfall in 
security forces. As we do this, we are executing an aggressive plan to 
rapidly burn down the need for Army augmentation and working to 
redesign manpower requirements. Our reduction plan maximizes the use of 
Army volunteers in the second year, and allows for demobilization of 
about one third of the soldiers employed in the first year.
Future Total Force
    Just as in combat overseas, we are continuing to pursue seamless 
ARC and active duty integration at home, leveraging the capabilities 
and characteristics of each component, while allowing each to retain 
their cultural identity. We continue to explore a variety of 
organizational initiatives to integrate our Active, Guard, and Reserve 
Forces. These efforts are intended to expand mission flexibility, 
create efficiencies in our Total Force, and prepare for the future. 
Today's Future Total Force team includes a number of blended or 
associate units that are programmed or are in use. The creation of the 
``blended'' unit, the 116th Air Control Wing at Robins Air Force Base, 
Georgia, elevated integration to the next level. With an initial 
deployment of over 730 personnel, and significant operational 
achievements in OIF, we are now examining opportunities to integrate 
active, Guard, and Reserve units elsewhere in order to produce even 
more measurable benefits, savings, and efficiencies.
    The reasons for this type of integration are compelling. We can 
maximize our warfighting capabilities by integrating Active, Guard, and 
Reserve Forces to optimize the contributions of each component. 
Reservists and guardsmen bring with them capabilities they have 
acquired in civilian jobs, leveraging the experience of ARC personnel. 
Integration relieves PERSTEMPO on the Active-Duty Force. Because ARC 
members do not move as often, they provide corporate knowledge, 
stability, and continuity. Finally, integration enhances the retention 
of airmen who decide to leave active service. Because the Guard and 
Reserve are involved in many Air Force missions, we recapture the 
investment we've made by retaining separating active duty members as 
members of the ARC.
Renewing the Force
    To renew our force, we target our recruitment to ensure a diverse 
force with the talent and drive to be the best airmen in the world's 
greatest Air Force. We will recruit those with the skills most critical 
for our continued success. In fiscal year 2003, our goal was 5,226 
officers and 37,000 enlisted; we exceeded our goal in both categories, 
accessing 5,419 officers and 37,144 enlisted. For fiscal year 2004, we 
plan to access 5,795 officers and 37,000 enlisted.
    In the Air Force, the capabilities we derive from diversity are 
vital to mission excellence and at the core of our strategy to maximize 
our combat capabilities. In this new era, successful military 
operations demand much greater agility, adaptability, and versatility 
to achieve and sustain success. This requires a force comprised of the 
best our Nation has to offer, from every segment of society, trained 
and ready to go. Our focus is building a force that consists of men and 
women who possess keener international insight, foreign language 
proficiency, and wide-ranging cultural acumen. Diversity of life 
experiences, education, culture, and background are essential to help 
us achieve the asymmetric advantage we need to defend America's 
interests wherever threatened. Our strength comes from the collective 
application of our diverse talents, and is a critical component of the 
air and space dominance we enjoy today. We must enthusiastically reach 
out to all segments of society to ensure the Air Force offers a 
welcoming career to the best and brightest of American society, 
regardless of their background. By doing so, we attract people from all 
segments of society and tap into the limitless talents resident in our 
diverse population.
    In addition to a diverse force, we also need the correct talent 
mix. We remain concerned about recruiting health care professionals and 
individuals with technical degrees. To meet our needs, we continue to 
focus our efforts to ensure we attract and retain the right people. We 
will also closely monitor ARC recruitment. Historically, the Air 
National Guard and Air Force Reserve Command access close to 25 percent 
of eligible, separating active duty Air Force members with no break in 
service between their active duty and ARC service.
Developing the Force
    Over the past year, we implemented a new force development 
construct in order to get the right people in the right job at the 
right time with the right skills, knowledge, and experience. Force 
development combines focused assignments and education and training 
opportunities to prepare our people to meet the mission needs of our 
Air Force. Rather than allowing chance and happenstance to guide an 
airman's experience, we will take a deliberate approach to develop 
officers, enlisted, and civilians throughout our Total Force. Through 
targeted education, training, and mission-related experience, we will 
develop professional airmen into joint force warriors with the skills 
needed across the tactical, operational, and strategic levels of 
conflict. Their mission will be to accomplish the joint mission, 
motivate teams, mentor subordinates, and train their successors.
    A segment of warriors requiring special attention is our cadre of 
space professionals, those that design, build, and operate our space 
systems. As military dependence on space grows, the Air Force continues 
to develop this cadre to meet our Nation's needs. Our Space 
Professional Strategy is the roadmap for developing that cadre. Air 
Force space professionals will develop more in-depth expertise in 
operational and technical space specialties through tailored 
assignments, education, and training. This roadmap will result in a 
team of scientists, engineers, program managers, and operators skilled 
and knowledgeable in developing, acquiring, applying, sustaining, and 
integrating space capabilities.
Sustaining the Force
    The Air Force is a retention-based force. Because the skill sets of 
our airmen are not easily replaced, we expend considerable effort to 
retain our people, especially those in high-technology fields and those 
in whom we have invested significant education and training. In 2003, 
we reaped the benefits of an aggressive retention program, aided by a 
renewed focus and investment on education and individual development, 
enlistment and retention bonuses, targeted military pay raises, and 
quality of life improvements. Our fiscal year 2003 enlisted retention 
statistics tell the story. Retention for first term airmen stood at 61 
percent, exceeding our goal by 6 percent. Retention for our second term 
and career airmen was also impressive, achieving 73 percent and 95 
percent respectively. Continued investment in people rewards their 
service, provides a suitable standard of living, and enables us to 
attract and retain the professionals we need.
    One of the highlights of our quality of life focus is housing 
investment. Through military construction and housing privatization, we 
are providing quality homes faster than ever before. Over the next 3 
years, the Air Force will renovate or replace more than 40,000 homes 
through privatization. At the same time, we will renovate or replace an 
additional 20,000 homes through military construction. With the 
elimination of out-of-pocket housing expenses, our Air Force members 
and their families now have three great options--local community 
housing, traditional military family housing, and privatized housing.
Focus On Fitness
    We recognize that without motivated and combat-ready expeditionary 
airmen throughout our Total Force, our strategies, advanced 
technologies, and integrated capabilities would be much less effective. 
That is why we have renewed our focus on fitness and first-class 
fitness centers. We must be fit to fight. That demands that we reorient 
our culture to make physical and mental fitness part of our daily life 
as airmen. In January 2004, our new fitness program returned to the 
basics of running, sit-ups, and pushups. The program combines our 
fitness guidelines and weight/body fat standards into one program that 
encompasses the total health of an airman.
                       technology-to-warfighting
    The Air Force has established a capabilities-based approach to war 
planning, allowing us to focus investments on those capabilities we 
need to support the joint warfighter. This type of planning focuses on 
capabilities required to accomplish a variety of missions and to 
achieve desired effects against any potential threats. Our 
capabilities-based approach requires us to think in new ways and 
consider combinations of systems that create distinctive capabilities.
Effects Focus: Capabilities-Based CONOPs
    The Air Force has written six CONOPs that support capabilities-
based planning and the joint vision of combat operations. The CONOPs 
help analyze the span of joint tasks we may be asked to perform and 
define the effects we can produce. Most importantly, they help us 
identify the capabilities an expeditionary force will need to 
accomplish its mission, creating a framework that enables us to shape 
our portfolio.

        <bullet> Homeland Security CONOPs leverage Air Force 
        capabilities with joint and interagency efforts to prevent, 
        protect, and respond to threats against our homeland--within or 
        beyond U.S. territories.
        <bullet> Space and Command, Control, Communications, Computers, 
        Intelligence, Surveillance, and Reconnaissance (C\4\ISR) CONOPs 
        harness the integration of manned, unmanned, and space systems 
        to provide persistent situation awareness and executable 
        decision-quality information to the JFC.
        <bullet> Global Mobility CONOPs provide combatant commanders 
        with the planning, command and control, and operations 
        capabilities to enable timely and effective projection, 
        employment, and sustainment of U.S. power in support of U.S. 
        global interests--precision delivery for operational effect.
        <bullet> Global Strike CONOPs employ joint power-projection 
        capabilities to engage anti-access and high-value targets, gain 
        access to denied battlespace, and maintain battlespace access 
        for required joint/coalition follow-on operations.
        <bullet> Global Persistent Attack CONOPs provide a spectrum of 
        capabilities from major combat to peacekeeping and sustainment 
        operations. Global Persistent Attack assumes that once access 
        conditions are established (i.e. through Global Strike), there 
        will be a need for persistent and sustained operations to 
        maintain air, space, and information dominance.
        <bullet> Nuclear Response CONOPs provide the deterrent 
        ``umbrella'' under which conventional forces operate, and, if 
        deterrence fails, avails a scalable response.

    This CONOPs approach has resulted in numerous benefits, providing:

        <bullet> Articulation of operational capabilities that will 
        prevail in conflicts and avert technological surprises;
        <bullet> An operational risk and capabilities-based 
        programmatic decisionmaking focus;
        <bullet> Budgeting guidance to the Air Force Major Commands for 
        fulfilling capabilities-based solutions to satisfy warfighter 
        requirements;
        <bullet> Warfighter risk management insights for long-range 
        planning.
Modernization and Recapitalization
    Through capabilities-based planning, the Air Force will continue to 
invest in our core competency of bringing technology to the warfighter 
that will maintain our technical advantage and update our air and space 
capabilities. The Capabilities Review and Risk Assessment (CRRA) 
process guides these efforts. Replacing an outdated threat-based review 
process that focused on platforms versus current and future warfighting 
effects and capabilities, our extensive 2-year assessment identified 
and prioritized critical operational shortfalls we will use to guide 
our investment strategy. These priorities present the most significant 
and immediate Air Force-wide capability objectives.
    We need to field capabilities that allow us to reduce the time 
required to find, fix, track and target fleeting and mobile targets and 
other hostile forces. One system that addresses this operational 
shortfall is the F/A-22 Raptor. In addition to its contributions to 
obtaining and sustaining air dominance, the F/A-22 will allow all 
weather, stealthy, precision strike 24 hours a day, and will counter 
existing and emerging threats, such as advanced surface-to-air 
missiles, cruise missiles, and time sensitive and emerging targets, 
including mobile targets, that our legacy systems cannot. The F/A-22 is 
in low rate initial production and has begun Phase I of its operational 
testing. It is on track for initial operational capability in 2005. A 
complementary capability is provided by the F-35 Joint Strike Fighter, 
providing sustainable, focused CAS and interservice and coalition 
commonality.
    We also recognize that operational shortfalls exist early in the 
kill chain and are applying technologies to fill those gaps. A robust 
command, control, and sensor portfolio combining both space and 
airborne systems, along with seamless real-time communications, will 
provide additional critical capabilities that address this shortfall 
while supporting the Joint Operational Concept of full spectrum 
dominance. Program definition and risk reduction efforts are moving us 
towards C\4\ISR and Battle Management capabilities with shorter cycle 
times. The JFC will be able to respond to fleeting opportunities with 
near-real time information and will be able to bring to bear kill-chain 
assets against the enemy. Additionally, in this world of proliferating 
cruise missile technology, our work on improving our C\4\ISR 
capabilities--including airborne Active Electronically Scanned Array 
(AESA) radar technology--could pay large dividends, playing a 
significant role in America's defense against these and other threats. 
To create this robust command and control network, we will need a 
flexible and digital multi-service communications capability. We are 
well on our way in defining the architecture to make it a reality. The 
capabilities we are pursuing directly support the Department's 
transformational system of interoperable joint C\4\ISR.
    There is a need for a globally interconnected capability that 
collects, processes, stores, disseminates, and manages information on 
demand to warfighters, policy makers, and support people. The C2 
Constellation, our capstone concept for achieving the integration of 
air and space operations, includes these concepts and the future 
capabilities of the Global Information Grid (GIG), Net Centric 
Enterprise Services, Transformational Communications, the Joint 
Tactical Radio System, and airborne command, control, and communication 
assets, among others.
    One of the elements of a sensible strategy to maintain U.S. power 
projection capabilities derives from a global aerial refueling fleet 
that serves Air Force, Navy, Marine Corps, and coalition aircraft. Our 
current fleet of aging tankers met the challenges of OEF and OIF but is 
increasingly expensive to maintain. The fleet averages more then 40 
years of age, and the oldest model, the KC-135E, goes back to the 
Eisenhower administration. Recapitalization for this fleet of over 540 
aerial refueling aircraft will clearly take decades to complete and is 
vital to the foundation and global reach of our Air Force, sister 
Services, and coalition partners. The Air Force is committed to an 
acquisition approach for this program that will recapitalize the fleet 
in the most affordable manner possible.
    Capabilities-driven modernization and recapitalization efforts are 
also taking place on our space systems, as we replace constellations of 
satellites and ground systems with next generation capabilities. The 
Evolved Expendable Launch Vehicle (EELV) has completed six successful 
launches. Using two launch designs, we will continue to seek 
responsive, assured access to space for government systems. Space-based 
radar (SBR) will provide a complementary capability to our portfolio of 
radar and remote sensing systems. We will employ internet protocol 
networks and high-bandwidth lasers in space to transform communications 
with the Transformational Satellite, dramatically increasing 
connectivity to the warfighter. Modernization of GPS and development of 
the next-generation GPS III will enhance navigation capability and 
increase our resistance to jamming. In partnership with the National 
Aeronautics and Space Administration (NASA) and the Department of 
Commerce, we are developing the National Polar-orbiting Operational 
Environmental Satellite System, which offers next-generation 
meteorological capability. Each of these systems supports critical 
C\4\ISR capabilities that give the JFC increased technological and 
asymmetric advantages.
    Space control efforts, enabled by robust space situation awareness, 
will ensure unhampered access to space-based services. Enhanced space 
situation awareness assets will provide the information necessary to 
execute an effective space control strategy. However, we must be 
prepared to deprive an adversary of the benefits of space capabilities 
when American interests and lives are at stake.
    Additional capability does not stem solely from new weapon system 
acquisitions. It results from innovative modernization of our existing 
systems. One example is incorporating a Smart Bomb Rack Assembly and 
the 500-lb. version of the Joint Direct Attack Munition (JDAM) into the 
weapons bay of the B-2. In September 2003, we demonstrated that the B-2 
bomber is now able to release up to 80 separately targeted, GPS-guided 
weapons in a single mission. This kind of innovation reduces the number 
of platforms that must penetrate enemy airspace while holding numerous 
enemy targets at risk. The second order consequences run the gamut from 
maintenance to support aircraft.
    We will also address the deficiencies in our infrastructure through 
modernization and recapitalization. Improvements to our air and space 
systems will be limited without improvements in our foundational 
support systems. Deteriorated airfields, hangars, waterlines, 
electrical networks, and air traffic control approach and landing 
systems are just some of the infrastructure elements needing immediate 
attention. Our investment strategy focuses on three simultaneous steps: 
disposing of excess facilities; sustaining our facilities and 
infrastructure; and establishing a sustainable investment program for 
future modernization of our facilities and infrastructure.
    Finally, we need to continue to modernize and recapitalize our 
information technology infrastructure. To leverage our information 
superiority, the Air Force is pursuing a modernization strategy and 
information technology investments, which target a common network 
infrastructure and employ enterprise services and shared capabilities.
Science and Technology
    Our investment in S&T has and continues to underpin our 
modernization and recapitalization program. Similar to our applied-
technology acquisition efforts, the Air Force's capability-based focus 
produces an S&T vision that supports the warfighter.
    The Air Force S&T program fosters development of joint warfighting 
capabilities and integrated technologies, consistent with DOD and 
national priorities. We will provide a long-term, stable investment in 
S&T in areas that will immediately benefit existing systems and in 
transformational technologies that will improve tomorrow's Air Force. 
Many Air Force S&T programs, such as directed energy, hypersonics, 
laser-based communications, and the emerging field of nanotechnology, 
show promise for joint warfighting capabilities. Other technology 
areas, such as miniaturization of space platforms and space proximity 
operations, also show promise in the future. Through developments like 
these, the Air Force S&T program will advance joint warfighting 
capabilities and the Air Force vision of an integrated air and space 
force capable of responsive and decisive global engagement.
Capabilities-Based Acquisition/Transforming Business Practices
    To achieve our vision of a flexible, responsive, and capabilities-
based expeditionary force, we are transforming how we conceive, plan, 
develop, acquire, and sustain weapons systems. Our Agile Acquisition 
initiative emphasizes speed and credibility; we must deliver what we 
promise--on time and on budget. Our goal is to deliver affordable, 
sustainable capabilities that meet joint warfighters' operational 
needs.
    We continue to improve our acquisition system--breaking down 
organizational barriers, changing work culture through aggressive 
training, and reforming processes with policies that encourage 
innovation and collaboration. Already, we are:

        <bullet> Realigning our Program Executive Officers (PEOs). By 
        moving our PEOs out of Washington and making them commanders of 
        our product centers, we have aligned both acquisition 
        accountability and resources under our most experienced general 
        officers and acquisition professionals.
        <bullet> Creating a culture of innovation. Because people drive 
        the success of our Agile Acquisition initiatives, we will focus 
        on enhanced training. Laying the foundation for change, this 
        past year 16,500 Air Force acquisition professionals, and 
        hundreds of personnel from other disciplines, attended training 
        sessions underscoring the need for collaboration, innovation, 
        reasonable risk management, and a sense of urgency in our 
        approach.
        <bullet> Reducing Total Ownership Costs. With strong support 
        from the Secretary of Defense, we will expand the Reduction in 
        Total Ownership Cost program with a standard model ensuring 
        that we have accurate metrics.
        <bullet> Moving technology from the lab to the warfighter 
        quickly. Laboratories must focus on warfighter requirements and 
        researchers need to ensure technologies are mature, producible, 
        and supportable. Warfighters will work with scientists, 
        acquisition experts, and major commands to identify gaps in 
        capabilities. With help from Congress, we have matured our 
        combat capability document process to fill those gaps. During 
        OIF, we approved 37 requests for critically needed systems, 
        usually in a matter of days.
        <bullet> Tailoring acquisition methods for space systems. In 
        October 2003, we issued a new acquisition policy for space 
        systems that will improve acquisitions by tailoring acquisition 
        procedures to the unique demands of space systems.

    Transformation of our business processes is not limited to 
acquisition activities. Our Depot Maintenance Strategy and Master Plan 
calls for financial and infrastructure capitalization to ensure Air 
Force hardware is safe and ready to operate across the threat spectrum. 
Our increased funding for depot facilities and equipment modernization 
in fiscal year 2004-2009, along with public-private partnerships, will 
result in more responsive support to the JFC. We expect to maximize 
production and throughput of weapon systems and commodities that will 
improve mission capability.
    Our logistics transformation initiative will revolutionize 
logistics processes to improve warfighter support and reduce costs. The 
goal of the Air Force's logistics transformation program, Expeditionary 
Logistics for the 21st century, is to increase weapon system 
availability by 20 percent with zero cost growth. Our current 
initiatives--depot maintenance transformation, purchasing and supply 
chain management, regionalized intermediate repair, and improved 
logistics command and control--will transform the entire logistics 
enterprise.
    Our depots have put some of these initiatives into place with 
exceptional results. In fiscal year 2003, our depot maintenance teams 
were more productive than planned, exceeding aircraft, engine, and 
commodity production goals and reducing flow days in nearly all areas. 
Implementation of ``lean'' production processes, optimized use of the 
existing workforce, and appropriate funding, all contributed to this 
good news story. In addition, our spares support to the warfighter is 
at record high numbers. In 2003, supply rates and cannibalization rates 
achieved their best performance since fiscal years 1994 and 1995, 
respectively. Fourteen of 20 aircraft design systems improved their 
mission capable rates over the previous year, with Predator UAVs 
improving by 11 percent, and B-1 bombers achieving the best mission 
capable and supply rates in its history. Thanks to proper funding, 
fleet consolidation, and transformation initiatives, spare parts 
shortages were reduced to the lowest levels recorded across the entire 
fleet.
Financing the Fight
    An operating strategy is only as good as its financing strategy. 
Similar to acquisition, logistics, and other support processes, our 
finance capabilities are strong. We are taking deliberate and 
aggressive steps to upgrade our financial decision support capability 
and reduce the cost of delivering financial services. Our focus is on 
support to our airmen, strategic resourcing and cost management, and 
information reliability and integration. The initiatives that will get 
us there include self-service web-based pay and personnel customer 
service, seamless e-commerce for our vendor payment environment, 
budgets that link planning, programming, and execution to capabilities 
and performance, financial statements that produce clean audit opinions 
while providing reliable financial and management information, and 
innovative financing strategies.
                         integrating operations
    The Air Force excels at providing communications, intelligence, air 
mobility, precision strike, and space capabilities that enable joint 
operations. Our airmen integrate these and other capabilities into a 
cohesive system that creates war-winning effects. Integration takes 
place at three levels. At the joint strategic level, integration occurs 
between interagencies and the coalition. Integration also takes place 
within the Air Force at an organizational level. At its most basic 
level, integration takes place at the machine-to-machine level to 
achieve universal information sharing which facilitates true 
integration at every level.
Integrating Joint, Coalition, and Interagency Operations
    The ever-changing dynamics of global events will drive the need to 
integrate DOD and interagency capabilities and, in most cases, those of 
our coalition partners. Joint solutions are required to produce 
warfighting effects with the speed that the global war on terrorism 
demands. Fully integrated operations employ only the right forces and 
capabilities necessary to achieve an objective in the most efficient 
manner. We must also integrate space capabilities for national 
intelligence and warfighting.
    We are pursuing adaptations of our C2 organizations and 
capabilities to support this vision. While the Air Force's global C2 
structure has remained relatively constant, throughout our 57-year 
history, the demands of a changing geopolitical environment have 
stressed current C2 elements beyond their design limits.
    We have conducted an extensive review of our C2 structures to 
support the National Security Strategy objectives of assure, dissuade, 
deter, and defeat as well as the Secretary of Defense's Unified Command 
Plan (UCP). We will enhance our support for the JFC and our 
expeditionary posture through a new Warfighting Headquarters Construct. 
This will enable the Numbered Air Forces to support Unified Combatant 
Commanders in a habitual supported-supporting relationship. Working 
with their strategy and planning cells on a daily basis will ensure 
that Air Force capabilities are available to the JFC's warfighting 
staff. This new headquarters will provide the Combined Air Operations 
Center (CAOC) with sufficient staff to focus on planning and employment 
of air, space, and information operations throughout the theater.
    We are also adapting the capabilities of our CAOCs. The CAOCs of 
each headquarters will be interconnected with the theater CAOCs, all 
operating 24 hours a day, 7 days a week. They will be operated as a 
weapons system, certified and standardized, and have cognizance of the 
entire air and space picture. This reorganization will increase our 
ability to support our combatant commanders, reduce redundancies, and 
deliver precise effects to the warfighters. As we near completion of 
the concept development, we will work with the Secretary of Defense and 
Congress to implement a more streamlined and responsive C2 component 
for the combatant commanders and national leadership.
    Integrated operations also depend on integrated training. We 
continue to advance joint and combined interoperability training with 
our sister Services and the nations with which we participate in global 
operations. The Joint National Training Capability (JNTC) will improve 
our opportunities for joint training. The aim of the JNTC is to improve 
each Service's ability to work with other Services at the tactical 
level and to improve joint planning and execution at the operational 
and strategic levels. The Air Force has integrated live, virtual, and 
constructive training environments into a single training realm using a 
distributed mission operations (DMO) capability. JNTC will use this DMO 
capability to tie live training events with virtual (man-in-the-loop) 
play and constructive simulations. Live training in 2004--on our ranges 
during four Service-conducted major training events--will benefit from 
improved instrumentation and links to other ranges as well as the 
ability to supplement live training with virtual or constructive 
options. These types of integrated training operations reduce overall 
costs to the services while providing us yet another avenue to train 
like we fight.
Integrating Within the Air Force
    The Air Force is continuing to strengthen and refine our AEF. The 
AEF enables rapid build-up and redeployment of air and space power 
without a lapse in the Air Force's ability to support a combatant 
commander's operations. The Air Force provides forces to combatant 
commanders according the AEF Presence Policy (AEFPP), the Air Force 
portion of DOD's Joint Presence Policy. There are 10 AEFs, and each AEF 
provides a portfolio of capabilities and force modules. At any given 
time, two AEFs are postured to immediately provide these capabilities. 
The other eight are in various stages of rest, training, spin-up, or 
standby. The AEF is how the Air Force organizes, trains, equips, and 
sustains responsive air and space forces to meet defense strategy 
requirements outlined in the Strategic Planning Guidance.
    Within the AEF, Air Force forces are organized and presented to 
combatant commanders as Air and Space Expeditionary Task Forces 
(AETFs). They are sized to meet the combatant commander's requirements 
and may be provided in one of three forms: as an Air Expeditionary Wing 
(AEW), Group (AEG), and/or Squadron (AES). An AETF may consist of a 
single AEW or AEG, or may consist of multiple AEWs or AEGs and/or as a 
Numbered Expeditionary Air Force. AETFs provide the functional 
capabilities (weapon systems, expeditionary combat support and command 
and control) to achieve desired effects in an integrated joint 
operational environment.
    One of our distinctive Air Force capabilities is Agile Combat 
Support (ACS.) To provide this capability, our expeditionary combat 
support forces--medics, logisticians, engineers, communicators, 
security forces, services, and contracting, among several others--
provide a base support system that is highly mobile, flexible, and 
fully integrated with air and space operations. ACS ensures responsive 
expeditionary support to joint operations is achievable within resource 
constraints--from creation of operating locations to provision of 
right-sized forces. An example of this capability is the 86th 
Contingency Response Group (CRG) at Ramstein Air Base, organized, 
trained, and equipped to provide an initial ``Open the Base'' force 
module to meet combatant commander requirements. The CRG provides a 
rapid response team to assess operating location suitability and 
defines combat support capabilities needed to establish Air 
Expeditionary Force operating locations.
    Another example of ACS capability is the light and lean 
Expeditionary Medical System (EMEDS) that provides the U.S. military's 
farthest forward care and surgical capability. Air Force medics jump 
into the fight alongside the very first combatants. Whether supporting 
the opening of an air base or performing life saving surgeries, these 
medics bring an extraordinary capability. They carry backpacks with 
reinforced medical equipment, permitting them to perform medical 
operations within minutes of their boots hitting the ground. 
Complementing this expeditionary medical capability is our air 
evacuation system that provides the lifeline for those injured 
personnel not able to return to duty. The other Services and our allies 
benefited greatly from this capability in OEF and OIF. The Army and 
Navy are now developing a similar light and lean capability. The 
success of EMEDS is also apparent in the reduction of disease and non-
battle injuries--the lowest ever in combat.
Horizontal Machine-to-Machine Integration
    We also strive to increasingly integrate operations at the most 
basic level--electron to electron. Victory belongs to those who can 
collect intelligence, communicate information, and bring capabilities 
to bear first. Executing these complex tasks with accuracy, speed, and 
power requires assured access and the seamless, horizontal integration 
of systems, activities and expertise across all manned, unmanned, and 
space capabilities. Such integration will dramatically shorten the kill 
chain.
    Machine-to-machine integration means giving the warfighter the 
right information at the right time. It facilitates the exchange of 
large amounts of information, providing every machine the information 
it needs about the battlespace and an ability to share that 
information. In the future, we will significantly reduce the persistent 
challenges of having different perspectives or pictures of the 
battlefield. Examples would be to ensure that the A-10 could see the 
same target as the Predator or to guarantee that the F-15 has the same 
intelligence about enemy radars as the Rivet Joint.
    We want a system where information is made available and delivered 
without regard to the source of the information, who analyzed the 
information, or who disseminated the information. It is the end product 
that is important, not the fingers that touch it. The culmination of 
the effort is the cursor over the target. It is an effect we seek, and 
what we will provide.
    The warfighters' future success will depend on Predictive 
Battlespace Awareness (PBA). PBA relies on in-depth study of an 
adversary before hostilities begin in order to anticipate his actions 
to the maximum extent possible. We can then analyze information to 
assess current conditions, exploit opportunities, anticipate future 
actions, and act with a degree of speed and certainty unmatched by our 
adversaries. PBA also relies on the ability of air and space systems to 
integrate information at the machine-to-machine level and produce high-
fidelity intelligence that results in a cursor over the target. The 
result--integrated operations--is our unique ability to conduct PBA and 
impact the target at the time and place of our choosing. This machine-
to-machine integration will include a constellation of sensors that 
create a network of information providing joint warfighters the 
information and continuity to see first, understand first, and act 
first.
    The C2 Constellation is the Air Force capstone concept for 
achieving the integration of air and space operations. Our vision of 
the C2 Constellation is a robust, protected network infrastructure, a 
globally based command and control system to encompass all levels of 
the battle and allow machines to do the integration and fusion. It uses 
Battle Management Command and Control and Connectivity and consists of 
command centers, sensors, and systems like the U-2, SBR, the 
Distributed Common Ground System, and our CAOCs. Given the C2 
Constellation's complexity, the Air Force recognizes the need for an 
architecture to address myriad integration issues--methodically--so all 
elements work in concert.
                    securing america's next horizon
    Armed with the heritage of air and space power in combat, the 
lessons learned from our most recent conflicts, and the powerful 
advances in technology in the 21st century, we stand ready to deliver 
decisive air and space power in support of our Nation. Whether called 
to execute a commanding show of force, to enable the joint fight, to 
deliver humanitarian assistance, or to protect our Nation from the 
scourge of terrorism, we will deliver the effects required. Our ability 
to consistently answer the call is our dividend to the Nation, a result 
of our sustained investment in people, technology, and integration.
    Our portfolio of advantages provides dividends on the battlefield. 
We bring to bear a diversified collection of capabilities, which answer 
the needs of a spectrum of combat and humanitarian operations. As one 
would with any investment, we will monitor, maintain, and adjust our 
investments as needed to reflect the demands of a dynamic environment. 
Transformational initiatives in the way we organize, train, and equip 
reflect such adjustments, changes that will result in significant gains 
for our force, for the joint team, and for our Nation. Yet, we will not 
shift our focus from the core competencies that have provided the 
foundation for our success and continue to do so. The success of the 
Air Force resides in the airmen who employ the technology of 
warfighting through integrated operations with our joint and coalition 
partners. This is our heritage and our future. This is America's Air 
Force.

    Chairman Warner. Thank you, General, for that statement. I 
think the committee as a whole is very appreciative of the good 
strong reports from each of you that we have received this 
morning.
    We will now proceed to a first round of 6 minutes each and 
I will lead off. General Schoomaker, we are preparing to have 
one of the largest rotations of forces in Iraq in contemporary 
military history. That not only involves the training to have 
those men and women ready when they arrive, but also the 
equipment. You and I have spent some time here recently in 
consultation on how at this very moment further adaptations are 
being made to the equipment, particularly the high-mobility 
multipurpose wheeled vehicle (HMMWV), to meet the ever-changing 
type of threat and weaponry being used. General Hagee, you are 
about to oversee your forces once again returning to Iraq.
    So I will ask each of you to discuss the ramifications of 
this very significant turnover of forces and equipment, whether 
it is the HMMWV, personal vests, or body armor. What is the 
status as they go into this face of harm's way?
    General Schoomaker. Sir, as you correctly stated, this is 
one of the largest movements we have had since World War II. It 
is very complex. We have approached it in a very deliberative 
fashion, we have extended the period of time in which this 
rotation will take place to provide for the adequate 
preparation time, training, coordination, reconnaissance, and 
all of the things we have to do to ensure an appropriate 
seamless turnover of forces for this very complicated theater.
    Included in this is the extensive management of the 
equipment that will remain behind. Any equipment that we have 
designed, especially for force protection, including the up-
armored vehicles, not just the up-armored HMMWVs but the 
extensive efforts we have been making on other larger vehicles 
that are there--supply trucks, the body armor, these kinds of 
things. We have, I am happy to say, met the goal--which I 
testified to previously--in both Iraq and Kuwait to have the 
Interceptor Body Armor now over there in sufficient numbers for 
everybody to have. All of that will remain in place and it is 
being managed in a very detailed way that will ensure that 
nobody is not protected with the very best equipment that we 
can acquire.
    We have tripled the number of up-armored HMMWVs that are in 
the theater and are moving toward a requirement of 4,100. This 
is a constantly moving target. We have included the Marine 
Corps' requirements in that number and we are working very 
closely with General Hagee's people to ensure that adequate 
distribution of vehicles for their sector takes place.
    We have significantly increased production of this 
equipment. You and I have had extensive conversations about not 
only the up-armored HMMWV situation but also the add-on armor 
kits that are being produced. So unless you want to go into 
more detail, sir, I will stop there.
    Chairman Warner. That is fine.
    General Hagee.
    General Hagee. I will not repeat what General Schoomaker 
said, but we are ready. We have about 3,000 vehicles--which 
includes both large vehicles and the smaller HMMWVs--that we 
are hardening right now in conjunction with the Army. The Army 
is also leaving behind some of their so-called up-armored 
HMMWVs. When the transfer of authority takes place we believe 
that we will have all of our vehicles hardened and ready to go.
    We have enough body armor for every single marine to 
produce sufficient protection, not only in Iraq but in 
Afghanistan. Working with the Army, we have also developed 
technical means against these improvised explosive devices 
(IEDs), but I cannot go any further here in open session.
    In addition, we have spent the last few months working with 
the Army doing extensive training, taking their lessons learned 
from Iraq. We have sent every single maneuver battalion through 
an extensive 1-week course out in southern California. We have 
taken all of our pilots and put them through a 2-week course 
down at Yuma, Arizona. We have also taken our combat support 
and combat service support marines, reminded them that every 
marine is a rifleman, and sent them through an extensive 
training course.
    Sir, as we deploy this month we believe we are ready.
    Chairman Warner. Thank you.
    The Commandant mentioned Afghanistan. Obviously, the 
theaters are in some competition for equipment. It would be my 
expectation that you find that your forces in Afghanistan are 
equally well equipped as those in Iraq. Am I correct on that, 
General?
    General Schoomaker. That is correct, sir.
    Chairman Warner. You mentioned in your opening statement 
the tremendous value the Guard and Reserve have held throughout 
this and indeed other conflicts. Yet when the Secretary of 
Defense came, he very forthrightly said that there had been 
some analytical studies made of the Guard and Reserve and their 
training, and workup for such operations should be changed.
    Can you elaborate on how you are working with the Guard and 
Reserve community to begin to make them into units that are 
more readily able to integrate with the Active Forces?
    General Schoomaker. Sir, I would be happy to. At the 
highest level, our initiative of modularity that allows us to 
plug and play Reserve component units with active component 
units in a seamless fashion is, of course, our objective. Take 
a look at the way that we have been and are currently preparing 
and have been preparing the three guard brigades that are part 
of this current rotation going in for OIF 2. We have put the 
very best equipment on these soldiers, about $3,000 a set, 
including Interceptor Body Armor, the very best of weaponry, 
and all of the other equipment that is out there. They have 
been going through one of the most extensive training regimens, 
both at the National Training Center and at the Joint Readiness 
Training Center, which replicates very closely the environment 
in which they will operate, with extensive civilians on the 
battlefield, etcetera.
    Chairman Warner. Thank you for that, General.
    Lastly, General Jumper. The brunt of the transportation has 
fallen in many ways on your Transportation Command. What is the 
status of those aircraft and their ability to really handle 
this enormous transfer of forces that it is beginning to 
undertake?
    General Jumper. Mr. Chairman, a great deal of planning has 
gone on, not only for the airborne portion of this, but also 
for the portion that we send on ships. I have talked to General 
Handy, the commander of the U.S. Transportation Command, about 
this and he has a flow plan that is going to get this done in a 
timely fashion.
    I am confident that the planning for this has been good and 
that the flow will be normal.
    Chairman Warner. The Navy's role, Admiral, is up and ready 
on this?
    Admiral Clark. That is correct, sir. As we speak, we have a 
ship full of General Hagee's helicopters in the Red Sea en 
route, and all of the other shipping that is required is under 
control and ready to go.
    Chairman Warner. Thank you, gentlemen.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    As I indicated in my opening remarks, the budget that is 
before us does not include funding to pay for the incremental 
costs of operations in Iraq and Afghanistan. How are we going 
to pay for the costs that we know are going to be incurred 
before a supplemental budget is presented to us in next 
January?
    Let me ask General Schoomaker specifically. Do you have an 
estimate of the incremental costs that are going to be required 
to continue those ongoing operations at the same level in Iraq 
and in Afghanistan?
    General Schoomaker. Sir, I do not have an estimate, other 
than to look at the level at which we are currently operating. 
This year our share of that supplemental approached around $38 
billion, in the fiscal year 2004 budget.
    Senator Levin. Do you have an estimate as to what the 
approximate monthly incremental cost would be to maintain those 
operations at the current level?
    General Schoomaker. At the current level, sir, I believe we 
are expending around $3.7 billion in Iraq.
    Senator Levin. Per month?
    General Schoomaker. Per month, yes, sir.
    Senator Levin. Those are incremental costs?
    General Schoomaker. This is what I understand right now to 
be the total cost of operating in Iraq. In Afghanistan it is 
about $900 million a month.
    Senator Levin. Do you have the costs for the other 
Services? General Hagee, do you have a cost?
    General Hagee. Sir, right now, within the Marine Corps, we 
are projecting for this fiscal year expending about $800 
million to $900 million. Discussing this with the Secretary of 
the Navy, we believe that for this year it is about $1.5 
billion. We have captured those costs. We have submitted them 
to the Office of the Secretary of Defense (OSD) and we expect 
for them to be paid out of the supplemental.
    Senator Levin. General Schoomaker, General Hagee, press 
reports indicate that the Central Intelligence Agency (CIA) is 
concerned that a civil war could erupt in Iraq within the next 
6 months. How prepared are your forces, given the large 
rotation, to address that potential turn of events if this 
occurred, General Schoomaker?
    General Schoomaker. Sir, we are going to have a peak of 
almost 200,000 people in there at the peak of the rotation. We 
certainly are not intending to hold those people in there. That 
is part of the rotation base.
    I have heard of the discussions about the possibility of 
civil war and that is clearly a possibility, but I have not 
heard anybody predicting that in fact that is the case. We are 
prepared to deal with whatever comes our way. We are very well 
prepared to fight. We are very well prepared to do our duty 
there in the manner that we are doing it now.
    Senator Levin. General Hagee, do you have any comment on 
that?
    General Hagee. Sir, I would align myself with the Chief of 
Staff of the Army.
    Senator Levin. There were a number of expectations and 
assumptions that were based on prewar intelligence that did not 
pan out. For example, the expectation that many Iraqi army 
units would defect. That did not happen. There was an 
expectation that Iraqi police would stay at their stations. 
That did not happen.
    The fact that these did not happen led to subsequent 
events, such as the looting and the destruction of government 
files and buildings. These events probably led to what I and 
others consider to be a major error; the decision of Ambassador 
Bremer to disestablish the Iraqi army. As a result the various 
Iraqi security units had to be rebuilt from the ground up.
    There are certain other predictions, assumptions, and 
assessments, made by the Intelligence Community which did not 
take place. Obviously, the first is the presence of WMD. 
General Hagee gave us one example of how our actions were 
affected by those assessments and predictions. The same thing 
could be said relative to a CIA assessment that Iraq had UAVs 
that were intended for delivering WMD, but apparently they did 
not.
    There were more than 500 sites where WMD or WMD-related 
activities were possibly located. This means that there may 
have been targets that we did not strike because we were 
concerned about collateral damage from the potential release of 
chemical and biological weapons. Those are just some of the 
assessments and predictions that did not pan out.
    This is my question to each of you: Have you been 
interviewed by either the Senate or House Intelligence 
Committees or by any other congressional committee to determine 
the impact of prewar intelligence on the planning for or the 
conduct of OIF? General Schoomaker?
    General Schoomaker. No, sir, I have not.
    Senator Levin. Admiral Clark?
    Admiral Clark. No, sir.
    Senator Levin. General Hagee?
    General Hagee. No, sir.
    Senator Levin. General Jumper?
    General Jumper. No, sir.
    Senator Levin. Do we have contingency plans in the event 
that Iraq, after sovereignty is transferred to them, does not 
agree to provide the status that we want for our U.S. forces in 
Iraq? Once sovereignty is transferred, we are going to have to 
deal then with whoever that sovereign is relative to the 
operation of our forces and presumably reach an agreement with 
that entity that represents the government of Iraq relative to 
the status of our forces and the ability of our forces to 
operate.
    Do we have contingency plans in the event that Iraq does 
not agree to provide the status that we want or allow the U.S. 
forces to operate freely there? General, let me again start 
with you. Do you know of any contingency plan?
    General Schoomaker. Sir, I am not aware of what is going on 
in that regard. I think it is appropriate for General Abizaid 
to address that.
    Senator Levin. Do any of you have any comment on that? [No 
response.]
    My time is up. Thank you.
    Chairman Warner. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. I want to thank 
the witnesses for being here today.
    General Schoomaker, this transition that was just discussed 
of troops being rotated in Iraq will result in about 40 percent 
of those troops being Guard and Reserve units. Is that correct?
    General Schoomaker. Sir, I believe the last figure I was 
given is about 37 percent.
    Senator McCain. This is probably the largest percentage of 
guardsmen and reservists in a combat situation in history. 
Would you agree with that?
    General Schoomaker. Sir, I would not be able to agree with 
that. I do not know. I am not sure.
    Senator McCain. I do not have the facts, but I continue to 
disagree with the assertion made by the Secretary of Defense 
and all of you again today that we will not have significant 
impact on retention of guardsmen and reservists. Many of these 
guardsmen and reservists will be there for their second tour, 
is that correct?
    General Schoomaker. Sir, I do not have the figures before 
me, but if I recall the testimony the Secretary gave the other 
day, something like 7 percent of the Guard and Reserve has been 
called up more than once.
    Senator McCain. Well, we will find out, I guess. As I have 
said before, I hope that I am wrong.
    You intend to expand, General Schoomaker, the size of the 
Army by 30,000 individuals over 4 years. Is that correct?
    General Schoomaker. Sir, I have asked to grow some headroom 
in the Army so that we have the ability to do the modularity, 
movements, and transformation that we want to do, while we find 
the offsets for them within our current end strength 
authorization.
    Senator McCain. I guess I had better repeat the question, 
General Schoomaker: Is there going to be an increase of 30,000 
troops over a 4-year period?
    General Schoomaker. Yes, sir.
    Senator McCain. Do you intend to ask for that to be paid 
for each year in an emergency supplemental? It is not reflected 
in any budget request by the DOD.
    General Schoomaker. No, sir, it is not. That is what I 
asked for; it is under the supplemental funding under the 
current level of operations that we have. As I said before, we 
have 11,000 people right now above our statutory end strength 
that are being paid for through the supplemental because of the 
level of operations. What I have asked for is to be able to 
target who we keep so we can form more units while we fund the 
offsets in personnel within our current authorization through 
our restructuring and other initiatives.
    Senator McCain. Which again, in all due respect, ends up 
with an increase of 30,000 personnel. Is that correct?
    General Schoomaker. Yes, sir. I asked to be able to grow to 
that level. We cannot achieve that level overnight. This is 
going to be incremental growth over that period.
    Senator McCain. But each year is it the intention to ask 
for the funding for this out of emergency supplemental funding?
    General Schoomaker. Sir, as long as we have this emergency, 
yes, in conjunction with what we have in our program. Obviously 
if the emergency terminates then we will have to terminate 
this, but this is why we built the off-ramps during the period 
of growth.
    Senator McCain. I guess my point is, Mr. Chairman, I have 
not known of personnel increases being paid for in the name of 
emergency supplementals to pay for a conflict. I think what it 
does is it increases the size of the deficit and again deceives 
the American people about the size of the deficit and the debt 
that we are incurring per household.
    General Jumper, are you aware that members of the Senate 
Armed Services Committee staff were given falsified information 
by the people at Tinker Air Force Base?
    General Jumper. No, sir, I am not.
    Senator McCain. You were not aware of this issue being 
discussed in an open hearing? Your liaison people did not 
inform you of our concern about that?
    General Jumper. No, sir, not about false statements. I have 
heard nothing about false statements.
    Senator McCain. I showed before the committee doctored 
documents that were given to the staff of this committee. You 
know nothing about that?
    General Jumper. I am sorry, sir; I do not.
    Senator McCain. General Hagee, do you need additional 
members of the Marine Corps to carry out your responsibilities?
    General Hagee. As I see the situation right now, no, sir.
    Senator McCain. You do not?
    General Hagee. I do not, sir.
    Senator McCain. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator McCain.
    Senator McCain. I would like to have several questions 
submitted for the record.
    Chairman Warner. Without objection, all members are given 
that opportunity.
    You raised very important questions relative to the budget 
and the supplemental, as did Senator Levin. I wish to make it 
clear that, having been in the building myself for many years, 
these witnesses before us received guidance from the Secretary 
of Defense as to what to do. They did not make the decision not 
to include in their own budget process the cost for those 
personnel. I think we all agree on that. It is a level above 
them where that decision was made as to the allocation of the 
budget costs.
    Are we agreed on that, gentlemen?
    Senator Levin. I think that is usually true.
    Chairman Warner. Yes. They are responding to the actual 
facts, but the decision on the budget was made, frankly, by the 
Office of Management and Budget (OMB) and promulgated through 
the Secretary of Defense.
    Senator Levin. They could appeal it to the President, I 
guess, under Goldwater-Nichols.
    Chairman Warner. Senator Lieberman.
    Senator Levin. Good old Goldwater-Nichols.
    Senator Lieberman. Thank you, Mr. Chairman, and again 
thanks to the chiefs for being here.
    Mr. Chairman, there have been some references made and 
questions asked regarding the ongoing debate about the quality 
of our intelligence about WMD and the way in which the 
administration used that intelligence. Those are important 
questions. I think it is even more important that we focus, as 
I believe all of us want to do, and as Senator Levin mentioned 
in his opening statement, on how we support you and our forces 
to successfully complete the mission in Iraq. While the inquiry 
regarding WMD and the intelligence is significant certainly as 
we go forward, what is really important is to go forward.
    We are there now. We have successfully carried out what I 
have for more than a decade believed was a just and necessary 
mission, which was to overthrow Saddam Hussein. I have no 
doubt, thanks to the skill and bravery of your forces, that 
America and the world are safer as a result.
    Now the question is how to complete the next phase, which 
in some sense is a different mission. So my questions will 
focus on that. I, like everyone else, have been reading lately 
and hearing about Mr. Abu Mus'ab al-Zarqawi, a Jordanian 
thought to have links to al Qaeda. We now link him to a number 
of bombings in Iraq and now have found this disk with what 
looks like a request by him to the leadership of al Qaeda for 
support for what he called ``a secular war against the Shias.''
    I must say, parenthetically, I have always been struck by 
the conclusion that there was no link between al Qaeda and 
Saddam Hussein. How could there be a link, they say, because al 
Qaeda is theological and Saddam was very secular? I am not 
reaching a conclusion here, but I am just urging others not to 
reach a conclusion. Unfortunately, they had something that tied 
them together, which was their hatred of us.
    I now return to my question. The news about Zarqawi leads 
me to ask, how would you describe the insurgency we are facing 
now? Am I right in concluding it is a mix of Baathist 
loyalists, Saddam loyalists, and terrorists? Is that the 
conclusion you reach about the enemy we are facing in this 
phase of the conflict in Iraq? I will start with you, General 
Schoomaker, and then General Hagee.
    General Schoomaker. Sir, I think it has been best described 
as being a combination of former regime loyalists and dead-
enders. There are certainly some criminal elements that are 
being paid to perform certain things by them, and obviously you 
have seen intelligence that there are other entities that are 
there.
    It appears from what has been in the open press today that 
there is a direction towards trying to work the seams between 
the different entities within the country to their advantage. I 
will pass the question to General Hagee.
    Senator Lieberman. As you advise the Secretary and equip 
and staff General Abizaid, I take it that you have no doubt 
that part of the element we are fighting in Iraq is terrorists. 
They are not just the Baathist loyalists, is that right, 
General?
    General Schoomaker. Yes, sir, I think that that is clear. 
The evidence is there. But terror is a tactic as well as a 
philosophy.
    Senator Lieberman. Right.
    General Schoomaker. I think that we nevertheless, 
regardless of what the source of it is, are seeing terror 
tactics used against us in this insurgency. The source of it 
from my perspective matters less from my area of 
responsibility, which is to protect and prepare our soldiers to 
perform over there. I would agree in that regard.
    Senator Lieberman. That is an important point and I accept 
it. There may be terrorist groups that have come in from 
outside, but the point is that from the point of view of your 
forces terrorism is terrorism. It could be the Baathists using 
terrorist means.
    General Hagee.
    General Hagee. Sir, I agree with that assessment.
    Senator Lieberman. Let me ask a more general question, 
which builds a little bit on questions that have been asked 
before. I will ask each of you this. Does the budget submitted 
by the administration give you the resources you need to fight 
the ongoing war against the insurgents in Iraq and conduct 
those essential military activities to win the peace as well as 
to be prepared to fight and win if necessary elsewhere in the 
world?
    Understanding that you can never have everything you want 
in a world of limited resources, what would be your top 
unfunded requirement if in fact you feel that you received as 
much of your priority list as you need in the administration's 
budget?
    General Schoomaker. Sir, I would have to submit that for 
the record. I would not like to guess at that at this stage. I 
would like to say that the 2004 budget with supplemental is 
sufficient to prepare us and to conduct the operations that we 
are doing today. What we have in the 2005 Army budget is 
sufficient to prepare and equip the Army to do the day-to-day 
things to support our preparation for the war. It does not 
include the contingency costs of actually operating over in 
that theater.
    Senator Lieberman. What you would like to submit in writing 
is what your top unfunded requirement would be. Did I 
understand that correctly?
    General Schoomaker. If you are asking me that question, 
that is the way I would prefer to answer it, yes, sir.
    [The information referred to follows:]

    The fiscal year 2005 budget supports our highest Army base program 
priorities. Should additional funds become available, we would apply 
them first to accelerate our force protection efforts, including 
ballistic armor protection and individual soldier equipment.

    Senator Lieberman. Fine.
    Admiral Clark.
    Admiral Clark. The demand on the Navy is certainly not the 
same as it is on the Army and the Marine Corps with regard to 
this specific fight. The requirement for us to be represented 
globally certainly is there. Thirty-two percent of my force is 
forward-deployed today. I have sufficient resources to execute 
that.
    Over the course of our discussion, I have talked on a 
consistent pattern about the requirement to make sure this 
force is ready. In my opening testimony I spoke to the value of 
readiness. I assure you that this budget has the resources in 
it to make sure that it is ready and I can respond this 
afternoon if I have to.
    With regard to my most pressing requirement--and you are 
exactly right, in a perfect world I could dream up some things 
that we could go faster. I fundamentally believe that one of 
the things that is costing us in the acquisition side of the 
house is that many of our programs--because of resources, we 
are not able to move fast enough, so we have them on a program 
on minimum sustain rate or do not invest as rapidly as we could 
which ends up costing the Nation more.
    But I will tell you that for me, the focus is now on how to 
create the Navy of the future. For too many years we did not 
buy enough ships and airplanes. That would be my most pressing 
need and that is where I would put additional resources: to 
recapitalize ships, aircraft, and submarines, in a more rapid 
manner.
    Senator Lieberman. Thanks, Admiral.
    I know I am over my time, Mr. Chairman. I wonder if we 
could just ask General Hagee and General Jumper to respond, 
please?
    Chairman Warner. Yes, of course.
    General Hagee. Sir, with the combination of the budget and 
the supplemental we can handle day-to-day operations and any 
other contingencies that come up. As far as the number one item 
on my list, it would be resetting the force, ensuring as we use 
the equipment either in Iraq or Afghanistan or wherever that we 
have sufficient funds to either purchase new equipment or to 
refurbish the equipment that is coming back.
    Senator Lieberman. Thank you.
    General Jumper.
    General Jumper. Sir, we also have the resources to do our 
job, and resetting the force quickly and being able to 
recapitalize, as Admiral Clark says, are the two priorities on 
the Air Force's list.
    Senator Lieberman. Thank you all for your testimony. Thanks 
for what you do for us and our country every day.
    Chairman Warner. We thank you, Senator Lieberman.
    Senator Dole.
    Senator Dole. Thank you, Mr. Chairman. I certainly want to 
thank the Service Chiefs for being here today, but I also want 
to thank you for the great work that you are doing in leading 
our young men and women in the military as they fight and 
battle terrorism both here at home and abroad. Thousands of 
young men and women in my home State of North Carolina are 
currently fighting the war on terror in Iraq. We are forging a 
process of peace and in doing so we are moving toward turning 
control of the government and society back to the Iraqi people.
    In Iraq and Afghanistan, our Nation is helping to rebuild 
schools and hospitals, water supply systems and roadways. We 
have made great progress, thanks to our diverse and skilled 
workforce, which is meeting the challenges with a courage that 
makes us all very proud indeed.
    With this month's deployment of North Carolina's 30th Heavy 
Enhanced Separate Brigade, I have been made painfully aware of 
some of the problems faced by the National Guard units as they 
mobilize. General Schoomaker, what are you doing to guarantee 
that the service members are expeditiously transitioned to 
active duty payrolls and that their lodging and subsistence are 
of the same quality as the active units that are training on 
the same bases?
    Would you respond to that, and then also to the budget 
request news release sent out by DOD which proposes, ``the use 
of innovative management to improve the mobilization process.'' 
Could each of you go into more specifics about how your Service 
intends to meet that objective?
    General Schoomaker. Senator Dole, thank you very much. As I 
think you might know, I spent considerable time with the 30th 
Brigade, Old Hickory, all the way from its pre-mobilization 
through the mobilization process and through its most recent 
training at the Joint Readiness Training Center. We have pulled 
out all stops to ensure that they are absolutely prepared, 
equipped, trained, have all of the benefits, and to ensure that 
they have mission success.
    To answer the second part of your question, we are going to 
school on ourselves in preparation for mobilization. We are 
learning very much about what we are doing now and have been 
doing in mobilization. Both the Chief of the Army National 
Guard and the Chief of the Army Reserve are working with us to 
achieve the initiatives through modularity and a transition 
from what we used to call an ``alert, train, deploy'' mentality 
to a ``train, alert, deploy'' capability within our Reserve 
components.
    Senator Dole. Would others answer briefly, please.
    Admiral Clark. Very briefly, we have now only 1,900 
Reserves mobilized. Our problem and challenge is significantly 
different than the other Services. Suffice it to say that the 
main way we are taking this on, Senator, is this: We are 
rebalancing the active-Reserve mix so that we do not get caught 
in a position where if we have to go accomplish some mission, 
we are forced to have a lot of Reserves on day one. We have 
restructured our fast response force so that Reserves will not 
be required for at least the first 60 days of any operation we 
might be required to be involved in.
    General Schoomaker's comment about learning from ourselves 
is absolutely true. We continue to do that. The biggest area 
for us has been in pay. We have made great progress with the 
computer systems to support that.
    General Hagee. Senator, we are an expeditionary ready 
force. We have active duty personnel located with our Reserve 
units to ensure that their training meets the same standards as 
our Active-Duty Forces. We are ready to activate those 
individuals within an extremely short period of time to respond 
to any contingency.
    General Jumper. Senator, in the Air Force we train our Air 
National Guard and Air Force Reserve to the same standards as 
the active and they share the same equipment. We have a very 
high volunteer rate for our normal rotations in the Air Force, 
but we are configured with our Air Expeditionary Forces so that 
we can call forward the active portions of those forces as 
force packages as we need them if we want to avoid 
mobilization.
    Still, with our high volunteer rates we do not think that 
that is necessary in normal times.
    Senator Dole. General Jumper, I have an interest in the A-
10 aircraft. This year's budget shows a significant procurement 
funding increase for the A-10. The A-10 certainly has shown its 
continued capabilities in Iraq, despite its status as an aging 
aircraft. Does the budget investment support your goal of 
extending the service life of this aircraft to 2028? Have 
recent operations further validated the use of other platforms, 
like the F-16 and the B-1, for the close air support mission?
    General Jumper. Well, Senator, especially since Kosovo and 
particularly into Afghanistan, we have worked close air support 
with every kind of airframe that we have. The most significant 
addition has been our bomber force. In many cases we have been 
able to provide close air support with greater accuracy with 
our GPS-guided bombs than we have actually being closer to the 
ground with some of our fighter aircraft.
    But our F-16s, our A-10s, and our bomber aircraft are all 
committed to that mission. We will continue to have, in the Air 
Force, dedicated airplanes whose sole mission is close air 
support like the A-10. As you say, we have a significant 
upgrade program. How this will play out into the future and how 
we work this with the aging aircraft problems with the A-10 is 
yet to be determined, but we will continue with dedicated close 
air support capability in our Air Force.
    Senator Dole. Thank you.
    My time has expired. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator, for your 
contributions on these questions.
    Now, Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service to the Nation and 
your individual branches of the Service. My theme will be 
reminiscent of many that are here today. The most remarkable 
thing about this budget is what it leaves out, not what it 
includes. It leaves out the cost of operations in Iraq and 
Afghanistan, and the deliberate increases as a result of 30,000 
additional Army troops that were committed to.
    I think it is a deceptive way to finance the operations of 
the military and I think it also has practical ramifications. 
It impacts the Army most specifically and the Marine Corps to a 
similar degree.
    General Schoomaker, as I understand, the way we are 
financing operations today is that this budget proposal will 
cover the routine operations of the Army through the 2005 year, 
but operations in Afghanistan and Iraq and other contingencies 
are being funded out of the 2004 supplemental?
    General Schoomaker. That is correct, sir.
    Senator Reed. At the current burn rate, when do you run out 
of 2004 supplemental money? What day or month?
    General Schoomaker. Sir, we are funded through the end of 
this year. At the burn rate, we are funded through the end of 
the fiscal year.
    Senator Reed. You are funded until September 30?
    General Schoomaker. Until 30 September, yes, sir.
    Senator Reed. The 30th. If this supplemental is delayed 
past September 30, say the end of November, or even delayed 
until the following year, which is customary nowadays, you will 
burn out all the money that is appropriated?
    General Schoomaker. That is correct, sir.
    Senator Reed. In trying to balance the commitments and the 
demands, do you anticipate cutting down base support operations 
as a way to cover shortfalls?
    General Schoomaker. Sir, quite frankly I only have 
visibility of what the Army has. I do not know what OSD has 
available. I am concerned, and I think this is what you are 
getting to, on how we bridge the gap between the end of this 
fiscal year and whenever we can get a supplemental in the next 
year. I do not have an answer for you exactly how we would do 
that.
    Senator Reed. Thank you, General.
    Admiral Clark, do you have similar concerns?
    Admiral Clark. I do not, because I do not have that kind of 
surge requirement at this time. If I had to increase the pace 
of aviation operations, then I would need additional resources. 
I will end up being the party that pays for the Marine Corps 
transportation and that is a small amount that we will have to 
deal with. We expect to be covered out of the 2004 supplemental 
for this movement and then next year we will have to deal with 
when they would be coming home.
    Senator Reed. General Hagee, your comments?
    General Hagee. Sir, I share the Chief of Staff of the 
Army's concerns about this.
    Senator Reed. General Jumper?
    General Jumper. Sir, so do I. We are funded through the end 
of fiscal year 2004 and then we will have to either cash flow 
or find a way to bridge until any potential supplement in 2005.
    Senator Reed. So if we do not see a supplemental up here in 
the middle of the summer, given the way we work, you gentlemen 
in varying degrees are facing a funding problem beginning 
September, or beginning October 1. Is that a fair assumption?
    General Schoomaker. Yes, sir.
    Senator Reed. Admiral Clark, except for the Navy?
    Admiral Clark. Based on what I said last time, I do not 
have any requirements that I know of at this time, but I might 
have a small transportation requirement.
    Senator Reed. General Hagee.
    General Hagee. Yes, sir, we will have a challenge during 
that first quarter. We would take actions like General Jumper 
mentioned: forward flowing or cash flowing until the 
supplemental became available.
    Senator Reed. Let me ask another related question. This 
goes against the Army because they are bearing so much of this 
burden and bearing it extremely well, General. The Secretary of 
Defense had a chart at the last hearing which he is going to 
use to talk about the end strength increases. What I find 
remarkable is that from September 2003 to December 2003 the 
Army lost 10,000 soldiers at a time that stop-losses were in 
place, and at a time that we were contemplating at least 
increasing the number of soldiers.
    I am concerned that this trend, if it continues, will be 
serious in terms of manning the forces, regardless of whatever 
end strength and by whatever means we achieve, coupled together 
with the anticipation in July when OIF 1 finishes of 
significant recruitment problems and retention problems. Could 
you comment upon that, General Schoomaker?
    General Schoomaker. I am not familiar with the chart you 
just held up and I do not know about losing 10,000 soldiers.
    Senator Reed. This is the Secretary of Defense's chart, 
with the end strength of the actual Army. They show in 
September 2003 499,301, and in December, 490,174. This is a 
loss of about 10,000 personnel in end strength. That is his 
chart.
    General Schoomaker. Sir, our statutory end strength at the 
end of last year was 480,000.
    Senator Reed. I am probably being confusing. The numbers I 
refer to is the actual end strength, not the statutory.
    General Schoomaker. That is temporary end strength, that 
has grown within their authority, and within the authority of 
the Secretary of Defense.
    Senator Reed. I am not questioning the legality. It appears 
to me that we lost 10,000 soldiers, real boots on the ground, 
at a time we had stop-loss orders in effect, and at a time in 
which we were trying to begin our recruitment for these 
additional soldiers.
    General Schoomaker. Sir, they are not related. That is what 
I am trying to tell you. We have met our retention and 
recruiting goals at 100 percent of the force. The force waxes 
and wanes based upon who we are mobilizing, and who we are 
moving, and it has been as high as twice that number during 
part of the year.
    Senator Reed. If you could provide me a more specific 
written response----
    General Schoomaker. Yes, sir, I will.
    [The information referred to follows:]

    The drop in end strength is directly attributable to traditionally 
low enlisted accessions in December and the end of the active 
component, 12-month skill-based stop loss/stop move program. 
Historically, the active Army does not bring many new soldiers onto 
active duty during the holiday season. Thus, each year, strength dips a 
few thousand in December and recovers in January. In the summer of 
fiscal year 2003, the Army terminated the skill-based stop loss/stop 
move program. The termination plan provided for most solders who were 
subject to stop loss to depart the active Army between October 31, 2003 
and December 20, 2003. Approximately 8,000 soldiers chose to depart 
during that time. A new stop loss policy began in January 2004, and 
only affects soldiers in deploying units. It will not be based on a 
soldier's military occupational specialty. With the implementation of 
unit stop loss and a return to accessing new soldiers in January, all 
factors indicate a steady increase in strength into the summer months.

    Senator Reed. I will provide more specific questions 
perhaps.
    If you just look at the lines here, we are increasing 
actual end strength month by month though last year. We hit a 
peak in December of last year and we started going down. If the 
next report for January, February, and March shows continued 
deterioration in actual end strength, I think it undercuts your 
ability to conduct your mission and it raises a serious 
problem. I will just stop there.
    General Schoomaker. Yes, sir.
    Senator Reed. Thank you, Mr. Chairman.
    Chairman Warner. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman. I have a brief 
statement I would like to have included in the record just 
prior to my questioning.
    Chairman Warner. The statement will be put into the record.
    [The prepared statement of Senator Allard follows:]
               Prepared Statement by Senator Wayne Allard
    Thank you, Mr. Chairman. I want to express my appreciation to each 
of you for your leadership and dedication. A year ago, our Nation was 
demanding much of our military. Our forces were fighting in 
Afghanistan, assisting local forces in Yemen, Djibouti, and Georgia, 
and defending our homeland. Since then, they have taken on a new 
mission: the securing and stabilization of Iraq. The mobilization of 
thousands of men and women in the Reserves and National Guard are 
indicative of the size and scope of our current military operations. 
Despite many hardships, our soldiers, sailors, airmen, marines, and 
coast guardsmen have stepped forward and embraced their country's call 
to arms. We thank them for their service. We thank each of you for 
providing them with the leadership they need to defend our Nation.
    Even as we confront our foes around the world today, we must 
prepare to meet the threats of tomorrow. The ongoing transformation of 
the military is vital to the future safety and security of this great 
Nation. We must not avoid making difficult choices about legacy 
systems. Nor should we turn away from the cost of investing in new 
technologies. We must remain committed to this effort. The superiority 
of American arms in the decades to come is at stake.
    I want to thank our witnesses for taking the time to appear before 
us today. I know each of you have many responsibilities, particularly 
during this time of conflict. Yet, it is important for us to hear from 
you the needs of the men and women under your command. So, I again 
thank you for being here.
    Thank you, Mr. Chairman. I look forward to our time of questions.

    Senator Allard. Just recently, I went to a Board of 
Visitors meeting, which is advisory to the Superintendent of 
the Air Force Academy (AFA), and I want to take this 
opportunity to thank General Jumper as well as Secretary of the 
Air Force Roche for attending the last two Board of Visitors 
meetings. I know they are very busy individuals and their 
commitment to the future leaders of the Air Force is very much 
appreciated.
    I would also add that this last meeting was probably the 
best Board of Visitors meeting I have had the chance to attend 
in the 6 years that I have been on the Board. We are under new 
leadership with Jim Gilmore, who is our chairman, and both the 
Superintendent of the AFA, General Rosa, as well as the 
Commandant, General Weida. They gave good reports and I think 
most generally, in talking with the members of the Board, they 
felt that considerable progress had been made at the AFA as far 
as addressing this problem with sexual assaults that they have 
just been dealing with for the last year or so.
    I would ask General Jumper, who was there and listened, if 
he might share with this committee his assessment of where we 
are with sexual assault issues there at the AFA and how the 
plan is moving forward.
    General Jumper. Thank you, Senator. I appreciate your 
efforts, sir, to reinvigorate the Board of Visitors and to get 
the members interested in what is going on out there. You and 
Chairman Gilmore have done a superb job of that and I think 
that is what made the meeting such a success.
    Senator, there is a great deal that has gone on as we 
implement the provisions of the Fowler Commission report. We 
have about 80 percent of those recommendations implemented at 
the AFA. The actions that you and the Board of Visitors took at 
the last meeting went a long way in implementing many of the 
rest of those provisions. As we have looked at the agenda for 
change at the AFA, I think we have seen an excellent response, 
especially with regard to the use of alcohol among the cadets. 
The number of incidents have gone down dramatically. We do not 
declare success on that. We just take it as a trend.
    The number of sexual assault incidents that have been 
reported since the new leadership has been in place is 10. 
Those are being dealt with. The issue that we are consumed with 
right now, that I know Senator Collins is worried about, is the 
issue of confidentiality and actually how we implement 
something that allows some element of confidentiality. We are 
working on that right now with the DOD Inspector General to try 
and find a way to accommodate all the concerns surrounding 
that.
    I think from the alcohol uses, to the reporting, to the 
response team measures that we have put in at the AFA, I think 
that the attitude that I see when I go out there is positive. 
Senator, I visit often and I randomly go around and talk to the 
cadets, as does Secretary Roche. I see a recognition of the 
problem. I see less and less denial and a determination to get 
on with fixing the elements of this problem.
    We will continue to press forward with all energy, Senator, 
to get through this thing.
    Senator Allard. Thank you, General Jumper.
    General Schoomaker, the President's fiscal year 2005 budget 
request provides over $1.4 billion for the DOD's chemical 
demilitarization program. You have a major role in that, or the 
Army has a major role in it. I was looking at the budget 
request and how the Government Performance and Results Act 
(GPRA), which is a provision that has been put in place by 
Congress for agencies to measure the progress and results of 
their programs, received the lowest rating as far as measuring 
results.
    It does not necessarily reflect funding, but there are also 
some problems with cost overruns and some other problems. I 
wonder if you would just share with me about the funding and 
some of the evaluations of that program. The bottom line 
question is are we going to be able to meet the 2012 treaty 
deadline for the Army's chemical demilitarization program?
    General Schoomaker. Sir, I know that Acting Secretary of 
the Army Brownlee is personally involved in running this issue. 
I am not as familiar with it and I would be glad to provide for 
the record the information.
    [The information referred to follows:]

    The Army remains committed to safely and efficiently meeting treaty 
deadlines.

    Senator Allard. Yes, I wish you would do that, because the 
GPRA measurement on that means that you are setting goals and 
objectives and you are not meeting them. I am concerned about 
that. Could you give this to me and perhaps maybe the rest of 
the members of the committee who are interested in knowing what 
is happening?
    General Schoomaker. I would be glad to.
    Senator Allard. I am particularly concerned about the cost 
overruns and everything that we are hearing about in that 
particular program. I think that is an area of concern and 
something that we need to watch.
    I have another question for you. The Denver Post reported 3 
weeks ago that as many as 40 women have been sexually assaulted 
while serving our country in Iraq. Then The Washington Post 
wrote an article and then USA Today wrote an editorial on that. 
As a result, Secretary Rumsfeld ordered a comprehensive 
investigation into the matter.
    Is the Army addressing the problem of sexual misconduct 
when soldiers are deployed?
    General Schoomaker. Would you say the last part of your 
question again?
    Senator Allard. Are you addressing this problem in the 
Army?
    General Schoomaker. Yes, sir, we are. We are addressing it 
very aggressively. This has been a subject that has received 
leadership attention. It is a chain of command issue. It is a 
leadership issue. It is a discipline issue. We have significant 
resources available to us to handle it and we are reviewing 
those in regard to much of what General Jumper just spoke to.
    Senator Allard. Back to you, General Jumper. Last November 
the Armed Services Subcommittee on Strategic Forces, which I 
chair, held a hearing on the current status of many of our 
military space programs. It was noted that many of these 
programs had fallen behind schedule, experienced enormous cost 
overruns, and they may not be appropriately managed.
    I believe that we cannot allow our military space programs 
to continue down this path, which could eventually threaten our 
space dominance. I believe that we need to seriously examine 
the size and type of satellites that we are building and I 
believe our launch capabilities need to be much more responsive 
and much more affordable.
    General Jumper, given that the cost of building a few 
large, highly capable satellites is becoming prohibitively 
expensive, do you believe it is time for us to begin examining 
the possibility of building large quantities of smaller, less 
capable satellites that together provide the same overall 
capability?
    General Jumper. Senator, I can tell you that Pete Teets, 
who is the Space Executive for OSD and the Under Secretary of 
the Air Force, is focused on the ability of our space industry 
to perform. It has to do with a number of things, not the least 
of which is getting our arms around the requirements.
    It has long been a practice in the space industry that 
requirements can come from all directions and that they are 
perhaps not properly constrained. We are taking aggressive 
action to get hold of the requirements.
    Certainly one of the things that has to be looked at is the 
size and complexity of the satellites. There is a large effort 
going on with the development of microsat technology and what 
it might be able to do for us, especially as we look at being 
able to focus on specific areas. I take your point, sir, and I 
know that Mr. Teets is looking at that and I think that is 
probably one of the alternatives to the way we are going now.
    Chairman Warner. Thank you very much, Senator. We are past 
the time.
    Senator Allard. Thank you. Sorry, I did not realize.
    Chairman Warner. Not at all.
    Senator Allard. Thank you, Mr. Chairman.
    Chairman Warner. It is a very important question.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    Admiral Clark, I was interested in a comment you made about 
moving the Navy to more technically advanced ships.
    We are moving toward much more technically advanced ships. 
I am curious about that. In a sense, are you saying that we are 
going to have fewer and fewer tasks that, say, an E-1 can 
perform on those ships and more and more tasks on those ships 
that E-6s will perform? How will that work?
    Admiral Clark. You have it exactly. The technology that we 
are inserting in our new platforms is going to require a more 
experienced, call it a richer experienced, force. I said in my 
opening testimony that our asymmetric advantages are technology 
and the genius of our people, and I want all of it I can get.
    DD(X) starts construction in 2005. DD(X) will be an all-
electric ship. It will have the ability to project fires 100 
miles. It will revolutionize naval fires. Today we can do it at 
around 10. This will change the way we fight with the Marine 
Corps, and it will change the way we support Army units on the 
ground.
    A typical ship today that size maybe would have 500 or 600 
people on it. This one is going to have between 100 and 150 
people on it. No, I do not anticipate that there are going to 
be many E-1s there. It is going to require a very experienced 
group of people to operate this ship.
    This is why I need all of the incentive tools to shape the 
force, and it is why I am one chief that is talking about a 
force that is much more capable but with fewer people in it.
    Senator Pryor. Right. I assume for budgetary reasons there 
will be fewer people with a higher pay scale, is that right? 
But does that wash out in the end in terms of----
    Admiral Clark. Well, it absolutely is shaped differently. 
For 4 years, I have been coming up here talking about making my 
force richer and experienced. When I got here, the top six, 
that is E-4 through 9, were 69.9 percent of my force. In 2004 
it goes to 73.3, and in this budget it goes to 74 percent of my 
force.
    You cannot change this overnight and we have been 
progressively growing the experience in the force. It provides 
more opportunity for our people, but also sends them the 
message: We need you, we need your skill set, and this is what 
the Navy is going to be like in the future.
    Senator Pryor. Let me ask this in light of that, and I 
follow what you are saying completely. I recently received a 
letter from a constituent from my State of Arkansas and I 
believe he is stationed in Japan. Under the high-tenure system, 
it sounds like he is about to be forced to retire. He is an E-
6. I do not know all of his background, and do not know a lot 
about him, but I do have his letter right here.
    I wonder if we should reevaluate our high-tenure system in 
light of what you just said, that there may be some people that 
maybe do not go up their promotion chain, but are awfully good 
at what they do. We should keep those people for a longer 
period of time. Does that make sense?
    Admiral Clark. That absolutely makes sense. As CNO, one of 
the things I get to do is put policies in place. In order to 
shape the manpower force, I put policies in place that put a 
limit on an individual that has served for a number of years 
and has not been promoted, in order to then make room for a 
hard charger that has the potential to serve much longer in the 
future. I put rules in on how long they can serve without being 
promoted.
    Having said that, every individual is an individual, and I 
have waiver clauses on every one of those policies. That option 
is always open and we assess each case as required to meet the 
needs of the current and future naval service.
    Senator Pryor. Yes, because, based on what you said a few 
moments ago, it seems like you want preferably more tenured 
people, more experienced people, and fewer of them per ship. I 
understand that. I did not want to point out an inconsistency, 
but I just did not know how that worked.
    General Schoomaker, let me ask you a question about this 
huge rotation that you are undergoing right now in Iraq. I 
think you are moving out 125,000, and moving in 110,000, if I 
understand the numbers correctly. Could you just give us a 
status report on that rotation?
    General Schoomaker. Sir, the rotation is on schedule and 
moving very well in every aspect, from the transportation plan 
to the transfers authority in the theaters.
    Senator Pryor. We are right on the timetable?
    General Schoomaker. We are doing very well, yes, sir.
    Senator Pryor. Are there any hidden or maybe unexpected 
costs that you had not anticipated? Are the costs of the 
rotation tracking your schedule?
    General Schoomaker. I am aware of nothing that is different 
in that regard.
    Senator Pryor. Let me also ask this, General Schoomaker. 
Since I have been on this committee, which has been just over a 
year now, we have heard a lot about transformation. What is the 
most significant development or developments in transformation 
in this budget that we are talking about today? What should we 
see in the Army over this fiscal year, that we as a committee 
can look to and track and follow the transformation process?
    General Schoomaker. Sir, it would take the rest of the 
hearing for me to lay it all out. We are going to come over and 
provide exquisite detail to every member and every staff member 
that would like to see what we are doing. In short, 
modularizing the force, increasing the number of modules, and 
putting enablers in that cause these modules to be much more 
powerful than they are today. This changes the doctrine to look 
much more like the doctrine of the future, not the doctrine of 
the past. Using this momentum, as a result of the war and the 
focus and the level of funding, we have to reset for tomorrow, 
not reset for yesterday.
    You will see three new brigades this year, at least three 
new brigades next year, and four brigades the following year. 
We will increase the Active Force by 30 percent with a minimal 
cost to our program.
    If you take a look at the National Guard, Lieutenant 
General Blum is building towards 34 brigades that look exactly 
like the kinds of brigades that we have. If we go all the way 
to the end of what we can do, we could end up potentially with 
82 brigades in the United States Army. That means that the 
dwell time issues, the kinds of pressures that are on the Guard 
and Reserve and the Active Force, can be reduced. The force is 
also stabilized so that people stay longer in one place, kids 
go to the same schools, spouses work, and people can invest in 
homes and develop equity like other people do. All of these 
kinds of things are all part of this transformation.
    Transformation is not just equipment. It is about the full 
dimension of the doctrine.
    Chairman Warner. Thank you very much, Senator, General.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    General Schoomaker, last Saturday I had the great privilege 
of participating in a welcome back ceremony for 24 soldiers 
from the Maine National Guard who were returning from 
Afghanistan. I would note that Maine has the third highest 
percentage of guardsmen and women being deployed right now in 
the entire Nation.
    Last week Secretary Rumsfeld suggested to us that the Guard 
is not overstressed and he provided us with a chart that showed 
that only 7 percent of our Guard have been mobilized more than 
once during the past 10 years. That does not reflect the 
experience of my Guard units in Maine at all. Many of them have 
been deployed three times in the last 10 years. Some were 
mobilized with only 5 days notice. Many of them had no idea how 
long they were going to be gone nor when they would return.
    I want to emphasize that the members of the Maine Guard are 
very proud of their service and they do a fabulous job, but 
repeated deployment over a 10-year period, 3 times in 10 years, 
has imposed a tremendous strain on their families. I am 
reminded of the old saying that you recruit the soldier, but 
you retain the family. I think, as Senator McCain and others 
have suggested, that we are going to see an exodus from the 
Guard and Reserves that is going to be very harmful because of 
these repeated deployments.
    I have two questions for you. First, how are you going to 
restructure the Guard units so that you spread the burden more 
evenly? My units are clearly in this 7 percent. Second, will 
the additional 30,000 active duty troops that you are 
requesting help relieve some of the excessive pressure on these 
overused Guard units?
    General Schoomaker. Senator, thank you very much for your 
question and thank you for the service of your constituents. We 
are very proud of them. While you were meeting them I was down 
in Senator Pryor's State with 400 Guard commanders and command 
sergeant majors from across the whole United States working on 
exactly what you are talking about.
    This is not an issue of how many people as much as it is 
what capabilities and how many units of capability we have 
available to us. The overstressed people that we have in the 
Guard and Reserve and the Active Force are in specialties that 
have high demand of which we have too few of them. So much of 
our transformational activity is balancing lesser used 
capability within our force into the more highly used 
capabilities within our force, so we can reduce that stress.
    I would like to refer to the rain barrel analogy that the 
Secretary of Defense used the other day. I used it with him but 
he beat me up a little bit when I first used it. Apparently he 
liked it because he used it with you. The problem is we are 
paying for a full barrel of rain water here. I would prefer to 
call it maybe whiskey, but we had to go with rain water. The 
spigot is too high up on the side of the barrel and we are not 
able to assess all of that liquid that is in the bottom of that 
barrel.
    What we want to do is move that spigot down by creating 
more of the low-density units and take the units we have too 
many of that we do not use enough and convert them and balance 
them across the Active, Guard, and Reserve Force structure. It 
is essential. To do this we have to have some room, and thus 
the temporary bump. That buys us the ability to start doing it 
now, because the faster we can create more of these brigades 
that look like each other in other capabilities the faster we 
will be able to relieve the stress on the force. That kind of 
pulls it together.
    Because of this rebalancing that we do, that temporary 
strength goes away and the units remain when it is over.
    Senator Collins. Thank you.
    Admiral Clark, you did not think you were going to get off 
scot-free today when I am here. I am going to submit several 
questions to you about shipbuilding, but I want to bring up a 
different issue today with you. A few months ago I also 
welcomed back to Brunswick Naval Air Station a squadron of P-3 
pilots and crews who had been assigned overseas to provide 
support in both our operations in Afghanistan and in Iraq.
    Could you comment on the role of the P-3 aircraft in OEF 
and OIF and what you see as the future for our marine patrol 
aircraft?
    Admiral Clark. Absolutely, and thank you for asking the 
question. This is a group of people who everybody really needs 
to know about for what they have been doing for America. This 
airplane, which was designed over 30 years ago, actually 
probably 40 years ago, was designed to go hunt submarines.
    It is a classic example of what happens in America when you 
apply the genius of our people and you keep introducing new 
systems. Over time we have put better and better sensors on 
this airplane, which was designed to do reconnaissance, and 
sometimes even underwater reconnaissance. In OIF, I will tell 
you that they operated principally in support of the land 
forces. We operated them at an extraordinary rate.
    These airplanes are wearing out. In fact, I took a proposal 
to the Secretary of Defense recently and said that I cannot 
keep flying them at this rate. The rate that we are flying them 
at today will not meet the transition for the new airplane that 
we have in this year's budget, the R&D for, the multimission 
maritime aircraft (MMA). We cannot get to the transition 
without limiting the flight hours on this airframe.
    These people have done a fabulous job and it is our task to 
husband this resource, use it where the Nation must use it in 
order to deal with the global war on terrorism and the 
challenges that we face. The men and women flying in these old 
airplanes are doing a magnificent job.
    Senator Collins. Thank you.
    Chairman Warner. Thank you, Senator, very much.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to express how proud I am of our troops and the 
efforts they are making in keeping our Nation secure, and also 
of the great military leadership that we have had.
    General Schoomaker, I understand that the Army is 
attempting to reset your prepositioned stocks. General Hagee, 
your statement suggests that this task is already largely 
accomplished for the Marine Corps. However, I believe both of 
your Services are also continuing to use at least some portion 
of those stocks in support of ongoing operations in Iraq. I 
have two questions.
    First, what is the current status of your prepositioned 
stocks, and how much do you plan to continue to draw on them 
during OIF 2? Second, based on those answers, how long will it 
take you to reset your prepositioned equipment, how much 
supplemental funding will it require, and what is the impact on 
your ability to respond to other missions in the meantime? 
Thank you.
    General Schoomaker. Senator, thank you for the question. 
The most heavily used prepositioned stocks are those that are 
actually in Kuwait right now, the ones that we used for the 
war. The 3rd Infantry Division, for instance, deployed from 
Fort Stewart and Fort Benning, fell in on those prepositioned 
stocks and that is what they used to fight the war.
    We have something like 9,000 pieces of equipment in those 
prepositioned stocks that require resetting. This will take us 
a couple years to do. Most of this equipment is the equipment 
that was used for the phase one-two operations, or the battle 
operations. We are not using them today, so we are starting to 
reset the equipment.
    The equipment that we have sent into theater for current 
operations, primarily HMMWV and other wheeled vehicle forces, 
is different. I think the one that is most used right now is 
the one that is in Kuwait. We are resetting it. Others are 
intact and available to us for worldwide commitment.
    Senator Akaka. General Hagee.
    General Hagee. Yes, sir. I may have not been quite clear. 
We are resetting the force right now. We are in the midst of 
accomplishing that. We have not completed the refurbishment of 
our three maritime prepositioning squadrons. We have one that 
is essentially complete and ready to respond to any 
contingency. We have several ships in the two other squadrons 
that are complete.
    The remaining ships are either providing equipment to our 
forces in Iraq, the forces that are getting ready to flow in, 
or are in the process of being refurbished right now. How long 
it will take until we have all three squadrons back up will be 
a function of how long we will have to use the equipment there 
in Iraq. We are going to be working on this for a couple more 
years to come.
    Senator Akaka. General Schoomaker, your statement makes 
clear the need for all soldiers, regardless of their specialty, 
to be able to engage in combat missions. This guidance, the 
wisdom of which continues to be made abundantly clear in Iraq, 
seems to imply the need for additional training, especially on 
small arms. I know that the Army has for some time had a 
shortfall in ammunition. The direction you are heading in would 
indicate that shortages are likely to increase. If it is not 
classified, what is the current size and cost of your 
ammunition shortfall and what are your plans to address it?
    General Schoomaker. Sir, let me start with the last part of 
your question first and if it does not answer your question I 
will provide the rest for the record. I have asked them to take 
a look at opening another facility for small arms production 
this year. We are in the process of doing that right now.
    You are correct, we are stressed in the small arms area, 
have been for quite a while, and I am concerned about it. The 
need to train all soldiers to a higher level, especially the 
combat support and combat service support soldiers, to do live 
fire convoy protection against ambushes, and to improve their 
proficiency in individual arms, puts additional strain on our 
small arms ammunition budget. We are doing that training right 
now. We are proceeding and I am told that we are okay in terms 
of having the ammunition available today to do that.
    But I know if we fire at this rate that we are going to 
have to produce ammunition more in the future, so now is the 
time to facilitize in order to enable that.
    I think it will cost between $30 and $40 million to create 
another facility to do this. Right now the Army has one small 
arms ammunition manufacturing facility.
    Senator Akaka. General Schoomaker, your statement 
emphasizes the Army's need to continue its efforts in leader 
development and states that you will ensure that leaders get 
``the right mix of operational assignments and training and 
education opportunities for now and in the future.''
    I am wondering how your initiative to extend the length of 
time that soldiers stay at a given post to up to 6 or 7 years 
interacts with your leader development goals, especially at 
posts that have a small number of units or that have very 
similar type units. Can you explain how soldiers at small or 
homogeneous posts will get multiple assignments that will 
advance their leadership skills over a 7-year period?
    General Schoomaker. Yes, sir. Obviously we have to look at 
the larger posts as being the ones that are the easiest at 
which to do this. Take Fort Hood, Texas, for example. With two 
divisions there, you have the ability to professionally develop 
in an operational setting much easier than you do on some of 
the outlying ones.
    In some cases we are going to have to look regionally to be 
able to do the things that we want to do with some of the 
smaller places. Our commitment to the professional military 
education piece, however, remains the same and we are working 
the whole process right now. I quite frankly do not see that we 
will have a problem maintaining the institutional training side 
such as schools and education.
    We need to ask ourselves the opposite question than we have 
always asked. The question ought to be, ``Why are we moving 
this soldier?'' If the answer is good then we will move that 
soldier. If the answer is, ``well, because he or she has been 
here 2 or 3 years and it is time to move,'' I do not think that 
cuts the mustard. As long as we can continue to develop the 
soldier and provide cohesion in the unit that soldier and his 
or her family should stay.
    I think we are going to find an overwhelming number of 
cases in which we do not have to move soldiers. Every soldier 
we do not move is a soldier in the force. We have an average of 
63,000 soldiers every day in motion that are not in units. By 
stabilizing this Army, I can certainly get 8 to 10,000 soldiers 
manning brigades. That is part of what we have to do. That is 
part of what we are doing inside of this temporary 30,000 that 
we are talking about. We are finding those people and getting 
them to the units so that we can bring down that temporary 
piece of it.
    I am sorry for such a long answer, but it is an extremely 
complicated process that will make this Army better in the 
future than it was before we went into this.
    Chairman Warner. Thank you very much, Senator, for your 
questions.
    Senator Akaka. Mr. Chairman, thank you very much.
    Chairman Warner. Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    General Hagee, I was pleased to see your comments in your 
written statement relative to the purchase of Blount Island and 
what an asset that has been to the Marine Corps. I think that 
the peacetime mission as well as the wartime mission at Blount 
Island is going to be an even greater asset to the Marine Corps 
in the future.
    I was going to ask you about the armor plating of the 
HMMWVs and the tactical trucks, but you responded to Senator 
Warner's question and mentioned that. I am very proud of the 
work that the folks at the Marine Corps Logistics Base (MCLB) 
in Albany have done there and I am glad to hear that the 
leadership as well as the men and women in theater have a great 
appreciation for the improvement of those systems.
    General Schoomaker, I want to go back to Senator Allard's 
question to you relative to these allegations of sexual assault 
in Iraq and Kuwait. I know this is not isolated to Iraq and 
Kuwait. It is not isolated to the Army. These are the latest 
allegations that have come forth. You mentioned that this is a 
chain of command issue. I want to make sure that you are 
comfortable with the fact that the chain of command is 
operating to the extent that you as Chief of Staff of the Army 
are getting information directly from the ground on what is 
happening with respect to these allegations. I want to make 
sure that you have a procedure in place that is not just 
adequate, but a procedure in place that is working to allow the 
allegations of this nature to be brought forth in the proper 
and sensitive respect that it should be brought forth, and that 
these allegations are being handled in a very professional 
manner and that justice is being meted out.
    Are you comfortable that that is being done?
    General Schoomaker. Sir, I am comfortable that we have the 
resources and the procedures and the regulations and the 
training and everything else that is required. You are hitting 
on the most important part and that is compliance with all of 
this. That is why the Acting Secretary of the Army and I are 
personally involved and we are energized to make sure that we 
are complying. We have a task force that the Acting Secretary 
set up to look into this, to make sure that we are in 
compliance, and to find out why in each case that we find 
ourselves not in compliance, why we are not.
    I will tell you, this goes back to the chain of command and 
discipline. It goes back to things that are fundamental, and we 
need that to address that and fix it. Unfortunately, we are not 
aware of all of these allegations, what Senator Allard was 
talking about there regarding those numbers. We are not aware 
of each and every one of those, so I do not know what the 
magnitude of what his figures are. We are on top of this and 
will continue to do it. This extends into our military academy.
    Senator Chambliss. That is an issue that the Personnel 
Subcommittee, if not the full committee, Mr. Chairman, is going 
to be following very closely because it is critically important 
to you, I know, and certainly to us and to all members of each 
branch of the service.
    General Schoomaker. Sir, I would add that, since I have a 
daughter going into the Army, that I have a personal interest 
in making sure.
    Senator Chambliss. Well, I know you are concerned, but I 
just want to make sure it gets the profile that it needs to be 
attended to.
    General Jumper, I appreciate your comment about the work 
that the blended wing is doing at Robins. Now Brigadier General 
Lynn is commanding the first blended wing that I think is going 
to be the precedent for every branch of the Service in the 
future relative to the integration of the Guard and Reserve 
into the Active Force. Those men and women down there continue 
to do a terrific job and I am just as proud of them as you are.
    I want to talk with you for a minute about strategic 
airlift. You talked about the C-17 and the great work that it 
is doing, has done, and continues to do in theater. I agree 
with that, and strategic airlift has been absolutely central to 
our success in both Afghanistan and Iraq over the past 3 years. 
It has also been central to the success of the expeditionary 
Air Force for much longer than that.
    Now, you are currently in the process of revising the 
mobility requirements study to incorporate lessons learned in 
OIF and OEF, and I understand this study is going to be 
complete by June 2005. However, I do not think it takes a 
complex, time-consuming study to determine that we simply do 
not have enough airlift. We cannot build enough C-17s, or 
modify enough C-5s fast enough to produce the amount of airlift 
capability that we need.
    One illustration of this, which I find a little troubling, 
is that 125 times over the last 3 years DOD has contracted with 
the Russians to use An-124 aircraft for strategic airlift 
because we simply did not have enough of our own. At the same 
time, DOD and the Air Force seem to be dragging their feet on 
funding C-5 modernization programs which could help alleviate 
our need to contract with the Russians.
    I would appreciate your comments on this situation as well 
as your comments on how you will fund the C-5 modernization 
effort in order to increase our strategic airlift capacity.
    General Jumper. Yes, sir, Senator, and thank you for that 
question. The global mobility forces that are out there working 
every day are indeed the key to our ability to reach out around 
the world. The current mobility study has put the requirement 
at 54.5 million ton-miles per day. That is the number that we 
are challenging and we are looking and looking again to see if 
that is the right measure or if we need to rethink it 
completely in this contingency world that we live in.
    In order to get to that number, we were on the track that 
got us to some number of C-17s plus a re-engined and re-
engineered C-5. Part of our work with the C-5s is to see how 
many of the C-5s that are currently in the inventory are 
capable of being modified. Do they have service life left? Have 
they been overworked? That work is ongoing and as part of the 
study that is due in the summer of 2005 we will then be able to 
put those together and come up with an answer on the right 
combination of C-17s and C-5s modified to be able to meet the 
requirement.
    That work is ongoing. It is on the front burner. We have 
made some adjustments in the funding of the C-5 to move from 
the Reliability and Enhancement and Re-engining Program (RERP) 
to the avionics modernization program in the C-5 so we can keep 
more of those compatible with the current Federal Aviation 
Administration (FAA) and international regulations. But I can 
assure you, Senator, this is an area of concern for us and we 
are going to keep pushing this.
    Chairman Warner. Thank you very much, General, and thank 
you for raising the questions about the sexual assault. Sexual 
assault is a primary concern to this full committee.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman, and thanks to all 
of you for the work you do every day and for once again coming 
to appear before this committee.
    General Schoomaker, I am equally concerned along with 
Senators Chambliss and Allard on the investigation into the 
allegations of sexual assault and misconduct. Will you be 
sharing the results of the investigation with this committee at 
some future date?
    General Schoomaker. Senator, I would be glad to. We are 
taking a look at our internal processes and making sure that 
they are being complied with and find out if there are things 
that we have to tailor. We would be glad to share that.
    Senator Clinton. I would appreciate that. Does the internal 
processes review also include looking at these individual cases 
that have come to the attention of the press? Obviously that 
concerns us as well.
    General Schoomaker. Yes, ma'am.
    Senator Clinton. Thank you, General.
    General, with respect to the news that yesterday the Army 
Corps of Engineers admitted it had falsely stated that the Air 
Force and the Small Business Administration were involved in 
the awarding of the contract to Halliburton for the rebuilding 
of Iraq's oil industry, will you direct the Corps to provide 
this committee with information on how it decided to award that 
contract to Halliburton?
    General Schoomaker. I will ask them to do that, Senator.
    Senator Clinton. Thank you, General.
    General, I am deeply impressed by the work that the Army is 
doing under the rubric of transformation. The report that you 
have provided us in this posture review is very reassuring and 
persuasive as you make these significant changes. I am also 
concerned about some very old problems, and the recent 
unclassified study by the Army's Combined Arms Center at Fort 
Leavenworth, a 504-page internal Army history of the Iraqi war, 
which pointed out considerable problems in logistics.
    In reading the press reports of this report, we are struck 
by all of the old-fashioned problems we had. People could not 
communicate. They always were outracing their supply lines. 
They did not have the information as well as the resources that 
they thought. The fact that the strategy of starting the war 
before all support groups were in place, in order to achieve an 
element of surprise, taxed the resources of local commanders.
    How are you addressing that issue? Is that an issue that is 
reflected in this budget or are there additional resources and 
changes that need to be taken into account?
    General Schoomaker. Those issues are reflected in the 
budget. The logistician for the combined force land component 
commander, General Christianson, is now the G-4 of the Army. He 
suffered the problem on that end. He is now part of the 
solution, and we are aggressively looking at it.
    You are exactly right, we have not made the best use of our 
information technologies. We have not done things that we can 
do to fix this. But in all fairness, I also have to say that 
the distances and the speed at which all of this occurred 
seriously exposed these issues. These are far greater distances 
than were anticipated doctrinally. I have heard it said that 
the distance from Kuwait to Mosul, up where the 101st was, is 
like going from Omaha Beach to Berlin. That is a pretty good 
distance. That is a lot further than Patton tried to do in his 
Redball Express.
    I think this is a serious issue because it has everything 
to do with our strategic and operational level agility, and our 
ability to do the logistics. There is also a lot of money tied 
up in this. Believe me, we are going to school on this piece.
    Senator Clinton. General, I know that many of us on this 
committee want to be very helpful to you in confronting this 
set of challenges, and it does strike me that there is an 
opportunity here to think a little bit outside the box. I have 
long thought that we ought to be pushing much harder on 
alternative energy and clean energy. We use fuel cells, for 
example, to lift off our space shuttles, but we are not yet 
figuring out how to use them in our military on a day-to-day 
basis.
    There are some opportunities not just in the immediate 
arena about how we should solve this problem the best we can 
right now, but also opportunities to think outside the horizon 
about what could we be working on at this moment that would 
help us. We would appreciate any suggestions or ideas that you 
or any of the other Services have that would enable us to help 
on this.
    I was particularly struck in the report about the failure 
of communication, which was so reminiscent of what happened in 
New York on September 11. Police were not able to talk to 
firefighters, people in one part of the building could not 
communicate with someone in another part; and then to read that 
again the radios were out of range, and people were improvising 
with cell phones. We just have to get a better grip on what we 
need to do with technology.
    Just as the Defense Advanced Research Projects Agency 
(DARPA) and the space program were the source of new technology 
that had tremendous effects both for the military and civilian 
side, we need to be making some of those investments today as 
well.
    General Schoomaker. I do not disagree with you.
    Senator Clinton. The final point I would make to all the 
Services, General, is that I appreciated what you said about 
train, alert, and deploy, and I continue to be concerned about 
the medical and dental readiness of our Guard and Reserve. I 
asked this question for all of our Service Chiefs at last 
year's posture hearings, but since then a General Accounting 
Office (GAO) study released in 2003 found that the Army had not 
been able to consistently carry out the statutory requirements 
for monitoring the health and dental status. The result was 
that many reservists called up could not be deployed because of 
health, and particularly, dental problems.
    I would like to get some additional information about what 
we are doing to try to deal with that. Of course, the fact that 
we do not have universal health care insurance so Guard and 
Reserves are on the civilian economy, and do not necessarily 
have the health care that they need, is an issue far beyond 
this hearing. I would appreciate knowing about whatever the 
Army or other Services are doing to try to make sure that we 
have the health status as good as possible.
    General Schoomaker. Senator, I am happy to report that we 
are tracking this very well. For those we have mobilized, we 
have a baseline of their medical status as they went in. As 
they come back out, we are doing a very good job in comparing 
the baseline to make sure they are corrected.
    But you are exactly right. We were previously funded to 
have one physical every 5 years for our Guard members and no 
dental. This means that they arrive with only what they have 
been doing with themselves. It is one of the reasons why we 
changed the mobilization criteria. Now we mobilize for the 
first 25 days, and do a medical check. If we have problems, we 
demobilize. We only keep those that pass it as it goes forward.
    We have to fix this systemically in the future, and part of 
that is being better prepared before an alert so that we can 
deploy more rapidly with a more ready force.
    Senator Clinton. Thank you.
    Chairman Warner. Thank you very much.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I want to congratulate all of you on the continuing superb 
performance of our men and women in uniform. I could not be 
prouder. They have been stressed in a number of different 
situations. They have consistently shown discipline and courage 
on the battlefield or in the streets of the cities in Iraq. 
Many of them had to have felt threatened, but they have held 
their fire, they maintained their discipline in the face of 
hostility, and have won friends as a result. I am just very 
proud of them.
    Also I am proud and hope we can continue to improve our 
jointness idea, where air, ground, naval, and marine forces all 
work together as one force for America. As we do that, I think 
we will utilize our existing resources better. We get more bang 
for the buck that we have invested. I could not be prouder of 
what you are doing. We are transforming in the middle of a war. 
It is a very stressful time to have to do that. Maybe it is a 
good time in the sense that we are learning exactly what we 
need to be effective.
    As you noted on logistics, General Schoomaker, you learn 
from stress. We are learning from stressing our Guard and 
Reserve how we can do it better.
    General Schoomaker, is it fair to say that since you have 
been in your position, one of your top priorities has been this 
personnel issue; how to confront it, how to use our Guard and 
Reserve better and more effectively, and how to configure our 
Active-Duty Forces effectively?
    General Schoomaker. That is correct. We are funding almost 
2.6 million people in uniform, and we need to figure out how to 
get the most out of each and every one of them, not just them 
individually, but how to configure them in a way that is most 
useful for not only the current operating environment but what 
the future one is going to be. We cannot transform without 
transforming the personnel system.
    Senator Sessions. I think you are correct. We are looking 
forward to your report on this intensive analysis you have done 
about troop strength, configuration, and the brigades idea that 
you have. I do think that it is time for us to think anew, out 
of the box, as Senator Clinton said, and really develop a force 
that is appropriate, perfect if possible, for the future we 
might be facing.
    I thought I understood you to say that you could maybe even 
increase the effective force by 30 percent with this 
rearrangement. Did I understand that?
    General Schoomaker. Sir, there is no question we can.
    Senator Sessions. Well, that is a tremendous thing. I know 
you have increased our manpower and our end strength by 
utilizing the flexibility that has been given you. But also to 
be able to increase the effectiveness of our force by 30 
percent, Mr. Chairman, that is tremendous.
    General Schoomaker. Sir, I have to reemphasize, the 
increase in manpower is temporary. I do not intend to retain 
that manpower. I want it long enough to get the pump primed and 
to get these capabilities developed, so that I can have that 30 
percent increase within the level of end strength that I have 
today.
    Senator Sessions. Well, General Schoomaker, you are a 
combat veteran. You have been a special forces guy all your 
life. You understand warfare, and if you say you can do that I 
think we ought to give you the chance to do it. I will be 
supportive for sure.
    General Schoomaker. I appreciate it.
    Senator Sessions. General Schoomaker and General Hagee, we 
are going to have a lot of equipment that has also taken some 
hits and wear and tear in the deserts of Iraq and Afghanistan, 
and we have to reset that equipment so it will be available for 
you. I am pleased to see this budget does have a 7-percent 
defense budget increase but I am concerned. It is good that the 
President has done this. But do we have enough, and do we have 
a plan to reset that equipment, tracked vehicles, wheeled 
vehicles, and other equipment that maybe suffered substantial 
wear and tear? General Schoomaker and General Hagee?
    General Schoomaker. Sir, this year we are resetting the 
equipment that we can with the additional funding we have 
through the supplemental. We do not have the funds to reset 
this equipment within the program beyond this year. I will say 
it one more time: I think we have to have 2 years of 
supplemental beyond this emergency to reset this force. It is 
just going to take us that long to do it. War and the level of 
operation that we have conducted over there consumes equipment. 
It consumes engines, transmissions, and even metal on aircraft. 
This is a huge task. I said that approximately 9,000 pieces of 
equipment need to be reset alone for the prepositioned stocks.
    Senator Sessions. I have heard that a figure of $3 billion 
may be necessary. Is $3 billion a figure that you could vouch 
for?
    General Schoomaker. Senator, that figure does not resonate 
with me. I think that the supplemental that will be required 
will be considerable if we continue this level of operation and 
reset the force.
    Senator Sessions. General Hagee.
    General Hagee. Yes, sir. We are using the 2004 supplemental 
to reset the force during this fiscal year. We are also 
capturing those costs of equipment expenditure both in 
Afghanistan and in Iraq and would expect that those costs would 
be covered by a supplemental in 2005 or in the out years.
    Senator Sessions. I think we are going to have to confront 
that. After the last Gulf War I think we learned we did not set 
aside enough money to refurbish our equipment and it cost us in 
the long run. It is better to invest that early rather than 
later.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator. Thank you 
very much.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today. Let me add my 
appreciation to the families of the military because, like many 
of my colleagues, I have made calls to those who have lost 
loved ones. I have spoken to wives, I have spoken to parents. 
They are all resolute in their pride of the service of their 
loved one. We all recognize how important that service is and 
how important it is to do everything that we can to have 
adequate end strength for security of the forces as well as for 
the importance of the mission.
    Perhaps in the long term restructuring makes sense and a 
temporary effort to try to make certain that we have end 
strength sufficient to take care of security of the troops and 
the mission makes sense. What I hope is that the process of 
restructuring is being based on that need rather than on the 
budget process. The budget process is in my judgment the 
equivalent of making a pie a piece at a time. That way, we 
never really know what is coming and we cannot see a 
comprehensive budget at any one particular point in time 
because of one nuance or another. We cannot do it in this 
budget, but it will be in a supplemental, or rather in two 
supplementals.
    I hope in the next 3 years there are no more than two 
supplementals, but I suspect it will not be limited to the DOD 
budget. There will be supplementals for other things as well.
    I hope that the process here of reorganization, which 
cannot ignore budgetary constraints and budgetary concerns, 
will not be driven simply by a budget. I think there may be a 
feeling among some of my colleagues that the budget may have 
more to do with it than it should.
    I only want to say that as a prelude to asking, General 
Schoomaker, in your judgment is this being done, not simply for 
budgetary purposes, but for the end strength requirements that 
you see today and tomorrow?
    General Schoomaker. Sir, I am not sure I exactly followed 
your question, but I will tell you why we are doing this. We 
have an enormous amount of momentum as a result of this 
conflict and we ought to take advantage of this momentum that 
we are paying for, because we are conducting operations, and we 
ought to reset ourselves the way we want to be tomorrow, not 
set ourselves the way we were.
    It is kind of a silver lining in a black cloud--if we had 
to pay for this level of motion to get this whole thing moving, 
it would take us decades to do the kind of transformation that 
we can do now within this window of opportunity. It is as 
simple as that in my mind. It may not be complex enough to 
answer your question, but I think that this is a window of 
opportunity.
    Senator Ben Nelson. At the end of the day, it is not being 
done primarily for budgetary purposes? It is being done to 
transform the military and to protect troops and mission?
    General Schoomaker. That is correct.
    Senator Ben Nelson. Present and future missions.
    General Schoomaker. In the end, we end up with the same 
size force configured differently, with better capability for 
the future.
    Senator Ben Nelson. In the interim, is that end strength 
sufficient to protect the security of the troops and the 
mission? I know in the long term transformation may get us to 
where we need to be, but what about the immediate term? To use 
another analogy, if you want to cut asparagus in your garden 
you have to plant it 2 years early. What I am concerned about 
is making sure that in the current situation we will have 
protection of our troops.
    General Schoomaker. Sir, in the current situation, what we 
know today, we are fine. This is working for what we know 
today. I cannot predict what is going to happen in the future. 
If we end up with a huge conflict in the future, all bets will 
be off.
    Senator Ben Nelson. I understand that.
    One more question. I appreciate your response to my letter 
regarding the Army's aviation review. Do you have any idea when 
this might conclude so that we would know what is going to 
happen with regard to any potential changes that might develop?
    General Schoomaker. I expect that no later than the end of 
this month I will be back-briefed on the final results, and we 
will share that here. We will gladly open it up and let 
everybody look at it.
    Again, we are looking at modularity.
    Senator Ben Nelson. Yes.
    General Schoomaker. Right now all these brigades are 
different, from the number of helicopters in them, to the 
number of units, to sub-units within these brigades. The way 
they are organized is extraordinarily inefficient.
    Senator Ben Nelson. I appreciate the fact that you are 
doing that. I think it is important to continue to make those 
reviews.
    General Jumper, I would like to commend you first for 
continuing your vision to maintain what has been referred to as 
a Total Force, blending together active Air Force, Air Force 
Reserve, and the Air National Guard. It has been successful in 
Nebraska, we believe. We have watched it very carefully.
    As part of balancing your forces, are you planning to move 
current KC-135s from Reserve units to the active? If so, do you 
know what would happen to the missions for those that would be 
losing their KC-135s?
    General Jumper. Sir, there is a flow plan that has been 
shown around and I will make sure you get that flow plan. I 
would not want to try to articulate any piece of it because it 
is a total plan. It is out there, and I will be glad to get 
that to you.
    Senator Ben Nelson. If you get it to me personally, that 
will satisfy my questions.
    General Jumper. Yes, sir.
    Senator Ben Nelson. I appreciate it.
    Thank you very much, gentlemen. Thank you for your service.
    Chairman Warner. Thank you very much.
    Senator Bill Nelson.
    Senator Bill Nelson. Gentlemen, thank you for your service 
to our country.
    General Jumper, in the course of the intelligence that was 
given to us prior to us voting on the resolution regarding 
Iraq, we were told not only about the WMD, but we were also 
told about the UAVs. All of this information has since been 
unclassified by statements that were made by the President as 
well as the Secretary of State. The information includes the 
UAVs as a threat to the interests of the United States and 
being put on ships off the Atlantic coast that could threaten 
United States eastern seaboard cities with WMD.
    What we were not told was, as reported by The Washington 
Post a week ago, that Air Force intelligence totally discounted 
the story of the UAVs. The Air Force intelligence that should 
know more about UAVs than anybody else in the country. Did you 
know about that Air Force intelligence report?
    General Jumper. No, sir, I did not at the time. The 
Intelligence Community gets together all elements of its 
intelligence sources and they come together, as the Air Force 
does, and each contributes their knowledge to the effort. That 
goes into an overall assessment that is put out by the Central 
Intelligence Agency (CIA) that has privy to everything.
    I did not know. At the time this was not an Air Force 
position that was contrary to another position. This was our 
input at the time to the overall effort as part of the 
Intelligence Community.
    Senator Bill Nelson. Were you the Chief of Staff of the Air 
Force at the time?
    General Jumper. I was, sir, yes.
    Senator Bill Nelson. Mr. Chairman, there is another example 
as we get into this question of how were we so faulty on the 
intelligence, and how we were not told that there was a 
disagreement, a dispute as to the accuracy of that 
intelligence. Instead, it was presented to us as, in this case 
with UAVs, as if it was the gospel truth. Here the Air Force 
Chief of Staff did not even know about the disagreement in Air 
Force intelligence, and that it had no truth to it.
    Chairman Warner. Would you allow me to read into the 
record.
    Senator Bill Nelson. Please, Mr. Chairman.
    Chairman Warner. ``The classified version showed there was 
a major disagreement on the issue from the agency with the 
greatest expertise on such aircraft, the Air Force. The Air 
Force does not agree that Iraq is developing UAVs primarily 
intended to be delivery platforms for chemical and biological 
warfare (CBW) agents. It said `The small size of Iraq's new 
UAVs strongly suggests a primary role of reconnaissance, 
although CBW delivery is an inherent capability.' ''
    I think you will find that much of the material that came 
before the Senate did have the caveats and so forth set forth 
in them.
    Senator Bill Nelson. Well, according to what you just read, 
it clearly states the Air Force's opinion that they did not 
have the capability of delivering the WMD. We find out that 
General Jumper, the Chief of Staff of the Air Force, does not 
even know about that dispute. That concerns me and it concerns 
the obvious question that we have to answer in the future of 
having accurate and timely intelligence in order to protect 
ourselves.
    Thank you for sharing that, Mr. Chairman.
    General Schoomaker, you have stated here that we should 
train, alert, and deploy the Reserves instead of alert, train, 
and deploy the Reserves. Yet the budget just submitted has a 
$600 million shortfall in the training for the Reserves. Why?
    General Schoomaker. Sir, I cannot answer that. I will get 
back to you on it. I was unaware of it.
    Senator Bill Nelson. It is there. What I do not know is 
that it might not just be the Reserves. It may be the National 
Guard as well. But whether it is $600 million just for the Army 
Reserves or $600 million for the Reserves and the National 
Guard, the question is obviously begged, what you are trying to 
do in remolding the Army? I congratulate you. You have had a 
lot of accolades around this table today, and we want to see 
you succeed. It is a changing world and we have to succeed. Yet 
we have a budget in front of us with a $600 million shortfall.
    General Schoomaker. Sir, I will look at that. I do not 
understand it that way. But, taking your word for it that is 
where it is, I will look at it and I will get back to you and 
let you know.
    [The information referred to follows:]

    Based on projected Reserve component mobilizations in fiscal year 
2005, $606 million for drills and annual training was realigned from 
the Reserve component pay accounts to support other priorities, 
including the extension of TRICARE to the Reserve components. At the 
projected mobilization levels, the Reserve component training budget 
provides the funds necessary to conduct military occupational specialty 
training (individual training at 95 percent), professional military 
education training (leader training), and the necessary operational 
tempo to support collective training for those units preparing for 
mobilization and deployment while in a Reserve status, as well as 
enabling recently demobilized units to maintain their readiness edge.

    Senator Bill Nelson. Perhaps at some time, Mr. Chairman, we 
might want to get General Helmly, the head of the Reserves, to 
come up and let us specifically get at this. This budget is not 
reflecting where the Chief of Staff of the Army wants to go.
    General Schoomaker. Sir, General Profit is here from the 
Office of the Chief of the Army Reserves and also General Blum, 
who is the Chief of the National Guard Bureau.
    Chairman Warner. Does the Senator wish to have the General 
approach the microphone and give a response to your question?
    Senator Bill Nelson. Absolutely.
    Chairman Warner. Fine. General Schoomaker, will you invite 
your colleague up, please.
    General Blum. I thank you for the opportunity to respond on 
this. We are working very closely with the Army on this. It is 
one Army with three components, for the first time in the 
history of this Nation. General Schoomaker is using Army fiscal 
assets against all three components to assure that all three 
components are ready to do what this Nation requires or asks of 
them.
    I am not aware of the $600 million shortfall that you are 
talking about, but I will be happy to look at what you see and 
I would be glad to discuss it. If the goal for us is to have 
all the money we need and want to achieve the level of 
readiness that we would like, that goal does not exist in any 
budget with any supplemental. There will be some risk, and 
General Schoomaker and General Helmly, the Chief of the Army 
Reserve, and I are working in a very collaborative effort to 
make sure, as we move to this modularity piece, which is a big 
piece to solving the problem, that the units get what they need 
in time to be ready so they can make the train, alert, and 
deploy model.
    It is not intended that everybody in the Army, all three 
components, will be equally and adequately resourced, to be 
completely combat-ready at any moment. The people that are 
being reset obviously are coming back in, refitting and 
reconfiguring. That is where resources come from that set up 
the people who are moving into the getting-ready set, so that 
when they are ready and they are called upon they have had the 
training, equipment, and resources they need to go down range 
and do their jobs.
    But I would very much like to see what you have, and if we 
are short, sir, we will work to identify those shortfalls for 
you.
    General Schoomaker. We need to look at this, because we may 
disagree on what it is you are talking about here. I am unaware 
of that level of underfunding.
    Senator Bill Nelson. What I am trying to do is help you.
    General Schoomaker. Sir, I can use all the help I can get, 
believe me. But you have presented something here that just 
does not resonate with me. We have been working so closely 
together, so I am surprised I would not know something like 
that.
    Senator Bill Nelson. Mr. Chairman, I want to help General 
Schoomaker, because jihadists, as I have reported to you, are 
going across the Syrian border and they are killing our 
American men and women. There is an offer out there on the 
table which I have reported to you all, to General Myers, to 
the Secretary of State, and the Secretary of Defense, etcetera. 
There is an offer on the table to seal that border, as 
presented by President Assad. If that had not filtered down to 
you, General Schoomaker, I would suggest that that is something 
you might want to follow up on. It is obviously of considerable 
concern to you to be able to secure that border.
    General Schoomaker. Sir, I watched the Secretary's 
testimony when you raised that issue. I have been on that 
border and I know what it takes to seal borders, and that would 
be an incredible effort if that were possible.
    Chairman Warner. Thank you very much, Senator.
    Senator Kennedy.
    Senator Kennedy. Thank you. Thank you, Mr. Chairman.
    Again, I want to thank all of you for service to the 
country. We are all grateful and we thank you for being here 
today.
    General Schoomaker, I want to just focus on one area and 
that is the HMMWVs, light-skinned HMMWVs. I visited a wonderful 
young person, and I am sure you have too, out at Walter Reed on 
Saturday. He had been wounded December 10, losing both of his 
legs in Iraq. We have had 16 killed from Massachusetts. A great 
number of those have been as a result of riding in light-
skinned HMMWVs.
    The wonderful young person is Private John Hart. Brian 
Hart, his father, and his mother Alma ask that the one thing to 
try and make sure is that we are not going to let these young 
people out there in light-skinned HMMWVs. You are aware of this 
issue and the problem.
    We have had conflicting testimony in recent months and also 
going back to 2003, on the numbers that are going to be needed 
in terms of the HMMWVs and also the add-on armor kits. Starting 
on September 30, 2003, HMMWV requirements were 1,723. When you 
were here on November 17, the number that was mentioned was 
3,600. Now I believe 4,149 is the exact figure.
    The up-armored HMMWV is more of a challenge. If we go 
strictly with the up-armored HMMWV, it could be as late as the 
summer of 2005 before we would have all of them. Secretary 
Brownlee was talking about 3,600 when he testified on November 
19. You are now talking about 4,100 at the present time.
    In the budget for this year you have $355 million, which is 
818. In 2005 it is $156 million. For HMMWV add-on armor kits it 
is $209 million for this year and none for 2005. Medium truck 
add-on armor kits saw zero funding in 2004 and will see zero 
funding in 2005 for heavy truck add-on armor kits, its zero 
funding in 2004 and zero funding in 2005.
    Does the President's 2005 budget fully fund your 
requirement for the up-armored HMMWVs?
    General Schoomaker. Sir, your numbers are correct on the 
up-armored HMMWVs. The difference in when we testified before 
you last on this issue and now is the marine requirement.
    Senator Kennedy. Marine and Air Force too, I believe.
    General Schoomaker. Yes, sir. The requirement has 
quadrupled. Our total requirement for the entire Army in the 
future is about 11,000 up-armored HMMWVs. We did not have that 
requirement before. The answer is, against the entire Army 
requirement, no, it is not funded here. It is going to take us 
years to do that.
    I think you know that Secretary Brownlee had the chief 
executive officers (CEOs) of both AM General and O'Gara-Hess 
together this week or last week. They are looking at how to 
increase the production levels at the facilities. We are 
raising production levels from 80 to 220 a month, and right now 
in those plants they are working two 10-hour shifts. We are 
looking at how we might be able to increase it further.
    Senator Kennedy. I think the area and the requirement of 
the greatest need is obviously Iraq and having sufficient 
numbers of either the armored HMMWVs or the armor kits. I am 
just wondering when we are going to be able to get those. How 
are we going to be able to tell the parents of these kids that 
we do not have armored HMMWVs or armor kits available?
    General Schoomaker. Sir, we are producing the add-on armor 
kits in great number.
    Senator Kennedy. Well, the 2004 funding is $209 million and 
there is none in 2005. You have $209 million for 2004 vehicles; 
in fiscal year 2005, zero out. You only have enough in the 
request for 818 HMMWVs. Given the magnitude of this problem and 
the magnitude of the problem today in Iraq, it is difficult to 
see how something as basic as these HMMWVs and the body armor 
are not being met.
    We have the statement from Lieutenant General James Helmly, 
who said: ``The suddenness, the uncertainty, the rapidity with 
which we mobilized the units not only caught them, the Army, 
flat-footed but it meant you had shortages of body armor that 
came up, shortages of up-armored HMMWVs.'' That is January 21, 
2004. He did not mean you. I know you have come in to it.
    What we are asking is why the budget now for the Army does 
not reflect the need that you have in Iraq to make sure that 
every one of those young soldiers is going to be in an armored 
HMMWV or going to be guaranteed that the add-on armor kits are 
going to be there.
    General Schoomaker. Sir, the budget is only part of the 
answer. We are using the current supplemental funding to fund 
much of the level of effort that we have going on, including 
the local efforts I know you are aware of all of the local 
efforts that are going on to manufacture things.
    The Army never intended to up-armor every HMMWV, until this 
kind of situation arose that we have today. We never intended 
to have this number of HMMWVs. We have taken armored units, 
artillery units, and all kinds of other units, and put them 
into HMMWVs as motorized formations, which never existed 
before. This is an area where you cannot fix it overnight. It 
is a matter of physics.
    Senator Kennedy. I understand that this was not 
anticipated. Many of us thought that might be the case. It was 
not anticipated.
    Mr. Chairman, I would like to just ask if the General could 
provide, from the supplementary other funding, all the funding 
that you have available. I want to know so I can tell this 
family exactly whether or not HMMWVs and the body armor these 
parents are talking about have the highest priority.
    General Schoomaker. Sir, force protection is our highest 
priority.
    Senator Kennedy. I talked to General Abizaid 5 months ago 
and he said: ``The supplemental request will permit the 
services to rapidly resolve this equipment problem, rapidly 
resolve the procurement of up-armored HMMWVs.'' That was 6 
months ago.
    General Schoomaker. Sir, we have tripled the number of up-
armored HMMWVs in theater.
    Senator Kennedy. Okay, but how many are necessary to be 
replaced in Iraq today? How many young people are going out on 
patrol today in Iraq in the light-skinned HMMWVs?
    General Schoomaker. Sir, I do not know.
    Senator Kennedy. If any of them are going out it is wrong, 
I think. You would agree, would you not?
    General Schoomaker. Sir, there are some people that do go 
out there and they go out on purpose, but there is capacity 
there for people to use the up-armored ones for their patrols.
    Senator Kennedy. General, we can get into this. You will 
have a tough time convincing the young boy I saw, who lost both 
his legs 4 weeks ago in a light-skinned HMMWV.
    Now, if there are areas that are passive, okay. I think 
that it is a tragedy if we are not ensuring that every young 
serviceman that goes on out in any dangerous area in Iraq, is 
not going to be adequately protected. I do not understand it. 
If you have the supplementary funding and the production list, 
I want to know how we are going to guarantee this so I can tell 
tell the Hart family, that there is not going to be a young 
person that is going to go out on a patrol in a risky area in 
Iraq that is not going to have the adequate protection. We 
ought to be able to do that. I am sure you agree with that.
    General Schoomaker. Sir, I do. I am with you 100 percent. 
We will provide you with that data.
    Senator Kennedy. If we can get that from you and the 
supplementary services and what is happening over there in 
terms of these patrols, I would appreciate it.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Kennedy.
    When I opened the question period of this hearing, the 
question period, my first question related to the HMMWVs and 
their status. I think Acting Secretary Brownlee and the Chief 
of Staff are doing their very best. I should point out that in 
my detailed discussions with you, General, about the issue of 
the HMMWV, you carefully pointed out to me that there are some 
missions during which the men are safer using the lighter 
weight HMMWV. Am I not correct on that?
    General Schoomaker. Sir, there are people making choices on 
which vehicle they want. The choices are not random, but 
because the nature of the mission requires it, they choose not 
to use the up-armored HMMWV. This whole measure of protection 
against IEDs and other things is a matter of a multitude of 
capabilities, as has been discussed, to include some that we 
should not discuss here.
    I am confident that we are doing everything we can to move 
increasingly more up-armored HMMWVs and other armored vehicles 
into theater to do exactly what Senator Kennedy is talking 
about. We share the same goal here.
    Chairman Warner. It is important that you share the same 
goal.
    Senator Kennedy. I thank the chair, but the fact is you are 
below the requirement that the Army has set for themselves and 
this budget which we are having our hearing on does not provide 
the makeup of the requirement that the Army itself has set. 
That is my point. If it does and I am wrong and you are making 
it up with supplementary funds, then I look forward to hearing 
from you.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you.
    General Hagee, do you wish to make any further comments 
about the HMMWVs that will be in your units going over?
    General Hagee. No, sir. I have already addressed that in my 
statement, sir.
    Chairman Warner. Thank you.
    Now, Senator Levin, you and I will conclude here. Would you 
like to lead off and we will just alternate with questions?
    Senator Levin. I would be happy to do that.
    Just on this HMMWV issue, is the facility that is armoring 
the HMMWVs working three shifts?
    General Schoomaker. I do not know how many shifts they are 
working. I am told they are working 20 hours a day, and I 
believe that is two shifts of 10 hours.
    Senator Levin. Can we check that out?
    General Schoomaker. Yes, sir.
    Senator Levin. Just to make sure that they are working 24-
7? As to whether there is anything more that we can do 
moneywise, we do not have to wait for a supplemental. This 
issue is important enough that it could be done tomorrow if 
there is any indication that the budget is the reason. If it is 
not the reason, then is the facility going 24-7? If it is not, 
then we expect it will be.
    General Schoomaker. Sir, I will get you all of the facts on 
this.
    [The information referred to follows:]

    No, the facility that is up-armoring the HMMWV is currently working 
two 10-hour shifts each day. During these shifts, the contractor is 
producing 185 vehicles for March, 205 vehicles for April, and 220 
vehicles per month for May through August 2005. This contractor is 
fully capable of meeting our needs.

    Senator Levin. General, one of the disadvantages of the new 
unit rotation approach is that the expertise that is gained and 
the relationships with Iraqis that have been built over a 12-
month period are severed abruptly. They are cut abruptly in a 
major way as these whole units rotate. It would be much less 
dramatic if it was individual rotation. Is that an issue which 
is being addressed in some way?
    General Schoomaker. Sir, as I mentioned, we are stretching 
this rotation and the turnover over a period of 4 or 5 months 
for exactly that reason. I know for instance the unit that I 
talked to in the training base the other day has already made 
four trips over there and is doing right-seat rides. This 
period of handoff here is deliberate and the intention is to 
make sure to pass all the contacts to one another and be 
comfortable in that regard.
    General Hagee. Senator, I would like to add that we are 
doing the same thing in the Marine Corps. We are working very 
closely with the 82nd Airborne Division over there. We have 
already made several trips over there, and we are going to take 
our time in the handover to ensure that we are completely 
familiar with that battleground.
    Chairman Warner. I will shift to a question here now for 
the CNO. The subject is shipbuilding, which is something that 
you and I have worked on for many years. The budget request for 
the Navy's shipbuilding and conversion account is almost $1.5 
billion less than last year. The Navy states there are nine 
ships in the budget request, but two of these ships, one DD(X) 
and one LCS, which has been your ship from the beginning, are 
funded with the research, development, test, and evaluation 
(RDT&E) funds at a fraction of what these ships will eventually 
cost.
    I am also concerned that the budget request projects only 
six ships in the fiscal year 2006 budget.
    Can you enlighten us as to why DOD reduced the shipbuilding 
and conversion account by 13 percent in this particular request 
before us here today? You have often spoken of your 375-ship 
Navy. I think we are at 297 this morning, thereabouts?
    Admiral Clark. 294 this morning, Mr. Chairman.
    Chairman Warner. 294.
    Admiral Clark. Yes, sir.
    Well, the path to 375 is to start buying new ones and to 
buy the kind of ships that we need for the future. The LCS will 
allow us to buy the kind of ships we need to dominate the near-
land arena and we are going to have to buy them in numbers. 
They are going to be smaller ships, but we are not buying them 
just so we can buy small ships to have numbers. Because it is 
plug-and-play, it is going to be a revolutionary kind of a 
concept in the way we build, outfit, and put the combat systems 
in the ship, again with very low manning. That is what we need 
in the future.
    Your specific question about why this number is lower than 
last year is that each year when I have come to testify before 
this committee I have been trying to make this number bigger. 
As I mentioned in my opening statement, I have balanced this 
the best I know how. Because we have been allowed under the 
procurement rules to procure the first ship of a class in R&D, 
the number for this particular year is a lower number. The 
reality is that if we had paid for it all in 1 year the 
Shipbuilding and Conversion, Navy (SCN) number itself would be 
remarkably bigger.
    The other thing about it is that we have several ships that 
are being done in modernization programs that constitute major 
segments of the total SCN fund. I am talking specifically about 
the SSGNs and the engineering-refueling overhauls in the 
submarines and so forth.
    As I have said before, we need to think about 
recapitalizing the ships in the Navy with a stream of 
resources. I have said that I am reaching for a $12 billion 
stream and that is what I have been doing.
    I have testified in response to a previous question about 
the importance of DD(X) and the importance to our future Navy. 
Where I see ourselves today, Mr. Chairman, is here. We have 
been working to get to the point where we are today, where the 
ships are going to start rolling off the line, and this is a 
great victory for the Navy, and it has happened because we had 
the support of Congress to get here.
    This is not a finished task. In order to create the 
resources to recapitalize the Navy, we are trying to transform 
the way we do business in the Navy. The resources that have 
allowed us to move from the number I talked to you about when I 
started this job--I had just between 4 and 5, it was under $5 
billion that year in the account. In the whole decade of the 
1990s it was barely over $6 billion per year. This is the hole 
that we created.
    I am pleased that this year, in new construction, we are at 
almost $10 billion, and with the other modernization we are at 
$11.1 billion. We are on the way. We are not there and we have 
to keep working at it.
    It is exactly what we are working on right now, the 
development of the program for next year. We take a dip next 
year, but we are looking at that hard to see how we can recover 
from that. 2006 happens to be a very difficult year for us.
    When the Secretary of Defense was here he raised a question 
about the gap that we have taken in DD(X) in 2006. I will tell 
you that there is a learning curve to be had in any 
shipbuilding project, as in any development program. If I had 
plenty of resources, I would have funded that ship in 2006 and 
kept right on going as fast as we could. The fact is I am 
required to put all of the money in 1 year to buy a ship for a 
4- to 6-year construction or a 6- or 7-year construction for a 
carrier and I did not have the resources in the 2005 bill to 
put it in 2006. We will be working that hard to see how we can 
improve that number for next year. We desperately need to do 
that to get to the size Navy we need.
    The other point that was made is that the Navy is more 
capable than it has ever been before--a very factual statement. 
Lethal platforms. There is one area, though, where numbers 
really count. The laws of physics still prevail and I have not 
figured out a way to have one of these ships be in more than 
one place at one time.
    I never said 375 is the exact number. It is about the right 
number. As you analyze the scenarios and the kind of forward 
presence that the Nation wants when representing the country, 
that number will ebb and flow. It is the target for us to reach 
for and we are seeking to rechannel funds so we can realize the 
Navy of the future.
    Chairman Warner. Thank you, Admiral. I know from the many 
years I was privileged to serve in this body it is not a matter 
of preference to the Navy, but we are very conscious as a 
Nation of the need for the sea lanes to be kept open, not only 
for security purposes but also for protecting our commerce. 
Therefore, Congress has historically been very supportive of 
shipbuilding for the United States Navy. Thank you.
    Senator Levin, why do you not take a question.
    Senator Levin. Thank you, Mr. Chairman.
    I would like to ask General Schoomaker about the effect of 
rotation on the capability of the forces that we have there. As 
I understand it, the 4th Infantry Division is modern and 
digitized. The 101st Air Assault Division has a huge helicopter 
fleet. Both of those units are coming out. Will their 
replacements be as capable?
    General Schoomaker. The geometry and the way General 
Abizaid is changing the shape of Iraq over there, require 
different kinds of capabilities. The forces that we are putting 
in there are sufficient for the tasks that he wants them to 
perform.
    I think you know that the Stryker brigade is going to be 
one of the areas where the 101st was, for instance, in the 
north. This is one of the areas where he is starting to move 
more things towards local control. We are meeting his 
requirement with the force structure that he wants.
    I ought to remind you that, even though the 4th Infantry 
Division was there, for instance, we basically dismounted them 
out of most of their heavy platforms and put them in HMMWVs to 
do the kind of things that they were going to do, such as 
motorized force, artillery, in some cases armor, and infantry. 
We are meeting the need that he articulated, and it certainly 
is not the same kind of force that went in and fought the war 
and then stayed.
    Senator Levin. This is sort of a follow-up to that, Mr. 
Chairman.
    What did Secretary Rumsfeld mean when he said that the 
capability of the security forces in Iraq will increase?
    General Schoomaker. I believe he is talking about our Iraqi 
security forces.
    Senator Levin. Thank you.
    Chairman Warner. Let us talk about another aspect of 
intelligence. We have had a lot of discussions, of course, 
about the WMD and things like that. However, we must as a 
Nation constantly be improving our intelligence from lessons 
learned. We cannot wait until six different committees look 
into the intelligence as they are looking at the issues now. On 
a real-time basis, we have to contribute to the Intelligence 
Community and strengthen the decisions and the knowledge that 
we think are best.
    I would like to ask all of you this question. There has 
been significant attention paid to the national intelligence, 
as we said. There were reports shortly after major combat 
operations concluded in Iraq about problems with tactical 
intelligence. What is your assessment of the intelligence 
support provided to the battlefield commanders in the Iraq and 
Afghanistan theaters of operations? What improvements to 
national, theater, and tactical intelligence need to be made 
now to best support our combat forces and others all over the 
world who are relying on this intelligence? What initiatives 
have you taken in your respective military departments to 
ensure the strongest tactical intelligence?
    Why do we not give you a rest, General, and we will start 
in with General Jumper.
    General Jumper. Thank you, Mr. Chairman. The biggest 
problem we found as a result of our lessons learned from OIF 
was our bomb damage assessment and how we were able to get 
accurate and timely bomb damage assessment to the commanders on 
the ground. Part of this is what I call an administrative 
problem. It is a problem of definition in what it takes to 
score an enemy vehicle destroyed, which I think really has to 
be relooked. We are undertaking that now to try and get those 
definitions which are more useful to the field commander, who 
is much more concerned about whether he is going to have to 
deal with an enemy tank company in the next 5 or 6 hours than 
he is with whether or not the national intelligence was able to 
score a kill because the turret was separated from the body of 
the tank.
    It is that sort of detail we are trying to correct, and we 
are also trying to organize ourselves so that we take advantage 
of all the sensors that are over that battlefield. Among the 
Services here, we have hundreds of vehicles over that 
battlefield with sensors that can be turned on to this 
surveillance problem after they deliver their weapons. That is 
one thing we are going to focus on with some energy, in order 
to get that corrected. It has been a chronic issue with late 
Battle Damage Assessment (BDA) and we are going to take that 
one head-on.
    You will see money in our budget against this notion of 
being able to network the platforms we already own. We saw some 
magnificent results during the dust storm in OIF. During the 
depth of that dust storm, we put together our JSTARS vehicles 
with a Global Hawk vehicle, networked the bombers and some of 
the assets from the other Services, in order to know exactly 
when reinforcements were moving down out of Baghdad toward 
especially the Medina Division south of Baghdad, we were able 
to coordinate with our space efforts to know exactly when the 
dust storm was going to be there and then to network those 
assets to be able to destroy them as they moved down, even 
before they got into position.
    Chairman Warner. What about the targeting? Your targeting 
is highly dependent on accurate intelligence.
    General Jumper. That intelligence, of course, was the real-
time surveillance that was made available because we were able 
to focus those platforms on that particular problem.
    The question is, then, how do we arrange these assets so 
that we can shift from some of the national priorities of 
collecting intelligence to be analyzed into putting those same 
assets against the real and emerging problems that exist on the 
battlefield at any one moment, like we were able to do during 
the dust storm?
    With proper networking, you can treat this as an 
interleaved solution. You can focus for just very short periods 
of time, seconds or minutes, on one problem long enough to get 
an answer and then go back to another chore, much like you do 
with a network of computers.
    This is what we are trying to do. There is money in the 
program to be able to do this with networking, with programs 
like the E-10A, and other command and control efforts along 
with the Intelligence Community to network this in a proper 
way.
    Chairman Warner. Thank you.
    General Hagee.
    General Hagee. Yes, sir. This is an issue that we are 
addressing, just like the logistics issue that Senator Clinton 
brought out. Sir, when you talk about tactical intelligence, 
you are talking about information that is fleeting, and it is 
really important that you get it quickly to the user on the 
ground.
    I would divide this into three main areas. One is UAVs, and 
General Jumper talked a little bit about that and the ability 
of our UAVs to quickly get that information down to the 
individual marine or soldier who is on the ground. We are 
addressing that in this particular budget.
    The second area, which General Jumper talked about quite a 
bit, is having these various sensors be able to talk to one 
another, to fuse this information and turn the data into actual 
intelligence quickly for that individual on the ground. We are 
addressing that large area.
    The third area has to do with human intelligence (HUMINT). 
When you get right down to it, there is just some information 
that you can only get via HUMINT. I believe that we need to do 
much better in this particular area. Having discussed some of 
this with Director Tenet, I know he feels exactly the same way 
and is doing what he can to increase this Nation's HUMINT 
capability.
    Chairman Warner. Thank you very much. I likewise want to 
see emphasis put on HUMINT.
    Admiral?
    Admiral Clark. Well, there are several areas that I would 
focus on. I would start by saying that there were some great 
victories in intelligence and we are focusing on all the things 
that did not turn out right. I happen to believe that one of 
the first things that we need to focus on is continued work to 
turn strategic intelligence into tactical intelligence with the 
speed of light. We are unable to do that and get it to the end 
user. What I believe happens today is that there is a lot of 
intelligence that is there, and we own it, but we cannot get it 
to the right place.
    Let me give you an example of things that worked very well. 
It has been little talked about, but we were able to determine 
that they were trying to and were ready and prepared to deploy 
mines in the waterways. If they had done so we would have been 
working for months to get them all out of there. Fortunately, 
we saw them doing it. We had the intelligence to get it done.
    Here is what I think that leads to. I believe the future is 
going to have a much greater focus and influence on a 
requirement for pre-hostilities. This is why I believe that 
gets me to sensors. General Hagee mentioned UAVs. It is all 
unmanned sensors. We had, for the first time ever, a half dozen 
pre-production models of unmanned sensors over there working in 
the waterways. It is important to have the ability to know 
before hostilities start and to be able to operate 
clandestinely in enemy territory or in near-land arenas. 
Lacking that, you cannot play your hand until hostilities 
start.
    We have to have the platforms and the sensors to be able to 
do that. We need unmanned vehicles in the air and on the 
surface. A major problem for us is we have to sort ourselves 
out in the waterways, where it is free for everybody to be. You 
cannot do that with a large platform. This is why a low-cost 
LCS is so important to me. We have to have a smaller platform 
that can react with speed and saturate and dominate the area 
with unmanned vehicles, so that we own the space.
    Networking is vitally important. General Jumper mentioned 
that. Let me go to the next point.
    We call it Automatic Target Acquisition (ATA). ATA is 
really fundamentally machine-to-machine discussions instead of 
machine-to-human, by human-to-machine discussions. We have to 
exploit our technical advantage there.
    I would say that the other issue with sensors is we have 
programs in the budget that are going to vastly improve our 
capability. Working with the Air Force, Active Electronically 
Scanned Array (AESA) radar is coming. It will tremendously 
improve our ability to see the ground. Then we have to be able 
to communicate it, just as Senator Clinton talked about the 
whole issue of communications. The modern communications that 
will carry these data streams is a primary investment priority 
for the Nation.
    Chairman Warner. Did you wish to include in that the 
programs for countering anti-ship missiles?
    Admiral Clark. Absolutely.
    Chairman Warner. That is a growing concern to this Senator.
    Admiral Clark. Yes, sir.
    Chairman Warner. All right, thank you.
    Now, General Schoomaker.
    General Schoomaker. Sir, thank you. I will be very brief 
here.
    We learned a lot. We have a lot of lessons learned. There 
are about 127 areas specifically in tactical intelligence from 
OIF lessons learned and OEF. About 107 of those have been 
rectified and are working.
    There are four key areas. One of them is tactical 
collection. It has already been spoken to here across the 
board. It really is saying that every soldier is a sensor, and 
you are collecting from everybody that is in touch with the 
space. It has to do with HUMINT, it has to do with the 
integration of UAVs, and it has to do with the kinds of things 
that you can do and live.
    It really is an issue of understanding that intelligence is 
an operation. It cannot be a union issue here. You have to 
fight for knowledge, and that is one of the things that we 
know. It is things like having a common operating picture for 
both blue forces and red forces.
    The second one is in reporting, and that is reporting from 
the soldier all the way up to the national level. We are not 
making the best use of our information technology (IT) 
infrastructure, of our processes and all the rest of it, still 
legacy.
    Also crucial is access to national level intelligence. 
There is still too much difficulty in terms of accessing 
databases across the board in a timely fashion. I am now 
talking about the tactical level, which is still very 
complicated.
    Chairman Warner. That is something we should address very 
promptly. I would appreciate if you would give me a little 
memorandum on how you see that problem and what recommendations 
you would like to make to Congress to step into this situation.
    General Schoomaker. Sir, this is a huge issue and I think 
we all share this question of how we really get access so that 
we can mine all of what we really know in a way that is 
coherent.
    Chairman Warner. Let us close out on this issue. You will 
come back to me and coordinate your memorandum with the other 
Service Chiefs. Senator Levin and I serve on the Intelligence 
Committee, and that, to me, is something we should pay a high 
level of attention to.
    General Schoomaker. Sir, I would add this last point and I 
will quit. That is, networking the analytical centers, so that 
we are not only networking Services but are networked across 
the interagencies and the joint services, national through 
tactical, is very important to us.
    The last point I will make is that one of the things that 
makes our future formation so powerful is that we are putting a 
significant reconnaissance, surveillance, and target 
acquisition (RSTA) capability within those formations. We are 
talking about the modular brigades, ground cavalry kinds of 
organizations, UAVs, and scouts with the kinds of optics and 
sensors that we need. The payback on this in terms of 
capability is huge and that is one of the main centerpieces of 
what we are doing.
    Chairman Warner. As a seasoned combat soldier, you know 
that intelligence is an enormous force multiplier.
    Senator Levin.
    Senator Levin. Thank you.
    I want to go back to the issue of national intelligence and 
the shortfalls and errors there. I asked you about whether or 
not you had been interviewed relative to the effect of impact 
of prewar national intelligence on the planning for or conduct 
of OIF and you indicated no. Now I want to ask you another 
question relating to the national intelligence, and that is 
whether or not you have seen any reports or analyses of the 
impact of that national intelligence on the conduct of OIF. 
Have you seen any reports on the issue inside your service or 
anywhere else?
    It does not make any difference where we start. General 
Jumper, again we will give you the first shot.
    General Jumper. Sir, I am scanning here. That is a broad 
question. I cannot recall anything particular that analyzed 
that. If I come up with something I will get back to you 
immediately.
    [The information referred to follows:]

    Sir, I have staffed this issue with our Senior Intelligence Office, 
the Director for Intelligence, Surveillance, and Reconnaissance, and 
his staff. We have no documentation or other indications of any reports 
of analysis concerning the impact of prewar national intelligence on 
the conduct of Operation Iraqi Freedom.

    Senator Levin. Thank you.
    General Hagee.
    General Hagee. No, sir, I have not.
    Senator Levin. Admiral Clark.
    Admiral Clark. No, I have not.
    Senator Levin. General.
    General Schoomaker. Sir, we only have the lessons learned 
kind of information within our own resources. I have seen that, 
but nothing else.
    Senator Levin. In terms of what I am talking about, you 
have not seen that kind of an analysis?
    General Schoomaker. To the best of my knowledge I have not, 
sir.
    Senator Levin. Now, I have a pending request, as our 
chairman knows, that is sitting on the Secretary of Defense's 
desk. It is a pending report to have interviews with our 
military leaders, including our commanders in the field, to see 
if we cannot make an assessment of the impact of our national 
intelligence on the conduct of OIF. I am just hopeful that we 
can get a positive answer from the Secretary of Defense. There 
just is no justification, it seems to me, for the delay in 
getting a positive answer, and it is essential that this 
committee and other committees look at that aspect of our 
prewar intelligence.
    I am just going to state this. I am not going to ask you a 
question on this. I am just going to state this as a fact, that 
we are awaiting the answer to that request. It seems to me that 
it is a responsibility of this committee and the similar 
committee on the House to understand that impact. I know that 
the Secretary of Defense has representatives here. Perhaps we 
can get a prompt answer and a positive answer to my request.
    Chairman Warner. On that point, when you and I were 
visiting with the Secretary, I think it was last week, we 
discussed a range of those inquiries and he seemed to indicate 
that he is going to take these under serious consideration.
    Senator Levin. I hope he does. I think our responsibility 
is a heavy one here for the future well-being of this country 
as well as for any accountability and responsibility in the 
past. The future it seems to me requires that we do everything 
we possibly can to understand the effect of our intelligence on 
operations and planning, as well as the other aspects of 
intelligence for other purposes. That is right within the 
purview of this committee, and I would hope that the Secretary 
of Defense would help us carry out that responsibility with a 
positive answer.
    I have just one last question for General Hagee. There have 
been press reports that some of the Marine Corps officers 
believe that the Army was too confrontational in its approach 
in Iraq and unnecessarily antagonized the population, and that 
the Marines were going to pursue something less confrontational 
as a way of encouraging greater Iraqi cooperation against the 
insurgents. I am wondering if you would comment on those press 
reports, and tell me whether they are accurate or not?
    General Hagee. Sir, I have seen those press reports and I 
can tell you that the Army and the Marine Corps are working 
together very well to ensure that we have learned all the 
lessons that they have gathered over there and that we can 
implement them when they go in.
    When the Army first went in, the battlefield looked a 
certain way and, because of the great performance of those 
soldiers over there, that battlefield has changed. Both the 
Army and the Marine Corps are changing their tactics to respond 
to that change.
    Senator Levin. Thank you.
    Chairman Warner. Thank you.
    Gentlemen, we have had an excellent hearing and we will be 
submitting additional questions for the record. Thank you very 
much and pass a well-done down to your troops.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John Warner
                   spare parts and logistics support
    1 and 2. Senator Warner. General Schoomaker, last year, Congress 
supported the Army's request for significant increases in funding for 
fiscal year 2004 to address challenges in the Army's spare parts and 
logistics support program. Current estimates indicate, however, that 
the Army will only be able to spend approximately 70 percent of what 
was authorized by Congress. Why is the Army unable to fully execute the 
amount authorized by Congress? What are the consequences for the Army 
of not spending the funding for spare parts and logistics support 
program that was authorized by Congress?
    General Schoomaker. In the fiscal year 2004 budget request the Army 
assumed risk in base operations support (BOS) to support an emergent 
requirement to increase the inventory of spare parts. The realignment 
plan, developed prior to operations in Iraq, was a 3-year effort to 
increase spares on the shelf in anticipation of future needs. With the 
onset of war in 2003, the Army used fiscal year 2003 supplemental funds 
to accelerate the replenishment of repair parts. As a result, the funds 
originally budgeted for this effort are no longer required for this 
program and will be realigned to BOS, the original source of these 
funds. This action does not reduce the availability of spare parts.

    3. Senator Warner. General Schoomaker, Admiral Clark, and General 
Jumper, departmental and Service investments in basic research serve 
many purposes, one of which includes training of the future defense 
workforce in disciplines of critical importance to our national 
security. Do you feel confident that the current investment trend will 
ensure an adequate number of appropriately-trained domestic experts to 
fill the Department of Defense's (DOD) need for an innovative workforce 
in key disciplines such as mechanical, aerospace and chemical 
engineering, computer architecture, mathematics, physics, and 
oceanography?
    General Schoomaker. Basic research supports the fundamental 
training of graduate students in the key disciplines indicated, and 
these individuals can contribute to our future defense workforce needs. 
The current funding streams are sufficient to ensure an adequate number 
of students to fill the DOD's needs, assuming other significant 
factors, such as sudden funding reductions, competition with private 
industry for similar resources, or a decline in the number of native-
born U.S. citizens acquiring advanced technical degrees, do not disrupt 
the trend.
    Admiral Clark. I am confident that both our investments and the way 
in which we have structured our research and development (R&D) programs 
will ensure an adequate number of the kinds of domestic research 
scientists and engineers that you have mentioned. Between the Naval 
Research Lab and the In-house Laboratory Independent Research (ILIR) 
program, we have roughly $115 million going annually to help develop 
appropriately trained scientists and engineers in key disciplines.
    In addition, we are working with the National Science Foundation 
(NSF) to start a $10 million pilot program, commencing in fiscal year 
2005, that is focused on bringing into the Naval Research Enterprise 
the next generation of scientists and engineers. This program, called 
Naval Research--Science and Technology for America's Readiness (N-
STAR), is focused on revitalizing connections between the Navy's R&D 
centers and the Nation's universities.
    General Jumper. The current Air Force Science and Technology (S&T) 
investment portfolio, including over $215 million for basic research, 
is focused on providing technology that ultimately enables warfighting 
capabilities. Although there may be a perception that overall basic 
research funding is in decline, Air Force ``core'' basic research has 
actually increased about $13 million or almost 5 percent real growth 
over the fiscal year 2004 President's budget. This Air Force basic 
research investment is closely linked with academia and this link is 
expected to attract, develop, and produce graduates that can compete in 
future job markets that support our endeavors in delivering the 
warfighting capabilities needed to ensure our national defense. While 
recruiting and retaining scientists and engineers (S&Es) continues to 
be a challenge, we have no indication that there will be a shortage of 
S&Es in the future.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                                tankers
    4. Senator McCain. General Jumper, according to the Air Force, 
``There is only a negligible amount of funds in the fiscal year 2005 
budget that falls under the tanker lease heading, and no funds to 
actually lease aircraft. Should the current review and Congress concur 
leasing is the best way ahead, funds could be reallocated using the 
normal budgeting tools.'' Exactly what funding is there in this budget 
that relates in any way to the tanker program?
    General Jumper. There is no money included in the fiscal year 2005 
President's budget for the KC-767A program. The KC-767A program 
accelerates the start of our tanker recapitalization effort. However, 
the tanker recapitalization program of record in the fiscal year 2005 
President's budget, PE41221F KC-135 Tanker Replacement, has funding 
that starts in fiscal year 2006 and notionally delivers its first 
aircraft in fiscal year 2010, depending on the recommendation of the 
analysis of alternatives.

    5. Senator McCain. General Jumper, from the Air Force's statement, 
am I to understand that it is your intention to fund the lease of up to 
20 tankers by reprogramming from other systems?
    General Jumper. The National Defense Authorization Act for Fiscal 
Year 2004 authorized leasing 20 tankers and buying 80 more under 
multiyear authority. If the program is approved by the Office of the 
Secretary of Defense (OSD), we intend to submit an above threshold 
reprogramming for fiscal year 2005 funds.

                            force protection
    6. Senator McCain. General Schoomaker, I am perplexed about a 
situation dealing with base security forces. The Army active duty, 
Reserve and National Guard security forces are, according to your words 
and every outside expert, stretched thin. In fact, at Fort Huachuca in 
Arizona and Army bases elsewhere, security forces, military police 
(MP), and gate guards are supplemented by the civilian guards. Why are 
Army and National Guard service members guarding Air Force bases?
    General Schoomaker. In September 2002, OSD and the Air Force asked 
the Army to provide force protection augmentation at Air Force 
installations based on the Air Force's inability to sustain global 
force protection and security levels. In December 2002, the Secretary 
of the Army signed a Memorandum of Agreement providing force protection 
augmentation at Air Force installations for 2 years. We are currently 
in the second year. Army augmentation is scheduled to end in November 
2004.

    7. Senator McCain. General Jumper, why are you using Army guardsmen 
and reservists to provide gate guard and base security force protection 
and have chosen not to augment or replace your base security force with 
contract or civilian security guards?
    General Jumper. The use of Army guardsmen was, and remains today, a 
stopgap measure used until longer-term solutions like civilian and 
contractor guard forces are fully developed. Since the service 
agreement was started in January 2003, we have shifted from a mobilized 
Army augmentation force to a 100-percent volunteer force in the second 
year of this 2-year agreement. Originally, the Army provided over 8,000 
soldiers to augment Air Force force protection capabilities. Today, 
that number has been reduced to less than 5,300 soldiers. We are using 
every available means to meet these increased demands through 
utilization of technology infusion, Air Reserve component volunteers, 
manpower realignments within end strength limits, civilian conversions, 
and contract development. Our goal remains the same: reduce reliance on 
mobilized Guard and Reserve Forces as alternatives come online.

                          future combat system
    8. Senator McCain. General Schoomaker, an independent assessment of 
the Future Combat Systems (FCSs) ``other transaction authority'' 
agreement conducted by a subcontractor called CommerceBasix highlighted 
the financial risk associated with this $15 billion agreement that was 
being negotiated with Boeing. Among other things, this due diligence 
assessment concluded that if the Army did not address the issues it 
identified in the May 31, 2003 version of the ``other transaction 
authority'' agreement, the Army's contractually based financial risk 
could exceed $1 billion. To what extent were the issues raised in this 
assessment adequately addressed in the final ``other transaction 
authority'' agreement with Boeing?
    General Schoomaker. The other transaction agreement executed 
between the Department of the Army and Boeing for the system 
development and demonstration (SDD) phase of the FCS program contained 
sufficient contractual provisions to provide necessary protections for 
both the Army and Boeing. We are of the opinion that the contractual 
issues raised in the CommerceBasix findings were addressed in the SDD 
other transaction agreement and that the provisions provided sufficient 
safeguards for the government's $14.1 billion program investment.

    9 and 10. Senator McCain. General Schoomaker, to what extent have 
you evaluated the Army's legal and financial risks associated with the 
final ``other transaction authority'' agreement with Boeing? Will you 
provide a copy of documents that reflect your evaluation to this 
committee?
    General Schoomaker. As previously responded, I have not undertaken 
any evaluation regarding the FCS. The Acting Secretary of the Army has 
commissioned the Institute for Defense Analysis (IDA) study and the 
Army will release the study in the June 2004 timeframe.

    11. Senator McCain. General Schoomaker, did Army Acquisition Chief 
Claude Bolton, at any time, convey CommerceBasix' analysis, or any 
information regarding this analysis, to Boeing?
    General Schoomaker. Not to my knowledge.

    12. Senator McCain. General Schoomaker, if Mr. Bolton conveyed 
CommerceBasix' analysis, or any information regarding this analysis, 
please indicate to whom, and when, he did so.
    General Schoomaker. I have no knowledge of this.

    13. Senator McCain. General Schoomaker, please provide a copy of 
both the May 31, 2003, and the final version of the FCSs ``other 
transaction authorization'' agreement.
    General Schoomaker. The information requested is attached. 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              end strength
    14. Senator McCain. General Schoomaker, you are redesigning the 
U.S. Army and growing the number of brigades to meet the challenges of 
the new century. Why does your budget not reflect this?
    General Schoomaker. Lessons from Operation Iraq Freedom (OIF) and 
Operation Enduring Freedom (OEF) have taught us that we need more agile 
forces, capable of operating in a joint environment, and we need them 
as soon as possible. We did not arrive at a decision to implement the 
redesign until after the budget was finalized. Because of the immediacy 
of the requirement, we plan to reconfigure OIF 1 units during their 
reset process. Some of these units may deploy to meet OIF 3 force 
requirements, so we need to reconfigure them immediately. As this 
requirement is directly related to continuing the global war on 
terrorism, we believe supplemental funds are appropriate.

    15. Senator McCain. General Schoomaker, paying for the 30,000 
increase in troops is not included in the budget. Do you plan on 
relying on supplemental spending bills for the next 4 years to pay for 
this increase?
    General Schoomaker. This requirement is directly related to the 
global war on terrorism and is being made under emergency authority. 
Because the increases are above authorized strength, we believe the 
supplemental appropriations are a proper way to fund them.

    16. Senator McCain. General Schoomaker, supplemental bills are 
submitted by the administration for emergency spending requests. Why is 
future end strength considered an emergency-spending request?
    General Schoomaker. As we fight the global war on terrorism, we 
must adapt our forces and our methods to best engage our enemy. We need 
to implement the lessons that we have learned in Iraq and Afghanistan 
as soon as possible. We need to change the way our units are organized 
and how they fight now. The associated requirement for a strength 
increase is a direct result of the global war on terrorism and its 
immediate, but temporary nature, is our reasons for using supplemental 
funds.

    17. Senator McCain. General Schoomaker, every outside independent 
expert has called for increasing Army end strength. The demands of the 
global war on terror have stretched our military thin. Will the 
administration continue to oppose legislative efforts by Congress to 
increase end strength?
    General Schoomaker. While I oppose a permanent increase in the 
Army's end strength, I strongly support a temporary increase of 30,000 
that allows the necessary flexibility for the Army, while fighting the 
global war on terrorism, to increase the number of Active Force Brigade 
Combat Teams (BCTs) from 33 to 43 between now and fiscal year 2007. A 
determination for an additional 5 BCTs (for a total of 48) will be made 
at a later date. This temporary measure will enable the Army to field 
standardized unit designs and transition to a unit-based personnel 
management system. Our intent is to make the Army more ready and 
relevant for the unpredictable nature of the emerging strategic 
environment. Once this restructuring is complete, the Army will return 
to their authorized strength by fiscal year 2009.

    18. Senator McCain. General Schoomaker, we are relying more and 
more on our reservists. According to the testimony of General Myers, 
``some missions like the ones in Bosnia and Kosovo are almost 
exclusively made up of Reserve and Guard units.'' Reports indicate that 
nearly 40 percent of the soldiers in the Iraqi and Afghan theaters are 
reservists or guardsmen. I am concerned about the retention problems 
that may arise in the near future due to this reliance. What are you 
doing to encourage reservists to re-enlist?
    General Schoomaker. The Army Selected Reserve (SELRES) strength was 
211,380 as of January 29, 2004, or 3.1 percent above its 
congressionally mandated end strength objective. The Army Reserve began 
to notice a drop in attrition and increase in strength soon after the 
first round of calls to active duty (January 2003) in support of 
Operations Noble Eagle (ONE) OEF. Since this time, the Army Reserve has 
been in a continuous state of mobilization with an average of 28 
percent of its troop program unit (TPU) strength called to active duty 
in support of ONE/OEF/OIF rotations. On average, 1.9 percent of the 
SELRES strength attrits each month. The mobilized population has not 
been able to follow this ``normal pattern'' of attrition and may act on 
this ``pent-up'' attrition upon their return. The Army Reserve is 
expecting losses between 22 percent and 34 percent of pent-up attrition 
(based on 12 to 18 months of mobilization) from this population within 
7 to 9 months of their return. Based on these expected demobilization 
losses, the Army Reserve end strength is projected to fall to between 
203,490 and 207,481 by the end of the fiscal year and within the 2 
percent congressional allowance by the beginning of the fourth quarter, 
depending on the timing of demobilization losses and the attrition 
patterns experienced.
    The Chief, Army Reserve (CAR), tasked the Office of the Chief, Army 
Reserve (OCAR) Retention Transition Division to form a Retention Task 
Force to develop and institute initiatives to retain as many of these 
demobilizing soldiers as possible. Some of the ongoing initiatives 
include:

    (1) Completion of a demobilization survey, administered by a 
retention and transition noncommissioned officer (NCO), by each 
returning soldier.
    (2) Counseling provided to each soldier during the demobilization 
process pointing out that they could immediately use tuition assistance 
upon their return, and identifying opportunities in the Army Reserve to 
continue their careers, such as the Active Guard Reserve program, 
warrant officer program, or options for commissioning.
    (3) Free marriage retreats, conducted by Army Reserve chaplains, 
offered to all redeploying soldiers and their spouses.
    (4) Retention and transition NCOs are contacting redeployed 
soldiers during the 90-day reconstitution period giving these soldiers 
a chance to share their mobilization experience and to encourage them 
to stay in the Army Reserve.
    (5) Family readiness groups and commanders are conducting welcome 
home activities during the first Army Reserve training assembly 
scheduled after redeployment.

    The Army Reserve realized improvements in first term reenlistment 
figures in February; however, it remains below mission for the second 
straight month and for the year. Additionally, careerists lagged for 
the 4th straight month. Upon review of the causes of the careerist 
shortfall, it was discovered that the systems used to update 
reenlistment dates had not caught up to the change in policy requiring 
Reserve component soldiers in ranks of staff sergeant or above to 
reenlist for an indefinite term. There are currently over 1,000 
reenlistment contract packets awaiting input into the personnel 
accounting systems. A software change package is due out at the end of 
March 2004. This will enable the Army Reserve to remedy the situation 
by the end of April 2004. Retention of demobilizing soldiers continues 
to be monitored closely to determine the effects of mobilization on 
retention.

    19. Senator McCain. General Schoomaker, the biggest strength of our 
military is the men and women who serve. We have major commitments 
across the globe including 330,000 Army troops deployed to 120 
countries. The United States will have a major presence in Iraq and 
Afghanistan for the foreseeable future. Are the budget priorities of 
the Service in line with the increased demands we are putting on our 
soldiers?
    General Schoomaker. Absolutely. The fiscal year 2005 budget 
emphasizes manning the force, taking care of our soldiers and their 
families, and sustaining the quality of the force. The Army's request 
reflects a strength increase of 2,400 in the active component as 
authorized in the National Defense Authorization Act for Fiscal Year 
2004. This budget also provides soldiers with an average pay increase 
of 3.5 percent.
    The Army is transitioning to an improved manning system designed to 
increase unit readiness by increasing stability and predictability for 
unit commanders, soldiers, and families. The Army is also implementing 
incentives and manning initiatives to meet recruiting and retention 
goals in order to enhance warfighting capabilities.
    The fiscal year 2005 budget begins a rebalancing of the active and 
Reserve components based on rapid response operations, high demand 
units, and rotational requirements. To improve force manning in the 
active component in fiscal year 2005, we will increase authorizations 
to equal requirements by adding 1,043 authorized spaces to existing 
active units. This initiative will bring them to their full requirement 
level in fiscal year 2005 ensuring their campaign quality capabilities. 
Additionally, beginning in fiscal year 2005, the Army will bring the 
Reserve component force structure allowance under programmed end 
strength. This initiative will improve manning and readiness and will 
reduce operational tempo (OPTEMPO) stress in the remaining units types. 
The Army will also convert 917 Reserve component spaces from less used 
structure such as field artillery to high demand units such as MPs and 
civil affairs.
    While we are at war and addressing global war on terrorism 
emergency requirements, these initiatives will relieve some of the 
pressure on our soldiers, while still providing the right mixes of 
capabilities for our Army.

    20. Senator McCain. Admiral Clark, I am a little concerned that the 
Navy is going to face a problem training new aviators over the next 
couple of years. There have been stories of the Navy turning away 
hundreds of qualified aviators already in the aviation pipeline. 
Currently, few pilots are leaving the Navy to fly commercially because 
the airlines are not hiring. When this trend changes and the commercial 
airlines start to hire, the Navy is going to have a shortage of junior 
officers. What is being done to ensure that there are an adequate 
number of junior aviators?
    Admiral Clark. We access enough junior officers as prospective 
aviators each year to allow for training attrition and to properly fill 
first-tour requirements in each squadron. We are continuously updating 
our models to validate actual performance while taking measures to 
incentivize the behaviors we want to optimize our investment in naval 
aviators. This includes a continuing commitment to a robust bonus 
program that helps lessen the economic disadvantage for a pilot serving 
in the military. We have worked hard to improve the quality of service 
for all of our dedicated professionals, including those in naval 
aviation where we are experiencing record retention. As a result, we 
now have an opportunity to both increase the level of experience in our 
squadrons and more selectively choose department heads and executive/
commanding officers in key aviation leadership billets that those 
junior aviators will aspire to.

    21. Senator McCain. General Hagee, I was recently contacted by the 
father of a constituent who expressed concern that his son is being 
redeployed to Iraq. On his son's first deployment, he flew F-18s, but 
now he is being sent back to Iraq as a MP. Are the Marines that short 
of troops that we are now sending aviators back to Iraq to serve on the 
ground? Is this not a perfect example of why we need to increase end 
strength?
    General Hagee. I can assure you that the Marine Corps is not 
sending our F-18 pilots back to Iraq as MPs. We have embedded within 
our ground combat units, billets for naval aviators to serve as air 
officers. These Marine aviators advise the unit commanders on the 
employment of all types of aviation support from close air support to 
helicopter resupply, medical evacuation, etc. It is not uncommon to 
take advantage of our aviator's recent combat experience by rotating 
pilots from the cockpit to the ground combat units to take advantage of 
their expertise. This relationship has always been an important part of 
our air-ground team philosophy and been in existence since the 
introduction of aviation into the Marine Corps. This is how we normally 
do business and is not related to any shortfall in end strength.

                        national call to service
    22. Senator McCain. General Schoomaker, since you are pursuing a 
temporary increase in manpower levels for the Army which will need to 
be phased out in a short time and could well reside in the Reserves, 
does it not make sense to employ the 18-18-18 National Call to Service 
(NCS) Act to augment the required end strength you are pursuing?
    General Schoomaker. The Army has implemented a National Call to 
Service Program (NCSP) and established a 1-year test of the program so 
we can quantify the impacts of this program. We want to allow the NCSP 
to mature and to complete the 1-year test to help us make better 
decisions on the program and its place in the Army. Currently, our 
force stabilization and modularity efforts are key. The temporary 
strength increase of the Army will need to occur across all parts of 
the military structure not just the initial entry soldier. Our solution 
is focused on long-term results for shaping the Army as a whole.

    23. Senator McCain. General Schoomaker, Admiral Clark, General 
Jumper, and General Hagee, I would like you to discuss the 
implementation of the 18-18-18 plan that Senator Bayh and I included in 
the National Defense Authorization Act for Fiscal Year 2003. In 
particular, what percentage of your total force will be made up of 
personnel under this type of contract?
    General Schoomaker. Since implementation of the NCSP on October 1, 
2003, the Army has had 250 soldiers enlist under this option. Overall, 
the fiscal year 2004 goal for the NCSP is 1,450, which equals 2 percent 
of the initial fiscal year 2004 accession mission and 0.3 percent of 
the total Active Force.
    Admiral Clark. In this first year of implementation of NCSP, the 
Navy's goal of 1,000 NCSP accessions was achieved. This represents 2.5 
percent of the Navy's entire fiscal year 2004 accessions and 0.3 
percent of fiscal year 2004 total active enlisted strength.
    We are embarked on an effort to develop a 21st century human 
resources strategy which will baseline how we acquire, develop and 
retain the people needed to keep our Navy the best the world has known. 
We intend to assess the 18-18-18 methodology to see how we can better 
exploit opportunities to show young people the benefits of service.
    General Jumper. Senator, the 18-18-18 plan was included in the 
National Defense Authorization Act for Fiscal Year 2003 as the NCSP. I 
am proud to say the Air Force hit the ground running with this program. 
We were the first Service to bring someone on active duty and have not 
let up since then. We have accessed approximately 300 airmen since the 
program began on October 1. Our plan is to access 370 airmen this 
fiscal year and an additional 365 next year. This will be 1 percent of 
our non-prior service enlisted accessions each of those years.
    General Hagee. The Marine Corps is currently planning on recruiting 
up to 1 percent of our yearly accession mission via the NCSP. We are 
implementing this program over a 3-year period; 175--fiscal year 2004, 
275--fiscal year 2005, and 350--fiscal year 2006.

    24. Senator McCain. General Schoomaker, Admiral Clark, General 
Jumper, and General Hagee, do you envision expansion of this program?
    General Schoomaker. The Army approached this program somewhat 
differently than the other Services. On behalf of the Army, Rand 
Corporation is conducting a 1-year study that ends on September 30, 
2004, to determine market expansion as well as effects this program 
might have on our other enlistment programs. We placed this program in 
10 of our 41 recruiting battalions. The Rand report will follow in the 
December 2004/January 2005 timeframe. We project expanding this program 
nationwide on October 1, 2004. Upon completion of the study, the number 
of personnel allowed into the program could very well grow, but at this 
time, we want this program to mature.
    Admiral Clark. Yes, we currently plan to double the NCS accession 
next year.
    General Jumper. We are taking a cautiously optimistic view of the 
program and do anticipate the program's expansion in the future. We are 
interested in establishing some type of metric to indicate what the 
majority of these enlistees will choose to do at the end of their 
training plus 15-month commitment. This will allow us to better 
establish a plan to ensure sustainment of these Air Force Specialty 
Codes is not affected.
    General Hagee. At this time, the Marine Corps does not envision 
expansion of this program. We will continue to evaluate this position.

    25. Senator McCain. General Schoomaker, Admiral Clark, General 
Jumper, and General Hagee, what is the role of the 18-18-18 plan 
playing in each of the Services?
    General Schoomaker. The NCSP was implemented to give applicants a 
chance to serve the Nation for a limited amount of time (15 months plus 
training). If they chose not to reenlist for active duty, they would 
then serve 2 years in the Selected Reserves and the rest of their 
service in the Individual Ready Reserve or a national service program.
    The Army continues to shape its programs to attract high quality 
men and women to serve as soldiers. The NCSP is a short-term enlistment 
option that we are focusing on the college markets. The NCSP currently 
has 30 percent of its enlistees with some college versus 25.7 percent 
of the Army's total year to date enlistments. This program will benefit 
both the Active and Reserve component in today's Army and well into our 
future Army.
    Admiral Clark. Sailors enlisted under the NCSP plan play a key role 
in filling critical skill shortages within the Naval Reserve. For 
fiscal year 2004, we have dedicated fully  of our NCSP enlistment 
quotas toward two skills most urgently needed in the Selected Reserves: 
Hospital Corpsman (HM) and Master at Arms (MA). U.S. Navy Reserve has a 
long-term priority need for corpsmen with both training and follow-on 
experience. NCSP HMs will directly support the Reserve mission of 
providing field medics to Marine Corps units (many of which are engaged 
in OEF and OIF). Those recruits enlisted as NCSP HMs will not only have 
received required formal technical schooling, they will also bring an 
additional 15 months of Fleet or Fleet Marine Force experience with 
them as they affiliate with their Reserve units. The NCSP MAs will also 
serve to beef up the Navy antiterrorism/force protection mission, for 
much the same reason as HMs--a combination of formal technical training 
coupled with follow-on fleet experience in a variety of assignments. 
The remaining 12 percent of this fiscal year's NCSP enlistees are 
dedicated (in smaller numbers) to other Reserve Force missions 
including intelligence, anti-mine warfare, and naval aviation. For 
fiscal year 2005, Navy plans to double the number of NCSP enlistees, 
with those sailors continuing to be enlisted into ratings and skills in 
high demand in the Reserves.
    General Jumper. This program has provided our recruiters with 
another tool to try and reach more of America's finest youths. We are 
encouraged by the results but the trends are unclear. Our desire was to 
bring in people that would not have otherwise considered the Air Force 
as a career option. While this is true in some situations, the trend 
indicates most young people would have enlisted either way but opted 
for the NCSP believing it provided the greatest incentives. One of the 
roles we hoped this program would play is to help with manning our Air 
Reserve component forces. We will not know how this succeeds until the 
first of these airmen become eligible to make those career decisions 
late in fiscal year 2005.
    General Hagee. At this time, the Marine Corps is using the NCSP as 
an additional incentive program to attract the ``best and brightest'' 
youth into our Marine Corps. We continue to evaluate the success of the 
program and are looking at innovative ways to use the program to 
possibly attract critical skill personnel to support our Selected 
Marine Corps Reserve Units such as intelligence and MPs. The Marine 
Corps has a Total Force Working Group looking at this issue.

                               munitions
    26. Senator McCain. General Schoomaker, you have directed a ``blank 
sheet approach'' to determine the ``real'' requirement for munitions. 
When will you program the ``real'' requirement into the budget process?
    General Schoomaker. We will program the new warfighting requirement 
in the fiscal year 2006 budget submission. I have given guidance 
relative to this year's programming efforts to conduct an operational 
assessment of planning factors and modeling results used to determine 
war reserve munitions requirements. The intent is to tightly link the 
munitions risk assessment and prioritization decisions to projected 
warfight requirements informed by the current operational environment. 
As the Army matures its thinking about the best way to approach the war 
reserve munitions requirement, we will work with OSD to document the 
modifications required of the process, as laid out in DOD Instruction 
3000.4, DOD Munitions Requirements Process.
    Additionally, we have identified an fiscal year 2005 unfunded 
requirement (UFR) to fill high-priority training ammunition shortfalls 
in small and medium calibers and mortar rounds.

    27. Senator McCain. General Jumper, why has the Air Force chosen to 
leave a joint program after development is complete and the weapon is 
integrated on five Air Force platforms in favor of a single-service 
development program which has yet to be developed or integrated on any 
platform?
    General Jumper. Joint Stand-Off Weapon (JSOW)-A is integrated on 
four United States Air Force (USAF) platforms, but with numerous 
restrictions, issues, and ``workarounds.'' After 12 years in the JSOW 
program, the USAF has dropped zero in combat. Based on program 
documentation, combat, and developmental and operational test data, 
JSOW's operational utility for the USAF, and successful integration on 
USAF platforms, has not been proven. The USAF based its decision to end 
JSOW-A procurement on capability requirements and analyses of a wide 
range of platforms and weapons that can provide the required 
capabilities. We balanced capabilities, cost, and risk during the 
fiscal year 2005 program objective memorandum (POM). We analyzed 
numerous platforms and weapon options to ensure the required 
capabilities (direct attack, standoff outside point, area and theater 
defenses) are being provided and procured, and Wind Corrected Munitions 
Dispenser Extended Range (WCMD-ER) is just one of the many technical 
solutions being applied by the USAF to provide the required 
capabilities. Defense budget plans, the Integration Capability Review 
and Risk Assessment process, and Air Force Studies and Analyses Agency 
studies support the decision. The analyses showed the capability 
requirements could be met with a mix of existing and planned platforms 
and weapons. The planned JSOW-A procurement (475 through fiscal year 
2004) will provide an effective ``bridge'' until other capabilities 
reach sufficient inventories.

    28. Senator McCain. General Jumper, given the Navy's success with 
the JSOW in OIF, how can you justify the risk of weapon development 
when an existing joint program is established and already integrated on 
multiple platforms?
    General Jumper. The USAF analyzed numerous platforms and weapon 
options to ensure the required capabilities (direct attack, standoff 
outside point, area and theater defenses) are being provided and 
procured, and WCMD-ER is just one of the many technical solutions being 
applied by the USAF to provide the required capabilities.
    JSOW is integrated on four USAF platforms, but with numerous 
restrictions, issues, and ``workarounds.'' The USAF has used zero in 
combat after 12 years of participation in the JSOW program. Based on 
program documentation, combat, and developmental and operational test 
data, JSOW's operational utility for the USAF, and successful 
integration on USAF platforms, has not been proven.

    29. Senator McCain. General Jumper, how does the Air Force plan to 
deal with the unexploded ordnance issue for the BLU-97 sub-munitions in 
WCMD and WCMD-ER?
    General Jumper. The reliability of the USAF's current cluster bombs 
is approximately 95 percent. The USAF is further improving the 
reliability of its current cluster bombs with the use of WCMD kits and 
the procurement of a new cluster bomb, Sensor Fuzed Weapon (SFW), which 
has a reliability of 99 percent.
    One of the biggest issues in the past with cluster munitions was 
that we did not have guided delivery systems to ensure precision. The 
baseline, and now the extended-range WCMD allows the USAF to deliver 
the submunitions to precise locations (inertial navigation system and 
Global Positioning Satellite (GPS) guidance), which make it easier for 
the troops to avoid unexploded ordinances as they advance. After the 
conflict ends, clean up is much safer and efficient. In addition, there 
are sensors in SFW that look for targets vice the BLU-97 Combined 
Effects Munition's generalized explosion on impact. The weapon also has 
three built in self-destruct modes if no target is found. This 
combination of features has improved the reliability of the USAF's 
cluster bombs to 99 percent.

    30. Senator McCain. General Jumper, can you explain why the BLU-97 
submunition unexploded ordnance hazard issue does not make the existing 
submunitions inventory obsolete?
    General Jumper. The reliability of the USAF current cluster bombs 
is approximately 95 percent. The USAF is further improving the 
reliability of its current cluster bombs with the use of WCMD kits, 
WCMD-ER kits, and the procurement of a new cluster bomb, SFW, which has 
a reliability of 99 percent through three redundant self-destruct/
deactivation features. Just like SFW, any cluster weapon submunitions 
the USAF may procure in the future would comply with all established 
policies and directives.
    The baseline, and now the WCMD-ER allows the USAF to deliver the 
submunitions to precise locations (inertial navigation system and GPS 
guidance), which make it easier for the troops to avoid unexploded 
ordinances as they advance. After the conflict ends, clean up is much 
safer and efficient.

    31. Senator McCain. General Jumper, have you conducted a business 
case analysis which shows a clear cost-benefit advantage to the DOD 
(not the USAF) to pursue WCMD-ER over JSOW-A, which includes 
development and integration costs?
    General Jumper. The Air Force decision to cancel the JSOW-A was not 
based on a comparison between WCMD-ER and JSOW-A. Rather, the USAF 
performed a Capability Requirements and Risk Assessment (CRRA) of our 
delivery platforms and munitions. This in-depth analysis determined 
JSOW-A provides a redundant capability relative to a number of other 
weapons and delivery platforms. The planned USAF inventory offers 
several capable and less expensive standoff alternatives to JSOW, such 
as Small Diameter Bomb (SDB) and WCMD-ER, as well as Joint Direct 
Attack Munition (JDAM), WCMD, and Joint Air-to-Surface Standoff Missile 
(JASSM) that could be dropped from stealth aircraft. All these weapons 
are existing programs established and funded by Congress.
    Collectively, these programs mitigate the near term risk with JSOW 
cancellation. No single weapon addresses the entire target set--some 
are adequate for parts of the target set and are significantly less 
expensive. One business case consideration is we already have over 
100,000 rounds for tactical munitions dispensers which can be converted 
to WCMD for $20,000 each, or WCMD-ER for $68,000 each versus JSOW which 
is well over $200,000 each.
    Thus, the final USAF decision was to maintain our total buy of 
JSOW-As at 475 missiles and redirect $398 million of savings toward 
other priorities. OSD and JCS/J-8 validated the decision, but directed 
the Air Force transfer $100 million to the Navy to offset program costs 
incurred by Air Force withdrawal and ensure continuance of ongoing 
production (i.e., maintenance of minimum sustaining rate).

    32. Senator McCain. General Jumper, we understand that in recent 
conflicts, enemy air defenses have not been very capable. However, in 
future conflicts that is likely to change. How much does WCMD-ER 
decrease the survivability of the aircraft compared to JSOW-A given the 
high radar cross section of WCMD-ER?
    General Jumper. The USAF based its decision to end JSOW-A 
procurement on capability requirements and analyses of a wide range of 
platforms and weapons that can provide the required capabilities. We 
balanced capabilities, cost, and risk during the fiscal year 2005 POM. 
The USAF analyzed numerous platforms and weapon options to ensure the 
required capabilities (direct attack, standoff outside point, area and 
theater defenses) are being provided and procured, and WCMD-ER is just 
one of the many technical solutions being applied by the USAF to 
provide the required capabilities.
    Like question #33, this question was addressed in the USAF's 
analyses during the fiscal year 2005 POM and prior performance 
comparisons for area attack weapons. The WCMD and WCMD-ER provide more 
submunitions per delivery truck than JSOW, or, in other words, more 
probability of damaging the target per weapon. The USAF also looked at 
the target sets and concluded that a mobile target set (troops or 
vehicles on the move) are protected by mobile anti-aircraft artillery 
or surface-to-air missile systems, and both JSOW and WCMD-ER have 
similar survival capabilities in this scenario. Due to the increased 
firepower with WCMD-ER, as well as similar survival capabilities as 
JSOW against mobile threats, USAF analyses showed the requirement for 
fewer aircraft sorties to complete wartime campaigns. This translates 
to lower platform attrition and increased aircrew survivability.

    33. Senator McCain. General Jumper, how does WCMD-ER's range, 
approximately half of JSOW's range, adversely effect survivability and 
mission effectiveness?
    General Jumper. The USAF based its decision to end JSOW-A 
procurement on capability requirements and analyses of a wide range of 
platforms and weapons that can provide the required capabilities. They 
balanced capabilities, cost, and risk during the fiscal year 2005 POM. 
The USAF analyzed numerous platforms and weapon options to ensure the 
required capabilities (direct attack, standoff outside point, area and 
theater defenses) are being provided and procured, and WCMD-ER is just 
one of the many technical solutions being applied by the USAF to 
provide the required capabilities.
    This question was addressed in the USAF's analyses during the 
fiscal year 2005 POM and prior performance comparisons for area attack 
weapons. The WCMD and WCMD-ER provide more submunitions per delivery 
truck than JSOW, or, in other words, more probability of damaging the 
target per weapon. The USAF also looked at the target sets and 
concluded that a mobile target set (troops or vehicles on the move) are 
protected by mobile anti-aircraft artillery or surface-to-air missile 
systems, and both JSOW and WCMD-ER have similar survival capabilities 
in this scenario. Due to the increased firepower with WCMD-ER, as well 
as similar survival capabilities as JSOW against mobile threats, USAF 
analyses showed the requirement for fewer aircraft sorties to complete 
wartime campaigns. This translates to lower platform attrition and 
increased aircrew survivability.

    34. Senator McCain. General Jumper, with the large Air Force 
investment in stealth technology on aircraft and other weapons such as 
JASSM, why would the Air Force choose to develop a non-stealth weapon 
that cannot be carried inside the bay of the Joint Strike Fighter 
(JSF)?
    General Jumper. The utility of stealthy platforms is the ability to 
avoid or minimize the aircraft's exposure to enemy threats. The USAF's 
``kick down the door'' concept of operations (CONOP) relies on stealth 
technology to penetrate enemy defenses and roll them back. This will 
allow less stealthy platforms to conduct follow-on operations with 
reduced risk. WCMD, which will be carried internally on the JSF, 
contains the same number of submunitions as WCMD-ER, so the stealthy 
platform with WCMD carried internally meets the initial roll back 
concept, and WCMD-ER, carried externally on JSF and non-stealthy 
platforms, continues the attacks with standoff capability.

                           depot maintenance
    35. Senator McCain. General Schoomaker, the Army budget submission 
funds depot maintenance at 72 percent of the requirement (1 percent 
more than last year) and BOS services to 70 percent of requirement (4 
percent more than last year). Will your continued underfunding of this 
requirement not drive us toward a hollow force?
    General Schoomaker. The Army's depot maintenance program is funded 
in accordance with Army priorities and is balanced against other high 
priority Army programs. In fiscal year 2004, the Army received $1.2 
billion emergency supplemental funding for depot-level reset in 
addition to the peacetime budget for depot maintenance. The reset 
workload is specifically being driven by planned unit rotations into 
the Iraqi theater of operations. A key portion of the Army's depot 
maintenance funding is the $491 million for recapitalization 
requirements, which bring equipment back to a near-new condition.

                                 dd(x)
    36. Senator McCain. Admiral Clark, how is the Navy progressing in 
selecting a hull design for the DD(X) and what are some of the dilemmas 
that you are facing?
    Admiral Clark. The Wave Piercing Tumblehome Hull (WPTH) has been 
tentatively selected as the baseline for the Ship Preliminary Design 
Review (PDR). Scale model testing to validate predictions that the WPTH 
will meet stability and stealth criteria is due for completion later 
this month.
    As risk mitigation, we have designed and are still testing a Semi-
Wave Piercing Tumblehome Hull (SWPTH) as an alternative, credible back-
up to the revolutionary WPTH.

    37. Senator McCain. Admiral Clark, crew size will be dramatically 
reduced on the DD(X). Do you see any potential threats in reducing the 
crew size to around 100?
    Admiral Clark. No truly revolutionary program is entirely without 
risk. That said, the potential benefits of this program--from 
improvements in precise, time-critical strike and joint fires to leap-
ahead technologies like the integrated power system and electric 
drive--are integral to our success in the future, joint battlespace. 
This ship will command more than 110 times the area of today's naval 
fire support systems, with the growth potential to accommodate new 
capabilities such as the electromagnetic rail gun at lower future 
development cost. Our crew size objective for DD(X) is 125 personnel 
and we have established a threshold of 175. DD(X) will not only deliver 
substantially more combat power ashore than today's combatants which 
require twice that crew size, it will lower total ownership costs and 
will provide a baseline for spiral development of technology and 
engineering to support a range of future seaframes including the 
Littoral Combat Ship (LCS) and CG(X). Further, we are conducting 
extensive analysis of all ship functions, including damage control, to 
mitigate the risk associated with a small crew size by automating many 
of the systems operated manually in today's fleet.

    38. Senator McCain. Admiral Clark, an argument could be made that 
designing a new destroyer is not the most cost-effective way to bring 
the Navy's fleet of ships into the 21st century. Why do you believe 
that the DD(X) fulfills the needs of the Navy better than continuing to 
build the DDG-51, which only costs $750 million?
    Admiral Clark. The DDG-51 is an outstanding multi-mission platform 
that has served this Nation well and will continue to do so far into 
this century. It is the Air and Missile Defense backbone of our Carrier 
and Expeditionary Strike Groups (ESGs), and it provides substantial 
strike capacity with its Vertical Launching System. But the reality is 
that the DDG-51 was originally designed for 20th century missions in 
blue water, leaving us with a capability gap in the littoral and in 
projecting precise, persistent combat power well inland in response to 
the 21st century needs of this Nation. DD(X) helps fill the gap where 
the DDG-51 cannot. DD(X) will command more than 110 times the area of 
today's naval fire support systems, with the growth potential to 
accommodate new capabilities such as the electromagnetic rail gun and 
directed energy weapons at lower future development cost. While the 
DDG-51 may have a lower initial production cost than DD(X), we estimate 
that we will achieve significant reductions of 25-50 percent in 
operations and support costs over the life of the DD(X) as compared to 
the DDG-51. The DD(X) is the right ship for our future.

                             transformation
    39. Senator McCain. General Schoomaker, Admiral Clark, General 
Jumper, and General Hagee, I notice in the new budget there are large 
increases in funding for already existing programs. How does this 
year's budget proposal figure into your long-term transformation plans?
    General Schoomaker. The Army views its transformation as a 
continuous process encompassing the entire force. It combines advanced 
technologies, organizations, highly adaptive leaders and soldiers, and 
improved processes with new concepts to create sources of dominant 
military power that are responsive, deployable, agile, versatile, 
lethal, survivable, and sustainable.
    The Army continues to make difficult choices to cancel and 
restructure programs to invest in transformational capabilities. In the 
fiscal year 2005 budget we are terminating 14 systems and restructuring 
15 systems to realign $423 million. Some of these investments are 
already providing results in the form of new capabilities today, such 
as in the new Stryker BCT formations being fielded and operating in 
Iraq.
    Other major fiscal year 2005 future force related R&D and 
acquisition efforts include Stryker, which is funded in fiscal year 
2005 to buy 310 vehicles for Stryker BCT 5, (2nd Brigade, 25th Infantry 
Division, Hawaii) to begin fielding in fiscal year 2006; and $1.2 
billion for aviation modernization. The budget request also funds 
procurement of high-mobility multipurpose wheeled vehicles (HMMWVs). 
$156.3 of the $303.7 million for HMMWVs will used to procure 818 Up-
Armored HMMWVs (UAHs). This increased funding for UAHs is due to 
lessons learned from recent operations.
    This budget request puts us one step closer to realizing a more 
responsive modularized force. The modularized brigades are 
strategically responsive, joint interdependent, precision force, 
dominant across the full range of military operations that we envision 
as necessary in the future global security environment.
    Admiral Clark. The Navy budget request for fiscal year 2005 
reflects a shift in focus to transformational surface combatants and 
sea basing capabilities. Offensive capabilities include DD(X), CVN 21, 
and nuclear-powered cruise missile attack submarine (SSGN) which will 
incorporate innovative technologies and concepts to project joint fires 
and Special Operations Forces faster and to significantly greater 
distances than today. LCS will utilize novel warfighting modules to 
transform maritime dominance in the littorals against increasing 
numbers of mines, submarines, and small combatants. The Multi-mission 
Maritime Aircraft (MMA) will revolutionize broad-area anti-submarine 
and surveillance coverage.
    To link these platforms into a networked force, we've requested 
funding for FORCEnet enablers such as Deployable Joint Command and 
Control and Joint Tactical Radio Systems. Unmanned Airborne and 
Underwater Vehicles (UAV/UUV) such as the Long-term Mine Reconnaissance 
System (LMRS) and Broad Area Maritime Surveillance (BAMS) UAV will 
provide persistent and pervasive reconnaissance and surveillance 
capabilities to the joint force. These existing programs exemplify the 
intention of the Navy's 2005 budget request to accelerate investments 
for a transformed, joint, netted, and sea-based force.
    General Jumper. Transformation is a process of constant change and 
adaptation, integrating revolutionary technologies with revolutionary 
organizations and operational concepts. The Air Force fiscal year 2005 
budget proposal is carefully balanced to support this transformative 
process, both today and over the long-term. It recognizes that key 
capability areas are in different stages of maturity. Some are in very 
early S&T stages that will not be deployed for decades to come. Some 
are in advanced stages of production and deployment as we speak, and 
others are somewhere in between.
    Almost half ($16.7 billion) of the USAF's $36 billion fiscal year 
2005 modernization request is for new ``enabling'' technologies 
supporting transformation in all the Services. It includes more than $2 
billion for space systems such as GPS II and GPS III and the 
Transformational Communications Satellite; almost $2 billion in 
research, development, test, and evaluation (RDT&E) for directed 
energy, hypersonics, and Joint Battlespace Infosphere; and more than 
$57 million for Airborne Electronic Attack. Likewise, half of the 
inflation-adjusted Air Force increase from fiscal year 2004 to fiscal 
year 2005 targets programs forming the leading edge of joint 
transformation today, like Link 16, the Global Hawk UAV, F/A-22, and 
precision munitions like JDAM.
    These current and future capabilities (which also include the 
Advanced Extremely High Frequency (AEHF) communications satellite, 
Automated Intelligence, Surveillance, and Reconnaissance (ISR), Combat 
Information Transport System, Distributed Common Ground System, Joint 
Tactical Radio System, E-10, and Space-Based Radar (SBR)) produce 
``transformation'' when they combine in the seamless machine-to-machine 
integration of all systems. They are dramatically reshaping warfare by 
enabling joint forces to produce the effects of mass without having to 
mass forces. They achieve an order of magnitude increase in the number 
of targets affected per sortie and dramatically reduce the time it 
takes to put the cross hairs over a target from hours to minutes--and 
do it much more precisely. They greatly reduce the forward logistics 
footprint, protect our information systems, protect our Nation and 
forces from ballistic and cruise missile attacks, and rapidly deploy 
forces anywhere in the world.
    The USAF Transformation Flight Plan details all these efforts.
    General Hagee. The fiscal year 2005 President's budget sustains the 
Marine Corps focus of main effort; current readiness and warfighting 
excellence, while also funding key transformational concepts like 
Seabasing and Expeditionary Maneuver Warfare. Working with our Navy 
partners, these concepts will provide America assured access around the 
globe and revolutionize the way we deploy and employ forces both in 
peacetime and in conflict. The current budget supports the continued 
development and fielding of key systems like the MV-22 Osprey, the 
Expeditionary Fighting Vehicle (EFV), and the short takeoff vertical 
landing (STOVL) JSF. When these and other critical enabling systems 
enter service with the Corps, they will significantly enhance the 
already potent capabilities represented by today's naval expeditionary 
forces.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                               readiness
    40. Senator Sessions. General Schoomaker, this committee applauds 
the performance of the Army's deployed men and women in OIF, OEF, and 
the global war on terrorism. A lingering concern I have is not the 
readiness of the soldiers in uniform, but rather the readiness of their 
equipment and the substantial reset effort faced by the Army. In the 
past the Army harvested significant dollars from current force programs 
to pay for the future force. Army systems are now accumulating a year's 
worth of wear and tear in a month, a decade in a year, in what is 
acknowledged to be some of the harshest environment on Earth. Most of 
the deployed track and wheeled vehicle equipment is now in need of 
overhaul, rebuild, and upgrade. I am told in the Army budget brief that 
the Army has approximately $1.8 billion planned for the restoration of 
10/20 standards. But I am deeply concerned that 10/20 standards are not 
acceptable repair levels for our key combat systems, many of which will 
need complete rebuilding of suspensions systems, engines, and the black 
boxes that run them following their arduous duty in Iraq. These systems 
are well beyond the 10/20 standard of repair, which I am told is being 
applied to most equipment returning from Iraq. What is your plan to 
have the industrial base and their public-private partnerships bring 
this equipment back to the depot condition our soldiers deserve?
    General Schoomaker. The Army covers depot maintenance requirements 
by funding major end items, (tanks, helicopters, wheeled vehicles and 
communications equipment) and secondary components (engines, 
transmissions, and suspension systems). Both programs deliver a product 
in accordance with national maintenance program standards that ensure 
all deterioration and damage are restored and repaired to a serviceable 
condition. In fiscal year 2004, the Army received $1.2 billion 
emergency supplemental reset funding for depot level overhauls and 
rebuilds in addition to our peacetime budget for depot maintenance. The 
U.S. Army Forces Command also received $251.6 million in reset funding 
specifically targeted for 10/20 level work. The Army is using reset 
funding to have its industrial base and industry partners restore key 
combat systems to the 10/20 standard condition our equipment was in 
when it deployed with our soldiers. To date, the Army has expanded its 
industrial base by establishing over 40 partnerships between the Army's 
depots and private industry.

                                comanche
    41. Senator Sessions. General Schoomaker, I know that Comanche has 
had a troubled past within the Army, in part due to increased 
requirements and in part due to it serving as a ``bill-payer'' for 
other programs. It seems the Army finally got it right with this last 
restructure, that the program is doing well and meeting all performance 
criteria. So well in fact, that the Army fully funded it once again in 
the latest budget. Tell me what the Office of Management and Budget 
(OMB) review means?
    General Schoomaker. Senator, the study was directed by OMB as part 
of their response to the fiscal year 2005 budget submission. They 
directed OSD to conduct the study, but did not divulge their reasoning 
for the study to the Army, nor did they direct any tasks to the Army.

    42. Senator Sessions. General Schoomaker, will the Comanche remain 
the critical part of the future force we expect it to be?
    General Schoomaker. Armed reconnaissance is a critical component 
that will allow the Future Force to see first, understand first, act 
first and finish decisively. The Comanche is the platform the Army 
currently envisions for this role.

    43. Senator Sessions. General Schoomaker, can you comment on 
whether the Comanche is in fact meeting its key performance parameters 
and milestones as outlined in the restructured program?
    General Schoomaker. The Comanche is performing well in its current 
phase of development. It is expected to meet key performance 
parameters.

                                 jstars
    44. Senator Sessions. General Jumper, we understand Joint 
Surveillance Target Attack Radar System (JSTARS) aircraft are crucial 
to U.S. forces and played a pivotal role in sandstorm battles during 
OIF. JSTARS's contribution was so important that aircrew members 
incurred additional risk continuing missions over hostile territory 
with engines shut down. The E-8C aircraft have known mission-degrading 
problems with aging engines. While the entire aircraft was reworked 
previously, the engines were not. Congress suggested that the Air Force 
study the best fix for the problem. Are you close to a cost-effective 
decision to remedy the situation?
    General Jumper. The Air Force intends to address our preferred 
JSTARS engine approach in the fiscal year 2006 POM. Meanwhile, we have 
prepared and are staffing the DOD's response to Congress' request for a 
study of three JSTARS re-engining options. The three potential options 
are: (1) maintain the current engine, (2) lease a replacement engine, 
or (3) purchase a replacement engine. Information to include associated 
costs are included in the response to Congress.

    45. Senator Sessions. General Jumper, what are the associated costs 
and when will you begin to execute a creditable program to remedy the 
situation?
    General Jumper. The Air Force intends to address our preferred 
JSTARS engine approach in the fiscal year 2006 POM. Meanwhile, we have 
prepared and are staffing the DOD's response to Congress' request for a 
study of three JSTARS re-engining options. The three potential options 
are: (1) maintain the current engine, (2) lease a replacement engine, 
or (3) purchase a replacement engine. Information to include associated 
costs are included in the response to Congress.

                          shipbuilding program
    46. Senator Sessions. Admiral Clark, our Navy has performed 
superbly, carrying the fight to the enemy, surging quickly, and 
bringing impressive sea power to the global war on terrorism. I am 
happy to see that shipbuilding and aircraft programs continue to 
provide for recapitalization of your equipment that is badly needed. I 
am concerned however that your ship inventory will drop to 290 ships. 
Is the shipbuilding program keeping pace sufficiently to deliver the 
force structure needed?
    Admiral Clark. We are on the right track with this year's 
shipbuilding program to deliver the kind of force structure that we 
need for the 21st century. That said, we cannot undo history. We simply 
did not buy enough ships in the 1990s. Over that decade, our 
shipbuilding budget averaged just over $6 billion per year, all while 
the Congressional Budget Office (CBO) was estimating that $12 billion 
in shipbuilding per year was necessary merely to sustain the force 
structure as it was. While I don't think that the 290 ships that we are 
projecting for fiscal year 2005 are enough to meet the long-term needs 
of this Nation, our budget request provides for a steady rise in that 
number beyond fiscal year 2005, and it will continue to rise as we 
build the new ships in the program.

    47. Senator Sessions. Admiral Clark, must we act to provide the 
advanced appropriations this year for the Amphibious Assault Ship 
Replacement (LHA(R))?
    Admiral Clark. The Navy/Marine Corps Team would benefit from an 
advanced appropriations approach to the procurement of LHA(R). Fiscal 
pressures experienced in this budget build, and the full-funding policy 
for ship procurement, caused us to move the planned procurement of 
LHA(R) from fiscal year 2007 to fiscal year 2008. In doing so, we have 
added some risk to the maintenance of a stable industrial base. Split-
funding would allow us to mitigate this workload risk and avoid the 
potential for the layoff and rehiring of the skilled workers that will 
be needed to build these ships in the future.

                          transformation plans
    48. Senator Sessions. General Schoomaker, I support Secretary 
Rumsfeld's efforts to transform the DOD and have been informed that the 
Army is aggressively operationalizing the concepts of a lighter force 
and evolution into the BCT units of action. However, I have two 
concerns:
    First, I am aware that as part of your reorganization you have 
developed plans to fundamentally change the mission tasking of over 
100,000 troops or 20 percent of the Army. In this process you intend to 
eliminate the following types of units or battalions: 24 artillery, 10 
air defense, 11 engineer, 19 armor, and 65 ordnance. In addition, you 
intend to convert these for high demand units such as 149 MP companies, 
16 transportation units, and several civil affairs units. I believe 
that as we move forward, we need to know the specific impacts this 
massive change will have on Army procurement requirements for major end 
items. I am especially concerned about armor, wheeled vehicles, and 
aviation requirements for the Future Years Defense Program (FYDP) as 
projected. In addition, a sense of the impact to operating costs, 
spares, and training dollars as the old units are eliminated and new 
units are created is necessary.
    Second, I have seen in the press that the manning for the BCT will 
be between 4,000 and 5,000 troops. At 48 brigades, this accounts for 
about only half of the Army's current authorized end strength or 
approximately 240,000 troops at most. What then are the specific 
transformation plans for the other half of the Army?
    General Schoomaker. The 100,000 troops restructured to address the 
rebalancing of force structure within the active component/Reserve 
component affects about 12 percent of the Army's combat structure. This 
initiative has been captured in three major phases: global war on 
terrorism requirements; Secretary of Defense guidance on utilization 
and employment of Reserve component forces; and recent Army efforts to 
minimize impacts on high demand units, establishing trainees, 
transients, holdees, and students (TTHS) accounts in both the Army 
National Guard and the Army Reserve; and decreasing Reserve component 
over structure to help shape more ready and relevant Reserve component 
forces. These types of force structure changes are typical of the force 
sizing analysis and programming the Army goes through for each FYDP 
submission. The equipping impacts for the force structure changes 
generated in phase two required reprogramming $181.2 million of 
equipment procurement in the POM 2005-2009. The impacts on manning, 
equipping, and training generated by the changes in phase three will be 
captured in the upcoming POM. Armor, wheeled vehicles, and aviation 
requirements for the FYDP, as previously projected, will reflect these 
approved force structure changes. However, projected requirements from 
these changes should have minimal impacts on the procurement of major 
end items due to the projected cascading of equipment and the force 
designs of the BCT units of action. Additionally, equipment for units 
designated for inactivation or conversion will cascade to fill 
shortages as the Army reorganizes to meet global war on terrorism 
operational demands and evolves structure to the new BCT units of 
action. Major aviation end items are not eliminated, but rather 
restructured under a new design. Overall, this initiative will 
rebalance the forces and improve their readiness to meet operational 
demands.
    Army transformation is a comprehensive effort intended to reinvent 
the Army at strategic, operational, and tactical levels. The 48 BCTs 
(43 maneuver brigade units of action and 5 Stryker BCTs) will comprise 
the ``tip of the spear'' at the tactical level, but they require 
command and control and a broad range of support to deploy and 
successfully accomplish their assigned missions. By fiscal year 2009, 
the strength of the 48 BCTs is estimated at approximately 168,000 
soldiers. The remainder of the deployable operating force will total 
approximately 171,000 soldiers and will include Special Operations 
Forces (SOF), combat support, combat service support, and command and 
control elements.
    Combat support and combat service support elements will be 
organized under support units of action (SUAs) and doctrinally 
configured to operate with and in support of the maneuver brigade units 
of action. Variants of the SUA will include the Aviation SUA (full 
spectrum multifunctional aviation operations), Protect SUA (force 
protection and security to lines of communication and rear areas), 
Reconnaissance and Surveillance SUA, Strike SUA (lethal and non-lethal 
strikes), and Sustain SUA (logistical support).
    The nature of modern operations requires that Army command and 
control formations become more flexible than our current divisions and 
corps. Above the BCT level, two higher units of employment (UEx and 
UEy) will orchestrate tactical engagements into battles, major land 
operations, and when designated as a joint task force, campaigns. The 
design of both the UEx and UEy incorporates the capability for either 
to become a joint task force for smaller scale contingencies with 
little or no augmentation.
    The generating force constitutes the part of the Army, which is 
generally nondeployable, but performs title 10 functions and provides 
critical support to the operating force. Accomplishing such functions 
as recruiting, institutional training, acquisition, and power 
projection platform operations, the generating force will support the 
transformation, becoming more efficient, and declining in military 
strength to approximately 85,000 by fiscal year 2009.
    Finally, as a consequence of force stabilization initiatives, the 
Army anticipates reducing the number carried as TTHS from 63,000 to 
58,000.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                            ship procurement
    49. Senator Collins. Admiral Clark, I very much appreciate the 
commitment you have shown in your budget to fully fund the construction 
of three DDG-51 Arleigh Burke-class destroyers. We are entering a very 
crucial period as the DD(X) destroyer program begins to ramp up. I 
appreciate that the DOD's fiscal year 2005 budget submission begins the 
funding for the construction of the first DD(X) destroyer. I am, 
however, concerned about the DOD future shipbuilding plan, specifically 
the transition between the DDG and DD(X) programs. The Navy is 
apparently slipping the construction of the second DD(X) destroyer 1 
year, from fiscal year 2006 to fiscal year 2007. If this occurs, it 
will be the first year in over 20 years that our Navy will not be 
procuring a major surface combatant. This threatens to exacerbate an 
already significant problem with regard to overall fleet size, as well 
as significantly disrupt our Nation's industrial base. I would like you 
to comment on the impact a year without destroyer procurement would 
have on the continuing reduction in the size of the fleet and the 
viability of our industrial base.
    Admiral Clark. I am on record before Congress as saying that I do 
not believe we have enough ships in the inventory for the needs of this 
Nation, and we are doing all that we can to make up for the acquisition 
holiday in shipbuilding during the decade of the 1990s. This budget 
request puts us on the right track--in the form of $11.1 billion in the 
Shipbuilding and Conversion, Navy (SCN) account--to deliver the kind of 
force structure that we need for the 21st century. That said, fiscal 
year 2006 is going to be a tough year for us. We are going to have to 
make some hard decisions, and one of those decisions is about the 
procurement of a DD(X). If I thought we had the money to accelerate the 
procurement of DD(X) while balancing that against our other 
commitments, then we certainly would do that. At this point, it appears 
that we will not have that kind of flexibility. Let me assure you, 
however, that I am sensitive to the business needs of our partners in 
the shipbuilding industry as well as to the importance of maintaining 
the unique skills required to build the best surface combatants in the 
world. In order to mitigate the impact of the transition on the 
industrial base, we have developed a DD(X) acquisition strategy to 
provide the best value for the Navy with considerations for industrial 
base viability. This includes a portion of the lead ship detail design 
and construction effort being performed at General Dynamics Bath Iron 
Works, as well as Northrop Grumman Ship Systems.

    50. Senator Collins. Admiral Clark, as of January 30, 2004, our 
fleet consists of only 294 ships. You have suggested that a more 
appropriate fleet size would be approximately 375 ships to meet current 
and future threats. The current rate of Navy ship procurement falls far 
short of meeting this goal. I realize that the ships of the future will 
have greater capability than those ships built only a decade or two 
ago, but part of a fleet's capability is its numbers, particularly when 
the U.S. might face multiple challenges in different parts of the world 
and worldwide presence has long been a mission of the Navy. How do you 
envision the U.S. Navy's capability to meet current and growing 
worldwide threats with less than a 300-ship Navy?
    Admiral Clark. The shipbuilding program provides for investment in 
new construction to deliver the kind of force structure we need for the 
21st century. Fundamentally, that means a force structure measured in 
terms of aggregate capabilities as well as the number of hulls. 
However, as you have correctly pointed out, numbers do matter if we are 
to have sufficient capacity to deliver those capabilities to the far 
corners of the Earth. Our budget request provides for a steady rise in 
that number, reaching 308 in fiscal year 2009.
    The most pressing challenge we face is obtaining the new 
capabilities we need to shape the Navy of the future and address the 
threats you have addressed. We need the DD(X) and LCS capabilities in 
the fleet as soon as possible. LCS in particular provides the kind of 
platform that is designed to take on the enemies we face in the post-
September 11 environment. We are at risk without it. In the interim, we 
are maximizing our existing capability to meet the challenging threats. 
This past year led to the restructuring our training and maintenance 
processes under the Fleet Response Plan (FRP) and Sea Swap in order to 
derive the maximum amount of operational availability from each of our 
ships and air wings.

                             maritime norad
    51. Senator Collins. Admiral Clark, I've been following with 
interest your thoughts about a ``maritime'' North American Aerospace 
Defense Command (NORAD). Do you anticipate that idea will become 
policy?
    Admiral Clark. While I cannot say for sure that this will become 
policy, such an approach has three elements that I consider important 
in providing homeland security and force protection. First, is my view 
that the Nation needs to develop the global maritime awareness that can 
reduce our port vulnerability. We can best do this by partnering with 
the U.S. Coast Guard (USCG) and with our allies to ensure timely 
dissemination of intelligence and by assisting in littoral 
identification and tracking of contacts of interest and/or concern. 
Second, we need to better define and enhance naval roles in global 
merchant ship tracking in relation to Navy homeland security/homeland 
defense missions. The third element would be to identify, in 
conjunction with the USCG, the technologies required for global surface 
vessel tracking and identification and develop a concerted plan for 
their implementation.

    52. Senator Collins. Admiral Clark, you noted in one speech that on 
a small scale, San Diego has a maritime warning center staffed by the 
Navy, Coast Guard and harbor police. Is there a maritime surveillance 
infrastructure in place that covers the Nation and the world that would 
serve as a basis for a ``maritime NORAD''?
    Admiral Clark. We do not have an integrated national maritime 
surveillance infrastructure in place today. The San Diego warning 
center you are referring to is one of two prototype Joint Harbor 
Operations Center (JHOCs), with the second prototype in Hampton Roads, 
Virginia. Navy and Coast Guard have worked together closely on this, 
and have agreed to co-share costs for development of these two sites. 
Our goal is to enable Navy and Coast Guard to more closely support each 
other in our shared harbor security responsibilities.

                            ``one shipyard''
    53. Senator Collins. Admiral Clark, I would like you to bring us up 
to date on the ``One Shipyard'' concept and how that will improve the 
capability, efficiency, and the viability of our naval shipyards, such 
as Portsmouth Naval Shipyard in Kittery, Maine, which has been 
designated as a center of excellence for the overhaul and refueling of 
our nuclear submarines.
    Admiral Clark. ``One Shipyard'' is our conceptual approach to 
improved use of the ship.maintenance and construction industrial base 
through resource and infrastructure sharing.
    Our objective is to capitalize on shipyard availability and 
employee skill sets in a way that provides more effective and efficient 
use of the limited maintenance resources needed to support our 
readiness; to provide better workload predictions and stability to our 
public and private shipyards; and, to leverage unique employee skill 
sets across the span of the industry in a way that lets us minimize 
some of the personnel strain of homeport shifts for our sailors between 
deployments.
    This should result in improved health and stability for both our 
private and public shipyards, the right readiness for our Navy and 
better employee opportunity.

                           ballistic inserts
    54. Senator Collins. General Schoomaker, given that the U.S. has 
been in Iraq for nearly a year and that we had some indication that we 
would possibly go into Iraq for several months prior to that, how is it 
that the number of ballistic inserts for the troops' body armor failed 
to keep up with the number of troops in-theater?
    General Schoomaker. Prior to the war, the Army was procuring and 
fielding Interceptor Body Armor (IBA) to all units preparing to 
participate in OIF. During the first part of the war, the major combat 
operations phase, our soldiers were adequately equipped with IBA. Our 
requirement for IBA was considerably less at the onset of the war 
because tank crews and other armored vehicle crews did not require IBA 
as their vehicles protected them. Since major combat operations have 
ended, our requirements for IBA have substantially grown due to a 
different operational environment and guidance from the commanders 
directing OIF. Today, most of our soldiers are dismounted from their 
armored vehicles as they conduct dismounted patrols throughout the 
Iraqi countryside in an effort to have closer contact with the Iraqi 
people.

    55. Senator Collins. General Schoomaker, why didn't we have enough 
ballistic inserts for the troops' body armor?
    General Schoomaker. Prior to the war, the Army had set different 
procurement objectives for the Outer Tactical Vest (OTV) and the Small 
Arms Protective Inserts (SAPI), the two major components of IBA. Since 
then, the Army's updated procurement objectives for both OTVs and SAPI 
are now the same. Therefore, our SAPI procurement was accelerated to 
our current rate of 25,000 sets per month in order to meet our current 
IBA requirements. Given the absolute critical nature of this life-
saving equipment, we must allow the manufacturers' requisite time to 
meet quality production standards. The strictest quality control 
measures are in place to ensure no soldier or civilian is needlessly 
placed at risk in a substandard piece of body armor.

    56. Senator Collins. General Schoomaker, how can we change the 
procurement system to ensure that our troops have the necessary gear 
when they are sent into combat, not a year after it started? I ask this 
question not only for the body armor, but other equipment needs which 
may emerge as well.
    General Schoomaker. We can do two things. First, we can plan for 
potential requirements beyond those in approved program levels and 
second, we can add options into critical contracts to allow for 
accelerated production. This will encourage more proactive thinking 
about contingency requirements and potential obstacles to rapid 
production and may reduce risk. However, this will not eliminate all 
risk. The noncontiguous urban threat of OIF necessitated that every 
soldier and DOD civilian in theater receive body armor. This was a 
divergence from the original guidance to issue only combat soldiers 
body armor. Once we recognized an increased risk, the requirement 
changed and the procurement system then used all possible means to 
respond. We will work to improve our procurement system, but we cannot 
eliminate all risk from changing threats.

                            reports of abuse
    57. Senator Collins. General Schoomaker, The Denver Post has 
recently reported that female soldiers are returning from Iraq and 
seeking assistance from civilian rape-crisis centers. I know Secretary 
Rumsfeld has ordered an inquiry, but can you tell me what the Army is 
doing to investigate these reports and ensure that women who wear the 
uniform are protected from such abuse?
    General Schoomaker. Our U.S. Army Criminal Investigation Command is 
actively investigating or has completed investigations in 86 sexual 
assault crimes reported in the U.S. Central Command (CENTCOM) area of 
responsibility (AOR). When the evidence warrants, our Army takes a 
tough and aggressive stance on prosecuting sexual assault cases. Our 
Army is committed to providing strong support to victims of all crimes 
whether in a deployed environment or in garrison. As with all criminal 
allegations, there is a presumption of innocence until a case is fully 
investigated and, if appropriate, tried in a court of law. As you are 
well aware, the system that you have given us--through the Uniform Code 
of Military Justice (UCMJ)--provides commanders with the necessary 
process to ensure good order and discipline in our force. By protecting 
the rights of the accused and victims alike, the UCMJ provides the 
tools necessary to ensure the integrity of our investigatory and 
military justice system.
    The Army is committed to ensuring that the victims of sexual 
assault are properly cared for and treated and that their medical and 
psychological needs are properly met. Currently, we are assessing our 
Army's policies and programs to determine whether they properly provide 
appropriate support services to victims both in garrison and in a 
deployed environment. To ensure that our current policies and programs 
are effective, the acting Secretary of the Army has directed the 
establishment of a task force to conduct a detailed review of the 
effectiveness of our Army's policies on reporting and properly 
addressing allegations of sexual assault. This review will examine our 
policies, programs, procedures, and training with regard to the 
prevention of sexual assault. The task force will further review the 
processes in place to ensure a climate exists where victims feel free 
to report allegations and leaders at every level understand their 
responsibilities to support those victims. This task force will render 
its report by the end of May 2004. However, if the task force 
identifies actions, which can be taken sooner to improve the Army's 
policies, programs, or procedures, our Army will implement them as 
appropriate.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                      vision for the navy reserve
    58. Senator Chambliss. Admiral Clark, the Navy deserves great 
credit for thinking innovatively about how to manage the increased 
demands placed on the fleet and your sailors, and in developing the FRP 
to allow for greater availability, deployability, and surge capacity of 
our carriers and air wings. The other Services have similar challenges 
as the Navy and are also taking steps and thinking creatively about how 
to meet increased demands without increasing people or resources. The 
Reserve components play a major role in all of our Services and have 
made enormous contributions over the past several years. Although I 
believe the Reserves should be managed in a unique way from a personnel 
standpoint, I am in favor of giving the Reserve components the same 
robust responsibilities and demanding of them the same level of 
performance as the Active Force. With this comes resourcing the 
Reserves with adequate hardware and committing them to high-level 
training requirements. If we do not do this, we cannot expect 
reservists to want to stick around just to ``pinch-hit'' or perform 
tasks that no one else wants to do. With this in mind, can you share 
your vision for how you plan to take advantage of your Navy Reserve 
sailors in a way that truly capitalizes on their capabilities and 
desire to serve the Navy and the United States?
    Admiral Clark. My vision for the future is a seamlessly integrated 
and balanced Active and Reserve Force rather than the two-tiered system 
that has resulted in separate standards and procedures in place today. 
This is a two-way integration. We will balance the force by instilling 
one standard for training and readiness, ensuring Reserve Forces have 
access to front-line equipment, and streamlining headquarters functions 
in a way that will support the seamless integration of Reserve Forces 
when they are needed.

                    c-17 public-private partnership
    59. Senator Chambliss. General Jumper, I believe that public-
private partnerships provide great synergy between the government and 
industry and represent a great capability to provide extended depot 
maintenance for our military hardware. I am pleased with the progress 
the Air Force has made with the C-17 partnership in particular and am 
very pleased to hear that the Air Force will consider software as a 
``core'' requirement and resource our air logistics centers 
appropriately to accomplish this core workload. Can you outline how 
software maintenance and sustainment for the C-17 program will be 
accomplished and how the government and industry can partner together 
to ensure the Air Force's logistics and sustainment requirements in 
this area continue to be met?
    General Jumper. The C-17 System Program Office (SPO) has developed 
preliminary strategies and requirements necessary to establish 
Government organic software support capability for the C-17 aircraft. 
In the near term, the Air Force and Boeing Company will be partnering 
to develop C-17 component diagnostics software Test Program Sets (TPSs) 
at all three Air Logistic Centers. In the long-term, the Air Force and 
the Boeing Company will partner to establish C-17 aircraft operational 
flight program software maintenance capability.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
                           air national guard
    60. Senator Graham. General Jumper, since the 1950s, the Air 
National Guard has followed a policy of maintaining at least one flying 
mission in every State. This policy is no doubt due to the invaluable 
contributions that the Guard provides not only to the national defense 
but also in recognition of the positive role Guard members play in 
their communities offering most individuals their only exposure to the 
military. Do you intend to continue that longstanding policy?
    General Jumper. I appreciate your long-standing support for our 
Nation's men and women in uniform as well as your concern for the 
continued relevance of our citizen airmen of the Air National Guard. 
The support of Congress will be critical as we transform the DOD to 
meet the national security requirements of the 21st century.
    The DOD anticipates an overall reduction in the number of manned 
aircraft as we transform. This is due not only to constrained 
resources, but also the capabilities the Nation will require from the 
DOD in the future. Information age warfare requires a different 
portfolio of capabilities than industrial age warfare, and we are 
transforming the joint force to meet that challenge. Also, the aircraft 
the DOD is planning on procuring will be vastly more capable than our 
current legacy systems, which will result in a lower number of aircraft 
being procured. The DOD is also very interested in the potential of 
unmanned systems.
    The USAF is committed to ensuring the Air National Guard is a full 
and equal partner in the Air Force of the future. I strongly support 
their efforts to ensure the future relevancy of the Air National Guard 
in their transformation plans. Our shift to capabilities based planning 
and the resulting shift in focus away from legacy systems require a 
commensurate change of focus by the Air National Guard. Lieutenant 
General James has developed a strong transformation vision and I am 
confident that his approach will help to ensure a relevant Air National 
Guard.
    The Air Force and Air National Guard assure me their intent is to 
maintain a Guard flying unit in every State; however, first and 
foremost, they are committed to providing a relevant and more capable 
Air National Guard presence in every state, to provide required 
capabilities to the joint force. While it has always been a goal, there 
is no stated policy to keep a flying unit in each State. The DOD 
believes such a policy would not be in the best interests of the 
Nation. The Air Force and Air National Guard leadership require the 
flexibility to transform the Air National Guard to ensure it has the 
required capabilities needed for the future.

    61. Senator Graham. General Jumper, in addition, can you provide me 
with a list of the facilities on the east coast that offer 
opportunities for blackout, runway, and field operations?
    General Jumper. Senator Graham, we have two Air National Guard 
facilities on the east coast which have backup power generators in case 
of blackout that can be used for field operations. The two units are 
the 102nd FW, Otis AGB, Massachusetts and the 169th FW, McEntire AGS, 
South Carolina.

                           military retention
    62. Senator Graham. General Schoomaker, Admiral Clark, General 
Hagee, and General Jumper, in your opinion, what effect will the lack 
of targeted pay raises have on military retention in light of improving 
economy and the current strain on military forces?
    General Schoomaker. Attitude and opinion surveys of the active Army 
have consistently shown that the amount of basic pay is one of the top 
reasons why soldiers report that they are leaving or thinking about 
leaving the Army before retirement. In the fall 2003 Sample Survey of 
Military Personnel, 14.4 percent (second most important) of enlisted 
personnel and 6.7 percent (third most important) of officers cited 
amount of basic pay as one of the most important reasons for leaving or 
thinking about leaving the Army before retirement.
    Admiral Clark. Although our analysis may support further targeted 
pay raises in the coming years, it really is too soon to tell what, if 
any, effect the lack of targeted pay raises may have on retention this 
year. But, I can tell you that retention in the Navy has never been 
better, thanks in large part to the support of your committee for both 
targeted and uniform pay raises. Together, we have made great strides 
in closing the gap between military and private sector pay for those 
with comparable levels of education and experience.
    The Secretary of Defense is appointing an Advisory Committee on 
Military Compensation to examine, among other things, future targeted 
raises. I do believe that targeted pay raises and other incentive pays 
will be incredibly important in our future, not only for retention, but 
for our ability to shape and develop the kind of skills and behaviors 
we will need for our high-tech future as well.
    General Hagee. The targeted pay raises provided in fiscal year 2000 
through fiscal year 2004 accomplished their objectives to adjust basic 
pay for those grades where the pay differentials needed to be 
comparable to the private sector and ensure quality force retention. At 
this time, we should be able to concentrate on across the board pay 
raises for all pay grades. Judicious use of special pays and retention 
bonuses should be pursued in those exceptional cases where recruitment 
or retention are challenges.
    General Jumper. Targeted pay raises over the past several years 
have made tremendous strides in closing the gap between military and 
comparably educated civilians. The pay gap currently exists with our 
mid and senior enlisted grades. Over the past 2 years, our retention in 
these grades has improved and we anticipate retention remaining stable. 
Over the past 3 years we have heavily targeted these grades to close 
the gap, in an effort to meet the recommendations of the 9th 
Quadrennial Review of Military Compensation (QRMC). The 9th QRMC 
recommended that military pay reach the 70th percentile of what 
comparably educated civilians earned. The 2001 targeted pay raises 
closed the gap by 23 percent and subsequent targeting has made 
significant progress. The administration's fiscal year 2005 3.5 percent 
across-the-board pay raise, coupled with past targeting efforts, will 
close the gap by 70 percent.

    63. Senator Graham. General Schoomaker, Admiral Clark, General 
Hagee, and General Jumper, what effect do you believe the current stop-
losses will have for long-term recruiting and retention goals?
    General Schoomaker. We believe recruiting and retention goals for 
the Army's stop-loss programs will not affect the long-term. Stop loss 
does not normally affect the accessions achievement mission. However, 
prior service recruiting into the National Guard and Army Reserve has 
been affected because of regular Army stop loss.
    It is still too early to determine whether Army stop-loss programs 
have negatively impacted active Army retention program. We are slightly 
below glide path with regards to our annual retention mission, but 
remain guardedly optimistic we will achieve the mission by the end of 
the fiscal year. As the Army implements force stabilization 
initiatives, the need to use stop-loss programs will diminish over 
time.
    Admiral Clark. Because Navy's use of stop-loss was in effect for 
only 1 month and affected only 2,600 Navy Field Medical Service 
Technicians (Hospital Corpsman) out of our total Active and Reserve 
Force of more than 463,000 personnel, we do not believe it will have an 
impact on long-term recruiting nor on retention.
    General Jumper. Air Force stop-loss ended in June 2003 and by 
January 2004, all affected personnel either retired, separated, 
reenlisted, or decided to stay. Today, no Air Force personnel are 
affected by stop-loss. Stop-loss has had little or no negative impact 
on retention and recruiting as the Air Force is currently exceeding 
both retention and recruiting goals.
    General Hagee. The Marine Corps has not used stop-loss in fiscal 
year 2004.

    64. Senator Graham. General Schoomaker, Admiral Clark, General 
Hagee, and General Jumper, could you comment on the plan mentioned by 
Secretary Rumsfeld and General Pace to restructure the Reserve 
component to utilize the ``most pertinent skill-sets?'' How do you plan 
to accomplish this goal in light of the DOD's stated goal of managing/
reducing its reliance upon the Guard and Reserve?
    General Schoomaker. The Army actively seeks to rebalance its 
current active component/Reserve component mix to best match the 
current strategy and 1-4-2-1 force sizing construct. For fiscal years 
2004-2009, the Army made significant headway in reducing the stress 
placed on existing high demand units, both active component and Reserve 
component, by converting about 19,500 spaces in less utilized force 
structure. In response to the directives set forth in the Secretary of 
Defense's July 9, 2003, memorandum on Rebalancing Forces, the Army took 
actions through two program change packages, to rebalance approximately 
10,000 spaces of active component and Reserve component force structure 
required in the first 15 days of a rapid response operation. This 
mitigates stress on select Reserve component high-demand units. The 
Army intends to convert an additional 80,000 spaces of lower priority 
force structure to meet future operational requirements. In addition to 
these actions, I directed a thorough review of all Army force structure 
with the intent of improving the readiness and deployability of Army 
units and ensuring a correct balance between active component and 
Reserve component forces. The end state of these self-initiated actions 
will be a more relevant Army, properly balanced and postured as a full 
joint warfighting partner.
    Admiral Clark. These two goals are not mutually exclusive. In fact, 
I see them as complementary. We are reducing our overall reliance upon 
the Reserves by rebalancing the force in some key areas; specifically:

        <bullet> Anti-Terrorism/Force Protection (AT/FP): Active 
        component strength increases in our dedicated security forces 
        (officer, enlisted, and civilian), permit us to meet day-to-day 
        or elevated AT/FP requirements. Even in situations requiring 
        the highest levels of force protection readiness, we can 
        fulfill those requirements for a short period with active 
        component personnel before resorting to Reserve component 
        augmentation.
        <bullet> Naval Coastal Warfare (NCW): We have created 
        additional NCW capability in the active component by 
        establishing the Mobile Security Force (MSF), and 
        reapportioning end strength from accelerated ship 
        decommissionings. Having an active component NCW capability 
        relieves the Reserve component from meeting each and every 
        short-term and short-notice NCW requirement.
        <bullet> Naval Aviation: Planning is underway to merge certain 
        aviation missions that are resident in both the active 
        component and Reserve component by converting some independent 
        Reserve component squadrons into active component squadron 
        augment units. This will have the benefits of populating active 
        component squadrons with highly experienced Reserve component 
        pilots, improving equipment commonality, and reducing (but not 
        eliminating) the need for Reserve component maintenance 
        personnel and infrastructure.
        <bullet> Fleet Marine Force (FMF) (HM8404) Corpsmen: Several 
        hundred Reserve component HM8404 corpsmen billets in support of 
        Reserve Marine Corps units have been reclassified as Functional 
        Area Code (FAC) A, meaning that in the event of mobilization, 
        active duty HM8404 corpsmen will transfer from shore duty at 
        naval hospitals to fill these requirements. Their hospital 
        billets will be backfilled with Reserve component corpsmen as 
        necessary to sustain hospital operations. The HM8404 
        classification is historically difficult to recruit, train, and 
        retain in the Reserves. This change will ensure Reserve Marine 
        Corps units are properly manned when required, and will 
        effectively employ Reserve component corpsmen at naval 
        hospitals using skills that are easier to gain and maintain in 
        the Reserves.

    General Hagee. The Marine Corps is unique due to the fact that our 
Reserve component mirror images our active component and has the 
primary mission to augment and reinforce it. We traditionally integrate 
our active component/Reserve component units within our Marine Air-
Ground Task Forces using the Total Force approach. In regard to the 
active component/Reserve component mix, we are constantly reviewing our 
mix based on lessons learned. We are currently getting ready to kick-
off a general officer lead review within the Marine Corps to address 
this specific problem.
    General Jumper. The Air Force has always had a strong relationship 
with our Reserves. The Air National Guard and Air Force Reserve operate 
side-by-side with our Active Force, both in times of peace and times of 
conflict. We continue to enjoy a great spirit of volunteerism that 
complements the Active Force, and hinges on the professionalism, 
readiness, and front-line equipment of our Active Reserve Component 
(ARC). We seek to preserve the relevance of the ARC, while not 
overtaxing them with an operational tempo that is insensitive to the 
part-time nature of the Reserves. We are transforming as a Total Force 
Team--in the technologies we all use, the operational concepts we 
employ, and the structures under which we are organized. Given the 
increased capabilities of newer weapon systems and the fiscal 
realities, the Air Force is not necessarily planning to recapitalize 
our fleet on a one-for-one basis. Furthermore, the pending Base 
Realignment and Closure (BRAC) actions will focus on reducing excess 
capacity in our installations across our total force. These factors, 
combined with the increased crew ratios called for by the capabilities 
of our emerging weapon systems, call for innovative management of our 
most valuable asset, our people. The Air Force plans to capture the 
talent and experience of our reservists and guardsmen by integrating 
our active and Reserve units as both migrate into the newest weapons 
systems.
    As we move units into emerging mission areas, we are consciously 
placing guardsmen and reservists in missions least disruptive to their 
dual status as members of both the military and the civilian 
workforce--those areas that exploit reach-back to the United States 
while supporting operations abroad. An example of this would be the 
increased use of the Guard and Reserve in space, intelligence, and even 
UAVs. These efforts also capitalize on the high tech skills these 
members bring from their civilian experience. As we make these changes, 
we are mindful of the unique cultures of the Guard and Reserve. We seek 
to preserve those cultures and their associated strengths. We are 
aggressively working our force development programs to ensure they 
address the needs of our total force, at both the personal and 
organizational level. We take great pride in leading the DOD in the 
integration of our Reserve component, and will make the pertinent skill 
sets of the Air National Guard and Air Force Reserve central to our 
transformational efforts.

                                 earmyu
    65. Senator Graham. General Schoomaker, recently, retired Sergeant 
Major of the Army Jack Tilley said eArmyU was the best thing the Army 
has ever done for its enlisted soldiers. Currently, how many posts 
offer eArmyU, and do you believe the program should be extended Army-
wide?
    General Schoomaker. eArmyU is currently implemented at 14 
installations. However, soldiers have rotated and are participating 
from locations Army-wide, to include Iraq. The program is a good 
retention tool--21 percent of participants have reenlisted or extended 
to be eligible. By offering unprecedented access, choice, and 
flexibility in an online learning environment, we are attracting 
soldiers who have never taken college courses before at a rate of 27 
percent. Student satisfaction surveys indicate that soldier morale has 
improved. Expanding eArmyU will increase soldier access to education 
enabling them to fit their continuing education around their duties, 
family time, field training, and other obligations. Because we do not 
know what the total demand for this program is, it is difficult to 
determine the cost. We are currently assessing the cost for program 
expansion.

           reduction in training dollars for reserve soldiers
    66. Senator Graham. General Schoomaker, we are all cognizant of the 
very significant contributions of the Reserves to ongoing contingency 
operations in Afghanistan and Iraq as well as other locations in the 
global war on terrorism. Indeed, it is very clear to me that we could 
not effectively wage this war without our citizen soldiers, sailors, 
airmen, and marines.
    I am certain that you and your colleagues in the DOD have long 
since carefully calculated the offsets resulting from members of the 
Reserve component being placed on active duty and mobilized and paid 
with active duty appropriations. I further assume that the President's 
budget request reflects those offsets.
    What I am concerned about is the need to train those members of the 
force who have not yet been mobilized and those who have been mobilized 
and returned home to their units. Can you assure the members of this 
committee that there is sufficient funding in the Reserve component's 
budget for fiscal year 2005 to support the training requirements to 
maintain and restore their mobilization readiness?
    General Schoomaker. The fiscal year 2005 Reserves training budget 
ensures the funds necessary to conduct military occupational specialty 
(MOS) training (individual training), professional military education 
(PME) training (leader training), and the necessary OPTEMPO to support 
collective training for those units preparing for mobilization and 
deployment while in a Reserve status, as well as, enabling recently 
demobilized units to maintain their readiness edge. As the OIF/OEF 
missions stabilize and the Army moves to a train-alert-deploy strategy, 
ample time will be available for Reserve component soldiers and units 
to meet C1/C2 readiness standards prior to mobilization.

    67. Senator Graham. General Schoomaker, I know that the cost is 
significant and that the Reserves' training budget reflects a reduction 
of more than $600 million in fiscal year 2005. Can you give me some 
idea of how you may have reached the requested budget figure and how it 
is related to the level of funding needed to support the readiness 
training for those who remain in and return to their Reserve unit? I 
would hate to see the vital recruiting and retention efforts of our 
Reserve Forces undermined by funding reductions in their training 
accounts, reductions that sap readiness and morale and penalize the 
very men and women who have served so bravely and so well at such 
sacrifice to themselves, their families, and communities.
    General Schoomaker. The offsets for the fiscal year 2005 reduction 
of $600 million in Reserve component training budget reflects the 
projected mobilization and deployment of 150,000 Reserve soldiers to 
support the ongoing global war on terrorism missions. The $600 million 
represents a cost avoidance of the drill pay and annual training pay 
for those soldiers mobilized since their pay and allowances are paid 
from the active duty military pay account. As I mentioned above, the 
fiscal year 2005 Reserve training budget ensures the funds necessary to 
conduct MOS training (individual training), PME training (leader 
training), and the necessary OPTEMPO to support collective training for 
those units preparing for mobilization and deployment while in a 
Reserve status, as well as enabling recently demobilized units and 
soldiers to maintain their readiness edge.
                                 ______
                                 
             Questions Submitted by Senator Elizabeth Dole
                              end strength
    68. Senator Dole. General Schoomaker, while end strength is 
certainly an area of concern, I am more concerned about force mix 
particularly, the total force of active, Reserve, and Guard. How are 
you addressing the short-term issue of manning high demand career 
fields?
    General Schoomaker. The Army is committed to manning skills 
critical to the successful execution of the global war on terrorism. 
Thus, the Army has taken several steps to ensure these jobs remain 
filled. First, when possible, individual active Army soldiers are 
reassigned to deployed units to fill critical requirements. To minimize 
the need for replacements, the Army offers monetary bonuses to soldiers 
willing to reenlist in, or re-classify to, many high-demand career 
fields. Concurrently, recruiting efforts focus on enlisting soldiers 
into these skills. However, it takes time to recruit and train these 
new soldiers, and they do not have the experience or advanced training 
necessary for some jobs.
    The Army also relies upon Individual Mobilization Augmentee (IMA) 
and Individual Ready Reserve (IRR) soldiers, retiree recalls, various 
other voluntary mobilizations, and mobilized Reserve and National Guard 
units to augment the manning efforts. An IMA is an individual reservist 
who is pre-assigned to an active Army, DOD, or other government agency. 
The IRR is an Army manpower pool primarily consisting of individuals 
who have had training, have served previously in the active component 
or the SELRES, and may have some period of mandatory military service 
obligation remaining. The IRR consists of trained soldiers who may be 
called upon to replace soldiers or fill vacancies in Reserve or active 
units.

    69. Senator Dole. General Schoomaker, in your proposal to reassign 
some units (namely air defense and artillery units) to units such as MP 
and civil affairs, are we sacrificing a capability of a core mission in 
order to meet a short-term requirement?
    General Schoomaker. No, the defense strategy emerging from the 2001 
Quadrennial Defense Review (QDR) had significantly different 
requirements than the previous strategy. The Army recognized a need for 
change to support a new force-sizing construct and made plans to divest 
of cold war structure to meet the demands of the emerging strategic 
environment. We conducted extensive analyses to ensure we retain the 
required capabilities, including air defense and artillery, to conduct 
the full range of missions.

                           guard and reserve
    70. Senator Dole. General Schoomaker, with this month's deployment 
of North Carolina's 30th Heavy Enhanced Separate Brigade, I have been 
made painfully aware of some of the problems faced by our National 
Guard units as they mobilize. What are you doing to guarantee that 
these service members are expediently transitioned to active duty 
payrolls and that their lodging and subsistence are of the same quality 
as the active units training on the same bases?
    General Schoomaker. The Army National Guard is doing what it can to 
ensure that the transition to active duty is as smooth as possible. For 
example, we coordinate with the Power Projection Platforms to obtain 
the best lodging, subsistence, and training available. We also send 
support teams as necessary to solve problems. As regards to what the 
active component is doing in this area, we do not have information on 
that.

    71. Senator Dole. General Schoomaker, Admiral Clark, General Hagee, 
and General Jumper, with the proposed 20-25 percent reduction in 
domestic facilities with BRAC and movement away from large, forward 
operating bases (FOBs), how are you planning to accommodate Guard and 
Reserve training, basing, and quality-of life needs when worldwide 
operations require a manpower ``spike''?
    General Schoomaker. A 20-25 percent reduction in domestic 
facilities through BRAC is not an official Army policy. Although there 
may exist excess capacity in DOD facilities, that excess does not 
equate to a comparable reduction in facilities through BRAC. The BRAC 
committee is taking into consideration all scenarios in developing 
recommendations for closures. Reserve units are not moved/changed as 
liberally as active units when it comes to domestic facilities. They 
are built around communities that can support and maintain a unit 
structure within a particular population. Once the BRAC recommendations 
are approved, the Army station and installation plans will have to be 
updated to take care of the future requirements of possible spikes in 
manpower.
    Admiral Clark. Because the majority of our Reserve training is 
conducted at the supported fleet active command, at designated training 
sites, or through the use of distance learning, there should be little 
impact on training accomplishment. With respect to basing, if Naval 
Reserve Activities (NRAs) are closed or reduced in numbers, we will 
seek efficiencies though joint base ventures with the other military 
Services in order to optimize resources across DOD. This same kind of 
collaborative effort applies to quality of life needs as well, through 
the use of other Service Family Support Centers, military health care 
facilities, recreational facilities, etc.
    General Jumper. First, as you are aware, there are no specific Air 
Force goals or target lists for the upcoming 2005 congressional 
authorized BRAC. Not only does the BRAC process allows us to dispose of 
excess facilities, it frees up valuable funds to fully sustain our 
needed facilities and systems so they remain effective through their 
expected life. We owe to our professional airman who voluntarily serves 
the Air Force and their nation a steady investment program to restore 
and modernize our critical facilities and infrastructure systems, while 
continually advancing our ability to protect our people and resources 
from the growing threat of terrorism. Second, today's airmen realize 
deployments are a vital part of the Air Force's critical mission of 
projecting air and space power globally. Our goal is to provide these 
expeditionary airmen and their families with the training, tools, and 
quality of life they need to continue to successfully sustain the 
mission. As we continue to support ongoing operations and prepare for 
an uncertain future, we are examining and acting on lessons learned 
from our recent experiences.
    We are continuing to pursue seamless Air Reserve component and 
active duty integration at home, leveraging the capabilities and 
characteristics of each component, while allowing each to retain their 
cultural identity. We continue to explore a variety of organizational 
initiatives to integrate how our Active, Guard, and Reserve Forces are 
based and trained. These efforts are intended to expand mission 
flexibility, create efficiencies in our Total Force, and prepare for 
the future. Today's Future Total Force team included a number of 
blended or associate units that are programmed or in use.
    Finally, the combat readiness of our forces is a direct result of 
the strides made in terms of quality of life for our airman and our 
families. For instance, the Air Force Reserve participated in the 
Federal Long Term Care Insurance Program to better provide long term 
care insurance coverage for its members and their families. This 
program affords members of the Air Force Reserve and Air National Guard 
insurance coverage for a variety of home and assisted living care 
requirements. Additionally, the National Defense Authorization Act for 
Fiscal Year 2004 provided improvements to the TRICARE Program in 
support of Air National Guard and Air Force Reserve members. These will 
pay dividends in the quality of life for our Guard and Reserve members.
    General Hagee. The Secretary of Defense has established a process 
for the 2005 round of BRAC that will assess all U.S. installations, 
both active and Reserve, equally. He has also established and published 
the final selection criteria to be used in the analytical process for 
making realignment and closure recommendations. These criteria include 
among others the ability to accommodate contingency, mobilization, and 
Future Total Force requirements at both existing and potential 
receiving locations to support operations and training. I believe the 
BRAC process will assure that sufficient and appropriate infrastructure 
is retained, as needed.

    72. Senator Dole. General Schoomaker, while I understand the 
temporary nature of many of the facilities now housing our Guard and 
Reserve units training for deployment, the deplorable state of some of 
those facilities is not understandable. How does this budget remedy 
this situation?
    General Schoomaker. The Army has a sustained, ongoing program to 
demolish excess facilities, especially World War II temporary wooden 
barracks and facilities. Unfortunately, the global war on terrorism has 
forced us to use some of the remaining World War II temporary wooden 
buildings. Recognizing the unacceptable state of some of those 
facilities, we are vigorously working to upgrade them with operations 
and maintenance, Army (O&MA) funds from the supplemental appropriation 
that supports global war on terrorism. In addition, we are developing a 
long-term solution to rebuild key mobilization and power projection 
centers at selected installations with military construction funds.
    Using available O&MA funds, the Army has repaired and upgraded 
temporary buildings and support facilities at installations where 
Reserve soldiers deploy, as well as other locations. These 
installations include Fort Lewis, Washington; Fort Leonard Wood, 
Missouri; Fort Carson, Colorado; Fort Benning, Georgia; Fort Stewart, 
Georgia; Fort Drum, New York; Fort Dix, New Jersey; Fort Eustis, 
Virginia; Camp Atterbury, Indiana; and Aberdeen Proving Ground, 
Maryland. Typical improvements involve latrines, showers, heating and 
air conditioning systems, smoke alarms, plumbing and electrical 
systems, lighting, floor coverings, ceilings, windows, and roofs. We 
will continue in fiscal year 2005 to improve the facilities from which 
our soldiers deploy.

    73. Senator Dole. General Schoomaker, Admiral Clark, General Hagee, 
and General Jumper, while our latest military innovations have been 
significant in ``winning the war,'' we seem to have a way to go in 
``keeping the peace.'' How does your Service's transformation vision 
address the need to maintain post-war stability operations or 
peacekeeping capabilities?
    General Schoomaker. The Army's transformation plan will provide us 
with a range of modular, interchangeable formations that can operate 
across the spectrum of warfare. We are adjusting our force structure, 
particularly that of the Army National Guard, to reduce our Cold War-
era capabilities set with one more suited to current and future threats 
and missions. As an example, we are deactivating 22 National Guard 
field artillery battalions and using that opportunity to increase our 
force structure in such capabilities as MPs and civil affairs.
    Admiral Clark. The Navy transformation vision reflects a supporting 
role for stability operations and peacekeeping activities. The Navy 
will maintain maritime dominance gained during combat operations, such 
as by the mission-reconfigurable LCS and advances in undersea warfare. 
Where fire support is called for, warships like DD(X) and aircraft like 
the Naval JSF and FA-18E/F will support joint and coalition ground 
forces operating at significantly greater ranges inland. From the 
safety of the sea military and humanitarian/commercial material can 
rapidly enter the area. Lastly, distributed and networked naval forces 
will achieve an additional long term effect in support of the 
President's Proliferation Security Initiative, denying the use of the 
high seas to those trying to transport weapons of mass destruction 
(WMD) into or from the area.
    For sailors who regularly operate on or close to the shore in post-
combat situations, the Navy works closely with other Services to 
provide effective protection. Naval Special Warfare, Naval Coastal 
Warfare, and Explosive Ordnance Disposal units utilize state-of-the-art 
force protection equipment and technologies to protect personnel. This 
not only includes such items as weapons, chemical, biological, and 
radiological (CBR) equipment, body armor and up-armored vehicles, but 
detection systems that provide forewarning and afford preemptive 
actions against various threats. Ships used to monitor sea lanes during 
stability operations are provided a variety of small arms, halogen 
lights, body armor, and night vision devices to aid force protection. 
The Shipboard Protection System will provide increased capability 
through incremental technology insertions.
    General Hagee. The institutional agility and tactical flexibility 
demonstrated by the Marine Corps' participation in ongoing stability 
operations in Iraq and Afghanistan reflect our larger and ongoing 
Marine Corps transformation process. Stability and peacekeeping 
operations are not new to the Corps, with a history that includes the 
Boxer Rebellion in China, the ``Banana Wars'' in the Caribbean, and 
multiple armed interventions in Haiti, the Dominican Republic, and 
Lebanon. More recently, marines and Marine units have supported 
peacekeeping and peace enforcement operations at length in both Bosnia-
Herzegovina and Kosovo. Today, the Navy-Marine Corps Team continues to 
play a critical role in the global war on terrorism and in the 
establishment of stability and security throughout the world. During 
this past year, the Marine Corps, both active and Reserve, was engaged 
in stability and peacekeeping operations in the Arabian Gulf, the Horn 
of Africa, Liberia, the Georgian Republic, Colombia, Guantanamo Bay, 
and the Philippines.
    As the Nation's ``Force in Readiness,'' we principally prepare to 
fight and win our country's first battles. As a learning organization, 
however, we relentlessly adapt to develop the capabilities required to 
meet the demands of tomorrow, and there is no question that 
capabilities for peacekeeping and stability operations will continue to 
be required. While we constantly transform our total force, ongoing 
changes to our organization, equipment, and training will provide us 
with greatly enhanced capabilities for stability and peacekeeping in 
the Marine Corps of the next decades.
    Organizationally, we have recently conducted a Force Structure 
Review of the entire Corps, and are implementing a number of changes 
that will provide us an increased ability to more effectively 
accomplish missions across the range of operations. The reestablishment 
of our first active component civil affairs billets in decades along 
with additional Reserve civil affairs forces will provide us with the 
systematic ability to plan, coordinate, and conduct the civil-military 
operations (CMO) so necessary in these environments. Similarly, the 
addition of active component information operations (IO) and 
psychological operations (PSYOP) personnel will add non-destructive 
alternatives to our commanders' ``toolboxes'' during stability and 
security operations. By growing and reorganizing our intelligence, 
counterintelligence, and human intelligence (HUMINT) capabilities, we 
will enable our deployed operating forces to be both more effective and 
more efficient. A substantial increase in our explosive ordnance 
disposal forces will enhance our ability to deal with the common 
threats peacekeeping forces face, and we continue to examine 
alternatives to provide additional MP units. Finally, by increasing the 
number of our maneuver units, including additional infantry and light 
armored reconnaissance formations, we extend our ability to better 
influence action where it most matters--along city streets and across 
farmer's fields.
    The most decisive factor in success of these units will be the 
ability of the individual marine and his small unit leaders. Recent 
improvements in technology provide these marines with a wider array of 
capabilities. For example, the tactics and abilities of the junior 
leader are significantly enhanced by the fielding of the Advanced 
Combat Optical Gunsight (ACOG), the Personal Role Radio (PRR), and the 
PRC-148 radio. The ACOG is an internally adjustable, compact telescopic 
sight that can be used easily in low light or at night and enables more 
discriminate use of small-arms fire. The PRR is a small transmitter-
receiver that allows patrolling warfighters to communicate over short 
distances, even through thick walls or heavy cover, without shouting, 
hand signaling, or relaying messages. The PRC-148 radio is a multi-band 
compatible squad system that has ultra-high frequency (UHF) and very 
high frequency (VHF) capabilities, enabling small unit users to link to 
the support and heavy weapons of the entire joint force. Each of these 
items are examples of the equipment we are aggressively pursuing to 
enable the rapid development and immediate distribution of information 
required to make decisions at the lowest level, where stability 
operations are won or lost.
    Real transformation depends upon a change in culture, however, not 
a change in equipment. The ongoing training for stability deployments 
and operational experience our marines are now developing will have a 
critical impact on our stability operations and peacekeeping 
capabilities for years to come. Our Project Metropolis (ProMet) Team 
has rigorously trained units for stability operations in Iraq, 
especially in urban environments. As part of our naval transformation 
vision of the increased joint and coalition unity of effort typical of 
peacekeeping, preparation for these deployments also includes an 
extensive training program involving the participation of our partner 
militaries. Our transformational technologies have recently been used 
in joint training exercises with British, Canadian, and Australian 
units as well. Each of these efforts is teaching a great number of our 
future leaders how to be ``No Better Friend, No Worse Enemy,'' lessons 
they are internalizing today for tomorrow's requirements of organizing, 
training, and equipping our future Corps.
    In short, we anticipate a continued need for the capabilities that 
are required for stability and peacekeeping operations, and are 
actively adapting our force with these requirements in mind. The Marine 
Corps does not look upon these as new competencies, however, and will 
employ them according to our maneuver warfare philosophy and 
expeditionary heritage. Our transformation will provide our future 
leaders with greater depth and additional options with which to place 
our adversaries on the ``horns of a dilemma'' during combat or 
peacekeeping. However, these options will increasingly include non-
kinetic effects, Horn 10 and PSYOP to CMO and the training of local 
forces. We continue to believe that every operation requires an 
aggressive combined-arms approach, and the recognition that they remain 
an often-bloody contest of human will. The innovation, change and 
adaptation we depend upon will continue to create the capabilities 
required across the range of tomorrow's operations, and ensure the 
Corps continues it role as the Nation's total force in readiness.
    General Jumper. The Air Force's transformation plan identifies the 
capabilities we need to prevail in the future security environment. 
While broadly conceived, many of them, especially our joint force 
``enabling'' capabilities, are directly relevant to future stability 
and peacekeeping operations. Our agile airlift fleet, for example, will 
be a key conduit of external aid and support, while giving joint and 
coalition forces needed mobility in areas of poor or nonexistent 
infrastructure. Our global Command, Control, Communications, Computers, 
Intelligence, Surveillance, and Reconnaissance (C\4\ISR) umbrella will 
lend clarity to an often chaotic operating environment by linking 
together distributed ``blue'' forces and furnishing them with precision 
navigation; establishing a coherent joint logistics picture; and 
providing persistent situational awareness against dispersed threats in 
urban areas and other complex terrain. Our ability to inflict a wide 
range of effects, including non-kinetic, non-lethal effects, will be a 
critical force multiplier for a Joint Force Commander (JFC) striving to 
establish order and security in the post-conflict phase.
    As DOD refines its vision for stability operations through the 
draft Stability Operations Joint Operating Concept, the Air Force will 
continue to identify Air Force capabilities crucial in enabling this 
aspect of transformation. All of our projected transformational 
capabilities are detailed in the USAF Transformation Flight Plan.

    74. Senator Dole. General Schoomaker, Admiral Clark, General Hagee, 
and General Jumper, the welfare of the military family is undoubtedly a 
key to the success of our All-Volunteer Force. I would like to take 
this opportunity to thank the countless volunteers and military family 
advocacy employees for their dedicated work during OEF and OIF. How are 
your Services formalizing the family advocacy mission and how is this 
mission included in you transformation vision?
    General Schoomaker. Taking care of families is a dynamic and 
integral part of Army Transformation and the ``Installations as Our 
Flagships'' focus area. Army Community Service provides a full range of 
services to help soldiers and families adapt to the military lifestyle. 
The Army is adjusting family programs and resources to better support 
our soldiers and their families and to meet our goal to provide them 
the same qualify of life as is afforded the society they are pledged to 
defend.
    Admiral Clark. The Navy's Family Advocacy Program (FAP) is formally 
established through Secretary of the Navy and Chief of Naval Operations 
(CNO) instructions. It is a mandated program addressing the issue of 
child maltreatment and domestic abuse/domestic violence, including 
prevention, reporting, intervention, follow-up, and evaluation. Service 
to military families is formalized through longstanding fleet and 
family support programs provided on all Navy bases. Reservists who are 
deployed are informed of services available at each Navy base.
    For families living in remote areas, we have implemented a ``One 
Source'' program, which allows active and Reserve members of the Navy 
family to contact a professional counselor via toll-free telephone 
numbers for a wide range of assistance, including timely referral and 
assistance to the broad array of FAP resources.
    General Jumper. The Community Readiness Consultant (CRC) model will 
optimize resources and meet validated community level needs at each 
installation. CRC allows Family Support Centers (FSCs) to be proactive 
in individual/community support. Our current system encourages families 
to be passive recipients rather than active participants in their own 
lives and in the life of the community. The CRC model will allow FSC 
staff to provide services in the FSC and at the units. CRCs and 
Community Readiness Technicians provide more efficient and effective 
delivery of counseling/consulting services to Total Force members and 
families.
    Additionally, the program delivery fits community/family needs with 
more flexible tools to respond to changing and emerging needs of 
families/communities. The CRC utilizes the FSC automated Management 
Information System to assist with assessments, performance based 
measures and return on investment. The CRC model will provide a multi-
skilled FSC staff to help build a strong, vibrant community through 
collaboration with other agencies, ensuring cost effective utilization 
of resources; thus meeting the community needs through outcome 
measures.
    General Hagee. The military lifestyle is challenging. The Marine 
Corps works very hard to provide ``combined arms support''--integrating 
the programs that address prevention and intervention needs for Marines 
and their families. In addition to the ``hometown'' support that 
families enjoy on our bases and stations, Marine Corps Community 
Services (MCCS) offers numerous programs that are specifically focused 
on prevention of domestic violence. Formally established in 1986, the 
FAP is a commander's program designed to prevent and treat domestic 
violence. The centerpiece of this program is a philosophy of 
Coordinated Community Response (CCR) that involves the command and 
brings to bear the host of supporting agencies and civilian community 
support resources to effectively address domestic violence.
    Prevention of family violence is our primary focus with initiatives 
such as the Mentors in Violence Prevention (MVP) program and the New 
Parent Support Program, as well as local training and education 
efforts. The MVP program was established to encourage the participation 
of male marines in efforts to prevent rape, battering, sexual 
harassment, and all forms of male violence against women. The MVP 
program is a ``marines helping their fellow marines'' program, which 
encourages marines to become involved when they see abusive situations. 
For the past 2 years the MVP program courses have been offered at the 
Senior NCOs' Academies, the 1st Sergeants' Courses, The Career Courses 
(NCOs) and the Advanced Courses (SNCOs).
    The New Parent Support Program helps ``replace'' the extended 
family available to new parents. It educates and supports families with 
children up to 6 years of age. It gives our new parents someone to call 
if they have questions, problems or concerns--questions that if in 
their hometowns they might have asked Mom, Grandma, or an older sister. 
This program consists of home visitation, classes and outreach through 
Play Morning, Single Parent Support Groups, Mom's Basic Training, 
Parenting Classes, and Daddy's Baby Boot Camp. The program successfully 
reduces the number of child abuse/neglect cases.

    75. Senator Dole. General Schoomaker, Admiral Clark, General Hagee, 
and General Jumper, given that our current deployments are drawing 
heavily on Guard and Reserve Forces, what are you doing to ensure 
necessary and appropriate support for all families, especially those 
from rural communities who live long distances from military 
installations?
    General Schoomaker. The Army's goal is to provide accessible 
services and information for all family members. We are currently 
developing a multi-component family support network that will optimize 
information flow and program support to active, Guard, and Reserve 
families regardless of their proximity to Army installations.
    The Army's family and soldier readiness system includes assistance 
centers, readiness groups, rear detachments, and unit liaisons. Army 
Community Service (ACS) provides Reserve component family program 
personnel with information, training, and other assistance, and unit 
commanders use ACS and other resources to ensure soldiers and families 
are prepared and supported before, during, and after deployments.
    Army One Source (AOS) is one example of a program that meets the 
needs of geographically dispersed families. AOS is a 24-hour, 7-day-a-
week toll-free information and referral telephone service available to 
soldiers, deployed civilians, and their families worldwide. AOS refers 
individuals to local civilian counselors for assistance as needed.
    Admiral Clark. We have recently implemented a program called, 
``Navy One Source,'' which is particularly helpful for families of 
active and Reserve personnel in remote or isolated areas who require 
information/referral services. The program offers access to highly 
qualified staff of consultants through a toll-free telephone number and 
via the World Wide Web. A wide range of assistance is available, 
including, but not limited to, guidance on preparing for the arrival of 
a new born, preparing for deployment, counseling on relationship or 
financial difficulties, locating qualified child care resources and 
purchasing an automobile. The program's response is tailored to the 
callers' needs, is fully confidential, and is provided at no cost to 
users.
    General Jumper. We make every effort to ensure we stay in contact 
with and provide great support to our families, and especially those 
far removed from military installations. Our FSCs serve as the core of 
our outreach and care to these families before, during, and after 
deployments. They collaborate with appropriate State, and local 
resources to maximize support and services with our affected families. 
We have Family Readiness NCOs specifically trained to provide family 
assistance during times of crisis such as war, real world 
contingencies, and natural disasters. We facilitate as much family 
communication as possible to keep the family ties strong--especially 
during deployments. Our FSCs offer email connectivity, morale call 
programs, letter writing programs, video phones, and phone cards to 
encourage family communication. We also keep family members informed 
using unit spouse support groups, key spouse training, and town hall 
meetings. Families of the Air Force Reserve and Air National Guard also 
benefit from the services coordinated by Family Readiness Directors 
assigned to our Reserve units as well as Guard Family Assistance 
Centers throughout the U.S.
    We rely heavily on our technology-based systems to increase our 
capability to address the needs of our geographically separated 
families. Air Force Crossroads, (www.airforcecrossroads.com) our 
community Web site developed in 1999, posts updated information on 
family readiness and all of our family support resources from childcare 
and parenting, to job search and managing finances. Through Air Force 
Crossroads, we host a very active Spouses Forum Give chat room for 
spouses to meet, share concerns and support each other. Participants 
are able to quickly link to FSC staff if needed. Air Force One Source, 
(www.airforceonesource.com) launched earlier this year, is a geography-
independent, 24-hour call center, and interactive Web-based service. 
Twenty-four hours a day, our total force and their families can use 
either a toll-free telephone number or the web to contact staff for 
counseling and referral on issues including deployment/reunion, 
parenting/child care, grief/loss, education, older adult care/
information, legal, financial, and emotional well-being.
    General Hagee. Over the past year, the Marine Corps has gathered 
lessons learned on family support from OEF and OIF 1. We will continue 
to refine this support for all future deployments, but have established 
family outreach through multiple communication mechanisms (i.e., touch, 
virtual, voice, etc.) to address the different needs of our Marine 
Corps families.
    Our Key Volunteer Network (KVN) served as the official 
communication link between deployed commands and the families. The KVN 
is primarily a spouse-to-spouse connection that commanders use to pass 
important, factual, and timely information on the status and welfare of 
the operational unit. As spouse leaders, the key volunteers 
respectively interact with the commander regarding the welfare of the 
command's family members.
    The establishment of an OIF Family Information Hotline that has 
been re-activated for OIF 2 and a deployment support Web site assist 
with today's vast information and public contact requirement, 
regardless of the location of the caller or user. Both are specifically 
designed to sort the information needs of callers or users, and re-
direct them to specific response or support capabilities. The Marine 
Corps is also very fortunate to have MCCS OneSource, a DOD employee 
assistance pilot program operated for the Marine Corps by Ceridian 
Corporation, as yet another touch point for family member support. 
Available Corps-wide in January 2003, over 26,000 uses occurred by 
telephone, email, or online in 2003, with increased uses in the months 
of March and April during the height of the conflict. This program can 
be especially useful for remote users such as the families of activated 
reservists. The program is available 24/7/365 via toll free telephone 
and Internet access.
    The most frequently asked about areas were in the categories of 
deployment status, parenting, childcare, everyday issues, and 
education. The families of activated reservists found helpful 
information on military programs such as TRICARE and other benefits and 
services. In addition to the expanded communications tools such as 
hotlines, Web site, and MCCS One Source, families of deployed Marines 
have access to the established family support programs on Marine Corps 
installations as well as through Unit Family Readiness Officers and 
Peacetime Wartime Support Team members located at each of our Reserve 
Training Centers.
    The scope and hours of operation of morale, welfare, and recreation 
(MWR) programs are adjusted as necessary during deployments. Families 
can receive pre-deployment briefs in person or online, as well as 
assistance in developing proactive, prevention-oriented plans such as 
family care plans, powers of attorney, family financial planning, and 
enrollment in the Dependent Eligibility and Enrollment Reporting System 
(DEERS) to minimize the stress of everyday decisions after the Marine 
has deployed. For post-deployment, the Marine Corps has also set up a 
Return and Reunion program to assist marines, sailors, and family 
members in transitioning to a more normal lifestyle. Additional 
services are provided to those who need respite childcare, assistance 
coping with separation, or specialized support in areas such as 
spiritual guidance, coping, and social skills.

advanced threat infrared countermeasures/common missile warning system 
                             (atircm/cmws)
    76. Senator Dole. General Schoomaker, in light of the threats posed 
by Iraqi insurgents to our helicopters, could you elaborate on the 
Army's November 2003 decision to stick with its multiyear procurement 
of the ATIRCM/CMWS?
    General Schoomaker. In the months leading up to the November 2003, 
low-rate initial production (LRIP) decision for ATIRCM, the Army 
evaluated all cost, performance, and schedule implications of the 
program. This included an evaluation of all competing systems. The Army 
decided to stay with the multiyear procurement of the ATIRCM/CMWS 
because it was the only system that fully met all technical and 
scheduled requirements of the program, no other system could be fielded 
faster, and ATIRCM was 50 percent cheaper than any competitor. 
Concurrent with this decision, the Army decided to accelerate the 
installation of aircraft survivability equipment on all deployed 
aircraft. The modular design of the ATIRCM/CMWS equipment facilitated 
the execution of that decision by allowing near-term CMWS deployment to 
better counter existing threats while the ATIRCM jam head could 
continue through its scheduled development and testing program for 
deployment against future threats.

    77. Senator Dole. General Schoomaker, this system is not available 
for conventional units until 2010. By not accelerating this program, 
are we passing up an opportunity to provide our troops better 
protection in helicopters?
    General Schoomaker. Our conventional Army Aviation forces are 
scheduled to start receiving the CMWS with the Improved Countermeasure 
Munitions Dispenser (ICMD) in the fourth quarter fiscal year 2004. This 
will be accomplished under an accelerated fielding of aircraft 
survivability equipment approved by the acting Secretary of the Army on 
January 15, 2004. This system will provide an enhanced countermeasure 
capability against all known manportable air defense missile threats. 
To supplement CMWS/ICMD, the Army has also approved the accelerated 
fielding of a multi-band laser jammer, known as the ATIRCM, for fiscal 
year 2007. Together, these systems will provide our aircraft with a 
comprehensive flare/laser countermeasure capability for the future.

    78. Senator Dole. General Schoomaker, while we wait on the 
development and acquisition of future technologies, are there any 
interim systems available that could bridge this gap or are you finding 
that the threat (possibly small arms fire and rocket propelled grenades 
(RPGs)) requires a lower-tech solution?
    General Schoomaker. In early December 2003, the Army selected the 
ALE-47 Flare Dispenser Countermeasure System for installation on 
Chinook (CH-47) aircraft operating in theater. This effort is ongoing 
and will include all type aircraft scheduled to deploy for future 
operations. Concurrent with this activity, the Army has also upgraded a 
fleet of C-23 fixed-wing aircraft with a missile warning and flare 
dispenser system. In addition, the Army recently approved funds for 
procuring ballistic protection systems (BPS) for both the CH-47 and 
Black Hawk (UH-60) aircraft operating in theater. The BPS lines the 
cargo/passenger compartment of the aircraft types noted and will 
provide enhanced protection against small arms projectiles.

                             strategic lift
    79. Senator Dole. General Schoomaker, Admiral Clark, General Hagee, 
and General Jumper, each of your Services are transforming and 
investing heavily towards the next generation of capabilities. Yet less 
than 5 percent of the procurement and RDT&E budget, across the 
Services, is dedicated to strategic lift. Our national military 
strategy requires our forces to be capable of operating in multiple 
theaters at varying levels of conflict. Do you believe the defense 
budget request sufficiently resources and programs strategic lift to 
support our national security strategy and your Service's needs?
    General Schoomaker. Current directives, policy, guidance and vision 
beginning with the National Security Strategy (NSS) and National 
Military Strategy (NMS), require the military to be able to overcome or 
defeat enemy anti-access and area denial efforts. To meet the 
requirements of the combatant commanders, lethal ground combat 
formations must arrive intact and ready for immediate employment.
    The DOD should continue efforts to modify and improve current 
inter-theater (strategic lift) and intra-theater lift platforms, and 
field technologies that increase the number of usable theater entry 
points. The Army continues to facilitate joint interdependence in 
support of the combat commander's requirements by engaging the OSD and 
Service counterparts for support of Army strategic/intra-theater lift 
requirements.
    The Mobility Requirements Study for fiscal year 2005, finalized in 
January 2001, validated the sea and airlift requirements in a pre-
September 11 environment. The new Mobility Capabilities Study, to be 
completed in June 2005, will validate lift requirements throughout DOD. 
With regard to strategic airlift, the Army supports the Air Force's 
position that at least 222 C-17s are required. Greater capabilities for 
strategic lift platforms and intra-theater lift platforms will enable 
us to deliver combat power faster into austere environments. Inter-
theater and intra-theater lift capabilities are linked and must be 
complementary to meet the JFC's requirements. Super short take-off and 
landing, heavy-lift vertical take-off and landing, and high-speed 
shallow draft vessels, are developing technologies that support the 
Army's Future Force.
    Admiral Clark. In an unconstrained environment we could see needs 
that would suggest more spending on strategic lift. However, we are 
living with constraints and the budget presented presents a balanced 
approach that we believe properly resources strategic lift. We have 
asked for $117.0 million in the R&D account under the National Defense 
Sealift Fund (NDSF). This represents an increase of $103.6 million over 
the amount appropriated in fiscal year 2004. The bulk of this increase 
is to fund the concept development for the Maritime Prepositioning 
Force (Future) (MPF(F)) platform--which is envisioned to be the 
prepositioned centerpiece of our sea basing efforts in the coming 
years. In addition, we have requested $140.3 million to maintain our 8 
Fast Sealift Ships (FSSs) and 11 large medium-speed roll-on/roll-off 
(LMSR) ships in a 4-day readiness status. Finally, we have requested 
$221.5 million to maintain the 68 ships of the Maritime 
Administration's Ready Reserve Force (RRF) in near-term readiness 
status. We expect to continue our extensive analysis of this critical 
area in the fiscal year 2006 budget build.
    General Hagee. The Director, OSD Program Analysis and Evaluation 
(PA&E) and Director of Logistics (J4), Joint Staff are conducting the 
Mobility Capabilities Study (MCS) that will answer these questions with 
a substantial degree of accuracy. The overall study, which will be 
completed in March 2005, will examine the global mobility platforms and 
enablers needed to execute the defense strategy and support service 
transformation in the 2012 time frame. The study will identify mobility 
capability gaps, overlaps, or excesses and provide associated risk 
assessments; and recommend mitigation strategies where possible. The 
study will also identify and quantify alternatives in mobility 
capabilities to support the defense strategy from point of origin to 
point of use and return. Upon completion of the study, the Marine Corps 
will be able to accurately and with specificity, respond to the 
questions you raise.
    General Jumper. Our capability to project power anywhere in the 
world at any time is a key to meeting the current and anticipated 
challenges facing this Nation. These capabilities include the ability 
to airlift materiel and personnel across strategic distances and 
provide air refueling support to our own and coalition forces. 
Currently, the requirements to obtain these capabilities are defined in 
studies such as the Mobility Requirements Study-05. However, this study 
was based on earlier versions of the NSS and defense planning that did 
not anticipate the OPTEMPO of our post-September 11 world. To address 
the environment we find ourselves in today, the Air Force is engaged 
with the OSD and Joint Staff in a new and comprehensive MCS. We 
anticipate results will be available in the summer 2005 timeframe.
    The Air Force has allocated approximately 14 percent of procurement 
and RDT&E funding in the fiscal year 2005 budget proposal for strategic 
lift capabilities (C-17, C-5, and Materiel Handling Equipment). The MCS 
will refine our airlift and air refueling requirements and the Air 
Force will continue to balance priorities, risk and resources to 
sustain our critical mobility capability.

    80. Senator Dole. General Schoomaker, Admiral Clark, General Hagee, 
and General Jumper, I applaud the support given by each Service in the 
effort to privatize housing for military families. Not only does this 
budget provide our military families with better living conditions but 
it does so at a lower cost to our taxpayers. In North Carolina this 
privatization plan calls for transferring, renovating, replacing, or 
building well over 8,000 family residences in just the next decade. Are 
the installation commanders being allowed to tailor these privatization 
projects for their respective communities?
    General Schoomaker. Installation commanders are encouraged to 
develop a project that meets local codes and installation design 
criteria. The Army has set minimum standards for a few basic criteria 
such as overall unit size but other aspects are within the installation 
purview and are negotiated at the installation.
    Admiral Clark. Yes. Installation commanders are instrumental in 
concept development and in the determination and articulation of the 
needs their communities.
    General Hagee. Marine Corps installation commanders are actively 
engaged in the development and execution of privatization projects for 
their communities. Installation commanders and their personnel 
participate in the development of the scope of work required and in 
determination of neighborhood phasing plans for larger privatization 
projects that will be executed in phases over a period of 2 or 3 years. 
Installation commanders approve the privatization concepts for their 
bases or stations prior to concept approval by Headquarters Marine 
Corps. Installation commanders or their designees, as well as command 
sergeants major, are also involved in the source selection and 
negotiation process.
    General Jumper. The installation commander and his staff play a 
critical role throughout the privatization of an installation's 
housing. Their role starts with collecting and validating the data, for 
the Housing Marketing and Requirements Analysis (HRMA), which 
determines the number of on-base housing units required to support the 
installation. The staff is also integral in the development of the 
Housing Comprehensive Plan (HCP), which identifies the construction and 
renovation requirements needed to bring the installation's housing to 
an adequate condition.
    Once the determination is made that a privatization initiative is 
feasible at a particular installation, the commander and staff serve as 
members of the Project Development Team (PDT) along with 
representatives from the Major Command and Air Force Center for 
Environmental Excellence. The PDT is charged with defining the scope 
and desired amenities to be included in the concept and request for 
proposal. Following concept approval, representatives from throughout 
the installation serve as members of the Acquisition Support Team 
reviewing proposals and serve as advisors. Finally, once an offer or is 
selected, installation personnel become the main focus as the terms of 
the transaction are finalized, the transition process is initiated, and 
development/long-term operations commence. This direct involvement of 
the installation commander and staff throughout the privatization 
process ensures the sustained success of the installation's housing 
privatization initiative.

    81. Senator Dole. General Schoomaker, Admiral Clark, General Hagee, 
and General Jumper, how is the construction of new schools and other 
necessary support facilities being factored into privatization plans?
    General Schoomaker. The Army engages local school authorities early 
and continuously throughout the planning process to assess possible 
impacts of added or shifting student loads on school requirements. The 
Army provides development scope and schedule information to school 
officials to assist with planning for school requirements. The Army 
does not include school construction in the privatization development 
plan; however, the Army may offer land and infrastructure support for 
schools.
    Admiral Clark. Privatization projects are subject to the review 
requirements imposed by the National Environmental Policy Act (NEPA). 
The normal NEPA process includes coordination with local officials to 
assess any consequent impacts on schools and other necessary support 
facilities. The Department of the Navy factors into our privatization 
projects the normal development fees or impact fees customarily charged 
to all residential construction developers. Our projects include all 
costs normally associated with any other private development in the 
community. In situations where a new school is proposed to accommodate 
an increased student loan the Navy may make land available to the 
school district through the privatization process. In some 
circumstances the Navy may include funding for specific infrastructure 
improvements in the cost of the project. In New Orleans, for example, 
the Navy privatization project included a little more than $1 million 
for the construction of a sewage lift station to support the 545 new 
homes being constructed.
    General Hagee. Marine Corps privatization projects to date have not 
resulted in a requirement for construction of new schools because much 
of the privatization has been rehabilitation/reconstruction of existing 
stock, with limited deficit reduction. As a result, there has been 
little increased demand put on the local school systems. Each of the 
projects has, however, included construction of community support and 
recreation facilities. As Public-Private Venture (PPV) projects are 
developed, an assessment of environmental impacts, which include school 
impacts must be completed. As part of this process we engage local 
officials, including those representing schools to ensure their 
requirements are considered. Also, local school districts generally 
receive a higher level of school impact aid for children of military 
families living in privatized military housing located on government-
land leased to the private partner than they would receive from 
traditional military housing.
    General Jumper. The Air Force looks upon its housing privatization 
projects as community developments, not just houses. The community as a 
whole is examined to determine the housing requirements as well as the 
requirement for ancillary facilities. These ancillary facilities can 
include schools, community centers, playgrounds, recreational areas, 
and other support-type facilities. Identified requirements are then 
worked into the project in order to provide a full, complete 
neighborhood community for the military member and their family.
    At the current time, none of our projects have determined the need 
for additional schools beyond what the local community can provide. 
However, they have determined the need for other ancillary facilities 
such as swimming pools, community centers, and playgrounds. These 
requirements have been included in the privatization process. The Air 
Force is conscious of our responsibility to the American taxpayer and 
ensures that the community requirements included in our projects are 
consistent with those found in similar housing developments privately 
owned in the local community.

                     joint warfighting capabilities
    82. Senator Dole. General Hagee, in preparation for OIF 2, you 
mentioned that the Marines are drawing on lessons learned from your 
sister Services, coalition partners, inter-departmental agencies, and 
the Marine Corps' own ``Small Wars'' experience. According to recent 
news articles, the Marine Corps is planning to take a ``fresh'' 
approach as it prepares to take over in areas currently occupied by the 
United States Army (for example, emphasizing restraint and cultural 
sensitivity while living among the Iraqi population in platoon size 
elements). Does this mean that the Marines and the Army will 
deliberately employ different strategies in OIF 2? If so, isn't this 
contrary to your priority of enhancing joint warfighting capabilities?
    General Hagee. The Marine Corps continually evaluates new 
techniques and technology to address the unique requirement of this 
operational environment. This includes the re-evaluation and potential 
incorporation or modification of previously utilized strategies. This 
includes the Marine Corps' own historical lessons learned as well as 
other Services, as applicable to Marine Corps contribution to joint 
operations in OIF 2.
                                 ______
                                 
           Questions Submitted by Senator Joseph I. Lieberman
                        joint system development
    83. Senator Lieberman. General Schoomaker, Admiral Clark, General 
Hagee, and General Jumper, it is my understanding that the Joint 
Requirement Oversight Council's (JROC) primary functions are to assist 
the Chairman of the Joint Chiefs of Staff in providing you the best 
possible guidance on the degree to which budget proposals conform to 
the warfighting community's requirements and to ensure that joint 
warfighting capabilities and joint interoperability issues are 
highlighted in your budget guidance to Congress. In the National 
Defense Authorization Act for Fiscal Year 2001, Congress required the 
DOD to address perceived shortcomings in the joint weapons development 
process, specifically with the definition of joint (i.e. non-stove 
piped) requirements:

        --  First, to shift the JROC's primary focus towards more 
        strategic issues;
        --  Second, to integrate joint experimentation activities fully 
        into each new defense program's requirements, capabilities, and 
        acquisition process; and
        --  Finally, to shift the focus of Joint Warfighting Capability 
        Assessment (JWCA) teams to directly support the JROC in 
        analyzing broader, future joint warfighting requirements.

    Since 2001, I have not heard nor have I seen notable progress in 
the efficiencies and successes of developing testing and fielding new 
and innovative weapons programs. What progress has the DOD made in the 
joint development arena?
    General Schoomaker. The issue of progress in gaining efficiencies 
and successes in developing, testing, and fielding of new and 
innovative weapons programs can be addressed in several ways. These 
issues are directly tied to the JROC's role in defining future joint 
requirements and program development. The JROC has already directed 
numerous changes to joint training and experimentation. It is extremely 
rare for any weapons program to reach fruition in a short 3-year time 
period. Programs which had the most visibility over the past few years 
had their roots and origins in developmental concepts and warfighting 
concepts that were in place long before 2001. Clearly, there is both 
good and bad to this situation. This more deliberate approach ensures 
that the right weapon for the right purpose, integrated in the right 
way, is put in the hands of the Joint Force. The Joint Force is an 
incredibly complex entity with countless moving parts. Accelerating the 
acquisition and fielding of systems for the Joint Force introduces some 
risk into the process. Sometimes those risks are worth taking as 
evidenced by the progress made in confronting the improvised explosive 
device threat in Iraq. This is a clear case of how the JROC can 
directly influence the rapid development and fielding of urgently 
needed capabilities.
    Most often, the Joint Force requires a more mature system and 
concept before it can safely and cost efficiently procure and field a 
new capability. To this end, the JROC has implemented significant 
procedural changes to the Services' acquisition processes that 
ultimately ensure a joint synergy which spans the spectrum of 
capability development.
    In 2001, the chairman's vision of the future was encapsulated in a 
document known as the Joint Vision. Between the strategic level of 
thought about warfighting contained in the Joint Vision and the actual 
development of service concepts and programs, there was very little 
guidance. The Secretary of Defense expressed his concern that, by the 
time major acquisition programs rose to the level where he could impact 
them, they were too far into development and the Services were so 
deeply invested he had no opportunity to make influential decisions. 
Most importantly, the Secretary was constrained to merely deciding 
whether to allow a program to proceed (and at what level) or to kill a 
program.
    Implementation of the new Joint Capabilities Integration and 
Development System (JCIDS) is rapidly rectifying this situation. At 
fruition, JCIDS will ensure the Services develop programs that are 
designed from inception to support overall requirements of the Joint 
Force and facilitate effective integration of these programs into the 
Joint Force. The management process that accompanies JCIDS, a group of 
Functional Capabilities Boards, which subsume the JWCAs, is directly 
focused on those issues that you highlighted from the 2001 National 
Defense Authorization Act. These boards ensure that, early in a 
program's life, it is determined to what extent that program fills a 
critical gap in our joint capabilities, or to what extent it provides a 
complimentary or redundant capability. This same Functional 
Capabilities Board process will determine the relative value of 
increasing our capability in a specific area, and whether the increase 
in capability is worth the investment.
    JCIDS will do all of this at fruition. Obviously, JCIDS represents 
a significant cultural change to previous methods of developing, 
prioritizing, and fielding new capabilities. Inculcating this new and 
more efficient process will take some time. The analytical tools that 
support decisions made under JCIDS are being implemented concurrently 
and require Service-wide dissemination. This is well under way. 
Programs presented to the JROC are now subjected to a level of scrutiny 
that is more detailed, more focused, and more prescriptive than at any 
time in the past. Programs that started as ``service centric'' 
capabilities have been returned to the Services for revision or 
cancellation. Some of these revised programs will be reborn as a more 
efficient and cost effective joint capabilities.
    Combat developers and programmers are learning that the time to 
find out what the other services may want or need from an Army system 
is early in the program development cycle as opposed to when it is 
ready for production. The Services are learning to effectively leverage 
capabilities of other Services to avoid developing a service unique 
solution.
    The Army and its sister Services have worked very closely with the 
JROC and the Joint Staff to develop a set of concepts that provide a 
common framework which delineates how the Joint Force will fight in the 
future. This conceptual framework provides the critical link between 
individual Service efforts and the Joint Vision. Equally important, it 
integrates combatant commanders into the JROC process. The creation of 
Joint Operating Concepts provides an opportunity for the combatant 
commanders to directly influence the development of future warfighting 
concepts. The creation of Joint Functional Concepts has provided a much 
more detailed framework for understanding the common needs and purposes 
of Service capabilities, and for understanding those cases that require 
Service-unique needs and capabilities. The integration of these 
concepts into a jointly agreed upon, integrated framework provides the 
foundation for a truly Joint Force. These concepts will not answer 
every warfighting question or issue. They will provide a succinct focus 
to our experimentation community and provide them a clearly defined 
process by which to evaluate lessons learned.
    Admiral Clark. Progress in the joint development arena is 
exemplified, but not limited to the following programs; each is 
included in the President's budget request, and each has a record of 
meeting notable joint and cross service requirements. In each example, 
warfighting effectiveness and economic efficiencies were gained through 
the joint development process.
    JSF. The JSF is part of the family of tri-service, next-generation 
trike aircraft that will be the single fighter airframe for DOD.
    Joint Aerial Common Sensor (JACS). JACS is a research, development 
and acquisition program designed to replace our aging EP-3 airborne 
information warfare and tactical signals intelligence (SIGINT) 
aircraft.
    Joint Tactical Radio System (JTRS). JTRS is a software 
programmable, multi-band, multi-mode family of net-workable radios, 
capable of simultaneous voice, data, video communications and mobile ad 
hoc networking.
    Deployable Joint Command Control System (DJC2). DJC2 will provide a 
standing, fully deployable, scalable, and standardized command and 
control (C2) capability to the Regional Combatant Commanders (RCCs) and 
JFCs.
    General Hagee. Since 2000, there have been many changes in the 
processes that identify and validate joint capabilities. This will have 
a significant effect on joint development, testing and fielding of new 
and innovative weapons systems. In June 2003, the chairman implemented 
the JCIDS (CJCSI 3170.1C). The procedures established in the JCIDS 
support the chairman and the JROC in identifying, assessing and 
prioritizing capabilities needs as specified in title 10. JCIDS 
implements a capabilities-based approach that better leverages the 
expertise of all government agencies, industry, and academia to 
identify improvements to existing capabilities and to develop new 
warfighting capabilities. JCIDS is an enhanced methodology utilizing 
joint concepts that will identify and describe existing or future 
shortcomings and redundancies in warfighting capabilities, describe the 
attributes of effective solutions and identify the most effective 
approach or combination of approaches to resolve those shortcomings. 
The process inherently promotes efficiency while enhancing capabilities 
of the joint warfighter particularly important while faced with current 
fiscal challenges.
    One example of the JCIDS process at work to achieve efficiencies 
and successes in the development, testing, and fielding of new and 
innovative weapons programs is evident in the JROC's recent action to 
combine two similar, but different, programs, namely the Army's FCS and 
the Marine Corps' MAGTF Expeditionary Future Fighting Vehicle (MEFFV). 
To optimize research and development efforts, the JROC recommended 
forming a Joint Program Office (JPO). While the Army's FCS is an 
integrated family of vehicles, personal equipment, sensors and C2 
devices, the Marine Corps' MEFFV is being developed as a replacement 
for our aging feet of main battle tanks and light armored vehicles. 
Despite the similarities, each Service has different warfighting 
capability needs based upon specific methods of employment, performance 
parameters, missions, and organizational structure. JCIDS ensures that 
similarities are leveraged thus reducing the cost of redundant 
development efforts. We expect to achieve efficiencies in management, 
research, development and acquisition with the combining of these two 
future programs.
    General Jumper. The Air Force continues to look for ways to 
maximize joint development and testing, working with the Navy, Army, 
Marine Corps, and SOF community to identify opportunities. 
Interoperability is one of the most important factors as we move toward 
a capabilities based and network centric construct, which continues to 
be reviewed and directed by the JROC and the Air Force. We are also 
increasing the emphasis on joint programs and the use of one Service's 
program to satisfy the requirements of multiple Services. There are 
many examples, but some are of particular note. The Air Force-Navy JSF 
program will be developed with three variants for use by the Air Force, 
Navy, and Marine Corps, all of which maximize common parts, components, 
and maintenance. The Air Force's Family of Advanced Beyond Line of 
Sight Terminals (FAB-T) will develop and field satellite communications 
(SATCOM) terminals to replace the current U.S. Military Communications 
Satellite Program (MILSTAR) Command Post Terminals for all Services, 
the Joint Staff and OSD. At the same time, the Air Force is procuring 
Tactical UHF, Multi-Band, Multi-Mode Radios (MBMMRs) from the U.S. 
Special Operations Command (SOCOM) Program Office. The Air Force and 
Navy are also working very closely on developing joint weapons such as 
the JASSM and the JDAM. The Department is also pursuing programs such 
as the JTRS, which uses a common waveform repository to ensure 
interoperability while greatly reducing development costs. We have also 
changed the Air Force's focus on operational testing, working now to 
get the operational testers, from all affected Services, involved in 
the development effort as soon as possible. In this way, many potential 
issues are identified early in the program, allowing the opportunity to 
address them. As a result, our success in operational testing continues 
to improve, enabling us to get critical capabilities into the field as 
quickly, and safely, as possible.

    84. Senator Lieberman. General Schoomaker, Admiral Clark, General 
Hagee, and General Jumper, do you see an evolving and more substantive 
role for the JROC in future joint requirement definitions and program 
development? Please share with me the recent and future innovations the 
DOD has or is currently pursuing to promote more effective joint 
experimentation/training.
    General Schoomaker. The changes emanating from the National Defense 
Authorization Action of 2001 has led to concrete deliverables, in terms 
of weapon systems, by mid-2004. Most systems being delivered today do 
not reflect these changes. However, the systems of the future, 
especially those systems currently funded for research, development, 
and acquisition in the POM have been affected by the changes begun in 
2001. The maturation of the JCIDS process ensures the force you see in 
2010 will be vastly more jointly integrated, efficient, and capable 
than any force designed and programmed under the old way of doing 
business.
    Admiral Clark. Yes, there is an evolving and more substantive role 
for the JROC. The JCIDS, recently codified in Chairman's Instruction 
3170.01C on June 24, 2003, provides an enhanced role for JROC in future 
requirements definition and program development. All new Service 
programs are vetted through a joint review process that validates and 
approves new requirements and programs that bridge identified gaps in 
joint warfighting capabilities. This new process, which includes 
participation from all Services, the OSD, and other applicable 
agencies, assists the Chairman of the Joint Chiefs of Staff and the 
JROC in identifying, assessing, and prioritizing joint military 
requirements.
    Regarding innovations that promote more efficient joint 
experimentation and training, the JROC works closely with all combatant 
commanders, especially with United States Joint Forces Command (JFCOM), 
on joint experimentation and training. JFCOM serves as DOD's 
experimentation, joint training, interoperability and force provision 
``transformation laboratory.'' One innovation promoting more efficient 
joint training is JFCOM's Joint National Training Capability (JNTC). 
Identified in the DOD's training transformation plan, this effort 
broadens and deepens the reach of joint force training through a 
networked collection of interoperable sites and nodes that synthesize 
personnel, doctrine and technology. This initiative will provide the 
participants with a global, network-centric capability that strengthens 
military transformation efforts, which promote joint warfighter 
effectiveness.
    General Jumper. In the summer of 2003, the JROC changed from a 
requirements-based system to a capabilities-based system. A 
capabilities-based process implements rigorous up-front analysis, 
ensuring more programs get visibility of the joint community. This new 
process drives jointness from the top-down, strengthening joint 
warfighting capabilities; links strategic direction to strategic 
investment decisionmaking; provides an engine for force transformation, 
and integrates material and non-material solutions to capability gaps 
and shortfalls. These are all challenges the new processes were created 
to meet. The long-term objective is for ``born joint'' capabilities 
development to drive system acquisitions. We are on our way to making 
this a reality.
    The Air Force has taken many steps to ensure more effective joint 
experimentation and training. We have stood up an Air Force Liaison 
office at JFCOM to help facilitate our efforts to assist them with 
concept development and the joint experimentation roadmap. A product of 
this relationship is our partnering with JFCOM to co-host the Air 
Force's primary wargame, Unified Engagement 04.
    General Hagee Yes. The JROC is taking an evolving and more 
substantive role in future joint requirement definitions and program 
development through the JCIDS. Under the JROC's direction the new JCIDS 
process replaced the old Requirements Generation System. JCIDS ensures 
greater visibility of capability proposals and established programs 
across each of the Services and agencies. The new process was 
established based on the need for a joint concepts-centric capabilities 
identification process that will allow joint forces to meet the full 
range of military challenges of the future. Meeting these challenges 
involves a transformation that requires the ability to project and 
sustain joint forces and to conduct flexible, distributed and highly 
networked operations. The process must produce capability proposals 
that consider the full range of doctrine, organization, training, 
materiel, leadership and education, personnel, and facilities (DOTMLPF) 
solutions to advance joint warfighting. Joint experimentation is used 
to validate the concepts that feed the JCIDS process. Joint 
experimentation explores concepts to identify joint and component 
DOTMLPF change recommendations and capabilities needs. Experimentation 
provides insight and understanding of concepts and capabilities that 
are possible given the maturity of specific technologies.
    JFCOM has been a major component of the joint concept development 
and experimentation program for the DOD since 1999. On October 1, 2002, 
the JFCOM was designated as the DOD's agent for transforming our 
Nation's joint warfighting forces. As such, their mission is to 
participate in the larger DOD effort to craft a military force in which 
combatant commanders, Service branches, and multinational partners work 
in concert to develop and produce new concepts and prototypes for 
waging war.
    An important catalyst for transforming military capability is the 
joint Concept Development and Experimentation (CDE) Campaign. This 
campaign aims to collaboratively develop concepts that, through 
vigorous debate, refinement, and experimentation, can be translated 
into warfighting capabilities that strengthen the effectiveness of 
combatant commanders in the field. Perhaps more important than 
fostering the creation of new concepts, the campaign serves as a 
mechanism to synchronize the efforts of combatant commanders, Services, 
and interagency partners as we collectively develop concepts and plan 
experiments in the course of transforming the military.
    JCIDS, under the JROC's direction, will continue to be a critical 
process to ensure the DOD is responsibly and efficiently meeting our 
national security requirements.
    The Marine Corps has historically conducted concept-based 
experimentation to help chart future combat development and deliver 
advanced capabilities to the operating forces. The Marine Corps premier 
wargame for 2004, ``Sea Viking,'' continues this tradition with a 
series of events designed to inform senior leaders on key issues 
affecting the Future Joint Force. JFCOM, in collaboration with the 
Services, has been tasked with developing the joint forcible entry 
capability enhancements required to overcome a potential range of anti-
access/area denial strategies. The Sea Viking campaign will assess 
future Sea Based Marine Expeditionary capability sets, ESG/Force 
capability sets, and Sea Based Command and Control capability sets 
required for joint forcible entry operations. This will help inform the 
ongoing Joint Staff, Joint Forcible Entry Capabilities Based 
Assessment.

                     office of force transformation
    85. Senator Lieberman. General Schoomaker, Admiral Clark, General 
Hagee, and General Jumper, the Director of the DOD's Office of Force 
Transformation (OFT), Vice Admiral Arthur Cebrowski, has said recently 
that military transformation, ``lies at the heart of our new approach 
to defense'' and that it ``is not [just] a goal for tomorrow, it is a 
fundamentally important endeavor that we must embrace in earnest 
today.'' I agree. However it remains to be seen exactly how the OFT is 
furthering military transformation and how exactly it works 
collaboratively with the JROC and JFCOM to promote a unified path for 
the development, test, and implementation of joint force doctrine. 
Please explain to me the current projects, near- and long-term 
objectives, and the process used by OFT to coordinate with the Service 
branches and combatant commands.
    General Schoomaker. Vice Admiral (Retired) Cebrowski's office has 
been an advocate and a catalyst for advancing Defense transformation. 
OFT promotes synergy between the Services and JFCOM ensuring that 
transformation strategy is open to challenge by a wide range of 
innovative ideas. OFT regularly meets and coordinates with the Services 
and JFCOM to facilitate transformation roadmap development. Using these 
roadmaps, and other sources, OFT provides recommendations and revisions 
to the Strategic Planning Guidance ensuring U.S. forces continue to 
operate from a position of overwhelming military advantage. OFT also 
conducts an annual Strategic Transformation Appraisal of Defense 
Transformation. In this appraisal, OFT identifies key barriers to 
military competition that are systemic across the DOD and identifies 
joint capabilities gaps. OFT's Transformation Trends highlights new and 
emerging issues for key decisionmakers within the Department, the 
military services, commercial industry, and the technology world.
    Admiral Clark. The Navy interacts directly with OFT to produce the 
Naval Transformation Roadmap. This is an annual DOD requirement and 
includes our current projects and near- and long-term objectives. OFT 
analyzes the service and joint roadmaps and provides feedback to the 
services individually and to DOD leadership collectively. Additionally, 
OFT leads a congressionally-mandated study of Naval Architecture this 
year. Navy officials have provided briefings and data to the OFT in 
support of this effort.
    General Jumper. OFT is a key player in most aspects of OSD's 
transformation strategy articulated in Secretary Rumsfeld's 
Transformation Planning Guidance. It regularly meets and coordinates 
with the Services and JFCOM to help guide transformation roadmap 
development. OFT uses these roadmaps, which include the Air Force 
Transformation Flight Plan, as well as DOD science and technology 
efforts and other sources, to conduct the annual ``Strategic 
Appraisal'' of DOD transformation. In this appraisal, OFT identifies 
major issues or shortfalls that may exist across the DOD impeding 
transformation progress. These shortfalls provide inputs to OSD's 
Strategic Planning Guidance, which, in turn, informs future Service POM 
development. Finally, OFT initiates rapid RDT&E programs through the 
Transformation Initiative Program and the Joint Rapid Acquisition 
Program.
    With regard to the Air Force specifically, OFT is collaborating 
with us on several programs. OFT and the Air Force Research Laboratory 
(AFRL) are working together to develop the new Rapid Response Launch 
Vehicles for tactical satellites (launch is scheduled for May). We are 
also working with OFT on developing airborne relay mirrors; adding 
transformation to our academy and professional military education 
curriculums; and in inserting transformational concepts into our 
Service wargames. 
    General Hagee. The OFT has a direct role in influencing how our 
transformational objectives will be pursued. Under the guidance from 
certian documents like the Transformation Planning Guidance, as well 
as, joint documents such as the Joint Operations Concepts, and the 
Joint Operating Concepts, the Marine Corps, in conjunction with the 
Navy, develops an annual Naval Transformation Roadmap. Shortly 
thereafter, OFT conducts a strategic appraisal of the DOD, that 
provides valuable feedback on the capabilities and strengths of each 
Service's transformational plans in the current-, near-, and far-term. 
By performing these efforts, OFT ensures that the individual service 
efforts match the joint environment and the goals set forth by the 
Secretary of Defense.
    The ultimate objective is a rational, sustained effort to create 
and maintain a concept-based force development system. By setting 
transformational goals early in the planning process, prioritized 
decisions can be made to ensure that the right initiatives are pursued 
in support of our vision of the future joint force.
    Additionally, certain joint transformational concepts are 
championed by OFT and influence our naval concepts, as well as, our 
capabilities development. For instance, the Sense and Respond Logistics 
concept is an OFT-sponsored initiative to improve our naval concept of 
sea basing and at the same time provides joint capability enhancements 
for the JFC. Sense and Respond Logistics is envisioned as an approach 
that yields adaptive, responsive demand and support networks that 
operate in alternate structures that recognize operational context and 
coordination.

              support to national guard and reserve forces
    86. Senator Lieberman. General Schoomaker, Admiral Clark, General 
Hagee, and General Jumper, I realize that a great deal of effort has 
been put on the fielding of IBA and up-armored HMMWVs to all of our 
military and civilian personnel engaged in combat operations world-
wide. The DOD has made progress working with industry officials and 
greatly increasing production of these critical force protection 
supplies. This good work, however, does not excuse the fact that our 
military was woefully unprepared and ill-equipped to engage in a low 
intensity type conflict, as we are currently experiencing in Iraq. 
Furthermore, I have received countless correspondences from concerned 
Connecticut residents, whose loved-ones are valiantly serving in 
deployed Guard and Reserve units supporting OIF. However, these men and 
woman have not been adequately provided critical assets needed to 
perform their duties: ammunition, personal protection devices, armored 
vehicles, etc. With the military promoting a Total Force concept, where 
Guard and Reserve units play an active and important role in conducting 
operations as Active-Duty Forces, it is inexcusable that these brave 
men and women are not adequately supported by there leadership. What 
are you doing to ensure that this situation does not occur in future 
combat or peacekeeping deployments?
    General Schoomaker. We can do two things. First, we can plan for 
potential requirements beyond those in approved program levels and 
second, we can add options into critical contracts to allow for 
accelerated production. This will encourage more proactive thinking 
about contingency requirements and potential obstacles to rapid 
production and may reduce risk. However, this will not eliminate all 
risk. The noncontiguous urban threat of OIF necessitated that every 
soldier and DOD civilian in theater receive body armor. This was a 
divergence from the original guidance to issue only combat soldiers 
body armor. Once we recognized an increased risk, the requirement 
changed and the procurement system then used all possible means to 
respond. We will work to improve our procurement system, but we cannot 
eliminate all risk from changing threats.
    Admiral Clark. We undertook a comprehensive effort to ensure all of 
our personnel participating in OIF were properly equipped for the types 
of operations they were asked to perform. Based on lessons learned from 
last year, we have restructured unit allowance lists for many of these 
units, such as Naval Construction Force (``Seabees'') and Expeditionary 
Logistics Support Force (cargo handling) units, to upgrade their 
personnel protection capabilities to meet new mission requirements. 
Navy resource sponsors have realigned current year funds to provide the 
identified new, or additional, gear to those units. The Navy makes no 
distinction in equipping its Active and Reserve Forces for deployment 
to OIF. Like units with like missions, are equipped the same to safely 
perform their operational duties. Additionally, we have made every 
effort to ensure that all Navy individuals enroute to the CENTCOM 
theater receive everything needed to maximize their safety while on the 
ground by sending them through one of the two Army continental United 
States (CONUS) Replacement Centers (Reserve components). As our 
missions evolve in the future, we will continue to evaluate planned 
operating environments and to resource Active and Reserve Forces to 
safely and effectively perform their designated missions.
    General Hagee. The Marine Corps is completely committed to ensuring 
that our Reserve Forces are equipped equally with their active duty 
counterparts. In particular, our procurement strategies for ammunition, 
personal protection devices and armored vehicles have been designed to 
provide Marine Forces Reserve, with the same equipment as I, II, and 
III Marine Expeditionary Forces (MEFs), the active duty commands to 
which our Reserve units join upon mobilization. Allow us to be more 
precise.
    1. Ammunition: Again sir, there is no distinction between active 
duty and Reserve marines for ground ammunition. Each marine receives 
sufficient ammunition assets to conduct all pre-deployment training 
including: weapons handling, individual live firing with known 
distance, unit cohesion engagement skills and any other type training 
deemed appropriate by any and all commander's from the unit level to 
the combatant commander. Live ammunition is initially issued in bulk 
and is referred to as a Combat Load. A Combat Load is the quantity of 
ammunition that can be carried on the individual marine's body or 
transported with organic vehicles. For example: the M16A2 Rifle Combat 
Load is 350 rounds of ball ammunition, ten rounds of tracer ammunition. 
Additionally, commanders at any level have the authority to increase 
Combat Loads, based on their personal threat assessment, without 
recourse. Ammunition re-supply or sustainment is provided daily in 
sufficient quantities to regenerate each marines original Combat Load. 
The Marine Corps has sufficient quantities of ammunition in the CENTCOM 
AOR to sustain all deployed Marine forces for extended periods at 
intense (assault) engagements levels. Globally, the Marine Corps has no 
shortages of ground ammunition to support deployed forces. To date, 
since the inception of the global war on terrorism (OEF, OIF 1, OIF 2), 
there has been no ammunition shortages for Marine Corps Forces deployed 
during combat operations. We are confident that our ammunition 
processes and funding profile will continue to ensure that sufficient 
ammunition is available for future combat or peacekeeping operations 
for both our Reserve and Active Forces.
    2. Personal Protection Devices: As in the case of ammunition there 
is no distinction between active duty and Reserve marines in terms of 
equipment for personal protection. Essentially, when we refer to 
personal protection in regard to the global war on terrorism (OEF, OIF 
1, OIF 2) we are referring to the procurement and issue of SAPI plates 
and the OTV in which the SAPI plates are worn. At the outset of OIF the 
USMC was already producing SAPI plates and OTVs to equip all our 
forces. However, the surge demand for combat in OIF 1 required us to 
not only shift our fielding plans to focus all items coming off the 
production lines to I MEF's Reserve and active duty units but to also 
direct some redistribution of SAPI plates and OTVs from the other MEFs 
in support of I MEF. To date, the Marine Corps has completed the SAPI 
plate fielding push required to meet the OIF 2-1 requirement, resulting 
in all active and Reserve marines deployed in theater having two SAPI 
plates and one OTV. We are now returning to the established fielding 
rate of 4,800 plates per month over the next year. In addition, we are 
preparing to let a contract, in support of OIF 2-2, for an additional 
14,000 plates with delivery this summer. We anticipate an estimated 
delivery of 18 months to meet our acquisition objective of 267,154 
plates. In the interim, the Marine Corps will redistribute plates as 
necessary to both Reserve and active duty units in order to meet any 
emergent contingencies requiring future combat or peacekeeping 
deployments.
    3. Armored Vehicles: As with all our efforts to equip our forces 
there have been no distinctions with our active duty and Reserve 
marines in regard to armored vehicle procurements. As we saw in OIF 1, 
the balance of armored vehicles to unarmored vehicles within our Marine 
formations (i.e., Tanks, Assault Amphibious Vehicles (AAVs), Light 
Armored Vehicles (LAVs), armored HMMWVs versus un-armored HMMWVs and 
trucks) served us very well in the swift defeat of Iraqi conventional 
formations. As we are just now beginning the re-introduction of Marine 
Forces back into Iraq in support of OIF 2-1, the USMC has accomplished 
a surge effort to augment vehicle hardening armor within our tactical 
wheeled vehicle fleet (i.e., HMMWVs and trucks) ensuring that every 
Marine HMMWV and truck with I MEF's Reserve and active duty units in 
Iraq will have armor kits available by March 19. Concurrently, we are 
reassessing our long-term tactical wheeled vehicle armoring strategy 
and have directed the Marine Corps Combat Development Command to 
recommend an appropriate mix of armored to unarmored tactical wheeled 
vehicles for foreseeable future contingencies. In the interim, we are 
confident that if necessary to support imminently emergent future 
combat or peacekeeping operations we will be able to conduct another 
surge effort to provide ``just-in-time'' armor kits.
    In closing, I want to assure you, yet again, that inside the Marine 
Corps there is no differentiation between our Active-Duty Forces and 
our Reserve Forces when it comes to equipment for combat, especially in 
regard to efforts to prepare for future combat. Our transformation 
efforts whether through our Marine Corps Warfighting Lab, through 
Advanced Concept Technology Demonstrations (ACTD) or through other 
venues consistently rely on Reserve participation and input. Each 
marine's welfare and success in battle is foremost in our efforts and 
every marine will receive our unstinting efforts in their behalf now 
and in the future.
    General Jumper. The Air Force remains committed to ensuring all our 
airmen (Active Duty, Guard and Reserve) are equipped to meet current 
and future requirements across the realm of military operations. We 
strive to ensure Air Force solutions to capability and equipment 
shortfalls are ``total force'' solutions that provide continuous 
seamless integration of the Air Reserve component when called to 
action. The challenges our airmen are facing in OIF both demand and 
deserve our utmost attention and we are committed to solving those 
issues. The Air Force is working aggressively to equip all of our 
warfighting airmen to ensure mission accomplishment at the least 
possible risk. For example, we have provided 8,000 sets of IBA to our 
deployed personnel and we are focused on completing a $100 million 
central purchase of IBA. We are also working closely with the Army and 
the Joint Staff to reallocate limited resources, such as up-armored 
vehicles, to ensure those critical assets are available for the 
combatant commanders' highest priority missions.

                        post-conflict operations
    87. Senator Lieberman. General Schoomaker, Admiral Clark, General 
Hagee, and General Jumper, in response to the many lessons learned from 
the military's difficulties in post-war Iraq, I understand that the 
Pentagon has begun an investigation into the creation of a military 
force specializing in peacekeeping and reconstruction activities 
following future conflicts. What can you tell me about your overall 
vision for this capability?
    General Schoomaker. Rather than have a portion of our forces 
specialized in a niche array of tasks, the Army's modular brigade units 
of action will be organized to perform in a variety of roles and 
missions. In order to maintain our flexibility and a depth of 
capabilities for long-term rotational operations, our forces will be 
multi-functional rather than narrowly focused. Our objective is to 
create a force that can sustain a rotational campaign-level of effort, 
in which forces can rapidly transition from traditional combat 
operations, such as raids and deliberate attacks to stability and other 
support and stability tasks, such as presence patrols and 
reconstruction efforts. Our recent experiences tell us we must be able 
to transition literally overnight--to the point of executing combat 
operations in one sector, while simultaneously performing stability 
operations in an adjacent sector. In fact, our successes in stability 
and support operations have been greatly enabled by our ability to 
rapidly shift from traditional peacekeeping tasks in order to conduct 
decisive offensive action.
    Admiral Clark. My vision for the future of these operations ashore 
is fundamentally and necessarily about how we will conduct operations 
at, and from the sea. By providing a joint, networked and secure sea 
base from which to apply persistent sensors, command and control, 
strike and logistics, we can ensure that we have not just a smaller 
logistic and support footprint ashore, but the right footprint ashore. 
Additionally, by moving a large proportion of supporting fires and 
tactical aircraft to sea, we could reduce our force protection 
requirements as well. Thus, we can focus more of our marines and 
soldiers on the ground toward accomplishing, rather than supporting the 
mission.
    This is part of what I like to call the strategic speed and 
operational agility that we, along with our number one joint partner, 
the United States Marine Corps, are in the process of improving. 
Together, we are working toward a naval force that can rapidly seize 
the initiative on the kinds of non-contiguous and chaotic battlefields 
that are so prevalent in Iraq. We will achieve that kind of speed and 
agility by getting lighter, by investing in C\4\ISR and precision 
fires, and by fundamentally altering our concepts of operation.
    General Hagee. Marine Forces are trained and equipped for success 
in the full spectrum of combat operations. We view peacekeeping and 
reconstruction activities as routine operational requirements which are 
encompassed within our scope of operations. Our troops are adept at 
transitioning from combat operations to peacekeeping and reconstruction 
operations. We view peacekeeping and reconstruction operations as the 
foundation for the successful re-establishment of stabilization in a 
post combat environment and are prepared to remain until civil 
authorities become capable of providing the basic needs of their 
society. We remain committed to maintaining our dedication to 
warfighting excellence in these operational areas.
    General Jumper. The Air Force currently operates at all levels of 
the spectrum of operations providing a diverse range of capabilities 
from close air support to humanitarian assistance to ISR. The Air Force 
studied lessons learned from Afghanistan and was able to incorporate 
those lessons directly into Iraqi operations. Logistics planning 
allowed a comprehensive base draw down, while at the same time 
effectively supporting humanitarian airlift operations. The use of 
radio frequency tags enhanced in-transit visibility and automated 
decision tools allowed airlift planners to maximize limited staging 
space. Additionally ISR operations, especially UAVs provided valuable 
support in reconnaissance and surveillance of potential hotspots. All 
the while, space systems provided precise location for GPS equipped 
units and equipment, and over the horizon communications. The Air Force 
has placed airmen in Combined Joint Task Force-7 (CJTF-7) and CENTCOM 
to ensure that the full range of air and space power meets the 
combatant commander needs. Because of the flexibility of the Air 
Force's projected force structure, the Air Force will continue to make 
substantial contributions to efforts to attain stability and restore 
conditions that can promote democracy and liberty.

    88. Senator Lieberman. General Schoomaker, Admiral Clark, General 
Hagee, and General Jumper, what level of interaction do you foresee 
this capability having with international forces, either through the 
United Nations (U.N.) or North Atlantic Treaty Organization (NATO)?
    General Schoomaker. We are designing our forces and command modules 
to be capable of joint and coalition operations. If the global war on 
terrorism continues at its current pace, we foresee significant 
interaction with coalition forces in order to achieve our common goals 
and objectives.
    Admiral Clark. I anticipate that we are going to have to continue 
to be able to work well with international forces if we are going to be 
successful in these types of operations. Ongoing NATO missions in 
Afghanistan, the Mediterranean Sea, and the Balkans demonstrate the 
high degree of interaction and interoperability required for 
international post-conflict operations. We expect that the 
interoperability between NATO forces, gained over many years of 
cooperative training and operations, will continue as a key element to 
our success in this regard. We have also gained important experience 
working with non-NATO forces in the post-conflict environment. In fact, 
since May 2003, there have been 85 maritime assets from 15 nations (see 
Table 1) employed by the Commander, U.S. Naval Forces, CENTCOM in 
support of OEF and OIF.
    One of the outcomes of all of this practical experience has been 
the emergence of a need to enhance our ability to exchange secure data 
with our friends and allies. Given the level of interaction with them 
that we expect in future operations, we have pursued a technology 
called the Combined Enterprise Regional Information Exchange System 
(CENTRIXS). This is a standing global network allowing U.S. and 
coalition nations to share secure operational and intelligence 
information in support of combined planning and decision making in 
multinational operations. CENTRIXS, already being used by several 
partner nations, is scheduled for full certification in the fall of 
2004.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    General Hagee. The Marine Corps continually evaluates new 
techniques and technology to address the unique requirement of this 
operational environment. This includes the re-evaluation and potential 
incorporation or modification of previously utilized strategies. This 
includes the Marine Corps' own historical lessons learned as well as 
other Services, as applicable to Marine Corps contribution to joint 
operations in OIF 2.
    General Jumper. The U.S. Armed Forces historically rely on 
international forces, whether in coalition or alliances, to provide 
forces and capabilities to accomplish each military operation's 
strategic objectives and end-state. Throughout the operations of the 
last decade we have learned the positive impact regular training 
interaction brings to multinational operations culminating in unity of 
effort. I will continue to ensure any capabilities developed for the 
Air Force will account for the fact we are likely to deploy and employ 
in a multinational environment. As much as possible we will stress 
compatibility, interoperability, interchangeability, and commonality 
with not only NATO and the U.N., but other regional forces as well.

    89. Senator Lieberman. General Schoomaker, Admiral Clark, General 
Hagee, and General Jumper, what progress has the DOD made in developing 
a concept for transforming and implementing our military's post-
conflict force structure?
    General Schoomaker. The OSD has introduced several initiatives to 
shape transformation. OSD Transformation Planning Guidance and 
Strategic Planning Guidance (SPG) will help the Services properly 
structure their forces for the emerging strategic environment. We are 
implementing initiatives to transform our force, e.g., modularity, 
force stabilization, military to civilian conversions, and active 
component/Reserve component rebalancing which complement OSD's efforts. 
These Army initiatives will improve our broad-spectrum capabilities for 
both combat and post-conflict operations by increasing high demand 
capabilities such as infantry, military police, SOF, and various 
support units. They will improve our force readiness, decrease 
turbulence, and enhance our ability to respond quickly. Overall, the 
initiatives will yield a force that is more ready and relevant to the 
Nation's needs in war and peace.
    Admiral Clark. In light of our lessons learned from OEF and OIF, we 
are working with JFCOM, in concert with the Joint Staff, the other 
Services and the combatant commanders, to develop a set of concepts for 
conducting stability operations. When completed, these concepts will be 
integrated into the joint process to identify capability and 
supportability shortfalls, compare alternatives for improving joint 
capabilities, and lead to appropriate resource decisions.
    The Navy-Marine Corps team is working now to develop the concepts 
and design the structure that will help provide a joint, networked and 
secure sea base from which to apply persistent sensors, C\2\, strike 
and logistics. This would allow us to have not just a smaller logistic 
and support footprint ashore, but the right footprint ashore. 
Additionally, by moving a large proportion of supporting fires and 
tactical aircraft to sea, we could reduce our force protection 
requirements ashore as well. Thus, we can focus more of our marines and 
soldiers on the ground toward accomplishing, rather than supporting the 
mission.
    This is part of what I like to call the strategic speed and 
operational agility that we, along with our number one joint partner, 
the Marine Corps, are in the process of improving. Together, we are 
working toward a naval force that can rapidly seize the initiative on 
the kinds of noncontiguous and chaotic battlefields that are so 
prevalent in Iraq. We will achieve that kind of speed and agility by 
getting lighter, by investing in C\4\ISR and precision fires, and by 
fundamentally altering our concepts of operation.
    General Hagee. With regard to transformation plans and implementing 
our military's post-conflict force structure, the following is 
submitted. This is an excerpt from the February 12, 2004, Deputy 
Commandant, Plans, Policies, and Operations draft statement to the 
Subcommittee on Military Readiness of the House Armed Services 
Committee that was delivered on March 11, 2004.
    Opportunities for modernization are rare, and opportunities for 
true transformation come but once in a generation, if at all. That is 
why we feel compelled to emphasize here the importance of our 
acquisition priorities and program initiatives such as the MV-22 
Osprey, our number one aviation priority, the KC-130J, representing a 
significant increase in operational efficiency and enhanced refueling 
and assault support capabilities, the EFV which will reduce the 
vulnerability of our naval forces and greatly enhance operational and 
tactical mobility for our surface assault elements, the STOVL JSF which 
represents a great improvement in reliability and combat capability 
over existing legacy platforms, the Lightweight 155mm Howitzer, a more 
capable, deployable, survivable, and accurate weapon than current 
indirect fire systems, and the CH-53X and UH-1Y/AH-1Z aircraft which 
promise greater safety, survivability, and supportability over the 
current fleet of aging airframes.
    Concepts like Tactical Air integration, Logistics Modernization and 
Command and Control, and improvements in intelligence and information 
operations are equally essential to true transformation, and we are 
focusing our efforts on the technology and processes that facilitate 
transformation.
    Most important of all to our future readiness are our sea basing 
initiatives in partnership with the Navy. We hold a deep and abiding 
conviction that sea basing initiatives hold the greatest promise for 
transforming the Marine Corps-Navy team into a more flexible, 
responsive crisis response force, able of projecting power across the 
full spectrum of operational capabilities anywhere in the world.
    This year, the Marine Corps has continued to refine plans for the 
Marine Expeditionary Brigade of 2015, in concert with our concept for 
sea-based operations. Similarly, the analysis of alternatives for our 
Maritime Pre-positioning Force (Future), a critical component of sea 
basing, will provide valid choices for achieving sea basing 
capabilities. These initiatives will complement, rather than replace, 
the amphibious lift and forcible entry capacity of the LHA(R), LPD-17, 
and LHD, and will provide the Nation a deployment and employment 
capability unmatched in the modern world.
    In addition to the above items, the Commandant of the Marine Corps 
has recently directed experimentation with a concept for distributed 
operations, whereby Marine Forces will be able to operate in a more 
decentralized manner with smaller tactical units to better extend 
operation reach and control in an extended battlespace.
    General Jumper. The Air Force is not planning to create a separate 
military force to deal with post-conflict operations. The USAF 
currently operates at all levels of the spectrum of operations 
providing a diverse range of capabilities from close air support to 
humanitarian assistance to ISR. The USAF took lessons learned from 
Afghanistan and was able to incorporate those lessons directly into 
Iraqi operations. Logistics planning allowed a comprehensive base draw 
down while at the same time effectively supporting humanitarian airlift 
operations. The use of radio frequency tags enhanced in-transit 
visibility and automated decision tools allowed airlift planners to 
maximize limited staging space. Additionally ISR operations, especially 
UAVs, provided valuable support in reconnaissance and surveillance of 
potential hotspots. All the while, space systems provided precise 
location for GPS equipped units and equipment, and over the horizon 
communications. The USAF has placed airmen in CJTF-7 and CENTCOM to 
insure that the full range of air and space power meets the combatant 
commander needs. The built-in flexibility of the projected force 
structure will allow the Air Force to substantially contribute to 
efforts to attain stability and restore conditions that can promote 
democracy and liberty.

                  research and development off-shoring
    90. Senator Lieberman. General Schoomaker, Admiral Clark, General 
Hagee, and General Jumper, many experts in the defense and intelligence 
communities are seriously concerned about the loss to the U.S. economy 
of the high-end semiconductor chip-manufacturing sector to East Asian 
countries, the likely subsequent loss of the semiconductor research and 
design sectors, and the grave national security implications that this 
would entail. The composition of the global semiconductor industry has 
changed dramatically in recent years. National trade and industrial 
policies of East Asian countries which have capitalized on these 
changes are driving a migration of semiconductor manufacturing to that 
region, in particular to China, through a large array of direct and 
indirect subsidies to their domestic semiconductor industry. This 
migration is occurring at a time when these components are becoming a 
crucial defense technology advantage to the U.S., due to the present 
and future needs of advanced processors in the defense and intelligence 
communities. Informed elements of the military and intelligence sectors 
have made clear that relying on semiconductor integrated circuits 
fabricated outside the U.S. (e.g. in China, Taiwan, and Singapore) is 
not an acceptable national security option. Is the DOD engaged in 
analyzing this issue and are you planning to outline the potential 
long-term solutions of this problem with respect to the DOD?
    General Schoomaker. This is an effort led by the OSD, in which the 
Army participates. On October 10, 2003, the Acting Deputy Secretary of 
Defense for Acquisition, Technology, and Logistics (AT&L) established a 
strategy to ensure access to trusted suppliers of leading edge, 
critical integrated circuits in sensitive defense weapons. That 
strategy consists of identifying dependable producers and exploring 
needed refinements to the strategy.
    Admiral Clark. The DOD is engaged in this issue. On October 10, 
2003, the Deputy Secretary of Defense established a formal approach to 
ensure access to trusted suppliers of leading edge, critical integrated 
circuits for use in defense systems. The Department is actively 
exploring alternatives and has established a Defense Science Board Task 
Force to examine the subject, which began its study in March 2004.
    General Hagee. The Marine Corps depends on the semi-conductor chip 
industry for processing and delivering critical information and 
appreciates the national security implications of the industry's 
domestic decline and the potential security implications of relying on 
development and manufacture of semiconductor chips in foreign 
countries. The Marine Corps, however, has not yet linked this concern 
to the loss or threat of capability nor developed a service-specific 
solution to this situation and, as the matter effects the whole of the 
DOD, we respectfully defer to the leadership of the Joint Staff and/or 
the expertise of the National Security Agency (NSA) to address any 
long-term solutions the DOD has undertaken. 
    General Jumper. The Air Force analyzes source of supply issues on a 
case-by-case basis and has not addressed the semiconductor industry as 
a whole or focused on the movement of production capability offshore. 
However, this is an area being studied by the DOD and the current 
approach calls for establishing a ``trusted foundry'' to ensure 
critical defense systems have a trusted source of semiconductor 
components--a source that can manufacture sensitive defense designs in 
confidence, ensuring these components have not been modified or their 
integrity compromised, and can guarantee these components and the 
underlying technology are available when needed by the DOD.
    Where there is concern is in the move offshore of the materials and 
components used in building these integrated semiconductor components-a 
large portion of the companies manufacture items such as ceramic 
packages, high-purity silicon wafers, die materials, quartz products, 
resins, and optical equipment are foreign-based or foreign-owned. These 
items are not unique to military parts and the commercial market drives 
their economics and technology. However, with an annual world market 
for semiconductors and semiconductor equipment of almost $300 billion, 
the industrial base for these components should remain strong. As for 
the integration of these components, current military requirements are 
met predominately by the large vertically integrated United States 
defense manufacturers--companies such as Lockheed Martin, Northrop-
Grumman, Raytheon, and Honeywell who have design and fabrication 
capabilities to ensure military unique performance and security 
requirements are met.

    91. Senator Lieberman. General Schoomaker, Admiral Clark, General 
Hagee, and General Jumper, I understand that a foundry to ensure DOD 
access to a short- and mid-term supply of cutting edge integrated 
circuits may address immediate national security concerns. What kinds 
of long-term strategies are being considered to ensure DOD first and 
assured access to critical advanced components from trusted domestic 
sources?
    General Schoomaker. This is an effort led by the OSD, in which the 
Army participates. Long-term strategies being considered include 
assessing the possibility of additional research investments by the DOD 
and policy changes to help our integrated circuit suppliers compete in 
worldwide markets. 
    Admiral Clark. I understand that the DOD is actively exploring 
long-term strategies and has established a Defense Science Board Task 
Force to examine this subject. These strategies will examine the root 
cause of offshore migration, the options for policy and DOD investment, 
alternatives to onshore trusted foundries and the development of 
requisite inspection technologies, enabling alternative inherently 
trustworthy processing technologies. There are currently two trusted 
foundries producing Rad Hard circuits in the United States. I 
understand the DOD is using Title III funds to upgrade these foundries 
to support current and future DOD Rad Hard circuit requirements.
    General Hagee. The Marine Corps is aware of the NSA proposal to 
establish a trusted foundry to ensure DOD first and assured access to 
critical advanced components from trusted domestic sources. However, 
long-term strategies of this nature are developed and lead by the DOD. 
We respectfully defer to the NSA at the DOD/agency level to provide 
insight on the long-term strategies to be considered and developed.
    General Jumper. Maintaining a strong industrial base for integrated 
circuits is a key element to ensuring the DOD with first and assured 
access to critical advanced components from trusted domestic sources. 
The DOD's Manufacturing Technology program aids in this quest by 
developing manufacturing technologies that enable affordable production 
and sustainment of current and future weapon systems.
    Another option for assured access is the Defense Production Act 
Title III program, which establishes, maintains, and/or expands a 
production capability necessary for national defense. This program is 
currently being used to establish a domestic fabrication capability for 
radiation-hardened microelectronics to meet critical requirements from 
the combined space community, including the Air Force, the Missile 
Defense Agency, the National Reconnaissance Office, and the National 
Aeronautics and Space Administration.

    92. Senator Lieberman. General Schoomaker, Admiral Clark, General 
Hagee, and General Jumper, what programs currently exist that address 
the issue of first and assured access to critical advanced components 
from trusted domestic sources?
    General Schoomaker. The principal program facilitating first and 
assured access to critical requirements is the Defense Priorities and 
Allocation System (DPAS). This program implements authority contained 
in Title I of the Defense Production Act. DPAS allows us to work 
through the Commerce Department to require priority acceptance and 
performance of orders placed with domestic sources, if those orders are 
within their capability.
    Admiral Clark. I understand the DOD and the NSA have undertaken a 
pilot program to address the vulnerability of critical Application 
Specific Integrated Circuits (ASICs) used in mission essential defense, 
communications, and national security systems. The program is a first 
step to support in identifying short and mid-term solutions that could 
supply the Department with advanced technology trusted ASICs. It is 
consistent with the approach set forth by the Deputy Secretary of 
Defense on October 10, 2003. The program is further defined in the 
subsequent interim guidance on the use of Trusted Integrated Circuits 
set forth January 27, 2004, from the Office of the Under Secretary of 
Defense for AT&L. The pilot program covers the requirements to ensure 
trust from basic circuit design to the finished wafer scale devices 
(not yet delineated into individual dies or packaged at this stage). 
Additional trusted ASIC sources will be identified and certified as 
required in the ongoing program. If necessary, the pilot program will 
expand by engaging additional trusted domestic suppliers of critical 
high end ASICs to encourage multiple sources and increased access to 
the most advanced technologies.
    General Hagee. Headquarters, Marine Corps C4 Department is aware of 
the NSA proposal to establish a trusted foundry to ensure DOD first and 
assured access to critical advanced components from trusted domestic 
sources. We respectfully defer this response to NSA.
    General Jumper. As mentioned, the DOD's current approach to address 
the issue of first and assured access to critical advanced components 
from trusted domestic sources calls for establishing a ``trusted 
foundry'' to ensure critical defense systems have a trusted source of 
semiconductor components available when needed by the Department.
    In addition, the DOD's Manufacturing Technology program helps 
strengthen the industrial base by developing manufacturing technologies 
that enable affordable production and sustainment of current and future 
weapon systems. The Defense Production Act Title III program can also 
assist by establishing, maintaining, and/or expanding a production 
capability necessary for national defense as is currently being done in 
the case of radiation-hardened microelectronics.

    93. Senator Lieberman. General Schoomaker, Admiral Clark, General 
Hagee, and General Jumper, does the DOD have plans to maintain the 
critical semiconductor equipment industry (i.e. lithography, photo 
masks) in the U.S., either through a government-industry consortium or 
through more direct intervention?
    General Schoomaker. This is related to an effort led by the OSD and 
the Defense Advanced Research Projects Agency (DARPA). The Army 
participates. We understand that maintaining the critical semiconductor 
equipment industry will be addressed as part of an upcoming Defense 
Science Board study entitled: High Performance Microchip Supply. 
Separately, but in close coordination with OSD and DARPA, the Army does 
fund direct research of improved semiconductor fabrication equipment as 
part of our effort to achieve Army research objectives. We plan to 
continue that funding effort.
    Admiral Clark. The DOD does not currently have plans to address 
maintenance of the semiconductor equipment industry. However, if any 
aspect of the semiconductor industry changes in such a manner that 
creates vulnerabilities or diminishes capabilities, we will explore 
options and take necessary action.
    General Hagee. Respectfully, we must defer to the Joint Staff and/
or OSD to provide information on any DOD-wide plans to support the 
semi-conductor equipment industry.
    General Jumper. The DOD has not formulated any plans to establish a 
government-industry consortium or directly intervene in the 
semiconductor equipment industry. Accounting for less than 2 percent of 
total market sales of semiconductors and associated equipment, makes it 
difficult for the DOD to directly influence the industry. In fact, the 
last major consortium effort, SEMATECH, dropped Federal sponsorship in 
1996 and now includes international manufacturers. Instead, the DOD is 
currently pursuing a ``trusted foundry'' approach, which could 
contribute to the maintenance of a viable semiconductor industrial 
base.

    94. Senator Lieberman. General Schoomaker, Admiral Clark, General 
Hagee, and General Jumper, will Congress have the opportunity to 
discuss the proposed solutions as they evolve?
    General Schoomaker. Yes.
    Admiral Clark. I expect the DOD will continue, as always, to work 
with Congress to explore solutions for securing trusted 
microelectronics for our warfighters.
    General Hagee. The Marine Corps will afford Congress the 
opportunity to discuss proposed solutions that are participated in and 
in support of the operational requirements that are of interest.
    General Jumper. As mentioned, the DOD is currently looking to 
existing efforts, such as the ``trusted foundry'' approach, its 
Manufacturing Technology program, and the Defense Production Act Title 
III program to provide for first and assured access to critical 
semiconductor components. Should additional solutions become necessary, 
Congress will be an essential element in the formulation and 
implementation of a national policy with regards to the semiconductor 
industry and other critical industries that support national defense.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                   science and technology investment
    95. Senator Reed. General Schoomaker, Admiral Clark, General Hagee, 
and General Jumper, all of the Services have reduced their investments 
in transformational S&T programs significantly below the fiscal year 
2004 appropriated levels. What role do these S&T programs play in the 
transformation of our Nation's military?
    General Schoomaker. The fiscal year 2005 budget submission reflects 
the Army's sustained commitment to make leap-ahead S&T investments that 
will provide high payoff transformational capabilities for our 
soldiers. At $1.8 billion, the fiscal year 2005 S&T budget request 
continues the transformational programming strategy established last 
year.
    Army S&T is committed to providing America's Army with sustained 
overmatch in land combat. To do so, the Army S&T retains a dynamic 
portfolio of technology investments that is responsive to the 
warfighters' needs of today and the future. The Army S&T mission is to 
conceptualize and develop future leap-ahead technologies that are 
necessary to maintain a superior land combat capability unmatched 
anywhere in the world while exploiting opportunities to accelerate the 
transition of proven innovative technologies to enhance the 
capabilities of the Current Force. The Army's S&T program is well 
balanced to provide high payoff needs of the Future Force while seeking 
rapid transitions for critical capabilities into the Current Force.
    Admiral Clark. The Navy S&T accounts reflect the balance of 
priorities among the competing fiscal requirements. The fiscal year 
2005 Navy S&T budget request declines by 1.4 percent compared to the 
fiscal year 2004 budget request, but is well focused on supporting the 
warfighting capabilities outlined in the latest Naval Transformation 
Roadmap.
    The role of naval S&T is to guide innovation that will provide 
technology-based options for transformational Navy and Marine Corps 
capabilities, including capabilities that promise to fundamentally 
change how we prepare for, fight and win wars. A great deal of our 
transformational effort towards ``The Next Navy and Marine Corps'' is 
lodged in the Future Naval Capabilities (FNCs). We have strengthened 
alignment of the FNC process with the naval capabilities development 
process that establishes our warfighting program requirements and 
priorities.
    The relatively mature technologies involved in FNCs are in many 
cases the result of long term S&T investments in discovery and 
invention programs with 6.1 and early 6.2 funding. The focus of this 
discovery and invention portion of the S&T portfolio is largely on 
areas where the Navy is the only significant U.S. sponsor such as ocean 
acoustics and underwater weaponry. This stable, long term investment is 
essential to keeping the pipeline full of transformation enabling 
technologies for ``The Navy and Marine Corps After Next''.
    The final transformational S&T investment is in the area of 
Innovative Naval Prototypes. Examples of these ``game-changing'' 
technologies include the free electron laser, the electromagnetic 
railgun, unmanned underwater vehicles, the X-Craft, and super-
conducting electric drive motors.
    General Hagee. Naval S&T is pursuing innovative technology 
prototypes for equipment that we hope will have transformational impact 
in the future. There are numerous examples. We are developing a 
reconfigurable rotor blade for the MV-22 tiltrotor aircraft that when 
delivered will assist this revolutionary aircraft extend its range and 
load capacity to keep up with anticipated expansion of mission 
requirements. In effect, we are using S&T investment now to plan to 
upgrade a technology not yet operational.
    Another example is our investment in autonomous mobile sensors--
Dragon Eye UAV and Dragon Runner Unmanned Ground Vehicle--as a means of 
providing the tactical element on the ground to see over the next hill 
or around the next comer. Dragon Eye is in the process of fielding; 
however, when coupled with potentially transformational changes in 
concepts of operations for ground units our ground forces may emerge 
from planned experimentation over the next couple of years into a 
distinctly different force.
    Still another example includes technologies leverage off of GPS 
permitting ground forces to know precisely their own location. Systems 
such as Blue Force Tracker--and specifically the Iridium-based 
Expeditionary Tactical Communications System as a surrogate for a 
future low-earth orbit tactical communications network, coupled with 
projects such as the Target Handoff System (Experimental) providing 
precise targeting and the ability to digitally coordinate targeting 
between the forces on the ground and tactical aircraft, may open the 
door for emerging new concepts for employing distributed operations on 
the future battlefield.
    General Jumper. Air Force S&T programs play a pivotal role in the 
transformation of our Nation's air and space force. The United States 
Air Force is continuing to transform to a capabilities-focused 
Expeditionary Air and Space Force. We are doing this through the 
development of the CONOPs for each of the seven major tasks the Air 
Force must be capable of accomplishing to support the combatant 
commanders. Our goal is to make the warfighting effects and 
capabilities we need to achieve them the drivers for everything we do. 
This is especially true for our S&T program. We have taken the effects 
and capabilities required by the seven CONOPs and transformational 
goals and mapped them to the long-term challenges and the short-term 
objectives identified in the congressionally-directed S&T planning 
review completed in February 2002. A prime example of the role Air 
Force S&T plays in this transformation is in the area of space 
communications technology. We have increased our investment in this 
area and are working to identify, develop, and demonstrate the wideband 
technologies needed to build a space-based laser communications network 
to provide higher data throughput. There are other technologies, such 
as directed energy, microsatellites, and more that will significantly 
change future warfighting capabilities.

                       3 percent investment goal
    96. Senator Reed. General Schoomaker, Admiral Clark, General Hagee, 
and General Jumper, the DOD has again failed to meet its own goal of 3 
percent investment of the DOD topline into S&T programs. Does your 
Service still desire to achieve that 3 percent level?
    General Schoomaker. The Army supports the DOD's stated goal of 
investing 3 percent of Total Obligation Authority (TOA) in S&T. Over 
the past 4 years, the Army has sustained increases to its S&T 
investments to accelerate fielding the FCS and other Future Force 
capabilities while also seeking to identify mature technologies that 
can be provided to the Current Force--today's soldiers.
    Admiral Clark. The fiscal year 2005 Navy S&T budget request 
stabilizes funding at 0 percent real growth for the first time in 3 
fiscal years, and though it is not 3 percent of Navy TOA, it does 
provide a sufficient level of investment in this very important program 
for this year. Three percent remains our goal, but at the same time, we 
must recognize and balance competing investment priorities from year to 
year. We have done that in this year's budget and I expect we will 
continue to do so in the years to come.
    General Hagee. The Marine Corps complies with proposed Science 
Policy Council guidance to maintain or increase S&T investment at 
levels programmed in the fiscal year 2005 President's budget.
    General Jumper. The S&T funding goal of 3 percent applies to the 
DOD S&T program as a whole vice by individual Service. Therefore, when 
taking into account other non-Service S&T funding, such as funding 
managed by the DARPA, the individual Service goal can be lower. With 
respect to the Air Force S&T program, it is funded at almost 2 percent-
close to a more realistic goal of 2 to 2.4 percent. At $1.9 billion in 
the fiscal year 2005 President's budget, Air Force S&T is funded at a 
level to achieve the warfighting capabilities needed to support Air 
Force Core Competencies. I believe this is a more meaningful yardstick 
by which to measure the adequacy of S&T funding.

    97. Senator Reed. General Schoomaker, Admiral Clark, General Hagee, 
and General Jumper, is there a different investment goal that has been 
set for your Service?
    General Schoomaker. The Army is committed to a strong S&T program, 
but we have not set specific investment goals for S&T. We carefully 
evaluate our S&T investments to develop the technologies that will 
enable specific full spectrum capabilities for the Army's Future Force, 
while seeking opportunities to transition proven innovative 
technologies to the Current Force faster. 
    Admiral Clark. The Navy's investment goal has been established by 
the DOD. It complies with DPG, and is consistent with the other 
Services.
    General Hagee. The Marine Corps complies with proposed Science 
Policy Council (SPC) guidance to maintain or increase S&T investment at 
levels programmed in the fiscal year 2005 President's budget.
    General Jumper. The Air Force has not set a formal percentage 
investment goal for its S&T program. However, I feel that 2 to 2.4 
percent is a realistic goal and will maintain current and future 
warfighting capabilities.

                          defense laboratories
    98. Senator Reed. General Schoomaker, Admiral Clark, General Hagee, 
and General Jumper, what role do your defense laboratories and 
engineering centers play in the development of transformational 
technologies for your Service?
    General Schoomaker. The Army's laboratories and engineering centers 
play a critical role in developing and maturing the needed technologies 
in support of the Army's transformation objectives. A good example of 
the role the Army's labs and engineering centers have contributed to 
these objectives is the development and maturation of the Army's 
technology base in support of the FCS; the centerpiece of the Army's 
Future Force and key element of the Army's Transformation campaign 
plan. The Army's laboratories and engineering centers play a key role 
in maturing the technology base in partnership with the private sector 
to an adequate technical readiness level that enables the Army to 
proceed to a successful Milestone B system development and 
demonstration decision for the FCS. Additionally, the Army's 
laboratories and engineering centers helped to identify the critical 
technology areas deemed to be centrally important to successful 
development of the FCS architecture and its component platforms, and 
potential solution sources in order to achieve baseline threshold key 
performance parameters. The successful development of these critical 
technologies is essential to reduce the technical risk in the 
acquisition and fielding of the FCS equipped unit of action. As 
detailed engineering designs are developed and refined, it is expected 
that additional critical technologies will be identified in order to 
meet designated capability levels (threshold or objective). Here again, 
the Army's labs and engineering centers will play a major role in 
maturing these technologies to adequate technology readiness levels to 
achieve these needed capabilities for the FCS equipped unit of action.
    Admiral Clark. The labs and centers have a long history of 
developing technological innovations that have made significant 
contributions to transforming the fleet and force. The Navy's 
scientists and engineers continue to push the state of the art to 
achieve order of magnitude increases in warfighting effectiveness. As 
an example, the Naval Research Laboratory (NRL) continues its 
leadership in the development of unmanned platforms and technology for 
improved ISR capabilities. NRL has used its world-class expertise in 
these areas to deliver the Dragon Eye, a small UAV, for small unit 
tactical reconnaissance. The Dragon Eye is small, light, easy to 
transport, and easy to fly. Developed at NRL, this UAV has transitioned 
into the Marine Corps Force and is with the I MEF in Iraq. Scientists 
at NRL are continuing this effort to develop the next generation of 
transformational sensors and platforms in advanced tactical 
reconnaissance.
    General Hagee. Our laboratories and engineering centers, e.g., the 
NRL, Naval Surface Warfare Centers, and the Marine Corps Warfighting 
Laboratory, provide the synergy, expertise and coordination imperative 
for transformational technologies and experimentation.
    General Jumper. The various AFRL research sites are crucial in the 
development of the transformational technologies required as the Air 
Force continues to transform to a capabilities-focused Expeditionary 
Air and Space Force. In particular, there are many world-class research 
efforts ongoing across the AFRL. For example, we have completed and 
recently transitioned initial breakthrough work on eye and sensor laser 
protection developed at the Human Effectiveness Directorate, Brooks 
City Base, Texas, and at the Materials and Manufacturing Directorate, 
Wright-Patterson Air Force Base, Ohio. The information data wall 
currently being used in Afghanistan and Korea is the result of 
outstanding efforts by the Information Directorate at Rome, New York. 
We are also proud of our work at Tyndall Air Force Base, Florida, and 
their development of the Elastomeric Coating polymer, which is capable 
of protecting key buildings and installations from close proximity 
explosions, such as air dropped weapons or truck bombs and is currently 
being installed in the Pentagon Reservation. In addition to conducting 
world-class research, the AFRL works closely with universities and 
industry to focus their research efforts on transformational 
technologies relevant to the Air Force. These are but a few of the 
extraordinary contributions being made in our laboratory facilities 
around the country.

                  laboratory personnel demonstrations
    99. Senator Reed. General Schoomaker, Admiral Clark, General Hagee, 
and General Jumper, what is the status of the ongoing laboratory 
personnel demonstrations that are being executed at many of your 
Service laboratories?
    General Schoomaker. Since late fiscal year 1997, five Army-unique 
personnel demonstration projects were implemented under section 342 of 
the National Defense Authorization Act for Fiscal Year 1995. These 
demonstration projects were individualized experiments designed by each 
laboratory to meet its specific needs and requirements and they were 
``generally similar in nature to China Lake,'' that is, most civilian 
personnel management decisions were delegated to the laboratory 
director at each Army laboratory. Two additional Army laboratories have 
designed and submitted demonstration project proposals; however, those 
proposals were not approved due to the emergence of the OSD National 
Security Personnel System (NSPS) and the OSD Best Practices Initiative. 
One Army laboratory has been approved for a second, 5-year experiment 
by its local bargaining unit. Currently, OSD is in the process of 
replacing all Army laboratory demonstration project experiments with a 
personnel demonstration project known as the Best Practices Initiative. 
It is generally agreed that these personnel authorities have enhanced 
the ability of the Army laboratories to successfully discharge their 
mission of support to the warfighter.
    Admiral Clark. Our laboratory personnel demonstrations at the Naval 
Sea Systems Command Warfare Centers and the NRL are fully implemented 
and operating well. They will continue until such time as the DOD 
issues its final Federal Register notice for the DOD Best Practices 
Demonstration Project. Once this notice is published, the Best 
Practices Demonstration Project will supersede these Laboratory 
Demonstration Projects and both these demonstration projects and their 
employees will be converted to the Best Practices Demonstration 
Project. The conversion schedule is still to be determined.
    If the Best Practices Demonstration Project is not implemented 
prior to October 1, 2008, the DOD NSPS may supersede the Laboratory 
Demonstration Projects at that time.
    General Hagee. The following is a partial excerpt of what Admiral 
Cohen approved: ``Our current personnel demonstration projects at the 
Naval Sea Systems Command Warfare Centers and the NRL are fully 
implemented and operating well. They will continue until such time as 
the DOD issues its final Federal Register notice for the DOD Best 
Practices Demonstration Project. Once this notice is published, the 
Best Practices Demonstration Project will supersede these Laboratory 
Demonstration Projects and both these demonstration projects and their 
employees will be converted to the Best Practices Demonstration 
Project. The conversion schedule is still to be determined.''
    General Jumper. At present, the Air Force Laboratory Demonstration 
Project, or Lab Demo, is currently ongoing and continues to provide the 
AFRL with flexibilities key to hiring critical S&E talent. These key 
flexibilities include a simplified classification system, broadband pay 
levels, and contribution-based compensation, all of which have been 
very successful and have ensured lab-unique requirements were 
accommodated. Once the recently authorized NSPS is implemented we 
anticipate it will also produce positive results in shaping our S&E 
workforce.

    100. Senator Reed. General Schoomaker, Admiral Clark, General 
Hagee, and General Jumper, how have these demonstrations programs 
helped your laboratories fulfill their missions?
    General Schoomaker. The fundamental thesis of the Army's laboratory 
demonstration projects is to attract and retain a high-quality 
workforce to achieve quality Army laboratories and quality laboratory 
products. Army laboratories have been enhanced by providing individual 
laboratory directors/commanders greater managerial control over 
personnel functions and concurrently, expanding the opportunities 
available to employees through a more responsive and flexible 
laboratory personnel system unique to each laboratory, Specific 
demonstration project features which enhance the ability of the 
laboratory to attract high-quality employees include: (1) market-based 
salary setting by managers (broad banding), (2) new appointment 
authorities (Distinguished Scholastic Achievement and quality grouping 
which has abolished the OPM's ``Rule of Three''), (3) classification 
authority delegated to the laboratory director/commander, and (4) 
simplified classification which has transformed Army laboratories from 
antiquated classification-driven organizations to world-class 
performance-based laboratories, just to identify a few. Specific 
demonstration project features which enhance the ability of the 
laboratory to retain high-quality employees include: (1) compensation 
linked directly to employee performance which tracks straight to 
laboratory goals, (2) accelerated compensation for laboratory local 
interns, i.e., newly hired out of colleges/universities, (3) 
extraordinary performance recognition and compensation beyond that of 
the normal pay-for-performance processes, and (4) ability of the 
laboratory director to make a counter-offer (basic pay adjustment) as a 
result of a private sector employment offer to a mission-critical 
laboratory employee. The success of these demonstration features is 
illustrated by the fact that over the last 5 years, laboratories 
operating under provisions of personnel demonstration projects have 
been selected four out of five times as the Army's Research and 
Development Organization of the Year. These features, which mirror 
commercial practice, have further enabled the laboratories to become 
and remain competitive with their private sector counterparts. 
    Admiral Clark. These demonstrations have helped personnel managers 
hire and retain highly skilled scientists, engineers and technicians, 
pay higher starting salaries as a recruitment tool, and reward high 
performing individuals. We believe that these tools will help us 
compete with the aggressive private sector jobs market for these highly 
skilled people.
    General Hagee. The following was what Admiral Cohen approved: ``The 
ability to hire and retain highly skilled scientists, engineers and 
technicians is critical to effective execution of the tasks assigned to 
our laboratories and centers. The demonstration projects have had 
overall positive impact on laboratory effectiveness because management 
has the capability, flexibility, and authority to pay higher starting 
salaries as a recruitment tool and reward high performing individuals 
thus retaining more of their top performers. This is critical in these 
times of technical personnel shortages and an aggressive private sector 
jobs market for highly-skilled personnel.''
    General Jumper. As mentioned, the flexibilities authorized by 
Congress under the laboratory personnel demonstrations projects have 
been very successful in enabling us to hire critical S&E talent for our 
workforce. This infusion of talent has helped to revitalize and bring 
new ideas into the S&E community, providing a larger talent pool from 
which to draw as we continue our transformation to a capabilities-
focused Expeditionary Air and Space Force.

    101. Senator Reed. General Schoomaker, Admiral Clark, General 
Hagee, and General Jumper, are there any other specific personnel 
authorities that your laboratory directors need to better accomplish 
their unique Service missions?
    General Schoomaker. The DOD laboratories have identified a number 
of specific personnel authorities which would certainly provide the 
opportunity to further enhance the Army's laboratories, to include: (1) 
an increase in the pay cap of difficult-to-recruit categories of DOD 
laboratory S&E to $200,000 (an authority provided to the National 
Institutes of Health); (2) an increase in the traditional 3R 
authorities (recruitment and relocation bonuses, and retention 
allowances) to 100 percent of basic pay, to permit retention allowance 
lump sum payments, and to permit the option of retention allowances as 
increases to basic pay, in order for the DOD S&T laboratories to 
attract and retain top quality S&E; (3) concurrently, to ensure a 
continuing flow of fresh new young S&E talent into the DOD laboratories 
by providing a financial incentive to older S&E to retire, an increase 
in the Voluntary Separation Incentive Pay to $50,000; (4) personnel 
services contracting to hire administrative and clerical labor, 
currently prohibited by Federal Acquisition Regulation 37-104, which 
would permit the laboratories to devote scarce in-house resources to 
the laboratory missions of research, development, and engineering 
support; and (5) restoration of the section 1113 authority from the 
National Defense Authorization Act for Fiscal Year 2001, which provides 
the ``authority for the experimental personnel program for scientific 
and technical personnel'' which terminates in October 2005. The full 
range of additional authorities for Army laboratory directors and 
commanders, requiring either new legislation or DOD policy revision, 
can be found in OSD, Research and Engineering, commissioned study 
titled ``DOD Laboratory S&E Workforce Framework of HR Features for the 
Alternative Personnel System'' published on September 30, 2002.
    Admiral Clark. There are two such authorities in the area of S&E 
candidate recruiting that would help to better accomplish our 
laboratory missions.
    First, authorization of a Direct Appointment of National Research 
Council (NRC) and American Society for Engineering and Education (ASEE) 
Postdoctoral Fellowship Program Participants upon successful completion 
of their programs would eliminate a duplicative, second competitive 
action under current Federal Government Direct Hire or Delegated 
Examining Authority. This could streamline the recruitment process 
(reducing work hours by an estimated 24 hours per case), and reduce 
hiring time by 4 to 12 weeks.
    Second, authorization of a Direct Appointment Authority for 
scientific, engineering, or medical occupations, to include an 
exemption from Title V hiring regulations, would provide true ``on-the-
spot'' hiring authority. This authority would be applied only to those 
positions and occupations that meet the criteria of the OPM Research 
Grade Evaluation Guide or Part III or the OPM Equipment Development 
Grade Evaluation Guide and require specialized experience.
    General Hagee. Not all the labs and centers need exactly the same 
personnel authorities, as their staffing and recruiting challenges are 
often different. For example, some of the Navy's warfare/systems 
centers need to fill large numbers of entry-level positions every year, 
so the flexibility granted by their demonstration projects (categorical 
ranking and distinguished scholar) have been of benefit to them. In 
contrast, more than half of the hires made by the NRL are PhDs with 
specialized experience at the GS-12 level or above, so such open 
registers are of lower utility.
    Below are two specific personnel authorities that would benefit 
some or all of the Navy labs and centers.
Recommendations to Improve Recruitment of S&E Candidates with 
        Specialized Experience
    (1) Authorize a Direct Appointment of NRC and ASEE Postdoctoral 
Fellowship Program Participants upon successful completion of their 
associateship programs. This proposal would allow the appointment of 
specially qualified NRC and ASEE participants upon completion of their 
associateship program. NRC and ASEE Participants compete through an 
extensive national recruitment effort and rigorous evaluation scheme to 
qualify for consideration. This competition is significantly more 
stringent than the competition required under the Direct Hire or 
Delegated Examining Hiring Authorities. This proposal, if accepted, 
would eliminate a duplicative, second competitive action under current 
Federal Government Direct Hire or Delegated Examining Authority, 
streamline the recruitment process (reducing work hours by 24 hours per 
case), and reduce hiring time by 4 to 12 weeks.
    (2) Authorize a Direct Appointment Authority for scientific, 
engineering, or medical occupations. This proposal, which includes an 
exemption from Title V hiring regulations, would provide a true ``on-
the-spot'' hiring authority for scientific and engineering research 
positions in professional scientific, engineering, or medical 
occupations that meet the criteria of the OPM Research Grade Evaluation 
Guide or Part III or the OPM Equipment Development Grade Evaluation 
Guide and require specialized experience.
    General Jumper. Previously mentioned flexibilities, such as a 
simplified classification system, broadband pay levels, and 
contribution-based compensation, have been very successful and have 
ensured lab-unique requirements were accommodated as we worked to hire 
critical S&E talent for our workforce. Once the recently authorized 
NSPS is implemented, we anticipate it will also produce positive 
results in shaping our S&E workforce. Until NSPS is fully implemented, 
it is too early to forecast if additional personnel authorities will be 
required to recruit and retain S&E talent for the laboratory.

                          repair requirements
    102. Senator Reed. General Schoomaker, you say in your posture 
statement that the Army has determined repair requirements for all OIF 
I units, and that the resulting workload is ``immense'' and a 
``significant expansion of normal maintenance activities.'' You state 
further that Army readiness is directly dependent on the reset program, 
and that ``continued resourcing will be needed'' to ensure the Army's 
recovery from current operations. What is the total estimate for the 
Army's reset program, at present?
    General Schoomaker. The initial fiscal year 2004 cost estimate to 
reconstitute OIF and OEF equipment was based on experience from past 
operations, in-theater technical inspections, and emerging maintenance 
data emanating from current operations. The reset plan takes into 
consideration the full spectrum maintenance operations, from 
organizational level to depot. The estimate for fiscal year 2004 reset 
totals $5.2 billion: $2.9 billion for 10/20 and delayed desert damage, 
$1.5 billion for depot maintenance, and $.8 billion for Army 
prepositioned stocks, munitions, and second destination charges. 
Estimates are for the fiscal year 2004 reset; we have not identified 
fiscal year 2005 reset cost requirements.

    103. Senator Reed. General Schoomaker, how much of this has already 
been funded by the fiscal year 2004 supplemental?
    General Schoomaker. The fiscal year 2004 emergency supplemental 
funded $1.2 billion in depot maintenance requirements and $2.0 billion 
in 10/20 level maintenance and delayed desert damage. Additionally, we 
received another $208 million for transportation to move equipment to 
the depots and to commercialize some in-theater communications 
capability. This was particularly important in that it permitted us to 
redeploy several of the Army's unique communications units who were 
approaching their 1-year mark for deployment. We also received $712 
million in investment funds to purchase communications equipment, 
replacement stocks for our prepositioned equipment sets, and lethality 
and survivability equipment for both active and Reserve component 
soldiers.

    104. Senator Reed. General Schoomaker, how much is included in the 
fiscal year 2005 budget request?
    General Schoomaker. As I stated earlier, the fiscal year 2005 
budget only addresses peacetime requirements. The Army staff is 
developing cost estimates for the repair of OIF 2 and OEF 4/5 equipment 
that will return from theater. At this point, it is too early to 
discuss those estimates with a high degree of confidence. I do know 
that the fiscal year 2005 budget request does contain $89.1 million to 
purchase lethality and survivability equipment for our troops.

    105. Senator Reed. General Schoomaker, how do you expect to fund 
the remainder?
    General Schoomaker. While we have not yet received guidance on the 
focus of an emergency supplemental for fiscal year, I would expect some 
of the reset requirements to be funded from that source. In addition to 
requirements for fiscal year 2005, there will still be outstanding 
requirements from fiscal year 2004, especially in the investment 
accounts. Reset requirements are incremental to normal peacetime 
operations and so far have been appropriate candidates for using 
supplemental funds. Reset is critical to future readiness. If funding 
for reset is not provided to the Army in a fiscal year 2005 
supplemental, we will be forced to balance risk within the base budget 
to meet the requirement. 

    106. Senator Reed. General Schoomaker, what is your current 
estimate of how much additional funding the Army would need from an 
fiscal year 2005 supplemental, at least for reset purposes?
    General Schoomaker. We have not yet received guidance from the OSD 
on what the focus of a fiscal year 2005 supplemental will be, but I 
have little reason to believe that resetting the force will be any less 
expensive than it will be for returning OIF I forces. Additionally, 
there will be some items we cannot get to in fiscal year 2004 for which 
the requirements will carry into fiscal year 2005.

                      university research programs
    107. Senator Reed. General Schoomaker, Admiral Clark, General 
Hagee, and General Jumper, what role do your investments in fundamental 
(6.1) research at small high-tech businesses and universities play in 
the fulfillment of your Service missions?
    General Schoomaker. The Army's basic research program produces new 
knowledge to fuel revolutionary advances and leap-ahead technology that 
enable Army Transformation. The program invests in world-class 
expertise (government, academic, and industry) and state-of-the-art 
equipment. It balances its investment between in-house Army unique 
research and leveraging external scientific research that has great 
potential for military applications.
    The Army maintains an extramural basic research program that is 
balanced between its two major components: (1) the single investigator 
program that invests in the brightest minds at our leading universities 
and is a key source of next-generation of scientists and engineers with 
an understanding of military problems, and (2) larger scale 
partnerships with universities and industry to take advantage of 
commercial investments and the cutting edge research at outstanding 
universities in areas critical to the Future Force.
    In regard to the second component, the external basic research 
program takes advantage of the power of academia and industry, focuses 
world-class research on Army challenges, allows flexibility to capture 
new discoveries, trains the next generation of scientists and engineers 
critical to the advancement of Army technology, and complements 
internal efforts through the following centers:

        <bullet> Collaborative Technology Alliances (CTAs) are 
        industry-led 6.1 collaborations between the government, 
        industry and academia, combining industry investment in areas 
        critical to transformation while taking advantage of cutting 
        edge research at universities, and the Army laboratories' 
        understanding of military requirements to leverage state-of-
        the-art technology for military applications.
        <bullet> University Affiliated Research Centers are university-
        led 6.1 and shared 6.2 collaborations between universities, 
        industry, and Army laboratories where industrial partners 
        provide competence in related technologies, expertise in 
        transitioning technologies from laboratories to the industrial 
        sector, and cost share.
        <bullet> Centers of Excellence are university 6.1 research 
        centers established by the Army, and provide partnering 
        opportunities between academia and Industry through cooperative 
        agreements, when there is a significant synergy between the 
        Center and the production capabilities of industry, but only 
        the university is funded.
        <bullet> The Army's new Flexible Display Center is university-
        led, with strong industry participation and collaboration with 
        Army laboratories but has 6.2, 6.3, and ManTech funding.

    The Army also engages small businesses with S&T investments through 
the small business innovative research program; however, this involves 
applied research. The Army continues to exploit the opportunities 
created by these organizations to accelerate development of 
transformational capabilities to a lighter, smaller, smarter, and 
faster force.
    Admiral Clark. The 6.1 (S&T Account) investments that we have made, 
including those made in small, high-tech businesses and in 
universities, have assisted in the fulfillment of the Navy's mission in 
one of the most fundamental ways possible: they have laid the 
groundwork for our future. Much of the maturing technology being 
delivered today for incorporation into platforms, weapons, sensors, and 
process improvements are the result of long-term investments in 
research and invention programs in 6.1 and early 6.2 funding 
categories. These investments also serve to attract the Nation's best 
scientific talent, most of which resides in small, high-tech companies 
and in universities. This helps focus them on uniquely naval problems 
such as Ocean Acoustics and Underwater Weaponry that might otherwise 
receive little attention.
    General Hagee. The Marine Corps has no 6.1 funding. The Office of 
Naval Research (ONR) supports the 6.1 requirements for the Navy. 
However, the following was what Admiral Cohen approved ``Yes, 
historically, The ONR's investment in basic research helps support the 
training of research S&E. The NRL receives a large share of the Navy's 
6.1 investment (roughly $100 million annually). The Navy's warfare 
centers and medical labs share the ILIR program (about $15 million 
annually). These funds are used to help develop appropriately trained 
scientists and engineers in key disciplines.
    In addition, ONR is working with the National Science Foundation 
(NSF) to start a $10 million pilot program, commencing in fiscal year 
2005, that is focused on bringing into the Naval Research Enterprise 
the next generation of scientists and engineers. This program, called 
N-STAR, is focused on revitalizing connections between the Navy's 
research and development centers and the university community.''
    General Jumper. Basic Research, or 6.1, plays a key role in the Air 
Force S&T program, laying the foundation for later Applied Research, or 
6.2, and Advanced Technology Development, or 6.3, efforts. In fact, Air 
Force ``core'' Basic Research is funded at $217.3 million in the fiscal 
year 2005 President's budget--an increase of almost $13 million or 
almost 5 percent real growth, over the fiscal year 2004 President's 
budget. With approximately 70 percent of Air Force 6.1 funding going 
primarily to universities and some small high-tech companies, they play 
a fundamental role in helping to fulfill our Air Force mission.

                personnel for commander joint task force
    108. Senator Reed. General Schoomaker, Admiral Clark, General 
Hagee, and General Jumper, I understand the decision has been made to 
establish a combined force headquarters in Iraq in between CJTF-7 and 
General Abizaid. I would like each of you to give me your military 
judgment about the need for an additional headquarters, as well as some 
estimate of how much each of your Services would be expected to 
contribute and the impact of providing still more senior servicemen and 
women as headquarters personnel.
    General Schoomaker. The Army is fully supportive of the combatant 
commander's structuring headquarters to provide the required command 
and control, unity of command, and unity of effort in their area of 
operations. It is important to have a headquarters structured to meet 
these requirements as the Coalition Provisional Authority (CPA) 
conducts the transfer of authority in Iraq. This new headquarters will 
focus on coordinating the counterinsurgency campaign, civil-military 
operations, building Iraqi security and Armed Forces capabilities, and 
reconstruction efforts.
    The planning for the combined force headquarters is ongoing; 
therefore, we do not have defined personnel requirements. It is 
anticipated that the new headquarters will be formed from existing 
headquarters, maximize the capabilities within those headquarters, and 
through efficiencies avoid large increased demand for additional senior 
soldiers.
    Admiral Clark. Senator, it is my understanding that this decision 
is not final. However, JFCOM has been directed to develop options and 
recommendations for replacing CJTF-7, the single joint headquarters 
currently responsible for all strategic, operational and tactical 
issues in Iraq, with a command structure that consists of two joint, 
combined headquarters: a multinational force headquarters that would 
tackle the strategic and politico-military issues in Iraq, and a 
subordinate warfighting headquarters that would focus on operational 
and tactical tasks.
    In my view, such a structure would improve current CJTF-7 
headquarters span of control challenges, enhance our effort to 
establish a secure and stable Iraq, and at the same time, permit 
General Abizaid to focus on integrating and commanding the larger war 
on terror and regional security efforts throughout all of CENTCOM. 
While the specific service manpower contribution is yet undefined, I 
expect to be able to address any manpower concerns as JFCOM's 
recommendation comes forward.
    General Hagee. As this question was generated in March 2004, it is 
overcome by events. CJTF-7 has become Multi-National Force Iraq (MNF-
I). The Commander of the CENTCOM is the appropriate entity to answer 
the question on personnel and force requirements to support any 
combined force headquarters.
    General Jumper. Doctrine and our current command structure informs 
us as to what this new combined force headquarters should be, and that 
is the Joint Force Land Component Commander (JFLCC) and staff. The 
JFLCC is responsible for planning coordinating and executing all land 
component actions in the AOR. The Air Component, commanded by the 
JFACC, is prepared and primed to provide the required support to the 
JFLCC in this endeavor. In addition, we are prepared to provide an Air 
Component Coordinating Element (ACCE) in the JFLCC headquarters as we 
did during OIF to facilitate and synchronize our operations. We feel 
this is the ``best practices'' option and should be used in this 
situation, as it is the most efficient for managing limited air 
resources. However, we will support the combatant commander's proposed 
C2 structure to the best of our ability and our limited resources. We 
will provide a limited ACCE, but we will not be able to field a 
component headquarter for this new combined force headquarters, nor do 
we believe it is best to distribute air resources down to this new 
command.

                                 budget
    109. Senator Reed. General Schoomaker, Admiral Clark, General 
Hagee, and General Jumper, I understand that, at the current pace of 
operations in Iraq and Afghanistan, you may still be short as much as 
$5-10 billion beyond funds provided in the fiscal year 2004 
supplemental. Is that true, and if so, how do you expect to address 
these shortfalls?
    General Schoomaker. Based on input from the field, we do have 
shortfalls. We are working to minimize these by asking our commanders 
to redouble their efforts to carefully review expenditures and 
reconcile supply requisitions to avoid duplication. As the field 
submits additional requirements, a group in the Army Staff, led by the 
Deputy Chief of Staff for Operations (G3), Lieutenant General Dick 
Cody, carefully reviews and validates them. Once requirements are 
validated, they are prioritized for available funding. To fund these 
critical, emerging priorities, we are reviewing all Army programs to 
determine if these new requirements are so compelling that we need to 
defer other planned expenditures to fund them. This is an ongoing 
process and it will undoubtedly continue through the remainder of the 
year. At mid-year, we will discuss shortfalls with OSD and we expect 
some relief. Right now, I believe we may need help in the range of 
about $3 billion for operations and maintenance-type requirements. 
Finally, we may have to come back with an omnibus reprogramming action 
to meet our most critical requirements.
    Admiral Clark. The fiscal year 2004 supplemental was predicated on 
a post-OIF pace of operations. For the Navy, this assumption has 
changed dramatically because of the decision to deploy a MEF and 
supporting Navy elements. Our current estimate is that the Navy will 
incur over $700 million in unplanned costs during fiscal year 2004 
related to this OIF 2 deployment. This estimate is likely to change as 
we gain experience with the pace of operations and actual return costs. 
At this time, the DOD plans to realign the necessary funds, both from 
the amounts provided in the supplemental and the fiscal year 2004 
appropriations act, to cover the increased costs of OIF 2.
    General Hagee. Our current shortfall estimate continues to evolve 
with recent deployments in support of OIF 2 and OEF 5. We intend to 
address these shortfalls with assistance from the Iraqi Freedom Fund 
(IFF) and internal reprogramming actions. The Marine Corps continues to 
work with the Under Secretary of Defense (Comptroller) to resolve the 
balance and address changing requirements as operating tempo and actual 
manpower fluctuate.
    General Jumper. The Air Force received $350 million less than 
requested for operations and maintenance (O&M) in the fiscal year 2004 
supplemental. We have asked the DOD for $252 million from the IFF for 
O&M items such as airlift, combatant commander support, and our support 
to the Army. Provided our current O&M program is not reduced, we 
believe we can make it to the end of the year through prudent 
management. However, we will have to bypass and/or delay some items or 
activities we deem important, but not mission critical.

    110. Senator Reed. General Schoomaker, I believe that the Army is 
currently spending about $3.5 billion each month to support operations 
in Iraq and Afghanistan, and that, assuming OIF 2 develops as is 
currently projected (that is, no major force reductions beyond what is 
already anticipated), you would run through your ``base budget'' by as 
early as March 2004. What is your current estimate for how much the 
Army would need to support planned operations in Iraq in fiscal year 
2005 and how soon do you need those funds?
    General Schoomaker. We are currently spending about $1 billion a 
month in military pay and an average of $2.5 billion a month in O&M to 
sustain operations in the global war on terrorism. These expenditures 
are incremental to our normal, peacetime operating costs. Our 
preliminary data for January indicates that we have a total year to 
date O&M expenditure, base program and global war on terrorism, of 
$19.4 billion. Our base O&M program for fiscal year 2004 is $25.5 
billion. If we had been forced to conduct our current level of 
operations without having received the fiscal year 2004 supplemental 
early in the year, we would be in a position to ``burn out'' in March.
    At this point, we have not received guidance from the OSD on what 
the parameters of a fiscal year 2005 supplemental will be. We would 
expect the parameters to include a cost of sustaining operations and we 
will develop cost estimates for resetting our returning units, but we 
do not know what the scope of the mission will be as we begin fiscal 
year 2005. If our fiscal year 2005 burn rate were similar to fiscal 
year 2004, we would exhaust our O&M base budget by mid-March 2005, and 
our military personnel, Army base budget by the end of May 2005.

    111. Senator Reed. General Schoomaker, how different would the 
impact be if you received those funds in October or November as opposed 
to March or April?
    General Schoomaker. We do not yet know the level of effort that 
will be required in fiscal year 2005. If we assume it will remain the 
same as what we are providing in fiscal year 2004, as you stated in 
your previous question, we would normally prefer to receive 
supplemental funding earlier in the year, rather than later. If forced 
to fund operations in support of global war on terrorism ahead of 
receiving a supplemental, we lose the flexibility to address critical 
emerging requirements and are forced to pay, in the short term, for 
current operations from our base appropriations. As an example, in our 
O&M program through end of January, a third into the fiscal year, we 
are 42 percent obligated overall. Without the supplemental, we would be 
about 76 percent obligated against our base O&M program. If we had not 
received the early supplemental, and with only a quarter of the base 
program left, we would be forced to defer nearly all spending beyond 
operations in the theater until supplemental funding is received.

    [Whereupon, at 1:03 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

                              ----------                              


                         TUESDAY, MARCH 2, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                          SERVICE SECRETARIES

    The committee met, pursuant to notice, at 9:34 a.m. in room 
SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Collins, Chambliss, Cornyn, Levin, Akaka, and Ben Nelson.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Brian R. Green, 
professional staff member; William C. Greenwalt, professional 
staff member; Ambrose R. Hock, professional staff member; 
Gregory T. Kiley, professional staff member; Thomas L. 
MacKenzie, professional staff member; Lucian L. Niemeyer, 
professional staff member; Diana G. Tabler, professional staff 
member; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Creighton Greene, professional staff 
member; Maren R. Leed, professional staff member; Gerald J. 
Leeling, minority counsel, Peter K. Levine, minority counsel; 
and Michael J. McCord, professional staff member.
    Staff assistants present: Michael N. Berger, Andrew W. 
Florell, and Nicholas W. West.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; John A. Bonsell, assistant to 
Senator Inhofe; Jayson Roehl, assistant to Senator Allard; Arch 
Galloway II, assistant to Senator Sessions; James P. Dohoney, 
Jr. and Derek J. Maurer, assistants to Senator Collins; Clyde 
A. Taylor IV, assistant to Senator Chambliss; Meredith Moseley, 
assistant to Senator Graham; Russell J. Thomasson, assistant to 
Senator Cornyn; William K. Sutey, assistant to Senator Bill 
Nelson; Eric Pierce, assistant to Senator Ben Nelson; and 
Andrew Shapiro, assistant to Senator Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, everyone. We have a most 
unusual day before us. The Senate has, on the floor, a series 
of at least five to seven amendments. The votes start at 11:30, 
therefore we're going to try and get this hearing completed in 
2 hours time; otherwise it would be a very considerable 
inconvenience to our distinguished witnesses.
    So we welcome you with that cheerful news. I know how well 
you've prepared, and you have, each of you, a half-hour opening 
statement, ready for a barrage of questions. [Laughter.]
    But I think, in this instance, Senator Levin and I will 
give short statements. We'll proceed, then, to receive 
hopefully somewhat abbreviated statements on your behalf, and 
then you'll just have to work with us as we have members coming 
and going through the course of the hearing.
    We start this hearing this morning with news reports out of 
Baghdad which are quite disturbing. In our hearts and minds are 
the welfare of the men and women of the Armed Forces and a very 
large number of civilians, who are doing their very best to 
bring about a degree of democracy in that troubled part of the 
world. So the posture statements this morning relate, of 
course, to the President's defense budget, which, in itself, is 
subject to scrutiny here on Capitol Hill by a number of persons 
who have considered the overall fiscal situation facing the 
Nation. Acting Secretary Brownlee, Secretary England, and 
Secretary Roche, we welcome you.
    We'll start by recognizing, again, the professionalism of 
the men and women of our Armed Forces, together with our 
coalition partners. They have been very successful in executing 
complex joint military operations around the world in the 
ongoing global war on terrorism. In Iraq and Afghanistan, our 
forces defeated brutal regimes quickly, with precision, and 
continue to provide stability and support as those nations move 
toward democracy. The men and women of the Armed Forces--
active, Reserve, and National Guard--supported by civilian 
employees and contractors, have performed magnificently. This 
is proof of the training, equipment, and readiness that you 
have provided, their service, and their sacrifices, and the 
sacrifices of their family--we always must remember that--are 
deeply appreciated, most particularly by those who lost their 
lives and those who bear the wounds of this conflict and the 
conflicts, of course, in Afghanistan.
    Military operations continue at a high tempo in Iraq and 
Afghanistan, the Balkans, and elsewhere around the world. At 
the same time, we must prepare now for the future, a future 
fraught with new threats and new challenges.
    The President's budget request anticipates this uncertain 
future. That's why this Senator strongly supports the 
President's budget, at the level of $401.7 billion for defense. 
The budget continues the President's strong commitment to 
safeguard America, and sends a strong signal, to the world, of 
America's resolve.
    Since our Nation was attacked on September 11, much has 
been asked of each of your respective Services. Over the past 
several years, we have seen hundreds of thousands of soldiers, 
sailors, airmen, and marines deployed around the world, to 
fight the global war on terrorism, and to maintain our forward 
presence. At the same time, we have asked the services to 
transform to meet future threats. We're all aware of the hard 
choices you must make in your departments when deciding whether 
or not to trade a dollar of today's readiness to invest a 
dollar in modernizing for this challenging and uncertain 
future. I know each of you is looking for better, more 
efficient ways to use your limited resources, from developing 
new capabilities, to introducing new organizational structures, 
to better integrating the Guard and Reserve with the Active 
Force. The Army's modular brigades, the Navy's fleet response 
plan, and the Air Force's aerospace expeditionary force concept 
are but a few of the innovations and capabilities that we look 
forward to discussing with you today.
    As Congress works its will on the President's budget 
request, we must be mindful of the potential problems. We are 
putting increased demands on our forces around the world, 
increased demands on their families, and increased demands on 
our Reserve and National Guard. We are fortunate, as a Nation, 
with a military that has responded to these demands with 
extraordinary commitment, but even the best military has its 
limits.
    As we perform our annual budget review, we must, and we 
will, carefully analyze the effects of these challenges on our 
men and women in uniform, and their families. Congress will, 
I'm confident, make the investments needed to ensure we have 
the people, the capabilities, and the facilities necessary to 
meet these future threats.
    There are many questions. To assist the committee, I hope 
each of you will address the following in your opening 
statements. Do we have enough people in your respective 
military departments, the right mix of people, and the 
capabilities in your departments to meet the threats of the 
foreseeable future? Are we doing all we can to ensure that our 
forces deployed overseas, both active and Reserve components, 
have the best possible equipment and support? Are the lessons 
learned from recent military operations being rapidly, real-
time integrated within your departments and the operational 
forces? As we reposition forces to meet new global threats, do 
we have the facilities, the infrastructure, and the mobility 
that we will need? Are we doing everything we can to provide a 
safe, constructive environment for the patriotic young men and 
women who volunteer to serve our Nation? These are but a few of 
the issues we hope to explore with you today.
    We have the best Armed Forces in the world. We don't say 
that boastfully. It's absolutely substantiated by fact. It can 
be sustained with smart investment, strong leadership, and the 
continued sacrifices of our individual soldiers, sailors, 
airmen, and marines, and their families. We will do our part by 
providing them the resources they need to successfully execute 
their missions in the cause of freedom, and to protect us here 
at home. I commend each of you. You've been in office now for 
some period of time, and I think you've done commendable 
performances in leadership of your respective departments.
    So, Senator Levin?

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman. Let me join you in 
welcoming our witnesses and thanking them for their service to 
this Nation.
    Our forces, as you indicate, Mr. Chairman, continue this 
year to be heavily engaged in ongoing operations, including a 
rotation of troops and equipment in and out of Iraq that has 
been said to be the largest since World War II. Nearly 120,000 
troops will depart Iraq, to be replaced by nearly 110,000 
others. The demand on the Active Force, particularly the Army, 
is so great that the proportion of Reserve component forces 
serving in Iraq will increase from the current 20 percent to 
nearly 40 percent of the total in this next rotation. Marine 
Corps units, which were withdrawn last summer, will be 
returning to Iraq in this rotation to replace some of the 
departing Army units. Those same Army units, after a very short 
rest, will be busy reorganizing, retraining, and refurbishing 
their equipment in preparation for a potential return to Iraq 
in a year's time.
    It is reported that 11,000 U.S. troops operating in Eastern 
Afghanistan are coordinating offensive actions more closely 
with Pakistani forces operating in Western Pakistan in a 
renewed effort to go after the principal terrorist threat to 
our Nation. Additionally, almost 40,000 more U.S. troops stand 
their ground in Korea, confronting the undeniably-serious 
conventional and potential nuclear threats posed by the regime 
in North Korea. Thousands more serve in stability operations in 
the Balkans and the Sinai, and now, once again, in our own 
hemisphere, in Haiti.
    So I join with you, Mr. Chairman and other members of this 
committee, in renewing our pledge to our military men and 
women, and to their families, that we will work to ensure that 
they continue to receive the best training and the best 
equipment that our Nation can provide, and that they and their 
families are appropriately compensated and supported as is 
befitting the service that they render to our Nation.
    The President's defense budget request for $420 billion 
represents an estimate of the cost of the normal operations of 
the activities within the defense budget function for fiscal 
year 2005. However, the budget does not include any request to 
support the incremental costs that our military forces in 
fiscal year 2005 will incur in continuing operations in Iraq, 
Afghanistan, or Haiti. Administration officials have further 
said that they do not intend to seek any funds for a 
supplemental to pay for these incremental costs this calendar 
year. That is not a responsible way to support our troops, and 
it is not responsible budgeting. We should provide for those 
costs that we can reasonably predict that our forces will 
incur. We should not force our Armed Forces to rob from 
existing requirements to pay for these operations.
    Congress provided an extra $65 billion to support 
operations in Iraq and Afghanistan during fiscal year 2004. It 
turns out that these funds will not even be sufficient to cover 
all the incremental costs of these operations until the end of 
the fiscal year. So we cannot count on any excess carryover 
funding to address these problems in fiscal year 2005 until a 
mid-year supplemental can be enacted.
    At an earlier hearing before this committee, the Chiefs of 
Staff of the Army and Air Force, the Chief of Naval Operations 
(CNO), and the Commandant of the Marine Corps all expressed 
concerned about waiting until after the end of calendar year 
2004 to submit a supplemental budget request. Hopefully, our 
service secretaries will tell us this morning whether they 
share the concerns of their service chiefs; and, if so, whether 
they are urging the Secretary of Defense and the President to 
seek such supplemental funding from Congress on an urgent and a 
timely basis.
    The delay in requesting the supplemental is only part of 
the problem. Press reports indicate that administration 
officials plan on asking for $50 billion in supplemental 
funding for fiscal year 2005, but the requirement will likely 
be much higher. In fact, Army officials have indicated that the 
Army's requirement alone may equal or surpass that amount. The 
Army Chief of Staff testified that the Army is currently 
spending $3.7 billion a month in Iraq, and $900 million a month 
in Afghanistan. He has also testified that he received approval 
from the Department of Defense to temporarily increase Army end 
strength by 30,000 soldiers, an increase that he intends to pay 
through supplemental appropriations. That will potentially add 
an additional cost of nearly $4 billion a year.
    One other point about supplementals. The current 
supplemental is probably insufficient to meet the current needs 
of the Armed Forces through September 30. Ongoing funding needs 
are apparently several billion dollars higher than that which 
the President requested from Congress and which we appropriated 
for the supplemental for this year. Consequently, the Army will 
have to find the funding in its regular budget this year to 
make up the sizeable difference.
    This under-funding of supplemental requirements is already 
having an effect on the transformation effort. Recently, the 
Army decided to terminate its only new helicopter program, the 
Comanche. Although the Army leadership has said that the 
changing operational environment, coupled with the emerging 
ability of joint systems to provide the capability originally 
intended of Comanche were factors in that decision, it seems 
clear that funding constraints were of equal, if not greater, 
significance.
    Meanwhile, the Army must still deal with significant 
unfunded requirements to complete armoring of trucks in Iraq 
and Afghanistan, and for the refurbishing of the heavily used 
equipment from those ongoing military operations.
    Having terminated its future air-combat system, I would 
hate to see the Army forced to do the same to its ground future 
combat systems to meet requirements related to ongoing 
operations that may also go unfunded by future supplemental 
appropriations.
    While perhaps not as extreme as the Army, the other 
services are facing similar challenges, as the leaders of those 
services have recently testified. We, in Congress, cannot allow 
those challenges to become problems through the neglect to 
address them on a timely basis.
    So, Mr. Chairman, I, again, look forward to discussing 
these and other issues with our witnesses this morning.
    Senator Inhofe [presiding]. Thank you, Senator Levin.
    Without objection, some of you who weren't here during 
Senator Warner's opening statement, we will have votes at 
11:30, and we're going to try to expedite this, so, if you 
don't mind, we won't have further opening statements, and we'll 
go right ahead into the opening statements of our secretaries.
    We'll start with Secretary Brownlee.
    Secretary Brownlee, let me mention, this morning we had an 
Army Caucus meeting. It was very well attended. General 
Schoomaker did an excellent job.
    We'll recognize you now for your opening statement.

  STATEMENT OF HON. LES BROWNLEE, ACTING SECRETARY OF THE ARMY

    Secretary Brownlee. Thank you very much, Mr. Chairman.
    Distinguished members of the committee, thank you for the 
opportunity to appear before you today, along with the 
Secretary of the Navy and the Secretary of the Air Force. When 
I appear before this distinguished committee with the wonderful 
public servants to my left, I have to admit, again, I feel much 
like a mule entered in the Kentucky Derby here, but I shall do 
my best.
    I'm especially honored to have the opportunity to testify 
before this distinguished committee on the status of the Army. 
I have a prepared posture statement, and, with your permission, 
would like to submit that statement for the record.
    Senator Inhofe. Without objection, all full statements will 
be a part of the record.
    Secretary Brownlee. Let me begin by expressing my gratitude 
for your tremendous support for our soldiers, who are serving 
our country around the world, as well as to their families at 
home. This support comes from the members, as well as from your 
dedicated, professional, and personal staff. Your interest and 
involvement in the Army's activities has made a significant 
difference in our soldiers' welfare and their mission 
accomplishment. To the Members and staff of this distinguished 
committee, on behalf of the United States Army, thank you all.
    I know that you're deeply interested in the great work our 
soldiers are doing, their training and morale, and how we are 
equipping them. In the last 9 months, I've visited our troops 
in Iraq three times, and those in Afghanistan twice, and 
traveled to our posts in Germany, South Korea, and here in the 
United States. I'm grateful to have the opportunity to share 
what I've learned with you.
    As Senator Levin indicated, we have proposed to grow the 
Army, temporarily, by 30,000 soldiers over the next several 
years, using the authority in title 10, and to be paid for from 
supplemental appropriations. We will plan to use these 
resources to stand up at least ten new combat brigades over the 
next several years, and we ask for your support in that 
endeavor.
    Many of you have asked me about measures we are taking to 
protect our forces in Iraq. I would like to address two in 
particular. First, the number of up-armored high-mobility 
multipurpose wheeled vehicles (HMMWVs) in the Central Command 
area of responsibility is now over 2,000, compared to about 500 
last spring. You will recall that when General Schoomaker and I 
testified before this committee in November, we estimated then 
that we would be unable to satisfy the CJTF-7 requirement in 
Iraq of 3,000 up-armored HMMWVs until May 2005. The committee 
indicated that they found that unacceptable, as did we, and we 
have worked with the manufacturers to steadily increase 
production of these vehicles, and will continue to do so, going 
from 185 produced this month, up to 220 per month by May, 
which, with summary distribution, will enable us to produce the 
current Central Command Combined Forces Land Component Command 
(CENTCOM CFLCC) requirement of 4,149 vehicles by August 2004.
    I've talked to the chief executive officers of these 
companies that build these up-armored HMMWVs, and visited their 
production lines. They are committed to and capable of 
increasing production rates to up to 450 per month to help us 
fill our requirements even faster. While this will require 
additional resources, I am working within my budget and with 
the Office of the Secretary of Defense (OSD) so that we can 
achieve this accelerated production level as quickly as 
possible.
    Second, there has been concern about every soldier having 
the best-available protection against bullets and explosive 
fragments. To provide this protection, we increased the 
production of interceptor body armor last fall, and are 
currently producing and shipping 25,000 sets monthly to the 
theater of operation. There are now sufficient stocks of 
interceptor body armor (IBA) to equip every soldier and the 
Department of Defense (DOD) civilian in Iraq and Afghanistan, 
and we will fill our requirement for the remainder of the 
soldiers and DOD civilians in theater by the end of this month. 
In summary, we are producing enough interceptor body armor so 
all soldiers now rotating into theater will be issued a set of 
body armor either before they deploy into Iraq or immediately 
after arrival in Afghanistan.
    Underlying everything we are doing and planning to do is 
the most important point I want to make here today. We are an 
army at war, serving a Nation at war.
    Let me comment on a matter of grave importance to the 
senior leadership of the Army, sexual assaults on soldiers by 
fellow soldiers. Such attacks not only weaken unit cohesion and 
lessen combat power, they are wrong. They will not be 
overlooked, and they will not be tolerated. The Army is 
committed to identifying and holding accountable those who 
commit such actions, as well as committed to providing proper 
care for the victims of such attacks. We are dedicated to 
creating an environment and command climate where these young 
women feel free to report these incidents through multiple 
venues: the chain of command, medical channels, chaplains, as 
well as their peers. We will properly care for those who have 
been assaulted, and investigate and take appropriate action 
against those perpetrating these crimes. It is the right thing 
to do, and we are going to do it.
    The Army provides relevant and ready campaign-quality land 
power to combatant commanders as a part of the joint force. To 
better do this, we are transforming the Army itself in response 
to lessons learned and experience gained by the Army's recent 
2\1/2\ years with combat in the global war on terror, as well 
as the operational environments envisioned in the foreseeable 
future.
    Last Monday, the Chief of Staff of the Army, General Pete 
Schoomaker, and I, announced the termination of the Comanche 
helicopter program as part of a major restructuring and 
revitalization of Army aviation. In lieu of completing 
development and procuring 121 Comanche helicopters in the 
fiscal year 2005 through fiscal year 2011 Future Years Defense 
Plan (FYDP), we will propose to reallocate these resources to 
procure almost 800 new aircraft for the active and the Reserve 
components. As a part of our total program over the FYDP, we 
will also enhance, upgrade, and modernize over 1,400 aircraft 
in our existing aviation fleet. This program to revitalize Army 
aviation reflects the changed operational environment, and will 
provide the modularity and flexibility we must have to achieve 
the joint and expeditionary capabilities that are so essential 
to the Army's role now and in the future.
    Additionally, we are restructuring our Active and Reserve 
Forces to meet the challenges of the day, and to more 
effectively use the resources that Congress and the American 
people have entrusted to us. This is an ongoing process, and we 
will keep Congress fully informed.
    The fiscal year 2005 President's budget we've submitted, 
when amended to reflect the termination of Comanche, represents 
a balanced consideration of both our current and long-term 
requirements, and provides our Army with the resources we need, 
excluding war-related costs.
    The tempo of our current operations is high, and has human 
and material costs. We appreciate the assistance of Congress in 
addressing these issues as we work to restore our units and 
equipment to the high levels of readiness necessary to continue 
to meet our obligations to the Nation.
    In all that the Army has accomplished, and in all that it 
will be called upon to do, the American soldier remains the 
single most important factor in our success. Today, our 
soldiers are present in over 120 countries around the world, 
representing the American people and American values with 
courage and compassion.
    I want to express my appreciation for the service and the 
enormous sacrifices made by our soldiers, especially those who 
have given the last full measure--and their families--as we 
meet the challenges and risks posed by the war on terror. Our 
deepest thanks go to the members of our active and Reserve 
component units, as well as to the thousands of the Department 
of Army civilians who are also deployed overseas in harm's way. 
Regardless of where our soldiers serve, they perform as the 
professionals they are, with skill, courage, and dedication. 
They embody the values of our Army and our Nation, serving 
selflessly, and seeking only to do what must be done before 
returning home.
    Despite remarkable successes, our fight is far from over. 
It will take time to win the war on terror. Our enemies are 
resolute, but hardline al Qaeda operatives in Iraq have already 
recognized that they cannot dislodge our forces by fear or 
intimidation. Our commitment to prevail in Iraq and elsewhere 
is unshakeable. I have seen the resolution in our soldiers' 
eyes, and heard the determination in their voices. We must do 
our part to ensure they have all they need to do the job we 
have set before them. When the American people and our leaders 
stand behind them, they can accomplish any task on earth.
    We are transforming the Army while retaining the values 
critical to the Army's achievements of the past 228 years. The 
fiscal year 2004 defense legislation and supplemental 
appropriations have enabled the Army to do that which it has 
been asked to do. I look forward to discussing with you how the 
fiscal year 2005 budget request will permit us to continue 
meeting our obligations now and in the years to come.
    Mr. Chairman, in closing, I would like to thank you and the 
members of this distinguished committee for your continuing 
support for the men and women in our Army, an army at war, and 
a full member of the joint team deployed and fighting terror 
around the world.
    I appreciate this opportunity to appear before you today, 
and I look forward to answering your questions.
    [The joint prepared statement of Secretary Brownlee and 
General Schoomaker follows:]
   Joint Prepared Statement by Hon. R.L. Brownlee and Gen. Peter J. 
                               Schoomaker
    Our Nation is at war. The security of our homeland, the global war 
on terror, and sustained engagement around the world define today's 
complex and uncertain strategic environment. The future will be no less 
ambiguous.
    We must prepare now to meet the challenges of tomorrow. Rather than 
focusing on a single, well-defined threat or a geographic region, we 
must develop a range of complementary and interdependent capabilities 
that will enable future Joint Force Commanders to dominate any 
adversary or situation. A capabilities-based approach to concept and 
force development, as articulated in the 2001 Quadrennial Defense 
Review, is the major focus of defense transformation.
    Over the past year our Army has met the demands of the global war 
on terror, with more than 325,000 troops deployed around the world in 
over 120 countries. The Army was instrumental in the defeat of Saddam 
Hussein and the Taliban and the subsequent liberation of more than 46 
million people from oppression and despair. The Army remains a central 
and critical participant in Operation Iraqi Freedom and Operation 
Enduring Freedom. Although these and other operations have stressed the 
force, our soldiers have responded magnificently.
    Our Army's commitment to the Nation remains absolute. While we 
execute the global war on terror, our Army simultaneously continues its 
organizational and intellectual transformation to meet the challenges 
of the 21st Century. In support of the National Security Strategy and 
the National Military Strategy we are improving our warfighting 
readiness and ability to win decisively. We also remain dedicated to 
the well-being of our soldiers, their families, and our civilian 
workforce.
    The United States Army is the most powerful land force on earth. 
With this power comes a great responsibility. American soldiers show by 
their daily actions that they understand this, and are fully worthy of 
the trust the American people have placed in them.
    For 228 years the Army has never failed the Nation, and it never 
will.

                                   R.L. Brownlee,
                                           Acting Secretary of the 
                                               Army.

                                   Peter J. Schoomaker,
                                           General, U.S. Army, Chief of 
                                               Staff.
                    purpose of the posture statement
    The Army Posture Statement provides an overview of today's Army. 
Focusing on the soldier, the centerpiece of the force, it explains the 
current and future strategic environments that provide our mandate for 
transformation. Our core competencies and how we intend to meet our 
current demands and future challenges are outlined. It describes what 
we must become in order to provide more ready and relevant forces and 
capabilities to the Joint Team.
             2004 army posture statement executive summary
Our Nation at War
    Our Nation, and our Army, are at war. It is a different kind of 
war, fought against a global terrorist network and not likely to end in 
the foreseeable future. In the days following the attacks on September 
11, 2001, President Bush spoke candidly to the Nation. ``These 
terrorists kill not merely to end lives, but to disrupt and end a way 
of life.'' He added: ``The only way to defeat terrorism as a threat to 
our way of life is to stop it, eliminate it and destroy it where it 
grows.''
    Our Army exists to fight and win our Nation's wars. We are an 
integral member of the Joint Team committed to winning in fulfillment 
of our responsibilities to national security. We are fighting to 
preserve the American way of life and to safeguard the many freedoms 
our citizens enjoy. Our soldiers and their families have not forgotten 
the events of September 11, which launched us to action in Afghanistan 
and Iraq. They are reminded daily of the ongoing conflict through 
separation, concern for forward-deployed loved ones and, most 
regrettably, news of casualties. Our Army continues the mission and 
remains committed to defeating our enemy.
Our Army's Core Competencies
    As our Army fights the current war and remains dedicated to 
transforming, we are focused on our two core competencies: (1) Training 
and equipping soldiers and growing leaders; (2) Providing relevant and 
ready land power to combatant commanders as part of the joint force.
    Our Army must be an agile and capable force with a Joint and 
Expeditionary Mindset. This mindset is the lens through which we view 
our service. We must be mobile, strategically deployable and prepared 
for decisive operations whenever and wherever required. We must be 
lethal and fully interoperable with other components and our allies, as 
well as flexible, informed, proactive, responsive, and totally 
integrated into the joint, interagency, and multinational context. Our 
management and support processes must reflect and support these same 
characteristics.
Strategic Environment--Our Mandate for Transformation
    At the end of the Cold War, the United States had no peer 
competitor. Our Army was much larger and was built around heavy, 
mechanized, and armored formations. Because America stood as the lone 
superpower during this time of global realignment, we were able to 
downsize our force structure. Today, the future is uncertain and 
presents many challenges. The emerging challenges manifest themselves 
as new adaptive threats, employing a mix of new and old technologies 
that necessitate changes to the ways in which the elements of our 
national power are applied.
    The 21st century security environment is marked by new actors and a 
noteworthy proliferation of dangerous weapons, technologies and 
military capabilities. While threats from potentially hostile regional 
powers remain, increasingly non-state actors, operating autonomously or 
with state-sponsorship, also are able to endanger regional and global 
security. These forces--insurgents, paramilitaries, terrorists, 
narcotraffickers, and organized crime--are a growing concern. They 
often are networked and enabled by the same tools and information 
systems used by state actors. Our adversaries will rely more frequently 
on indirect and asymmetric methods, such as anti-access and area-denial 
strategies, unrestricted warfare and terrorism, to mitigate their 
relative disadvantage. The most dangerous of these threats are the 
development and proliferation of weapons of mass destruction (WMD)--
including biological or chemical agents, or radiological ``dirty 
bombs''--to attack the United States. This security environment 
requires that the Army have the capability to dominate throughout the 
spectrum of conflict and to plan for multiple future contingencies.
    As a result of this adaptive enemy and our worldwide commitments, 
current organizations, systems and facilities are and will continue to 
be stressed. We now rely on our Reserve component to support our 
operations to a degree not seen since World War II. As of January 14, 
2004, there were more than 164,000 Reserve component soldiers mobilized 
with over 139,000 of them serving overseas. The institutional Army is 
being asked to do more, applying lessons learned from current 
operations. These lessons are critical to our organizations and 
individual soldiers as they prepare for worldwide missions. Therefore, 
the current and future strategic environments require the Army to have 
the capability to dominate throughout the spectrum of conflict and to 
plan for multiple contingencies. These new security challenges, coupled 
with the current war on terrorism, require a different approach.
Army Focus Areas
    Last summer, Army leaders identified immediate focus areas 
instrumental to adapting Army organizations and processes that will 
help us to better meet the Nation's security requirements. All of our 
focus areas should be viewed in the context of our ongoing efforts to 
retain the campaign qualities of our Army while simultaneously 
developing a Joint and Expeditionary Mindset. Of these focus areas, a 
critical enabler is the redesign of our resource processes to be more 
flexible, responsive, and timely. Our goal is to be a better Army every 
day--better able to execute our core competencies as members of the 
Joint Team.
Adapting Resource and Acquisition Processes
    The resource process is at the core of our Army's mission success. 
Our Nation faces a cunning and adaptive enemy, predictable only in his 
zeal and intent. We are just as cunning and our soldiers are constantly 
changing tactics and techniques in order to disrupt the enemy's plans. 
In the same way, our resource and acquisition processes must become 
more flexible, responsive, and timely in order to take immediate 
advantage of technological improvements and to sustain the quality of 
the force over time.
Resetting our Force
    Quickly resetting our forces upon their redeployment from current 
operations is a strategic imperative. The reset program incorporates 
lessons learned from Operation Iraqi Freedom (OIF) and Operation 
Enduring Freedom (OEF), retrains essential tasks, adjusts pre-
positioned stocks of equipment and ammunition, and brings unit 
equipment readiness back to standard. Units must recover quickly in 
order to provide the combatant commanders with land-power capabilities 
for future requirements. We will face challenges as we rotate troops 
from deployment to home station, while simultaneously maintaining 
vigilance and readiness.
    Continued congressional support and adequate resources are needed 
to accomplish our reset tasks and to mitigate the risk we have incurred 
to our Current and Future Forces. The fiscal year 2004 defense 
legislation and supplemental appropriation delivered substantial 
assistance toward covering the cost of current operations and 
initiating the reset process. We fully appreciate the exceptional 
support members and their staffs have provided this year. But, the job 
is not complete. In fact, it has only just begun.
Mitigating Strategic Risk Through Increased Land Power Capability
    Today our Army is executing operations in defense of the homeland 
(Operation Noble Eagle); stability and support operations in the 
Balkans (Stabilization Force/Kosovo Force); peacekeeping in the Sinai 
as part of the Multinational Force and Observers (MFO) and combat 
operations in Iraq and Afghanistan (Operation Enduring Freedom/
Operation Iraqi Freedom). We are also forward stationed in Korea and 
elsewhere. Approximately two-thirds of our active and Reserve combat 
formations were deployed in fiscal year 2003 and will be deployed in 
fiscal year 2004.
    These deployments, coupled with planned future rotation of units 
into OIF and OEF, the largest movement of Army troops since World War 
II, have highlighted already existing stress to our force. To mitigate 
risk, the Army is embarking on a series of initiatives. The first 
initiative is resetting forces returning from OIF and OEF to a standard 
higher than before their deployment. A second establishes force 
stabilization measures to reduce turbulence amongst soldiers, units, 
and their families. Third, the Army is internally rebalancing active 
and Reserve component forces to better posture our existing force 
structure to meet global commitments. Lastly, we are beginning to 
increase the number of available combat brigades through improved force 
management and modular reorganization. This increase allows the Army to 
improve strategic flexibility, sustain a predictable rotation cycle, 
and permits the Reserve component to reset.
    To facilitate this end state, the Army will seek to maintain, or 
even to increase temporarily, its current level of manning. These 
measures, when resourced, will mitigate risk and ultimately provide 
increased capability to combatant commanders.
Conclusion
    Our Nation is at war and our Army is at war; we remain ever 
relevant and ready to meet today's challenges. Yet there is much more 
to do. We are prioritizing wartime requirements, incorporating next-
generation capabilities into current systems where appropriate, and 
preserving essential investments in the Future Force. We also are 
becoming more joint and expeditionary. We do not move forward alone, 
but as part of the Joint Team. We need the support of the American 
people and the U.S. Congress. With this backing, we'll continue to 
carry the fight to our enemies to provide security here at home.
                           core competencies
    Our Army has two core competencies, supported by a set of essential 
and enduring capabilities. These core competencies are: (1) training 
and equipping soldiers and growing leaders; and (2) providing relevant 
and ready land-power capability to the combatant commanders as part of 
the joint force. Additionally, our Army's senior leadership has 
established immediate focus areas and issued specific guidance for 
planning, preparation, and execution of actions aimed at rapidly 
effecting necessary transformation in support of these core 
competencies. See Addendum I (available at www.Army.mil) for more 
information on the Army's focus areas.
               train and equip soldiers and grow leaders
    Our Army prepares every soldier to be a warrior. Our training 
replicates the stark realities of the battlefield in order to condition 
soldiers to react instinctively in combat. Such training is essential 
to building soldiers' confidence in themselves, their equipment, their 
leaders, and their fellow soldiers. Constant training in weaponry and 
field craft, and a continuous immersion in the warrior culture, give 
soldiers the skills they need to succeed on the battlefield. Mental and 
physical toughness are paramount to the development of the warrior 
ethos and apply to all soldiers from private to general. Every soldier 
is called upon to be a leader.
The Soldier
    The American soldier remains the centerpiece of our combat systems 
and formations and is indispensable to the Joint Team. Adaptive, 
confident, and competent soldiers, infused with the Army's values and 
warrior culture, fight wars, and win the peace. As a warrior, every 
soldier must be prepared to engage the enemy in close combat; the modem 
battlefield has no safe areas. Our Army trains our soldiers to that 
standard, without regard to their specialty or unit. The soldier--
fierce, disciplined, well-trained, well-led, and well-equipped 
ultimately represents and enables the capabilities our Army provides to 
the joint force and the Nation.
    Our soldiers are bright, honest, dedicated, and totally committed 
to the mission. All share common values, a creed and a warrior ethos. 
Our Army defines selfless service as putting the welfare of our Nation, 
Army and subordinates before your own. Soldiers join the Army to serve. 
Most Americans do not fully realize the personal sacrifices these 
soldiers and their families endure. However, our soldiers know that 
they have done their part to secure our Nation's freedoms and to 
maintain the American way of life.
    Our Soldiers' Creed captures the warrior ethos and outlines the 
professional attitudes and beliefs that characterize our American 
soldier. The warrior ethos is about the refusal to accept failure and 
the conviction that military service is much more than just another 
job. It defines who soldiers are and what soldiers do. It is linked to 
our long-standing Army values, and determination to do what is right 
and do it with pride.
    Recruiting and Retaining a High-Quality Volunteer Force
    All of our soldiers are warriors whose actions have strategic 
impact. Because we are at war and will be for the foreseeable future, 
we must recruit soldiers who have the warrior ethos already ingrained 
in their character, who seek to serve our Nation, and who will have the 
endurance and commitment to stay the course of the conflict. We must 
recruit and retain soldiers who are confident, adaptive, and competent 
to handle the full complexity of 21st century warfare.
    We will continue to bring the highest quality soldier into the 
force. All newly enlisted soldiers are high school graduates (diploma 
or equivalent) and 24 percent have some college. These young Americans, 
who believe service to our Nation is paramount, make our success 
possible. They display a willingness to stand up and make a difference.
    Our recruiting and retention efforts continue to be successful. The 
active Army met its recruiting and retention goals in fiscal year 2003. 
The Army National Guard exceeded its retention goals for fiscal year 
2003 and simultaneously met its end strength objectives. The Army 
Reserve met its recruiting goals and all but one retention target in 
fiscal year 2003. Most importantly, all components sustained their end 
strength requirements.
    We do not know yet the effect the high operational pace of recent 
months will have on our recruiting and retention in fiscal year 2004 
and future years. We must carefully monitor recruiting and retention 
trends and adequately resource our successful recruiting and retention 
initiatives. Incentives such as the Enlistment Bonus Program, The Army 
College Fund, and the Loan Repayment Program, have successfully enabled 
the Army to execute precision recruiting in fiscal year 2003. Our 
Special Forces Candidate ``Off the Street'' initiative continues to 
attract highly motivated and qualified warriors. Significantly, 
Selective Reenlistment Bonuses, such as the Present Duty Assignment 
Bonus and the Theater Selective Reenlistment Bonus, which are intended 
to enhance unit stability, have helped us realize our retention 
successes. For more information on recruiting, see Addendum C.
Civilian Component Enhances our Capabilities
    Army civilians are an integral and vital part of our Army team. 
They are essential to the readiness of our Army at war and our ability 
to sustain operations. Our civilian employees share our Army values. 
They are smart, resourceful, and totally committed to supporting our 
soldiers and our Army to do whatever it takes to meet the challenges 
that come our way. These dedicated civilians perform critical, mission-
essential duties in support of every functional facet of combat support 
and combat service support, both at home and abroad. Army civilians 
serve alongside soldiers to provide the critical skills necessary to 
sustain combat systems and weaponry. They work in 54 countries in more 
than 550 different occupations. In fiscal year 2003, nearly 2,000 Army 
civilians deployed to southwest Asia in support of Operation Iraqi 
Freedom, Operation Enduring Freedom, and the global war on terrorism 
(GWOT). They have the education, skills, and experience to accomplish 
the mission while ensuring continuity of operations for all commanders.
Realistic Training--Essential to Mission Success
    Tough, realistic training ensures that our soldiers and units 
maintain readiness and relevance as critical members of the joint 
force. Our Army's combined-arms training strategy, including an 
appropriate mix of live, virtual, and constructive training, determines 
the resource requirements to maintain the combat readiness of our 
troops. We revised our training ammunition standards to allow Combat 
Support and Combat Service Support units to conduct live fire exercises 
under conditions similar to those they might encounter in combat.
    The Army's tempo of operations (OPTEMPO) budget is among its top 
priorities. Our leadership is committed to fully executing the active 
and Reserve component ground and air OPTEMPO training strategies, which 
include actual miles driven and hours flown, as well as virtual miles 
associated with using simulators. The flying hour program is funded to 
achieve a historic execution level of live flying hours per aircrew per 
month. If units exceed the historic execution level, our Army will 
increase their funding. Thus far this year, OPTEMPO execution reports 
show units exceeding their programmed miles driven and hours flown. 
These are the units that are aggressively preparing for deployments to 
OIF and OEF, as well as the units who recently have returned and are 
preparing for future operations. Our combined arms training strategy is 
working and sustaining our warfighting readiness. We see the results 
every day in Afghanistan and Iraq.
Joint and Expeditionary
    Our Army is the dominant ground component of the Joint Team and 
provides the Joint Force Commander a campaign quality force with unique 
and complementary capabilities. We are vital and indispensable members 
of the Joint Team first and are a Service second. We must remain aware 
that our Army always conducts operations--offensive, defensive, 
stability, and support--in a joint and expeditionary context. Acting in 
concert with air and naval power, decisive land power creates a synergy 
that produces a joint force with abilities far exceeding the sum of the 
individual service components. Our Army can: support civil authorities 
at home and abroad; provide expeditionary forces at the right time and 
the right place; reassure our allies and multinational partners; deter 
adversaries and, should deterrence fail, decisively defeat the enemy; 
and win the peace through post-conflict operations, in concert with 
interagency and multinational efforts. Our Army must continually 
examine the capabilities resident in and required by the joint force. 
We will concentrate our energies and resources on those attributes 
which our Army is best suited to provide to the joint force. Our Army 
will arrive on the battlefield as a campaign-quality force fulfilling 
the requirements of the Joint Force Commander--lethal, agile, mobile, 
strategically responsive, and fully interoperable with other components 
within the interagency and multinational context.
Train and Educate Army Members of the Joint Force
    Our Army is taking action across a broad front to make jointness an 
integral part of our culture by including this concept in our education 
and training programs. We have always produced leaders with the right 
mix of unit experience, training, and education. As we look to the 
future, we know that, to meet our current and future leadership 
requirements and those of the joint force, we must redesign aspects of 
our Army's training and leader development programs to include lessons 
learned from current operations. Our objectives are to increase our 
ability to think and act jointly and to provide our soldiers with the 
latest and most relevant techniques, procedures and equipment that will 
make them successful on the battlefield. Additionally, the changes 
acknowledge the current and projected pace of operations and 
deployments. As a result, we will be better prepared for the current 
and future strategic environments.
    Maintaining a ready Current Force today and achieving a transformed 
Future Force tomorrow requires a shift in the way units train for joint 
operations. Our Army's Training Transformation Initiative (TTI), which 
supports the June 2003 Defense Department Training Transformation 
Implementation Plan, provides dynamic, capabilities-based training and 
mission rehearsal in a joint context.
Leader Development--Train for Certainty, Educate for Uncertainty
    Leader development is an essential part of our Army's core 
competencies and the lifeblood of our profession. It is the deliberate, 
progressive and continuous process that develops our soldiers and 
civilians into competent, confident, self-aware, adaptive, and decisive 
leaders. They emerge prepared for the challenges of 21st century 
combined arms, joint, multinational, and interagency operations.
    Army leaders at all levels bear responsibility for America's 
soldiers and accomplishing the mission, whatever it may be. The range 
of missions and their complexity continue to grow, presenting our 
leaders with even greater challenges than previously experienced. The 
evolving strategic environment, the gravity of our strategic 
responsibilities, and the broad range of tasks that the Army performs 
require us to review, and periodically to refocus, the way we educate, 
train and grow professional warfighters.
    We have a training and leader development system that is unrivaled 
in the world. Our professional military education prepared our officers 
and noncommissioned officers to fight and win in Iraq and Afghanistan. 
We will continue to develop our leaders with the right mix of 
operational assignments and training and education opportunities that 
meet the current and future requirements of the Army and joint forces. 
Our leader training focuses on how to think, not what to think. We will 
maintain our investment in the future by sustaining the highest quality 
leader training and education for our Army.
Combat Training Centers (CTC)/Battle Command Training Program (BCTP)
    The CTC program is a primary culture driver for our Army. 
Additionally, our CTCs are a primary enabler of, and full participant 
in, the Joint National Training Capability. The CTCs develop self-aware 
and adaptive leaders and soldiers and ready units for full spectrum, 
joint, interagency, and multinational operations. CTCs continuously 
integrate operational lessons learned into the training. Our Army 
enhances the training experience offered by our CTCs (National Training 
Center in California, Joint Readiness Training Center in Louisiana, 
Combat Maneuver Training Center in Germany and Battle Command Training 
Program based in Kansas) by increasing the focus on development of 
capabilities essential to joint operations. Leader training and 
development during CTC exercises hone the joint and expeditionary 
mindset and promote our Army's warrior culture.
  provide relevant and ready land power capabilities to the combatant 
                      commander and the joint team
    To meet global commitments across the full spectrum of military 
operations, our Army has mobilized more than 164,000 Reserve component 
soldiers. More than 325,000 American soldiers are serving overseas and 
more than 23,000 soldiers are supporting operations within the United 
States. This high operating tempo is no longer an exception. Sustained 
operations and deployments will be the norm for our Army forces 
supporting multiple and simultaneous shaping and stability operations 
around the globe. At the same time, we will continue to contribute to 
joint force execution of major combat operations, homeland security 
missions, and strategic deterrence.
Army Global Commitments
    Our Army is engaged in more than 120 countries throughout the 
world. To highlight our Army's commitment, a review of the major 
warfighting formations of the active and Reserve component serves as a 
measurable benchmark. Over 24 of the Army's 33 active component brigade 
combat teams (BCTs), and 5 of our 15 Reserve component Enhanced 
Separate Brigades (ESB) were deployed in fiscal year 2003. This trend 
will continue in fiscal year 2004, with 26 of 33 active component BCTs 
and 6 of our 15 Reserve component ESB brigades projected for 
deployment.
    The majority of these combat formations are deployed in the U.S. 
Central Command (CENTCOM) area of responsibility (AOR), effectively 
executing stability and support operations. More than 153,000 soldiers 
are supporting CENTCOM operations in Iraq, Afghanistan, Kuwait, and the 
Horn of Africa. We are currently in the middle of the largest movement 
of troops since WWII, as we rotate more than eight-and-a-half divisions 
and two ESBs to or from the theater. The approximate ratio of active to 
Reserve component forces today is currently 63 to 37 percent, 
respectively. Once our current rotation is complete, the ratio will 
change to approximately 54 to 46 percent, active to Reserve component. 
Since September 11, we have mobilized almost half of the Reserve 
component. They are trained, professional, and ready to execute any 
task.
    Army support to other combatant commanders remains high. U.S. 
Northern Command's (NORTHCOM) Army component, U.S. Army Forces Command, 
provides more than 23,000 active and Reserve component soldiers for 
duty in the defense of our homeland. These troops are available for 
missions including Military Assistance to Civil Authorities (MACA), 
emergency preparedness, and antiterrorist operations. The Army Reserve 
provides to NORTHCOM significant voice and data connectivity necessary 
to execute real-time operations. U.S. European Command provides forces, 
such as V U.S. Corps, to CENTCOM; and to Stability Force (SFOR) and 
Kosovo Force (KFOR) in the Balkans. U.S. Pacific Command supports 
ongoing operations in the Philippines, as part of the global war on 
terrorism, in addition to maintaining more than 31,000 soldiers on the 
Korean Peninsula. U.S. Southern Command is fully engaged as the 
headquarters for 1,500 soldiers executing detainee operations at 
Guantanamo Bay, Cuba; has deployed 740 soldiers to Joint Task Force--
Bravo at Soto Cano Airbase, Honduras; and is assisting the government 
of Colombia in its war on narcoterrorism. U.S. Special Operations 
Command's Army component provides professional, dedicated, and 
specially trained soldiers to each combatant commander. These soldiers, 
working closely with conventional forces, have been instrumental to our 
success in the global war on terrorism. In addition to Federal 
missions, our Army National Guard (ARNG) plays an important domestic 
role, routinely responding to State emergencies. In fiscal year 2003, 
there were 280 requests for emergency support, ranging from basic human 
needs to engineering support during natural disasters. Our ARNG has 
fielded 32 Weapons of Mass Destruction (WMD) Civil Support Teams (CST), 
which assist first responders in the event of an incident. Another 12 
CSTs are due to be activated within 18 months. To date, these teams 
have responded to 74 different requests for support. Also, more than 
8,000 ARNG soldiers have executed critical force protection duties at 
148 Air Force installations in CONUS.
Resetting the Force
    The extraordinary demands major combat and stability operations in 
Afghanistan and Iraq are placing on our equipment and personnel require 
that our Army quickly reset returning units for future national 
security needs. The reset program will incorporate lessons learned from 
OIF and OEF, retrain essential tasks, adjust prepositioned stocks of 
equipment and ammunition, and bring unit equipment readiness back to 
standard. The objective is to ensure our Army forces are ready to 
respond to near-term emerging threats and contingencies. However, reset 
cannot be viewed as a one-time event. Reset will continue to be key to 
our future readiness as our military executes our national security 
missions.
    Through reset, all returning active duty and Army Reserve units 
will achieve a sufficient level of combat readiness within 6 to 8 
months of their arrival at home station. The Army National Guard will 
take longer to achieve the desired level of readiness. The goal for 
these units is to reestablish pre-deployment readiness within 1 year. 
Our Army also will take advantage of reset as an opportunity to 
reorganize units into modular designs that are more responsive to 
regional combatant commanders' needs; that better employ joint 
capabilities; that reduce deployment time; and that fight as self-
contained units in nonlinear, noncontiguous battlespaces. This effort 
began with the 3rd Infantry Division and will soon be expanded to 
include the 101st Airborne Division (Air Assault).
    In addition to investing in new equipment to replace items that 
were destroyed or worn out during combat and stability operations, the 
reset program will repair major items used in OIF and OEF. Repair 
requirements have been determined for all OIF I units and the workload 
for this comprehensive effort is immense: about 1,000 aviation systems; 
124,400 communications and electronics systems; 5,700 combat/tracked 
vehicles; 45,700 wheeled vehicles; 1,400 missile systems; 9 Patriot 
battalions; and approximately 232,200 items from various other systems. 
This effort represents a significant expansion of normal maintenance 
activities, requiring the increased use of continental United States 
(CONUS) and outside the continental United States (OCONUS) based depot, 
installation and commercial repair facilities.
    Reconfiguring existing Army prepositioned stocks for global 
coverage of potential missions is a major component of the reset 
process. The intent is for each stock to have sufficient combat power 
to meet the immediate threat, as well as enough materials to render 
relief in other contingencies.
    Congressional support, in the form of supplemental appropriations, 
has been invaluable in beginning the reset effort. Our readiness 
depends directly on the successful execution of the reset program, and 
it will remain an ongoing priority for the foreseeable future. 
Continued resourcing will be needed to ensure that our Army can fight 
the current war and posture itself for future missions.
Transformation: Moving from the Current to the Future Force
    The goals of Army transformation are to provide relevant and ready 
forces that are organized, trained and equipped for full-spectrum 
joint, interagency and multi-national operations and to support Future 
Force development. Army transformation occurs within the larger context 
of changes to the entire U.S. military. To support our Army staff in 
the execution of transformation, the Army leadership directed the 
establishment of an Army Training and Doctrine Command (TRADOC) Futures 
Center, operational as of October 2003.
    Our current force is organized, trained and equipped to conduct 
operations as part of the joint force. It provides the requisite 
decisive land power capabilities that the Joint Force Commander needs 
across the range of military operations: support to civil authorities 
at home and abroad; expeditionary forces; the ability to reassure 
friends, allies and multinational partners; dissuading and deterring 
adversaries; decisively defeating adversaries should deterrence fail; 
and winning the peace as part of an integrated, interagency, post-
conflict effort. Our future force is the operational force the Army 
continuously seeks to become. Informed by national security and 
Department of Defense guidance, it is a strategically responsive, 
networked, precision capabilities-based maneuver force that is dominant 
across the range of military operations envisioned for the future 
global security environment.
    As our Army develops the future force, it simultaneously is 
accelerating select future doctrine, organization, training, materiel, 
leadership, personnel, and facilities (DOTMLPF) capabilities into our 
current force. This process will be fundamental to our success in 
enhancing the relevance and readiness of our Army and prosecuting the 
global war on terrorism. Similarly, the operational experience of our 
current force directly informs the pursuit of future force 
capabilities.
Balancing Current and Future Readiness
    Balancing risk between current and future readiness remains a 
critical part of our Army's transformation process and one that 
requires continual assessment to ensure that plans and programs are 
aligned with overall requirements. Without question, the issue of 
current operational readiness is our Army's highest priority. During 
the past several years, our Army made a conscious decision to accept a 
reasonable degree of risk to the readiness of our current force in 
order to permit investment in capabilities for our future force. This 
risk came in the form of reductions in and limitations to modernization 
and recapitalization programs. As part of the past four budget 
submissions, our Army made difficult choices to cancel and restructure 
programs, shifting resources to the development of transformational 
capabilities. Some of these investments have already produced results: 
for example, the new Stryker Brigade Combat Team formations now being 
fielded, the first of which is currently deployed on the battlefield in 
Iraq. Others are helping to develop emerging technologies and 
capabilities that will be applied to our force throughout the coming 
decade.
    Besides the ongoing efforts related to equipping the current force, 
our Army also has begun other major initiatives that will improve our 
readiness and relevance in the future. These include an effort to 
realign active and Reserve component units and capabilities, in order 
to make our Army more readily deployable and available to Joint Force 
Commanders; home-basing and unit-focused stability, which will improve 
readiness and reduce personnel turbulence; and the reorganization of 
Army units into more modular and capability-based organizations.
    While the previous decisions to accept reasonable risk in our 
current force were considered prudent at the time, the strategic and 
operational environment has significantly changed in light of the 
large-scale engagement of Army forces in Operation Iraqi Freedom and 
other expeditionary operations. Ever-changing demands on our force, 
coupled with our commitment to mitigating risk to our soldiers, have 
necessitated re-examination and transformation of our Army's resource 
process and business practices (see Addendum H at www.Army.mil).
Making the Resource Process More Responsive
    The resource process is our Army's center of gravity. Without the 
right people, the proper equipment, top-notch installations, and 
adequate dollars to support all appropriately, our Army would not be 
able to fulfill its duty to our Nation.
    In order to maintain our premier warfighting capability, Army 
resource processes must be flexible, dynamic, transparent, and 
responsive to both our requirements and those of the joint force. This 
is especially true in today's environment. We are at war against 
conventional and unconventional enemies, and simultaneously pursuing 
transformation. Our resource process must be transformed to allow us to 
keep pace with changes brought on by the enemy. Though we anticipate 
the battle against terrorism will last for years, possibly decades, we 
cannot program and budget in advance for that war. Our Army obviously 
cannot ignore our country's current security needs, yet it would be 
equally imprudent to deviate from the development and fielding of our 
Future Force. Balancing these requirements will be one of our toughest 
tasks.
    The GWOT requires a host of radical paradigm shifts in the way we 
view the face and nature of our global operating environment, as well 
as in the way that we conduct operations. Responsible yet creative 
stewardship of our resources will remain absolutely necessary. Internal 
controls must be tightened and waste eliminated; outsourcing non-core 
functions is still an important option. Risk will continue to be a 
factor and our resourcing decisions must take this into account.
    We must transform our resource processes and adjust our priorities 
to meet the challenge of the current strategic environment. Because we 
cannot mass-produce a volunteer Army, the retention of the right 
volunteer force is an imperative. This force is essential to the combat 
effectiveness of an increasingly complex and technologically 
sophisticated Army. We must refine and streamline the resource, 
acquisition, and fielding processes for equipment and supplies, as we 
cannot make up for lost time in a crisis.
Accelerated Acquisition and Fielding
    We have adapted and continue to improve our acquisition and 
fielding processes. In 2002, as soldiers reported equipment shortages 
in Afghanistan and elsewhere, we implemented the Rapid Fielding 
Initiative (RFI) to ensure that all of our troops deploy with the 
latest available equipment. Equipment fielding schedules were revised 
to support unit rotation plans, and procurement and fielding cycles 
were radically compressed.
    In coordination with field commanders and our soldiers, a list of 
more than 40 mission-essential items, including the Advanced Combat 
Helmet, close-combat optics, Global Positioning System receivers, 
soldier intercoms and hydration systems, was identified for rapid 
fielding. Laying the foundation for acquisition transformation, RFI 
already has equipped nine BCTs. In fiscal year 2004, RFI will upgrade a 
minimum of 18 BCTs and 8 ESBs, serving in OIF and OEF. Additionally, we 
are accelerating fielding of select future capabilities to our current 
force. These items include thermal weapon sights, enhanced night vision 
goggles, improved body armor, the Future Combat Rifle, and a new sniper 
rifle. Congressional support for regular budget and supplemental 
spending requests enables our Army to put this improved equipment in 
the hands of our soldiers.
    With this support, our Army also has instituted a Rapid Equipping 
Force (REF) that works directly with operational commanders to find 
solutions to operational requirements. These solutions may be off-the-
shelf or near-term developmental items that can be made quickly 
available. For example, the REF established a coordinated effort to 
supply U.S. forces with immediate solutions to counter improvised 
explosive device (IED) threats. Currently, IED teams are on location 
providing expertise and material solutions, to safeguard our soldiers. 
We are acting aggressively to improve the armor protection of our 
armored and light-skinned vehicles. Other recent examples of REF 
products are the Well-Cam and PackBots. The Well-Cam is a camera 
attached to an Ethernet cable and a laptop that enabled soldiers in 
Afghanistan to search wells for weapons caches. PackBots are 
operational robots used to clear caves, buildings, and compounds so 
soldiers are not unnecessarily put in harm's way.
    RFI and REF provide timely support to our relevant and ready forces 
and to the combatant commanders, and facilitate Army transformation.
Balancing our Active and Reserve Component Force Structure
    Currently, neither our active nor Reserve component is optimized 
for today's rapid deployability requirements. We will continue ongoing 
efforts to restructure our forces in order to mitigate stress; to align 
better with the current and projected security environments; and to 
offer campaign-quality land power capabilities to the combatant 
commanders. By doing so, we will ensure that our Army provides the 
responsiveness and depth required to achieve strategic and operational 
objectives, while simultaneously defending our homeland.
    Our Army is restructuring and rebalancing more than 100,000 
positions in our active and Reserve component force structure. These 
conversions increase the active component capabilities available to 
support the first 30 days of a rapid response operation. In response to 
Secretary of Defense guidance, we have already completed approximately 
10,000 positions. For example, the ARNG provisionally organized 18 
additional military police (MP) companies. Between fiscal year 2004 and 
fiscal year 2009, our Army will divest approximately 19,500 positions 
of less frequently used active and Reserve component force structure to 
further resource critical high demand units such as military police, 
civil affairs, and Special Operations Forces. We project that future 
rebalancing efforts will convert an additional 80,000 positions of 
lower-priority force structure. Despite these changes, our Army will 
remain stressed to meet anticipated requirements. To ensure that our 
Army can fulfill its commitment to our Nation, we should have the force 
capability level required to facilitate rebalancing, resetting, 
restructuring, and transforming of the Army.
    Military-to-civilian conversions are another way to improve 
manpower efficiency. More military personnel will fill the operational 
force if they are moved out of positions that can be prudently 
performed by civilians. To improve the Army's ability to better support 
worldwide commitments, it is essential to start this process now.
    Our Reserve component relies heavily on full-time support (FTS) 
personnel to sustain support of current contingencies while 
restructuring the force. FTS personnel perform the vital, day-to-day 
organizational, administrative, training and maintenance activities 
that ensure the highest level of soldier and unit readiness. To 
guarantee that our Army's Reserve component will continue to fulfill 
ever-increasing demands with trained and ready units, our Army plans to 
raise FTS authorizations by 15 percent, from the current level of 
71,928 to 85,840, by fiscal year 2012. In 2003, the Army Reserve began 
implementation of the Federal Reserve Restructuring Initiative. The 
goal is to better meet contingency requirements and to improve unit 
readiness.
Achieving Greater Combat Capability with Modular, Capabilities-Based 
        Unit Designs
    Modular units are interchangeable, scalable, and tailorable 
formations, which provide the Joint Force Commander with a 
strategically responsive force that greatly increases his ability to 
defeat any adversary. Modularity enables us to tailor our capabilities 
to the requirements of the situation and delivered at the right time 
and the right place. Modularity permits the combatant commander to 
optimize his warfighting tool set.
    Moving toward independent, echelon-above-brigade headquarters will 
enhance modularity. In accordance with our unit of employment (UE) 
construct, a UE will provide the command-and-control structure into 
which modular, capabilities-based units of action (UA) are organized to 
meet combatant commander requirements. These UAs will incorporate 
essential maintenance, intelligence, and communications functions 
previously provided by higher-level organizations. Our UE headquarters, 
while able to accept joint capabilities such as a standing joint force 
headquarters element, will have an organic capability, depending on the 
contingency, to function as a joint task force or joint force land 
component command headquarters like we have already done in Afghanistan 
and Iraq.
Force Stabilization
    The great demands placed on our Army have forced us to re-examine 
many of our long-standing personnel and basing practices. As a result, 
our Army is transitioning to an improved manning system, designed to 
augment unit readiness by increasing stability and predictability for 
commanders, soldiers, and families. Force Stabilization will allow 
Reserve component soldiers to plan for their deployments while 
supporting their civilian jobs and their community commitments. It 
places greater emphasis on building and sustaining cohesive, 
deployable, combat-ready forces for combatant commanders.
    The home-basing initiative keeps our soldiers in their assignments 
at specific installations longer, thus reducing unit turbulence and 
increasing unit cohesion. Unit focused stability synchronizes our 
soldiers' assignments to their units' operational cycle, providing a 
more capable, deployable, and prepared unit.
Installations as Our Flagships
    Our installations are an essential component in maintaining the 
premier Army in the world. For the warfighter, installations are the 
platforms from which we project military power. Our installations 
perform the following key missions: (1) provide effective training 
facilities; (2) rapidly mobilize and deploy the force; (3) provide 
reachback capabilities; (4) sustain and reconstitute the force; and (5) 
care for our families. As power projection platforms, our installations 
must be equipped with a robust information infrastructure that gives 
the deployed commander quick and efficient reach-back capabilities. All 
of these missions help to maintain our Army's deploy ability and 
fighting edge.
    Historically, we have accepted risk in our infrastructure and 
installation services in order to maintain our current readiness. The 
cumulative effect on our installations is that commanders rate more 
than 50 percent of our facilities as ``adversely affecting mission and 
training requirements.'' We have adjusted our management processes to 
be more effective stewards of our resources. In 2002, we established 
the Installation Management Agency (IMA) to create a corporate-focused 
structure that provides efficient installation management worldwide. 
The IMA uses creative management programs to sustain quality 
installations and maintain the well-being of the entire Army family.
    The Installation Information Infrastructure Modernization Program 
(I3MP) enhances the installation's role in power projection and 
provides the architecture to address the essential reach-back 
requirement. Additionally, our Installation Sustainability Plan 
addresses ways to fulfill environmental requirements without impacting 
current or future training. Other important progress include 
modernization of barracks and housing; a Residential Communities 
Initiative; and divestiture of redundant facilities infrastructure and 
non-core utility systems through privatization.
    In the past few years, the administration and Congress have helped 
us to begin addressing our infrastructure challenges. We requested 94 
percent of funding required for sustainment of our installations in 
fiscal year 2004. We have made progress in improving our installations 
by adjusting existing programs and developing new management 
strategies. However, there is much still left to do in order to upgrade 
our installations to better support the mission, soldiers, and our 
families.
Army Families and Well Being
    People are the heart and soul of the Army--soldiers, civilians, 
family members, and retirees. Our readiness is inextricably linked to 
the well being of our people. The Army family, for both the active and 
Reserve component, is a force multiplier and provides the foundation to 
sustain our warrior culture. We have placed significant emphasis on our 
Reserve component this year in recognition of their contributions to 
the global war on terrorism. With the help of the administration and 
Congress, many improvements have been made including the retention and 
increase of Imminent Danger Pay, Family Separation Allowance, and a 
sizable pay raise. Other key well-being initiatives include the Spousal 
Employment Partnership, new TRICARE policies for the Reserve 
components, and improvements in barracks and family housing. For more 
information on other Army well-being initiatives, see Addendum D 
(available at www.Army.mil)
Introducing New Capabilities into Current Force
    While at war, the urgency to accelerate the development and 
fielding of new and enhanced capabilities to our fighting forces in the 
field has never been greater. Our Army is making significant strides in 
this regard with the employment of a new brigade combat team 
organization, equipped with the latest available technology, to provide 
the combatant commander with enhanced warfighting capabilities. The 
rapid fielding of the Stryker vehicle demonstrates our Army's ability 
to use the acquisition and resource processes to meet a combatant 
commander's urgent needs.
    Stryker Brigade Combat Team (SBCT)
    In 2003, our Army deployed our first SBCT, the 3rd Brigade, 2nd 
Infantry Division, to Operation Iraqi Freedom, delivering its enhanced 
capability to the joint force in record time: 4 years from broad 
concept to deployment. Exceptional support from Congress and the Office 
of the Secretary of Defense, along with close collaboration between the 
Army and industry, made this achievement possible.
    Stryker brigades are our Army's first truly network-centric force, 
filling the capability gap between light- and heavy-force units with 
infantry-rich, mobile force that is strategically responsive, 
tactically agile, and more lethal. Improved battlespace awareness and 
battle-command technologies embedded in our SBCTs enhance combat 
effectiveness and survivability by integrating data from manned and 
unmanned air and ground-based sensors and providing real-time, 
continuous situational understanding. Planned enhancements will 
incorporate still-developing technologies. Significantly, our SBCTs 
will improve our Army's understanding of future force processes, 
helping us to formulate an advanced warfighting doctrine that will 
serve as an important bridge to the development of our unit of action, 
the structural foundation of our future force.
    This spring, our second SECT at Fort Lewis, Washington, will become 
operational. Our third SECT, in Alaska, will be available in 2005. 
Continued OSD and congressional support will ensure that subsequent 
brigades in Hawaii, Louisiana, and Pennsylvania, are fielded between 
2004 and 2008.
    Future Capabilities
    Our Army plans to field a number of systems this decade that will 
provide a foundation for informing the transformation of our current 
force capabilities into those needed by our future force. Once fielded, 
these systems will perform as interdependent systems of systems and 
will greatly enhance joint warfighting capabilities. Our future 
capabilities programs are designed to enhance the campaign-quality 
land-power capabilities that we provide to the combatant commanders. 
Our programs undergo continuous reviews to ensure they meet the 
capability requirements of the joint force. When required, we 
restructure programs, revise requirements and reprogram resources. The 
following are just a few of the key transformational systems our Army 
will begin to field during the next 6 years:
    The Network. Our future force situational dominance will depend 
upon a comprehensive, ubiquitous, and joint-interoperable command, 
control, communications, computers, intelligence, surveillance, and 
reconnaissance (C\4\ISR) architecture (the Network) that enables the 
Joint Force Commander to conduct fully interdependent and network-
centric warfare. The network will provide the backbone of our future 
force and the future joint force, enabling the maneuver commander to 
effectively coordinate battlefield effects. Some of the more important 
systems within our network include:

        <bullet> Warfighter Information Network--Tactical (WIN-T). WIN-
        T will be the communications network of our future force, 
        optimized for offensive and joint operations, while providing 
        the combatant commander the capability to perform multiple 
        missions simultaneously.
        <bullet> Joint Tactical Radio System (JTRS). JTRS is a family 
        of common, software-defined, programmable radios that will 
        become our Army's primary tactical radio for mobile 
        communications.
        <bullet> Distributed Common Ground System--Army (DCGS-A). DCGS-
        A is a single, integrated, ground-based, ISR processing system 
        composed of joint, common hardware and software components and 
        is part of the DOD DCGS family of systems.
        <bullet> Aerial Common Sensor (ACS). This ISR system and 
        platform will use robust sensor-to-shooter and reach links, 
        (such as DCGS-A ground stations), to provide commanders at 
        every echelon the tailored, multi-sensor intelligence required 
        for joint operations.

    Future Combat Systems (FCS). By extending the network capabilities 
into the unit of action, the FCS provide a system of systems capability 
that was not previously available to soldiers and commanders in joint 
operations. The core of our future force's maneuver unit of action is 
the Future Combat Systems, comprised of 18 manned and unmanned 
platforms that are centered around the soldier and integrated within a 
C\4\ISR network. FCS will provide our soldiers greatly enhanced 
situational awareness, enabling them to see first, understand first, 
act first, and finish decisively. Our FCS platforms will offer the 
joint force networked, lethal direct fire; indirect fire; air defense; 
complementary non-lethal fires and effects; and troop transport 
capability. In May 2003, FCS moved, on schedule, into the system 
development and demonstration phase. Our Army is aggressively managing 
our FCS development effort and intends to achieve initial operational 
capability by the end of the decade.
    Army Science and Technology
    The Army Science and Technology (S&T) program provides our Army 
superiority in both human and materiel systems arenas--preventing 
technological surprise. The Army S&T program retains a dynamic 
portfolio of investments that are responsive to warfighter needs today 
and into the future. The priority for Army S&T is to pursue paradigm-
shifting technologies that can alter the nature of the military 
competition to our advantage in the future and, where feasible, to 
exploit opportunities to accelerate the transition of proven 
technologies to our current force.
    The Army S&T program exploits technology developments from the 
other services, defense agencies, and commercial industry as well as 
international communities. The S&T program focuses on technology 
relevant to our Army and joint capabilities. It synchronizes 
operational concepts development and acquisition programs through 
transformational business practices that speed technology fielding to 
the soldier. The Army's S&T program is balanced to satisfy the high 
payoff needs of the future force while seeking rapid transitions for 
critical capabilities to our current force.
Joint Operational Concepts (JOpsC)
    The joint force has transitioned from independent, de-conflicted 
operations to sustained interoperability. It must now shift rapidly to 
joint interdependence. To that end, we are reviewing training 
requirements, traditional relationships and developmental and 
institutional programs. This process includes ensuring that our 
operational concepts are nested inside those employed by the joint 
force. The concepts and initiatives listed below discuss particular 
Army emphasis areas; these areas are not all-inclusive. Functional 
concepts and other Army initiatives that support the JOpsC are 
discussed in detail in Addendum J (available at www.Army.mil).
    Actionable Intelligence
    Our Army also is focused on attaining actionable intelligence--
intelligence that provides situational understanding to commanders and 
soldiers with the speed, accuracy, and confidence necessary to 
influence favorably current and future operations. Actionable 
intelligence achieves its intended purpose of empowering greater 
individual initiative and self-synchronization among tactical units by 
fusing information across organizations and echelons--accelerating the 
speed of decisionmaking and the agility of operations.
    Focused Logistics
    Our Army's current actions around the world in support of the 
global war on terrorism present a view of future military operations 
and provide valuable insights as we transform our logistics systems 
from the current to the future force. The successes enjoyed during OIF 
were the result of the integrated logistics team of soldiers, 
civilians, and contractors, all of who developed innovative solutions 
to a range of challenges caused by four major capability gaps in the 
current logistics system. To sustain combat power, our Army must have 
the ability to ``see the requirements'' on-demand through a logistics 
data network. We require a responsive distribution system, enabled by 
in-transit and total-asset visibility and managed by a single owner who 
has positive end-to-end control in the theater. Our Army needs a 
robust, modular, force-reception capability--a dedicated and trained 
organization able to quickly open a theater and support continuous 
sustainment throughout the joint operations area. Lastly, we need an 
integrated supply chain that has a single proponent, who can reach 
across the breadth and depth of resources in a joint, interagency, and 
multinational theater. As we move from the current force to the future 
force, we will build confidence in the minds of the combatant 
commanders by delivering sustainment on time, every time.
                       a commitment to our nation
    Our Nation and our Army are engaged in a global war on terrorism--a 
war of survival against an insidious and cruel enemy that threatens our 
civilization and our way of life. This enemy is actively targeting the 
interests of America and our allies, both within our own country and 
abroad.
    Defeating this enemy require the continued, strong support of our 
Nation. The steadfastness of our Nation in this effort is readily 
apparent. Ordinary Americans are doing their part and will continue to 
do so. Congressional support for our troops has been critical to our 
success. The industrial base also has responded, accelerating 
production of items essential to our soldiers' protection and 
warfighting ability.
    Our Army, too, remains committed to its heritage of preserving 
freedom. American soldiers display unrelenting tenacity, steadfast 
purpose, quiet confidence, and selfless heroism. For America to survive 
and flourish throughout the 21st century, our Army must defeat 
decisively the threats that challenge us today. To accomplish this 
essential task, we must recognize some important truths.

        <bullet> The fight against terror will be a long one
        <bullet> Our Army must simultaneously deter aggression, defeat 
        the forces of international terrorism, and maintain our 
        campaign qualities
        <bullet> We must continue to modernize to meet the challenges 
        of our future
        <bullet> Our operational tempo is high and will remain so
        <bullet> Sustained operations and deployments will be the norm 
        for our soldiers--NOT the exception
        <bullet> Old rules and operational methods may no longer apply; 
        we will not achieve victory with a business-as-usual approach

    Congressional backing for reset, our continued transformation to 
the future force, our rebalancing and restructuring of the active and 
Reserve component, and improvements to our installation infrastructure 
is essential to continued mission readiness. We fully appreciate the 
exceptional support members and their staffs provided this past year. 
The support of the American people and their elected representatives in 
the United States Congress is essential.
    Our Army's commitment to the future is certain. We will continue to 
provide our Nation, the President, the Secretary of Defense, and the 
combatant commanders a unique set of core competencies and 
capabilities. We remain dedicated to training and equipping our 
soldiers and growing leaders. We will continue to deliver relevant and 
ready land power to the combatant commanders and the joint force. We 
will protect our country and our way of life as we have for 228 years. 
It is our privilege, our duty, and our honor to do so.

    Senator Inhofe. Thank you, Secretary Brownlee, for an 
excellent opening statement.
    Secretary England.

   STATEMENT OF HON. GORDON R. ENGLAND, SECRETARY OF THE NAVY

    Secretary England. Senator, thank you very much. I know 
time is short, so I'll keep my remarks also very short.
    First, I do want to thank the committee for confirming me 
the second time and allowing me to come back to have this great 
privilege and honor, of course to appear before this committee, 
but to serve our men and women in uniform, our sailors and 
marines. They are absolutely magnificent. I am convinced this 
is the finest naval force the world has ever seen, and I thank 
this committee for your great support, because without your 
support we would not have the ability that we have to defend 
freedom and liberty that we all so cherish in this country. So 
I thank you.
    I am pleased to report that the naval forces we are 
deploying today and that we plan to deploy for the future, 
which is contained in our fiscal year 2005 budget request, are 
vastly different, and they're also vastly better than what I 
reported during my first committee discussion here about 2 
years ago. I can tell you that naval transformation is well 
underway. It is reflected in our budget, and it is crucially 
important as we move forward into the future. So I would 
appreciate your support.
    I do want you to know that the Chief of Naval Operations 
(CNO), the Commandant, and myself are committed to being very 
effective and also very efficient. So you will see, in this 
budget, a continuation of the past 2 years, where we have 
continued to move money from what I call the ``back end of the 
business'' into our weapon systems. We continue to be more 
effective. We work very hard to be good stewards of our 
citizens' money, and we continue that, and you will see that 
reflected in the 2005 budget.
    I do want to comment that people are, indeed, our most 
important asset. While we have a lot of requests in the budget, 
in terms of weapon systems, people are our most important 
asset. We are a strong, well-trained, and highly-motivated 
combat-ready force. I would like you to know that retention 
across the Department of the Navy is at record levels. So we 
are retaining our people, they want to serve in our naval 
forces, they want to serve our country, and our recruiting 
continues to be robust. We have the very best people, our 
morale is very high, and they are pleased to deploy, and defend 
and protect this great Nation.
    As I sit here today, the naval forces continue to 
demonstrate their value to our Nation. We are today redeploying 
our marines to Iraq, also our naval forces, as part of 
Operation Iraqi Freedom II. Of course, with what's happened in 
the last few days, our Marine Forces are now also in Haiti. The 
Navy-Marine Corps team is a force in readiness. We are 
prepared, at any time, to support our Nation, whenever, 
wherever.
    So ladies and gentlemen of this very important committee, 
I, again, thank you for the opportunity to be here. I thank you 
earnestly for the opportunity to again serve my Nation as the 
Secretary of the Navy. Our sailors, our marines, and their 
families are proud to serve this Nation, and I am privileged 
and proud to serve them. I'm also privileged and proud to serve 
with the other secretaries here today, and specifically with 
our great CNO and our magnificent commandant.
    So it's a pleasure being with you today. Thank you for your 
support, and I do look forward to your questions and 
discussion.
    Thank you very much.
    [The prepared statement of Secretary England follows:]
              Prepared Statement by Hon. Gordon R. England
            value to our nation--the navy/marine corps team
I. Introduction
    During my last appearance before this committee in February 2002 
and as reported in that statement, the Navy and Marine Corps 
contributions in the ``War Against Terrorism'' have been significant 
and important in the overall success of U.S. military forces. This 
continues to hold true today. Our Navy and Marine Corps team projects 
decisive, persistent, joint power across the globe, in continuing to 
prosecute the war on terrorism.
    Projecting power and influence from the sea is the enduring and 
unique contribution of the Navy and Marine Corps to national security. 
Operation Iraqi Freedom (OIF) demonstrated the strategic agility and 
operational flexibility that forward deployed naval expeditionary 
forces provide. This committee's support has been vital for the Navy 
and Marine Corps team to exploit the access afforded by the seas and to 
respond to the full spectrum of contingencies. Congressional support 
has led to increased readiness which was proven in OIF, where dispersed 
military forces networked together fought as a single, highly 
coordinated joint team.
    Naval warfare will continue its progression to operate in a joint 
environment in responding to new threats and to the increased 
asymmetric capabilities of our enemies. We will be bold and continue to 
develop new capabilities and concepts, and fund them in quantities that 
are relevant to tomorrow's emerging threats. We have embraced 
transformation. We are addressing the challenge to operationalize our 
vision, Naval Power 21, with technological, organizational, and 
doctrinal transformation.
    The following statement highlights key elements of the fiscal year 
2005 President's budget applicable to the Department of the Navy (DON) 
within the balanced scorecard approach of managing operational, 
institutional, force management, and future challenges risks.
II. Fiscal Year 2005 Budget Priorities--Underway with Naval Power 21.
    The fiscal year 2005 Department of the Navy budget fulfills our 
essential warfighting requirements. We are resourced to fight and win 
our Nation's wars and our number one priority, the war against 
terrorism, is reflected across each allocation. Additionally, we 
continue to invest in future technologies and capabilities that are 
part of a broader joint warfighting perspective. The Navy and Marine 
Corps are continuously working with other Services to draw on the 
capabilities of each Service, to eliminate redundancy in acquisition, 
and create higher levels of military effectiveness. A prime example is 
our agreement with the Department of the Air Force to merge our two 
Joint Tactical Radio System (JTRS) programs into a single program that 
will produce a common family of radios for use aboard our ships, 
submarines, and aircraft. The following summarizes the fiscal year 2005 
budget request priorities for the Department of the Navy:
    Personnel Salary and Benefits
    Smart, motivated, and capable people are a key element to any 
successful transformation effort. Our Navy and Marine Corps are 
increasingly a technologically advanced maritime force and we are in 
competition with the private sector to attract and retain the best men 
and women we can find. Accordingly, our budget includes a 3.5 percent 
basic pay raise for all military personnel. Additionally, housing 
allowances have been increased to buy down out-of-pocket housing 
expenses for our military personnel. Concurrent with this commitment to 
provide an appropriate level of pay and benefits to our sailors, 
marines, and their families is a responsibility to operate this 
Department as efficiently and effectively as possible. While we want 
the best people we can get to serve in the Navy and Marine Corps, we 
don't want a single person more than we need to properly operate the 
force. Job satisfaction comes not only just from compensation, but also 
from meaningful service--we owe it to our people to ensure that they 
are given duties and equipment appropriate to a volunteer force.
    Operations and Maintenance
    The operations and maintenance accounts are funded with over a $2 
billion increase. The present environment requires naval forces to be 
both forward deployed and capable of surging when called. This account 
will help develop the transformational Fleet Response Plan (FRP). This 
is the means to institutionalize the capability to maintain a more 
responsive force that is ready to surge, more efficient to maintain, 
and able to reconstitute rapidly.
    Shipbuilding Account
    The Department's shipbuilding plan supports our transformational 
vision and increases the number of new construction ships from seven in 
fiscal year 2004 to nine in fiscal year 2005 plus one SSBN Engineered 
Refueling Overhaul (ERO). Initial LCS and DD(X) platforms are funded 
from the RDT&E account. Additionally, the Navy's fiscal year 2005 
spending plan completes the purchases of the last 3 DDG-51 class ships 
for a total of 62 ships.
    Aviation Account
    The Department's fiscal year 2005 budget request is structured to 
maintain the continued aviation superiority of the Navy and Marine 
Corps. The naval aircraft procurement plan emphasizes replacing costly 
stand-alone legacy platforms with more efficient and capable integrated 
systems. The number of aircraft requested increases from 99 in fiscal 
year 2004 to 104 in fiscal year 2005 which includes 5 VXX helicopters. 
The budget continues to maximize the return on procurement dollars, 
primarily through the use of multi-year procurement (MYP) for the F/A-
18E/F, the E-2C, the MH-60S, and the KC-130J programs. Development 
funding is provided for Joint Strike Fighter (JSF), MV-22, AH-1Z/UH-1Y, 
CH-53X, EA-18G, and the Multi-mission Maritime Aircraft (MMA). The 
budget reflects an amended acquisition strategy for the V-22 to fund 
interoperability issues and cost reduction initiatives.
    Munitions Account
    During OEF and OIF, the Department expended less precision ordnance 
than projected. In this environment, the precision munitions purchases 
for fiscal year 2005 have been decreased for JDAMs and LGBs. This 
decrease in procurement provides no increased risk to the DON but 
merely reflects the lower utilization rates of expended ordnance.
    RDT&E Account
    An increase of $1.4 billion reflects our commitment to future 
transformational capabilities and technology insertion for major 
platforms including DD(X), LCS, CVN-21, V-22, Joint Strike Fighter 
(JSF), Advanced Hawkeye (AHE), and MMA. As demonstrated in recent 
operations, our naval forces have been able to project overwhelming 
combat power because they are technologically superior. We continue to 
sustain a robust RDT&E effort as we transform the Navy and Marine Corps 
to the next generation of combat systems.
    Effectiveness and Efficiency
    A guiding principle in all we do is improving effectiveness to gain 
efficiency. The very best organizations are the most efficient 
organizations. If you are very efficient, you incorporate technology 
more quickly, you can develop new systems and capabilities, and you can 
bring them on line faster. Underlying all of the previous accounts and 
our execution of them is a continuing and concerted focus to achieve 
the most efficient organization. The Fleet Response Plan, TacAir 
Integration, and establishment of the Commander Naval Installations are 
a few of our initiatives to improve effectiveness within the 
Department.
    Our objective for the fiscal year 2005 budget request is to move 
forward with Naval Power 21. This budget builds upon the foundation 
laid in the fiscal year 2004 program and reaffirms our commitment to 
remain globally engaged today while developing future technology to 
ensure our future military superiority. We are also continuing to 
emphasize the Department's commitment in the areas of combat 
capability, people, technology insertion and improved business 
practices. With our fiscal year 2005 budget request we are committed to 
executing this vision.
III. Calendar Year 2003 Operational Successes (A Nation at war)
    The extraordinary capability of our joint forces to project power 
around the world in support of vital national objectives was 
demonstrated over the last year. The maritime contribution to our 
success in the defeat of Saddam Hussein's Baathist forces, as well as 
in support of other joint engagements in the global war on terrorism, 
was significant. The rapid deployment and the warfighting capability of 
your naval force in the liberation of Iraq provided an example of the 
importance of readiness and the responsive capabilities to support our 
Nation's objectives in an era of unpredictability and uncertainty. The 
demonstrated importance of our multi-dimensional naval dominance, our 
expeditionary nature, our ability to deal with complex challenges, and 
adaptability of our forces are illustrative of the high level of return 
on investment of your naval force.
    The accomplishments of this past year tell the naval forces 
readiness story and its return on investment. The ships, aircraft, 
weapon systems, and readiness you funded provided our sailors and 
marines the tools necessary to remain the premiere maritime and 
expeditionary combat ready force. In preparing for and conducting 
operations in the Iraq theater, speed of expeditionary operations and 
sustainment were important military competencies. Naval forces applied 
dominant, persistent, decisive, and lethal offensive power in support 
of coalition warfighting objectives. The speed, agility, flexibility, 
and persistence of naval combat capability helped end a regime of 
terror and liberate a people during OIF.
    The past year has been one of significant accomplishment. Our men 
and women operating in the air, on and under the sea, and on the ground 
are at the leading edge in the global war on terrorism. As in OEF, we 
once again have demonstrated naval forces' unique value in contributing 
to the security of our Nation and our friends and allies.

        <bullet> During OIF, more than 50 percent of our force was 
        forward deployed. The deployment of seven Carrier Strike Groups 
        (CSGs) and eight large deck amphibious ships proved our ability 
        to be both a surge and a rotational force demonstrating our 
        flexibility and responsiveness.
        <bullet> Navy and Marine Corps aircraft flew more than 8,000 
        sorties and delivered nearly 9,000 precision-guided munitions.
        <bullet> Over 800 Tomahawk cruise missiles were fired from 35 
        coalition ships, one-third of which were launched from 
        submarines. The highest number of TLAMs launched in 1 day 
        occurred on March 21, 2003--nearly 400 Tomahawks.
        <bullet> Navy Special Forces, MCM, Explosive Ordnance Disposal 
        (EOD), and coalition counterparts cleared more than 900 square 
        miles of water, ensuring the safe passage of critical 
        humanitarian relief supplies to the Iraqi people.
        <bullet> Marines from the I Marine Expeditionary Force (I MEF), 
        supported by Sea Basing concepts, made one of the swiftest 
        combat advances in history. They fought 10 major engagements, 
        destroying 9 Iraqi divisions in the 450 mile advance into Iraq.
        <bullet> Eleven Maritime Prepositioned Force (MPF) ships 
        provided equipment and sustainment for over 34,000 marines and 
        sailors and 14 amphibious ships embarked and delivered another 
        12,000 marines and sailors and their equipment.

    Since the end of major combat operations, naval forces have been 
instrumental in supporting the coalition's goals of security, 
prosperity and democracy in Iraq. Coalition maritime forces have 
diligently supported the United Nations Security Council Resolution 
1483. They have queried over 6,000 vessels, boarded close to 3,500 and 
diverted approximately 430. These forces have confiscated and returned 
to the Iraqi people approximately 60,000 barrels of fuel. Additionally, 
seaward protection of the Al Basara Oil Terminal (ABOT) is enabling the 
generation of critically needed oil revenue. Since re-opening, the ABOT 
has pumped 261,500,000 barrels of oil valued at over $7.5 billion.
    Navy Seabees and Marine Engineers, as the I MEF Engineer Group, 
undertook construction initiatives that built and repaired major 
roadways and bridges, and completed major utility restoration projects. 
In all, 150 projects valued at $7.1 million were completed.
    Naval EOD forces are working with Army counterparts in support of 
the coalition forces and Iraqi Police and are collecting over 2,000 
pounds of unexploded ordnance per week.
          iv. navy and marine corps today (current readiness)
    Today's naval forces exist to control the seas, assure access, and 
project power beyond the sea to influence events and advance American 
interests. Navy and Marine Corps forces continue to lead the way to 
secure the peace by responding with speed, agility, and flexibility. 
The value of naval forces continues to be demonstrated through the 
projection of decisive, persistent, joint power across the globe. The 
investment in training, maintenance, parts, ordnance, flying hours, 
steaming days, and combat ready days coupled with our forward presence 
and our ability to surge has positioned naval forces as the most 
effective and efficient military force.
    Congress' investment in readiness over the past several years has 
paid large dividends for naval forces during OIF. With combat forces 
operating in two fronts in the GWOT our readiness investments have 
resulted in enhanced naval forces ready to strike on a moment's notice, 
anywhere, anytime. Our success in deploying 9 out of 12 aircraft 
carriers and 10 out of 12 big deck amphibious ships to major combat 
areas of operation in demanding environments is attributable to the 
continued improvements in current readiness.
    The Department is in the process of re-deploying Navy and Marine 
Forces in preparation for Operation Iraqi Freedom II. Navy and Marine 
Forces will deploy in two 7-month rotations with the first beginning 
this month. This initial ground rotation will include about 25,000 
marines, 3,500 marine reservists, over 5,000 active duty Navy, and 800 
naval reservists.
    Since the return of our forces from OIF we have invested heavily in 
constituting the Navy and Marine Corps team for the next fight. 
Continued successful programmed investment will ensure we have the most 
capable forces to face the unique challenges ahead. The fiscal year 
2005 budget continues a broad range of modernization and readiness 
initiatives for naval forces.
Acquisition Programs
    The Fleet and Marine Forces continue to take delivery of the most 
sophisticated weapon systems in the world. In 2003, the Navy launched 
the first of two new classes of ships, U.S.S. Virginia (SSN 774) and 
U.S.S. San Antonio (LPD 17), commissioned the aircraft carrier U.S.S. 
Ronald Reagan (CVN 76), and continued timely delivery of the Arleigh 
Burke class guided missile destroyers and F/A-18 E/F Super Hornets.
    We are continuing to build on previous budgets to ensure we equip 
and train our forces to help us continue to meet the challenges of the 
future. What the DON budget will buy to advance our vision in Naval 
Power 21:
    Shipbuilding
    The fiscal year 2005 to fiscal year 2009 shipbuilding rate of 9.6 
battle force ships per year is up from 8.4 battle force ships per year 
for the same period in fiscal year 2004. The fiscal year 2005 budget 
request closes the procurement gap and with the exception of a slight 
reduction in fiscal year 2006, provides an upward trend through the 
FYDP, procuring 17 battle force ships by fiscal year 2009. The fiscal 
year 2005 to fiscal year 2009 investment is an average of $13 billion 
per year in new construction. The fiscal year 2005 to fiscal year 2009 
plan also procures three Maritime Pre-positioned Force (Future) (MPF 
(F)) ships and a MPF (F) aviation variant. While our build rate drops 
to six in fiscal year 2006, this is a reflection of a shift to the next 
generation surface combatants and sea basing capabilities.
    The Navy has nine new ships and one SSBN refueling requested in the 
fiscal year 2005 budget, as well as substantial shipyard/conversion 
work. This investment includes:

        <bullet> Three DDGs ($3.4 billion)
        <bullet> One Virginia class submarine SSN-774 ($2.5 billion)
        <bullet> One LPD-17 ($967 million)
        <bullet> Two T-AKE ($768 million)
        <bullet> One DD (X) ($221 million) (RDT&E funded)
        <bullet> One Littoral Combat Ship (LCS) ($108 million) (RDT&E 
        funded)
        <bullet> One SSBN conversion/refueling ($334 million)

    Fiscal year 2005 marks the final year of DDG 51 procurement, 
bringing to closure a 10-ship fiscal year 2002 to fiscal year 2005 MYP 
contract awarded in fiscal year 2002. The Navy will move to the DD(X) 
and LCS hulls as quickly as possible. In addition to vitally needed new 
capability, these ships will increase future shipbuilding rates. 
Investment in these platforms will also help maintain critical 
industrial bases.
    The Department is modernizing its existing submarine with the 
latest technology while, at the same time, continuing to replace aging 
fast attack submarines with the new Virginia class submarine. The 
Virginia class design is complete and the lead ship (SSN 774), will 
commission on schedule. Fiscal year 2004 funded the first of five 
Virginia class submarines under a MYP contract. The second submarine of 
the MYP contract is funded in fiscal year 2005. Consistent with 
congressional approval of 5 year-five ship MYP authority (fiscal year 
2004 to fiscal year 2008) for SSN 774, the Navy is maintaining one 
submarine per year through fiscal year 2008.
    The DON accelerated one LPD from fiscal year 2006 to fiscal year 
2005 leveraging fiscal year 2004 advanced procurement resources 
provided by Congress. The lead ship detail design has been completed 
and lead ship construction is over 80 percent complete with a 
successful launch in July 2003. Production effort is focused on a 
November delivery. The LPD 17 class ship represents our commitment to a 
modernized expeditionary fleet.
    The fiscal year 2005 budget request also provides for procurement 
of two auxiliary cargo and ammunition ships (T-AKEs) in the National 
Defense Sealift Fund. These will be the seventh and eighth ships of the 
class. Lastly, the fiscal year 2005 budget request accelerates the lead 
MPF (F) from fiscal year 2008 to fiscal year 2007 to reflect an 
emphasis on sea basing capabilities.
    DD(X) is a centerpiece to the transformational 21st century Navy 
and will play a key role in the Naval Power 21 strategic concept. This 
advanced warship will provide credible forward naval presence while 
operating independently or as an integral part of naval expeditionary 
forces. The DD(X) lead ship design and initial construction contract 
will be awarded in fiscal year 2005.
    Conversion and Modernization
    The fiscal year 2005 budget request proposes advanced procurement 
funds for the U.S.S. Carl Vinson (CVN 70) Refueling Complex Overhaul 
(RCOH), now scheduled to begin in fiscal year 2006. CVN 70 has 
sufficient reactor fuel for one additional surge deployment.
    Funding for the Ticonderoga class cruiser modernization effort 
began in fiscal year 2004 and continues in fiscal year 2005. The 
cruiser modernization effort will substantially increase the service 
life and capability of CG 47 class ships. The conversion will reduce 
combat system and computer maintenance costs, replace obsolete combat 
systems, and extend mission relevance service life. Fiscal year 2005 
will fund advanced procurement items for the first cruiser 
modernization availability in fiscal year 2006.
    Funding is included in fiscal year 2005 to complete the conversion 
of the third and the overhaul of the fourth hull of four Ohio class 
SSBNs to SSGNs. The SSGN conversion provides a covert conventional 
strike platform capable of carrying up to 154 Tomahawk missiles. The 
fiscal year 2006 budget request will complete the conversion of the 
last SSGN. All four of these transformed platforms will be operational 
by calendar year 2007.
    Aircraft Production
    Consistent with the fiscal year 2004 program, the fiscal year 2005 
budget request reflects continued emphasis on re-capitalizing our aging 
aircraft. Our focused efforts to aggressively ``shore up'' operational 
readiness by providing requisite funding for our Flying Hour Program, 
Ship Depot Maintenance, Ship Operations, and Sustainment, Re-
capitalization, and Modernization accounts continue. While we continue 
to make substantial investments in readiness accounts and working 
capital accounts, we identified the resources to procure 104 aircraft 
in fiscal year 2005. The Department's aircraft procurement plan 
emphasizes replacing costly legacy platforms with more efficient and 
capable integrated systems. This has resulted in significant 
investments in transformational aircraft and program investments across 
the spectrum of aviation capabilities. Such valuable investments in 
more capable aircraft have allowed a reduction of 40 aircraft from 
fiscal year 2005 to fiscal year 2009.
    During the past year, we continued to enjoy the fruits of our 
aviation investments with the successful first deployment and 
operational employment of the F/A-18 E/F Super Hornet in support of 
OIF. Highly praised for tactical capability and platform reliability, 
the F/A-18 E/F program has been funded to provide a transformational 
radar, helmet mounted sight, advanced targeting pod and integrated 
weapons system improvements. Additionally, we recently awarded a second 
MYP contract that includes the EA-18G airframe to replace the Navy's 
aging EA-6B beginning in fiscal year 2009.
    All helicopter missions continue to be consolidated into the MH-60R 
and MH-60S airframes. These helicopter platforms are the cornerstone of 
Navy helicopter concept of operations designed to support the CSG and 
ESG in various mission areas.
    The Department significantly increases the funding requested for 
MMA. MMA will provide the Navy with strategic blue water and littoral 
capability by re-capitalizing the P-3 Maritime Patrol Aircraft broad 
area anti-submarine, anti-surface, maritime and littoral Intelligence, 
Surveillance, and Reconnaissance (ISR) capability.
    Progress continues towards delivering a high-quality aircraft to 
the Marines and Special Forces including increasing capability and 
interoperability of the aircraft, investing to reduce production costs, 
and maximizing production efficiency. Since the resumption of V-22 
flight-testing, in May 2002, the V-22 is satisfying the threshold 
levels for all its key performance parameters and reliability and 
maintainability measures. V-22 test pilots have recorded more than 
1,100 flight hours since that time. The V-22 program will continue Low 
Rate Initial Production (LRIP) until the Milestone III decision 
expected late calendar year 2005.
    The Department will continue to procure the AH-1Z/UH-1Y. These 
aircraft meet the Marine Corps' attack and utility helicopter 
requirements by providing increased aircraft agility, airspeed, range, 
and mission payload. They provide numerous capability improvements for 
the Marine Corps, including increased payload, range and time on 
station, improved sensors and lethality, and 85 percent component 
commonality. The KC-130J MYP is funded and supported in this budget. 
The advantages include an all digital cockpit that reduce aircrew 
manning requirements, a new propulsion system that provides more cargo 
capability, and increased fuel delivery.
    Mine Warfare Programs
    In keeping with the Department's goal to achieve an organic mine 
warfare capability in 2005, the budget request supports the development 
and procurement of five organic airborne systems integrated into the 
MH-60S helicopter: the AQS-20A Mine-hunting System, the Airborne Laser 
Mine Detection System (ALMDS), the Airborne Mine Neutralization System 
(AMNS), the Rapid Airborne Mine Clearance System (RAMICS), and the 
Organic Airborne and Surface Influence Sweep (OASIS) system. The fiscal 
year 2005 budget request also supports the development and procurement 
of the Remote Minehunting System (RMS) integrated into DDG-51 hulls 91-
96, and the Long-term Mine Reconnaissance System (LMRS) integrated into 
SSN-688. The ALMDS, AQS-20A, and RMS will reach an initial operating 
capability in fiscal year 2005. The budget request supports the 
transition of assault breaching technologies into acquisition, which 
will provide a capability to detect, avoid, and defeat mines and 
obstacles in the surf and craft landing zones. In fiscal year 2005, we 
will continue with our Surface Mine Countermeasures (MCM) mid-life 
upgrade plan. We have initiated a product improvement program for the 
engines of the MCM-1 Avenger class mine countermeasure ships to enhance 
their reliability and availability. We are upgrading our minesweeping 
capability with new acoustic generators and magnetic sweep cables, and 
have programmed resources to replace our maintenance-intensive mine 
neutralization system (AN/SLQ-48) with an expendable mine 
neutralization system.
    Munitions
    The Standard Missile (SM) program replaces ineffective, obsolete 
inventories with the procurement of more capable SM-2 Block IIIB 
missiles. The Rolling Airframe Missile (RAM) program continues 
procurement of the improved guided missile launching system and the 
upgraded Block I missile, providing an enhanced guidance capability 
along with a helicopter, air and surface mode. In addition to SM and 
RAM, the fiscal year 2005 budget request provides funding to continue 
production of the Evolved Sea Sparrow Missile (ESSM) and will support 
the first Full Rate Production (FRP) contract award of 82 U.S. and 288 
international missiles. We have committed to replenish our precision 
munitions inventories and to do so, we will utilize a 5-year MYP to 
maximize the quantity of Tomahawk missiles procured.
    Marine Corps Expeditionary Capability
    The Expeditionary Fighting Vehicle (EFV), formerly the Advanced 
Amphibious Assault Vehicle (AAAV), will provide surface assault 
elements the requisite operational and tactical mobility to exploit 
opportunities in support of joint operations. The EFV will be capable 
of carrying a reinforced Marine rifle squad at speeds in excess of 20 
nautical miles per hour from over the horizon in sea state three. Once 
ashore, the EFV will provide Marine maneuver units with a world-class 
armored personnel carrier designed to meet the threats of the future. 
Production representative vehicle procurement occurred in fiscal year 
2003 and will deliver in fiscal year 2005. IOC will be released in 
fiscal year 2008 and FOC in 2018.
    Also critical to Marine Corps transformation efforts is the Joint 
Lightweight 155mm Howitzer (LW-155). This system will enter FRP in 
fiscal year 2005, and our budget includes a request for a Joint Marine 
Corps--Army MYP. Another transformational component of the fiscal year 
2005 budget, the High Mobility Artillery Rocket System (HIMARS), will 
continue LRIP delivery.
Alignment
    The DON is transforming to dramatically reduce operating and 
support costs. Changes will embrace efficiency and result in increased 
effectiveness and a higher readiness standard in concert with the 
overarching goals of the President's management agenda. We have made 
several fleet and shore organizational changes that have shown great 
potential in maximizing the way forces can be employed and supported.
    Fleet Response Plan (FRP)
    FRP provides a model for a new joint presence concept that will 
transform how the U.S. military is employed. It refines maintenance, 
training, and readiness processes in order to increase the number of 
combat ready ships and aircraft throughout the fleet. FRP ensures six 
employable Carrier Strike Groups (CSGs) always are ready to respond to 
a crisis, plus two additional CSGs capable of deploying to the fight 
within 90 days of notification (``6+2''). With the implementation of 
FRP, half of the fleet either could be deployed or postured to surge, 
able to arrive swiftly with the overpowering combat power needed either 
to deter or defeat the hostile intentions of an adversary, or to win 
decisively in combat against a significant enemy.
    TacAir Integration
    The Navy and Marine Corps team embarked on a Tactical Aircraft 
Integration plan that will enhance our core combat capabilities and 
provide a more potent, cohesive, and affordable fighting force. The 
culmination of a long-term effort to an increased level of readiness 
from the resources given to us, TacAir integration seeks to generate a 
greater combat capability from naval TacAir. Through TacAir 
integration, the Department will reduce the number of tactical aircraft 
(JSF and F/A-18) from 1,637 to 1,140 aircraft by 2021. This integration 
will provide increased combat capability forward and is in concert with 
enhanced sea basing concepts. A cornerstone of this plan is the global 
sourcing of the Department's TacAir assets and the funding and 
maintenance of legacy aircraft at the highest level of readiness until 
they are replaced by the JSF and the Super Hornet (F/A-18 E/F).
    Training Resource Strategy (TRS)
    TRS was developed to provide high quality training to our deploying 
combat forces. The training of our high technology force in modern 
warfare has shifted to a network of existing ranges and installations 
stateside. Fully implemented, TRS has resulted in more training 
options, reduced pre-deployment training transit time, and has 
increased productive training days. The U.S.S. Enterprise was the first 
CSG to deploy under the TRS, utilizing six training ranges, each unique 
to the successful completion of her qualification. TRS supports the FRP 
and will quickly respond to surge requirements by delivering and 
bringing to bear a capable fighting force.
    Current and future readiness requirements underscore the continued 
need for realistic training and maximized use of training and testing 
ranges. While we continue to find ways to enhance readiness through 
increased use of information technology and simulation, live training 
on actual ranges and training areas remains critical during the 
essential phases of the training cycle. Maintaining training realism 
and access to these ranges has been of keen concern to our naval 
forces. We continue to balance the need to maintain a ready and capable 
force with the need to be sensitive to environmental and encroachment 
issues.
    For the last 2 years, Congress has addressed critical Navy needs 
regarding encroachment. Readiness-specific changes to the Marine Mammal 
Protection Act (MMPA), Endangered Species Act, and Migratory Bird 
Treaty Act will help the Navy meet training and operational needs. The 
Navy and Marine Corps has and will continue to demonstrate leadership 
in both its military readiness role and as an environmental steward of 
the oceans we sail and the lands we train upon. We are pursuing 
opportunities for acquiring land buffers adjacent to our training 
lands. We are implementing the Integrated Natural Resources Management 
Plans prepared under the Sikes Act to address endangered species 
concerns in lieu of designating critical habitats. We will continue 
operational actions to minimize harm to marine mammals, as we continue 
investments in research into marine mammal biology and behaviors. The 
MMPA is due for reauthorization in this legislative cycle. To maintain 
our military readiness, your support is necessary to retain the proper 
balance between environmental protection and military readiness during 
the reauthorization debate.
    Carrier Strike Group (CSG)/Expeditionary Strike Group (ESG)
    CSG alignment is complete and the first Pacific Fleet Expeditionary 
Strike Group (ESG-1), centered on the U.S.S. Peleliu Amphibious Ready 
Group and the embarked Marines of the 13th Marine Expeditionary Unit 
(Special Operations Capable), is completing an 8-month deployment. The 
Navy deployed an Atlantic Fleet ESG, the U.S.S. Wasp Amphibious Ready 
Group, last month.
    The ESG adds to the ARG/MEU, a robust strike, anti-air, anti-
surface, and anti-subsurface capability of a cruiser, destroyer, 
frigate and attack submarine and for the first time, the Advanced 
Swimmer Delivery System (ASDS). These combined capabilities give the 
Combatant Commander a wider variety of options and enables independent 
operations in more dynamic environments.
    Vieques/NSRR closure
    The former training ranges on Vieques have been closed and the 
property has been transferred to the Department of the Interior (DOI), 
Fish and Wildlife Service. We have active cleanup and range clearance 
programs underway at disposal sites on both east and west parcels. We 
are working with the appropriate agencies to negotiate a Federal 
Facilities Agreement governing cleanup activities. We are refining 
costs to complete cleanup estimates for range areas and resolve 
litigation issues filed by the residents of Vieques. We will close 
naval Station Roosevelt Roads by 31 March, as directed by the Fiscal 
Year 2004 Defense Appropriations Act. Naval Activity Puerto Rico will 
serve as the caretaker organization following operational closure. 
Puerto Rico has established a Local Redevelopment Authority, and we 
will proceed quickly to property disposal.
    Commander Navy Installations Command (CNI)
    We have aligned all Navy shore installations under a single command 
that will allow us to make better decisions about where to invest 
limited funds. By consolidating all base operations worldwide and 
implementing common support practices the Navy expects to save a 
substantial amount of money over the next 6 years.
Communications
    FORCEnet will provide the overarching framework and standard 
communication mechanism for future combat systems. Navy Open 
Architecture, in conjunction with the FORCEnet standards, will provide 
a common open architecture for warfare systems aboard surface, 
subsurface and selected airborne platforms such as the E-2C Advanced 
Hawkeye. A critical subset application already being procured is the 
Cooperative Engagement Capability (CEC), which will be installed on 38 
ships and 4 squadrons (16 aircraft) by fiscal year 2006. CEC includes 
robust data communication capability among cooperating units in support 
of sensor netting. In the future, CEC will also include a Joint Track 
Manager to create a single integrated air picture of sufficient quality 
to support fire control application for each combat control system.
    Navy Marine Corps Internet (NMCI) is operational and providing 
commercial IT services for more than 300,000 DON employees and 2 
combatant commanders. To date, we have ordered 330,000 of the expected 
345,000 fiscal year 2004 seats. Implementing NMCI has enabled us to 
increase the security posture of our networks and has given 
unprecedented visibility into IT costs. As we roll out NMCI we are 
doing away with the over 1,000 separate networks that the Navy used to 
run. We have reduced the number of legacy applications in the Navy's 
inventory from 67,000 to about 31,000 and begun further efforts to 
reduce this number to around 7,000--an almost 90-percent reduction. As 
we proceed with NMCI, we anticipate other opportunities for progress in 
areas such as enterprise hosting, software release management, IT 
resource analysis and technology insertion.
    We have designed the NMCI operational evaluation to provide 
critical information necessary to determine how well NMCI is supporting 
mission of the user and to judge how well service level agreement 
metrics measure the service. As part of the spiral development process, 
NMCI worked with the testing community to segment the testing effort 
into a local evaluation of network services and a higher-level 
assessment of other enterprise services. Testing was completed 15 
December 2003; the final report is due in April.
V. Navy and Marine Corps in Transformation (Future Readiness)
    The Chief of Naval Operations and Commandant of the Marine Corps 
consider the culture of transformation integral to the development of 
future combat capabilities. Innovative capabilities will result in 
profound increases in military power, maintaining the Navy and Marine 
Corps team as the preeminent global naval power. We are now at the 
point of delivering on many of our transformational goals.
    We have embraced a vision in how naval forces will contribute to 
joint warfighting in the future. This vision can only be implemented 
with the support of Congress. This section describes the principal 
components of Naval Vision 21.
Acquisition Programs
    The fiscal year 2005 budget request supports continued funding for 
accelerated development of several critical technologies into the CVN 
21 leadship. This transformational 21st century ship, the future 
centerpiece of the Navy Carrier Strike Group, will bring many 
significant changes to the fleet. These changes include a new 
electrical power generation and distribution system, the 
electromagnetic aircraft launching system, a new enlarged flight deck, 
weapons and material handling improvements, and a crew reduction of at 
least 800. Construction of the CVN 21 remains on track to start in 
fiscal year 2007.
    Critical components of Sea Power 21 are the DD(X) and LCS. These 
ships, designed from the keel up to be part of a netted force, are the 
centerpieces of the 21st century surface combatant family of ships. 
DD(X) will be a multi-mission combatant tailored for land attack. LCS 
is envisioned to be a fast, agile, relatively small and affordable 
combatant capable of operating against anti-access, asymmetric threats 
in the littorals. The FYDP includes $2.76 billion to develop and 
procure modular mission packages to support three primary missions of 
mine countermeasures, anti-submarine warfare, and anti-terrorism and 
force protection. Detail design and construction of the first LCS is 
planned to begin in fiscal year 2005.
    The V-22 Osprey, a joint acquisition program, remains a top 
aviation acquisition priority. The V-22's increased capabilities of 
range, speed, payload, and survivability will generate truly 
transformational tactical and operational opportunities. With the 
Osprey, naval forces operating from the sea base will be able to take 
the best of long-range maneuver and strategic agility, and join it with 
the best of the sustainable forcible-entry capability. LRIP will 
continue until the Milestone III decision is made late calendar year 
2005. We expect to move from LRIP to FRP in calendar year 2006.
    Another important joint program with the Air Force, the JSF has 
just completed the second year of a 10-11 year development program. The 
program is working to translate concept designs to produce three 
variants. This is a complex process requiring more initial development 
than we predicted. JSF development is experiencing typical challenges 
that affect System Development and Demonstration (SDD) program schedule 
and cost. LRIP was deferred and research and development increased to 
cover SDD challenges. The current issues are solvable within the normal 
process of design fluctuation, and have taken prudent steps necessary 
to meet these challenges.
    The plan to re-capitalize the P-3 Maritime Patrol Aircraft with the 
MMA was further refined this past year in collaboration with the Broad 
Area Maritime Surveillance--Unmanned Aerial Vehicle or BAMS-UAV 
program. With a MMA IOC of fiscal year 2013, we also developed a robust 
sustainment plan for the current P-3 that includes special structural 
inspections and kits that extend the platform service life by a minimum 
of 5,000 hours. Additionally, the Department has decided to join the 
Army's Aerial Common Sensor (ACS) program as the replacement platform 
for the aging EP-3.
    In order to maintain Electronic Warfare (EW) superiority, the 
Department is pursuing both upgrades in current Airborne Electronic 
Attack (AEA) capability as well as a follow-on AEA aircraft to replace 
the aging EA-6B. The Navy has selected the EA-18G as its follow-on AEA 
aircraft and will begin to replace Navy EA-6Bs in fiscal year 2009.
    Continuing an emphasis on transformational systems, the Department 
has budgeted R&D funding through the FYDP for several aviation 
programs. The Advanced Hawkeye (previously known as E-2 Radar 
Modernization Program (RMP)) is funded through the FYDP with the first 
production aircraft in fiscal year 2009. A fully automated digital 
engine control and improved generators have been incorporated into the 
aircraft to improve performance and reliability. Additionally, the 
Department has included funding to support procurement of required 
capabilities in the fleet, such as Advanced Targeting Forward Looking 
Infrared and the Joint Helmet Mounted Cueing Systems.
    The fiscal year 2005 budget continues to demonstrate the 
Department's commitment to developing, acquiring and fielding 
transformational UAV technologies for ISR and tactical missions. The 
budget includes funding for a second Joint Unmanned Combat Air System 
(J-UCAS) demonstrator and continues development of the BAMS. The Navy's 
Unmanned Combat Air Vehicle (UCAV-N) is incorporated into J-UCAS under 
a DOD joint program office.
    Helicopters
    The fiscal year 2005 budget request includes an incremental 
approach to developing a replacement for the current aging Presidential 
helicopter. The Presidential Helicopter Replacement Aircraft (VXX) will 
enhance performance, survivability, communications, navigation, and 
executive accommodations inherent in the existing fleet of Presidential 
airlift helicopters.
    Ballistic Missile Defense (BMD)
    The fielding of a National Ballistic Missile Defense capability is 
critical to protecting the U.S. homeland against the evolving ballistic 
missile threat. As part of the President's directive to accelerate the 
fielding of a BMD Initial Defensive Operations capability by September 
2004, the Navy will deploy, on a continuous basis, a DDG to serve as a 
Long-Range Surveillance and Tracking (LRS&T) platform. Additionally, 
Aegis Ballistic Missile Defense (ABMD) continues its development and 
testing of the SM-3 missile in order to support deployment of a sea-
based mid-course engagement capability by December 2005. Since November 
2002, ABMD had two of three successful intercepts with the SM-3 Block 0 
missile. The Navy is also evaluating the benefits associated with 
developing a Sea-based Terminal Missile Defense capability. A viable 
regional and terminal sea based ballistic missile defense system is 
important to ensure the safety of U.S. forces and the flow of U.S. 
forces through foreign ports and air fields when required.
    FORCEnet/Navy Open Architecture (OA)/Space/C\4\I
    FORCEnet is the operational construct and architectural framework 
for naval warfare in the Information Age which integrates warriors, 
sensors, networks, command and control, platforms and weapons into a 
networked, distributed combat force, scalable across the spectrum of 
conflict from seabed to space and sea to land. FORCEnet is the core of 
Sea Power 21 and Naval Transformation, and is the USN/USMC vehicle to 
make Network Centric Warfare an operational reality. It is being 
implemented in coordination with transformation initiatives in the 
Army, Air Force, and Coast Guard--enhancing efficiency, joint 
interoperability, and warfighting effectiveness. DD(X), LCS, CVN-21, 
SSGN, Virginia class SSNs, San Antonio class LPDs, and MMA are examples 
of platforms that are being designed from inception to perform in the 
netted environment of the future. Systems being procured and produced 
under the FORCEnet concept are CEC, Naval Fires Network (NFN), and 
Airborne/Maritime/Fixed (AMF) JTRS.
    The Navy is engineering a single open architecture for all warfare 
systems called Navy Open Architecture. Future systems will be designed 
to this architecture while legacy systems will be migrated to that 
single architecture where it is operationally and fiscally feasible. 
This integrates the Command and Control and Combat systems information 
flow using open specifications and standards and open architecture 
constructs, to support FORCEnet and other global information networks. 
Further, this significantly reduces the development and maintenance 
costs of computer programs. The Navy and its Joint Service partners 
continue to jointly engineer the Joint Track Manager and plan to 
implement it into Navy Open Architecture as the Open Architecture Track 
Manager. This joint focused application will be populated in all naval 
warfare systems that conform to the single OA warfare system 
architecture.
    The Navy and Marine Corps continues to pursue the maximum use of 
space to enhance our operational capabilities. We look to leverage 
existing systems and rapidly adapt emerging technology. For example, 
the Navy has long been the leader in ultrahigh frequency (UHF) 
satellite communications (SATCOM). The Navy is the executive agent for 
the next generation UHF SATCOM system. This program, the Mobile Users 
Objective System, will be the system used by all DOD components for 
their UHF communications needs.
    Sea Basing and Strategic Sealift
    Sea Basing is a transformational operating concept for projecting 
and sustaining naval power and a joint force, which assures joint 
access by leveraging the operational maneuver of sovereign, 
distributed, and networked forces operating globally from the sea.
    The Sea Basing concept has been endorsed by the other military 
services and its importance was confirmed when DOD announced a Joint 
Sea Basing Requirements Office will soon be established. Central to the 
staying power of naval forces will be the Maritime Pre-positioned 
Force-Future MPF (F). The fiscal year 2005 budget accelerates the lead 
MPF (F) from fiscal year 2008 to fiscal year 2007 to reflect an 
emphasis on Sea Basing capabilities.
Infrastructure
    Prior Rounds of Base Realignment and Closure (BRAC)
    The Department of the Navy completed the closure and realignment of 
activities from the 1988, 1991, 1993, and 1995 rounds of BRAC. All that 
remains is to complete the environmental cleanup and property disposal 
on all or portions of 23 of the original 91 bases. We have had 
significant successes on both fronts. We are successfully using 
property sales as a means to expedite the disposal process as well as 
recover the value of the property for taxpayers. We sold 235 acres last 
year at the former Marine Corps Air Station, Tustin, California on the 
GSA Internet Web site for a net $204 million. We sold 22 acres at the 
former naval Air Facility Key West, Florida, in January 2004 for $15 
million. The City of Long Beach, California, opted to pre-pay its 
remaining balance on a promissory note, and gave us $11 million to 
conclude its purchase of the former Naval Hospital Long Beach, 
California. We are applying all funds to accelerate cleanup at 
remaining prior BRAC locations. More property sales are planned that 
will be used to finance remaining prior BRAC cleanup actions. Of the 
original 161,000 acres planned for disposal from all four prior BRAC 
rounds, we expect to have less than 7 percent (or about 11,000 acres) 
still to dispose by the end of this fiscal year.
    BRAC 2005
    The Fiscal Year 2002 Defense Authorization Act authorized another 
round of BRAC in 2005. We will scrupulously follow the process laid out 
in the law. We will treat each base equally and fairly, whether 
considered for closure or realignment in the past or not. In no event 
will we make any recommendations concerning any closures or realignment 
of our bases until all the data has been collected, certified and 
carefully analyzed within the overall BRAC 2005 statutory framework.
    BRAC 2005 gives us the opportunity to transform our infrastructure 
consistent with the significant changes that are, and will be, 
happening with the transformation of our force structure. The Secretary 
of Defense is leading a process to allow the military departments and 
defense components to closely examine joint use opportunities. Military 
operations in Afghanistan and Iraq demonstrated the force multiplier 
benefits of joint operations. We will apply those approaches to our 
shore infrastructure. We will look beyond the traditional stovepipes of 
Navy bases and Marine Corps bases in BRAC 2005 and take a joint 
approach matching military requirements against capacity and 
capabilities across the Department of Defense.
    The added benefit is the opportunity to eliminate excess capacity 
and seek greater efficiencies in our shore infrastructure. Continuing 
to operate and maintain facilities we no longer need diverts precious 
resources from our primary mission. Resources freed up as a result of 
this process will be used to re-capitalize our ships, aircraft, 
equipment, and installations for the future.
    Better Business Practices
    The DON has implemented several continuous improvement initiatives 
consistent with the goals of the President's management agenda that 
enable realignment of resources in order to re-capitalize.
    Specific initiatives include: converging our Enterprise Resource 
Planning (ERP) pilots into an end-to-end operating system; 
incorporating proven world class efficiency methodologies such as Six 
Sigma and Lean concepts into our day-to-day operations; and 
implementing additional Multi-Ship/Multi-Option (MSMO) repair contracts 
and Performance Based Logistics (PBL) agreements. Of note, Lean 
efficiency events that concentrate on increasing velocity and 
productivity in our Aviation Intermediate Maintenance Departments 
(AIMD) were initiated on U.S.S. George Washington (CVN 73) and U.S.S. 
Harry Truman (CVN 75). The outcome of these events will allow us to 
improve our afloat AIMD processes and influence our future manning 
requirements on CVN 21 Class carriers. These are the first Lean events 
conducted on Navy warships.
    These continuous improvement initiatives enable us to increase our 
combat capabilities with the expectation that we become more efficient, 
agile, flexible, and reliable at a reduced cost of doing business.
VI. Our Total Force (Sailors, Marines, and Civilians)
    Today more than other time in recent history our sailors and 
marines have a greater understanding and appreciation for service to 
country. In time of war they have shown the Nation the highest 
standards of military professionalism and competence. The heaviest 
burdens in our war on terror fall, as always, on the men and women of 
our Armed Forces. We are blessed as a Nation to have a 228-year legacy 
where magnificent men and women volunteer to protect and defend 
America. Sailors and marines--along with our civilian workforce--remain 
the strong and steady foundation of our naval capabilities.
Active Duty
    The Navy and Marine Corps again met enlisted recruiting and 
accession goals in 2003, and continue to attract America's finest young 
men and women to national service. The Navy achieved recruiting goals 
for a fifth consecutive year and in February completed the 31st 
consecutive month of attaining goals for accessions and new contracts. 
The Marine Corps met its 8th year of meeting monthly and annual 
enlisted recruiting goals and its 13th year of success in officer 
recruiting. Both Services are well positioned for success in meeting 
2004 officer and enlisted accession requirements.
    During 2003, the Navy implemented a policy requiring 94 percent of 
new recruits be high school diploma graduates (HSDG), and Navy 
recruiters succeeded by recruiting 94.3 percent HSDG. Navy Recruiting 
continued to seek the best and brightest young men and women by 
requiring that 62 percent of recruits score above 50 on the Armed 
Forces Qualification Test (AFQT); Navy recruiters excelled with a rate 
of 65.7 percent. Navy recruiting also sought to increase the number of 
recruits with college experience in fiscal year 2003, recruiting more 
than 3,200 applicants with at least 12 semester hours of college.
    The Marine Corps accessed 97.1 percent high school diploma 
graduates in fiscal year 2003, exceeding their annual goal of 95 
percent and ensured the Marine Corps recruited the highest quality 
young men and women with 70.3 percent of Marine Corps recruits scoring 
over 50 on the AFQT. This achievement exceeded their annual goal of 60 
percent of accessions scoring above 50 on the AFQT. The Marine Corps 
began fiscal year 2004 with a 58.8 percent starting pool in the Delayed 
Entry Program and has continued to achieve its monthly recruiting goals 
during the second quarter of fiscal year 2004. The Marine Corps Reserve 
achieved fiscal year 2003 recruiting goals, assessing 6,174 non-prior 
service marines and 2,663 prior service marines. Navy Recruiting was 
also successful in Naval Reserve recruiting by exceeding the enlisted 
goal of 12,000 recruits for fiscal year 2003.
    Retention
    Retaining the best and brightest is as important as recruiting 
them. Military compensation that is competitive with the private sector 
provides the flexibility required to meet that challenge.
    The Marine Corps has achieved first-term reenlistment goals over 
the past 9 years. They have already achieved 79.8 percent of their 
first-term retention goal and 59.8 percent of second tour and beyond 
goals. Officer retention is at a 19-year high.
    Retention in the Navy has never been better. For the third straight 
year, we experienced the highest retention in history. Retention goals 
for all categories were exceeded. As a result, at-sea personnel 
readiness is exceptional and enlisted gaps at sea are at an all-time 
low.
    Notwithstanding our current success in retention, we are constantly 
on alert for indicators; trends and developments that might affect our 
ability to attract and retain a capable, trained and talented 
workforce. We are aware that we need to compete for the best, and 
ensure continuing readiness, through a variety of means including 
effective compensation and bonus programs.
    The Selective Reenlistment Bonus (SRB) remains the primary tool 
available to the Navy and Marine Corps for retaining our best and 
brightest enlisted personnel. SRB represents an investment in the 
future of our Navy and Marine Corps. The Department of the Navy has a 
proven track record in the judicious management of this program and 
other continuation pays used to keep the right force mix to meet the 
Nations requirements. Your continued support of the SRB program as a 
proven and highly effective tool is important and appreciated.
    Attrition
    Navy leaders reduced attrition 10 percent from a year ago and 33 
percent from fiscal year 2000, while Marine Corps First-Term Post Boot 
Camp attrition continues the favorable downward trend begun in fiscal 
year 1999. For the Marine Corps, fiscal year 2003 attrition was at a 
historical low, down 1,773 from the previous year. This drop is due 
largely to a reduction in misconduct and incidents of desertion.
    The Department's ``Zero Tolerance'' drug-use policy continues to be 
strictly enforced, widely disseminated, and supported throughout the 
leadership. Through a comprehensive random drug testing program, 
educational programs, and command support, the Navy and Marine Corps 
team achieved an 18-percent reduction in attrition even while testing 
rates increased.
    Training
    The Navy and Marine Corps have defined their respective strategies 
for advancing into the future as part of a joint force. The Services 
have developed strategies that clearly define how Navy and Marine 
forces of the 21st century will be equipped, trained, educated, 
organized and used in our continued efforts to control the seas, to 
project American military influence abroad, and to protect our borders.
    Marine Corps' Strategy 21 defines as its vision and goal the 
development of enhanced strategic agility, operational reach, and 
tactical flexibility and enabled joint, allied, and coalition 
operations.
    Navy's Sea Power 21 defines its commitment to the growth and 
development of its service members. Sea Warrior is the ``people'' part 
of Sea Power 21. Its focus is on growing individuals from the moment 
they walk into a recruiting office through their assignments as Master 
Chiefs or Flag Officers, using a career continuum of training and 
education that gives them the tools they need to operate in an 
increasingly demanding and dynamic environment. Transformation for the 
future, leveraging technology and tapping into the genius of our people 
to make them more efficient and effective--creating a single business 
process for the range of human resource management activities is 
exactly what Sea Warrior is all about. Our goal remains attracting, 
developing, and retaining the more highly skilled and educated 
workforce of warriors that will lead the 21st century Navy.
Reserves
    Reserves remain an integral part of our Navy and Marine Corps team. 
The Department of Defense is undergoing a transformation to a more 
responsive, lethal and agile force based on capabilities analysis 
rather than threat analysis. Last July, Secretary Rumsfeld issued a 
memorandum, Rebalancing Forces, in which he directed the Services to 
promote judicious and prudent use of rebalancing to improve readiness 
of the force and to help ease stress on units and individuals. Three 
areas of focus of the Services are:

        -- Enhance early responsiveness.
        -- Resolve stressed career fields.
        -- Employ innovative management practices.

    The Navy recently completed a study focused on redesigning the 
Naval Reserve so that it is better aligned with, and operationally 
relevant to, Active Forces. Working groups have been chartered to 
implement key points of the study. Implementation has commenced and 
will continue through this year and next. The three main areas of focus 
are Personnel Management, Readiness and Training, and Organizational 
Alignment. The Navy is transforming the Naval Reserve so that it is 
fully integrated with Active Forces. Reservists are shifting away from 
thinking of ``Naval Reserve requirements'' to ``Navy requirements''--a 
shift that includes goals, capabilities, and equipment. The Navy 
mission is the Naval Reserve mission. One Navy, one team, is the 
message.
    Naval and Marine Corps reservists are filling critical joint and 
internal billets along with their active counterparts. Naval and Marine 
Corps Reserve mobilization is a requirements-driven evolution and 
reservists, trained and ready, are making significant contributions. 
While the numbers of mobilized reservists can fluctuate as GWOT 
requirements dictate, our objective is to keep the number of mobilized 
personnel at a minimum.
    Since September 11, 2001, the Navy has mobilized over 22,000 
reservists with a peak of just over 12,000 during OIF. This is from a 
Selected Reserve population of just over 87,000. Mobilized commissioned 
naval units include Coastal Warfare, Construction Battalion, and 
Aviation communities, while individuals were mobilized primarily from 
Security Group, Naval Intelligence, Law Enforcement, and Physical 
Security augment units. We anticipate a steady state of approximately 
2,500 mobilized naval reservists this year.
    The Marine Corps has mobilized over 22,000 reservists from an 
authorized Selected Reserve end strength of 39,600 and just over 3,500 
from the Individual Ready Reserve. Currently mobilized reservists 
number just under 6,500. With OIF II requirements, the number of 
mobilized Marine reservists is expected to increase by approximately 
7,000. OIF II marines will deploy in two rotations of approximately 7 
months each, augmenting Marine Corps capabilities in Infantry, Armor, 
Aviation, Command, Control, Computers and Intelligence, Military 
Police, and Civil Affairs.
Civilian Personnel
    A large part of the credit for the Navy's outstanding performance 
goes to our civilian workforce. These experienced and dedicated 
craftspeople, researchers, supply and maintenance specialists, computer 
experts, service providers, and their managers are an essential part of 
our total naval force concept.
    In the past, our ability to utilize these skilled human resources 
to accomplish the complex and fast-developing missions of the 21st 
century has been limited by the requirements of a 19th century 
personnel system. The Fiscal Year 2004 Defense Authorization Bill now 
allows DOD to significantly redesign a National Security Personnel 
System (NSPS) for the civilian workforce. This change represents the 
most significant improvement to civilian personnel management since the 
1978 Civil Service Reform Act.
    The DON has volunteered to be in the first wave of conversions to 
NSPS later this year. The Department expects to transition as many as 
150,000 of our dedicated, hard-working civilians to the new system this 
year. We will work closely with DOD to ensure we meet this aggressive 
timeline. We are also working Defense Acquisition Workforce Improvement 
Act streamlining initiatives alongside NSPS to ensure we use these 
tools to produce a robust and capable workforce.
    The reforms will provide supervisors and managers greater 
flexibility in managing our civil service employees, facilitate 
competition for high quality talent, offer compensation competitive 
with the private sector, and reward outstanding service. It will build 
greater pride in the civilian workforce and attract a new generation of 
civilians to public service. Properly executed, these changes also will 
assist us in better utilizing the Active-Duty Force by making it easier 
to employ civilians in jobs currently filled by uniformed military 
personnel.
    NSPS legislation will have a transformational effect on 
organizational design across the Department. NSPS will improve 
alignment of the human resources system with mission objectives, 
increase agility to respond to new business and strategic needs, and 
reduce administrative burden. The NSPS Act authorizes a more flexible 
civilian personnel management system that allows us to be a more 
competitive and progressive employer at a time when our national 
security demands a highly responsive system of civilian personnel 
management. The legislation also ensures merit systems principles 
govern changes in personnel management, whistleblowers are protected, 
discrimination remains illegal, and veterans' preference is protected. 
The process for the design of NSPS is specified by statue and covers 
the following areas: job classification, pay banding, staffing 
flexibilities, and pay for performance.
    The foundation for NSPS is a more rigorous tie between performance 
and monetary awards for employees and managers. Basic pay and 
performance incentives should be tied directly to the performance 
measurement process--supervisory personnel are also rewarded for 
successfully performing managerial duties. Implementation of this 
system will be a significant step forward by linking employees' 
performance to mission accomplishment and enabling better management of 
scarce resources throughout the DON.
    We are faced with a monumental change in how we will do business 
and an even larger cultural change from one of entitlement to one that 
has a performance-based compensation. This will be a huge effort and we 
are determined to ensure successful implementation. We will continue to 
scrutinize our human resource business methods. As we implement the 
bold initiatives in NSPS, we will take a hard look at our 
administrative policies with a specific eye on those that are 
burdensome or add no value.
Quality of Service
    We will continue to provide an environment where our sailors and 
marines, and their families have confidence in themselves, in each 
other, in their equipment and weapons, and in the institution they have 
chosen to serve. This year, with your help, we continued the 
significant advances in compensation, in building the structure to 
realize the promise of the revolution in training, in improving 
bachelor and family housing, and in strengthening our partnership with 
Navy and Marine Corp families.
    The Department remains committed to improving living conditions for 
sailors and marines, and their families. Our policy is to rely first on 
the private sector to house military families. As a result, along with 
the initiative to increase Basic Allowance for Housing (BAH), the need 
and consequently the inventory for military family housing is going 
down. Additionally, we are partnering with the private sector in 
Public/Private Ventures (PPV) to eliminate inadequate housing.
    At the top of nearly any list put together in our partnership is 
the promise of medical care for sailors, marines, and their families. 
Naval medicine is a force multiplier, ensuring our troops are 
physically and mentally ready to whatever challenges lie ahead. High 
quality care and health protection are a vital part of our ability to 
fight the global war on terrorism and execute other worldwide mission. 
Naval medicine today is focused on supporting the deployment readiness 
of the uniformed services and promoting, protecting and maintaining the 
health of all those entrusted to naval medicine care--anytime, 
anywhere.
Safety
    The Navy and Marine Corps are working to meet the Secretary of 
Defense's goal of reducing mishaps by 50 percent from fiscal year 2002 
to the end of fiscal year 2005. We have many initiatives in place and 
planned for the near future. We have seen real progress in reducing 
private motor vehicle fatalities, which are down 20 percent from the 
fiscal year 2002 baseline. We have begun applying technologies now used 
in commercial aviation to provide a visual and quantitative feedback 
loop to pilots and mechanics when either the pilot or aircraft has 
exceeded specific safety of flight parameters. We will continue to 
press forward with safety both to take care of people, our most 
precious asset, and to allow us to invest elsewhere.
Shaping the Force
    The Navy is making an effort to reduce its active duty manpower as 
part of the DON transformation program. This is the first step and an 
integral part of our strategy to properly shape both the officer and 
enlisted force. Today, as the Navy moves to a more efficient and surge-
ready force, maintaining the correct skill sets is more important than 
ever. We are convinced we can get the job done with fewer people; by 
eliminating excess manpower we can focus better on developing and 
rewarding our high-performing forces. Additionally, reducing manpower 
gradually today will ensure the Navy is properly manned when a new 
generation of optimally manned ships joins our force, with completely 
revised maintenance, training, and war-fighting requirements. We will 
ensure any manpower reductions will be preceded by reductions in 
functions.
VII. Summary
    Naval forces remain a critical and unique element of our national 
security strategy. The Navy and Marine Corps team answers the 
President's call to duty by being the first on station--with staying 
power. Our forces exploit the open oceans and provide the combatant 
commander with persistent sovereign combat naval forces. This is the 
value that credible forward deployed naval forces provide our Nation.
    The fiscal year 2005 budget unifies many of our innovative and 
transformational technologies with Naval Power 21. Sustaining 
investment in naval forces continues to protect and promote American 
interests by allowing the forward deployed Navy and Marine Corps team 
to shape the international security environment and to respond to the 
full spectrum of current and future crises.
    With our fiscal year 2005 budget request we focus on people, combat 
capability, technology insertion, and improved business practices. 
Additionally, we continue to work with our joint service partners in 
organizing, equipping and training to fight jointly. With continued 
congressional support the Department of the Navy will position the Navy 
and Marine Corps team as part of the most formidable military force in 
the 21st century.

    Senator Inhofe. Thank you, Secretary England.
    Secretary Roche.

  STATEMENT OF HON. JAMES G. ROCHE, SECRETARY OF THE AIR FORCE

    Secretary Roche. Thank you, Mr. Chairman, Senator Levin, 
and members of the committee. It's my great pleasure to appear 
before this distinguished body to represent the 700,000 active, 
Guard, Reserve, and civilian airmen who are engaged in 
defending our Nation.
    General John Jumper and I are certainly proud of their 
achievements and service this past year, from combat 
operations, to homeland defense, to their daily efforts that 
guarantee the health, security, and morale of our force. 
They've contributed significantly to our Nation's global fight 
against terrorism, to our military achievements in Iraq and 
Afghanistan. They are devoted American servants, and have my 
utmost respect and confidence. But I'd also like to say how 
honored I am to serve alongside General John Jumper. He is an 
outstanding leader, and, like my two colleagues, it's a delight 
to work with him.
    Our highest priority continues to be a focus on warfighting 
and delivering the capability that enables us to remain 
decisive in combat. Combatant commanders rely on us to provide 
the full spectrum of air and space capabilities, all while 
protecting our homeland. Through the efforts of this committee, 
your colleagues in Congress, and dedicated professionals in the 
Department, we are proud to report that we are meeting these 
objectives.
    As we highlight in our written testimony, we continue to 
adapt the Air Force to realize the President and Secretary 
Rumsfeld's vision of transformation. Our strategy is to exploit 
the sources of strength that give us the military advantages 
that we enjoy today. Our goal is to build a portfolio of 
advantages, one that uses operational concepts to guide 
investments, is relevant to the joint character of warfare, and 
is useful in the increasingly asymmetric conduct of warfare. To 
date, we've made great progress in applying this approach.
    In terms of strategy, we refocused Air Force strategic 
thinking on core competencies, we refined our air expeditionary 
forces, and focused our training to support homeland defense, 
close-air support, and close partnering with land, maritime, 
and special operations forces. We are putting our space 
programs on track. We've increased the unity of effort among 
the Air Force, the National Reconnaissance Office, and 
intelligence community, and we have enhanced space support for 
the warfighter, bringing a joint perspective to our role as the 
Department of Defense's executive agent for space. We've made 
significant investments in our people over the past time.
    With respect to capabilities, we've delivered a transformed 
Air Force to the battlefield--armed Predators, Global Hawks, 
bombers working closely with battlefield airmen on the ground, 
new tactics for time-sensitive targets, networked intelligence 
surveillance, reconnaissance, and the combined air operations 
center.
    Where it makes sense, we've integrated active, Guard, and 
Reserve units as part of our future total force, and we 
continue to do so when it enhances our combat capability, 
increases our surge capacity, enables us to achieve 
efficiencies in how we organize, train, and equip our total 
force.
    We have engaged with industry to stabilize production of 
critical Air Force capabilities--the F/A-22, C-17, Predators, 
Global Hawk, and other systems--thereby, increasing 
efficiencies in the supplier base.
    We are transforming the F/A-22 by integrating new avionics 
and weapons that will make it the premier air-to-ground strike 
system in heavily defended areas, as well as highly effective 
against cruise missiles, in addition to its role in deterring 
any nation from challenging our ability to gain and maintain 
air dominance. Our F/A-22 budget request continues much needed 
program stability, and supports the transition from development 
to operational tests with initial operational capability (IOC) 
at the end of fiscal year 2005.
    Our next step is to focus in four distinct mission areas, 
all with demonstrable capabilities to support land and surface 
forces. We are realistically modernizing our special operations 
aircraft, starting with needed recapitalization of our 
helicopter force, continuing with the tools essential to link 
air and ground capabilities.
    We are increasing our attention to close air support from 
various altitudes. In this regard, we will seek to update an 
as-yet-to-be-determined number of A-10s, and we will acquire 
the short-takeoff vertical landing (STOVL) version of the Joint 
Strike Fighter (JSF) by further expanding our opportunities for 
integration with our Marine Corps brethren.
    We are developing a long-range strike strategy that 
includes an investment plan to sustain our legacy force, and 
possibly a future stealthy regional bomber.
    We are focusing on joint warfighting in space, working with 
other interested parties on rapid insertion of microsats, as 
well as potential methods of protecting our space assets.
    Beyond establishing and maintaining air dominance, there 
are initiatives where we are pressing forward with families of 
UAVs or remotely-piloted aircraft, many of which will support 
land combat directly and in real time. We are building a 
portfolio of sensing capabilities, and we continue to develop 
ground-moving target-indicator capabilities, cruise missile 
defense technologies, as well as new integration of battlefield 
command and control (C2) capabilities, all focused on dramatic 
support of land forces.
    In the interest of time, Mr. Chairman, I'll move past some 
of this.
    One of the concerns in our budget that I would like to 
highlight is the growing pressure and increased cost in our 
military healthcare system. Improvements to Tricare benefit 
over the past several years, coupled with escalating premiums 
and co-pays in the civilian sector, are driving many retirees 
and family members to choose Tricare. Over the past 2 years, we 
have seen an 8 percent increase in the number of retirees using 
our system. From one point of view, this is a good story, 
validation that we are caring for our retired service members. 
It comes, however, with significant cost growth. This year, the 
Department reprogrammed over $600 million to pay for this 
growth, costs increasingly absorbed by the Services. Although 
you will mark the DOD health program as a separate 
authorization, I ask that you keep this increased usage and 
cost in mind as you consider any proposed expansion of 
benefits.
    Finally, our budget request includes increases of both 
research, development, test, and evaluation (RDT&E) and 
procurement to support our emphasis on transformation and 
modernization consistent with the strategy we've discussed. Our 
proposed budget makes a significant investment in a number of 
critical joint programs: C-17s, C-130Js, Predators, Global 
Hawks, and joint space capabilities, including transformational 
communications, space-based radar, and military satellite 
communications. We are also investing in a wide range of joint 
weapons for close-air support and precision strike, including 
more than 23,000 Joint Direct Attack Munitions (JDAMs). In 
addition to our increased focus on air-to-ground concepts of 
operations (CONOPs), we are proud of our continued investment 
in these joint warfighting capabilities needed by our combatant 
commanders.
    Finally, our tanker recapitalization initiative is on hold. 
The initiative is complicated enough, so I am in complete 
agreement with Secretary Rumsfeld's desire to ensure that it 
was not tainted by any illegality. Meanwhile, as I told the 
committee 2 years ago, we are programming money, starting in 
fiscal year 2006, to conduct a KC-X tanker replacement program, 
which will be a normal new-aircraft procurement.
    Let me close today on the subject of sexual assault. With 
the help of this committee, your counterparts in the House, the 
Fowler panel, and the reinvigorated Air Force Academy Board of 
Visitors, we have taken a wide range of actions at the Academy 
to protect our cadets and to implement a system of response, 
investigation, and victim care consistent with that in the 
operational Air Force. Since the implementation of the Agenda 
for Change, in March of last year, and the release of the 
Fowler Panel Report, I am pleased to report that there has been 
meaningful progress across multiple fronts. The Academy senior 
leadership is aggressively focused on the areas of basic cadet 
training, officer development, and cadet discipline systems. In 
the area of prevention, we have sought outside experts to 
review and assist in training faculty, staff, and leadership. 
We have incorporated almost all of the Fowler recommendations 
to enhance training, implemented a tough new alcohol policy, 
and, most important, we have created an integrated response 
team for victims of sexual assault.
    But we continue to refine our approach. For instance, based 
on the Fowler Panel's recommendation of confidentiality we have 
attempted to strike a balance between the needs of the victim 
and the necessity of investigating felony allegations. While 
this is proving to be a difficult concept to implement, we 
sincerely believe it is in our best interest to remove barriers 
to victims coming forward so that we can prosecute criminal 
offenders.
    Whether we look at the record numbers or increasing quality 
of female applicants to the Academy, our initial indications 
are very positive. As of today, the Academy admissions office 
has received over 3,000 applications from women, an increase of 
over 35 percent, and the largest number of female applicants in 
the history of the Academy. The increases in the average grade 
point averages across all four classes of cadets, both male and 
female, appear to show that we are continuing to instill an 
improved climate for learning, as well. These are initial good 
signs, but we are in a long-term agenda to change the culture, 
and we know there is much to do, so we will remain focused.
    Finally, Mr. Chairman, I want to inform the committee of a 
recently commissioned assessment we've ordered of our sexual 
assault response system across the Air Force. General Jumper 
and I have tasked our major-command commanders to include 
education, training, and prevention, reporting procedures, 
response programs, and program oversight in these comprehensive 
reviews. We directed this assessment across our major commands 
prior to the recent articles about Sheppard Air Force Base. In 
fact, we did it very quietly in the fall of this year to do a 
review of our Pacific air forces in order to get a benchmark as 
to how our Active Force was doing relative to the things that 
we learned from the Air Force Academy's situation.
    Mr. Chairman, members of the committee, I am proud to be a 
part of the finest air force in the world, and am honored to be 
part of the joint team that has done much to defend America and 
our interests. With your continued support and the investment 
this budget makes in adapting our force for the demands of this 
new era, we will continue to deliver for our citizens.
    I look forward to your questions. Thank you very much.
    [The prepared statement of Secretary Roche follows:]
               Prepared Statement by Hon. James G. Roche
    Mr. Chairman, Senator Levin, and distinguished members of the 
committee, the Air Force has an unlimited horizon for air and space 
capabilities. Our Service was borne of innovation, and we remain 
focused on identifying and developing the concepts of operations, 
advanced technologies, and integrated operations required to provide 
the joint force with unprecedented capabilities and to remain the 
world's dominant air and space force.
    Throughout our distinguished history, America's Air Force has 
remained the world's premier air and space power because of our 
professional airmen, our investment in warfighting technology, and our 
ability to integrate our people and systems together to produce 
decisive effects. These Air Force competencies are the foundation that 
will ensure we are prepared for the unknown threats of an uncertain 
future. They will ensure that our combatant commanders have the tools 
they need to maintain a broad and sustained advantage over any emerging 
adversaries.
    In this strategic environment of the 21st century, and along with 
our sister Services, our Air Force will continue to fulfill our 
obligation to protect America, deter aggression, assure our allies, and 
defeat our enemies. As we adapt the Air Force to the demands of this 
era, we remain committed to fulfilling our global commitments as part 
of the joint warfighting team. In partnership, and with the continuing 
assistance of Congress, we will shape the force to meet the needs of 
this century, fight the global war on terrorism, and defend our Nation.
    The 2004 Posture Statement is our vision for the upcoming year and 
is the blueprint we will follow to sustain our air and space dominance 
in the future. We are America's Air Force--disciplined airmen, dominant 
in warfighting, decisive in conflict.
                              introduction
    In 2003, U.S. and coalition military operations produced 
unprecedented mission successes--across the spectrum of conflict and 
around the globe. The joint warfighting team demonstrated combat 
capability never previously witnessed in the history of conflict. 
Integrating capabilities from air, land, sea, and space, the U.S. and 
coalition allies achieved considerable progress in the ongoing global 
war on terrorism. In our most recent engagements, our Armed Forces 
fulfilled our immediate obligations to defend America, deter 
aggression, assure our allies, and defeat our enemies.
    The foundation of these achievements can be found in the Department 
of Defense's (DOD) commitment to teamwork and excellence. Operation 
Iraqi Freedom (OIF) was a joint and coalition warfighting effort from 
planning to execution. Air, ground, maritime, and space forces worked 
together at the same time for the same objectives, not merely staying 
out of each other's way, but orchestrated to achieve wartime 
objectives. Our air and space forces achieved dominance throughout the 
entire theater, enabling maritime and ground forces to operate without 
fear of enemy air attack. Our airmen demonstrated the flexibility, 
speed, precision, and compelling effects of air and space power, 
successfully engaging the full range of enemy targets, from the 
regime's leadership to fielded forces. When our ground and maritime 
components engaged the enemy, they were confident our airmen would be 
there--either in advance of their attacks, or in support of their 
operations. America's Air Force was there, disciplined, dominant, and 
decisive.
    These operational accomplishments illustrate the growing maturation 
of air and space power. Leveraging the expertise of our airmen, the 
technologies present in our 21st century force, and the strategies, 
concepts of operation, and organizations in use today, the U.S. Air 
Force continues to adapt to meet the demands of this new era, while 
pursuing the war on terrorism and defending the homeland.
    On September 11, 2001, the dangers of the 21st century became 
apparent to the world. Today, the U.S. faces an array of asymmetric 
threats from terrorists and rogue states, including a threat that poses 
the gravest danger to our Nation, the growing nexus of radicalism and 
technology. As we continue our work in Afghanistan and Iraq, we stand 
ready to respond to flashpoints around the world, prepared to counter 
the proliferation of weapons of mass destruction to unfriendly states 
and non-state entities.
    We are adapting to new and enduring challenges. As we do, we are 
exploiting the inherent sources of strength that give us the advantages 
we enjoy today. It is a strategy predicated on the idea that, if we 
accurately assess our own advantages and strengths, we can invest in 
them to yield high rates of military return. This approach helps us 
create a portfolio of advantages allowing us to produce and continue to 
exploit our capabilities. Our goal is to create a capability mix 
consistent with operational concepts and effects-driven methodology, 
relevant to the joint character and increasingly asymmetric conduct of 
warfare.
    Since 1945, when General Henry ``Hap'' Arnold and Dr. Theodore von 
Karman published ``Toward New Horizons,'' the Air Force has evolved to 
meet the changing needs of the Nation--with the sole objective of 
improving our ability to generate overwhelming and strategically 
compelling effects from air and now, space. It is our heritage to adapt 
and we will continue to do so. During this comparatively short history, 
we became the best air and space force in the world through our focus 
on the development of professional airmen, our investment in 
warfighting technology, and our ability to integrate people and systems 
to produce decisive joint warfighting effects.
    The Air Force is making a conscious investment in education, 
training, and leader development to foster critical thinking, 
innovation, and encourage risk taking. We deliberately prepare our 
airmen--officer, enlisted, and civilian--with experience, assignments, 
and broadening that will allow them to succeed. When our airmen act in 
the combined or joint arena, whether as an Air Liaison Officer to a 
ground maneuver element, or as the space advisor to the Joint Force 
Commander (JFC), this focused professional development will guide their 
success.
    We are also investing in technologies that will enable us to create 
a fully integrated force of intelligence capabilities, manned, unmanned 
and space assets that communicate at the machine-to-machine level, and 
real-time global command and control (C2) of joint, allied, and 
coalition forces. Collectively, these assets will enable compression of 
the targeting cycle and near-instantaneous global precision-strike.
    As we cultivate new concepts of global engagement, we will move 
from analog to digital processes and adopt more agile, non-linear ways 
of integrating to achieve mission success. This change in thinking 
leads to capabilities including: networked communications; multi-
mission platforms which fuse multi-spectral sensors; integrated global 
intelligence, surveillance, and reconnaissance (ISR); robust, all-
weather weapons delivery with increased standoff; small smart weapons; 
remotely-piloted and unattended aircraft systems; advanced air 
operations centers; more secure position, navigation, and timing; and a 
new generation of satellites with more operationally responsive launch 
systems.
    Investment in our core competencies is the foundation of our 
preparation for future threats. They ensure we have the tools we need 
to maintain strategic deterrence as well as a sustained advantage over 
our potential adversaries. Ultimately, they ensure we can deliver the 
dominant warfighting capability our Nation needs.
    Potential adversaries, however, continue to pursue capabilities 
that threaten the dominance we enjoy today. Double-digit surface-to-air 
missile systems (SAMs) are proliferating. China has purchased 
significant numbers of these advanced SAMs, and there is a risk of 
wider future proliferation to potential threat nations. Fifth-
generation advanced aircraft with capabilities superior to our present 
fleet of frontline fighter/attack aircraft are in production. China has 
also purchased, and is developing, advanced fighter aircraft that are 
broadly comparable to the best of our current frontline fighters. 
Advanced cruise missile technology is expanding, and information 
technology is spreading. Access to satellite communications, imagery, 
and use of the Global Positioning System (GPS) signal for navigation 
are now available for anyone willing to purchase the necessary 
equipment or services. With this relentless technological progress and 
the potential parity of foreign nations, as well as their potential 
application in future threats, the mere maintenance of our aging 
aircraft and space systems will not suffice. Simply stated, our current 
fleet of legacy systems cannot always ensure air and space dominance in 
future engagements.
    To counter these trends, we are pursuing a range of strategies that 
will guide our modernization and recapitalization efforts. We are using 
a capabilities-based planning and budgeting process, an integrated and 
systematic risk assessment system, a commitment to shorter acquisition 
cycle times, and improved program oversight. Our goal is to integrate 
our combat, information warfare, and support systems to create a 
portfolio of air and space advantages for the joint warfighter and the 
Nation. Thus, we continue to advocate for program stability in our 
modernization and investment accounts.
    The principal mechanisms that facilitate this process are our Air 
Force Concepts of Operation (CONOPs). Through the CONOPs, we analyze 
problems we'll be asked to solve for the JFCs, identify the 
capabilities our expeditionary forces need to accomplish their 
missions, and define the operational effects we expect to produce. 
Through this approach, we can make smarter decisions about future 
investment, articulate the link between systems and employment 
concepts, and identify our capability gaps and risks.
    The priorities that emerge from the CONOPs will guide a reformed 
acquisition process that includes more active, continuous, and creative 
partnerships among the requirement, development, operational test, and 
industry communities who work side-by-side at the program level. In our 
science and technology planning, we are also working to demonstrate and 
integrate promising technologies quickly by providing an operational 
``pull'' that conveys a clear vision of the capabilities we need for 
the future.
    We are applying this approach to our space systems as well. As the 
DOD's Executive Agent for Space, we are producing innovative solutions 
for the most challenging national security problems. We have defined a 
series of priorities essential to delivering space-based capabilities 
to the joint warfighter and the Intelligence Community. Achieving 
mission success--in operations and acquisition--is our principal 
priority. This requires us to concentrate on designing and building 
quality into our systems. To achieve these exacting standards, we will 
concentrate on the technical aspects of our space programs early on--
relying on strong systems engineering design, discipline, and robust 
test programs. We also have many areas that require a sustained 
investment. We need to replace aging satellites, improve outmoded 
ground control stations, achieve space control capabilities to ensure 
freedom of action, sustain operationally responsive assured access to 
space, address bandwidth limitations, and focus space science and 
technology investment programs. This effort will require reinvigorating 
the space industrial base and funding smaller technology incubators to 
generate creative ``over the horizon'' ideas.
    As we address the problem of aging systems through renewed 
investment, we will continue to find innovative means to keep current 
systems operationally effective. In OIF, the spirit of innovation 
flourished. We achieved a number of air and space power firsts: 
employment of the B-1 bomber's synthetic aperture radar and ground 
moving target indicator for ISR; incorporation of the Litening II 
targeting pod on the F-15, F-16, A-10, and the B-52; and use of a 
Global Hawk for strike coordination and reconnaissance while flown as a 
remotely piloted aircraft. With these integrated air and space 
capabilities, we were able to precisely find, fix, track, target, and 
rapidly engage our adversaries. These examples illustrate how we are 
approaching adaptation in the U.S. Air Force.
    Ultimately, the success of our Air Force in accomplishing our 
mission and adapting to the exigencies of combat stems from the more 
than 700,000 active, Guard, Reserve, and civilian professionals who 
proudly call themselves ``airmen.'' In the past 5 years, they have 
displayed their competence and bravery in three major conflicts: the 
Balkans, Afghanistan, and Iraq. They are a formidable warfighting 
force, imbued with an expeditionary culture, and ready for the 
challenges of a dangerous world.
    Poised to defend America's interests, we continue to satisfy an 
unprecedented demand for air and space warfighting capabilities--
projecting American power globally while providing effective homeland 
defense. This is the U.S. Air Force in 2004--we foster ingenuity in the 
world's most professional airmen, thrive on transitioning new 
technologies into joint warfighting systems, and drive relentlessly 
toward integration to realize the potential of our air and space 
capabilities. We are America's airmen--confident in our capability to 
provide our Nation with dominance in air and space.
              air and space dominance in a new environment
    The U.S. Air Force ensures a flexible, responsive, and dominant 
force by providing a spectrum of operational capabilities that 
integrate with joint and Coalition Forces. To sustain and improve upon 
the dominance we enjoy today, the Air Force will remain engaged with 
the other services, our coalition partners, interagency teams, and the 
aerospace industry. As we do, we will incorporate the lessons learned 
from rigorous evaluation of past operations, detailed analyses of 
ongoing combat operations, and thoughtful prediction of the 
capabilities required of a future force.
    The pace of operations over the past year enabled us to validate 
the function and structure of our Air and Space Expeditionary Forces 
(AEFs). Operations in 2003 demanded more capability from our AEFs than 
at any time since their inception in 1998. However, for the first time 
we relied exclusively on our AEFs to present the full range of our 
capabilities to the combatant commanders. Through our 10 AEFs, our AEF 
prime capabilities (space, national ISR, long range strike, nuclear, 
and other assets), and our AEF mobility assets, we demonstrated our 
ability to package forces, selecting the most appropriate combat ready 
forces from our total force, built and presented expeditionary units, 
and flowed them to the theaters of operation in a timely and logical 
sequence. We rapidly delivered them to the warfighters, while 
preserving a highly capable residual force to satisfy our global 
commitments.
    More than three-fourths of our 359,300 active duty airmen are 
eligible to deploy and are assigned to an AEF. Through much of the past 
year, Total Force capabilities from 8 of the 10 AEFs were engaged 
simultaneously in worldwide operations. The remaining elements were 
returning from operations, training, or preparing to relieve those 
currently engaged. By the end of 2003, more than 26,000 airmen were 
deployed, supporting operations around the world.
    In 2004, we will continue to use the AEFs to meet our global 
requirements while concurrently reconstituting the force. Our number 
one reconstitution priority is returning our forces to a sustainable 
AEF battle rhythm while conducting combat operations. Attaining this 
goal is about revitalizing capabilities. For most airmen, that will 
include a renewed emphasis on joint composite force training and 
preparation for rotations in the AEF. Through the AEF, the Air Force 
presents right-sized, highly trained expeditionary units to JFCs for 
employment across the spectrum of conflict.
Global War on Terrorism
    The year 2003 marked another historic milestone for the U.S. and 
the Air Force in the global war on terrorism. Since September 11, 2001, 
air and space power has proven indispensable to securing American 
skies, defeating the Taliban, denying sanctuary to al Qaeda and other 
terrorist organizations, and most recently, removing a brutal and 
oppressive dictator in Iraq. This global war on terrorism imposes on 
airmen a new steady state of accelerated operations and personnel tempo 
(PERSTEMPO), as well as a demand for unprecedented speed, agility, and 
innovation in defeating unconventional and unexpected threats, all 
while bringing stability and freedom to Afghanistan and Iraq. The Air 
Force and its airmen will meet these demands.
Operation Noble Eagle
    High above our Nation, airmen protect our skies and cities through 
air defense operations known as Operation Noble Eagle (ONE). The Total 
Force team, comprised of active duty, Air National Guard, and Air Force 
Reserve airmen, conducts airborne early warning, air refueling, and 
combat air patrol operations in order to protect sensitive sites, 
metropolitan areas, and critical infrastructure.
    This constant ``top cover'' demands significant Air Force assets, 
thus raising the baseline of requirements above the pre-September 11 
tempo. Since 2001, this baseline has meant over 34,000 fighter, tanker, 
and airborne early warning sorties were added to Air Force 
requirements.
    This year the Air Force scrambled nearly 1,000 aircraft, responding 
to 800 incidents. Eight active duty, 8 Air Force Reserve, and 18 Air 
National Guard units provided 1,300 tanker sorties offloading more than 
32 million pounds of fuel for these missions. Last year, over 2,400 
airmen stood vigilant at air defense sector operations centers and 
other radar sites. Additionally, in 2003, we continued to 
institutionalize changes to our homeland defense mission through joint, 
combined, and interagency training and planning. Participating in the 
initial validation exercise Determined Promise-03, the Air Force 
illustrated how its air defense, air mobility, and command and control 
capabilities work seamlessly with other agencies supporting NORTHCOM 
and Department of Homeland Security objectives. The integration and 
readiness that comes from careful planning and rigorous training will 
ensure the continued security of America's skies.
Operation Enduring Freedom--Afghanistan
    Operation Enduring Freedom--Afghanistan (OEF) is ongoing. Remnants 
of Taliban forces continue to attack U.S., NATO, coalition troops, 
humanitarian aid workers, and others involved in the reconstruction of 
Afghanistan. To defeat this threat, aid coalition stability, and 
support operations, the Air Force has maintained a presence of nearly 
24,000 airmen in and around the region. Having already flown more than 
90,000 sorties (over 72 percent of all OEF missions flown), the Air 
Force team of active, Guard, and Reserve airmen continue to perform 
ISR, close air support (CAS), aerial refueling, and tactical and 
strategic airlift.
    While fully engaged in ONE and OIF, the men and women of the Air 
Force provided full spectrum air and space support, orchestrating 
assets from every service and 10 different nations. Of these, Air Force 
strike aircraft flying from nine bases flew more than two-thirds of the 
combat missions, dropped more than 66,000 munitions (9,650 tons) and 
damaged or destroyed approximately three-quarters of planned targets. 
In 2003 alone, Air Force assets provided more than 3,000 sorties of on-
call CAS, responding to calls from joint and/or Coalition Forces on the 
ground.
    Last year, the Air Force brought personnel and materiel into this 
distant, land-locked nation via 7,410 sorties. Over 4,100 passengers 
and 487 tons of cargo were moved by airmen operating at various Tanker 
Airlift Control Elements in and around Afghanistan. To support these 
airlift and combat sorties and the numerous air assets of the coalition 
with aerial refueling, the Air Force deployed over 50 tankers. In their 
primary role, these late 1950s-era and early 1960s-era KC-135 tankers 
flew more than 3,900 refueling missions. In their secondary airlift 
role, they delivered 3,620 passengers and 405 tons of cargo. Without 
versatile tankers, our Armed Forces would need greater access to 
foreign bases, more aircraft to accomplish the same mission, more 
airlift assets, and generate more sorties to maintain the required 
duration on-station.
    Operations in Afghanistan also highlight U.S. and coalition 
reliance on U.S. space capabilities. This spanned accurate global 
weather, precise navigation, communications, as well as persistent 
worldwide missile warning and surveillance. For example, OEF relied on 
precision navigation provided by the Air Force's GPS constellation, 
over-the-horizon satellite communications (SATCOM), and timely 
observations of weather, geodesy, and enemy activity. To accomplish 
this, space professionals performed thousands of precise satellite 
contacts and hundreds of station keeping adjustments to provide 
transparent space capability to the warfighter. These vital space 
capabilities and joint enablers directly leveraged our ability to 
pursue U.S. objectives in OEF.
Operations Northern Watch and Southern Watch
    During the past 12 years, the Air Force flew over 391,000 sorties 
enforcing the northern and southern no-fly zones over Iraq. With the 
preponderance of forces, the Air Force, along with the Navy and Marine 
Corps, worked alongside the Royal Air Force in Operations Northern 
Watch (ONW) and Southern Watch (OSW). Manning radar outposts and 
established C2 centers, conducting ISR along Iraq's borders, responding 
to almost daily acts of Iraqi aggression, and maintaining the required 
airlift and air refueling missions taxed Air Force assets since the end 
of Operation Desert Storm. Yet, these successful air operations had 
three main effects: they halted air attacks on the ethnic minority 
populations under the no-fly zones; they deterred a repeat of Iraqi 
aggression against its neighbors; and they leveraged enforcement of 
United Nations Security Council Resolutions. Throughout this period, 
our airmen honed their warfighting skills, gained familiarity with the 
region, and were able to establish favorable conditions for OIF. For 
more than a decade, American airmen rose to one of our Nation's most 
important challenges, containing Saddam Hussein.
Operation Iraqi Freedom
    On 19 March 2003, our airmen, alongside fellow soldiers, sailors, 
marines, and coalition teammates, were called upon to remove the 
dangerous and oppressive Iraqi regime--this date marked the end of ONW/
OSW and the beginning of OIF. OIF crystallized the meaning of jointness 
and the synergies of combined arms and persistent battlefield 
awareness.
    In the first minutes of OIF, airmen of our Combat Air Forces (USAF, 
USN, USMC, and coalition) were flying over Baghdad. As major land 
forces crossed the line of departure, Air Force assets pounded Iraqi 
command and control facilities and key leadership targets, decapitating 
the decisionmakers from their fielded forces. Remaining Iraqi leaders 
operated with outdated information about ground forces that had already 
moved miles beyond their reach. As the land component raced toward 
Baghdad, coalition strike aircraft were simultaneously attacking Iraqi 
fielded forces, communications and command and control centers, 
surface-to-surface missile launch sites, and were supporting special 
operations forces, and ensuring complete air and space dominance in the 
skies over Iraq. Due to these actions and those during the previous 12 
years, none of the 19 Iraqi missile launches were successful in 
disrupting coalition operations, and not a single Iraqi combat sortie 
flew during this conflict. Twenty-one days after major combat 
operations began, the first U.S. land forces reached Baghdad. Five days 
later, the last major city in Iraq capitulated.
    The Air Force provided over 7,000 CAS sorties to aid land forces in 
the quickest ground force movement in history. Lieutenant General 
William S. Wallace, Commander of the U.S. Army V Corps said, ``none of 
my commanders complained about the availability, responsiveness, or 
effectiveness of CAS--it was unprecedented!'' As Iraqi forces attempted 
to stand against the integrated air and ground offensive, they found a 
joint and coalition team that was better equipped, better trained, and 
better led than ever brought to the field of battle.
    Training, leadership, and innovation coupled with the Air Force's 
recent investment in air mobility allowed U.S. forces to open a second 
major front in the Iraqi campaign. Constrained from access by land, Air 
Force C-17s airdropped over 1,000 paratroopers from the 173rd Airborne 
Brigade into northern Iraq. This successful mission opened Bashur 
airfield and ensured U.S. forces could be resupplied.
    Before 2003, the Air Force invested heavily in the lessons learned 
from OEF. Shortening the ``kill chain,'' or the time it took to find, 
fix, track, target, engage, and assess was one of our top priorities. 
This investment was worthwhile, as 156 time-sensitive targets were 
engaged within minutes, most with precision weapons. The flexibility of 
centralized control and decentralized execution of air and space power 
enabled direct support to JFC objectives throughout Iraq. Coalition and 
joint airpower shaped the battlefield ahead of ground forces, provided 
intelligence and security to the flanks and rear of the rapidly 
advancing coalition, and served as a force multiplier for Special 
Operations Forces. This synergy between Special Operations and the Air 
Force allowed small specialized teams to have a major effect throughout 
the northern and western portions of Iraq by magnifying their inherent 
lethality, guaranteeing rapid tactical mobility, reducing their 
footprint through aerial resupply, and providing them the advantage of 
``knowing what was over the next hill'' through air and space-borne 
ISR.
    The Air Force's C\2\ISR assets enabled the joint force in 
Afghanistan as well. This invaluable fleet includes the RC-135 Rivet 
Joint, E-8 Joint Surveillance and Target Attack Radar System (JSTARS), 
and the E-3 AWACS. This ``Iron Triad'' of intelligence sensors and C2 
capabilities illustrates the Air Force vision of horizontal integration 
in terms of persistent battlefield awareness. Combined with the Global 
Hawk unmanned aerial vehicle and Predator remotely piloted aircraft, 
spaced-based systems, U-2, and Compass Call, these invaluable system 
provided all-weather, multi-source intelligence to commanders from all 
services throughout the area of responsibility.
    OIF was the Predator's first ``networked'' operation. Four 
simultaneous Predator orbits were flown over Iraq and an additional 
orbit operated over Afghanistan, with three of those orbits controlled 
via remote operations in the U.S. This combined reachback enabled 
dynamic support to numerous OIF missions. Predator also contributed to 
our operational flexibility, accomplishing hunter-killer missions, 
tactical ballistic missile search, force protection, focused 
intelligence collection, air strike control, and special operations 
support. A Hellfire equipped Predator also conducted numerous precision 
strikes against Iraqi targets, and flew armed escort missions with U.S. 
Army helicopters.
    Space power provided precise, all-weather navigation, global 
communications, missile warning, and surveillance. The ability to adapt 
to adverse weather conditions, including sandstorms, allowed air, land, 
and maritime forces to confound the Iraqi military and denied safe 
haven anywhere in their own country. As the Iraqis attempted to use 
ground-based GPS jammers, Air Force strike assets destroyed them, in 
some cases, using the very munitions the jammers attempted to defeat. 
As Defense Secretary Donald Rumsfeld noted, this new era was 
illustrated by the coalition's ``unprecedented combination of power, 
precision, speed, and flexibility.''
    During the height of OIF, the Air Force deployed 54,955 airmen. 
Ambassador Paul Bremer, Chief of the Coalition Provisional Authority, 
pronounced, ``In roughly 3 weeks [we] liberated a country larger than 
Germany and Italy combined, and [we] did so with forces smaller than 
the Army of the Potomac.'' Led by the finest officers and non-
commissioned officers, our airmen flew more than 79,000 sorties since 
March of 2003. Ten thousand strike sorties dropped 37,065 munitions. 
The coalition flew over 55,000 airlift sorties moved 469,093 passengers 
and more than 165,060 tons of cargo. In addition, over 10,000 aerial 
refueling missions supported aircraft from all services, and 1,600 ISR 
missions provided battlespace awareness regardless of uniform, service, 
or coalition nationality. This was a blistering campaign that demanded 
a joint and combined effort to maximize effects in the battlespace.
    Today, Air Force airmen continue to contribute to the joint and 
coalition team engaged in Iraq. At the end of the year, 6,723 airmen 
from the active duty, Reserve, and Air National Guard conducted a wide 
range of missions from locations overseas, flying approximately 150 
sorties per day including CAS for ground forces tracking down regime 
loyalists, foreign fighters, and terrorists. On a daily basis, U-2 and 
RC-135 aircraft flew ISR sorties monitoring the porous borders of Iraq 
and providing situational awareness and route planning for Army patrols 
in stability and support operations. Providing everything from base 
security for 27 new bases opened by the coalition to the lifeline of 
supplies that air mobility and air refueling assets bring to all joint 
forces, Air Force airmen are committed to the successful accomplishment 
of the U.S. mission in Iraq.
Other Contingency Operations
    In 2003, the Air Force remained engaged in America's war on drugs 
and provided support to NATO ground forces in the Balkans. Since 
December 1989, Air Force airmen have been an irreplaceable part of the 
interagency fight against illegal drug and narcotics trafficking. 
Deployed along the southern U.S., in the Caribbean, and Central and 
South America, airmen perform this round-the-clock mission, manning 
nine ground-based radar sites, operating ten aerostats, and flying 
counter drug surveillance missions. The Air Force detected, monitored, 
and provided intercepts on over 275 targets attempting to infiltrate 
our airspace without clearance. Along with our interagency partners, 
these operations resulted in 221 arrests and stopped hundreds of tons 
of contraband from being smuggled into our country.
    In the Balkans, airmen are fully committed to completing the 
mission that they started in the 1990s. Today, Air Force airmen have 
flown over 26,000 sorties supporting Operations Joint Guardian and 
Joint Forge. These NATO-led operations combine joint and allied forces 
to implement the Dayton Peace Accords in Bosnia-Herzegovina and enforce 
the Military Technical Agreement in Kosovo. At the end of 2003, 
approximately 800 airmen were supporting NATO's goal of achieving a 
secure environment and promoting stability in the region.
    Additionally, the Air Force engaged in deterrence and humanitarian 
relief in other regions. While the world's attention was focused on the 
Middle East in the spring of 2003, our Nation remained vigilant against 
potential adversaries in Asia. The Air Force deployed a bomber wing--24 
B-52s and B-1s--to the American territory of Guam to deter North Korea. 
At the height of OIF, our Air Force demonstrated our country's resolve 
and ability to defend the Republic of Korea and Japan by surging bomber 
operations to over 100 sorties in less than 3 days. This deterrent 
operation complemented our permanent engagement in Northeast Asia. The 
8,300 airmen who are stationed alongside the soldiers, sailors, 
Marines, and our Korean allies maintained the United Nations armistice, 
marking 50 years of peace on the peninsula.
    Our strength in deterring aggression was matched by our strength in 
humanitarian action. In response to President Bush's directive to help 
stop the worsening crisis in Liberia, we deployed a non-combat medical 
and logistics force to create a lifeline to the American Embassy and 
provide hope to the Liberian people. An Expeditionary Group of airmen 
provided airlift support, aeromedical evacuation, force protection, and 
theater of communications support. Flying more than 200 sorties, we 
transported and evacuated civilians and members of the Joint Task Force 
(JTF) from bases in Sierra Leone and Senegal. The 300 airmen deployed 
in support of JTF-Liberia reopened the main airport in Monrovia, and 
ensured the security for U.S. military and civilian aircraft providing 
relief aid.
Strategic Deterrence
    The ability of U.S. conventional forces to operate and project 
decisive force is built on the foundation of our strategic deterrent 
force; one that consists of our nuclear-capable aircraft and 
Intercontinental Ballistic Missile forces, working with the U.S. Navy's 
Fleet Ballistic Missile Submarines. In 2003, these forces as well as 
persistent overhead missile warning sensors and supporting ground-based 
radars provided uninterrupted global vigilance deterring a nuclear 
missile strike against the U.S. or our allies. The dedicated airmen who 
operate these systems provide the force capability that yields our 
deterrent umbrella. Should that deterrence fail, they stand ready to 
provide a prompt, scalable response.
Exercises
    The Air Force's success can be attributed to the training, 
education, and equipment of our airmen. Future readiness of our 
operations, maintenance, mission support, and medical units will depend 
on rigorous and innovative joint and coalition training and exercising. 
This year we are planning 140 exercises with other services and 
agencies and we anticipate being involved with 103 allied nations. We 
will conduct these exercises in as many as 45 foreign countries. 
Participation ranges from the Joint/Combined command post exercise 
Ulchi Focus Lens with our South Korean partners to the tailored 
international participation in our FLAG exercises and Mission 
Employment Phases of USAF Weapons School. From joint search-and-rescue 
forces in Arctic Sarex to Partnership for Peace initiatives, our airmen 
must continue to take advantage of all opportunities that help us train 
the way we intend to fight.
    In addition to previously designed exercises, recent operations 
highlighted the need for combat support training. During OEF and OIF, 
the Air Force opened or improved 38 bases used by joint or coalition 
forces during combat. Our Expeditionary Combat Support teams 
established secure, operable airfields in Kyrgyzstan, Uzbekistan, 
Pakistan, and in Iraq. They also built housing, established 
communications, and erected dining facilities that are still used by 
other services and follow-on forces today. To prepare our airmen for 
these missions, we have created Eagle Flag, an Expeditionary Combat 
Support Field Training Exercise. During this exercise, combat support 
personnel apply the integrated skills needed to organize and create an 
operating location ready to receive fully mission capable forces within 
72 hours. From security forces and civil engineers to air traffic 
controllers and logisticians, each airman required to open a new base 
or improve an austere location will eventually participate in this 
valuable exercise.
    Our ranges and air space are critical joint enablers and vital 
national assets that allow the Air Force to develop and test new 
weapons, train forces, and conduct joint exercises. The ability of the 
Air Force to effectively operate requires a finite set of natural and 
fabricated resources. Encroachment of surrounding communities onto Air 
Force resources results in our limited or denied access to, or use of, 
these resources. We have made it a priority to define and quantify the 
resources needed to support mission requirements, and to measure and 
communicate the effects of encroachment on our installations, radio 
frequency spectrum, ranges, and air space. We will continue to work 
with outside agencies and the public to address these issues. The Air 
Force strongly endorses the Readiness Range and Preservation 
Initiative. It would make focused legislative changes, protecting the 
Air Force's operational resources while continuing to preserve our 
Nation's environment.
Lessons for the Future
    As we continue combat operations and prepare for an uncertain 
future, we are examining lessons from our recent experiences. Although 
we are currently engaged with each of the other services to refine the 
lessons from OIF, many of the priorities listed in the fiscal year 2005 
Presidential budget submission reflect our preliminary conclusions. The 
Air Force has established a team committed to turning validated lessons 
into new equipment, new operating concepts, and possibly new 
organizational structures. Working closely with our joint and coalition 
partners, we intend to continue our momentum toward an even more 
effective fighting force.
    One of the most important lessons we can draw was envisioned by the 
authors of the Goldwater-Nichols Act. ONE, OEF, and OIF all validated 
jointness as the only acceptable method of fighting and winning this 
nation's wars. In OIF, the mature relationship between the Combined 
Forces Land Component Commander (CFLCC) and the Combined Forces Air 
Component Commander (CFACC) led to unprecedented synergies. The CFACC 
capitalized on these opportunities by establishing coordination 
entities led by an Air Force general officer in the supported land 
component headquarters and by maintaining internal Army, Navy, Marine 
Corps, and coalition officers in his own headquarters. Both of these 
organizational innovations enabled commanders to maximize the 
advantages of mass, lethality, and flexibility of airpower in the area 
of responsibility.
    Another lesson is the Air Force's dependence on the Total Force 
concept. As stated above, September 11 brought with it a new tempo of 
operations, one that required both the active duty and Air Reserve 
Component (ARC) to work in concert to achieve our national security 
objectives. The synergy of our fully integrated active duty, Air 
National Guard and Air Force Reserve team provides warfighters with 
capabilities that these components could not provide alone.
    Our Reserve component accounts for over one-third of our strike 
fighters, more than 72 percent of our tactical airlift, 42 percent of 
our strategic airlift, and 52 percent of our air refueling capability. 
The ARC also makes significant contributions to our rescue and support 
missions, and has an increasing presence in space, intelligence, and 
information operations. In all, the ARC provides a ready force 
requiring minimum preparation for mobilization. Whether that 
mobilization is supporting flight or alert missions for ONE, commanding 
expeditionary wings in combat, or orchestrating the Air Force Special 
Operations roles in the western Iraqi desert, the ARC will remain 
critical to achieving the full potential of our air and space power.
    A third lesson was validation of the need for air and space 
superiority. Through recent combat operations, the Air Force maintained 
its almost 50 year-old record of ``no U.S. ground troops killed by 
enemy air attack.'' Without having to defend against Iraqi airpower, 
coalition commanders could focus their combat power more effectively. 
In addition, air and space superiority allowed airmen to dedicate more 
sorties in support of the ground scheme of maneuver, substantially 
reducing enemy capability in advance of the land component.
    We also need to continue to advance integration and planning--
integration of service capabilities to achieve JFC objectives, 
interagency integration to fight the war on terrorism, and information 
integration. Integration of manned, unmanned and space sensors, 
advanced command and control, and the ability to disseminate and act on 
this information in near-real time will drive our combat effectiveness 
in the future. Shared through interoperable machine-to-machine 
interfaces, this data can paint a picture of the battlespace where the 
sum of the wisdom of all sensors will end up with a cursor over the 
target for the operator who can save the target, study the target, or 
destroy the target.
    Finally, there are three general areas for improvement we consider 
imperative: battle damage assessment, fratricide prevention/combat 
identification, and equipping our battlefield airmen. First, battle 
damage assessment shapes the commander's ability for efficient 
employment of military power. Restriking targets that have already been 
destroyed, damaged, or made irrelevant by rapid ground force advances 
wastes sorties that could be devoted to other coalition and joint force 
objectives. Advances in delivery capabilities of our modern fighter/
attack aircraft and bombers mean that ISR assets must assess more 
targets per strike than ever before. Precision engagement requires 
precision location, identification, and precision assessment. Although 
assets like the Global Hawk, Predator, U-2, Senior Scout, and Rivet 
Joint are equipped with the latest collection technology, the Air 
Force, joint team, and Intelligence Community must work to ensure that 
combat assessments produce timely, accurate, and relevant products for 
the warfighters.
    We are also improving operational procedures and technology to 
minimize incidents of fratricide or ``friendly fire.'' In OIF, major 
steps toward this goal resulted from technological solutions. Blue 
Force Tracker and other combat identification systems on many ground 
force vehicles allowed commanders situational awareness of their forces 
and enemy forces via a common operational picture. Still, not all joint 
or coalition forces are equipped with these technological advances. We 
are pursuing Fire Support Coordination Measures that capitalize on the 
speed and situational awareness digital communications offer rather 
than analog voice communications and grease pencils.
    A third area we are actively improving is the effectiveness of the 
airmen who are embedded with conventional land or Special Forces. With 
assured access to Air Force datalinks and satellites, these 
``Battlefield Airmen'' can put data directly into air-land-sea weapon 
systems and enable joint force command and control. We have made great 
progress in producing a Battlefield Air Operations Kit that is 70 
percent lighter, with leading-edge power sources; one that will 
increase the combat capability of our controllers. This battle 
management system will reduce engagement times, increase lethality and 
accuracy, and reduce the risk of fratricide. This capability is based 
upon the good ideas of our airmen who have been in combat and 
understand how much a single individual on the battlefield can 
contribute with the right kit.
Summary
    The airmen of America's Air Force have demonstrated their expertise 
and the value of their contributions to the joint and coalition fight. 
These combat operations are made possible by Air Force investments in 
realistic training and education, superior organization, advanced 
technology, and innovative tactics, techniques, and procedures. In the 
future, our professional airmen will continue to focus advances in 
these and other areas guided by the Air Force CONOPs. Their charter is 
to determine the appropriate capabilities required for joint 
warfighting and to provide maximum effects from, through, and in air 
and space. This structure and associated capabilities-based planning 
will help airmen on their transformational journey, ensuring continued 
operational successes such as those demonstrated in 2003.
           ensuring america's future air and space dominance
    Air Force lethality, mobility, speed, precision, and the ability to 
project U.S. military power around the globe provide combatant 
commanders the capabilities required to meet the Nation's military 
requirements and dominate our enemies. Consistent with the DOD's focus 
on Joint Operating Concepts, we will continue to transform our force--
meeting the challenges of this era, adapting our forces and people to 
them, and operating our service efficiently. We will adopt service 
concepts and capabilities that support the joint construct and 
capitalize on our core competencies. To sustain our dominance, we 
develop professional airmen, invest in warfighting technology, and 
integrate our people and systems together to produce decisive joint 
warfighting capabilities.
        developing airmen--right people, right place, right time
    At the heart of our combat capability are the professional airmen 
who voluntarily serve the Air Force and our Nation. Our airmen turn 
ideas, tools, tactics, techniques, and procedures into global mobility, 
power projection, and battlespace effects. Our focus for the ongoing 
management and development of Air Force personnel will be to: define, 
renew, develop, and sustain the force.
Defining our Requirements
    To meet current and future requirements, we need the right people 
in the right specialties. The post-September 11 environment has taxed 
our equipment and our people, particularly those associated with force 
protection, ISR, and the buildup and sustainment of expeditionary 
operations. Our analysis shows that we need to shift manpower to 
stressed career fields to meet the demands of this new steady state, 
and we are in the process of doing this. We have realigned personnel 
into our most stressed specialties and hired additional civilians and 
contractors to free military members to focus on military specific 
duties. We have also made multi-million dollar investments in 
technology to reduce certain manpower requirements. We have redirected 
our training and accession systems and have cross-trained personnel 
from specialties where we are over strength to alleviate stressed 
career fields, supporting the Secretary of Defense's vision of moving 
forces ``from the bureaucracy to the battlefield.''
    Since 2001, we've exceeded our congressionally mandated end 
strength by more than 16,000 personnel. In light of the global war on 
terrorism and OIF, DOD allowed this overage, but now we need to get 
back to our mandated end strength. We are addressing this issue in two 
ways: first, by reducing personnel overages in most skills; and second, 
by shaping the remaining force to meet mission requirements. To reduce 
personnel, we will employ a number of voluntary tools to restructure 
manning levels in Air Force specialties, while adjusting our Active 
Force size to the end strength requirement. As we progress, we will 
evaluate the need to implement additional force shaping steps.
    We are also reviewing our ARC manpower to minimize involuntary 
mobilization of ARC forces for day-to-day, steady state operations 
while ensuring they are prepared to respond in times of crisis. Since 
September 11, 2001, we've mobilized more than 62,000 people in over 100 
units, and many more individual mobilization augmentees. Today, 20 
percent of our AEF packages are comprised of citizen airmen, and 
members of the Guard or Reserve conduct 89 percent of ONE missions. We 
recognize this is a challenge and are taking steps to relieve the 
pressure on the Guard and Reserve.
    In fiscal year 2005, we plan to redistribute forces in a number of 
mission areas among the Reserve and Active components to balance the 
burden on the Reserves. These missions include our Air and Space 
Operations Centers, remotely piloted aircraft systems, Combat Search 
and Rescue, Security Forces, and a number of high demand global 
mobility systems. We are working to increase ARC volunteerism by 
addressing equity of benefits and tour-length flexibility, while 
addressing civilian employer issues. We are also looking at creating 
more full-time positions to reduce our dependency on involuntary 
mobilization.
    We are entering the second year of our agreement to employ Army 
National Guard soldiers for Force Protection at Air Force 
installations, temporarily mitigating our 8,000 personnel shortfall in 
Security Forces. As we do this, we are executing an aggressive plan to 
rapidly burn down the need for Army augmentation and working to 
redesign manpower requirements. Our reduction plan maximizes the use of 
Army volunteers in the second year, and allows for demobilization of 
about one third of the soldiers employed in the first year.
Future Total Force
    Just as in combat overseas, we are continuing to pursue seamless 
ARC and active duty integration at home, leveraging the capabilities 
and characteristics of each component, while allowing each to retain 
their cultural identity. We continue to explore a variety of 
organizational initiatives to integrate our Active, Guard, and Reserve 
Forces. These efforts are intended to expand mission flexibility, 
create efficiencies in our total force, and prepare for the future. 
Today's future total force team includes a number of blended or 
associate units that are programmed or are in use. The creation of the 
``blended'' unit, the 116th Air Control Wing at Robins Air Force Base, 
Georgia, elevated integration to the next level. With an initial 
deployment of over 730 personnel, and significant operational 
achievements in OIF, we are now examining opportunities to integrate 
active, Guard, and Reserve units elsewhere in order to produce even 
more measurable benefits, savings, and efficiencies.
    The reasons for this type of integration are compelling. We can 
maximize our warfighting capabilities by integrating Active, Guard, and 
Reserve Forces to optimize the contributions of each component. 
reservists and guardsmen bring with them capabilities they have 
acquired in civilian jobs, leveraging the experience of ARC personnel. 
Integration relieves PERSTEMPO on the Active-Duty Force. Because ARC 
members do not move as often, they provide corporate knowledge, 
stability, and continuity. Finally, integration enhances the retention 
of airmen who decide to leave active service. Because the Guard and 
Reserve are involved in many Air Force missions, we recapture the 
investment we've made by retaining separating active duty members as 
members of the ARC.
Renewing the Force
    To renew our force, we target our recruitment to ensure a diverse 
force with the talent and drive to be the best airmen in the world's 
greatest Air Force. We will recruit those with the skills most critical 
for our continued success. In fiscal year 2003, our goal was 5,226 
officers and 37,000 enlisted; we exceeded our goal in both categories, 
accessing 5,419 officers and 37,144 enlisted. For fiscal year 2004, we 
plan to access 5,795 officers and 37,000 enlisted.
    In the Air Force, the capabilities we derive from diversity are 
vital to mission excellence and at the core of our strategy to maximize 
our combat capabilities. In this new era, successful military 
operations demand much greater agility, adaptability, and versatility 
to achieve and sustain success. This requires a force comprised of the 
best our Nation has to offer, from every segment of society, trained 
and ready to go. Our focus is building a force that consists of men and 
women who possess keener international insight, foreign language 
proficiency, and wide-ranging cultural acumen. Diversity of life 
experiences, education, culture, and background are essential to help 
us achieve the asymmetric advantage we need to defend America's 
interests wherever threatened. Our strength comes from the collective 
application of our diverse talents, and is a critical component of the 
air and space dominance we enjoy today. We must enthusiastically reach 
out to all segments of society to ensure the Air Force offers a 
welcoming career to the best and brightest of American society, 
regardless of their background. By doing so, we attract people from all 
segments of society and tap into the limitless talents resident in our 
diverse population.
    In addition to a diverse force, we also need the correct talent 
mix. We remain concerned about recruiting health care professionals and 
individuals with technical degrees. To meet our needs, we continue to 
focus our efforts to ensure we attract and retain the right people. We 
will also closely monitor ARC recruitment. Historically, the Air 
National Guard and Air Force Reserve Command access close to 25 percent 
of eligible, separating active duty Air Force members with no break in 
service between their active duty and ARC service.
Developing the Force
    Over the past year, we implemented a new force development 
construct in order to get the right people in the right job at the 
right time with the right skills, knowledge, and experience. Force 
development combines focused assignments and education and training 
opportunities to prepare our people to meet the mission needs of our 
Air Force. Rather than allowing chance and happenstance to guide an 
airman's experience, we will take a deliberate approach to develop 
officers, enlisted, and civilians throughout our Total Force. Through 
targeted education, training, and mission-related experience, we will 
develop professional airmen into joint force warriors with the skills 
needed across the tactical, operational, and strategic levels of 
conflict. Their mission will be to accomplish the joint mission, 
motivate teams, mentor subordinates, and train their successors.
    A segment of warriors requiring special attention is our cadre of 
space professionals, those that design, build, and operate our space 
systems. As military dependence on space grows, the Air Force continues 
to develop this cadre to meet our Nation's needs. Our Space 
Professional Strategy is the roadmap for developing that cadre. Air 
Force space professionals will develop more in-depth expertise in 
operational and technical space specialties through tailored 
assignments, education, and training. This roadmap will result in a 
team of scientists, engineers, program managers, and operators skilled 
and knowledgeable in developing, acquiring, applying, sustaining, and 
integrating space capabilities.
Sustaining the Force
    The Air Force is a retention-based force. Because the skill sets of 
our airmen are not easily replaced, we expend considerable effort to 
retain our people, especially those in high-technology fields and those 
in whom we have invested significant education and training. In 2003, 
we reaped the benefits of an aggressive retention program, aided by a 
renewed focus and investment on education and individual development, 
enlistment and retention bonuses, targeted military pay raises, and 
quality of life improvements. Our fiscal year 2003 enlisted retention 
statistics tell the story. Retention for first term airmen stood at 61 
percent, exceeding our goal by 6 percent. Retention for our second term 
and career airmen was also impressive, achieving 73 percent and 95 
percent respectively. Continued investment in people rewards their 
service, provides a suitable standard of living, and enables us to 
attract and retain the professionals we need.
    One of the highlights of our quality of life focus is housing 
investment. Through military construction and housing privatization, we 
are providing quality homes faster than ever before. Over the next 3 
years, the Air Force will renovate or replace more than 40,000 homes 
through privatization. At the same time, we will renovate or replace an 
additional 20,000 homes through military construction. With the 
elimination of out-of-pocket housing expenses, our Air Force members 
and their families now have three great options--local community 
housing, traditional military family housing, and privatized housing.
Focus On Fitness
    We recognize that without motivated and combat-ready expeditionary 
airmen throughout our total force, our strategies, advanced 
technologies, and integrated capabilities would be much less effective. 
That is why we have renewed our focus on fitness and first-class 
fitness centers. We must be fit to fight. That demands that we reorient 
our culture to make physical and mental fitness part of our daily life 
as airmen. In January 2004, our new fitness program returned to the 
basics of running, sit-ups, and pushups. The program combines our 
fitness guidelines and weight/body fat standards into one program that 
encompasses the total health of an airman.
                       technology-to-warfighting
    The Air Force has established a capabilities-based approach to war 
planning, allowing us to focus investments on those capabilities we 
need to support the joint warfighter. This type of planning focuses on 
capabilities required to accomplish a variety of missions and to 
achieve desired effects against any potential threats. Our 
capabilities-based approach requires us to think in new ways and 
consider combinations of systems that create distinctive capabilities.
Effects Focus: Capabilities-Based CONOPs
    The Air Force has written six CONOPs that support capabilities-
based planning and the joint vision of combat operations. The CONOPs 
help analyze the span of joint tasks we may be asked to perform and 
define the effects we can produce. Most important, they help us 
identify the capabilities an expeditionary force will need to 
accomplish its mission, creating a framework that enables us to shape 
our portfolio.

        <bullet> Homeland Security CONOPs leverages Air Force 
        capabilities with joint and interagency efforts to prevent, 
        protect, and respond to threats against our homeland--within or 
        beyond U.S. territories.
        <bullet> Space and Command, Control, Communications, Computers, 
        Intelligence, Surveillance, and Reconnaissance CONOPs (Space 
        and C\4\ISR) harnesses the integration of manned, unmanned, and 
        space systems to provide persistent situation awareness and 
        executable decision-quality information to the JFC.
        <bullet> Global Mobility CONOPs provides combatant commanders 
        with the planning, command and control, and operations 
        capabilities to enable timely and effective projection, 
        employment, and sustainment of U.S. power in support of U.S. 
        global interests--precision delivery for operational effect.
        <bullet> Global Strike CONOPs employs joint power-projection 
        capabilities to engage anti-access and high-value targets, gain 
        access to denied battlespace, and maintain battlespace access 
        for required joint/coalition follow-on operations.
        <bullet> Global Persistent Attack CONOPs provides a spectrum of 
        capabilities from major combat to peacekeeping and sustainment 
        operations. Global Persistent Attack assumes that once access 
        conditions are established (i.e. through Global Strike), there 
        will be a need for persistent and sustained operations to 
        maintain air, space, and information dominance.
        <bullet> Nuclear Response CONOPs provides the deterrent 
        ``umbrella'' under which conventional forces operate, and, if 
        deterrence fails, avails a scalable response.

    This CONOPs approach has resulted in numerous benefits, providing:

        <bullet> Articulation of operational capabilities that will 
        prevail in conflicts and avert technological surprises;
        <bullet> An operational risk and capabilities-based 
        programmatic decisionmaking focus;
        <bullet> Budgeting guidance to the Air Force Major Commands for 
        fulfilling capabilities-based solutions to satisfy warfighter 
        requirements;
        <bullet> Warfighter risk management insights for long-range 
        planning.
Modernization and Recapitalization
    Through capabilities-based planning, the Air Force will continue to 
invest in our core competency of bringing technology to the warfighter 
that will maintain our technical advantage and update our air and space 
capabilities. The Capabilities Review and Risk Assessment (CRRA) 
process guides these efforts. Replacing an outdated threat-based review 
process that focused on platforms versus current and future warfighting 
effects and capabilities, our extensive 2-year assessment identified 
and prioritized critical operational shortfalls we will use to guide 
our investment strategy. These priorities present the most significant 
and immediate Air Force-wide capability objectives.
    We need to field capabilities that allow us to reduce the time 
required to find, fix, track, and target fleeting and mobile targets 
and other hostile forces. One system that addresses this operational 
shortfall is the F/A-22 Raptor. In addition to its contributions to 
obtaining and sustaining air dominance, the F/A-22 will allow all 
weather, stealthy, precision strike 24 hours a day, and will counter 
existing and emerging threats, such as advanced surface-to-air 
missiles, cruise missiles, and time sensitive and emerging targets, 
including mobile targets, that our legacy systems cannot. The F/A-22 is 
in low rate initial production and has begun Phase I of its operational 
testing. It is on track for initial operational capability in 2005. A 
complementary capability is provided by the F-35 Joint Strike Fighter, 
providing sustainable, focused CAS and interservice and coalition 
commonality.
    We also recognize that operational shortfalls exist early in the 
kill chain and are applying technologies to fill those gaps. A robust 
command, control, and sensor portfolio combining both space and 
airborne systems, along with seamless real-time communications, will 
provide additional critical capabilities that address this shortfall 
while supporting the Joint Operational Concept of full spectrum 
dominance. Program definition and risk reduction efforts are moving us 
towards C\4\ISR and battle management capabilities with shorter cycle 
times. The JFC will be able to respond to fleeting opportunities with 
near-real time information and will be able to bring to bear kill-chain 
assets against the enemy. Additionally, in this world of proliferating 
cruise missile technology, our work on improving our C\4\ISR 
capabilities--including airborne Active Electronically Scanned Array or 
AESA radar technology--could pay large dividends, playing a significant 
role in America's defense against these and other threats. To create 
this robust command and control network, we will need a flexible and 
digital multi-service communications capability. We are well on our way 
in defining the architecture to make it a reality. The capabilities we 
are pursuing directly support the Department's transformational system 
of interoperable joint C\4\ISR.
    There is a need for a globally interconnected capability that 
collects, processes, stores, disseminates, and manages information on 
demand to warfighters, policy makers, and support people. The C2 
Constellation, our capstone concept for achieving the integration of 
air and space operations, includes these concepts and the future 
capabilities of the Global Information Grid, Net Centric Enterprise 
Services, Transformational Communications, the Joint Tactical Radio 
System, and airborne Command, Control, and Communication assets, among 
others.
    One of the elements of a sensible strategy to maintain U.S. power 
projection capabilities derives from a global aerial refueling fleet 
that serves Air Force, Navy, Marine Corps, and coalition aircraft. Our 
current fleet of aging tankers met the challenges of OEF and OIF but is 
increasingly expensive to maintain. The fleet averages more then 40 
years of age, and the oldest model, the KC-135E, goes back to the 
Eisenhower administration. Recapitalization for this fleet of over 540 
aerial refueling aircraft will clearly take decades to complete and is 
vital to the foundation and global reach of our Air Force, sister 
services, and coalition partners. The Air Force is committed to an 
acquisition approach for this program that will recapitalize the fleet 
in the most affordable manner possible.
    Capabilities-driven modernization and recapitalization efforts are 
also taking place on our space systems, as we replace constellations of 
satellites and ground systems with next generation capabilities. The 
Evolved Expendable Launch Vehicle has completed six successful 
launches. Using two launch designs, we will continue to seek 
responsive, assured access to space for government systems. Space-Based 
Radar will provide a complementary capability to our portfolio of radar 
and remote sensing systems. We will employ internet protocol networks 
and high-bandwidth lasers in space to transform communications with the 
Transformational Satellite, dramatically increasing connectivity to the 
warfighter. Modernization of GPS and development of the next-generation 
GPS III will enhance navigation capability and increase our resistance 
to jamming. In partnership with NASA and the Department of Commerce, we 
are developing the National Polar-orbiting Operational Environmental 
Satellite System, which offers next-generation meteorological 
capability. Each of these systems supports critical C\4\ISR 
capabilities that give the JFC increased technological and asymmetric 
advantages.
    Space control efforts, enabled by robust space situation awareness, 
will ensure unhampered access to space-based services. Enhanced space 
situation awareness assets will provide the information necessary to 
execute an effective space control strategy. However, we must be 
prepared to deprive an adversary of the benefits of space capabilities 
when American interests and lives are at stake.
    Additional capability does not stem solely from new weapon system 
acquisitions. It results from innovative modernization of our existing 
systems. One example is incorporating a Smart Bomb Rack Assembly and 
the 500-lb. version of the Joint Direct Attack Munition into the 
weapons bay of the B-2. In September 2003, we demonstrated that the B-2 
bomber is now able to release up to 80 separately targeted, GPS-guided 
weapons in a single mission. This kind of innovation reduces the number 
of platforms that must penetrate enemy airspace while holding numerous 
enemy targets at risk. The second order consequences run the gamut from 
maintenance to support aircraft.
    We will also address the deficiencies in our infrastructure through 
modernization and recapitalization. Improvements to our air and space 
systems will be limited without improvements in our foundational 
support systems. Deteriorated airfields, hangars, waterlines, 
electrical networks, and air traffic control approach and landing 
systems are just some of the infrastructure elements needing immediate 
attention. Our investment strategy focuses on three simultaneous steps: 
disposing of excess facilities; sustaining our facilities and 
infrastructure; and establishing a sustainable investment program for 
future modernization of our facilities and infrastructure.
    Finally, we need to continue to modernize and recapitalize our 
information technology infrastructure. To leverage our information 
superiority, the Air Force is pursuing a modernization strategy and 
information technology investments, which target a common network 
infrastructure and employ enterprise services and shared capabilities.
Science and Technology (S&T)
    Our investment in science and technology has and continues to 
underpin our modernization and recapitalization program. Similar to our 
applied-technology acquisition efforts, the Air Force's capability-
based focus produces an S&T vision that supports the warfighter.
    The Air Force S&T program fosters development of joint warfighting 
capabilities and integrated technologies, consistent with DOD and 
national priorities. We will provide a long-term, stable investment in 
S&T in areas that will immediately benefit existing systems and in 
transformational technologies that will improve tomorrow's Air Force. 
Many Air Force S&T programs, such as directed energy, hypersonics, 
laser-based communications, and the emerging field of nanotechnology, 
show promise for joint warfighting capabilities. Other technology 
areas, such as miniaturization of space platforms and space proximity 
operations, also show promise in the future. Through developments like 
these, the Air Force S&T program will advance joint warfighting 
capabilities and the Air Force vision of an integrated air and space 
force capable of responsive and decisive global engagement.
Capabilities-Based Acquisition/Transforming Business Practices
    To achieve our vision of a flexible, responsive, and capabilities-
based expeditionary force, we are transforming how we conceive, plan, 
develop, acquire, and sustain weapons systems. Our Agile Acquisition 
initiative emphasizes speed and credibility; we must deliver what we 
promise--on time and on budget. Our goal is to deliver affordable, 
sustainable capabilities that meet joint warfighters' operational 
needs.
    We continue to improve our acquisition system--breaking down 
organizational barriers, changing work culture through aggressive 
training, and reforming processes with policies that encourage 
innovation and collaboration. Already, we are:

        <bullet> Realigning our Program Executive Officers (PEOs). By 
        moving our PEOs out of Washington and making them commanders of 
        our product centers, we have aligned both acquisition 
        accountability and resources under our most experienced general 
        officers and acquisition professionals.
        <bullet> Creating a culture of innovation. Because people drive 
        the success of our Agile Acquisition initiatives, we will focus 
        on enhanced training. Laying the foundation for change, this 
        past year 16,500 Air Force acquisition professionals, and 
        hundreds of personnel from other disciplines, attended training 
        sessions underscoring the need for collaboration, innovation, 
        reasonable risk management, and a sense of urgency in our 
        approach.
        <bullet> Reducing Total Ownership Costs. With strong support 
        from the Secretary of Defense, we will expand the Reduction in 
        Total Ownership Cost program with a standard model ensuring 
        that we have accurate metrics.
        <bullet> Moving technology from the lab to the warfighter 
        quickly. Laboratories must focus on warfighter requirements and 
        researchers need to ensure technologies are mature, producible, 
        and supportable. Warfighters will work with scientists, 
        acquisition experts, and major commands to identify gaps in 
        capabilities. With help from Congress, we have matured our 
        combat capability document process to fill those gaps. During 
        OIF, we approved 37 requests for critically needed systems, 
        usually in a matter of days.
        <bullet> Tailoring acquisition methods for space systems. In 
        October 2003, we issued a new acquisition policy for space 
        systems that will improve acquisitions by tailoring acquisition 
        procedures to the unique demands of space systems.

    Transformation of our business processes is not limited to 
acquisition activities. Our Depot Maintenance Strategy and Master Plan 
calls for financial and infrastructure capitalization to ensure Air 
Force hardware is safe and ready to operate across the threat spectrum. 
Our increased funding for depot facilities and equipment modernization 
in fiscal years 2004-2009, along with public-private partnerships, will 
result in more responsive support to the JFC. We expect to maximize 
production and throughput of weapon systems and commodities that will 
improve mission capability.
    Our logistics transformation initiative will revolutionize 
logistics processes to improve warfighter support and reduce costs. The 
goal of the Air Force's logistics transformation program, Expeditionary 
Logistics for the 21st Century, is to increase weapon system 
availability by 20 percent with zero cost growth. Our current 
initiatives--depot maintenance transformation, purchasing and supply 
chain management, regionalized intermediate repair, and improved 
logistics command and control--will transform the entire logistics 
enterprise.
    Our depots have put some of these initiatives into place with 
exceptional results. In fiscal year 2003, our depot maintenance teams 
were more productive than planned, exceeding aircraft, engine, and 
commodity production goals and reducing flow days in nearly all areas. 
Implementation of ``lean'' production processes, optimized use of the 
existing workforce, and appropriate funding, all contributed to this 
good news story. In addition, our spares support to the warfighter is 
at record high numbers. In 2003, supply rates and cannibalization rates 
achieved their best performance since fiscal year 1994 and fiscal year 
1995, respectively. Fourteen of 20 aircraft design systems improved 
their mission capable rates over the previous year, with Predator 
unmanned aerial vehicles improving by 11 percent, and B-1 bombers 
achieving the best mission capable and supply rates in its history. 
Thanks to proper funding, fleet consolidation, and transformation 
initiatives, spare parts shortages were reduced to the lowest levels 
recorded across the entire fleet.
Financing the Fight
    An operating strategy is only as good as its financing strategy. 
Similar to acquisition, logistics, and other support processes, our 
finance capabilities are strong. We are taking deliberate and 
aggressive steps to upgrade our financial decision support capability 
and reduce the cost of delivering financial services. Our focus is on 
support to our airmen, strategic resourcing and cost management, and 
information reliability and integration. The initiatives that will get 
us there include self-service web-based pay and personnel customer 
service, seamless e-commerce for our vendor payment environment, 
budgets that link planning, programming, and execution to capabilities 
and performance, financial statements that produce clean audit opinions 
while providing reliable financial and management information, and 
innovative financing strategies.
                         integrating operations
    The Air Force excels at providing communications, intelligence, air 
mobility, precision strike, and space capabilities that enable joint 
operations. Our airmen integrate these and other capabilities into a 
cohesive system that creates war-winning effects. Integration takes 
place at three levels. At the joint strategic level, integration occurs 
between interagencies and the coalition. Integration also takes place 
within the Air Force at an organizational level. At its most basic 
level, integration takes place at the machine-to-machine level to 
achieve universal information sharing which facilitates true 
integration at every level.
Integrating Joint, Coalition, and Interagency Operations
    The ever-changing dynamics of global events will drive the need to 
integrate DOD and interagency capabilities and, in most cases, those of 
our coalition partners. Joint solutions are required to produce 
warfighting effects with the speed that the global war on terrorism 
demands. Fully integrated operations employ only the right forces and 
capabilities necessary to achieve an objective in the most efficient 
manner. We must also integrate space capabilities for national 
intelligence and warfighting.
    We are pursuing adaptations of our C2 organizations and 
capabilities to support this vision. While the Air Force's global C2 
structure has remained relatively constant, throughout our 57-year 
history, the demands of a changing geopolitical environment have 
stressed current C2 elements beyond their design limits.
    We have conducted an extensive review of our C2 structures to 
support the National Security Strategy objectives of assure, dissuade, 
deter, and defeat as well as the SECDEF's Unified Command Plan. We will 
enhance our support for the JFC and our expeditionary posture through a 
new Warfighting Headquarters Construct. This will enable the Numbered 
Air Forces to support unified combatant commanders in a habitual 
supported-supporting relationship. Working with their strategy and 
planning cells on a daily basis will ensure that Air Force capabilities 
are available to the JFC's warfighting staff. This new headquarters 
will provide the Combined Air Operations Center (CAOC) with sufficient 
staff to focus on planning and employment of air, space, and 
information operations throughout the theater.
    We are also adapting the capabilities of our CAOCs. The CAOCs of 
each headquarters will be interconnected with the theater CAOCs, all 
operating 24 hours a day, 7 days a week. They will be operated as a 
weapons system, certified and standardized, and have cognizance of the 
entire air and space picture. This reorganization will increase our 
ability to support our combatant commanders, reduce redundancies, and 
deliver precise effects to the warfighters. As we near completion of 
the concept development, we will work with the Secretary of Defense and 
Congress to implement a more streamlined and responsive C2 component 
for the combatant commanders and national leadership.
    Integrated operations also depend on integrated training. We 
continue to advance joint and combined interoperability training with 
our sister services and the nations with which we participate in global 
operations. The Joint National Training Capability (JNTC) will improve 
our opportunities for joint training. The aim of the JNTC is to improve 
each service's ability to work with other services at the tactical 
level and to improve joint planning and execution at the operational 
and strategic levels. The Air Force has integrated live, virtual, and 
constructive training environments into a single training realm using a 
distributed mission operations (DMO) capability. JNTC will use this DMO 
capability to tie live training events with virtual (man-in-the-loop) 
play and constructive simulations. Live training in 2004--on our ranges 
during four Service-conducted major training events--will benefit from 
improved instrumentation and links to other ranges as well as the 
ability to supplement live training with virtual or constructive 
options. These types of integrated training operations reduce overall 
costs to the services while providing us yet another avenue to train 
like we fight.
Integrating Within the Air Force
    The Air Force is continuing to strengthen and refine our AEF. The 
AEF enables rapid build-up and redeployment of air and space power 
without a lapse in the Air Force's ability to support a combatant 
commander's operations. The Air Force provides forces to Combatant 
Commanders according the AEF Presence Policy (AEFPP), the Air Force 
portion of DOD's Joint Presence Policy. There are ten AEFs, and each 
AEF provides a portfolio of capabilities and force modules. At any 
given time, two AEFs are postured to immediately provide these 
capabilities. The other eight are in various stages of rest, training, 
spin-up, or standby. The AEF is how the Air Force organizes, trains, 
equips, and sustains responsive air and space forces to meet defense 
strategy requirements outlined in the Strategic Planning Guidance.
    Within the AEF, Air Force forces are organized and presented to 
combatant commanders as Air and Space Expeditionary Task Forces 
(AETFs). They are sized to meet the combatant commander's requirements 
and may be provided in one of three forms: as an Air Expeditionary Wing 
(AEW), Group (AEG), and/or Squadron (AES). An AETF may consist of a 
single AEW or AEG, or may consist of multiple AEWs or AEGs and/or as a 
Numbered Expeditionary Air Force. AETFs provide the functional 
capabilities (weapon systems, expeditionary combat support and command 
and control) to achieve desired effects in an integrated joint 
operational environment.
    One of our distinctive Air Force capabilities is Agile Combat 
Support (ACS.) To provide this capability, our expeditionary combat 
support forces--medics, logisticians, engineers, communicators, 
Security Forces, Services, and Contracting, among several others--
provide a base support system that is highly mobile, flexible, and 
fully integrated with air and space operations. ACS ensures responsive 
expeditionary support to joint operations is achievable within resource 
constraints--from creation of operating locations to provision of 
right-sized forces. An example of this capability is the 86th 
Contingency Response Group (CRG) at Ramstein Air Base, organized, 
trained, and equipped to provide an initial ``Open the Base'' force 
module to meet combatant commander requirements. The CRG provides a 
rapid response team to assess operating location suitability and 
defines combat support capabilities needed to establish air 
expeditionary force operating locations.
    Another example of ACS capability is the light and lean 
Expeditionary Medical System (EMEDS) that provides the U.S. military's 
farthest forward care and surgical capability. Air Force medics jump 
into the fight alongside the very first combatants. Whether supporting 
the opening of an air base or performing life saving surgeries, these 
medics bring an extraordinary capability. They carry backpacks with 
reinforced medical equipment, permitting them to perform medical 
operations within minutes of their boots hitting the ground. 
Complementing this expeditionary medical capability is our air 
evacuation system that provides the lifeline for those injured 
personnel not able to return to duty. The other services and our allies 
benefited greatly from this capability in OEF and OIF. The Army and 
Navy are now developing a similar light and lean capability. The 
success of EMEDS is also apparent in the reduction of disease and non-
battle injuries--the lowest ever in combat.
Horizontal Machine-to-Machine Integration
    We also strive to increasingly integrate operations at the most 
basic level--electron to electron. Victory belongs to those who can 
collect intelligence, communicate information, and bring capabilities 
to bear first. Executing these complex tasks with accuracy, speed, and 
power requires assured access and the seamless, horizontal integration 
of systems, activities and expertise across all manned, unmanned, and 
space capabilities. Such integration will dramatically shorten the kill 
chain.
    Machine-to-machine integration means giving the warfighter the 
right information at the right time. It facilitates the exchange of 
large amounts of information, providing every machine the information 
it needs about the battlespace and an ability to share that 
information. In the future, we will significantly reduce the persistent 
challenges of having different perspectives or pictures of the 
battlefield. Examples would be to ensure that the A-10 could see the 
same target as the Predator or to guarantee that the F-15 has the same 
intelligence about enemy radars as the Rivet Joint.
    We want a system where information is made available and delivered 
without regard to the source of the information, who analyzed the 
information, or who disseminated the information. It is the end product 
that is important, not the fingers that touch it. The culmination of 
the effort is the cursor over the target. It is an effect we seek, and 
what we will provide.
    The warfighters' future success will depend on Predictive 
Battlespace Awareness (PBA). PBA relies on in-depth study of an 
adversary before hostilities begin in order to anticipate his actions 
to the maximum extent possible. We can then analyze information to 
assess current conditions, exploit opportunities, anticipate future 
actions, and act with a degree of speed and certainty unmatched by our 
adversaries. PBA also relies on the ability of air and space systems to 
integrate information at the machine-to-machine level and produce high-
fidelity intelligence that results in a cursor over the target. The 
result--integrated operations--is our unique ability to conduct PBA and 
impact the target at the time and place of our choosing. This machine-
to-machine integration will include a constellation of sensors that 
create a network of information providing joint warfighters the 
information and continuity to see first, understand first, and act 
first.
    The C2 Constellation is the Air Force capstone concept for 
achieving the integration of air and space operations. Our vision of 
the C2 Constellation is a robust, protected network infrastructure, a 
globally based command and control system to encompass all levels of 
the battle and allow machines to do the integration and fusion. It uses 
Battle Management Command and Control & Connectivity and consists of 
command centers, sensors, and systems like the U-2, Space Based Radar, 
the Distributed Common Ground System, and our CAOCs. Given the C2 
Constellation's complexity, the Air Force recognizes the need for an 
architecture to address myriad integration issues--methodically--so all 
elements work in concert.
                    securing america's next horizon
    Armed with the heritage of air and space power in combat, the 
lessons learned from our most recent conflicts, and the powerful 
advances in technology in the 21st century, we stand ready to deliver 
decisive air and space power in support of our Nation. Whether called 
to execute a commanding show of force, to enable the joint fight, to 
deliver humanitarian assistance, or to protect our Nation from the 
scourge of terrorism, we will deliver the effects required. Our ability 
to consistently answer the call is our dividend to the Nation, a result 
of our sustained investment in people, technology, and integration.
    Our portfolio of advantages provides dividends on the battlefield. 
We bring to bear a diversified collection of capabilities, which answer 
the needs of a spectrum of combat and humanitarian operations. As one 
would with any investment, we will monitor, maintain, and adjust our 
investments as needed to reflect the demands of a dynamic environment. 
Transformational initiatives in the way we organize, train, and equip 
reflect such adjustments, changes that will result in significant gains 
for our force, for the joint team, and for our Nation. Yet, we will not 
shift our focus from the core competencies that have provided the 
foundation for our success and continue to do so. The success of the 
Air Force resides in the airmen who employ the technology of 
warfighting through integrated operations with our joint and coalition 
partners. This is our heritage and our future. This is America's Air 
Force.

    Senator McCain [presiding]. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    Secretary England, relative to our deployments to Haiti, I 
understand now that the lead element of the stability force 
could grow up to 2,000 American troops and could stay up to 3 
months. What is the mission? How many marines and other 
military personnel will we send? Do you expect marines to 
remain in Haiti after a U.N. peacekeeping force deploys?
    Secretary England. Senator, today we have 370 marines 
deployed, who are actually in Haiti this morning, the latest 
number. We still have marines going to Haiti. Understand 
initially we will have about 900 marines in Haiti. It could be 
more, but I think that all depends--my understanding on what 
our support is from other countries. Of course, we do have 
support from about five other countries, as of yesterday, that 
I was aware of: Canada, France, a couple of other countries 
here in the hemisphere. So I believe we need to see what 
happens here in the next days and weeks, but this should 
stabilize within the next 90 days, and our marines will be back 
in Camp Lejeune. But, obviously, it depends on how things work 
out and the kind of support we have from our friends and 
allies. But, it does seem to be coming together.
    The last report I had, just looking at the news this 
morning, at least where our marines are deployed things seem to 
be quieter, so hopefully we'll have a stable situation. This is 
a peacekeeping force. I hope we'll have stable situation 
shortly.
    Senator Levin. The hope is that they'll be back in 90 days?
    Secretary England. Yes, sir, that's our expectation.
    Senator Levin. In my opening statement, I talked about the 
adequacy of our funding and apparently the lack of a decision 
of the administration not to request a 2005 supplemental during 
this calendar year. The problem is that the budget that's 
before us represents a peacetime budget, and it just doesn't 
pay for incremental costs of operations in Iraq and 
Afghanistan. When the Chiefs of Staff of the Army and Air 
Force, the Chief of Naval Operations, and the Commandant of the 
Marine Corps, were in front of us, they all testified to a 
cash-flow difficulty that they're going to face if the Defense 
Department does not submit a fiscal year 2005 supplemental 
funding request to Congress during this calendar year. I'm 
wondering whether or not you share those concerns that were 
expressed to us.
    First, Secretary Brownlee, do you share those concerns that 
unless we have a supplemental for 2005 filed with us this year, 
that we're going to have some cash-flow problems?
    Secretary Brownlee. Sir, we're certainly concerned, 
because, as you indicated earlier what our burn rate is, out of 
the $65.1 billion that Congress provided for supplemental 
appropriations for fiscal year 2004, the Army received roughly 
40 of that. So by moving some funds within the Army, and 
relying on some assistance from OSD, we believe we can get to 
the end of fiscal year 2004. When the fiscal year 2005 budget 
is approved, we will have some limited ability to cash-flow out 
of that. Again, with assistance from the administration, we 
believe we could get to sometime early next spring before we 
would get into trouble.
    Senator Levin. So you believe that without a supplemental 
for 2005 adopted this calendar year, that you're going to be 
okay through the spring of 2005?
    Secretary Brownlee. In conferring with OSD and looking 
within the Army at what we have, and our current level of 
spending, we believe we can get there, sir.
    Senator Levin. Secretary England.
    Secretary England. Well, Senator, the Department of the 
Navy--our deployments are in our base budget. If you'll notice, 
for example, the war supplemental, I mean, we draw down 
relatively small funds from the war supplemental because we 
fund our ongoing operation as part of our base budget. So all 
the deployment of our ships, our sailors and marines, we were 
forward-deployed every day, 24/7. That's accounted for in our 
base budget.
    Senator Levin. Is the rotation of the marines accounted 
for?
    Secretary England. It is--the marines that are going 
overseas now are not accounted for, so we do have a marginal 
cost there. That marginal cost, we are working with OSD, we do 
expect to be funded. That's out of the fiscal year 2004 
supplemental; that's out of the Operation Iraqi Freedom fund. 
So we do not see a problem with that deployment. Now, if we 
have deployments next year, that's another issue.
    But, nonetheless, for the Department of Navy, it's a 
relatively small amount of money. Of course, the CNO already 
testified it was not an issue with him.
    I, frankly, believe that the Marine Corps costs, we can 
accommodate out of our total budget. A lot of the Marine Corps 
funding, of course, comes out of the Navy side of the budget, 
not the Marine Corps side of the budget.
    Senator Levin. I'm wondering, going back to you, Secretary 
Brownlee, whether or not you are familiar with General 
Schoomaker's testimony----
    Secretary Brownlee. Yes, sir, I am.
    Senator Levin.--because he said that the fact that the Army 
operation in Iraq was only funded until the end of September 
created a real concern as to how to bridge from the end of this 
fiscal year until the time when supplemental funding is 
available. He said he just didn't have any answer----
    Secretary Brownlee. Yes, sir.
    Senator Levin.--where he's going to get the funding. You 
apparently do have an answer to that.
    Secretary Brownlee. Sir, if you look just at the funds that 
have been provided to the Army today, he's certainly right. 
What I said was that, assuming that we will get additional 
assistance from the administration, from OSD, they have----
    Senator Levin. Additional to what?
    Secretary Brownlee. Sir, OSD can move monies and provide 
additional assistance to us also from other services. They have 
transfer accounts. They have other monies there.
    Senator Levin. Are you talking about----
    Secretary Brownlee. I am assured by them that, with their 
assistance, we can make it, in accordance with the way I laid 
it out. Now, what General Schoomaker was looking at was 
strictly those funds that have been provided today in the 
fiscal year 2004 budget for the Army, plus the supplemental 
funds that we have received to date. He's right about that. We 
would probably run out in 2004. We would probably need some 
assistance, quite frankly, from OSD to get to 2004 with some of 
the other things that we're planning to do.
    Senator Levin. Well, he was talking about the bridge 
between the end of this fiscal year to the time when the 2005 
supplemental is adopted----
    Secretary Brownlee. Well----
    Senator Levin.--because there's no provision in the 2005 
budget for these incremental costs. So the question is----
    Secretary Brownlee. Yes, sir. What I indicated was that, 
presuming the fiscal year 2005 budget was passed, and we got 
our share of that, we would have some limited capability to 
cash-flow funds out of third- and fourth-quarter funds early; 
and with some additional assistance from the administration, we 
could probably make it through this--I don't know--somewhere 
around this time next year, maybe the end of March--how much 
assistance we would get, but I've----
    Senator Levin. You have----
    Secretary Brownlee.--in conferring with OSD, that's what 
they've told us--that they have--can release additional funds 
to us.
    Senator Levin. You've gotten that assurance from OSD?
    Secretary Brownlee. I have conferred with them, and that's 
what they've told me, sir, that they would----
    Senator Levin. Thank you.
    My time is up. Thank you, Mr. Chairman.
    Senator McCain. Thank you, Senator Levin.
    Secretary Roche, when does the Air Force anticipate making 
a decision concerning the lease/purchase of the tankers?
    Secretary Roche. Senator, we would expect that the 
inquiries that the Secretary of Defense has asked to be put in 
place, which include, clearly, the Inspector General's review 
of any illegalities, which also include a Defense Science Board 
review, from scratch, of the tanker recapitalization to be 
done, plus one or two other things, that when those are 
finished, then we'll make that decision. I don't know an exact 
date. It's months from now.
    Senator McCain. The defense authorization bill required the 
conduct of an analysis of alternatives. Are you aware of that?
    Secretary Roche. Yes, sir.
    Senator McCain. Would you anticipate making that decision 
before the analysis of alternatives is completed?
    Secretary Roche. The way the analysis of alternatives is 
structured, Senator, is that it assumes that there was the 
NDAA-approved lease. An 80 purchase out of a 100, and then the 
analysis of alternatives picks up from that point forward. If, 
on the other hand----
    Senator McCain. Right, you assume that.
    Secretary Roche. Yes, sir----
    Senator McCain. Why would----
    Secretary Roche.--the people----
    Senator McCain.--why would you assume that----
    Secretary Roche. Because----
    Senator McCain.--Mr. Secretary, when the language of the 
legislation says--just calls for an analysis of alternatives?
    Secretary Roche. Senator, as I understand, and I've talked 
to Mike Wynne and others about this, it picks up that period. 
However, if there is continued delay, the work that would be 
done in that analysis of alternatives would always--would also 
inform the basic initial purchase, as well if we stayed to the 
KC-X program, if we don't lease. You'll recall, sir, the lease 
was a way to accelerate procurement, that all along we have 
been planning monies in the regular program, for a KC-X 
program. If any one of the committees objected, we would stick 
with that plan. This NDAA directed analysis of alternatives 
would also substitute for the analysis of alternatives that 
would be done as part of the KC-X program.
    Senator McCain. Well, of course, e-mails that we receive 
from Boeing clearly indicated that you intended to lease as 
many as 300 tanker aircraft----
    Secretary Roche. No, sir. With all due respect, sir, I 
never, ever used a number greater than 100, because only the 
number 100 was used in the fiscal year 2002 appropriations act. 
Others used other numbers; I cut Boeing off in any 
conversations of anything above 100.
    Senator McCain. That's not what the e-mails indicate, but 
we'll--hopefully we'll get to the bottom of that sooner or 
later.
    Now, who's going to conduct the analysis of alternatives?
    Secretary Roche. It hasn't been determined yet, sir. It'll 
be one of the Federally-Funded Research and Development Centers 
(FFRDCs), or it will be determined by the OSD as to who 
conducts it. I'm not sure who they will choose.
    Senator McCain. So they haven't even begun the analysis of 
alternatives.
    Secretary Roche. They haven't begun the analysis of 
alternatives. Quite separately, we have had the Rand 
Corporation doing work, which is precursor to analysis of 
alternatives, but it's not clear that OSD will choose Rand to 
be the----
    Senator McCain. But you've had the Rand Corporation do the 
precursor, the same----
    Secretary Roche. That was for our own information.
    Senator McCain.--the same corporation that got $30 million 
for Project Air Force last year, and will get $25 million again 
this year.
    Secretary Roche. But that's precursor for the Air Force, 
Senator. The OSD will choose which organization will do the 
analysis of alternatives, as required by the NDAA.
    Senator McCain. Well, in a Boeing briefing to the Board of 
Directors, on--June 2002, ``Element operational requirement 
document (ORD) objective: Establish clearly defined 
requirements in ORD for the USAF tanker configuration that 
results in an affordable solution that meets the USAF mission 
needs and will prevent an AOA from being conducted.'' You never 
heard any information that the Boeing Corporation wanted to 
prevent an analysis of alternatives.
    Secretary Roche. No, sir. I never discussed that with them. 
As I've told you once before, I did have a discussion with the 
Deputy Secretary of Defense in the presence of the other 
service secretaries, service chiefs, people from OSD, as to 
whether or not an analysis of alternatives was required for the 
tanker lease. I argued at that time that given the subject 
matter, that one was not; and it was agreed to at that time. I 
testified to that effect to you, I believe, last year, sir.
    Senator McCain. You, of course, don't recall you telling 
the Boeing lobbyists to--a meeting with the Boeing lobbyists 
where you told them to put pressure on Mr. Wynne on the 
tanker----
    Secretary Roche. Senator, thank you----
    Senator McCain.--deal----
    Secretary Roche.--for the question, Senator.
    Senator McCain. Let me finish my question.
    Secretary Roche. If I may answer----
    Senator McCain. Can I finish the question?
    Secretary Roche.--the question--may I answer the question?
    Senator McCain. Can I finish the question----
    Secretary Roche. Oh, I'm sorry.
    Senator McCain.--Mr. Secretary?
    Secretary Roche. I'm sorry.
    Senator McCain. Thank you. In that and other e-mails that 
we got from Boeing, you met with the lobbyists from Boeing and 
said, ``You have to put pressure on Mr. Wynne in order to get 
this deal expedited.'' That clearly does not indicate that you 
had some support for analysis of alternatives. But last time 
you testified--and let me finish my question--you didn't recall 
that meeting with the Boeing lobbyists.
    Secretary Roche. Yes, sir. The reason was, you gave a name 
of a person, and it happened to be the same name of the program 
manager of our F/A-22 program, so it was very confusing. I 
then, at the time, asked you if you would read some of the 
introductory paragraphs so I could fix the letter in my mind, 
and, in fact, we may have a difference in what we were looking 
at. This is an issue that occurs after OSD-Program Analysis and 
Evaluation (PA&E) sends a letter on a Friday night to me 
objecting to the language in a report--in a report--that I 
would be doing for Congress. This was done a month after the 
lease has been approved, and a month after the lease has been 
announced. At that time, the person--who has never met me 
before--uses the word ``pressure,'' but it doesn't make sense, 
because the lease has already been approved--the lease has 
already been publicly announced. The concern, and my upset, was 
the fact that it appeared there was a rear-guard action going 
on against my cover letter bringing the matter to the point of 
Congress. I've told you there was no pressure; Mr. Wynne has 
told you there was no pressure, and, Senator, I believe if 
you'll read a few lines down that same e-mail, the individual 
reports that there would be a meeting that afternoon--this is a 
Monday--that afternoon.
    Further, if I may answer, sir, this was not a lobbyist, nor 
did I call him in. This meeting had been scheduled weeks in 
advance, and the individual was the head of all of the military 
programs in the Boeing company, and we discussed other 
programs, as well. By the way, the matter of concern was 
resolved by 4 o'clock that afternoon.
    Senator McCain. Well, I have never heard of a Secretary of 
the Air Force calling in a lobbyist to tell him to ``put 
pressure on''----
    Secretary Roche. Senator, I did not call----
    Senator McCain. That's an e-mail----
    Secretary Roche.--I did not call in a lobbyist, Senator.
    Senator McCain. That's an e-mail.
    Secretary Roche. Please--please, I'm trying to answer that. 
I did not call in any lobbyists. The meeting you're referring 
to is a meeting with a line executive. He was not called in. 
The meeting had been scheduled well in advance. I did not ask 
him to put on pressure. Senator, the subject matter was my 
report that I would sign or not sign, not the lease itself. 
It----
    Senator McCain. Obviously----
    Secretary Roche.--all occurred months earlier.
    Senator McCain. Obviously, your testimony is in direct 
contradiction to the e-mails that we received. If you would be 
forthcoming with the e-mails that you used, and other members 
of the Air Force, during the conduct of this investigation--and 
your steadfast refusal to do so indicates that everything is 
not going to be cleared up until such time as we find out all 
information. There is more than--and I think the Defense 
Inspector General's report will have some very interesting 
things involved in it.
    The ORD--is my time up? My time has expired, Mr. Secretary, 
but I want to repeat again, I've never seen, in 22 years in the 
United States Navy and now 22 years in Congress, anything like 
the deal that you tried to pull off. We will continue to try to 
save the taxpayers $5 billion or $6 billion, which would have 
happened if we hadn't had the right kind of intervention and 
the right kind of information, because you were greasing the 
skids with the Boeing Aircraft Corporation, and Boeing has 
taken appropriate action by relieving their chief executive 
officer and CFO of their responsibilities. Unfortunately, we 
haven't seen a single thing done by the United States Air Force 
to correct this kind of situation, which evolved in a most 
scandalous fashion.
    Secretary Roche. Senator, you know that I respectfully 
disagree with your characterization of that, that I was trying 
to get a more rapid acquisition of tankers, that I believe 
everything was done in accordance with the fiscal year 2002 
Appropriations Act, that everything was done by the book, as 
best as I could tell. I did not call in lobbyists. I never have 
for the companies. I certainly did not tell them to pressure 
anybody. The pressure--under the circumstances, the date of--if 
you look at the date of the e-mail, Senator, it makes no sense 
having to do with the lease. The issue had to do with a letter, 
a critique of my draft report to Congress.
    Senator McCain. Well, obviously, we will let others judge 
the facts.
    Secretary Roche. Yes, sir.
    Senator McCain. Again, it's very unfortunate, particularly 
in light of all the investigations that are going on, that you 
and the Secretary of Defense will not allow the Senate Armed 
Services Committee to exercise its oversight duties by having 
access to all communications, which, by the way, I'm sure are a 
standard form that you signed when you--when your nomination 
was submitted to this committee for your confirmation as 
Secretary of the Air Force, which says, as we showed Mr. Wynne, 
that you will make available to the committee all 
communications, as requested.
    But, as I think you may know, Mr. Secretary, we won't quit, 
and there's lots more to come.
    Thank you, Mr. Chairman.
    Chairman Warner [presiding]. I've been working with Senator 
McCain on this issue, with the Secretary of Defense, and I'm 
hopeful that we can reconcile this issue, because right now 
exercising the rights under--that this Senator has in the 
Senate, all civilian nominees for the Department of Defense are 
in abeyance by floor action. That's your right, and that sends 
a very strong signal as to the support Senator McCain has to 
establish the rights of co-equal branches of the government to 
perform their respective work. So it may well be above your pay 
grade, Mr. Secretary, but we simply have to resolve this issue.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    It's good to have you here this morning. I wanted you to 
know that I am, and we are, proud of our soldiers, our sailors, 
our marines, and our airmen for what they're doing for our 
country. Personally, I would like to do all I can to support 
our troops.
    This is a question for all of you. I want to follow up on 
discussions you were having earlier with Senator Levin. You 
were talking about funding shortfalls for the remainder of 
fiscal year 2004. Secretary Brownlee, Army officials have cited 
unfunded requirements of up to $10 billion for this year, which 
you suggested OSD might be able to help you with, perhaps by 
moving funds from other services. However, press reports note 
that the Departments of the Navy and Air Force may have 
shortfalls of $1.6 billion and $375 million, respectfully. I 
have two questions here. Would each of you please tell me how 
much your Department expects to seek, during the upcoming mid-
year review; and if you do not receive these funds, the second 
part is, what actions will you take to continue conducting 
operations for the rest of the fiscal year?
    Secretary Brownlee, I want you to know we had a good Army 
Caucus meeting this morning, and it was filled with standing-
room only, and we heard from the Chief. We had a good exchange, 
and look forward to more of that in the future. Will you start, 
Secretary Brownlee?
    Secretary Brownlee. Yes, sir. Sir, we are still putting 
together what we're going to ask for in the mid-year review, 
and I'd be happy to provide that for the record, but we are 
just not complete in putting that together.
    I can tell you that I've consulted OSD, requesting 
assistance with some of the actions we've taken to accelerate 
the production of up-armored HMMWVs and body armor. We still do 
have some capability within the Army to reprogram funds and 
move those around, and we will intend to do that where we can. 
But I have conferred with people in the OSD comptroller's shop, 
and they assure me that they will help us; and to what extent, 
I can't tell you right now. But I have gone to them with this 
situation, and they have assured me that they are capable of 
providing assistance. Some of it, I'm sure we're going to have 
to find ways to do ourselves, and we will. Whether or not there 
will be a significant shortfall from that, I think we'll know 
better after the mid-year review.
    Senator Akaka. Secretary Brownlee, I and some of my 
colleagues visited some of the troops who were wounded and 
injured, and I tell you that we're so happy to know that the 
body armor that they now have has saved many of their lives.
    Secretary Brownlee. Yes, sir.
    Senator Akaka. Are there any other improvements to the body 
armor that are being planned? I say that because many of them 
had limb problems and leg problems.
    Secretary Brownlee. Sir, could we talk about that in a 
different session?
    Senator Akaka. Surely.
    Secretary Brownlee. I do not want to talk about the 
capabilities of our body armor and what it might or might not 
be able to do.
    Senator Akaka. All right, thank you.
    Secretary England.
    Secretary England. Senator, the $1.6 billion you referred 
to in the press, that was reported--quoted a letter from the 
Navy comptroller to the DOD comptroller, Mr. Zakheim--a request 
in that general amount of $1.6 billion. That $1.6 billion is to 
cover the incremental cost, fiscal year 2004, sending our 
marines to Iraq, so it's the cost of being there, plus special 
equipment, armoring for their vehicles, special equipment. We 
have, frankly, told the Marine Corps, anything they need we 
will fund and provide to them, and so we are evaluating a lot 
of new capability.
    I thank the Army, because a lot of the lessons learned in 
working with them--our marines have physically been with the 
Army many, many months--lessons learned to apply when our 
marines deploy. Those funds, we are working with OSD, we have 
received some of that money from OSD. Some things we wanted to 
do right away, so we did our own reprogramming to provide some 
money right away, because we did not want any time lags, 
because the marines are going quickly.
    So we do not have an issue here. I mean, it's a relatively 
modest amount of money within our total budget. We are getting 
help from OSD, and we do have some flexibilities within the 
budget. So those bills are being paid. That is our fiscal year 
2004. There is the Iraqi Freedom fund, which was the fiscal 
year 2004 supplemental, that is available, because we are 
substituting--as you'll recall, Army was originally going to be 
going, and we are substituting for some of the Army personnel, 
right? Marines are taking Army personnel, in terms of 82nd 
Airborne. So some of that funding that was going for that total 
effort with the Army will now come to the United States Marine 
Corps. So this is not an issue for us, sir.
    Secretary Roche. Senator, in fiscal year 2004, the Air 
Force should be able to make it without a problem, assuming 
there are no new contingencies and assuming the source of money 
that OSD supposedly has for the Army does not come from the Air 
Force. It could be a matter of robbing Peter to pay Paul. But 
assuming none of that, we should be able to make 2004 fine.
    Senator Akaka. Mr. Chairman, my time has expired.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator Inhofe.
    Senator Inhofe. Yes. I wonder, Secretary----
    Chairman Warner. I would ask forbearance if the ranking 
member wants----
    Senator Levin. If you would forebear.
    Senator Inhofe. Certainly.
    Senator Levin. I do appreciate that. I just want to get 
back in this question of documents on the Boeing lease just for 
1 minute.
    Transcending the issues involved in the Boeing lease is the 
question of whether or not Congress has a right to documents. 
This is a very fundamental issue. Frankly, the Defense 
Department has been kicking this can down the road and raising 
the argument that somehow or other we may not be entitled to 
so-called pre-decisional documents.
    There's no basis in law for the Department of Defense 
denying Congress predecisional documents. The only legal basis 
for denying us documents is executive privilege, which 
obviously is not involved here and not being asserted here.
    Now, we had Mr. Wynne in front of us. He said that was 
above his pay grade. Then we had the Secretary of Defense in 
front of us, and he said something like, ``It's still being 
considered.'' I just talked to the chairman and Senator McCain, 
and I think we have a responsibility, frankly, representing the 
Senate here, as just a committee of the Senate, in insisting on 
these documents, and, if necessary, getting the Secretary of 
Defense or the General Counsel of the Defense Department here 
in front of us to answer this, because there is no way that a 
self-respecting Congress cannot insist upon these documents, 
unless there's an executive privilege issue. It's got nothing 
to do with the issues involved in the Boeing case. It's 
separate and apart from those issues.
    So, Mr. Chairman, you have plenty on your plate, I know. 
But, nonetheless, this request of Senator McCain is really a 
request that relates to the powers of this body to oversee the 
operations of the Department of Defense. If this were a Freedom 
of Information Act (FOIA) request, then the predecisional issue 
is relevant. This isn't a FOIA issue; this is an oversight 
issue on the part of Congress.
    So, Mr. Chairman, I would support Senator McCain in really 
insisting that we get the documents, but get an answer, so that 
if the answer is going to continue to be no, that then I think 
this becomes a leadership issue of the whole Senate. The Senate 
will decide whether we can accept a stonewalling on this kind 
of a request from an executive branch. I don't care if the 
executive branch is Democratic or Republican. This goes beyond 
any political issue. It's got nothing to do with the merits of 
this issue. It has to do with the institutional question of 
obtaining documents, which are not subject to executive 
privilege.
    Chairman Warner. That's clear, very much, Senator. I've 
been trying to work with Senator McCain on this. So I think you 
see a unified front. Gentlemen, this is, of course, at the 
Secretary's level, but I think it's helpful to communicate, in 
this type of forum, the sincerity and the commitment of this 
committee, because we are a coequal branch of government, and 
we have our functions to perform, and it's essential that we 
have the appropriate documents to do our oversight.
    So we'll proceed now. Thank you for your indulgence, 
Senator Inhofe.
    Senator Inhofe. Yes.
    Senator Levin. Thank you, Senator.
    Senator Inhofe. Thank you, Mr. Chairman and Senator Levin. 
I know, Secretary Brownlee, you're unable to respond fully to 
Senator Akaka's question, but I would like to have you repeat 
something that General Schoomaker said this morning at the Army 
Caucus, and that I believe you said, but I want to re-emphasize 
that----
    Secretary Brownlee. Yes, sir.
    Senator Inhofe.--because there is media here, and I want 
everyone to hear it. That is that every troop in Iraq and 
Afghanistan, in terms of body armor, how are they equipped?
    Secretary Brownlee. Has body armor. Sir, as of yesterday 
afternoon, there were some additional combat service support 
troops in Afghanistan, to the tune of about 2,700, that I 
understand did not have interceptor body armor. Now, that 
doesn't mean there's not enough in Central Command to outfit 
everybody. There is. But they have to get it to these people, 
and----
    Senator Inhofe. But the point the General is making, if we 
hadn't taken action, it would take some 20 years, at the rate 
that we were going, to get adequate body armor to these 
troops----
    Secretary Brownlee. That's true.
    Senator Inhofe.--which are now going to take----
    Secretary Brownlee. Yes, sir. We now have more than enough 
in theater to equip every soldier. It's a matter of 
distribution within the theater, sir.
    Senator Inhofe. Okay. As all of you know, we've talked 
about the President's budget, and there is, right now, some 
talk about another $9 billion cut--up to, I think, to be fair 
with them. If this were to take place, it would be up to around 
$3 billion for each branch that you represent here today--can 
you tell us where that would come from?
    Secretary Brownlee. No, sir. It would be very difficult for 
us to absorb any cut right now. As I indicated earlier, I think 
we'll require assistance from OSD, at our current burn rate, to 
get to fiscal year 2004; and in fiscal year 2005, we will 
probably be cash-flowing out of the third and fourth quarters 
in the early months of fiscal year 2005.
    Senator Inhofe. Any comments, Secretary England----
    Secretary England. Well, Senator----
    Senator Inhofe.--either or you?
    Secretary England. Yes, I do want to make a comment here, 
because, Senator, my comment earlier about efficiency and 
effectiveness, we have been reducing the costs of our naval 
forces. We're actually reducing the number of people in the 
Department of the Navy, so we have become very, very efficient, 
and, I believe, much more effective. Now, when you become more 
efficient, then it is much harder to absorb reductions, in 
terms of funding, because you don't have any margin left.
    So we have not looked at this. Obviously, we have to do 
some analysis, but certainly it would be difficult to absorb. 
If we have to do it, certainly we would do it, but it's very 
hard, based on what I believe has been very effective work on 
our part in being a much more efficient organization.
    Senator Inhofe. Secretary Roche.
    Secretary Roche. I would not know where to get that money 
from at this point, sir.
    Senator Inhofe. Yes, well, I wanted to get you guys on the 
record, because this is going to be a discussion on the floor. 
I agree with you, I don't know where it would come from. I look 
at something, Secretary Brownlee, that sets, as the law, that 
says you have to field a non-line of sight (NLOS) cannon----
    Secretary Brownlee. Yes, sir.
    Senator Inhofe.--by 2008. A definition of ``fielding'' is 
that a prototype, or what it is. Nonetheless, we know that we 
need that for our kids, for our----
    Secretary Brownlee. Sure.
    Senator Inhofe.--troops over there, that capability.
    Let me make one comment, I'm sorry that Senator McCain 
left, I just wanted to mention something about the discussion 
with General Jumper before this committee as to Tinker Air 
Force Base and some of the things that were stated about 
doctoring up charts and so forth. I did some checking myself to 
find that when they talked about the degree of corrosion that 
had taken place, they broke it down in different areas--
fuselage, bulkhead fitting, wings, and such as that.
    The fifth point was left off, which they should not have 
done, I agree with Senator McCain in that respect and that is 
the chart using bulkhead fittings and the fact that there are 
four occurrences out of 82 aircraft, or a 5-percent occurrence 
factor. Now, I think that was kind of implied, and I would have 
felt the same way if I had looked at this in isolation, that 
we're presenting a problem that's greater than it is. However, 
when you stop and realize that only a third of that which is 
done is done at Tinker, it could very well be that the others, 
in order to get up to the service life of all vehicles, is 11.5 
percent. That would mean perhaps in some other areas it's 20 
percent.
    Second, if you look at some of the other parts of the 
charts, such as the chart that would be corrosion and service 
life report on the fuselage skin body, that report, which was 
the fifth point that was left off, said the history of 82 
aircraft and 18 occurrences, 22 percent occurrence factor, 
which is greater than the 18.5 percent. If the intent were to 
try to make it look as if the problem is not as great as it is, 
I don't think that that would have been left off. It's just my 
comment. I'm not requiring any response, just that I did take 
the time to go down and look and see what that situation was, 
and I believe that to be true.
    End strength, Secretary Brownlee, we've talked about all 
the things that you guys are doing over there. We've talked 
about OPTEMPO over and over and over again before this 
committee and all levels of the United States Army, and I would 
say the same thing with perhaps the Marine Corps, too. The 
temporary increases up to 30,000 soldiers, I would just like to 
just ask you to answer the question, where are we in end 
strength? What would you share with us this morning?
    Secretary Brownlee. Well, sir, what we have proposed is to 
grow the Army by 30,000 over the next several years to create 
at least 10 additional combat brigades, and to use the 
authority in title 10 that allows the President to waive the 
requirements of end strength to allow us to do that. You will 
recall, when we were--the Chief of Staff and I were here last 
November, we advised the committee then that we were already 
20,000 over our authorized end strength, and that we had done 
that in accordance with that authority in title 10, and we were 
paying for those additional 20,000 out of supplemental 
appropriations. So it seemed reasonable to presume that if we 
took those 20,000 and about another 10,000 and used that to 
stand up 10 new combat brigades that could then be of very much 
use in the fight we're in now, that that would be appropriate 
to do, both in terms of the authority and in terms of the 
intent of the funding, and that that would allow the Army, 
then, the kind of headspace and flexibility we could also use 
to go in and, over the next several years, find, within our 
current authorized end strength, an additional 30,000 spaces of 
efficiencies, so that hopefully at the end of a 3-year or 4-
year period, we would be able to keep those 10 combat brigades, 
but, at the current end strength----
    Senator Inhofe. Yes, thank you very much Secretary 
Brownlee.
    Mr. Chairman, I'm hoping we'll have a second round. I had 
some--I've been spending quite a bit of time in California.
    Chairman Warner. Well, let's see what we can do. The votes 
will start at--I think it is 11:35, giving the first ones 15 
minutes to vote. We'll try and do that, because I, myself, have 
not taken time on questions yet.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you Mr. Chairman.
    Chairman Warner. But we'll try that, Senator.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Gentlemen, I would say that trying to find $1.6 billion, 
and moving it around, may be, as Secretary Roche said, 
something like robbing Peter to pay Paul, but it may be robbing 
Peter to pay Peter. I think that's the concern that I would 
have. The budgeting process back here is the equivalent of 
making a pie a piece at a time. I know the accountants try to 
account, but I would hope that we don't end up obscuring, in 
the process of creating money and obligations. So I'm very 
cautious. I want to suggest caution, because pushing off 
obligations into the future isn't the most accountable way of 
handling these ongoing obligations or contingent obligations.
    Secretary Roche, I'd like to go back to a little less 
controversial subject, ongoing sexual assault cases in the 
military. Last week, the Personnel Subcommittee of this 
committee had a service-wide hearing on the subject, and I know 
that when--since the new Air Force Academy leaders took over, 
there have been a continuing number of reports, 21 reports, of 
sexual misconduct. Secretary Rumsfeld has ordered a review of 
the Department policy on sexual assault and the treatment of 
victims. Last week, we heard about that.
    Do you foresee any further delay in the completion of the 
Department's investigation of the Air Force Academy and sexual 
assault cases? We have issues with soldiers, airmen, and 
cadets, as you understand, and perhaps you can give us your 
thoughts and projections about that.
    Secretary Roche. Yes, Senator. To begin with, the numbers 
are used to pick up many different things. Sometimes the 
numbers that you hear are old cases that are only now being 
reported. If you look at incidents that have occurred since----
    Senator Ben Nelson. Subsequent to----
    Secretary Roche.--subsequent to the Agenda for Change, 
we've actually had only 10 cases, involving cadets. There have 
been others on the base itself, and down at the prep school 
we've had two incidents.
    The Inspector General's report, there's two parts to that. 
The Air Force Inspector General, I had asked--it was folded 
into the larger picture--to look at every single case that had 
been adjudicated or not adjudicated where a victim, or alleged 
victim, had problems either with the way it was handled or the 
way they were dealt with. I would expect that the Air Force 
part of that to be done in this month; and most of the cases, 
in fact, have been submitted for extra review down to OSD.
    With regard to the Inspector General, the Department's 
overall review, you would have to ask him. I know that, as 
cases came up, it took more time, as there were more leaders 
from the past that had to be interviewed. That took more time. 
I can't tell you where they are on that.
    Senator Ben Nelson. Okay. Well, last week I suggested that 
I thought the military was taking a serious approach to this, 
but I was a little concerned about the lack of outrage. I must 
say, Secretary Roche, what you said today was as close to 
outrage as I've heard. It seems like perhaps we are getting to 
the point where it's not simply a matter of taking this 
seriously, but being outraged by the fact that it has occurred 
in the past, and other outrage will emerge if it continues into 
the future, I can assure everyone----
    Secretary Roche. Senator, you recall that I gave a speech 
at the Air Force Academy, a year ago right about now, which was 
all outrage.
    Senator Ben Nelson. All right. I just want to make sure 
we're outraged by these incidents. More importantly, we're 
serious about dealing with them.
    Senator Ben Nelson. I think there is a sincere effort. I do 
think that we need to continue to pursue it aggressively with 
modifications to current systems, as we discussed last week.
    Secretary Brownlee, with respect to the Patriot advanced 
capability, I'm a strong advocate of the missile defense 
system, and I've supported the Patriot advanced capability, 
PAC-3. But, after the recent reports from weapons experts 
saying that the problems with the Patriot missile system 
weren't fixed before the weapon was deployed in Iraq, I must 
admit I'm greatly concerned. You may--and I'm sure that if you 
haven't, you will--see the 60 Minutes segment concerning the 
flaws. My understanding is that the Patriot had 12 engagements 
in the Iraqi war, of which one quarter of these engagements 
were with our own planes, not something that we had planned on, 
nor something that we can accept as being normal.
    In fact, during March of last year, a U.S. Air Force pilot 
flying an F-16 fighter jet received a signal he was being 
targeted by radar. He believed it was coming from an enemy 
missile. He fired one of his own missiles, obviously in self 
defense, and hit one of our own Patriot batteries, which was 
tracking his aircraft as an enemy target.
    I guess the question I have is, what evidence can the Army 
provide us to ensure that in the future, for our aircraft and 
service men and women, that they will not be targets of our own 
defense system? What steps are being taken? Clearly, this is a 
serious concern. It's one I've had about deployment before all 
the research and development has been concluded. Racing to 
judgement, racing to deploy has its adverse consequences. It 
appears that that's what occurred here. No one expects 
perfection, but it looks to me like the malfunction is related 
to the lack of total research and development before 
deployment.
    Secretary Brownlee. Sir, I don't think we know the answer 
to that yet. I'm sure, the Central Command investigation is not 
complete. We're still waiting for the result of that. But we've 
looked very specifically at the system. These things occur as a 
result of not just problems with the technology--and this may 
be the case----
    Senator Ben Nelson. Well, it could be training, as well.
    Secretary Brownlee. It could be training. It could be other 
situations on the battlefield. This was a very highly 
electronic battlefield, as you well know. These systems and the 
way they are employed have a lot to do with this. In this 
particular case--and, again, we don't have the conclusions of 
the study, but we know that we had moved our systems forward, 
more so than we had done in previous wars, and we did this for 
obvious reasons. As the troops near Baghdad--neared Baghdad, 
everyone was concerned that they might come under a chemical 
attack of some kind, and so we had moved these systems forward. 
We're looking very closely at what impact that might have had, 
both on the awareness of the pilots, as well as the systems and 
how the systems operated.
    So, quite frankly, sir, we're still awaiting the outcome of 
the Central Command investigation to see what that says.
    Senator Ben Nelson. Well, two thoughts. One is, were our 
military men and women safer as a result of the battlefield 
testing of this program, or would they have been safer without 
it? Did it make our men and women safer, and our military 
capacity stronger?
    Secretary Brownlee. Sir, given a threat that had emerged as 
we had expected it to emerge, I certainly would say they are 
safer. Even given what they did come up against, I would say 
they are safer.
    Senator Ben Nelson. But, is battlefield testing, while it's 
important to do so, risky with high-tech equipment until we 
know what the incident of intervention with other technologies 
and other sensitive equipment might bring?
    Secretary Brownlee. Yes, sir. If you're focusing on the 
PAC-3 interceptor--and, again, we don't know yet--but I would 
be surprised if that turned out to be what was at fault here. 
There may be problems within the Patriot system, but I'm--I 
would be rather surprised if it were in the PAC-3 interceptor.
    Senator Ben Nelson. Well, we would hope to get a better 
success ratio than we had, would you agree with that?
    Secretary Brownlee. I certainly don't believe we can have 
the incidence of fratricide. None of those are acceptable----
    Senator Ben Nelson. Right.
    Secretary Brownlee.--in any way. Whatever we have to do to 
fix that, we have to fix it.
    Senator Ben Nelson. Thank you.
    My time is expired, Mr. Chairman. Thank you.
    Chairman Warner. Thank you, Senator, for raising the 
important subject of this sexual abuse. The full force and 
effect of this committee is behind you in making, hopefully, a 
zero-tolerance correction of that problem.
    Senator Collins, that's a problem in which you've been 
involved. You're next recognized.
    Senator Collins. Thank you, Mr. Chairman.
    Secretary Brownlee, like many of my colleagues, I have 
heard repeated concerns expressed by the families of our guard 
members and reservists who are serving in Iraq about the 
shortages of body armor and fortified HMMWVs. In fact, one 
soldier was home on leave, in December, and called me 
personally to talk about this and the consequences that he 
feared for the members of his unit.
    I'm very pleased, therefore, to hear from you this morning 
of the progress that has been made. But when I look at your 
chart in your testimony, it indicates that a year ago only 12 
percent of the soldiers in Iraq were equipped with body armor, 
and only 500 HMMWVs were fortified. Why were we so ill-
prepared? Why didn't we have more body armor and more fortified 
HMMWVs available to protect our troops? There seems to be such 
a discrepancy. I'm pleased with the progress, but I'm wondering 
why it was so misjudged.
    Secretary Brownlee. Yes, ma'am. Quite honestly, we were not 
producing this body armor at a rate that would allow us to 
equip all the soldiers with body armor before we went in. What 
we did was use what we had and equip those soldiers that were 
infantry and front-line soldiers that would be most likely to 
come under attack.
    The requirement for up-armored HMMWVs, proportionally, had 
never been that great because most of these kinds of HMMWVs 
were not viewed as favorably for tactical situations because 
their performance is somewhat degraded by the heavy weight of 
the armor. So there wasn't a feeling that all HMMWVs should be 
up-armored. It was when we got into the operational environment 
in which we found ourselves, that began in June and July last 
summer, that we realized that all soldiers were being exposed 
to these kinds of attacks, and that convoys, in particular, 
were exposed to these kinds of improvised explosive devices 
(IED) attacks. That's when we began to ramp up to provide those 
as soon as we could, and we've redistributed, from all over the 
world, the up-armored HMMWVs that we've had in other places. 
We've moved--I think the last ones are just moving in there 
now, should all be in there in April. We began a crash program 
on the body armor. We're now producing at rates up to 25,000 
per month.
    I also regret that we were not more farsighted here. We 
simply were not prepared for that kind of a counterinsurgency 
that attacked our convoys and our soldiers in the rear, as it 
has proven to be.
    Senator Collins. Secretary England, I know that you're 
expecting, of course, a shipbuilding question from me, and I'm 
not going to disappoint you in that regard. I very much 
appreciate the commitment that you've shown in your budget to 
fully fund the construction of three guided missile destroyers 
(DDGs) this year, and we've certainly made a lot of progress. 
When I look back at 2000, the year 2000, I think we were 
spending only $4.8 billion for shipbuilding and conversion 
budget; it's now more than twice as much, at $11.1 billion. 
That's a significant and much-needed improvement.
    I remain, however, very concerned about the Department's 
future shipbuilding plan, particularly as it affects the 
transition from the DDG to the experimental destroyer (DD(X)). 
The Navy appears to be slipping the construction of a second 
DD(X) destroyer by 1 year, from fiscal year 2006 to 2007. If 
this occurs, it would be the first year in more than 20 years 
that our Navy will not be procuring a major surface combatant. 
My concern is twofold. One is that it will exacerbate the 
already significant problem with regard to the size of our 
fleet, and we have the CNO's recent testimony on the ideal size 
of the fleet of being around 375 vessels. But, it also has a 
significant impact on our industrial base, our ability to keep 
the skilled workers that we need, and to keep some competition 
in the shipbuilding industrial base.
    So I would ask that you comment on what are the Navy's 
plans to ensure that we keep moving toward increasing the size 
of our fleet, something study after study has demonstrated we 
need, and also the impact on the stability of our industrial 
base.
    Secretary England. Thanks, Senator. Two comments here. 
First of all, for the DDX--DDG to DDX conversion, you're right, 
we do have a void in 1 year. My hope and expectation is we can 
fix that as we go along, because that is an out year. That's a 
plan; it's not an actual at this point. Our issue, of course, 
is affordability. We are required to fully fund a ship at the 
very beginning. Of course, that's very difficult for us to do. 
I mean, it would be better if we could partially fund, but we 
have to fully fund. So, in this case, we literally had to move 
the total amount of about $2 billion to the right, rather than 
to the left. Now, hopefully, we can fix that as we go along.
    On the other hand, I will tell you, the industrial base is 
always of a concern. We do not want voids in the industrial 
base. That's not good for our industry; it's also not good for 
us, because it's costly and disruptive. We do have a study 
underway. Assistant Secretary John Young has been conducting 
this study on the industrial base. That is finished, I believe, 
now, and will be briefed to you very shortly. It could be 
today, tomorrow--but, I mean, this week, I believe, we will be 
briefing you. As part of that, we have worked with the 
leadership of all the major shipyards to make sure we do 
understand their issues and problems, because it's in our 
interest not to have those problems in our shipyard. So we are 
paying attention to it. We do not want breaks in our production 
line. We will continue to address that so that's not an issue 
for the industry. We don't want that to be an issue in the 
industry.
    Senator Collins. Thank you, Mr. Secretary. Thank you, 
Secretary Brownlee.
    Secretary Brownlee. Mr. Chairman.
    Chairman Warner. Senator Chambliss, I wonder if you'd 
indulge the Chair. I haven't asked any questions. I want to ask 
one question while our distinguished colleague from Maine is 
here, because she has been an absolute leader on this issue, 
and that is, Secretary England, that it's been reported that 
the Navy will be the first service to implement the new 
flexible hiring authorities contained in the National Security 
Personnel System (NSPS), which Congress adopted last year, and, 
additionally, that you will take on a special role for the 
entire Department, it's my understanding, to assist in the 
implementation of the new civilian personnel bylaw and 
regulation. I commend you for stepping up and accepting that 
challenge.
    So give us a little overview of how the Department has 
handled the initial steps toward the implementation of the 
NSPS, and how you see your role in the coming year.
    Secretary England. Mr. Chairman, thank you. Deputy 
Secretary Wolfowitz has asked if I would assist in the 
implementation, just because of my experience and background 
with large organizations, and particularly with the union 
groups and representative employees. So about 2 weeks ago, I 
did start to engage in this process. I have had the first 
review with the Department of Defense personnel. I have another 
one scheduled for this Thursday. So I'm still, myself, trying 
to understand the total implementation process. I do know it 
has moved along rather quickly. The question really is one of 
consultation in the process that we're using. So this is really 
a question of process.
    The Department of Navy did volunteer to be the department--
the lead department in implementing NSPS, which is perhaps how 
I got asked to assist in this matter. So I'm really not in a 
position to give you definitive input at this time. But in 
approximately 2 weeks, I would be pleased to come back and meet 
with you and other members of the committee.
    Chairman Warner. We'll accept that. Because there's been 
some concern, my understanding--the Senator might wish to 
elaborate--about the Office of Personnel Management (OPM), a 
separate entity within our Federal system, and their 
coordination, collaboration, whatever you want, partnership, I 
would hope, in this implementation. Am I correct in that, 
Senator?
    Senator Collins. You are correct. The OPM, under law, is 
supposed to be involved in the development of the new system. 
That's very important, because OPM has unique expertise in the 
Federal Government that I think can be very helpful to the 
Department. I think it's very important that even at these very 
initial stages, that not only the Department go forward, but 
that it engage in a collaboration with OPM and with the Federal 
employee unions.
    Chairman Warner. Well, I thank you, Senator.
    Secretary England. I'm sorry. Senator, I will be meeting 
with the director, Kay Cole James, at a breakfast meeting this 
Friday, so it would have been sooner, frankly, except my own 
schedule out of town, et cetera. So we will be meeting, having 
those discussions this week.
    Chairman Warner. Good. Well, that's reassuring. Because 
this committee took a very strong leadership role on this 
issue, which was quite controversial, and I think we moved very 
strongly in the direction in which the President and the 
Secretary of Defense so desired because of the uniqueness of 
this particular Department. But we're also running comparisons 
as to how this is operating in your former Department, Homeland 
Security. So we're going to be a constant oversight on this as 
you move ahead on it.
    Secretary England. I appreciate it, sir. This is a very 
important piece of legislation. I thank you for passing it last 
year. It is incumbent on us now to do it appropriately and 
correctly, and we are working to do that, sir. I will be 
pleased to work with you and other members of the committee.
    Chairman Warner. Thank you.
    Senator Chambliss, thank you very much.
    Secretary Brownlee. Mr. Chairman, I wasn't sure if Senator 
Collins might have to leave, and I'd just like to correct the 
record----
    Chairman Warner. Yes.
    Secretary Brownlee.--on one thing that I said. I indicated 
there were 2,700 soldiers in Afghanistan who did not today have 
body armor. That's 700, not 2,700. I'm advised they'll have 
them by Friday.
    Senator Collins. Thank you very much. That's good news.
    Secretary Brownlee. One other issue. With respect to 
priorities to Reserve components versus actives, just so you'll 
know, we have mobilized and will deploy three separate brigades 
from the National Guard, enhanced brigades the 30th, out of 
North Carolina; the 39th, out of Arkansas; and the 81st, out of 
Washington State. The Chief of Staff of the Army and I made a 
decision that they would have first priority over the active 
components in equipping them with the rapid fielding initiative 
equipment, which also includes the body armor. So they will get 
all the array of soldier items that--it's about $3,000 per 
soldier, and includes sunglasses and knee pads, and all these 
things--and they have a higher priority on that for this 
deployment than any of the actives.
    Senator Collins. Thank you.
    Chairman Warner. Senator.
    Senator Chambliss. Thank you, Mr. Chairman.
    Before I ask a question or two, I just want to make a 
comment, first of all to associate myself with the comments of 
Senator McCain and Senator Levin on this critical issue of 
document production. This is a fundamental issue that we have 
to resolve, and I know under your leadership, Mr. Chairman, we 
will.
    Second, with respect to the implementation of these new 
civilian rules, as the chairman and Senator Collins know, I had 
some real misgivings about moving as quickly as the Department 
of Defense wanted to move last year during the authorization 
process. Thanks to Senator Collins' particularly strong 
leadership on another committee, we did work through that and 
we have something that I think will work. Secretary England, 
you know what great respect I have for your abilities, and I'm 
very pleased to hear you say that we're moving on this and 
we're going to do it in the right way, because it's very 
sensitive with our civilian force. The morale is pretty high, 
and we don't need to do anything right now to jeopardize that. 
So I'm very pleased to hear you're doing this.
    Secretary England. Right, sir. Thank you.
    Senator Chambliss. Secretary Roche, I want to visit with 
you for a minute about the F/A-22. Last week I had a visit with 
the Air Force, as well as visited the plant in Marietta, a 
production facility, to discuss the status of the program, and 
I came away with great confidence that while there are still 
some minor glitches--and I say minor; any glitch in a weapon 
system is a glitch, but when you look at the complexity of this 
weapon system and the problems that we've had with it, as we 
have with every major weapon system through the course of 
research, development, and now in production--the glitches we 
have now are truly minor glitches, but we're working through 
those, and that everything is headed in the right direction. We 
may be a little bit behind on the testing schedule, but it's 
anticipated, by both the Air Force and Lockheed, that we're 
going to catch up on that testing within the short term, not 
the long term.
    There's an article in the paper today by the Bloomberg News 
that has a less positive assessment, and I wanted to get your 
comments on that article.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    There's one statement in there that I'm particularly 
concerned with. We have an independent assessment being done by 
the Pentagon. The director of the Independent Program Analysis 
that's doing that study makes a statement that indicates to me 
that he doesn't understand the capability of this weapon system 
and the real ability of this weapon system to ensure that we're 
able to maintain air superiority.
    We've been able to maintain air superiority over the last 
several conflicts we've been involved in. It's been the reason 
that we have suffered the least amount of casualties in any 
major conflicts that we've been engaged in in the last 30 
years. The F-15C has been a great weapon system. It's done its 
job well. But it's my understanding that there is in production 
right now, by the Russians, a weapon system that is comparable 
to the F-15C, and that if we're going to rely on the F-15C with 
upgrades or modifications in the future, that we are not going 
to be able to maintain air superiority.
    The F/A-22 has the ability to penetrate enemy lines, fire 
one, two, three shots, in some instances, before it's even 
detected. I want to make sure that you have an opportunity to 
address this issue relative to air superiority and the real 
need of the F/A-22. I understand it's your number-one program, 
and I appreciate that fact. But, if we're going to continue to 
have these darts thrown at a weapon system that's going to 
allow us to maintain air superiority, and to ensure that we're 
going to be able to engage in conflicts with the least loss of 
life possible, I think it's critically important that we get 
that message out to the American people, as well as to Members 
of the House and Senate.
    So I'm throwing that out to you for your comments on what I 
know is a very important issue to the United States Air Force.
    Secretary Roche. Without filibustering the issue, sir, let 
me make the following points with regard to the status of the 
program now. We know of no major obstacles. But as you go 
through tests and evaluations, things come up. It has in every 
other program; and it will in this one, as well. But with the 
major problems that came up, I think we have two track records 
to be proud of. One, each issue that people were so concerned 
about in the past, we've fixed. Two, the stability of funding 
has caused stability in the production line, which is making 
the production of the aircraft more efficient over time. It is 
a very complex system.
    The entry into initial tests--operational tests was based 
on events, not dates. The limiting problem we have now is 
having the sortie generation rate, which has to do with the 
failure of small parts on the plane such that you don't get 
enough sorties per day. We are working that. Part of the 
problem is the diminished material sources, very few 
subcontractors, and parts that were presumed to never fail are 
failing. That will apply to any plane that we build in the 
United States. Joint Strike Fighter will face the same problem. 
It's good to know it now so that we hopefully can prepare a bit 
for that. But we are working each of those down, and we will 
enter into the test program when we have the sortie generation 
in place.
    The pilots who have flown the plane just are awestruck at 
it. I've had a chance to be with them at Edwards, at Nellis, 
Tyndall. At Tyndall, meet with all the maintainers, and then 
the planes took off, flew, came back; no discrepancies 
whatsoever on the aircraft. Its capabilities of stealth, super-
cruise, advanced avionics are all playing out as we expected 
them to play.
    We also have modified the aircraft so that it's more of an 
air-to-ground airplane than it was the past, to specifically 
support land forces. So one of the reasons that the Army could 
give up on a deep-strike system is that that's a responsibility 
that we will take, and that the F/A-22 would be our premier 
system, to go deep to focus on moving targets, which are very 
hard to bomb, typically, and we're doing that. It's also the 
only aircraft that really gives you a good chance against 
cruise missiles, mainly because of super-cruise. You could put 
the same electronics on something like an F-15, but you can't 
super-cruise.
    The F-15s will never be stealthy. They are large in radar 
cross-section. We will maintain some as a bridge, as we 
transition to the F/A-22. But the F/A-22, among other things, 
deters anybody from building a system and thinking they could 
achieve air dominance, because they can't. The planes that the 
former Soviet Union is now constructing are very good. In fact, 
if we put our pilots in those new planes, against our pilots in 
our planes, our F-15s, our pilots in their planes will win 
because it's advanced technology. But you bring the F/A-22 into 
the picture, and that changes dramatically.
    So I believe it is a system that is more and more oriented 
toward ground support, in terms of deep interdiction, moving 
targets, working with special operating forces that are 
distributed. It is specifically being oriented to targets that 
are moving. Increasingly, enemies of ours know that if you 
stand still, you're easily bombed, but if you move, you can, in 
fact, avoid us. It is the only aircraft that we have that gives 
us a reasonable chance to take more than one shot against a 
cruise missile.
    So I believe it'll stand the test of people looking at it. 
If someone wants to do yet another study of it, I believe 
that's not unreasonable. This is not a cold war system today, 
just as the B-1 is no longer a cold war system. We've made 
enough transitions in the B-1 to make it very appropriate for 
this era, and we believe we've done the same thing to the F/A-
22.
    Senator Chambliss. Thank you, Mr. Secretary.
    My time has expired, Mr. Chairman, but I have a written 
question that I'm going to submit.
    Chairman Warner. Why don't you go ahead, you can take 
another question.
    Senator Chambliss. Okay.
    Secretary Roche, I noticed, in your written statement, you 
make reference to the 116th Control Wing at Robbins AFB, which 
flies the Joint Surveillance Target Attack Radar System 
(JSTARS) and 116th to the 1st blended active Reserve wing in 
the Air Force, in the entire military. I'm proud of the work 
the 116th has done. We worked through some difficult issues 
there. Boy, I'll tell you, the morale of the Guard and the 
Active Force is unsurpassed within those folks, and, Les, you 
know what a great job JSTARS does for your folks, and it's such 
a great weapon system, and this is a great integration of the 
active and Reserve component.
    This model truly does move us to the total-force concept 
that the Secretary is talking about with respect to every 
branch of the Service. I want to just ask each of you if you 
have looked at the blend between the Guard and the Active Force 
that we've accomplished with the Air Force, and, Secretary 
Roche, how you intend to expand on this as we move forward. 
This issue of force structure continues to be an active and 
vital issue. Secretary Brownlee, you have addressed it in a 
certain way within the Army. But I think this blended-force 
concept is the wave of the future, with the way Secretary 
Rumsfeld is talking. So I'd ask each one of you, will you just 
comment on what you see here, how you think your respective 
branch is going to deal with this, are you going to move in 
that direction?
    Secretary Roche, why don't we start with you, because 
you're the one with the experience on it.
    Secretary Roche. Well, and you, as well, since you helped 
me. We did have to get through some difficult times. It has 
proven itself in combat, which, as Admiral Burke once told me, 
is the only real test of a weapon system, is how it performs in 
combat. JSTARS, as a blended wing, has performed magnificently.
    We should also make sure everyone realizes that there are 
Army officers onboard the JSTARS at all times, so it's not just 
Air Force officers.
    It has worked very, very well. We have taken that concept 
and expanded it, especially in the area of unmanned vehicles 
and remotely piloted aircraft. We've done another unprecedented 
move, with the help of some wonderful guardsmen in California 
and Nevada. We actually have California guardsmen and Nevada 
guardsmen in with Reserves and Active Force, right from the 
beginning on our Predator developments and our Predator 
control, so that it'll be done at the same time.
    We are looking at other areas. We have some in space, some 
for helping our Strategic Forces Command. We're looking 
wherever it may make sense to do it, because it brings the 
Guard into our most modern systems. Because the newer systems 
are so much more usable, we can have multiple crews for the 
same aircraft. So we expect to do this with the F/A-22, as 
well. It appears to be something that, where it makes sense to 
do, it really, really pays off, and there are other 
constitutional issues you helped us with.
    So I commend it. It doesn't work in every case, but we're 
finding more and more places where it is in the interest of 
both the Guard and the Active Force to bring the experienced 
folks from the Guard together with the full-time people on 
active duty, and you get a much higher crew ratio. If you have 
to go to war, the active people take it, but then, coming 
behind them, are the Guard folks who supplement the original 
active group.
    JSTARS works just beautifully, and I'll be flying with them 
in the area here shortly.
    Secretary England. Senator, of course, two services; first, 
though, I'll comment about the United States Marine Corps. Our 
Reserves are ready to go at literally 7-day notice--whatever 
their transportation time, they're ready to go into combat, so 
they actually work with our Active Force, indistinguishable, 
ready to go on a moment's notice, literally, and that's working 
well, has worked for the United States Marine Corps.
    The Department of the Navy, we are combining our assets 
between active and Reserve. We are actually reducing our assets 
as a result, because we do want a total force, in terms of 
integrated Reserve and Active Force. In fact, we are reducing 
the size of our force, largely brought about with our 
integration between our active and our Reserve components.
    So we do this across the board. Our ships, our airplanes, 
everything we do, this is a very active integration. I think 
you will see, over time, that we will likely continue to shrink 
both our assets and our force somewhat as we continue this 
integration.
    So we're committed to it. At any given time, about 25 
percent of our reservists are actually doing active duty. The 
pilots that fly commercial airlines--when they're not flying 
commercial airlines, they're flying for the United States Navy, 
a lot of them, those that are in our Reserve organization. So 
you will see more and more integration of our Reserves and our 
Active Force. Again, our Marine Corps is already highly 
integrated at the moment.
    Secretary Brownlee. Sir, we have some multi-composition 
units at echelons above division that are primarily 
headquarters units. As we stand up these new brigades in the 
active component, we will stand up new brigades in the Reserve 
component. They will all be standardized and modularized.
    There is not an intent right now to blend them, I don't 
think, in the sense you are talking because, although we do 
have active component soldiers integrated in with our Guard and 
Reserve units--anyway, we have some 5,000 that are out there; 
senior officers and non-commissioned officers (NCOs) integrated 
in these units--they're not blended in the way that you might 
have described. We'll have to take a look at that to see how it 
would work with these kinds of units. I'm just not sure how it 
would, but we'll certainly take a look at it.
    Senator Chambliss. Thank you, Mr. Chairman.
    Chairman Warner. Thank you. It's a very important question, 
Senator Chambliss.
    Just a follow-on with the Secretary of the Army, we see 
that the force structure in Iraq now will be comprised of 40 
percent National Guard.
    Secretary Brownlee. Yes, sir.
    Chairman Warner. When will that figure be reached, that 40 
percent level?
    Secretary Brownlee. Sir, right now, in the rotation that 
we're doing, of moving forces over and bringing them back, we 
are about 30 percent complete with shipping forces over, and 
about the same amount coming back.
    Chairman Warner. Yes.
    Secretary Brownlee. We will not complete these rotations 
until sometime in April/May, so I would say it would be--in 
that time frame, is when it would be complete.
    Chairman Warner. As those units depart, to what extent can 
yourself and the Secretary of Defense assure the individual 
guardsmen that, subject to some changes, which are not 
foreseeable, their commitments will be for what period of time?
    Secretary Brownlee. Sir, their commitments are for 1 year 
boots-on-the-ground in----
    Chairman Warner. In Iraq----
    Secretary Brownlee.--theater. Yes, sir. In Iraq.
    Chairman Warner. So maximum is----
    Secretary Brownlee. Yes, sir.
    Chairman Warner.--365 days, the boots depart.
    Secretary Brownlee. Yes, sir. But their mobilization 
periods of time, of course, are longer because they have to be 
trained up----
    Chairman Warner. Correct.
    Secretary Brownlee.--mobilized, trained up, and then 
brought back and demobilized. So it can be up to another 6 
months, depending on how long they're training; in some cases, 
longer than that, depending on their training.
    Chairman Warner. What's the composition, in Afghanistan, of 
Guard and Reserve?
    Secretary Brownlee. I'd have to look at the proportions. I 
know we have a unit from the 45th Oklahoma National Guard, that 
unit is in Operation Pegasus, which is training the Afghan 
army. I'd have to look at the proportion. I know there are 
about 11,000 troops there; about 10,000 of those are Army. I 
would suggest probably about 20 percent of that may be Guard. 
I'll have to get that number for you.
    Chairman Warner. My understanding is perhaps there's a unit 
from Alaska. Would you check on that and provide a response?
    Secretary Brownlee. I will. Yes, sir.
    [The information referred to follows:]

    As of March 1, 2004, there were no Alaska National Guard members--
Army or Air--assigned to operations in Afghanistan. Units and 
individual augmentees had previously and subsequently have been 
assigned to that area of operations.

    Chairman Warner. I thank you very much.
    Now that my colleague, the ranking member, has returned--I 
was absent on the floor during the course of your opening 
comments with regard to the budget, but I would like to make 
these observations. That is that, in a report released last 
November, the Congressional Research Service (CRS) examined 46 
cases since fiscal year 1990 in which funds were appropriated 
for military operations. CRS concluded, and I quote, ``Since 
1990, Congress generally has funded combat operations with 
supplemental appropriations,'' Some have suggested Congress 
begin budgeting for operations in Iraq through the regular 
appropriations process.
    So I'd call on you, Secretary Brownlee--you've had, 
obviously, the longest experience in this area, both with this 
committee and other periods of your distinguished career--can 
you, in your judgement as the acting secretary, reliably 
estimate the cost for your respective service of military 
operations in Iraq and Afghanistan for fiscal year 2005 today?
    Secretary Brownlee. No, sir. I certainly couldn't have done 
it at the time we put the budget together. That's why I think 
that the Congress has routinely funded military operations like 
this out of supplementals. If I'm correct, I think we did the 
operations in the Balkans for at least 3 years, or more, funded 
them through supplemental appropriations, and I would suggest 
that those operations were far more certain and stable than the 
situation we find ourselves in in either Afghanistan or Iraq.
    Chairman Warner. Before I leave you, I'm just going to ask, 
for the record, you were questioned by members of the committee 
with regard to the body armor.
    Secretary Brownlee. Yes, sir.
    Chairman Warner. You, very frankly, said, ``We just failed 
to estimate the needs.'' But my recollection is that the orders 
for this originated in the previous administration and----
    Secretary Brownlee. Yes, sir.
    Chairman Warner.--this buildup. So I think it would be 
important for the record--I'm not trying to be political --but 
this is a sequential operation, and having been in your job 
some many years ago, what occurs in the previous administration 
is carried over, and it takes time to ramp up and get second 
sources to meet contingencies.
    Secretary Brownlee. Yes, sir. It does, sir. While we had 
already looked and started to increase the numbers of these, we 
just weren't there yet, in terms of volume.
    Chairman Warner. Well, I think it would be helpful if you 
would----
    Secretary Brownlee. I will do that.
    Chairman Warner.--talk about the origin of the program----
    Secretary Brownlee. Yes, sir.
    Chairman Warner.--and how it transitioned from the previous 
administration to the Bush administration, and the steps taken 
by the Bush administration, most recently mentioned today, to 
try and bring up an adequate supply.
    Secretary Brownlee. Yes, sir.
    [The information referred to follows:]

    The fielding of Interceptor Body Armor (IBA) to the Army started in 
early 2000. IBA is the successor to the Personnel Armor System for 
Ground Troops (PASGT) vest and the Interim Small Arms Protective Over 
(ISAPO) vest. As you may know, IBA consists of an Outer Tactical Vest 
(OTV) and a set of two Small Arms Protective Inserts (SAPI). The OTV 
replaces the PASGT vest and SAPI replaces the ISAPO. IBA was originally 
intended for dismounted infantry, military police, Special Forces, and 
the National Guard's enhanced separate brigades; units that faced the 
highest probability of direct contact with enemy forces. At the time, 
the Army assumed some risk in not planning to equip support troops and 
other soldiers towards the rear of the battlefield. We did not believe 
these troops faced the same threat, as did our dismounted combat 
forces.
    The Army originally programmed about $46.8 million to procure 
36,000 sets of IBA to be issued to the priority units mentioned above. 
Our original rate of production was 1,000 OTVs and 375 sets of SAPI per 
month. Additional IBA were to be produced following the first 36,000 
sets, and unit commanders would be able to locally purchase on their 
own if they determined they had a need for IBA. The first 5,000 sets of 
IBA the Army produced were fielded to soldiers in Kosovo between March 
2000 and July 2001. The next set of 5,000 produced was placed in a war 
reserve contingency stock.
    Immediately after September 11, 2001, SAPI production was increased 
to 1,600 sets per month, and shortly thereafter, we released IBA sets 
from our contingency stocks to the 10th Infantry Division and 101st 
Airborne Division in preparation for what became Operation Enduring 
Freedom (OEF). In June 2002, the Army directed IBA to be issued to all 
soldiers in support of OEF and production was further increased to 
3,300 sets per month.
    In late 2002, in anticipation of possible military operations in 
Iraq, the Army again committed resources to further increase IBA 
production. By the time the Army commenced combat operations into Iraq, 
more than 83,000 OTVs and 50,000 sets of SAPI had been issued. Because 
of this effort, the Army conducted the first phase, major combat 
operations, of Operation Iraqi Freedom (OIF) with sufficient quantities 
of IBA. Many of the brave soldiers assigned to the 3rd Infantry 
Division did not require IBA because they conducted their superb attack 
from the protection of their tanks and armored fighting vehicles. At 
this point in time, the Army thought it had enough IBA on-hand and 
reduced production quantities.
    It was not until we moved into the next phase of OIF, when the 
threat changed, and we were determining exactly how many soldiers would 
be necessary in Iraq, did we find ourselves falling short of having 
enough IBA on-hand. The tank crews and armored vehicle crews that 
fought and won the first part of the war were now being required to 
dismount their vehicles and conduct patrols and missions on foot, 
significantly increasing our IBA requirement overnight.
    With the help of Congress and resources from the Iraqi Freedom 
Fund, the Department again surged the industrial base's production of 
IBA, this time to our present rate of 25,000 sets of IBA per month.
    Today, the Army is committed to procuring a total of 840,000 sets 
of IBA. We expect to accomplish this objective during fiscal year 2006. 
This will ensure that every single soldier in the operational Army, 
whether active or Reserve component, has their own set of IBA.

    Chairman Warner. Thank you very much.
    Now, back to the question of the budgeting, Mr. Secretary. 
Can you estimate the cost of your military operations, Navy and 
Marine Corps, for 2005?
    Secretary England. No, sir. We don't know what our 
requirements will be for 2005. I mean, we are now operating off 
of fiscal year 2004 funding; and, of course, that all changed 
late last year, when the Marines were requested to go to Iraq. 
So even that was very late for Department of the Navy. So I 
don't know what the situation will be next year, what we will 
be requested to do next year. I mean, our budget----
    Chairman Warner. For the balance of this year. I mean, you 
have the Haiti operation. That's a costly one.
    Secretary England. Yes, but I----
    Chairman Warner. It's an example of how you couldn't 
anticipate----
    Secretary England. Yes, it is--right, sir, it is a 
situation that you cannot anticipate in advance, absolutely.
    Chairman Warner. Mr. Secretary, do you concur with your 
colleague?
    Secretary Roche. Absolutely, sir.
    Chairman Warner. On the Comanche, Secretary Brownlee, 
frankly, I support the decision of the Secretary of Defense and 
yourself on that. Please provide, in today's record, if you 
feel there are any facts that were not stated by the 
administration at the time this important contract was 
terminated. Do you have any new information regarding that 
termination that you can share with us this morning? I presume 
it's going on in an orderly way.
    Secretary Brownlee. It is, sir. On the 26th, we met with 
members of industry who were involved in the program, and Mr. 
Bolton met with them, I spoke with them, and we certainly told 
them that exactly what the decision was and how it originated 
and why we made it. There is, of course, as a result of this, 
with the program of revitalizing Army aviation--this will, in 
fact, require the procurement of an additional 800 new 
helicopters, plus the refurbishment of about 1,500 others.
    Chairman Warner. I want to commend the manner in which you, 
personally, and others, handled this very difficult decision. 
Cancellations are not easy. But, I'm the focal point of all 
types of communications and criticisms from 360 degrees, and 
it's been a fairly low level on this one, and obviously there's 
a good deal of disappointment in various geographic sectors of 
our Nation and with certain producers and manufacturers. But I 
think, thus far, it's the right decision, and it's going to 
stay in place.
    Secretary Brownlee. Thank you, sir. I hope that the amended 
budget arrives over here this week. It left the Army last week, 
to OSD, and I understand it's already at OMB, so Congress will 
receive it, hopefully, this week.
    Chairman Warner. Congress, understandably, in the 25 years 
that I've been here with my good friend, Senator Levin, we've 
seen many, many efforts to work on behalf of Guard and Reserve. 
This year, we anticipate the committee will receive a request 
from members. So let's just talk a little bit about it.
    A steady stream of legislative proposals have been brought 
forward in Congress that would greatly enhance the benefits 
provided guardsmen and reservists, and I think they're well 
deserved. I don't criticize them at all. Lowering the age at 
which retired reservists may start collecting retired pay has 
been proposed. Extending Tricare benefits to all reservists has 
been proposed. There are various other proposals, all very 
expensive.
    Now, what impact would, let's say, that entire program 
have, if we were to enact it, on the regular forces? I come 
back, drawing on modest experience of my own as a member of the 
Reserve, and integrated during the Korean conflict into active 
units, there's a certain stature that the active person has, 
and his family--he or she, as the case may be--and the 
commitments that they make. But if we bring them up to where 
they're all absolutely equated in benefits, how does that work?
    Secretary Brownlee. Let me just suggest two things, 
Senator. First of all, you and I both know how valuable the 
Reserve components are, both Guard and Reserve, and----
    Chairman Warner. Let's say essential.
    Secretary Brownlee. Yes, sir, absolutely.
    Chairman Warner. Absolutely essential.
    Secretary Brownlee. They're just absolutely critical to our 
operations now. I refer to them as the ``second-greatest 
generation,'' and I believe that. But I do have some concerns. 
If all the benefits are the same, for both active and Reserve, 
then people who are in the active might question why they 
shouldn't just have a second job and be in the Reserves. The 
other thing is that when the costs of the Reserve components 
begin to equate to the cost of the active components, then, 
within the Department of Defense, decisions will have to be 
made as where the money should be invested, and should we 
invest as many of our dollars in a Reserve component, as 
opposed to an active component, which does still have some 
restrictions on the use, as opposed to the active. So I just 
think we have to move very carefully in that area--
    Chairman Warner. Time is so short, and we're going to have 
this vote here in a moment. I think you've answered it very 
carefully. As much as we all desire to give the Guard and 
Reserve everything to which they are entitled, the Army would 
have to decide, well, if their costs are parallel, then 
probably we're better off having an active person, vice a Guard 
or Reserve, because that individual has continuity and stays 
in, and they're subject now, as we well know, to recycling back 
over to these forward posts----
    Secretary Brownlee. Yes, sir.
    Chairman Warner.--with a greater frequency.
    Secretary Brownlee. Yes, sir.
    Chairman Warner. Secretary England.
    Secretary England. You expressed it very well, Mr. 
Chairman. The Department of the Navy----
    Chairman Warner. I expect no less, from a former Secretary, 
for an old-timer, but I----
    Secretary England. No, you've expressed it very well, and I 
would say that you've captured exactly the feeling of the 
Department of the Navy, sir.
    Chairman Warner. Well, I would hope. Secretary Roche----
    Secretary Roche. I concur.
    Chairman Warner. You concur. I hope that, in your 
capacities, you'll counsel with the head of the Guard and 
Reserve units and meet with the very important retired 
organizations, who take an active role in this. Because we're 
getting pretty close to that parallel situation.
    I think we'd better touch a little bit, Secretary England, 
on the Osprey. We did the V-22, and those programs are always 
under close scrutiny here. This year, we limited production of 
the V-22s to a minimum sustaining rate, identified as 11 
aircraft until certain testing was successfully accomplished. 
The fiscal year 2005 budget for eight V-22s for the Marine 
Corps, and three for the special ops, represents the fourth in 
a row at the minimum sustaining rate.
    I visited down with the special operations command in the 
recess period, and they're very heavily relying on a prompt 
delivery of this system. So give us a little update on the V-
22, how it's progressing, and when you would anticipate these 
tests would be completed.
    Secretary England. Mr. Chairman, I'm pleased to tell you 
the testing is going well. We do have what I guess you'd call a 
few hiccups, but the testing is going very, very well. We're 
very, very pleased with the progress. I continue to believe 
that the V-22 is one of the most transformational programs we 
have. It will change the character of our Marine Corps, in 
terms of the ability to do deep-type operations. We would have 
liked to have had them for the operation we had in Iraq, 
frankly, because we were so far inland, it would have been a 
magnificent airplane to have.
    So it is very, very important. We are designing literally 
our future, in terms of some of our ships and our Marine Corps, 
as we go forward, and our Navy, to accommodate the V-22. So the 
testing is going well. We support it very, very strongly.
    This is the final test, in terms of major items, although I 
believe, frankly, the major items are behind us. So we should 
be increasing our rate. We plan to do this about 50 percent a 
year now, starting next year, because we don't want the rate to 
go up too fast and cause problems. But you will see this rate 
to continue to increase now as we finish up the test program. 
We then want to get this to the maximum rate as soon as 
possible.
    Chairman Warner. Yes, Secretary Roche?
    Secretary Roche. Mr. Chairman, it's an interesting program. 
It's run by the Navy for the Marine Corps, and there's an Air 
Force colonel who is the program director. The reason is that 
our Air Force Special Operations Command has a great interest 
in this program. So I'd like to second all the comments made by 
my colleague, Gordon England. We follow this very closely. In 
fact, the reason that we have the organization we do now is 
that 2\1/2\ years ago, I went to Gordon and said, ``Wouldn't it 
be better if we were part of your program now, rather than 
waiting 2\1/2\ years and telling you what we thought you should 
have done better?'' He absolutely agreed, opened it up to the 
Air Force, and we have been key to it ever since. Our special 
operators are looking forward to this aircraft. I think you 
know that the one that we will buy will have various and sundry 
additional equipment on it, which will give the Marine Corps a 
chance to see some of that tested, as well.
    We see this as being very important for our infiltration 
and exfiltration in special operations, potentially for long-
range combat search and rescue. So we are gearing our Special 
Operations Command on the assumption that this aircraft will be 
part and parcel of our Air Force.
    Chairman Warner. As you proceed on this--I got into 
considerable detail, and I was given an exceedingly good 
briefing by knowledgeable people in the special operations, but 
they explained to me just, sort of, some basic concerns that 
they're having, which I think are readily understandable by 
all, and that is on your descent, in the vertical descent, 
oftentimes you have to kick out that rope or other sustaining 
devices for those very brave individuals to exit that aircraft 
and hit that ground. The amount of the thrust down is 
complicating that. Has that been brought to your attention?
    Secretary Roche. Yes, sir. In particular----
    Chairman Warner. The safety of those individuals.
    Secretary Roche.--in particular, for search and rescue, 
having the hoist all the way aft was not a good design. But the 
program has looked at a center box, which would be just inboard 
from where the normal door on the port side would be for a 
rescue helicopter. That box works out, and you fly in in such a 
way, you actually put a null, an air null, beneath that one 
area. We believe that that will allow us to do combat search 
and rescue (CSAR). If you can do CSAR, you can certainly send 
people down the ropes. But they have had a problem----
    Chairman Warner. Now, time won't permit more detail. I just 
wanted to alert you to a concern.
    My colleague, Senator Levin.
    Senator Levin. Mr. Chairman, thank you. Just on the budget 
issue, the Army chief of staff testified, when he was here, 
that the Army is currently spending $3.7 billion a month in 
Iraq, and $900 million a month in Afghanistan, in incremental 
costs for those operations. Is it not foreseeable that those 
incremental costs are going to continue in the next year, since 
we know it's 110,000 troops rotating in?
    Secretary Brownlee. Sir, that's the current burn rate. I 
anticipate that it might continue somewhat at that level, but I 
don't know. I mean, we could reach a situation where we had to 
send more forces, or we could reach a situation where we might 
draw down.
    Senator Levin. Isn't it reasonably foreseeable that it's 
going to be at least 110,000, since that's your plan?
    Secretary Brownlee. Sir----
    Senator Levin. That is your plan.
    Secretary Brownlee. That's our plan.
    Senator Levin. Well, then why don't we budget for it? This 
isn't in the middle of combat. You have a plan, 110,000 folks.
    Secretary Brownlee. Well, sir, at the time that we 
submitted our fiscal year 2004----
    Senator Levin. No. No, no, now. The question is not whether 
there's a supplemental. That's a given, that there's going to 
be a supplemental. The question is whether we have a 
supplemental in a timely way so that we can avoid some gap in 
there. That's the issue. There's going to be a supplemental for 
2005.
    Secretary Brownlee. Sir, I----
    Senator Levin. The question is, since you're planning 
there's going to be at least 110,000 soldiers in there, why not 
fund for what you're planning? Why not budget for what we're 
planning----
    Secretary Brownlee. Senator----
    Senator Levin.--with a supplemental?
    Secretary Brownlee. If you're talking about the timing of a 
supplemental----
    Senator Levin. Yes.
    Secretary Brownlee.--is that what you're talking about? 
Sir, that's above my level, but I----
    Senator Levin. But have you talked to the Secretary about 
the need for that?
    Secretary Brownlee. It's been discussed in meetings, sir. 
But I'm not sure where he is on that.
    Senator Levin. But have you urged----
    Secretary Brownlee. Whether it's his----
    Senator Levin.--that the supplemental be filed before the 
end of the year so we know that we can properly, without gaps 
in funding, sustain that level of forces in Iraq and 
Afghanistan?
    Secretary Brownlee. Sir, I make my needs known to the OSD 
Comptroller and to the Secretary of Defense. If they believe 
they have sufficient funds to do that, then they tell me that. 
I really don't--I'm not part of their decisionmaking process on 
when supplementals get drawn up or requested.
    Senator Levin. Well, it's really an unsettling answer from 
you, I have to tell you, because we know we're planning on 
110,000 being rotated in, and so that's our plan. Yet we're not 
funding for that plan. So this is a reasonably foreseeable 
expense, because it's based on a plan that we've filed, and so 
I'll express myself on that.
    I guess I'll ask the question again. You've indicated that 
you believe we will need a supplemental at some point.
    Secretary Brownlee. Yes, sir.
    Senator Levin. Are we better off with that supplemental 
before those incremental costs have to be spent? Are we not 
better off having a supplemental for 2005, since we know 
there's incremental costs that are going to be there, in a way 
in which we have the funds to pay those incremental costs as 
they're incurred? Isn't that better budgeting?
    Secretary Brownlee. We would be better off having those 
funds before we had to cash-flow out of other accounts to the 
extent that we did harm to those accounts.
    Senator Levin. All right.
    Secretary Brownlee. But, Senator, because you've been here 
a lot longer than I was around here, that routinely these 
supplementals have been requested and approved by Congress. 
Sometimes when they came too late, yes, it was detrimental. If 
they were timely, the Services were able to adjust and get by.
    Senator Levin. Again, there's no argument over whether 
there's going to be a supplemental, so when you say ``routinely 
there are supplementals,'' that's a given.
    Secretary Brownlee. Yes, sir.
    Senator Levin. The issue is when will this supplemental be 
presented to us.
    Just a couple of other questions. Secretary Brownlee, 
there's a program in Korea, I understand, called the Korean 
Augmentation to the U.S. Army.
    Secretary Brownlee. Yes, sir.
    Senator Levin. Are you familiar with that program?
    Secretary Brownlee. Yes, sir.
    Senator Levin. I think it's called KATUSA?
    Secretary Brownlee. KATUSA program, yes, sir.
    Senator Levin. Where individual Republic of Korean soldiers 
are integrated into our units----
    Secretary Brownlee. Right.
    Senator Levin.--in a number of positions that would 
normally be filled by U.S. soldiers?
    Secretary Brownlee. Yes.
    Senator Levin. This program was begun during the Korean 
War, and apparently has continued with some success. Would that 
program have merit in Iraq?
    Secretary Brownlee. I've asked the same thing, sir. I 
really have. It may have. We're kind of embarked in a little 
bit different direction here than we were in Korea, in that 
right now we are standing up an Iraqi government, or in the 
process of doing that, and I think we want to build some 
institutions there, rather than taking them into ours. But it's 
interesting, I've asked the same question, whether or not that 
might have merit.
    Senator Levin. Would you let the committee know, then, 
about what your thinking is on that----
    Secretary Brownlee. Yes, sir----
    Senator Levin.--as it evolves?
    Secretary Brownlee.--I will. Be happy to.
    [The information referred to follows:]

    The Korean Augmentation to the United States Army (KATUSA) program 
began in July 1950 as a way to supplement under strength U.S. units 
following the outbreak of war in June 1950. The situation in Iraq is 
significantly different than the early months of the Korean War. U.S. 
units deploying to Iraq are at full strength and do not need 
augmentation in order to be combat effective. Additionally, the KATUSA 
program allowed U.S. forces to draw upon trained soldiers in the 
already established Republic of Korea Army. While there may be some 
benefit to integrating a small number of Iraqis into U.S. units to 
provide host-nation language, cultural, and regional expertise, in 
exchange to Iraqi exposure to U.S. leadership, tactics, techniques, and 
procedures, the decision to do so should only be made by the Combatant 
Commander, General Abizaid, and the commander in Iraq, Lieutenant 
General Sanchez.

    Senator Levin. Two quick ones, because we're, I see, in the 
second half of our vote already. This has to do with a comment 
which was made to me by a family support group president for a 
deployed National Guard unit----
    Secretary Brownlee. Yes, sir.
    Senator Levin.--last weekend, telling me that soldiers have 
to wait in line for hours to use the phone in Iraq. When they 
get their calls through, they're charged a connectivity fee 
that could be as high as $9, and then a per-minute fee up to 
$6, again depending on the calling card. Last year, we 
authorized service members who were in Operations Enduring 
Freedom and Iraqi Freedom to be provided, without cost, prepaid 
phone cards for what we thought was an adequate amount----
    Secretary Brownlee. Yes.
    Senator Levin.--120 calling minutes. But apparently that 
provision of the act has not yet been implemented, and I don't 
know why. If it's true, would you find out if, in fact----
    Secretary Brownlee. I will, sir. If you could----
    Senator Levin. Would you also just take a look at this 
problem? Because this----
    Secretary Brownlee. Yes, sir.
    Senator Levin.--is a very striking problem, when we have 
people out there who are being charged apparently that much to 
make phone calls home, when they're not supposed to be charged 
anything to make phone calls home.
    [The information referred to follows:]

    The Armed Services Exchanges provide the unofficial 
telecommunications system using the AT&T network. These services are 
not always readily available due to limited communications 
infrastructure and mission restrictions. However, as of April 2004, the 
Army and Air Force Exchange Service provided over 50 calling centers 
with over 1,600 phones and 640 satellite phones. Calls made from the 
exchange call centers using the AT&T telephone calling cards, 
commercial credit cards, and AT&T prepaid phone cards are not charged a 
connection fee. If a member places a collect call, there is a 
connection fee of $.89 to $6.50. If a member uses the Exchange Global 
AT&T 550 unit prepaid phone card, the calling rates are: $0.19 per 
minute from Kuwait call centers, $0.32 per minute from Afghanistan and 
Iraq call centers, and $0.76 per minute for satellite phones.
    The Defense Department's Defense Switched Network (DSN), an 
official telephone system, is available in some portions of the theater 
of operation. Soldiers in the Iraqi theater of operations, regardless 
of their component, can call at no cost during non-duty hours on the 
DSN system. The DSN connects the caller to a switch operator at the 
installation closest to the destination telephone number. If long 
distance service is required beyond the selected installation, the call 
is connected to a commercial network, from which the soldier may elect 
to use any prepaid card, calling card, and commercial credit card or 
collect service of their choice. On average, more than 50,000 telephone 
calls are made each day using the DSN system.

    Secretary Brownlee. Yes, sir. After the hearing, if I could 
get the information for where that is, there are still some 
isolated spots that continue to get reported where we don't 
have adequate phone service, so I'd like to know where that is.
    Senator Levin. All right. Well, I can't tell you where in 
Iraq it is----
    Secretary Brownlee. Okay.
    Senator Levin.--offhand, but we will give you the name of 
the lady----
    Secretary Brownlee. Okay.
    Senator Levin.--who is in charge.
    There was some discussion about the sexual assaults problem 
that we obviously have here, which seems to be endemic and 
deeper than anybody could have hoped. Does the Army have 
systems in place, and programs in place, in deployed locations 
to offer victims of sexual assaults there the medical and 
psychological and legal help that they need in deployed 
situations?
    Because we're running out of time, let me just----
    Secretary Brownlee. Yes, sir.
    Senator Levin.--raise that, bring it to your attention.
    Secretary Brownlee. I will.
    Senator Levin. If you could give us an answer, for the 
record, to that one.
    Secretary Brownlee. I will.
    [The information referred to follows:]

    The Army remains committed to taking care of every soldier, to 
include dealing expeditiously with any soldier complaint or allegation 
of misconduct and to ensuring that whether in garrison or deployed, the 
support services provided are the same. When a soldier reports a 
possible criminal act, including a sexual assault, the Army is resolved 
to investigate the allegations thoroughly and promptly and to provide 
immediate care and support to the victim. The Army has law enforcement 
and legal personnel who are deployed to the battlefield to assure 
timely investigative support and assistance to commanders and victims. 
We also provide medical care and mental health care expertise to our 
soldiers through our appropriately staffed Combat Support Hospitals in 
Iraq and Afghanistan.
    The Army is dedicated to ensuring that the victims of sexual 
assault receive proper care and treatment and that their medical and 
psychological needs are properly met. To ensure that our current 
policies and programs are effective, the Acting Secretary of our Army 
has directed the establishment of a Task Force to conduct a detailed 
review of the effectiveness of our Army's policies on  reporting and 
properly addressing allegations of sexual assault. This review will 
examine our policies, programs, procedures, and training with regard to 
the prevention of sexual assault. The task force will further review 
the processes in place to ensure a climate exists where victims feel 
free to report allegations and leaders at every level understand their 
responsibilities to support those victims. This task force will render 
its report by the end of May 2004.

    Senator Levin. Secretary England, you and I have talked 
about the civilian personnel issue, and I know that's been 
raised again here today by a number of my colleagues. I'm glad 
it has, I'm glad you're in charge now. I hope you'll, frankly, 
start from ground zero on this one. It got off on the wrong 
foot. There was a lot of effort made by our chairman, by 
Senator Collins, and others here to work out something which 
would preserve collective bargaining rights, which would also 
involve the unions collaboratively in working out the 
processes. I'm glad you're willing to take a fresh look at 
that. That's your assurance to me, personally, and I gather 
your assurance here this morning, and we look forward to that.
    Secretary England. Yes, Senator.
    Senator Levin. Thank you very much.
    Thank you, Mr. Chairman. Thanks to all of our witnesses.
    Chairman Warner. Thank you, Senator Levin, for your very 
strong, constructive participation on this committee.
    I, likewise, have a number of questions, gentlemen--Joint 
Strike Fighter, Joint Unmanned Combat Aerial System, and 
obviously I was going to end up on shipbuilding--but that's not 
possible. We've done our very best under the time constraints 
given this committee today, and I think your responses and 
participation have been very, very constructive and helpful to 
the committee in the continued responsibility we have in 
oversight.
    I said, when we started, I commend each of you for the work 
that you're doing. I continue to finish this hearing with that 
commendation. Well done.
    I also think your chiefs did a very good job the other day, 
Senator Levin----
    Senator Levin. They did, indeed.
    Chairman Warner.--when they appeared before the committee. 
So that civilian uniform team is working for the best interests 
not only for the men and women--for the Armed Forces, but the 
whole Nation. I commend you.
    Thank you very much.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Bill Nelson
                sexual assault at the air force academy
    1. Senator Bill Nelson. Secretary Roche, General Michael Moseley 
recently testified before the Personnel Subcommittee of the Senate 
Armed Services Committee. I would like some clarification of certain 
points he made in the testimony he submitted for the record: First, 
with regards to the sexual assault allegations at the Air Force 
Academy, General Moseley stated that confidentiality for victims has 
proved to be ``difficult to implement'' and that the Air Force 
``believe[s] it is in America's best interest'' to ``eliminate any 
chance for offenders to commit future crimes.'' Does this statement 
mean that the Air Force has completely abandoned the idea of affording 
confidentiality to victims of sexual assault? If so, I would like a 
more detailed rationale for why the Academy will not offer 
confidentiality to victims.
    Secretary Roche. The Air Force has not abandoned the idea of 
affording confidentiality to victims of sexual assault. As in the past, 
victims always have the option of confidentially reporting an assault 
to a chaplain; Further, in an effort to comply with recommendations of 
the Fowler Commission, the Air Force has drafted a confidentiality 
policy for the Academy with the intention of applying it at the Academy 
Reservation to all military and civilian personnel, and then reviewing 
this policy after appropriate implementation for possible extension to 
the active duty Air Force. However, implementation of this draft policy 
has been delayed as the Department of Defense (DOD) considers the 
legitimate competing interests pertaining to victim needs, command 
responsibilities, and law enforcement obligations. These are matters 
with significant cross-service implications, and we are working with 
DOD towards the resolution of these issues.

    2. Senator Bill Nelson. Secretary Roche, I would like a detailed 
plan as to how the Air Force is going to publicize this denial of 
confidentiality so that women cadets and potential cadets are fully 
informed.
    Secretary Roche. The existing policies and procedures, including 
availability of chaplain confidentiality and off-base referral 
services, have been widely disseminated among academy personnel and are 
a focal point of training for incoming cadets. To the extent we, in 
coordination with the Department of Defense, extend confidentiality to 
other entities, that too will become an integral part of cadet 
education and a matter of public record. Please see the answer to 
Question Number 1.

    3. Senator Bill Nelson. Secretary Roche, General Michael Moseley 
recently testified before the Personnel Subcommittee of the Senate 
Armed Services Committee. I would like some clarification of certain 
points he made in his testimony. General Moseley commented that only a 
``few'' cases of assault have occurred in the Air Force and that no 
reports of assaults have occurred in Iraq or Afghanistan. He went on to 
state that the Air Force has ``this matter fully in hand'' According to 
DOD's numbers, the Air Force has had at least seven reported cases of 
assault in Operation Iraqi Freedom and Operation Enduring Freedom. 
Additionally, the Air Force is now investigating 20-25 allegations at 
Sheppard Air Force base alone. Is the DOD wrong here and does the Air 
Force really mean to say it has resolved the problem of sexual assault? 
If not, what did General Moseley mean by saying the matter was, ``fully 
in hand?''
    Secretary Roche. The Air Force did report opening investigations 
within the deployed environment in southwest Asia. However, the 
locations involved are Qatar, Kuwait, Oman, Kyrgyzstan, Saudi Arabia, 
United Arab Emirates, and Bahrain. There were no cases in Iraq or 
Afghanistan. The Air Force has been working on our sexual assault 
deterrence and response capabilities since completion of the Working 
Group Report on the Air Force Academy (AFA). As a result of the 
implementation of the Agenda for Change at the AFA, discussions at 
Corona Fall, and the Pacific Air Forces study, General Moseley formed a 
Headquarters Sexual Assault Integrated Planning Team and directed all 
major command commanders to assess their sexual assault deterrence and 
response programs using a specified template. As we have seen at 
Sheppard Air Force Base, these reviews sometimes raise issues and 
allegations covering a considerable span of time that require careful 
examination before any valid conclusions can be drawn. Results and 
recommendations from that effort will be presented at the May Corona 
conference.

    4. Senator Bill Nelson. Secretary Roche, General Michael Moseley 
recently testified before the Personnel Subcommittee of the Senate 
Armed Services Committee. I would like some clarification of certain 
points he made in his testimony: General Moseley quoted a cadet 
commending the Academy on the ``countless number of briefings on sexual 
harassment'' that she received. While I am pleased to know there are 
several briefings on sexual harassment, sexual harassment is not the 
same as sexual assault. Is the Academy also holding numerous briefings 
on sexual assault prevention and education, particularly on what a 
cadet should do if assaulted and what their rights are?
    Secretary Roche. Sexual assault is clearly not the same thing as 
sexual harassment. The Academy has an extensive program of training 
addressing sexual assault, to include what a cadet should do if 
assaulted and what the rights of the victim are. The Academy Response 
Team (ART) takes an active role in education of both cadets and 
faculty/staff in the areas of sexual assault and sexual harassment. 
Several examples;

        <bullet> The ART proactively briefed each cadet squadron on the 
        new sexual assault reporting process (37 1-hour discussion 
        sessions.)
        <bullet> Each cadet receives a wallet/purse card that outlines 
        sexual assault reporting and response.
        <bullet> Nationally recognized civilian experts train both 
        Academy leadership and cadets on the realities of non-stranger 
        sexual assault and victim/perpetrator psychology.
        <bullet> Commander's Guidance 05-8, 27 May 03, Sexual Assault 
        Reporting Process, explains the role of the ART and how all 
        United States Air Force Academy personnel are to report 
        allegations of sexual assault.
        <bullet> The Academy Counseling Center has a 4-year 
        developmental training plan covering sexual assault and 
        harassment, Military Equal Opportunity, human relations, and 
        substance abuse for each of the classes.

    5. Senator Bill Nelson. Secretary Roche, if these sexual assault 
briefings are held separately from the sexual harassment briefings, is 
it in order to underscore the difference in severity and any 
differences in the procedures following an assault as opposed to an 
incident of harassment?
    Secretary Roche. Preventive education and training at United States 
Air Force Academy (USAFA) discusses both the similarities and 
differences between sexual harassment and sexual assault. Some of the 
sexual assault/harassment training is separate and distinct, but some 
of the training is combined because a benefit can be gained by viewing 
this negative behavior along a continuum. At one end there's the lesser 
forms of sexual harassment (inappropriate jokes, glances, pornographic 
material inappropriately displayed, etc.) On the other end is sexual 
assault (physical assault). In between the two ends, there are various 
levels of inappropriate behavior. We educate the cadets that if you do 
not confront sexual harassment, it creates an environment where sexual 
assaults may be more likely to occur. In addition, USAFA provides 
assertiveness training to all incoming fourth-class cadets, both male 
and female. This covers what is, and what is not, a legal order and 
what their rights are in a training environment. They are taught that 
if something doesn't seem right, then speak up and tell someone about 
it. All cadets are educated that sexual assault is a crime, as are many 
forms of sexual harassment, and neither will be tolerated. Our intent 
is to educate and encourage cadets to confront negative behaviors as 
soon as possible. Behaviors associated with sexual harassment can be 
forwarded for investigation through official Military Equal Opportunity 
channels. Alleged sexual assaults are reported to the Academy Response 
Team, which initiates victim support from helping agencies and starts 
the official investigation through the Air Force Office of Special 
Investigations.

                     carrier basing in the atlantic
    6. Senator Bill Nelson. Secretary England, Congress has been 
interested since at least the early 1980s about ensuring that the Navy 
has considered the implications of relying on only one base of 
operations on the Atlantic Coast for nuclear-powered aircraft carriers. 
The Navy has consistently resisted engaging meaningfully on analysis, 
risk assessment, or commitment to establishing a second such base. 
Since arriving in the United States Senate just over 3 years ago, I 
have consistently argued that the Nation needed to reduce its strategic 
risk in the stationing of aircraft carriers on the Atlantic Coast by 
committing to no fewer than two bases capable of home porting nuclear 
aircraft carriers. Since the terrorist attacks of September 11, 2001, I 
believe that the strategic risk associated with having all our Atlantic 
nuclear carriers in one port is even more acute. During the time that 
Congress has been encouraging the Navy to address this issue, the Navy 
established a second Pacific coast nuclear carrier base in San Diego, 
California, even before the base at Alameda was considered for closure 
under the Base Realignment and Closure (BRAC) process. Why has the Navy 
taken such a different approach in dealing with the strategic basing 
posture on the two coasts? Specifically, why has the Navy concluded 
that we needed two nuclear carrier bases on the Pacific coast and has 
failed thus far to establish one on the Atlantic?
    Secretary England. From a fleet-wide perspective, the Navy has 
dispersed its carrier assets to multiple locations. The Navy has its 
aircraft carriers (CV and CVN) at six different homeport locations 
(Norfolk, Virginia; Mayport, Florida; Everett, Washington; Bremerton, 
Washington; San Diego, California; and Yokosuka, Japan). Additionally, 
many of our ports are nuclear-carrier port capable (such as Mayport) 
and could berth a nuclear carrier for an interim period if a particular 
threat necessitated the need for further dispersal of our carrier 
assets. The cost to establish an additional nuclear carrier homeport at 
this time would take away from higher priority fleet requirements.

    7. Senator Bill Nelson. Secretary England, did the Navy conduct any 
analysis that led to the decision to establish a second nuclear carrier 
port on the Pacific coast? If it did, please provide a copy of this 
analysis.
    Secretary England. Yes. To support the homeporting decision of 
three Nimitz-class aircraft carriers on the Pacific Coast, the Navy 
completed an Environmental Impact Statement that weighed the advantages 
and disadvantages of the various candidate bases. A copy of the Record 
of Decision, which followed the completion of the Environmental Impact 
Statement, is attached.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    8. Senator Bill Nelson. Secretary England, has the Navy performed 
any analysis of the current strategic conditions, force protection, and 
risk relative to the establishment of a second base on the Atlantic 
coast for nuclear-powered aircraft carriers? If not, why not?
    Secretary England. The Navy carefully reviews threats to all of our 
bases, not just those with aircraft carriers. These factors are a major 
part of our analysis in support of the 2005 Base Realignment and 
Closure (BRAC) process and were included in the recent 20-year force 
structure review. In addition, the BRAC analysis will also take into 
consideration the dramatic change in the international security 
environment and its relationship to our strategic posture, particularly 
with respect to our carriers. On November 25, 2003, the President 
announced that the U.S. was planning to modernize its global defense 
posture. His announcement initiated a consultative process, with 
friends, allies, and partners that will precede any decisions on 
posture changes. Directly related is the Integrated Global Presence and 
Basing Strategy (IGPBS), initiated in March 2003 to explore changes to 
the pre-September 11 U.S. military posture. This effort is still 
ongoing.
    The Navy continuously evaluates strategic conditions and force 
protection requirements. This process allows the Navy to respond to 
current world conditions and adapts our future force structure to 
respond to emerging threats.

    9. Senator Bill Nelson. Secretary England, how do the increased 
strategic threat and requirements for force protection affect the risk 
assessment relative to an analysis of an Atlantic coast nuclear carrier 
base?
    Secretary England. The Navy continues to review the risk assessment 
of our current force structure to ensure the safety and security of our 
sailors and naval assets. In cases of heightened risk, the fleet 
generally departs that risk area to minimize the overall concern. For 
example, in the advent of a hurricane on the Atlantic Ocean that is 
forecasted to threaten our naval bases on the east coast, the fleet 
typically sorties available assets to weather the storm at sea and 
invariably serves to better protect the fleet. If the Navy determines 
that the strategic threat and existing force protection concerns exceed 
the ability of our available infrastructure to adequately protect our 
sailors and naval assets, additional measures including the strategic 
homeporting of the carrier assets to decentralize the fleet will be 
considered.

    10. Senator Bill Nelson. Secretary England, what were the costs (in 
then year and current dollars) that the Navy incurred in establishing a 
second nuclear carrier base on the Pacific coast?
    Secretary England. The cost for Nuclear Powered Aircraft Carrier 
(CVN) homeporting and maintenance facilities at Naval Air Station North 
Island, California, was $220 million (then-year dollars). These 
facilities included a new wharf, dredging, and three depot-level 
maintenance facilities. In current-year dollars, the cost for these 
facilities would be $260 million.

    11. Senator Bill Nelson. Secretary England, how much would it cost 
to establish a second base on the Atlantic coast?
    Secretary England. The Navy prepared a Programmatic Environmental 
Impact Statement to evaluate the facilities necessary to support the 
replacement of a conventional aircraft carrier (CV) with a Nimitz-class 
aircraft carrier (CVN) at Naval Station Mayport, Florida. The Record of 
Decision, issued in August 1997, indicated that Mayport is a feasible 
homeport site should the Navy define such a need in the future 
providing that the identified construction, renovations, and dredging 
could be accomplished. Approximately $157 million for facilities 
(including wharf improvements, dredging, and maintenance facilities) 
and $34 million for industrial maintenance equipment would be required 
to establish a CVN-capable homeport at Mayport. The required military 
construction to support a CVN homeport at Naval Station Mayport was not 
included in the fiscal year 2005 FYDP.

    12. Senator Bill Nelson. Secretary England, if the Chief of Naval 
Operations were to recommend that the Navy establish a second Atlantic 
coast nuclear carrier base, would you support him and find the funds 
necessary in the Navy budget to implement that recommendation?
    Secretary England. I highly value the CNO's opinions and give all 
of his recommendations utmost consideration. However, I consider it my 
responsibility to scrutinize significant capital investments that would 
be required to support a second nuclear carrier base on the east coast. 
That said, I consider it unlikely that he would make a recommendation 
to establish a new nuclear carrier base while the BRAC process is in 
progress.

                      base realignment and closure
    13. Senator Bill Nelson. Secretary England, a concern that I have 
regarding the upcoming BRAC process is that DOD and Service civilian 
leaders may be predisposed to discount or ignore the views of the 
Services' uniformed professional leadership. How will you weigh the 
advice of the Chief of Naval Operations and the Navy staff? If the 
uniformed leadership of the Navy recommends that the Service retain an 
installation, facility, activity, or capability, such as the Navy's 
three naval aviation depots, will you support them throughout the BRAC 
process?
    Secretary England. I value highly the advice of the Chief of Naval 
Operations and the Navy staff. The BRAC 2005 process identified by the 
Secretary of Defense memo of November 15, 2002, clearly states the 
involvement of both the senior uniformed and civilian professional 
leadership of all of the military departments.
    The Defense Base Closure and Realignment Act of 1990, as amended by 
National Defense Authorization Act for Fiscal Year 2002 (the act) sets 
out a very fair process with very specific timelines and milestones to 
which the Department of Defense must adhere in developing its 
recommendations for closure and realignment. The recommendations are 
based on the act and the published Selection Criteria. I am confident 
that the uniformed and civilian leadership of the Department of the 
Navy and the Department of Defense will develop recommendations fairly 
and consistent with the selection criteria.

    14. Senator Bill Nelson. Secretary Roche, a concern that I have 
regarding the upcoming BRAC process is that DOD and Service civilian 
leaders may be predisposed to discount or ignore the views of the 
Services' uniformed professional leadership. How will you weigh the 
advice of the Air Force Chief of Staff and the Air Force staff? If the 
uniformed leadership of the Air Force recommends that the Service 
retain an installation, facility, activity, or capability, such as the 
Air Force's test and evaluation centers, will you support them 
throughout the BRAC process?
    Secretary Roche. The Air Force BRAC 2005 process fully incorporates 
both uniformed and civilian leadership viewpoints.
    Both the Chief of Staff and I sit on the Secretary of Defense's 
BRAC 2005 Infrastructure Executive Committee chaired by the Deputy 
Secretary of Defense. Our viewpoints are, and will continue to be 
raised as we prepare the Department's base realignment and closure 
recommendations. Likewise, the Vice Chief of Staff and the Assistant 
Secretary of the Air Force (Installations, Environment and Logistics) 
sit on the Department's joint Infrastructure Steering Group (ISG). The 
ISG meets at least every 3 weeks as it directs the BRAC 2005 process.
    As prescribed by the BRAC statute, the Air Force BRAC 2005 process 
is grounded on an evaluation of Military Value focused on our goals of 
optimizing operational capability inherent in our U.S. installations, 
including our logistics, research, development, acquisition, and test 
and evaluation centers. Military value is central in shaping our 
recommendations.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton
                          military outsourcing
    15. Senator Clinton. Secretary Brownlee, the Army plans to begin 
the process of converting some military positions to civilian in order 
to improve manpower efficiency and better support worldwide 
commitments. What are the long-term costs of this transition and where 
are they reflected in budget estimates?
    Secretary Brownlee. The Army plans to begin converting 9,000 
military positions to civilians in fiscal year 2005 and an additional 
in 6,000 by in fiscal year 2006. Army commands are currently developing 
detailed transition plans. The cost to initiate these conversions in 
fiscal year 2005 is $190 million and is reflected in various accounts 
within the Operation and Maintenance, Army budget request. The Army 
will program for the costs beyond fiscal year 2005 as part of the 
program and budget process this summer. An additional $4.5 billion in 
budget authority will be sufficient to cover these conversions when 
combined with other cost saving measures.

                        army corps of engineers
    16. Senator Clinton. Secretary Brownlee, the President's budget 
calls for a cut of 13.1 percent in the Army Corps of Engineers budget. 
What impact will this have on current Corps of Engineers projects, 
clean-up efforts, civil works, and military construction initiatives?
    Secretary Brownlee. The Corps of Engineers is part of the Army, and 
as such I provide oversight and direction to its activities. I delegate 
the details of oversight of the Civil Works program to the Assistant 
Secretary of the Army for Civil Works, John P. Woodley, Jr., who 
oversees the policy and direction of the Civil Works program of the 
Corps of Engineers, including the budget for fiscal year 2005. 
Assistant Secretary Woodley keeps me apprised of significant 
occurrences affecting the program. As the acting Assistant Secretary 
for Civil Works, I had overseen the formulation of the fiscal year 
2003-2004 budgets and, prior to Mr. Woodley's appointment, the initial 
phases of formulation of the fiscal year 2005 budget.
    The proposed fiscal year 2005 Civil Works budget is frugal, 
representing the tough choices that must be made during a time when the 
Nation is at war. It embodies both prudent management and the targeting 
of funding to priority work. It accelerates high priority work, dam 
safety projects, fiscal year 2005 completions, and includes some new 
starts. But, given the war and the President's overall priorities, the 
amount of funding available for the Civil Works program was limited. 
With the available funding, the Corps of Engineers is making 
significant progress on all budgeted projects. There are many competing 
needs throughout the country but I assure you that the Corps of 
Engineers will make the best use of the Civil Works funds provided.
    The Corps of Engineers activities related to clean up of current 
and former military sites and to military construction are funded 
through appropriations to the Department of Defense for these and other 
military purposes. Consequently, changes from year to year in the Civil 
Works budget would have no impact on these activities.

    17. Senator Clinton. Secretary Brownlee, how will the Corps of 
Engineers be cut or reduced to meet this budget decrease?
    Secretary Brownlee. Since the Corps staff is primarily project 
funded, it must carefully consider the impact of its annual 
appropriations, the trend, and future prognosis, in order to manage its 
workforce. Although there may be some individual management actions 
necessary to accommodate the budget, it is not anticipated that there 
will be any widespread or general reductions in the workforce.

                               jointness
    18. Senator Clinton. Secretary Roche and Secretary England, the Air 
Force and Navy have expressed how jointness is an integral part of how 
they operated in Operation Enduring Freedom (OEF) and Operation Iraqi 
Freedom (OIF). What efforts are being taken to integrate joint 
education into Service schools now instead of having the first 
opportunity for an Non-Commissioned Officer (NCO) or officer to 
experience jointness late in their career?
    Secretary Roche. The Chairman of the Joint Chiefs of Staff, as 
defined by law, is responsible for formulating policies for 
coordinating the military education and training for members of the 
armed forces and provides oversight through certification and 
accreditation processes. The Professional Military Educational (PME) 
Framework identifies areas of emphasis at each educational level and 
provides joint curriculum guidance for PME institutions. The framework 
structures the development of sister service and joint officers by 
organizing the officer PME system into five military educational 
levels, precommissioning, primary, intermediate, senior, and general 
officer/flag officer. Similar levels of PME exist for the enlisted 
force (airman, noncommissioned officer, senior noncommissioned 
officer). Each level builds upon the knowledge and values gained at 
previous levels.
    The Officer Professional Military Education Policy (OPMEP) document 
(CJCSI 1800.01A) addresses the Goldwater-Nichols Act mandates for 
officer joint education. The Air Force implements the OPMEP throughout 
the officer continuum of education, from precommissioning to senior 
service school level by addressing the specific learning areas and 
objectives prescribed in the OPMEP. At the precommissioning level, 
cadets learn the basic United States defense structure, roles and 
missions of other military services, the combatant command structure, 
and the nature of American military power and joint warfare. At the 
primary level (Air and Space Basic Course and Squadron Officer School), 
instruction addresses the fundamentals of joint warfare, joint task 
force organization, the characteristics of a joint campaign, how 
national and joint systems support tactical-level operations, and the 
capabilities of the relevant systems of other services. Wargames 
demonstrate the teamwork required to successfully plan a joint air and 
space campaign. At the intermediate level (Air Command and Staff 
College), PME instruction addresses joint operations from the 
standpoint of the Air Force forces in a joint force supported by 
Service component commands. Students study warfighting, military 
doctrine, and the application of unified, joint, and combined forces, 
with particular emphasis on air and space power employment in theater-
level operations. A comprehensive wargame enables students to apply 
their knowledge and skill to build a theater-wide plan for joint air 
operations. At the senior PME level (Air War College), instruction 
addresses theater and national level strategies and processes. 
Curriculum focuses on how the unified commanders, Joint Staff, and 
Department of Defense (DOD) use the instruments of national power to 
develop and carry out national military strategy. Students examine how 
the joint operational planning and execution system is integrated in 
theater and operational information operations (IO) campaign planning 
and execution to support theater and national strategic sustainment and 
warfighting efforts. During wargames, students apply knowledge gained 
during the academic year in a complex global scenario. Students are 
confronted with international and homeland security challenges which 
must be dealt with through diplomatic information, economic, and 
military responses. This reinforces the importance of thinking with 
joint, interagency, and coalition perspectives.
    Beyond the senior service school level, the Air Force provides 
joint education for its general officers via the Joint Flag Officer 
Warfighting Course (JFOWC) and the Joint Forces Air Component Commander 
Course (JFACO). JFOWC provides future theater combatant commanders, 
service component and joint task force (JTF) commanders with a broad 
perspective of the strategic and operational levels of war. Instruction 
addresses issues such as the role of joint doctrine with respect to 
unified command as it applies to operations planning, mobilization, 
deployment, employment and sustainment, and redeployment; the combatant 
commander's perspective and the role of subordinate commanders in 
developing, deploying, employing and sustaining military forces; the 
role of the unified commander in developing theater plans, policies and 
strategy; how the joint operational planning and execution system is 
integrated in theater and operational IO campaign planning and 
execution; and the complexities associated with leadership in a 
coalition environment at the task force, component and combatant 
commander levels. The JFACC course is designed to prepare potential 
JFACCs for theater-level combat leadership responsibilities. The 
attendees study warfighting, military doctrine, and the application of 
unified, joint, and combined combat forces with particular emphasis on 
air and space power employment in theater-level operations.
    Joint Education is also integrated within Air Force Enlisted PME 
Programs. The Airman Leadership School, a basic course to prepare 
airmen (E-4) for their role as NCOs and leaders, presents primary 
instruction on roles and missions of the military services, joint 
operations, and homeland defense. The Noncommissioned Officer Academy, 
an intermediate course furthering the professional development of 
technical sergeants (E-6), provides intermediate instruction on the 
same topics, and adds joint force components, military planning, and 
transformation. The United States Air Force Senior Noncommissioned 
Officer Academy (SNCOA), the (U) senior course broadening the military 
education of senior noncommissioned officers (E-7/E-8), addresses 
various joint topics, including: Joint Force Command, operational 
concepts, joint perspectives, and joint doctrine. At present, the SNCOA 
is the only Air Force enlisted PME school integrated with senior 
enlisted members from other DOD and international services.
    In addition to formal in-residence PME schools, the Air Force 
provides other media addressing joint topics. Promotion-eligible 
enlisted (E-4 through E-9) prepare for examination through year-long 
study of military subject matter within AFP 36-2241 Volumes 1 and 2, 1 
July 2003. Joint topics included in these study guides are: DOD command 
authority, roles and missions of the military services, military 
justice, and Air Force role in the joint force. Also, AFMAN 10-100, 
Airman's Manual, 1 August 1999, identifies the skills and knowledge 
needed to ``go anywhere, anytime'' to support the Aerospace 
Expeditionary Force mission. It addresses subjects such as Chairman, 
Joint Chiefs of Staff rules of engagement, Law of Armed Conflict, and 
skills needed for deployment.
    Secretary England. The Navy follows the Joint Professional Military 
Education (JPME) Program developed by the Chairman of the Joint Chiefs 
of Staff to progressively develop the knowledge, analytical skills, 
perspectives, and values essential for U.S. officers to function 
effectively in joint, multinational and interagency operations. Joint 
education commences at the Naval Academy, Naval Reserve Officers 
Training Corps Units, Officer Candidate School and other service 
accession schools with an introduction to jointness focused on national 
military capabilities and organization, and the fundamentals of joint 
warfare. Joint education continues at warfare and specialty training 
schools where joint awareness is developed through an emphasis on joint 
warfare fundamentals and joint campaigning. Mid-career naval officers 
receive joint education focused on joint force employment and 
warfighting from the Naval War College through resident or distance 
learning options.
    JPME for the enlisted force is under development. Navy is actively 
involved with the other services and the Joint Staff in policy and 
program development.

                      base realignment and closure
    19. Senator Clinton. Secretary Roche, most of the focus for the 
Global Defense Posture Review, in conjunction with Base Realignment and 
Closure (BRAC) 2005, has been devoted to how many Army divisions or 
brigades may be redeployed to the United States. What possible Air 
Force organizational changes are foreseen in Europe during the review?
    Secretary Roche. [Deleted.]

    20. Senator Clinton. Secretary Roche, if there is a plan to re-
station airmen to the continental United States, will they be based at 
current Air Force bases or is it possible they may be shifted to the 
Air Force Reserve/Air National Guard?
    Secretary Roche. The United States Air Force has no approved plans 
that would re-station airmen to the continental United States (CONUS). 
Should aircraft and airmen return to the CONUS, an early consideration 
is to balance the supportability of existing fleets.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor
                         interceptor body armor
    21. Senator Pryor. Secretary Brownlee, the 39th Reserve Brigade 
from Arkansas is about to depart for Iraq, where it will be part of the 
1st Cavalry Division. I visited the 39th at Fort Hood last month and 
Fort Polk a couple of weeks ago to observe some of their training. I 
repeatedly hear from family members of the soldiers from the 39th who 
want to know when their loved ones will receive their personal body 
armor. On November 19, 2004, you testified before this committee 
stating that our troops in Iraq would have interceptor body armor by 
December 31, 2003. In fact, you stated, at currently planned rates of 
production, we will have all our troops in Iraq fitted with interceptor 
body armor by the end of December. Why didn't the armor arrive as 
promised?
    Secretary Brownlee. While the Army met the requirement that I 
briefed during my November 19, 2003, appearance before the committee, 
the Combined Joint Task Force-7 requirements for small arms protective 
inserts (SAPI) in Iraq increased on November 22, 2003, by over 10,000 
sets. The Army completed the delivery of the additional 10,000 sets in 
January 2004. The increase was the result of an in-theater recount and 
revised guidance from U.S. Central Command (CENTCOM) directing all 
Service members and Department of Defense civilians in the CENTCOM area 
of responsibility receive Interceptor body armor.

    22. Senator Pryor. Secretary Brownlee, in December 2003, I made an 
inquiry to the Army on when the 39th would receive their interceptor 
body armor. I was originally told that the 39th would receive their 
body armor at Fort Hood. That didn't happen. Now, I'm told that the 
body armor will be provided in Kuwait. Why hasn't this armor arrived as 
promised?
    Secretary Brownlee. The 39th Reserve Brigade was fielded their 
outer tactical vests prior to deployment from Fort Hood, Texas. At the 
time of deployment, all Small Arms Protective Insert (SAPI) production 
was being shipped directly into theater to Camp Victory, Kuwait. All 
Operation Iraqi Freedom 2 units were issued SAPI in-theater while 
executing their reception, staging, onward-movement, and integration 
phase of operations prior to crossing into Iraq.

    23. Senator Pryor. Secretary Brownlee, what assurances can you give 
me that the members of the 39th will receive interceptor body armor in 
Kuwait?
    Secretary Brownlee. The 39th is scheduled to receive their SAPI at 
Camp Victory, Kuwait on or about March 15, 2004.

    [Whereupon, at 11:49 a.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

                              ----------                              


                        THURSDAY, MARCH 4, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

    UNIFIED AND COMBATANT COMMANDERS ON THEIR MILITARY STRATEGY AND 
                        OPERATIONAL REQUIREMENTS

    The committee met, pursuant to notice, at 9:40 a.m. in room 
SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Roberts, Allard, Sessions, Collins, Ensign, Talent, Chambliss, 
Graham, Dole, Cornyn, Levin, Kennedy, Byrd, Lieberman, Reed, 
Akaka, Bill Nelson, E. Benjamin Nelson, Dayton, Bayh, Clinton, 
and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk;
    Majority staff members present: Charles W. Alsup, 
professional staff member; Regina A. Dubey, research assistant; 
William C. Greenwalt, professional staff member; Ambrose R. 
Hock, professional staff member; Gregory T. Kiley, professional 
staff member; Thomas L. MacKenzie, professional staff member; 
Lucian L. Niemeyer, professional staff member; and Lynn F. 
Rusten, professional staff member.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Evelyn N. Farkas, professional staff member; 
Richard W. Fieldhouse, professional staff member; Michael J. 
McCord, professional staff member; and William G.P. Monahan, 
minority counsel.
    Staff assistants present: Michael N. Berger, Andrew W. 
Florell, and Nicholas W. West.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; John A. Bonsell, assistant to 
Senator Inhofe; Darren Dick, assistant to Senator Roberts; 
James P. Dohoney, Jr. and Derek J. Maurer, assistants to 
Senator Collins; Aleix Jarvis, assistant to Senator Graham; 
Christine O. Hill, assistant to Senator Dole; Mieke Y. Eoyang 
and Jarret A. Wright, assistants to Senator Kennedy; Frederick 
M. Downey, assistant to Senator Lieberman; Elizabeth King, 
assistant to Senator Reed; Davelyn Noelani Kalipi, assistant to 
Senator Akaka; William K. Sutey, assistant to Senator Bill 
Nelson; Eric Pierce, assistant to Senator Ben Nelson; Andrew 
Shapiro, assistant to Senator Clinton; and Terri Glaze, 
assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee will get under way. We 
welcome our two distinguished guests, General Abizaid and 
General Jones. General Jones, we have an unusual guest here 
this morning. Would you take a moment to introduce him before I 
begin my remarks?
    General Jones. Mr. Chairman, I will be happy to. It is a 
great honor to introduce to the committee Admiral Rainer Feist 
of the German Navy, who currently serves as the Deputy Supreme 
Allied Commander for Europe. Admiral Feist and I work together 
on a daily basis on North Atlantic Treaty Organization (NATO) 
affairs at Supreme Headquarters Allied Powers Europe (SHAPE) in 
Mons, Belgium.
    I am particularly honored to be able to present him to the 
committee. He is a distinguished sailor. He is an expert in all 
things NATO and he has made my life professionally and 
personally very enjoyable in my first year in office. I am very 
proud to call him my friend and very proud to rely on him for 
the generation of NATO's forces. In every operation that we are 
engaged on--and there are more and more of those in NATO--
Admiral Feist has the responsibility of generating the force 
from nations.
    Second, it might interest the committee to know that he is 
also the senior officer assigned to SHAPE with European Union 
(EU) connections. His strategic leadership of Operation 
Concordia in the Former Yugoslavian Republic of Macedonia was 
the departure of the military to military relationship between 
NATO and the EU. So he is singularly qualified to brief the EU 
and the committees of jurisdiction that have interests in 
European security defense initiatives, and he will be extremely 
important this year in whatever happens in Bosnia with regard 
to the policing mission that the EU will hopefully take over, 
as well as the gradual winding down of the traditional NATO 
military mission.
    So I am very proud to introduce Admiral Feist to you, Mr. 
Chairman, and to the committee. He is a great sailor, he is a 
great friend, a great ally, and I depend on him every single 
day.
    Thank you, sir.
    Chairman Warner. We thank you, General, for taking this 
initiative.
    The committee meets today to receive the testimony from 
Commanders, U.S. Central Command (CENTCOM) and U.S. European 
Command (EUCOM), on the posture of the Armed Forces in their 
areas of responsibility (AOR), their overall military strategy, 
and their operational requirements, in review of President 
Bush's defense budget request for fiscal year 2005 and the 
Future Years Defense Program (FYDP).
    Our witnesses today command forces that stretch across the 
Atlantic, across Europe, through Africa, the Middle East, and 
into Central and Southwest Asia. General Jones and General 
Abizaid, we welcome you back before the committee and commend 
you for the outstanding leadership that you have given, are 
giving, and I am confident will continue to give in the months 
and years to come.
    You serve in an era of unprecedented challenges and demands 
on the Armed Forces of our Nation and the coalition nations 
which each of you share responsibility for.
    I start today by recognizing the men and women of our Armed 
Forces, as this committee always does each time we have a 
hearing, who, together with the coalition of nations, liberated 
Iraq, a country larger than Germany and Italy combined, in 
roughly 3 weeks time. This remarkable military accomplishment 
is proof of the professionalism and dedication of our military 
forces. Iraq, a nation that for decades had known only tyranny 
and oppression, is now moving forward to a future of democracy, 
freedom, and opportunity for all of its people.
    The world is a safer place and Iraq, Afghanistan, and the 
Balkans are better places because, along with many nations, the 
U.S. confronted brutal regimes which had repressed their 
people, murdered indiscriminately, fomented terrorism, and 
defied the will of the international community for years. 
Disagreements may continue about the process and the timing by 
which the decision to use force was made, but on one thing 
there is no disagreement: The professionalism, the performance, 
and the sacrifice of our troops and their families was, is, and 
always will be inspiring. For that we are very grateful.
    Every American is justifiably proud of the U.S. Armed 
Forces. The security of America is in good hands.
    As we meet this morning, hundreds of thousands of our 
servicemembers are engaged in operations throughout your AORs, 
defending our Nation in Operation Enduring Freedom (OEF), in 
Operation Iraqi Freedom (OIF), in the Balkans, and in other 
military operations in the ongoing global war on terrorism.
    These brave men and women and their families deserve our 
continued support, and they will get it: the equipment, the 
resources, the support they need to perform their missions. Our 
forward-deployed forces are and will remain our first line of 
defense. This committee's responsibility will continue to be to 
ensure that these troops remain the best equipped, best 
trained, and most capable forces in the world.
    In doing so, we must understand the challenges they face 
today and those they will face tomorrow. The insights of our 
witnesses today are an indispensable part of that process of 
understanding and oversight by this committee.
    We have a number of important issues to discuss. General 
Abizaid, continuing military operations in Iraq, the overall 
security situation there, and the transition to sovereignty and 
democracy are clearly of great interest to this committee. As 
we speak, one of the largest troop rotations since World War II 
is under way in your AOR. The challenges you face in 
accomplishing this movement of forces are daunting. The 
environment in which our troops will operate after the transfer 
of sovereignty and your relationship with the new Iraqi 
government are subjects on which we seek your views.
    While much attention is focused on Iraq, we must not lose 
sight of the other challenges in your AOR. The security 
situation in Afghanistan remains unsettled. Reconstruction is 
ongoing but uneven. Drug cultivation is up and the hunt for 
Osama bin Laden and his associates continues. The committee 
looks forward to your assessment of the current situation in 
Afghanistan as well as your views on NATO's contribution to 
stabilization operations in that region. I very much enjoyed 
your personal report last night that Senator Stevens and I 
received during the course of our visit.
    The continuing cooperation of Pakistan is essential for 
success in this endeavor. The committee is interested in your 
thoughts on the current situation in Pakistan and the 
commitment of the Pakistani Government to be ongoing global 
partners in that area.
    The global war on terrorism continues in other areas, such 
as the Horn of Africa. Your assessment of overall progress to 
date in your region, as well as your thoughts on what remains 
to be done, will be helpful. I ask that you include comments on 
Iran's role in harboring elements of al Qaeda and what progress 
has been made in gaining better cooperation, if that is 
achievable at all, with Iran in the war on terrorism.
    Unfortunately, progress toward finding peace in Israel and 
the Palestinian conflict appears to be at somewhat of a 
standstill. I ask both of our witnesses for their views on that 
conflict. That is a matter that you and I discussed at some 
length, General Jones, yesterday.
    General Jones, the committee looks forward to your insights 
on the developments in the EUCOM AOR, as well as your views on 
the 2005 defense budget request meeting your operational needs. 
NATO will soon grow to 26 members when the 7 newest members 
formally join the alliance early this spring. That will be a 
momentous occasion. I am quite interested in your views on 
their timing to begin to posture themselves financially, to 
take on their share of responsibility for equipment and 
manpower.
    So I look forward, as does the committee, to your views on 
many issues, as well as the progress current NATO members are 
making with respect to the commitment they made in the 2002 
Prague Summit to improve their military capabilities and to 
establish a quick reaction NATO response force.
    For the first time in history, NATO has assumed a critical 
out-of-area mission. In August 2003, NATO assumed the 
leadership of the International Security and Assistance Force 
(ISAF) in Afghanistan. The committee is particularly interested 
in NATO's plan to expand ISAF beyond the Kabul area by 
deploying additional Provincial Reconstruction Teams into the 
countryside.
    Eighteen of 26 member nations and aspirant nations have 
troops deployed in Iraq as part of the OIF. NATO as an alliance 
is currently providing assistance to a number of these NATO 
member countries, including Poland, Spain, and Hungary, to help 
them with their deployments in Iraq. So you have a very 
significant presence there. This represents a commitment to OIF 
by both NATO member nations and NATO as an alliance. The 
committee is very interested to hear of any planning or 
discussions ongoing in NATO regarding an even larger role for 
NATO in Iraq in the coming months, hopefully, and then 
particularly after sovereignty is transferred on June 30.
    Africa is also a very important region in your AOR. I 
visited Liberia last year at your invitation, General Jones, as 
we had a significant number of U.S. forces deployed at the 
direction of the President. I think it was a proper step for 
the President and this country to have taken. We continue to 
monitor that process. I met with the head of government in 
Liberia here a short time ago.
    Another region of great interest to this committee is the 
Balkans. We look forward to your assessment of the political-
military situation there and the plans of NATO forces in Bosnia 
and Kosovo in the future.
    Finally, the committee remains keenly interested in the 
Department of Defense's (DOD) global force posture review. We 
are eager to hear what each of you are able to share regarding 
the disposition of current and future bases and forward 
operating locations in your respective AORs. As you are aware, 
changes in our global force posture could have dramatic 
implications for future U.S. military readiness and operations, 
for relations with our friends and allies around the globe, and 
for the quality of life of U.S. servicemembers and their 
families.
    I welcome you again, gentlemen.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman. Let me join you in 
extending a warm welcome to our witnesses this morning. Both 
General Abizaid and General Jones exercise command over forces, 
both U.S. and allied, that are participating in stability and 
combat operations in areas that provide really daunting 
challenges to us.
    I want to also join the chairman and every member of this 
committee in expressing through you our deep gratitude to all 
the men and women under your command for their bravery, their 
dedication, and their sacrifice, and also to their families who 
share in that sacrifice.
    Mr. Chairman, it is fitting that General Abizaid and 
General Jones are appearing together before this committee. 
Their AORs adjoin each other. They are linked to each other. 
NATO has a substantial presence in a growing involvement in 
Afghanistan pursuant to a United Nations (U.N.) Security 
Council mandate. The forces of a number of NATO member nations 
are employed in Iraq and there are suggestions that NATO take a 
formal role in Iraq in the future.
    Afghanistan presents a mixed picture. The Afghan people 
have approved a new constitution. A representative interim 
government is up and running, and presidential and 
parliamentary elections are scheduled to be held in June of 
this year. Meanwhile, however, there are doubts that the 
security situation will allow elections to be held throughout 
the country, at least in that time period. Although NATO has 
decided to become more deeply involved in Afghanistan and a new 
NATO Secretary General has said that Afghanistan is NATO's top 
priority, it is not clear that NATO member nations will provide 
the manpower and equipment that will be needed to fulfil the 
alliance's political commitment.
    There are legitimate questions as to whether the U.S. 
coalition and the Afghan army have sufficient numbers to permit 
the central government to extend its authority throughout the 
country and to deal with an increasing opium poppy production 
problem.
    The Iraqi Governing Council (IGC) has adopted a 
constitutional document, albeit a transitional one, and Iraq is 
scheduled to regain its sovereignty on July 1 and, with U.N. 
help, will hopefully be holding national elections by the end 
of this year. The problems in Iraq are numerous. Security, as 
Tuesday's obscene bombings demonstrated, is a major problem, as 
former regime loyalists and jihadists are seeking to bring 
about civil war. The makeup of a transitional government 
remains to be decided and the status of coalition forces after 
July 1 is still up in the air.
    The issue of whom sovereignty is to be transferred to is 
not just a thorny intellectual issue. If the people of Iraq do 
not support their sovereign government, even greater chaos 
could result, up to and including civil war.
    Perhaps the only certainty and constancy in both of these 
countries is the bravery, dedication, and selflessness of the 
American troops, both active and Reserve. Another certainty is 
the resolve of this committee and our colleagues in Congress to 
ensure that our service men and women have the equipment, 
training, and support that they deserve. They already have 
superb leadership, as is so ably represented by General Abizaid 
and General Jones, and I look forward to the testimony of these 
two wonderful men.
    Chairman Warner. Thank you very much, Senator Levin.
    We will now proceed to receive the testimony from our 
witnesses, and we will lead off with General Abizaid.

STATEMENT OF GEN JOHN P. ABIZAID, USA, COMMANDER, UNITED STATES 
                        CENTRAL COMMAND

    General Abizaid. Mr. Chairman, Senator Levin, members of 
the committee: Thank you very much. As always, it is an honor 
to appear before the committee.
    I would like to start out first of all by thanking the 
committee for its tremendous support of our troops in the 
field. The single most important thing to our fighting men and 
women is knowing that they have the support of people back 
home, and that starts right here in the Congress of the United 
States, and we thank you for that.
    Chairman Warner. We will admit to the record your entire 
statement, as well as that of General Jones, so you can proceed 
to deliver those portions that you feel are relevant to the 
opening comments.
    General Abizaid. Thank you, Mr. Chairman.
    On the land, sea, and air today over the CENTCOM AOR are 
over 240,000 American servicemembers, and they are doing 
tremendous work out there. They have three primary missions: 
fighting the broader global war on terror throughout the area 
of operations; achieving stability in Afghanistan; and 
achieving stability in Iraq.
    In order to do this, we deploy three key headquarters, as 
the committee is well aware, the largest of which is Combined 
Joint Task Force 7 (CJTF-7), which operates out of Baghdad in 
Iraq. In Afghanistan, Combined Forces Command (CFC-A) is in 
Kabul under General Barno; and the smaller but very important 
headquarters in the Horn of Africa (CJTF-HOA) with about 1,100 
troops, does a good job in helping regional nations help 
themselves.
    All of us know that 2004 will be a key year for stability 
operations in Iraq and Afghanistan, and I am optimistic that we 
can move ahead in a way that will achieve greater stability and 
assure the prospect of representational government forming in 
both countries.
    Elections in Afghanistan and the transition of the 
sovereign authority in Iraq, with elections to come either this 
year or in the early part of next year, give us an opportunity 
to move ahead in very important ways in both locations.
    Key military tasks that we are completing in both locations 
include counterinsurgency operations, counterterrorist 
operations, stability operations, and certainly civil affairs 
operations, where we help in the local reconstruction of the 
infrastructure in both countries. Perhaps the most important 
activity that we will be involved with in both countries has to 
do with building Iraqi and Afghan security capacity. We have 
gone from zero members of Iraqi security forces back in May to 
around 200,000 today. In Afghanistan we have likewise built 
national security forces in an important way that will help the 
government eventually spread its control throughout the entire 
country.
    It is important to note, however, that it is not merely 
numbers that are important in building the security capacities 
of these Armed Forces, police forces, border forces, and other 
security institutions; it is also quality. Quality takes time 
to build. We will work very hard and diligently to increase 
their capacity over time.
    We extend our condolences to the more than 180 Iraqis that 
were killed and 500 that were wounded in yesterday's terrible 
attacks in Karbala and Baghdad. These attacks certainly 
represent the worst of the terrorist threat that exists in the 
CENTCOM AOR. There is no doubt that Zarqawi and his network, in 
conjunction with former regime elements, perpetrated these 
attacks. We know that there were at least six suicide bombers 
that were involved and we know that the number of killed and 
injured include innocent men, women, and children that were 
trying to celebrate the Ashura holiday.
    We know that duty in Iraq and Afghanistan is dangerous and 
will remain so. We know that there are more sacrifices ahead 
for our troops, but we also know that, in conjunction with 
Afghanis and with Iraqis and with the strong will and 
determination of our own forces, we will prevail there, and 
prevailing there means the establishment of moderate 
governments in both Iraq and Afghanistan firmly in control of 
their own people.
    Throughout the area of operations, it is indeed a battle of 
extremism versus moderation. It is a tough battle, but one that 
can be won in conjunction with the people of the region who, 
like the United States of America, value the opportunity for 
moderation to emerge. In every one of CENTCOM's 25 countries, 
there are more people against the extremists than are with 
them.
    In closing, Mr. Chairman, I would like to once again say 
that the most important people in CENTCOM's area of operations 
are our young men and women on patrol in the middle of the 
night in very dangerous circumstances. We appreciate your 
support. We appreciate the fact that the American people are 
supporting these young men and women as they do the important 
work ahead.
    Thank you, sir.
    [The prepared statement of General Abizaid follows:]
             Prepared Statement by GEN John P. Abizaid, USA
    Mr. Chairman, members of the committee: I am honored to appear 
before you today and report on the state of the United States Central 
Command (CENTCOM), the situation and our actions in our area of 
responsibility (AOR), and discuss ways we can continue to increase our 
effectiveness. The command remains engaged on three principal fronts: 
the disruption of transnational terrorist networks working within and 
from our AOR, and countering insurgencies in both Iraq and Afghanistan. 
These activities are interconnected. CENTCOM operates within the 
geographical and ideological heart of the global war on terror. Success 
in Afghanistan and Iraq will result in stable states that do not harbor 
terrorists and provide a visible alternative to the terrorists' vision 
of chaos and conflict.
    Over 200,000 soldiers, sailors, airmen, marines, coast guardsmen 
and Department of Defense (DOD) civilians, alongside over 30,000 of our 
coalition partners, are serving today in CENTCOM. The total force is 
represented by over 47,000 Guard and Reserve troops that are completely 
integrated into the effort. The coalition is engaged in a wide range of 
activities that contribute to the stability of the region and the 
security of our Nation. These include counterinsurgency, 
counterterrorist, stability, civil affairs, reconstruction, and theater 
security cooperation activities. Over 870 aircraft and 30 ships are 
sustaining and supporting our land forces, simultaneously deterring our 
adversaries and gathering vital intelligence, while Marine forces 
embarked in Expeditionary Strike Groups serve as the region's strategic 
reserve. Every day our service men and women are operating alongside 
our coalition partners with courage, dedication, and professionalism.
    Our operating environment is always dangerous, and we both 
appreciate and honor the sacrifices made by our soldiers, sailors, 
airmen, marines, and their families over the past 28 months. We have 
had many successes, but there is much yet to be done. Our enemies 
continue to seek to inflict casualties upon those who oppose them in an 
attempt to hinder our progress and break our will. Our commanders in 
the field recognize these risks, adapt to their tactics, techniques, 
and procedures and aggressively take the fight to the enemy. I thank 
you all on their behalf for the tremendous support we have received 
from Congress. We must stay the course, which will require continued 
sacrifice both at home and abroad.
    The demands associated with our combat missions have resulted in a 
force that possesses unprecedented operational and tactical savvy. Our 
leaders have developed an extremely high degree of professionalism in 
the conduct of one of the toughest missions any military faces. We are 
waging a counterinsurgency against an enemy hiding within the 
population and operating without rules. Our troops are proving every 
day that they are adaptive, imaginative, professional, competent, and 
most of all courageous. I visit our troops and commanders frequently 
and they are confident we are winning the war on terror, winning the 
peace in Afghanistan and Iraq, and contributing to stability in 
volatile regions such as the Horn of Africa. They are also realistic, 
however, and understand that success will not come overnight or without 
further sacrifice. The young troops are setting a modern standard for 
the ``Greatest Generation.''
                                mission
    CENTCOM conducts joint and combined operations in the AOR to defeat 
our adversaries, promote regional stability, support our allies and 
friends, and protect our interests.
                                 vision
    As a Unified Command, CENTCOM may operate as a Combined Command, 
synchronizing joint and combined forces to decisively defeat enemies 
within the assigned AOR. CENTCOM promotes regional stability through a 
robust program of military cooperation, exercises, and frequent 
contact. We support our allies' and friends' efforts to build and 
sustain the individual and collective defense capabilities required to 
allow them to prosper free from terrorism, war, or oppression. American 
and coalition presence will deter adversaries through demonstrated 
resolve to protect our national interest.
                           nature of the aor
    The CENTCOM AOR spans 6.4 million square miles including Egypt, the 
Horn of Africa, the Arabian Peninsula, Pakistan in South Asia, and the 
Central Asian states as far north as Kazakhstan. It is intersected by 
critical transportation and trade routes and includes the waters of the 
Red Sea, the Northern Indian Ocean, the Arabian Gulf, and the key 
maritime choke points of the Suez Canal, the Bab el Mandeb, and the 
Strait of Hormuz. The Arabian Gulf region alone accounts for two-thirds 
of the world's crude oil reserves, 25 percent of the world's oil 
production, and 36 percent of the world's natural gas reserves. The 
region is home to more than 500 million people including at least 18 
major ethnic groups and adherents of all the world's major religions.
    Economic, social, and political conditions vary greatly from one 
nation to another. However, despite the riches of its natural resources 
and human potential the region faces significant security challenges 
ranging from international terrorism to state-to-state conflict. Some 
regional governments are hard pressed to satisfy growing populations' 
demands for a better quality of life. A tide of social and economic 
discontent makes many populations vulnerable to extremist ideology and 
anti-American sentiment.
    Extremist organizations prey on disenfranchised youth and those 
without hope. They attempt to indoctrinate the youth to violent Jihad 
as the principal means of advancing their cause. States in our AOR most 
vulnerable to extremism include Iraq, Afghanistan, Pakistan, Saudi 
Arabia, and Yemen although no nation in our region is free from this 
risk. In addition, we keep a keen eye on flashpoints between Pakistan 
and India, Eritrea and Ethiopia, and civil war in Sudan.
    We operate in a region that has a low tolerance for a major foreign 
military presence--no matter how well-intentioned. Our longer term 
presence in the region must therefore be tailored to be effective but 
not overbearing. Our vision in this region must be to help nations help 
themselves. As Iraq and Afghanistan move towards stability, we must 
integrate them into our long term strategy for peace and look for ways 
to include them in the group of nations fighting terrorism and 
extremism locally, regionally, and globally. Ultimately, our 
partnerships throughout the region aim to foster strong and stable 
states fully capable of helping themselves and regional communities of 
nations willing and able to help each other.
                          global war on terror
    The CENTCOM region lies at the geographic and ideological heart of 
the global war on terror. Partnered as we are with many Islamic 
nations, we recognize that the war on terror is not a war against 
Islam. We are cognizant of an ongoing struggle within our region 
between extremism and moderation. Al Qaeda is attempting to exploit and 
amplify regional tensions to the point they can cause global effects. 
Their strategy is to create footholds of sympathy and support within 
populations from which to attack supporters of moderation and 
tolerance. They seek to drive the U.S. from the region and then 
champion an insurrection against moderation. Their strategic timeline 
is measured in decades and generations.
    Pursuit of this enemy is our highest priority and we know that 
while the military can and will continue to disrupt and defeat al Qaeda 
on the battlefield, the root causes of terrorism have inherently non-
military solutions. It is important to isolate the al Qaeda network and 
other transnational terrorist organizations from their sources of 
ideological, financial, and material strength. We have put significant 
pressure on the al Qaeda terrorist network throughout the region. 
Together with our coalition, interagency, and host nation partners, we 
have killed and captured terrorists, attacked their infrastructure, 
restricted their movement, disrupted their financial support, and 
depleted their leadership. We have gained experience and perspective on 
the nature of the threat and their tactics. We are using that 
experience to become even more effective, especially in the area of 
intelligence and counterinsurgency.
    Close cooperation with our interagency and international partners 
is an important element of success. Only by fully synchronizing our 
military efforts with those focused on diplomacy, intelligence 
collection and analysis, economic development, law enforcement, and 
strategic communications will we put pressure on the threat while at 
the same time win the confidence of the moderates. We continue to 
develop interagency ties at all levels of command to facilitate cross 
agency information and activity. Our Joint Interagency Coordination 
Group (JIACG) within the headquarters is an example of this new wave of 
integration. So too are we synchronizing coalition activity for the 
global war on terror. Sixty-five countries have military 
representatives at the CENTCOM headquarters in Tampa sharing 
information and integrating plans. Because the enemy is borderless and 
his strategy is broad, we cannot afford to permit gaps in our effort 
that terrorists can exploit. The solidarity and collective will of the 
coalition is our strength against an enemy that preys on weakness.
    Regardless, the terrorist enemy is agile, patient, and deadly. They 
have adapted their methods to counter our successes. In recent months, 
the suicide bombings that killed or wounded thousands of innocent 
Muslims in Turkey, Saudi Arabia, Iraq, and Afghanistan demonstrate that 
terrorists' claims that they are solely at war with America are false. 
Al Qaeda organizers, operatives, and other cadres have dispersed, 
establishing clandestine bases of operation in inaccessible to the 
United States and its allies or ungoverned spaces. The enemy's 
ideological base, financial networks and information networks remain 
partially intact and functional. The demographic and economic 
conditions that breed terrorists continue to concern us.
    We remain concerned that modern technology could give terrorists 
access to destructive power, which, in the past, has been limited to 
nation states. Indeed, we know that terrorist organizations have been 
pursuing weapons of mass destruction (WMD). Effective offensive 
operations against al Qaeda and its associated organizations prevent 
these terrorists from establishing deliberate programs to make these 
destructive weapons. Measures to effectively control borders and detect 
proliferation of WMD-related materials and technology need to be 
strengthened within regional nation states.
    Success in this war depends greatly upon collective action and 
international cooperation. While U.S. and coalition forces will remain 
on the offensive, indigenous forces are best suited to develop human 
intelligence and act on that intelligence to defeat the enemy. Our 
headquarters, Combined Forces Command Afghanistan (CFC-A), Combined 
Joint Task Force-7 (CJTF-7) in Iraq, and CJTF Horn of Africa (CJTF-HOA) 
headquartered in Djibouti, along with our component commands, conduct 
theater security cooperation with other nations to help build 
indigenous counterterrorism capabilities. U.S. Naval Forces CENTCOM 
(NAVCENT) directs seventeen countries in a sustained effort to curtail 
trafficking of terrorists, as well as narcotics and other prohibited 
items. Carrier battle groups and strike groups are apportioned to 
support CENTCOM operations using the Global Naval Force Presence Policy 
(GNFPP).
    While we must remain alert to the danger that transnational 
terrorism poses, we must also recognize the terrorists' vulnerabilities 
and the opportunities they present. The war against terrorism is a war 
largely of intelligence and perceptions. While we are constantly 
improving our intelligence picture of the enemy, we must also become 
more adept at public diplomacy and strategic communications. The 
terrorist vision is not inherently appealing given its foundation of 
intolerance, restricted freedoms and forced compliance. Moderates will 
only move in the extremist direction if they see it as the only way to 
achieve sustenance, personal security and a sense of community. It is 
important to make every effort to help the host nations improve 
essential services, enhance security and provide venues for political 
participation. It is also important to tailor and temper our combat 
activities to cultural sensitivities and personal security concerns of 
the moderates as we pursue the terrorists.
                                  iraq
    There are currently over 184,000 coalition personnel supporting 
Operation Iraqi Freedom (OIF) in Iraq and Kuwait. Over 114,000 U.S. 
personnel and over 23,000 coalition personnel from 35 nations are 
currently fighting to achieve security and stability in Iraq. The force 
is commanded and controlled by CJTF-7, centrally located in Baghdad, 
and is composed of five divisions; three U.S. Army divisions, two 
multinational divisions, and one multinational brigade. Special 
Operations Forces (SOF) under Special Operations Command CENTCOM 
(SOCCENT) leadership work in close collaboration with CJTF-7 and 
coalition partners throughout Iraq to enhance information sharing and 
planning efforts.
    Multinational forces are currently responsible for northern and 
southern portions of Iraq while U.S. Army units are deployed in 
Baghdad, central, northern, and western Iraq. Over 26,000 U.S. and 
coalition personnel are deployed in Kuwait, providing logistical 
support to OIF. Today, we are engaged in a major force rotation that 
will be complete by early May. While force numbers will remain 
relatively stable, incoming forces will be task organized with more 
infantry and greater mobility to fight the counterinsurgency. We have 
reduced our numbers in those sectors where the security environment 
permits, and increased our presence in others. For example, in the 
north where enemy activity has been low, an Army Stryker Brigade has 
replaced elements of the larger 101st Air Assault Division. In the west 
where enemy activity is high, the Marines will bring in a larger Marine 
Expeditionary Force (MEF) to replace the 82nd Airborne Division. In all 
cases, the replacement forces are tailored for the mission, trained in 
the tactics, techniques and procedures developed by the departing unit, 
and spend time in their sector with the outgoing unit before its 
departure.
    The three major elements fighting coalition forces in Iraq are 
Former Regime Elements (FREs), transnational terrorists, and religious 
extremists or jihadists. The FREs seek to expel the coalition and 
return themselves to power. They are waging a tactical campaign against 
coalition forces and attempting to intimidate the Iraqi police and 
Iraqi Civil Defense Corps (ICDC) security forces while terrorizing both 
Iraqi citizens and anyone cooperating with coalition forces. These FREs 
operate primarily in north-central and western Iraq, the traditional 
strongholds of the Baathist regime. FREs predominately use standoff 
weapons such as rockets, mortars and small surface-to-air missiles to 
engage coalition forces. Since last summer they have become extremely 
adept and adaptive with improvised explosive devices (IEDs) to the 
point that the majority of American casualties are now caused by IEDs.
    CENTCOM is working with the Services and numerous DOD agencies, 
civilian research laboratories, and private businesses to develop and 
deploy technologies to defeat and mitigate the effects of the IEDs. We 
are focused on those technologies that can deny bombmakers access to 
materials to make IEDs, provide persistent surveillance to our likely 
routes of travel, allow us to detect the presence of IEDs well outside 
the IED blast zone, neutralize or defeat those IEDs that remain hidden 
from us, and as a last resort, protect our troops from the effects of 
an IED blast.
    Transnational terrorists such as the Zarqawi network, Ansar al 
Islam, and al Qaeda are attempting to destabilize Iraq by increasing 
both ethnic and sectarian strife with the intention of inciting chaos 
and a civil war. Their intent is to drive international institutions 
such as the United Nations (U.N.) and Red Cross from Iraq. Ultimately 
they desire to create a new extremist base of operations following 
their losses in Afghanistan. These terrorists are operating in the same 
areas as the FREs, which are largely former Baathist strongholds. They 
also have a presence in northern Iraq and are launching attacks into 
southern Iraq targeting the Shi'a population, the international 
community, and security forces. While many of their tactics are similar 
to those employed by the FREs, they are more likely to employ suicide 
attacks, including car bombs.
    The third group is religious extremists or jihadists. This group is 
widely diverse and made up of foreign fighters, adventurists who have 
responded to the extremists' false call for Jihad, and dissatisfied 
Iraqi Sunni Arabs. They are committed to driving westerners from the 
Middle East, deposing the current regional regimes and establishing an 
Islamic state or greater Caliphate. Some foreign fighters come to Iraq 
completely untrained with little money and no contacts, while others 
are veterans of previous jihad campaigns having spent years operating 
within Mujihadin networks.
    Our response to the enemy in Iraq is framed in terms of 
counterinsurgency principles. We are developing a clear picture of the 
enemy through the combined efforts of our conventional forces, SOF, and 
the Intelligence Community. The cornerstone of our counterinsurgency 
operations is human intelligence (HUMINT) collected through a multitude 
of initiatives. Our conventional units cultivate personal relationships 
with civic leaders and the local populace on patrol and during 
humanitarian assistance, medical, dental, veterinarian, and 
reconstruction initiatives that provide important opportunities for 
gaining insight about local conditions.
    SOF and other government agencies are developing intelligence 
through a growing number of sources supportive of a new Iraq. Analysis 
at every echelon of command is fused together to create an 
understanding of the terrorist networks in Iraq. These efforts have 
resulted in more than 140 raids a week. Simultaneously, we are working 
to isolate the enemy from their sources of strength and leadership 
within the country. By doing so, we intend to separate them from their 
popular support base and deny them funding, arms, and freedom of 
movement. Improved security, in conjunction with an improving economic 
and political environment will dry up their recruiting base.
    The Iraqi Survey Group (ISG) has been a contributor to our 
counterinsurgency efforts. Although their primary mission has been to 
unravel the former Iraqi regime's involvement and production of WMD, 
the nationwide network of case officers and sources have developed 
timely reporting of threats against coalition forces. As their 
investigators, analysts, and interpreters sifted through hundreds of 
thousands of documents, and made relevant documents to CENTCOM analysts 
to build databases of former Iraqi military organizations and 
intelligence services. Thousands of names, addresses, and pictures now 
populate these databases, enabling coalition forces to understand, 
target, and raid cells of the Special Republican Guards and the Iraqi 
Intelligence Service.
    We continue to focus our efforts in specific areas: improving 
intelligence fusion and analysis; developing Iraqi security forces; 
internationalizing our security effort; protecting the infrastructure 
and aiding reconstruction; and helping to communicate our intentions, 
plans, and successes to the Iraqi people.
    Improvements in our intelligence system are paying off and we 
continue to enhance our ability to collect, analyze, and disseminate 
intelligence in a timely manner. Upgrades in automation networks, data 
basing capabilities, and bandwidth have given coalition forces the 
ability to strike quickly against enemy forces. Our intelligence 
picture will improve further as nascent Iraqi security and intelligence 
capabilities mature. We are also establishing mechanisms to ensure that 
Iraqi forces have adequate intelligence capabilities as they assume 
more responsibility.
    One of the fundamental elements of successful counterinsurgency 
operations is building an effective indigenous security force. 
Coalition forces are supporting the development of Iraqi police, border 
police, ICDC, and Iraqi Armed Forces. In May 2003 there were no Iraqi 
security forces; there are now over 200,000. Our forces are recruiting, 
training, and conducting joint operations with the ICDC. We are 
imbedding our SOF inside the ICDC battalion to train and mentor these 
units as they gain both proficiency and confidence.
    The Coalition Military Advisory Training Team (CMATT) is 
recruiting, equipping, and training the Iraqi Armed Forces. We have 
fielded three battalions of the Iraqi Armed Forces and one more is in 
training, and within a year there will be three divisions of the 
National Iraqi Army (NIA). We are also expanding Iraqi maritime 
capabilities, assisting the maritime components of the NIA, the Iraqi 
Coastal Defense Force, and the Iraqi Riverine Patrol service to ensure 
they possess the capability to control Iraq's territorial and internal 
waters. We must ensure these forces are well led, well trained, well 
equipped, and are subordinated to legitimate civil authority.
    We are coordinating with the Coalition Provisional Authority (CPA) 
to accelerate the formation of the Iraqi Police Services, the 
Department of Border Enforcement, and the Facilities Protection 
Services. These forces are essential in establishing Iraqi rule of law 
prior to transitioning to a sovereign Iraqi government. The arrival of 
civilian police advisors will greatly improve our efforts to increase 
the number and effectiveness of security force personnel.
    As Iraqi forces become capable of autonomous operations, we will 
continue to reduce coalition military presence in dense urban areas and 
position forces in order to provide quick reaction and facilitate 
effective joint patrol operations with Iraqi security forces. In many 
parts of northern and southern Iraq, Iraqi security forces have already 
taken responsibility for day-to-day security operations, asserting 
control over their own neighborhoods.
    We are dedicated to a true partnership with the Iraqi security 
forces during this critical period in the battle. Knowing that Iraqi 
forces and leaders will take time to mature and they will be likely 
targets for the enemy, we are integrating training and liaison teams 
into their formations. The ICDC in particular is becoming more 
confident as our joint patrols and raids demonstrate the effectiveness 
of new equipment and tactics. ICDC units are taking the lead during 
more operations and gaining respect from the Iraqi people and enemy. We 
are also developing Joint Coordination Centers (JCCs) to better 
coordinate the efforts of the local police, the ICDC and the coalition. 
Over time, we will support the development of the Iraqi Defense and 
Interior Ministries and their staffs while building a Joint Force 
Headquarters. Iraqi officers will be integrated into the command 
structure of the multi-national force that will provide stability 
following the transition to Iraqi sovereignty. It is important to 
remember that this strategy will not only depend on our actions, but on 
enemy reactions and initiatives that are often difficult to predict 
with any degree of certainty.
    This is also an international effort; over 23,000 coalition troops 
from 35 nations have joined our forces in Iraq. These forces control 
two large sectors in southern Iraq. Poland leads a 24 nation effort in 
Multi-National Division Center-South, and the United Kingdom leads an 
11 nation effort in the south east. These nations have been subject to 
attack and we are truly grateful for their continued contribution and 
sacrifice. Financial support for many of these nations has been 
critical to their participation.
    Additionally, we also have international support for developing 
Iraqi security forces. We are grateful for the assistance of those 
nations training Iraqi police, including Jordan, the United Arab 
Emirates (UAE), and the Federal Republic of Germany. We are committed 
to broadening the international effort and welcome the assistance of 
other nations and international organizations.
    Security and reconstruction are interdependent. Unemployment and 
the lack of basic services is causing disaffection among the population 
which helps to provide fertile ground and an available recruiting pool 
for those who seek to incite attacks against other Iraqis, the 
infrastructure and coalition forces.
    Our coalition troops have contributed to reconstruction and 
building a foundation for Iraqi prosperity. The Commander's Emergency 
Response Program (CERP) continues to be very effective in facilitating 
the reconstruction effort and also provides commanders with an 
effective means to fight the insurgency. Coalition forces have 
completed over 13,000 construction projects including schools, 
hospitals, businesses, transportation networks, wells, water treatment 
plants, and irrigation systems. The U.S. Army Corps of Engineers 
recently established a Gulf Region Division in Baghdad to further 
accelerate our progress in restoring Iraqi infrastructure and the 
important oil and electricity sectors.
    U.S. and coalition military commanders are working with local 
townspeople to prioritize small reconstruction projects, thousands of 
which are already completed and benefiting the local populace. 
Coalition and Iraqi forces will continue to secure the infrastructure 
and expedite reconstruction. Opening the major airports in Iraq to 
commercial aviation will be an important step in returning to normalcy 
and bolstering economic activity.
    As we transfer responsibilities to the Iraqis, it is important to 
continue to assist the CPA's efforts to communicate effectively with 
the Iraqi people and others in the region to clarify our intentions, 
expose the brutality and hypocrisy of the enemy, publicize Iraq's 
successes, and generate hope. The establishment of media platforms, 
such as the Iraqi Media Network in Iraq and Al Hurra in the region are 
particularly promising because they provide alternatives to the often 
hostile regional media. We will continue to tell the story of our 
successes as well as report our setbacks.
    We will continue to work closely with the U.S. diplomatic presence 
as we approach the transfer of authority (TOA) in Iraq. A new military 
headquarters in Iraq will focus on coordinating the counterinsurgency 
campaign, effecting close civil-military coordination, building Iraqi 
security capability, assisting with reconstruction efforts, and 
mentoring the nascent Iraqi joint force headquarters and Armed Forces.
    CENTCOM expects that violence will increase as Iraq moves to 
sovereignty. Mus'ab al-Zarqawi explains in his letter to Osama bin 
Laden that he thinks ``zero hour must be at least 4 months before the 
new government gets into place. We are racing time.'' It is clear 
Zarqawi and others see this milestone as a major danger and intend to 
surge against it. The enemy fears a network of credible security forces 
deployed against them and has stepped up their targeting of police 
stations, recruiting centers, and key security leaders. The enemy will 
certainly target critical infrastructure in its bid to undermine Iraqi 
legitimacy. Some of our adversaries will attempt to exacerbate ethnic 
tensions with the intent of sparking civil war by attacking important 
ethnic and religious leaders with a goal of causing mass casualties and 
media events to highlight their carnage.
    The political process is moving with increased participation by 
Iraqis and the international community. The security forces continue to 
build at a brisk pace with no drop off in recruiting following recent 
terrorist attacks. Essential services are improving and in most cases 
exceed pre-war levels. Ethnic violence has been limited with major 
groups participating in the political process. While there is a 
possibility that civil war could break out, we currently believe the 
probability of such a conflict is low. We believe there are many more 
people working to keep Iraq together than to break it apart.
    As those of you who have visited Iraq know, the performance of our 
coalition service men and women is outstanding. They are accomplishing 
complex tasks under difficult and dangerous conditions. We now face a 
transitional period in Iraq as we prepare to transfer sovereignty to 
the Iraqi people. Key actions include defeating the insurgency, 
restructuring command and control to facilitate reconstruction and 
stabilization; building Iraqi security institutions; and completing one 
of the largest rotation of forces in recent times. While we remain 
optimistic about the road ahead, we cannot predict future force sizing 
and composition until the political situation concerning Iraqi 
sovereignty clarifies itself.
                              afghanistan
    We currently have close to 13,800 coalition personnel deployed in 
Afghanistan as part of Operation Enduring Freedom (OEF). These forces, 
that include nearly 12,000 U.S. personnel and 1,800 coalition personnel 
from 18 nations, are commanded and controlled by the CFC-A. Every 
branch of the U.S. armed services is represented in this command. 
National Guard and Reserve components make up approximately 26 percent 
of our forces deployed there. Part of the CFC-A mission is to assure 
unity of effort with the U.S. Ambassador and country team in Kabul and 
manage the military-to-military relationship with the Governments of 
Afghanistan, Pakistan, and the International Security Assistance Force 
(ISAF).
    CJTF-180 is a division level organization that exercises command 
over 11 separate task forces; including 2 coalition battalions and 
other support, medical, engineering, and training units. It also has 
special operations capabilities assigned from U.S. and coalition 
nations.
    The threat situation in Afghanistan remains relatively stable, 
although al Qaeda and Taliban elements continue to target President 
Karzai's government, Afghan Militia Forces (AMF), coalition forces, 
ISAF, and international organizations. This threat is composed of three 
groups. In the northeast and the Kabul regions, al Qaeda affiliated 
groups such as Hizb i Islami Gulbuddin (HIG) led by Gulbuddin Hekmatyar 
pose a continued threat. In the southeast, tribal elements and al Qaeda 
continue their resistance to Afghan and coalition forces. In the south, 
remnants of the Taliban and al Qaeda continue to operate out of the old 
Taliban strongholds in the Qandahar area. These groups make effective 
use of propaganda, maintaining just enough support to continue 
operating in Afghanistan. The enemy uses hit and run tactics, 
inflicting casualties with small arms, grenades, IEDs, rockets, and 
suicide attacks.
    We continue to share lessons learned between operations in 
Afghanistan and Iraq and apply counterinsurgency principles found 
effective in Iraq against al Qaeda and Taliban in Afghanistan. Once 
again we find the key to counterterrorism operations is the development 
of actionable intelligence and tying it to a flexible lethal response. 
In Afghanistan we are in the process of building similar HUMINT 
networks and communications architectures that have proved effective in 
Iraq. The construction of a Joint World Wide Intelligence 
Communications System (JWICS) network and a voice over internet 
protocol (VOIP) phone system will improve targeting capabilities. In 
many cases, intelligence is enabled by successful civilian and military 
operations that convince the local populations that the Karzai 
government and the coalition provide the best opportunity for a 
prosperous future. The key is visible reconstruction progress which 
gives people a hope for a better future. These critical shaping 
operations set the conditions to isolate our enemies from their base of 
support.
    While our military operations over the past year have inflicted 
losses on al Qaeda and anti-coalition opposition forces, attacks such 
as the recent suicide bombings in Kabul remind us that our enemy is 
resilient and determined to disrupt upcoming elections as well as 
reconstruction efforts. Coalition and Afghan forces will continue to 
target and attack remaining pockets of al Qaeda and Afghan opposition 
fighters to remove them as a threat and promote stability throughout 
the country. Pakistan's cooperation has contributed to our success in 
this regard and our continued support to them will further improve 
their ability to disrupt the enemy's efforts to reorganize and conduct 
operations.
    CFC-A continues to integrate U.S. and coalition conventional, SOF, 
Air Forces, Afghan National Army (ANA), and AMF into effective 
operations throughout the country. This year, the North Atlantic Treaty 
Organization (NATO) took an important role in Afghanistan by providing 
command and control for ISAF. The 6,300 troops of the NATO-led ISAF are 
vital to establishing security in Kabul. NATO has recently taken charge 
of the Konduz Provincial Reconstruction Team (PRT) and four adjacent 
provinces in the northeast. NATO is also preparing to further expand 
its reach across the north.
    Coalition forces continue working closely with our Afghan allies 
and ISAF to maintain stability and strengthen the writ of the Kabul 
Government. The ANA, whose units continue to develop professionalism 
and gain operational experience, will support these efforts. Where 
deployed, the ANA has earned the trust and confidence of Afghan 
citizens. The growth of the ANA, along with the disarmament, 
demobilization, and reintegration (DDR) of Afghan militias and the 
establishment of police forces, will ensure viable security sector 
reform.
    There are approximately 8,900 ANA soldiers currently enlisted. The 
last battalion of the Central Corps is in training now and should 
complete training in mid-March, establishing three five-battalion 
brigades within the Central Corps. While fielded forces are the 
mainstay of any defense establishment, the headquarters and support 
organizations to organize, train, equip, and employ those forces must 
also be established.
    A key to long-term Afghan security self-sufficiency is to reform 
the Ministry of Defense and the Afghan General Staff from a Soviet-
style bureaucracy to a modern professional armed force. By linking the 
Ministry of Defense and General Staff structure to that of the regional 
commands, we will have the framework required to expand the reach of 
the central government throughout the country. This is an important 
element of our strategy to bring political reform to the regions 
outside Kabul that remain dominated by warlords.
    Reconstruction remains vital to isolating our enemies and depriving 
them of their support base. Both NATO nations and nations in the OEF 
coalition are sponsoring PRTs. The purpose of the PRTs is to create 
enclaves where representatives from the Afghan Government, the 
international community, and aid organizations can bring capability to 
the outlying regions. An extremely successful program, the number of 
PRTs recently jumped from 8 to 12 with 4 more planned by summer. 
Additionally, 29 nations are providing reconstruction support through 
financial and humanitarian assistance efforts. CENTCOM welcomes and 
will facilitate NATO's offer to expand its role in security and 
reconstruction. While NATO's focus is on manning PRTs and stabilizing 
large portions of the country, the U.S.-led OEF coalition conducts 
operations to assist the Afghan authorities in building a safe and 
secure environment to support reconstruction while continuing, as 
necessary, combat operations to defeat al Qaeda, the Taliban, and other 
anti-coalition forces in Afghanistan.
    With the recent success of the Constitutional Loya Jirga, the Bonn 
process continues towards elections later this summer. We are preparing 
however, for a likely increase in violence during the final phase of 
this process as al Qaeda and Taliban work to prevent further gains by 
the legitimate government. There is evidence that the threat will step 
up attacks on key leadership, the Afghan Security Sector and 
interagency civilians supporting the mission. We are currently focusing 
our intelligence on these threats and are fully prepared to preempt, 
prevent or respond to these events as we can. We expect force levels to 
remain relatively stable in the months ahead.
Horn of Africa
    CENTCOM has steadily increased operational focus in the Horn of 
Africa and the surrounding maritime environment to identify the methods 
and means employed by international terrorist organizations and 
networks. There are currently over 1,200 coalition personnel deployed 
in the Horn of Africa. Our operations there are commanded and 
controlled by CJTF-HOA, which is located in Djibouti and supported at 
sea by Commander Task Force 150 (CTF-150), a Royal Navy Flag officer 
with 7 ships from 6 countries. The current emphasis of forces in this 
area is intelligence collection, developing interagency and 
international structures, conducting civil-military operations, and 
helping nations in the region build collective security structures. 
SOCCENT assets also provide important help in increasing regional 
counterterrorist capabilities.
    The Horn of Africa sits astride the southern portion of one of the 
major sea-lines of communication that CENTCOM must use to operate in 
the Arabian Gulf region. Threats to the stability of the region 
include: internal conflicts, border disputes, extreme poverty, and 
transnational terrorists. The consequences of war are easily magnified 
in this region because well over 17 million people are at risk of 
starvation. People are being forced to leave their homes due to 
violence, the search for food, medical care, and safety. Many sub-
Saharan African states have limited or unreliable internal security 
capabilities and this weakness makes them attractive venues for 
terrorist cells and criminal organizations. Terrorist organizations 
seek to exploit the Horn's ungoverned areas to train recruits as well 
as plan and conduct operations against U.S. interests and those of our 
allies.
    Nonetheless, we have partners in the region who are willing to 
fully cooperate in pursuit of a common goal. Djibouti has given 
extraordinary support for U.S. military basing, training, and 
counterterrorism operations, including combined maritime interdiction 
of several terrorist associated dhows. Kenya, a leader in East African 
regional affairs, has also been a key ally in the war on terror and has 
been instrumental in promoting and facilitating peace in Sudan and 
access to Somalia. Ethiopia, despite its very limited resources, is 
undertaking an ambitious program of security sector reform and is also 
committed to combating terrorism and countering extremism within its 
borders.
    As a result of many of the challenging conditions prevailing in the 
Horn of Africa, our Theater Security Cooperation programs emphasize 
humanitarian assistance and civil-military operations. Additionally, 
there is an overarching emphasis on the development of regional 
security structures. CJTF-HOA's regional security arrangements and 
preventive humanitarian operations greatly enhance the ability of 
regional nations to improve their security posture.
    Instability in the Horn is a long-term problem. Somalia is a failed 
state that transnational terrorists use as a transit point and safe 
haven. Sudan has suffered from continuous civil war for decades and 
remains a training and staging location for transnational terrorist 
organizations. Border tensions between Ethiopia and Eritrea remain high 
with renewed conflict a possibility. Increased funding to reinforce 
security sector reform and counterterrorism activities in Yemen, 
Djibouti, Ethiopia, Kenya, and cautious engagements with Eritrea and 
Sudan will help us build on progress we have made in the past year.
    In the Horn of Africa, our strategy aims to increase pressure on 
the terrorist networks established there, while at the same time, 
deterring migration of high-level al Qaeda who may seek sanctuary 
there. Central to this objective are coalition efforts to enhance the 
Nations' capability to detect and combat the terrorist threat. 
Bilateral agreements for intelligence exchanges and in-country 
intelligence officer training courses are valuable to both our African 
partners and us.
    CJTF-HOA serves as a tangible sign of U.S. commitment to 
governments in the Horn of Africa. They are developing cooperative 
security arrangements and mitigating the cross-border seams exploited 
by terrorists. CJTF-HOA also provides an organizational model for the 
way ahead in the global war on terror where our long-term objective is 
to help nations help themselves.
        theater security cooperation and other regional concerns
    CENTCOM's security cooperation program paved the way for the 
essential basing, staging, and overflight rights supporting OEF and OIF 
that augmented access to Diego Garcia granted by our staunchest ally, 
the United Kingdom. The command continues to work and train with other 
nations as a normal course of our operations. In planning cooperative 
activities, we do so with the view that we must build relationships 
that promote U.S. interests, build allied and friendly nations' 
military capabilities, and provide U.S. forces with access and enroute 
infrastructure.
    These ventures require expanded fiscal and political investment to 
keep them viable. The anticipated Fiscal Year 2004 Foreign Military 
Financing allocation of $2.15 billion will strengthen our relationships 
with Egypt, Jordan, and Pakistan, strengthen the ANA, and improve our 
cooperation with other nations in the central region. Continued 
investment in security assistance improves the capabilities of friendly 
nations, enables them to provide for their own security and allows them 
to provide meaningful contributions to coalition activities such as 
counterterrorism.
    International Military Education and Training (IMET) is a cost-
effective investment that positively shapes the future security 
environment by exposing foreign military officers and officials to U.S. 
practices and operations. This program provides foreign military 
members the opportunity to attend courses at U.S. military institutions 
such as Command and Staff Colleges and Senior Service Schools. These 
students become familiar with congressionally mandated subjects such as 
U.S. concepts of military professionalism, respect for human rights, 
subordination to civilian authority, and U.S. democratic institutions 
and culture. A new DOD appropriation, the Counterterrorism Fellowship, 
allows us to offer relevant courses to officers from key partners in 
the global war on terror. The return on investment is large: 
international military officers who understand U.S. military values and 
institutions. The relationships built during fellowships advance 
international cooperation. Foreign Military Financing and IMET benefit 
the recipient as well as the United States. CENTCOM recommends 
continued funding for these effective programs. We should not 
underestimate the worth of our commitment to these programs; the 
command will continue them as a matter of highest priority.
    While our two most pressing priorities in the AOR are the efforts 
to bring stability to Iraq and Afghanistan, the greatest danger may be 
growing extremist influence in nations such as Pakistan and Saudi 
Arabia. Our Theater Security Cooperation program aims to support these 
nations' efforts to reinforce moderation and implement reforms designed 
to achieve long-term stability.
Pakistan
    President Musharraf and Prime Minister Jamali are leading their 
country to resist extremism and we fully support their efforts to 
promote regional stability. Pakistan has played a key and essential 
role in both the global war on terror and OEF. Recent diplomatic 
initiatives between Pakistan and India concerning control of the 
Kashmir area are encouraging. The presence of the terrorist threat, 
regional instability and nuclear weapons makes Pakistan a country with 
which we need to remain heavily engaged.
    President Musharraf has made great strides in curtailing the 
influence of terrorists within his nation and the Pakistani Army has 
become more effective along the Afghan border. Pakistan faces unique 
challenges in the Federally Administered Tribal Areas (FATA) where many 
al Qaeda and Taliban leaders and forces settled following major combat 
operations in Afghanistan. President Musharraf has begun a long-term 
strategy to engage the tribal leaders in these areas. He is offering 
them access to government resources if they purge the terrorists from 
their area of control, but at the same time, he is prepared to take 
military action against those found non-compliant. We are supporting 
these efforts through increased intelligence sharing and security 
assistance while improving operational coordination between CFC-A and 
the Pakistani military. We also conduct regular meetings between 
Afghan, Pakistani, and U.S. military leaders to promote transparency 
and cooperation between governments along the border.
    Pakistan has been a steadfast partner of the U.S. since the start 
of OEF, providing a wide range of access, basing, and overflight 
support for operations in Afghanistan. In addition, Pakistan played an 
important and active role in the capture of al Qaeda leader Khalid 
Sheikh Mohammad. In return, we are conducting a full range of 
engagement activities with them to include military to military 
contacts, bilateral exercises, and training programs. Pakistani 
officers attend the command and staff and war colleges of all four 
armed services and in turn, a select number of our officers attend 
their institutions.
    The U.S. strategic relationship with Pakistan has been difficult 
over time, but a stable and moderate Pakistan capable and willing to 
fight terrorism is in the U.S.'s best interest. Ensuring a positive 
outcome in Pakistan requires us to stay engaged.
Kingdom of Saudi Arabia
    Recent attacks in the Kingdom of Saudi Arabia have convinced Saudi 
leaders of the direct nature of the threats to the Royal Family and the 
government. Saudi Arabia is a major battleground in the global war on 
terror because of the presence of al Qaeda, their sympathizers and 
significant resources. Saudi Arabian security forces have vigorously 
pursued terrorists inside the kingdom, killing or capturing hundreds of 
al Qaeda. The Saudis have also made inroads against terrorist finances 
and infrastructure, but there is more to be done.
    Our engagement activities in Saudi Arabia are long-standing. The 
U.S. Military Training Mission has worked bilateral training and 
support issues for years. We intend to build upon our long relationship 
of good will and mutual support with the Saudi Arabian military and do 
all we can to reinforce Saudi efforts to defeat terrorist organizations 
and promote stability.
Other Arabian Gulf States and Yemen
    The Arabian Gulf states are valued partners in the global war on 
terror. Our operations in the region would not be possible without 
support from states such as Kuwait, Bahrain, Qatar, UAE, and Oman. The 
support provided includes overflight rights, base and port access, and 
staging rights. Kuwait has been host to the Combined Forces Land 
Component Command Forward Headquarters and our forces operating in the 
region. Bahrain is the home of the NAVCENT and Fifth Fleet. Qatar hosts 
CENTCOM Forward Headquarters and the United States Central Command Air 
Force (CENTAF)/9th Air Force Combined Air Operations Center. All 
members of the Gulf Cooperation Council (GCC) support important 
humanitarian and reconstruction efforts. All are donors to Afghan and 
Iraqi reconstruction efforts.
    In return, we continue to work closely with our Gulf partners in a 
variety of forums. We work with them in everything from bilateral and 
multilateral exercises to regional conferences and academic seminars. 
Officers from these countries are familiar sights at our military 
colleges and training centers. Our recent efforts with the UAE provide 
a concrete example of the benefits of cooperation. The UAE has 
developed the Gulf Air Warfare Center in Abu Dhabi, a state of the art 
facility modeled after the U.S. Air Force's Air Warfare Center. This 
facility will promote regional cooperation and combat effectiveness by 
hosting academic and flying courses attended by all of the GCC, as well 
as European allies.
    Theater security cooperation with the Gulf States remains important 
because we will continue to require access to the region and because 
the threat to these states from terrorism remains extremely high. 
Yemen's porous land and sea borders and loosely-controlled tribal areas 
provide opportunities for terrorists to transit, support, and supply 
their networks. CENTCOM engagement with Yemen is focused on improving 
their counterterrorism capabilities. SOF training of their 
counterterrorism force has measurably improved their capabilities and 
confidence, resulting in direct action operations that have disrupted 
foreign fighters and facilitators that previously viewed Yemen as a 
safe haven. Their recent cooperation with Saudi Arabia to gain control 
over cross-border smuggling of arms, explosives, and personnel has 
great potential. Although Oman remains concerned about illegal sea-
borne immigration from South Asia and the possibility that terrorists 
may enter their country with economic refugees, it lacks the fiscal 
resources to adequately upgrade its military forces. Continued U.S. 
support to Oman will make the region less hospitable to terrorists.
Egypt
    The Arab Republic of Egypt continues to be a strong partner, 
member, and ally in the global war on terrorism. Egypt's increase of 
overflight rights and Suez Canal transits were vital to our coalition 
victories in OEF and OIF. Egypt has donated over 60 tons of 
humanitarian aid to Afghan reconstruction and arms and ammunition to 
the new ANA. They deployed a field hospital to Afghanistan where it has 
treated over 13,000 patients and contributed demonstrably in achieving 
the goal of restoring Afghanistan's medical infrastructure to 
operational levels.
    The U.S. has maintained close military relations with Egypt since 
the signing of the Camp David Accords in 1979. Although Bright Star 
2003 was cancelled due to operational constraints, we remain engaged 
with the Egyptians on major regional events and future Bright Star 
exercises. Egypt's leadership role in the Arab world is important to 
reinforcing moderation and enhancing stability in the region.
    Our Security Assistance mission to Egypt is one of our largest and 
its objective is to assist Egypt to modernize all branches of their 
Armed Forces. Annually, we provide $1.3 billion for the procurement of 
U.S. manufactured weapons systems and support. These include the 
Patriot PAC 3, Avenger, Stinger Block 1, extended range multiple launch 
rocket systems (MLRS), etc. over the next 5 years. To date, 755 M1A1 
tanks have been manufactured at the Egyptian Tank plant. In addition, 
the U.S. provides $1.2 million annually for the IMET. Graduates of the 
IMET program are now rising to senior positions in the chain of 
command. Finally, in an effort to increase their regional coalition 
capabilities, Egypt's Ministry of Defense is building a 600-bed 
International Medical Center with national funds, while our Foreign 
Military Financing funding is providing medical equipment, furnishings, 
and training to train over 138 doctors and seventy nurses, at a cost of 
$132 million. Egypt continues to prove itself a key ally, supporting 
both OEF and OIF operations.
Jordan
    Jordan is a stable country within a very dynamic region. The 
Israeli/Palestinian situation, the Iraq conflict, and the war on terror 
all impact Jordan's geopolitical climate. King Abdullah II supports a 
very strong military relationship with the United States. His active 
support for the coalition's efforts during OEF and OIF is essential to 
our success. Jordan deployed a key demining capability to Afghanistan 
that allowed the coalition to quickly set up air operations at Bagram 
airfield. They deployed and still maintain a field hospital in Mazar e 
Sharif that has provided medical care to over 234,000 Afghans since the 
end of hostilities. Their current effort of training Iraqi police is a 
major component of the coalition plan to improve security in Iraq.
    Our economic and military aid programs are appreciated by the 
Government of Jordan and are key elements of their defense plans. We 
have no better regional partner on counterterrorism and will continue 
to work closely with this important ally through combined training 
exercises, military exchanges, coalition deployments and a robust 
military assistance program.
Central Asian States
    Our continuing engagement with these states addresses significant 
sources of instability in the region. Our partnership with these 
nations focuses on developing counterterrorism and counternarcotics 
capabilities, improving border security, and enhancing the 
professionalization of their military forces. Kyrgyzstan, Kazakhstan, 
Tajikistan, and Uzbekistan, for example, have undertaken programs of 
military reform designed to increase the professionalism of their Armed 
Forces. We will continue to foster security sector reform, encourage 
regional cooperation, and seek their constructive involvement in our 
effort to stabilize Afghanistan.
    It is clear that our relationship is mutually beneficial. 
Uzbekistan, Tajikistan, Kyrgyzstan, Kazakhstan, and Turkmenistan 
provide key access and overflight rights necessary to support 
operations in Afghanistan. The Government of Uzbekistan has provided 
access to Karshi-Khanabad Airfield at no cost to U.S. forces. 
Kyrgyzstan also provides U.S. basing at Manas. Tajikistan formally 
offered a battalion of troops and other elements to participate in 
peacekeeping efforts in Afghanistan in January of this year. Kazakhstan 
has provided engineering troops for OIF.
    Our engagement in this region supports the efforts of these nations 
as they move forward from their Soviet pasts. Military-to-military 
contacts and educational opportunities provided under IMET can enhance 
the reform programs that are in place. Through bilateral and 
multilateral exercises, we will develop greater interoperability and 
provide a positive example of a professional force subordinated to 
legitimate civilian authority.
    The Central Asian states continue to struggle with reform and 
enterprise, while their people clearly desire to participate in the 
growing prosperity enjoyed by other former Soviet countries. The risks 
associated with failure of these states include regional instability, 
drug trafficking, smuggling and safe haven for terrorists. Our security 
cooperation efforts aim to improve border control and enhance 
counterterrorism capabilities. al Qaeda, the Islamic Movement of 
Uzbekistan, and other extremist groups are active in Central Asia. 
Continued regional cooperation is essential to confront extremist 
groups in the area.
Iran
    Our recent action to provide disaster relief to the victims of the 
earthquake in Bam, Iran provided the Iranian people a more accurate 
picture of the American character and demonstrates our commitment to 
reducing human suffering. The political situation in Iran remains 
complex. Tension is deepening between moderates who desire a greater 
voice in politics and the hard-line religious Mullahs who control the 
security forces and the mechanisms of political power.
    Iran has multiple centers of power and its closed society makes 
assessing their national intentions difficult. We will watch Iran 
carefully to try to prevent any destabilizing activities that could 
complicate our efforts and contribute to internal Iraqi frictions. We 
will continue to deter Iranian support of terrorism. Iran is also 
central to our counterproliferation planning and nonproliferation 
efforts. The International Atomic Energy Agency (IAEA) has confirmed 
Iran's clandestine nuclear activities and continues its oversight to 
demand compliance with their nuclear nonproliferation obligations.
    While generally thought to be built for defense, Iran continues to 
build a credible military capable of power projection within the 
region. It has the largest military capability in the region and has a 
record of aggressive military action in and around the Arabian Gulf.
    Iran's military force is the primary threat to the free flow of oil 
from the Gulf region. Their forces include a Navy of small attack boats 
carrying torpedoes and missiles that are well suited for the restricted 
confines of the Strait of Hormuz. A new generation of indigenously 
produced anti-ship cruise missiles and tactical ballistic missiles 
threaten both oil infrastructure and shipping. It is important for us 
to maintain reconnaissance capabilities to monitor these forces. To 
counter this threat our Global Naval Force Presence Policy ensures a 
robust carrier strike group and expeditionary strike group presence 
that demonstrates our commitment to unrestricted international access 
to the Gulf's resources.
    Iran's Revolutionary Guard Force and Intelligence Service (MOIS) 
are very active throughout the Arabian Gulf and the broader Middle 
East. While Iranian interests have not favored active sponsorship of 
anti-U.S. activity in Afghanistan and Iraq, it is clear that Iranian 
sponsored groups, backed by their intelligence services could create 
difficulties in both countries.
Joint Warfighting
    During OIF our forces advanced the art of joint warfighting and 
built upon the experience we gained in OEF approximately 1 year 
earlier. Coalition forces struck the enemy at multiple points 
simultaneously while the main attack covered over 300 miles in 22 days. 
The result was the removal of Saddam Hussein's regime and the defeat of 
an opposing force of 28 divisions. Coalition land- and carrier-based 
air forces achieved total air superiority from the outset, disrupting 
Iraqi command and control networks, shattering air defenses, and 
preventing the assembly of large ground formations. Coalition army and 
naval forces opened waterways into Iraq, allowing for the delivery of 
humanitarian goods while major combat operations were ongoing. 
Additionally, SOF operated throughout Iraq and seized control of 
western Iraq almost in its entirety.
    Air, conventional ground forces, and SOF continue to demonstrate an 
unprecedented degree of agility, fight aggressively under uncertain 
counterinsurgency conditions, and retain the initiative in all areas of 
the battlespace. Recent technological advances do not remove the fog, 
friction, or uncertainty of war. Combined and joint teams operating at 
low levels dominate the enemy in every engagement and with proper 
intelligence, unravel terrorist cell structures. Operations in the 
movement phase of OIF represented a shift from joint ``deconfliction'' 
to near full combined and joint integration. That integration continues 
in Iraq under the current conditions of combat. During Operation 
Sweeney in October 2003 through January 2004, for example, a British 
division commanded a large anti-smuggling effort that brought together 
British air and ground forces, U.S. naval forces, and a Marine 
Expeditionary unit (MEU). Significant operational coordination achieved 
by special operations, air and conventional ground forces in finding, 
fixing, and finishing insurgent cells and key leaders has resulted in 
considerable success. This joint integration at low intensity conflict 
operations is unprecedented.
                       proposed basing strategic
    CENTCOM's strategic basing plan is being developed in conjunction 
with other combatant commands, the Office of the Secretary of Defense 
(OSD), and the Joint Staff to ensure that it complements the basing 
strategies of adjoining combatant commands and supports the overall 
Global Basing Strategy. CENTCOM's basing strategy will complement the 
overall Global Basing Strategy by positioning key capabilities 
throughout the CENTCOM AOR to enable a rapid and flexible response for 
the execution of major combat operations in support of the global war 
on terror.
    Host nation support is key to CENTCOM's basing strategy. As such, 
site selection is made considering the improvement of host nation 
capabilities while avoiding the incitement of anti-American sentiment
    CENTCOM's strategic plan for basing calls for Forward Operating 
Sites (FOS), Cooperative Security Locations (CSLs) and the contingency 
use of ports and airfields throughout the AOR. These infrastructure 
sites have been identified to assure U.S. access to enable the 
projection and sustainment of forces within the AOR.
                            theater manning
    While our strategy in Iraq and Afghanistan involves turning 
security responsibilities over to indigenous forces, this strategy 
takes time to implement and our forces will have to remain engaged in 
both countries for a considerable amount of time. Trained forces in 
depth will prove critical to sustaining those efforts, conducting 
operations in support of the global war on terror, continuing theater 
security cooperation activities, and maintaining sufficient reserves to 
deter other potential adversaries. Because our efforts in Afghanistan 
and Iraq involve counterinsurgency operations in complex urban terrain 
as well as the need to employ dispersed forces across wide areas, there 
are great needs for infantry, reconnaissance troops, military police, 
rotary wing aviation, HUMINT, translators, interrogators, and civil 
affairs teams.
    Counterinsurgency operations and high value target (HVT) hunting 
creates a near insatiable demand for HUMINT resources. We need to 
expand our HUMINT forces (case officers, linguists, analysts, and 
interrogators), provide them with proper training, and build rewarding 
professional career paths to foster retention. Interrogators have 
proven to be a critical path for operations in both Afghanistan and 
Iraq and throughout the CENTCOM AOR. These skills are required from the 
tactical level to the strategic level. As our work to secure national 
stability in Afghanistan and Iraq matures, counterintelligence skills 
are another high demand low density asset to train for the future.
    We must invest in greater culturally literate HUMINT capabilities 
across the Services and build networks that not only provide discrete 
target information, but also help us anticipate enemy actions. We need 
more linguists who are fluent in Arabic, Farsi, Pahstu, Dahri, Urdu, 
Somali, and Swahili. Civil affairs personnel, interagency planning 
experts, and psychological operations specialists are also in short 
supply. We must continue to invest in the recruitment and training of 
such skilled people.
    Operations in Afghanistan and Iraq have generated high demand for 
other specialties. These include law enforcement specialists 
knowledgeable in international law and able to teach professional, high 
level policing skills such as criminal investigation techniques. 
Hundreds of thousands of tons of unexploded ordnance left over from 
decades of strife have spiked our demand for explosive ordnance 
disposal specialists who are also trained in techniques to counter 
IEDs. Because we are planning multiple complex operations 
simultaneously, we need more strategic field grade plans officers 
capable of conceptualizing theater strategy and are conversant in 
coalition and interagency operations. Information technology managers 
and systems programmers, and web system and database designers are 
needed to manage the large database and command and control structures 
we are employing to prosecute the global war on terror and conduct 
counterinsurgency operations in Afghanistan and Iraq.
    In addition to our conventional force requirements, we see a 
continued high demand for SOF throughout the CENTCOM AOR. SOF 
reconnaissance, deep insertion and surveillance assets, and aviation 
crews remain in great demand. SOF's capability to train, mentor, and 
operate with host nation forces is especially important in Afghanistan, 
Iraq, and throughout the AOR.
    We are grateful for the initiatives to fund incentives and quality 
of life programs to compensate and provide respite for those deployed 
for extended periods. The highly successful Rest and Recuperation Leave 
and Fighter Management Pass programs are boosting morale and increasing 
effectiveness. The expansion of Tactical Field Exchanges in Iraq and 
Afghanistan are important tools to sustain morale. Exchanges provide 
necessary and important comfort items and are the sole source of phone 
services for our troops. Other programs that are important to sustain 
the high morale of our forces under demanding conditions include Armed 
Forces Entertainment, compensation and entitlement initiatives, and the 
Child Care and Family Child Care Subsidy Programs. We applaud the DOD 
expansion of the Military One Source initiative and feel it is an 
effective complement to existing Service Family Support Center 
programs. The service men and women serving in the CENTCOM AOR 
appreciate the continued congressional concern for supporting programs 
that encourage reenlistment and officer retention. As always, our 
people remain the principal source of our strength.
                       critical mission enablers
    The missions in Afghanistan and Iraq have identified three key 
enablers that we rely upon; strategic lift, intelligence, and force 
protection. Our lack of in-theater infrastructure and assigned forces 
makes us dependent on strategic lift. Ongoing operations are creating 
unprecedented demands for fused intelligence across the entire force 
and we are improving every day. The insurgency tactics we are 
encountering put a heavy emphasis on organic force protection.
    Strategic air and sealift continues to enable our success. Once 
stability operations in Afghanistan and Iraq are completed, CENTCOM 
will be an active theater with a relatively small expeditionary 
footprint in the region. This means that CENTCOM will remain heavily 
dependent on pre-positioned equipment and agile forces to respond to 
contingencies. Adequate sealift and sea-basing capabilities in 
conjunction with our strategic air assets are absolutely vital to 
military success in our area of operations.
    Much has been done to develop common databases and an overarching 
intelligence architecture that permits common access and dissemination 
to all echelons. These efforts ensure effective collaboration across 
the intelligence community. However, just as important to this effort 
is a continuous, unimpeded flow of intelligence. Unmanned aerial 
vehicles (UAVs) have proven their value, and we must continue to expand 
their capabilities and integrate them into our intelligence networks. 
The requirement for more full motion video (FMV) and infrared (IR) 
video is an enabler at all levels of command. Once exposed to the 
revolutionary capabilities they provide, no commander wants to fight 
without them. The ability to see the enemy day or night and respond to 
his defenses and activities before making contact is changing tactical 
doctrine, especially in urban scenarios.
    CENTCOM has built a redundant intelligence, surveillance, and 
reconnaissance (ISR) network integrating strategic, theater, and 
tactical systems, but persistent surveillance is essential to 
maintaining situational awareness during Joint operations. Increasing 
the number of UAV systems, signals intelligence systems, and expediting 
the airborne common sensor program will improve our persistent 
surveillance capability. This capability can be further enhanced by 
expanding our capacity to fly more Predator UAVs simultaneously in our 
theater and by adding qualified linguists aboard signals intelligence 
aircraft. Improved sensors both on the ground and airborne will help 
distinguish between enemy and indigenous populations.
    We should recognize from our experiences in OEF and OIF, however, 
that we will not be able to achieve anything close to near-certainty in 
high intensity combat or counterinsurgency operations because enemy 
countermeasures and knowledge of enemy intentions lie beyond the reach 
of even the most sophisticated technologies.
    The requirement for Up-Armored High Mobility Multi-Purpose Wheeled 
Vehicles (HMMWVs) and Interceptor Body Armor (IBA) to protect our 
troops in Iraq and Afghanistan remains high. Due mainly to the 
development of the IED as the enemy's weapon of choice, our requirement 
for armored HMMWVs has steadily increased from 235 in May 2003 to 4,388 
in February 2004. We currently have 2,178 in theater, or 50 percent of 
the current requirement. The Joint Staff, Services, and other combatant 
commanders are currently redistributing worldwide stocks of Up-Armored 
HMMWVs. Funds that you provided in the Emergency Supplemental increased 
production from 78 per month in October 2003 to 148 per month in 
February 2004 and will further increase to 220 per month by May 2004. 
Accelerated production and redistribution should allow current 
requirements to be met by December 2004.
    OIF forces initially deployed with a combination of old Flak vests 
and the new IBA. The Defense Logistics Agency and Army managed 
production and distribution of the new IBA, which is composed of the 
Outer Tactical Vest (OTV) and Small Arms Protection Inserts (SAPI). One 
hundred percent of U.S. forces in Iraq now have the full IBA. One 
hundred percent of U.S. forces in Afghanistan have the new OTV and 86 
percent have SAPI plates. The remainder of the soldiers in Afghanistan 
will be issued SAPI plates by the middle of March.
Military Construction (MILCON)
    CENTCOM's basing strategy supports the command's vision and mission 
by establishing bases and facilities that support operational and 
strategic needs throughout the region. Ongoing operations in support of 
the global war on terror and OIF and OEF have increased our basing 
footprint for the near term; primarily operating bases in Iraq and 
Afghanistan. To meet these requirements, components have already 
submitted contingency construction requirements totaling some $531 
million through CENTCOM and their component channels, for Joint Staff, 
OSD, and congressional consideration.
    Your continued funding support for MILCON provides needed 
infrastructure and facilities required to prosecute OEF, OIF, and the 
global war on terror. Between the fiscal year 2004 appropriation and 
the fiscal year 2004 supplemental, Congress authorized a total of 
$340.5 million in MILCON for projects in the CENTCOM AOR. However, 
additional contingency requirements continually emerge. CENTCOM has 
prioritized another 44 projects at an estimated cost of $531 million in 
urgent, unfunded contingency construction requirements. We submitted 
these requests to the Joint Staff in January 2004. We expect that other 
requirements will emerge due to changes in the situation, new missions, 
and the evolution of our basing strategy. Your support for these 
requests is important to our ability to sustain operations in the 
theater.
Funding Priorities
    In research and development (R&D) funding--over $335 million was 
appropriated to address key force protection shortfalls and over $70 
million will fund R&D efforts to address some of the asymmetric 
problems our soldiers are facing, such as IEDs. DOD has established a 
counter-IED task force that will review, test, and field promising 
counter-IED technology to our forces. This effort is already bearing 
fruit.
    Our ability to fight and win throughout our theater of operations 
relies heavily on a robust, reliable command, control, communications, 
and computer (C\4\) network. Great progress is being made in enhancing 
our theater-wide C\4\ infrastructure, due in large measure to 
supplemental funds approved for commercialization of our tactical 
communications resources. The nature of the global war on terror, 
particularly counterinsurgency operations in our theater, however, 
places significant demands for collection and dissemination of 
intelligence products and information throughout all components, Joint 
Task Forces (JTFs), tactical units, and coalition partners. While we 
continue to pursue the resources necessary to meet these requirements, 
the ability to distribute intelligence to all the places remains our 
single biggest C\4\ challenge. Continued support of communications 
initiatives will ensure necessary capability to meet today and future 
requirements.
    CENTCOM's logistical difficulties stem mainly from limited 
infrastructure. We place high demand on strategic airlift and sealift; 
we lack the ability to provide in-transit visibility (ITV) on supplies; 
we need improvements in the tactical distribution of petroleum products 
and other goods via military trucks or pipeline. MILCON investments 
throughout our theater will improve through-put and force projection 
capabilities.
Legislative Authority Changes
    Congress has been generous in providing CENTCOM with greater fiscal 
flexibility to support nations that provide us with access or assist 
our efforts. One such example is the CERP with Appropriated Funds 
(CERP-APF). This program is seen by the commanders in the field as an 
essential enabler. CERP-APF allows the commanders to seek and satisfy 
the immediate needs of the local population and demonstrate to the 
public our commitment to helping them. We seek you continued support 
for this authority.
Concerns
    CENTCOM has been constrained in its support to nations that provide 
us with access or assist our efforts. Specific concerns include:

    Inability to use funds to:

        <bullet> Upgrade permanent facilities.
        <bullet> Pay for intra- and inter-theater airlift 
        transportation for coalition personnel and material, including 
        medical evacuation.
        <bullet> Support and sustain the Afghan security forces and the 
        Provincial Reconstruction Teams.
        <bullet> Pay travel expenses of foreign military officer 
        involved in coalition planning or operations while temporarily 
        assigned to CENTCOM.

    Difficulty in facilitating coalition contributions to the global 
war on terror, combatant, combined forces, or JTF Commanders because of 
the inability to effect bailment or custodial transfer of United States 
military equipment to coalition forces for cooperative operations.
                               conclusion
    CENTCOM is fully committed to the defeat of transnational terrorism 
and the creation of secure and stable environments in Iraq and 
Afghanistan. We will continually reassess the situation and improve our 
effectiveness against the enemy. Our command and control restructuring, 
including the establishment of CFC-Iraq and CFC-A, will improve the 
integration of our operations with interagency efforts and those of our 
coalition partners while permitting the CENTCOM headquarters to 
maintain a holistic view of the theater and direct the full range of 
our activities. Our staff will remain forward in Qatar extensively, 
especially during this period of multiple transitions in Afghanistan 
and Iraq. Eventually, the CENTCOM Forward Headquarters will move to Al 
Udeid Airfield from Camp As Sayliyah in Qatar. That move will increase 
our efficiency and allow us to reconstitute our mobile headquarters 
capability for other contingencies.
    The most important person in our theater of operations is the 
soldier, sailor, marine, or airmen on patrol in the middle of the 
night. We are committed to providing our troops and our coalition 
partners the resources they need to accomplish the mission. I would 
like to acknowledge the courage and dedication of our coalition troops 
and especially those Afghans and Iraqis who have joined us to win a 
peaceful and prosperous future for their children. We are committed to 
doing all we can to support them. We and our coalition partners will 
prevail in Afghanistan and Iraq and in the global war on terror because 
of the efforts of our service men and women and because we offer a 
positive vision and hope for the future.
    I want to thank this committee for your support to our command and 
our service men and women and also for your oversight of the vital 
operations we are undertaking.

    Chairman Warner. Thank you very much, General.
    General Jones.

   STATEMENT OF GEN. JAMES L. JONES, USMC, COMMANDER, UNITED 
 STATES EUROPEAN COMMAND, AND SUPREME ALLIED COMMANDER, EUROPE

    General Jones. Mr. Chairman, I would like to echo the 
thoughts of General Abizaid in thanking the committee and the 
people of the United States for their support of our men and 
women in all uniforms involved in dangerous missions around the 
globe, not just in our respective AORs, but doing such 
wonderful things to provide the most visible example of 
democracy in action, a free people. Through their actions and 
through their presence they give hope to millions of people who 
hope to have a similar opportunity in life to live in peace and 
raise their families with prospects for better tomorrows.
    It is also a great pleasure to be at the witness table 
today with General John Abizaid. I know the committee is aware 
of this, because some members visited us in 1991 in northern 
Iraq when Lieutenant Colonel Abizaid was commanding officer of 
the airborne combat team from Vincenza, Italy, and I was the 
commanding officer of the 24th Marine Expeditionary Unit (MEU). 
I would like to remind the committee that Lieutenant Colonel 
Abizaid worked for me in those days, and I am extremely happy 
to be supporting him in his efforts today in the important 
billet that he holds.
    So it is a great honor, over a decade later, still to be in 
uniform and to be sitting along side this great soldier that is 
doing such a great job.
    Mr. Chairman, in my statement I deliberately included a lot 
about NATO this year because I think the committee has always 
had a deep and abiding interest in NATO. I had sought to, in my 
prepared remarks, show the linkage between EUCOM and NATO as 
NATO is transforming and changing. In 2003 NATO has sent a very 
strong signal that it is anxious and willing to engage in many 
areas of the world simultaneously, which is a signal departure 
from the NATO that we knew in the 20th century.
    This year NATO will go from 19 to 26 nations. It will 
welcome seven new member states. It will continue to administer 
ongoing and simultaneous operations in the Mediterranean, in 
the Balkans, and in Afghanistan. It will continue to develop 
the NATO Response Force in keeping with the guidance provided 
by the Prague capabilities commitment. That NATO Response Force 
went from a concept early in 2003 to a reality in the fall of 
2003. It now is a 9,000-man force in its second rotation. It 
has been demonstrated to be operationally effective, and will 
continue to grow in capability, reaching perhaps a mature size 
of between 15 and 20,000 soldiers, sailors, airmen, marines, 
and Special Operations Forces (SOF) per rotation.
    We also saw in 2003 the establishment of the Allied Command 
for Transformation, which is a major departure. It meant the 
consolidation of all operations under the billet of the Supreme 
Allied Commander in Europe for the Allied Command for 
Operations, which is the one I am privileged to be assigned to.
    We also have regenerated or are attempting to regenerate 
the Partnership for Peace (PFP) Program, which will lose seven 
members as they become full members of the alliance. We are 
embarked on a project to revitalize the Mediterranean Dialogue 
in that very important part of the world, both on the northern 
rim of the Mediterranean and on the southern rim. We are busily 
at work trying to bring to fruition the guidance of the Prague 
capabilities commitment and the Prague Summit.
    As if that was not enough, NATO has also taken on the task 
of transforming itself, and that transformation is ongoing. It 
is essentially the problem that we wrestled with domestically 
over the last decade, to take the 20th century warfighting 
concepts and bring them into the 21st century, with the 
economies of scale in our armies, navies, and air forces, 
marines, and SOF, to cut down the number of unnecessary 
headquarters, which NATO has done this year, and to make the 
forces more operationally usable and deployable and 
expeditionary.
    The reforms that are required span the entire skill set of 
the military culture, to include logistics, intelligence, 
transportation, and obviously the warfighting capability if 
necessary.
    So 2003 was an exciting year. 2004 advertises itself to be 
equally exciting, as NATO has signaled a strong desire to do 
more in Afghanistan. Recently we have proposed military advice 
on how NATO might expand to include five new Provincial 
Reconstruction Teams (PRTs) to the north and to the west. 
Admiral Feist is busily at work generating the force to support 
that reality, which I think will happen, and nations are 
deciding where they might wish to make individual contributions 
as we speak.
    I would like to underscore the relationship between CENTCOM 
and SHAPE on this matter, because coordination at the military 
level is extremely important. May I simply say that it has been 
ideal in all respects--on the ground, at the tactical level, at 
the operational level, and at the strategic level--and we are 
very grateful for the coordination and assistance that General 
Abizaid and his command have lent to the NATO operation.
    In EUCOM, the command that is responsible today for 93 
nations, we are also busily at work. We are paying attention to 
the greater Middle East because I believe this is where the 
focus of main effort will be for a considerable period of time 
yet, irrespective of what happens to Iraq in the short term.
    We are paying greater attention to Africa, both northern 
African and sub-Saharan Africa. As General Abizaid and his 
forces are successful in Afghanistan and in the Middle East, 
the purveyors and merchants of destruction, terrorism, WMD, and 
those who seek to create instabilities in the democracies of 
the world are looking for other places to hide. Africa is a 
huge continent and we are seeing indications of a willingness 
to move to Africa to start to develop their footholds and to 
export their particular brand of terrorism and instability.
    In operations, EUCOM is proud to have been the supporting 
command to CENTCOM in the prosecution of OEF and OIF. A 
significant percentage of cargo and personnel transited through 
our bases that we are privileged to occupy in Europe with the 
forbearance of our allies. With the exception of a single vote 
taken in the Turkish parliament, no U.S. force was denied air, 
land, or sea transportation modes anywhere through the alliance 
in Europe.
    I would particularly like to emphasize that Germany played 
an important role in facilitating the transfer of our forces 
and our cargo and continues to play an important role. As a 
matter of fact, in order to reduce the demand on our manpower, 
Germany contributed thousands and thousands of German soldiers 
to provide security for our bases and continues to aid 
significantly in that respect, and we are profoundly grateful 
to Germany for its assistance.
    EUCOM is also involved in transformation, as you alluded 
to, Mr. Chairman. Last year we finished a recommended footprint 
for the U.S. forces in Europe for the 21st century. That 
footprint proposal is being discussed and will be announced in 
due time. Suffice it to say that the study we completed is not 
a study that is bent on troop reduction for the sake of 
reducing forces. It is a study that is based on achieving 
greater strategic effect with transformational capabilities 
applied to forces based on forward presence and the 
reinforcement with rotational forces from our Army, our Navy, 
our Air Force, and our Marines.
    If adopted, it will allow us to be strategically more 
agile, more flexible, and present in most of the areas that we 
wish to be and need to be present in in order to make sure that 
we reduce the level of threats and combat and add to the global 
war on terrorism.
    I am satisfied that the budget request for 2005 meets the 
needs of the theater. If I may just highlight one aspect of the 
budget request having to do with military construction 
(MILCON). It has not been publicly released as to what bases 
will be maintained and what bases will be modified, and so the 
details of the plan are not public, but we did complete last 
year a study which included those installations that are of 
such enduring interest and importance to our capabilities that 
they would, regardless of the plan, they would probably remain.
    So we focus our request on making sure that those bases 
that we know are going to be useful and strategically important 
in the future will receive the MILCON funding that is required 
to keep the quality of life and the operational competence and 
the quality of work up to speed.
    So with that caveat, I would simply say that the budget 
request meets the needs of our forces in theater. With that, 
Mr. Chairman, I am happy to respond to any questions you might 
have.
    [The prepared statement of General Jones follows:]
            Prepared Statement by Gen. James L. Jones, USMC
                            i. introduction
    The United States European Command (EUCOM) remains fully engaged in 
protecting and promoting the national security interests of the United 
States in 93 countries covering nearly 46 million square miles (Chart 
1). Our area of responsibility (AOR) is astonishingly diverse and 
encompasses a full range of human and social conditions. EUCOM actively 
supports the prosecution of the global war on terrorism, while 
simultaneously preparing to implement a strategic transformation that 
will take advantage of both the opportunities and evolutions in the 
21st century international security environment.
    The global war on terrorism, unlike any war in the past, demands 
greater emphasis on closer relationships with friends and allies. EUCOM 
must remain engaged regionally in order to build upon international 
relationships and the many institutions which can help manage crises 
when they occur or, ideally, before they occur. As such, the value of 
forward basing, forward presence, and focused commitment remains an 
essential cornerstone of our strategy for the future.
    During the Cold War era, U.S. and North Atlantic Treaty 
Organization (NATO) force structures were primarily focused toward the 
eastern borders in order to ensure the territorial integrity of Western 
Europe against the Soviet Union's conventional and nuclear forces. 
Fortunately, the Soviet Union and the Warsaw Pact collapsed, as did 
many of the threats they posed. But the peace expected to emerge with 
the demise of the Soviet Union and the dawn of a new century has, thus 
far, failed to materialize. New threats have emerged that are 
qualitatively and quantitatively different from the conventional and 
traditional challenges of the past century. The rise of radical 
fundamentalism in many regions of the world provides the breeding 
ground for the actions of transnational groups who are unhesitant in 
their willingness to employ tactics of terror in order to coerce, 
blackmail, intimidate, and threaten populations and their sovereign 
governments. Narcoterrorists use these same tactics to secure their own 
financial gain and contribute to undermining the social fabric of free 
societies. Other criminal groups exploit the despair existing in 
nations beset with the demographic challenges of rising populations, 
declining resources, limited opportunity, and unstable governments. 
Transnational groups recognize no traditional political borders, making 
it extremely difficult for individual nations to effectively defend 
against the threat on a unilateral basis. Such groups have shown no 
moral hesitation in imposing their terror tactics against civilian 
populations or civil structures. Clearly, they represent an 
unconventional and asymmetric threat to our interests, and to those of 
our friends and allies. It is to this end that EUCOM is dedicated to a 
fundamental transformation on a scale not seen since its creation at 
the end of World War II.
    EUCOM's 21st century center of gravity reflects the continuing 
importance of the ``Greater Middle East,'' to include nations in the so 
called ``arc of instability;'' the Caucasus states, the Levant, and the 
``ungoverned'' regions of North and West Africa. As a result of U.S. 
military successes in Afghanistan and Iraq, transnational groups are 
increasingly denied safe havens in traditional sanctuaries. They are 
moving into regions where nations already struggle with explosive 
population growth, resource scarcity, weak national institutions, and 
ineffective militaries.
    EUCOM's greatest contribution to security and stability lies as 
much in preventing conflict as it does in prevailing on the 
battlefield. This is accomplished through influence and engaged 
leadership, and is sustained only through our enduring and visible 
presence and commitment. The operational environment within EUCOM's AOR 
continues to evolve in ways that were largely unforeseen and difficult 
to predict just a few short years ago. Expanding Theater Security 
Cooperation requirements, an expanding NATO, instability in Africa and 
Eastern Europe, and the global war on terrorism largely define ongoing 
changes and require a comprehensive review of EUCOM's theater strategy. 
Today's security environment has been fundamentally changed by enemies 
without territory, without borders, and without fixed bases. These 
realities require us to be able to ``see'' everywhere and to be able to 
project power anywhere--quickly. From its geographic vantage point, 
EUCOM is ideally positioned to engage, disrupt, dismantle, and prevent 
terrorists from using their lines of communication and methods of 
resourcing which are critical to their ability to both operate and 
sustain themselves.
    EUCOM's ability to pursue, engage, and win decisively on a fluid 
and nonlinear modern battlefield will require a very agile and highly 
responsive force which is properly equipped, well-trained, and 
maintained at a high state of readiness. It should be agile, 
deployable, and sustainable. EUCOM's Strategic Theater Transformation 
(STT) plan, which is a component of the Department of Defense's (DOD) 
Integrated Global Presence and Basing Strategy, when approved, will 
permit EUCOM to transform itself in such a way as to be better able to 
meet the diverse challenges of this new century. The fundamental 
objective of our plan is to increase EUCOM's strategic effect through a 
fundamental realignment of basing concepts, access, and force 
capabilities. In no way should this signal a reduced commitment or 
interest in our region, but rather a shift in conventional thinking and 
desire to adopt new methods to better protect our interests in today's 
international security environment.
    NATO, which has been since its inception the fulcrum of 
transatlantic and inter-European security, remains the preeminent 
security alliance in the world; but it too is in the midst of dramatic 
change. The alliance's renewed commitment and revitalization are 
already evident by this year's pending expansion from 19 to 26 members, 
dramatic changes in its command structure, renewed focus on improving 
capabilities, and participation in global missions. They represent the 
beginning of NATO's most comprehensive and far-reaching changes in the 
history of the alliance. A transformed NATO, with greater agility, 
capability, and a new vision for engagement outside its traditional 
area, will be an essential and more capable partner for the United 
States. We should welcome and fully support this historic change in the 
alliance.
    The ongoing transformations in EUCOM and NATO are inextricably 
linked to the challenges inherent in today's international security 
environment. These simultaneous transformations are mutually supporting 
and complementary, the synthesis of which produces an effect greater 
than the sum of its parts. By its leadership and example, EUCOM 
supports both the alliance in its transformation as well as NATO member 
nations undergoing their own internal transformation.
    EUCOM's proposed plan is based on the assumptions that the United 
States:

        <bullet> Desires to maintain its current position as a nation 
        of global influence through leadership and the efficient and 
        effective application of informational, military, economic, and 
        diplomatic power.
        <bullet> Remains committed to its friends and allies through 
        commitments to global and bilateral organizations and 
        institutions, and supports treaties and international 
        agreements to which it is a signatory.
        <bullet> Remains committed to a global strategy, which is 
        forward based and composed of forward deployed forces in key 
        areas, which contribute to the first line of defense of peace, 
        stability and order.
        <bullet> Supports in-depth transformation of its Armed Forces 
        and basing structure, which is required in order to respond to 
        21st century threats and challenges.
        <bullet> Will continue to seek ways to mitigate or offset 
        obstacles posed by 21st century global sovereignty realities 
        through a reorientation of its land, sea, air, and space 
        presence.
        <bullet> Recognizes that the current concept and disposition of 
        U.S. basing within EUCOM may not adequately support either the 
        strategic changes attendant to an expanding NATO Alliance, or 
        the rapidly changing national requirements of this AOR.
        <bullet> Will seek to preserve those assets which are of 
        enduring value to its mission, goals and national interests so 
        long as their location measurably contributes to our global 
        strategy, the NATO Alliance, and our bilateral engagements 
        within the theater.

    The goal of EUCOM's transformation is to produce a strategic 
capability that is better able to support the National Security 
Strategy.
         ii. united states european command and nato operations
    EUCOM and NATO are currently engaged in numerous operations both 
inside and outside their traditional areas. The global war on terrorism 
has challenged peace loving nations to join together to defeat an enemy 
that has no honor, no state and no traditional military forces. The 
enemy of the 21st century is the terrorist who, for either ideological 
or monetary gain, will attack militaries and civilians 
indiscriminately. EUCOM and NATO's high level of involvement 
illustrates the important role these organizations play in directly 
confronting emerging threats.
U.S. European Command Operations
    EUCOM is comprised of five components which conduct operations both 
in-theater and out of theater: U.S. Army, Europe (USAREUR) (62,000 
uniformed personnel); U.S. Air Forces in Europe (USAFE) (30,000 
uniformed personnel); U.S. Naval Forces, Europe (USNAVEUR) (12,500 
shore based uniformed personnel; 12,000 additional under the 
operational control of the Sixth Fleet); U.S. Marine Corps Forces, 
Europe (MARFOREUR) (150 uniformed personnel); and Special Operations 
Command Europe (SOCEUR) (2,000 uniformed personnel).
    EUCOM's missions are as wide as they are vast. We extend our 
operations throughout Greenland, Iceland, Europe, Africa, the Levant, 
Eurasia, and the Middle East, to include Iraq. At the height of EUCOM's 
participation in Operation Iraqi Freedom (OIF), more than 54,000 
soldiers, sailors, marines, and airmen from EUCOM's components were 
deployed for combat, or were in direct support of combat operations. In 
addition to conducting or supporting many bilateral and multinational 
operations, EUCOM forces also serve in the Balkans supporting NATO's 
military missions, and actively prosecute the global war on terrorism 
throughout our theater.
In-Theater Operations
    Maritime Intercept Operations (MIO)
    EUCOM established the Joint Forces Maritime Component Commander 
(JFMCC), consisting of NAVEUR SIXTHFLEET Naval assets, in December 2001 
for the purpose of conducting maritime interdiction operations in the 
Mediterranean Sea. In combination with Operation Active Endeavour, 
JFMCC and NATO forces have hailed 39,500 ships (both U.S. and NATO) in 
order to ascertain specific information regarding the carrier, its 
cargo and destination. In addition, they monitored more than 30,000 
ships and conducted 45 compliant boardings (by a combination of U.S. 
and NATO forces). Nations of the western Mediterranean report as much 
as a 50-percent reduction in illegal immigration over the past year--a 
reduction directly attributable to this operation.
    Liberia
    In June 2003, EUCOM deployed SOCEUR to Liberia as a Joint Special 
Operations Task Force with 300 Special Operations personnel to 
coordinate and assist with the evacuation of 133 American citizens and 
32 third country nationals. EUCOM responded to the worsening 
humanitarian crisis by deploying Joint Task Force (JTF) Liberia, a sea 
based JTF of over 3,800 service men and women commanded by EUCOM's 
Southern European Task Force Headquarters. The American presence both 
offshore and on the ground was a source of confidence and stability 
that allowed the introduction of a U.S. supported peacekeeping force 
from the Economic Community of West African States (ECOWAS). The 
efforts of JTF Liberia went a long way toward mitigating a humanitarian 
crisis in Liberia and preventing it from becoming a source of regional 
instability by helping international organizations respond effectively.
    Georgia Train and Equip Program (GTEP)
    Since May 2002, GTEP has provided the Georgian government and its 
military with a very successful military training program that 
continues to enhance the Georgians' ability to protect their 
sovereignty and stabilize the region. By the time its mission is 
completed in May 2004, GTEP will have trained approximately 2,600 
Georgian soldiers. The successful December 2002 transition of this 
program's lead agency, from Special Operations Forces (SOF) to 
MARFOREUR, highlights the fact that conventional forces can be used for 
train and equip missions, freeing SOF for other missions. EUCOM, in 
coordination with the DOD and the Department of State, plans to 
continue its military transformation support to this fragile democracy. 
This effort and other similar security cooperation activities are 
examples of programs that require small investments but yield enormous 
dividends in our effort to promote peace, stability and democracy.
    Pan Sahel Initiative
    This initiative is a new effort to assist Mali, Niger, Chad, and 
Mauritania in detecting and responding to the migration of asymmetric 
threats across and within their poorly controlled borders. SOCEUR leads 
this program in training and equipping company sized, rapid reaction 
units, providing them the mobility, communication, navigation, and 
individual soldier skills essential for border security, internal 
defense, and counterterrorism efforts. Like GTEP, EUCOM plans to 
transition the lead for this program from SOCEUR to MARFOREUR in the 
near future. EUCOM also encourages the Maghreb countries (Algeria, 
Morocco, and Tunisia) to work more closely on common issues related to 
fighting terrorism.
Out of Theater Operations
    Operation Enduring Freedom/Operation Iraqi Freedom
    In addition to our in-theater missions, EUCOM continues to provide 
essential support to U.S. Central Command (CENTCOM) and the global war 
on terrorism as a supporting command for Operation Enduring Freedom 
(OEF). This includes the provision of a U.S. Army medical evacuation 
helicopter unit in support of NATO's International Security Assistance 
Force (ISAF) in Kabul. Furthermore, intelligence capabilities and 
analysis from both EUCOM and CENTCOM are integrated to address key 
problem areas along mutual boundaries, to include Iran, Turkey, Syria, 
and East Africa. But perhaps the most important mission with which 
EUCOM has been involved has been its participation as a supporting 
command in OIF.
    U.S. Army, Europe
    USAREUR deployed over 26,000 soldiers to OIF, including the 
headquarters and major elements of V Corps, the 1st Armored Division 
based in Germany, and the 173d Airborne Brigade based in Italy. V Corps 
led a major element of the ground attack on Baghdad and continues today 
as the ground force controlling headquarters in Iraq. The night combat 
jump into northern Iraq by soldiers of the 173d Airborne Brigade was 
one of the largest infantry combat jumps since the Korean War. 
Currently, USAREUR is redeploying the nine separate brigades of V 
Corps, the 1st Armored Division, and the 173d Airborne Brigade to 
garrison, while deploying the 1st Infantry Division and elements of the 
21st Theater Support and 5th Signal Command to Iraq.
    U.S. Air Forces, Europe
    USAFE deployed 24 fighter aircraft and support personnel to the 
Iraqi theater and flew countless air refueling, surveillance and 
reconnaissance, and long-range strike missions from permanent and 
expeditionary air bases within EUCOM in support of OIF. C-130 aircraft 
from U.S. Air Forces in Europe continue to transport vital supplies and 
equipment bound for Iraq through Europe. Additionally, USAFE provides 
advanced basing support to both CENTCOM and U.S. Transportation Command 
at several air bases within the region.
    U.S. Naval Forces, Europe
    USNAVEUR exercised operational control of the U.S.S. Harry S. 
Truman and U.S.S. Theodore Roosevelt Carrier Strike Groups, with 22 
ships and 157 carrier-based aircraft. Strike Group aircraft flew over 
3,000 combat sorties from the eastern Mediterranean Sea and delivered 
precision-guided ordnance with coalition forces in northern Iraq. Naval 
cruisers and destroyers launched 36 Tomahawk Land Attack Cruise missile 
strikes into Iraq from the Mediterranean, while additional Navy units 
launched missiles from the Red Sea.
    U.S. Marine Corps Forces, Europe
    MARFOREUR, led by the 26th Marine Expeditionary Unit (MEU), 
demonstrated its operational agility by conducting an insertion of 
combat forces into northern Iraq while deployed in the Mediterranean 
Sea. Upon receipt of a mission tasking from the CENTCOM Commander, the 
MEU was inserted from Souda Bay, Greece, into northern Iraq during a 
critical stage of OIF where it provided a significant contribution to 
the combat power ashore and aided significantly in conducting 
conventional combat operations.
    Special Operations Command, Europe
    SOCEUR was directly engaged in both combat and civil military 
operations in northern Iraq as part of CENTCOM's Joint Special 
Operations Task Force-North.
    Theater Support
    EUCOM's success in supporting OIF is directly attributable to the 
theater support inherent in this geographical location, the men and 
women who serve in the command, and the infrastructure available. 
EUCOM's experience in OIF demonstrates the value of the European in-
theater and ``en route'' transportation systems that provide critical 
power projection capabilities and facilities. There exists no better 
combination of rail, road, inland river, and air infrastructure systems 
from which to deploy our combat forces. This superb and mature network 
feeds some of the largest seaports in the world. Our theater 
transportation systems proved instrumental in the successful deployment 
of 54,000 soldiers and 29,000 short tons of supplies and equipment by 
air, and more than 290,000 short tons of supplies and equipment by 
ship, rail or barge through the EUCOM theater to Kuwait, Turkey, 
Israel, Hungary, Romania, and many other countries. Seventy percent of 
all Iraqi theater communications bandwidth and architecture continues 
to be routed through EUCOM controlled links. Additionally, the German 
Government continues to provide thousands of soldiers, police, and 
border guard forces to help secure EUCOM's installations, housing areas 
and communities.
    EUCOM's medical facilities continue to provide specialized 
recuperative and rehabilitative care to wounded and injured U.S. and 
allied soldiers from the Iraqi and Afghan theater of operations. To 
date, more than 9,280 patients have received treatment at Landstuhl 
Regional Medical Center, Germany and 1,380 received care at the 
Expeditionary Medical Facility/Fleet Hospital in Rota, Spain, prior to 
its redeployment in June 2003.
    Given the multiplicity of deployment infrastructure and nodes, our 
European operating bases provide for enhanced deployment infrastructure 
which complements our National structures. They also have the advantage 
of being an ``ocean closer'' to the regions where our strategic 
interests will be focused: the greater Middle East, Russia, Ukraine, 
and Africa.
Reserve Component
    EUCOM is reliant upon the contributions of the Reserve component. 
Presently, there are over 4,800 Reserve and National Guard personnel 
deployed in-theater conducting a wide range of critical missions. The 
Reserve component is currently executing the entire Bosnia mission and 
almost two-thirds of our forces in Kosovo are reservists. Additionally, 
a large percentage of our intelligence personnel in EUCOM are activated 
reservists. Our reliance on the Reserve component is most acute in the 
intelligence, counterterrorism and logistics fields.
    Since the beginning of our operations in the Balkans, approximately 
30,000 Reserve component personnel have deployed to the region and have 
performed admirably. With the approaching successful completion of the 
military tasks mandated by the Dayton Peace Accords, we will continue 
to reduce our forces in the Stabilization Force (SFOR) in Bosnia and 
Herzegovina. This will also reduce the overall requirements for the 
Reserve component in our theater.
North Atlantic Treaty Organization Operations
    History will show 2003 to have been a watershed year for the NATO 
Alliance. Contrary to some who claim that the best years are behind it, 
NATO demonstrated this past year its new vision for confronting 
security threats in a global context. Following the guidance of the 
2002 Prague Summit, NATO began a fundamental transformation program at 
a pace that has surprised even the most cynical observers. During 2003 
alone, the alliance conducted no less than five major and highly 
successful operations, most of them simultaneously.
    Stabilization Force
    In Bosnia Herzegovina, SFOR made significant progress toward 
completing its military tasks under the Dayton Peace Accords. With the 
Bosnians making important progress in reforming their military and 
disarming, the alliance has continued its drawdown of forces. As of 
April 1, the U.S. troop contribution will be 1,050 of the nearly 10,000 
troops currently in SFOR. Discussions are currently underway with the 
European Union (EU) to transition to a policing mission by year's end.
    As the SFOR mission draws to a conclusion, U.S. numbers are 
projected to decrease to a smaller number of personnel to support a 
stay-behind NATO headquarters element, to maintain a ``warm base'' (TF 
Eagle), and to continue our successful Persons Indicted For War Crimes 
(PIFWC) efforts. Recently, our international operations to apprehend 
PIFWCs were fundamentally restructured. PIFWC detention operations 
continue to be one of the great under recognized success stories of our 
mission in the Balkans. Of the more than 120 people indicted by the 
International Criminal Tribunal for Yugoslavia, 93 have appeared before 
the Tribunal, 21 remain at large today, and the remainder have died 
from a variety of causes.
    Kosovo Force (KFOR)
    NATO's KFOR continues in its mission to provide security in the 
region, as well as in assisting the United Nations (U.N.) Interim 
Administration in Kosovo. NATO's troop strength was reduced to 17,730 
in 2003 with U.S. forces contributing nearly 12 percent (2,010) of the 
personnel. NATO will conduct Periodic Mission Reviews to assess future 
force requirements in Kosovo. It may be possible to transition to a 
Deterrence Presence profile in KFOR during 2004, which may allow the 
U.S. to reduce troop strength to around 800, but this is a decision for 
the North Atlantic Council (NAC).
    Operation Concordia
    This operation in the Former Yugoslav Republic of Macedonia, which 
was the EU's and NATO's first collaborative effort, came to a 
successful conclusion in 2003. The success of this mission demonstrated 
that NATO-EU military collaboration in an embedded EU planning cell at 
Supreme Headquarters Allied Powers Europe is a good thing.
    International Security and Assistance Force
    NATO began its most ambitious operation, ISAF in Afghanistan, in 
response to a U.N. Security Council Resolution in August 2003. The 
deployment of nearly 6,000 NATO and non-NATO troops to Afghanistan 
represents the first combined force global deployment for the Alliance. 
On 30 December 2003, ISAF expanded its mission and assumed command of 
the German-led Provincial Reconstruction Team (PRT) in Konduz, a 
province in northern Afghanistan. The North Atlantic Council has 
subsequently approved a Concept of Operations (CONOPs) for the gradual 
expansion of the ISAF mission to include a greater number of PRTs. A 
full Operations Plan, based on this approved CONOPs, was submitted to 
the International Military Staff at NATO Headquarters in late February 
2004. NATO's assumptions of this mission, the deployment of these 
forces to Afghanistan, and ISAF mission expansion in the near future 
are all physical manifestations of the Alliance's recognition of its 
responsibility to engage in security challenges outside its traditional 
area.
    Operation Active Endeavour
    This is NATO's maritime interdiction operation in the Mediterranean 
Sea and is contributing significantly to the global war on terrorism. 
Beginning in 2001 as part of NATO's Article V response to the 11 
September 2001 attacks, Operation Active Endeavor has produced the most 
comprehensive maritime surveillance picture in the Mediterranean in 
years and has proven to be extremely successful in interdicting 
criminal and terrorist activities that use the Mediterranean as a sea 
line of communication. It is conceivable that Operation Active 
Endeavor's maritime interdiction operation could be extended into the 
Black Sea.
    Operation Display Deterrence
    In February 2003, NATO conducted Operation Display Deterrence, an 
Article IV mission, in response to Turkey's request for NATO's 
assistance to deter an attack from Iraq.\1\
---------------------------------------------------------------------------
    \1\ Article IV states that ``The Parties will consult together 
whenever, in the opinion of any of them, the territorial integrity, 
political independence or security of any of the Parties is 
threatened.''
---------------------------------------------------------------------------
    Operation Iraqi Freedom
    In addition to NATO missions, the Alliance provided assistance to 
the member countries that deployed forces to Iraq in support of OIF. 
NATO provided assistance to the lead nation, Poland, as well as to 
Spain, Hungary, other NATO nations, and several non-NATO members that 
deployed forces for this important mission.
    Air Policing
    Finally, NATO is planning for a modernized and expanded air 
policing and air defense mission, the goal of which is to extend the 
alliance's air defense coverage to member and soon-to-be member nations 
who currently do not have the capability to provide it for themselves. 
Regardless of the eventual course of action, NATO should adopt a 
comprehensive solution that covers all 26 member nations in the defense 
of their airspace and fulfills the alliance's Article V 
responsibilities.
    Operationally, NATO is the busiest it has been in its 50-plus year 
history. The alliance has deployed more than 22,000 personnel to the 
Balkans, over 2,600 to Operation Active Endeavour, and nearly 6,000 to 
Afghanistan under the NATO flag. While not a NATO mission, NATO member 
nations have also deployed more than 17,000 personnel in Iraq in 
support of OIF. Training, interoperability and past operations and past 
operations through the alliance enhanced the coalition's mission.
      iii. united states european command and nato transformation
    In light of the ever-evolving international security environment 
and newly emerging threats, both EUCOM and the NATO Alliance have 
embarked upon a process of comprehensive transformation to better 
prepare both organizations to face today's transnational threats. The 
current strategic environment demands we find ways to maximize our 
effect, working both unilaterally and with our allies. We are 
participating in a deliberate process requiring study, in-depth 
consultation and focused prioritization. As we transform we will 
continually review our progress and the metrics by which our 
requirements are determined. Our transformations must be tailored to 
meet not only the threats of today and tomorrow, but those we will 
confront in the years ahead. EUCOM and NATO transformation efforts are 
inextricably linked and will have complementary and reinforcing 
effects.
U.S. European Command Transformation
    Three Areas of Focus
    EUCOM was extremely active in 2003 as it contributed to the global 
war on terrorism, to include providing support for the war in Iraq, and 
engaging with our allies to improve security cooperation efforts, and 
working a number of bold new initiatives to transform our presence in 
the theater. Over the past year, EUCOM has emphasized three areas 
important to transformation. First we continued the reduction and 
realignment of ``legacy'' infrastructure, which was better suited to 
support Cold War requirements. Second, we reassessed the manner in 
which our forces are deployed and assigned to this theater from the 
United States. This included the reorientation of our forces toward the 
southeast and south to more suitably reflect EUCOM's expanding 
strategic responsibilities. In addition to being joint, agile, 
sustainable, and highly mobile, future forces operating in our region 
will be a combination of both permanently based and rotational units. 
Finally, EUCOM has adopted operational concepts which capitalize on 
innovation, experimentation, and technology in order to develop a force 
that can achieve a greater strategic effect. Simply put, the 
traditional military principle of ``mass'' no longer equates to 
commitment or capability. We will continue to re-tailor our forces 
based on an expeditionary model much better suited to meet the demands 
of the 21st century.
    Basing Concepts
    Essential to achieving this strategic effect are the development of 
basing and force manning models that develop the principles of an 
expeditionary philosophy. To achieve the first, we envision a series of 
smaller forward operating bases (FOBs) and forward operating locations 
(FOLs) strategically located throughout the AOR. Such bases will be 
anchored to several existing Joint Main Operating Bases (JMOBs), which 
are of enduring strategic value and remain essential to theater force 
projection, throughput, and sustainment. Pre-positioned war reserve 
material at Joint Prepositioned Sites (JPS) will augment this basing 
plan by allowing units to ``fall in'' on essential equipment that will 
capitalize on the strategic advantage of being an ``ocean closer'' to 
engagement, influence, and conflict. JPS also present the added 
benefits of significantly reducing the requirements placed upon an 
already overburdened strategic transportation system. They allow for 
the extension of the range and effect achievable by FOBs and FOLs 
through augmentation with the logistical support of selected 
prepositioned sites. This new basing plan, together with the strategic 
positioning of JPS, will help effectively posture our forces, in order 
to counter current and future threats.
    Operational Concepts
    EUCOM is working with the Office of the Secretary of Defense (OSD), 
the Joint Staff, the Service secretariats, the military departments, 
and EUCOM's Service components in developing a viable plan to meet the 
security challenges of the 21st century. Changes proposed in our 
transformation plan represent a dramatic shift in EUCOM's operational 
concepts in support of an overarching global strategic realignment of 
U.S. forces. The United States' level of interest, commitment, and 
military capability resident in this theater should no longer be 
measured exclusively by the number of troops permanently based in 
Europe. The new measure will be based on strategic effect by the 
effective application of the combination of both forward basing and 
rotational presence.
    Efforts to realign our basing concepts and our force capabilities 
will revolve around implementing a strategy more reflective of the new 
security environment and our national interests. Power projection 
platforms and operating bases will be located in such a manner as to 
compensate for finite limitations of strategic air- and sea-lift 
assets, and they will capitalize on the utility of existing bases, and 
our ability to pre-position needed military equipment and stocks. The 
analysis and planning leading to the transformation of EUCOM's 
strategic footprint will yield important results in future years as we 
continuously refine and implement the STT plan.
    As EUCOM shapes the theater with FOBs and FOLs to facilitate the 
projection of U.S. military power within and beyond the AOR, we will 
maintain leadership within NATO and across the AOR that is credible and 
capable. This is a function of both force positioning and the provision 
of transformed, expeditionary, joint capable, and ready forces. These 
forces will be characterized by increased deployability and tremendous 
agility, responsive across the full spectrum of joint and combined 
operations. The presence of a genuinely transformational force 
stationed in Europe will measurably enhance EUCOM's capacity to 
energize NATO's transformation and to garner support among NATO allies 
for an expanded role in the global war on terrorism. It will 
demonstrate our commitment to them through usable, transformed, and 
versatile military forces.
    Efficient Basing Granfenwoehr
    A pillar of our transformation is our world class Joint 
Expeditionary Training Center at Grafenwoehr and Hohenfels in Germany. 
Situated in the heartland of Europe, this ``center of excellence'' 
places the United States on the ``high ground'' to lead a transformed 
NATO in the global war on terrorism. It is in close proximity to our 
NATO partners, NATO aspirants, and Partnership for Peace (PFP) nations 
and consists of the finest set of firing ranges and maneuver training 
areas available to U.S. and NATO forces today.
    In particular, the Center's six sophisticated, urban training sites 
are embedded within a sizeable maneuver area with realistic non-English 
speaking civilians representing diverse ethnic groups which more aptly 
simulates the environs in which our soldiers will operate. Training in 
the tactics, techniques, and procedures for in urban warfare, stability 
operations, and other global war on terrorism-related operational 
requirements greatly enhances our interoperability with our NATO 
partners. The Grafenwoehr expeditionary training site has been 
instrumental in training our forces for a variety of combat and 
peacekeeping tasks essential to our success in the Balkans, Liberia, 
and the global war on terrorism, most notably in Iraq. Further, as a 
JMOB, the training center provides a world class power projection 
platform, capitalizing on the advanced European transportation 
infrastructure and existing status of forces agreements to deliver 
forces to contingency areas through EUCOM and into the CENTCOM AOR.
    As we engage in our transformation efforts, we must be mindful of 
the impact these actions will have on our most important asset--our 
people. EUCOM is accountable to servicemembers and their families, from 
whom much has been asked, and who have sacrificed greatly as the 
theater posture is adjusted. Regardless of the course of action that is 
ultimately selected, we will implement reforms in a manner that takes 
into account the quality of life of our families, both military and 
civilian alike.
NORTH ATLANTIC TREATY ORGANIZATION TRANSFORMATION
    NATO Command Structure
    The alliance, while extensively engaged in international security 
matters, is also simultaneously undertaking the most significant 
transformation in its history. At the Prague Summit in November 2002, 
NATO members agreed to undertake many significant changes. The first of 
these was the streamlining of the NATO command structure. During this 
past year, the alliance deactivated Allied Command, Atlantic; activated 
the Allied Command, Transformation (ACT); and renamed Allied Command 
Europe as Allied Command, Operations (ACO). Additionally, NATO 
identified 12 subordinate regional headquarters for eventual 
deactivation, a process that will occur over the next several years, 
but one that is already underway. The last significant change to the 
NATO command structure will be the activation of the alliance's third 
joint headquarters, Joint Headquarters West (JHQ(W)) in Lisbon in March 
2004, which will serve as the headquarters for a sea-based combined 
joint task force. This headquarters, along with JHQ North in Brunssum, 
The Netherlands, and JHQ South, Naples, Italy, will exercise command 
and control over the NATO Response Force on a rotational basis.
    NATO Response Force
    Perhaps the most important initiative emerging from the Prague 
Summit was the decision to create the NATO Response Force, a truly 
transformational capability that will give the alliance significant new 
military capabilities. For the first time in its history, NATO will 
have a trained and certified, standing, integrated force of sea, land, 
air, and special operations components under a single commander. The 
Very High Readiness element of the NATO Response Force will have the 
capability to begin deployment within 5 days and will be able to 
sustain itself for up to 30 days.
    NATO inaugurated the ``proof of concept'' initial capability of the 
NATO Response Force on October 15, 2003, and held its first live field 
training exercise, Allied Response 2003, in November. The exercise 
involved over 1,000 personnel, 21 aircraft, and 3 ships from 12 
nations, demonstrating the interoperability and expeditionary 
capabilities that exist today.
    The first two NATO Response Force rotations are purposefully 
designed to be smaller and more limited in scope in order to facilitate 
the development of necessary doctrines, training and certification 
standards, operational concepts, and readiness reporting criteria and 
systems.
    The NATO Response Force will achieve Full Operational Capability no 
later than October 2006 and will provide NATO with a capability of 
responding with a military force during the ``Deterrence Phase'' of a 
developing crisis. This force will have a range of operational 
capabilities that can be used across the spectrum of conflict--rapidly 
and sequentially. While the NATO Response Force will have the 
capability for high intensity operations if required, it will also be 
available to conduct humanitarian operations, peacekeeping/peace 
enforcement, and forcible entry operations. It will also be capable of 
conducting simultaneous operations.
    The creation of the NATO Response Force is significant beyond the 
fielding of an important new military capability. It represents a 
manifestation of the alliance's commitment to change in order to better 
confront the emerging threats of this new century. In creating this 
force, the alliance advanced the NATO Response Force from concept to 
physical reality in less than a year. Such rapid and comprehensive 
change is virtually unprecedented in the alliance, and provides a basis 
for increased optimism for the future.
    While challenges in the area of Combined Joint Statement of 
Requirement (CJSOR) shortfalls and defining the best command and 
control structure currently exist, it is clear that the NATO Response 
Force is the centerpiece for alliance military transformation and 
operational capability in the new security environment. The NATO 
Response Force is truly the transformational vehicle for NATO's 
military capability in the 21st century, and is worthy of our most 
focused support.
    Statement of Requirements
    Another key initiative that will likely pay an important dividend 
is the full definition of NATO's military requirements for the 21st 
century. This will allow member nations to base the construction of 
their own force structure on what is needed to support the alliance. 
This statement of requirements will go a long way toward ensuring the 
alliance's transformation in the future.
    Noncommissioned Officer (NCO) Development Program
    The final major initiative emerging within the alliance during 2003 
was the creation of an NCO Development Program and the establishment 
and installation of the first senior noncommissioned officer for ACO. 
This position was created in order to provide NATO members, invitees, 
and partner nations with a resource to transform and rebuild their own 
noncommissioned officer corps and enlisted force, should they choose to 
do so. The many and diverse changes in NATO signal a tectonic shift 
that has already contributed significantly to our mutual security 
interests.
    Partnership for Peace
    NATO is also reexamining a number of programs related to its 
numerous bilateral relationships. It is only appropriate that I mention 
that this year marks the 10th anniversary of the NATO-led PFP Program. 
This highly successful program has produced seven new NATO members who 
will accede into the alliance this year. An example of how the 
relationships formed in PFP have paid great dividends for both the 
alliance and the U.S. is the ongoing use of important facilities in 
several PFP countries in the global war on terrorism. Now is the time 
to seek a revitalization of PFP. At the core of current NATO thinking 
on PFP adaptation is an interest in refocusing it both geographically 
and functionally, shifting geographical emphasis to Central Asia, the 
Caucasus, and the Mediterranean Dialogue nations and shifting 
functional emphasis to institution building, reform, and 
interoperability.
    PFP's transformation cannot be achieved in isolation from alliance 
transformation objectives and processes, U.S. national security 
priorities, ACO's objectives, and the national and regional security 
priorities confronting nations today. Refocusing PFP on the new 
missions, new tasks, and new capabilities of the alliance in response 
to new threats challenging the international community is critical to 
its successful evolution. Any PFP adaptation should reduce the 
capability and interoperability gap between the allies, increase the 
availability of ``useable forces'' and strengthen potential coalition 
military capabilities. NATO's core objective is to establish in PFP the 
appropriate focus, priorities, exercises, and supporting activities to 
ensure that it produces operationally effective partners for NATO-led 
Crisis Response Operations and NATO Response Force actions.
    NATO-Russia Interoperability Program
    This program, initiated in May 2003, has changed the character of 
the overall traditional NATO-Russia military-to-military program. 
Focused on the objective of establishing permanent interoperability, 
NATO and Russia have implemented 21 activities in 2003 and 35 more are 
scheduled for 2004. Logistics, strategic lift, and theater missile 
defense activities will also be included in the focus of work with 
Russia this year. Russia has returned to PFP and NATO welcomes a 
renewed relationship under development with the Russian General Staff 
and its Main Operations Directorate.
    NATO-Ukraine
    Another important bilateral affiliation is the NATO-Ukraine 
relationship. Ukraine's progress in the implementation of its 
Membership Action Plan was noted by the Foreign and Defence 
Ministerials in Brussels in December 2003. The strategic relationship 
with Ukraine is a central focus of the ACO. Ukraine's role in the PFP 
Program, troop contributions to KFOR, and its troop commitments to OIF 
are significant and are to be commended.
    NATO's leadership has laid the groundwork for its successful 
transformation. The clear military guidance given at the 2002 Prague 
Summit has set the path. Some of these initiatives are as ``simple'' as 
opening dialogues and establishing agreements. Other initiatives come 
with a price tag. It is incumbent upon the alliance to ensure the 
necessary resources are applied to make concepts realities.
             iv. requirements for strategic implementation
    The quality of EUCOM's infrastructure has a profound impact on all 
operations, training and security cooperation activities, as well as 
the quality of life of servicemembers. Given this fact, and the current 
state of our facilities, infrastructure investment and maintenance is 
the most critical funding requirement. Key theater investment 
requirements must be met for infrastructure investment, family housing, 
``en route'' infrastructure, anti-terrorism force protection, theater 
command, control, communications, and computers (C\4\) modernization, 
and intelligence, surveillance, and reconnaissance (ISR) requirements, 
as well as quality of life programs.
Theater Infrastructure
    Our most important program in USAREUR is Efficient Basing 
Grafenwoehr, which focuses on structuring forces and basing facilities 
to be best postured for training and responding to current and emerging 
threats in the greater Middle East and Africa.
    Efficient Basing Granfenwoehr is an initiative to enhance 
readiness, gain efficiencies, and improve the well being of 3,500 
soldiers and 5,000 family members by restationing a brigade combat team 
from 13 installations in central Germany to a single location at 
Grafenwoehr, Germany. This initiative began in earnest with the 
approval and appropriation of $25 million for planning and design in 
fiscal 2001; construction began in fiscal 2003 with appropriation of 
$69.9 million and was followed by $88.1 million in fiscal 2004. An 
additional $77.2 million is budgeted for this program in fiscal 2005. 
It is our intent to complete the program in fiscal 2006 at a total cost 
of $629.2 million. This major program supports the future strategic 
footprint in the theater and will maintain the Grafenwoehr, Hohenfels, 
and Vilseck areas as key installations as part of a future JMOB. This 
``world class'' and unique training facility located in southern 
Germany offers realistic field training opportunities that have given 
United States forces an incomparable advantage in combat operations 
over the last two decades.
    In fiscal 2003, EUCOM identified 13 installations in the Giessen 
and Freiberg area for closure. As this process concludes in 2005 and 
these 13 bases are returned to the host, it is imperative to keep the 
Efficient Basing Grafenwoehr program intact and on track. Given its 
enduring nature as a JMOB, the planned improvements and enhancements to 
facilities and infrastructure at Grafenwoehr will be central to all 
potential manifestations of EUCOM future basing strategies.
    The return of Rhein Main Air Base to German authorities, scheduled 
for completion in 2005, gives further impetus to the continuing need 
for a military construction (MILCON) program designed to upgrade the 
operational capability at both Ramstein and Spangdahlem Air Bases. 
These upgrades to vital theater transportation nodes are essential for 
EUCOM to be able to sustain the level of strategic throughput required 
to support OIF and other global contingencies and operations.
    USAFE is also continuing its efforts to consolidate its 
geographically separated units throughout the theater at its enduring, 
major operating bases. Similarly, NAVEUR is proceeding with its 
recapitalization plan for Naples, Sigonella and Rota. In coordination 
with SOCEUR is exploring potential joint basing options for the SOF 
stationed in-theater. This will provide EUCOM greater crisis response 
capabilities, enhance joint training opportunities, and more 
effectively position assets for use in likely areas of employment. 
Joint basing will become a way of life throughout the European theater. 
This concept will continue to be developed as our transformation plan 
moves forward.
    EUCOM appreciates the efforts of Congress to provide for the 
sustainment, restoration, and maintenance of existing facilities, as 
well as for new military construction. The very successful use of the 
``build-to-lease program'' to recapitalize family housing throughout 
the theater has substantially decreased our military construction 
requirements, but the need for the renovation of existing housing still 
accounts for almost 30 percent of EUCOM's request for such funding. We 
will not invest resources in housing we anticipate closing in the near 
future except for ensuring maintenance and quality-of-life standards.
    ``En route'' infrastructure for mobility forces passing through 
this theater remains important for U.S. global operations. EUCOM 
continues to manage this requirement closely in partnership with 
CENTCOM and the U.S. Transportation Command through the European En 
Route Infrastructure Steering Committee. The Committee is seeking 
innovative solutions to identify and rectify potential shortfalls in 
order to provide the flexibility and capacity required to support any 
mission to any location within or through this theater. EUCOM's goal is 
to co-locate NATO infrastructure capability at bases where there is 
already a U.S. presence when it makes good sense to do so. By ensuring 
that U.S. and NATO infrastructure programs are coordinated and 
complementary, an overall reduction in construction costs to both the 
U.S. and the alliance can be achieved, while efficiency and 
effectiveness of operations are simultaneously increased.
Family Housing
    EUCOM has begun to make the significant investments needed over the 
next decade to enhance our support infrastructure and to take care of 
our people. Service members and their families see the positive trends 
in infrastructure and are grateful to Congress for providing the 
funding needed to make this possible. However, a great deal of the 
theater's infrastructure remains inadequate and too many servicemembers 
continue to live and work in dilapidated facilities spread over 
inefficient, geographically separated installations.
    The well-being of our military families is linked to readiness, 
retention, reinforcement of core values, and mission accomplishment. 
The quality of work and the on time completion of the single and family 
housing renovations are impressive. The DOD-wide goal is to eliminate 
substandard housing by 2007. While the NAVEUR will meet this goal, the 
USAFE and USAREUR are projected to complete the goal by 2009. Funding 
to accomplish this for servicemembers and their families continues to 
be a critical element in attracting and retaining the high caliber 
personnel who make the U.S. military the best in the world.
Force Protection
    EUCOM continues to enhance its force protection posture through 
physical site improvements at its installations and improved 
intelligence operations with coalition partners and law enforcement 
agencies. Our emphasis on public awareness, training, physical security 
upgrades and formal agreements with U.S. State Department clearly 
delineates force protection responsibilities for DOD personnel 
throughout the theater.
    During the past year, EUCOM's service components have made 
considerable improvements to their overall force protection posture. 
NAVEUR was able to employ waterside barrier systems at their primary 
ports. The Department of the Army funded seven Large Vehicle Cargo 
Inspections Systems for USAREUR. USAFE successfully obligated $14.2 
million in Defense Emergency Relief Funding for force protection 
projects. In addition, EUCOM received $3.1 million from the fiscal 2003 
Combating Terrorism Readiness Initiatives Fund (from the Chairman of 
the Joint Chiefs of Staff) to meet emergent antiterrorism needs at 
several installations. It is imperative we continue to adequately 
resource these critical force protection manpower and security 
requirements to enable EUCOM to meet the many challenges of the future 
and to effectively protect our personnel and facilities.
Theater Command, Control, Communications, and Computers Modernization
    Network-Centric Warfare and Information Superiority operations in 
EUCOM's Network Battlespace require continued progress in C\4\ 
modernization. We will embrace those advances in C\4\ capabilities 
derived from DOD-sponsored joint programs such as Teleport, Global 
Information Grid Enterprise System and the Mobile User Objective 
System. With Congress' help, focused attention on single integrated 
strategic and tactical architectures, DOD programs, and our own 
strategic transformation initiatives, EUCOM can provide the requisite 
networks needed to improve interoperability.
Intelligence, Surveillance, and Reconnaissance
    EUCOM continues its work to establish an integrated ISR capability 
to increase the likelihood of detecting, tracking, and interdicting 
asymmetrical threats. EUCOM needs an increase in ISR assets--from 
indications and warning to battle damage assessment--coupled with more 
robust analytical resources, to prosecute the global war on terrorism 
and to provide ``forward homeland security.'' Improved collection 
capabilities for JTF commanders and multinational forces should include 
broad area search and surveillance platforms with extended loiter 
capability that are both survivable and stealthy. This ``persistent 
ISR'' must have the ability to continuously gather intelligence from 
the modernized signals used in global networks, as well as a capability 
to collect electro-optical, infrared, and radar imagery.
    Interoperability is crucial to leverage the information collection 
of NATO and non-NATO partners and to augment theater human intelligence 
(HUMINT) capabilities with those from the DOD and the Central 
Intelligence Agency (CIA). Sufficient capabilities in this regard are a 
major focus of the EUCOM Integrated Priorities List and the Joint 
Quarterly Readiness Review reports.
    As EUCOM continues its transformation, there will be an increased 
requirement for theater intelligence assets and national technical 
means to acquire information across all intelligence disciplines. EUCOM 
is appreciative of Congress' continued support of its intelligence 
requirements. We will invest funding in defense intelligence 
transformation efforts and programmatic shortfalls in intelligence core 
mission capabilities. Our highest intelligence priority remains having 
sufficient numbers of well trained personnel with human intelligence 
and language expertise, in order to support our counterterrorism 
analytical efforts.
Quality-of-Life Programs
    Our most precious resources, servicemembers and their families are 
our number one combat multiplier. The excellence of our force is the 
direct result of our concentrated and sustained commitment to their 
quality of life. Our military communities must be resourced to provide 
a strong and predictable capability to support the necessary 
infrastructure, housing, schools, health care, child care, family 
support, and community services needs of servicemembers and their 
families.
    We urge Congress to favorably consider three quality-of-life 
projects that support Efficient Basing Grafenwoehr; construction of the 
elementary school ($36.2 million), Vilseck High School renovation ($9 
million), and the Dispensary Dental Clinic ($13 million).
    In our quality-of-life strategy, we stress that our forward 
deployed forces, their spouses and children deserve a fair compensation 
system, good places to live, quality educational opportunities, 
meaningful work, challenging off-duty opportunities, and access to 
quality health care. We are aggressively pursuing a series of 
initiatives designed to help improve the employment and career 
educational posture for our families. Chief among them is the continued 
improvement of educational opportunities for our family members and 
efforts to enhance spouse career development opportunities.
    The quality of DOD's dependent education programs ranks very high 
in determining the quality of life of our servicemembers and our 
civilian personnel. We are very proud that this system is recognized as 
a benchmark for other public school systems. EUCOM is grateful that 
Congress provides the support to enrich our children with such great 
opportunities. These schools, with nearly 48,000 students, need your 
continued support and funding to ensure high educational standards are 
maintained.
         v. united states european command strategic resources
    Theater Security Cooperation (TSC)
    Within EUCOM, we have a variety of resources, programs, and 
policies available to aid us in developing and implementing our TSC 
strategy. The value of these strategic resources cannot be overstated. 
Our TSC implementation plan is derived from the Secretary's Security 
Cooperation Guidance and is specifically designed for our theater. 
Security cooperation builds and nurtures relationships that protect 
U.S. strategic interests, enhance allied and ``friendly'' capabilities 
for self-defense and coalition operations, and provide for peacetime 
and contingency access and ``en route'' infrastructure.
    Since September 11, 2001, the vast majority of the 93 nations in 
the EUCOM AOR have offered or provided intelligence, basing access, 
over-flight rights, forces, and equipment, as well as other forms of 
support, to our efforts in the global war on terrorism. The degree of 
support EUCOM received from our allies is directly related to the 
effort and attention given to the security cooperation program.
    EUCOM's strategic vision is best achieved in concert with allies, 
partners, and friends. Security cooperation efforts in-theater include 
working with many nations throughout the AOR in a variety of programs. 
We are increasingly working in Africa to improve intelligence, 
peacekeeping capabilities, and overall regional stability. We are 
increasing military cooperation with Russia, and developing new 
relationships with countries of the Caucasus and Caspian regions. These 
efforts have protected and strengthened important U.S. economic and 
security interests, while assuring our European allies that the U.S. 
remains committed to European security and to the alliance.
    Within our TSC strategy are several security assistance programs 
that are vital to implementing foreign policy guidance and attaining 
national security objectives. They promote interoperability with U.S. 
forces and help build professional, capable militaries in friendly and 
allied nations. EUCOM supports military security cooperation in 
partnership with 43 Offices of Defense Cooperation and 72 Defense 
Attache Offices. EUCOM's chief programs include:

        <bullet> Foreign Military Financing (FMF) provides critical 
        resources to assist nations without the financial means to 
        acquire U.S. military goods, services, and training and access 
        to U.S. expertise in defense restructuring and management. It 
        is an essential instrument of U.S. influence.
        <bullet> International Military Education and Training (IMET) 
        and Expanded IMET (E-IMET) provide educational opportunities 
        emphasizing and reinforcing civilian control of the military 
        and promote domestic stability in a region where armies are 
        often the principal organizing institution in society. These 
        are some of the most prominent and effective tools the U.S. 
        possesses to advance the principles of responsible governance, 
        to provide stability to newly-formed democracies, and to imbue 
        militaries with the importance of the civil-military 
        relationship. IMET also enables military-to-military 
        cooperation and interoperability, which enhances our ability to 
        assemble and operate as part of a coalition.
        <bullet> Foreign Military Sales (FMS) demonstrate the continued 
        primacy of trans-Atlantic defense relationships to U.S. 
        security interests. FMS encourage interoperability between 
        forces within EUCOM's AOR, help modernize the militaries of new 
        friends and partners, and assure a strong U.S. presence in the 
        development and implementation of the Prague Capabilities 
        Commitment.
        <bullet> Joint Combined Exchange Training (JCET) exercises are 
        small, low cost, and low visibility exercises that are 
        essential to keeping regionally aligned SOF trained in mission 
        essential tasks, and are an indispensable tool that enhances 
        EUCOM's TSC strategy. JCETs are uniquely tailored with 
        personnel (ranging from 12-250) who possess certain skill sets, 
        along with special equipment that is focused on a particular 
        region to accomplish a prescribed mission or task. SOCEUR 
        coordinates the JCET program for EUCOM. We have conducted as 
        many as 50 JCET exercises in a single year. This year we plan 
        to conduct 30. JCET events focus on the global war on terrorism 
        and enable the U.S. to build the intelligence required to find 
        and fix terrorist targets. Other important aspects of our TSC 
        strategy are the training and educational programs that are 
        available through the George C. Marshall European Center for 
        Security Studies; the Africa Center for Strategic Studies; the 
        Near East-South Asia Center for Strategic Studies; the NATO 
        School; the African Contingency Operations and Assistance 
        (ACOTA) program.
        <bullet> The George C. Marshall Center continues to be one of 
        EUCOM's most important security cooperation assets for 
        achieving U.S. goals and objectives with other nations. The 
        Marshall Center mission is to create a more stable security 
        environment by advancing democratic defense institutions and 
        relationships, promoting active, peaceful, security 
        cooperation, and enhancing enduring partnerships among the 
        nations of America, Europe, and Eurasia. The Center is crucial 
        to building trust and confidence with the civilian and military 
        leaders of more than 50 nations within our AOR. To date, over 
        3,000 graduates and 10,553 non-resident participants have been 
        influenced by the center, allowing the United States to build 
        successful coalitions in the global war on terrorism. More than 
        169 graduates of the Marshall Center hold key positions as 
        ministers of defense, service chiefs, cabinet officials, 
        ambassadors, flag officers, and parliamentarians. This growing 
        network is an investment that is reaping valuable dividends in 
        stability, security, and cooperation.
        <bullet> The Africa Center for Strategic Studies continues to 
        provide a series of seminars, symposia, conferences, and 
        outreach programs designed to promote stable governance and 
        democratic values in the African defense and security sectors.
        <bullet> The Near East-South Asia Center for Strategic Studies 
        conducts executive and senior executive seminars to foster 
        professional defense planning and the function of a military 
        establishment in a pluralistic society. Israeli, Tunisian, 
        Algerian, Moroccan, and Mauritanian military personnel 
        participate.
        <bullet> The NATO School is a EUCOM-supported activity in 
        Oberammergau, Germany, under the operational control of the 
        Allied Command, Transformation. Its primary mission is to 
        conduct courses, training, and seminars in support of NATO 
        strategy and policy, including cooperation and dialogue with 
        military and civilian personnel from non-NATO countries.
        <bullet> ACOTA, formerly known as the African Crisis Response 
        Initiative (ACRI), is a Department of State program supported 
        by EUCOM. The program develops indigenous military trainers and 
        equips African national militaries to conduct peace support and 
        humanitarian relief operations. The program's goal is to 
        increase the capabilities of these militaries in areas such as 
        human rights, their interaction with civil society, 
        international law, military staff skills, and small unit 
        operations. Elements of a Ghanian Brigade, which completed 
        staff training last year, is currently deployed to the Congo 
        where it is currently participating in a peacekeeping 
        operation. As additional countries in Africa receive training 
        under the ACOTA program, regional member nations will acquire 
        new capabilities to enhance regional stability. This year 
        Senegal, Botswana, Zambia, Mali, Malawi, Benin, and Mozambique 
        are scheduled to participate in the ACOTA training program.

    State Partnership Program
    This program assists partner nations in making the transition from 
authoritarian to democratic governments. This program, administered by 
the National Guard, matches emerging democracies in the EUCOM theater 
with partner states in the U.S. There are currently 23 U.S. states 
partnered with 21 foreign nations. The State Partnership Program has 
been so successful that DOD has approved establishing new partnerships 
and is funding an expansion of the program to Africa, beginning with 
South Africa and Morocco. Although the challenges faced by African 
nations differ considerably from those of Eastern Europe, many are 
ready for the opportunity that this program provides. For a modest 
investment, candidate nations receive access to the expertise of an 
entire American State government infrastructure, from public health to 
wildlife management. The impact is inspiring.
    Interagency Coordination
    Today's asymmetrical threats demand a new emphasis on interagency 
coordination. Coordination among U.S. Government agencies, especially 
those with skills in law enforcement and financial asset investigation, 
along with allied forces, nongovernmental and private voluntary 
organizations, and regional and international organizations is vital to 
our strategic efforts in our theater. As the security challenges facing 
our Nation grow in complexity and diversity, there is an increasing 
requirement to bring together different skill sets to better inform 
leaders and establish new perspectives so that our capabilities can be 
maximized to their greatest potential.
    Joint Interagency Coordination Group for Counterterrorism (JIACG-
        CT)
    In keeping with the Secretary of Defense's guidance, EUCOM has 
established a JIACG-CT in order to synchronize and coordinate EUCOM and 
interagency activity in the global war on terror and in our strategic 
plan for the region. Our JIACG-CT facilitates communications among the 
various agencies, contributing immeasurably to our understanding of and 
our efforts to contain proliferation, illegal immigration, and 
narcoterrorism. The JIACG, as the staff coordination entity for 
interagency representatives, allows EUCOM to rapidly access non-DOD 
agency information and operations in the integrated execution of 
national policy. The JIACG also maintains contact with embassy legal 
attaches while counterintelligence, analytical, operational, and policy 
staffs collaborate with their DOD and non-DOD counterparts in our 
missions. Additionally, the EUCOM intelligence staff, in coordination 
with the DOD Counterintelligence Field Activity (CIFA), co-sponsors 
liaison officers at INTERPOL Headquarters in Lyon, France, and in the 
U.S. national office.
    Joint Analysis Center (JAC)
    The JAC at Royal Air Force Base Molesworth in the United Kingdom is 
an irreplaceable asset as the theater intelligence analysis center. The 
JAC operates 24-hours a day, 7 days a week fusing critical elements of 
intelligence for the command. The breadth of this AOR requires a 
robust, all source intelligence capability that only a fully resourced 
JAC can provide. The JAC fully utilizes its reach back capability to 
national intelligence agencies and has well developed relationships 
with NATO members, allies, and coalition partners that allows for a 
more integrated intelligence sharing process. In addition to active 
operations in the Balkans, Africa, and the Caucuses, the JAC supported 
CENTCOM before and during OIF and continues to do so today.
    The JAC also benefits from interagency cooperation. In our AOR, 
many successful counterterrorist operations are the result of close 
cooperation and information sharing with our allies. EUCOM's 
integration of U.S. and multi-national law enforcement and intelligence 
reporting has given us insight into terrorist support infrastructure, 
recruitment, and training. EUCOM is working closely with interagency 
representatives, coalition partners, and U.S. embassy teams to further 
develop interagency plans.
    During the past year, EUCOM hosted ambassadors and defense attaches 
at several conferences in an effort to unify the interagency 
cooperation in-theater, confer on matters relating to the global war on 
terrorism, and discuss ``ways ahead'' that take full advantage of all 
the instruments of power necessary to achieve the United States' 
objectives. Such conferences underscore our commitment to develop 
broader approaches to interoperability within resources available and 
to better coordinate interagency assets.
                             vi. conclusion
    EUCOM is fully and actively engaged in a diverse and expansive AOR, 
while simultaneously supporting an adjacent theater. The challenges of 
an expanding NATO, human trafficking and drug trafficking, sanctuaries 
and transiting of terrorists, instability and ethnic diversity in 
Africa and Eurasia, and theater security cooperation initiatives--
define the environment and demand a paradigm shift in EUCOM's theater 
strategy. Today's multifaceted world requires operational capabilities 
that are more agile, mobile, responsive, and expeditionary. To achieve 
the United States' national security objectives, EUCOM is restructuring 
its theater posture and adapting its force structure and basing plan.
    As EUCOM seeks new and innovative alternatives to improve its 
operational capabilities, we celebrate the value of traditional 
relationships that have withstood the test of time. The true importance 
of the alliance and the presence of EUCOM should not be measured in 
wars and conflicts fought, but rather in ones that have been averted.
    As one looks to the future of the NATO Alliance, there is much 
cause for optimism. A great alliance should be able to do great things, 
and NATO's leadership and member nations are making the necessary 
decisions today to allow the alliance to do great things in the future. 
The NATO transformation process is making remarkable progress. While 
the NATO Response Force will continue to drive NATO transformation, 
NATO command structure realignment, as well as NATO deployments to out 
of area operations, underscores the alliance's willingness to embrace 
change in order to remain a relevant and viable security partner.
    As we undertake the necessary steps to transform the theater, we 
must be mindful of our leadership role in global affairs and cognizant 
of its responsibilities. Leadership and influence cannot be achieved 
from our distant shores alone; they must be forged through close and 
personal relationships, shared experiences, presence, and tangible 
support to time honored commitments. Our Nation earned the respect of 
the entire world when we stood side-by-side with our friends and allies 
in Europe for nearly a half century. As our interests expand, we should 
not abandon the character of a strategy that cultivated so much 
goodwill, resulting ultimately, in an historic victory. Our expanding 
alliance openly seeks both our leadership and our commitment. EUCOM's 
true value to our Nation is the uncompromising leadership we provide 
and the indispensable influence that can only be attained by our 
presence. This is also our best chance for success in fighting the 
global war on terrorism and, in bringing about a more peaceful and more 
prosperous world.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Warner. Thank you very much.
    Colleagues, we will proceed on a first round of 6 minutes 
each.
    General Jones, those of us who have had the privilege of 
being on this committee for many years recall instances when 
Senator Stennis, Senator Jackson, Senator Goldwater, and 
Senator Tower would have to rally the forces against the cry at 
home: Let us bring NATO back to the shores of the United 
States. There seems to be a little rumbling here and there on 
that score.
    Speaking for myself, I believe very strongly in the 
doctrine of forward-deployed forces. We have had a long 
association in NATO. I am not suggesting that we bring it all 
back. But even the thought, at this particular point in time in 
the war on terrorism, of making any significant reduction of 
forces concerns me greatly.
    Could you describe your assessment of this movement, and 
your own personal, professional views on the importance of 
keeping and maintaining the forward-deployed forces of NATO, 
and how the challenges of even a greater NATO role in Iraq and 
Afghanistan are coming about? I think that this is certainly 
not the time for any reassessment of that. What you recommend 
to the DOD with respect to restructuring by reducing NATO 
installations in Western Europe and putting in smaller units in 
the nations that are soon to join NATO.
    General Jones. Thank you, Mr. Chairman. I come from the 
view that forward basing is extraordinarily important. The 
lesson of the 20th century is that forward engagement has 
probably precluded as many wars as it has aided our capacity to 
fight and win them. I think all of us who wear the uniform or 
are associated with the national security are extraordinarily 
proud of the dividend that forward engagement plays.
    Not only is it strategically important because it places 
you closer to where you might have to actually use your forces, 
but equally important is what your forces do on a daily basis. 
In EUCOM we have forces deployed not only all over Europe, but 
also Eastern Europe, assisting our friends and allies in the 
transformation of their forces, teaching Eastern European 
allies who desire to have noncommissioned officer (NCO) 
structures in their forces that have been foreign to them as 
members of the former Warsaw Pact how to do that, how to train 
NCOs in our schools, how to aid some of our African friends and 
allies to better protect their borders through the small 
expeditionary teams that go and teach counterterrorism and 
antiterrorism. We develop common tactics, techniques, and 
procedures.
    I believe the United States, by virtue of its successful 
and ongoing transformation, provides for NATO a very good and 
very important example as to what can be done through the 
proper reduction of forces. Mr. Chairman, we reduced our forces 
by somewhere between 37 and 40 percent during the decade of the 
1990s, but we made them operationally more capable, more agile, 
more sustainable, and more expeditionary.
    This is the direction that NATO wishes to go. The strong 
leadership provided by the forces that are forward deployed as 
examples, as friendly partners and helpful allies, is 
extraordinarily important. The three component commanders--
Admiral Johnson, General Bell, and General Fogelsong from the 
Air Force--are all NATO commanders and as such bring their 
experience to NATO to help NATO with this very important period 
of transformation.
    It is particularly important for us to appreciate that 
because the degree of success that NATO has is going to 
significantly lighten the load that we traditionally carry 
almost by ourselves. To the extent that we achieve the goals of 
the Prague capability commitments and we help our friends and 
allies transform themselves from a very large land-based army-
centric infrastructure to more efficient, more appropriate 
force levels with great reliance on technology and the 
techniques of the 21st century warfighting, commanders like 
General Abizaid will have more forces to draw on because more 
allies will be more capable.
    It has been estimated that within the NATO Alliance in 2003 
only between 3 and 4 percent of forces are actually 
expeditionarily deployable. We seek to make dramatic changes in 
that in a very short period of time, and I have been 
extraordinarily impressed with the interest that chiefs of 
defense all over the alliance have in making their forces more 
usable.
    So the value of being forward deployed, I think, goes 
almost without saying. It is as important to our national 
security and our national interest as anything else that we do.
    With regard to Iraq, Mr. Chairman, we have received no 
tasking from NATO to prepare any military advice on how NATO 
might operate in Iraq. But I should emphasize a point that you 
made and that is that there are NATO allies who are in Iraq. 
The Polish-led multinational division received NATO help, NATO 
assistance, in making its deployment from Europe to Iraq, as 
did other NATO nations, and we are extending the helping hand 
to any nation that wishes to have that assistance in the 
future. So that will continue until I am, at least as the 
Allied Commander, I am tasked by the North Atlantic Council to 
provide military advice.
    With regard to Afghanistan, it is a different matter----
    Chairman Warner. If they were to take such action you would 
simply go out and not have to do anything more than put up a 
sign on the door saying that the units are there and it is 
structured overnight, am I not correct, as a formal NATO unit?
    General Jones. I am sorry, sir; I did not understand.
    Chairman Warner. You could structure it overnight. With the 
assets that you have in country in Iraq now, were the council 
to act formally the next morning that unit would be stood up; 
is that correct?
    General Jones. If NATO wished to act, there are several 
ways in which it could act very quickly to establish a NATO 
flag and a presence. Yes, sir, that is correct.
    Chairman Warner. My time is concluding. In Afghanistan, you 
are looking there at NATO taking over even a greater role in 
what time frame?
    General Jones. As opposed to Iraq, in Afghanistan I have 
been tasked to prepare a plan to provide more assets and more 
capability, to establish up to five PRTs within as short a time 
frame as possible. That is ongoing work as we speak. Some 
nations have stepped right up to the plate and said: We wish to 
provide a PRT.
    General Abizaid and I are in constant contact on how we 
deconflict his operation from the NATO operation. So there will 
not be a military difficulty in doing that.
    Chairman Warner. Lastly, General Abizaid, give us a little 
greater detail on the threat scenario in Iraq and what we are 
learning. There is a change in the composition of the 
individuals and to such an extent there are units that are 
working against the coalition partners, a greater emphasis on 
people coming from beyond the confines of Iraq in-country to 
participate in these actions against the coalition forces.
    General Abizaid. Senator, in November, I was fairly clear 
that the main threat in Iraq came from former regime elements 
(FREs), ex-members of the Iraqi intelligence services, the 
Republican Guard units, special security organizations, et 
cetera. After the capture of Saddam Hussein, to a certain 
extent we saw a diminishment of their activity. But they 
continue to play an important role in the insurgency that is 
being conducted in the area of Baghdad, ar-Ramadi, and up into 
Tikrit.
    On the other hand, a lot of the loyalty of the FREs seems 
to be shifting towards extremists, and certainly there are 
indications that, along with the professional terrorist groups, 
such as Zarqawi, Ansar al-Islam, al Qaeda, and others that are 
operating now in Iraq, that some of this FRE capacity is 
cooperating with them.
    In addition, we have foreign fighters that infiltrate in 
through various means. The borders are very long and, despite 
good efforts by Iraqi and coalition forces, infiltration 
continues. Most of the infiltration continues to come from 
Syria into Iraq, although a certain amount also comes from 
northern Iran into Iraq.
    But the number of actual foreign fighters that we continue 
to engage, capture, kill, et cetera, remains relatively low to 
the overall insurgent activity we see, which is primarily 
Iraqi. But I would say, Senator, that there is no doubt that 
the nature of the terrorist tactics have changed and the nature 
of the insurgency is changing. As they have become unsuccessful 
in operations against us, they have targeted what they consider 
to be the key node, which is emerging Iraqi security capacity. 
So you will see a continuing attack profile against Iraqi 
police, Iraqi leadership, Iraqi Civil Defense Corps (ICDC) 
units, et cetera, in the hope that by undermining the emerging 
Iraqi security capacity they will derail the process of moving 
towards an Iraqi transitional sovereign authority.
    Chairman Warner. Undoubtedly they are trying to incite a 
civil war type of situation. I do hope that there are no signs 
of that coming to the forefront.
    General Abizaid. I guess I am very optimistic, but I 
believe there are many more people inside Iraq trying to hold 
it together than tear it apart. There is certainly a 
possibility that things could move toward civil war. We 
certainly know that the Zarqawi network is attempting to foment 
civil war. That certainly was the motivation in the attack 
against the Shia yesterday.
    I believe that everybody understands that for a moderate 
government to move forward, to take its place in the 
international community of nations, will require a lot of 
cooperation among various groups, political and ethnic. I think 
we see in the transitional process for restoring sovereignty an 
awful lot of good cooperation among many parties.
    So I remain optimistic that, with continued security 
emphasis from coalition forces and our Iraqi partners and a 
solid political process that offers legitimate hope for the 
future, that we will be successful there.
    Chairman Warner. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    General Abizaid, we read in the paper this morning that the 
Shia in Iraq are calling for the maintenance of their own 
militias. Can you give us your opinion as to what the 
implications of that are?
    General Abizaid. Sir, ever since we have been in Iraq the 
major Shia political party, SCIRI, has been advocating the 
standup of the Badr Corps militia as a formal security force 
inside of Iraq. Of course, we did not recognize the Badr Corps 
during major combat operations in the movement phase of the 
war, and we still do not recognize them, nor do we believe that 
the standup of external militia to the established security 
organizations that are starting to mature in Iraq is a good 
idea.
    On the other hand, we have allowed Badr Corps members and 
officers to enlist in the ICDC, the Iraqi Army, participate in 
the police activities, and to informally work as parts of the 
security apparatus in some of the holy site areas around Najaf, 
Karbala, and other places up in Baghdad.
    So while we value the opportunity to bring a number of 
experienced Shia into the security apparatus of Iraq, we are 
not looking for Badr Corps units to stand up. I think it would 
be a destabilizing event because it would give the impression 
that ethnic militia are standing up and create the impression 
that they are standing up for other than strictly defensive 
measures, which would not be good for Iraq.
    Senator Levin. General Abizaid, there is a plan now to 
transfer sovereignty to some entity on June 30 or July 1. In 
your judgment, from a military perspective, how important is it 
that the transfer of sovereignty have the support of the Iraqi 
people, that the entity to which sovereignty is being 
transferred have that support?
    General Abizaid. Sir, I believe it is absolutely essential 
if we are going to be successful in Iraq. The single most 
important thing that must emerge, I believe, is a legitimate, 
sovereign authority that is viewed by the majority of Iraqis as 
representing their interests and their hopes for a better 
future. Senator Levin, we have, despite our best efforts, been 
perceived as the occupation force of Iraq and the broader 
Middle East, and it is important that we move from this period 
of perceived occupation to one of partnership.
    Partnership with a legitimate Iraqi authority with a strong 
executive core, I believe, will allow us to move forward in a 
positive direction.
    Senator Levin. General, it is my understanding that our 
senior uniformed leaders were not involved in the planning for 
the stability operations phase, so-called Phase IV, of this 
effort. I think you were director of the Joint Staff during the 
planning of the operations. Do you know whether it is true that 
our uniformed military was not involved in the planning for 
these stability operations?
    General Abizaid. Sir, there are of course many levels of 
activity that took place concerning what we called then Phase 
IV operations. There was certainly planning that went on in 
CENTCOM that I know about, that I participated in when I was 
the deputy commander there and when I was the director of the 
Joint Staff, and the Joint Staff participated in some level of 
Phase IV planning activity. But the uniformed military was 
primarily focused on operations that would require the buildup 
of the force and the conduct of the combat operation, and most 
of the activity regarding Phase IV stability planning took 
place in the Office of the Secretary of Defense (OSD), although 
the Joint Staff was represented in that.
    Senator Levin. Given the fact that violence was foreseen 
for the so-called stability operations phase, or Phase IV, is 
it your personal view that it would have been beneficial for 
professional military advice of senior uniformed leaders to 
have been sought and considered as part of the planning 
process?
    General Abizaid. Sir, it is my belief that our opinion was 
sought and was considered to a certain extent. But our focus 
was primarily on the mission at hand. I certainly believe that 
the stability operation that emerged in Iraq has not really 
surprised us, although you may find that surprising for me to 
say. Certainly there are difficulties that were not fully 
anticipated, but we never thought it would be easy, and we 
conveyed that to our leaders.
    Senator Levin. Is it your personal judgment that the 
professional uniformed leadership should have been involved in 
the planning of that phase to a greater extent than it was?
    General Abizaid. It is always difficult for a person to 
look back and say what should have been done. There are always 
things that we can do better. I am not so sure that I would say 
there should have been more uniformed work on it, but I do 
think that we as a Nation can do better in the manner in which 
we engage our entire interagency planning. The lesson that I 
would take from the planning of stability operations is that we 
have great power, and we know that these operations require 
military, economic, diplomatic activity for success, and the 
synchronization of that effort is something that we do well, 
but we should do better.
    Senator Levin. Thank you.
    My time is up. Thank you, Mr. Chairman.
    Chairman Warner. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I would like to thank both General Abizaid and General 
Jones for their service to our Nation. To me they are two 
American heroes and I am grateful for their service.
    General Abizaid, I believe we now have the largest number 
of guardsmen and reservists on active duty since World War II. 
Roughly, it will be 38 percent. Are you concerned about the 
strain on the Guard and Reserve and the consequent lack of 
retention because of the extended deployments of guardsmen and 
reservists?
    We accept that they are doing an outstanding and 
professional job. I am not talking about the job they are 
doing. I am talking about the retention of these outstanding 
men and women in the Guard and Reserves.
    General Abizaid. Senator, I think we should be concerned 
about the long-term effects on not only the Guard and Reserve, 
but also those that are active duty people, with regard to how 
long they are deployed, how long they are away from their 
family. In the Guard and Reserve it becomes even more of a 
concern because of employment concerns, although, interestingly 
enough, when I talk to them in the field, which I do 
frequently, I detect a great commitment and a tremendous amount 
of pride in what they are doing. I have not detected from them 
what I would call the warning signs that they are going to 
leave in large numbers.
    I think we have to consider this thing very carefully. I am 
also very concerned about junior officers in particular for 
both Reserve and active.
    Senator McCain. Well, I do not want to debate it, but I am 
hearing something different from the families. Again, they are 
doing a superb job. There is no doubt about that. But it is 
hard to make an argument for someone to stay in the Guard if 
they are constantly deployed on active duty. Either become an 
active member or leave. I think we will pay a very heavy price.
    I would like to address one more area with you. I am not 
sure that the members of this committee or the American people 
know exactly how things are going to work once authority is 
passed over to the Iraqi government, whatever that might be at 
that time. So let us have a for-example scenario.
    The IGC or the Iraqi government, whatever it is, is now in 
charge in Iraq. There is a violent demonstration in downtown 
Baghdad which the Iraqi police and Armed Forces, whatever they 
are, are unable to contain. Then who gives you orders, and who 
carries them out, and who decides who goes and who stays, and 
under what circumstances?
    General Abizaid. Sir, according to the language that I saw 
in the Transitional Administrative Law, it is clear that there 
is a desire by the Iraqi side, as well as the other people that 
have interests in the emergence of a stable Iraq, that the 
multi-national force commander, the coalition commander, will 
maintain operational control of coalition forces and Iraqi 
forces for a period to be determined.
    Senator McCain. Does that mean that the decision to deploy 
troops into an area of conflict is made by the military 
commander, not by the Iraqi government?
    General Abizaid. That is correct, Senator. It also means 
that, while Iraqi police will trace the chain of command to the 
Ministry of Interior and conduct their local law enforcement 
activities under the Ministry of the Interior, Iraqi military 
forces will have a what I will call a title 10 relationship 
with the Ministry of Defense in Iraq and yet an operational 
assignment to the coalition military commander.
    Now, this requires that we build a chain of command that 
goes all the way from the lowest Iraqi private to the Ministry 
of Defense, and the Ministry of Defense does not exist yet. But 
I believe that we will also have joint coordination cells in 
localities throughout Iraq where police, coalition, and Iraqi 
military officers will be together to discuss deconfliction.
    If it becomes necessary for police units to participate in 
a military operation, that will also come under the coalition 
commander.
    Senator McCain. I am more concerned about the 
decisionmaking process as to the deployment of U.S. military 
into a situation. That would be the sole judgment of the 
military commander, the U.S. military commander or the 
coalition commander. Does that mean that you would have to have 
some kind of fairly rapid decisionmaking process?
    General Abizaid. Sir, that means we will have to have very 
rapid decisionmaking.
    Senator McCain. Does that mean it would go to you?
    General Abizaid. Pardon me?
    Senator McCain. If there was an imminent situation, would 
the decision be made by you?
    General Abizaid. The commanders in the field have the 
authority to employ their forces in a wide variety of 
situations that require the use of military force.
    Senator McCain. For offensive military operations?
    General Abizaid. Offensive military operations will 
continue against terrorist entities, those forces that are 
targeting Iraqi and coalition forces, and that will continue at 
the lowest level.
    Senator McCain. This procedure has not been formalized yet?
    General Abizaid. Sir, it is not formalized other than to 
say that the multi-national force commander will retain 
operational control of all forces.
    Senator McCain. Thank you very much. Thank you, General. 
Thank you, General Jones.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator McCain.
    Senator Kennedy.
    Senator Kennedy. Welcome. Thank you very much for being 
here and for your service to the country.
    General Abizaid, I would like to just focus in the time I 
have on the High Mobility Multipurpose Wheeled Vehicle (HMMWV) 
issue. I mentioned this just before the course of the hearing. 
I talked to you on the phone last year. You were good enough to 
say, put it down in a letter, which I did, and you responded to 
me at that time in October of last year.
    At that time you said: ``The fiscal year 2004 supplemental 
request will permit the Services to rapidly resolve many of the 
equipment you mentioned, to include the procurement of up-
armored HMMWVs.'' That was on October 20.
    Then Secretary Brownlee testified in November that the 
requirement would not be filled until the summer of 2005, a 
date we all agreed was unacceptable. Then 2 days ago Secretary 
Brownlee told us that we could meet it in July or August. 
Secretary Brownlee went out to Ohio himself and he has now 
committed to increase the production of up-armored HMMWVs from 
220 a month to 450 a month over a period of 5 months starting 
in May, and at that rate the Army will meet its current 
requirements of 4149 by July of this year instead of May 2005--
this is what he has told me--as he testified in November.
    Because he is concerned the requirement will keep rising--
and you are aware that over the period of time that the 
Department has testified the numbers or the increase has been 
continuing to rise--he has told the companies to continue the 
production rate of 450 a month indefinitely. He has paid for 
part of this increase with an internal Army reprogramming and 
asked OSD Comptroller for the additional funds.
    He has also increased the production of steel and ballistic 
glass kits to protect the soft-skinned HMMWVs, and he hopes to 
have 6,000 of these units installed in Iraq by July or August. 
So he has set an internal deadline--we have heard it was going 
to be much later--in order to spur the Army to get it done 
faster. He said they are also cutting steel into blister 
protection for HMMWVs in Iraq.
    Now, this is enormously impressive. Then Dov Zakheim 
testifies at the Defense Appropriations Committee that he is 
not on that schedule and he says that they will not have the 
funding to do this as rapidly because they do not have the 
funds to do it, so they will not be able to meet that 
requirement until October.
    Will you review that and find out why in the world we do 
not have those funds to do it? We lost 10; a third of the young 
men from my State have been killed in these kinds of incidents 
with light-skinned HMMWVs. The parents, all of them, have 
talked to me about this. I have talked both with you and 
Secretary Brownlee about it.
    We understand the technical kinds of problems about 
increasing the production, it appears, and I admire what the 
Secretary has done to try and get the rapid-fire production of 
this at as fast a production level, as necessary, and he seems 
to have done it. It would be inexcusable not to have the 
funding for that.
    There is no way that you could have known about what the 
DOD's Comptroller has said about the funding. Can you give us 
at least the assurance you will do everything you can to make 
sure, if they can get the production, that the funds will be 
there as a result of reprogramming or just asking the 
appropriating committees to get the funding for it?
    General Abizaid. Senator, we certainly favor moving as 
quickly as we can to get up-armored HMMWVs to the requirement 
level that has been established by the Army, and we also favor 
the interim fix with regard to the kits moving in as quickly as 
possible. For us, of course, as a combatant commander in a 
combat zone, the money is not the issue. I understand it may be 
for, and it certainly is for, the Department. But I have had 
nothing but support from the Secretary to do this as fast as 
possible and also from our fellow combatant commanders, such as 
General Jim Jones sitting next to me right here today.
    We have moved his up-armored HMMWVs out of his theater and 
given them to our troops. We have also taken up-armored HMMWVs 
out of the Air Force inventory and started to move them into 
CENTCOM.
    So, Senator, we certainly want to move as quickly as we can 
to ensure that our troops are well protected.
    Senator Kennedy. Well, that is fine. Now, if you would 
answer my question: Will you get the money to make sure that 
there is not going to be a deficiency in terms of funding the 
HMMWVs if they can meet the production line? That is what my 
question is, General.
    General Abizaid. Well, sir, I hope that I will get the 
money, but I do not make the money. It comes from my 
Department.
    Senator Kennedy. Well, will you let us know if you cannot 
get the money, please?
    General Abizaid. I will.
    Senator Kennedy. Thank you.
    No further questions.
    Chairman Warner. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me just repeat what all the rest have said, that you 
two are the right people at the right time, and we are so 
eternally grateful for the work that you do. I want to thank 
you also, General Abizaid, for responding to my request in 
coming and making that excellent presentation at the National 
Prayer Breakfast. You were the right person to do that and I 
appreciate it very much.
    Along the same line that Senator Kennedy was talking about, 
we do hear from families of deployed people, whether it is 
Guard and Reserve or regular forces, and I happened last week 
to be out in California and saw some new technology I think you 
may be familiar with. One is called Close-In Countermeasures 
(CICM), which is a way of intercepting a rocket-propelled 
grenade (RPG) after it is deployed. Now, this is mounted on an 
armored vehicle. It can be on any, I suppose a tank or anything 
else.
    The second one is the Active Protective System, which does 
the same thing, intercepting the same way as a missile defense 
system does missiles that are coming towards the--and actually 
I saw videos of how they work.
    It seems like most of the casualties we have are a result 
of the incoming small missiles or RPGs. Are you familiar with 
those systems and what would be your recommendation in getting 
into that type of defense system?
    General Abizaid. Sir, I am familiar with both of the 
systems. I have yet to see the final testing reports that have 
come out of the Department of the Army that is looking very 
closely at them. We have an Improvised Explosive Device (IED) 
Task Force that is at the DOD level, within the Department of 
the Army. The Air Force has one also, and it comes together in 
CJTF-7 in Iraq.
    We are looking at all these technologies and any promising 
technology we will ask to bring into the field.
    Senator Inhofe. I think we are going to make a request that 
they look at these two specific technologies. I think it is 
very significant and very impressive, what they have done.
    First of all, let me just say that the way the whole thing 
has been executed has been just beyond our expectations. I know 
there is a lot of criticism in going into Iraq and now we have 
the definite connection between Saddam Hussein and the tragedy 
here in this country, the fact that his intelligence officers 
met repeatedly with bin Laden before this came about, that his 
top explosives guy, Salem al-Ahmed, I think it is, actually met 
with them prior to September 11. This Shakir helped gain the 
passports for two of the pilots that went into the World Trade 
Center. He also was involved in the U.S.S. Cole.
    Now, in addition to that, there has been a recent 
interception of a CDROM with 17 pages confirming this. So I 
think that our actions were the right actions and we are doing 
a great job over there.
    I think I would specifically say to you, General Abizaid, 
during the time that we were talking about your taking this 
position, you are unique. You have the ethnic background, the 
culture, and the knowledge. You know more about the way people 
in the Middle East think than probably anyone who is in uniform 
today. So I compliment you for that.
    Having said that, there are those who are suggesting that 
we abandon the war, bring the troops home, and negotiate with 
the terrorists. Drawing from your background in the Middle 
East, how do you respond to that suggestion?
    General Abizaid. Sir, I think that one of the most 
important things the United States of America must accomplish 
in the foreseeable future is bringing stability to Iraq and 
allowing a moderate government that is representative of the 
Iraqi people to emerge there. It is so important that the 
extremists not gain the upper hand in Iraq. Whatever the 
arguments may have been before, it is a battle in Iraq now 
between extremists and moderates, and the vast majority of the 
people want the moderates to be victorious. They want to live a 
better life. They want to have a chance to have a say in their 
future.
    If we allow the extremists to win in Iraq, I am afraid that 
we are in for a very tough time, not only there but throughout 
the world.
    Senator Inhofe. I would assume that by abandoning it and 
bringing the troops home and trying to negotiate with 
terrorists it would allow the extremists to----
    General Abizaid. That is my opinion. We should not leave 
until the Iraqis are ready to take control, not only of their 
government, but of their security.
    Senator Inhofe. Thank you very much.
    General Jones, one of the things that you and I have talked 
about several times is this--and yet it does not seem to get 
much attention--is a better way to spend our money on our 
forward-deployed troops. We have some 40,000 families in 
Western Europe now. I took the time to go over--in fact, I will 
ask our chairman if I can be kind of the point person in 
bringing this about. I took the time to go to Romania, Ukraine, 
Bulgaria, and other places over there.
    A problem we have that we are all sensitive to in Eastern 
Europe is that we are becoming more and more restricted every 
day. A lot of it is environmental encroachments on our training 
ranges. Then of course the expense of keeping families over 
there and having the housing and having everything that is 
necessary to support that type of thing.
    The concept of changing these 2- or 3-year deployments with 
families to perhaps 2- or 3-month deployments, keeping the 
families stateside, and going over and--believe me, I do not 
have to tell you this, but I will share this with my fellow 
members of this committee. I have never seen groups wanting us 
more and saying, we will not have restrictions, you can train, 
you can use live fire any hour, 7 days a week. Consequently, 
with the great training resources they have in the countries 
that I saw personally, I think that is going to be something 
that we should move up at a more rapid rate.
    I have talked to Secretary Doug Feith about this. He is 
kind of doing that end of it. Do you have any comments, General 
Jones, as to our progress, and as to the desirability of that 
program, the restructuring?
    General Jones. Thank you, Senator. This is an important 
moment in time and it is important that we get this right. It 
is important that we explain to our friends and allies as we 
implement a realignment of forces that we are attempting to do 
more and not less. I think that the plan we have proposed will 
do that. It will make us strategically more effective, more 
agile. We will have access to training areas in the eastern 
part of Europe, where we are welcome, where there are wider 
open spaces, where urbanization has not come up to the front 
doors and the front gates of our bases, as they have in the 
western part of Europe. Obviously, you and I have talked for 
many months about the similar problems in the United States. 
This is a problem of urbanization and base locations.
    So we have spent a lot of time in EUCOM going all over not 
only Eastern Europe, but also parts of Africa, where the 
welcome mat for a presence of some type with U.S. forces and 
engagement is out, and there are open spaces where we can 
actually train the joint force in the manner in which we need 
to have it trained so that it can do the things that we would 
expect it to do.
    It has the ancillary benefit of strategically reaching out 
to new friends, new allies, becoming more interoperable in the 
alliance, and helping the security concerns of our friends and 
allies come to fruition in a very cohesive way. It is not all 
that important that every country has its own army, navy, and 
air force. To an alliance like NATO there are many specialized 
contributions that smaller nations can make.
    The example of the Czech Republic, which decided and 
determined that they could contribute a chemical, biological, 
radiological, nuclear (CBRN) battalion and did so--state-of-
the-art, at considerable expense, available for NATO, because 
they accept Article V of NATO, which means that they expect 
that they will be defended if they are attacked, and they will 
be. So they are willing to contribute special capabilities that 
are in short supply in the alliance.
    So it is a very powerful movement. From the United States' 
standpoint it is an opportunity to expand our presence. You are 
aware of the impact of the Georgia Train and Equip Program, 
where if we stay with it for another 2 or 3 years we will have 
trained the entire army of Georgia in western values. They will 
have an NCO corps. Their young leaders will all be trained at 
our schools. This is for a very small investment.
    We are looking in EUCOM for other countries where we could 
make that similar small investment with huge payoffs and bring 
more alliance capability and obviously provide more training 
areas for our forces.
    The future basing concepts of the proposal have more to do 
with strategic effect than occupation in the traditional 20th 
century theory. The family of bases we propose are bases that 
are in the main already built; second, with small improvements 
can come up to a certain standard; and have a very flexible 
capability from a usability standpoint. In other words, we 
could use it for 6 months, then turn off the lights and go to 
another base if we need to. It could be to respond to crisis or 
to training.
    The network effect both to the east and to the south in 
Africa and the potential of that effect is truly very 
impressive and we are looking forward to it.
    Senator Inhofe. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, gentlemen, for your service to the Nation, which 
begins and ends with the profound appreciation of the service 
and sacrifice of the young Americans you lead, and I thank you 
for that, too.
    General Abizaid and General Jones, you depend in your areas 
of operation on Army forces significantly. General Schoomaker 
was here a few weeks ago and said that at the current burn rate 
of spending on Iraq and Afghanistan he would be out of funds by 
October 1 unless there was a supplemental appropriation.
    Secretary Brownlee this past Tuesday has miraculously 
extended that to the spring of 2005. Now, we have heard your 
discussion of Senator Kennedy's questions of shortfalls in 
HMMWV production and gaps between the money he has committed 
and the money he has from the Secretary of Defense. I would 
like your observations and perceptions about the situation of 
when we will run out of money in Iraq and Afghanistan at the 
current expenditure rate? General Abizaid?
    General Abizaid. General Jones, are you sure you do not 
want to take that one?
    General Jones. Sir, those service chiefs cannot be relied 
upon.
    Senator Reed. Until they get promoted to be a combatant 
commander.
    General Jones. Exactly right.
    General Abizaid. Senator Reed, I think all of us know that 
we have to have what we have to have in order to fight the war 
in Afghanistan and in Iraq. I know that the Army may be 
experiencing difficulty in trying to figure out where they are 
going to meet all their operations and maintenance (O&M) 
requirements, but I also understand that that may not be the 
case for the Navy, it might not be the case for DOD agencies, 
et cetera. So I do not know the answer to the question whether 
or not there is a problem Defense-wide.
    But I do know that we have the complete commitment of the 
Secretary of Defense to spend what we need to spend to fight 
the war.
    Senator Reed. Well, there are no funds, as I understand it, 
in the President's budget for operations in Iraq and 
Afghanistan. You have the Chief of Staff of the Army, the 
Commandant of the Marine Corps, and the Chief of Staff of the 
Air Force saying they are going to run out of funds by October 
1. They have not communicated those concerns to you or you have 
not been able to communicate with them your concerns?
    General Abizaid. I am not concerned about running out of 
money to fight the war, Senator.
    Senator Reed. Does that mean that you think there will be a 
supplemental appropriation?
    General Abizaid. I do not know whether there will be one or 
not. That is a departmental issue for the Secretary.
    Senator Reed. General Abizaid, you indicated the strategy 
has changed somewhat. The targets now are civilians and perhaps 
the ultimate goal is to foment a civil uprising that will make 
our position untenable there. A key to our response there is 
the Iraqi security forces. I understand that General Eikenberry 
has conducted a survey of those security forces. Is that survey 
complete?
    General Abizaid. Yes, sir, that survey is complete.
    Senator Reed. Can we get a copy of that survey?
    General Abizaid. I believe so, sir. There should be no 
reason not to provide you with a copy. I will have to discuss 
that with the Secretary and I will do so tomorrow.
    Senator Reed. Can you share with us the conclusions? Is 
there adequate funding, adequate training? When will they be 
capable of stepping up to a role and relieving us of some of 
our roles?
    General Abizaid. I think that the Eikenberry Report is an 
important report about the adequacy of Iraqi security forces, 
the composition, et cetera. But I think it is also important to 
note that I do not agree with all the conclusions that were 
contained in there. What is key to us is that we continue to 
build Iraqi national military capacity for the New Iraqi Army 
(NIA), continue to build the militia units that are working for 
the Iraqi military, that are called ICDC units.
    We are in the process now of fielding 36 of those 
battalions. Clearly, there has been a requirement to speed the 
equipment that is being issued to the police, to obtain the 
contracts necessary to get the right things to the right police 
stations that are most under threat, and also to increase the 
quality and the capacity of training in third party states such 
as Jordan that will help increase the capacity of Iraqi police.
    Until recently, most of that police training was 
coordinated primarily through the capabilities of the CPA, but 
now we are shifting some of that responsibility, and I think 
rightfully so, to General Sanchez in Iraq.
    The most important thing to me, Senator, is that we build a 
quality Iraqi force that is capable of withstanding the 
pressures that the insurgents and the terrorists will place 
upon it and that will be loyal to the Iraqi transitional 
government and eventually the Iraqi independent government. I 
think that this quality requires us to curb our appetite about 
numbers to a certain extent and it also requires us to build 
Iraqi chains of command all the way from the lowest private to 
the Ministry of Defense, and that needs to be work that has to 
be accomplished, I think, by the 1st of July.
    That will require not only building these chains of 
command, but officering it with people that will be loyal to 
the government. I believe that the points that I mentioned are 
generally consistent with the Eikenberry Report, with the 
exception of his belief that we should decrease the speed at 
which the NIA is fielded in order to speed the ICDC units' 
development, and I do not agree with that nor does General 
Sanchez, and we have conveyed that to the Department.
    Senator Reed. My time has expired. But you are looking at a 
July 1 completion date of a daunting task, not just technical 
training, but changing in fact the orientation, the attitudes, 
the cultural perspective in some cases, of these individuals. 
That seems to me an extraordinarily daunting challenge within 
the next several months.
    General Abizaid. Well, Senator, I do not believe that we 
will have completed the task by July 1, and I did not mean to 
give you that impression. We will be in the midst of this task 
for some time. I think really the most important thing that we 
will do with the Iraqi Armed Forces and the Iraqi security 
establishment is inculcating in them the idea of civil control 
of the military and respect for their own population. This is a 
cultural change that has to take place if a moderate state is 
to emerge and it will certainly not be accomplished by July 1.
    Senator Reed. Thank you very much.
    Chairman Warner. Thank you very much, Senator.
    Senator Collins.
    Senator Collins. Thank you very much, Mr. Chairman.
    General Abizaid, General Jones, let me begin by joining my 
colleagues in applauding your outstanding service. Both of you 
are truly extraordinary leaders and we are very grateful for 
your services. So I thank you for that.
    General Abizaid, a key part of our strategy in Iraq is to 
place more responsibility for security on the Iraqi police 
force and the NIA. You have mentioned this morning that 
insurgents are increasingly targeting Iraqi security forces for 
attacks. A recent New York Times piece cited a recent attack on 
an Iraqi police station, I think it was in Fallujah, as 
revealing two very serious problems.
    One is that the Iraqi forces had insufficient weapons, 
communications equipment, and ammunition. Second, some of the 
attackers who were captured turned out to be members of the 
ICDC.
    First, do you agree that there is a problem with the 
training and the adequacy of equipment for the new Iraqi 
security forces? Second, are you seeing a significant effort by 
insurgents to join the police and the army and how are we 
trying to screen out those individuals?
    General Abizaid. Senator, with regard to the first question 
about how have we done with regard to training and equipment 
and is it adequate at the present time, in some areas it 
certainly is not. Having personally been to the location that 
you are talking about in Fallujah, I would say that those 
forces there are not adequately trained or equipped, we have to 
get the equipment to them, and we have to speed it to them and 
we have to enhance their training. We will do this by doing 
more mentoring with U.S. forces and working directly with Iraqi 
units, especially ICDC units.
    I would also ask you to remember that in May we started out 
at zero and it is not even a year since May and we are up to 
200,000. Inevitably, to go from nothing to this level there 
will be various degrees of success in some geographical areas 
versus others. Of course, in those areas where there has been 
the most resistance, such as Fallujah, Ar Ramadi, Baqubah, 
Samarra, and others, it has been necessary on occasion to start 
again from zero.
    So for example, we fielded a police force in Fallujah once. 
We had to bring it back down nearly to zero again in order to 
get it right, and getting it right is as much about equipment 
as it is about attitude and the willingness to serve and a 
willingness to do your duty.
    With regard to your second question, there is no doubt that 
terrorists and insurgents will attempt to infiltrate the 
security forces, and we know it is happening and we know it has 
happened. We attempt to do our best with regard to vetting 
people. We certainly rely very much on Iraqis that will tell us 
how to regard certain people, a certain person who is applying 
for service, and we have more stringent vetting authority as 
you go up the chain of command for officers, for example.
    That having been said, particularly in the areas where the 
extremists are heavily embedded, it is difficult to sort 
through tribal loyalties, familial loyalties, ethnic loyalties, 
loyalties to the former regime, et cetera. I also believe, 
however, that in every instance the number of people that are 
coming forward to serve in the new Iraqi security services and 
the number of people that are currently serving there are 
overwhelmingly supportive, positive, and determined to make the 
new Iraq succeed.
    So I think we will have to continue to be vigilant, just 
like in the building of any new enterprise, and ultimately over 
time the Iraqi security forces will assume more and more 
responsibility. I think there is a misreading in the press that 
somehow or other we are leaving them out there to their own 
devices, which is certainly not our intent. The fact that we 
have doubled our number of SOF in the country to operate 
directly with Iraqi battalions, for example, is evidence of our 
desire to help them help themselves.
    But ultimately, Senator, the key to success is Iraqis being 
in charge of their own security as well as their own 
government.
    Senator Collins. I agree.
    My second question has to do with the stockpiles of weapons 
and ammunition that our troops are repeatedly finding. Indeed, 
they have been very effective in uncovering these caches of 
weapons and ammunition. Could you tell us if you believe that 
most of these weapons stockpiles appear to be left over from 
the Iraqi regime, or is there evidence that these are new 
caches of weapons and ammunition brought in by foreign 
terrorists?
    General Abizaid. Senator, that is a great question. It is 
my clear opinion that the majority of the weapons, ammunition, 
and other military paraphernalia that are found in Iraq are 
left over from the previous regime. No doubt that there is a 
small amount of weapons and explosives that may be coming 
across the border, but we actually find that most of the 
foreign fighters infiltrate on either falsified documents or 
good documents that get them past routine security checkpoints, 
and then they go to safe houses within Iraq and become armed. 
That is primarily from the arms and ammunition that are left 
over from the old regime.
    I am amazed every day by how much we find. I cannot tell 
you where the bottom of the barrel is. We are making some 
strides in it, I know that because the price of certain weapons 
on the street has gone up.
    Senator Collins. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    General Jones, I want to express to you and General Abizaid 
how proud I am and we are of our troops and what you are doing 
in Iraq and in Europe. My question is a follow-up on a question 
that was mentioned by Senator Inhofe on basing in Europe. I 
understand that part of the plan is to make additional use of 
ranges in East European countries. Since I have been to Poland 
and visited one of them, I am curious about ranges in other 
countries.
    Has either your staff or the OSD done any analysis of any 
upgrades in land or instrumentation that would be needed to 
create a more robust training environment for new ranges in 
Eastern Europe?
    General Jones. Senator, we have extensively. We have, prior 
to putting our proposals together as to where our forces might 
be able to go train and interoperate, made a survey of all 
available ranges. East European nations, to include Poland, 
were very forthcoming, particularly the seven new NATO members. 
So we have a very good site picture of what is available and 
what we might wish to do to enhance some of those ranges.
    But generally they bring the scarcest quality in Western 
Europe and that is simply space--air space, ground space, in 
some cases sea space. It is not limited to Eastern Europe. We 
have also done extensive inventories in North Africa. For 
example, Morocco has made extraordinarily generous offers of 
access to their bases. Senator Inhofe would be very pleased 
during the debate that we had on Vieques if we would be able 
to, as we have now, look at the ranges in Morocco where they 
are more than happy to have us come and train in the totality 
of a naval expeditionary force in whatever way we wish to, 
within certain limitations of course, but certainly 
satisfactory.
    It is a very exciting opportunity. So the good news is a 
lot of those bases already exist and the level of 
infrastructure that we would have to add could be borne by NATO 
nations, could be borne bilaterally. It does not have to all be 
borne by the United States.
    Senator Akaka. Thank you.
    General Abizaid, we have had multiple Army witnesses 
testify in the last month and they expressed their concern 
about the rate at which we are expending our funds for 
operations in your theater. That was touched on by Senator 
Reed. But I want to be a little more specific on that. Again, I 
repeat that they expect to have significant difficulties making 
it to the end of the fiscal year.
    One of the main drivers for high costs--and this is where I 
want to be specific--is logistics support contracts. The Army 
reports that it has recently issued guidance directing its 
units not to spend additional money on these contracts, but 
that combatant command decisions can override such guidance.
    My question is, what is your understanding of the costs 
associated with the logistics support contracts, and what 
efforts are you making to try to keep these costs down?
    General Abizaid. Well, Senator, the logistics contracts 
that the Army enters into are their contracts. They also enter 
into them as the executive agent to the Coalition Provisional 
Authority (CPA). I have no doubt that logistics costs are high. 
They are high because you have to pay a lot for insurance for 
people to conduct--for civilians to conduct operations in an 
area that is obviously dangerous, and they are high because of 
the lines of communication and the amount of equipment that has 
to be moved.
    While I appreciate the difficulties that the Army has in 
meeting their obligations, it is also paramount to me that our 
operational requirements be met, and the operational 
requirements are constantly changing as we reposition the force 
to deal with the emerging enemy threat. When we do this, it is 
done for reasons that are expensive to the Army as a Title 10 
authority, but are essential to the commander, General Sanchez, 
in order to get his forces in the right place and at the right 
time.
    There is no doubt that the movement of some of our bases 
from key urban areas to more important military locations costs 
a lot of money. Yet we consider that to be operationally 
essential. I can assure you, Senator, that both General Sanchez 
and I are mindful of the costs associated with the Logistics 
Civil Augmentation Program (LOGCAP). We agree with the Army's 
requirement on its subordinate units to cause those costs to be 
as reasonable as possible.
    But on the other hand, we also make it very clear to the 
Army that we have to fight this war the way the commanders on 
the ground need it to be fought.
    Senator Akaka. So there is no misunderstanding, we want our 
forces to have all they need and at whatever costs. But 
whatever way we can help in trying to spend wisely is what we 
are looking at. We hope that we can continue to do this.
    General Abizaid. I agree with that, Senator.
    Senator Akaka. General Jones and General Abizaid, the Navy 
is implementing a new operating concept called the First 
Response Plan (FRP). The Navy claims that they will be able to 
provide more readiness for less money under this plan, which 
also involves providing less habitual presence overseas but 
more surge capability to meet the combatant commanders' needs.
    What are your views of the Navy's plan and the changes in 
how the Navy plans to provide presence in your theaters? 
General Jones?
    General Jones. Thank you, Senator. I have a certain amount 
of passion for maritime questions and the value of naval 
presence, so I have been involved with many discussions from a 
unified commander's perspective with the Commandant of the 
Marine Corps and the Chief of Naval Operations (CNO) on this 
issue.
    I think that the value of forward presence is beyond 
question and it is very important to the future of our Nation, 
not only to fight and win wars, but hopefully to also prevent 
wars and to do those things in the interregnum to prevent 
conflicts and to do so by very focused and active engagement.
    In the 93 countries that I am responsible for, I see an 
increasing demand for forces, naval forces in particular, along 
the west coast of Africa in the future. In the past we have 
generally limited ourselves to naval expeditionary forces 
coming through Gibraltar, spending time in the Mediterranean, 
and in the case of helping CENTCOM flowing those forces from 
Europe, either maritime forces or land-based forces, to the 
CENTCOM region for operations.
    When those demands lighten up, and I am confident that they 
will in due time, we will go back to the business of how we 
want to shape and how we want to engage. I think it would be a 
mistake to relegate naval forces to a crisis response type 
force only, in other words, that you only use them when you 
have a crisis. I do not think that is the CNO's intent, but I 
think we can make a more intellectual and far-reaching judgment 
as to how those forces should be deployed to do those things 
that do not have necessarily much to do with a crisis but to do 
with influencing the areas of operations to preclude crises. 
You do that through focused engagement.
    I think that maritime forces will be useful in the 
Mediterranean, but also useful in a newer context along the 
west coast of Africa as this continent struggles to find its 
place among the developing areas of the world that we should be 
concerned about.
    I think it is interesting to note that in the NATO Response 
Force that is developing, there is a strong maritime component 
that will also have the ability to sail proactively to those 
areas that we wish to engage in, to help other nations defend 
themselves, to develop their security plans, and to reap the 
benefits that a nation of great influence can bring to 
stabilize entire regions before they become a crisis.
    So with that caveat, I would say I support the concept. It 
will be a better utilization of forces, but I would emphasize 
that it is for crisis response, but it also is for very focused 
work to prevent crisis.
    General Abizaid. Senator, I also support the concept. The 
presence of naval forces in the CENTCOM area of operations 
gives us added air power. It gives us great flexibility for 
intercepting terrorist maritime activities. Our maritime 
interdiction operations have been successful in a number of 
cases as a result of the maritime presence in the region and 
certainly the ability to move shipboard forces represented by 
the Marine Corps into Iraq and out of Iraq and into Afghanistan 
and out of Afghanistan has given me a flexibility as a theater 
commander that is absolutely important to me.
    I do not think, however, it is necessary for us to always 
have a 100 percent carrier battle group in the region or an 
Amphibious Ready Group (ARG) or MEU in the region. We can work 
these things, especially when the adjoining combatant 
commander, such as General Abizaid, is more than willing to 
help us out if the situation starts to deteriorate in the 
theater, and I am willing to do the same thing for him.
    So we know that the assets are not available to do 
everything that everybody wants to do, and I think what the 
Navy has come up with is a plan that we can certainly live 
with.
    Senator Akaka. Thank you very much for your responses.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator Akaka.
    Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman.
    Let me join my colleagues in praising you both for your 
perseverance, your performance, and your resolve. I think we 
all say that. I note we also ask you questions that you cannot 
answer. Namely, I do not think any combatant commander can 
respond or control, for that matter, any decision by the DOD 
Comptroller, decisions on funding. But we sure as hell can.
    In that regard, General Abizaid, I appreciate your 
assurance that you will continue to provide us a straight-
shooting candor type of advice and counsel. That also goes for 
General Jones, who has done that in the past. As a matter of 
fact, if I could think of two individuals that I would like to 
have by my side or on either side if it was high noon in Dodge 
City and we were on Front Street, you would be the two I would 
pick. As a matter of fact, I would just go back to the Long 
Branch and let you take care of the black hats and that would 
be that.
    Let me say that we had a subcommittee hearing yesterday in 
the Emerging Threats Subcommittee. Senator Reed is the ranking 
member, I am the chairman. The issue of HMMWV protection did 
come up, as it should, and I think my numbers are correct in 
regards to the HMMWV kits, which were on display, in terms of 
1300 being in theater, 3,000 on the way, and the need would be 
11,000 in addition to the improved vehicles. So we are making 
some progress.
    I was also interested in a different vehicle that was 
talked about there in our science and technology (S&T) hearing, 
and also trying to get 3 percent of the DOD budget still 
committed to S&T so that we can have the technology to do the 
kinds of things that you want to do and to maintain our 
superiority. I think that vehicle is called the Water Buffalo. 
I am not sure, but at any rate there will be another vehicle on 
the way down the road if the tests prove adequate.
    I was also interested to know or to find out, General 
Abizaid, that basically any time there is an attack by an 
explosive device it goes to that center you described in regard 
to Baghdad, but then also goes to Quantico, which I did not 
know, and then from Quantico back to the S&T community with Dr. 
Sega, who is our defense research head within the DOD, and the 
military commanders who testified before us at the Emerging 
Threats and Capabilities Subcommittee.
    I do not know if we need to institutionalize this a little 
bit in regards to legislative action or not. But at least in 
terms of what is happening in Iraq and how things change and 
how we need better force protection and to assist our troops 
and the warfighter, I think we are making some progress, and I 
wanted to make sure that everybody was aware of that chain of 
information and the rapid reaction time that we now can get 
what we need, either off-the-shelf or what the Defense Advanced 
Research Projects Agency (DARPA) has in line.
    I am making a speech as opposed to asking questions, but I 
think it is important. As chairman of the Intelligence 
Committee, we are taking a look at the prewar intelligence on 
postwar Iraq. You have spoken in great detail, General Abizaid, 
about the ever-changing climate and the challenges that you 
face. We have the largest station in the world in regards to 
the Central Intelligence Agency (CIA) in Baghdad. We have had 
some startup problems. There was an article in the press today 
that sort of summarized all of that in regards to turnover and 
stress and strain and some other problems that we will go into 
in the Intelligence Committee.
    Can you comment in regards to not only the value, but your 
judgment as to the efficacy of the intelligence that you are 
receiving now? More especially with these attacks on religious 
sites and how you have described the situation with the Shias 
and the people who are trying to either produce a civil war or 
even greater instability.
    General Abizaid. Thank you, Senator Roberts. The single 
most important thing to General Sanchez in Iraq is having good 
intelligence. With good intelligence you can get precise 
targeting. With precise targeting you can start to unravel the 
enemy cells.
    As you recall, back in the September-October period when it 
was clear that the insurgency was spreading, it became obvious 
to us that we really need to fuse the intelligence system and 
improve it and ensure that the wonderful intelligence that was 
being developed at the tactical level made it all the way up to 
the operational level, so that we could make the battle one of 
the entire force versus just platoons and squads that were out 
there operating in their own individual areas. I think, largely 
with the help of our various intelligence agencies, with 
wonderful work by my J-2, John Custer, and General Sanchez's J-
2, Barbara Fast, we managed to get an intelligence system 
working that has given us great insight against the insurgents 
and has allowed us to unravel their organizations in a way 
that, I think, will be viewed as a model when people have a 
chance to look at it.
    Now, this does not mean that the enemy does not adjust 
their tactics, because they do. They are adjusting their 
tactics. They are adjusting the way that they conduct their own 
operational security. You can see by the letter from Zarqawi, 
for example, how concerned he was about how many eyes were out 
there and how dangerous the operation was. But this war is a 
war of intelligence and perception, and it is just so important 
that the intelligence part of the battle be adequately 
organized and that we think out of the box about who is doing 
what and not worry about turf.
    I am happy to report to you that I think that the 
relationship that has developed in Baghdad with the CIA and 
CENTCOM has been one that has allowed us to get at this problem 
in an important way.
    However, I would like to say one thing if I may, Senator, 
because I know it is so important to you. We do not have enough 
intelligence professionals in our Nation. We must increase our 
human intelligence (HUMINT) capacity. We must increase our 
ability to have translators and interrogators in the field. To 
me, as we fight this global war on terrorism, if we do not do 
that, we are putting the Nation at risk.
    Senator Roberts. I can assure you the Intelligence 
Committees on both sides, both the House and Senate, are aware 
of that and we are trying to address that on an emergency 
basis.
    I have just one real quick question. My time has expired, 
but that does not seem to bother anybody here. General Jones, 
why could we not have or what would be the value of an 
integrated intelligence center? I do not think I am describing 
that right, but those are the words that I am using. You are 
going from 19 to 26 countries. You have those kinds of things 
in operation now. We really have to rely on better 
intelligence. When we expanded NATO before, we were worried 
about vetting certain people. If we are actually going to be a 
viable force like we are in Afghanistan and perhaps in Africa, 
et cetera, we have to have better intelligence.
    Is there any value in having some kind of an integrated 
intelligence center? Would that be a help?
    General Jones. Senator, I think it would be an enormous 
help. One of the critical shortfalls in NATO's capability is 
fused intelligence. Intelligence is still very much a national 
responsibility and we have not really broken through to the 
extent that we should the sense of sharing of intelligence in 
depth.
    What we are working on in Europe is looking to see if we 
can come up with a plan to collocate in the U.S. Joint Analysis 
Center in Molesworth, England, and perhaps also develop a NATO 
intelligence center right next to it. That would begin to 
bridge this gap and compensate for the shortfall. I think it 
needs to be done.
    Senator Roberts. Mr. Chairman, my apologies to Senator 
Nelson, whose time I have taken, maybe 2 or 3 minutes. So I owe 
you. I do not know how I am going to pay you, but I owe you.
    Chairman Warner. Before we move on, I think that, Senator 
Roberts, you ought to take note of the comment made by General 
Jones about the Joint Analysis Center. I think it is a very 
good idea.
    Senator Roberts. Mr. Chairman, we have talked about it. As 
a matter of fact, we talked about it in London when you were 
there, sir, about the possibility of that.
    Chairman Warner. I remember that.
    Senator Roberts. I think it is an excellent idea. So we are 
not just going to take it under consideration; we are going to 
see if we can move that.
    General Jones. Thank you, sir.
    Chairman Warner. That is something the North Atlantic 
Council (NAC) has addressed?
    General Jones. Sir, it is in the embryonic stages. In my 
U.S. hat, I have asked EUCOM to develop a plan whereby--that 
would show how this could be achieved, and then we will propose 
it to the nations and see if they accept.
    Chairman Warner. Well, I would hope they do, because I 
think we could get some very strong support and a little money 
for that back here.
    General Jones. Thank you, sir.
    Chairman Warner. Thank you.
    Senator Nelson.
    Senator Ben Nelson. Thank you very much, Mr. Chairman.
    Let me add my appreciation to both of you and to the men 
and women in service who are protecting us in so many places 
around the world. Thank you all.
    General Abizaid, as you indicated, in terms of building up 
an emerging Iraqi security capacity, numbers are not 
necessarily what we ought to focus on that ought to be adequate 
to deal with the challenge. Last September you said, ``While 
Iraqi police capacity still remains below requirements, joint 
coalition and Iraqi police operations are bringing to justice 
criminal gangs that have been preying on the Iraqi people.''
    Having said all of that, is there a time frame that we 
might look toward when we can say that it is not below the 
requirements, that we are actually meeting the requirements? 
Because it is an integral part of turning over the control to 
the Iraqi government, once it is duly elected and appropriately 
installed.
    General Abizaid. Senator, by September we will have met the 
numerical requirements by and large, and we are, of course, 
always evaluating the size of the NIA, the size of the ICDC, 
police, et cetera. We certainly know, for example, that our 
original target numbers for the Iraqi Border Service were not 
adequate, and we will have to increase that number.
    But, by September, the numbers will largely be met. What is 
difficult for me to tell you is when they will be good enough 
to assume partial responsibility, full responsibility, et 
cetera. Already, in parts of the country, such as up in the 
north and down in the south in the Basra area, the police 
services and the ICDC units are performing very well and they 
bear most of the responsibility, and also, to a certain extent 
in key parts of Baghdad. ICDC units and police corps units in 
many parts of the country lead operations against terrorists 
and insurgent cells, and they do so very well.
    But the key part that is missing now, Senator, is this 
Iraqi chain of command that must be built. It is not good 
enough for Iraqi units to work with us and not report to a 
hierarchy that is Iraqi. Ultimately this force must be all 
Iraqi, and it must be under their command and control and their 
complete ability to use it in a way that will not only solve 
the internal problems that they face, but also the external 
problems.
    Senator Ben Nelson. Will that be corrected, at least in 
part, in July by turning over the authority, or will that just 
simply be one step in the necessary progression to get that 
kind of command and control?
    General Abizaid. I believe by July 1 the command and 
control will be established. But it will be about 6 to 8 months 
after that before I would regard it as being effective.
    Senator Ben Nelson. The difference between saying somebody 
is in control and actually being in control, is that accurate?
    General Abizaid. I would say that is accurate, sir.
    Senator Ben Nelson. Thank you.
    General Jones, in connection with NATO turning over the 
mission in Bosnia to the EU, obviously the transition offers 
great opportunities for NATO and the EU. NATO will have a 
partner to hand peacekeeping responsibilities to, and the EU 
will begin to develop its own security identity.
    Wearing your NATO hat, do you see the emergence of the EU's 
military capabilities as a matter of competition to ongoing 
NATO operations?
    General Jones. Senator, I see it as complementary. Most of 
the member nations of the soon to be expanded EU are also NATO 
countries. We are showing, I think, through our daily 
interaction, through the leadership of distinguished officers 
like Admiral Feist, here present, who is the single EU 
operational officer embedded in the allied command at SHAPE, 
that the worst scenario in my opinion would be to try to create 
a separate standing force structure, a separate headquarters, 
that would all draw on the same pool of assets that are already 
somewhat limited.
    Senator Ben Nelson. Well, that could have the effect of 
draining----
    General Jones. It would have a draining effect.
    Senator Ben Nelson. Which is one of my concerns.
    General Jones. It would have a draining effect on the 
alliance, in my opinion, and it would reduce our capabilities 
overall, because the percentage of the budgets that are being 
devoted to national security across the alliance are generally 
not increasing. As a matter of fact, we are finding it very 
hard to make sure that they hold, at least at their current 
level. It would have, I think, a negative effect on the overall 
capability and significantly impact--again, putting my NATO hat 
back on--the general momentum that we have in NATO to achieve a 
NATO transformation.
    Senator Ben Nelson. Well, without intending to be 
indelicate as I say this, I must admit that I do have a concern 
with siphoning away or diminishing overall the capacity of NATO 
because of the limited resources both in Europe and here at 
home and among the NATO nations.
    General Abizaid, the Personnel Subcommittee--I am taking 
the 3 minutes that Senator Roberts stole from me--has had a 
series of personnel discussions and hearings on sexual assault 
as it relates to military operations, setting aside the other 
issues that have been raised with respect to our military 
schools.
    What are your thoughts on what impacts the actual situation 
has created with respect to troop morale? Is there an impact on 
troop morale that you have been able to detect? It cannot be 
helpful, I understand.
    General Abizaid. Sir, any time that there is a sexual 
assault within a unit it affects the effectiveness and morale 
of the unit. There is no doubt about it. Our key concern is to 
make sure that we have the mechanisms in place in a combat 
theater, which I do not currently think are adequate, to ensure 
that when sexual assaults are reported, we can look into them 
quickly. Also that a reporting mechanism for women, who may not 
feel comfortable going through the chain of command exists 
outside the chain of command.
    We have them well established here in the U.S., and we need 
to have them well established in the combat zone as well. I 
believe that any organization where ill discipline occurs 
always starts to have difficulties. One of the key things we 
are looking at is what type of units have these incidents 
happened in? Are there classes of events that have taken place?
    Certainly, Senator, when these things come to our 
attention, the chain of command moves them into the Uniform 
Code of Military Justice (UCMJ) system as quickly as they can. 
But there is room for improvement, and it is important that we 
focus on the enemy and not at one another.
    Chairman Warner. Thank you, Senator, very much.
    Senator Ben Nelson. Thank you very much, Mr. Chairman.
    Thank you, General.
    Chairman Warner. Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Gentlemen, let me commend you for your service to our 
country, and when you get back to your respective commands, I 
hope you will convey to the men and women serving under you the 
appreciation of this body for their service and their 
professionalism.
    General Abizaid, we are having a debate that is going to be 
ongoing for some time relative to prewar Iraqi intelligence. 
But I want to focus for a minute on what is going on right now, 
because obviously that is the heart and soul of the operation 
that you are carrying out and obviously things have gotten 
somewhat better. I know you are limited in what you can say in 
this forum, but first of all I would like to compliment you for 
the intelligence activities surrounding the capture of Saddam. 
It was truly amazing to me that you could get that 
intelligence, you could interpret it, you could analyze it, you 
could get boots on the ground as quickly as you did and carry 
out that mission. That was one of those situations where a best 
laid plan came together perfectly.
    But with respect to what is going on now, are you 
comfortable with where you are from an intelligence-gathering 
standpoint? Are you utilizing more local Iraqis on a daily 
basis than you have in the past? How reliable is the 
information that you are getting?
    General Abizaid. Senator, I certainly agree with you that 
the key to success in Afghanistan and Iraq happens to be 
effective use of intelligence. It all comes down to whether you 
can link the intelligence and the operations in a way that 
allows you to take out a target precisely.
    No, I am not satisfied. I will not be satisfied until the 
people that we have identified as enemies of this Nation are 
dealt with, and that will take some time. That requires a lot 
of hard intelligence work. But it is not just United States 
intelligence work. As you have described, it has to be 
intelligence-sharing with all other nations in the region to 
the extent possible. It has to include, in Iraq and Afghanistan 
in particular, the establishment of indigenous intelligence 
capabilities, because ultimately in Iraq it will be Iraqis that 
defeat the terrorists and the insurgency threat, and they will 
do that by good intelligence, by good police work, and by good 
operational activities.
    We are starting to see some development of that now. But I 
remain optimistic that we will develop a capability that is 
both effective and controllable by the emerging government. One 
of the things that we have to keep in mind about Iraq in 
particular is that the Iraqi Intelligence Service was much more 
pervasive, much more in control, and much more of a terrorist 
organization than any of us had ever quite understood. So, 
whatever happens, we cannot allow the old mentality of the 
Iraqi Intelligence Service to emerge in the new police 
intelligence or national intelligence services that develop 
there.
    Without going into details, I would tell you, Senator, that 
we have good intelligence that is provided by a lot of people 
in Iraq who believe in the future of their country, and they 
come forward to us and they tell us what is going on. They do 
not tell us out of a sense of reward. They tell us out of a 
sense of knowing that if we do not take care of these terrorist 
problems, there will be no future for Iraq.
    So the number of people coming in and giving us information 
is great. Our ability to shift our focus and sift through it 
properly, of course, is always something that requires a lot of 
work. That is why I come back to this absolute need for 
intelligence professionals to stay with the team, to serve in 
these theaters, and to help us organize the effort against the 
extremists.
    Senator Chambliss. Well, that is encouraging.
    General Jones, some of the countries that are under your 
jurisdiction or your command have pushed back somewhat with 
respect to sharing of information. But over the last several 
weeks and months, we have seen the terrorists attack some of 
these folks who now understand that this has to be a worldwide 
effort.
    Are you seeing any softening in any of these countries 
relative to the sharing of intelligence information with your 
command?
    General Jones. Senator, the events of 2003, particularly 
the attacks in Istanbul, had a very sobering effect throughout 
Europe, and I think that there is an increased sense of urgency 
that this global war on terrorism is really serious business. 
But Europeans have not been idle in their treatment of the 
problem. Over the past few years there have been over 9,000 
arrests of people in Europe connected with suspicions of being 
associated with terrorist organizations. So you might not hear 
about it in the headlines, but they have been very effective in 
their own way in their own countries at understanding what is 
going on, tracking the movement of not only illegal immigrants, 
but drug trafficking and the like, the things that finance 
terrorist organizations.
    So I think that there is a sense of urgency, and I think 
that we are moving closer together with regard to tearing down 
some of the historical barriers to good comprehensive sharing 
of intelligence.
    Senator Chambliss. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    I too want to thank both of you for your service and for 
your patience in being here today and answering all these 
questions.
    I am struck, General Abizaid, by the last pages of your 
testimony where you list the needs that you continue to have 
both with respect to personnel requirements as well as 
logistics support and even some legislative authority changes. 
I appreciate the specificity that you have presented here and 
we will certainly follow up on that.
    I particularly support the Commanders Emergency Response 
Program (CERP), which I saw firsthand and its effects when Jack 
Reed and I were there. Again, thank you for meeting with us 
during our time in Iraq and Afghanistan. I think getting the 
flexibility for those funding decisions down to local 
commanders made a huge difference and I am glad we were able to 
fix some of the glitches and get the money flowing again, and I 
appreciate your raising that.
    I wanted to ask for your comment on a recent news report 
that I found very interesting and somewhat troubling. It 
concerned a report by NBC News a couple of days ago that ``The 
Bush administration had several chances to wipe out Zarqawi's 
terrorist operation and perhaps kill Zarqawi himself, but never 
pulled the trigger.''
    The story goes on to report, with both on-camera sources 
and off-camera anonymous sources, that, ``In June 2002, U.S. 
officials say, intelligence officials had revealed that Zarqawi 
and members of al Qaeda had set up a weapons lab at Khoram in 
northern Iraq producing deadly ricin and cyanide. The Pentagon 
quickly drafted plans to attack the camp with cruise missiles 
and air strikes and sent it to the White House, where, 
according to U.S. Government sources, the plan was debated to 
death in the National Security Council (NSC).''
    The report also went on to say that, ``4 months later, 
intelligence showed Zarqawi was planning to use ricin in 
terrorist attacks in Europe. The Pentagon drew up a second 
strike plan and the White House again killed it.''
    General Abizaid, do you have any knowledge of this report 
or do you have any information about any opportunities we might 
have had to take Zarqawi out?
    General Abizaid. Thank you, Senator. Also, before I answer 
I just want to say thanks for your support on the CERP. You are 
absolutely correct that ammunition is money and money is 
ammunition. It really has an important impact on the troops in 
the field.
    With regard to Zarqawi, I read the report. I think we all 
know from open sources that we were always looking at this Fort 
Campbell in Khoram up in northern Iraq, which we did attack 
during the war. But the association with a particular terrorist 
at a particular point with the quality of targetable 
information I would dispute.
    I do not think--and of course I did not have full access to 
all the information at the time. But I would be very surprised 
to find out that we had a precise location on Zarqawi or Osama 
bin Laden or Zawahiri or half a dozen of these other people 
that would allow us to launch a cruise missile from afar, and I 
suspect that that portion of the report is not correct.
    Senator Clinton. Mr. Chairman, I would ask consent to 
submit to the record the transcript of the report. I do think 
it bears further investigation.
    Chairman Warner. Without objection.
    [The information referred to follows:]

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      

    Senator Clinton. I understand that the general may not have 
direct knowledge, but I think that we should inquire further on 
the basis of that.
    General Jones, I appreciated your report about NATO and I 
was intrigued by your reference to expanding the PFP to include 
some of the countries that may not yet have formal membership 
in NATO. I would be interested in hearing specifically which 
countries those might be, if that is possible in an open 
hearing.
    But, second, I am still bewildered by the delay that we 
have seen with respect to NATO deploying further assets in 
Afghanistan. When Senator Reed and I were there we looked for 
somebody in authority in NATO to talk to us. We could not find 
anybody. We landed at Kabul with German and Belgian troops 
obviously assigned there. But despite the fact that they took 
action under Article V, despite the fact that they came in 
early to provide military support and policing support, despite 
the fact that for months we have heard they are considering 
going in in greater numbers and working PRTs, and despite the 
fact that both Secretaries Rumsfeld and Powell were there a few 
months ago discussing this matter, we have no action.
    Can you explain in more detail, what are the problems, the 
obstacles, the resistance on the part of our NATO allies?
    General Jones. Thank you, Senator. First, the PFP Program 
is one of the singular successes of the alliance in terms of 
expanding the alliance this year to 26 nations. The seven 
countries that will become full members have actually graduated 
through this program and met the requirements for accession to 
full NATO membership.
    Universally through the corridors of Brussels and other 
NATO capitals, the PFP Program is widely regarded as being 
responsible for this happy state of events. The alliance is now 
considering what the future holds for PFP and what other 
nations might be admitted as members. It is a decision to be 
made at the political level. The options would obviously range 
from additional countries to the east, without being specific 
for obvious reasons, but we also might wish to perhaps look at 
some countries in the Mediterranean, particularly the North 
African countries, like Morocco and Algeria and others that are 
showing tremendous progress, not necessarily to be future 
members of NATO because that might be a little bit of a stretch 
for some, but to have another type of partnership program that 
would cement the southern flank of the alliance a little bit 
better than it currently is.
    So I think the encouraging news is PFP is recognized as 
being one of the key instruments of NATO. The alliance will 
consider the candidacy of several nations. There are nations in 
the Balkans that wish to be considered. Serbia has been 
interested in becoming a member of the PFP. Bosnia and 
Macedonia have been fairly vocal in wishing to join the PFP 
Program.
    It is a program that people recognize. Its intent is that 
it leads to full partnership, and Russia is also involved in a 
certain special way in the PFP. It is an extremely important 
program; and it will be interesting to watch the discussions 
and the evolution. I think it is very important that we 
continue this program.
    With regard to the speed with which NATO reacts to a 
mission in Afghanistan, there are now about 6,200 NATO troops 
located in and around Kabul, which was the original mission, 
and Germany has taken the lead in a PRT in the northern 
province of Konduz. That PRT is up and operating.
    Recently, at the informal ministerial meeting in Munich, 
Germany, ministers of defense met and we were able to propose a 
plan for expansion of NATO's footprint to include another five 
PRTs, two additional in the north and three in the west towards 
Herat. Nations are now deciding how they wish to proceed, but 
there have been offers of forces and capabilities to establish 
those PRTs.
    Admiral Feist, who I introduced to the committee earlier, 
the Deputy Supreme Allied Commander in Europe, is generating 
the force. It is my belief that within the next few months we 
will have an impressive expansion of capability. It takes time. 
It is a 26-nation alliance of sovereign nations. They are 
committed in the Mediterranean and in the Balkans. Some nations 
are committed to Iraq and also to Afghanistan.
    So, I cannot fully explain why it does not happen quicker 
except to say that there is progress, and I am encouraged with 
the direction we are taking that we will eventually get the job 
done in Afghanistan.
    The ambition, the problem that I have, is to make sure that 
the political ambition is matched by the resources required. 
Historically, that has been a problem in the alliance. We have 
to recognize that. It is beyond question that once the 
political decision is made and the force generation process 
commences, that until recently, the ability to fully resource 
the force to the military requirement stated has been something 
less than desirable. If NATO is changing, and I believe it is, 
culturally, if it wishes to be able to have a global impact and 
an expeditionary capability and go to the very dangerous places 
that General Abizaid has cognizance over in Afghanistan and 
perhaps ultimately even, who knows, maybe even in Iraq, and 
wishes to get there in time to make a difference, then it has 
to be resourced out adequately in order that we do not put 
people at risk even though they are doing security, stability, 
and reconstruction type operations.
    This is very much a transition period for NATO as it turns 
itself into the wind of the 21st century. There are many 
cultural changes that are going on simultaneously to embrace 
the new realities of the world that we live in. I think we 
should be critical at the right time. I think we should be 
encouraging and supporting because, I think, in general the 
trend is very positive.
    Thank you, ma'am.
    Chairman Warner. Thank you, Senator, for bringing up the 
concept of the PFP. I believe we are on the 10th anniversary. 
It started under the administration of President Clinton, and I 
remember very well being in the North Atlantic Council (NAC) 
conference the day that Russia walked in. It was quite a 
memorable day. I was in Secretary of Defense Cohen's party that 
day, and it has worked well. I thank you for your strong 
endorsement of that program, General Jones.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    General Abizaid, we want to thank you for the tremendous 
work you are doing, the incredible hours you and your staff and 
soldiers are giving every day in a dangerous situation to 
protect the legitimate interests of the United States and help 
create a new Iraq that will be a country that people can live 
in safely and progress economically and have freedom to choose 
their futures, to help women have a better chance to succeed. 
It is a dangerous area, but you are doing it with great skill 
and I am very appreciative.
    General Jones, thank you for your leadership. Growing up in 
Europe as you did, you have the unique perspective and ability 
to communicate there. I hear nothing but good reports on your 
leadership. I know you are winning respect from the European 
military leaders and other leaders. That is very important to 
us.
    General Jones, with regard to NATO and the questions 
Senator Clinton asked about their involvement in Afghanistan 
first, tell me how big a decision that was for NATO to agree to 
take a leadership role in Afghanistan, and how do you rate that 
as part of the relationship we have with NATO?
    General Jones. Senator, I think that this was a very good 
decision. I think one of the most important events that 
happened in the near past with regard to the future of NATO is 
the Prague Summit of 2002, which came out with very clear 
guidance for whoever happens to be the operational commander, 
very clear guidance as to how the alliance wished to proceed 
and be perceived in the future.
    It demanded the creation of the NATO Response Force and 
within the NATO Response Force it stipulated that it would have 
to be a very high readiness force, able to deploy within 5 
days, with sustainability for 30 days. That alone signaled the 
entry of NATO into true out-of-area operations, I would say 
global operations. The first instance of the seriousness of the 
commitment is in Afghanistan, where NATO is currently 
considering and will expand significantly its operations and 
may in time, with the coordination with OEF, take up the 
majority, could potentially take up the majority of the 
stability, security, and reconstruction operations in 
Afghanistan.
    This is a very serious matter. It is being given a lot of 
thought in Brussels and elsewhere and we are in the first stage 
of implementing that new capability and that new commitment to 
be more influential in global affairs, but in real time.
    Senator Sessions. I was somewhat troubled by a recent 
report that NATO may not be sending as many troops to 
Afghanistan as they were originally projecting because of 
budgetary concerns. Are you aware of and concerned about that?
    General Jones. We have proposed from the military 
headquarters, which is SHAPE, to the North Atlantic Council the 
force required to support five additional PRTs. It is my 
understanding that nations are evaluating that recommendation 
and that we will soon be generating the force required to 
support those five reconstruction teams.
    So I believe that there will be different opinions, 
obviously, on the plan. There will be people who might disagree 
with certain aspects of it. But I believe the alliance is 
committed to doing more in Afghanistan, and I believe that we 
are on the way to doing that.
    Senator Sessions. General Jones, I think those are good 
developments, and we need to work with NATO and build that 
relationship that has the potential to create a partnership as 
we work together to protect our just national interests and 
preserve a peaceful, prosperous world.
    Of course, NATO's military, the number of people in uniform 
in the NATO European countries, actually is larger, I believe, 
than the number of United States soldiers in uniform. They are 
not as well configured, I think, to meet modern challenges, but 
they have a large number, and we need to work at that.
    I want to ask you about your plan to reconfigure our 
deployment in Europe. I like what you were talking about, a 
more expeditionary concept, moving more east and south where we 
can get better basing and air space and also be more available 
for deployment in hot spots that may occur. As I look at the 
numbers, the report I have, we have 70,000 soldiers in Germany. 
I know Germany was not with us in Iraq, and there are still 
some hard feelings about that. But beyond all that, it strikes 
me that the 118,000 uniformed personnel we have in Europe with 
125,000 dependents is way out of proportion to the reality of 
our world threat today.
    We are going through a base closing and realignment (BRAC) 
process in the United States. We would like to have bases, too. 
I am sure the Germans and everybody like our money being spent 
in their neighborhood. It is very popular. We are going to 
close a lot of bases in this country on one basis, I hope and 
trust, that it is good for the United States, it is a good, 
wise use of our money.
    I would just encourage you to fully understand that the 
American people and I think this Congress want a presence in 
Europe, a presence around the world. But we want as lean a 
presence as possible. It is not out of any pique at any other 
country. But if we cannot justify 70,000 troops and all those 
dependents in Germany, we ought to bring those numbers down, 
just like if we cannot justify it in Alabama somebody has to 
bring those numbers down.
    General Jones. Thank you, sir. Transformation is about 
developing how forces, through fairly dramatic reconstruction, 
can become more strategically effective. The old basing 
paradigms of the post-World War II era with the, I call it, 
fortress America, with the cities and the shopping centers and 
the families and the schools, while very important in the 
aftermath of World War II and still important from a standpoint 
of providing a launching pad for future forces, do not have to 
be nearly as numerous and, more importantly, we do not have to 
build new ones.
    So that the strategy, the strategic force of the future, at 
least in EUCOM and I think elsewhere, will be based upon a 
family of bases that are more expeditionary, that we can get to 
quickly. In this 93-country AOR, we are building a library of 
existing runways, ports, facilities, and relationships with 
countries we may need for response to crisis or response to 
interoperable training or whatever the reason, we know where 
these facilities are, so we have an ability to project forces 
over a broader distance.
    The force of the future will have some forward basing. It 
will be augmented by rotational forces coming from anywhere in 
the United States. It is an interesting and a little-known fact 
that the majority of forces in the Balkans come from the 
National Guard today. It does not matter that they are not 
based in Europe. They are doing an extraordinarily good job. It 
is a high morale mission. They are great soldiers. This 
rotation comes from Minnesota.
    So the old concept that we used to justify troop strength 
in Europe to defend against the former Soviet Union simply does 
not apply any more, and you will be, I think, pleased with the 
new structure, when it is announced, of the forces that we have 
in Europe. But you will also be, I think, energized by the fact 
that this new force, although lesser in size, will be able to 
be more effective across the length and breadth of our AOR.
    Senator Sessions. Thank you.
    General Abizaid, I too want to say I support very strongly 
the idea that our commanders need more funds that they can 
utilize to deal with situations in their areas of operations. I 
think it will make their soldiers safer. I think it will be 
spent more wisely than otherwise would be the case, will be 
done more promptly and effectively, and I believe we need to 
move on that. I support that and look forward to my second 
visit with you in a few weeks.
    General Abizaid. We look forward to seeing you there, 
Senator.
    Senator Sessions. Thank you.
    Chairman Warner. Thank you very much, Senator Sessions.
    We are pleased to recognize our distinguished colleague, 
Senator Lieberman. I think the record should reflect that this 
Senator, the distinguished Senator from Connecticut, has been 
in the forefront of the war on international terrorism. You 
were my principal co-sponsor in 1991 of the resolution to 
authorize then-President George Herbert Walker Bush to use 
force in Iraq. Again, you rejoined me, Senator McCain, and 
Senator Bayh in authorizing the resolution in the fall of 2002.
    Senator, we are very honored to have you as a vital member 
of our committee.
    Senator Lieberman. Thank you very much, Mr. Chairman. It 
was an honor to join with you on both of those occasions and 
many others. I certainly feel a sense of pride about what we 
did together and a confidence that the result was to make the 
American people and the world safer than they would otherwise 
be.
    Of course, the reason for that is the military, represented 
by General Jones and General Abizaid before us today, who 
implemented the resolutions that we were honored to put before 
the Congress. I thank both of you.
    I thank you, Mr. Chairman, Senator Levin. This has been a 
very productive and informative hearing. I must say, with the 
unique perspective I have just coming off the presidential 
campaign trail, I think it has focused us with regard to Iraq 
exactly where we ought to be. There is an inevitable way in 
which the natural drift of our politics may well continue the 
focus on how we got into Iraq, what the quality of the 
intelligence was, who did what. Those are not unimportant 
questions. They are quite important, but they cannot be 
allowed, even in this election year, to take us off the target, 
and the target is to successfully complete the mission in Iraq.
    It is of enormous importance now in the wider war against 
terrorism because of the forces that are engaged there. It is 
of enormous importance in our long-term commitment to create 
stability and hopefully opportunity and democracy in the Middle 
East, and it is enormously important to our security as 
Americans that the battle is really joined in Iraq between the 
forces of terrorism and the forces of security, the forces of 
tyranny and the forces of freedom.
    I do think, Mr. Chairman, under the leadership of yourself 
and Senator Levin, that this committee has a uniquely important 
role to continue to focus Congress, particularly in this 
election year when the normal cross-currents and swirling will 
be going on in public debate, on coming together, as we have 
most of the time certainly at our best on this committee, to 
focus on helping our military successfully complete this 
mission on our behalf. I think this hearing today is 
particularly focused on that.
    General Abizaid, just to focus now for a moment on the 
security question, which is clearly critical. The successful 
completion of our mission is a combination of our ability to 
work with the Iraqis and coalition forces to maintain security 
and also to create the social and economic conditions in Iraq 
that will make the country more secure.
    Obviously, this has been a tough week and a tough period of 
time. Tuesday, I gather, was the deadliest day in Iraq since 
May of last year. Maybe as many as 185 people were killed. 
Clearly, the insurgent and terrorist forces want to destroy 
security, want to create a civil war. It is creating unrest, 
unhappiness, anger among the Iraqi Shiites.
    I saw a quote today in the paper from one of them: ``We do 
not want the police and the military, we do not trust them.'' 
It is also creating problems for our Intelligence Community, 
which is critical to our success there, as you said. Someone 
was quoted in the paper today from an unnamed intelligence 
agency: ``The violence is making it more difficult to 
operate.''
    So I wanted to first ask you this question. There have been 
reports that there is a plan for our military to essentially 
move out of our major urban bases and occupy more fortified 
bases for regional control, as somebody described it to me, 
conducting selected operations from there and yielding most of 
the security responsibility, in the urban areas at least, to 
the Iraqi forces.
    So my question is: Is there such a plan? If so, when do you 
hope to implement it? Of course, the larger question is: Are 
the Iraqis really ready to take on that responsibility alone, 
or certainly more than they are today?
    General Abizaid. Senator, there is a strategic direction 
which as an outline of a long-term effort makes a lot of sense 
to me, which is over time, and where geographically possible, 
you turn over more and more control to Iraqi security forces as 
they are able to take control. I believe that we have 
characterized this correctly by calling the first step local 
control, and local control means essentially Iraqi police units 
and ICDC units doing the day-to-day policing of major urban 
areas or those areas where they are capable of doing it and 
that there is good cooperation between the populace and the 
security forces.
    We can envision a time where we move to a greater standoff, 
where Iraqi military forces are more and more capable and Iraqi 
border police forces are more and more capable, where 
essentially coalition forces are used more to defend the 
territorial integrity of Iraq against external threats. Then 
obviously I think you get to the point where you go into the 
period of what I would call strategic standoff, which allows 
you to continue to build Iraqi security capacity through a 
robust system of security cooperation, that it puts 
expeditionary forces in readiness to come to the aid of an 
Iraqi government should it, number one, require it; number two, 
request it.
    To me this is a logical way of looking at how the mission 
would progress. But there is a misreading largely in the press 
of the idea that we are going to move to regional control 
immediately, and we will not do that. We will reposition forces 
in places like Baghdad, for example, in order to get enduring 
installations in the right locations.
    The number of patrols in Iraq is pretty much the same today 
as it was 6 or 7 months ago, with the exception that there are 
more patrols in Iraq being done jointly between Americans, 
Iraqi military units, and Iraqi police units. So the natural 
evolution certainly has to take place, but it is an evolution 
that has to be synchronized with political activity and 
economic activity to a certain extent.
    People seem to think that you must have security before the 
others can move forward. But the truth of the matter is you 
have to synchronize security, economy, and politics in a manner 
that allows people to have a better future. I think we all need 
to understand that there is a certain level of violence in Iraq 
that as long as we are there we will face, and there are no 
places in Iraq that we can retreat behind and allow us to be 
safe.
    The safest way to deal with Iraq is to be out with the 
population, to be developing security forces, to engage with 
people, to try to make their lives better, and at the same time 
aggressively confront the enemies that are trying not only to 
kill us but to kill them, their own people.
    So I know that is a long answer, but I am satisfied that 
the plan that General Sanchez and I have discussed militarily 
is one that will continue to keep military forces properly 
engaged. Ultimately all of us understand that we have to take 
some risks in turning over control and authority to Iraqis. We 
have to understand that this is not our country. There is 
nothing in Iraq that belongs to the United States of America, 
and we have to have this courage to look at the Iraqis when we 
think they are ready and say: This is now your street to 
patrol, this is now your city to control; and when they need 
help, come in and help them.
    There will be times, Senator, when we will meet with 
failure. But over time we will have more and more successes. As 
I said, I believe that is the right thing to do.
    Senator Lieberman. Thanks very much for that answer. I take 
encouragement from it, and I hope it will clarify some 
questions people have raised, because this plan to move out of 
the urban areas into a kind of regional control--you used the 
terms, I believe I am quoting right, ``long term'' or ``longer 
range,'' to do it where it is geographically possible and turn 
over more responsibility to the Iraqi security forces as they 
are able to assume that control.
    So is it fair for me to conclude that you are not on a 
particular timetable in implementing the plan?
    General Abizaid. Sir, we are not on a timetable. We are on 
a timetable to do the mission right.
    Senator Lieberman. Because the conclusion that some are 
coming away with--and I agree this is mostly in the press, but 
I think it is very important. Frankly, going back to what I 
said at the beginning of my remarks about the intermixing of 
politics and the carrying out of your mission--that this might 
actually happen as of June 30 when the transfer of sovereignty 
occurs. I take it that that is not your plan?
    General Abizaid. Sir, it is not our plan and it is not the 
plan of the IGC, either. They have clearly put language in the 
Transitional Administrative Law that talks about a multi-
national commander that was established under the provisions of 
U.N. Resolution 1511 or any other subsequent resolution that 
may come about, continuing to maintain operational control of 
all forces, to include Iraqi forces in Iraq.
    But I would also say, Senator, that it is very important 
for us to not only make the Iraqis understand, but make our own 
people understand that we must move from a position of 
perceived occupation and control to one of partnership. I would 
say the post-June 30 period represents an opportunity for us to 
be in partnership with the Iraqis more so than some might say 
today.
    Senator Lieberman. I know we share that goal. Of course the 
worry would be--and I am sure you will not do this--that the 
transfer could occur prematurely, so just while the Iraqis were 
beginning to assume sovereignty that vulnerabilities or even, 
at worst, chaos would result, and that the insurgent and 
terrorist enemy would strike and take advantage of it. That 
would be the most staggering disaster that could occur.
    General Abizaid. Sir, this mission will take a lot of 
toughness, a lot of courage, and a lot of determination. Our 
soldiers have it and so do the Iraqi people.
    Senator Lieberman. Thank you very much.
    Thanks, Mr. Chairman.
    Chairman Warner. Thank you, Senator Lieberman.
    In your response to one of his very able questions, you 
talked about the patrols by U.S. forces and working elements of 
the Iraqi army and police and so forth. I just want to make 
sure that the record reflects that similar patrols outside of 
the Baghdad area are being conducted by coalition forces, so in 
no way are just U.S. forces in the more serious aspects of 
harm's way. Am I not correct on that?
    General Abizaid. You are correct, Senator.
    Chairman Warner. The Iraq Survey Group (ISG) is one that 
certainly is of great concern to this Senator. I want to make 
certain that it has the adequate numbers, the adequate 
resources, and the adequate interest on the part of you and 
your subordinate commanders as it completes its mission, which 
mission is quite indefinite. Can you give us a little update on 
that?
    General Abizaid. Sir, the ISG continues to carry out its 
mission. I agree with you that one of the most important things 
we must understand is what happened to the weapons of mass 
destruction, and we do not know the answer to that. Until we 
know that answer----
    Chairman Warner. Well, we know part of the answers, but the 
full picture is yet to be developed.
    General Abizaid. Sir, I agree we know partially, but we 
need to know completely.
    Chairman Warner. Yes, and I share that view.
    General Abizaid. So I think, Senator, that the mission will 
continue, but the mission will continue in a way that is 
complementary to the counterinsurgency work that is going on in 
a way that has already proven to be very beneficial to both 
General Dayton's mission and General Sanchez's mission. So I 
would expect that we will continue to look, not only on the 
ground, but look in the documents for some sort of an 
indication as to what happened.
    Chairman Warner. Very often the ISG has come across 
intelligence which is of direct value to those performing the 
counterinsurgency operations, and therefore I think that is 
what you meant when you said they work in a cooperation and are 
related.
    General Abizaid. Those are great people in the ISG.
    Chairman Warner. Oh, they are. I am very impressed with 
General Dayton. I have met with him each time he has been back 
here. I like the new civilian counterpart, Dr. Duelfer, who is 
over there working with him.
    Now let us turn to--I think it is important that every 
record of this committee, when it is appropriate, reflects your 
views with regard to Osama bin Laden and current efforts under 
way and the extent to which the government of Pakistan and its 
forces are contributing and supporting those efforts to try and 
in one way or another apprehend him and his principal 
lieutenants.
    General Abizaid. Sir, of course you have read and heard in 
the press the idea that Osama bin Laden is surrounded, and we 
have him cornered, and we know where he is, et cetera. Of 
course, we do not know that. It is our belief that somewhere 
along the Afghan-Pakistani border area, either on the Pakistani 
side or on the Afghan side, we will find him and his close 
companion Zawahiri.
    We are conducting very robust military operations on the 
Afghan side of the border with coalition forces. We have had 
good effect against Taliban. We have had good effect against al 
Qaeda forces that we found there. On the Pakistani side of the 
border, I think it is clear to President Musharraf and the 
Pakistani people that Osama bin Laden, Zawahiri, and al Qaeda 
represent a threat to their freedom and a threat to their 
continued development as a moderate state of great importance 
in the region.
    So Pakistani forces have been operating in the federally 
administered territories up along the Afghan border in a way 
that we have not seen in a while, but in a way that I think 
will have effect on terrorist organizations.
    Senator, manhunts are not things that militaries do well. 
What we do well is put pressure on groups and organizations, 
and we are continuing to put lots of pressure on al Qaeda and 
the Taliban in areas along the border that does not allow them 
to have a sanctuary from which they can plan new attacks 
against the United States.
    I think it is of great importance to our Nation to bring 
these two people to justice, but it is of even greater 
importance to our Nation to ensure that this organization, al 
Qaeda, is destroyed.
    Chairman Warner. I thank you.
    General Jones, last spring my distinguished colleague 
Senator Levin and I co-authored a declaration included in the 
resolution of ratification of the most recent round of NATO 
enlargement. That resolution would have the United States bring 
up for discussion in the North Atlantic Council the question of 
whether NATO should continue to make all decisions by 
consensus.
    In the areas under your responsibility, such as planning 
and conduct of operation, has the consensus rule worked? Do you 
have the authority to plan potential contingency operations 
before the council formally approves such planning? As you 
anticipate NATO's expansion to 26 members, in other words 
giving another significant number of members veto power, do you 
think it would be useful for NATO to have the flexibility to 
reach decisions on certain matters by means other than the 
consensus rule?
    We ask this question each time you come before us because 
it is of great concern to not only this committee, but I 
believe the Congress as a whole. So this is your opportunity to 
give us an update on a subject which you have closely followed.
    General Jones. Thank you, sir.
    The terms of reference that govern our activities, whether 
for the Military Committee or the two strategic commanders, are 
products that were created in the 20th century under another 
time.
    Chairman Warner. When you say ``another time,'' that is a 
key phrase. You are referencing the Soviet Union and the Warsaw 
Pact?
    General Jones. Yes.
    Chairman Warner. The world threat situation has changed so 
dramatically to where we are now confronted, NATO and all 
forces of freedom, confronted with non-state-sponsored 
terrorism, in which instance you have to move with the greatest 
of speed to interdict or further prevent their efforts.
    General Jones. It is my opinion, and that of Admiral 
Giambastiani, the Supreme Commander for Allied Command 
Transformation, that it is time to look at the foundational 
documents that govern the way we do things, the speed with what 
we do them, the processes, to see if in fact they are in 
consonance with what it is we are asked to do.
    The Prague Summit signaled a stark change in the 
capabilities that NATO wishes to acquire, and it also signaled, 
I think, the entry into a 21st century capability that suggests 
that NATO wishes to be involved on the global scale and have 
the capability to do so. That includes acquiring some of the 
higher end items of warfighting: transformation of NATO 
logistics, transformation of the modes by which we deploy.
    The starkest example that I can come up with is the 
prescripted requirement to develop a NATO Response Force that 
can deploy within 5 days and sustain itself for 30 days on a 
mission, presumably anywhere on the globe. We have been working 
with the authorities, the Military Committee, the chiefs of 
defense of 19 sovereign nations, soon to be 26, the Secretary 
General of NATO, and after reviewing the baseline document that 
governs the way we do business, we are hoping that the decision 
will be made in the near future, perhaps in May, to open those 
documents, to rewrite them in such a way that things like 
prudent military planning and the execution phase of a decision 
to pass to operations can be done in a manner that is 
consistent with the overall transformation of NATO.
    In other words, the fundamental rules that govern our 
behavior, that govern the way we make decisions, have to be 
looked at to see if they are in consonance with the desires of 
the Prague Summit, and I believe that the Secretary General and 
others are willing to do that. I would expect that at the next 
full meeting of the Military Committee with the chiefs of 
defense that they will look at those documents and decide that 
it is time to update those documents in a way that will enable 
us to do those things that 19 sovereign heads of state have 
mandated us to do.
    Chairman Warner. You mentioned the word ``May.'' That 
coincides with the Istanbul Summit or it is preliminary?
    General Jones. It would actually precede it, Mr. Chairman.
    Chairman Warner. That is a matter that should be brought up 
at that summit?
    General Jones. Yes, sir. I think it will be dealt with by 
the full meeting of the Military Committee with all 26 chiefs 
of defense and the two strategic commanders. Really, I think it 
is such an obvious requirement that I think we will be under 
way with this.
    Chairman Warner. I will be in consultation with my 
colleague, but I think that it might be appropriate if we wrote 
a letter asking specifically that this be an agenda item and 
the preliminary work done.
    I thank you, General.
    General Jones. Thank you, Senator.
    Chairman Warner. Senator Levin.
    Senator Levin. Thank you.
    I understand from your answer that the issue which the 
chairman raised about the consensus requirement, which gets 
clumsier and clumsier as you have more and more members and 
have to reach out further and further, that that would be one 
of the issues that would be under consideration: Is that fair?
    General Jones. I think nations would--I do not want to 
speak for the individual nations at the political level, but I 
think that is something that has been discussed, and I think 
the evolution towards whatever solution may be found, would be 
something along the lines that nations do not have to be bound 
to support a given operation if they do not wish to, but at the 
same time do not arbitrarily have to say, to bring the 
operation to a stop simply because we do not wish to 
participate.
    I will say that I think the consensus rule is at least 
intellectually a good thing, because it stimulates debate and 
you get good ideas, but at the time when you decide how you are 
going to announce your decision, that is where building the 
NATO Response Force and this very capable force kind of comes 
into a sense of a new dimension where speed of decisions are 
also important if you wish to affect the outcome of a 
particular crisis.
    Senator Levin. Having 26 possible vetoes over moving a 
force, putting together a force in 5 days and moving it 
somewhere is not the way to operate.
    General Jones. No, sir.
    Senator Levin. I hope that you are able to get that on the 
table for a real thorough discussion, because it is a new 
world.
    General Jones. Yes, sir.
    Senator Levin. General Abizaid, the President of 
Afghanistan, in response to a journalist's question, last week 
implied that al Qaeda and the Taliban were becoming--well, he 
said the following: ``That we strongly believe, with evidence, 
that they are defeated, they are gone. We do not see a 
resurgence of the Taliban. The Taliban is a movement that does 
not exist any more.''
    Would you agree with that?
    General Abizaid. Sir, I would not want to be one to 
contradict President Karzai. However, I would say that the 
Taliban as a movement is in very desperate straits and al Qaeda 
as an organization is under a lot of pressure, but both the 
Taliban and al Qaeda are resilient in Pakistan, and they are 
dangerous in Afghanistan.
    There are some very promising signs, however. Certainly 
some mid-level leaders that had been prominent in the Taliban 
movement have approached various people about chances for 
reconciliation. So there are hopeful signs that people want to 
get on with a better future in Afghanistan.
    But these are dangerous foes. They remain dangerous to 
President Karzai and they remain dangerous to us.
    Senator Levin. General Abizaid, the Marines, I understand, 
plan on rotating into Iraq in March with two 6-month rotations 
of 21,000 marines each. Why are the Marines going on 6-month 
rotations while the Army does 12-month?
    General Abizaid. Sir, I do not know that.
    Senator Levin. You do not know that what I am saying is 
accurate?
    General Abizaid. I do not know that the Marines are 
planning on two 6-month rotations. I know that General Hagee 
talked with me about being flexible with regard to Marine 
deployments. Since about one-third of the marines that are 
entering into Iraq have already served there and as rotational 
schedules are under the purview of the Services, I am okay with 
that.
    Senator Levin. There is a program in Korea called the 
Korean Augmentation to the United States Army (KATUSA) where 
Korean soldiers, South Korean soldiers obviously, are 
integrated into U.S. units. Do you see that that might be a 
possible program in Iraq?
    General Abizaid. Sir, I think it is a program that we have 
looked at before and that we talked about before. But I think 
it is better to have U.S. mentors in Iraqi units rather than 
Iraqi soldiers serving in U.S. units in a KATUSA-like program. 
I think the partnership is important, but the partnership is 
stronger with U.S. units training and mentoring Iraqi units.
    Senator Levin. Relative to the Iraqi army, to your 
knowledge were our uniformed military leaders asked for their 
recommendation relative to disbanding the Iraqi army prior to 
that decision?
    General Abizaid. Sir, I am not completely sure whether 
General Franks was asked about his opinion. At the time he was 
the combatant commander. I cannot answer that.
    Senator Levin. Were you asked?
    General Abizaid. No, I was not.
    Senator Levin. Just one other comment about NATO. General 
Jones, the chairman made a comment about the importance of a 
robust NATO and a forward engagement approach, which a number 
of my colleagues have endorsed here today, and you clearly 
testified relative to that fact. I just want to join the 
chairman in those comments.
    I think there is a very strong consensus here that you are 
moving in the right direction, meeting new threats; and you 
should just be aware that there is, I think, a really strong 
consensus in Congress supporting the direction that NATO is 
moving.
    General Jones. Thank you very much, Senator. That is very 
gratifying to hear. I think in the near future you will see 
that--yes, last year when I was here I characterized NATO as 
being at the crossroads between two centuries, and 
``crossroads'' means you have choices, directions you can take. 
I think NATO in this past year has taken a very strong step in 
the right direction.
    We need to have this strong consensus here in the United 
States and the support of this committee towards that 
direction, because it will only help the world's situation if 
we are able to bring an armed force of 2.4 million people in 
uniform in Europe into more productivity on the world stage. It 
will help us immeasurably.
    Senator Levin. Thank you both again.
    Chairman Warner. Thank you, Senator Levin.
    Gentlemen, I am faced with the need to get to the floor. 
There is a very critical amendment, Senator Levin, on Buy 
America provisions and I am hopeful that Senator McCain and I 
and others can make some provision for DOD amendments to 
protect our ability to do contracting and to access the 
industrial base, weapons base, of other countries in such a way 
as to strengthen our own forces.
    But I am just going to mention quickly subjects of 
questions and I am going to ask, if I might, for you gentlemen 
to reply in due course to these questions in the record. The 
status of forces agreement, General Abizaid; I am concerned 
about that, particularly how we protect U.S. forces after June 
30 from any basis of prosecution under Iraqi law.
    Iran again harboring al Qaeda and other interests. The 
nuclear development program. I would like to have your 
assessment with regard to the threat of that mission today. 
Recent change in their political structures, we need an update 
on that.
    Pakistan. General, President Musharraf continues to be a 
very strong working partner and has done a great deal to date. 
Nevertheless, they have been involved in alleged activities on 
proliferation of WMD, perhaps entirely in the civilian 
structure. But I need again your assessment on the level of 
support that we are receiving from the president and other 
Pakistani security interests in this global war on terrorism.
    NATO peacekeepers in the Middle East. This is a subject 
that you and I discussed regularly, General Jones. I feel that 
if the governments of Israel and Palestine were to issue an 
invitation that NATO might have some role to help stop the 
incredible amount of loss of life on both sides, the 
instability in that region.
    I also feel, General Jones--I think you share this view 
with me--that we cannot look at Iraq and to a lesser extent 
maybe Afghanistan, isolated from this conflict, because the 
strong emotional feelings surrounding this conflict have worked 
their way into the minds of others who are directly influencing 
the course of events in Afghanistan and Iraq.
    The Horn of Africa. General Abizaid, I am pleased that your 
command has that AOR and you have given it the focus and 
attention, because help is needed in that area to the extent we 
can get it. If we do not, it will spread elsewhere.
    The National Intelligence Estimate (NIE) on Iraq. I want to 
get an update in detail on that and what assistance you might 
be receiving from other nations and what more can we do to 
assist you in that.
    The Afghanistan illegal drug trade, General Jones. This 
concerns this Senator a great deal. Mixed reports, but clearly 
a strong and more robust activity on that front. In parallel, 
at the same time we are making progress in Afghanistan. Both 
generals have responsibilities in this area at this time. So I 
am hopeful that you can provide additional information to this 
committee.
    [The information referred to follows:]

    Afghanistan's illegal drug trade has increased over the past 2 
years and returned to record high levels of production and processing. 
Resulting increased discovery of drugs and drug paraphernalia by 
coalition forces has resulted in the need for field commanders to 
clarify procedures for disposition of drugs and drug paraphernalia 
discovered during normal operations. This guidance specifically 
addresses which items may be retained for possible future transfer to 
the Afghan Government and which items coalition units retain the 
authority to destroy. CENTCOM and supporting subcommands do not have a 
counternarcotic or law enforcement mission. However, subcommands 
continue to discover drugs and drug paraphernalia during the course of 
normal operations (i.e. cordon and search, vehicle check point) .
    Confiscating drugs and drug paraphernalia found does not convert 
combat or stability operations into either a counter-narcotic or law 
enforcement mission. The on-scene commander will report any quantity of 
drugs or drug paraphernalia found during normal operations and then 
confiscate and destroy the drugs and drug paraphernalia. This authority 
does not extend to the destruction of poppies in fields or unprocessed 
poppies. Additionally, CENTCOM will play a role in supporting the 
United States Government's commitment to collect drug-related 
intelligence to include suspected locations of stockpiles, opium 
bazaars, known traffickers, and shipments of narcotics and precursor 
chemicals, and will forward this information to the United Kingdom, in 
accordance with existing arrangements. Our forces will also provide 
United Kingdom Forces the use of U.S. facilities for storage and 
forward mounting purposes whenever possible.

    Chairman Warner. All right, gentlemen. We have had an 
excellent hearing. I know this takes you away from your 
respective commands, but it is enormously important to 
Congress. This is the third committee you have been before this 
week and you fulfill your duties with great distinction. 
Particularly, both of you have, I guess I can use the word, 
mastered congressional relations and work it very well.
    Thank you.
    Senator Levin. Was that a compliment, Mr. Chairman?
    Chairman Warner. I think that is a compliment.
    Senator Levin. Be careful.
    General Abizaid. Sir, it is a great honor to sit next to 
General Jones today. We served together. I was his subordinate 
in northern Iraq, and I would welcome him taking northern Iraq 
if he would like to, any time he is ready.
    General Jones. I was just about to propose. I have 93 
countries. I have about half a dozen that I would like to----
    Chairman Warner. That you could shift off.
    But I do remember very vividly being with our former 
distinguished chairman, Sam Nunn, in NATO South headquarters 
with the then-NATO commander, who later became the CNO. I 
recall him very well with great fondness. In the room you 
walked in your combat fatigues and briefed us extensively. Was 
that the same period of time when you two gentlemen were 
together?
    General Jones. Sir, that was about a year and a half later.
    Chairman Warner. Than when you were first linked up?
    General Jones. We were linked up in the spring of 1991 in 
northern Iraq for Operation Provide Comfort.
    Chairman Warner. I remember that, yes.
    General Jones. Then I was subsequently assigned as the 
Chief of Staff for Operation Provide Promise for the Balkans, 
and that was at Admiral Boorda's headquarters.
    Chairman Warner. Gentlemen, you offer tremendous 
inspiration to those young officers, men and women, and their 
families coming up through the ranks. I think they say: Well, 
if those two guys can succeed, we have a chance.
    Thank you very much.
    [Questions for the record with answers supplied follow:]
              Question Submitted by Senator Susan Collins
                             troop rotation
    1. Senator Collins. General Abizaid, in your testimony before this 
committee in September you said, ``One of the most important things for 
any soldier to know is when are they coming home. They need to know 
that. Unfortunately, I can report to you that not all of them know that 
. . . I take it as my responsibility, I will work it, and I will ensure 
that the new guys coming in know when they're coming home. Nothing is 
more important. It is not right now and it needs to be fixed. I am 
concerned about the troops in Iraq who still have not been given dates 
on when they will return home. That includes the National Guard and 
Reserve, some of whom have been in Iraq for nearly a year with no clear 
indication of when they will return. Can you give us a clearer picture 
of rotation dates?
    General Abizaid. U.S. Central Command (CENTCOM) diligently tracks 
all force rotations and values the importance of informing every level 
of command of their established rotation dates. The CENTCOM Force 
Rotation Tracking Cell meets daily to de-conflict any issues with units 
exceeding the original deployment dates, or ``boots on ground (BOG) 
date.'' CENTCOM's guidance is very clear on this issue; all battalion 
and separate company-level units will know their BOG date and CENTCOM 
meticulously tracks those dates to mitigate any problems.
    Combined Joint Task Force 7 (CJTF-7) tracks unit BOG dates down to 
the battalion and separate company-level using the CJTF-7 Master Force 
Tracker. This is an EXCEL Spreadsheet used to track the transition of 
units between Operation Iraqi Freedom (OIF)-1 and OIF-2. This document 
is maintained on the CJTF-7 secure Web site for all to view, thus units 
can check their BOG data at any time.
    Several tools assist rotational planners in tracking unit BOG 
dates.

        <bullet> The best system for determining unit BOG is the 
        Mobilization Deployment Integration System (MDIS).

                <bullet> Web-based database that lists the actual 
                arrival dates of all units in theater and lists the 
                deployment information for units as they arrived in 
                theater. (The most difficult thing when determining a 
                unit BOG date is that no Web site or database actually 
                contains a field titled BOG, thus it is not an exact 
                science).

        <bullet> Only the Secretary of Defense is authorized to extend 
        a unit beyond their BOG date.

                <bullet> Thus far, the Secretary of Defense has granted 
                15 extensions to unit BOG dates for the OIF-1 and OIF-2 
                transition, which have affected slightly less than 
                2,000 soldiers.
                <bullet> These extensions have averaged 24 days, with 
                individual unit extensions spanning a period between 5 
                and 60 days.

        <bullet> The CJTF-7 Transition Cell conducts weekly Transition 
        Boards, chaired by the Deputy Chief of Staff, to establish 
        dates for unit rotations or redeployments.

                <bullet> CJTF-7 coordinates logistics support and 
                administrative arrangements with Coalition Forces Land 
                Component Command (CFLCC) in Kuwait, and then publishes 
                a Fragmentary Order (FRAGO) delineating significant 
                unit transition information.
                <bullet> This FRAGO contains the unit's transfer of 
                authority (TOA) date, release date, redeployment 
                assembly area (RAA), the date to occupy the RAA, and 
                the unit's projected available-to-load date (ALD).
                <bullet> Along with dates and locations, this FRAGO 
                informs the units how to execute redeployment, giving 
                instructions and points of contact within CFLCC to 
                assist in their movement out of theater. This FRAGO as 
                with all CJTF-7 orders is posted on the CJTF-7 SIPR and 
                CENTRIX Web sites for units to download.
                <bullet> Subordinate units have similar tools as the 
                CJTF-7 Master Force Tracker to track additional data to 
                ensure that units depart theater in a timely manner.
                <bullet> CENTCOM has no separate channels for informing 
                Guard and/or Reserve units vice active component units. 
                All units are part of a chain of command. Thus, the 
                chain of command informs subordinate units and soldiers 
                of their redeployment instructions.
                <bullet> CENTCOM projects all OIF-1 units to be closed 
                back in their home station by end of May 2004. Every 
                effort is made to ensure all units understand and can 
                convey their BOG date to all soldiers. CENTCOM focuses 
                on providing the warfighting commanders with maximum 
                flexibility, and capability to support theater 
                operations, and to maintain security without 
                interruption. This is a critical ingredient to 
                developing a viable rotation schedule of this 
                magnitude. From Jan.-May 2004, CENTCOM will have 
                facilitated the historic movement of over \1/4\ million 
                servicemembers in/out of the CENTCOM area of 
                responsibility (AOR).
                <bullet> Early arrival and late arrival dates to duty 
                station: 
                
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                
      
                                 ______
                                 
             Questions Submitted by Senator Elizabeth Dole
                      input on resource allocation
    2. Senator Dole. General Jones and General Abizaid, I would like 
each of you to comment as to whether you, as combatant commanders, had 
sufficient input and whether your priorities were given sufficient 
weight as the Department of Defense (DOD) conducted its resource 
allocation decisions leading up to the fiscal year 2005 President's 
budget.
    General Jones. U.S. European Command (EUCOM) was afforded the 
opportunity to provide input during the program and budget review 
cycle. At the time my overall analysis showed that risk levels for 
current theater requirements were as expected and resourcing was about 
right. With the advent of the Secretary of Defense directed Joint 
Capabilities Development Process (JCDP) the weight placed on my input 
will continue to increase.
    We have closely coordinated and worked with the Office of the 
Secretary of Defense (OSD) and with the Services that possess Title 10 
authority for funding our requirements. First the components in EUCOM 
and their respective Services have coordinated and synchronized our 
requirements in a fiscally challenging time. At the EUCOM level we have 
further refined and outlined our priorities in the Integrated Priority 
List (IPL) that was submitted to the OSD. An element from the EUCOM 
staff visited the Services in December 2003 to continue the 
coordination with the Services and ensure that the priorities outlined 
in the IPL were clearly understood. The Services have been extremely 
supportive working with us and our components here in EUCOM. OSD has 
likewise listened to and understands our priorities. One clear example 
in this regard is that the fiscal year 2005 request for funding 
reflects three agency projects that were originally requested but not 
appropriated in fiscal year 2004. 
    General Abizaid. The CENTCOM portion of the overall President's 
budget is minor in comparison to Service budgets. Our direct budget 
only covers the necessary funds to operate the headquarters. The cost 
of our day-to-day operations is bourn by our Service components. It is 
their responsibility to budget through their Service channels for the 
missions and tasks assigned to them by CENTCOM. As you are aware, each 
combatant command has a Service Executive Agent for funding. The 
CENTCOM's funding executive agent is the U.S. Air Force. We work 
through the air staff to address our headquarters requirements. Between 
CENTCOM and the air staff, we feel our priorities are well aligned, and 
we have sufficient avenues of redress to resolve any disconnects that 
may arise. For those budgetary issues outside of headquarters funding, 
we work closely with the Service components and the Joint Staff to 
highlight any issues that we feel need to be addressed. Between 
headquarters CENTCOM staff, the component staffs, the Joint Staff, and 
if necessary, the staff of the OSD, there are sufficient mechanisms to 
influence the budget process.

                          unfunded priorities
    3. Senator Dole. General Jones and General Abizaid, what are your 
top unfunded priorities, and the associated risks, for each of your 
combatant commands under the fiscal year 2005 President's budget 
request?
    General Jones. EUCOM's top unfunded priorities include theater 
command, control, communications, and computer (C\4\) modernization 
necessary to improve interoperability in Net-Centric Warfare and 
Information Superiority operations; and an increased intelligence, 
surveillance, and reconnaissance (ISR) capability to prosecute the 
global war on terrorism and provide forward homeland security. The 
associated risks are that we continue to execute the global war on 
terrorism with yesterday's capabilities, not taking full advantage of 
the latest technologies. These technologies will enhance our ability to 
engage potential terrorist threats earlier and more effectively. 
    The top unfunded military construction (MILCON) priorities at EUCOM 
are projects supporting the Efficient Basing Grafenwoehr (EBG) 
initiative, our number one MILCON priority program. There are four 
critical MILCON projects: a barracks, $45 million, and three battalion 
maintenance and operation facilities, $82 million, that if funded would 
keep EBG on track. The total cost of these four critical unfunded 
projects is $127 million. Funding these projects in fiscal year 2005 
will enable U.S. Army Europe (USAREUR) to continue the planned closure 
and turnover of 13 installations to the Federal Republic of Germany on 
the original timeline. This would also, with continued support for the 
EBG program in fiscal year 2006, allow the consolidation of a Brigade 
Combat Team to Grafenwoehr beginning in the fiscal year 2007 time 
frame.
    General Abizaid. We are currently concluding our review of the 
fiscal year 2005 presidential budget request, and working through any 
issues we might have with the air staff (for headquarters CENTCOM 
budget issues), and the Joint Staff and OSD (for any Service component 
funding issues). It would be premature to discuss any shortfalls or 
associated risk until a full review has been completed.

                       integrated priority lists
    4. Senator Dole. General Jones and General Abizaid, integrated 
priority lists (IPLs) are reportedly your main mechanism to inform the 
DOD resource allocation process. In your opinion, how much weight have 
your IPLs been given during the development of the budget request?
    General Jones. The EUCOM fiscal year 2004-2009 IPL was given a 
great deal of weight and served as a programmatic document. We were 
able to use the IPL in order to demonstrate and maintain consistency in 
presenting theater requirements. The fiscal year 2005-2009 IPL carried 
those requirements forward. The Secretary of Defense has introduced, 
starting with the fiscal year 2006-2011 cycle, a refocused IPL which 
reflects the DOD's emphasis on capabilities based planning. This is 
designed to create a more effective IPL which should receive greater 
weight in resource allocation decisions.
    General Abizaid. The IPL is one of several mechanisms available to 
CENTCOM to inform the Department of resource issues. Beginning with the 
fiscal year 2006 budget request, the Department revised the IPL process 
to add even more emphasis to this resource shaping tool. The Department 
has transformed the IPL to address individual combatant command 
capability gaps. It is then up to the Joint Requirements Oversight 
Council (JROC) to cross-walk the combatant command IPLs and develop a 
coherent Department position. The JROC takes these gaps and translates 
them into guidance to the Services in the Strategic Planning Guidance 
(SPG) and the Joint Planning Guidance (JPG), issued by the Secretary of 
Defense. These two documents are directive in nature and guide the 
Service budget build. In their budget submission, the Service must 
demonstrate to the satisfaction of the Joint Staff, and indirectly the 
combatant commands, that they have addressed the identified capability 
gaps. CENTCOM has several opportunities throughout this process to 
ensure our priorities are known and addressed.

       success and challenges of the current unified command plan
    5. Senator Dole. General Jones and General Abizaid, the Unified 
Command Plan (UCP) delineates each of your areas of responsibility 
(AOR) as a combatant commander; however, the world's hot spots do not 
always fall neatly into just one combatant commander's area of 
responsibility. Could both of you please comment on the success and 
challenges of the current UCP with particular attention to the 
countries and regions that fall along your geographic boundaries, such 
as India, Pakistan, Syria, the Horn of Africa, and Lebanon, to name a 
few?
    General Jones. It is important to note that within the UCP, there 
is no intent to restrict combatant commanders from accomplishing 
assigned missions, rather geographic AOR are delineated as a basis for 
coordination by combatant commanders. The UCP provides adequate 
flexibility with respect to `hot spots' and combatant commanders may 
operate forces wherever required to accomplish these missions. When 
significant operations or `hot spots' do occur and overlap boundaries, 
a task force is formed. Command of the task force is determined by the 
Secretary of Defense and assigned to the appropriate commander. Also, 
forces directed by the Secretary of Defense may conduct operations from 
or within any geographic area as required for accomplishing assigned 
tasks.
    OIF and Joint Task Force Horn of Africa (JTF-HOA) highlight both 
successes and challenges involving geographic borders of EUCOM and 
CENTCOM. EUCOM has worked closely with CENTCOM in these critical areas: 
northern Iraq and the Horn of Africa. Our two staffs meet via video 
teleconference on a regular basis and exchange information critical to 
U.S. operations along these so-called ``seams.'' Additionally, the 
massive deployment and redeployment of thousands of troops and unit 
rotations are visible signs of the successful coordination and transit 
between combatant commanders. EUCOM has provided and continues to 
provide thousands of soldiers, sailors, airmen, and marines, as well as 
combat equipment, supplies, and logistics in support of CENTCOM 
operations. However combatant commanders do face challenges in building 
and developing cooperative relationships with coalition partners along 
geographic borders. During peacetime, security cooperation programs 
enable combatant commanders to improve regional security and create 
synergy between partners within and between AORs. These successes are 
evident today as numerous countries have become willing coalition 
partners and are providing troops and assistance to OIF. Challenges 
arise when state relations between the U.S. Government and some 
countries become strained and thus do not foster security cooperation 
programs, which was recently the case with two countries in the EUCOM 
AOR. As a result of these differences, the President and Secretary of 
Defense reassigned these countries to the CENTCOM AOR to improve the 
coordination with respect to OIF.
    General Abizaid. The UCP establishes the responsibilities and 
clearly defines geographic boundaries for combatant commands; however, 
these delineations are not intended to create ``borders'' or 
limitations for the combatant commander. Recognizing that ``hotspots'' 
do not respect boundaries the UCP states that ``combatant commanders 
may operate forces wherever required to accomplish their mission.''
    The key to effective operation of forces across a boundary is 
coordination. Currently, if a major operation was to be conducted 
involving  two combatant command AOR it would be appropriate to form a 
JTF with input and assistance from the combatant commanders  involved. 
Additionally, in order to improve combatant commander coordination 
across AORs the Secretary of Defense has called for a ``seam 
mitigation'' effort. The intent of this initiative is to ``blur'' the 
lines created by the artificial boundaries of the UCP and thereby 
improve the United States' ability to accomplish military objectives. 
CENTCOM has initiated this effort with regards to India and Pakistan. 
In addition to improving coordination among combatant commanders, there 
is continual refinement of the geographic AORs though biennial UCP 
reviews.
    Review and refinement of the UCP is made in an effort to strengthen 
unity of effort, to achieve a more manageable span of control, and to 
improve warfighting effectiveness. Recent UCP initiatives have dealt 
specifically with countries positioned on the CENTCOM boundary. Syria 
and Lebanon are scheduled to be transferred to the CENTCOM AOR in the 
near future. These nations are more closely aligned culturally and 
politically with the current CENTCOM area and should military 
operations be necessary in either, it is likely these operations would 
be linked with other central region countries.
    The Horn of Africa is playing an increasingly important role in the 
global war on terrorism. As pressure is brought to bear in South Asia, 
terrorists could migrate into states adjacent to the CENTCOM AOR such 
as Uganda and Tanzania. These EUCOM nations, along with Kenya--which is 
in the central region--make up the Central African Community. Based on 
this established relationship, and the spillover of terrorists from the 
central region to Uganda and Tanzania, both the CENTCOM and EUCOM 
staffs are carefully linked to ensure appropriate coordination occurs.
    Finally, the situation with Pakistan and India is a crucial one. 
The United States' interest in the military posture of these two 
nuclear powers is significant. We must take measures to ensure the seam 
created between them by the UCP does not aggravate the existing issues. 
Accordingly, we recently conducted CENTCOM and Pacific Command (PACOM) 
staff talks on ``seam mitigation'' between these two nations. During 
these talks, the security cooperation plans of both combatant commands 
were examined in order to determine ways to leverage each combatant 
command's activities to foster regional stability. We intend to 
continue this dialogue and have additional forums planned on a 
recurring basis. CENTCOM will pursue stronger bilateral security 
relations with both Pakistan and India to reduce tensions, enhance 
peace, and security on the sub-continent, and develop concrete steps 
for reducing the risks of nuclear conflict.
    The issues created by the UCP can be significant and in some cases 
adjustment of the boundaries is necessary and appropriate. Periodic 
review of the existing boundaries and close coordination and 
cooperation between the regional combatant commands is the key to 
successfully executing our global strategy.

               national guard and reserve force readiness
    6. Senator Dole. General Abizaid, the military is extremely busy 
executing the global war on terrorism, and military personnel from all 
components have deployed frequently to conduct operations in either 
Afghanistan or Iraq. National Guard and Reserve Forces will reportedly 
make up 40 percent of the military forces executing OIF-2. Under this 
operation, the 30th Heavy Separate Brigade, ``Old Hickory'' from North 
Carolina, recently began its deployment to Iraq, the first deployment 
of a full National Guard brigade in recent times. Lieutenant General 
Blum recently stated that the National Guard soldiers being sent to 
Iraq this year are the best equipped and trained forces, of any 
component, that the United States has sent into battle. As the 
supported combatant commander, could you please relate your assessments 
of the National Guard and Reserve Force readiness as they have arrived 
in theater and assumed their duties?
    General Abizaid. Lieutenant General Blum was accurate when he said 
the National Guard soldiers being sent to Iraq this year are some of 
the best-equipped and trained forces the United States has sent into 
battles. In fact, all the military forces the United States has 
deployed to the CENTCOM area of operation are without question the best 
trained and equipped forces on the globe. As you noted, the Reserve 
component will make up approximately 40 percent of the forces 
participating in OIF-2. This includes the major combat formations from 
your State of North Carolina, the 30th Heavy Brigade, as well as the 
39th Light Infantry Brigade from Arkansas and the 81st Heavy Brigade 
from Washington.
    The Reserve component forces are integral in our strategy to fight 
and win the global war on terror. By resource allocation design, most 
Reserve component forces are not resourced to the same level as their 
active component counterparts. However, upon Federal mobilization, 
Reserve component forces are provided additional resources and training 
to be on the same level as the active component, and go through 
validation before deployment. Once validated, Reserve component forces 
arrive in theater with the preparation to assume their duties 
successfully.
    I have received positive readiness feedback from State Adjutant 
Generals though our Joint Monthly Access for Reserve Components (JMARC) 
visits to Afghanistan and Iraq. On the topic of equipment and training, 
Major General William A. Cugno of Connecticut on his recent visit to 
Afghanistan last January stated, ``It was a tremendous validation and 
accentuation of the `One Army Concept','' and said ``I am able to 
explain with credibility that our guys have the best over there. I was 
able to put criticism to bed about the treatment of the National Guard 
troops and the accusations of a double standard. The bottom line is 
that the National Guard is being treated equally over there. The 
Division Commander, Brigadier General Austin of the 10th Mountain 
Division, briefed me and he could not say `thanks' enough for the 
Reserve component. He told me that 70 percent of his aviation unit is 
Guard and he has not had a single negative incident.''

                           ungoverned spaces
    7. Senator Dole. General Jones and General Abizaid, Director Tenet 
and Admiral Jacoby recently briefed the Senate Select Committee on 
Intelligence regarding current and worldwide threats to the United 
States' national security. Both gentlemen raised transnational issues 
associated with ineffective governments that can result in ``stateless 
zones'' or ``ungoverned spaces.'' Your combined AORs include 118 
nations with varying degrees of governmental effectiveness. While the 
majority of these nation states are under stable control, many are 
failing to provide basic public services and lack effective control of 
their populations or geographic boundaries. As the United States and 
its allies conduct the global war on terrorism, this has significant 
ramifications as ungoverned spaces have become prime breeding grounds 
for terrorist. Could each of you describe how you are addressing this 
threat, and its priority relative to challenges within the rest of your 
AORs?
    General Jones. The issue you identify with ``ungoverned spaces'' is 
part of a larger problem set we identify as ``Terrorist Safe Havens''; 
that is, those places where terrorists operate with impunity, without 
hindrance from governmental or non-governmental agencies. This broader 
definition of safe havens is important, as we find that 21st century 
safe havens are often multi-dimensional--and it is the blend of factors 
that work in the favor of the terrorist. Using Western Europe for 
example we could imagine a scenario where legal or jurisdictional 
``havens'' could inadvertently delay the extradition of a wanted 
terrorist. So to answer the simple question first: the war on terror is 
the number one priority of the EUCOM, and denying terrorists their safe 
havens is our first priority.
    Within the EUCOM AOR we have identified a number of the physical 
safe havens you have identified as ``ungoverned spaces.'' These areas 
are located throughout our AOR from the deserts of Northern Africa and 
the Pan Sahel region to the Caucasus region affected by the insurgency 
in Chechnya to the war-torn areas of the Gulf of Guinea. Through our 
Campaign Plan, ``Defeating Terrorism in the AOR'', we have examined the 
different regions in our AOR to identify the different types of safe 
havens extant in each.
    Our current focus lies on the vast, remote, and sparsely populated 
deserts of North Africa and the Pan Sahel (NA-PS). This area is more 
than twice the size of Afghanistan and Pakistan combined. The NA-PS 
region is beset with a host of challenging problems: smuggling and 
other illegal activities; disenfranchised, often violence-prone, 
cultures susceptible to the proselytizing of radical Islam; and 
extremely limited infrastructure and government services. Moreover this 
area crosses the borders of eight nations--each with different 
capabilities and historically distrustful of one another.
    EUCOM is working on a long-term approach to eliminating this region 
as a potential terrorist safe haven. EUCOM recognizes the economic, 
social, and political conditions that enable terrorists to thrive, and 
the need to combat terrorism with more than just a military approach. 
Recognizing the multi-faceted nature of the challenge, we are working 
closely to ensure we support other U.S. Government efforts in the 
region.
    Militarily EUCOM, through our various components, is working on 
various aspects of the plan as we speak. Special Operations Command 
Europe (SOCEUR) is leading the way with a program training and 
equipping company sized, rapid reaction units, in the Pan Sahel. By 
providing training and some equipment we can prepare these nations to 
provide their own border security, internal defense, and 
counterterrorism efforts.
    While the NA-PS is our priority effort, it is not our only one. You 
heard in the testimony of March 4 the work being done in the Georgia 
Train and Equip Program. That program is nearly completed and it is 
already considered a success. Programs like Georgia Train and Equip, 
and the Pan-Sahel Initiative are an efficient, cost-effective way to 
deny terrorists access to potential physical safe havens. By training 
and equipping the military forces of nations which support the global 
war on terrorism, we enable our partners to establish the rule of law 
across their territories and deny their use to terrorists.
    General Abizaid. Within the CENTCOM AOR, ungoverned spaces present 
several challenges. Somalia, as a failed state is an governed area that 
provides an operating environment for Al-Ittihad al-Islami and al 
Qaeda. Pakistan is currently conducting operations in their loosely-
controlled ``tribal territories'' bordering Afghanistan. Saudi Arabia 
and Yemen are increasing their cooperation and counter-terrorism 
capabilities to eliminate threats from their loosely-controlled common 
border area. In the case of Iran, lack of diplomatic relations results 
in a governed space in which CENTCOM has no access or authority to 
internally address terrorist threats that may emerge from that 
particular country; accordingly, containment is our primary tool.
    Winning the global war on terrorism depends on individual nations 
defeating terrorists within their own borders, thus establishing 
operational partnerships that help countries increase governmental 
control within their territory is a top priority. For example, in the 
Horn of Africa, Commander, JTF-HOA, is conducting maritime interdiction 
operations and working with governments in the region to strengthen 
their counterterrorism capabilities. In ungoverned areas such as 
Somalia or governed areas in which we do not have direct access, such 
as Iran, we are actively working to contain terrorist groups operating 
from and within these locations.
    Our ongoing efforts to defeat and/or deter terrorism in ungoverned 
spaces, as well as in governed areas in which we do not have direct 
access, are integral to executing the global war on terrorism in the 
CENTCOM's AOR.

                             ``small wars''
    8. Senator Dole. General Abizaid, in General Hagee's testimony 
before this committee, he said that the Marines are drawing on lessons 
learned from its sister Services, coalition partners, interdepartmental 
agencies, and the Marine Corps' own ``Small Wars'' experience as it 
prepares for OIF-2. According to news reports, the Marine Corps is 
planning to take a ``fresh'' approach as it prepares to take over in 
areas currently occupied by the United States Army (for example, 
emphasizing restraint and cultural sensitivity, and living among the 
Iraqi population in platoon size elements). Does this mean that the 
Marine Corps and the Army will deliberately employ different strategies 
in OIF-2 and if so, why are different forces planning to operate 
jointly with different strategies? Is this consistent with the DOD's 
priority of enhancing joint warfighting capabilities?
    General Abizaid. The situation in Iraq has changed as we are now 
facing a insurgency within Iraq. In addition, we now have some Iraqi 
security forces established and working with coalition forces. These 
two factors will require changes in the approach a unit must take to 
achieve objectives. Our strategy emphasizes the empowerment of Iraqis 
and gaining the confidence of the Iraqi population to achieve our 
objectives. The Marine Corps' approach reflects this changing security 
framework, and their ability to apply past experiences embodied in 
their manual ``Small Wars'' to this situation. This approach is 
consistent with the coalition strategy which is also evolving based on 
the changing nature of the conflict. The Marine Corps, like other U.S. 
and coalition forces, are drawing on what they have found to be the 
best of their own experiences to achieve their objectives.
    The approach described by General Hagee simply means that the 
Marines will be using different techniques to achieve their objectives. 
The situation in Iraq is dynamic, and the proposed operational approach 
reflects the Marines' willingness to adapt to the situation to 
overcoming unique operational problems. Some of these techniques are 
currently being employed by other coalition forces in other parts of 
the country. The Marines intend to use the transition period to 
implement these techniques and test their ability to achieve our 
objectives using a less kinetic approach. The main objective is to 
adapt to the changing environment, a counterinsurgency, and use what 
works. The approach taken by the Marines is an effective strategy 
against a counterinsurgency and is consistent with CENTCOM's strategy.

                  budget to support contingency plans
    9. Senator Dole. General Abizaid, the military services are 
transforming and investing heavily towards the next generation of 
capabilities. Yet less than 5 percent of the procurement and research, 
development, test, and evaluation (RDT&E) budget, across the Services, 
is dedicated to strategic lift. Our national military strategy requires 
our forces to be capable of rapidly deploying and operating in multiple 
theaters at varying levels of conflict. As the supported commander, do 
you believe the DOD budget request sufficiently resources and programs 
strategic lift to support your contingency plans?
    General Abizaid. The vast expanse and distance from our homeland, 
coupled with an immature logistical infrastructure in the CENTCOM AOR, 
presents unique challenges when conducting even the most simple 
operations, let alone responses to an emerging crisis. Adequate lift 
capacity capable of closing the force rapidly within the timelines 
dictated by both planned and unplanned responses always remains a 
concern for any commander. Adequate strategic lift has been the focus 
of the Department's budget submission in the past, and is being 
addressed in the future budget planning. I'm confident that recent 
events in the CENTCOM AOR have helped to focus the Department on the 
importance of strategic lift to a commander operating at great 
distances from our homeland infrastructure, and the right emphasis will 
be in place to assure our capability to rapidly and efficiently deploy 
our forces anywhere, anytime, and in sufficient strength to accomplish 
the mission, now and in the future.

    [Whereupon, at 12:50 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

                              ----------                              


                        THURSDAY, MARCH 11, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                            MISSILE DEFENSE

    The committee met, pursuant to notice, at 9:34 a.m., in 
room SR-325, Russell Senate Office Building, Senator John 
Warner (chairman) presiding.
    Committee members present: Senators Warner, Inhofe, Allard, 
Sessions, Dole, Levin, Lieberman, Reed, Akaka, Bill Nelson, Ben 
Nelson, Dayton, Bayh, Clinton, and Pryor.
    Committee staff member present: Judith A. Ansley, staff 
director.
    Majority staff members present: Charles W. Alsup, 
professional staff member; and Brian R. Green, professional 
staff member.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Madelyn R. Creedon, minority 
counsel; Kenneth M. Crosswait, professional staff member; and 
Richard W. Fieldhouse, professional staff member.
    Staff assistants present: Michael N. Berger, Nicholas W. 
West, and Pendred K. Wilson.
    Committee members' assistants present: J. Mark Powers, 
assistant to Senator Inhofe; Jayson Roehl, assistant to Senator 
Allard; Arch Galloway II, assistant to Senator Sessions; 
Frederick M. Downey, assistant to Senator Lieberman; Elizabeth 
King, assistant to Senator Reed; Peter A. Contostavlos and 
Caroline Tess, assistants to Senator Bill Nelson; Eric Pierce, 
assistant to Senator Ben Nelson; Andrew Shapiro, assistant to 
Senator Clinton; Terri Glaze, Randy Massanelli, and Nathan 
McCarroll, assistants to Senator Pryor.

            OPENING STATEMENT OF SENATOR JOHN WARNER

    Chairman Warner. Good morning everyone. The committee meets 
this morning to seek testimony on the fiscal year 2005 
ballistic missile defense budget request that was made by the 
President. I was very pleased to schedule this hearing at the 
request of my distinguished ranking member, Senator Levin, 
Senator Akaka, Senator Allard, and others who are, like myself, 
very concerned that this program receives the strongest of 
oversight but hopefully the strongest of support by the 
committee, and indeed by the full Senate.
    We welcome our witnesses today, Acting Under Secretary of 
Defense for Acquisition, Technology, and Logistics, Mike Wynne; 
Director of Operational Test and Evaluation (DOT&E), Thomas 
Christie; Commander of U.S. Strategic Command (STRATCOM), 
Admiral James O. Ellis; Director of the Missile Defense Agency 
(MDA), General Ronald T. Kadish; and the Commander of the 
Army's Space and Missile Defense Command, General Larry J. 
Dodgen. I thank each of you for finding the opportunity to join 
with us here this morning.
    Protecting our Nation, our allies, our friends, and 
foremost, our troops deployed overseas from a very real threat 
of ballistic attack is an urgent national defense priority. The 
need for effective missile defenses could not be clearer, 
whether it is here at home or abroad. Dozens of nations already 
have short- and medium-range ballistic missiles in the field 
that threaten U.S. interests, military forces, allies, and 
friends, and others are seeking to acquire similar 
capabilities, including missiles that could reach the United 
States.
    The importance of our missile defense was forcefully 
demonstrated during Operation Iraqi Freedom (OIF). Iraqi 
military forces fired more than 20 ballistic missiles at 
coalition forces. The Patriot Air and Missile Defense System 
engaged nine of those missiles that were aimed at valuable 
targets. All nine threat missiles were destroyed in flight. 
There is no debate about the success of these engagements.
    No coalition soldiers and citizens within coalition nations 
were hurt in any of these ballistic missile attacks. The 
systems simply work, for which we are very grateful to all of 
those who have spent so many years of their lives doing 
research and development (R&D) to prepare them.
    On December 17, 2002, President Bush reiterated his 
commitment to defend our Nation from these types of attacks: 
``The new strategic challenges of the 21st century require us 
to think differently, but they also require us to act. The 
deployment of missile defenses is an essential element of our 
broader efforts to transform our defense and deterrence 
policies and capabilities to meet the new threats we face. 
Defending the American people against these new threats is my 
highest priority as commander in chief, and the highest 
priority of my administration.''
    On that date, the President announced that he would be 
directing the Secretary of Defense to proceed with fielding an 
initial set of missile defense capabilities to begin operations 
in 2004 and 2005.
    I strongly support the President's decision. I will 
withhold the balance of my statement such that we can get under 
way with this hearing. Senator Levin, do you have a few opening 
comments, and then Senator Allard?

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman. Let me join you in 
welcoming all of our witnesses here this morning. This hearing 
is important for a number of reasons. First, the magnitude of 
the fiscal year 2005 budget request for missile defense is 
truly staggering. The total request is more than $10 billion 
and that's for 1 fiscal year.
    Of that amount, more than $9 billion is for what the 
Pentagon calls the Ballistic Missile Defense System (BMDS). As 
far as I know, that is the largest single year funding request 
for any weapons system in history. The majority of this funding 
is in pursuit of a rudimentary and uncertain defense against 
the unlikely long-range missile attack.
    To put the missile defense budget request in perspective, 
this request is close to twice the entire 2005 budget request 
for U.S. Customs and Border Protection and the Department of 
Homeland Security (DHS), the program dedicated to keeping would 
be terrorists out of our country. The missile defense request 
has more than doubled the next largest annual request for a 
weapons system, the F-22 fighter jet. It is more than the 
entire annual R&D budget of the United States Army.
    One reason this hearing is important is to try to 
understand the justification for this record breaking budget 
request for missile defense. How will this missile defense help 
keep this country safe from terrorist threats that we know 
exist right now? If we spend this money, will we actually get 
an effective defense for this country, or will we get instead a 
system that was rushed to the field prematurely that will have 
to be fixed repeatedly at additional costs as operational tests 
reveal significant problems?
    That brings us to the second reason that this hearing is 
important. The administration plans to deploy a national 
missile defense system in September of this year, just 6 short 
months away. That is despite the fact that the last major test 
of the system was more than 1 year ago, and that test was a 
failure.
    Then inexplicably, seven of the eight intercept tests of 
the system that had been scheduled for 2003 and 2004 have 
either been canceled or have been delayed until next year. The 
plan to deploy in September, however, remains, despite the fact 
that only one of the intercept tests which were to occur before 
deployment is still planned, and even that test will be a well-
scripted event in which the system's radar will not be 
functioning. Instead, the target itself will broadcast its 
position to the BMDS. A real enemy missile heading towards the 
United States will not be broadcasting its position to us.
    The administration plans to deploy in September despite 
known problems with the interceptor, problems that could affect 
the interceptor's ability to track the target and hit it. This 
is according to the most recent report of the Pentagon's chief 
tester, Tom Christie, who is with us today.
    General Kadish has said that he plans to fix the 
interceptor problems and increase the realism of national 
missile defense testing in future years, but only after we buy 
a large number of missiles and deploy them. History shows how 
essential realistic tests are, and the system the 
administration plans to deploy in September will have completed 
no realistic tests. Zero.
    The administration's missile defense plans are at odds with 
longstanding acquisition laws. These common sense laws require 
major weapons systems to be independently tested under 
combatlike conditions prior to going into mass production and 
being deployed to our troops. Collectively known as fly before 
you buy.
    The laws reflect fundamental principles of good government 
and are intended to protect the safety of our military 
personnel and our Nation, as well as the taxpayers' money. The 
heart of these laws is the requirement to do operational 
testing prior to full-time production of a weapons system. By 
law, operational tests must be conducted under realistic combat 
conditions by typical military users. That is to ensure that 
the system actually works when needed, rather than simply in an 
artificial test environment.
    The missile defense tests to date have all been 
developmental tests which need not be conducted under realistic 
combat conditions. In fact, the missile defense tests have not 
been.
    According to Mr. Christie's latest report to Congress, 
testing of the national BMDS is still needed under more 
combatlike conditions, using the full system rather than just 
individual parts of it. Testing is also needed against targets 
which look more like actual threat missiles and are not already 
preprogrammed into the missile defense system's computer.
    Unlike the developmental tests conducted to date, the law 
requires that operational tests must be approved and overseen 
by Mr. Christie, the Pentagon's independent test authority. Why 
is it important that the Pentagon's independent test authority 
oversee and approve the operational tests that must 
successfully be completed prior to giving the go ahead to full 
rate production of a weapons system? Because this is the only 
way a military program can be judged by an expert who is 
independent of the program, who therefore is at liberty to tell 
the unvarnished truth about the program's successes or 
failings.
    Developmental testing by contrast is conducted by the 
program's contractors and managers who clearly have a 
considerable financial and other stake in the future of the 
program. Their careers may depend on the program's success. 
Many Pentagon programs have sailed through in developmental 
tests with glowing results reported by the contractor, but when 
the time comes for operational testing, serious problems are 
suddenly revealed by the DOT&E.
    The whole point of operational testing is to fix those 
problems prior to buying and deploying the system. Operational 
testing is one of the major reasons the U.S. military is second 
to none. Last year, the administration requested billions of 
dollars to begin to field a largely untested missile defense in 
September, consisting of 20 interceptor missiles as a 
rudimentary defense capability.
    The administration acknowledged that this initial 
capability would not be robust, but said that the 20 
interceptors were part of a missile defense test bed. At a 
missile defense hearing 1 year ago, administration witnesses, 
including General Kadish, Mr. Christie, and Secretary Aldridge, 
who held Secretary Wynne's position at the time, all said that 
one of the reasons for deploying these 20 interceptors starting 
this September was to conduct more realistic tests of the 
system.
    Secretary Aldridge assured us at the hearing that ``the 
reason we have the test bed and we are developing the test bed 
is to enable operational testing.''
    One year later, operational tests still have not been 
performed on the system and apparently none are planned soon, 
yet the administration has requested more than half a billion 
dollars in 2005 to begin buying 20 additional interceptor 
missiles, over and above the 20 that they plan to deploy in 
September.
    Some of these additional 20 interceptors are to be deployed 
at a new unspecified missile defense site and all of this with 
no near-term plans for realistic operational testing of the 
first 20 interceptors.
    It is dubious enough to buy and field 20 largely untested 
intercepters as part of a test bed and claim that something is 
better than nothing as the administration did last year. It is 
plain wrong and in violation of our procurement laws to 
continue to buy another 20 of these missiles as fast as 
possible in what is clearly a full production mode.
    It is not clear to me how racing to build and deploy 40 
missile defense interceptors in multiple deployment sites 
without successfully completing operational tests to the system 
is consistent with the provisions of the fly before you buy 
procurement laws.
    If we approve another 20 missiles this year, without 
demanding operational tests in accordance with common sense and 
with the law, what would prevent the administration from asking 
for another 20 next year and another 20 the year after that. If 
we don't demand realistic operational tests of this system now, 
when will we? How many more billions of dollars should we spend 
on this system prior to knowing whether it will really work 
against a real threat?
    Finally, Mr. Chairman, I'd like to just briefly review the 
track record of the only missile defense system that has ever 
seen actual battle, the Patriot system. I think this track 
record shows clearly why the common sense notions of the fly 
before you buy laws are so important. The Patriot missile 
defense was rushed to the front lines of the 1991 Gulf War amid 
much fanfare but with virtually no testing against ballistic 
missiles.
    Pentagon claims of extraordinary high success rates against 
Iraqi SCUD missiles proved hollow when it became clear that 
most of the supposed intercepts were actually Patriot missiles 
blowing themselves up in futility as the SCUD missile warhead 
continued to the ground only to explode there as designed.
    One of the SCUDs missed by the Patriot system destroyed a 
U.S. military barracks in Saudi Arabia, killing 28 Americans. 
Following the Gulf War, the Pentagon labored for years on an 
improved version of the Patriot, the PAC-3, which was 
specifically designed for SCUDs.
    Between 1997 and 2001, a string of 10 developmental tests 
were conducted, run by the contractor and overseen by the 
Patriot program manager. These tests were almost all 
``completely successful'' because they were so easy and 
unrealistic. Then it was time for operational testing. Combat 
realistic testing approved and overseen by the Pentagon's 
independent test authority, with actual Army soldiers, not 
contractors, at the Patriot controls.
    Operational tests ran from February to May of 2002, and at 
every single operational test, a major Patriot failure 
occurred. Out of the seven targets launched, only three were 
hit. One Patriot missile missed a cruise missile target, one 
missed a ballistic target, and two Patriots failed to launch 
all together. The problems discovered in operational tests were 
severe and would have seriously degraded the performance of 
Patriot in an actual battle.
    Because of rigorous testing, major problems were fixed just 
in time for the new Patriots to see action in OIF. Even with 
rigorous operational testing, there were still failures with 
the Patriot, which was involved in three friendly fire 
incidents which killed three coalition airmen, but the Patriot 
performance would have been calamitous without the operational 
tests.
    The story of the Patriot shows that if we want an effective 
weapons system, be it missile defense or any other system, 
rigorous, independent, operational testing is absolutely 
essential. Our laws require it. Common sense demands it. Our 
commitment to our military personnel and the taxpayer call for 
it, and not to do so will surely waste money if the system is 
ever called to battle, it could result in a far greater tragedy 
than just the loss of resources and funds. Thank you, Mr. 
Chairman.
    Chairman Warner. I feel that I have to go back into the 
opening statement which I put in the record, because I gave 
detailed accounts of the experience here in this country on 
this issue of testing, which is a legitimate issue. I want to 
point out that this will not be the first time a defense system 
in development has been used for operational purposes prior to 
completion of testing.
    There are many examples of such uses in the past driven by 
an urgent need. Some of these examples are well-known, two 
Joint Surveillance and Target Attack Radar System (JSTARS) 
aircraft flew hundreds of hours of combat missions during the 
1991 Persian Gulf War, and provided warning to our forces on 
the ground when the Iraqi Army was on the move. They were 
preproduction aircraft that had not even started operational 
test evaluation.
    Indeed, in the wake of the outstanding performance of 
JSTARS during the 1991 conflict, our committee increased the 
administration's request for JSTARS aircraft long prior to 
completion of operational tests and evaluation.
    More recently, the Predator and Global Hawk unmanned aerial 
vehicles (UAVs) have proven to be valuable assets to our forces 
during the global war on terrorism. Our military put these 
assets in the field in Afghanistan even though the Predator 
failed its operational evaluation, and the Global Hawk had not 
yet started its operational evaluation.
    Senator Levin. Mr. Chairman, in my humble opinion in all of 
those cases operational testing was planned at the time it was 
fielded, and it was carried out. That is not present now. We do 
not have the plans for operational testing for this system.
    Chairman Warner. We will start off this morning, I think, 
with Mr. Christie. Is that the desire? Or is it Mr. Wynne? What 
is preferable? Mr. Wynne, would you lead off.

 STATEMENT OF HON. MICHAEL W. WYNNE, ACTING UNDER SECRETARY OF 
       DEFENSE FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS

    Mr. Wynne. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman, Senator Levin, members of the committee. Thank you 
for the opportunity to appear before you today to discuss the 
fiscal year 2005 Department of Defense (DOD) Missile Defense 
Program.
    The National Missile Defense Act of 1999 established the 
policy of the United States to deploy as soon as possible an 
effective national missile defense system capable of defending 
the territory of the United States against limited ballistic 
missile attack.
    The President more recently directed the Department to 
begin fielding missile defense capabilities in 2004. I am 
pleased to report to you today that we are on track to deliver 
a useful ground-based Ballistic Missile Defense (BMD) 
capability later in 2004. The initial capability of this system 
will likely be limited, but will still be a dramatic 
improvement over our current condition of being defenseless 
against ballistic missile attack.
    The system will have been tested against postulated 
ballistic missile attack scenarios and evaluation of its 
military utility assessed. The MDA continues to incorporate 
increasing realism and operational factors in the test program. 
The test program for 2004 and 2005 will have target geometries 
and test conditions which approximate the most plausible 
operational attack scenarios.
    The plan and budget for 2005 and 2006 reflects a good 
balance between added testing, replication of test articles, 
and maintenance of a warm line for missiles, as well as plans 
for future deployment.
    The flexibility derived from the Secretary's direction on 
this program has enabled the Director of the MDA to make 
programmatic moves that make the fielding of initial ballistic 
missile defense capabilities possible. Congress has been 
concerned that the Department will provide proper oversight of 
this effort.
    I have examined this oversight structure and am confident 
that it facilitates the decisive action needed while providing 
extensive and frequent insight to senior Department leaders and 
to Congress.
    In my role of managing the defense acquisition process, I 
ensure that key DOD stakeholders are involved in the process 
leading to programmatic decisions. I solicit the advice and 
support of the various DOD interests represented by the Defense 
Acquisition Board members.
    The streamlined oversight process of the Missile Defense 
Program changes the collaborative process, reducing the formal 
reporting to a more informal basis, but retains its essence. I 
meet with and influence the Director in his ongoing management 
role. I have also personally reviewed the systems engineering 
that underlies the missile defense system of systems and the 
testing and simulation methodology in a disciplined use of 
engagement scenarios to proof out components and combinations 
of systems.
    The Joint Requirements Oversight Council (JROC) monitors 
the progress of the development program and concurs with 
missile defense goals and program plans. Members of the Joint 
Theater Air and Missile Defense Organization and STRATCOM 
interact with the MDA in the construct of operational concepts 
for BMD and in the assessment of the system's military utility.
    United States leadership in BMD has encouraged several of 
our allies to join our effort. We have formal agreements with 
the United Kingdom (U.K.) for missile defense cooperation and 
are negotiating with Japan which is investing on its own behalf 
significantly. Australia and Denmark are other nations that are 
asking for cooperative agreements.
    Other nations have expressed a desire to participate. We 
plan to facilitate their participation, which is another aspect 
of the President's defense; missile defense direction.
    We are grateful for the support of Congress, which has made 
this bold effort to field missile defense capabilities 
possible. Congressional approval of the President's request for 
missile defense funding has been absolutely critical to our 
smooth execution of the program and we appreciate your support.
    Thank you for this opportunity to testify before this 
committee. I'd be happy to answer any questions that you might 
have.
    [The prepared statement of Under Secretary Wynne follows:]
              Prepared Statement by Hon. Michael W. Wynne
    Good morning, Mr. Chairman, Mr. Ranking Member, and members of the 
committee. Thank you for the opportunity to appear before you today to 
discuss the Fiscal Year 2005 Department of Defense (DOD) Missile 
Defense Program and budget submission. I am pleased to provide you this 
update on the progress of the Missile Defense Development Program.
    The National Missile Defense Act of 1999 established that it is the 
policy of the United States to deploy as soon as technologically 
possible an effective National Missile Defense system capable of 
defending the territory of the United States against limited ballistic 
missile attack. Upon taking office, President Bush directed that the 
DOD examine the full range of available technologies and basing modes 
for missile defense that could protect the United States, our deployed 
forces, and our friends and allies. In light of the changed security 
environment following September 11 and the progress made in development 
efforts, the President directed the Department to begin fielding 
missile defense capabilities in 2004.
    During this past year, the Department has been hard at work 
developing the missile defense capabilities that will respond to the 
President's direction. We are using postulated ballistic missile attack 
scenarios to incorporate increasing realism into our test program. 
Although we have encountered and solved a number of technical 
difficulties and can expect further challenges on the path ahead, we 
are on track to deliver a useful ballistic missile defense capability 
later in 2004. That initial capability will likely be limited, but will 
still represent a dramatic improvement over our current condition of 
being defenseless against ballistic missile attack.
    As additional components of our initial configuration are placed in 
service in 2004 and 2005, the effectiveness of the missile defense 
capability will incrementally improve. Further improvements planned for 
2006 and beyond will enhance both the capability of fielded missile 
defense components and the depth of those capabilities. The Ballistic 
Missile Defense (BMD) program differs from the classical major defense 
acquisition program, so our approach to acquisition differs. Rather 
than produce and deploy a fixed ``objective'' missile defense 
configuration to serve its entire operational life, we plan an 
ambitious program of technology insertions and additional fielding 
actions to enhance the capability. Such an approach, implemented in an 
integrated system of systems to provide layered defense, will deepen 
the protection of our Nation, extend protection to allies and friends, 
and keep pace with the developing threat.
    Our confidence in the capabilities we are about to place in service 
is based on an assessment of the performance of individual elements of 
the system and of the overall system during testing conducted 
throughout the development program, supplemented by modeling and 
simulation. As we have progressed in the test program, we have 
incorporated increasing realism and operational factors. The flight 
test program for the remainder of 2004 and 2005 has been structured to 
incorporate target geometries and test conditions which closely 
approximate the most plausible operational attack scenarios. The 
outcome of those tests will yield valuable information for assessing 
the effectiveness of the fielded missile defense system and 
strengthening our confidence in the capability. As we field additional 
elements of the planned Block 2004 configuration, such as the sea-based 
X-band radar in 2005, we also improve our ability to evaluate the 
system. So while the initial capability will be limited, progress in 
fielding the rest of Block 2004 will improve both the capability and 
our ability to test it.
    The flexibility that resulted from the Secretary's direction to 
consolidate BMD development activity within a single program and to 
streamline our oversight process has enabled the Director of the 
Missile Defense Agency (MDA) to make the programmatic moves that make 
the fielding of initial BMD capabilities possible. Congress has been 
rightly concerned that the Department provide proper oversight of this 
effort and that Congress retain its insight into missile defense 
program developments. I have examined the oversight structure and am 
confident that it facilitates the decisive action needed, while 
providing extensive and frequent insight into the program to senior 
Department leaders and to Congress.
    I believe this new approach is proving successful in developing the 
Missile Defense Program. In comparison to other programs, my 
interactions with the Director, MDA, to provide guidance, and my 
interactions with the Secretary, to provide feedback and receive 
guidance, are more direct and generally carried out in face-to-face 
discussions. The success of the program in preparing for initial 
fielding later this year demonstrates the effectiveness of this 
approach. In addition, the Missile Defense Program is setting DOD 
standards for such activities as systems engineering and effective 
testing of complex systems of systems, and we are beginning to apply 
those lessons to other programs.
    The President's budget for fiscal year 2005 fully supports the BMD 
program. It will allow us to complete the fielding of the initial 
defensive configuration, to maintain that configuration both on alert 
and as a test bed, and to proceed with development of future 
improvements to the system. I urge the committee to support the 
President's budget for this important program.
    In my role of managing the DOD acquisition process, I strive to 
ensure that all of the key DOD stakeholders are involved in the process 
leading to programmatic decisions. I solicit the advice and support of 
the various DOD interests represented on the Defense Acquisition Board. 
The streamlined oversight process instituted for the Missile Defense 
Program changes the mechanics of the collaborative process, but retains 
its essence. The extensive, ongoing dialog within the Department on all 
aspects of the Missile Defense Program provides advice and support to 
the Secretary, the Deputy Secretary, the Director of MDA, and me.
    The Missile Defense Support Group (MDSG), playing a key role in 
oversight, has continued to provide beneficial advice and comment to 
the Director of MDA and to me on various aspects of the program. These 
senior, experienced representatives of 15 principals of the Department 
have met 41 times since the MDSG was created in March 2002. They have 
provided advice on various aspects of the development program for the 
integrated BMD system, options for fielding capability, and ways of 
implementing those options. They have also provided valuable advice for 
involving our allies in the Missile Defense Development Program. 
Recognizing the challenge of placing this developmental system into 
operational service, we have added the U.S. Strategic Command 
(STRATCOM) to the MDSG to gain an improved understanding of the 
concerns of the warfighter as we approach the commencement of Initial 
Defensive Operations (IDO). No program in the Department receives more 
scrutiny--either in level or frequency--than the Missile Defense 
Program.
    In addition to the MDSG, engagement between Office of the Secretary 
of Defense (OSD) officials, the Joint Staff, the military services, and 
the MDA is extensive and ongoing. I meet weekly with the Director of 
MDA to address important issues and provide guidance on the way ahead. 
The Director and Principal Deputy of Program Analysis and Evaluation 
(PA&E) have met periodically with the MDA Director and his senior staff 
to develop strategies for fielding missile defense capabilities and to 
resolve other programmatic issues. PA&E's staff monitors the progress 
of the Missile Defense Program, within the framework of the MDSG, 
through the program and budget review process, and by periodic 
engagement with their MDA counterparts.
    The Joint Requirements Oversight Council (JROC) monitors the 
progress of the development program, concurs with MDA's goals and 
program plan, and is satisfied with overall Missile Defense Program 
cost and schedule performance. Members of the Joint Theater Air and 
Missile Defense Organization and STRATCOM interact regularly with MDA 
in the development of operational concepts for BMD and in the 
assessment of the system's military utility.
    The relationship between MDA and the OSD Cost Analysis Improvement 
Group is governed by a formal memorandum of agreement guiding the 
development of cost models and shared databases essential for the 
preparation of cost estimates for the BMD system. This ongoing 
interaction has facilitated the completion of independent cost 
estimates for elements to be fielded in Block 2004.
    The Director of Operational Test and Evaluation (DOT&E) and the 
Service Operational Test Agencies (OTA) are fully engaged with MDA. The 
DOT&E and the leadership of the Service OTAs meet periodically with 
MDA's senior leadership. The Deputy DOT&E has near-daily interaction 
with MDA's senior staff. DOT&E personnel work closely with MDA in the 
development and review of test plans, observation of testing, 
participation in data reviews, and the assessment of results. DOT&E's 
annual reports to Congress are informed by the ongoing exchange between 
DOT&E, the Service OTAs, and MDA.
    The military service acquisition chiefs meet regularly with MDA's 
leaders to resolve issues relating to the ballistic missile defense 
capabilities which will, ultimately, be operated and maintained by the 
Services.
    U.S. leadership in BMD has encouraged several of our allies to join 
the effort. Allied engagement, which was in its infancy a year ago, has 
now taken root. We have entered into a formal agreement with the United 
Kingdom (U.K.) for missile defense cooperation and are negotiating 
agreements with Japan, Australia, and Denmark. Other nations have also 
signaled their desire to participate. We are structuring our efforts to 
facilitate their participation, another aspect of the President's 
missile defense direction.
    We are grateful for the support of Congress, which has made this 
bold effort to field missile defense capabilities possible. 
Congressional approval of the President's requests for missile defense 
funding has been critical to our smooth execution of the program. 
Continued cooperation between the Department and Congress will only 
grow in importance as we execute our mission to provide for the 
national security of the United States. I look forward to continuing 
that cooperation.
    Thank you for this opportunity to testify before the committee. I 
would be happy to answer any questions you might have.

    Chairman Warner. Thank you very much, Mr. Secretary. I 
think at this time, the most orderly presentation, unless you 
have a different view, Secretary Wynne, would be to hear from 
Mr. Christie, and then proceed with our military witnesses. Do 
you agree with that?
    Mr. Wynne. Yes, sir.
    Chairman Warner. Thank you. Mr. Christie.

  STATEMENT OF HON. THOMAS P. CHRISTIE, DIRECTOR, OPERATIONAL 
                      TEST AND EVALUATION

    Mr. Christie. Mr. Chairman, Senator Levin, and members of 
the committee, I appreciate this opportunity also to appear 
before you today, to provide you with an update on where we 
stand with respect to testing the BMDS. I continue to strongly 
support the construction and integration of the BMDS test bed. 
This test bed will provide the elements that make up the 
Initial Defensive Operations (IDO) architecture.
    While I am very encouraged by the improved testing 
environment and capability that the BMDS test bed will provide, 
I am even more pleased with an increased emphasis on system 
integration and user involvement that I have seen over the past 
year. STRATCOM and Northern Command (NORTHCOM) are developing 
tactics, techniques, and procedures for operating the system.
    The MDA and the element program offices are making the 
developmental tests progressively more realistic. They are 
ground testing with the available system hardware and software 
and involving soldier operators to the degree possible.
    As I have said in the past, the system must be built before 
we can properly test it, and test it under more realistic 
conditions than our present capability permits. The MDA is 
still building this capability. We have just begun to ground 
and flight-test some of the system components in a tactical 
configuration. General Kadish is restructuring the BMDS testing 
program in 2005 to focus on further characterizing and 
evaluating the performance envelope of the IDO capability.
    This testing will become more operationally realistic in 
that test scenarios will include more complex target 
presentations and engagement scenarios. It also will provide a 
better understanding of the IDO, end-to-end performance 
capability. The MDA continues to be proactive when it comes to 
testing. General Kadish has adopted a test-find-fix-test 
philosophy.
    This approach provides a higher likelihood of finding 
design and workmanship problems early in the program. The 
decision to exploit the test bed elements for an initial 
operational capability has required some substantive changes in 
test planning.
    Test objectives have shifted from demonstrating component 
capabilities to demonstrating integrated system capabilities. 
My staff and I remain involved on a daily basis with the MDA 
and the BMDS element program offices in order to ensure that 
operational test issues are addressed in their testing.
    I have recently sent forward for your review the master 
test plan for the Block 04 BMDS, along with the developmental 
test plans, master plans for the four major elements (global 
missile defense (GMD), Aegis, Airborne Laser (ABL), and 
Terminal High Altitude Area Defense (THAAD)). While statute 
prohibits me from having authority or responsibility for 
developmental testing, we are involved in an advisory role in 
the development of these plans.
    Aegis and GMD are the two primary elements of the test bed 
that will comprise the near-term capabilities of the BMDS IDO. 
In both the GMD and Aegis programs, operational testers are 
involved with ensuring that developmental testing addresses as 
many of the operational objectives as possible.
    The Navy's Operational Test Agency (OTA) is advising the 
Aegis missile defense program on how to make their testing more 
realistic without compromising important developmental test 
goals.
    The GMD program's Combined Test Force effectively 
integrates the operational testers into the program development 
activities and the test design and planning efforts. The 
Service OTAs are working jointly and in concert with my office 
to independently advise the MDA and the GMD Combined Task 
Forces on test plans and are independently evaluating all 
ground and flight test data.
    My office has reviewed and approved the operational test 
objectives for the last three GMD integrated flight tests. The 
OTAs, in close coordination with my office, have developed a 
characterization plan that provides the basis for continuous 
operational assessments of demonstrated the BMDS capability as 
it is baselined in 2004 and for each Block as it matures.
    The MDA has supported this effort. I am pleased with their 
openness and cooperation with my office and the Service OTAs. 
We have agreed on the data sources that will support both the 
MDA and operational capability assessments. This will help 
ensure that the test planning will address both developmental 
and operational objectives.
    The operational test community places less emphasis on 
component level test results, though we agree that such testing 
can provide a robust characterization and insight into 
individual component and subsystem performance. Realistic 
operational testing requires an integration of all internal and 
external system elements, including operators employing 
approved tactics and doctrine in accordance with their training 
to accomplish mission planning and engagement through kill 
assessment.
    When integrated system performance is not confirmed by 
integrated system level testing, the burden of combining 
component performance into system performance falls to models 
and simulations. Modeling and simulation are not a good 
substitute for integrated system testing. However, when 
modeling and simulation are used to provide context to 
integrated system hardware in the loop test, they can help to 
overcome test limitations and give a more complete picture of 
mission capability.
    I feel that the MDA is acting responsibly in using models 
and simulations to estimate system performance, but would 
caution that since the system is still in development, model-
based estimates will almost always contain uncertainties.
    Fielding the test bed provides an opportunity to gather 
operational data on system performance, safety, survivability, 
reliability, availability, and maintainability. We should 
expect these data to drive system enhancements. The challenge 
will be achieving a defensive posture that is flexible enough 
to accommodate the necessary changes to hardware, software, and 
processes that will be necessary to maintain a highly available 
BMDS, while supporting a comprehensive test program that is 
designed to mature, improve, and demonstrate mission 
capabilities through continued development.
    In summary, let me say that for years, my office has 
advocated more comprehensive developmental testing, leading up 
to realistic operational testing. Specifically, we have 
encouraged programs to do more hardware and software in the 
loop testing early during system integration in order to avoid 
problems typically found during operational testing of complex 
network weapons systems.
    The System Integration Laboratory is being employed by the 
MDA and its elements are addressing this important aspect of 
system maturation. The test bed is adding flexibility and 
complexity to the flight test program that will pay dividends 
in the future.
    The commonality of architectural components between the 
test bed and the operational system poses management 
challenges, but should speed the integration of new 
capabilities as they are confirmed through the testing.
    Mr. Chairman, ladies and gentlemen, my staff and I continue 
to work with General Kadish and his staff to ensure that the 
capabilities and limitations of the BMDS are well characterized 
as the system proceeds in development and testing. This 
concludes my opening remarks and I welcome your questions.
    [The prepared statement of Mr. Christie follows:]
                Prepared Statement by Thomas P. Christie
    Mr. Chairman, members of the committee, I appreciate the 
opportunity to appear before you today and provide you with an update 
on where we stand with respect to testing the Ballistic Missile Defense 
System (BMDS). I continue to strongly support the construction and 
integration of the BMDS test bed. This BMDS test bed will provide the 
elements that make up the Initial Defensive Operations (IDO) 
architecture. While I am very encouraged by the improved testing 
environment and capability the BMDS test bed will provide, I am even 
more pleased with the increased emphasis on system integration and user 
involvement I have seen over the past year. Strategic Command 
(STRATCOM) and Northern Command (NORTHCOM) are developing tactics, 
techniques, and procedures for operating the system. The Missile 
Defense Agency (MDA) and the element program offices are making the 
developmental tests progressively more realistic. They are ground 
testing with the available system hardware and software and involving 
soldier operators to the degree possible.
    As I have said in the past, the system must be built before we can 
properly test it. The MDA is still building it. We have just begun to 
ground and flight-test some of the system components in a tactical 
configuration. General Kadish is restructuring the BMDS testing program 
in 2005 to focus on further characterizing and evaluating the 
performance envelope of the IDO capability. This testing will be more 
operationally realistic in that test scenarios will include more 
complex target presentations and engagement geometries. It also will 
provide a better understanding of the IDO end-to-end performance 
capability.
    The MDA continues to be proactive when it comes to testing. General 
Kadish has adopted a test-find-fix-test philosophy. This approach 
provides a higher likelihood of finding design and workmanship problems 
early in the program. The decision to exploit the test bed elements for 
an initial operational capability has required some substantive changes 
in test planning. Test objectives have shifted from demonstrating 
component capabilities to demonstrating integrated system capabilities. 
My staff and I remain involved on a daily basis with the MDA and the 
BMDS element program offices to ensure that operational test issues are 
addressed in testing. I have recently sent forward for your review, the 
master test plan for the Block 04 BMDS, along with the developmental 
master test plans for the four major elements (global missile defense 
(GMD), Aegis, the Airborne Laser (ABL), and Theater High Altitude Area 
Defense (THAAD)). While statute prohibits me from having authority or 
responsibility for developmental testing, we are involved in an 
advisory role in the development of these plans. Aegis and GMD are the 
two primary elements of the test bed that will comprise the near term 
capabilities of the BMDS IDO. In both the GMD and Aegis programs, 
operational testers are involved with insuring that developmental 
testing addresses as many of the operational objectives as possible. 
The Navy's Operational Test Agency (OTA) is advising the Aegis missile 
defense program on how to make their testing more realistic without 
compromising important developmental testing goals. The GMD program's 
Combined Test Force effectively integrates the operational testers into 
the program development activities and the test design and planning 
efforts. The Service OTAs are working jointly and in concert with the 
Director of Operational Test and Evaluation (DOT&E) to independently 
advise MDA and GMD Combined Test Forces on test plans, and are 
independently evaluating all ground and flight test data. My office has 
reviewed and approved the operational test objectives for the last 
three GMD integrated flight tests. The OTAs, in close coordination with 
my office, have developed a characterization plan that provides the 
basis for continuous operational assessments of demonstrated BMDS 
capability as it is baselined in 2004 and for each Block as it matures. 
The MDA has supported this effort. I am pleased with their openness and 
cooperation with my office and the Service OTAs. We have agreed on the 
data sources that will support both MDA and operational capability 
assessments. This will help ensure that the test planning will to 
address both developmental and operational objectives.
    The operational test community places less emphasis on component 
level test results, though we agree that such testing can provide a 
robust characterization and insight into individual component and 
subsystem performance. Realistic operational testing requires the 
integration of all the internal and external system elements, including 
operator personnel employing approved tactics and doctrine in 
accordance with their training, to accomplish mission planning and 
engagement through kill assessment. When integrated system performance 
is not confirmed by integrated system level testing, the burden of 
combining component performance into system performance falls to models 
and simulations. Modeling and simulation are not a good substitute for 
integrated system testing. However, when modeling and simulation are 
used to provide context to integrated system hardware in the loop 
tests, they can help to overcome test limitations and give a more 
complete picture of mission capability. I feel that MDA is acting 
responsibly in using models and simulations to estimate system 
performance, but would caution that since the system is still in 
development, model based estimates almost always contain uncertainties.
    Fielding the test bed provides an opportunity to gather operational 
data on system performance, safety, survivability, reliability, 
availability, and maintainability. We should expect these data to drive 
system enhancements. The challenge will be achieving a defensive 
posture that is flexible enough to accommodate the necessary changes to 
hardware, software, and processes that will be necessary to maintain a 
highly available BMDS, while supporting a comprehensive testing program 
that that is designed to mature, improve, and demonstrate mission 
capabilities through continued development.
    In summary, let me say that for years my office has been advocating 
more comprehensive developmental testing, leading up to realistic 
operational testing. Specifically we have encouraged programs to do 
more hardware and software in the loop testing early during system 
integration to avoid problems typically found during operational 
testing of complex networked weapon systems. The system integration 
laboratories being employed by the MDA and its elements are addressing 
this important aspect of system maturation. The test bed is adding 
flexibility and complexity to the flight test program that will pay 
dividends in the future. The commonality of architectural components 
between the test bed and the operational system poses management 
challenges, but should speed the integration of new capabilities as 
they are confirmed through testing. Mr. Chairman, ladies and gentlemen, 
my staff and I continue to work with General Kadish and his staff to 
ensure that the capabilities and limitations of the BMDS are well 
characterized as the system proceeds in development and testing.
    This concludes my opening remarks and I welcome your questions.

    Chairman Warner. I find your remarks very clear, Director. 
I thank you.
    Admiral Ellis.

 STATEMENT OF ADM JAMES O. ELLIS, JR., USN, COMMANDER, UNITED 
                    STATES STRATEGIC COMMAND

    Admiral Ellis. Thank you, Mr. Chairman, Senator Levin, 
distinguished members of the committee. It's an honor for me to 
once again appear before you today representing the outstanding 
members of STRATCOM men, women, military, and civilian alike.
    I have submitted a written statement. I ask that that be 
included in the record.
    Chairman Warner. The full statements of all witnesses will 
be made part of the record.
    Admiral Ellis. Thank you, sir. I'm pleased to share the 
panel today with Mr. Wynne, Mr. Christie, Lieutenant General 
Kadish, and Lieutenant General Dodgen. During the past year, 
all of us, together with Ed Eberhart, Commander, NORTHCOM and 
Tom Fargo, Commander, United States Pacific Command (PACOM) 
have worked closely as we develop and exercise a concept of 
operations (CONOPs) that establishes a baseline configuration 
of all global BMD mission elements. This includes active and 
passive defense, as well as offensive operational planning.
    When I came before this committee last April, I reported 
that the new STRATCOM was created first and foremost to provide 
responsive, integrated, and synchronized combat capability and 
support across geographic boundaries.
    Since then, we have made significant progress in all four 
of our newly assigned mission areas, including global strike, 
information operations, communications and intelligence, and 
the coordination and integration of the global BMD 
capabilities.
    This morning, I'm here to report on STRATCOM's role and 
progress in bringing the global BMDS to an initial alert 
status. As Mr. Christie has already noted, and Secretary Wynne 
as well, the Missile Defense Act of 1999 directed us to pursue 
this course, and it was outlined in the presidentially directed 
2002 Unified Command Plan (UCP) Change 2 that assigned STRATCOM 
the role of planning, integrating, and coordinating our GMD 
capabilities.
    As we bring on line the capabilities being developed by the 
MDA, STRATCOM is developing doctrine, CONOPs, and operational 
plans in coordination with our components and other combatant 
commanders. We are defining broad interrelationships between 
the GMD mission and other mission areas such as intelligence, 
surveillance, and reconnaissance (ISR) strike operations, and 
information operations.
    We are refining rules of engagement, planning force 
employment, assessing force readiness, and defining logistic 
support requirements. In short, we are advocating future 
desired missile defense and warning characteristics even as we 
implement the ongoing developmental capabilities as spokesmen 
for all combatant commanders.
    NORTHCOM and PACOM are our principal partners in 
preparation for activation of the IDO capability. I meet and 
talk frequently with Ed Eberhart and Tom Fargo to refine and 
validate our plans. Our commands have participated in a 
continuing series of exercises and ongoing readiness 
assessments.
    You will hear soon from Lieutenant General Larry Dodgen. He 
is my Army component commander and in his role as Commander, 
Army Space and Missile Defense Command, and Army Strategic 
Command (ARSTRAT), he oversees the Army National Guard element 
that will man and employ the Nation's ground-based midcourse 
defense system as it comes into being this year under the 
operational control of the NORTHCOM.
    We continue to work closely with Ron Kadish and his MDA 
staff to identify and develop procedures to share assets that 
must support both ongoing BMDS development and testing as well 
as fully support the alert force.
    The foundation for the global BMD CONOP is a centralized 
plan, led by STRATCOM, operational control appropriately 
maintained by the regional combatant commanders employing their 
assigned forces.
    In coordination with NORTHCOM and PACCOM, STRATCOM will 
ensure that multimission sensors are coordinated to support the 
missile defense mission. We have a long history of managing the 
Nation's early warning sensors and that expertise will be 
applied to the global BMD mission area as well.
    The STRATCOM is also responsible for assessing the military 
utility of the ongoing developmental system and providing the 
combatant commander's view of the military utility of the BMDS 
at IDO in 2004.
    We also will periodically report the combatant commander's 
assessment of the evolving system's capabilities and 
limitations with a focus on three key metrics, effectiveness, 
interoperability, and suitability.
    The Military Utility Assessment (MUA) and the Operational 
Test and Evaluation (OT&E) team, referred to by Mr. Christie, 
share a common database of observations on capabilities and 
limitations derived from system and element testing and 
simulation.
    The IDO capability is the first increment of the 
capabilities-based approach to developing and providing BMD. We 
will take full and early operational advantage of the system's 
anti-missile capabilities under development.
    In fact, moving the initial capability into the operational 
environment provides opportunities for more immediate, 
rigorous, and realistic testing of the system elements, command 
and control processes, and operational crew performance.
    Our written statement outlines the progress we have made 
over the past year and our continuing effort to validate 
operational processes, systems, and capabilities in order to 
successfully achieve IDO in the months ahead.
    As the men and women of STRATCOM support the new constructs 
and processes being developed for operationally testing and 
operationally employing the nascent missile defense system, we 
will gain important operational experience and insight. These 
opportunities will enable us to better shape and refine the 
system as we go through this development process and also 
permit fielding of an IDO capability to further enhance the 
security of the Nation.
    In my mind, this represents an appropriate and realistic 
approach to development of this unique defensive capability of 
unprecedented scope. I thank you for this opportunity to 
discuss these important issues with you, but I look forward to 
your questions.
    [The prepared statement of Admiral Ellis follows:]
           Prepared Statement by ADM James O. Ellis, Jr., USN
            the operationalization of global missile defense
I. Introduction
    It is my honor to appear before the Senate Armed Services Committee 
today to discuss the role of U.S. Strategic Command (STRATCOM) in 
operationalizing the Global Ballistic Missile Defense (GBMD) system.
    In the words of Secretary Rumsfeld, ``We have truly entered a new 
age--one that may well be the most dangerous America and the 
democracies of the world have ever faced.'' Our ever-increasing 
dependence of space systems, computer technologies, and information 
management systems, combined with the proliferation of weapons of mass 
destruction (WMD) and the threat from continued global terrorism, has 
forever changed the security environment in which we live. The United 
States can no longer know for certain which nation, combination of 
nations, or non-state actors may pose threats to our vital interests. 
Many of the threats we face are global in nature, often operating in 
the seams between national boundaries, political systems, and 
ideologies.
    Clearly, the tragedy of September 11, 2001, demonstrated the 
challenges of ``one-size-fits-all deterrence.'' These attacks led us to 
accelerate the reexamination of how we defend the homeland and further 
served to accelerate ongoing discussions regarding the effectiveness of 
strictly threat-based approaches towards potential adversaries.
    Our changing national security environment demands new ways of 
thinking and a strategy that anticipates capabilities of rogue states 
and non-state actors and seeks to dissuade or deter the action of 
potential adversaries. Preparing for the future requires us to develop 
capabilities that can adapt quickly to new challenges and to unexpected 
circumstances. Tomorrow's conflicts will likely consist of asymmetric 
attacks focused on perceived U.S. vulnerabilities.
    The effects of globalization and the growth of transnational 
threats continue to reshape the Department of Defense's (DOD) thinking 
in all fundamental mission areas. Reflective of this effort, Change One 
to the 2002 Unified Command Plan (UCP) combined the former STRATCOM and 
U.S. Space Command on October 1, 2002.
    Three months later, on January 10, 2003, President Bush assigned 
STRATCOM the responsibility of planning, integrating, coordinating, and 
when directed, executing four previously unassigned mission areas: 
Global Strike, Global Missile Defense (GMD), DOD Information 
Operations, and command and control, computers, communications, 
intelligence, surveillance, and reconnaissance (C\4\ISR). As is the 
case with the traditional missions of nuclear deterrence and space 
operations, this new portfolio of missions transcends geographical 
boundaries.
    Missions that cross regional boundaries require a global approach. 
STRATCOM is specifically tasked to integrate each of those missions in 
support of warfighters around the globe. We believe that integrating 
these capabilities can maximize our Nation's ability to respond to a 
broad range of global threats and contribute significantly to our 
Nation's security.
II. U.S. Strategic Command's Role in Global Ballistic Missile Defense
    The missile defense mission requires a global approach. Missile 
defense concepts have evolved from separate efforts focused on terminal 
intercept of short- and medium-range ballistic missiles and mid-course 
intercept of intercontinental ballistic missiles, to a multi-layered 
missile defense system contributing to the defense of the U.S., our 
allies, and our forces and interests abroad. Change Two of the 2002 UCP 
tasked STRATCOM to plan, integrate, and coordinate the GMD capabilities 
of the Nation.
    STRATCOM is operationalizing the capabilities being developed and 
deployed by the Missile Defense Agency (MDA). We are leading the 
development of the necessary doctrine, concepts of operations (CONOPs), 
and operational plans in coordination with our subordinate Service 
component commands and the other combatant commands. This effort 
requires that we define the broad interrelationships among the GBMD 
mission and other mission areas, such as intelligence, surveillance, 
and reconnaisance (ISR), strike operations, and information operations. 
Operationalizing GMD capabilities also requires detailed planning to 
address the policy, rules of engagement, force employment, force 
readiness, and logistics support, and tying together diverse system 
elements including sensors, interceptors, and the command and control 
network.
    The UCP also tasks STRATCOM with advocating the desired GMD and 
missile warning characteristics and capabilities as a spokesman for all 
combatant commanders. As the advocate for GBMD, STRATCOM, in 
coordination with our fellow combatant commands, provides direct input 
to the MDA and the DOD requirements process regarding our operational 
and technical views on the system, all aspects of the Ballistic Missile 
Defense System (BMDS) integration, and the desired capabilities for 
future incremental (Block) improvements. Clearly, close cooperation 
between operators and developers is essential. Unequivocally, STRATCOM 
and the MDA have forged a strong relationship over the past 18 months 
affording us the opportunity to shape the program to better represent 
the needs of the combatant commanders and the Nation.
    U.S. Northern Command (NORTHCOM) and U.S. Pacific Command (PACOM) 
are our principal warfighting partners in preparation for activation of 
the initial defensive capability. With them, we are continuing to 
refine and validate our plans in a series of exercises and readiness 
assessments designed to prepare the responsible combatant commands, 
comprised of Army, Navy, and Air Force units, for assuming operational 
responsibility for the initial elements of this nascent defensive 
system. In addition, we are working closely with the MDA to identify 
and develop procedures to share assets that must support both ongoing 
BMDS development and testing as well as the operational alert forces.
    Operation Iraqi Freedom (OIF) demonstrated an unprecedented level 
of cross-theater missile defense cooperation and coordination. 
Integrated early warning data from Army, Navy, Air Force, and other 
intelligence sensors provided vital data supporting Patriot missile 
engagements of all threatening theater ballistic missile launches. 
Expanding upon OIF's example of an integrated and effective defense, 
STRATCOM is developing the global missile defense concept of operations 
and the battle management architecture to provide full capabilities for 
regional combatant commanders to defend their areas of responsibility 
(AOR).
    Concept of Operations
    The foundation for the GBMD CONOPs is centralized planning, led by 
STRATCOM, with decentralized execution by the regional combatant 
commanders (RCCs) employing their assigned forces. This concept of 
operations also achieves unity of effort by placing under STRATCOM the 
overarching responsibility for GBMD.
    STRATCOM synchronizes and integrates all combatant commanders' BMD 
plans into a fully coordinated, cohesive GBMD strategy. The concept is 
designed to minimize operational vulnerabilities, mitigate risk, and 
appropriately set and prioritize resource requirements from a global 
perspective. Additionally, STRATCOM monitors and assesses 
vulnerabilities that may arise in a potential crisis and recommends to 
the Nation's senior civilian leaders courses of action such as the 
reallocation of forces, to mitigate risks to the overall strategy.
    Of the $10.2 billion requested for the missile defense program in 
fiscal year 2005, about $3.2 billion will go to the anti-
intercontinental ballistic missile (ICBM) portion of the overall 
system--Ground-Based Midcourse Defense. This includes approximately 
$860 million for deployment. Most of the remaining funding will go to 
other elements of missile defense including procurement, upgrades, and 
advanced research on systems such as Theater High Altitude Air Defense 
(THAAD), PAC-3, SM-3, and the Aegis--all systems that provide medium- 
and short-range protection to our troops.
    The Ground-Based Midcourse Defense system is a primary element of 
the BMDS initially designed to protect the 50 United States. STRATCOM's 
component, Army Strategic Command, oversees the Army element that will 
man and employ the Ground-Based Midcourse Defense system. This element 
consists of both the Ground-Based Midcourse Defense Brigade and 
Battalion, under the operational control of NORTHCOM for execution of 
defense of the U.S. and other areas as directed by the President and 
Secretary of Defense. Commander, NORTHCOM will protect Hawaii in 
support of Commander, PACOM. PACOM's primary role in missile defense at 
Initial Defensive Operations (IDO) is the employment of Aegis 
surveillance and tracking capabilities in the Pacific Region to provide 
direct threat tracking support to NORTHCOM's defense of the homeland.
    Command and Control
    The Command and Control Battle Management and Communications 
(C2BMC) system will be integral to the execution of the GBMD mission. 
This system will link combatant commanders, enabling them to share a 
common operational picture and conduct near real-time collaborative 
planning and execution of GMD operations. The C2BMC system provides new 
missile defense displays and will supplement the routine voice 
conferences that have been expanded to address both offensive and 
defensive operations.
    The C2BMC system will be installed at STRATCOM and NORTHCOM in late 
July. During that same installation, PACOM will have access to the 
system's situational awareness displays. The complete suite of command 
and control equipment will be installed in PACOM by December 2005. The 
system, as initially deployed, will provide the essential functionality 
for executing the GBMDS.
    The global focus and reach of STRATCOM's operations have raised 
significant interest among international friends and allies. STRATCOM 
is exploring the implications of future multi-national system 
participation in the missile defense mission area by continuing 
dialogue with our military counterparts including the United Kingdom, 
Australia, Canada, Denmark, and Japan.
    Offense/Defense Integration
    In May 2001, President Bush stated, ``We need new concepts of 
deterrence that rely on both offensive and defensive forces.'' The 
inclusion of active and passive defenses in America's deterrent 
strategy and force posture is a significant departure from past 
strategy. Circumstances have changed profoundly; the threat may be 
numerically smaller, but it is certainly more diverse and less stable.
    Currently, our only defense against an adversary with long-range 
ballistic missile technology is our offensive strike capability. 
Deployment of the BMDS gives our Nation a military capability with 
greater flexibility to assure our friends and allies, adds to the 
deterrent equation, and begins to actively defend and protect our 
interests on a global scale.
    STRATCOM, in coordination with NORTHCOM and PACOM, is refining the 
cross-command procedures for integrating offensive and defensive 
operations. Potential offense response options will include both 
kinetic and non-kinetic conventional weapon systems and information 
operations.
    An active missile defense provides a broader range of options to 
senior leadership decisionmakers while adding additional strategic 
deterrent capability. Integrating these capabilities with responsive 
offensive actions further increases the probability of success in 
countering an adversary's attack.
    Information and Intelligence Support
    A key enabler for GBMD operations is real-time, unambiguous 
intelligence. We are working closely with the DOD's intelligence 
organizations to develop and disseminate necessary intelligence 
information in order to further enhance missile defense capabilities.
    Part of our responsibility is to ensure each combatant commander is 
working from the same intelligence threat assessment baseline. That 
effort will be coordinated by the STRATCOM's Joint Intelligence Center. 
A common intelligence assessment will ensure all combatant commanders 
are planning their active defense, passive defense, sensor positioning, 
readiness levels, and ready attack options to counter a consistent 
threat.
    Enabling capabilities, such as the Defense Support Program (DSP) 
and Space Based Infrared System (SBIRS), will be vital components of 
the development of more advanced missile defense systems. For the 
initial missile defense capability, the on-orbit DSP will provide the 
necessary indications and warning to fully support our operations 
against long-range ballistic missiles. SBIRS will expand our ability 
beyond the current capabilities of the DSP to detect shorter-range 
missiles. Unlike DSP, SBIRS was designed from the outset to support 
both tactical and strategic requirements. DSP and SBIRS, once 
operational, will likely remain the source of the first missile warning 
we receive, and as such, will represent the essential first link in the 
chain of a layered, integrated missile defense.
III. Training, Exercises, and Readiness Assessment
    To validate operational capabilities, STRATCOM, in coordination 
with NORTHCOM, PACOM, and the MDA, developed a series of exercises 
designed to assess our ability to perform critical tasks for missile 
defense. The series, referred to as Thor's Shield, is part of a 
continuous process designed to ensure readiness and to provide feedback 
to the MDA for development of future capabilities. The combatant 
commanders will use Thor's Shield to incrementally certify their forces 
and exercise GBMD across their AOR at the tactical, operational, and 
strategic levels.
    The initial cadre of the Ground-Based Midcourse Defense Brigade was 
established on October 16, 2003. The subordinate Ground-Based Midcourse 
Defense Battalion was activated in Fort Greeley, Alaska, in January 
2004. The Army National Guard is being trained to operate both units. 
All missile defense crews will complete their initial training by 
summer 2004 and will be certified ready to conduct sustained operations 
by this fall.
    At the tactical level, training and certification for the Ground-
Based Midcourse Defense Brigade have been in process for over a year. 
At the operational level, PACOM, NORTHCOM, and STRATCOM staffs are 
being trained and will be ready to support IDO. Combatant command 
participation in Thor's Shield will continue to support development of 
the current command and control structure, rules of engagement, and 
other key operational doctrine. This process contributes to developing 
operator competency and proficiency prior to IDO and ensures trained 
operators and a responsive command and control structure will be 
available to meet contingency missions. Of course, user confidence and 
proficiency will continue to grow with increased hands-on training 
experience with the deployed system.
    At the strategic level, in November 2003, we completed a senior 
military and civilian leadership exercise to help formulate key 
national policy guidance. Interim proposed Ground-Based Midcourse 
Defense employment policy guidelines for IDO are currently under final 
review.
    In addition to events dedicated to training, warfighters from 
STRATCOM, NORTHCOM, PACOM, along with their component commands, are 
active participants with the MDA in all Ground-Based Midcourse Defense 
flight and ground tests and wargame exercises. This broad participation 
has proven invaluable in documenting and assessing the military utility 
of the Ground-Based Midcourse Defense System and increasing the 
warfighters' confidence in its system capabilities and performance.
    Military Utility Assessment (MUA)
    STRATCOM is responsible for conducting a MUA of the BMDS. The MUA 
is designed to support two purposes. First, to provide the combatant 
commanders' view of the military utility of the BMDS at IDOs in 2004. 
Second, to provide the combatant commanders' assessment of the BMDS IDO 
capabilities and limitations. These assessments will be derived from 
system and element testing and simulation by the OTAs working for the 
Director of Operational Test and Evaluation (DOT&E). Overall, the MUA 
serves as a report to the Secretary of Defense on the progress made to 
date and the projected utility of the system. STRATCOM and the Joint 
Theater Air and Missile Defense Organization, in coordination with 
NORTHCOM, PACOM, the OTAs, and MDA, will assess the degree to which 
delivered capabilities support execution of the missile defense mission 
with a focus on three key metrics: effectiveness, interoperability, and 
suitability.
    The MUA is an iterative, event-driven process. The initial 
increment of the assessment is based on data available on BMDS 
performance in the September-December 2003 timeframe and provides 
preliminary conclusions on IDO military utility and capabilities and 
limitations at IDO. A more comprehensive assessment of the BMDS 
capabilities for IDO will be based on test events that are executed in 
2004, including both flight tests and ground tests. Additionally, we 
will draw insights from exercises and wargames that employ C2BMC 
elements and guide the development and refinement of operating 
procedures. Confidence in assessed capabilities will improve as more 
system performance data is gathered and analyzed, and future iterations 
of the assessment will be adjusted to match any change in testing or 
schedule.
    The MUA and the assessment of the DOT&E are closely related in that 
they share a common database of observations on BMDS capabilities and 
limitations derived from system and element testing and simulation. The 
information in the database developed by the OTAs provides the 
information critical to the conduct of the MUA process. We rely on the 
expertise within the test community of more than a hundred highly 
skilled data collectors and analysts who utilize an array of analytical 
tools to evaluate system performance and characterize system behavior. 
The warfighter and OTAs have been involved in the collaborative process 
and we continue to influence the development of test objectives through 
close coordination with the developer and the operational test 
community. Working closely with Mr. Christie's team, the developers in 
the MDA, and, importantly, the users of the system in the combatant 
commands and Services, we will quantify system performance and assess 
mission execution, fully mindful of the developmental capabilities and 
limitations identified. We will work closely with the developer to 
define and evaluate any required corrective action. Observations and 
insights on system performance gained from wargames will be added to 
determine whether modifications to tactics, techniques, and procedures 
can further enhance system capabilities.
    Unlike classic OT&E evaluations, the MUA is not assessing the 
system performance against a hard and fast performance threshold. The 
MUA is instead a determination of the extent to which the capability 
provided by a developmental system contributes to mission 
accomplishment and national security even as the system continues to 
evolve and mature.
    The MUA is properly baselined against today's capability--an 
inability to intercept any long-range ballistic missile launched 
against the United States. At IDO, the BMDS is intended to provide a 
rudimentary capability to defend against a limited, long-range 
ballistic missile attack against the United States. We are confident 
that we are on track from both the technical and operational 
perspectives to successfully field and operate an initial BMD 
capability. Further testing, wargames, and exercises in 2004 and beyond 
will provide us with additional data for completing a more in-depth 
assessment.
IV. Conclusion
    Mr. Chairman, STRATCOM is ready to meet the critical challenges of 
operationalizing all elements of the GBMD system.
    We will be ready to operate an initial defensive capability this 
year. In the years ahead, we will fulfill the Nation's goal of 
deploying a system to defend the United States, our deployed forces, 
and our allies against the full spectrum of ballistic missile threats. 
This global system will ultimately deliver a military capability we 
currently do not have to defend the Nation. When fully fielded, this 
capability will increase the operational flexibility of our forces and 
dramatically increase the range of options available to our national 
leadership. Future advances will have great potential to similarly 
protect and assure our allies. In the face of adversaries seeking more 
sophisticated means to threaten our Nation, we must continue to pursue 
and rigorously assess evolutionary capabilities in order to further 
improve our BMD.
    We are mindful of the magnitude of the task before us, but remain 
confident in the talent of our staff, components, and industry and 
agency mission partners. Ours is a very different time, fraught with 
very different challenges. In the words of Abraham Lincoln, ``The 
dogmas of the quiet past are inadequate to the stormy present. The 
occasion is piled high with difficulty, and we must rise with the 
occasion. As our case is new, so we must think anew, and act anew.''
    I appreciate your continued support of the men and women of 
STRATCOM and the unique and essential contributions they continue to 
make to safeguard our Nation. I look forward to reporting our progress 
to you in the future, and I welcome your questions.

    Chairman Warner. Admiral, we thank you for your long 
distinguished service to our Nation, and particularly in this 
role that you are now playing.
    General Kadish.

STATEMENT OF LT. GEN. RONALD T. KADISH, USAF, DIRECTOR, MISSILE 
                         DEFENSE AGENCY

    General Kadish. Good morning, Mr. Chairman, Senator Levin, 
and members of the committee. Today I'd like to briefly 
summarize some key points of the fiscal 2005 budget submission 
that we have before you.
    Our direction from the President is to develop the 
capability to defend the United States, our allies, friends, 
and deployed forces against all ranges of missile in all phases 
of flight. Beginning in 2001, we proposed development of a 
single integrated BMDS, and we are building over time layered 
defenses to enable engagements in all of those phases against 
all of those ranges, and make it possible to have a high degree 
of confidence in the performance of the missile defense system.
    Our program is structured to deal with the enormity and 
complexity of this task. Our budget request continues to 
implement that guidance in two ways. First, it continues an 
aggressive research, development, test, and evaluation (RDT&E) 
effort to design, build, and test elements of a single 
integrated BMDS in an evolutionary way.
    Second, it provides for a modest fielding of this 
capability over the next several years so that we can rapidly 
improve our capability in the field.
    We are requesting $9.2 billion to support this program and 
work in fiscal year 2005, which is approximately a $1.5 billion 
increase over the fiscal year 2004 request.
    Now, about $1 billion covers costs associated with the 
continued fielding of the test bed and the first ground-based 
midcourse defense in Aegis and sensors and command and control 
and battle management equipment that make that up. Also, for 
the Block 4 alert configuration.
    About $500 million of that amount will allow us to purchase 
long lead items for further improvements beyond the test bed, 
in an evolutionary capability improvement for what we call 
Block 6. In other words, about $1.5 billion in fiscal year 2005 
request supports the initial configuration of the test bed and 
activities to place the BMD system on alert initially, and for 
systems improvements in block 2006. About $7.7 billion lays the 
RDT&E foundation for the continued evolution of the system to 
include a significant amount of testing.
    This budget is consistent with the approach I have 
described in many previous years. Last year, we made it clear 
that this initial capability inherent in the test bed would be 
very basic. We also emphasize that instead of building a test 
bed that could be used in an emergency, we would field this 
year more interceptors, put them on alert and continue to test. 
As of today, despite some setbacks, we are on track to do just 
that.
    So with an evolutionary capabilities-based acquisition 
approach, and our aggressive RDT&E program, we can put together 
a capability to put in the field, to test it realistically, to 
train with it, to get comfortable with it, learn what works 
well, learn what doesn't, and improve it over time as rapidly 
as we can.
    This is a unique, unprecedented capability in its early 
stages that we will continue to mature. We have to strike a 
balance between our need to continue to test and develop 
missile defenses and our goal to provide effective defenses 
where there are none today. I believe we have struck that 
balance in this budget, and we can do both of those things 
starting this year.
    We are working with Admiral Ellis and the warfighting 
community, as he said, to ensure that we can do both of those 
efforts: RDT&E and operations. Once the system is placed on 
alert, we will continue to conduct tests concurrently to gain 
ever greater confidence in this operational capability.
    We are working very closely with Mr. Christie and the 
operational test community. As our tests are planned, executed 
and evaluated, the BMDS Combined Test Force, which brings 
together representatives from across the testing community, is 
combining requirements for both developmental and operational 
testing capability. There are approximately 100 operational 
test personnel, full-time embedded in all facets of missile 
defense test planning and execution who have access to all of 
our test data. They have the ability to influence every aspect 
of our test plan.
    The missile defense test program helps define the 
capabilities and limitations of the system. The thousands of 
tests we conduct in the air, on the ground, and in the 
laboratory and with our models and simulations help identify 
problems so we can fix them and they highlight gaps so that we 
can address them.
    This accumulated knowledge has and will continue to 
increase our confidence in the overall performance of the 
system and its potential improvements. The research and 
development program is working. We have focused on the 
development of the most promising near-term elements, namely 
the ground-based midcourse system and Aegis BMD. THAAD is 
progressing well and will add capabilities to engage in late 
midcourse and terminal layers.
    Achieving a capability in a boost phase as soon as we 
practically could would be a revolutionary high payoff 
improvement to this layered system. In this budget we increase 
investment in the development of that boost layer. Two program 
elements, a directed energy ABL capability and a new kinetic 
energy or hit to kill capability in the boost phase represent 
parallel paths complementary to each other, but significantly 
different technologies.
    Interest among foreign governments and industry in missile 
defense has risen absolutely and considerably over the past 
year. Because geography and allied partnerships really do 
count, we are undertaking major initiatives in the 
international arena in this budget. We will begin in 2005 to 
expand international involvement in the program by encouraging 
foreign industry participation and investment in the 
development in the complementary boost and ascent phase of 
element component development. Our international work is a 
priority that is consistent with the President's direction, our 
vision and supportive of our overall goals.
    In particular, in December 2003, the Government of Japan 
became our first ally to announce its intent to invest more 
than $1 billion in the development in the multilayered BMD 
system, basing its initial capability on upgrades to their 
Aegis destroyers and acquisition of SM-3 and Patriot-3 (PAC-3) 
missiles. We have also concluded important agreements with the 
U.K.
    Mr. Chairman, thanks to the tens of thousands of talented 
and dedicated people across this country, America's Missile 
Defense Program is on track.
    The MDA is doing what we told Congress we would do, and 
your support has been absolutely critical to the progress we 
have made. We have listened to your concerns over the years and 
sought to address them in a responsible manner. Our tests and 
analyses will give us the confidence that we can take these 
first steps toward initial defensive operations while we 
continue to prove out new technologies and increase the 
confidence in the system to realistic testing.
    I continue to believe there is tremendous benefit in 
putting the unprecedented technology that we have today into 
the field in manageable increments to provide some defenses 
where none exist today, to learn more about it, to gain 
experience with it, to test it more realistically and 
ultimately to improve it as fast as we can.
    Thank you, Mr. Chairman.
    [The prepared statement of General Kadish follows:]
         Prepared Statement by Lt. Gen. Ronald T. Kadish, USAF
    Good morning, Mr. Chairman, members of the committee. It is an 
honor to be here today to present the Department of Defense's (DOD) 
Fiscal Year 2005 Missile Defense Program and budget.
    Today, I would like to outline what we are doing in the program, 
why we are doing it, and how we are progressing. I also will address 
why we proposed taking the next steps in our evolutionary development 
and fielding program. Then I want to emphasize the importance of the 
acquisition strategy we are using and close with some observations 
about testing and the Department's approach to Missile Defense Agency 
(MDA) management.
    Our National Intelligence Estimates (NIEs) continue to warn that in 
coming years we will face ballistic missile threats from a variety of 
actors. The recent events surrounding Libya's admission concerning its 
ballistic missile and weapons of mass destruction (WMD) programs remind 
us that we are vulnerable. Ballistic missiles armed with any type 
warhead would give our adversaries the capability to threaten or 
inflict catastrophic damage.
    Our direction from the President is to develop the capability to 
defend the United States, our allies and friends, and deployed forces 
against all ranges of missiles in all phases of flight. This budget 
continues to implement that guidance in two ways.
    First it continues an aggressive research, development, test, and 
evaluation (RDT&E) effort to design, build, and test the elements of a 
single Ballistic Missile Defense (BMD) system in an evolutionary way. 
Second, it provides for modest fielding of this capability over the 
next several years.
    We recognize the priority our Nation and this President ascribe to 
missile defense, and our program is structured to deal with the 
enormity and complexity of the task. The missile defense investments of 
4 administrations and 10 Congresses are paying off. We are capitalizing 
on our steady progress since the days of the Strategic Defense 
Initiative (SDI) and will present to our combatant commanders by the 
end of 2004 an initial missile defense capability to defeat near-term 
threats of greatest concern.
                    ballistic missile defense system
    Layered defenses help reduce the chances that any hostile missile 
will get through to its target. They give us better protection by 
enabling engagements in all phases of a missile's flight and make it 
possible to have a high degree of confidence in the performance of the 
missile defense system. The reliability, synergy, and effectiveness of 
the BMD System (BMDS) can be improved by fielding overlapping, 
complementary capabilities. In other words, the ability to hit a 
missile in boost, midcourse, or terminal phase of flight enhances 
system performance against an operationally challenging threat. See 
Chart 1.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    All of these layered defense elements must be integrated. There 
must be a battle management, command, and control system that can 
engage or reengage targets as appropriate. It all must work within a 
window of a few minutes. We believe that a layered missile defense not 
only increases the chances that the hostile missile and its payload 
will be destroyed, but it also can be very effective against 
countermeasures and must give pause to potential adversaries.
    So, beginning in 2001 we proposed development of a joint, 
integrated BMDS. Yet such unprecedented complexity is not handled well 
by our conventional acquisition processes. At that time, the Services 
had responsibility for independently developing ground-based, sea-
based, and airborne missile defenses. The Department's approach was 
element- or Service-centric, and we executed multiple Major Defense 
Acquisition Programs (MDAPs).
    Today, as a result of DOD transformation and a streamlined process 
instituted by the Secretary of Defense in 2001 to enhance overall 
integration, we are managing the BMDS as a single MDAP instead of a 
loose collection of Service-specific autonomous systems. We have come 
to understand over the years, though, that no one technology, defense 
basing mode, or architecture can provide the BMD protection we need. 
Redundancy is a virtue, and so we established a system-centric approach 
involving multiple elements designed, developed, and built with full 
integration foremost in our minds. When we made this change, we 
instituted a ``capability-based'' acquisition process instead of a 
``threat-based'' process. Let me explain why this is important.
    Most defense programs are developed with a specific threat--or 
threats--in mind. Twenty years ago, the ballistic missile threat was 
pretty much limited to Soviet intercontinental ballistic missiles 
(ICBMs) and sea-launched ballistic missiles. But today we have to 
consider a wide range of missile threats posed by a long list of 
potential adversaries. Those threats are constantly changing and 
unpredictable. Our potential adversaries vary widely in their military 
capabilities and rates of economic and technological development. Many 
of them have a tradition of political instability.
    Weapon systems developed using a threat-based system are guided and 
governed by Operational Requirements Documents (ORDs). These documents 
establish hard thresholds and objectives for the development and 
deployment of every component. ORDs may be entirely appropriate for 
most development programs because they build linearly on existing 
systems. For example, aircraft program managers understand lift and 
thrust from previous programs going all the way back to the Wright 
brothers.
    Not so for missile defense. Most missile defense development takes 
place in uncharted waters. Any ORD developed for an integrated, layered 
missile defense system would be largely guesswork. ORDs rely on very 
precise definitions of the threat and can remain in effect for years, 
making this process all the more debilitating for the unprecedented 
engineering work we are doing. The reality that we may have to 
introduce groundbreaking technologies on a rapid schedule and also deal 
with threats that are unpredictable render the threat-based acquisition 
structure obsolete.
    A capability-based approach relies on continuing and comprehensive 
assessments of the threat, available technology, and what can be built 
to do an acceptable job, and does not accommodate a hard requirement 
that may not be appropriate.
    Perhaps the most telling difference between the two acquisition 
approaches is that our capabilities to perform are updated every 4 to 8 
months to reflect and accommodate the pace of our progress. We are no 
longer compelled to pursue a 100-percent solution for every possible 
attack scenario before we can provide any defense at all. We are now 
able to develop and field a system that provides some capability that 
we do not have today with the knowledge that we will continue to 
improve that system over time. We call this evolutionary, capability-
based development and acquisition.
              initial defensive capability--the beginning
    On December 16, 2002, President Bush directed that we begin 
fielding a missile defense system in 2004 and 2005. The President's 
direction recognizes that the first systems we field will have a 
limited operational capability. He directed that we field what we have, 
then improve what we have fielded. The President thus codified in 
national policy the principle of evolutionary, capability-based 
acquisition and applied it to missile defense.
    The President's direction also builds on the 1999 National Missile 
Defense Act. Under this act, deployment shall take place ``as soon as 
technologically possible.'' The fact is that BMD has proven itself 
technologically possible. Not only have most of the well-publicized 
flight tests been successful, but so have the equally important 
computer simulations and software tests. Those tests and upgrades will 
continue for a long time to come--long after the system is fielded and 
long after it is deemed operational. After all, this is the heart of 
evolutionary, capability-based acquisition. This is not a concept 
designed to trick or mislead. It is simply the logical response to the 
following question: Defenseless in the face of unpredictable threats, 
which would we rather have--some capability today or none as we seek a 
100-percent solution?
    When we put the midcourse elements (Global Missile Defense (GMD) 
and Aegis BMD) of the BMD system on alert, we will have a capability 
that we currently do not have. In my opinion, a capability against even 
a single reentry vehicle has significant military utility. Even that 
modest defensive capability will help reduce the more immediate threats 
to our security and enhance our ability to defend our interests abroad. 
We also may cause adversaries of the United States to rethink their 
investments in ballistic missiles. Because of this committee's 
continued support, we will have some capability this year against near-
term threats.
    I must emphasize that what we do in 2004 and 2005 is only the 
starting point--the beginning--and it involves very basic capability. 
Our strategy is to build on this beginning to make the BMDS 
increasingly more effective and reliable against current threats and 
hedge against changing future threats.
    We have made significant strides towards improving our ability to 
intercept short-range missiles. Two years ago we began sending Patriot 
Advanced Capability 3 (PAC-3) missiles to units in the field. Based on 
the available data, the Patriot system, including PAC-3, successfully 
intercepted all threatening short-range ballistic missiles during 
Operation Iraqi Freedom (OIF) last year. Today, it is being integrated 
into the forces of our allies and friends, many of whom face immediate 
short- and medium-range threats. We believe it is the only combat-
tested missile defense capability in the world.
    This year we are expanding our country's missile defense portfolio 
by preparing for alert status, a BMDS to defend the United States 
against a long-range ballistic missile attack. Chart 2 provides a basic 
description of how we could engage a warhead launched against the 
United States.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Last year, we made it clear that this initial capability would be 
very basic if it were used. We also emphasized that instead of building 
a test bed that might be used operationally, we would field more 
interceptors and have them available for use while we continue to test. 
Because the test bed provides the infrastructure for this initial 
capability, the additional budget request for the 20 Block 2004 
interceptors and associated support was about $1.5 billion in fiscal 
year 2004 and fiscal year 2005.
    Forces to be placed on alert as part of the initial configuration 
include up to 20 ground-based interceptors at Fort Greeley, Alaska and 
Vandenberg Air Force Base, an upgraded Cobra Dane radar on Eareckson 
Air Station in Alaska, and an upgraded early warning radar in the 
United Kingdom (U.K.). We are procuring equipment for 3 BMD-capable 
Aegis cruisers with up to 10 SM-3 missiles to be available by the end 
of 2005. The Navy is working very closely with us on ship availability 
schedules to support that plan. Additionally, 10 Aegis destroyers will 
be modified with improved SPY-1 radars to provide flexible long-range 
surveillance and track capability of ICBM threats by the end of 2005, 
with an additional 5 destroyers with this capability by 2006, for a 
total of 15 Aegis BMD destroyers and 3 Aegis BMD cruisers.
    The fiscal year 2005 request funds important for Block 2006 
activities to enhance those capabilities and system integration, which 
I will discuss in a moment.
    The MDA, the combatant commanders, the Joint Staff, the military 
services, and the Director, Operational Test and Evaluation (DOT&E) are 
working together to prepare for Initial Defensive Operations (IDO). 
Using the core capability provided by Ground-based Midcourse Defense 
(GMD) and augmenting it with the appropriate Command, Control, Battle 
Management, and Communications (C2BM/C) infrastructure between 
combatant commanders and exploiting the Aegis contribution in a 
surveillance and track mode, we have created an initial capability from 
which we can evolve.
    Our current fielding plans have been built on the test bed 
configuration we proposed 2 years ago and are within 60 days of our 
schedule. Silo and facility construction at Fort Greeley, Alaska and 
Vandenberg Air Force Base in California is proceeding well. 
Preparations at Eareckson Air Station in Shemya, Alaska are on track. 
Over 12,000 miles of fiber optic cables connecting major communication 
nodes are in place, along with 9 satellite communications links. We are 
in the process of upgrading the Early Warning Radar at Beale Air Force 
Base and are well underway building the sea-based X-band radar. Our 
brigade at Schriever Air Force Base and battalion fire control nodes at 
Fort Greeley are connected to the Cheyenne Mountain Operations Center. 
The C2BM/C between combatant commanders, so essential to providing 
situational awareness, is progressing well and is on schedule. Upgrades 
to the Cobra Dane Radar are ahead of schedule. The Chief of Naval 
Operations (CNO) has identified the first group of Aegis ships to be 
upgraded with a BMD capability, and the work to install the equipment 
on the first of these ships has begun.
    Once the system is placed on alert, we will continue to conduct 
tests concurrently to gain even greater confidence in its operational 
capability. Additionally, we plan activities to sustain the concurrent 
test and operations and support of the system. We are laying in the 
infrastructure to build, test, sustain, and evolve our system as a part 
of the capabilities-based approach inherent in our strategy.
    An integral working relationship with the warfighter, the BMDS 
user, is critical to the success of this mission. We are working 
together to ensure that we field a system that is militarily useful and 
operationally supportable and fills gaps in our defenses. The support 
centers we are establishing will provide critical training to 
commanders in the field. The necessary doctrines, concepts of 
operation, contingency plans, and operational plans are being developed 
under the lead of U.S. Strategic Command (STRATCOM) and in cooperation 
with U.S. Northern Command (NORTHCOM), Pacific Command (PACOM), 
European Command (EUCOM), and United States Forces in Korea (USFK).
     improving fielded capability through evolutionary acquisition
    The system's evolutionary nature requires us to look out over the 
next 3 or 4 years and beyond in our planning. Although it is not easy, 
we have laid out a budget and a plan to shape the missile defense 
operational architecture beyond the Block 2004 initial defensive 
capability.
    In this budget, beginning with Block 2006 we will increase GMD 
Ground-Based Interceptors (GBIs) and Aegis SM-3 interceptors, deploy 
new capabilities (such as Theater High-Altitude Aerial Defense 
(THAAD)), expand our sensor net (with a second sea-based midcourse 
radar and forward deployable radars), and enhance the C2BM/C system 
integration. The fiscal year 2005 request begins to fund important 
Block 2006 activities to enhance existing capabilities and system 
integration. Our improvement plan is to add up to ten GBIs to the site 
at Fort Greeley and possibly initiate long-lead acquisition of up to 
ten more for fielding at a potential third site or at Fort Greeley. We 
will continue to augment our sea-based force structure with additional 
SM-3 interceptors and BMD-capable Aegis-class ships.
    Much of this system augmentation effort involves extending and 
building on capabilities that we have been working on over the past 
several years, so I am confident that what we are doing is both 
possible and prudent and in line with our missile defense vision.
    The confidence we achieve through our entire test program is 
reinforced by the fact that many missile defense test articles fielded 
in the existing test bed are the same ones we would use in an 
operational setting. Except for interceptors, which are one-time use 
assets, we will use the same sensors, ships, communications links, 
algorithms, and command and control facilities. The essential 
difference between an inherent capability in a test bed and the near-
term on-alert capability is having a few extra missiles beyond those 
needed for testing and having enough trained operators and logistics on 
hand and ready to respond around the clock. Once we field the system, 
we will be in a better position, literally, to test system components 
and demonstrate BMD technologies in a more rigorous, more operationally 
realistic environment. Testing will lead to further improvements in the 
system and refinement of our models, and the expansion and upgrades of 
the system will lead to further testing.
    The system we initially will put on alert is modest. It is modest 
not because the inherent capabilities of the sensors and interceptors 
themselves are somehow deficient, but rather because we will have a 
small quantity of weapons. The additional ten missiles for Fort Greeley 
will improve the overall system by giving us a larger inventory. Yet 
today, and over the near-term, we are inventory poor. Block activities 
throughout the remainder of this decade will be focused in part on 
improving the system by delivering to the warfighter greater 
capabilities with improved performance.
    Why is this important? In a defense emergency or wartime engagement 
situation, more is better. A larger inventory of interceptors will 
handle more threatening warheads. Our planning beyond the Block 2004 
initial configuration has this important warfighting objective in mind. 
There are no pre-conceived limits in the number of weapon rounds we 
should buy. We will build capabilities consistent with the national 
security objectives required to effectively deter our adversaries and 
defend ourselves and our allies.
    We also must think beyond the initial defensive capability if we 
are to meet our key national security objective of defending our 
friends and allies from missile attack. In Block 2006, we are preparing 
to move forward when appropriate to build a third GBI site at a 
location outside the United States. Not only will this site add synergy 
to the overall BMD system by protecting the United States, but it will 
put us in a better position to defend our allies and friends and troops 
overseas against long-range ballistic missiles. For the cost of 10 GBIs 
and associated infrastructure, we will be able to demonstrate in the 
most convincing way possible our commitment to this critical mission 
objective. The location of this site is still subject to negotiation 
with no final architecture defined nor investment committed until 
fiscal year 2006.
    As I have said all along, we are not building to a grand design. We 
are building an evolutionary system that will respond to our technical 
progress and reflect real world developments. We added about $500 
million to last year's projected fiscal year 2005 budget estimate to 
begin funding our Block 2006 efforts. As you can see, the system can 
evolve over time in an affordable way in response to our perception of 
the threat, our technical progress, and our understanding of how we 
want to use the system. Yet even as it does evolve, our vision remains 
constant--to defeat all ranges of missiles in all phases of flight.
        testing missile defenses--we need to build it to test it
    Another key question surrounds the nature of missile defense 
systems themselves. How do you realistically test an enormous and 
complex system, one that covers eight time zones and engages enemy 
warheads in space? The answer is that we have to build it as we would 
configure it for operations in order to test it. That is exactly what 
we are doing by building our test bed and putting it on alert this 
year.
    By hooking it all up and putting what we have developed in the 
field, we will be in a better position to fine-tune the system and 
improve its performance. Testing system operational capability in this 
program is, in many ways, different from operational testing involving 
more traditional weapon systems. All weapon systems should be tested in 
their operational environments or in environments that nearly 
approximate operational conditions. This is more readily accomplished 
for some systems, and is more difficult to do for others.
    For example, an aircraft's operational environment is the 
atmosphere. Similarly, when we conduct rigorous operational tests of 
our Navy's ships, we do so at sea--in their environment. The BMDS's 
operational environment is very different. It is a geographically 
dispersed region that is also a test bed. For both missile defense 
testing and operations, geography counts. After we have gone through 
the simulations, the bench tests, and the flybys, we want to test all 
missile defense parts together under conditions that are as nearly 
operationally realistic as we can make them--with sensors deployed out 
front, with targets and interceptors spaced far enough apart to 
replicate actual engagement distances, speeds and sequences, with 
communication links established, and with command and control elements 
in place. We in fact have conducted a number of events that exercise 
the projected communication and command and control paths required to 
link elements of the BMDS in what we call ``Engagement Sequence 
Groups,'' building our confidence that we can combine threat data from 
different systems across a third of the globe to allow for the 
engagement of ballistic missiles threats to the entire United States.
    One of the key questions that we have to answer is: What is the 
role of operational testing in an unprecedented, evolutionary, 
capability-based program? The answer is that the DOT&E, and the 
operational test agencies (OTAs) play a critical role in missile 
defense. Since evolutionary, capability-based processes do not fit the 
traditional ORD-based operational test methodology, we have applied an 
assessment approach that provides for a continuous assessment of the 
capabilities and limitations of the BMD system. Since testing is 
central to our RDT&E program and our operational understanding of the 
system, we are continuing to modernize and improve our test 
infrastructure to support more operationally realistic testing.
    We are working very closely with Mr. Christie, the DOT&E, and the 
operational test community. As our tests are planned, executed, and 
evaluated, the BMDS Combined Test Force, which brings together 
representatives from across the testing community, is combining 
requirements for both developmental and operational capability testing. 
Wherever possible, we are making every test both operationally 
realistic and developmental. We have been working daily with the 
appropriate independent OTAs to ensure they are on board with our 
objectives and processes. There are approximately 100 operational test 
personnel embedded in all facets of missile defense test planning and 
execution who have access to all of our test data. They have the 
ability to influence every aspect of our test planning and execution.
    Now, how much confidence should we have in using this test bed in 
an alert status? The full range of missile defense testing--from our 
extensive modeling and simulation and hardware-in-the-loop tests to our 
ground and flight testing--makes us confident that what we deploy will 
work as intended. We do not rely on intercept flight tests to make 
final assessments concerning system reliability and performance. Our 
flight tests are important building blocks in this process, but the 
significant costs of these tests combined with the practical reality 
that we can only conduct a few tests over any given period of time mean 
we have to rely on other kinds of tests to prove the system. System 
capabilities assessed for IDO will be based on test events planned for 
fiscal year 2004 as well as data collected from flight- and ground-
tests and simulations over the past several years.
    The missile defense test program helps define the capabilities and 
limitations of the system. The thousands of tests we conduct in the 
air, on the ground, in the lab, and with our models and simulations in 
the virtual world predict system performance and help identify problems 
so that we can fix them. They also highlight gaps so that we can 
address them. This accumulated knowledge has and will continue to 
increase our confidence in the effectiveness of the system and its 
potential improvements. None of our tests should act as a strict 
``pass-fail'' exercise telling us when to proceed in our development or 
fielding. We can approximate realistic scenarios, though, after we have 
put interceptors and sensors in the field and integrated them with our 
C2BM/C network.
    We conduct other kinds of tests that provide valuable information 
about the progress we are making and the reliability of the system. 
Integrated ground tests, for example, are not subject to flight test 
restrictions and can run numerous engagement scenarios over the course 
of a few weeks. Our modeling and simulation activity is an even more 
powerful system verification tool. It is important to understand that 
in the Missile Defense Program we use models and simulations, and not 
flight tests, as the primary verification tools. Missile defense ground 
and flight tests anchor the data we insert in our models, which in turn 
enhance our confidence regarding the operational capability we can 
achieve, because we can understand the system's behavior in many 
hundreds of test runs.
    For example, our modeling and simulation capabilities are very 
accurate and allow us to mirror the achieved outcome of a flight test. 
The graphic below provides an example of why we believe our simulation 
capabilities to be the most powerful tools for projecting the 
reliability of the initial BMDS. In Figure 1 we have mapped out the 
predicted performance of the Integrated Flight Test 13B interceptor and 
matched it up with performance data we collected during the flight. The 
match up is nearly exact, and it shows that the Exo-atmospheric Kill 
Vehicle Mass Simulator was very close to the predicted insertion point 
velocity.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Generally, when we deploy a weapon system in a traditional mission 
area, it is appropriate to conduct initial operational testing to 
ensure that the replacement system provides a better capability than 
the existing system. Put another way, there is a presumption that the 
deployed system should be used until a better capability is proven. In 
the current situation, where we have no weapon system fielded to defend 
the United States against even a limited attack by ICBMs, that 
presumption must be re-examined. With the provision of a militarily 
useful capability, even if it is limited, it is presumed that the 
capability can be fielded unless it is determined that operating the 
initial capability is considered to be an unacceptable danger to the 
operators, or any other similar reality.
    STRATCOM will factor in all available test information into its 
military utility assessment of the fielded condition.
   ballistic missile defense system research and development program
    We have requested $7.6 billion in fiscal year 2005 to continue our 
investment in missile defense RDT&E. Why do we need this level of 
investment in RDT&E? We need to press forward with our missile defense 
research and development (R&D) if we are to improve the system by 
integrating upgraded or more advanced components and by exploiting new 
basing modes to engage threat missiles in, for example, the boost phase 
of flight. We have to lay the RDT&E foundation for evolutionary 
improvements to the BMD system. We intend to improve the capability of 
the midcourse phase while adding additional layers.
    The RDT&E program is working. The ability to make trade-offs among 
our development activities has allowed us to focus on the development 
of the most promising near-term elements, namely, GMD, Aegis BMD and 
PAC-3. GMD and Aegis BMD make up elements of the midcourse defense 
layer while PAC-3 provides capability in the terminal layer. The GMD 
fiscal year 2005 budget request is $3.2 billion; the request for Aegis 
is $1.1 billion.
    In this budget we increase investment in the development of a boost 
layer. Two program elements, a high energy laser capability and a new 
kinetic energy interceptor (KEI) or ``hit to kill'' capability, 
represent parallel paths and complement each other. Achieving 
capability in the boost phase as soon as practicable would be a 
revolutionary, high-payoff improvement to the BMD system. Although the 
technologies are well known, the engineering and integration required 
to make them work are very high risk. Therefore, having parallel 
approaches, even on different timelines, is a very prudent program 
management approach. We expanded our efforts in the boost phase as soon 
as we were able after withdrawal from the 1972 Anti-Ballistic Missile 
(ABM) treaty, which specifically prohibited boost phase development 
against long-range missiles.
    The Airborne Laser (ABL) program has been in development since 
1996. Development of an operational high energy laser for a 747 
aircraft is a difficult technical challenge. Although we have had many 
successes in individual parts of the program, we have not been able to 
make some of our key milestones over the past year. The last 20 percent 
of the program effort has proven to be very difficult, and some of the 
risks we took early in the program have impaired our present 
performance. Consequently, I reviewed the program late last year and 
directed a restructure that focused on our near-term efforts, delaying 
the procurement of the second aircraft until we could gain more 
confidence in our ability to meet schedules. I have adjusted the 
resources accordingly.
    We no longer plan for ABL to deliver a contingency capability in 
Block 2004. There have been, nevertheless, several technical 
accomplishments to date. We have demonstrated the capability to track 
an ICBM in the boost phase using ABL technologies and improved beam 
control and fire control technologies. At this time there is no reason 
to believe that we will fail to achieve this capability. This is such a 
revolutionary and high payoff capability; I believe we should again be 
patient as we work through the integration and test activities. But the 
risks remain high. The fiscal year 2005 budget request is $474 million 
for ABL.
    We undertook the KEI boost effort in response to a 2002 Defense 
Science Board Summer Study recommendation. In December 2003 we awarded 
the contract for development of the KEI boost effort. This was the 
first competition unconstrained by the ABM Treaty. It was also the 
first to use capability-based spiral development as a source selection 
strategy. The contract requires development of a boost phase 
interceptor that is terrestrial-based and can be used in other 
engagement phases as well--including the midcourse and possibly exo-
atmospheric terminal phases. In other words, it could provide boost 
phase capability as well as an affordable, competitive next-generation 
replacement for our midcourse interceptors and even add a terminal 
phase capability should it be required. In 2005, we will begin 
conducting Near-Field Infrared Experiments to get a close-up view from 
space of rocket plumes to support the development of the terrestrial-
based interceptor seeker and provide additional data needed for the 
development of a space test bed.
    We have budgeted about $500 million for the KEI boost effort for 
fiscal year 2005. I believe this funding is necessary for a successful 
start. Those who would view this amount as a significant increase that 
is unwarranted for a new effort do not understand the importance of 
prudent programming and the preparatory work required to make such a 
program ultimately succeed. There are many examples of an underfunded 
systems engineering effort, where engineering costs sky-rocketed 
because adequate upfront work was not done. Mr. Chairman, I urge the 
committee to look carefully at our proposal and allow us to get a solid 
start on this essential piece of the layered BMDS.
                        other budget highlights
    Funding in the fiscal year 2005 request supports the Block 2004 
initial configuration as well as activities to place the BMDS on alert. 
It also lays the foundation for the future improvement of the system. 
We are requesting $9.2 billion to support this program of work, which 
is approximately a $1.5 billion increase over the fiscal year 2004 
request. The increase covers costs associated with fielding the first 
GMD, Aegis BMD, sensor, and command, control, and battle management 
installments and will allow us to purchase long-lead items required for 
capability enhancements in Block 2006.
    We have made a successful transfer of the PAC-3 program to the Army 
and remain convinced that the Department made the right decision in 
doing so. In the Patriot system, missile defense and air defense are so 
intertwined that attempting to manage them separately would be 
difficult if not futile. We continue to believe that the Army is in the 
best position, given the maturity of the PAC-3, to manage future 
enhancements and procurements. Meanwhile MDA remains fully cognizant of 
the Army's efforts and maintains the PAC-3 in the BMDS as a fully 
integrated element, with interfaces controlled by our configuration 
management process. PAC-3 is part of our ongoing system development and 
testing.
    The fiscal year 2005 funding request will buy equipment to ramp up 
the testing of THAAD, which, once fielded, will add endo-atmospheric 
and exo-atmospheric terminal capabilities to the BMD system to defeat 
medium-range threats. THAAD is progressing well and will add 
capabilities to engage in the late midcourse and terminal layers. THAAD 
recently completed the Design Readiness Review, and development 
hardware manufacturing is underway. The fiscal year 2005 budget request 
is $834 million for THAAD. Delivery of the THAAD radar was completed 
ahead of schedule and rolled out this month. Flight testing is 
scheduled to begin in the first quarter of fiscal year 2005 at White 
Sands Missile Range, New Mexico.
    We will be able to begin assembly and integration of two Space 
Tracking and Surveillance System (STSS) satellites. The fiscal year 
2005 budget request for STSS is $322 million.
    We will continue development of the C2BM/C ``backbone'' to provide 
real-time sensor-netting to the warfighter for improved 
interoperability and decisionmaking capability. Additional BMD system 
C2BM/C suites and remote capability will be deployed to combatant 
commanders as the system matures.
    We also have several science and technology (S&T) initiatives to 
increase BMDS firepower and sensor capability and extend the engagement 
battle space of terminal elements. One of our main efforts is to 
increase BMDS effectiveness in the midcourse phase by placing Multiple 
Kill Vehicles on a single booster, thus reducing the discrimination 
burden on BMD sensors. We also are conducting important work on 
advanced systems to develop laser technology and laser radar, advanced 
discrimination, improved focal plane arrays, and a high-altitude 
airship for improved surveillance, communication, and early warning. In 
support of this, we have requested about $200 million in the fiscal 
year 2005 budget request for the development of advanced systems.
                       international partnerships
    In December 2003, through a formal Cabinet Decision, the Government 
of Japan became our first ally to proceed with acquisition of a multi-
layered BMDS, basing its initial capability on upgrades of its Aegis 
destroyers and acquisition of the SM-3 missile. In addition, Japan and 
other allied nations will upgrade their Patriot units with PAC-3 
missiles and improved ground support equipment. We have worked closely 
with Japan since 1999 to design and develop advanced components for the 
SM-3 missile. This project will culminate in flight tests in 2005 and 
2006 that incorporate one or more of these components. These decisions 
represent a significant step forward with a close ally, and we look 
forward to working together on these important efforts.
    We are undertaking major initiatives in the international arena in 
this budget. Interest among foreign governments and industry in missile 
defense has risen considerably over the past year. We have been working 
with key allies to put in place mechanisms that would provide for 
lasting cooperative efforts.
    We will begin in fiscal year 2005 to expand international 
involvement in the program by encouraging international industry 
participation and investment in the development of alternative boost/
ascent phase element components, such as the booster, kill vehicle, 
launcher, or C2BM/C. This approach reduces risk, adds options for 
component evolution for potential insertion during Block 2012, and 
potentially leads to an indigenous overseas production capability. We 
intend to award a contract for this effort this year.
    In 2003 the United States signed a Memorandum of Understanding on 
BMD with the U.K. and an annex enabling the upgrade of the Fylingdales 
early warning radar. We are continuing our consultations with Denmark 
regarding the upgrade of the Thule radar site in Greenland. Australia 
has announced plans to participate in our efforts, building on its 
longstanding defense relationship with the United States. Canada also 
has entered into formal discussion on missile defense and is 
considering a BMD role for the U.S.-Canadian North American Aerospace 
Defense Command (NORAD). Our North Atlantic Treaty Organization (NATO) 
partners have initiated a feasibility study for protection of NATO 
territory against ballistic missile attacks, which builds upon ongoing 
work to define and develop a NATO capability for protection of deployed 
forces.
    We are continuing work with Israel to implement the Arrow System 
Improvement Program and enhance its missile defense capability to 
defeat the longer-range ballistic missile threats emerging in the 
Middle East. We are also establishing a capability in the United States 
to co-produce specified Arrow interceptor missile components, which 
will help Israel meet its defense requirements more quickly and 
maintain the U.S. industrial work share. We are intent on continuing 
U.S.-Russian collaboration and are now working on the development of 
software that will be used to support the ongoing U.S.-Russian Theater 
Missile Defense exercise program.
    We have other international interoperability and technical 
cooperation projects underway as well and are working to establish 
formal agreements with other governments. Our international work is a 
priority that is consistent with our vision and supportive of our 
goals.
        world-class systems engineering--the key success factor
    The President's direction to defeat ballistic missiles of all 
ranges in all phases of flight drove us to develop and build a single 
integrated system of layered defenses and forced us to transition our 
thinking to become more system-centric. We established the Missile 
Defense National Team to solve the demanding technical problems ahead 
of us and capitalize on the new engineering opportunities created by 
our withdrawal from the ABM Treaty. The National Team brings together 
the best, most experienced people from the military and civilian 
government work forces, industry, and the Federal laboratories to work 
aggressively and collaboratively on one of the Nation's top priorities. 
No single contractor or government office has all the expertise needed 
to design and engineer an integrated and properly configured BMDS. Let 
me give a perspective on why the National Team is so important.
    What we have accomplished is an unprecedented integration of 
sensors, communications, infrastructure, and weapons that cut across 
Service responsibilities on a global scale. Even our first engagement 
sequence involves an unparalleled accomplishment.
    The BMDS will engage a long-range ballistic missile threat across 
9,500 miles. Threat messages sent by an Aegis destroyer will pass this 
data across eight BMDS communication nodes. System data travels across 
approximately 48,000 miles of communication lines. The engagement takes 
place 3,500 from Fort Greeley at an altitude of 100 kilometers. At no 
time in history has there been an engagement performed by detection and 
weapon engagement systems separated by such distances. Over the past 
year and a half, we have rapidly built confidence in this weapon 
engagement capability through the use of proven systems and 
technologies coupled with robust integrated tests and exercises.
    The National Team's job has not been easy. System engineers work in 
a changed procurement and fielding environment, which in the missile 
defense world means making engineering assessments and decisions based 
on technical objectives and goals and possible adversary capabilities 
rather than on specifications derived from more traditional operational 
requirements documents. This unified industry team arrangement does not 
stifle innovation or compromise corporate well-being. There is firm 
government oversight and greater accessibility for all National Team 
members to organizations, people, and data relevant to our mission. We 
accomplished this without abandoning sound engineering principles, 
management discipline, or accountability practices.
    Significant benefits have resulted from this unique approach. Early 
on, this team brought to the program several major improvements, 
including: system-level integration of our command and control network; 
adoption of an integrated architecture approach to deal with 
countermeasures; development of a capability-requirement for forward-
based sensors, such as the Forward Deployable Radar and the Sea-Based 
X-Band Radar; and identification of initial architecture trades for the 
boost/ascent phase intercept mission. The National Team also developed 
and implemented an engagement sequence group methodology, which 
optimizes performance by looking at potential engagement data flows 
through the elements and components of the system independent of 
Service or element biases. If we had retained the traditional element-
centric engineering approach, I am doubtful that any one of the element 
prime contractors would have entertained the idea of a forward-based 
radar integrated with a ``competing'' system element. The National Team 
is central to this program.
                  responsible and flexible management
    Congressional support for key changes in management and oversight 
have allowed us to execute the Missile Defense Program responsibly and 
flexibly by adjusting the program to our progress every year, improving 
decision cycle time, and making the most prudent use of the money 
allocated to us.
    One of the key process changes we made in 2001 was to engage the 
Department's top leadership in making annual decisions to accelerate, 
modify, or terminate missile defense activities. We take into account 
how each development activity contributes to effectiveness and synergy 
within the system, technical risk, schedules, and cost, and we then 
assess how it impacts our overall confidence in the effort. We have 
successfully used this process over the past 3 years.
    Today's program is significantly different from the program of 3 
years ago. In 2001 and 2002 we terminated Space-Based Laser development 
in favor of further technology development; restructured the Space-
Based Infrared Sensors (Low) system, renaming it the Space Tracking and 
Surveillance System, to support more risk reduction activities; 
cancelled the Navy Area program following significant cost overruns; 
and accelerated PAC-3's deployment to the field. We also proposed a 
modest beginning in fielding the BMDS and put Aegis BMD and its SM-3 
interceptor on track to field.
    This year we have restructured the ABL program to deal more 
effectively with the technical and engineering challenges before us and 
make steady progress based on what we know. We also decided to end the 
Russian-American Observation Satellite (RAMOS) project because of 
rising levels of risk. After 8 years of trying, RAMOS was not making 
the progress we had expected in negotiations with the Russian 
Federation. So we are refocusing our efforts on new areas of 
cooperation with our Russian counterparts.
    These periodic changes in the RDT&E program have collectively 
involved billions of dollars--that is, billions of dollars that have 
been invested in more promising activities, and billions of dollars 
taken out of the less efficient program efforts. The ability to manage 
flexibly in this manner saves time and money in our ultimate goal of 
fielding the best defenses available on the shortest possible timeline.
    Such decisive management moves were made collectively by senior 
leaders in the Department and in MDA. I believe these major changes are 
unprecedented in many respects and validate the management approach we 
put in place. The benefits of doing so are clearly visible today. When 
something is not working or we needed a new approach, we have taken 
action.
                                closing
    Mr. Chairman, I would like to recognize the many talented and 
dedicated people across this country who have made, and are continuing 
to make, our efforts successful. I have met with people from 
manufacturing facilities, R&D centers, and test centers. I have met 
with people from many different parts of the world who are working on 
our international efforts. Our fellow citizens should be proud of the 
talent, commitment, and dedication that every one of these people 
provides.
    We take our responsibilities very seriously. We have an obligation 
to the President, Congress, and the American people to get it right. 
With the continued strong support of Congress and this committee, we 
will continue our progress in defending the United States, our troops, 
and our allies and friends against all ranges of ballistic missiles in 
all phases of flight.
    Thank you, and I look forward to your questions.

    Chairman Warner. General, that is a very encouraging report 
that you have given. Thank you for your long service. It is 
extremely important to have that system. Thank you.
    General Dodgen.

  STATEMENT OF LTG LARRY J. DODGEN, USA, COMMANDER, SPACE AND 
                    MISSILE DEFENSE COMMAND

    General Dodgen. Mr. Chairman, Senator Levin, and members of 
the committee, thank you for the opportunity to appear before 
this distinguished committee and for your ongoing support of 
the Army.
    This panel has been a long-time friend of the Army, 
particularly of our efforts to field missile defense forces for 
the Nation. The Army considers it a privilege to be counted in 
the ranks with Mr. Wynne, Mr. Christie, Admiral Ellis, and 
Lieutenant General Kadish as advocates for a strong GMD system.
    Today I appear before this committee as the Army proponent 
for a ground-based midcourse defense system. In a broader 
context, I'm a member of the joint missile defense team as the 
Army component commander in support of STRATCOM.
    Chairman Warner. General, let me interrupt you to ask you 
to get that mic on a very directional basis. Just think of it 
as a missile coming up to get you. Put it right there so you 
can get into it.
    General Dodgen. I have been there, Senator. The joint user 
representative working closely with the MDA, other Services, 
and combatant commanders to ensure that our national goals of 
developing, testing, and deploying a missile defense system are 
met.
    Mr. Chairman, as we speak, Army men and women are training 
to operate the GMD system being deployed at Fort Greeley, 
Alaska. During the past months an initial cadre of GMD brigades 
and a subordinate battalion were activated. Once IDO are stood 
up, these soldiers will stand as part of the joint team in our 
Nation's first line of defense against any launch, either 
accidental or hostile, of an intercontinental ballistic missile 
(ICBM) toward our shores. I am proud to represent them. Meeting 
their needs in training and support is our highest priority.
    In addition to deploying a GMD system, the MDA, the Army, 
and other DOD agencies, and Services have focused attention on 
improving Theater Missile Defense (TMD) systems. Both GMD and 
TMD systems are vital to protecting our homeland, deployed 
forces, friends, and allies.
    Missile defense is a key component in support of our Army's 
core competency of providing relevant and ready land power to 
combatant commanders as part of the joint force. Today I've 
been asked about and I'm happy to focus on developments 
concerning the Patriot missile system, particularly the PAC-3, 
and its follow-on system, the Medium Extended Air Defense 
System (MEADS). Both of these systems are designed to counter 
theater missile threats in their terminal flight phase as well 
as cruise missile threats. These systems will bring an umbrella 
of security for deployed forces well into the future. I would 
like to thank Congress for its continued support of these 
important systems.
    Mr. Chairman, in 1991, during Operation Desert Storm (ODS) 
we witnessed the first use of the Patriot Air and Missile 
Defense System. Following ODS, the Army implemented a series of 
improvements to address the lessons learned. Nearly 1 year ago, 
we saw the improved Patriot system including the Guidance 
Enhanced Missile (GEM) and the PAC-3 debut in combat during 
OIF. In OIF, the Patriot system saved lives from ballistic 
missile attacks, as you pointed out.
    The Patriot system remains the Army's premier TMD system. 
PAC-3 is the latest evolution of a phase material change 
improvement program to Patriot. Combining developmental testing 
and operations, this program has allowed for the development 
and deployment of the PAC-3, thus bringing a new high velocity 
kinetic hit-to-kill, surface-to-air missile with the range, 
accuracy and lethality necessary to effectively intercept and 
destroy most sophisticated ballistic missile threats.
    Recently, the Army, after approval by the Defense 
Acquisition Board, the executive rather, embarked on a path to 
merge the Patriot and MEADS missile systems. In doing so, the 
combined aggregate program was established. The objective of 
the cap is to achieve MEADS capability through incremental 
fielding of MEADS major end items into the Patriot system.
    MEADS is a trinational codevelopment program that consists 
of Italy, Germany, and the United States. Once fielded, MEADS 
will provide linkage to the Army's fully networked battle 
command capabilities, serve as a bridge from the current to the 
future force, enable interdependent network-centric warfare, 
provide for Future Combat System (FCS) interoperability, and 
fully support joint operational concepts.
    The MEADS system is transformational. It offers a 
significant improvement in strategic deployability and tactical 
mobility. The system uses a netted and distributed architecture 
with modular and configural battle elements, allowing it to 
integrate with other airborne and ground-based sensors and 
shooters.
    These features and capabilities will allow MEADS to achieve 
a robust 360-degree defense against all airborne threats, 
tactical ballistic missiles, cruise missiles, UAVs, and manned 
aircraft.
    Mr. Chairman, by combining the resources available to both 
Patriot and MEADS, the Army is able to achieve incremental 
development and accelerate incremental fielding of MEADS major 
end items. This incremental fielding approach reduces 
sustainment costs while delivering increased anti-missile 
defense capabilities across the force earlier. This approach 
offers the most efficient use of limited valuable resources 
while giving maximum flexibility in regard to funding and 
developing requirements of the warfighter.
    The Army and the entire missile defense community continue 
to strive to improve our Nation's missile defense capabilities. 
The established combined aggregate program effort will be just 
that. The Patriot architecture will become more robust as 
enhancements are integrated into the existing system. 
Simultaneously, lessons learned from the present missile 
defense capability will be incorporated into the MEADS follow-
on system. We are confident that this path will provide our 
service members, our allies, our friends, and our Nation with 
the most capable missile defense system possible.
    Mr. Chairman, the Army is relevant and ready, fighting the 
war on terrorism, deployed in Southwest Asia and elsewhere. 
Also, we are deterring aggression throughout the world while 
transforming to meet future needs. Within its responsibilities 
for GMD, Patriot, and MEADS, the Army is a key player in the 
development of the BMDS which will counter existing and 
emerging threats to the U.S., our deployed forces, and friends 
and allies.
    I appreciate having the opportunity to speak on these 
important matters and look forward to addressing any questions 
you and other members of the committee may have. Thank you, Mr. 
Chairman.
    [The prepared statement of General Dodgen follows:]
             Prepared Statement by LTG Larry J. Dodgen, USA
                              introduction
    Mr. Chairman, Senator Levin, and members of the committee, thank 
you for the opportunity to appear before this distinguished committee 
and for your ongoing support of our Army. This panel has been a long 
time friend of the Army, particularly of our efforts to field missile 
defense forces for the Nation. The Army considers it a privilege to be 
counted in the ranks with Mr. Christie, Mr. Wynne, Admiral Ellis, and 
Lieutenant General Kadish as advocates for a strong global missile 
defense system. Today, I appear before this committee as the Army 
proponent for the Groundbased Midcourse Defense (GMD) System. In a 
broader context, I am a member of the joint missile defense team as the 
Army component commander in support of the United States Strategic 
Command, and the joint user representative working closely with the 
Missile Defense Agency (MDA), other Services, and combatant commanders 
to ensure that our national goals of developing, testing, and deploying 
a missile defense system are met.
    Mr. Chairman, as we speak, Army men and women are training to 
operate the GMD System being deployed at Fort Greeley, Alaska. During 
the past few months, an initial cadre of the GMD Brigade and a 
subordinate GMD Battalion were activated. Once Initial Defensive 
Operations (IDO) are stood up, these soldiers will stand as part of the 
joint team in our Nation's first line of defense against any launch, 
either accidental or hostile, of an intercontinental ballistic missile 
toward our shores. I am proud to represent them. Meeting their needs, 
in training and support, is our highest priority.
                 theater missile defense--patriot/meads
    In addition to deploying a GMD system, the MDA, the Army, and other 
Department of Defense (DOD) agencies and Services have focused 
attention on improving Theater Missile Defense (TMD) systems. Both GMD 
and TMD systems are vital for protecting our homeland, deployed forces, 
friends and allies. Missile defense is a key component in support of 
the Army's core competency of providing relevant and ready land power 
to combatant commanders as part of the joint force.
    Today, I have been asked about, and I am happy to focus on, 
developments concerning the Patriot Missile System, particularly the 
Patriot Advanced Capability-3 (PAC-3), and its follow-on system, the 
Medium Extended Air Defense System (MEADS). Both of these systems are 
designed to counter theater missile threats in their terminal flight 
phase as well as cruise missile threats. These systems will bring an 
umbrella of security for deployed forces well into the future. Again, I 
would like to thank Congress for its continued support of these 
important systems.
    Mr. Chairman, in 1991, during Operation Desert Storm (ODS), we 
witnessed the first use of the Patriot Air and Missile Defense System. 
Initial reports praised the system; however, further analysis 
determined that it was partially effective, still providing, for the 
first time in history, some protection against ballistic missiles for 
relatively small but high value assets. Following ODS, the Army 
implemented a series of improvements to address the lessons learned. 
Nearly 1 year ago we saw the improved Patriot system, including the 
Guidance Enhanced Missile (GEM) and PAC-3 missiles, debut in combat 
during Operation Iraqi Freedom (OIF). Detailed analysis from a variety 
of data sources confirm that eight of nine warheads intercepted by the 
Patriot system during OIF were destroyed. There is insufficient data on 
the ninth intercept to conclusively validate a warhead kill. In OIF, 
Patriot saved lives from ballistic missile attack.
    The Patriot system remains the Army's premier TMD system. PAC-3 is 
the latest evolution of the phased material change improvement program 
to Patriot. Combining developmental testing and operations, this 
program has allowed for the development and deployment of the PAC-3, 
thus bringing a new high-velocity, kinetic hit-to-kill, surface-to-air 
missile with the range, accuracy, and lethality necessary to 
effectively intercept and destroy more sophisticated ballistic missile 
threats.
                           combined approach
    Recently, the Army, after approval by the Defense Acquisition 
Executive, embarked on a path to merge the Patriot and MEADS missile 
systems. In so doing, the Combined Aggregate Program (CAP) was 
established. The objective of the CAP is to achieve the MEADS 
capability through incremental fielding of MEADS major end items. MEADS 
is a tri-national co-development program that consists of Italy, 
Germany, and the United States. Once fielded, MEADS will provide 
linkage to the Army's fully networked battle command capabilities, 
serve as a bridge from the current to future force, enable 
interdependent network-centric warfare, provide for Future Combat 
System (FCS) interoperability, and fully support joint operating 
concepts.
    The MEADS system is transformational--it offers a significant 
improvement in strategic deployability and tactical mobility. The 
system uses a netted and distributed architecture with modular and 
configurable battle elements allowing it to integrate with other 
airborne and ground-based sensors and shooters. These features and 
capabilities will allow MEADS to achieve a robust 360-degree defense 
against all airborne threats: tactical ballistic missiles, cruise 
missiles, unmanned aerial vehicles, and manned aircraft.
    Mr. Chairman, by combining the resources available to both the 
Patriot and MEADS programs, the Army is able to achieve incremental 
development and accelerate incremental fielding of MEADS major end 
items. This incremental fielding approach reduces sustainment costs 
while delivering increased anti-missile defense capability across the 
force earlier. This approach offers the most efficient use of limited, 
valuable resources while giving maximum flexibility in regard to 
funding and developing requirements of the warfighter.
    There are several key elements of the combined program that further 
demonstrate the benefits. First, the existing PAC-3 Missile is the 
internationally accepted missile for MEADS. The Missile Segment 
Enhancement (MSE) is an improvement over PAC-3 and under consideration 
by the tri-national partners. The PAC-3 MSE will replace the standard 
PAC-3 in production. It will provide an increase in battle space 
against both missile and air breathing threats.
    Second, battlefield management, command, control, communications, 
and intelligence will continually evolve during the CAP; therefore, the 
new system will take into account recent developments while 
simultaneously remaining integrated within the MDA's and the Army's 
System of Systems requirements. Additionally, operational Patriot units 
will be modernized as these new enhancements are added to their 
equipment.
    Third, the program allows for earlier procurement of the objective 
lightweight launcher in lieu of the recapitalization program and 
conversion of existing launchers.
    Fourth, MEADS requires the development of a new Multifunction Fire 
Control Radar (MFCR) and a new Surveillance Radar (SR) to achieve 360-
degree engagement capabilities. The fielding of this new sensor suite 
will complete the CAP and provide Army air and missile defense forces 
with the capability to counter threats of the 21st century.
    The Army, and the entire missile defense community, continues to 
strive to improve our Nation's missile defense capabilities. The 
established CAP effort will be just that. The Patriot architecture will 
become more robust as enhancements are integrated into the existing 
system. Simultaneously, lessons learned from the present missile 
defense capability will be incorporated into the MEADS follow on 
system. We are confident that this path will provide our service 
members, our allies, our friends, and our Nation with the most capable 
missile defense system possible.
                               conclusion
    Mr. Chairman, the Army is relevant and ready, fighting the war on 
terrorism, deployed in Southwest Asia and elsewhere, and deterring 
aggression throughout the world while transforming to meet future 
threats. With its responsibilities for GMD, Patriot, and MEADS, the 
Army is a key player in the development of the Ballistic Missile 
Defense System which will counter existing and emerging threats to the 
U.S., our deployed forces, and friends and allies. I appreciate having 
the opportunity to speak on these important matters and look forward to 
addressing any questions you or the other members of the committee may 
have.

    Chairman Warner. Thank you very much, General. We will 
proceed to a round of 6 minutes for each Senator, and at some 
juncture I will have to depart for another commitment. I will 
ask Senator Allard to chair the hearing at that time.
    My questions will be very direct to get a concise reply on 
what principal issues face us. So Mr. Wynne, we have heard a 
very excellent report from General Kadish. I would like to have 
in your own words the following. In December 2002, the 
President directed the Secretary of Defense to field an initial 
set of missile defense capabilities starting in 2004.
    How would you assess the progress to date, and are we on 
schedule?
    Mr. Wynne. I will assess the progress to date as being 
categorically good. It is a fragile system. We had an explosion 
in one of the bases of our dual supply system for solid rocket 
motors, which lends me some caution as to our capability to 
proceed in the future, but I will tell you that the missile 
defense office had a marvelous dual strategy which allowed them 
to continue on for IDO capability, as well as testing.
    I would also tell you that I personally reviewed their 
systems engineering plan, and I found it to be remarkably 
forward-leaning. In fact, I have asked the rest of the 
Department to check in on that to see what they can do.
    Their testing is rigorous. It's involved. It involves the 
users, which is also unusual in the sense of a strategic system 
like this, which I find exemplary. I think their use of the 
operational testers as consultants to the development testers 
has allowed a certain additional rigor into their test 
philosophy and discipline.
    Frankly, the quality discipline that I find is excellent 
and I believe that they are on track, sir, to bring the 
capability as the President directed by the end of 2004.
    Chairman Warner. Thank you. The next question, again, is to 
Secretary Wynne, but I ask that Director Christie and General 
Kadish make such replies as they desire.
    Gentlemen, I know that concerns have been expressed about 
the level of involvement by the operational test community in 
missile defense development. You have all stated your 
commitment to realistic and rigorous testing. What is the 
appropriate role for operational testing as it relates to 
missile defense development? Second, are there lessons learned 
from the successful development of other weapons systems that 
might provide insights into the proper role of operational 
testing of the BMDS?
    Mr. Wynne. Mr. Chairman, the role of operational tests in 
this instance is very interesting because this is a system of 
systems and the role of operational testing is different as 
each system is developed.
    We asked that they oversee the testing that goes on of the 
components and the subsystems. As Senator Levin inferred, the 
Patriot missile, for example, has undergone a rigorous 
operational test although it is a component of the total 
ballistic missile defense.
    I see a gradual turn over the years, as we become more and 
more operationally effective. I know that the inclusion of 
STRATCOM and the user of developing the MUA is particularly 
profound in that there is a three-way feedback, if you will, 
from developmental tests, but also operational tests and from 
user involvement into the development of an evolutionary plan 
here.
    I will tell you that the rigor is going up dramatically. 
The capability is going up dramatically, and I feel quite 
confident of the testing capability.
    Chairman Warner. Director Christie?
    Mr. Christie. This program is again a typical development 
program, albeit a very complex program. My involvement is much 
stronger in this program than in most development programs.
    General Kadish and I meet quite often, and he keeps 
reminding me that I have 100-some-odd operational testers 
crawling all over his programs, which is rather unique, I 
think, at this stage.
    Again, I think the issue that we are talking about here is 
the building of missiles that will be put into silos that are a 
part of the test bed. We have to have this test bed in order to 
accomplish testing that will become more realistic and have 
more realistic engagement in terms of geometries, for example, 
than we have been able to do before.
    Some of these attributes of this test bed are in response 
to a lot of the criticism that came from my office and my 
predecessor in the previous administration, most of which were 
well taken. Don't get me wrong, but as far as my involvement is 
concernced, I'm very much satisfied with it. Two years ago I 
was not satisfied and expressed that in front of this 
committee, as a matter of fact, but I think it is unprecedented 
at this stage of a development program.
    Chairman Warner. Thank you, Mr. Director.
    General Kadish.
    General Kadish. Sir, I would agree with the previous 
assessments but add just a couple of ideas. I know we say it a 
lot of the time in different ways, but this is a system that 
has to operate in a fire control mode, that is actually real 
time determining what to hit and how to hit it, that crosses 
eight time zones, involves nine satellite communications links, 
many different types of interceptors and locations, is an 
unprecedented achievement.
    We have to adjust some of our normal procedures to handle 
that. When we say we have to build it before we can 
operationally test it along those lines, we really do mean 
that. I think Mr. Christie said we have to put the radars and 
the missiles in the spots that we intend to use as a definition 
of being realistic. That is what this test bed is designed to 
do.
    They are in those positions. We can use them in an 
operational configuration and that's where we are working very 
hard with Admiral Ellis and the warfighters.
    Chairman Warner. I would like to shift to the Admiral to 
finish off on that subject. You are the representative of the 
operational community, and I ask that you assess the value of 
the missile defense test bed in terms of the operational 
utility that it represents, and provide us your assessment 
concerning the viability of using a test bed both operationally 
and for continued testing.
    Admiral Ellis. Thank you, Mr. Chairman. As has already been 
noted, we have been actively involved with this effort now for 
well over a year as these responsibilities came to STRATCOM 
under the realignment. We are chartered to do a MUA and that 
process is ongoing and the first of those elements is in 
review.
    Suffice it to say it very closely corresponds with reports 
that you have seen from Mr. Christie and his elements in terms 
of the technical assessment. We see no technological obstacles 
to successful initial deployment of these capabilities in the 
months ahead.
    From a military utility standpoint, the analysis that has 
been done clearly shows that this will bring a capability, 
admittedly rudimentary and initial, that is of military utility 
and that has even greater potential as the evolutionary 
development that General Kadish and Mr. Christie have described 
further optimizes it in the years ahead. So we are very 
comfortable based on the data that we have seen, and we have 
full access to Mr. Christie's team as well as Ron Kadish's team 
of analysts, where we are working in concert with them to apply 
the operator's perspective on all of this.
    Based on what we have seen to date, we are confident both 
in their ability to begin to deliver this capability before the 
end of the year, and its ultimate utility even as we evolve the 
systems.
    I spoke in my opening remarks about our ability and our 
focus on each element of this weapons system that we are 
designing to have an alert capability, at the same time as we 
are fully supporting the developmental efforts that are 
absolutely critical to continued progress.
    In some cases that involves parallel paths, in other words, 
duplicate networks, if you will. We are beginning to quantify 
operational guidelines and alert states that will allow us to 
structure, as a function of the international security 
environment, our allocation of the elements of the systems to 
testing or to the alert status. We are very confident in that. 
I work very carefully with the regional combatant commanders, 
as you have heard, to assure myself and them that it fully 
meets their requirements as we look to place elements of this 
system on alert in the months ahead.
    So we are confident about the technical side, as well as 
the operational side in our success.
    Chairman Warner. Thank you very much, Admiral. Senator 
Levin.
    Senator Levin. Thank you, Mr. Chairman. We are going to 
circulate a chart showing the scheduled intercept tests which 
were planned prior to the President's decision to deploy, which 
was in December 2002, and then showing all the cancellation of 
those tests.
    If you could take a look at this chart first of all, 
General Kadish, the last intercept test of the ground-based 
national missile defense system took place on December 11, 
2002. The test was a failure. Less than a week after that 
failure, the President announced that he intended to deploy 
this system in 2004.
    Now, prior to the President's decision to deploy three more 
intercept tests were scheduled in fiscal year 2003, followed by 
four more tests in fiscal year 2004. Why were those tests 
scheduled originally? Was there a purpose for them?
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    General Kadish. The purpose of the tests was to continue 
the maturation of the system so that when we reached a point 
after our last test failed for lack of separation of the kill 
vehicle, it had nothing to do with the intercept capability of 
the system.
    We decided that doing further tests of that nature without 
a new configuration that we were actually going to put in the 
test bed was not a good use of the taxpayers' money. So we have 
spent the time focusing on booster tests and things of that 
nature that are more valuable to us, and then we intend to 
start up this year in the coming weeks and months with the 
actual intercept tests as we progress into the test bed 
configuration.
    So the way we manage our tests is to take a look after 
every event to make sure that our plans are going to get us 
where we need to go and adjust for the realities that we face 
and make sure that we are spending our money wisely.
    Senator Levin. Is there any relationship between the fact 
that the President made a decision to deploy in December 2002 
and shortly thereafter, you decided to cancel all these tests?
    General Kadish. No.
    Senator Levin. That is a coincidence.
    General Kadish. It is a coincidence. We deal with this 
every day.
    Senator Levin. That you cancel six or seven tests? You deal 
with that every day?
    General Kadish. Senator, we did not cancel those tests. We 
reoriented them, rescheduled them, put their objectives in 
different pots.
    Senator Levin. Has there been any precedence in this 
missile defense system for delaying seven tests for 2 years?
    General Kadish. I am not sure I understand the question.
    Senator Levin. This is test number 10, I believe. In the 
history of this system, has there ever been an occasion where 
all of the next seven tests were delayed for 2 years?
    General Kadish. I think that when we were into the previous 
Maritime Missile Defense (MMD) program a few years ago after we 
had a failed test, we stood down for over a year.
    Senator Levin. Seven scheduled tests?
    General Kadish. I am not sure how many were scheduled. We 
did not do another test until we fixed that problem, so we want 
to make sure, as is the interest of everyone involved in this, 
that we are testing the hardware to the best of our ability. 
Those decisions are made on a technical basis.
    Senator Levin. The production rate capacity for these 
interceptors is what? How many per year?
    General Kadish. I think we are able at this point in time 
to reach about one per month on an interceptor basis.
    Senator Levin. That is the maximum capacity of production?
    General Kadish. I am not sure it is the maximum capacity. 
That is the maximum rate we are planning right now.
    Senator Levin. Is that called full rate production in your 
budget? Isn't that what is described as full rate production in 
your budget, one per month?
    General Kadish. I think that is just a statement of the 
reality of what we can produce.
    Senator Levin. That is obviously greater than low rate 
initial production, is it not?
    General Kadish. Senator, I have been dealing with programs 
for a lot of years. The definition between low rate initial and 
full production has to do with the idea that you have to build 
these things gradually and you are developing a manufacturing 
process at the same time you are developing the system. So time 
is important. You can't just turn on a spigot and in 2 days 
produce a complex weapons system.
    Senator Levin. Would you agree, however, that full rate 
production is greater than low rate initial production?
    General Kadish. By definition it is.
    Senator Levin. The law says that you must do operational 
testing before you proceed beyond low rate initial production. 
Are you doing any operational testing yet?
    General Kadish. Mr. Christie and I have worked really hard 
over the past few years, and we intend to have every one of our 
tests be operational and developmental in nature. It is already 
underway.
    Senator Levin. You are saying operational testing is 
underway?
    General Kadish. Components of it, yes.
    Senator Levin. Components?
    General Kadish. Of operational testing.
    Senator Levin. OT&E is defined in the law. Are you doing 
that? Here is the definition: a field test under realistic 
combat conditions of any item or key component item of weapons, 
equipment, or munitions for the purpose of determining the 
effectiveness and suitability of the weapons, equipment, and 
munitions. The evaluation of the results of such tests.
    You are saying you are meeting that test?
    General Kadish. At the component level, we are trying very 
hard to do that.
    Senator Levin. At the missile level?
    General Kadish. We don't have the missile that is the 
configuration that we would say is realistic right now. That is 
our next test.
    Senator Levin. Mr. Christie, are they engaged in OT&E, in 
your judgment, as defined by law, at this time? Have they 
engaged in that yet?
    Mr. Christie. At this point in time, I would say no, as I 
understand end to end operational testing. However, I agree 
with General Kadish that, in fact, a lot of the component 
testing that we are on top of has a lot more operational flavor 
than we have had before. But as he says, you know we have had 
problems with components of the missile, and rightly so, those 
tests have been postponed. To do real operational--or more 
operational testing, or testing of a more operational nature, 
let me qualify it in that manner, we need the test bed. We need 
the test bed installed.
    Senator Levin. Therefore, we have not done operational 
testing.
    Mr. Christie. As I would define it, full-blown operational 
testing, no. I think I said that in my report.
    Senator Levin. Let us understand then that the law requires 
before you go beyond low rate initial production there must be 
operational testing. Mr. Christie, who is our expert 
independent on this, says in his judgment it has not occurred, 
and yet you have gone beyond low rate initial production. That 
is an inherent conflict it seems to me here that you and the 
DOD must address.
    Now, you sought a waiver in the DOD last year of that 
requirement. Congress decided not to give you a waiver, and it 
seems to be quite clear you are trying to do something here by 
proceeding to a level of production above low rate initial 
production before you do the operational testing required by 
law.
    You are trying to do it I guess component by component, or 
trying to redefine what operational testing is, but Congress 
specifically said we will not waive that requirement and you 
are proceeding anyway. I think there is a real conflict here 
which Congress and the DOD have to address.
    Mr. Christie. Can I make an input here? I am not sure that 
I would consider 12 missiles a year, or 1 a month beyond low 
rate, to be full production.
    Senator Levin. What is beyond low rate?
    Mr. Christie. I am not sure in this program. Beyond low 
rate is different for every program.
    Senator Levin. I think you should decide then what is 
beyond low rate.
    Mr. Christie. That is usually a decision to be made by the 
acquisition executive.
    Senator Levin. General Kadish said by definition we are 
beyond low rate.
    Mr. Wynne. Senator Levin, low rate initial production of 
one a month sustains a warm line. I would say that hopefully we 
will never have to use these rockets before their time, but 
with the amount of time it takes to develop and use these and 
introduce the new times, I think sustaining a warm line base of 
one a month is not a full rate production.
    In fact, I would tell you that just based on our experience 
in OIF, we have had to go to enormous additional capacities as 
these things have produced into use. I do not believe that this 
is a rate production issue.
    Senator Allard. We need to move forward.
    Senator Dole.
    Senator Dole. Thank you, Senator Allard. I want to thank 
our distinguished panel not only for being here today, but for 
the great work that you're doing leading our national effort to 
field a capable BMDS as soon as possible. The need for this 
capability is becoming increasingly clearer considering what we 
have learned regarding the proliferation of weapons and the 
established programs such as North Korea's.
    Presently 36 countries possess ballistic missiles, of which 
25 either possess or are acquiring nuclear, chemical, and 
biological weapons. It is quite apparent that we cannot rely 
solely on traditional arms control agreements to ensure the 
safety of the American people.
    Though much remains to be done, it is important for us to 
appreciate the significant progress the United States has made 
in missile development. This has been a long road dating back 
to World War II when the V-2 missiles first fell on Paris and 
London. Since then the United States has developed numerous 
systems designed to shoot down missiles, but establishing a 
system to protect the entire country has been a formidable 
challenge.
    In less than 1 year the United States is scheduled to have 
an initial capability through its fielding of the ground-based 
midcourse defense system. We have discussed at length how the 
major pieces of this complex endeavor such as facilities, 
interceptors, trained operators, and the communications 
infrastructure are planned to be in place for an initial 
operating capability this year.
    General Kadish, Mr. Wynne, and General Dodgen, what are the 
most significant challenges that could threaten attainment of 
this goal?
    Mr. Wynne. Senator, I would tell you that one of the 
largest challenges we have is making sure that our solid rocket 
motor development proceeds in a safe and direct manner. We were 
not pleased to discover that we had lost one of our suppliers 
in that regard as a result of coincident explosions in the 
chemical systems division.
    In a program like this, I would also say that the upgrades 
are going on, the MUA is proceeding. Every time we do conduct a 
test, we give feedback to our engineers. I think we are right 
now very confident with every day that goes by we obtain more 
data and we make re-evaluation of what, of when, and where.
    Right now, we are stressing to you our confidence and our 
current confidence is real.
    Senator Dole. General Kadish?
    General Kadish. I would agree with Mr. Wynne. Every day we 
are doing a lot of testing and working with the using 
community, and right now a surprise of some sort, or a big 
mistake could affect our ability to proceed.
    But so far, when those have happened to us, as Mr. Wynne 
said, with the explosion at our solid rocket plant, our 
strategies and our ability to overcome that have been in place 
to deal with it. So that is why I can say we're on track right 
now. But every day brings a new opportunity.
    Senator Dole. General Dodgen.
    General Dodgen. Senator, the biggest challenge for us was 
bringing online Fort Greeley and the soldiers that will man it. 
So the pace of work over the past year and a half has been 
tremendous, but I am happy to say that those things are on 
track now and the soldiers are falling in and Fort Greeley has 
been removed from the Base Realignment and Closure (BRAC) list 
for missile defense purposes and that is all coming together 
very well.
    Senator Dole. Thank you. With recent media reports stating 
the missile defense testing may be inadequate and the system 
ineffective, it is important for the American people to have 
confidence in the protection this system will provide. I 
understand that your testing programs are designed to provide 
this confidence by integrating a comprehensive and phased 
approach which repeatedly incorporates levels of complexity.
    While much of the debate focuses on flight tests, I also 
understand this is only one facet of your testing programs. How 
do ground tests, flight tests, and systems capability analysis 
work together to form the basis for an overall system 
assessment?
    Mr. Wynne. Senator, I would tell you that have we long 
relied on simulation and component to component, man in the 
loop testing to proof out componentry. I would also advise that 
we are putting into practice a lot of the capabilities of our 
test community as we expand this ground-based test bed up in 
Fort Greeley, and combine it with Vandenberg and combine it 
with the Aegis test system across the eight time zones as 
General Kadish had mentioned.
    All of this, though, is a continuous building of confidence 
that the end vision of a great layered defense to prevent a 
surprise or even inadvertent attack is coming together.
    Senator Dole. The initial capability of the missile defense 
system will focus on destroying a missile while in the 
midcourse segment of flight. The BMDS as envisioned will not 
focus on a single capability. Instead, it is intended to have 
multiple layers of defense and the ability to destroy missiles 
while in any stage of flight.
    General Kadish, could you explain why you are pursuing 
boost phase capability and what it would bring to a layered 
defense? Please discuss any plans you may have for space-based 
components or any movement towards space-based capabilities 
such as kinetic energy boost phase interceptors.
    General Kadish. Senator, we have very few dollars in the 
budget at this point to handle a space-based capability at all. 
Our primary focus is all terrestrially-based in our efforts.
    I think you point out something very important. A layered 
integrated defense is absolutely key to the success over time. 
Now, the midcourse we have just talked about. In the boost 
phase prior to the Anti-Ballistic Missile (ABM) Treaty, or 
during the ABM Treaty days, we had specific prohibitions for 
doing much in that area, and therefore once we started 
exempting afterwards, we came up with the idea that a kinetic-
based boost phase capability, along with an airborne laser 
using the speed of light would be a tremendous addition to our 
capability to defeat missiles.
    It is a very simple concept that the earlier you shoot at a 
target and the more often you shoot at the target, the more 
chance you have of making sure it doesn't get through. That's 
the fundamental layer of the concept. The boost phase will be 
coming later based on the fact that we have to do more with 
experimentation for it to be a critical addition to that 
ability.
    Senator Allard. Thank you, Senator.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman. Thanks, 
gentlemen, for being here today. I have been a strong supporter 
of the development of national missile defense because I do 
think that the threat to us is real and is growing. I was one 
of the original co-sponsors of the 1999 legislation that you 
described. It was very brief. The stated policy of the United 
States is to deploy as soon as technologically possible an 
effective system capable of defending the territory of the 
United States against ballistic missile attack whether 
accidental, unauthorized, or deliberate.
    Then it said the funding is subject to the annual 
authorization of appropriations and the annual appropriation 
funds for national missile defense. I always thought, as one of 
the co-sponsors, that meant exactly what is happening here 
today.
    We would have an annual evaluation of the threats of the 
reality and urgency of a missile threat as compared and related 
to the other threats to our security that we face. That would 
determine how much money we would put into the system and how 
quickly we would fulfill the words here, to deploy. Of course 
it says ``technologically feasible.''
    So Secretary Wynne, because you have DOD-wide 
responsibilities, I want to ask you if you can share with us 
the judgements that were made by the Pentagon and the 
administration about the relative urgency of the threat of 
ballistic missile attack as compared to the threat of 
terrorism, other attacks that our country faces, to justify the 
very significant investment that the administration is asking 
us to make in this system, which as Senator Levin said in some 
sense may be unprecedented.
    Mr. Wynne. Thank you very much, Senator. The National 
Defense Authorization Act for Fiscal Year 1999 is an 
extraordinary step forward. This is not just about quality of 
the threat. It is about the quality of the catastrophic effect 
of not having a defense in this situation.
    So I think it is on a relative basis, it is almost like the 
probability of the occurrence times the type of effect that may 
occur could balance out the investment. This investment also 
has a certain amount of urgency, which makes it important over 
the course of a 20-year span in the sense that you are striving 
right now to put together the essence of it and of a fairly 
robust R&D program to make that happen.
    Those having been coupled together create a seeming 
imbalance, but not over the long term, about deterring 
strategic foes versus deterring tactical foes versus deterring 
economic foes.
    Senator Lieberman. Excuse me for interrupting. Is it fair 
to say that you are stating here that the Pentagon and the 
administration went through a process of balancing all the 
other systems that come out of your office, and that we are 
investing a justified $10 billion for the system?
    Mr. Wynne. I believe it does, sir. What we go through every 
year is a rigorous budget buildup that goes through many 
reviews as to how we invest in some of the resources. The 
comptroller will probably be a more formal, eloquent speaker on 
the topic.
    Senator Lieberman. Let me go to the second question that I 
have and it relates to the questions that Senator Levin has 
raised. Senator Levin correctly says that we have a 
longstanding principle here, we fly before we buy. To some 
extent, Mr. Christie, it's a sensible principle.
    Mr. Christie, you are amending that for the system and say 
you have to build before you can test, in that sense, before 
you can fly, to use the expression. It puts us in an awkward 
position.
    I want to see if I understand whether you are saying one, 
that we are going to declare initial operational capability 
(IOC) for the system in September or at the end of the year or 
whenever it begins. If so, doesn't that mean that IOC is going 
to be achieved before operational testing occurs? Is this 
related to the discussion with Senator Levin earlier about what 
low rate initial production is?
    You are saying that your judgment is that the Pentagon is 
living within the law in the testing that has or has not been 
done so far in this proposal.
    Mr. Christie. Yes, I think it is living within the law. I 
do not characterize what will happen sometime later this year, 
when we will have IDO, as an IOC in the classic sense of 
introducing a weapon system across the board into our forces.
    Again, we are building a test bed. We will install 
interceptor missiles in silos at two different locations from 
where they have been in the past that will be useful in the 
case of an emergency.
    Senator Lieberman. Would you have the same judgment about 
the 20 additional interceptors we are being asked to fund this 
year prior to the kind of operational testing that would seem 
normally to be required?
    Mr. Christie. From what I understand, we are buying or 
manufacturing missiles that will be used, for the most part, in 
testing.
    Senator Lieberman. That is the first one we already funded, 
but the second one as well.
    General Kadish. Could I explain that, sir? I believe the 
$500 million request we have is for 10 missiles in the 2005 
buying period, so it is not the full 20. Every year we are 
going to evaluate this. It certainly adds to the uniformity of 
the test bed, but in the meantime we are going to be testing 
some of those missiles and using them up, so how that is going 
to turn out in terms of how many missiles we have for an actual 
alert posture will change almost monthly.
    The idea of fly before you buy is very difficult for this 
system. Every generation or so, there comes a time where a 
system of this type that is technologically unprecedented or so 
useful that you have to take it out of the normal understanding 
comes up. Fly as we buy is basically the way we have done that.
    Senator Lieberman. The reason I think you are all set for 
that is that you cannot fly. I am using the phrase fly it 
before you build it. You cannot use it until you test it.
    General Kadish. Yes.
    Senator Allard. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. As I listen to 
General Kadish, in your opening remarks, and I am reading off 
your statement, ``we feel that we have an improved system.'' I 
sense an urgency in that statement, that he is recognizing that 
this is something that we need to get up there and get working 
even if it is not perfected, and I totally agree with this.
    I appreciate very much Senator Lieberman and his activity 
in seeing to it that we are going to ultimately have a system 
that is going to defend our American cities, and I applaud him 
for that. However, when you talk about the relevant threats 
between terrorists, I have a hard time with that because the 
ultimate weapon of a terrorist would be a missile with a 
warhead that would kill a lot of people.
    I think back and I can remember, General Kadish, that you 
were actually before this committee back in 1998 when we asked 
the question, how long will it be until this threat is imminent 
in the United States? How long will it be specifically, and I 
remember asking the question, August 24, 1998, would it be 
until the North Koreans have reached the United States? The 
response was simply: In the range of 5 to 10 years. Seven days 
later on August 31, 1998, they launched them.
    That threat is out there. We know it is there. We know 
these are not stable people. So I hope we will all realize that 
when you look back on the days of conventional warfare where 
you make the wrong decision and wrong timeline it might cost 
200 or 300 lives. But in this case it could be 200,000 or 
300,000, so I believe that sense of urgency that the President 
has charged you with is one that you are responding to in a 
very forceful way.
    As I looked at the system, we are talking about two things. 
First, we have to detect and we have to kill it. There are two 
projects that we have going at the same time. You change the 
names on me all the time so I cannot keep up, but I have a 
similar system. You are up there and you are looking down, as 
opposed to their system where you are down and looking up, and 
it should have the capability of detecting and processing 
information.
    Ultimately that is where we want to be. We transition into 
this system, which I think is the same thing in partnership 
with the Russians, and that has now been terminated. My first 
question is, what will that termination do, and will that 
affect the timeline of ultimately having the system of 
protection?
    General Kadish. The short answer is no, Senator. We changed 
the names to Space Tracking Surveillance Systems (STSS) to have 
no confusion between what we used to have, Space-Based Infrared 
Radar System (SBIRS)-Low or SBIRS-High which are still two 
different programs. But the Russian American Observation 
Satellite (RAMOS) program, although it would explore some of 
the technology we could use for the STSS or SBIRS component, 
was not critical to the performance of that program.
    Senator Inhofe. I see. I have been told my microphone is 
not working, but you obviously did hear the questions and the 
comments. Now, I understand that the MDA has had great success 
in using the air system of detection which is down here looking 
up. It is something I have always thought in my mind is kind of 
an interim system of detection until we have the system we have 
been discussing. Is that accurate?
    General Kadish. That is true. Although, today, we use the 
Defense Support Program for the initial detection. That is 
already on orbit and uses the same technology. So we are 
planning and working very hard to continue to put infrared 
capability in orbit through the STSS, and we are currently on 
schedule to put up our first two proof of principle satellites 
in the fiscal year 2007.
    Senator Inhofe. The 2005 budget estimate states that once 
the test evaluations are complete, then the management and 
security of the sites will be transferred to the individual 
Services. In this day and age of jointness and all that, have 
you thought about whether that is more efficient and effective 
than if you were to do it in one place under one control or one 
joint control?
    General Kadish. Senator, that is a good question. Admiral 
Ellis, General Dodgen, myself, and others are working to see 
whether or not our original understanding of that process is 
right or whether we need to change it. I do not know if I 
overstate this, but I do not think I do. This effort that we 
are doing at Fort Greeley, the initial IDC configuration is 
truly a joint development and fielding activity, more than I 
have ever been associated with in my acquisition career.
    We are kind of inventing new processes here, if I could say 
that.
    Senator Inhofe. It is something to think about as we move 
along. Now, going from the detection to the kill part, the ABL 
weapons system, which consists of a laser mounted on a modified 
747, what is the current timeline for the fielding of the ABL 
system? I have been interested in timelines to meet this 
concern of emergency that I believe is there.
    General Kadish. Well, we have run into some integration 
problems on the ABL. It is extremely complex technology, 
revolutionary, even more so than hit to kill was a few years 
ago, I believe. So I am not able to at this time give you what 
I would call a high confidence answer to that question in terms 
of time.
    We have about the last 20 percent of the first airplane to 
prove our principles on whether that laser combination with the 
airplane is going to work correctly. Once we get our next two 
milestones, which are laser light out of the ground-based 
system test laboratory and flying activity of our lenses, I can 
give you a better estimate. But it will be no earlier than 2005 
or probably a little later than that. No earlier than that.
    Senator Inhofe. I know my time has expired. I do have some 
other timeline questions. I'm going to ask for response on the 
record. Thank you very much to all five of you for the great 
service you're performing.
    Senator Allard. Thank you. Next is Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. General 
Kadish, in your written testimony you say, ``it is important to 
understand that in the missile defense program we use models 
and simulations and not flight tests as primary verification 
tools.'' But Mr. Christie, in your recent report to Congress 
you point out, ``due to the immature nature of the system, 
models and simulation with ballistic missile defense system can 
not be adequately validated at this time.''
    You also say in your prepared testimony today, ``modeling 
and simulation are not a good substitute for integrated system 
testing.'' There seems to be a variance here on views about 
modeling and simulation.
    But is it fair to say, Mr. Christie, that the Missile 
Defense Program is neither fully integrated nor mature enough 
to develop models and simulations that can be validated as 
correct?
    Mr. Christie. That is right, sir.
    Senator Reed. So when we simulate a launch of a North 
Korean missile against the United States, this simulation 
cannot be shown to be fully correct yet because the system is 
still too immature?
    Mr. Christie. I did not understand the question. I cannot 
hear you.
    Senator Reed. Let me repeat it. If we simulate a launch of 
a North Korean missile against the United States, this 
simulation cannot be shown to be fully correct yet because the 
system is still too immature?
    Mr. Christie. I would say that. But as we go on during this 
year, we will mature some of the components of this test bed 
that will form part of the IDO, and then we will have more 
confidence in the ability of the systems to act as they were 
designed. As of right now, no.
    Senator Reed. But at this time, we cannot be sure that the 
actual system would work against a real North Korean missile 
threat?
    Mr. Christie. I would say that is true. At this point in 
time, that is true.
    Senator Reed. The next major flight test of the ground-
based missile defense system is called IFT 13C. According to 
the official test plan provided to Congress, IFT 13C will use 
global positioning system (GPS) to guide the interceptor to the 
target. The target has a GPS receiver on it, and it broadcasts 
its position down to the missile defense system.
    I think it is safe to say that a real threat would never 
have a GPS broadcasting its position down to the defense 
system. General Kadish, you plan to deploy the system in 
September. Do any of the tests between now and September not 
include this GPS device to signal the presence of the target?
    General Kadish. First I would like to say why the GPS 
system is on the target. It is for safety purposes to make sure 
that we can control the flight test properly.
    Senator Reed. It has nothing to do with cuing the target--
--
    General Kadish. That is the primary reason why the GPS is 
on the target. The secondary reason is that we are not able to 
have the radar in the right spot for this test. An 
operationally useful spot. That's why we need to build the test 
bed, to some degree.
    So our only method of actually simulating that sensor is 
for the GPS process to provide that input. But it will provide 
that input just as the sensor that we are simulating would.
    Senator Reed. When will the sensors that you are simulating 
be in place?
    General Kadish. They will never all be perfectly aligned in 
any test that we do. I cannot remember the exact date. Over the 
next 18 to 24 months, we are going to remove much artificiality 
in the test and make them as realistic as we can.
    Senator Reed. When will these sensors be in place so that 
you do not have to rely upon a GPS?
    General Kadish. For testing or for operations?
    Senator Reed. First the testing.
    General Kadish. In testing, I think--I would have to get 
you the answer to that question, I just don't remember.
    [The information referred to follows:]

    We will continue to use GPS for flight safety. GPS will not 
contribute to the Weapon Task Plan on tests where we have censors such 
as Aegis, UEWR, or SBX available in the test bed. This will first occur 
in mid calendar year 2005.

    Senator Reed. Is it safe to say it's after deployment, 
after September?
    General Kadish. We are doing a lot of testing. I just don't 
know.
    Senator Reed. That's a very unsatisfactory answer, General. 
I mean, you tell me you are planning these tests out many 
months in advance. You know you are deploying in September. It 
is very simple. Are you going to be using the GPS?
    General Kadish. But Senator, I do not look at the test 
program before or after IDO as an end point or start point. I 
look at the test program for the next 5 years.
    Senator Reed. General, this is a very simple question. Will 
you be using this GPS on the target missiles after September 
deployment dates?
    General Kadish. To some degree, I think we will. I just do 
not know the details.
    Senator Reed. So we are deploying a system which we cannot 
simulate through validated simulations of a North Korean 
attack, and we rely upon GPS for engagement. It just confounds 
in my mind the idea of deploying the system. Testing it is 
something. But standing up there and saying this deployed 
system that will protect this country against a real threat 
stretched my imagination.
    Let me go on. We have heard a lot of testimony today about, 
Mr. Christie, your operational test organization. I have a 
quote from the plan submitted to Congress about IFT 13C: ``IFT 
13C is a prime contractor planned and joint program office 
approved development test. Because of prime contractor and 
joint program office constraints, little opportunity exists for 
input of unique operational test agency team requirements.''
    What this suggests to me is that you are not controlling 
these tests at all. The contractors are controlling the tests. 
BMD is controlling the tests.
    Mr. Christie. BMD is controlling the tests. I am not 
controlling the tests, because they are developmental tests. We 
are quite successful, I think, in getting more operational 
ingredients into these tests. But these are R&D tests.
    Senator Reed. I think that is right. But I heard the 
dialogue before in response to Senator Levin's question about 
whether they are development tests or operational tests. There 
are some development parts, some operations part.
    One of the key aspects of an operational test is that you 
control the tests, not the contractors. So this quibbling about 
what is operational and development has to be settled. These 
are developmental tests.
    Mr. Christie. That is right.
    Senator Reed. Thank you.
    Senator Allard. Thank you. It is my turn to ask a few 
questions. I will go ahead and proceed. On this adequate 
testing, I have a schedule, and it is called ``events schedule 
on testing.'' It looks to me like you have at least 20 tests 
scheduled for the rest of this year. For next year, a large 
number of tests, 22 or so. Seems to me like that is a pretty 
heavy test schedule out here, and my question is to General 
Kadish, how many flight tests have been conducted in 2004 so 
far?
    General Kadish. 2004, of all types?
    Senator Allard. Yes, flight tests.
    General Kadish. I think we have done at least five or six. 
I would have to get the exact number.
    [The information referred to follows:]

    If the question refers to fiscal year 2004, since October 1, 2003, 
there have been two intercept tests. One Aegis and one Patriot. Both 
were successful. During the same period we conducted two non-intercept 
flight tests of ground-based midcourse boosters. Additionally, we have 
participated in two tests of opportunity by aiming our sensors at Air 
Force Space Command launches.
    In calendar year 2004 thus far we have conducted two booster flight 
tests and one Patriot intercept test.

    Senator Allard. Were they successful?
    General Kadish. Yes.
    Senator Allard. How many more are planned for this year?
    General Kadish. We have flight tests and intercept tests, I 
think three more. If you count the other flight tests for other 
elements of the system, I think there are three or four others 
of that nature.
    Senator Allard. Thank you. Admiral Ellis, STRATCOM has 
adopted a number of new missions recently, including 
information, operations, computer network attack, computer 
network defense, and space operations.
    In addition to the mission of global strike, integrating 
these new missions would be a huge workload, I think, for any 
organization. Has this workload impeded your progress in any 
way in preparing for the missile defense IOC?
    Admiral Ellis. No, Senator. It has not. We have had a great 
deal of support from the elements of what formally comprised 
the United States Space Command as we brought them under the 
STRATCOM umbrella. We have been able to engender a great deal 
of support from elements of our components who have expertise 
in these areas, including the Joint Theater Air and Missile 
Defense Organization (JTAMDO), Air Force Space Command and the 
like. That, coupled with the priority that we ascribe to this 
effort, and this timeline that we're on have allowed us to 
effectively balance the apportionment of resources to ensure 
that we, in our role, contribute as fully as possible to its 
success.
    Senator Allard. So there have been synergies there in 
preparing for an integrated defense?
    Admiral Ellis. Absolutely, sir. In fact, as you think about 
it, many of the things we are talking about have a deterrent 
character to them and are a part of effective information 
operations in a real sense. So we are very satisfied with that, 
coupled with our space responsibilities that deal with the 
sensors that General Kadish was speaking of earlier. So there 
is a very synergistic effect that comes with bringing not just 
the systems and the platforms, but the overall mission 
responsibilities, together in a single global organization.
    Senator Allard. Now, I want to get back to you, General 
Kadish. Now, Senator Levin feels that you are in full rate 
production of the ground-based interceptor and therefore 
operational testing is required.
    Senator Levin. Would you yield on that? I have not said 
they are in full rate. I said that they are beyond the initial 
rate.
    Senator Allard. Okay. I am glad you clarified that for the 
record, because we understood that you had. Let me go ahead and 
continue with this question. Is the interceptor synonymous with 
the system?
    General Kadish. Everybody thinks so, but it is not in my 
view. When you look at the radars, communications links, and 
ships involved, the interceptor is just one component.
    Senator Allard. You do operational testing of the 
interceptor independent of the BMDS?
    General Kadish. Not in my opinion, Senator.
    Senator Allard. Thank you. Mr. Christie, I have a question 
here. Are you satisfied with the working relationship with the 
MDA and that your organization's voice is heard when missile 
defense plans are crafted?
    Mr. Christie. I am, sir. Yes, I am.
    Senator Allard. I have a question now for the whole panel. 
Do any of you feel that there is not adequate testing going on? 
Is there any reason to believe there is not adequate testing?
    Mr. Wynne. No, sir. I think the type of testing is 
extraordinary for the eight time zones and the lay down of the 
test bed.
    Admiral Ellis. I am quite satisfied, sir.
    Mr. Christie. I would always want more testing. I have to 
admit to that.
    Senator Allard. But from a practical aspect----
    Mr. Christie. From a practical aspect, with this particular 
program, and the complexity of it, General Kadish has, in fact, 
postponed several tests because of the problems that have been 
uncovered. That is the very purpose of development testing--
test, find out if you have problems, and fix them before you go 
too far.
    Senator Allard. I think that is a reasonable approach. I 
think it is unrealistic to think that during testing you are 
not going to have failures. In my view, if you do not have 
failure you are not pushing the system. You need to push the 
system to know what the limits are.
    General Kadish, do you think we have enough testing?
    General Kadish. I think we have adequate testing. I am 
looking for every chance to do more.
    Senator Allard. General Dodgen.
    General Dodgen. I am satisfied with the testing, Senator.
    Senator Allard. Let me talk a little bit about 
international cooperation, General Kadish. I understand that 
the United States and the U.K. recently signed a formal 
memorandum of understanding and agreed to upgrade the 
Fylingdales radar facility. I also understand Japan recently 
agreed to provide nearly $1 billion for their own sea-based and 
ground-based missile defense in cooperation with the United 
States.
    We are negotiating a BMD framework with Australia and 
redefining our cooperative defense agreements with Canada. It 
seems to me that the ballistic missile threat is a global 
problem that requires a global solution, therefore I applaud 
your efforts to build a cooperative relationship with our 
allies.
    Can you expand upon your vision for international 
cooperation on missile defense?
    General Kadish. We have been working with Mr. Wynne and 
others across the world to find out exactly what we could do. 
Because fundamentally, the geography counts in missile defense. 
Where we put things is important. They are important to 
ourselves and with our allies.
    So the objective here is a confluence of interests between 
our international partners and allies and our needs for missile 
defense. That is where we are going. We have long-range money 
in the budget to try to make that happen.
    I would not underestimate the difficulties, however, in 
making those arrangements successful. International 
partnerships and cooperative development activities are 
important but very difficult.
    Senator Allard. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. It is my 
understanding that the radar you intend to use for the missile 
defense deployment starting in September cannot protect Hawaii 
from a long-range missile attack. In order to protect Hawaii, 
you plan to use existing ship-based radars which we understand 
are much less powerful than normal BMD radars and were never 
designed to track long-range missiles.
    General Kadish, with no help from the GPS, how many live 
target intercept tests have you conducted to date using only 
ship-based radar to track a long-range target?
    General Kadish. We have done many tests of the different 
parts of that radar system in Aegis that convince us we can do 
this mission with Aegis radar systems. We have tracked long-
range targets, and I have to point out that we would like to be 
a little bit further along in that. However, prior to the ABM 
Treaty withdrawal, we were prohibited from using those radars 
in that regard.
    We have just done a review, I guess it was last week, that 
looked at the capability of Aegis to perform this mission. We 
are all comfortable that it will work based on the testing we 
have done to date.
    We have set up a test set over the next 18 months that will 
actually prove those things more in what we call an end-to-end 
fashion, and use it against a live warhead. We are not to that 
point yet, but this is part of our evolutionary upgrades. But I 
think we will have that capability rather soon.
    Senator Akaka. Have you conducted live intercept tests?
    General Kadish. Not as of this date using that full 
engagement sequence. I would prefer to get into more classified 
arrangements before I talk further than that. Senator, I would 
be glad to do that with you at any time.
    Senator Akaka. Mr. Christie, I am concerned about Hawaii. 
Should I feel confident that the State of Hawaii will be 
protected by this system starting in September?
    Mr. Christie. We have not done a thorough analysis. That is 
one of the scenarios that we are looking at. At this point in 
time, I cannot say one way or another. I am not saying we are 
not confident in stating that, but that is one of the 
engagement scenarios that are being looked at in the 
operational assessments-- the continuing operational 
assessments that will go on between now and the end of the 
year.
    So I cannot comment on that at this point in time.
    Mr. Wynne. I would like to add, Senator Akaka, that the 
great State of Hawaii is certainly included in the defense of 
the United States, and we are making every move to make sure 
that we have extended the umbrella of protection to the great 
State of Hawaii.
    I think General Kadish has said it best. We have a few 
engagement scenarios that in fact are complicated to try and 
make sure that we have adequate understanding of the mission. I 
think Mr. Christie is correct in saying that until he gets a 
detailed evaluation of that particular engagement scenario, and 
that is how they are doing their testing, he cannot and 
probably will never be able to tell you in an open forum 
exactly the level of confidence that you can create. But I will 
assure you, sir, that we are, in our evolutionary design, have 
the great State of Hawaii always in mind.
    Senator Akaka. Admiral Ellis, you have the responsibility 
of protecting all of the 50 States from missile attacks. I am 
concerned about ship-based radar protection, so my question is, 
what kind of plan do you have especially for Hawaii? Do you 
plan to have a Navy ship in this case on station 24 hours a day 
to protect Hawaii from long-range missile attacks starting in 
September?
    Admiral Ellis. Thank you, Senator. I want to echo Mr. 
Wynne's comments. Based on my extensive time in the Pacific, I 
fully understand and appreciate Hawaii's unique location and 
contributions to our national defense. As has been noted, it is 
an essential element within the defended area that's been 
described for the system.
    We are very mindful of the demands of the various intercept 
geometries that both Mr. Christie and Mr. Wynne have talked 
about. One of my roles as a combatant commander, as you are 
fully aware, is to provide capabilities to Ed Eberhart at 
NORTHCOM and to your friend Tom Fargo at PACOM to ensure that 
they have all the tools they need to appropriately defend the 
United States territory within their area of responsibility 
(AOR).
    Now, from a Navy perspective, as you have heard from Ron 
Kadish, Navy ships will be on station for their initial search 
and track capabilities and contribute to the sensor net that 
Mr. Wynne spoke of. That will enable the employment of the 
interceptors that have been described as an essential element 
of this system.
    So there will be Navy ships involved in contributing to the 
effectiveness of the entire network, and that entire network 
will then contribute to our ability to defend all of the United 
States from this threat, and that includes, of course, Hawaii.
    Senator Akaka. Thank you for your responses. Thank you, Mr. 
Chairman.
    Senator Allard. Call on Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. I am delighted 
to have each of you with us. Admiral Ellis, it is good to see 
you again. General Kadish, we appreciate your service. General 
Dodgen, it is a delight to have you here, as well as Mr. Wynne 
and Mr. Christie.
    A lot of good things have happened. A lot of us believe 
strongly that we needed to move to a national missile defense 
program. We had a debate on that in the late 1990s. As Senator 
Lieberman indicated, he and a number of us joined that issue. 
In 1999 we voted overwhelmingly, and President Clinton signed a 
policy of the United States to deploy as soon as feasible a 
national missile defense system.
    Our goal was to do so by September of this year. I believe 
that was the date, and I know it is about 200 days from now, 
General Kadish. Can you tell us how we are looking for 
September of this year in a deployment of a system? If you are 
able to do so, will it provide additional protection to this 
country from a missile attack?
    General Kadish. Senator, the September date was an internal 
planning date for the test bed. I can tell you that based on 
where we are today, we are on track for the general time frame 
that we set in motion. As with most programs of this nature, we 
are trying to figure out how to make sure that we either do it 
earlier or on our internal schedules. That is what we are 
trying to do today.
    Despite some setbacks, we may not have as much equipment 
available as we thought on a specific date, but by and large, 
most everything is going to be in place and then we will work 
with the senior leadership of the DOD to see how much 
protection that would afford us, and so we are on track.
    Senator Sessions. There was a lot of controversy early on 
about the hit to kill technology. Are you satisfied now that 
that is a proven capability?
    General Kadish. Yes.
    Senator Sessions. If you are testing as it continues, and 
it is very robust as that testing continues, are you able to 
make adjustments and will you be willing to slow down and make 
changes if need be?
    I believe we utilize the theory of spiral development. As I 
understood it from the very beginning, that said that you would 
wrestle with each problem that came up and try to overall make 
the system work, rather than trying to design a system from 
beginning to end at the start and doing it whether it worked or 
not.
    Are you happy with that philosophy and are you prepared to 
deal with any difficulties that arise?
    General Kadish. Again, the short answer to that question, 
Senator, is yes. I believe we have been able to make the 
progress we have made over the last few years because we have 
adopted that philosophy. We have taken action in many cases, 
not only in the test bed construct we have been discussing, but 
in programs like ABL and THAAD and the boost program we have 
put in to reduce our cycle time in decision making to make the 
overall effort better.
    I believe that the strategy is absolutely correct for this 
type of program. It may not be correct for every program, but 
for this one that I deal with every day, it is working very 
well from my perspective.
    Mr. Wynne. Senator Sessions, if I would add that the 
position of the Secretary is this is an event-driven program, 
that we will follow the disciplines and the quality procedures 
and make sure we have the MUA, and test reports. I think even 
the date, if there ever is a date which we do not have a date 
certain right now, it will appear because there is a MUA that 
has been completed and reported.
    Senator Sessions. Mr. Christie, you have looked at this 
from a critical eye, as you should. We hope you are. Do you 
observe any technological or other problems that would keep us 
from eventually solving the challenges that face us with regard 
to establishing a system that would work?
    Mr. Christie. At this point in time, no, I see no 
technological issues that have jumped up that say we are not 
going to be able to do this or that.
    Senator Sessions. There are problems, and we need to deal 
with them.
    Mr. Christie. There are problems.
    Senator Sessions. Testing reveals those?
    Mr. Christie. I would hope so, and I think the fact that we 
are being criticized, maybe rightly so, for having less tests 
during this last year--that reflects that philosophy that we 
found some problems and we have postponed the schedule, we 
scheduled tests in order to take care of those problems and to 
have some confidence before we put the system back into test 
that we have solved the problems.
    Senator Sessions. You favor that slowing down rather than 
pressing forward in some artificial way?
    Mr. Christie. Absolutely, sir.
    Senator Sessions. General Kadish, if the budget were to be 
reduced for national missile defense, how would it impact your 
ability to do adequate testing and research if need be?
    General Kadish. Senator, it would slow us down, depending 
on what the nature of the cuts were. We balanced out the 
program to the best of our ability, and we have made 
consistent, and I believe rapid progress in many areas. If 
Congress continues to fund us, we will continue to make that 
progress.
    Senator Sessions. I want to congratulate you. Thank you for 
your good work. I appreciate the work of General Nance and 
Major General Holly in Birmingham, who worked on that 
deployment. It appears to be on time. A lot of people said it 
could not be done. You are about there. I think it is an 
extraordinary accomplishment, Mr. Chairman. Really, the 
American people have not appreciated the immensity of the 
challenge, technologically and just infrastructure-wise, and 
they have done it and on time. I believe that if a problem was 
revealed it will be met and overcome.
    Senator Allard. As I am calling on Senator Nelson from 
Nebraska, Admiral Ellis, I hope you are prepared for the 
question of whether you are going to root for the Big Red, or 
are still in support of the Colorado Buffalos.
    Admiral Ellis. Yes, sir. I have been torn in those 
directions before.
    Senator Ben Nelson. Thank you, Mr. Chairman. I want to 
thank all of you gentlemen for what you are doing for our 
national defense and for the difficult nature of research, 
development testing, deployment. Things always seem to blend 
together, and I was taken by what General Kadish said, fly and 
buy, but sometimes you are flying and buying at the same time 
because of the need to have the equipment for further field 
testing.
    Admiral Ellis, as a fellow Nebraskan, it is good to have 
you here. I appreciate so much what you are doing there in a 
very difficult time frame to integrate all the kinds of things 
that have to go into bringing offensive and defensive positions 
together. So thank you.
    One of my questions is, I think this will probably go to 
General Kadish. Fort Greeley will be obviously the first 
fielded missile defense site, but is it also a test bed? I 
think we are really trying to understand where we are in 
testing and how it blends or morphs into a national defense 
posture.
    General Kadish. Senator, you are correct. It is also a test 
bed because we were going to put the system together to watch 
it operate on a daily basis, we will gather that data to 
improve the system. Vandenberg Air Force Base will also have 
some missiles and they will do the same there.
    In fact, we have plans to fly out of those silos at 
Vandenberg in an operationally realistic testing effort. So 
again, we have to build it before we can test it in an 
operationally capable way. Fort Greeley is that location, as 
well as Vandenberg, Shemya Island out in the Aleutians, and 
ships at sea.
    Senator Ben Nelson. So is it fair to say that we are buying 
to test rather than buying to stockpile weapons?
    General Kadish. In some sense, we are doing both at the 
same time.
    Senator Ben Nelson. Well, that would take me to Mr. Wynne. 
I know that in testing, we try to reach the goal of perfection, 
but never expect anything to be quite perfect. Given the 
experience with the Patriot system and deployment, do you think 
that we are going to get better results percentage-wise with 
the missile defense system than we have gotten with the Patriot 
system?
    I am not going to ask you whether it is 10 percent accuracy 
or 50 or 60 percent except in a classified setting. But are we 
going to get to a point where field testing or deployment 
testing in some way gets us a better result? A better 
percentage, anyway.
    Mr. Wynne. I will compliment the PAC-3 and let Lieutenant 
General Dodgen talk about it, but it has gotten tremendously 
better as time goes on. I will tell you that it has gotten 
tremendously better also because of the capability we have for 
man in the loop testing on the sensors and on the device 
itself. It has gotten tremendously better because of the 
training we have given to people who operate the system and I 
was very pleased to hear that he feels like that same 
discipline and training is being translated into Fort Greeley.
    This allows me to tell you that the way that we are doing 
the component and subsystem tests and putting men in the loop 
and emulating, which is different than simulation, which means 
you take the actual signal as it would have come from a certain 
part of the system into the other one, I would tell you that we 
are far better in our capability of emulating an actual 
intercept than we were in 1991 when the first of the Patriot 
missiles was designed.
    Senator Ben Nelson. We have had more opportunity to test 
the Patriot missile system in the most realistic setting 
possible, in war. Field testing or realistic testing is not the 
same for a missile defense system because we hope not to have 
to test it under similar conditions.
    So Mr. Christie, do you think that we are going to be able 
to get the kind of result that we would be able to say it is 
good or it is good enough? Perhaps the most important question 
is, how do we know? The testing is not necessarily as realistic 
as it is in actual combat.
    Mr. Christie. Well, as time goes on, I think the realism of 
the testing that we will be doing with this system, 
particularly after we have all the components of the test bed 
in place, to include the ship-based X-Band radar, we will 
certainly have far more confidence in our estimates of our 
capability than we have today.
    In fact, back to the issue of the number of missiles that 
we will manufacture in this R&D program, I would hope and think 
that as we look to the future, we have tests planned in the 
next couple of years where we will be firing some of these very 
expensive missiles in salvos. We will increase the complexity 
of the tests with multitargets and multimissiles, so the more 
missiles we have available for testing, the better I think we 
will be in having confidence.
    Senator Ben Nelson. I would agree with you. That is why I 
was a little concerned by General Kadish's comment that we are 
both building to test and also building some to stockpile. 
Because I am concerned with ammunition, as a hunter, that is a 
dud. I would hate to think we are stockpiling in any sense 
whatsoever before we know that we have reached some level of 
acceptance in terms of the successful capability, because 
otherwise I think we are spending a lot of money stockpiling 
when we still should be testing until we are satisfied.
    I guess maybe that is not a question, it is a statement. In 
any event, I appreciate what you are doing. I think oversight 
sometimes requires some heavy questions, but you are doing some 
heavy duty testing and heavy duty defense work for the country, 
so you are used to heavy duty activity. So thank you very much. 
I appreciate it. Keep up the good work.
    Senator Allard. Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman. Gentlemen, this is 
the fourth time I have been involved in this process as a 
member of this committee. In each of those instances my 
experience has been unanimous support among its members for the 
R&D, testing, and deployment of this system. The law says you 
should deploy when possible, but I would say when proper.
    What you are getting today are questions, and I have these 
questions as well, about whether the deployment timetable is 
being dictated by professional judgments or political 
pronouncements. I realize you are constrained by the orders you 
have been given by your civilian commanders.
    This comment is not directed toward you. Personally and 
philosophically, I have a hard time with people who run for 
public office stating that government does everything badly and 
then when they are elected they go out to prove themselves 
correct.
    I cannot conceive of business executives who are 
responsible, corporate leaders who would go to their board of 
directors or to their shareholders and say, we have this major 
new product we are going to bring out, and it is breakthrough 
technology, unproven, untried, but we are already building the 
first sites. We are starting production based on this degree of 
testing.
    Last week, we debated standards of liability and negligence 
for producing handguns and rifles. If those products--and it is 
not an exact comparison, because they are in the general 
public--but if those products were deployed with this degree of 
testing, they would be liable for negligence, gross negligence, 
anything you would want to find. It would be unthinkable by 
corporate prudence, by fiscal sanity, by government oversight, 
and by public common sense to be undertaking this, in my 
judgment, based on what I know and based on what you are 
telling me here.
    I mean, some of these comments are just unbelievable. We 
are using scenarios to incorporate increasing realism into our 
test program. I would think realism would be a starting point, 
not the ending point of test programs. Again, certainly before 
you start talking about building sites and authorizing the 
production, paying for the production of missiles and putting 
those out and deploying them and then stating that they 
represent a useful BMD capability, a dramatic improvement over 
our current condition of being defenseless against ballistic 
missile attack.
    This is a rudimentary system, as one of you said, in a 
situation which requires incredible, as others of you have 
pointed out, sophistication and perfection. Another comment 
made was that there is now being incorporated a certain rigor 
in the testing philosophy. We are now using more complex target 
presentations and engagement geometries.
    I assume that means things like testing not just on sunny 
days and not just with single missiles whose trajectory is 
already known, at the time already known and without confusing 
and distracting other measures.
    Again, if that is where we are at in the development of 
this technologically, so be it. I do not question that all is 
being done that can be done, but I certainly question the 
wisdom of this deployment and construction. As a public works 
project in Alaska, I guess it is worth something as a jobs 
program. It is limited, but it is certainly vastly more 
effective than moving the estate tax repeal from the year 2010 
to 2009.
    I would personally feel a lot better about it if the 
administration would agree to a highway construction bill that 
would at least benefit the other 49 States, including my own. 
Those are established technologies. We are along for the ride 
on this. Two years ago, there was even the thought mentioned of 
shaving a slice, a sliver of the funding based on funds that 
had been determined to be not used in the previous fiscal year 
and would be available for the next fiscal year. The 
administration responded with veto threats and suggested or 
posed that we would be emasculating the entire national defense 
of the Nation--gutting is the operative word these days, 
gutting our capability.
    I do not even imagine those considerations in my darkest 
moments at night. We are along for the ride on these decisions 
and so is the American public and the taxpayer. Whether it is 
the most efficient use of tax dollars, I just seriously doubt 
whether these expenditures are even putting us on the most 
expeditious path of what we want and need.
    We have agreed here. We need a system that can perform 
incredibly complex functions over distances at speeds within 
seconds, and with the precision necessary to accomplish the 
results under all weather conditions despite enemy subterfuge 
and disruptive tactics and do it perfectly every time. We have 
to rely, it seems to me, on your making the right decisions for 
the right reasons to produce the right results.
    I hope and I pray that you are. I hope that we and everyone 
else involved in the political realm can permit and not prevent 
you from doing so. My time has expired. Thank you.
    Senator Allard. Senator Clinton.
    Senator Clinton. Thank you very much. The General 
Accounting Office (GAO) is publicly releasing a report today 
that expresses concern about the lack of test data, something 
we have been focusing on here. The report warns that the test 
plans through 2007 do not include sufficiently challenging 
targets and decoys. Now, the report, General Kadish, says that 
the first attempt at launching two interceptors against two 
targets is not scheduled until 2007. Is that correct?
    General Kadish. That is incorrect. I have not read the 
report specifically, but part of the problem we have here is 
that we have continually evaluated our test programs and 
changed our plans significantly sometimes based on the 
performance of the system. So we are not able to keep it up 
realtime given how those reports are made. So I am sure at one 
time that was what the schedule was, but I believe we have 
accelerated that effort.
    Senator Clinton. So sometime after deployment in 2004 but 
before 2007?
    General Kadish. I will have to make sure it is right for 
the record. I think it is next year.
    [The information referred to follows:]

    Our current estimate to flight test two interceptors against two 
targets is the fiscal year 2008 time frame.

    Senator Clinton. The report also says that no plans exist 
to assess the effects of severe weather on the system's 
performance or to conduct flight tests under unrehearsed and 
unscripted conditions.
    I assume that relates to Senator Reed's point about the 
GPS. But with respect to weather and the unscripted conditions, 
is that a fair statement?
    General Kadish. I do not think it is fair in the sense that 
we do not currently wait for a storm to do our test. We have 
time lines to meet. We have certainly had weather effects on 
our system, rain storms occurring during the tests, that type 
of thing.
    Senator Allard. Senator Clinton, if I might caution you, 
this report from the GAO that you are referring to ended up 
being a classified document. I know it came into the committee 
as an unclassified document, but then the committee reclaimed 
it as a classified document. So I think we have to be a little 
careful about it. I just want to warn you about that.
    Senator Clinton. I appreciate that caution. It is my 
understanding that is a different document. The GAO report I am 
referring to is going to be publicly released today. I believe 
there is a confusion about the reports.
    Senator Allard. Okay, as long as you understand and are 
aware of that.
    Senator Clinton. I am very much aware of that, Senator. In 
fact, I am reading from The Washington Post.
    Senator Allard. Well, there was an article written about 
the classified document that I understand should not have been 
made public.
    Senator Clinton. I know, but that is a different issue.
    Senator Allard. That is a different issue.
    Senator Clinton. Yes, sir.
    Senator Allard. Okay, very good. Just as long as we are 
aware of that.
    Senator Clinton. I assume this does not come out of my 
time.
    Senator Allard. It does not.
    Senator Levin. Mr. Chairman, I would also ask for 30 
seconds not out of Senator Clinton's time to put in the record 
GAO highlights of the report that Senator Clinton is referring 
to, because there are indeed two reports. The one that she is 
referring to is not the classified report. But I'd put in the 
record the one page that we have which is clearly unclassified 
that I know she is----
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Allard. Without objection. Thank you. Senator 
Clinton, you may proceed.
    Senator Clinton. Thank you, Mr. Chairman. Thank you, 
Senator. The other point raised in the unclassified GAO report 
refers to the reliance on tracking data from an old 
surveillance radar called Cobra Dane, but the report notes that 
the radar will not have been tested in its new role and will 
lack the ability even with software improvements being 
contemplated to provide more than a rudimentary analysis of 
incoming missile threats. Is that a correct statement?
    General Kadish. I do not believe it is going to be correct. 
It may be correct today. The radar in Cobra Dane, again, I 
would rather not get into the specifics here for classification 
reasons, but as of today, we have installed our software on 
that radar and it is actually tracking objects.
    Senator Clinton. General, last year at our hearing, my 
colleague, Senator Bayh, asked a question and he unfortunately 
had to leave, but I want to reiterate the question because I 
think it really gets to the core of our concerns. Last year, 
Senator Bayh said suppose that our best efforts at negotiation 
and containment of North Korea prove unsuccessful. That at some 
point next year, the President, whoever that is, is confronted 
with actionable intelligence that for whatever irrational 
reason, the North Koreans are contemplating or preparing to 
launch missiles against our territory, and most likely that 
would mean Hawaii or perhaps Alaska.
    The President calls you, General Kadish, and says, tell me, 
am I ready to defend against a potential attack from North 
Korea today? Last year, the response, as I recall, to Senator 
Bayh was that is classified. Is that the same response this 
year?
    General Kadish. The actual performance data would be 
classified, yes.
    Senator Clinton. What that leaves, though, is a tremendous 
amount of concern on the part not just of Members of Congress 
who like myself support a national missile defense system if it 
is done appropriately, and if it actually works, but it also 
raises the possibility that whether it works or not at this 
point, it has deterrent effect. The very fact that we are 
engaged in it may in some way deter those assuming they act 
rationally.
    Do you have any prediction as to when performance data will 
be made publicly available so that it can be debated and 
analyzed by Members of this body and, equally importantly, the 
American public? I am not talking about detailed information, 
but at least being able to answer the question, will it work if 
we are confronted with a launch from North Korea? Is this a 
defense system that we can count on to work?
    General Kadish. I think there are two questions there, so 
let me try to answer the two questions unless somebody else 
wants to help me answer this question. From my 
responsibilities, I firmly believe that the performance 
characteristics of any weapons system, especially this missile 
defense system, should be properly protected with 
classifications appropriate to it.
    So public discussions of specific performance capabilities 
would not be appropriate. I do not think we generally like to 
discuss in public our offensive performance capabilities for 
the same reasons.
    Having said that, however, the next question is, how are we 
going to maintain increasing confidence in the effort, and what 
characterization could you make at any given time in the 
system? I guess my response to that would be that at any given 
time, we will have an understanding of the behavior of our 
systems. It is performance based on testing to date, and it 
will change over time.
    It is my belief, given the investments that we have going 
here, it will always get better. Now, at any point in time, 
Admiral Ellis and our successors in these positions will have 
to make that judgment. If we are ever asked the question, what 
is the capability we have today, we will have to describe that 
in ways that people can understand and act on.
    But it is a different equation when you say there is no 
capability today, zero, and there is something different than 
zero, and there is a different assessment between when you have 
something that is constantly improving to describe that in a 
way that people can understand. I think we will be in a 
position to do that when and if called upon to do it.
    In fact, as we put it on alert, that is part of the process 
of learning about the system.
    Mr. Wynne. Senator, I would also like to follow up and just 
say that after each test, I know that the MDA comes and 
discusses with this committee the results of those tests.
    I expect that that interaction will continue to make sure 
that you do in fact have a very robust knowledge of what the 
capabilities are. I know that beyond that, this committee has 
been and continues to be extremely sensitive to making sure 
that we do in fact express a deterrent effect. I go back to the 
Strategic Air Command and their nuclear mission.
    Peace was their profession and that was their motto, and I 
know it is the motto of the Atlas missile. People who sit right 
now under the watchful eyes of Admiral Ellis, and I know it is 
going to be essentially the mission of the ground-based missile 
defense that we hope we have invested in sufficiently and are 
technologically clear that it will have the deterrent effect 
our triad has had over the years.
    Senator Clinton. Mr. Wynne, do you believe that the recent 
Russian claim about their development of a capacity to--I do 
not know if it is fair to say evade--their recent announcement 
that they developed a maneuvering warhead to evade missile 
defense?
    Mr. Wynne. I read that in a public policy--I have not seen 
anything beyond that. There is no doubt that the Russians are 
continuing to invest in offensive missile capability, and that 
we do not know yet what the level of development is.
    Senator Clinton. General, do you have an opinion about the 
Russian claim?
    General Kadish. I think the same as Mr. Wynne. At this 
point in time, our missile defense systems are not oriented to 
Russia. So I am not paying much attention to that.
    Senator Allard. Senator Clinton, we need to move forward. I 
gave you an extra 2 minutes, by the way.
    Senator Clinton. Thank you, Mr. Chairman.
    Senator Allard. You bet. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman. Secretary Wynne, as 
the Pentagon's acquisition executive, you oversee both the Army 
missile defense programs and those of the MDA. I have a 
question regarding budget priorities.
    In your budget request for fiscal year 2005, you have 
requested a very large amount of funding for missile defense, 
about $10.2 billion. It is more than a billion dollars over 
last year. Yet, despite the increase in overall missile defense 
funding, funding for the PAC-3, as I understand the only 
operational system we currently have, would drop by almost $350 
million from last year's level.
    So even though there is an increase overall, there is a 
decrease in that one operational system. In fact, in response 
to Senator Nelson's question, you talked about how it had 
gotten ``tremendously better,'' the PAC-3.
    So with such an increase in missile defense, why would you 
want to reduce the funding for the only operational missile 
system that we have?
    Mr. Wynne. The priorities that are made are actually 
designed by the Secretary. I think he will tell you that the 
PAC-3 missile defense system is also now known as MEADS. It is 
incorporating, I think, new developments for a 360 degree look 
radar, some thing that we need to essentially slow down to make 
sure that we do take into account all the lessons learned in 
OIF.
    I think the allocation is proper. I think the imminence of 
the threat has been balanced, and I will say that the Army is 
satisfied with the amount of funding that they have right now 
for PAC-3. I would not say that any program manager worth his 
salt would be totally satisfied, but I would have to ask 
Lieutenant General Dodgen to second the motion.
    General Dodgen. Senator, thank you for the question. The 
RDT&E reductions in PAC-3 and Patriot can be explained by the 
sheer maturity of the program and the fact that we are moving 
into more procurement, from a standpoint of percentages of the 
program.
    So we have had a downturn in the Patriot and PAC-3, but 
MEADS is still flatlined, because we are still doing 
development of that program.
    In addition, we are coming to the end of our procurement of 
the CONFIG 3 radars, of which we did six last year and we are 
only doing one this year. We are procuring 108 PAC-3 missiles, 
which is less than we did last year because of a congressional 
plus-up that was added last year. But the 108 that the Army had 
planned for is on the track.
    So we are very comfortable with the levels. But as you 
said, you can always apply more funding if it is offered.
    Senator Pryor. Well, thank you for those responses. I am 
glad that you all have gotten me inside the numbers here. 
Because when you just look at the raw numbers, that question 
popped out at me.
    Secretary Wynne, the Pentagon's budget request for the 
Missile Defense Program is $1.2 billion more than last year, 
but when you look at the 5 year budget protections for the 
Block 2004 and Block 2006 ground-based national missile defense 
program, it has gone up by almost $6 billion since last year 
with most of the cost in fiscal year 2006 and 2007.
    The total cost of the program looks like it has doubled in 
a single year. In any other program that the DOD would have 
under the normal acquisition rules, like the F-22 for example, 
such rapid cost growth might trigger a congressionally-mandated 
review to determine what is going on in the program and why the 
numbers are increasing so rapidly.
    So let me ask you, what is going on in the program and have 
you or have you not undertaken any sort of review? Also lastly, 
what confidence level do you have that such cost growth will 
not continue in the program?
    Mr. Wynne. There are a lot of questions in there, sir. I 
will take my time in trying to answer them all. Number one is 
we do a review with General Kadish for myself once a week. He 
has been quite challenged, frankly, in the performance because 
there has been an increasing, I think, surety of schedule 
achievement. The test programs that we want him to perform are 
becoming a little bit more robust than we had decided.
    Frankly, he has had a little overrun and he has managed the 
ABL system fairly well. He has taken it upon himself to 
initiate the cancellation of the RAMOS program that you have 
heard about and to fund some things from internal funds so he 
is applying financial management.
    The requirements that we have laid on him in the 2006 
domain have frankly continued to increase as we have looked to, 
if the system is effective, then what place holders should we 
put out there to make sure that we do not, if you will, do not 
have the capacity to expand.
    On the other hand, I will tell you that next year is going 
to be another year and General Kadish and his successor are 
going to have to defend their budget against all the priorities 
that come up. They put place holders in to try to make sure 
that they in fact have a reservation, if you will. The same 
thing is going to happen with 2007.
    I commented on the fragility of this program development, 
as well as my confidence in achievement, and I think that is 
where the place holding should be. General Kadish, do you have 
anything further on that?
    General Kadish. I would just like to re-emphasize the fact 
that the RDT&E budget remains relatively stable but most of the 
increases you are seeing within the context of Mr. Wynne's 
comments are for follow-on place holders for new capability. So 
it might look like an increase to the overall execution of the 
program, but it is more oriented to that effort.
    Senator Allard. Thank you, Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    Senator Allard. My plans are for us to go ahead and start 
another line of questioning. I will start those off.
    So first of all, this has to do with the PAC-3. General 
Dodgen, could you estimate maybe in general terms how many 
lives the PAC-3 and PAC-2 GEM saved during OIF?
    General Dodgen. Given the limited accuracy of the missiles 
that were coming in, it is hard to put a precise number to it, 
but we know that several of these were targeted at base camps 
where there were significant number of soldiers. We are not 
disputing the CNN program that said that one of them was on top 
of the command post. So I think there is significant savings of 
lives with the engagements that did happen, but it is very 
difficult to put a number to it.
    Senator Allard. We have heard that something went wrong in 
every PAC-3 operational test. Should we have developed a PAC-3 
for OIF or did the system have value in spite of the testing 
shortfalls?
    General Dodgen. Well, I think deploying the PAC-3 missile 
to OIF was a correct decision, and to employ it as a system. It 
is going to counter tremendous threats that we did not see in 
OIF, but certainly could have been there in OIF. That increased 
capability, the extra speed, the hit to kill certainly affords 
extra protection to our soldiers.
    Senator Allard. Now, for General Kadish and then Secretary 
Wynne, I know we do not use the Israeli requisition process, 
but I would note that Israel declared its Arrow BMDS to 
operational status quite early in its testing, and that they 
have continued to improve the Arrow over time. How well has 
that approach worked for them?
    Mr. Wynne. I can take that a little bit, sir. I would tell 
you that, first of all, the Israeli nation is faced with 
continuing threats. They have a marvelous system for rapid 
deployment. They have a smaller force for the rapid deployment. 
I think their contribution in the Arrow system is quite 
significant.
    It is telling, however, that they felt they needed it and 
they, of course, needed it in support of OIF that we were just 
in. Then when they had a system capability, they brought it 
online and they hoped they would never have to use it, and I 
think that is what occurred. General?
    General Kadish. I would agree with that since we worked so 
closely on the Arrow program with the Israelis. I would just 
make the comment that we have more tests than they did when 
they put it on alert as of this date.
    Senator Allard. I'd like to move on, General Kadish, to 
your national team concept, and it has come under a little bit 
of criticism here. Would you describe in more detail the roles 
that the national team plays in your effort to develop the 
BMDS? Also, how would you quantify the effects of a funding 
reduction to the program elements that relate to the national 
team?
    General Kadish. The national team is a collection of 
personnel from all industry partners that we could sign up, as 
well as government. Their job is to do the systems engineering 
so critical to make these very complex systems work, and cross 
the boundaries of the Army, Navy, and Air Force systems that we 
are using to do the detailed engineering.
    If we did not have that entity, I could not at all be 
confident that we could fulfill our promise in delivering an 
integrated BMDS. That is how critical it is.
    Mr. Wynne. If I could add to General Kadish's comment, over 
the years, every time that we wanted to reduce a program, we 
always seem to go after the systems engineers and then we paid 
for it later. I have really taken a specific interest in making 
sure that we reassert the level of systems engineering 
competence across the Department.
    I think the method that General Kadish has used has really 
contributed in an extraordinarily beneficial way to achieving 
in 5 years from the 1999----
    Senator Allard. So you would assess the national team 
performance as exceptional?
    Mr. Wynne. I would assess the national team performance as 
essential to what he is trying to do. Yes, sir.
    General Kadish. I will just re-emphasize that. Whenever we 
get resources marked against it, we have to reduce people. That 
increases our difficulty of getting the job done.
    Senator Allard. Senator Levin?
    Senator Levin. Thank you, Mr. Chairman. Mr. Christie, is 
this system still in developmental testing in your judgment?
    Mr. Christie. Yes, sir.
    Senator Levin. When will it move over to your office to 
operational testing?
    Mr. Christie. As of right now there are no plans for that. 
We are heavily involved with the office in most of the flight 
tests that will take place over the next couple of years. We 
will have operational flavor. The operation of the sites at 
Fort Greeley and Vandenberg will have operational troops, and 
we will be gathering a lot of operational data from those 
deployments.
    But as far as dedicated operational testing that I am in 
control of right now, that's not in the plan for the 
foreseeable future. I can not answer that.
    Senator Levin. Ever?
    Mr. Christie. It depends on, as the system matures, and if 
we eventually turn some of these systems totally over to the 
operators and we can go into what we call real production, then 
I would think, yes, Title X will kick in then, and we will have 
operational testing.
    Senator Levin. What is the purpose of your office?
    Mr. Christie. The purpose of my office is to oversee the 
operational testing that takes place in the Services for the 
most part, and to provide our independent evaluation of that 
testing to the decisionmakers who are in the building and in 
Congress. One of the items that we are statutorily required to 
provide is a report to these decisionmakers and to Congress 
before a system goes beyond low-rate initial production and to 
do our assessment of the operational effectiveness and 
suitability of the system under test.
    Senator Levin. The underlying purpose of all of that is to 
make sure that we have maximum capability in a system, is that 
not true?
    Mr. Christie. That we are not delivering something to the 
troops that is ineffective or unsuitable and we are allowing 
them to know what they are getting in their hands. That is 
right.
    Senator Levin. That is the reason we want maximum 
confidence in that capability?
    Mr. Christie. Of course.
    Senator Levin. That is the purpose of your office.
    Mr. Christie. That is right.
    Senator Levin. That is why your office takes over 
developmental testing at some point on weapons systems?
    Mr. Christie. That is right.
    Senator Levin. You have no idea when that is going to----
    Mr. Christie. At this point in time, I do not see it in the 
plan.
    Senator Levin. At all. General Kadish, is it your 
understanding that this is going to be turned over from 
developmental testing to operational testing at some point in 
the future?
    General Kadish. I think that has always been our vision on 
this, but the difficulty that Mr. Christie and I are struggling 
with is when should that happen given the nature of this 
particular weapons system. It is different from almost anything 
I have been associated with.
    Senator Levin. Mr. Christie, at the time of your most 
recent report to Congress in January, two intercept tests were 
scheduled prior to the September deployment of the system. At 
that time, you said, ``even with successful intercepts in both 
of these attempts, the small number of tests would limit 
confidence in the integrated interceptor performance.'' Do you 
stand by that statement of 2 months ago?
    Mr. Christie. Yes, sir.
    Senator Levin. Now, we are going to see deployment after 
one intercept test. So would you say that would limit your 
confidence even further?
    Mr. Christie. It depends on how we conducted that test, and 
what other tests we will be conducting with the operators on 
hand. Certainly I would like two tests. I would like four tests 
between now and then, and with one versus two, obviously we 
will have less confidence in our assessment.
    Senator Levin. Even less confidence that you had a month 
ago?
    Mr. Christie. That is right.
    Senator Levin. In the budget request, there is a lot of 
money here for the apparently long lead activity as it is put 
for ground-based interceptors at a third site, is that correct, 
General?
    General Kadish. I do not believe that to be true. Not in 
the 2005 budget. If you are referring to the rest of what is 
noted in the budget, that is true. We do not start looking at 
that third site until fiscal year 2006.
    Senator Levin. Let me read you your budget. It says we have 
added funding for the next increment of BMD capability. The 
fiscal year 2005 funding for these efforts is approximately 
$677 million, and approximately $2.6 billion from fiscal year 
2005 to 2007. This includes funding for additional ground-based 
interceptors at Fort Greeley, the upgrade of the Thule early 
warning radar, and long-lead activity for ground-based 
interceptors at a potential third site.
    General Kadish. I am not sure that's accurate. I'd have to 
add, sir, for the record. But to the best of my knowledge is 
that we are asking for the funding for the fiscal year 2005 and 
2006, the next 10 if you will. If there is some long lead 
funding in there for the follow on 10, I am just not aware of 
it. I will just have to go back and check.
    [The information referred to follows:]

    MDA has requested funding from fiscal year 2005-2007 for the 
additional 10 interceptors at Fort Greeley. Also, MDA requested long 
lead funding for another 10 interceptors for a potential third site. 
The fiscal year 2005 increment also includes the initial funds for Fort 
Greeley missile field expansion, forward deployable radar, and Thule 
UEWR.

    Senator Levin. For the follow on 10, I want to be real 
clear as to what we are talking about. We have already funded 
20, and you are asking for 10 in this budget, so that is 30. 
Those are going to go to two sites, correct?
    General Kadish. The current planning is that that 10 go to 
Fort Greeley.
    Senator Levin. All right. The ten in this year's budget. 
Now, there is long lead for additional, according to your 
budget. You are not sure that is accurate?
    General Kadish. I am not sure. I would just have to go back 
and check.
    [The information referred to follows:]

    Included in the fiscal year 2005 request is $35 million for long 
lead materials for 10 interceptors for a potential third site.

    Senator Levin. If there is, that would be for a third site?
    General Kadish. Yes.
    Senator Levin. Where is that third site?
    General Kadish. That's the reason why it's not postulated 
fully in 2005. We still have to determine where that third 
site's going to be.
    Senator Levin. Is that part of a test bed?
    General Kadish. It will be a larger part of our testing 
activity. We have not characterized the third site sufficiently 
yet. That is why the budget is the way it is. We need more time 
to do that.
    Senator Levin. It may or may not be part of a third site, 
is that correct? It may or may not be part of the test bed, is 
that what you are saying?
    General Kadish. It may or may not be, yes.
    Mr. Wynne. Senator, I would tell you that once we start a 
warm line we want to keep that warm line because of the 
destruction in industry. The provision of long lead funding, I 
think where those missiles might go was a speculation in the 
document. The fact of the long lead I do not think is an issue.
    Senator Levin. Well, the issue is whether or not those are 
going to be part of a test bed or not. The answer is you do not 
know if they are.
    Mr. Wynne. We do not know if they are.
    Senator Levin. How many of the 30 that are going to be 
funded if this budget is adopted are going to be launched for 
flight testing? General?
    General Kadish. I think we have postulated three to four 
flight tests a year. That is what had been our planning factor 
for the out years. The source of those missiles I am not too 
sure of in terms of five, six, seven, eight--I mean, six, 
seven, eight, nine time frame----
    Senator Levin. What would you estimate would be the maximum 
number of those 30 that you would be planning on using for 
launch--for flight testing?
    General Kadish. Here is the way we postulate it would work. 
The missiles that we put in first in the test bed will be the 
first out to test and actually fly. We will replace those and 
those new ones would become part of the test bed, and----
    Senator Levin. How many of the Fort Greeley ones would be 
launched?
    General Kadish. Eventually all of them.
    Senator Levin. They would be moved somewhere else?
    General Kadish. No. Well, they may--this is part of the 
ongoing planning. That is why we all get frustrated from time 
to time when we change our plans. But we are flying out of 
Vandenberg and although we have not completed the environmental 
statements for the final decision, our intention is to fly out 
of Greeley.
    Senator Levin. Out of Greeley. That is a change?
    General Kadish. I have been saying that for a few years 
now.
    Senator Levin. It would be a change if that is approved.
    General Kadish. It would be a change.
    Senator Levin. My last question. If we approve these 10 on 
top of the 20 previously approved, how many of those 30 do you 
believe would be actually launched as part of flight testing? 
Could it be as many as 15?
    General Kadish. Can I take that for the record, Senator? I 
want to be precise on that and I just do not have the 
recollection for those quantities that far out. Those could be 
tested over the next 5 years or more, or longer. So I just do 
not know.
    [The information referred to follows:]

    We currently have 15 flight tests on our schedule that will utilize 
interceptors.

    Senator Levin. So you do not know what part of the 30 would 
be launched as part of either developmental or operational 
testing, is that correct?
    General Kadish. Yes.
    Senator Levin. Is it fair to say it will be less than 30?
    Mr. Wynne. Senator, I think if the General might think 
about it, all of those missiles will ultimately launched in 
tests. The question is when. I think your question goes to how 
many and when.
    Senator Levin. No, my question is not when, my question is 
whether.
    Mr. Wynne. Well, I can tell you that the first several 
tranches of Atlas missiles have all been launched----
    Senator Levin. In other words, it is possible that all 30 
of those are going to be used for developmental or operational 
testing, is that your answer?
    General Kadish. That is my belief. It is a matter of the 
timing. If you look at the way our ICBMs go, we launch those 
regularly. We use up the inventory. I do not think it would be 
wise in missile defense not to do the same thing.
    Senator Levin. If there is any change in that answer for 
the record, let us know. Thank you, Mr. Chairman.
    [The information referred to follows:]

    No change.

    Senator Allard. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. General 
Kadish, I have some questions because of the GAO report. The 
GAO has been looking into the ABL program. They recently 
provided a review of the preliminary findings and some of the 
findings are truly, truly astounding.
    GAO calls into question whether or not it makes sense for 
Congress to continue funding this program at the requested 
level, especially in this era of tight budgets. In regard to 
the program's costs, GAO concludes, ``the prime contracts costs 
has increased by about $1 billion since 1996. In fiscal year 
2003, the cost overrun was $242 million, and that the prime 
contract could overrun budgeted costs at completion by $431 
million to $943 million.''
    So we are looking at $2 billion in cost overruns before we 
get to the first operational test of the system. My question to 
you, General, is what is MDA's estimate of how much this ABL 
program is going to cost by completion?
    General Kadish. Well, the definition of completion is a 
little bit problematical, given the revolutionary nature of 
this effort. But I can tell you what is in the budget. We have 
about $2 billion in the budget to continue development over the 
next 5 years. In fact, I think it is higher than that. I think 
it is closer to three.
    The nature of the cost turbulence that you pointed out is 
reflecting the very complex development effort of putting a 
laser on an airplane like the 747 and making it work. We have a 
technical challenge, and we have been doing very well against 
that technical challenge, but it has been costing us more money 
and taking longer to do.
    If I could just use for illustration why we are dealing 
with this right now, I will use this laser here. If you could 
look at that wall over there, and I am trying to hold that 
thing pretty steady, but it is still bouncing around, and we 
want to do that over 200 miles basically. We are close to doing 
it. We believe we are close to doing it. It is revolutionary in 
its impact but it is probably one of the most complicated 
airplane weapons systems integrations that this country has 
ever done.
    So it is costing more, but we believe the investment is 
worth it at this time.
    Senator Akaka. General Kadish, when the ABL was first 
proposed, it seems to me people were very optimistic, maybe 
even overly optimistic about the engineering problems and 
greatly underestimated the technology and integration problems. 
People have to be coaxed, I understand, out of retirement to 
work on the optical problems. A lot of engineering involved has 
been described now as a lost art.
    I understand that the volume of testing required for 
hundreds of first of their kind components was never 
anticipated. The GAO believes that the Air Force put this into 
an acquisition program before it was ready.
    Originally, MDA said it would demonstrate the laser's 
lethal effectiveness by testing its ability to shoot down a 
missile in fiscal year 2005, but now, in your 2005 budget 
request, MDA says only by the ``earliest possible date.''
    You have a technology that we do not know whether it will 
work, or at least you cannot provide a date when it will or how 
many billions of dollars more it will cost. So my question to 
you is, why is this still an acquisition program? Why is it not 
a S&T demonstration type of program?
    General Kadish. Well, I think the ABL program as it is 
being managed today is typical of the way we are doing 
everything in the missile defense effort. A capabilities-based 
evolutionary approach.
    That means we are not in a classic acquisition, where we 
are dealing with a mature technology, where something already 
exists like an airplane and we are trying to make it better. We 
are dealing in an area of technology that nobody in the world 
has ever done before. It requires new management techniques and 
new understanding of the risks involved.
    I think that the dollars we have allocated to this are 
visible and understandable. The technical progress we have made 
has been substantial, but we are not there yet. I think that we 
do not have a production program behind us like a normal 
acquisition program. We do not have a lot of the other 
activities that we will be spending money on.
    In fact, because of our delay I restructured the program 
last December, such that we decided not to buy another aircraft 
and start that integration effort until we made more progress 
on the first one.
    So I believe that the management actions we have taken and 
the technology we are dealing with is worth the effort to 
proceed and the dollars required to do that.
    Senator Akaka. General Kadish, I understand from the GAO 
again that the current ABL contract is supposed to reach its 
cost ceiling by May 2004. The MDA cannot build a business case 
for this program, I believe, at this time. An example is in 
fiscal year 2004, where you requested $345 million and in 
fiscal year 2005, $150 million. But your fiscal year 2005 
budget request is showing $603 million in fiscal year 2004, and 
$474 million in fiscal year 2005.
    My question to you is, how are you justifying this for 
funding for a program from year to year. It does not seem to 
have any idea how much it will be expending.
    General Kadish. Senator, that is an accounting activity. I 
think the GAO focused on only one airplane. In the budget, we 
have projected to start buying that second airplane. As I just 
mentioned to you, we restructured the program and decided to 
defer that second airplane, and we applied the funds to the 
first airplane.
    It is not correct to say that we do not understand how much 
it costs us to do the work in any given year. We certainly know 
that with great precision. The problem we are having is that it 
is taking longer for us to do the work. So we have added to the 
budget to make sure that we adequately fund that effort. But we 
have diverted the funds from the second aircraft to the 
fundamental effort.
    Senator Akaka. Mr. Chairman, I have just one more question 
for Mr. Christie. It has been reported that several critical 
elements of the ground-based midcourse defense system, which is 
scheduled to be operational by October 2004, will not be ready 
on time because of technological challenges.
    The MDA has stated that the system will still be deployed 
as planned, and that replacements will be used in place of 
these missing components. Of course, I am concerned that we 
will be deploying an incomplete system that will not protect 
the American people as we hope.
    Can you please discuss that decision to initiate a ground-
based midcourse defense system that is not fully tested and 
explain what risks we are incurring as a result of this 
decision?
    Mr. Christie. I am not sure what elements of the originally 
planned test bed will not be online, so I am not sure what you 
are talking about, that we are foregoing some of the elements 
such as the missiles in the silos, the upgrade to Cobra Dane, 
the early warning radar at Vandenberg, and missiles in the 
silos at Vandenberg.
    As we discussed earlier, some of the integrated flight 
tests that have been scheduled for this year have now been 
slipped, and we have discussed the reasons for that. So there 
will be less flight tests to support an assessment that is done 
sometime--the continuous assessment that will be done during 
the year concerning what will be the capability that is there 
when we have an initial deployment.
    So I am not sure what elements are not going to be there 
that we had planned to have there. Are you familiar with that, 
General Kadish?
    General Kadish. Senator, we are going to have all the 
elements we need based on our schedules today unless something 
happens between now and then. So we are on track to do that. 
The hardware will be there. The software appears to be ready to 
go and then we are going to decide whether or not we are going 
to have it in an alert posture. The hardware will be there on 
our internal schedules. As Mr. Wynne said, there is no date 
certain for us to do that, but we do have our internal target.
    Senator Akaka. I thank you very much for your responses. 
Thank you, Mr. Chairman.
    Senator Allard. Thank you. I want to wrap this up with just 
one final question here. We had the discussion on the number of 
missiles that you require.
    Secretary Wynne, I would like to have you and Mr. Kadish 
answer this question. How many of the missiles you are 
requiring will be used in cycle and other lifecycle testing?
    Mr. Wynne. I can tell you, Senator, that the way this 
program is evolving, every one of the new missiles will be 
better than the one that was previously produced. The testing 
is continuous. The workers are learning. The industrial workers 
are learning. Each one of the missiles will add to the 
reliability of the system.
    In addition to that, as General Kadish said, I think we 
will have the capability to do an actual operational concept 
which actually will use two missiles instead of one missile 
during the test. If we do that on a realistic basis, and 
depending on whether Mr. Christie or his successor demands that 
we do an actual operational, I think that is only 15 tests. So 
every one of them will add to the reliability.
    Senator Allard. General Kadish, any further comment on 
that?
    General Kadish. I would agree wholeheartedly.
    Senator Allard. Gentlemen, I want to thank all of you for 
your service to this country. We have spent a lot of time in 
front of this committee. We appreciate you sharing your 
thoughts with us. I wish you well. Thank you very much.
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Wayne Allard
                                 pac-3
    1. Senator Allard. General Dodgen, as effective as the PAC-3 is, it 
remains an expensive tactical missile--over $3 million per copy. Would 
you describe any efforts the Army has to reduce the unit cost, and how 
is the contractor incentivized to reduce unit cost? How does reducing 
the procurement quantity affect the unit cost?
    General Dodgen. The approximately $3 million amount that is often 
quoted for each PAC-3 missile includes not only the cost of the actual 
missile unit but also administrative overhead, replacement/redesign of 
obsolete parts, and reasonable contractor profit. From a production 
standpoint, unit production costs continues to decrease from the 
initial PAC-3 production costs. However, the Army and the prime 
contractor recognize that unit production costs are still too high for 
the missile. Accordingly, the Government recently contracted for the 
fiscal year 2004 production of the PAC-3 ``Cost Reduction Initiative'' 
(CRI) missile. The CRIs will improve manufacturing of the missile by 
reducing touch labor and using components currently being used in other 
Department of Defense (DOD) programs as opposed to PAC-3 unique 
designs. In addition to reducing unit cost, the CRI missile adds new 
capability that will enable the missile to be integrated into the 
future Medium Extended Air Defense System (MEADS). Reducing procurement 
quantities negatively affects the unit cost as program fixed costs are 
spread over fewer deliverable missiles.

                             airborne laser
    2. Senator Allard. General Kadish, I understand that you have 
restructured the Airborne Laser (ABL) program because of delays in 
building the laser and complications in integrating the subsystems in 
the aircraft. What metrics will you use now to measure progress in the 
program and will you, in this restructure, have insight into the 
anticipated cost to complete the test aircraft?
    General Kadish.
    a. The ABL program office will continue to use cost and technical 
metrics to measure progress and anticipated cost towards completion of 
the test aircraft, as we have since the inception of the program. The 
following metrics are all being collected in addition to standard 
earned value measurement techniques. For example, insight into cost to 
complete the program will be obtained through the use of an Integrated 
Baseline Review.
    b. The methods for measuring technical progress include inchstone 
measurements and headcount tracks, which also provide insight into 
cost. Each inchstone correlates to a key point or task in the schedule 
and the schedule provides the baseline for cost performance.
    c. We will also perform Schedule Risk Analysis, which consists of 
comparing actual schedule performance against the anticipated progress. 
This gives us a confidence level in the contractor's remaining 
schedule.
    d. Finally, tracking and forecasting of all full-time equivalent 
personnel working on the program is well correlated to expenditures 
since material costs are only a small component, thereby providing 
another insight into costs.

                       flyingdales radar facility
    3. Senator Allard. General Kadish, I understand that the U.S. and 
United Kingdom (U.K.) recently signed a formal memorandum of 
understanding and agreed to upgrade the Flyingdales radar facility. I 
also understand Japan recently agreed to provide nearly $1 billion for 
their own sea-based and ground-based missile defense in cooperation 
with the United States. We are negotiating a ballistic missile defense 
(BMD) framework with Australia and redefining our cooperative defense 
agreements with Canada. It seems to me that ballistic missile threat is 
a global problem that requires a global solution. Therefore, I applaud 
your efforts to build cooperative relationships with our allies. Can 
you expand upon your vision for international cooperation on missile 
defense and what challenges have you encountered in making this vision 
a reality?
    General Kadish. The Missile Defense Agency (MDA) sees international 
partners contributing to the Ballistic Missile Defense System (BMDS) in 
four fundamental ways. First, allies/friends can work with us in 
development efforts for new or improved elements of the system. Their 
technical contributions have helped us in the past. As an example, 
technology used in the focal plane array of the Arrow missile was used 
in their proof of principle test for Theater High Altitude Area Defense 
(THAAD). By working together on the Arrow development and its 
integration with Israel's Patriot batteries, we have learned valuable 
lessons for our own multi-tiered missile defense system. Second, 
allies/friends can help by allowing elements of the BMDS to be forward 
based on their territory. The radar at Royal Air Force Fylingdales is 
an excellent example of this form of cooperation. Third, allies/friends 
can help by developing their own capability to defend against ballistic 
missiles, thereby reducing the burden on the U.S. in some parts of the 
world. Israel and Japan have both committed to a national missile 
defense capability. That capability augments U.S. capability and 
reduces the requirement on U.S. forces in scenarios for the defense of 
both of those countries, as well as serving to protect U.S. forces that 
are deployed to each region. Finally, allies/friends lend political 
support to the U.S. missile defense program, providing both a rationale 
and support for military needs leading to further contributions to 
missile defense such as NATO's pending approval of plans to modify its 
command and control systems to incorporate missile defense 
functionality. Our challenges have been centered around allied 
recognition of both the need for and the viability of missile defense 
capabilities. Our technical successes over the past several years, 
coupled with the increased recognition of the inability to halt all 
proliferation of ballistic missile delivery systems, has increased 
allied acceptance of and support to the development of an effective 
missile defense capability.

               transfer of u.s. technology and components
    4. Senator Allard. General Kadish, we have a very complicated 
export control system that is purposely designed to prevent the 
unintended transfer of U.S. advanced technology and components to 
potential adversaries. Yet, we have often seen instances where these 
same controls have hindered cooperation with our closest allies. To 
what extent have U.S. export controls complicated your efforts to build 
cooperative relationships on missile defense with our allies and 
coalition partners and do we need a fast track process for missile 
defense-related transfers to our allies and coalition partners?
    General Kadish. The technologies needed to make missile defenses 
effective are some of the most advanced and sensitive technologies 
found in defensive systems today. On the one hand, we want and need to 
be able to share necessary technologies with allies/friends working on 
missile defenses, but on the other hand, compromise of those 
technologies could have serious consequences to systems across a broad 
spectrum. For instance, our advanced radar technology could reduce the 
effectiveness of low observable aircraft. Therefore we must insure that 
we strike a balance between sharing necessary technology and protecting 
certain technology that is critical across the board. U.S. export 
controls have, in the past, complicated our efforts to build 
cooperative relationships on missile defense with our allies. Both the 
MEADS program with Germany and Italy and the Arrow program with Israel 
are examples of cooperative programs whose efforts were complicated by 
U.S. export control law. However, the Department is streamlining its 
internal processes to insure a thorough, yet timely review of 
technology transfers. We are working closely on the export issues for 
missile defense, and I am already seeing improvement in this process. 
With an inter-departmental focus on the release of missile defense 
technology to our allies, we expect to achieve the correct balance 
between missile defense cooperation and nonproliferation.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin
             stratcom and northcom roles in missile defense
    5. Senator Levin. Admiral Ellis, what are the roles of Strategic 
Command (STRATCOM) and Northern Command (NORTHCOM) in missile defense, 
and how are their efforts coordinated?
    Admiral Ellis. Change Two of the 2002 Unified Command Plan (UCP) 
tasked STRATCOM to plan, integrate, and coordinate the global missile 
defense (GMD) capabilities of the Nation. STRATCOM is operationalizing 
the capabilities being developed and deployed by the MDA.
    We are leading the development of the necessary doctrine, concepts 
of operations (CONOPs), and operational plans in coordination with our 
subordinate Service component commands and the other combatant 
commanders. This effort requires that we define the broad 
interrelationships among the Global Ballistic Missile Defense (GBMD) 
mission and other mission areas, such as intelligence, surveillance, 
reconnaissance (ISR) and strike operations, and information operations. 
Operationalizing GMD capabilities also requires detailed planning to 
address the policy, rules of engagement, force employment, force 
readiness, and logistics support, and tying together diverse system 
elements including sensors, interceptors, and the command and control 
network.
    NORTHCOM and Pacific Command (PACOM) are our principal warfighting 
partners in preparation for activation of the initial defense 
capability. With them, we are continuing to refine and validate our 
plans in a series of exercises and readiness assessments designed to 
prepare the responsible combatant commands for assuming operational 
responsibility for the initial elements of this nascent defensive 
system.
    Operation Iraqi Freedom (OIF) demonstrated an unprecedented level 
of cross-Theater Missile Defense cooperation and coordination. 
Integrated early warning data from Army, Navy, Air Force, and other 
intelligence sensors provided vital data supporting Patriot missile 
engagements of all threatening theater ballistic missile launches. 
Expanding upon OIF's example of an integrated and effective defense, 
STRATCOM is developing the GMD CONOP and the battle management 
architecture to provide full capabilities for regional combatant 
commanders to defend their areas of responsibility (AORs).

    6. Senator Levin. Admiral Ellis, how will STRATCOM develop the 
CONOP that must be in place when the Ground-Based Midcourse Defense 
System deploys in September 2004?
    Admiral Ellis. STRATCOM's role is to define the CONOPs, begin 
training and integration, provide command and control capabilities, and 
to ensure that assumptions regarding the employment, weapons release 
doctrine, and similar issues are clearly understood and reviewed prior 
to initiating fielding of this capability by the end of the year. The 
initial CONOP has been developed in collaboration with NORTHCOM and 
PACOM.
    The assumptions we have made are based on sharing the data that has 
been generated by the Director, Operational Test and Evaluation (DOT&E) 
and the MDA through tests and simulations that have been conducted in 
developing this system. We draw on their expertise and experience with 
legacy systems. STRATCOM accesses the database in order to understand 
fully the system capabilities in this developmental mode, to ensure we 
have a process in place that allows us to bring on line a limited alert 
capability at the same time as we continue the spiral development 
process. From these assessments, we craft the Military Utility 
Assessment (MUA), CONOPs, and the procedures for its employment in 
support of the Nation's security.

    7. Senator Levin. Admiral Ellis, what are the assumptions that will 
be made in the CONOPs including assumptions regarding continued testing 
of the system, nature of the threat, and availability of naval ships 
for radar surveillance duty?
    Admiral Ellis. Assumptions used to formulate the CONOPs are being 
finalized. It is assumed that sufficient BMD Aegis capable ships will 
be available for 24/7 radar surveillance duties. Commander, PACOM has 
been working very closely with the Navy and the Chief of Naval 
Operations (CNO) to ensure this availability is realized.
    The operational systems will be at various levels of readiness and 
operational capability coordinated with the BMDS research, development, 
test, and evaluation (RDT&E) developmental program. Processes, 
procedures, and checklist have been developed to rapidly transition 
from a ``Test'' status to a fully operational mode.
    Finally, downtime required to support test, development, training, 
maintenance, or logistics requirements will be authorized by the 
supported commander as part of 24/7 operations in accordance with 
readiness conditions, indications and warnings, and in coordination 
with STRATCOM.

                          operational testing
    8. Senator Levin. Secretary Wynne, Admiral Ellis, Mr. Christie, 
General Kadish, and General Dodgen, do you support operational testing 
of weapon systems, approved and overseen by the DOT&E, to ensure the 
systems work?
    Mr. Wynne. Yes, I do.
    Admiral Ellis. Yes. The intent of the team is to bring as much of 
an operational character as possible to the process, and to test it 
when it is appropriate and when the system's maturity permits. It is 
contingent on the assessments that we make in the early phases, on what 
milestones are achieved, and what technical capabilities are added. As 
we quantify the capabilities that we have brought on line through 2004, 
2006, 2008 and beyond, we will be better able to characterize the 
evolving configuration and assess its operational capabilities.
    We are supporting independent testing by involving operational test 
and evaluation (OT&E) people in the process. With large-scale systems, 
the complexity of the tests, the expense of testing, and modern 
simulation capabilities allow us to integrate elements of both 
developmental testing and operational testing as the system evolves. 
Technology and simulation now allow us, for the first time, to bring 
these elements together in a concurrent manner that more efficiently 
uses national resources and, arguably, more quickly delivers the 
capabilities that we need.
    Mr. Christie. Yes, I do.
    General Kadish. Yes, I do. We are working very closely with Mr. 
Christie and the operational test community. As our tests are planned, 
executed, and evaluated, the BMDS combined test force, which brings 
together representatives from across the testing community, is 
combining requirements for both developmental and operational testing 
capability.
    There are approximately 100 operational test personnel, full-time 
embedded in all facets of missile defense test planning and execution, 
who have access to all of our test data. They have the ability to 
influence every aspect of our test planning.
    General Dodgen. Yes, I do. Operational testing is an important 
element of system development and acquisition process to ensure 
successful weapons are provided to the warfighters.

                     operational assessment of nmd
    9. Senator Levin. Mr. Christie, in a February 27 letter to me and 
Chairman Warner, you referred to ``operational assessments'' of the 
BMDS. Are you planning to do such an assessment prior to the September 
fielding of the National Missile Defense system, what is the purpose of 
the assessment, and when do you plan to complete this assessment?
    Mr. Christie. I plan to provide independent assessments of the BMDS 
capability as new data becomes available. The purpose of these 
assessments is to keep the Department apprised of the capability that 
has been demonstrated during major test events and to provide advice on 
making future tests more operationally relevant. These assessments will 
be provided to General Kadish, Admiral Ellis, and to Under Secretary 
Wynne in accordance with my responsibility to advise the Department on 
testing matters.

              cost increases for national missile defense
    10. Senator Levin. Secretary Wynne, the Pentagon's budget request 
for missile defense is $1.2 billion more than last year. The 5 year 
budget projections for the Block 2004 and Block 2006 Ground-Based 
National Missile Defense (NMD) program have grown by almost $6 billion 
since last year, with most of the cost growth in fiscal years 2006 and 
2007. The total costs for this program have doubled in a single year. 
In any other program with normal DOD acquisition rules, such cost 
growth would trigger congressionally-mandated reviews, led by you, to 
determine what is wrong. What is wrong with the Ground-Based NMD 
program that is causing such tremendous cost growth, why have you not 
begun a review of the program in accordance with standard Pentagon 
procedures, and what confidence do you have that such cost growth won't 
continue to plague the program?
    Mr. Wynne. In the President's budget (PB) for fiscal year 2004, 
MDA's budget for Block 2004 and 2006 was $12.1 billion for fiscal years 
2005-2009. In the latest budget submission, PB05, this is now $17.7 
billion. This budget is for the entire MDA program of work in Block 
2004 and 2006, however, not just the Ground-Based Midcourse defense 
element. The increase is due, almost entirely, to new program content, 
the fielding of additional capabilities in 2006 and 2007, not cost 
growth. These capabilities include acquisition of additional ground-
based interceptors, upgrades to the Thule early warning radar, an 
additional third missile field site, 40 Aegis SM-3 missiles, three 
additional deployed radars and an additional sea-based radar. In 
addition, this increase, relative to the 2004 President's budget, 
allows us to acquire 3 additional deployed radars, 40 Aegis SM-3 
interceptors, and begin an initial fielding of THAAD.
    I review the complete MDA program quarterly and meet with General 
Kadish on a weekly basis where I review cost, technical progress, and 
schedule for selected activities. If unwarranted cost growth were to 
occur, I am confident that it would receive adequate management 
attention both within MDA and by me.

                  testing against warheads and decoys
    11. Senator Levin. General Kadish, in 2000, Mr. Christie's 
predecessor criticized the NMD program for not having tested against 
realistic targets and decoys, and specifically urged that ``tumbling 
warheads with tumbling decoys'' need to be tested against, prior to 
deployment of the system, since they pose a particular challenge and 
yet are easy for an enemy to do. Do you plan to conduct testing again 
using tumbling warheads and decoys prior to the September deployment 
date, and if not, when will you?
    General Kadish. [Deleted.]

    12. Senator Levin. General Kadish, do you believe, as your 
predecessor did, that such warheads and decoys are a concern? If so, do 
you believe they should be tested against as soon as possible?
    General Kadish. Tumbling warheads and decoys are targets of concern 
and will be tested against. The timing of the testing will be driven by 
the maturity of the system and the threat the system is intended to 
deal with at any given point in time.

                    test and evaluation master plan
    13. Senator Levin. Mr. Christie, in your Annual Report to Congress 
back in 2002, you noted that the Test and Evaluation Master Plan (TEMP) 
for the National Missile Defense program needed to be updated to 
reflect the Bush administration's new approach to missile defense. 
Current law specifies that such plans should be approved by you, the 
DOT&E. Is there a TEMP, approved by you, for the Ground-Based National 
Missile Defense program?
    Mr. Christie. There is no TEMP for the BMDS. There is a BMDS 
Overarching Master Test Plan currently in draft, Block Master Test 
Plans for each development block, Developmental Master Test Plans for 
each element, and detailed test plans for each major test event. My 
staff reviews and comments on each of these documents. My office 
approves the operational objectives for any combined development and 
operational tests.

    14. Senator Levin. Mr. Christie, do such plans exist for other 
major defense programs to be deployed this year, or which have already 
been deployed?
    Mr. Christie. Yes, major defense acquisition programs have a TEMP 
that is updated at major milestones.

    15. Senator Levin. Mr. Christie, such plans generally include a 
schedule for operational testing, do they not?
    Mr. Christie. Yes, they do.

    16. Senator Levin. Mr. Christie, do you still believe, as you did 
in 2002, that a TEMP should be developed, under your direction and 
oversight, for the Ground-Based National Missile Defense system, and 
for other BMDS, and that such a plan should include a schedule for 
operational testing?
    Mr. Christie. The TEMP is still a valid goal for spiral or 
capability-based acquisition programs. I believe MDA plans to prepare a 
TEMP for an element when the decision is made to transition it to the 
Services. Due to the uncertainty in trying to project when an element 
will be mature enough to transition to a Service, it is difficult to 
realistically schedule and plan operational testing. The Services are 
responsible for planning and executing operational testing on these 
systems. They would be reluctant to use scarce, valuable resources to 
plan a test prior to knowing what and when they will be testing. Since 
the MDA programs are a special acquisition case in the Department, 
DOT&E and the Services are trying to work within the framework 
established for the BMD programs. We are, however, attempting to 
evaluate as many of the operational test objectives as possible during 
combined developmental and operational testing.

             circumstances nmd deployment would be delayed
    17. Senator Levin. Secretary Wynne and General Kadish, are there 
any circumstances under which you would consider delaying the September 
deployment date of the Ground-Based Midcourse System?
    Mr. Wynne. The initial BMD capability will be placed in operation 
when it is ready. The exact date that this occurs will depend on the 
completion of required events, rather than a fixed schedule. Testing of 
the developing BMDS and assessments of its military utility conducted 
to date have not provided any indication of problems that would call 
for a delay in the fielding of the initial capability.
    General Kadish. The basis for confidence in the system to serve as 
an initial defensive capability is its demonstrated performance in 
ground and flight testing throughout the development test program and 
extensive modeling and simulation. We evaluate the results of each test 
event and make that data available to the combatant commands for their 
MUAs.

      deployment dates for ground- and sea-based missile defenses
    18. Senator Levin. Mr. Christie, in your February assessment of the 
BMDS, you assessed the sea-based Aegis missile defense as potentially 
having some operational capability against short-range missiles. 
However, in this same assessment, you did not say the same for the 
Ground-Based NMD that is to be deployed in September. For this system, 
all you said was, ``[The Ground-Based Missile Defense] is currently a 
developmental system with limited deployable hardware and software.'' 
Why was your assessment of the two systems different?
    Mr. Christie. In all Aegis tracking and flight testing to date, the 
Navy has used operational ships and trained crews to conduct these 
tests. These tests have shown that the operational ships and crews are 
capable of intercepting short-range unitary targets. Thus, the Aegis 
has demonstrated some limited operational capability. The Ground-Based 
NMD System has not yet demonstrated a similar capability using the test 
bed's hardware and software and trained soldier operators.

    19. Senator Levin. Mr. Christie, why did you not say that the 
Ground-Based NMD could be employed against long-range missile threats?
    Mr. Christie. It never occurred to me that this would be a question 
at the time I prepared my report. It was obvious to me that the Ground-
Based NMD System could not be employed against any threat because a 
deployable system did not exist at that time. Once the planned Ground-
Based NMD System test bed is built and integrated, including missiles, 
it may have some inherent capability that could be used against long-
range missile threats. The system has been designed and built to 
conduct this mission. As we begin to test the integrated system in the 
test bed, we will be able to characterize its capabilities more 
thoroughly.

    20. Senator Levin. General Kadish, the administration plans to 
deploy the Ground-Based NMD in September of this year, whereas the more 
mature and more capable sea-based system won't be deployed until next 
year. Why are you deploying the less mature and less capable system 
first?
    General Kadish. Later this year the United States will field an 
initial BMD capability as directed by the President. This so-called 
initial defensive capability will consist of both ground-based and sea-
based components, including Ground-Based Interceptors (GBIs), and sea-
based interceptors, the Standard Missile-3 (SM-3). The SM-3 interceptor 
is designed to engage short and medium range ballistic missile threats. 
A limited number of interceptors will be available during our initial 
fielding in the fall of 2004. The GBI is intended to defeat long-range 
missile threats. Both systems will continue to be tested using 
operationally realistic scenarios. These tests will help to provide 
enhancements to the systems as the technology matures.

             nmd effectiveness under unforeseen conditions
    21. Senator Levin. Admiral Ellis, would you agree that any launch 
of a North Korean long-range missile against the U.S. would be an 
unforeseen event--if the U.S. knew such a launch were coming, surely we 
would take the necessary actions to prevent the launch from occurring 
at all?
    Admiral Ellis. As noted in the 2002 National Security Strategy 
(NSS), North Korea has become one of the world's principal developers 
and exporters of ballistic missiles and has tested increasingly capable 
missiles while developing an arsenal of weapons of mass destruction 
(WMD). The NSS directs that the U.S. maintain the option of preemptive 
action to counter a sufficient threat to our national security. The new 
global missions assigned to STRATCOM in Change 2 to the 2002 UCP 
provide additional capabilities that expand the options available to 
the President of the United States for deterring the use of WMD against 
the U.S. or our allies. Our Global Strike mission provides rapid, 
extended range, precision kinetic and non-kinetic (elements of space 
and information operations) effects in support of theater and national 
objectives. STRATCOM is developing capabilities that provide these 
integrated options, ranging from preemptive strikes prior to a missile 
launch to coordinated, offensive, and defensive retaliatory responses 
within our ISR mission, we are working to provide integrated 
information on threats, wherever they may emerge.
    Our military capability to decisively end any conflict on our terms 
with advanced non-nuclear and nuclear capabilities, if necessary, 
integrated with GMD casts a long shadow over an adversary's 
decisionmaking process by threatening unacceptable costs and denying 
the benefits he seeks. However, we do not rely on a deterrence strategy 
alone, but on the full range of capabilities we can marshal to protect 
our Nation and meet commitments to friends and allies.

    22. Senator Levin. Admiral Ellis, as the person responsible for the 
defense of the United States, would you like to see the Ground-Based 
Midcourse Defense System operationally tested in a combat-like way, 
under unforeseen conditions, as soon as possible to assess how it will 
work in battle?
    Admiral Ellis. My belief is that this effort is currently underway. 
Over an extended period of time, as we move through the developmental 
test phase, we are placing the system and evolving its capabilities in 
the operational environment where they would be employed. There are 
obviously elements that cannot and, hopefully, will never be tested 
from a full operational capability--such as, the launch of threat 
missiles from potential adversaries. I do believe that the elemental 
testing that is underway will characterize the dynamics of and the 
environment in which this system is intended to operate. We will define 
and refine the sensor capabilities. We will assess the command and 
control linkage and the command and control processes and all of those 
elements will then be integrated in a comprehensive manner.

    upcoming tests to use global positioning system to track target
    23. Senator Levin. Mr. Christie, the next major flight test of the 
Ground-Based NMD system is called the Integrated Flight Test (IFT-13C). 
According to the official test plan provided to us, IFT-13C will use 
the Global Positioning System (GPS) to help guide the interceptor to 
the target. The target has a GPS receiver on it, and it broadcasts its 
position to the missile defense system in the form of radar data that 
would otherwise exist, but which is not available in this test. Range 
safety aside, do any of the tests between now and September not use 
such GPS information to help guide the interceptor to the target?
    Mr. Christie. IFT-13C and IFT-14 will both use GPS information to 
provide target cluster positions to a simulation of the Cobra Dane 
radar.

    24. Senator Levin. Mr. Christie, range safety aside, when is the 
first test which will not use such GPS information to help guide the 
interceptor to the target?
    Mr. Christie. IFT-16A will fly a target out of Kodiak, Alaska down 
the west coast using Aegis and Upgraded Early Warning Radar with a 
simulated interceptor out of Vandenberg Air Force Base. In mid to late 
2005, IFT 17/18 will fly a target out of Kodiak using Aegis and the 
Upgraded Early Warming Radar, with a salvo firing of two interceptors 
out of Vandenburg.

                      testing prior to deployment
    25. Senator Levin. Mr. Christie, the test plan for the next NMD 
flight test, known as IFT-13C, says, ``the IFT-13C engagement geometry 
is highly scripted, and remains similar to prior flight tests, even 
with the advent of [an] improved booster.'' Is this highly scripted 
engagement geometry going to change for the tests that are scheduled 
between now and the September deployment?
    Mr. Christie. The geometries for IFT-13C and IFT-14 will be 
different from previous tests in that they each fly a target out of 
Kodiak. Both tests remain scripted in order to control variables due to 
their developmental nature.

    26. Senator Levin. Mr. Christie, will the tests that are scheduled 
between now and the September 2004 deployment all have essentially the 
same highly scripted engagement geometry which has been used in prior 
flight tests?
    Mr. Christie. The geometries for IFT-13C and IFT-14 will be 
different from previous tests in that they each fly a target out of 
Kodiak. Both tests remain scripted in order to control variables due to 
their developmental nature.

    27. Senator Levin. Mr. Christie, is this engagement geometry at all 
similar to what one would expect to see if North Korea launched a 
missile at the U.S. west coast, and the interceptors deployed at Ft. 
Greeley were used to try to hit it?
    Mr. Christie. Testing to date was not planned to demonstrate 
Initial Defense Operations (IDO) capability and has not been 
particularly representative of such scenarios. While IFT-13C and IFT-14 
do not replicate that engagement geometry, they have been tailored to 
be more representative of that mission and do create more realistic 
engagement conditions.

    28. Senator Levin. Mr. Christie, if the North Koreans ever did 
launch a missile at the U.S., would the resulting engagement be 
``highly scripted,'' as the tests now are?
    Mr. Christie. Obviously, the engagement would not be scripted. 
There would probably be some warning that an attack is imminent, but, 
for the most part, the mission would be spontaneous.

    29. Senator Levin. Mr. Christie, what are some of the uncertainties 
that a real threat missile would present us with, that the tests 
between now and the planned deployment will not address?
    Mr. Christie. There are many uncertainties about the threat (launch 
time, missile flight stability, intended target, type of warhead, 
countermeasures, etc.) that may affect performance. The MDA is 
addressing many of these uncertainties through simulation, while others 
will not be addressed until later blocks. Full-up system testing is 
building toward more realistic tests, but we will never be able to 
exercise all the threat uncertainties fully in flight tests. More 
realistic flight tests will be used to validate system performance 
models. We will depend on ground tests, hardware-in-the-loop 
simulations and other models to explore performance in more realistic 
attack scenarios.

                     realistic operational testing
    30. Senator Levin. Admiral Ellis, you will be responsible for 
operating the NMD and protecting the U.S. from nuclear-armed missile 
attack, beginning in September 2004. Do you want this system tested 
under realistic, combat-like conditions, as soon as possible?
    Admiral Ellis. The continued testing that OT&E and the MDA are 
pursuing is, in my view, going as aggressively as is appropriate and 
prudent. As capabilities are delivered, they are tested and assessed, 
and changes are immediately made to reflect the lessons learned. A 
system of this scale and complexity is unique in the history of the 
Nation. It requires a global test range in order to put all these 
elements in place, and so in my view, there is a logic in putting it in 
place where it is intended to operationally serve.
    From an operational standpoint, testing at the actual sites from 
which it will be expected to operate with all of its elements is about 
as realistic an operating environment as we could expect. As we 
continue to refine and advance testing in an operational environment, 
we will significantly enhance the operational character of the tests 
that will unfold in the years ahead.

    31. Senator Levin. Mr. Christie, as the Pentagon's chief tester, 
you have expressed concerns about the maturity of NMD, and its 
readiness to go up against real threat missile. Would you therefore 
want to see us focus our resources on realistic operational testing of 
this system, under combat-like conditions, as soon as possible?
    Mr. Christie. More realistic testing should be performed as soon as 
the system is ready. It is prudent to exploit the inherent operational 
capability of the test bed and to characterize that capability as soon 
as possible.

                      russian maneuvering warhead
    32. Senator Levin. Mr. Christie, the Russians have announced 
recently that they have developed a maneuvering warhead that can evade 
the missile defense that the administration plans to deploy in 
September. Assuming the Russians are telling the truth, could such a 
maneuvering warhead possibly be able to evade our missile defense?
    Mr. Christie. I am unable to assess the BMDS capability against 
this maneuvering warhead at this time. In general, weapon systems with 
a closed loop fire control guidance system can deal with maneuvering 
targets, within the dynamic limits of the system. The objective BMDS 
should be able to close the guidance control loop in several ways.

                 advance knowledge of target signatures
    33. Senator Levin. Mr. Christie, the test plan for the next major 
NMD test, known as IFT-13C, says that the NMD system has ``advance 
knowledge of the target signatures. The accuracy of this data is much 
higher than is realistic for [a] threat missile.'' Do you think we will 
know what a real enemy missile will look like in such great detail?
    Mr. Christie. Probably not.

    34. Senator Levin. Mr. Christie, have all previous missile defense 
tests been conducted with such detailed advance knowledge of the 
target?
    Mr. Christie. Advance knowledge of the target is a common practice 
in developmental testing when the objective is to understand and 
confirm the missile design and technical performance. This is not the 
practice in operational testing.

    35. Senator Levin. Mr. Christie, if a real threat missile turns out 
to look significantly different than the test targets, could that cause 
the missile defense to be degraded, or even to fail completely?
    Mr. Christie. The MDA is not designing the BMDS to have capability 
against a specific threat missile or signature. Their design appears to 
be flexible enough that the BMDS will be capable of engaging threat 
missiles over a wide variety of signatures, countermeasures and flight 
dynamics. If they prove successful in this approach, the threat missile 
signature should not make a significant difference to the performance 
of the BMDS. Initial analyses indicate their approach is promising. 
This capability will have to be confirmed in both ground and flight 
testing.

                 space-based interceptors affordability
    36. Senator Levin. General Kadish, your budget request includes 
nearly $80 million for space-based weapons-related research and 
development (R&D). $68 million of that is to actually launch a short-
range kill vehicle into space on the Near Field Infrared Experiment 
(NFIRE) satellite. Are you aware of the study by the American Physical 
Society (APS) that indicated you would need a thousand or so space-
based interceptors (SBIs) in orbit in order to make an effective 
system, and the follow-on study by the Congressional Budget Office 
(CBO)--which used much more optimistic assumptions, but still concluded 
that hundreds of interceptors would have to be launched?
    General Kadish. The $68 million of the nearly $80 million you 
reference is for our NFIRE. NFIRE is an on-orbit satellite experiment 
that is a risk reduction effort for our BMDS Block 10 land-based 
Kinetic Energy Interceptor (KEI) program. It is not part of our SBI 
efforts. The objective of NFIRE is to collect near field (sub-meter 
resolution) infrared imagery of the plume and hard body of boosting 
intercontinental ballistic missile (ICBM)-type targets. KEI will use 
this data to develop the kill vehicle plume-to-hard body guidance 
algorithms for our land and sea-based systems. We are not planning any 
follow-on NFIRE satellites.
    Yes, I am aware of the APS study and that the CBO is conducting a 
follow-on study. We have not seen the CBO report yet. In fiscal year 
2003, the National Team developed a response to the APS which analyzed 
space based interceptor constellation sizes and came to a conclusion 
that constellations of 150-450 would be required.

    37. Senator Levin. General Kadish, have you done any cost studies 
to see what the total cost to orbit and maintain such large 
constellations of satellites would be?
    General Kadish. This year (fiscal year 2004) we do not have funding 
for any SBI efforts. However, we are currently working with the Missile 
Defense National Team to try to understand the value of SBI to the 
layered BMDS. For the Nimble Titan 04 wargame, we have modeled a small 
SBI constellation (10 satellites) to begin to understand the military 
utility of an SBI as well as to understand the constellation size 
required to defend against a single threat country.
    For fiscal year 2005 we have requested nearly $11 million to 
continue this analysis. Also we plan to initiate SBI technology risk 
reduction projects that will focus on capability miniaturization (e.g., 
seeker and propulsion) and affordability.

    38. Senator Levin. General Kadish, do you believe we could afford 
such large constellations of satellites, when we are currently 
struggling to keep far smaller and less complex satellite programs on 
schedule and on budget?
    General Kadish. One of my goals is to understand the point (minimum 
constellation size and associated BMDS interfaces) at which an SBI 
capability begins to cost-effectively contribute to a layered defense 
against all threat classes in all phases of flight. Until I understand 
that point, I am not comfortable speculating on affordability.

                    space-based interceptors policy
    39. Senator Levin. Secretary Wynne, General Kadish wants to spend 
close to $80 million next year on research related to SBIs. I 
understand that such interceptors could also be easily used to destroy 
enemy satellites, if we chose to do so. What is the Pentagon's current 
policy regarding such space-based weaponry, and would such a SBI system 
be consistent with that policy?
    Mr. Wynne. Americans have come to rely on the unhindered use of 
space and will demand no less in the future. This includes robust 
capabilities for assured launch and space control. While the United 
States supports the peaceful use of space by all, prudence demands that 
we be able to ensure the United States, its allies, and coalition 
partners will be able to make use of space.
    Of the $80 million referenced in the question, only $10.5 million 
will be for research related to SBIs. That amount will fund risk 
mitigation and definition of the operational concept for a space-based 
test bed that could be available for deployment in 2012. However, a 
decision is not expected prior to 2008 on whether to proceed with an 
on-orbit test bed of a small constellation. If fielded, tile SBIs would 
be part of a layered defense against ballistic missiles, not for 
attacking enemy satellites. Ultimately, any future action to deploy 
interceptors in space would require additional Department and 
congressional decisions and funding.
    The remainder of the $80 million figure ($69.5 million) is to fund 
the NFIRE, an on-orbit satellite to collect measurements of boosting 
targets. NFIRE is critical to reducing the risk of booster plume-to-
hard-body discrimination for the Block 10 KEI program, to maturing the 
technology of the kill vehicle component of the KEI, and to enabling 
the verification and validation of the KEI performance.

                         airborne laser program
    40. Senator Levin. General Kadish, the General Accounting Office 
(GAO), the investigative arm of Congress, recently completed an audit 
of the ABL program, and briefed the committee staff on the preliminary 
results. The GAO audit found that the program has experienced 
tremendous cost growth, driven by numerous technical problems and 
schedule delays. I know you have recently restructured the program, but 
you are still requesting at a very high level of funding for it in 
fiscal year 2005. At what point do the delays, problems, and cost 
growth for the ABL grow so large that it is not worth continuing such 
aggressive funding for the program--at what point do you reduce funding 
to more of a basic science and technology (S&T) level, and focus 
resources on other areas?
    General Kadish.
    a. The ABL program represents a revolutionary weapons concept that 
requires the integration of several sophisticated state-of-the-art 
technologies. Expertise is required in a diverse range of technologists 
including laser physicists, optical engineers, and aeronautical 
engineers. The current level of funding for the ABL program reflects 
the resources needed to successfully accomplish that complex 
integration.
    b. If you note, the funding request for 2005 actually represents a 
decrease of over $160 million from the original fiscal year 2004 
presidential budget submission. This is the result of a conscious, 
proactive decision to defer certain work until key knowledge points 
were achieved. Our external technology reviews continue to conclude the 
underlying physics is sound, the proposed engineering path forward is 
sound, and its potential is revolutionary. This explains why steady 
progress is being made, albeit slower than desired. Regardless, we 
understand that cost control is an important concern, which is why we 
continue to monitor the program closely, in accordance with sound 
financial management principles.
    c. The ABL, once completed, will offer a unique and critical 
military capability of significant benefit to the BMDS in support of 
boost phase missile defense. As the first system to use directed energy 
to kill a launching missile, it represents a radical departure from 
hit-to-kill systems, complementing other BMDS capabilities. It is 
technically achievable, and affordable within the BMDS. Therefore, at 
this time the program merits continuation, as currently funded.

                event-driven approach to missile defense
    41. Senator Levin. General Kadish, in 1999, defense expert General 
Larry Welch completed a review of the NMD program which had been 
requested by the Pentagon. In written testimony before the Senate Armed 
Services Committee in June of 2000 you summarized the results of 
General Welch's report by saying, ``General Welch's team highlighted 
three basic criticisms. One of them, the so-called ``rush to failure'' 
criticism, was the judgment that we were being too schedule-driven as 
opposed to event-driven in the development of the system. In response . 
. . we made a major philosophical change, namely to be event-driven 
rather than schedule-driven. . . . The program, in spite of the 
schedule urgency, must be event-driven, that is, not held to calendar 
dates even if performance has not yet been satisfactorily demonstrated. 
This is our approach.'' By deciding to deploy by September, apparently 
regardless of the results of any future flight tests or other major 
events you have planned, it appears you have gone back to being very 
schedule-driven in this program. Aren't you now back to the ``rush-to-
failure'' mentality that General Welch criticized you for?
    General Kadish. Several things make the current situation very 
different from the program that General Welch evaluated in 1999. First, 
General Welch conducted his evaluation in the context of the so-called 
``3+3'' program. That is, beginning in 1997, the NMD program was 
directed to conduct 3 years of development and deploy 3 years 
thereafter. This was truly a schedule-driven program such that a 
predetermined development stage, followed by a predetermined deployment 
phase, were the driving factors for the effort. MDA took this critique 
seriously, and we revised the entire program, including the NMD 
program, transforming it into capabilities-based development effort. 
Decisions would be made to deploy capability when that capability had 
reached a sufficiently mature point during development. When we made 
this transformation, I concluded that we could put in place a BMDS test 
bed by September 2004 to conduct more realistic BMD testing. The test 
bed concept addressed another of General Welch's critiques. This 
decision and the associated date were based on my evaluation of the 
development program--it was not driven by external direction. At the 
time, I made the point that this test bed could be used in an emergency 
role if necessary. September 2004, therefore, was our planning date for 
a BMDS test bed that could be used in an operational role if 
circumstance required. Subsequently, the President decided that we must 
deploy a BMDS. He directed DOD to use the BMDS test bed as the basis 
for this deployment, and to build on it to provide an evolutionary 
BMDS. September 2004 date has always been an internal planning date, 
and we did not change it after the President's decision. The September 
2004 date is frequently used internally as a deadline, as a planning 
tool, and as a motivating tool, but it was derived after the adoption 
of a capabilities-based approach to the BMD. It was not schedule-
driven.

                             simulated data
    42. Senator Levin. Mr. Christie, in your recent report to Congress 
submitted in January, you state that, ``Due to immature Ballistic 
Missile Defense System elements, very little system level testing was 
performed by the close of fiscal year 2003. Therefore, the system 
capabilities assessed for [the September deployment] will be based on 
test events planned for fiscal year 2004. These tests will be executed 
using simulated or theoretical performance characteristics for some 
elements.'' Why will you need to use simulated data for these upcoming 
tests, and how will that affect your ability to assess the system's 
performance?
    Mr. Christie. Both ground and flight testing will be limited prior 
to any deployment of elements of the test bed in 2004. Since some of 
the elements that either will be deployed or are representative of what 
will be deployed are not yet available, simulations are being used to 
provide better understanding of the BMDS capability. Since a mobile 
target launch capability is not yet available to launch a target 
through the Cobra Dane field of regard, a digital emulation of Cobra 
Dane will be used. Some of these simulations are considered 
``theoretical'' because the testing has not yet been conducted that 
will provide the data to validate the simulation. The testbed using 
actual hardware and software operated by trained military operators is 
intended to correct this limitation.

    43. Senator Levin. Mr. Christie, when do you think you will be able 
to use actual, vice simulated, data for these system elements?
    Mr. Christie. As the BMDS matures and the elements are incorporated 
into the test bed, they will replace their respective simulations or 
emulations. The engage on Cobra Dane sequences will continue to rely on 
simulated Cobra Dane performance until target development permits the 
launch of a target through its field of regard. The test bed will begin 
to remove other artificialities beginning with the next flight test.

                              x-band radar
    44. Senator Levin. General Kadish, during your tenure with the 
previous administration, you testified before Congress, and told the 
press, that building an X-band radar (XBR) at Shemya in the Aleutians 
was the ``long pole in the tent'', meaning that it was on the critical 
path to establishing a viable system. Yet President Bush has never 
requested funds to build an XBR at Shemya, and has decided on a 
floating XBR system instead. Why have you not requested funds for this 
radar, and when will the floating radar be available?
    General Kadish. The Sea-based X-Band Radar (SBX) was the result of 
changes in the GMD mission and program focus in 2002 and the U.S. 
withdrawal from the Anti-Ballistic Missile (ABM) Treaty.
    Prior to 2001, a land-based XBR was planned for Shemya Island, 
Alaska. From that location, an XBR would provide ballistic missile 
acquisition, tracking, discrimination, and kill assessment for the 
United States. In July 2001, the GMD Joint Program Office changed its 
near-term mission from deployment of a missile defense capability 
covering the U.S. to a robust test architecture in the Pacific that 
would also provide some limited operational utility.
    As the test bed was laid out in 2001, it was discovered that many 
threat representative trajectories could not be supported by a Shemya-
based XBR. This necessitated exploration of additional radar sites and 
concepts. As a result, the SBX concept was developed. SBX will provide 
the capability to support identified test bed flight test missions and 
will be a mobile asset that allows operational capability. This 
mobility was not allowed under the ABM Treaty.
    It is important to note that either an SBX or a land-based Shemya 
XBR could provide a high degree of ballistic missile sensor capability. 
The major difference is the actual mission that each performs. The 
Shemya radar would have been affixed operational asset providing robust 
missile defense capability but was not located to support the test 
architecture. The SBX offers a movable sensor that maximizes the test 
bed's utility, which will ultimately result in a more flexible 
operational missile defense system.
    The SBX is scheduled to be integrated into the BMDS at the end of 
fiscal year 2005.

    45. Senator Levin. General Kadish, I understand you plan to use the 
floating radar as a test asset, as well as an operational one. When the 
floating radar is participating in a test, can it still be used as a 
defense against a real missile attack?
    General Kadish. Yes, the SBX can fill its defensive role while 
testing. The SBX, like other BMDS components, is subject to recall for 
defensive operations whether it is participating in a flight or ground 
test, undergoing routine maintenance, in transit, or in any other 
status.

  office of management and budget rating of the missile defense agency
    46. Senator Levin. Secretary Wynne and General Kadish, as part of 
President Bush's Government Accountability Initiative, the Office of 
Management and Budget (OMB) has graded a number of defense programs, 
including missile defense. Two of the OMB ratings for the MDA were as 
follows: Planning: 56 percent; and Results: 67 percent. The OMB said 
the missile defense program has, ``major flaws that would limit the 
program's effectiveness.'' One of the major flaws identified by OMB is 
that DOD has refused to budget for the costs to actually deploy and 
sustain an effective missile defense. As OMB says, ``given that 
[missile defense] deployments can require multiple billions of dollars, 
failing to program these funds in advance will result in major budget 
turbulence following a [missile defense] deployment decision--
turbulence that will result in cutbacks or terminations of other DOD 
activities, potentially including missile defense itself.'' I would 
like you to respond to OMB's criticism and tell me how you plan to get 
better grades next year.
    Mr. Wynne. As stated in a 2002 presidential directive, the DOD will 
employ an evolutionary approach to the development and fielding of 
missile defense in order to improve our defense over time. There will 
not be a final, fixed missile defense architecture. Rather, we will 
deploy an initial set of capabilities that will evolve to meet the 
changing threat and to take advantage of technological developments. 
The composition of missile defense, to include number and location of 
elements fielded, will change over time. To implement this approach, 
the DOD will field ballistic missile defense capability in 2-year 
blocks. The composition of a block will be a function of several 
factors, including threat developments, advances in BMD technologies, 
demonstrated performance of developmental components in the test 
program and the availability of resources. The DOD has programmed funds 
for Blocks 2004 and 2006, and the Air Force has programmed funds for 
the ABL, but no decisions have been made concerning the fielding of 
capability beyond 2008. As a result, we have not yet determined the 
funding requirements or programmed funds for this purpose. 
    General Kadish. I would like to add to Mr. Wynne's answer that each 
year, MDA will assess the capability being developed and make 
recommendations regarding the potential to field additional capability. 
Funding decisions with respect to this additional capability will be 
made at the departmental level when MDA makes (and the Secretary 
approves) a fielding recommendation. At that time, MDA will either be 
provided with identified funding required to field the capability, or 
will be required to rebalance funding between developing and fielding 
capability. This approach is consistent with the direction provided by 
the President in a Presidential Directive dated 2002. Fielding 
decisions have been made for Block 2004 and Block 2006. Furthermore, 
funding has been provided to MDA's Total Operational Authority (TOA) to 
field this capability. With regard to operations and support (O&S), the 
Secretary of Defense has directed MDA and the Services to develop cost 
estimates for O&S on systems being fielded and to provide funding in 
the Project Objective Memorandum (POM) beginning in fiscal year 2006. 
Currently MDA and Services are collaborating to determine the 
responsibilities for funding out years. Funding for O&S in fiscal year 
2005 is the responsibility of the Services, while funding for 
Contractor Logistics Support will remain the responsibility of MDA.

                     live target intercept testing
    47. Senator Levin. General Kadish, how many live target intercept 
tests have you conducted to date using only ship-based radars to track 
a long-range target, with no help from the GPS, as the operational 
system will have to do to protect Hawaii?
    General Kadish. None. We have tested mid-range targets with only 
ship based radars. We are still in the process of integrating the Aegis 
radar system and the GMD system for an initial BMDS capability, which 
is required to use ship-based radars for long range targets. This 
interface will be tested prior to IDO. However, until we field the SBX 
we will not be able to conduct tests without the use of GPS on the 
target for simulated Hawaii scenarios. All GPS data used has been 
modified to represent the reduced accuracy of the sensor it is 
emulating.

    48. Senator Levin. Admiral Ellis, you are the person responsible 
for protecting all 50 States from missile attack. Will a Navy ship be 
on station, 24 hours a day, 7 days a week, to protect Hawaii from a 
long-range missile attack, starting in September?
    Admiral Ellis. As a function of the defined threat level, Navy 
ships will be on station for their initial search and track 
capabilities and contribute to the sensor net that will enable the 
employment of the interceptors that are an essential element of this 
system. Using a graduated level of alert, Navy ships will contribute to 
the effectiveness of the entire network, and that network will then 
contribute to our ability to defend all of the United States from this 
threat.

    49. Senator Levin. General Kadish, of the 30 interceptors to be 
bought in fiscal year 2004 and fiscal year 2005, how many will be 
launched in tests, what is the approximate schedule for testing for 
these interceptors, and when will the last of these 30 interceptors be 
launched as part of a test?
    General Kadish. Through the end of fiscal year 2006, MDA plans to 
utilize 11 interceptors in flight testing. The attached slide entitled 
``Ground-Based Midcourse Defense Test Schedule and Description'' shows 
the currently planned testing schedule.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

                      shoot-look-shoot capability
    50. Senator Levin. General Kadish, in previous testimony on the NMD 
system, you said: ``The big advantage of the mid-course, from a 
defensive point of view, is that we have relatively more time to react 
than during the other two phases. We have more time to make decisions, 
to sort the decoy from the warhead, and to ensure human-in-the-loop 
control. This extra time also allows us the ability to shoot, and then 
verify the success of that shot, and then shoot again if necessary, a 
so-called ``shoot-look-shoot'' capability. Additionally, multiple shots 
(simultaneously and/or sequentially) at the target give a higher 
probability of being able to hit it.'' Will the NMD system deployed in 
September have the ``shoot-look-shoot'' capability? If not, why not, 
and how much will this degrade the system's effectiveness?
    General Kadish. Mid-course systems provide much longer decision 
times. Shoot-look-shoot capability is dependent on locations and 
orientations of midcourse sensors and the location of the defended 
asset relative to the threat launch.
                      intercept test cancellations
    51. Senator Levin. General Kadish, after the December 2002 decision 
by the President to deploy a NMD in 2004, you decided to cancel six 
intercept tests that had been planned for fiscal years 2003 and 2004. 
The last intercept test was IFT-10, conducted in December 2002, and it 
failed. There is now only one scheduled intercept test between now and 
the planned September deployment date. When asked at the hearing why 
you cancelled these tests, you replied that you hadn't cancelled them, 
you just ``rescheduled'' them in order to focus on development of the 
new operational booster rocket. Why did you decide to reschedule them, 
when they could have provided important data on the performance of the 
system that you plan to deploy in September?
    General Kadish. The decision to reschedule the tests was made for a 
variety of reasons. The MDA has long held that it will adjust its 
programs and schedules based on the outcomes of its flight tests. It 
would be fiscally irresponsible--while adding little to the current 
pool of data--to conduct another flight test using the same 
configurations and components that were tested in four previous 
consecutive successful GMD flight tests. Therefore, the MDA and the GMD 
Prime Contractor prudently decided to reprioritize the tests and test 
objectives to concentrate on the least mature component of the GMD 
element--the booster. Additionally, two separate manufacturing process-
related accidents in 2003 caused a delay in the development of the 
Lockheed-Martin BV+ booster, necessitating rescheduling of integrated 
flight tests with these boosters. Lastly, the rescheduling of these 
tests will allow MDA to conduct more fully integrated flight testing 
involving the various MDA elements, using more operationally 
representative hardware and demonstrate the ability to conduct 
concurrent test and operations.

    52. Senator Levin. General Kadish, could you have continued 
intercept testing concurrently with new booster development--or did the 
decision to deploy divert funds from intercept tests into new booster 
development?
    General Kadish. Our intercept testing program has continued 
concurrently with new booster development, but testing has been 
rescheduled. The presidential direction to field an initial defensive 
capability by the end of 2004 did not divert funds from intercept 
testing to new booster development but the testing was resequenced. The 
additional fielded assets were already fully funded.
    It was imperative at the time to focus on the booster development 
to ensure that the MDA has boosters ready that meet performance 
objectives. Four successful hit-to-kill missions (IFT-6, IFT-7, IFT-8, 
and IFT-9) immediately prior to the decision to focus on booster 
development gave the MDA the confidence in the system to make that 
decision.

    53. Senator Levin. General Kadish, the DOT&E, in his Annual Report 
to Congress submitted in January of this year, noted that a ``track 
gate anomaly'' in the kill vehicle had existed in intercept tests IFT-
7, -8, and -9. I also understand that repeated attempts to fix this 
problem have so far proved unsuccessful, and that this problem could 
cause the interceptor to miss its target by losing track. Why didn't 
you continue intercept tests at least until this known ``track gate 
anomaly'' problem was proven to have been fixed?
    General Kadish. The MDA is confident that it has found the root 
cause of the track gate anomaly, and that proper corrective action has 
been taken to prevent its recurrence. IFT-10 incorporated design 
corrections to correct the anomaly, but the Exoatmospheric Kill Vehicle 
(EKV) experienced a malfunction and did not separate from the booster. 
This prevented demonstration of the corrective action for the track 
gate anomaly. IFT-13C and IFT-14 will provide opportunities to prove 
that the track gate anomaly is corrected.

    54. Senator Levin. General Kadish, why didn't you continue 
intercept tests against more stressing targets, as the DOT&E has 
recommended, to provide higher confidence that the kill vehicle could 
handle real threat missiles, prior to the deployment in September?
    General Kadish. In consideration of the most likely near-term 
threat and the imperative of the president's direction, it was decided 
the achievement of basic initial deployment capability as soon as 
possible was more advantageous than delaying for a more robust system. 
Targets are progressively evolving to become ``more stressing'' as each 
successful flight test proves new GMD capability. The target for IFT-
13C is more stressing than earlier flight tests. GMD will take this 
first step and then mature the fielded system.

    55. Senator Levin. General Kadish, prior to the President's 
announcement to deploy a NMD, all of the NMD ground-based interceptors 
(GBIs) which were already built or were planned had been allocated for 
flight testing. Do you now plan to use interceptors (or kill vehicles) 
that had been allocated for intercept tests for deployment instead? If 
so, how many have been reallocated from testing to deployment and why 
was this reallocation done?
    General Kadish. No interceptors or kill vehicles purchased for 
intercept tests have been reallocated as fielded assets.

                       missile defense production
    56. Senator Levin. Secretary Wynne, current law says that initial 
operational test and evaluation needs to be completed prior to going 
beyond ``low rate initial production'' (LRIP). You are responsible for 
defining, for a given program, what LRIP constitutes. I understand that 
you are requesting funding in fiscal year 2005 to produce NMD GBIs at 
the production capacity of 12 per year. This would appear to be by 
definition beyond LRIP. Yet at the hearing, you said that 12 
interceptors per year is not beyond LRIP. If producing interceptors at 
the production capacity is not beyond LRIP, what is beyond LRIP for 
this system, and when will the ground-based missile defense system get 
beyond LRIP?
    Mr. Wynne. The GBI is part of the Ground-Based Midcourse Defense 
element of the BMDS major defense acquisition program, which has not 
entered LRIP. We intend to field a BMDS that fully integrates all 
program elements such as the Ground-Based Midcourse Defense. Thus, LRIP 
applies only in the context of the BMDS and not in terms of any element 
of BMDS. For this reason, the work being done on components of the 
Ground-Based Midcourse Defense element does not constitute LRIP for the 
BMDS.

                flying interceptors out of fort greeley
    57. Senator Levin. General Kadish, you said at the hearing that you 
had plans to fly interceptors out of the Fort Greeley site, where most 
of the interceptors you plan to deploy starting in September will be. 
However, my understanding is that safety restrictions prohibit you from 
flying interceptors out of Fort Greeley, because the interceptor, or 
its spent stages, could impact in populated areas. On July 31, 2001, 
Dr. Patricia Sanders of the Ballistic Missile Defense Organization 
testified to that fact before the Senate Appropriations Committee. How 
do you plan to circumvent these safety restrictions in order to launch 
from Fort Greeley?
    General Kadish. We have initiated environmental and safety studies 
addressing the feasibility of flying test interceptors from Fort 
Greeley. Once these studies are complete, we will decide if we will 
pursue such tests, and we will not circumvent any safety restrictions 
identified. This will not likely occur before 2007.

    58. Senator Levin. General Kadish, how will you prevent a 
interceptor that goes off course, or a spent stage, from threatening 
populated areas?
    General Kadish. For GMD flight testing, command destruct systems 
are installed on interceptors and targets, enabling range safety 
processes to protect populated areas. Fielded GMD interceptors are not 
equipped with a command destruct capability. The GMD engagement 
planning considers spent stage drop zones and utilizes fly-out 
trajectories that minimize risks to populated areas.

    59. Senator Levin. General Kadish, by when do you believe you will 
begin launching interceptors from Fort Greeley?
    General Kadish. We have initiated environmental and safety studies 
addressing the feasibility of flying test interceptors from Fort 
Greeley. Once these studies are complete, we will decide if we will 
pursue such tests, and we will not circumvent any safety restrictions 
identified. This will not likely occur before 2007.

                         cost increases for nmd
    60. Senator Levin. Secretary Wynne, the 5-year budget projections 
for the Block 2004 and Block 2006 Ground-Based NMD program have grown 
by almost $6 billion since last year, with most of the cost growth in 
fiscal year 2006 and fiscal year 2007. When you were asked about this 
at the hearing, you and General Kadish said that the cost growth was 
because you had put ``place holders'' in so that you have the 
``capacity to expand'' in fiscal year 2006 and fiscal year 2007. What 
is the basis for $6 billion worth of unidentified ``place holders?''
    Mr. Wynne. The budget figures referenced include funds for the 
Ground-Based Missile Defense element, as well as other components to be 
fielded in each block. In the President's budget for fiscal year 2004, 
MDA's budget for Block 2004 and 2006 was $12.1 billion for fiscal year 
2005-2009. In our fiscal year 2005 budget submission, the Block 2004 
and 2006 budget is $17.6 billion. The primary reason for this increase 
is the addition of a follow-on Block 2006 capability for deployment; it 
is not a ``place holder.'' The deployment of the Block 2006 capability 
added $3.8 billion to the MDA budget. It will provide our Nation with 
enhanced missile defense capability through the acquisition of 
additional GBIs for Fort Greeley, Alaska, upgrades to the Thule early 
warning radar, long lead activities for fielding of a potential third 
missile field site, and initiates acquisition of an additional sea-
based radar. Furthermore, this increase initiates acquisition of 3 
additional deployed radars, 40 Aegis SM-3 interceptors, additional ship 
sets for Aegis destroyers, and begins an initial fielding of a THAAD 
firing battery.

    61. Senator Levin. Secretary Wynne, are there any other Pentagon 
acquisition programs which have $6 billion allocated to ``place 
holders?''
    Mr. Wynne. No. It is important to add that the figure quoted is not 
merely a placeholder. The funds are being set aside to fund further 
enhancements to our missile defense capability through the acquisition 
of additional GBIs for Fort Greeley, Alaska, upgrades to the Thule 
early warning radar, long lead activities for fielding of a potential 
third missile field site and initial funding to acquire an additional 
sea-based radar. Also, the funds would initiate acquisition of 3 
additional deployed radars, 40 Aegis SM-3 interceptors, additional ship 
sets for Aegis destroyers, and begin an initial fielding of THAAD.

    62. Senator Levin. Secretary Wynne, do you have any ideas as to 
what this funding could be used for?
    Mr. Wynne. This funding will provide our Nation with enhanced 
missile defense capability through the acquisition of additional GBIs 
for Fort Greeley, Alaska, upgrades to the Thule early warning radar, 
long lead activities for fielding of a potential third missile field 
site, and initiates acquisition of an additional sea-based radar. In 
addition, this increase initiates acquisition of 3 additional deployed 
radars, 40 Aegis SM-3 interceptors, additional ship sets for Aegis 
destroyers, and begins an initial fielding of THAAD.

    63. Senator Levin. Secretary Wynne, do you believe it is a wise 
acquisition policy to lack a firm basis for $6 billion worth of planned 
funding, and if so, what other acquisition programs, besides missile 
defense, do you plan to apply this policy to?
    Mr. Wynne. What we are doing with the missile defense program in 
this regard is similar to what is done in all defense acquisition 
programs. The budget is an estimate of future requirements. In general, 
when the Under Secretary of Defense for Acquisition, Technology, and 
Logistics (USD(AT&L)) authorizes program initiation at Milestone B, the 
Service having responsibility for the program will have created a 
program plan and budget that includes funding to procure an inventory 
objective well in advance of a procurement decision, which occurs at 
Milestone C. Following approval to transition to Milestone C, the funds 
previously set aside are used for the approved procurement.
    Where the missile defense program differs from this model is the 
lack of a fixed inventory objective. As stated by the President, we 
will not have a final, fixed missile defense architecture. Rather, we 
will deploy an initial set of capabilities that will evolve over time 
to meet the changing threat and to take advantage of technological 
developments. The composition of missile defenses, to include number 
and location of elements deployed, may change over time. Under the 
DOD's spiral acquisition strategy, a block configuration is developed 
for fielding on the basis of threat developments, the maturity of 
technologies, and the availability of funding. When a block fielding 
decision is made, the DOD allocates funds for that purpose. Until the 
composition of the block is fully and specifically defined, funds set 
aside for its fielding may have the appearance of a ``placeholder,'' 
but it represents the Department's best estimate of the planned 
program.

                impact of next flight test on deployment
    64. Senator Levin. General Kadish, you testified at the hearing 
that you do not have an interceptor that is in a realistic 
configuration right now. The next scheduled intercept test, IFT-14, is 
the first intercept test to use the new ``realistic'' booster design 
needed for the operational system and is the only intercept test 
scheduled between now and the end of September. Will you delay the 
planned September deployment of the Ground-Based Midcourse NMD system 
if the IFT-14 test fails to intercept the target?
    General Kadish. The determination that the initial defensive 
capability can be placed on alert is based on many factors, not just a 
single intercept test. We have taken into consideration the 
demonstrated performance of the system in ground and flight testing 
throughout the developmental test program, modeling and simulation, and 
the fact that a limited capability is better than none at all. If we do 
not achieve an intercept during IFT-14, we will evaluate the cause, 
assess the impact of the failure within the context of the wealth of 
other indicators of system performance, and make the appropriate 
recommendation to the DOD.

    65. Senator Levin. General Kadish, if you would not delay the 
deployment if IFT-14 fails, what basis would you have for claiming that 
the deployed system works, and are there any circumstances under which 
you would consider delaying the September deployment date of the 
ground-based midcourse system? If so, what are they?
    General Kadish. The basis for confidence in the system to serve as 
an initial defensive capability is its demonstrated performance in 
ground and flight testing throughout the development test program and 
extensive modeling and simulation. In the event that we do not achieve 
an intercept during IFT-14, we will evaluate the cause, assess the 
impact of the failure within the context of the wealth of other 
indicators of system performance, and make the appropriate 
recommendation to the DOD. 
                                 ______
                                 
           Questions Submitted by Senator Joseph I. Lieberman
                  testing, training, and certification
    66. Senator Lieberman. General Kadish, I have remained a strong 
supporter of missile defense throughout my tenure in the U.S. Senate. I 
was a co-sponsor of the Missile Defense Act of 1999 and last year I 
supported funding for the initial 20 interceptors, in order to develop 
an initial defense against a limited ICBM attack. I was encouraged to 
hear last year that one of the primary purposes of procuring the 
initial 20 interceptors was to conduct robust testing. This year, 
however, I am concerned by the MDA's pronounced lack of recent testing 
since we have now gone 15 full months without an IFT. I am also 
troubled by the lack of any plans for realistic operational testing in 
the near-term; and by the MDA's desire to buy an additional 10-20 
interceptors without first determining whether the previous 20 will 
really work. Why is the MDA not focusing its resources on operational 
testing before you buy more interceptors, a weapon that at this point 
may or may not be capable of actually destroying an inbound ballistic 
missile?
    General Kadish. The DOD is proceeding to field an initial defensive 
capability as directed by the President and in accordance with the NMD 
Act of 1999. The performance of the BMDS in the developmental test 
program shows that we have crossed the threshold of technologically 
possible, and, indeed, have reason for confidence that it will provide 
a meaningful capability. That initial capability will likely be 
limited, but will still represent a dramatic improvement over our 
current condition of being defenseless against ballistic missile 
attack. As additional components of our initial configuration are 
placed in service in 2004 and 2005, the effectiveness of the missile 
defense capability will incrementally improve.
    In the last 15 months, MDA has successfully conducted BV-5 and BV-6 
test events to verify design, integration, and assembly process and 
performance of the Lockheed Martin (LM) Booster Vehicle Plus (BV+) and 
Orbital Science boost vehicle (OBV). IFT-13B was conducted and 
successfully demonstrated GMD system integration, interfaces, and 
performance as well as demonstrated the ability of the missile to 
support future hit-to-kill flight tests. These flight tests, although 
not intercepts, are a critical step in the development test programs 
towards future hit-to-kill flight tests. In addition, FM-6 was 
conducted and successfully intercepted a Short Range Ballistic Missile 
by an SM-3 from an Aegis ship.
    The limited defensive capability that we can put on alert in late 
2004 does not represent the BMDS at maturity. With the test bed in 
place we will be able to conduct flight testing of the on-alert 
configuration with increasing levels of operational realism. These more 
realistic tests, involving warfighters and alert-configured hardware 
and software, will validate the models and simulations that give us the 
confidence we have in system performance.

    67. Senator Lieberman. Admiral Ellis, as the Commander of STRATCOM, 
your organization will have the daunting responsibility of protecting 
our Nation from a missile attack. What are your views on fielding a 
system that has not undergone operational testing?
    Admiral Ellis. We understand where we are in terms of system 
maturity. We understand the elements of the systems that have been 
tested--boosters, kill vehicles, command and control networks, and 
radars--and we understand how they are being brought together for this 
IDO capability. We will have, in this developmental test bed, a 
rudimentary capability when the last of these elements is put into 
place to create this system sometime later this year. Use of this 
nascent capability as its development continues is both possible and 
prudent.

    68. Senator Lieberman. Mr. Christie, in your most recent report to 
Congress, submitted in January of this year, you state that, ``At this 
point in time, it is not clear what mission capability will be 
demonstrated prior to the Initial Defense Operations [which is the 
deployment of the NMD system in September]''. Could you please explain 
why you cannot, at this point, assess the capability of this system, 
and tell me when you might be able to?
    Mr. Christie. At this time, we do not have an integrated 
operational system to evaluate. Evidence from developmental testing of 
components and subsystems suggests there should be inherent capability 
in the IDO architecture. But, as evidenced by the delays in the flight 
test and ground test schedules, the MDA is still finding and fixing 
problems with hardware and software as they complete the IDO 
infrastructure. We may not have much integrated system performance data 
to demonstrate what that capability is prior to a 2004 deployment. Data 
opportunities begin immediately with IFT-13C. The opportunities to 
demonstrate and evaluate the systems mission capability will increase 
significantly with the deployment of the IDO test bed to support 
testing.

    69. Senator Lieberman. General Dodgen, please explain to me the 
extent of training, testing, and certification used to prepare the 
soldiers who will operate the Fort Greeley interceptor site, beginning 
this September, and act as the Nation's first line of defense against a 
ballistic missile attack on the U.S.
    General Dodgen. The training, testing, and certification process of 
these soldiers has been nearly continuous, with mastery of the system 
being the only acceptable standard. First, the Air Defense Artillery 
School at Fort Bliss, Texas qualifies soldiers/operators in a Military 
Occupation Skill (MOS). This schooling will last from 13 weeks to 6 
months or more, depending on occupation.
    Once Air Defense MOS qualified, soldiers enter a rigorous 
individual training program conducted by the MDA Ground-Based Midcourse 
Defense Joint Program Office. Here each soldier undergoes an initial 4-
week ``Basic'' course followed by a 6-week ``Advanced'' course 
requiring system mastery for completion. The training covers 
operational theory, functional interoperability of architectural 
components and system elements, utilizing classroom and hands-on 
experiences.
    Soldiers are then assigned to crews within their unit where they 
undergo 6 more weeks of intense positional and crew training. During 
this meticulous instruction they are taught and become expert at there 
specific individual and crew tasks, tactics, techniques, and 
procedures.
    Upon completion of this training, soldiers begin operational 
procedures investigations at the Joint National Integration Center 
(JNIC) in Colorado Springs, where these expert soldiers and crews 
perfect their skills in a joint environment with NORTHCOM/North 
American Aerospace Defense (NORAD) command center crews from Cheyenne 
Mountain. A soldier will experience no less than 6 months, and 
depending on occupation, as much as a full year of specialized, 
dedicated, hands on instruction, training, and examinations before they 
can even be qualified to undertake an operational readiness evaluation 
(ORE). Successful completion of this ORE would result in an achievement 
of only the first tier of a strict multi-tiered certification process 
that includes individual, crew, unit, and combatant commander 
certification.
    The Army is utilizing a trained group of subject matter experts 
(soldiers, Government civilians, and contractors) to conduct OREs of 
the crews optimizing every possible event (Exercises, Wargames, 
Simulations, Integrated Flight and Ground Tests (IFT/IGT), and System 
Integration and Check-out (SICO) tests) to ensure we have the soldiers 
trained and certified to defend the Nation with this Strategic Missile 
Defense capability when it becomes operational. 

                        ballistic missile threat
    70. Senator Lieberman. General Kadish, a recent Washington Post 
article dated February 17, 2004, carried an announcement by Russian 
President Vladimir Putin that his forces had just successfully tested 
what he called a ``maneuver re-entry vehicle.'' The article later 
discusses the Russians' desire, following our departure from the 1972 
ABM Treaty, to equip its state-of-the-art Topol missile with multiple 
warheads. According to DOD officials, either of these technologies 
would be very difficult for our missile defense system to defeat. I 
realize that our NMD system was not envisioned to defeat a large-scale 
attack from nuclear powers such as Russia or China. However, with the 
recent discoveries of the proliferation of nuclear and missile 
technologies to such states as Iran, North Korea, and Libya I am 
concerned that in the near future a single high-technology missile 
launched by a State or organization may have the capability to defeat 
our defenses. What are the MDA's plans to deal with future threats such 
as these?
    General Kadish. The MDA continues to pursue technologies and 
capabilities to address adversary missiles of all ranges, in all phases 
of flight and in all regions. I will answer the question in two parts--
first our plans to defeat maneuvering re-entry vehicles and second 
relative to multiple warheads. [Deleted.]

    71. Senator Lieberman. Mr. Wynne, this year's budget request for 
missile defense is substantial. I recognize the necessity to maintain 
momentum on research, development, and testing of these extremely 
technologically complex systems, however, a ballistic missile attack 
poses just one potential threat against the citizens of the United 
States. Each year Congress must assess the level of defense spending in 
order to determine that the country is investing the necessary funds on 
the correct technologies required to protect our citizens against the 
most likely threats to our Nation. Are you aware of a process within 
the DOD, or within the administration as a whole, that assesses the 
spectrum of probable threats against our Nation and factors the 
likelihood of these threats into determining which systems are funded 
(and to what level they are funded) in the annual budget request? Based 
on your knowledge, why does the administration believe that there is 
enough of a near-term threat from a ballistic missile attack on the 
U.S. to warrant fielding an interceptor system before operational 
testing has been accomplished?
    Mr. Wynne. There are several such processes within the executive 
branch. The President's NSS sets strategic priorities which guide the 
Quadrennial Defense Review (QDR), the Nuclear Posture Review (NPR), and 
the National Military Strategy (NMS). These sources of guidance inform 
the Department's ongoing assessments of the varied threats to the 
Nation, our allies, and our deployed forces. The Joint Capabilities 
Integration and Development System (JCIDS) processes support the 
Chairman of the Joint Chiefs of Staff and the Joint Requirements 
Oversight Council (JROC) in identifying, assessing, and prioritizing 
joint military capability needs. Implementation of direction in the NPR 
has prompted assessments of the DOD's priorities for strategic defense. 
These and other ongoing assessments produce fiscal and programming 
guidance that set budget priorities. The budget is scrutinized by the 
OMB before submission to Congress to ensure that funding priorities are 
consistent with Presidential direction and administration policy.
    As the events of September 11 demonstrated, the security 
environment is more complex and less predictable than in the past. We 
face growing threats from WMD in the hands of states or non-state 
actors, threats that range from terrorism to ballistic missiles 
intended to intimidate and coerce us by holding our cities hostage to 
WMD attack. Hostile states, including those that sponsor terrorism, are 
investing significant resources to develop and acquire ballistic 
missiles of increasing range and sophistication that could be used 
against the United States and our friends and allies. These same states 
have chemical, biological, and/or nuclear weapons programs. In fact, 
one of the factors that make long-range ballistic missiles attractive 
as a delivery vehicle for WMD is that the United States and our allies 
lack effective defenses against this threat. This rationale underpins 
the NMD Act of 1999 which established the policy of the United States 
to deploy as soon as technologically possible an effective NMD system 
capable of defending the territory of the United States against limited 
ballistic missile attack. The BMDS developmental test program has 
demonstrated that the inherent capability of the architecture for IDO 
may allow us to defend against limited ballistic missile attack. We 
will continue to characterize that capability and improve upon it as 
the system matures. In addition, our resolve to develop defenses 
against ballistic missiles may also deter hostile states from investing 
resources to acquire them, reducing the global threat.

                 requirements for a viable radar system
    72. Senator Lieberman. General Kadish, in order for a NMD to be 
effective, it is necessary to be able to locate and identify potential 
inbound threats. According to officials in the MDA, an XBR system is 
essential to any missile intercept program. At this time, however, 
there is no funding slated for the construction of a ground-based XBR, 
which will ideally be located in Shemya, Alaska. Instead, funding is 
being used to develop the SBX. However, the SBX will not be fielded 
until 2005 and, according to a 2002 statement by the Director of the 
MDA, ``the SBX is not a substitute for a Shemya XBR.'' Until SBX is 
fielded, the interceptor system will utilize the Cobra Dane 
surveillance radar system. According to a GAO report recently released, 
the Cobra Dane radar has never been tested for this missile intercept 
utility and even with new software upgrade, it will lack the ability to 
provide more than rudimentary analysis of incoming missile threats. 
When the SBX is eventually fielded, it will be limited to either 
providing operational support in Alaska, or support to the current test 
range in the Hawaiian Islands, not both. Based on these facts, I 
contend that there is a capabilities gap in our near-term NMD sensor 
architecture. You have previously testified before Congress that 
building an XBR at Shemya in the Aleutians was the ``long pole in the 
tent,'' meaning that it was on the critical path to establishing a 
viable missile defense system. Yet the administration has never 
requested funds to build an XBR at Shemya, and has decided on SBX 
system instead. Why have you not requested funds for this ground based 
radar?
    General Kadish. The SBX was the result of changes in the GMD 
mission and program focus in 2002 and the U.S. withdrawal from the ABM 
Treaty.
    Prior to 2001, a land-based XBR was planned for Shemya Island, 
Alaska. From that location, an XBR would provide ballistic missile 
acquisition, tracking, discrimination, and kill assessment for the 
United States. In July 2001, the GMD Joint Program Office changed its 
near-term mission from deployment of a missile defense capability 
covering the U.S. to a robust test architecture in the Pacific that 
would also provide some limited operational utility.
    As the test bed was laid out in 2001, it was discovered that many 
threat representative trajectories could not be supported by a Shemya-
based XBR. This necessitated exploration of additional radar sites and 
concepts. As a result, the SBX concept was developed. SBX will provide 
the capability to support identified test bed flight test missions and 
will be a mobile asset that allows operational capability. This 
mobility was not allowed under the ABM Treaty.
    It is important to note that either an SBX or a land-based Shemya 
XBR could provide a high degree of ballistic missile sensor capability. 
The major difference is the actual mission that each performs. The 
Shemya radar would have been affixed operational asset providing robust 
missile defense capability but was not located to support the test 
architecture. The SBX offers a movable sensor that maximizes the test 
bed's utility, which will ultimately result in a more flexible 
operational missile defense system.
    The SBX is scheduled to be integrated into the BMDS at the end of 
fiscal year 2005.

    73. Senator Lieberman. General Kadish, when the SBX is 
participating in a test, will it be capable of being used to defend 
against a real missile attack? If not, will you be relying on Cobra 
Dane to provide radar coverage during these test windows? When, if it 
all, do you plan to test the Cobra Dane radar system to assess its 
ability to function as a missile tracking and target acquisition radar?
    General Kadish. Yes, the SBX can fill its defensive role while 
testing. The SBX, like other BMDS components, is subject to recall for 
defensive operations whether it is participating in a flight or ground 
test, undergoing routine maintenance, in transit, or in any other 
status.
    Cobra Dane and SBX will complement each other after the sea-based 
radar is added to the BMDS at the end of calendar year 2005.
    Due to Cobra Dane's location and orientation, the only way to test 
the radar would involve flying an air-launched target through its field 
of view. MDA is currently examining the best approach to conducting 
Cobra Dane radar testing.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                             airborne laser
    74. Senator Akaka. General Kadish, I understand from GAO that the 
current ABL contract is supposed to reach its cost ceiling by May 2004. 
Because MDA does not know how to estimate the total cost of this 
program nor when it will reach program completion, MDA has decided to 
go to a year-to-year contract. How can you justify asking for funding 
for a program when you seem to have no idea how much will be expended 
on that program from year-to-year?
    General Kadish.

    a. Estimating the costs for a technology program is a challenge 
that is not unique to ABL. As recognized by the GAO, estimating the 
cost of development for programs similar to ABL's technology maturity 
level cannot be done with total accuracy. However, that alone does not 
make the effort unjustifiable. Furthermore, prudent cost control steps 
are being taken. We regularly evaluate and adjust our cost estimates, 
based on past experience and an assessment of the scope of the 
remaining effort, in order to provide the best picture of the annual 
funding requirement.
    b. Our justification in continuing to request funding is based on 
the fact that ABL will provide an essential, strategic military 
capability, as noted above. Our cautious program management approach 
recognizes the technical complexity of ABL's development and we set 
near-term programmatic goals to be met, in order to estimate cost. This 
strategy includes continuation reviews to better understand program 
technical progress and system viability. All this is taken into 
consideration as the MDA updates the ABL program costs and subsequently 
requests funding.

    75. Senator Akaka. General Kadish, how do you plan to ensure 
financial accountability for this program over its acquisition cycle?
    General Kadish. The MDA has instituted a number of financial review 
processes for all of its elements to ensure financial accountability 
and ABL is no exception. We plan to continue to apply prudent financial 
management principles in managing the program. It should be noted that 
by continuing to run the ABL program with the same financial rigor as 
any of MDA's major acquisition efforts, we actually ensure it receives 
a higher level of oversight than it would ever receive as a technology 
development program.

    76. Senator Akaka. General Kadish, in January 2001, the ABL Program 
Manager stated that there are ``no showstoppers and [the program] has 
met or exceeded every technical requirement.'' Is that statement still 
true of the ABL system?
    General Kadish. The ABL still has not encountered any technical 
showstopper. Though we have had many technical challenges to date, they 
have all been overcome and we see nothing to prevent accomplishment of 
a successful system demonstration.

    77. Senator Akaka. General Kadish, there are expected to be four 
lasers onboard the ABL: the Active Ranging System (ARS) that locates a 
target missile; the Target Illuminator Laser (TILL); a Beacon 
Illuminator Laser (BILL); and finally the Killer Laser. In 2001, it was 
projected that these four lasers would be operationally ready in April 
2002. What is the current status of each of these lasers? Are they all 
ready to be operationally tested?
    General Kadish.

    a. The following is a summary of the current status of each laser.

          i. First light for first the high-energy laser module was 
        successfully tested in fall 2001, providing 118 percent of 
        design power. First light for the 6-module high-energy laser is 
        projected to be accomplished by the end of calendar year 2004.
          ii. As for the illuminator lasers, the BILL and the TILL have 
        been extensively tested in laboratory and end-to-end testing. 
        The total run times on these lasers, from typically 30-second 
        test runs, far exceed what we expect to be seen in the 
        aircraft.
          iii. The ARS laser has accumulated nearly 100 ills of run 
        time in ground testing and has been operated for at least 4 
        hrs. continuously.

    b. Integration and development testing of the all lasers onboard 
the ABL aircraft will begin at Edwards Air Force Base, California, in 
2005.

    78. Senator Akaka. General Kadish, are the problems in the ABL 
system engineering problems, physics problems, or both?
    General Kadish. At this point there are no technical showstoppers 
to the ABL program. Integration challenges center around implementing 
pioneering technology, completing first-of-a-kind component 
manufacturing, and developing first-ever engineering and operating 
procedures for a directed energy weapon. To date, the program has not 
encountered any insurmountable challenge. Many integration challenges 
have been met and overcome, including several previously viewed as 
unsolvable. Therefore, we see nothing to prevent accomplishment of a 
successful system demonstration.

    79. Senator Akaka. General Kadish, in April 2003, before Senate 
appropriators, you indicated that the cost of the ABL program could run 
15 percent to 20 percent above projections and stated that the MDA is 
``right on the edge'' of proving that the technology can work. Have 
your projections of cost overruns changed in a year?
    General Kadish. Yes, our projections have changed, and our previous 
estimates have been adjusted upwards. Based on an increased 
understanding of the complexities involved in integrating the system 
and using our experience on the progress we have made to date, we have 
a better understanding of the challenges that lie ahead.

                            testing concerns
    80. Senator Akaka. General Kadish, regarding the BMDS, the fiscal 
year 2003 Christie Report states: ``Due to the immature nature of the 
systems they emulate, models and simulations of the BMDS cannot be 
adequately validated at this time. Confidence in assessed capabilities 
will improve as more system performance data is gathered to anchor the 
simulations or directly demonstrate these capabilities.'' Why is the 
DOD deploying a system when its capabilities cannot be adequately 
evaluated at this time?
    General Kadish. The models and simulations have given the MDA the 
confidence to put these systems into the field to gain further 
operational experience. The DOD is fielding these systems as they 
become available to give the warfighter a capability where none 
previously existed and to gain experience in their use. The 
capabilities at any point in time will be adequately evaluated for use 
within stated limitations and conditions. The alternative would be not 
to provide any capability to protect the U.S. and its allies.

    81. Senator Akaka. General Kadish, concerns have been reported 
regarding the lack of real-world scenarios in which the BMDS has been 
tested. For example, the tests used to evaluate the ABL program used a 
laser that is fundamentally different from the type of laser that will 
be in the final ABL. I am concerned we will have no true measure of the 
capabilities of these systems before we launch them. Can you discuss 
the rationale for not testing the BMDS in real-world conditions?
    General Kadish. The MDA has always planned to test its systems in 
realistic operational situations. However, real world scenarios may not 
be possible, in all situations, for the BMDS. Individual elements of 
the BMDS, like the ABL, will be tested within the limits of the test 
ranges to collect developmental data and where possible, using 
operationally relevant conditions. Multiple test scenarios will be used 
to characterize the performance of integrated elements; validated 
models and simulations will be used to verify the full range of 
capabilities for each phase of the BMDS.
    The DOD is fielding these systems as they become available to give 
the warfighter a capability where none previously existed and to gain 
experience in their use. The capabilities at any point in time will be 
adequately evaluated for use within stated limitations and conditions. 
The alternative would be not to provide any capability to protect the 
U.S. and its allies.

                           spiral development
    82. Senator Akaka. Secretary Wynne, the National Defense 
Authorization Act for Fiscal Year 2003 states that once an acquisition 
program is designated as employing ``spiral development,'' the 
Secretary of Defense must submit an annual status report on that 
program, which includes projected prototype costs, to Congress. No such 
reports have been submitted on the BMDS. The term ``spiral 
development'' is used in MDA's budget request to explain the BMDS 
development process. It has also been used repeatedly by multiple 
senior officials in the DOD and the MDA in reference to missile 
defense. Yet according to a 2003 GAO report, none of the missile 
defense programs have been officially designated as spiral development 
programs. Can you explain this apparent lack of consistency? Are 
missile defense programs using spiral development? If so, why have the 
required reports not been submitted to Congress?
    Mr. Wynne. The BMDS was identified as using spiral development 
after the reporting deadline of September 30, 2003. It will be included 
in the Department status report due by September 30, 2004.

    [Whereupon, at 12:45 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

                              ----------                              


                        TUESDAY, MARCH 23, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

      ATOMIC ENERGY DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY

    The committee met, pursuant to notice, at 9:43 a.m., in 
room SD-106, Dirksen Senate Office Building, Senator John 
Warner (chairman) presiding.
    Committee members present: Senators Warner, Allard, 
Sessions, Levin, Kennedy, Reed, Bill Nelson, Clinton, and 
Pryor.
    Committee staff member present: Judith A. Ansley, staff 
director.
    Majority staff members present: L. David Cherington, 
counsel; and Lynn F. Rusten, professional staff member.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; and Madelyn R. Creedon, minority 
counsel.
    Staff assistants present: Michael N. Berger, Bridget E. 
Ward, Nicholas W. West, and Pendred K. Wilson.
    Committee members' assistants present: Jayson Roehl, 
assistant to Senator Allard; Mieke Y. Eoyang and Jarret A. 
Wright, assistants to Senator Kennedy; Elizabeth King, 
assistant to Senator Reed; William K. Sutey and Dan Shapiro, 
assistants to Senator Bill Nelson; Andrew Shapiro, assistant to 
Senator Clinton; and Terri Glaze, assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, everyone. The committee 
meets this morning to receive testimony from the Secretary of 
Energy, the Honorable Spencer Abraham, on the defense-related 
activities of the Department of Energy (DOE), as well as the 
President's Defense Authorization Request for Fiscal Year 2005 
and the Future Years Defense Program (FYDP). The committee 
welcomes our distinguished witness, together with his 
colleagues who have joined him this morning.
    This committee has jurisdiction over approximately two-
thirds of the DOE's budget. The fiscal year 2005 budget request 
for the defense-related missions of DOE is approximately $16.8 
billion, a 2-percent real increase over the fiscal year 2004 
appropriated level. This funding is primarily for maintaining 
the reliability, safety, and security of our nuclear weapons 
stockpile and for the environmental cleanup of Department of 
Energy (DOE) nuclear facilities.
    For the past 2 years, DOE has requested funding or 
legislation for several research programs which I think are 
vital for America's defense posture. This includes a 
feasibility study on the Robust Nuclear Earth Penetrator (RNEP) 
and advanced concepts research. These important requests 
generated significant, and I must say, I think quite 
appropriate, debate in Congress both last year and the previous 
year.
    Last year Congress decided to authorize research and 
feasibility studies on advanced concepts and the RNEP while 
ensuring that Congress has the final say on whether more 
advanced development activities may proceed in the future. 
Specifically, the National Defense Authorization Act for Fiscal 
Year 2005 puts in what I believe is a very appropriate 
condition, namely that before the DOE can proceed to the 
engineering development, production, or deployment phases of 
the RNEP, or a low-yield nuclear weapon, Congress must 
specifically give the authorizations. This is a prudent way to 
handle a very sensitive issue, which is concerning the public a 
great deal. I think that is understandable, and it is an issue 
that is deserving of very careful oversight in the years to 
come by Congress.
    Congress struck the proper balance, which will allow our 
weapons scientists, engineers, and technicians to conduct 
necessary research studies to ensure that they can maintain the 
technical ability to respond to any future military 
requirements as determined by this and future Presidents.
    There are several other DOE matters which require this 
committee's ongoing oversight. The Science-Based Stockpile 
Stewardship Program continues towards a goal of ensuring that 
the United States can maintain its nuclear weapons stockpile 
and that the stockpile can be certified as reliable, safe, and 
secure without the need to conduct underground live nuclear 
tests. I think it is a laudable goal, but I am speaking just 
for myself that I have a considerable skepticism as to whether 
this goal can be achieved.
    Three major DOE programs are critical to DOE's defense-
related mission: the National Ignition Facility (NIF), the 
Modern Pit Facility (MPF), and the Mixed Oxide (MOX) Facility, 
and I hope, Mr. Secretary, you will include references to each 
today.
    As the environmental management (EM) program works toward 
the completion of the first three major closure sites in 2006, 
there are reasons to both praise these accomplishments and at 
the same time urge caution as the new challenges emerge. The 
planned 2006 closure of the Rocky Flats site in Colorado and 
the Fernald and Mound sites in Ohio, I think, is positive news 
for the DOE. The early closure of these sites is expected to 
result in a cost savings of over $12 billion.
    Nonetheless, shifting the oversight of the closure sites 
from the EM program to the Office of Legacy Management (LM) 
poses a new challenge for the DOE. Environmental stewardship 
responsibilities, pension and health care needs, and the 
community concerns will all require a high level of attention 
to assure a smooth transition.
    Consequently, Secretary Abraham, I know that you share the 
President's priority on nuclear nonproliferation matters and 
that you take a deep personal interest in your department's 
very active role in this area. We look forward to hearing from 
you this morning about these programs. I thank you and your 
family for service to the Nation and that of your colleagues. I 
now turn to the distinguished ranking member, Mr. Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman. First, let me join 
you in welcoming Secretary Abraham back. It's always good to 
have our friend and former colleague here with us. The DOE's 
total budget request for fiscal year 2005, as you have pointed 
out, Mr. Chairman, is $23.5 billion of which $16.8 billion, or 
about two-thirds of the overall DOE budget is for defense-
related activities, and thus under the jurisdiction of this 
committee. These defense-related activities include the 
environmental cleanup program, the nuclear nonproliferation 
programs, the nuclear weapons activities, and the naval 
reactors development program. The National Nuclear Security 
Administration (NNSA) is responsible for the nonproliferation 
programs, the nuclear weapons program, and the naval reactors 
program.
    The DOE NNSA has made some progress in its various 
nonproliferation programs, and I want to commend you, Secretary 
Abraham, for your efforts with Russia and the International 
Atomic Energy Agency (IAEA) to establish a task force to 
identify, assess the risk of, and secure or destroy as 
appropriate radiologic devices and other nuclear and 
radiological materials that could possibly be used in a 
radiological dispersal device (RDD), a so-called dirty bomb.
    In addition, the DOE has taken over responsibility from the 
DOD for a major project to shut down the last three plutonium 
producing reactors in Russia. To enable the shut-down of these 
reactors, which also produce energy for their local 
communities, DOE must build or modify fossil fuel plants to 
provide the energy that will be lost when the reactors are shut 
down. This will be a challenging program, and we look forward 
to working with you, Mr. Secretary, to make this program a 
success.
    One problem that is facing the DOE in the nonproliferation 
area is the stalemate between the United States and Russia on 
the issue of liability. The failure to resolve these 
differences has caused several nonproliferation programs, 
including the DOE program to convert 34 tons of weapons-grade 
plutonium to fuel for nuclear power reactors, to essentially 
shut down. Secretary Abraham, I would very much appreciate your 
thoughts on how that matter could be resolved.
    On nuclear weapons, working to secure nuclear materials and 
weapons is just one aspect of proliferation. Over the course of 
the past 3 years, the administration has taken a variety of 
steps that would indicate more emphasis and importance is being 
placed on nuclear weapons than on nonproliferation. Nuclear 
proliferation and the nuclear weapons policies and actions of 
the United States are inextricably connected, and we should be 
conscious of that interaction.
    The message sent by last year's repeal of the ban on 
research and development (R&D) of low-yield nuclear weapons is 
the wrong message. Other aspects of last year's actions begin 
to take the United States in a dangerous new direction that 
marks a major shift in American policy, is inconsistent with 
our longstanding commitment under the Nuclear Nonproliferation 
Treaty (NPT) to end the nuclear arms race, and undermines our 
argument to other countries around the world that they should 
not develop or test nuclear weapons.
    The United States, as the only country to use nuclear 
weapons, has a responsibility to ensure that nuclear weapons 
are never seen as just another option for warfare. The Bush 
administration, through a series of acts taken over the past 3 
years, is moving to change the traditional thinking about 
nuclear weapons to make nuclear weapons more useable and to see 
them as just another capability. Four years after promising to 
reduce reliance on nuclear weapons and to reduce the number of 
nuclear weapons in the stockpile, the United States is still 
maintaining and supporting a Strategic Arms Reduction Treaty 1 
(START 1) stockpile on the order of 8,000 weapons. There have 
been no reductions in the number of weapons in the stockpile, 
and it appears that reliance on nuclear weapons as a 
warfighting option may actually have increased.
    The DOE budget request for fiscal year 2005 would more than 
double the money provided last year to continue work on the 
RNEP and also increase by 50 percent the money for advanced 
nuclear weapons concepts. At a time when the United States is 
trying to dissuade other countries from going forward with 
nuclear weapons development, and when we are spending over $1 
billion to prevent the spread of nuclear weapons material and 
technology, these actions send a terrible message. The United 
States is following a policy that we urge others not to adopt.
    Secretary Abraham, I look forward to discussing these 
important issues with you, and again, we welcome you as always 
back to the Senate.
    Chairman Warner. Mr. Secretary, we will put into today's 
record your statement in its entirety, and perhaps you can in 
your opening remarks give us an overview and we'll proceed into 
the question period.

     STATEMENT OF HON. SPENCER ABRAHAM, SECRETARY OF ENERGY

    Secretary Abraham. Mr. Chairman, thank you very much, and I 
will try to give a brief summary of our written statement, 
which I appreciate having inserted into the record of today's 
hearing. I want to thank you and the other members. It is 
always for me, of course, an honor to have a chance to return 
to the Senate and meet with former colleagues and have a chance 
to talk about the DOE.
    Let me just begin today by commenting that at the level of 
funding we are proposing for the DOE in the 2005 budget, it 
constitutes the largest budget submission in the history of the 
Department. It reflects the success of a number of the programs 
which we have developed in recent years, as well as the 
President's confidence in the work that is going on, and really 
this budget request builds on a number of successes which we 
have achieved.
    I am very proud of what we have accomplished in the last 
several years in terms of providing for the national energy 
security and the economic security of the American people. I am 
especially proud, I want to just say today, of the performance 
of the men and women who work at the DOE and whose dedication 
and hard work make this possible. A testament really to that 
dedication and capability was a recent announcement by the 
Office of Management and Budget (OMB), which ranked the DOE 
first among Cabinet-level agencies in terms of the 
implementation of the President's Management Agenda. As I think 
everyone knows, OMB recently put together a scorecard which 
evaluates agency performance in a variety of areas such as 
financial management, and it recognized the DOE as the Cabinet-
level agency which was leading the pack. As you might imagine, 
we are quite proud of this. Obviously it is the work of the 
folks on the front lines throughout our complex who have made 
this possible.
    Let me just comment on a few of the major areas of our 
budget as it relates to the work of this committee. Of the 
$24.3 billion total request for this year, 69 percent, or $16.8 
billion, is for the DOE's defense programs, which include the 
NNSA, our environmental cleanup activities, defense nuclear 
waste disposal, safeguards and security, as well as 
counterintelligence.
    NNSA, our quasi-independent agency, is charged with 
maintaining our Nation's nuclear stockpile, rebuilding the 
capabilities of our defense complex, halting the proliferation 
of nuclear weapons and materials, and providing the Navy with 
safe, militarily-effective nuclear propulsion. I think the NNSA 
has been very successful in meeting these responsibilities.
    Certifying to the President the safety and reliability of 
our stockpile is probably the most important responsibility a 
Secretary of Energy has, and in light of the moratorium on 
testing, this is a particularly difficult challenge. Through 
cutting-edge science and advanced computer modeling, NNSA is 
able to ensure that the weapons complex is ready and prepared 
to respond rapidly and effectively if required.
    In order to ensure the continued reliability of the 
stockpile, the DOE and NNSA have undertaken an ambitious 
campaign to modernize and rebuild the complex. This has been a 
central feature of every budget the Bush administration has 
submitted, and this year is no exception. That includes a large 
scale capital improvement program to rebuild decaying 
infrastructure as well as efforts to restore and improve the 
basic capabilities to operate our weapons programs in the 21st 
century.
    But as we are working to keep our stockpiles safe, secure, 
effective, and reliable, we are also taking steps to counter 
the proliferation of dangerous nuclear materials worldwide, and 
I am particularly proud of the role which the DOE has played in 
securing and removing dangerous nuclear materials from a 
variety of places, most recently from Libya.
    As the committee knows, in December, Colonel Qadhafi 
voluntarily pledged to disclose and dismantle all of Libya's 
weapons of mass destruction (WMD) programs, including a uranium 
enrichment project that could produce nuclear materials for 
several nuclear bombs per year. DOE experts were part of the 
team that did secure those materials and then brought them to 
our facility in Oak Ridge, Tennessee, for evaluation, testing, 
and destruction. The United States and the world are safer as a 
result of this nonproliferation triumph.
    I am also proud of the great progress which we have made 
with Russia on nonproliferation issues. We have accelerated the 
material protection programs and expanded the scope of our work 
to ensure that dangerous materials do not fall into the hands 
of terrorists. We have increased our cooperation with Russia's 
strategic rocket forces by initiating warhead security work at 
three new sites. We have also extended our international 
nuclear and radiological cleanout programs to states that were 
once part of the Soviet Union and its empire.
    Working with them, with Russia, and with the IAEA, we have 
been able to secure radiological materials in these countries 
before anyone with evil designs could get their hands on them. 
Moreover, we have begun a MegaPorts program to detect the 
trafficking of nuclear radioactive materials in the world's 
busiest seaports. Eventually we hope to have detection 
equipment in key locations all over the planet.
    On top of those responsibilities, the NNSA also receives 
the naval reactors program, which provides safe and reliable 
nuclear reactors to power the Navy's war ships. It is 
responsible for all naval nuclear propulsion work beginning 
with technological development through reactor operations, and 
ultimately to reactor plant disposal.
    Our 2005 budget continues to support our naval reactors 
efforts, including work on the design of the next generation of 
nuclear reactor for aircraft carriers and continued work on the 
transformational technology core to deliver a significant 
energy increase to future submarines.
    I think a review of all these programs should make very 
clear that we are dedicated to ensuring America's defense 
preparedness in the 21st century. We are also, Mr. Chairman, 
dedicated to cleaning up the legacy of half a century of 
nuclear defense work in the United States. On a complex-wide 
basis, we have taken an approach that says we will not allow 
the legacy of the work done in the weapons complex to be part 
of a community's burden for as far as the eye can see, and that 
is why we are seeking the most funding ever for our EM program.
    When we took office in 2001, the timetable for cleanup at 
most sites was 70 or 80 years. Today the measures which we are 
instituting and have instituted will accelerate completion of 
the cleanup program by 35 years, and because of the shorter 
time frame that's involved, it will save the American taxpayers 
as much as $50 billion, perhaps even more.
    The DOE's accelerated cleanup strategy has led to the 
creation, as you noted, of two new organizations outside of EM, 
the Office of Legacy Management, and the Office of Future 
Liabilities. Transferring responsibilities to these new offices 
will enable the EM program to complete its current cleanup 
scope, and it allows other departmental programs to focus on 
their primary missions.
    On a related note, we are seeking an increase in funding 
for our work to establish a permanent nuclear waste repository 
at Yucca Mountain. Yucca Mountain is key to helping us complete 
the cleanup of our Cold War weapons facilities. Our 2005 budget 
request permits us to stay on schedule to begin operation at 
Yucca Mountain in 2010.
    Finally, Mr. Chairman, safeguarding and securing all of 
DOE's sites and facilities is a top priority. I'm happy to 
report that the 2005 budget for all DOE safeguard and security 
programs fully addresses the requirements identified in the 
revised Design Basis Threat (DBT), the initiative we undertook 
to review all of our threat assessments and to update and 
modernize the complex to deal with the new world in which we 
live.
    At the same time, we are seeking to consolidate the two 
counterintelligence programs within the DOE into one office 
reporting directly to the Office of the Secretary. We reached 
this judgement after extensive review of the current separated 
or bifurcated counterintelligence functions between the DOE on 
the one hand and the NNSA, which have proven to be an 
impediment, frankly, to coherent and effective 
counterintelligence activities. We believe this must be 
corrected. I personally think that having a single 
counterintelligence office reporting directly to the Secretary 
of Energy will create a more streamlined and effective program, 
clarify accountability, and provide a clear line of authority 
for policy development and implementation.
    The NNSA Administrator, the National Counterintelligence 
Executive, the Director of Central Intelligence (DCI), and the 
Director of the Federal Bureau of Investigation (FBI), share 
this view as well. Recently, we submitted proposed legislation 
to Congress to effect the needed consolidation, and I would 
urge its prompt passage.
    Mr. Chairman, that concludes a brief overview of our major 
areas of responsibility, and obviously I would be happy to 
answer the committee's questions at this time.
    [The prepared statement of Secretary Abraham follows:]
               Prepared Statement by Hon. Spencer Abraham
                              introduction
    Good morning, Mr. Chairman and members of the committee. It is a 
pleasure to be here today to discuss the President's fiscal year 2005 
budget request for the Department of Energy (DOE). In doing so, I want 
to stress the ways this budget is going to help us accomplish our 
various missions related to defense and the environment.
    At $24.3 billion in gross budget authority, the fiscal year 2005 
budget request is the largest in the history of the DOE. Within the 
$24.3 billion, approximately 69 percent of the total DOE budget, or 
$16.8 billion, is for the Department's atomic energy defense activities 
within the jurisdiction of this committee. Within this part of the 
budget, there is $9.0 billion to support activities in the National 
Nuclear Security Administration (NNSA), $7.4 billion to fund the 
environmental cleanup activities, $131 million to fund the Defense 
Nuclear Waste Fund, and $663.6 million to fund other defense 
activities.
    This budget request builds on a number of successes we have had 
over the past 3 years. I am very proud of what we have accomplished in 
terms of fulfilling the President's management vision for this DOE and 
also what we have achieved to promote energy and economic security for 
the American people.
    The Office of Management and Budget (OMB) recently announced that 
DOE has made the most progress among Cabinet-level agencies in the 
implementation of the President's Management Agenda. OMB recognized DOE 
as the Cabinet-level agency ``leading the pack with regard to 
management improvement'' in the areas of human capital, competitive 
sourcing, financial management, e-government, and budget/performance 
integration.
    Over the past 3 years, with the strong support of the 
administration and Congress, our national nuclear security programs, 
through the DOE's NNSA, have achieved a level of stability that is 
required for accomplishing our long-term missions. As the post-Cold War 
era evolves, the NNSA is managing the Nation's nuclear warheads 
according to the guidance in the Nuclear Posture Review (NPR). The DOE, 
through the NNSA, works to ensure that the Nation's nuclear stockpile 
remains safe, secure, reliable, and ready, and to extend the life of 
that stockpile in support of Department of Defense (DOD) military 
requirements. Our Nation will continue to benefit from the security 
resulting from an effective nuclear deterrent and can be confident that 
the nuclear weapons complex is ready and prepared to respond rapidly 
and effectively if required.
    We have also made great progress in a number of other program 
areas. We have implemented changes that have fundamentally reformed 
DOE's Environmental Management (EM) program. Complex-wide, we have 
taken an approach to accelerated cleanup that says we will not allow 
the legacy of the work done in the weapons complex to be part of a 
community's burden for future generations. At the beginning of this 
administration, the timetable for completing cleanup at all sites was 
70 years. Today, we have implemented reforms to accelerate completion 
of the cleanup program by 35 years and reduce estimated program costs 
in excess of $50 billion.
    With national security as our overarching departmental mission, we 
cannot be said to be fulfilling our mission with any confidence unless 
we can guarantee security at our facilities. We are attempting to do 
that with a request of $1.38 billion in fiscal year 2005 for all DOE 
safeguards and security activities. We have revised the Design Basis 
Threat (DBT), which is the post-September 11 analysis of potential 
threats against which we must protect DOE sites and materials across 
the country, and are implementing our response to it. We also have a 
high-level review of security procedures underway by some of the 
Nation's top military and civilian experts. Lastly, we have made 
significant managerial changes in the security leadership at our 
facilities.
    A critical component of our national security mission is 
counterintelligence. Last summer, I informed this committee and others 
that our national security will be best served by consolidating the two 
counterintelligence programs within the DOE in one office reporting 
directly to the Office of the Secretary. I came to this conclusion 
after extensive review of the current bifurcated counterintelligence 
functions between the DOE and the NNSA, which have proven to be an 
impediment to coherent and effective counterintelligence activities. 
This must be corrected. More recently, I submitted proposed legislation 
to Congress to effect the needed consolidation.
    I believe that having a single counterintelligence office reporting 
directly to the Secretary of Energy will create a more streamlined and 
effective program, clarify accountability, and provide a clear line of 
authority for policy development and implementation. The NNSA 
Administrator, the National Counterintelligence Executive, the Director 
of Central Intelligence (DCI), and the Director, Federal Bureau of 
Investigation (FBI) share this view. I urge prompt passage of the 
legislation.
    The sections that follow provide the details of the fiscal year 
2005 budget request.
                national nuclear security administration
    Representing approximately 37 percent of the DOE's entire fiscal 
year 2005 budget request, our national security programs have made 
great progress and continue to address the challenges of a post-
September 11 environment.
    The fiscal year 2005 budget request totals $9.0 billion, an 
increase of $383 million or 4.4 percent. We are making progress in 
managing our program activities within a disciplined 5-year budget and 
planning envelope. We are doing it successfully enough to be able to 
address emerging new priorities and provide for needed funding 
increases in some of our programs within an overall modest growth 
rate--notably Safeguards and Security, Nuclear Weapons Incident 
Response, and Facilities and Infrastructure Recapitalization--by 
reallocating from other activities and projects that are concluded or 
winding down.
    The NNSA budget justification contains the required 3 years of 
budget and performance information, as well as similar information for 
5 years as required by Sec. 3253 of the NNSA Act, as amended (Title 
XXXII of the National Defense Authorization Act for Fiscal Year 2000, 
P.L. 106-65, 50 U.S.C. 2453). This section, entitled Future Years 
Nuclear Security Program (FYNSP), requires the NNSA to provide to 
Congress each year at the time the budget is submitted the estimated 
expenditures necessary to support the programs, projects, and 
activities of the NNSA for a 5 fiscal year period, in a level of detail 
comparable to that contained in the budget. Since the inception of 
NNSA, the FYNSP has been provided as a separate document supporting the 
budget request. Starting with this budget, NNSA will meet this 
statutory requirement by including outyear budget and performance 
information as part of a fully integrated budget submission.
Weapons Activities
    The fiscal year 2005 budget request for the programs funded within 
the weapons activities appropriation is $6.568 billion, an increase of 
5.4 percent over fiscal year 2004 due largely to the increase in 
security and facilities infrastructure. Within weapons activities, the 
budget structure has been changed in response to congressional concerns 
to align directed stockpile work funding with individual weapon 
systems, and to highlight nuclear weapon incident response as a 
separate line.
    The NPR guidance directed that NNSA maintain a research and 
development (R&D) and manufacturing base that ensures the long-term 
effectiveness of the Nation's stockpile, and support the facilities and 
infrastructure that are responsive to new or emerging threats. The NPR 
also directed NNSA to begin a modest effort to examine concepts that 
could be deployed to further enhance the deterrent capabilities of the 
stockpile in response to the national security challenges of the 21st 
century.
    The United States is continuing work to refurbish and extend the 
life of the B61, W76, and W80 warheads in the stockpile. Within the 
fiscal year 2005 request of $1.4 billion for Directed Stockpile Work 
(DSW), funding for the life extension programs increases by 7 percent 
to $477.4 million. This reflects the expected ramp up in the three 
systems with First Production Units scheduled in fiscal years 2006-2009 
and the completion of life extension activities for the W87. In fiscal 
year 2005, DSW funding will support R&D of advanced weapon concepts to 
meet emerging DOD needs that will enhance the nuclear deterrent, and to 
ensure a robust and capable NNSA for the future. The NPR highlighted 
the importance of pursuing advanced concepts work to ensure that the 
weapons complex can provide nuclear deterrence for decades to come. In 
fiscal year 2005, $9.0 million is requested to support the modest R&D 
effort in the Advanced Concepts Initiatives (ACI) to meet emerging DOD 
needs and to train the next generation of nuclear weapons scientists 
and engineers. The Robust Nuclear Earth Penetrator (RNEP) is the most 
mature concept being studied in this program. Funds for the RNEP study 
are included in the fiscal year 2005 budget as a separate line item 
from the rest of the advanced concepts study activity. A request for 
$27.6 million is also included for the continuing RNEP feasibility, 
design definition and cost study. The RNEP study was requested by the 
Nuclear Weapons Council in January 2002.
    The RNEP study is to determine whether either of two existing 
warheads--the B61 or the B83--can be adapted without resuming nuclear 
testing to improve our ability to hold at risk hardened, deeply buried 
facilities that may be important to a future adversary. The request for 
advanced concepts funding is to investigate new ideas, not necessarily 
new weapons. For example, we are currently examining the feasibility of 
adapting an existing weapons carrier and existing nuclear warheads to 
achieve a delivery system with greater assurance that the intended 
nuclear mission could not be compromised by either component failure or 
adversary attack, thus giving greater reliability for nuclear missions. 
Appropriate uses for additional work in advanced concepts might include 
examining the feasibility of warheads with improved design margins, 
easier manufacturing, greater longevity, and improved safety. Any of 
these ideas would only be pursued for future development if directed to 
do so by the President and Congress.
    Progress in other parts of the Stockpile Stewardship Program 
continues. The fiscal year 2005 request for campaigns is $2.4 billion, 
essentially level with fiscal year 2004. This request funds a variety 
of campaigns, experimental facilities, and activities that continue to 
enhance NNSA's confidence in moving to ``science-based'' judgments for 
Stockpile Stewardship, and provide cutting edge technologies for 
stockpile certification and maintenance.
    While there is no reason to doubt the ability of the Stockpile 
Stewardship Program to continue to ensure the safety, security, and 
reliability of the nuclear deterrent, the Nation must maintain the 
ability to carry out a nuclear weapons test in the event of some 
currently unforeseen problems that cannot be resolved by other means. 
Within the guidance provided by Congress, we are beginning to improve 
our readiness posture from the current ability to test within 24 to 36 
months to an ability to test within approximately 18 months. The fiscal 
year 2005 budget request of $30 million supports achieving an 18-month 
readiness by September 2005. But let me be clear, there are no plans to 
test.
    The National Ignition Facility (NIF) at Lawrence Livermore National 
Laboratory (LLNL) remains on budget and schedule. The fiscal year 2005 
request of $130 million continues construction, installation, and 
commissioning of laser beams. Once complete in 2008, the 192-laser beam 
facility will be capable of achieving temperatures and pressures found 
only on the surface of the sun and in exploding nuclear weapons. We are 
anticipating the first Stockpile Stewardship experiments in 2004 using 
four laser beams. As a result of recent technical advances in capsule 
design, target fabrication, and computer simulations, we expect to 
begin the fusion ignition campaign in fiscal year 2009 with a goal of 
achieving fusion ignition in fiscal year 2010. The Advanced Simulation 
and Computing Campaign request for fiscal year 2005 is $741.3 million, 
an increase of nearly 3 percent over fiscal year 2004. Working with IBM 
and Cray Research, the program expects delivery of Red Storm in fiscal 
year 2004 and Purple in fiscal year 2005. These will be the world's 
fastest machines, operating at 40 and 100 Teraops, respectively, and 
they will continue to revolutionize supercomputer capabilities and 
three-dimensional modeling. Having these machines on-line will begin to 
redress the capacity and capability issues raised in the September 2003 
JASONs report required by Congress.
    The NPR recognized a need, over the long run, for a Modern Pit 
Facility (MPF) to support the pit manufacturing needs of the entire 
stockpile. NNSA's fiscal year 2005 request for the Pit Manufacturing 
Campaign is $336.5 million, an increase of 13 percent over fiscal year 
2004, but with some changes since the last budget request. We delayed 
the final environmental impact statement (EIS) for the MPF in order to 
address congressional concerns that it is premature to pursue further 
decisions on an MPF at this time. The decision to delay the final EIS 
also delays identification of a preferred site for constructing the 
MPF.
    This decision will in no way affect the W88 pit manufacturing and 
recertification program underway at Los Alamos, which is reestablishing 
the technological base to manufacture pits, and which thereby will 
inform many of the technology decisions, which will be contained in the 
eventual MPF design.
    Readiness campaigns are requested at $280.1 million in fiscal year 
2005, a decrease of about 14 percent. The decrease is attributable 
mainly to continuing progress in construction of the Tritium Extraction 
Facility that is funded within this account.
    NNSA's Readiness in Technical Base and Facilities activities 
operate and maintain current facilities and ensure the long-term 
vitality of the NNSA complex through a multi-year program of 
infrastructure construction. About $1.5 billion is requested for these 
efforts, a slight decrease from fiscal year 2004 that is attributable 
to a 20-percent decline in funding needed to support line-item 
construction project schedules.
    In fiscal year 2005 the President's budget provides a total of 
$201.3 million for the Office of Secure Transportation, which is 
responsible for meeting the DOE's transportation requirements for 
nuclear weapons, components, special nuclear materials, and waste 
shipments.
Facilities and Infrastructure Recapitalization
    The Facilities and Infrastructure Recapitalization Program (FIRP) 
is essential to our ability to maintain a responsive robust 
infrastructure. I am pleased to note that its mission and performance 
are commended in the recent preliminary assessment by the National 
Research Council on DOE's facility management. The fiscal year 2005 
budget request for FIRP is $316.2 million. This increase follows a 2-
year period of flat funding. The request restores the program to our 
previously requested FYNSP levels; it places the program back on our 
previously planned schedule and reflects our commitment to fulfill the 
direction of Congress to end the program by 2011.
Nuclear Weapons Incident Response
    The third growth area in the fiscal year 2005 budget request is the 
Nuclear Weapons Incident Response programs. The fiscal year 2005 
request of $99.2 million reflects an increase of 11 percent over the 
fiscal year 2004 level, recognizing the greatly increased number of 
deployments of these assets within the United States and abroad. The 
long-term sizing of this effort in terms of dollars and people 
continues to evolve along with its critical role in homeland security. 
We have relocated this account separately within the weapons activities 
appropriation to provide additional visibility into these programs and 
funding request.
Safeguards and Security/Design Basis Threat
    Protecting NNSA people, information, materials, and infrastructure 
from harm or compromise is one of our most serious responsibilities and 
highest priorities. The fiscal year 2005 budget request for NNSA's 
Safeguards and Security program is $706.9 million, an increase of 21 
percent over the fiscal year 2004 enacted level that is needed to 
implement our response to the new DBT at all NNSA sites and facilities. 
I issued the new DBT in May 2003, as a result of a post-September 11 
analysis of the threats against which we must protect DOE sites and 
materials across the country. Implementation plans based on 
vulnerability assessments for each of the sites are in final 
preparation. These will delineate the upgrades and associated costs 
plan to upgrade service weaponry, extend explosive impact zones, 
consolidate nuclear material, and make additional improvements of a 
classified nature to bring NNSA facilities into full compliance with 
the new DBT by the year 2006. The fiscal year 2005 NNSA budget includes 
$107.9 million ($89.6 in Safeguards and Security and $18.3 million in 
Secure Transportation Asset) to address the new DBT. NNSA will shortly 
submit a request for fiscal year 2004 reprogramming and appropriation 
transfer to allow this important work to continue on schedule. The 
fiscal year 2006 funding request for DBT implementation will be 
addressed during this spring's programming process, and accommodated 
within the current 5 year funding profile for NNSA.
    In recent months we have had some highly publicized occurrences at 
some NNSA sites. In each instance, NNSA and DOE have taken immediate 
and aggressive actions to address these occurrences and to ensure that 
any potential vulnerability is mitigated as soon as possible and that 
longer term fixes are put into place as appropriate. Because of these 
problems, we have chartered two external review groups to provide an 
independent assessment of our management of security. While we are 
confident that there has been no compromise of classified material and 
that no nuclear material is at risk, we believe security can and should 
be improved. Funding for Safeguards and Security in NNSA has increased 
over 70 percent during this administration, which is a strong indicator 
of the priority we place on this responsibility. The Administrator of 
NNSA and I join together in making it well known that we will not 
tolerate any reduction, perceived or real, in our protective forces and 
our abilities to protect the complex.
Nuclear Nonproliferation
    We also continue to make great progress with Russia on nuclear 
nonproliferation. Of the $1.35 billion included in this budget for 
Defense Nuclear Nonproliferation, $999.0 million is requested for 
nonproliferation programs with Russia and other countries. We have 
accelerated the material protection programs and expanded the scope of 
our work to ensure that dangerous materials do not fall into the wrong 
hands. We have increased our cooperation with Russia's Strategic Rocket 
Forces by initiating warhead security work at three new sites.
    We have extended our International Radiological Threat Reduction 
program to states that were once part of the Former Soviet Union (FSU) 
and others. Working with them, with Russia, and with the International 
Atomic Energy Agency (IAEA), we have been able to secure radiological 
materials in these countries.
    Moreover, in this budget request we are continuing our MegaPorts 
program with $15.0 million to detect the trafficking of nuclear or 
radioactive materials in the world's busiest seaports. We will complete 
installations at three ports in fiscal year 2004 and complete an 
additional three ports in fiscal year 2005. Eventually we hope to have 
detection equipment in key locations all over the planet.
    The largest investment in nuclear nonproliferation in fiscal year 
2005 is the Fissile Materials Disposition program. We are working to 
design and build facilities to dispose of inventories of surplus U.S. 
weapons-grade plutonium and highly enriched uranium (HEU), and 
supporting concurrent efforts in Russia to obtain reciprocal 
disposition of similar materials.
    One of the major obstacles encountered this year is a disagreement 
with Russia regarding liability protection for plutonium disposition 
work performed in that country. This has resulted in a 10-month delay 
in the planned start of construction of the mixed oxide (MOX) facility 
in Russia as well as a similar facility in the United States. The 
liability issue is being worked at high levels in the administration. 
The President's fiscal year 2005 budget request seeks $649.0 million 
for this program to begin construction of both the U.S. and Russian MOX 
facilities in May 2005, as we work to resolve the liability issue by 
this spring. Our outyear funding profiles reflect the administration's 
full commitment for proceeding with plutonium disposition.
    Not only are we pursuing the disposition of weapons-grade 
plutonium, but we are also working hard to stop more from being 
produced. We have assumed the responsibility from the DOD for shutting 
down the last three plutonium production reactors in Russia and 
replacing them with fossil fuel plants by 2008 and 2011. This will 
result in the cessation of the annual production of 1.2 metric tons of 
weapons-grade plutonium. Under the Elimination of Weapons-Grade 
Plutonium Production program, we will provide oversight for Russian 
contractors who will actually be performing the work. The fiscal year 
2005 request for this effort is $50.1 million.
    In fiscal year 2005, NNSA assumes responsibility for the Off-site 
Source Recovery Project from the Office of EM. The requested program 
funding is $5.6 million, with a projected cost of about $40.0 million 
over the next 5 years to substantially reduce the risk of these source 
materials being used for radiological dispersion devices. The program 
works closely with the U.S. Nuclear Regulatory Commission (NRC) to 
prioritize source recovery.
    We are mindful of this committee's concerns about the finances of 
the programs funded by the defense nuclear nonproliferation 
appropriation. NNSA is currently developing the framework for the first 
semi-annual report on uncosted balances and commitments as directed by 
last year's authorization act.
Naval Reactors
    In fiscal year 2005, we are requesting $798.0 million for the Naval 
Reactors program, an increase of about 5 percent. This program 
continues to be a prime example of how to manage unforgiving and 
complex technology. The Naval Reactors program provides safe and 
reliable nuclear reactors to power the Navy's warships. It is 
responsible for all naval nuclear propulsion work, beginning with 
technology development, through reactor operations, and ultimately to 
reactor plant disposal. The budget increase will support 70 percent 
completion of the design of the next generation nuclear reactor on an 
aircraft carrier, and continue work on the Tranformational Technology 
Core, which will deliver a significant energy increase to future 
submarines, resulting in greater operational ability and flexibility. 
The request includes $6.2 million for a new construction start, the 
Materials Development Facility Building, in Schenectady, New York. The 
total estimated cost of this facility is $20.4 million, and it is 
estimated to be completed in 2008.
Office of the Administrator
    The NNSA is in the final implementation phase of a re-engineering 
effort that follows the principles of the President's Management Agenda 
to modernize, integrate, and streamline operations. As a result, at the 
end of fiscal year 2004, NNSA will achieve its goal of a 15-percent 
reduction in Federal personnel since fiscal year 2002.
    The fiscal year 2005 budget request of $333.7 million for the 
Office of the Administrator is about 1 percent below the fiscal year 
2004 appropriation. This reflects cost avoidance due to the reduction 
of about 300 positions since 2002, and no further request for 
incremental funding needed to accomplish re-engineering in NNSA 
headquarters and field organizations. The budget request assumes that 
personnel reductions are achieved, restructuring is finished, and 
associated employee transfers are completed at the end of fiscal year 
2004.
    The Defense Nuclear Nonproliferation and Nuclear Weapons Incident 
Response programs have been excluded from staff reductions due to 
increased program requirements in those areas. We are not requesting a 
separate funding control for the Office of Defense Nuclear 
Nonproliferation, because it is no longer necessary to assure that 
Federal hiring goals are met for those activities that are experiencing 
rapid mission growth. Based on hiring to date in fiscal year 2004, it 
is projected that this organization will meet or exceed its managed 
staffing plan goal of 244 by fiscal year 2005. A single funding control 
for the appropriation is necessary to facilitate NNSA's corporate 
efforts to rebalance the nuclear nonproliferation office's transition 
from reliance on support service contractors to permanent Federal 
staff.
                              environment
Environmental Management
    All of our scientific research is designed in part to meet our 
Nation's environmental challenges. In addition to research in hydrogen, 
next generation nuclear technology, and renewable energy, our 
commitment to the environment includes taking action to address the 
environmental legacy of our past work, particularly building the 
nuclear weapons complex that helped win the Cold War. That means 
cleaning up the contamination caused by the production of nuclear 
weapons and ensuring our Nation is equipped to safely handle future 
high-level nuclear waste generated by the use of conventional nuclear 
power as well as the continued stockpile stewardship of nuclear 
weapons.
    DOE is addressing these responsibilities through our EM program and 
the work at Yucca Mountain. Our fiscal year 2005 budget requests $8.6 
billion to meet our various environmental-related objectives. Within 
that, we are seeking over $7.4 billion for the EM program--the most 
funding ever requested for this program, reflecting the peak year of 
DOE's investment strategy for accelerated cleanup. We anticipate 
funding will then decline significantly to about $5 billion in 2008.
    The request includes five appropriations, three of which fund on-
the-ground, core mission work, and two of which serve as support. The 
five appropriations and associated requested funding are as follows:

        <bullet> Defense Site Acceleration Completion ($5.97 billion)
        <bullet> Defense Environmental Services ($982 million)
        <bullet> Non-Defense Site Acceleration ($152 million)
        <bullet> Non-Defense Environmental Services ($291 million)
        <bullet> Uranium Enrichment Decontamination and Decommissioning 
        Fund ($500 million)

    Within the Defense Site Acceleration Completion appropriation, 
there is a proposal to reserve $350.0 million. These funds will be 
requested pending the satisfactory resolution associated with a recent 
court ruling dealing with our authority to classify certain lower 
activity waste incidental to reprocessing (WIR).
    This budget reflects several program shifts from EM to other 
programs within the DOE in fiscal year 2005. The program shifts more 
focus to EM's mission of Cold War cleanup and supports the EM program 
initiative to accelerate cleanup and risk reduction while providing the 
responsible and accountable mission programs with the resources and 
tools necessary to achieve their objectives. This accountability model 
is the key to moving each of the enterprises or missions of the DOE 
forward in attaining the desired outcomes and results important to the 
administration and supporting our accelerated risk reduction and 
closure initiative. Transfers include the following:

        <bullet> Federal staff at the Pacific Northwest National 
        Laboratory to the Office of Science and Federal staff at 
        Headquarters to the Office of the Chief Information Officer;
        <bullet> EM portion of the Offsite Source Recovery Program to 
        the NNSA;
        <bullet> Spent fuel storage responsibilities at Idaho National 
        Laboratory, the Foreign Research Reactor Spent Fuel Program, 
        management of NRC-licensed spent fuel, and the National Nuclear 
        Spent Fuel Program to the Office of Civilian Radioactive Waste 
        Management; and
        <bullet> Formerly Utilized Sites Remedial Action Project 
        records management, responsibility for cost liability and 
        recovery reviews, and Environmental Justice and the Massie 
        Chairs of Excellence Program to the Office of Legacy Management 
        (LM).

    We will also be transferring sites, as they are completed, to 
either the landlord or to LM. Transferring sites to LM will occur if 
the site has no further DOE mission. EM is working with LM to ensure 
smooth site closure and transition by:

        <bullet> Ensuring that site baselines identify functions and 
        elements beyond contract closure to meet all internal 
        requirements;
        <bullet> Conducting assessments of site readiness for transfer 
        and closure in tandem with LM;
        <bullet> Having joint teams at each site (Rocky Flats has 2 LM 
        employees) supported by LM personnel who were once EM personnel 
        and EM personnel at sites are transferring to LM positions;
        <bullet> Holding quarterly meetings between EM and LM senior 
        management to address key issues and make decisions; and
        <bullet> Developing a communication plan defining roles and 
        responsibilities between EM and LM staff.

Defense Nuclear Waste Disposal
    One of the most significant and long-standing commitments addressed 
in this budget is funding to establish a permanent nuclear waste 
repository at Yucca Mountain. In order to remain on schedule to begin 
operation in 2010, the fiscal year 2005 budget requests $880.0 million 
for Yucca Mountain repository activities, of which $131.0 million is 
requested from the Defense Nuclear Waste Disposal appropriation. This 
is key to ensuring the future use of nuclear power in this Nation. It 
is also important to help us complete the cleanup of our weapons 
facilities and consolidate high-level nuclear waste in one safe, secure 
location. This request enables us to finalize and defend the license 
application for construction of the permanent repository--which we are 
planning to submit to the NRC by December 2004--as well as other 
activities associated with repository design and safety upgrades and 
with developing a transportation system to the Yucca Mountain site.
    As I mentioned earlier, this budget reflects several program shifts 
from EM to other programs within the DOE. One of the shifts includes 
the transfer of the spent nuclear fuel management program from the 
Office of EM to the Office of Civilian Radioactive Waste Management. 
Transferring the responsibility for these activities will ensure a 
consistent policy and approach to manage and plan for the ultimate 
disposition of both commercial and DOE-owned spent fuel. The proposed 
transfer totals $26.4 million, with $21.2 million funded from the Other 
Defense Activities appropriation, and the remaining from the Energy 
Supply appropriation. These funds continue to remain separate from the 
Nuclear Waste Fund.
                        safeguards and security
    Safeguarding and securing DOE's sites and facilities are among our 
highest priorities. The fiscal year 2005 budget includes $1.38 billion 
for all DOE safeguards and security programs to address additional 
requirements identified as a result of the revised DBT.
    Within the total amount requested for safeguards and security 
activities, approximately $707 million will support activities to 
safeguard nuclear weapons facilities. About $265 million will support 
activities that protect the Cold War nuclear waste material being 
cleaned up at our environmental cleanup sites.
    We are also requesting $255.0 million for the Office of Security to 
support the development of DOE-wide security policies as well as to 
provide physical security for DOE headquarters. The fiscal year 2005 
budget request also includes $58.0 million to support safeguards and 
security activities at the new Idaho National Laboratory for nuclear 
energy R&D.
                         other defense programs
Nuclear Energy
    The nuclear energy program remains a critical component of the 
Nation's energy portfolio and a significant part of America's energy 
future. The fiscal year 2005 budget request for the DOE's nuclear 
energy programs is $410.0 million, of which $112.8 million is for 
security and infrastructure activities at Idaho--a former DOD site--
which falls under this committee's purview. These programs work to 
address essential requirements to develop advanced nuclear power 
technologies for deployment. The fiscal year 2005 nuclear energy budget 
request also reflects the establishment of the Idaho National 
Laboratory, which will serve as the Nation's primary center for 
strategic nuclear energy research, development, demonstration, and 
education. It will lead the DOE's investigation of a new type of 
nuclear power plant that is proliferation-resistant and melt-down 
proof--the next generation nuclear power plant. It is our objective 
that the Idaho National Laboratory will become the world's premier 
nuclear energy technology center within a decade.
Energy Security and Assurance
    The widespread blackout of August 2003--affecting an area 
encompassing 50 million people, 8 States, and 1 Canadian province--was 
a strong reminder that our Nation's electricity grid has 
vulnerabilities and weaknesses which need to be addressed. Energy 
reliability is imperative. The budget request for Other Defense 
Activities includes $10.6 million for Energy Security and Assurance 
activities to help ensure a secure and reliable energy infrastructure 
in the new environment of heightened security and the increasing 
complexity of energy interdependencies. These activities will 
complement the efforts undertaken by the Department's Office of 
Electric Transmission and Distribution and the activities of the 
Department of Homeland Security (DHS).
Environment, Safety, and Health
    The fiscal year 2005 budget includes $135.0 million for the Office 
of Environment, Safety, and Health, of which $104.5 million falls under 
the jurisdiction of this committee. Within the $104.5 million, there is 
a request of $43.0 million within the Environment, Safety and Health 
program to accelerate the processing of applications from contractor 
workers who may have become ill as a result of their work at DOE 
facilities. This is a matter of doing what's right and taking care of 
those whose labors helped secure our safety. With this budget request, 
we plan to implement a 3-year program to eliminate the backlog of 
applications by the end of 2006.
Security and Safety Performance Assurance
    I recently brought the Office of Security and the Office of 
Independent Oversight and Performance Assurance under a single manager 
to create the Office of Security and Safety Performance Assurance. The 
intent of the establishment of the Office of Security and Safety 
Performance Assurance is to increase the effectiveness and efficiency 
of the Department's safeguards and security programs in light of the 
new environment we now live in. These two functions will maintain their 
distinctive roles and responsibilities within the Office of Security 
and Safety Performance Assurance. In fiscal year 2005, the budget 
request for the Office of Security and Safety Performance Assurance is 
$279.8 million, with $255.1 million for Office of Security to continue 
to develop and interpret safeguards and security policy for the entire 
Department, and $24.7 million for Office of Independent Oversight and 
Performance Assurance to continue to evaluate the implementation of 
policy, the effectiveness of security training and technology 
implementation, and identify issues concerning the adequacy of policy.
Legacy Management
    The budget includes $66.0 million for the Office of LM to manage 
post-environmental-cleanup activities. This organization demonstrates 
the DOE's long-term commitment to manage requirements relevant to 
closure sites beyond the completion of remediation.
Future Liabilities
    The budget also includes a total of $8.0 million for a new Office 
of Future Liabilities, which is funded by the Energy Supply 
appropriation at $3.0 million and the Other Defense Appropriation at 
$5.0 million. This is a planning office to address various future 
cleanup activities at sites with continuing missions. The fiscal year 
2005 budget provides funds to plan for environmental liabilities not 
currently assigned within the Department.
    As in previous years, the fiscal year 2005 budget requests funding 
within the Other Defense Activities appropriation to offset funding 
within the departmental administration appropriation. This offset of 
$92.4 million for Defense-Related Administrative Support addresses the 
significant amount of administrative support activities performed 
within the departmental administration appropriation that are of direct 
benefit to the DOE's defense-related programs. The fiscal year 2004 
Energy and Water Development conference report directed the Department 
to submit a budget request for fiscal year 2005 that reflects a 
proportional contribution from other defense activities for 
departmental administration costs. Fiscal year 2005 funding represents 
32.7 percent of the departmental administration appropriation 
administrative costs.
                               conclusion
    The Department's fiscal year 2005 budget request reflects the 
accomplishments of the last 3 years, the successes and the many 
changes. This request charts a focused course of investment for the 
Nation's future, one guided by a cohesive mission and targeted 
performance metrics. Making all of this work are the extremely talented 
men and women of the DOE which includes the world's top engineers and 
scientists. It is a privilege to work alongside them on a common 
mission. It is an honor to serve a President who has provided this 
vision of what this Department can--and will--accomplish in fiscal year 
2005 and beyond.
    Thank you. This concludes my formal statement. I would be pleased 
to answer any questions you may have at this time.

    Chairman Warner. Thank you very much, Mr. Secretary, and I 
know that all members of this committee admire the work that 
you have done and the continuing public service that you and 
your family render. I guess to put it personally, we kind of 
miss you.
    Secretary Abraham. Thank you, Mr. Chairman.
    Chairman Warner. Now, you mentioned the important work that 
you do with the United States Navy in terms of nuclear reactors 
for our submarine fleet and carrier force. I've had 35 
wonderful years of experience with that program, starting in 
1969 when I entered the DOD and now these 25 years in the 
Senate. It has compiled a safety record second to none in the 
world. We have had really no major accidents that we know of 
attributed to any malfunctioning of the power plants aboard our 
naval vessels. We have achieved extraordinary milestones in the 
construction of the cutting edge of submarines to protect this 
nation.
    Now, as you well know, the DOD years ago, when I had a hand 
in it, created the program that was once associated with 
Admiral Rickover, with whom I worked and enjoyed a very strong 
professional and friendly relationship. The individual that 
occupies that position currently, Admiral Bowman, I think has 
done a very admirable job. It is an 8-year tenure. It is my 
judgement that we should continue that 8-year tenure. Do you 
have any difference of opinion on that?
    Secretary Abraham. No. Admittedly, my time in the job has 
entirely coincided with Admiral Bowman's leadership. He has 
done an outstanding job, but it has been my sense that having a 
turnover of leadership on a periodic basis actually brings a 
certain amount of strength to the position, but I wouldn't want 
to in any sense suggest that the current occupant has not done 
an outstanding job.
    Chairman Warner. No, I was not raising it for that question 
because I think he recognizes that at the completion of his 8 
years we would have a sequential successor to come along, and I 
am certain there are many outstanding individuals in the United 
States who can step up. But I believe that position is 
different than almost any other in our whole defense structure 
of service and DOE service, so I am for continuing that 8 
years, and when the appropriate time comes, I am sure that the 
Secretary of Defense will nominate an individual for that 
office to continue for another sequence of 8 years.
    I am going to look further into that with the DOD, because 
I want to continue that program. I really set in place years 
ago that 8-year tenure, and I think there is a measure of 
independence and originality and creative thinking that goes 
with that post that the 8 years enables the occupant to render.
    Let us talk about the RNEP. I was looking at the out-years, 
and particularly 2006, looking at a fairly substantial 
increase, and I bring to your attention the fact, as I 
mentioned in my opening statement, that in 2004 we put in the 
legislation that the DOE may not proceed to the engineering 
development phase 6.3 or to subsequent phases without a 
specific authorization from Congress. Could you correlate that 
substantial 2006 bump-up with this statutory provision, which I 
hope will remain?
    Secretary Abraham. The statutory provision, Mr. Chairman, 
would of course govern any decision to move from a stage of 
research or preliminary inquiry to the engineering phase. We 
are required to provide 5-year budgets, however, so that people 
can look down the road and make a proper sort of assessment of 
what potential expenses will be. In this case, we have 
satisfied that by offering in the budget an outlook of what 
would be the kinds of costs involved if several preliminary and 
important steps were to take place. First, that we would 
complete the research work that we proposed to do. Second, that 
it would be a decision made by the executive branch that as it 
is considering ways to deal with the issue of hard, deeply-
buried targets, that the preferred approach would be the 
hardening of an existing nuclear weapon, and that a 
recommendation would be made to proceed. After which, the 
congressional ratification and support for that would be 
required before we would move to that engineering----
    Chairman Warner. The short answer to it is that you have to 
do your budget programming----
    Secretary Abraham. Right, and we want to be very----
    Chairman Warner. In no way does that imply that the 
administration will come and try to revise the existing 
statutory framework.
    Secretary Abraham. No, not at all, and the alternative 
would be to not put those numbers out and have someone suggest 
that we were somehow keeping that secret. We felt we have a 
responsibility----
    Chairman Warner. I think you have taken the prudent course 
of action on that, Mr. Secretary, and I am glad we have placed 
in today's record a clear explanation for it.
    Last week, you were featured in a Washington Post article 
discussing the nuclear-related components for the United States 
to remove from Libya in the wake of Libya's decision to 
dismantle its nuclear and WMD programs. I think the 
administration deserves an enormous amount of credit for the 
initiatives taken with Libya on that together with other 
nations working with us.
    What can you tell the committee about the nonproliferation 
activities that DOE has undertaken in Libya, and do you have 
any plans for additional nonproliferation activities in Libya?
    Secretary Abraham. Well, essentially in Libya we have 
engaged in several activities. The initial phase of the 
activity was to remove the nuclear material that had been 
secured for a uranium enrichment processing effort, as well as 
the key components of the machines that would be used for that 
effort so they would not be functional. That was the material 
that came to the United States in the first phase of the 
effort.
    The second phase was to bring the remainder of the WMD 
materials that were discovered there, a much larger tranche of 
material. Just to put this in perspective, the first phase was 
about 55,000 pounds of equipment, material, and machinery. The 
second is about 5 percent of the total. The third component, 
which we are also very pleased about, was that working with the 
Libyan Government, and with the Russian Federation, and with 
the IAEA, we were able to secure and return to Russia the fresh 
fuel that was at the Tajura research reactor site in Libya, the 
kind of weapons-grade or near weapons-grade material or fuel 
that was under-secured and obviously a potential source of 
material for some type of proliferation usage. So that has been 
returned to Russia.
    We now will continue the work to try to address the core of 
that reactor to turn it into a safe alternative.
    Chairman Warner. I think that is commendable, Mr. 
Secretary. Last month you announced a new program to provide 
employment opportunities for Iraqi scientists, technicians, and 
engineers. I commend you for that, too. The program seeks to 
support reconstruction efforts and prevent the proliferation of 
WMD expertise to terrorists or proliferating states. What can 
you tell the committee about this new program aimed at 
facilitating productive research activities for these 
scientists so that they will not travel elsewhere in the world?
    Secretary Abraham. Mr. Chairman, we have had some very 
positive success in the DOD's nonproliferation work over a long 
period of time, primarily with the Russian Federation, on 
finding alternative occupational opportunities for folks with 
the expertise, whether they are scientists or technicians in 
the area of nuclear work, and we intend to build on that 
approach with respect to this latest mission. It has just been 
launched, and we will keep the committee well-informed of the 
progress that we make.
    Chairman Warner. Thank you very much, Mr. Secretary. My 
time has expired.
    Senator Levin. Thank you, Mr. Chairman. Presidents Bush and 
Clinton prepared an annual nuclear weapons stockpile memorandum 
that outlined, among other things, the number of nuclear 
weapons in the stockpile by weapons type and the number of 
weapons by type in each of the various states of readiness. 
Each document usually covered a 5-year period which allowed for 
planning decisions to be made, and President Bush has not 
submitted an annual document since the December 2001 Nuclear 
Posture Review (NPR).
    We have been told that the memorandum is almost finished, 
but it has not been submitted. There also was a requirement in 
last year's appropriations law for something similar to that 
called the Stockpile Plan to be submitted with the budget. What 
is the status of that memorandum?
    Secretary Abraham. You are right, and I might say that the 
provisions in the appropriation bill related to programs in my 
department, even though we are not singularly responsible for 
this report, but the fencing was on our dollar so obviously we 
have an interest in doing this. We also have an interest in 
doing it thoroughly and well, so it is occupying a lot of 
attention, both at the DOE and the DOD. We believe it will be 
done soon, but it will be done comprehensively to try to give 
this committee and the other responsible committees a clear 
indication of what we think, what the administration is 
recommending in terms of the stockpile composition.
    Senator Levin. Was the administration aware of the fact 
that that was supposed to be submitted with the budget?
    Secretary Abraham. I am sure that that is known by the 
administration. I assured the committee that we are working 
very hard to do this well and the delays are not because of a 
desire to avoid doing this, but because we want to do it 
effectively.
    Senator Levin. The fiscal year 2004 budget request sought 
$6 million for work on advanced nuclear weapons concepts, and 
that amount was authorized and appropriated last year, but 
Congress prohibited the DOE from spending $4 million of the $6 
million until 90 days after a revised Stockpile Plan was 
submitted to Congress. That Stockpile Plan has not been 
submitted to Congress. When is that plan going to be submitted?
    Secretary Abraham. Really, these are in the same basic 
process, and we hope it will be done soon. I would just note 
that actually the entire $6 million was predicated on the 
completion and submission of various documents to Congress. The 
first $2 million of the advanced concept money was actually 
held in reserve until NNSA submits a report on how that money 
will be spent, and then can not be spent for 30 days after 
that. That report was submitted on March 12, so we actually 
have not begun even the work on the first $2 million. We are 
doing our best to finish this project so that the remainder 
would be available.
    Senator Levin. Is the preparation of the revised Stockpile 
Plan contingent on the President signing that nuclear weapons 
stockpile memo?
    Secretary Abraham. I am not sure what the exact sequence 
is. I would have to answer that for the record.
    [The information referred to follows:]

    While transmittal of the Report to Congress on the Revised Nuclear 
Warhead Stockpile Plan is contingent on the President's approval of the 
fiscal year 2004-2012 Nuclear Weapons Stockpile Plan, preparation and 
coordination of the report to Congress is not. DOE and DOD are now 
coordinating a draft report to Congress. It is expected that once the 
President approves the fiscal year 2004-2012 Nuclear Weapons Stockpile 
Plan, transmission of the report to Congress will occur in an expedited 
fashion.

    Senator Levin. You and I have talked about the Strategic 
Petroleum Reserve (SPR), Mr. Secretary, and I want to ask you a 
question about that and put a chart up there for us. Gas prices 
are at a record high, and what that chart shows is that over 
the last 2 years, the DOE has added about 85 million barrels to 
the SPR. That is the red line going up. At the same time, 
private sector inventories of crude oil have fallen by about 50 
million barrels to their lowest level in 30 years, and that is 
the white line going down.
    Goldman Sachs, which is the largest crude oil trader in the 
world, has said that the buildups in storage have lowered 
commercially available petroleum supplies, and John Shages, who 
is your director of finance and policy for the SPR, said in a 
briefing in the spring of 2002 the following: ``Commercial 
petroleum inventories are low, retail product prices are high, 
and economic growth is slow.'' He concluded that ``the 
Government should avoid acquiring oil for the Reserve under 
these circumstances.''
    Is that still his position?
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Secretary Abraham. I do not know what his position 
personally is, but our administration's position is that the 
reason we are filling the Reserve is predicated on national 
security concerns. In the wake of the events of September 11, a 
number of people have, I think, felt that having the Reserve 
filled to its entire 700 million barrel limit was a critical 
national security objective, and the President directed the DOE 
to move ahead to fill it, which is the underlying rationale for 
doing the things we are doing.
    We recognize that there are obviously other issues in play, 
but the overriding concern we had was to have the Reserve at 
maximum strength in the event that there was a serious 
disruption in supply at some point.
    Senator Levin. Now, the Reserve is currently 93 percent 
filled, is that correct?
    Secretary Abraham. About 645, 650 million.
    Senator Levin. Out of 700 million barrels. Do you have any 
disagreement with those figures? Offhand, would you agree----
    Secretary Abraham. We started somewhere around 540 million, 
and we are about 100 million more than that now.
    Senator Levin. But would you agree that the private 
sector's inventory has gone down to what is near a record low 
while yours has gone up?
    Secretary Abraham. The private sector is lower than it was 
when this started. I do not know exactly----
    Senator Levin. Would you agree that there is a relationship 
between the price of gasoline and other petroleum products and 
the shortage of supply?
    Secretary Abraham. I think it may be the opposite way. I 
think the impact on price of supply is obvious. I do not think 
the price of gasoline is affecting supply.
    Senator Levin. What I am saying is that when supply goes 
down in the private inventories the price is going to go up.
    Secretary Abraham. The Energy Information Administration, 
which is an independent arm of the DOE, has been asked by us to 
gauge the impact on price of our very slow increase in the size 
of the Reserve, and have reached the conclusion that the impact 
is nearly negligible.
    Senator Levin. Dr. Phil Verleger, who is probably the 
foremost petroleum economist in the Petroleum Economics 
Monthly, reaches a very different conclusion than you do, which 
is that oil would have been perhaps $8 per barrel lower had in 
the last few years the administration followed what he calls a 
rational strategy, which is that you buy when oil prices are 
low and you do not add to the inventory when supplies are low 
in the private sector and when the price is high.
    I would hope that the administration would take a look at 
these outside analysts, but also I would ask if you would be 
willing to ask the director of finance and policy for the SPR, 
a man who works for you, whether or not he continues to--and I 
am talking about his own view, not the administration view--
whether or not it continues to be his view that when commercial 
petroleum products are low, retail product prices are high, and 
economic growth is slow, that the Federal Government should 
avoid acquiring oil for the Reserve under those circumstances. 
Would you be willing to ask for the record that he supply us 
with his view of that?
    Secretary Abraham. I will. I am sure he has that view, and 
I would be happy to have him submit his view on that basis.
    [The information referred to follows:]
           Acquiring Oil for the Strategic Petroleum Reserve
    The following are the personal views of John D. Shages, Acting 
Deputy Assistant Secretary, Petroleum Reserves, on acquiring oil for 
the Strategic Petroleum Reserve (SPR):
    It is my opinion that there are a wide array of considerations that 
could and should be factored into when, and at what rate, to add 
inventory to the SPR. The weight I would put on each of the factors 
depends on circumstances and will change with time. The administration 
has put the preponderance of weight on the need for increased energy 
security. At this time, I also put more weight on the value of energy 
security than the three factors listed for consideration. The SPR is 
the only U.S. Government tool for assuring oil supplies to consumers 
during an interruption, especially if caused by war, or intentional 
export curtailment. The potential need for the protection the Reserve 
offers has been increasing due to increasing consumption, increasing 
imports, decreasing unutilized production capacity anywhere in the 
world, and a general decrease in political stability in producing 
countries. It is my opinion that the optimal inventory of the Reserve 
is substantially higher than the current inventory of about 655 million 
barrels, which equates to only 57 days of net U.S. imports as of May 
10, 2004. Adding inventory to the Reserve is inherently good for energy 
security, and the additional inventory will prove to be a worthwhile 
investment for American taxpayers when the oil is ultimately sold.
Slow Economic Growth
    With regard to SPR oil acquisition and economic cycles, it is my 
opinion that oil prices have a more powerful impact on the overall 
economy than is recognized by most economists. Consequently, oil 
acquisition for the Reserve, and the associated price effect, could be 
timed to slow an overheated economy or stimulate a slack economy if 
there was no urgency to add inventory, and if the Organization of 
Petroleum Exporting Countries (OPEC) were not attempting to control 
inventories and prices. Under current circumstances, the U.S. economy 
is enjoying robust economic growth. Gross domestic product grew 4.4 
percent in the first quarter of 2004, after strong growth during 2003. 
The government has been stimulating the economy aggressively since 2001 
using both monetary policy and fiscal policy. These stimuli have had 
the desired impact; the recession of 2001 has faded, business 
investment has picked up, and consumer confidence is high. The strength 
of the recovery is such that the preponderance of informed opinion is 
the Federal Reserve Board will begin to increase interest rates later 
this year. Therefore, from the perspective of economic policy, the 
economy does not need to be stimulated by reducing the Reserve fill 
rate. Current conditions are attractive for oil acquisition, especially 
relative to 2002 when the economy was coming out of recession, 
suffering the uncertainty of the events of September 11, 2001, and 
anticipating a war in Iraq. Based on the criterion of slow economic 
growth, I do not recommend avoiding oil acquisition for the SPR at this 
time.
Low Inventories
    Regarding inventories, it is my opinion, other things being equal, 
it would generally be wise to adjust the fill rate of the Reserve 
whenever there is an immediate danger of disruption and/or shortage in 
world oil markets. That being said, at this time, I believe the short-
term danger of disruption and/or shortage is about the same as the 
average long-term danger. World oil production is about 80 million 
barrels per day, domestic crude oil inventories are 9 million barrels 
above where they were this time last year, and as of May 10, 2004, are 
29 million barrels above the 270 million barrel level widely recognized 
as the minimum operating level. The inventory of all oil products has 
increased by 33 million barrels since this time last year. On a 
worldwide basis, inventories of crude oil grew by approximately 2 
million barrels per day during March and April. Although current U.S. 
inventories of gasoline are below the 5-year moving average, I believe 
price changes will balance supply and demand without shortages or the 
uncertainty associated with supply disruptions. Furthermore, it is my 
opinion that the OPEC cartel is paying close attention to world and 
U.S. inventories, and that our oil acquisitions for the Reserve are 
being accommodated. This is different from my opinion of 2 years ago--
that OPEC was fixated on their export levels and indifferent to 
commercial inventories. Under the current circumstances, I believe any 
action by the U.S. to increase marginal inventories by adjusting 
Reserve fill rates would be offset by adjustments in OPEC crude oil 
exports, and would have no net consequence other than to slow the 
addition of inventory to the SPR. Therefore, based on the criterion of 
low inventories, I do not recommend avoiding oil acquisition for the 
Reserve at this time.
High Prices
    The question of whether oil prices are high enough to justify 
consideration of altering a government program designed to enhance 
essential energy security will always be complicated. The first issue 
is whether current prices that are high relative to historical prices 
will also be viewed as high in the future. It is my opinion that we 
have reached a new plateau for oil prices, and that any return to 
prices below $30 per barrel in the future will be considered an 
anomaly. World demand outside of North America and Europe is growing at 
a rate sufficient to absorb all anticipated growth in world oil 
production outside of the Persian Gulf. Further, despite rhetoric from 
various OPEC spokesmen, I believe that organization is intent on 
balancing supply with demand to yield prices significantly higher than 
the professed $22-$28 target range. Consequently, for the next few 
years, I anticipate a market price centering on $35 per barrel and 
fluctuating between $30 and $40 per barrel, after which I expect prices 
will increase. It is also my view, it is not feasible to manipulate 
world oil prices with the small amounts of oil being added to the SPR. 
In 2002, I was of the view that OPEC would be indifferent to the fill 
policy of the United States. I believe OPEC is now attempting to manage 
both the level of commercial inventories and prices. Consequently, any 
short-term success we might achieve at raising inventories and reducing 
prices would quickly be offset by countervailing OPEC production 
policies.
    The second issue is whether it is wise to use the Reserve fill rate 
to attempt to influence market prices when there is no distinct event 
causing a shortage. The fact that prices for crude oil are high and 
gasoline prices are at record highs might in other circumstances lead 
me to advise against acquiring oil for the Reserve. In the current 
circumstances, the U.S. economy is growing at a strong pace, and 
gasoline consumption is rising despite the high prices. It is 
disturbing that U.S. gasoline demand in the first quarter was 4.4 
percent higher than in 2003 regardless of a significant price increase. 
Despite much public discourse on the gasoline price level, consumers 
have not noticeably modified their consumption patterns, and they are 
continuing to buy vehicles with low fuel mileage ratings. As recently 
noted by Federal Reserve Board Chairman Alan Greenspan, high prices 
maintained over a long period will be perceived as permanent and lead 
to investments in efficient technologies. That observation should also 
apply to consumers, who will be willing to pay more for technology such 
as hybrid engines in cars. In his congressional testimony on the 
penetration of hybrid technology into the automotive marketplace, Ford 
Motor Company Chairman Bill Ford commented on the necessity for 
consistently high gasoline prices in order for manufacturers and 
consumers to make the investment in hybrid technology. Given current 
gasoline consumption trends, which I believe are unsustainable, it is 
my opinion, it would be counterproductive to use Reserve fill rates to 
artificially reduce oil prices, discourage investment in efficient 
technology, and encourage greater consumption. Based on the criterion 
of high prices, I do not recommend avoiding oil acquisition for the SPR 
at this time.

    Secretary Abraham. I just would make three points to you. 
First, all of the components you just mentioned are important 
ones, but none of them involve national security, and we have 
to weigh these countervailing considerations when we make these 
decisions. Second, the analysis that you referenced, the 
outside analysis, that suggests that there's a $6 to $8-a-
barrel difference is strongly held by the economist you 
mentioned, but there are a number of other analysts, and I 
would be happy, Mr. Chairman, to submit for the record the 
analysis of a number of other outside analysts who contend, as 
does the Energy Information Administration, that the impact of 
this 120,000-barrel-a-day or so fill out of an 80 million-
barrel-a-day worldwide consumption level is negligible.
    The other point I would make, and this is one that I think 
is very important, is that we do not act in a vacuum when we do 
these things. This is a very transparent, very predictable 
long-term fill that we have undertaken. It is well known by 
those in the marketplace who study and monitor and react to 
such things. It is also noted by those who set their own levels 
of production based on what they believe to be worldwide 
consumption targets and so on, including OPEC, and I believe it 
is entirely possible that if we were to dispense with fill or 
to defer fill, there would be a countervailing action on the 
part of producers to reduce production accordingly, which would 
have the effect of off-setting any changes we would make.
    That is not just sort of speculation. In fact, recently the 
immediate past president of OPEC made exactly that statement, 
which I'd be happy to submit for the record. So I think there 
are a lot of factors that come into play. I just would 
reemphasize that we have placed the national security factor at 
the top of the list of our considerations.
    [The information referred to follows:]

    The OPEC statement referred to by Secretary Abraham is quoted in 
the following portion of a March 14, 2004, Dow Jones article titled 
``Qatar Oil Min: Extra SPR Oil Would Add To Q2 Concerns.'' The article 
reads ``Qatar's Oil Minister Abdullah bin Hamed al-Attiyah said Sunday 
that any extra Strategic Petroleum Reserve oil on the market at this 
time would add to concerns of a crude oil stock build in the second 
quarter. Al-Attiyah was speaking on the sidelines of an industry event 
in Cairo. Al-Attiyah's comments followed a question on what impact he 
thinks a decision by the U.S. Senate to support lobbying by the 
transport industry to prevent the U.S. Government filling the SPR with 
53 million barrels will have on the market. `It will mean more oil on 
the market, very simply,' he said, adding `This is our concern, how to 
manage this surplus.' ''

    Senator Levin. I will just conclude with the following 
comment. If there is a small amount of oil being added each 
day, it is a much bigger proportion of the private inventory 
than it is of our SPR. The private inventory is 280 million 
barrels. The SPR is now 650 million barrels, 2\1/2\ times the 
inventory in the private commercial world. So if this is a very 
minor part of the SPR, 150,000 or 120,000 barrels a day, it is 
a much bigger contribution to the private sector's inventory.
    Number two, of course this is a security issue, but our 
economic security is an important issue too, and the price of 
gasoline, oil, and jet fuel now are at record highs. It is a 
drag on the economy, and our economic strength surely is a 
significant part of our overall security as well.
    So I would hope that the administration would take a look 
at the vote in the Senate. When we did vote to not add the 
final 50 million or so barrels to the SPR, according to the 
analysts, the next day for just a short period of time the 
price of oil dropped because of our action. That does not mean 
it will be kept in conference, and it does not mean that the 
House will adopt it even though a large bipartisan group of 
House members has now supported the Senate action.
    What it does mean is that until the chairman of the Energy 
Committee the next day said that he was not going to support 
this provision in conference, when the price went right back up 
again, the impact of just that Senate action caused the price 
of oil immediately to drop. I would hope that the 
administration would reconsider, given the importance of our 
economy being strong, the impact of high energy prices, and 
that the administration would take a look at the overall 
security, not just the question of whether or not 60 million 
more barrels would be added to a reserve that is 93 percent 
filled, but also the impact adding 120,000 barrels a day to the 
SPR has on our economic security.
    My time is up, and I thank you, Mr. Chairman.
    Chairman Warner. Thank you, Mr. Levin.
    Senator Kennedy.
    Senator Kennedy. Thank you very much. Welcome, Mr. 
Secretary, back to the Senate, old friend. Just quickly, to 
pick up on a theme that Senator Levin has mentioned here about 
the cost of gasoline, it is extremely difficult to try and 
convince my constituents in Massachusetts, where we have 
thousands of men and women in Iraq protecting the security of 
the countries in that region, while they refuse to respond to 
the economic challenges that consumers are facing and that our 
economy is facing by giving increased production. No one in my 
State can understand why the President of the United States is 
not jaw-boning OPEC to increase production, to make a 
difference at the very time that we are losing men and women 
over there in Iraq.
    It is an intolerable position, Mr. Secretary. Maybe there 
is a rationale for that, but it is an intolerable position. No 
one can understand that. We have seen it other times when 
Presidents of the United States have jaw-boned the OPEC 
countries. We have seen where they have made an accommodation 
and adjustment. For them not to be responsive in terms of the 
types of issues that we have just talked about in enhancing our 
SPR, and not only doing that but also making a difference in 
terms of the restoration of our economy, which according to the 
President of the United States has been heavily damaged--we 
might differ in the extent of it--but because of September 11.
    It just does not make sense. I do not know if you have 
talked to him about it or if you have a view on it. I want to 
give you a quick chance to comment, and then I want to just get 
to another issue.
    Secretary Abraham. Thank you. I would reiterate what I said 
earlier. One of the reasons we are filling the Reserve is 
because we are concerned about what happened after September 
11, and we believe having a supply that is protected at full 
strength is an important priority. We also are concerned about 
prices. I have expressed this on a number of occasions 
recently. We have also made it clear that we are not going to 
beg for oil.
    Senator Kennedy. We are not begging. We are losing men and 
women over there all the time. This is the second time we have 
gone to the Middle East on this. We are protecting their oil 
supplies, their oil patch over there, and they are just 
tightening the grip on it and putting the costs of this up to 
record highs in times we are trying to get our economy going 
and get people back to work, and they are trying to strengthen 
the opportunity for these workers. Have you talked to the 
President about it?
    Secretary Abraham. Obviously, this is of concern to all of 
us, and how we proceed is an issue we talk about on a regular 
basis.
    Senator Kennedy. I hope you would at least raise this. I 
think it would be worthwhile to raise it with him as a 
reasonable action. I think there would be an enormously 
positive response here. Hopefully there would be an action from 
those countries. I think it is just absolutely intolerable.
    Mr. Secretary, the NPR sets out a new policy that claims to 
make the U.S. less dependent than it has been in the past on a 
nuclear force that is to provide its offensive deterrent 
capability. That says that on the one hand, but on the other 
hand it is a case of what the administration does versus what 
it says. We see this in a number of different policy areas, but 
let us take it on this one.
    You are moving ahead, you are rushing ahead with new 
nuclear weapons, including the mini-nukes and the nuclear 
bunker busters. I would like to give you a chance to explain 
how this program, which was $45 million 2 years ago, is now up 
to almost a half a billion dollars. The administration is 
rushing to test the nuclear weapons. You are spending $30 
million, and you are increasing the spending on the nuclear 
test grounds as well. You are planning a factory for plutonium 
pits, and not securing the stockpiles that we already have. You 
are cutting back on the funds for Nunn-Lugar, and you are also 
cutting the training for security and nuclear weapons labs. 
People are going to wonder why in the world at the same time we 
are seeing terrorism in Madrid, let alone the threat of al 
Qaeda, we are cutting the funds on nuclear security. Why, when 
we have the opportunities to move ahead in the Former Soviet 
Union with a very successful program, when we have 59 percent 
of the weapons-useable material that remains unsecured, why are 
we going ahead and requesting a half a billion dollars for 
Congress on new nuclear weapons, the bunker buster?
    Whatever you can tell us about the military applicability 
which you are going to have with a nuclear bunker buster, the 
most important thing is accurate intelligence. What we have 
seen in the recent Iraqi situation raises serious questions 
about that issue and is going to encourage other countries 
around the world to give consideration in resuming the nuclear 
arms race. How can we possibly go down this path?
    Secretary Abraham. Let me just walk through some of the 
questions you raised, and if there are ones I do not get to or 
forget, please remind me. First, we are not in the process of 
making any new nuclear weapons or proposing to build any new 
nuclear weapons, mini-nukes or otherwise, and we recognize 
fully that any decision ever that we might make along that line 
would be one that would require congressional approval.
    In terms of the cost of the RNEP, the half a billion dollar 
proposal that you referenced, as I said in an earlier answer, 
we are required to put forth to Congress in our budget a 5-year 
budget based on possibilities of expenditures. If we were to 
make a decision to go to an engineering phase or the 
modification of an existing weapon to a more hardened weapon, 
Congress would have to approve it. If both of those actions 
happened, that decision was made and Congress approved it, we 
felt Congress needed to have a sense of what the potential 
costs would be so there would not be a later claim that these 
costs had been kept somehow secret.
    With respect to cutting money for Russian programs, in the 
budget of the DOE, the nonproliferation budget that we had in 
place when I took this office was about $890 million. The 
submission which we have made this year is for $1.35 billion. 
The programs in Russia that we work on are ones which we have 
worked very hard to enhance and to accelerate. We have expanded 
the work we do from primarily work with our counterpart agency, 
the Ministry of Atomic Energy, to now do work on the Strategic 
Rocket Forces programs in Russia to securitize those as well as 
the Russian Navy.
    We are making excellent progress. By the end of 2005, I 
think we will have almost completed the work on the Russian 
Navy program and made major progress on the Strategic Rocket 
Forces. With respect to security within the DOE, the budget for 
that program just 3 years ago was under $1 billion a year. It 
is now $1.4 billion. We have just finished a new threat 
assessment, which calls for a $144 million increase as a 
response to that, in our budget for this year over and above 
what we had last year to address the new DBT. So we are 
actually increasing the support for security within our 
complex.
    Senator Kennedy. My time is up, Mr. Chairman, but I would 
like to, for the record, compare my figures with regard to last 
year, side by side with the Secretary's.
    Secretary Abraham. We'll be glad to, sir.
    [The information referred to follows:]
    Senator Kennedy.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Secretary Abraham.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Kennedy. Are there any circumstances whatsoever in 
your research that you could foresee the possibility of any 
testing?
    Secretary Abraham. At this point there is absolutely none.
    Senator Kennedy. Is your understanding of the language that 
is now in Congress that it gives you any authority to move 
ahead with any kind of testing as part of the research program?
    Secretary Abraham. The work we are doing in terms of 
nuclear testing is to simply reduce----
    Chairman Warner. Excuse me, Senator. You mean live testing?
    Senator Kennedy. Live testing, excuse me. I thank the 
chair. I apologize to the Secretary, but you know what I am 
talking about. In terms of the research of these programs, do 
you see any possibility of having as part of the research a 
program live test?
    Secretary Abraham. We do subcritical work at the Nevada 
test site, but we do not engage in live testing of a critical 
level.
    Senator Kennedy. You do not foresee it with regard to these 
two weapons, the bunker buster and the low-threshold war----
    Secretary Abraham. I just want to clarify if I can, Mr. 
Chairman, the Precision Low Yield Weapon Design (PLYWD), as it 
was called, provision was not designed to launch an inquiry or 
the development of new nuclear weapons of any size, small or 
large. On the RNEP, this was a project in which we were asked 
to consider whether the modification of an existing weapon 
could serve as an effective agent in dealing with hard, deeply-
buried targets. We are doing the research on that, nothing 
more, and would require congressional endorsement to move to an 
engineering level.
    Chairman Warner. Thank you, Senator Kennedy.
    Senator Reed.
    Senator Reed. Thank you, Mr. Secretary, and welcome back. I 
want to follow up on some of these questions about the RNEP. As 
I understand it, you can not go into phase 6.3 without 
congressional authority.
    Secretary Abraham. Right.
    Senator Reed. So in a sense you have a budget that presumes 
that congressional authority, is that correct?
    Secretary Abraham. No, I would not characterize it that 
way. We decided we had a responsibility to provide Congress 
with an understanding of what the costs would be if we were to 
move to that phase.
    Senator Reed. You could do that through a letter, but when 
you put it in your budget every dollar you commit to the RNEP 
is a dollar less for nonproliferation programs, less for 
stockpile maintenance programs, less for other valuable 
programs. This is one area quite specifically which Congress 
says you can not go beyond the 6.2/6.2a phase unless you get 
specific approval from Congress.
    Secretary Abraham. Right. I agree with the sequence, and 
all I can say is that my experience in the way these things 
work is that failure to do this would result in some people 
arguing that we were being deceptive or that we had secret 
plans.
    Senator Reed. Let me ask, what other programs are you 
funding which are prohibited by Congress today in your budget?
    Secretary Abraham. Senator, we are not funding any program 
that is prohibited, and all we are offering Congress is a cost 
assessment of what the programs might be.
    Senator Reed. Mr. Secretary, with all due respect, you have 
a budget which is saying this is how you intend to spend the 
money, and the problem is in this case there is a specific 
prohibition against spending money as you would like to do in 
2007/2008, and so I think rather than begin avoiding the 
characterization of being deceptive, you are quite transparent. 
The problem is, there is still a statute on the books that says 
you can not go into 6.3 without our approval.
    Secretary Abraham. I acknowledge that, and I would also 
emphasize to this committee that no decision has been made as 
to whether or not--first of all, let us put in perspective that 
the budget which we proposed for the RNEP program was 
significantly reduced in the appropriations process last year, 
thus causing the process, the whole inquiry that we have 
engaged in, to be slowed down substantially. It accounts for 
the fact that this year's budget requests a larger amount than 
would have otherwise been the case. Because of that, the design 
or thinking and research work that was to be conducted on two 
separate weapons had to be changed. Instead of doing an inquiry 
with regard to both weapons, we have only had the money to do 
an inquiry with regard to the first one.
    So if we are successful in the appropriation process this 
time, then we would initiate the discussion and the inquiry on 
the second one. But we are far from the point of determining 
whether this approach will even be effective, let alone whether 
it is the preferred approach.
    Senator Reed. Mr. Secretary, I do think there is a danger 
of misleading us on what is essentially a budget and a program 
which goes beyond at this point congressional authority.
    Let me ask another question. Is there a specific military 
requirement for the RNEP today?
    Secretary Abraham. It was the conclusion of the NPR that a 
threat that needed to be addressed in the 21st century and the 
immediate period ahead of us would be hard, deeply-buried 
targets. A number of approaches to dealing with that were then 
asked to be researched. This is just one of them. It is a 
threat that rose to the level of being included in that review.
    Senator Reed. There is no doubt about the threat, but it is 
your opinion that the position of the administration is there 
was a specific military requirement for the RNEP, not for a 
device to counter deeply-buried targets, but for the RNEP. Is 
that your position?
    Secretary Abraham. No. The position of the administration 
is that we should make inquiries and investigate a variety of 
approaches to dealing with the hard, deeply-buried target. 
Whether or not this approach is feasible is the first question, 
and the second is whether or not it is preferable to other 
approaches that would involve conventional weapons. We have not 
completed the first phase of that inquiry, let alone the 
second.
    Senator Reed. Let me turn to another issue about advanced 
concepts. On page 4 of your statement, you discuss work related 
to, ``the feasibility of adapting an existing weapons carrier 
and existing nuclear warheads to achieve a delivery system with 
greater assurance that the intended nuclear mission could not 
be compromised by either component failure or adversary 
attack.''
    In the DOE's report identifying the advanced concepts work 
that we have done in fiscal year 2004, the only work that is 
discussed is work on, ``an enhanced nuclear cruise missile 
employing post-launch command and control and enhanced use 
control.'' Are you talking about the same project in your 
testimony or other documents?
    Secretary Abraham. I would have to look at the testimony. 
What I can tell you Ambassador Brooks says yes.
    Senator Reed. Just to be clear about that.
    Secretary Abraham. But I would reiterate what I said 
earlier. At this point we have not begun any work in terms of 
advanced concepts because of the restrictions on the funding.
    Senator Reed. Could you explain, or perhaps Ambassador 
Brooks could explain, post-launch command and control issues 
that you are dealing with?
    Secretary Abraham. I would really like to do that in closed 
session, sir.
    Senator Reed. You want to go in closed session?
    Secretary Abraham. I guess we would.
    Senator Reed. All right, if it is not appropriate for this 
forum, that is fine, Mr. Secretary. I do not want to press this 
issue.
    Let me just get back to another point. You and the 
President have recognized the importance that the Nunn-Lugar 
programs are playing, and there has been an increase of 
funding, but one of the sad commentaries of today's world is 
there seem to be so many ways to spend that money, and even 
with increases in money, there is not enough money.
    But in your view, what are the most urgent opportunities or 
targets?
    Secretary Abraham. Let me talk about our programs 
specifically, because that is where my focus is. I think that 
we have placed an increasing priority on the global cleanout of 
research reactor fuel that is of a weapons-grade or a near-
weapons-grade quality. We have had some excellent ad hoc 
success with respect to several joint ventures with Russia, 
with the IAEA, and places like Serbia, Libya most recently, 
Bulgaria, and Romania. I believe more will be coming.
    We also have had success and are near the point of entering 
into a government-to-government agreement with the Russian 
Federation, which I think would formalize and help us to 
expedite that process so that we might be able to recover all 
of the spent fuel of Russian origin from the various reactor 
sites by the end of fiscal year 2005. That is our goal. We see 
that as a top priority.
    Last year, in my testimony here I mentioned the issue of 
RDDs and the kinds of material which had historically not been 
the focus of international attention and scrutiny, medical 
isotopes and other radiological material, but that could become 
the basis for some type of RDD. At my suggestion, the IAEA, 
U.S., and Russian Federation hosted an international conference 
last March with 127 nations participating to begin an 
international effort to both better account for as well as 
frankly educate and assist countries in addressing these 
issues. We have a lot of countries who are part of the NPT who 
looked at other places and just said you all have the material. 
Now it turns out that almost everybody has some type of 
material, and we have a program that we are pleased with that 
has evolved since that conference and has begun to provide 
assistance in a variety of places for the protection of that 
type of radiological material.
    We also believe that, as I mentioned earlier, the 
acceleration and expansion of our programs in Russia is timely 
and important. We are very pleased. We think the overall time 
frame that we began with a couple of years ago since September 
11--we will be able to reduce by maybe as much as 2 years the 
work there. A lot of that is a function not of money but of 
absorption. Those are priorities as well, so those are among 
the things that we are working on.
    Senator Reed. Thank you, Mr. Secretary, very much. Thank 
you.
    Chairman Warner. Thank you, Senator.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for being here today. This discussion has been very 
interesting. Let me back up just for a second. Is it fair to 
say that the DOE has the Nation's best and perhaps the world's 
best experts on nuclear technology? Is that fair to say?
    Secretary Abraham. Certainly there is a lot of tremendous 
technology expertise in the DOE at the laboratories.
    Senator Pryor. Part of your responsibility is the 
stewardship of the Nation's nuclear weapons and to maintain 
technical and analytical expertise in evaluating nuclear 
weapons, nuclear development, and nuclear weapons capability. 
Is that fair to say?
    Secretary Abraham. That is part of the role, yes it is.
    Senator Pryor. As part of that, I assume the DOE has a wide 
range of sub-specialities of expertise when it comes to nuclear 
weapons issues. Let me get to my question, because I just have 
a concern. It is a nagging question that I have had for some 
time, and I would like to get your thoughts on it. When you 
look at the October 2002 National Intelligence Estimate (NIE), 
it appears to me, in looking at it, when that document is 
discussing the aluminum tubes in Iraq, there were so many news 
stories about it, et cetera, and there was a lot of discussion 
in this committee about that, a lot of discussion behind closed 
doors about that.
    It appears to me that basically the DOE's analysis, input, 
and thoughts on those were virtually relegated just to a 
footnote, and that you did not actually agree, the Department 
did not actually agree, with really the conclusions in the 
document. There was a footnote to the effect that maybe you all 
had a differing view of that. I would like to hear your 
comments and your thoughts about how the NIE came to be written 
that way and what input you had in that process. I do not mean 
you personally.
    Secretary Abraham. The DOE participated along with a number 
of other agencies in the assessment of Iraq's programs. That 
assessment was based on the intelligence that had been 
collected. One of the issues is exactly the aluminum tube issue 
that you have referenced. We had a different view, as has been 
noted in the report, from some of the other agencies. I do not 
think we were the only agency that had a different view, and 
how it was entered into the record should not be interpreted to 
mean that there was not a full discussion of that issue. As I 
understand it, we encouraged the experts from our shop who 
participated to be very candid and strong in the sort of 
statements they made in support of their position.
    There were a lot of other issues though that were assessed, 
not just the aluminum tubes. The attempts of the Iraqi 
Government to acquire magnets, high-speed balancing machines, 
machine tools, and a variety of other pieces of information 
went into the overall assessment, which our Department's 
experts agreed with. That is the overall assessment of the 
state of play and the intent of the Iraqi regime. We did not 
agree with the specific issue that related to the tubes.
    Senator Pryor. As I understand the difference with regard 
to the aluminum tubes, your experts felt like these tubes were 
Italian-made Mindusa 81 rockets or something very similar to 
that.
    Secretary Abraham. Too long and too thick I think is the--
--
    Senator Pryor. What was that?
    Secretary Abraham. I said, too long and too thick was the--
--
    Senator Pryor. But very close to that, as I understand it, 
whereas some of the other agencies' experts, they felt like the 
tubes may have actually been used in the centrifuge to enrich 
uranium. Am I understanding that correctly?
    Secretary Abraham. Yes. As I said, I think our 
interpretation of the length and thickness of the tubes was 
that they would not be compatible with the sort of enrichment 
process that would be involved.
    Senator Pryor. Knowing what we know today, your experts 
were right about that. Is that right?
    Secretary Abraham. It was their conclusion then and remains 
that conclusion that these tubes were not appropriate for 
casing for an enrichment centrifuge.
    Senator Pryor. Right. As I understand it, though, they hit 
the mark when they made the analysis that these tubes were more 
just for conventional rockets rather than----
    Secretary Abraham. I believe they were right.
    Senator Pryor. That is my impression as well. Again, not to 
get too much into the process of how the NIE comes to be, but 
it sounds like while you had some input, at the end of the 
process, at the end of the day, your views were the minority 
view, and it was just footnoted.
    Secretary Abraham. On the issue that related to the 
aluminum tubes, it was the minority view. These people are 
experts. I would not dream of trying to change or influence 
their assessment. They are very good at that. Their assessment 
of the tubes was that they were not consistent with what would 
be used for enrichment. Their assessment of the overall status 
of the Iraqi program of what they were doing was consistent 
with the NIE's overall conclusion reached in that review.
    Senator Pryor. I guess my next question is, in your view, 
given the fact that we do these intelligence estimates 
periodically, do you need help in some way in correcting the 
situation, or maybe--I guess what I am asking is, do you feel 
like you have enough input there during the process?
    Secretary Abraham. Yes, I do. Again, we are talking about a 
group of experts who often have differing opinions on 
information made available to them. It certainly was my 
impression at the time that our people made their case very 
strongly on all aspects, not just on the tubes but on their 
overall conclusion based on the intelligence available to them. 
We urged them to do that, to make their disagreements with 
other people clear and to advocate their positions strongly, as 
well as their agreements.
    Senator Pryor. That is all the time I have, Mr. Chairman. 
Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman, and thank you, 
Mr. Secretary. I have a series of questions on a variety of 
issues, and I want to follow up on a line of questioning 
concerning our efforts on nonproliferation. As I understand it, 
the NNSA has a real expertise in nonproliferation verification 
research and is responsible for the development of remote and 
ground-based sensing and detection technologies that are 
capable of detecting nuclear weapons and materials at borders, 
airports, and elsewhere. In fact, I think it is fair to say 
that the technology work the NNSA does represents the bulk of 
the research in our Government on nuclear detection technology 
development.
    That is why I was concerned to see that the budget for this 
work in fiscal year 2005 is $111.5 million, which represents an 
11.6 percent reduction from fiscal year 2004. I cannot imagine 
any more important work than our efforts to understand how to 
detect weapons-grade materials, and to me this reduction seems 
short-sighted. In your opinion, is the NNSA doing everything 
possible to address this problem, and what are the unfunded 
requirements for detection technologies?
    Secretary Abraham. It is, first of all, fair to say that 
they do excellent work, and I think you are exactly right. It 
is my understanding that some of these program responsibilities 
were moved out of our Department, which is what accounts for 
the reduction in funding, as part of the Department of Homeland 
Security's (DHS) emergence. Some of that responsibility for the 
research has moved over there, which is what accounts for the 
change in funding.
    Now, I have a lot of experts sitting here who probably know 
the numbers better than I do, but that is my understanding of 
the reason that that's changed.
    Senator Clinton. I would appreciate having some written 
response to this, because I am frankly concerned about moving 
high-level technology research into the DHS, and I do not know 
that they are up-to-speed or have the capacity, interaction, 
and synergy that goes on in DOE. I think we really need to take 
a hard look at this, Mr. Chairman, because there is not 
anything more important than having the very best that we can 
have doing this research and developing this technology.
    So I would appreciate some written response and maybe a 
trail that can lead us to find out who we can ask at the DHS, 
because they are having trouble getting up and going on a range 
of issues that are under their umbrella, and this is one that I 
do not think belongs there, if indeed that is where it has been 
moved.
    Secretary Abraham. We will be happy to provide a response.
    [The information referred to follows:]

    Our budget request for the Nonproliferation and Verification 
Research & Development (R&D) Program is, in fact, $16 million higher 
than our request in fiscal year 2004. This reflects, in particular, the 
need to begin the development of new space-based nuclear explosion 
monitoring sensors to replace the capability on the Defense Support 
Program satellites which are due to be retired before the end of the 
decade.
    In the appropriation for fiscal year 2004, Congress added $29.5 
million to our request for the R&D program for critical research in 
nuclear and radiological national security and for particular projects 
important to the members. Our fiscal year 2005 budget request was 
formulated last fall, before we knew the details of the congressional 
action on our fiscal year 2004 request. Consequently, that result did 
not figure into the baseline level for the fiscal year 2005 funding 
request. While we appreciate the confidence expressed by Congress in 
the importance of our R&D program, we have not presumed that the 
committee meant for this amount to be added to our base request in the 
President's budget.
    With regard to the transfer of part of our R&D program to the 
Department of Homeland Security during fiscal year 2003, we understand 
that the challenges are enormous in the first year of startup, in 
maintaining the quality of the R&D programs that we were required to 
transfer to them. We have provided the capabilities of our National 
Laboratories and worked side-by-side with the Department of Homeland 
Security to ensure the best outcome to both our efforts.
    In the Department of Energy, we will continue to work on advancing 
national capabilities to detect proliferation activity, and provide the 
underlying science and technology for nonproliferation and national 
security missions, which many agencies including the Department of 
Homeland Security will draw upon. I appreciate your comments 
recognizing that the combination of the understanding of nuclear 
technology from our nuclear weapon and nonproliferation program 
responsibilities gives the Department of Energy a unique perspective 
and programmatic synergy to address these nonproliferation research 
problems.

    Senator Clinton. Mr. Secretary, I am also impressed by the 
recently announced task force that you have compiled to work 
with the IAEA to locate, identify, and assess the risk of RDDs. 
I think you referred to it earlier in responding to a question. 
From our information, it is having considerable success. It is 
creating a kind of global commitment to this, and we are making 
some progress.
    What is not being addressed is the highly enriched uranium 
(HEU) and weapons-grade plutonium that exists outside of Russia 
and the Former Soviet Union (FSU). Would you support an effort 
similar to the RDD Task Force to locate, identify, assess the 
risk, and secure as appropriate HEU and plutonium worldwide? I 
certainly congratulate you on what has been accomplished in 
Libya. I was a little bit concerned that we are sending some of 
the material back to Russia. That does not give me a lot of 
confidence at this moment, because I am not yet sure that we 
are doing everything we need to do there, but what about this 
idea of setting up a comparable task force?
    Secretary Abraham. I think a global cleanout of this kind 
of material is very wise and should be a very high priority. I 
referenced earlier this effort we have been making on an ad hoc 
basis, Mr. Chairman. There is U.S. origin fuel that is out in 
the world and needs to be returned. We now are going to be 
consolidating that effort, which had been under the EM division 
of the DOE. We are going to consolidate that and integrate that 
into this program that is ongoing in the nonproliferation 
division of the NNSA, because these should all be housed in one 
place. But there is a lot of U.S. source fuel.
    The Russian source fuel I mention, it goes back, because it 
is the Russians' fuel. Obviously their ownership rights dictate 
their return, but there is also fuel that has an origin that is 
neither Russian or American. This past week I had an 
opportunity to talk at some length about this with Director 
General ElBaradei of the IAEA, because this is a priority that 
he, I think, likewise shares, and we in fact talked about how 
we might put together a multilateral effort to do this.
    I think it is a serious threat, and whether it is a DOE 
task force or DOE-led task force, or it is an IAEA program, I 
would think that it would be very timely.
    Senator Clinton. Do you need legislative authority or any 
additional appropriated authority to do this?
    Secretary Abraham. I do not think we do. I am looking over 
at our folks here. I do not think we would need that to get it 
started, but I think it is a fair question for the record that 
we might want to get back to the committee on.
    [The information referred to follows:]

    In response to Senator Clinton's inquiry about whether DOE requires 
additional legislative authority to carry out global cleanout, the DOE 
has no need for additional legislative authority.

    Senator Clinton. It might very well be something we 
consider in the authorizing process, because I really applaud 
you for what you have done on RDDs. I think this is exactly the 
direction we need to be moving, and I would like to support you 
in this other area.
    On a more provincial basis, but one that I think of as very 
important, last summer, Mr. Secretary, you wrote to Congress 
asking for support for legislation to reclassify certain high-
level radioactive waste incidental to reprocessing. I opposed 
that legislation because I believed that it would result in 
more high-level waste being left at the West Valley site in New 
York. I think it would also have the similar impact in 
Washington, South Carolina, Idaho, and elsewhere.
    The language was ultimately not included in any 
appropriations bill, but I understand that the DOE may be 
pressing for this legislation again. Is that correct?
    Secretary Abraham. Just to step back a moment, the issue 
that we have is this. Throughout our complex, of course, the 
results, the remainder of the work that was done during the 
Cold War and the weapons programs, and one of the issues that 
we have been wrestling with is the disposition of materials 
within tanks that are the result of reprocessing. That material 
is not of one composition. The material in these tanks is of 
multiple types of composition, some of it obviously of critical 
urgent need for remediation, high-level waste, and other waste 
whose radioactivity level does not meet the same standard.
    We believe and have felt that the DOE had the authority to 
differentiate the classification of the composition of these 
tanks, but a district court ruling in Idaho has raised 
questions about whether that authority exists or the extent to 
which it exists. So in this year's budget, just to put it in 
perspective, we have fenced about $350 million of money that 
was going to be spent on the remediation of what is probably 
over time about a $50 billion program. The $350 million we were 
going to spend this year on that program is kind of on hold 
until we can resolve whether or not there is such authority. We 
need to clarify the legal authority.
    We believe that the DOE does have the ability to safely and 
accurately differentiate between radioactivity levels, and 
therefore, the disposition of the materials in these tanks. We 
are talking with various States, and we hope that maybe we can 
come to a resolution, because the longer we put this off, if we 
do not spend that money, if we do not start down this road, the 
more the risk grows in these communities.
    Senator Clinton. Mr. Secretary, could I have your 
commitment that you would consult with New York State and also 
with my office as you proceed with this? Because it is my 
understanding that New York at least has not been brought into 
these conversations.
    Secretary Abraham. We will make sure that we keep New York 
informed. At this point, I am not sure whether there will be a 
legislative solution that works, but obviously for us to 
proceed there is going to need to be legislative action, and 
obviously all the members will be involved at some point, and 
we will keep you apprised of where the status is.
    Senator Clinton. And also the State, too.
    Secretary Abraham. Okay.
    Senator Clinton. Thank you. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman. You have the 
little bee-bee there right by you, so why don't you tell us, is 
DOE committed to support the NIF so that the goal of ignition 
can be once again no later than 2010?
    Secretary Abraham. Yes. We are committed to that goal. We 
recognize how important achieving it is to Congress, and it is 
important to us. Mr. Chairman, I did bring this today, I 
mentioned it to you yesterday, what will be the target of the 
NIF. Maybe someone could get it up to the head table if you all 
wanted to look, and let me try to explain quickly, and then I 
know you have other questions.
    One of the challenges which this whole process presents to 
us, of course, like many of the things the DOE is forced to 
work on, is doing things that were unthinkable, never before 
attempted scientific achievements. What we will be doing when 
this NIF is completed and all the 192 lasers are functioning is 
to shoot effectively 192 laser beams at the small red bee-bee 
in the middle of that glass container and hit it 
simultaneously.
    To give a sense of this, I was informed yesterday that the 
power that would be involved in that moment of contact would 
exceed all the power production at all United States 
electricity generation facilities at one time. We have to hit 
that bee-bee, and the challenge which caused us to have pause 
in terms of the time frame was that not only do we have to hit 
that tiny target, but we actually have to also inject inside of 
that target deuterium and tritium so that we can measure the 
impact of this process when this laser shot takes place.
    Now, how to get those gases into that target has been a 
real challenge for us, and we had decided or believed that a 
diffusion approach, that is, to freeze the substances and to 
try to, effectively through diffusion, inject them into the 
bee-bee--was the preferred course. The problem is that would 
take a lot more time, and that is where the 2014 time frame 
emerged for discussion.
    We have concluded, however, that the use of a fill tube 
approach will, although it is a little riskier, be an approach 
that can succeed, and so it is our belief that that approach 
can be successful. We have conducted other forms of 
experimentation that indicate we can do that without disrupting 
the physics that are involved, and so that allows us to move 
back to a time table that I think we and Congress have focused 
on and believe needs to be met.
    Senator Bill Nelson. So that is the plan for bringing it 
back to 2010?
    Secretary Abraham. Right.
    Senator Bill Nelson. Okay. In the NNSA, nonproliferation 
verification R&D account, the budget for this work in 2005 is 
$111 million, which represents an 11-percent reduction from 
2004. Given the importance of this work and the technical 
challenges of detection, particularly the technical challenges 
of detection of weapons-grade materials, I want to question 
this reduction in funding.
    We have some of this detection stuff in my State, so what I 
need to know is, is the NNSA going to do everything possible to 
address this problem, and what unfunded requirements are there 
for detection technologies?
    Secretary Abraham. As I indicated earlier, Senator, the 
reason that this reduction appears is because some of the 
programs which had been in our Department in terms of this R&D 
have been moved to the DHS, and that accounts for the 
difference. We would be happy to provide the committee, as I 
mentioned a little earlier, with some specific information that 
would allow the committee to monitor how those parts of the 
program are being handled, or where they are being handled, 
which office at DHS is responsible, for your consideration.
    Senator Sessions [presiding]. Thank you, Senator Nelson.
    Senator Clinton. Mr. Chairman, would you yield for just a 
second?
    Senator Sessions. Yes.
    Senator Clinton. Senator Nelson is concerned about the same 
issue I am concerned about; what has happened to the NNSA 
budget. It is our information, Mr. Secretary, that the chemical 
and biological weapons detectors were moved to DHS, but not the 
nuclear detectors, and that the money for the nuclear detection 
program has been cut. We really need to clarify this, because 
obviously this is a matter of some concern to a number of us, 
and I appreciate the courtesy, Mr. Chairman.
    Senator Sessions. Thank you, Senator Clinton.
    Secretary Abraham. I will say for the record I do think we 
have a comment to add, but I think probably the details are 
beyond what I can give you right now.
    Senator Clinton. Thank you.
    Secretary Abraham. Thank you.
    Senator Sessions. Mr. Secretary, it is a delight to have 
you back in the Senate, and you are a valued colleague and did 
a tremendous job here. I for one want to express my 
appreciation, first, that you have received the award for the 
most efficient and productive department in the Federal 
Government from OMB, is that correct?
    Secretary Abraham. Right.
    Senator Sessions. I believe every Cabinet agency needs to 
focus intensely on efficiency and productivity. In the long 
run, that saves us tremendous sums of money. It builds on 
itself year after year when you are mismanaging or not 
utilizing the resources wisely, so I am glad to see that a 
Senator can be a manager. I think that is something you should 
be proud of, and I really do think all of our Cabinet agencies 
ought to do better, and this Senate should do better frankly 
with the way we manage money.
    I understand from your strategic plan that three of the 
DOE's largest sites, the Hanford site in Washington, the Idaho 
National Laboratory, and the Savannah River site in South 
Carolina, are expected to be cleaned up as much as 35 years 
earlier than originally planned. Could you describe for the 
committee how this budget request that spikes the expenditure 
this year up to about $7.5 billion, how that is important, or 
if it is? Is that making a difference in your cleanup schedule?
    Secretary Abraham. Well, it is. Here is the state of play 
that we built on. When we took office, I was briefed by the EM 
program on the plans for cleaning up these sites. The time 
frame to me seemed remarkably long, 70, 80 years. Obviously if 
you are in those communities that is not a very desirable 
outcome.
    Yet we had before us three examples of cleanup efforts that 
were going much faster, that had been initiated before our 
arrival by the previous administration. One was in Rocky Flats, 
one in Fernald, and the other in Mound--the latter two both in 
Ohio--were going quickly as well. Instead of this kind of slow-
paced approach, we were moving to 10-year time frames for 
cleanup, and Rocky Flats is probably the best example. We are 
staying on that track. About $600 million of the $7.5 billion 
you referenced is to make sure we keep Rocky Flats on track to 
be finished by 2006. We are going to get there. It is a huge 
site, totally finished in 10 years.
    When the cleanup program was expedited there, the plan had 
been an 80-year plan at $37 billion. It will be done in 10 
years from that time frame at about $7 billion. The same 
philosophy that really underscored the Rocky Flats approach is 
how we are trying to approach Hanford and the other sites as 
well, so that in the lifetime of people alive today, these 
sites can be finished.
    The way we are accomplishing it is to transition from an 
approach of essentially managing risk to an approach of 
reducing it, and in that sense what I am talking about really 
is making positive significant process in the cleanup, year to 
year to year. That means spending more money at the beginning 
of this process than was otherwise planned, but it means once 
you begin to reduce the footprint, the overall costs for 
security, maintenance, and so on start to be reduced, and we 
start reducing risk instead of just managing it over a long 
period of time. That is how we intend to approach the entire 
complex. Happily, in virtually every case, the States have 
agreed to and approved these accelerated cleanup programs.
    Senator Sessions. That is good news that that can be done, 
and I hope the taxpayers in the end will find that efficient as 
well as, of course, improving the environment.
    Mr. Secretary, I am not going to get into an argument over 
energy prices, but I, like a lot of Americans, am concerned 
about them. I know some have complained about what has 
happened, but I firmly believe that the administration and you 
are correct to believe we should produce more oil and gas in 
Alaska, that we could produce more in the United States, that 
we could produce more offshore, and that we could expand 
nuclear power. Frequently the very people who complain about 
high prices do not take responsibility for the fact that they 
have forced us to go overseas to get our energy sources, and as 
a result, have allowed us to be subject to the Organization of 
the Petroleum Exporting Countries (OPEC) cartel and pricing. It 
is frustrating to me. I think if we get busy on it, we can make 
some progress, but I believe we are going to need to have, as 
you have supported, increased nuclear power--it is at 20 
percent now--to create electricity. Increased natural gas, 
which is peaking utilization for electricity all over America, 
and I believe the Alaska Reserves, which are very substantial, 
ought to be brought online and could be brought online. We 
could produce gas safely there. Nobody seems to be worrying 
about the Venezuelans producing it in estuaries or in the 
Caspian Sea or other places. We buy it from them. Why don't we 
buy it from American producers? I think if we produce more, we 
will see some impact on our cost.
    Proliferation is a matter of great concern. We have talked 
about that a lot. It has been talk, talk, talk for quite a 
number of years in Congress and by politicians, but is it not a 
fact that President Bush's action in leading the efforts on the 
war on terrorism made some real progress for us? In other 
words, we have Pakistan now, we have Iran perhaps, and Libya 
has come in. Would you just point out that since we have taken 
action against terrorism and challenged some countries to stand 
up and reject the pursuit of nuclear weaponry that we have made 
real progress in just the last few months?
    Secretary Abraham. We have, and I think the President's 
Proliferation Security Initiative (PSI) has played a major role 
as well. It was a major factor in the interdiction of shipments 
that were intended for Libya last fall. I think that probably 
was the pivotal moment in terms of the decisionmaking in Libya 
to relinquish their WMD program.
    The President has also been successful in launching the 
Global Partnership Initiative, which has gotten other G-8 
countries to agree to support these proliferation programs 
financially. It is not just the United States involved in this 
effort, but $10 billion over a 10-year period will be coming 
from the other members of the G-8. With those dollars we will 
be able to do a lot more of the security work that we talked 
about here today, so that it is not just a U.S. responsibility, 
but it helps us to meet the overall costs of these programs.
    I think the actions that we have taken on a number of 
fronts have worked together very effectively, and there is a 
lot more to do.
    Senator Sessions. Think of Abdul Kahn in Pakistan, who has 
confessed to proliferating to North Korea, Libya, and Iran. 
Iran is now negotiating to allow nuclear inspectors from the 
International Atomic Energy Agency to come in and evaluate 
their nuclear facilities. That could give us more confidence 
than we have today in how they are doing. Iraq, of course, has 
always wanted to have a nuclear power, and they now have been 
stopped in that.
    I just think in the last few months more has been 
accomplished than we have given ourselves credit for, and I 
believe the actions and the courage of President Bush has been 
the key to that.
    Thank you, Mr. Chairman.
    Chairman Warner [presiding]. Thank you very much. We will 
continue our hearing with a second round here. Let us talk 
about the Modern Pit Facility (MPF). I want the question in the 
record, even though the answer is very obvious. We are the only 
nation with a nuclear capability, but we do not have a MPF 
capability. So if for any reason in the testing of our systems 
we found out that there was an aging defect in a whole class of 
weapons, what would you do today?
    Secretary Abraham. As the chairman knows, we have finally 
at Los Alamos been successful in the production of a 
certifiable pit. It is for the W-88. It is going to take a 
while to actually go through a certification process. The pit 
production facility is one which would be needed under any 
circumstance.
    Chairman Warner. I share that view.
    Secretary Abraham. Simply because the aging of the 
stockpile will require us at some point to have the capability 
of replacing primaries, and so that's--I would be happy to 
submit a chart to the committee that would compare----
    Chairman Warner. This record has adequate information in 
it, because I support this new facility.
    Let us talk about the MOX program. It is designed to 
reprocess surplus weapons-grade plutonium from the United 
States and Russia into commercial nuclear fuel. There is a 
delay in U.S. construction to ensure that the United States and 
Russian programs proceed at a parallel pace. The MOX program is 
being delayed for 1 year and may face additional delays, 
because the United States and Russia have been unable to reach 
an agreement on liability issues for U.S. contractors 
associated with the project.
    Is the U.S. making progress in reaching agreement with 
Russia? If not, what are you going to do?
    Secretary Abraham. We are optimistic that ultimately we can 
resolve this issue. The sequence of events is very simple. In 
the initial process of the development of this plutonium 
disposition program, we had an agreement which had been entered 
into to cover basically the phase of planning and design. We 
are now at a point when we have agreement on both sides as to 
the design, disposition pathway, and development, as you said, 
to convert the plutonium into a fuel called MOX.
    We now have to have a new agreement that would cover the 
actual development of the construction phase of this process in 
the United States, but also to cover this program on the 
Russian side. We are of the view that the liability provisions 
that have governed the Cooperative Threat Reduction (CTR) 
agreement ought to apply to this program. The liability 
provisions there are ones that protect this government, its 
contractors, people we pay that will be involved in this 
process, and we have not been able to get an agreement to use 
the CTR language for the MOX program.
    The Russian Federation is, of course, operating under the 
CTR. It is my understanding that they have certainly indicated 
to us that they plan to submit the CTR ultimately to the Duma 
for ratification, and we await how they proceed on that as a 
key step. There has been this belief, and we share it, that the 
programs should proceed on parallel tracks, not have the United 
States program move ahead without the Russian program. So we 
are optimistic still, but it is still taking a lot of time to 
come to agreement.
    Chairman Warner. Last year, the administration requested 
and received authority to use DOE defense nuclear 
nonproliferation funds in countries outside the FSU. Do you 
expect to use this authority in 2004? If so, where and for what 
purpose?
    Secretary Abraham. Mr. Chairman, I think I might----
    Chairman Warner. Want that in closed session?
    Secretary Abraham. Well, or take it for the record if I 
could. Obviously we talked earlier about some of the work we 
are doing on the RDD front, the radiological materials there 
that might be used for a dirty bomb. I know that some of that 
work is conducted outside of both Russia and the FSU. I am not 
sure if that is the question you are asking, so let me, if I 
could, respond specifically for the record on it.
    [The information referred to follows:]

    The administration's support of addressing the global threat of 
proliferation of WMD both in states of the FSU and around the world is 
reflected in the President's fiscal year 2005 budget submission, which 
requests $1.35 billion for this work. For more than a decade, the DOE, 
and now through its NNSA, has played a central role in the United 
States' effort to improve the security of under-secured nuclear 
warheads and weapons-usable nuclear materials in the Russian Federation 
and other independent states of the FSU. But the security of the United 
States, including the war on terrorism, urgently requires reducing the 
proliferation risk of nuclear, chemical, biological, and radiological 
weapons and materials, warheads, technology, and expertise in countries 
beyond the borders of the FSU. NNSA's contribution to threat reduction 
activities include, for example, nuclear detection work at major 
transit/transportation hubs and ports in FSU states, Europe, Asia, and 
South America; traditional materials protection, control and accounting 
security upgrades in Eastern Europe, South Asia, and elsewhere where 
weapon-usable material is at risk to theft, diversion, or terrorists; 
and radiological security work, to counter the threat posed by 
smuggling of radioactive sources that can be used to make ``dirty 
bombs.''

    Chairman Warner. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman. On the question of 
the MPF, you received last year, I believe, $10 million to 
continue design work and to complete the environmental impact 
statement for that facility, and you are requesting about $30 
million for this year to continue the design and the 
environmental impact statement. You have not made any decision, 
I understand, on the long-term size of the stockpile, which, of 
course, is----
    Secretary Abraham. A factor, yes.
    Senator Levin.--pretty critical. You are looking at 
designing a facility to make up to 500 pits a year, which would 
rival the Cold War pit manufacturing capability. But in the 
conference report for energy and water appropriations, it said 
that until the Stockpile Plan was submitted, it was premature 
to pursue further decisions regarding the MPF.
    So I guess the question is, what is the status? You need 
one, but what is the status?
    Secretary Abraham. We are still evaluating a couple of 
issues that need to be addressed. One is the stockpile size, 
which is a principal factor in this. Another major factor is 
the lifetime of the pit. We are trying to assess what that 
duration is. The range of assessments of the laboratories right 
now is a fairly wide range, and we are trying to become precise 
in that, because obviously the life cycle of the primary pit 
itself is a factor in how many one would ultimately require. So 
those are issues we are trying to resolve.
    Senator Levin. Has the DOD given you direction relative to 
the size of the stockpile that is going to be needed?
    Secretary Abraham. That is really part of this analysis 
that I mentioned in response to your earlier questions. We are 
working very hard to finish, and that is obviously the largest 
question, but the pit lifetime, the start date for quantity 
production, are all also ingredients in terms of what the size 
would be.
    Senator Levin. For the out-year budgets, what are you 
assuming in terms of the size of the stockpile that you are 
going to need to support?
    Secretary Abraham. Let me just check. It is the same size 
as in the last stockpile document from the President, so that 
would be the----
    Senator Levin. What is the number? Do you have a number?
    Secretary Abraham. Let me submit it for the record. I think 
I can get that to you quickly.
    [The information referred to follows:]

    The DOE fiscal year 2005 budget submittal was written in light of 
the ongoing joint DOE and DOD study to define the nuclear weapons 
stockpile to support deployments and response options.
    On April 21, 2004, Secretary Rumsfeld and I submitted the fiscal 
year 2004-2012 Nuclear Weapons Stockpile Memorandum to the President 
for his approval. The memorandum and proposed fiscal year 2004-2012 
Nuclear Weapons Stockpile Plan support the President's proposed level 
of 1,700 to 2,200 operationally deployed strategic nuclear weapons by 
2012. Once the President approves the fiscal year 2004-2012 Nuclear 
Weapons Stockpile Plan, revised nuclear weapons stockpile quantities 
and weapon projected active/inactive status will be available to report 
to Congress.
    The President's approval of the fiscal year 2004-2012 Nuclear 
Weapons Stockpile Plan is critical to completion of a required 
congressional report requested in H.R. Report 108-357. This report will 
discuss stockpile projections through the year 2012.

    Senator Levin. Okay. Because we now plan to reduce deployed 
strategic nuclear warheads to between 1,700 and 2,200 warheads 
by 2012, you are maintaining apparently something like 8,000 
nuclear warheads in varying degrees of readiness, with the 
exception of the W-62, which is a separate issue. That is a 
lot. That is a big cost. So by the DOD not giving you that 
number, you are maintaining a much larger number of warheads 
than presumably you are going to need to maintain as soon as we 
get that number. I am making a presumption here, but it seems 
to me----
    Secretary Abraham. Part of it will depend on the 
disposition strategy for warheads that we might then move to a 
retirement phase, and then we would go through obviously a cost 
associated with the retirement and dismantlement and 
disposition.
    Senator Levin. All right. If you could submit to us for the 
record then what assumption you are making relative to the 
inventory for the out years, it would be helpful.
    [The information referred to follows:]

    On April 21, 2004, Secretary Rumsfeld and I submitted the fiscal 
year 2004-2012 Nuclear Weapons Stockpile Memorandum to the President 
for his approval. The memorandum and proposed fiscal year 2004-2012 
Nuclear Weapons Stockpile Plan support the President's proposed level 
of 1,700 to 2,200 operationally deployed strategic nuclear weapons by 
2012. Once the President approves the fiscal year 2004-2012 Nuclear 
Weapons Stockpile Plan, revised nuclear weapons stockpile quantities 
and weapon projected active/inactive status will be available to report 
to Congress.
    The President's approval of the fiscal year 2004-2012 Nuclear 
Weapons Stockpile Plan is critical to completion of a required 
congressional report requested in H.R. Report 108-357. This report will 
discuss stockpile projections through the year 2012.
    In anticipation of lower stockpile levels to be approved by the 
President, DOE has already taken some actions such as reducing the size 
of the procurement of some components for the Life Extension Programs 
(LEPs) and other warhead alterations or modifications. It is worthwhile 
to note that the proposed Nuclear Weapons Stockpile Plan revalidates 
the need for the LEPs, but proposes to reduce each of them in quantity; 
cost savings due to a smaller stockpile will be reflected primarily in 
out-year budgets starting in the next decade.
    Currently, DOE has provided information to Congress that defines 
today's stockpile and currently-approved projections in documentation 
such as the Report to Congress: Strategic Force Structure Plan for 
Nuclear Weapons and Delivery Systems (November 2003); the fiscal year 
2005 Budget Submittal (February 2004); and, the fiscal year 2005-2009 
Stockpile Stewardship Plan (March 2004) that provides budgetary and 
quantitative information on the weapons being supported today in the 
stockpile. DOE also submitted classified Selected Acquisition Reports 
for the B61-7/11, W76, W80, and W87 LEPs to Congress in February 2004, 
with significant detail on scope, schedule, and cost. Updated budgetary 
information, based on the revised stockpile once approved by the 
President, will be prepared in support of the fiscal year 2006 Budget 
Submittal, the DOE preparation of the Future-Years Nuclear Security 
Program, and other reports requested by Congress.

    Senator Levin. I guess there is just one other question I 
had, Mr. Chairman, and that goes back to the RNEP program. We 
had a lot of confusion and I think some misinformation about 
the effects of using a RNEP when we discussed this last year, 
not necessarily from you, by the way. Misinformation and 
confusion did not necessarily come from a DOE source on that, 
but in general there was a great debate. We did not get hard 
estimates on that issue, fallout and deaths from the effect of 
a use of an earth penetrator.
    For instance, it is our understanding that if that 
penetrator were detonated several feet underground, perhaps the 
length of the missile itself, it actually could produce more, 
not less, fallout than the same weapon would produce if the 
detonation occurred in the air over a target. Now, I do not 
know whether that's true or not. Do you know whether that is 
true?
    Secretary Abraham. I do not know. I know that there was 
some speculation about whether it could be developed in a 
fashion as to eliminate fallout and collateral damage, and the 
administration has never, nor has this Department, ever 
indicted that that could be possible. As to whether it would 
be--I am not aware of any, but that does not mean that we could 
not--we may have some information. I will be happy to provide 
it if we do.
    Senator Levin. If you could get for us that estimate as to 
if the detonation occurred a few feet, perhaps the length of 
the missile, underground, what the level of that fallout would 
be----
    Secretary Abraham. If we have that, I will----
    [The information referred to follows:]

    The fallout from the buried burst would be similar to the fallout 
from a surface burst of the same yield. However, the military objective 
is to hold underground targets at risk, and if necessary defeat them. 
In order to achieve either objective with a shallow-buried nuclear 
weapon, one with about 30 times lower yield could be used. That would 
mean that the fallout from the lower yield, shallow-buried burst would 
produce the same effect on target, but produce a 10 times smaller 
fallout area than the higher yield surface burst required to achieve 
the same military effect.

    Senator Levin. It would be very helpful to us.
    Mr. Chairman, Senator Akaka was hoping to be here but he 
cannot make it, and I would appreciate his statement being made 
part of the record.
    Chairman Warner. Without objection. For any members who are 
unable--we have a number of committee meetings today, Mr. 
Secretary--to attend today who desire to put questions into the 
record, we will hold the record open to that purpose until 
close of business tomorrow night.
    Senator Levin. Thank you.
    [The prepared statement of Senator Akaka follows:] 
             Prepared Statement by Senator Daniel K. Akaka
    Thank you Mr. Chairman. It is always good to see our former 
colleague, Secretary Abraham. Aloha. I look forward to your testimony, 
Mr. Secretary, on the Department of Energy's (DOE) budget for nuclear 
weapons activities.
    Unfortunately, today we live in a world where governments and 
terrorists are seeking to develop and acquire weapons of mass 
destruction (WMD). I am deeply concerned that we are not doing enough 
to stop the potential flow of weapons and weapons materials to 
terrorist organizations. We are devoting more resources to developing 
new nuclear weapons, instead of securing nuclear material already in 
existence.
    The administration's plans to develop new weapons and modify old 
types of weapons will compromise U.S. security by undermining efforts 
to make worldwide cooperation on nonproliferation of nuclear and other 
WMD more effective.
    The first Bush administration halted work on nuclear weapons then 
under development and halted nuclear testing except for safety and 
reliability, effectively bringing work on new weapons types to a close.
    I believe this administration's nuclear initiatives are creating a 
new kind of arms race by expanding our weapons development programs.
    The United States pledged in the Nuclear Nonproliferation Treaty 
(NPT) ``to pursue negotiations in good faith on effective measures 
relating to cessation of the nuclear arms race at an early date and to 
nuclear disarmament.'' This is still a worthy objective.
    Last Friday, The New York Times reported that the U.S. is reviving 
efforts to increase our capability to analyze nuclear fallout if a bomb 
were exploded on our soil.
    This effort would allow us to attribute the weapon to a specific 
country or terrorist group by matching the fallout signature with what 
we know about the characteristics of foreign weapons. The aim of the 
project is to deter terrorists by letting them know we will be able to 
trace any attack back to them, and thus we will be able to retaliate. 
The existence of this project is an indicator of the seriousness of 
this threat. But it also leads me to question why we are not doing more 
to stop proliferation rather than spending our limited resources 
developing new weapons.
    Instead of beefing up nonproliferation efforts, the administration 
has requested $27.6 million for the Robust Nuclear Earth Penetrator 
(RNEP) for fiscal year 2005. The request would continue a study to 
modify an existing weapon to penetrate completely into the ground 
before detonating, increasing its ability to destroy buried targets. 
The RNEP study was initially projected to cost $45 million-$15 million 
a year for fiscal years 2003-2005. It is now projected to cost $71 
million. This is too much money to research a weapon that in many ways 
duplicates what conventional weapons can already do. 
    Additionally, the budget request includes figures through fiscal 
year 2009 that total $484.7 million, and includes placeholders for both 
the development engineering and production engineering phases. This 
seems to indicate that the RNEP study is more than just a study, and is 
in fact being undertaken with the foregone conclusion that the weapon 
will go into development.
    The administration claims they need these weapons programs to 
increase deterrence from a new kind of threat. I do not believe 
developing these weapons will deter other nations, or terrorists. If 
other nations see the U.S. developing new nuclear weapons, they will 
believe they need new weapons for their security as well.
    We already know that terrorists are trying to acquire nuclear 
weapons. Director of Central Intelligence (DCI) George Tenet said so in 
his recent testimony before this committee: ``Mr. Chairman, I have 
consistently warned this committee of al Qaeda's interest in chemical, 
biological, radiological, and nuclear (CBRN) weapons. Acquiring these 
remains a ``religious obligation'' in bin Ladin's eyes, and al Qaeda 
and more than two dozen other terrorist groups are pursuing CBRN 
materials. . . .
    Over the last year, we have also seen an increase in the threat of 
more sophisticated CBRN. For this reason we take very seriously the 
threat of a CBRN attack. To further this point, over the weekend, the 
Associated Press reported that Osama Bin Ladin is already claiming to 
have nuclear weapons.
    We should not be providing more funds for new nuclear weapons 
studies when we are asking other countries to stop their own weapons 
development programs and trying to prevent terrorists from obtaining 
loose nukes.
    I hope Secretary Abraham can shed some light on how the 
administration plans to protect the American people by spending our 
limited resources developing new and unnecessary weapons instead of 
preventing terrorists from acquiring WMD of their own.

    Chairman Warner. May I say, Mr. Secretary, I think we have 
had an excellent hearing, and the enthusiasm with which you 
apply your talents to this challenging post come through very 
clearly with your views.
    We understand, Senator Pryor, you just returned. Do you 
want another question?
    Senator Pryor. I do not. Thank you, Mr. Chairman. You 
covered them all. Thank you.
    Chairman Warner. Thank you very much.
    Senator Levin. Mr. Chairman, there is just one final point 
that I want to make. What we have asked here for the record are 
not sort of your normal questions for the record. Some of the 
things that you are willing to supply we are going to need 
fairly promptly, so if you could make it really an effort, I 
know you run as efficient an agency as exists in this town.
    Secretary Abraham. After making the comments about our 
efficiency, we probably----
    Senator Levin. That is right. Now you are put in a really 
tough box here in that you are expected to produce with greater 
speed than any other agency.
    Secretary Abraham. Happily, the President's Management 
Agenda criteria does not include responsiveness to questions in 
hearings, but I will nonetheless make an exception to assure 
you that we will do our very best to do this promptly.
    Senator Levin. We will raise that with the Office of the 
President as to why that is not part of his criteria.
    Chairman Warner. You have been known to do that.
    Senator Levin. I am glad that my reputation precedes me.
    Chairman Warner. Thank you very much.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John Warner
                       national ignition facility
    1. Senator Warner. Secretary Abraham, please provide an update on 
the progress of the National Ignition Facility (NIF).
    Secretary Abraham. The NIF Project is 80 percent complete, and is 
performing in accordance with its cost and schedule baselines. The NIF 
project has demonstrated excellent management and technical 
performance. The first four of NIF's 192-laser beams were activated and 
commissioned in fiscal year 2003. Meeting this milestone required the 
installation, activation, and operation of at least one of every NIF 
component and system. Last summer, NIF laser scientists used these 
first four NIF beam lines to set records for infrared and green single 
beam laser energies. The NIF lasers have also demonstrated performance 
in ultraviolet laser energy that indicate the performance of the 192 
beam system will likely exceed design requirements when it is complete.
    The fiscal year 2005 budget will allow the project to continue to 
add beam lines. Current plans call for experiments to achieve the 
specific goal of ignition on NIF to begin in fiscal year 2009 with a 
central goal of achieving fusion ignition in fiscal year 2010.

    2. Senator Warner. Secretary Abraham, what is the NIF's value to 
the Science-Based Stockpile Stewardship Program?
    Secretary Abraham. The NIF will be the only facility capable of 
experimental conditions approaching temperatures and pressures found in 
nuclear weapons. This capability is essential for scientists and 
engineers at the weapons labs conducting studies and experiments to 
generate the data needed to continue to certify the safety, security, 
and reliability of the nuclear deterrent in the absence of underground 
nuclear testing.
    During September 2003, laser shots were completed supporting the 
first physics experiments on NIF. The Inertial Confinement Fusion 
Ignition and High Yield (ICF) Campaign will begin experiments for 
stockpile stewardship on the NIF this year, these experiments will 
directly support stockpile assessment and certification and will be 
used to validate Advanced Simulation and Computing (ASCI) simulation 
codes.

                        safeguards and security
    3. Senator Warner. Secretary Abraham, are you confident the 
facilities across the nuclear weapons complex will be able to meet the 
security requirements of the new Design Basis Threat (DBT) by the 
target date of 2006?
    Secretary Abraham. National Nuclear Security Agency (NNSA) sites 
have affirmed that they will be compliant with the new policy by the 
end of fiscal year 2006, assuming that there are no changes in the 
Adversary Capabilities List and subject to the availability of 
appropriated funding.
    A fiscal year 2004 reprogramming request of $55 million to address 
DBT requirements was approved in late June, and an additional $89 
million has been included in the President's fiscal year 2005 request 
to address DBT-related actions. Residual DBT funding issues will be 
considered as part of the fiscal year 2006 budget formulation which is 
ongoing.

    4. Senator Warner. Secretary Abraham, how would you respond to 
critics who claim that the new DBT is not necessary and that the 
Department of Energy (DOE) is requesting too much funding for 
safeguards and security?
    Secretary Abraham. Since September 11, the need to revise the DBT 
to better reflect newly-recognized realities has been apparent. The 
Department's DBT Policy is predicated on an interagency document titled 
``The Postulated Threat to U.S. Nuclear Weapons Facilities and Other 
Selected Strategic Facilities'' (the Postulated Threat), developed 
jointly by the Department of Defense (DOD), DOE, the Nuclear Regulatory 
Commission (NRC), and the intelligence agencies. The Defense 
Intelligence Agency (DIA) published the new Postulated Threat document 
in January 2003, which reflects the post-September 11 increase of the 
potential terrorist threat. In turn, DOE used both the Postulated 
Threat, which provides a 10-year projection of the threat environment, 
and current intelligence estimates to develop our revised DBT Policy 
issued in May 2003.
    The Department has and continues to make every effort to ensure 
funding requests are justified and cost effective. The DBT is used as a 
graded, performance-based design guide and performance metric--that is, 
it specifies a threat force based upon the Postulated Threat and upon 
considerations of the attractiveness of the asset, the ability of the 
adversary to accomplish a given objective with the asset, the resources 
required by the adversary to accomplish a given objective, and the 
potential consequence of adversary success. The effectiveness of the 
protection system against the DBT-derived threat is evaluated using a 
suite of computer simulations, performance tests, and expert analysis 
and is compared to the minimum performance criterion that is also 
contained in the DBT. Alternative system designs are subjected to this 
methodology to determine the most cost effective solutions. The costs 
for security systems that emerge from this rigorous process are those 
that are presented in DOE budget requests.
    Furthermore, on September 8, 2003, I directed line managers and 
security professionals to emphasize finding or devising effective 
methods to make safeguards and security dollars go farther and to 
reduce the reliance on protective force manpower. To aid this effort, I 
directed the Office of Security and Safety Performance Assurance to 
assist the field in identifying and employing new security-related 
technologies that will allow our sites to improve their security 
postures while at the same time reducing their reliance on protective 
force manpower and their accompanying high funding requirements.
    Understanding that the DBT Policy is due to undergo an annual 
review in May 2004, I have directed the Office of Security and Safety 
Performance Assurance to accelerate its review and present 
recommendations for action by June 30, 2004.

    5. Senator Warner. Secretary Abraham, what will be the impact to 
security at the NNSA and defense emergency management facilities if the 
amount in the President's budget request for safeguards and security in 
fiscal year 2005 above the fiscal year 2004 appropriated levels is 
neither authorized nor appropriated?
    Secretary Abraham. If the fiscal year 2005 President's budget 
request for safeguards and security funding request is not supported by 
Congress, NNSA facilities will not have the resources needed to meet 
the revised DBT Implementation requirements by the end of fiscal year 
2006. Sites will continue to employ interim protection measures and 
compensatory measures, within available funding levels, to ensure that 
no special nuclear material or sensitive information is at risk.

                price-anderson indemnification authority
    6. Senator Warner. Secretary Abraham, Price-Anderson authority is 
the indemnification protection for the DOE contractors who work on 
nuclear matters, and it expires at the end of this calendar year. What 
would the impact be on the DOE if the Price-Anderson indemnification 
authority is not extended beyond its expiration at the end of this 
calendar year?
    Secretary Abraham. In the event that the authority for the DOE to 
include Price-Anderson protection in new DOE contracts expires at the 
end of this year, the DOE will be forced to use other mechanisms to 
indemnify its contractors or be unable to carry out many of its 
critical missions. In 2002, the authority for the DOE to extend Price-
Anderson protection to new DOE contractors expired. Prior to the 
inclusion of interim authority in the National Defense Authorization 
Act for Fiscal Year 2003, the DOE used Public Law 85-804 to indemnify 
its contractors.
    The existence of other indemnification mechanisms does not lessen 
the need to reauthorize the Price-Anderson Act in a comprehensive and 
long-term manner. The other indemnification mechanisms are less 
effective than Price-Anderson. Price-Anderson is the only source of 
indemnification that Congress designed specifically to assure prompt 
compensation to those who may be damaged by a nuclear incident without 
unnecessarily cumbersome litigation. The absence of Price-Anderson 
indemnification in a contract also denies the DOE the ability to exact 
civil or criminal penalties for a contractor's failure to comply with 
the DOE's nuclear safety regulations.
    The Energy Bill contains a very good provision to authorize the 
continued use of the Price-Anderson Act. The administration has 
expressed its support for this provision. The Department will continue 
to work with Congress to ensure enactment of this provision this year.

    7. Senator Warner. Secretary Abraham, are there any contracts which 
you anticipate will be signed in fiscal year 2005 which would be 
impacted by the expiration of Price-Anderson authority?
    Secretary Abraham. Yes, Senator. Approximately 24 major contract 
awards (valued in excess of $10 million), and many others of lesser 
value, to be awarded from December 31, 2004 (the current expiration of 
Price Anderson) and the end of fiscal year 2005 would be affected by 
the unavailability of Price-Anderson.
    Included in this group are contracts for the management and 
operation of: the Lawrence Berkeley National Laboratory; Los Alamos 
National Laboratory; and the Idaho National Engineering and 
Environmental Laboratory (INEEL). Each of these contracts will be 
competed during the subject time frame, and the competition may be 
affected by the unavailability of Price-Anderson.

                      secure transportation assets
    8. Senator Warner. Secretary Abraham, are there enough secure 
transportation assets, including trucks and security force personnel 
and equipment, to meet the growing demand for such assets from both 
DOE's Defense Programs and Environmental Management (EM)?
    Secretary Abraham. We recognized that there are ever-increasing 
demands on the secure transportation assets managed by NNSA's Office of 
Secure Transportation (OST). We are increasing the funding for this 
important activity in fiscal year 2004 and 2005 to accommodate the 
heavy workload associated with the large number of weapons retirements 
as well as the shipments of waste from EM sites at Hanford and Idaho. 
To ensure that the resources of the OST are used to accomplish the 
highest priority missions of the DOE, a Secure Transportation Advisory 
Board (STAB) has been established. This group, headed up by a senior 
military officer, meets with representatives from the Office of EM 
regularly to allocate shipping resources.
    The President's request for fiscal year 2005 will allow the NNSA to 
increase the agent workforce from its current posture of 230 to 290 by 
the end of the fiscal year.
    Congress has also recently approved an NNSA request to reprogram $5 
million to cover the early up front costs associated with the Hanford 
and Idaho campaigns.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard
                    waste incidental to reprocessing
    9. Senator Allard. Secretary Abraham, on February 25, 2004, 
Assistant Secretary Roberson testified before the Strategic Forces 
Subcommittee and we had a good exchange on waste incidental to 
reprocessing (WIR). I would like to expand on this discussion with you. 
Please summarize the impacts of the Idaho District Court decision on 
the Department's cleanup plans at Savannah River, Hanford, and INEEL. 
If Congress does not resolve this issue, and if the court decision 
stands, what are the additional costs to the taxpayers for the cleanup 
at these sites?
    Secretary Abraham. There are cleanup actions at Savannah River, 
Hanford, and INEEL that the Department planned to conduct but can no 
longer conduct given the decision by the Idaho District Court. In 
general, these activities involve either closure of tanks at the three 
sites--which is predicated on classifying the residues as low-level 
waste--or activities to remove, stabilize and dispose of non-residue 
tank waste as low-level or transuranic (TRU) waste.
    The Department's baseline cost for implementing its accelerated 
cleanup plans at Washington, Idaho and South Carolina is $52 billion, 
if some of the waste can be managed as either low-level waste or TRU 
waste. This baseline reflects fairly advanced and detailed planning by 
DOE, although it undoubtedly will continue to evolve in light of new 
information.
    If the Department must treat all of the material as high-level 
waste, our very rough estimate, to get a sense of the order of 
magnitude of what would be involved, was that the cost would have 
increased to at least $138 billion. These figures, however, almost 
certainly dramatically underestimate what proceeding in this fashion 
would actually entail, because they do not include estimates for key 
aspects of what would be involved. These range from any kind of 
estimate for containers for the tanks themselves and associated 
hardware, to estimates of the direct transportation and disposal costs 
of this additional waste at the spent fuel repository, to estimates of 
the costs of delay that would ensue from the very complex logistics 
involved in transporting and disposing of this enormous additional 
amount of waste. Under this worst-case scenario:

        <bullet> Retrieval of all tank reprocessing wastes and 
        treatment for disposal in a geologic repository could require 
        as much as $69 billion over the current Environmental 
        Management program life-cycle cost baseline.
        <bullet> As much as an additional $17 billion--and possibly 
        more--would be required to exhume and dispose of tanks and 
        associated components in a geologic repository.

    It is difficult to estimate the additional costs the Department 
would incur in terms of Federal repository fees. Under existing cleanup 
baselines, the Department expects to produce approximately 20,000 
canisters of high-level waste for disposal in a geologic repository; 
the fee associated with these canisters is estimated to be $10 billion. 
Under a scenario in which all tank reprocessing wastes currently 
anticipated to be removed and disposed of as low-level waste are 
instead prepared for disposal in a repository, the new baseline could 
approach 200,000 canisters. Thus, the fees could be significantly 
greater. This canister estimate does not include exhuming the tanks 
themselves nor associated piping, equipment, and concrete. At this 
time, the Department does not have estimates of the volumes for these 
additional materials that also might have needed to be placed in the 
repository.

    10. Senator Allard. Secretary Abraham, are there additional risks 
associated with a delay in cleanup?
    Secretary Abraham. Accelerated cleanup of tank wastes at the 
Savannah River Site, Hanford, and the Idaho National Engineering and 
Environmental Laboratory represents the greatest risk reduction 
activity in the Department of Energy's (DOE) entire cleanup program. 
Given that DOE cannot proceed with cleanup plans that were based on its 
waste classification order without legal clarification, at a minimum 
DOE will leave wastes in the tanks longer while it is awaiting that 
clarification.
    That wait quickly becomes decades longer if DOE has to make major 
changes to its disposal plans. For example, if all the tank waste has 
to go to a deep geologic repository, rough projections suggest that it 
would take four decades longer just to treat the waste for disposal--
not taking into account the huge logistical effort that would be 
involved in transporting it, let alone what would be involved in 
transporting the tanks themselves.
    The longer the waste remains in the aging storage tanks, some of 
which are over 50 years old, the greater the risk of leaks.
    In addition, there is no advantage to the public health and safety 
from disposing of this material in a deep geologic repository rather 
than as DOE has planned, and dangers to workers increase significantly 
from following the repository approach. Specifically, DOE's analyses 
performed to support evaluation of alternatives for closure of tanks 
under the National Environmental Policy Act (NEPA) process show:

        <bullet> Risks to the general public arising from radiation 
        doses resulting from the waste after disposal remain 
        essentially unchanged if waste residues are grouted in-place in 
        the tanks, versus if the tanks are exhumed and disposed of in 
        the repository.
        <bullet> Risks to the general public arising from accidents 
        associated with disposal activities likewise are essentially 
        unchanged.
        <bullet> Worker risks increase sevenfold if the tanks are 
        exhumed, largely because of increased radiological exposure and 
        industrial accidents associated with chopping up the almost 250 
        large tanks and associated equipment.

    11. Senator Allard. Secretary Abraham, do the States have any say 
on the Department's cleanup plans at these sites?
    Secretary Abraham. Yes, the States do have a say on the 
Department's cleanup plans at these sites. DOE's plans to be agreed to 
by the States that host our DOE facilities, meet the requirements of 
Federal Facility Agreements among DOE, the States, and the 
Environmental Protection Agency (EPA), and comply with environmental 
laws under which the States have an explicit regulatory role.
    Closure of the Hanford and Idaho tanks will be considered in 
connection with the Resource Conservation and Recovery Act (RCRA). 
Closure of the Savannah River tanks will be considered in connection 
with the South Carolina-issued wastewater treatment operating permit to 
meet Clean Water Act limits. After closure of the tank structures, 
Hanford, Idaho, and Savannah River will then remediate tank farm soils 
under the Comprehensive Environmental Response, Compensation and 
Liability Act (CERCLA), during final closure.
    Under RCRA, States approve DOE closure and post-closure plans to 
verify compliance with RCRA. Closure plans detail DOE's steps to 
perform partial and/or final closure to meet closure performance 
standards. Post-closure plans describe the activities DOE is to perform 
and the frequency during the post-closure care period. These plans 
contain the information States need to determine whether the activities 
described in the plans comply with applicable requirements. In 
addition, the EPA and States concur on DOE CERCLA Records of Decision 
for remediation of tank farm soils as part of site closure activities. 
The EPA also has authority under CERCLA to require DOE to address and 
remediate, as appropriate, any future releases or threats of releases 
of radioactivity from the tank farms.
    In addition to State authority over tank closure activities, DOE 
sites have performed or are performing analyses under the National 
Environmental Policy Act to engage States and the public in decisions 
about tank closures.

    12. Senator Allard. Secretary Abraham, why did the Department in 
the fiscal year 2005 budget request propose to set aside $350 million 
for cleanup at these sites? Why didn't you just request the funds 
outright?
    Secretary Abraham. The Department's fiscal year 2005 budget request 
proposed to set aside $350 million for cleanup at these sites to inform 
Congress that legal uncertainty prevents the Department from executing 
certain cleanup activities at Hanford, Savannah River, and the Idaho 
National Engineering and Environmental Laboratory.
    If the Department had requested funding to proceed with these 
activities outright, it would have been making $100-plus million 
investments in facilities and technologies--with no confidence that it 
had the authority to classify the waste as it had done, and hence with 
no assurance that the waste form it spent this money creating had a 
disposal pathway. The Department concluded that it should only proceed 
with this cleanup work if either the lower court decision were 
overturned or if legislation were enacted affirming the Department's 
authority to classify these materials as waste incidental to 
reprocessing.

                        special exposure cohort
    13. Senator Allard. Secretary Abraham, many of the workers at Rocky 
Flats are concerned about the slow pace of the implementation of the 
Energy Employee Occupational Illness Compensation Program Act. Because 
of the delay, some of these workers have suggested that Rocky Flats be 
designated a Special Exposure Cohort facility. Given that the 
Department was unsuccessful in gaining congressional approval for 
reprogramming funding for accelerated implementation, how does the 
Department plan to address its backlog of claims?
    Secretary Abraham. We share your frustration with the pace of our 
implementation of the Part D program, caused in large part by our 
original underestimation of the number of applications we would 
receive. In 2001, DOE estimated that the Part D program would receive 
7,500 applications over 10 years, when in fact we have already received 
over 23,000 in the first 3 years.
    The $33.3 million fiscal year 2004 appropriations transfer request 
was part of the four-part comprehensive plan to eliminate the entire 
backlog. Of this request, $23.3 million has been approved. These funds 
will be used to ramp up operations to eliminate the backlog as soon as 
possible. However, the $10 million reduction will make it more 
difficult for the Department to meet its goal to eliminate the entire 
backlog of applications by the end of calendar year 2006.

                            worker benefits
    14. Senator Allard. Secretary Abraham, as you may know, cleanup at 
Rocky Flats has accelerated to the point that the facility may close a 
year early. While this is exciting news for the DOE and the contractor, 
many workers could find themselves out of a job much earlier than 
expected. In fact, some who would have qualified for a pension and 
medical benefits might not qualify if the site closes early. Will the 
DOE restore benefits to workers that would be lost if the site closes 
early?
    Secretary Abraham. The Department appreciates the committee's 
support of accelerated cleanup and is closely monitoring the situation 
at Rocky Flats. The Department is aware that early closure may impact 
pension and health benefits for some set of resident workers at our 
2006 closure sites. The Department, working with our contractors, will 
evaluate the possible impacts of early closure and measures to mitigate 
any such impacts.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                      radiological sources in iraq
    15. Senator Akaka. Secretary Abraham, I have been concerned about 
what we have done to secure radiological sources in Iraq. It is an 
issue I have raised with both Secretary Rumsfeld and yourself in the 
past. This problem extends beyond yellow cake and includes radioactive 
sources used for medical and industrial purposes--the basic ingredients 
of a dirty bomb. I understand that DOE has insisted that it has the 
responsibility for controlling all radiological material in Iraq. This 
resulted in several months of delay before DOE contractors were able to 
collect and store this material. When is DOE going to have a final plan 
ready for disposing of this material, and how certain are you that you 
can account for all these radioactive sources now in Iraq?
    Secretary Abraham. Under Project Maximus, DOE cooperated with the 
Department of Defense for the removal of approximately 1,000 
radiological sources from a former Iraqi nuclear research center. A 
total of 1,920 curies were evacuated to the United States. These 
sources are currently being processed at a secure DOE facility and are 
all expected to be disposed of by 2006.
    429 low-level sources were left behind at the former Iraqi nuclear 
research center. These sources constituted a total of 6 curies and do 
not meet DOE's threat criteria for a dirty bomb. The Department of 
Energy is currently coordinating with the Department of State to assist 
the Iraqi Ministry of Science and Technology to conduct additional 
search and recovery operations for radiological sources. This plan 
should be completed in 2005.

                      u.s. nuclear weapons program
    16. Senator Akaka. Secretary Abraham, I am concerned about the 
signal being sent to other nations by your proposal to develop new 
nuclear weapons. Why shouldn't other States see our actions as giving 
them the green light to pursue their own nuclear weapons program?
    Secretary Abraham. First, I would like to clarify that the United 
States has not embarked on the development of any new nuclear weapons. 
Indeed, we have not developed and fielded a new warhead for nearly 20 
years. At this stage, only concepts and feasibility studies are being 
considered. Any development of new types of nuclear weapons would 
require presidential approval and authorization and appropriation of 
funds by Congress.
    In fact, the United States has a solid track record of reducing its 
nuclear forces and nuclear weapons stockpile through both unilateral 
and bilateral initiatives. Our record should go far to negate the 
complaints of those who would highlight, often in a misleading way, 
certain activities in U.S. nuclear weapons R&D in order to call into 
question the U.S. commitment to nuclear nonproliferation. For this 
reason, I would like to highlight some of our key accomplishments.

        <bullet> The United States has not enriched uranium for nuclear 
        weapons since 1964, nor produced plutonium for nuclear weapons 
        since 1998. We have no plans to produce these materials for 
        weapons in the future.
        <bullet> Since 1992, the United States has maintained a 
        unilateral moratorium on nuclear testing.
        <bullet> The administration's 2001 Nuclear Posture Review 
        articulated a reduced reliance on nuclear forces in achieving 
        U.S. national security objectives in light of a growing ability 
        to achieve these objectives with conventional capabilities.

    When these achievements are viewed in light of the unparalleled 
U.S. commitment to nuclear nonproliferation efforts worldwide, it is 
clear that we have made remarkable progress toward reducing reliance on 
nuclear forces in our national security strategy and, overall, made the 
world a safer place.

                    robust nuclear earth penetrator
    17. Senator Akaka. Secretary Abraham, since the Robust Nuclear 
Earth Penetrator (RNEP) is designed to destroy deeply buried targets, 
it must rely on the accuracy of intelligence to be successful. Yet U.S. 
intelligence failed to detect the location of weapons of mass 
destruction (WMD) programs in Libya, Iran, and North Korea, and 
detected chemical, biological, and nuclear weapons programs in Iraq 
that apparently did not exist. Given that record, I wonder if the RNEP 
will be successful in deterring attacks from other countries or 
terrorists if they know our intelligence is not capable of pinpointing 
their location. What are the criteria that will be used to judge 
whether the weapon should go into development? Will it be based on 
technical feasibility alone?
    Secretary Abraham. NNSA and the DOD are currently engaged in a 6.2/
2A study for the RNEP program. The RNEP program is a three year study 
to examine whether or not the B61 and B83, both existing warheads, 
could be modified through case hardening and other engineering changes 
to provide the United States with the ability to hold at risk a set of 
targets in hard rock geologies. This study effort being conducted at 
the weapons laboratories considers the following factors: nuclear 
safety, system trade offs (design and cost), technical risk analysis, 
life expectancy issues, R&D requirements, qualification and 
certification requirements, life cycle maintenance/logistics, delivery 
system/platform issues. The weapons labs and plants will also develop 
the workload and process development plans.
    The military services are responsible for preparing a draft concept 
of operations (CONOP) for RNEP, which would specify employment 
scenarios that discuss, among other things, minimum acceptable target 
location errors. The military services will use the CONOP as a basis to 
review and analyze the required military characteristics, stockpile to 
target sequence issues and develop the necessary plans for flight 
testing, maintenance, and logistics.
    Moving beyond the a 6.2/2A study will require approval of the 
Nuclear Weapons Council, the President, and Congress consistent with 
the requirements of section 3143 of the National Defense Authorization 
Act for Fiscal Year 2003.
                                 ______
                                 
          Question Submitted by Senator Hilary Rodham Clinton
                     department of energy's budget
    18. Senator Clinton. Secretary Abraham, the fiscal year 2004 budget 
for the DOE's Office of Electric Transmission and Distribution (OETD) 
has apparently been reduced by nearly 35 percent. This is especially 
ironic in light of the worst blackout in history in August 2003, and 
the recognition on both sides of the aisle that the aging, capacity-
constrained electric power delivery infrastructure in the United States 
must be renewed and upgraded at the earliest possible time. The 
congressional conferees made it very clear in the Energy and Water 
Appropriations Conference Report that they expected OETD to ``. . . 
continue its high temperature superconductivity research and 
development at the requested level of $47,838,000.'' Despite this 
expectation, DOE has now cut the superconductivity budget to $32 
million. Beyond my concern with the impact of the cuts on the power 
grid, as a member of the Armed Services Committee, I am especially 
concerned about the negative impact these cuts could have on the 
military. High temperature superconductors are a unique class of 
materials that have the potential for revolutionizing a variety of 
military propulsion and directed energy weapon applications where high 
power density, as well as reduced size and weight at reasonable cost is 
absolutely essential. What are your plans for restoring the 
superconductivity budget to the level requested by the President for 
fiscal year 2004?
    Secretary Abraham. Superconductivity is a priority in modernizing 
and expanding America's electricity infrastructure. The President's 
National Energy Policy specifically recommended that the DOE expand 
research and development on superconductivity, and this was reflected 
in our fiscal year 2004 request of approximately $47.8 million for the 
High Temperature Superconductivity (HTS) program. However, of the total 
$69.5 million enacted for research and development in the OETD in 
fiscal year 2004, $25.8 million was provided for congressionally-
directed projects, leaving $43.7 million to be allocated to four 
program areas: HTS; Transmission Reliability; Electric Distribution 
Transformation; and Energy Storage. This funding covers the 
superconductivity research as well as the development of tools and 
products for grid reliability. Many of the tools and technologies being 
deployed are helping to mitigate the potential for another blackout 
similar to that which impacted New York in August 2003. In fiscal year 
2004, the amount of non-earmarked funding available does not fully 
support the $47.8 million Departmental request level for HTS. The 
Department is working hard to minimize the impacts of Congress's fiscal 
year 2004 funding reduction while keeping critical programs 
operational.

    [Whereupon, at 11:31 a.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

                              ----------                              


                        THURSDAY, MARCH 25, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

 THE ROLE OF U.S. NORTHERN COMMAND AND U.S. SPECIAL OPERATIONS COMMAND 
      IN DEFENDING THE HOMELAND AND IN THE GLOBAL WAR ON TERRORISM

    The committee met, pursuant to notice, at 9:34 a.m. in room 
SH-216, Hart Senate Office Building, Senator James M. Inhofe, 
presiding.
    Committee members present: Senators Warner [chairman], 
Inhofe, Roberts, Allard, Collins, Levin, Lieberman, Reed, Bill 
Nelson, E. Benjamin Nelson, Clinton, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah Brewer, nominations and hearings clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Regina A. Dubey, research assistant; 
Gregory T. Kiley, professional staff member; Elaine A. 
McCusker, professional staff member; Paula J. Philbin, 
professional staff member; and Scott W. Stucky, general 
counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Evelyn N. Farkas, professional staff 
member; and Michael J. McCord, professional staff member.
    Staff assistants present: Sara R. Mareno, Nicholas W. West, 
and Pendred K. Wilson.
    Committee members' assistants present: John A. Bonsell, 
assistant to Senator Inhofe; Darren Dick, assistant to Senator 
Roberts; Jayson Roehl, assistant to Senator Allard; Derek J. 
Maurer, assistant to Senator Collins; Christine O. Hill, 
assistant to Senator Dole; Russell J. Thomasson, assistant to 
Senator Cornyn; Frederick M. Downey, assistant to Senator 
Lieberman; Elizabeth King, assistant to Senator Reed; William 
K. Sutey, assistant to Senator Bill Nelson; Eric Pierce, 
assistant to Senator Ben Nelson; Andrew Shapiro, assistant to 
Senator Clinton; and Randy Massanelli, assistant to Senator 
Pryor.

          OPENING STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Our hearing will come to order. We have a 
chairman who is going to be a little bit late and so we will 
start without him. We are meeting today to receive testimony on 
the U.S. strategy and capabilities to combat terrorism and 
defend our homeland, in review of President Bush's defense 
budget request for fiscal year 2005 and the Future Years 
Defense Program (FYDP).
    I welcome our distinguished witnesses: Assistant Secretary 
of Defense for Special Operations and Low Intensity Conflict 
(ASD-SOLIC), Tom O'Connell; Assistant Secretary of Defense for 
Homeland Defense (ASD-HD), our previous colleague and good 
friend Paul McHale; Commander of the Northern Command 
(NORTHCOM), General Ralph Eberhart; and Commander of U.S. 
Special Operations Command (SOCOM), General Bryan Brown.
    I commend each of you for your leadership and the 
dedication that you have provided to our Nation. We appreciate 
you very much.
    Clearly, the events of September 11 have forever changed 
our sense of security and the manner in which we must organize 
and equip the Armed Forces to defend our Nation from the 
threats of the 21st century. Three years ago we did not have a 
Department of Homeland Security (DHS). We did not have an ASD-
HD. We did not have a combatant command responsible for 
defending the United States homeland. Three years ago, SOCOM 
was primarily focused on supporting regional combatant 
commanders with Special Operations Forces (SOF). Today SOCOM 
has much-expanded responsibilities and is a key player in the 
global war on terrorism.
    Such complex organizational changes are not accomplished 
without hard work, trial and error, and dedicated leaders such 
as those before us today. A principal purpose of this hearing 
is to hear your reports on the progress you have made in 
establishing and reorienting your organizations to combat 
terrorism abroad and defend our Nation here at home.
    The men and women of our Armed Forces, together with the 
coalition of nations, have performed brilliantly in the post-
September 11 world. Our Nation and the world are safer as a 
result of the professionalism and dedication of our military 
forces. But much remains to be done to protect our citizens, 
our Nation, and our allies from the threats of the 21st 
century, and in particular the scourge of terrorism.
    I have to say that I just returned from both Afghanistan 
and the northern part of Iraq and as far down as Djibouti. I 
have never been so impressed with the attitude and the 
commitment and the dedication of our troops. In light of some 
of the negative types of reporting around here, they are really 
holding up well, and you are all to be commended for your 
leadership.
    As we meet this morning, hundreds of thousands of our 
service members are engaged in military operations at home and 
abroad in the ongoing global war on terrorism. These brave men 
and women and their families deserve our continued support and 
they will get it. This committee's responsibility will continue 
to be to ensure that these troops remain the best equipped, the 
best trained, the best led, and the most capable forces in the 
world.
    In doing so, we must understand the challenges they face 
today and those they will face tomorrow. The insights of our 
witnesses today are an indispensable part of this process.
    We have a number of important issues to discuss with our 
witnesses this morning. Secretary O'Connell and General Brown, 
SOF have been at the forefront of our military operations in 
the global war on terrorism. The operational demands on SOCOM 
have been very high. The ability of SOCOM to sustain this high 
operational tempo (OPTEMPO) is of great importance, of great 
concern. This committee wants to ensure you have the people, 
the capabilities, and the resources to accomplish your many 
missions and prepare for the future, and we look forward to 
your assessment, on which we will base our decisions.
    While much attention is focused on operations in Iraq and 
Afghanistan, we must not lose sight of other challenges facing 
SOCOM. The Horn of Africa, where I just came back from, and 
other areas of sub-Saharan Africa, where I also have been in 
the last week, are unsettled and potential havens for 
terrorists. Narcotrafficking and terrorism in the Andean ridge 
and Central Asia is on the rise. The demand for U.S. SOF to 
help train coalition nations' Armed Forces has never been 
higher. The committee looks forward to your views on these 
issues.
    Secretary McHale and General Eberhart, you have both stood 
up entirely new organizations over the past 2 years. The office 
of the Assistant Secretary for Homeland Defense was established 
in February 2003 and NORTHCOM was established in October 2002, 
but did not achieve full operational capability until September 
11, 2003.
    Both organizations are focused on the critical missions of 
defending the United States homeland from attack. Your 
testimony on the progress you have made and what remains to be 
done are vital to the work of this committee. When you 
testified before this committee on April 8 last year, the 
chairman emphasized that you were the first incumbents in your 
respective positions, critical new positions, and that you were 
an integral part of the continuing transformation of our 
military that is so much broader and deeper than merely 
purchasing new weapons systems or using more advanced 
technology. You are an integral part of redefining how we think 
about the entire concept of defending this great country.
    The Department of Defense (DOD) has unique capabilities to 
contribute to the effort to secure our homeland, including 
providing assistance to State and local first responders in the 
event of future disasters, whether natural or manmade. You 
gentlemen represent the leadership that will bring those 
capabilities to bear when needed, working closely with the DHS 
and other Federal, State, and local authorities.
    We look forward to hearing your testimony regarding the 
DOD's ability to assist in homeland security, any factors that 
may inhibit your ability to provide such assistance, and how 
your organization, working with other combatant commanders and 
other agencies as a team, can defeat those who threaten us.
    Our witnesses today symbolize the unity of effort across 
the DOD to combat terrorism and defend our homeland from the 
threats of the 21st century. We thank you for your service and 
look forward to your testimony.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman. Let me join you in 
welcoming our witnesses this morning. There is just no way to 
overstate the significance of the subject of today's hearing. 
Combatting terrorism in the United States and abroad is the 
imperative of national security. Two weeks ago, the Director of 
Central Intelligence (DCI) told this committee that the al 
Qaeda leadership structure that we charted after September 11 
is seriously damaged, but that the group remains as committed 
as ever to attacking the U.S. homeland. Even catastrophic 
attacks on the scale of September 11 remain within al Qaeda's 
reach.
    Then Director Tenet added the following: ``What I want to 
say to you now may be the most important thing I tell you 
today. The steady stream of Osama bin Laden's anti-U.S. 
sentiment ensures that a serious threat will remain for the 
foreseeable future with or without al Qaeda in the picture.'' 
Those are the words which he emphasized, and I think rightly 
so: ``with or without al Qaeda in the picture,'' there is a 
serious threat that remains to us.
    Moreover, he said, ``For the growing number of jihadists 
interested in attacking the United States, a spectacular attack 
on the United States homeland is the brass ring that many 
strive for.''
    The DOD and the U.S. military are on the front line of the 
war against terrorism abroad and play a critical supporting 
role defending our country against terrorists on U.S. 
territory. Since our witnesses last testified before this 
committee, we have captured increasing numbers of al Qaeda 
operatives and financiers in Afghanistan, Iraq, and elsewhere, 
due in large part to improved tactical intelligence efforts and 
the relentless hard work of our SOF.
    In Iraq, special operators helped capture Saddam Hussein 
and they continue to corner militants. Meanwhile, SOF are 
providing counterterrorism and counterinsurgency training in 
countless places, from the Philippines, to Colombia, to Mali, 
to Mauritania. Indeed, last year the SOF reached the highest 
OPTEMPO in their entire history, dating back to 1942.
    The initiative of this committee under Senator Warner's 
leadership--and Secretary Cohen and others were involved at 
that time--in establishing the SOCOM and its special funding 
arrangement and the work of the command training and equipping 
these forces primarily through the 1990s has paid off. Just 
last year the SOCOM was tasked with leading the military 
component of the global war on terrorism.
    This committee has asked the DOD to report to us on the 
organizational and other changes that the command must make to 
execute this role and the operational, legal, and policy 
parameters, including the role of Congress, governing SOCOM's 
counterterrorism activities.
    I look forward to hearing from Secretary O'Connell on the 
policy aspects of this issue, and from General Brown on how 
this new role is affecting OPTEMPO, training, procurement, and 
research and development (R&D).
    I would also like to ask our witnesses the questions 
Secretary Rumsfeld reportedly raised in an internal memorandum 
last October: Are we winning or losing the global war on 
terrorism? Are the changes we have made and are making too 
modest and incremental?
    The domestic military component of the war on terrorism is 
the responsibility of the ASD-HD, together with the newly-
created NORTHCOM. Combatting terrorism in the United States 
focuses more heavily on antiterrorism or force protection and 
consequence management efforts that rely for their success on 
the cooperation of Federal organizations as well as State, 
local, and private entities.
    The critical component is intelligence sharing. I look 
forward to hearing from our witnesses about the state of 
intelligence-sharing efforts with law enforcement and 
intelligence agencies, Federal, State, and local.
    Additionally, I have been long concerned that the 
establishment of the Terrorist Threat Integration Center (TTIC) 
appears to duplicate and overlap to some extent the function of 
the Central Intelligence Agency's (CIA) Counterterrorism Center 
(CTC). We cannot accept a situation where no single entity 
within our government is finally responsible for the analysis 
of foreign intelligence relating to the terrorist threat within 
the United States.
    I have been promised, we have been promised--many of us who 
have raised this issue, including Senator Collins as the 
chairman of the other committee that has jurisdiction--we have 
been promised by Governor Ridge for over a year now that 
Congress would receive a written explanation of the roles of 
CTC and TTIC and where the final responsibility lies. It has 
not been forthcoming. So I also look forward to hearing from 
Secretary McHale and General Eberhart whether they share that 
concern about the lack of the single entity with responsibility 
for foreign intelligence analysis.
    I join you, Mr. Chairman, in thanking all of our witnesses 
for their service and for the improvements that we have seen.

           STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner [presiding]. Thank you, Senator Levin, and 
thank you, Senator Inhofe, for commencing the hearing.
    We will lead off with Secretary O'Connell, followed by 
General Brown and Secretary McHale, followed by General 
Eberhart. We will have your entire statements placed into the 
record, so you may select those portions you wish to highlight.

 STATEMENT OF HON. THOMAS W. O'CONNELL, ASSISTANT SECRETARY OF 
   DEFENSE FOR SPECIAL OPERATIONS AND LOW INTENSITY CONFLICT

    Secretary O'Connell. Thank you, Mr. Chairman. Chairman 
Warner, Senator Levin, distinguished members of this committee: 
I would like to thank you for giving me this opportunity to 
speak to you about special operations and the war on terrorism. 
I will keep my opening remarks brief and, as Senator Warner 
suggested, will submit my entire remarks for the record.
    I believe today's challenges to our SOF, our entire 
military, and our Nation parallel those faced during World War 
II. Today, as then, these challenges will be met by forces 
remarkable in their quality, self-sacrifice, courage, 
integrity, and dedication. At the tip of the spear are the 
remarkable men and women of SOCOM. These special operations 
warriors and their service to the Nation inspire my staff and 
the SOLIC element of the Pentagon to work diligently every day 
to support and assist in our mandated oversight role.
    I can assure you that the relationship between my 
organization in the Pentagon and SOCOM have never been better. 
I have a close partnership and friendship with General Doug 
Brown. Together we work to ensure that SOF continue to be 
equipped, trained, and deployed to meet the most critical needs 
of our Nation.
    I had the privilege of visiting many of our SOF personnel 
in Iraq during Christmas week. These quiet professionals are 
indeed inspirational. It is clear to me that the capabilities 
of our forces so evident in Afghanistan and Iraq were direct 
results of critical decisions made over a decade earlier to 
expand and improve our SOF.
    In fact, about a month ago General Brown and I had the 
opportunity to spend some extended time with Senator Warner in 
Florida, and it was very interesting retracing our various 
perspectives of what went on back in those days. But much of 
that work came from this committee. Thank you. Well done. We 
have received outstanding support for our efforts by the 
Members and staff of Congress. We will need your continued 
support as we ask for additional resources to further enhance 
our forces.
    We are making progress and are taking the fight to 
terrorist organizations wherever we can find them. SOF are in 
the vanguard of that effort by having proved their mettle and 
value to the Nation in both Operation Enduring Freedom (OEF) 
and Operation Iraqi Freedom (OIF).
    That said, the pace and intensity of our operations cannot 
be diminished or relaxed in any way or at any time. It is 
indeed an honor for me to be here with General Brown. He 
represents truly the finest that our Nation has to offer.
    Thank you for your interest in and continued support of the 
entire special operations community and I would be happy to 
take your questions later on, sir.
    [The prepared statement of Secretary O'Connell follows:]
             Prepared Statement by Hon. Thomas W. O'Connell
    Chairman Warner, Senator Levin, and distinguished members of this 
Committee, I appreciate your invitation to update you on the progress 
that Special Operations Forces (SOF) are making on the war on terrorism 
being fought today. I would also like to thank you for the vision and 
foresight shown by Congress in 1987 in establishing the United States 
Special Operations Command (SOCOM) and creating the Assistant Secretary 
of Defense for Special Operations and Low Intensity Conflict (ASD-
SOLIC) within the Department of Defense (DOD). As a result of your 
actions, we were not faced on September 12 with the task of recreating 
a capacity to wage unconventional war against an unconventional 
adversary. We had in hand the basic building blocks for a global 
military campaign against terrorism, both relying upon the traditional 
regional combatant command structure and by establishing SOCOM as a 
supported command.
    Prior to 1987 the United States had a general practice of only 
creating SOF after the advent of a crisis and typically disbanded the 
force once the crisis had passed. Units were created for specific 
tasks, and dissipated after the conflict had passed. But as was 
discovered during Operation Desert One, the aborted hostage rescue in 
Iran, humans and their skills are more important than hardware. SOF 
cannot be mass produced, they cannot be readily created ``after the 
fact,'' and you need a standing policy voice at the senior level of the 
DOD which can explain effectively to other policy makers what these 
``silent warriors'' can, and cannot, do.
    I exercise civilian oversight of special operations and low-
intensity conflict activities of the DOD. One of my responsibilities is 
to ensure that SOF are appropriately employed and senior policy makers 
understand their capabilities as well as their limitations and also the 
risk that some missions might entail. Not only am I an advocate and a 
defender of SOCOM and SOF, but I am also charged with making sure that 
SOF continues to be the best trained, best equipped, most flexible and 
effective fighting force available to our country.
    Representatives from my office spend a significant amount of time 
at SOCOM headquarters in a joint effort to develop the SOF program and 
budget. I actively participate in the SOCOM Board of Director's 
meetings, the Command's executive resource forum. This joint effort 
produces a SOF program and budget that emphasizes force readiness and 
sustainability, provides sufficient force structure to meet the demands 
of the geographic warfighting commanders and the Commander, SOCOM in 
his role as a supported commander.
    My office provides executive program direction and DOD sponsorship 
of the Technical Support Working Group (TSWG) through ASD-SOLIC's 
Combating Terrorism Technology Support Office (CTTSO) which addresses 
the Nation's interagency combating terrorism requirements. The TSWG 
conducts the national interagency research and development (R&D) 
program for combating terrorism requirements. The TSWG is a unique 
forum with membership from more than 80 organizations across the 
Federal Government. The Assistant Secretary of Defense, Homeland 
Defense actively participates. Projects are selected following a 
coordination process with other U.S. Government agencies and with three 
countries--the United Kingdom, Canada, and Israel--with whom we conduct 
cooperative R&D programs. The TSWG has an impressive record of 
successful projects that have resulted in:

        <bullet> Specific building design guidelines for protection 
        against blast.
        <bullet> Countermeasures to defeat improvised explosive and 
        chemical/biological devices.
        <bullet> Personal protection equipment.
        <bullet> Equipment for military and civilian response teams for 
        chemical incidents.

    Numerous TSWG developed systems are deployed supporting our troops 
today. We continue to serve the technology needs of the warfighter in 
eliminating the threat itself. The Secretary of Defense has noted 
repeatedly that to address any of a myriad of threats we shall be 
facing, it is necessary to shorten the decision cycle for force 
definition, equipping, and deployment. Through its numerous 
requirements-driven successes and by continuing to reflect partnered 
cooperation across its subgroups and among Federal agencies, the 
Combating Terror Technology Support Program has shown it can meet that 
expectation.
    I am responsible for the DOD's worldwide antiterrorism policy and 
oversight of our antiterrorism programs. My office works closely with 
that of the Assistant Secretary for Homeland Defense (ASD-HD) on 
domestic aspects. The SOLIC office establishes antiterrorism standards 
and monitors the DOD component antiterrorism programs to reduce 
vulnerability. My office co-chairs the Antiterrorism Coordination 
Committee--Senior Steering Group with the Joint Staff Director of 
Operations. This is the senior corporate body within the DOD charged 
with the responsibility to foster cooperation and coordination of 
antiterrorism activities. The most critical function of the forum is to 
act as a clearinghouse for policy recommendations to the Secretary of 
Defense concerning the protection of DOD personnel and their family 
members, facilities, critical infrastructure, and other material 
resources from terrorist acts.
Global War on Terrorism
    When I appeared before you last year, I identified several 
priorities I would have as the ASD-SOLIC. These priorities were not 
comprehensive but did reflect general areas or issues that require 
special commitment and attention. The first and the most obvious and of 
immediate importance--continued execution of the global war on 
terrorism. I believe that the United States is at a critical moment in 
this war. We have realized initial successes and achieved a degree of 
momentum that together support a general assessment that we are making 
progress in winning this war. But sustaining that momentum and 
continuing the successes against terrorists and their supporters now 
and into the future is just as critical.
    For the past 2-plus years we have examined how the attacks of 
September 11 have changed how we define ``defense,'' and how, as a 
consequence, the war on terrorism is fundamentally a different type of 
war than those we have fought before. Prior to then we perceived and 
responded to the threat of global terrorism in terms of transnational 
criminal activity, albeit politically or religiously motivated. Today's 
international terrorist is far different than those of the past, as 
terrorists now have global reach, infrastructure, and significant 
resources. While SOF were always a part of the equation in addressing 
terrorism, the posture and role of SOF today in combating and defeating 
global terrorism has changed.
    Indeed, that is true of the entire military and the entire concept 
of national defense. Previously, we were postured to defend against a 
state projecting force across great distances, and we built extensive 
capabilities to provide us early warning and tools to deter aggression. 
But the potential destructiveness of an attack of the type we suffered 
on September 11 means that we are no longer afforded an opportunity to 
determine an ``appropriate response,'' nor make a clear determination 
of when decisive action is too little or too late. For reasons we all 
understand, SOF have become a critical military tool in taking the war 
to the terrorists before it can be fought on our own soil or that of 
our allies.
    SOF are uniquely qualified for that mission. Because of those 
qualifications and the demands of the war on terrorism, the DOD has 
been structuring and shaping SOF in different ways. While SOF were 
originally conceived to be used as forces for supporting or leveraging 
larger conventional forces in battle, or for undertaking discrete, 
limited strategic missions, the new reality has given SOF a prominent, 
front-line, essential role in the defense of our Nation. The most 
important manifestation of this change is the designation of SOCOM to 
be the supported (or ``lead'') command in the war on terrorism. SOCOM 
will plan and execute key missions as a supported combatant command. 
SOCOM is expanding to directly plan combat missions against terrorist 
organizations and execute those missions as the supported command, 
while maintaining the role of force provider and supporter to the 
geographic combatant commanders.
    This means SOF will continue to support regional commanders, while 
also at times being supported by other combatant commands. SOF are 
still the first in and last out in many contingency operations around 
the globe. SOF must be ready to act at any time, in all environments, 
overtly or clandestinely; alone or in concert with other U.S. personnel 
and coordinating foreign forces.
    Before I discuss further what has changed and what our new national 
security imperatives require of SOF, I want to note explicitly that one 
of the most important factors and essential considerations for us has 
not changed: the importance of the special operator. In terms of 
missions performed and in the qualities of the individuals who 
undertake those missions, the special operations operator is truly 
unique and requires a different type of mindset on our end in terms of 
planning and support. These warriors must be capable of conducting 
strategic operations in all tactical environments with language 
proficiency, cultural awareness, political sensitivity and the ability 
to maximize information age technology. Recruiting, training, and 
retaining SOF will not be without challenges. The analysis to date 
indicates that we will have the right numbers to sustain the forces the 
Nation needs. Training instructors have been added to the staff of the 
John F. Kennedy Special Warfare Center and the Naval Special Warfare 
Center. The number of training slots has increased for Army SOF, civil 
affairs, and psychological operations. In addition, special pay and 
bonuses have helped retention in these highly specialized areas and 
units. We will continue to closely monitor our ability to have the 
right numbers not only in operational units today but also in the 
training pipeline that produces the forces we require in the future. In 
many respects force management is the most critical problem facing SOF. 
We must never lose sight of what we call the ``SOF Truths:''

        <bullet> Quality is better than quantity.
        <bullet> SOF cannot be mass produced.
        <bullet> Competent SOF cannot be created after a crisis occurs.
        <bullet> Humans are more important than hardware.

    These truths have been reaffirmed by the superb performance of our 
SOF in Afghanistan, Iraq, Colombia, the Philippines, and many other 
countries around the world. I am keenly aware of how very much the 
dedication and commitment of our special operations professionals are 
appreciated by every member of this committee.
    One effect of the global war on terrorism has been a significant 
increase in operational tempo (OPTEMPO) for SOF. The DOD has added 
3,700 additional personnel during the period fiscal year 2004-2009 for 
SOCOM. This additional strength growth supports the manning 
requirements to wage the global war on terrorism. The increases are 
focused on fixed and rotary-wing aviation, SEAL teams, civil affairs, 
psychological operations, and theater special operations commands.
    Recently, I had the privilege to visit both SOF and conventional 
forces in Iraq. These forces make us proud--and should cause potential 
adversaries to pause before seeking to harm the United States. The 
commitment of SOF to pursuing terrorists to all corners of the globe is 
embedded in their mindset. The experience gained in defeating the 
Taliban and disrupting al Qaeda in Afghanistan, destroying the brutal 
regime in Iraq and aiding friends and partners in other corners of the 
globe, such as Colombia and the Philippines, has matured our 
warfighters to a keen edge. Our challenge is to maintain that edge.
    I also saw that the nature and importance of the new demands on SOF 
are apparent to the operators in the field, and they are clearly doing 
more with the additional manpower, funding and materiel we have given 
them to meet the new challenges to our national security. To meet that 
challenge, there are necessary increases in support and training. This 
level of support is required to meet the challenges of the war on 
terrorism. The change from a regional, reactive posture to a global, 
proactive posture could not be achieved nor sustained with the levels 
of funding, materiel, and forces that we had before September 11.
Transformation
    A second area of emphasis is transformation of SOF. SOCOM is 
transforming SOF capabilities to meet the formidable challenges 
associated with waging war against terrorist cells scattered across the 
globe. The SOCOM is building the capability to maintain sustained 
operations in areas where terrorist networks are operating. It is 
investing in critical ``low-density/high-demand'' aviation assets that 
provide SOF with the mobility necessary to deploy quickly and to 
execute their missions quickly. Investments in key command, control, 
and communications enhance support to the war on terrorism. The SOCOM 
has added personnel to enhance the ability to sustain worldwide 
deployments and 24-hour-a-day operations. Any future SOF will be:

      (1) Sized, trained, and equipped to engage in any threat 
environment against any adversary
      (2) Culturally, linguistically, politically, and regionally 
focused
      (3) Rapidly deployable
      (4) Capable of conducting exceptionally--precise discriminate 
strikes against specific targets
      (5) Able to achieve operational and tactical superiority
      (6) Operationally and strategically agile joint forces that can 
develop and execute unconventional, audacious, and high pay-off courses 
of action.

    The fiscal year 2005 President's budget submission for SOCOM is 
$6.546 billion. This funding request will continue the modernization 
and transformation effort started in fiscal year 2004. It will enable 
SOCOM to:

      (1) Transform SOF capabilities to better locate and track 
individual terrorists across the globe and conduct small surgical 
operations with minimal risk to the employed force.
      (2) Maintain sustained operations in areas where terrorist 
networks are operating.
      (3) Continue to invest in critical ``low-density/high-demand'' 
aviation assets that provide SOF with the mobility necessary to deploy 
quickly and to execute their missions quickly.
      (4) Continue to invest in key command, control, and 
communications to more effectively support the war on terrorism.
      (5) Support the personnel SOCOM has added to better support 
worldwide deployments and 24-hour-a-day operations.

    This funding is essential to sustaining the necessary operations in 
the war on terrorism and to ensuring we can meet essential 
transformation requirements. The hallmark of SOF is that they are 
adaptive to change and characterized by creativity. The success of 
change and transformation is the ability to maximize the ability of the 
human to think and problem solve while taking advantage of the rapid 
pace of technology. Transformation of SOF is a journey, not a 
destination and there is no mark on the wall that will indicate we are 
finished transforming. Transformation is a continuing process that not 
only anticipates the future, but also seeks to create that future.
DOD Counternarcotics Efforts/Counternarcoterrorism
    Each year, my office expends a great deal of time, effort, and 
resources to keep drugs from crossing our borders. This is a complex 
process that requires coordination and funding from all levels of 
government agencies, local and state law enforcement, and the foreign 
countries in which we assist in the eradication of crops and disruption 
of their transportation to the United States. A large portion of the 
profits from drug sales indirectly support terrorist organizations--
another reason we are working hard to reduce the supply of drugs.
    Illegal drug use exacts a heavy toll on American society every 
year. Illegal drugs account for billions of dollars in direct and 
indirect costs including health care, lost revenue due to crime, social 
welfare costs and lost productivity. While cocaine continues to be the 
single most serious drug threat, heroin, synthetic drugs, 
methamphetamines, and marijuana are also serious, and in some cases, 
increasing problems. Additionally, there are clear linkages between 
international narcotics trafficking and international terrorism. Global 
and regional terrorists threatening United States interests can finance 
their activities with the proceeds from narcotics trafficking. 
Terrorist groups such as the Revolutionary Armed Forces of Colombia 
(FARC), al Qaeda in Afghanistan, and groups around the world partially 
finance key operations with drug money. The DOD, with our counterparts 
in the Department of State and other Government agencies, as well as 
allies such as the United Kingdom, seeks to systematically dismantle 
drug trafficking networks, both to halt the flow of drugs into the 
United States, and to bolster the broader war on terrorism effort.
    In accordance with statutory authorities, we use counternarcotics 
resources as effectively and efficiently as possible to achieve 
national and DOD counternarcotics priorities. We focus on programs that 
fulfill statutory responsibilities and use military-unique resources 
and capabilities, and continue to advance the national priorities of 
the National Drug Control Strategy. Our counternarcotics authorities 
and funding are an effective combination that supports war on terrorism 
efforts and the implementation of the DOD's Security Cooperation 
Guidance. Furthermore, they contribute to our efforts to secure the 
Nation's borders and establish full maritime, ground, and air domain 
awareness of the approaches to our shores. We work closely with 
Assistant Secretary McHale's staff on these matters.
    In the international arena, the DOD provides much of its 
counternarcotics support through deployments and programs to train and 
furnish intelligence and operational support for drug detection, 
monitoring, and provide equipment to partner counterdrug forces. These 
countertrafficking methods aim directly at disrupting the terrorist 
drug trade and finance networks that train partner-nation military 
forces.
    This, of course, includes cooperative military-to-military programs 
in which countries grant access to our military operators and enable 
access to target areas. Our authorities permit us to: maintain, repair 
and upgrade equipment, transport personnel, establish bases of 
operations or training facilities, assist with detection, monitor and 
communicate trafficking activities, construct roads, fences, and 
lighting installations, establish command, control, communications, and 
computers (C\4\) networks, provide intelligence analysis assistance and 
conduct aerial and ground reconnaissance.
Domestic CN Support
    ASD-SOLIC works closely with U.S. Northern Command (NORTHCOM) and 
ASD-HD on counternarcotics support to domestic law enforcement. The 
focus of this support is managed through Joint Task Force-Six (JTF-6) 
in El Paso, Texas which provides active duty and Reserve missions in 
areas of engineering support, aerial and ground reconnaissance, 
transportation and logistics support and intelligence. These 
counternarcotics missions provide excellent training in real world 
situations and enhance domestic security. In order to alleviate stress 
on our Active-Duty Forces, the DOD first turns to the National Guard to 
provide support to domestic law enforcement. To effectively meet this 
objective, the DOD is transitioning the National Guard counterdrug 
effort out of missions that are not militarily unique (cargo-mail 
inspections, maintenance and logistics, marijuana eradication), to 
those that are militarily unique (air/ground reconnaissance, 
intelligence analysis, training for law enforcement agencies), and is 
enhancing National Guard support to law enforcement along the southwest 
border, and at linguist centers in California and Washington.
                  foreign consequence management (fcm)
    I also oversee DOD policy on support to Foreign Consequence 
Management (FCM) operations. FCM operations focus on providing 
specialized assistance in response to use of chemical, biological, 
radiological, nuclear, chemical, explosives (CBRNE) against friends or 
allies, installations, vital interests, or U.S. military forces 
overseas.
    An event overseas involving CBRNE would likely impact not only our 
friends and allies, but potentially U.S. civilian and military 
personnel stationed abroad. It is in our interest to be ready to help 
save lives and reduce suffering in the aftermath of such an event, just 
as many of our friends assisted us in the aftermath of the September 11 
attack.
    The primary responsibility for managing and mitigating the effects 
of a foreign CBRNE incident resides with the host-nation government. 
The Department of State is the lead Federal agency for all DOD support 
to FCM operations. When requested by the lead agency, and approved by 
the Secretary of Defense, the DOD supports the State Department in FCM 
operations, as appropriate.
    The DOD geographic combatant commanders command and control all DOD 
support to FCM operations within their respective areas of 
responsibility (AORs), in coordination with the appropriate U.S. Chief 
of Mission. We work closely with the Department of State to ensure that 
our contingency plans for support to an FCM operation are fully 
coordinated. Our geographic combatant commanders have been refining 
their contingency plans and exercising their capabilities for providing 
support to an FCM operation, should they be called upon to do so.
    In closing, I would like to assure you that I will continue to work 
closely with my colleagues here with me today to make this Nation safe 
and ensure that U.S. SOF continue to be the best trained, best 
equipped, most flexible, and effective force available to our country.

    Chairman Warner. Thank you, Mr. Secretary. We particularly 
welcome you. The position you hold is one created by Congress. 
I participated in the legislation many years ago. You bring to 
this post--you are too modest to talk about it--your own 
exceptional career in the military in earlier years, and you 
are most ably qualified to take on the post and, to the extent 
that I have had the privilege of working with you, you approach 
it with tremendous zeal and enthusiasm.
    Secretary O'Connell. Thank you, Senator.
    Chairman Warner. I can understand how serving with such a 
distinguished soldier as General Brown, whose career reaches 
back to Vietnam, would be so rewarding. General, I recall very 
well that picture in your office where you are a young first or 
second lieutenant flying those old helos.
    General Brown. Yes, sir.
    Chairman Warner. So why do you not go ahead now, General.

STATEMENT OF GEN BRYAN D. BROWN, USA, COMMANDER, UNITED STATES 
                   SPECIAL OPERATIONS COMMAND

    General Brown. Mr. Chairman, Senator Levin, distinguished 
members of the committee: It is an honor to appear before you 
today to report on the posture of SOCOM. With your permission, 
I would like to make a few remarks and then submit a longer 
statement for the record.
    As the Commander of SOCOM, I have defined our priorities as 
the global war on terror, readiness of our force, and 
transformation. Focusing the command's efforts in these areas 
will ensure that our SOF are decisive as they defend America on 
the battlefield today, but are also postured for success in the 
future.
    The men and women of SOCOM are deployed today around the 
world under the operational control of geographic combatant 
commanders. This is a force unlike any other. For the most 
part, they work in small numbers in remote locations. They 
often work with indigenous forces and in many areas are 
constantly ready to operate quickly, day or night, in response 
to perishable intelligence. They are attacking the enemy at 
every opportunity, far from our shores, to prevent hostile 
action here at home, and are prepared to assist NORTHCOM's 
homeland defense efforts if requested.
    SOF's selection process, high levels of training and 
maturity are the keys to their success. They maintain America's 
security and help create stability and opportunity in countries 
like Afghanistan and Iraq. Quite frankly, they are a highly 
trained, combat ready force, and are doing an incredible job.
    Mr. Chairman, SOF are in high demand and are employed in 
greater numbers, as you pointed out, than any time in our 
history. In certain skills, such as civil affairs and 
psychological operations, where most of the force is either in 
the Reserve or National Guard, we are stressed. However, our 
OPTEMPO is manageable. Today all requests for SOF are closely 
reviewed by my headquarters and require my personal approval 
prior to any deployment. This ensures the right forces are 
provided to the geographic commanders as they fight the battle. 
It allows our component commanders to closely monitor 
deployment and manage personnel tempo.
    We cannot win the global war on terrorism without 
maintaining a superior warfighting excellence and that requires 
a commitment to readiness. Over the years we have built the 
most capable active, Reserve, and National Guard SOF the world 
has ever seen. To maintain this force and remain dominant on 
this new battlefield, we are continuously reviewing all our 
requirements, all our capabilities, to ensure the correct focus 
of our programs is on our global war on terrorism strategy.
    Mr. Chairman, we are also transforming our force. We are 
researching new techniques, such as the feasibility of unmanned 
aerial vehicles (UAVs) to conduct psychological operations 
missions in denied areas, and reviewing proposals for the Next 
Generation Gunship in concert with the United States Air Force 
to replace our very effective but aging AC-130 gunship 
platforms.
    We are anxious to employ the capabilities of a safe, 
reliable, and maintainable CV-22 Osprey. Additionally, we are 
looking across the DOD and industry to identify cutting edge 
technologies for our operators and we are rapidly acquiring 
those that provide immediate benefit.
    Our transformation efforts will remain focused on the 
cornerstone of special operations capability, our people. They 
are specially selected and highly trained. Special operations 
warriors remain the key to our success and the budgetary 
authority provided by Congress makes all this possible.
    In conclusion, Mr. Chairman, I want to thank you and the 
members of the Senate Armed Services Committee for your 
continued outstanding support to our soldiers, sailors, airmen, 
marines, and our DOD civilians. Additionally, thanks for your 
visits to our troops in the field around the world. These 
visits are important and they do not go unnoticed by our 
special operators. The support of this committee and the 
support of the Secretary of Defense, as well as our great 
relationship with the ASD-SOLIC, Tom O'Connell, helps make our 
success possible. SOF are more capable, more lethal, because of 
your efforts.
    I look forward to answering your questions.
    [The prepared statement of General Brown follows:]
             Prepared Statement by GEN Bryan D. Brown, USA
    Mr. Chairman and distinguished members of the committee, it is an 
honor and privilege to report to you on the state of the United States 
Special Operations Command (SOCOM). Despite the many new and varied 
challenges we face, your men and women of SOCOM are performing 
magnificently. Today's Special Operations Forces (SOF) are the most 
capable in the world.
    Secretary Rumsfeld expanded SOCOM's role to include leading the 
Department of Defense's (DOD) military global war on terrorism planning 
effort, and commanding select global war on terrorism operations. In 
addition, it is important that we maintain our world-class ability to 
organize, train, and equip SOF as originally mandated by Congress. 
SOCOM's special operators, highly trained and armed with the best 
equipment possible, are defending our Nation far from America's shores 
around the world.
    We are standing side-by-side with our interagency, conventional, 
and coalition partners fighting the global war on terrorism. SOF, in 
support of the geographic combatant commanders, have taken the offense 
to the enemy, to strike him where he lives, to bring the battle to him, 
and to bring him to justice. Maintaining America's security and way of 
life, through dedicated operations far forward, cooperation with our 
allies around the world, planning for sustained operations, and 
homeland defense is today's reality. We will engage the enemy far from 
America's shores, and provide requested support to U.S. Northern 
Command (NORTHCOM). As we move into the future, our priorities will 
remain the global war on terrorism, readiness of our forces, and 
continuous transformation to match our capabilities with tomorrow's 
battlefield requirements.
    Our skilled SOF warriors continue to achieve successes far beyond 
their limited number. SOF on the ground in Afghanistan are central to 
the search for al Qaeda and Taliban leadership, organizing and 
assisting security and defense forces, reconstruction of 
infrastructure, and helping the Afghan people build a free independent 
country. During combat operations in Iraq, United States Central 
Command's (CENTCOM) tasked special operations to lead two of three 
major battle fronts, and we were closely integrated into the 
conventional force of the third. Today, SOF are integrated directly 
into the CENTCOM force structure, taking the fight to the enemy, and 
helping create stability and opportunity for the people of Afghanistan 
and Iraq.
                        global war on terrorism
Success in Global War on Terrorism
    SOCOM's number one priority is the global war on terrorism. SOF, 
deployed in support of the geographic combatant commanders, have been 
involved in every phase of the war. SOF were the first forces on the 
ground in Afghanistan and Iraq, and were then integrated with 
conventional forces more closely than in any war in U.S. history. The 
synergy from the joint, combined, and interagency efforts produced 
dynamic results on the battlefield.
Iraq
    From the onset of planning, SOF were assigned key roles in 
Operation Iraqi Freedom (OIF) to fix the Iraqi V Corps in the north to 
prevent it from reinforcing Baghdad; to conduct special reconnaissance 
and direct action missions in western Iraq; to locate and destroy Iraqi 
mobile missiles; to support Combined Forces Land Component Command 
movement from the south toward Baghdad; to conduct support and 
stability operations throughout the country; and to interdict borders 
and lines of communication. SOF were also assigned missions to seize 
key airfields which they accomplished on occasion by conducting 
airborne parachute assaults. SOF played a critical role in the capture 
of most of the ``deck of cards'' key personnel within the Iraqi regime, 
and they are still capturing high value targets today. SOF seized and 
protected sensitive areas and prevented Sadam Hussein from creating an 
ecological disaster by dumping massive quantities of oil into the 
Arabian gulf and lighting oil fields on fire as was done during 
Operation Desert Storm. Following the collapse of Saddam's regime, SOF 
have continued to play a major role in stability operations with the 
long term goal of assisting in the building of a free and democratic 
Iraqi nation.
    In northeastern Iraq, the Combined Joint Special Operations Task 
Force-North (CJSOTF-N) conducted unconventional warfare, special 
reconnaissance, direct action, and call-for-fire missions against Iraqi 
forces arrayed along the ``Green Line.'' This task force, designated 
Task Force (TF) Viking, was commanded by a special operations officer, 
and was under the operational control of SOCCENT.
    TF Viking's first order of business was unconventional warfare. 
U.S. Army SOF infiltrated Iraq and linked up with Kurdish military and 
political leaders to assess their capabilities and begin the campaign. 
Beginning on March 22, special operations MC-130 Combat Talons flew 
through heavy Iraqi anti-aircraft fire and landed a contingent of SOF 
teams and U.S. Air Force Combat Controllers. Rapidly expanding, TF 
Viking grew to more than 50 individual Special Forces A-teams (ODA) in 
the northern area of operations.
    After taking command of the U.S. Army's 173rd Airborne Brigade and 
the U.S. Marine Corps' 26th Marine Expeditionary Unit (MEU) TF Viking 
integrated them with the Kurdish Peshmerga. Their coordinated offensive 
effort crushed 700 entrenched Ansar aI Islam fighters. TF Viking used 
close air support to mount a successful offensive against Iraqi armor 
and artillery, and took the city of Kirkuk by force. This superb 
combined and joint force also negotiated the orderly capitulation and 
occupation of Mosul and secured the northern oilfields.
    The CJSOTF-West (CJSOTF-W) was tasked with denying the Iraqi 
military their ability to launch missiles into neighboring countries or 
coalition formations. CJSOTF-W's area of responsibility (AOR) included 
the entire western desert area and all of the landmass from Baghdad 
south to the border of Kuwait. In the west, CJSOTF-W controlled a 
combined and joint force. In the south, SOF were integrated directly 
into the conventional force's operations.
    The mission in the western desert area was to deny the Iraqi 
military their ability to launch missiles into neighboring countries or 
coalition formations. SOF were flown into west using MC-130 Combat 
Talons, MH-47Es, MH-60Ls, MH-60Ks, and were supported by MH-60 direct 
action penetraters and AC-130 gunships. The effect of conventional and 
SOF air and organic fire support to SOF teams on the ground, 
particularly in the early days of combat action, allowed the CJSOTF-W 
to overwhelm the Iraqi military and dominate the western desert.
    SOF successfully captured and controlled key infrastructure to 
include a key dam, vital lines of communication and airfields in the 
west. Using Army SOF helicopters, conventional tanks and mobile rocket 
launchers, SOF were able to dominate the Iraqi military in the western 
desert and support conventional forces as they moved on Baghdad.
    In the southern area between the Kuwaiti border and Baghdad, the 
primary missions of CJSOTF-W were strategic reconnaissance and 
unconventional warfare. SOF teams were inserted deep into Iraq by U.S. 
Air Force Special Operations helicopters and quickly conducted 
reconnaissance of key locations. This information, passed on to ground 
conventional maneuver commanders, was a significant contributing factor 
to the speed and audacity of the ground campaign. Other SOF teams 
dispersed throughout the area and began to work with Iraqi nationals 
sympathetic to the coalition cause. These teams identified and rooted 
out Fedayeen Saddam, Baath party members, regime death squads, and 
other terror cells.
    The Naval Special Warfare Task Group (NSWTG) was given the task of 
securing strategic targets in the Iraqi littoral areas. This area was 
important because of oil terminals, the oil metering and manifold 
stations, and the two oil pipeline support valves. In addition, this 
was the initial avenue for providing seaborne humanitarian aide to 
Iraq.
    Under cover of darkness, U.S. Navy Sea, Air, and Land (SEAL) swept 
down from helicopters and boats to secure five targets in unison. In 
less than 40 minutes the critical nodes were secured and the threat of 
an ecological disaster was eliminated.
    Following these successful missions conducted on the first night of 
the war, NSWTG quickly moved into position to support the requirements 
of both land and maritime commanders. They assisted in safeguarding the 
waterway leading to the city of Basrah, and helped clear the waterway 
and port of Umm Qasr. NSTWG was also vital in securing the U.S. Marine 
Corps' Marine Expeditionary Force's (MEF) lines of communication and 
logistics, which allowed the Marines to conduct their offensive 
movement toward Baghdad.
Afghanistan
    The CJSOTF--Afghanistan (CJSOTF-A) is the special operations 
component of Combined Joint Task Force-180. CJSOTF-A is working to 
rebuild infrastructure, and establish a positive rapport with the local 
populace. They are also directly involved in operations against anti-
coalition forces within Afghanistan.
    Deployed in small detachments throughout Afghanistan, SOF are 
working directly with the Afghan National Army, conventional U.S. 
forces, and local governments. This close working relationship allows 
SOF to identify problems and work solutions with local governments. 
This relationship also allows SOF to gather information about anti-
coalition efforts invaluable to our long-term efforts.
    One of the primary goals of CJSOTF-A is to capture or kill al Qaeda 
and Taliban forces. SOF, together with Afghan National Army units, 
other coalition partners, and conventional U.S. forces have conducted 
multiple operations throughout Afghanistan. These operations resulted 
in the capture of numerous anti-coalition forces and the destruction of 
hundreds of weapons and thousands of pounds of enemy explosives.
Psychological Operations
    Dissemination of truthful information to foreign audiences in 
support of U.S. policy and national objectives is a vital part of SOF's 
effort to secure peace. Culturally oriented psychological operations 
(PSYOP) units with selected language skills are supporting commanders 
and other U.S. Government agencies in operations ranging from 
humanitarian assistance to weapons collection. Additionally, our PSYOP 
forces have an aggressive program of providing handbills to children 
explaining the threat of unexploded ordinance and minefields. These 
forces, along with SOF civil affairs units, are force multipliers. They 
use nonviolent means in often violent environments to convince enemy, 
neutral, and friendly nations and forces to take action favorable for 
the U.S. and its allies.
Civil Affairs
    Civil affairs forces are key to our long term success in the global 
war on terrorism. Civil affairs specialists can quickly and 
systematically identify critical requirements needed by local citizens 
in war. They can also locate civil resources to support military 
operations, help minimize civilian interference with operations, 
support national assistance activities, and establish and maintain 
liaison dialogue with civilian aid agencies and civilian commercial and 
private organizations. They help commanders in the field meet their 
moral obligations to the civilian population.
    Civil affairs forces are currently working with local governments 
of Iraq and Afghanistan and international humanitarian organizations to 
rebuild infrastructure and restore stability. They are coordinating 
projects to repair wells, provide food to hungry children, bring 
medical care to families, and are hard at work getting school systems 
rebuilt to stem the tide of radical thought through education.
Lessons Learned
    The SOCOM team continues to meet and exceed all expectations and 
achieve remarkable results on the battlefield. Because of our heavy 
engagement in both Operation Enduring Freedom (OEF) and OIF and other 
significant efforts in support of the global war on terrorism, SOF are 
learning many important lessons. We are incorporating these lessons 
into our future activities in order to ensure our joint team remains 
decisive. Some of these lessons learned include:

    1. SOF training and doctrine were proven effective. There were many 
instances where our special operators on the ground, sea, and air 
identified previous training methodology and exercise programs as the 
key to their success. They were able to draw directly from skills 
developed through SOF training programs to accomplish missions. 
Specifically, they commented on the ``out of the box'' thinking and 
problem solving required in the training programs as well as SOF direct 
combat skills.
    2. SOF/conventional force integration is critical. SOF apportioned 
to CENTCOM were directly integrated into all phases of the effort. The 
interoperability of SOF reached new levels of performance. SOF and 
conventional forces under the command of CENTCOM were integrated at the 
staff level and interoperable at the tactical unit level in both 
planning and execution. This made both SOF and the conventional forces 
much more effective.
    3. Engage and deploy SOF early. The ability to quietly employ SOF 
early in any circumstance allows the elimination of key enemy strategic 
targets and preparation of the battlespace for follow-on forces. In 
Iraq SOF were inserted early to fix Iraqi units, prevent SCUD launches, 
and assist our conventional land force's advance.
    4. Blue Force Tracking (BFT) is a critical capability. We were able 
to provide superb situational awareness of SOF internally and with our 
warfighting partners--on the ground, sea, and in the air due to 
proactive fielding of BFT beacons. This program will reduce the 
incidence of fratricide and greatly enhance our situational awareness 
on a fluid, dynamic, and often non-contiguous battlefield.
    5. SOF logistical support needs improvement. SOF by nature have 
unique logistical requirements and a limited organic support structure. 
Support from the Services is critical to sustaining SOF on the 
battlefield. The solution is the creation of a SOF logistics doctrine 
and we are building it. .
    6. Fratricide is still a problem. Although we have come a long way 
in protecting our forces with BFT, it alone IS not the answer. We need 
extensive training coupled with technology like BFT. SOCOM is engaging 
the Services and industry to identify technology to further prevent 
fratricide and protect our most precious asset--our warriors.
SOCOM focus and direction
    When SOCOM was established by Congress in 1987, its primary role 
was to support the geographic combatant commanders by providing them 
with trained and equipped special operations personnel. While the 
command continues to function in a supporting capacity for the 
geographic combatant commanders, the Secretary's guidance on the global 
war on terrorism included an additional role as a supported command for 
planning DOD's military effort in the war on terrorism. In order to 
effectively fulfill this new role as a supported command, we have 
reorganized our headquarters with the creation of the Center for 
Special Operations (CSO).
    The CSO is a joint and interagency directorate with responsibility 
for war on terrorism-related operational issues. By transforming the 
headquarters, SOCOM ensures it is postured to perform ``its new role as 
a ``warfighting'' command while maintaining its title 10 
responsibilities for a world-class capability to train, man and equip 
our forces.
    We are designing a scalable deployable Joint Special Operations 
Task Force Headquarters which will allow the capability for seamless 
planning and execution of operations spanning the spectrum of conflict. 
This new structure will provide SOCOM the flexibility to, when 
directed, command operations. Essentially, our newly created CSO serves 
as SOCOM's new ``warfighting'' hub. Free of administrative functions, 
the Center's sole responsibility is planning, supporting, and executing 
special operations in the war on terrorism.
Supported vs. supporting command
    The mission of SOCOM changed to include planning direct combat 
missions against terrorist organizations around the world and executing 
those missions as the supported command when directed. This designation 
of SOCOM as the ``supported command'' does not relieve us from the 
responsibilities to provide specially selected, highly trained, 
equipped, and capable forces to the geographic combatant commanders,
    The geographic combatant commanders will normally execute 
operations as the supported commander in their theater of operations. 
SOCOM's designation as supported commander allows for centralized 
planning, expands options for mission execution, and permits a more 
flexible command relationship structure. However, when directed by the 
Secretary of Defense, the Commander of SOCOM will serve as the 
supported commander for specified operations.
    Establishment of the SOCOM Joint Operations Center (JOC) greatly 
increased the capability of the headquarters to monitor and, when 
directed, to command and control antiterrorism operations. Real-time 
BFT and unmanned aerial vehicle (UAV) feeds combined with web-based 
technologies provide detailed situational awareness. Use of the Defense 
Collaborative Tool Suite (DCTS) enables real-time simultaneous 
coordination with geographic commanders, agencies, the Joint Staff, and 
others globally. This greatly reduced planning and execution timelines.
    The CSO is enabling us to meet new requirements associated with the 
global war on terrorism. Responsibilities in the CSO include reviewing 
global strategies, development of courses of action, and formulating 
recommendations for operational force employment by the Commander, 
SOCOM through the Chairman of the Joint Chiefs of Staff to the 
Secretary of Defense. The CSO can plan, direct, monitor and assess 
combat operations directed against selected targets anywhere on the 
globe.
Intelligence
    Practical experience and our own exercises have demonstrated the 
counterterrorism problem set is, at its very core, an intelligence 
based problem set. In other words, we have to find out who the bad guys 
are, where they are, and have the right forces in the right place at 
the right time to capture them. Essential to the desired end state is 
immediately actionable and accurate intelligence predicated by expert 
intelligence analysis. Unlike the Cold War where it was easy to find 
the large mechanized force that was hard to kill, the terrorist is very 
hard to find and comparatively easy to capture or kill.
    SOCOM, in coordination with the Under Secretary of Defense for 
Intelligence and the Intelligence Community, is developing an all 
encompassing intelligence, surveillance, and reconnaissance (ISR) 
strategy. This strategy will develop the kind of capabilities, like 
signals intelligence (SIGINT), imagery intelligence (IMINT) and 
unattended sensors that channel the proper intelligence information to 
our analysts and operators so we can capture terrorists regardless of 
where they are on the globe. This persistent ISR concept is a 
combination of tireless analysis, human intelligence (HUMINT), and SOF 
focused ISR systems that will dwell on a target for as long as the 
mission requires. We must be proficient to take the fight to the 
terrorist before he has the opportunity to strike.
    One of the avenues for ensuring robust intelligence is to have a 
strong interagency relationship. At SOCOM we have over 100 interagency 
representatives tightly integrated into our counterterrorism efforts, 
significantly supporting our goal to find, fix, and finish the 
terrorist threat.
                               readiness
    Force readiness is a SOF priority and is crucial to mission 
success. People, training, and equipment are key factors that determine 
SOF readiness.
People
    SOF are made up of some of America's most dedicated men and women 
from all of the Services. They are mature, high-caliber professionals 
with intelligence, stamina, problem-solving skills, mental toughness, 
flexibility, determination, integrity, and extraordinary strength of 
character and will.
    To accomplish SOF missions, highly specialized skill sets are 
required, including mastery of technology, cultural and regional 
awareness and expertise, and skilled in both low-tech as well as high-
tech solutions. To achieve the required level of proficiency and 
guarantee SOF relevance, recruitment, accession, development, and 
retention of the force must be closely managed.
    A small number of people, carefully selected, well trained, and 
well led, is the key to our quality force. However, we must have the 
correct mix of active, Reserve, and National Guard personnel to meet 
the challenge. Our current operations tempo (OPTEMPO) is sustainable 
and programmed manpower increases will improve our capability to meet 
the demand on our force. Areas of concern include our U.S. Army PSYOP 
and civil affairs forces, where 96 percent of the force is in the 
Reserve component or National Guard and long-term mobilization is 
difficult. To improve these areas over the next 5 years we are adding 
four PSYOP companies (Reserve), two PSYOP companies (active), two civil 
affairs battalions (Reserve), and two civil affairs companies (active).
    Another concern is combat power and our ability to move on the 
battlefield. We are addressing these areas by adding two U.S. Navy SEAL 
teams (active), and one U.S. Army MH-47 aviation battalion (active). We 
are also adding 4 additional U.S. Air Force AC-130 gunships, 10 MC-130 
Combat Talon II aircraft and associated personnel to support forward 
deployed and rotational requirements while maintaining our training 
standard. We believe people are more important than hardware and 
closely monitor our deployment schedules to ensure we care for both our 
military force and their families are properly cared for. However, 
adding SOF is not a short term fix.
    The projected force and equipment additions do not provide 
immediate relief because SOF cannot be mass-produced. The service 
members who volunteered to join SOF following the events of September 
11, 2001, and successfully completed the arduous SOF selection and 
training regimen, entered SOF's deployable force over the past few 
months. Since competent SOF cannot be created immediately, we must plan 
ahead to create units sufficient in size, capability, and speed of 
response to meet our requirements. It is also critically important that 
we are able to retain these individuals who have vast expertise and 
experience, especially as they become retirement eligible at the peak 
of their value to the Armed Forces. Retention of these highly qualified 
personnel is critical and the competition with the civilian world has 
never been greater.
Budget
    Our fiscal year 2005 budget request is $6,566 million or 1.6 
percent of the DOD budget and some 48,000 personnel. Yet these limited 
SOF resources greatly enhance the effectiveness of conventional 
military forces by providing essential leveraging capabilities all the 
while ensuring that ``must succeed'' special operations are completed 
with the absolute certainty and professionalism the Nation demands. No 
where has the benefit of this powerful investment been clearer than 
during operations in Afghanistan, Iraq and elsewhere in the global war 
on terrorism. However, SOF have been remarkably effective no matter 
what the nature of the conflict.
    Long term success in the global war on terrorism depends largely 
upon our ability to rapidly employ a sustainable mix of capabilities 
with little warning. Terrorist threats today are elusive, pervasive, 
asymmetric, and adaptive. Non-traditional approaches to planning and 
tactics are required. To meet this challenge, SOCOM refocused resources 
to address three vital challenges: planning and directing the global 
war on terrorism; preserving readiness of our SOF; and transforming SOF 
to more agile, adaptive, and responsive warriors.
    SOF are comprised of specially selected, trained, and organized 
special operations soldiers, sailors, airmen, and marines from the 
Armed Forces. Their training, education, maturity, initiative, and 
experience set them apart from all others in the DOD. SOCOM's fiscal 
year 2005 President's budget emphasizes the SOF philosophy of funding 
the right training and equipment for the right people, so they can 
arrive at the right objective, and most importantly, producing mission 
success. Fundamental to mission success is the readiness of our SOF 
warriors and their unique skill sets, including the Reserves and 
National Guard who fight side by side with our Active-Duty Forces. Our 
readiness efforts also extend to support programs for families of our 
SOF.
    SOCOM faces a strategic environment characterized by rapid 
geopolitical change and technological advancement, evolving threats, 
and potential emerging new roles. These factors require innovative 
thinking and new ways to shape change to provide the widest array of 
options in protecting American's interests. To meet this challenge, 
SOCOM is pursuing a holistic approach to transformation through 
training, organizational structure, and technology. Key resourcing 
initiatives identified by SOCOM will support transformation of special 
operations in the realm of materiel, organization, training, and 
doctrine. These initiatives include, but are not limited to: Naval 
Special Warfare's 21st Century Realignment, Army Special Operations 
Aviation 21st Century Reorganization initiatives, improved Theater 
Special Operations Command capabilities, enhanced training curriculums, 
maintenance and sustainment of key SOF assets, and providing the 
optimum mix of gear for our SOF operators.
    The SOCOM fiscal year 2005 President's budget requests the 
resources necessary to continue to provide full spectrum, multi-mission 
global SOF that provide a comprehensive set of unique capabilities for 
the Nation.
Acquisition
    A real strength of SOCOM is the commander's acquisition authority, 
which is similar to that of the Services. Among the responsibilities 
assigned to SOCOM under title 10, section 167, is developing and 
acquiring ``special operations-peculiar'' equipment. SOF-peculiar 
equipment is based on technologies that enable our operators to become 
faster, stealthier, more precise, lethal, survivable, and sustainable. 
With exceptional support from Congress, the Secretary of Defense, 
Services, other government agencies (OGA), and our industry partners, 
these authorities have been instrumental in equipping today's world-
class SOF team to perform a broad range of SOF missions.
    Although our people are certainly SOF's most important asset, 
maintaining and improving materiel capabilities remains SOCOM's most 
difficult challenge. Our near term objective is to continue to realign 
our requirements and programs to better address the global war on 
terrorism mission. We will be eliminating those systems that do not 
support the global war on terrorism and using the saved resources to 
invest in future capabilities. Our programs must be transformational, 
not merely a reinvestment of what we are doing today. SOCOM must 
continue to invest in making our SOF more capable in all tactical 
environments. Our current Flagship Programs, the Advanced Seal Delivery 
System (ASDS) and the CV-22 Osprey continue to be a very important part 
of SOF's future. Additionally, our research and development (R&D) 
activities are refocusing on discovering and exploiting technologies in 
the following areas:
    Individual As A Platform
    We have always said the individual is the indispensable element of 
SOF. In order to ensure we ``equip the man'' not ``man the equipment,'' 
we are making the SOF Warrior System a Flagship Program. This will 
create the appropriate focus on every consideration affecting our 
warfighter: budgeting, recruitment, training, doctrine, and equipment. 
We need to develop enhanced protection, armor, lightweight sustainment 
systems, night vision devices and better weaponry. The SOF operator 
must be able to manage his signature in all environments and see the 
enemy regardless of concealment. We need to do this without increasing 
weight and complexity.
    Power
    Power sources have been, and continue to be, both a major problem 
and critical need for SOF. A significant amount of the weight carried 
into combat is from batteries. SOF urgently needs power sources that 
are small, lightweight, and inexpensive while providing high power, 
long-endurance, interchangeability, and multiple recharging features. 
These batteries or fuel cells must give off little or no signature and 
offer the SOF user an extended operating capability without suffering 
degradation or requiring re-supply.
    Sensors
    We will pursue a family of unmanned, semi-autonomous or autonomous 
systems (air, sea, land, and in the future, space) ranging in size from 
tactical to micro and nano, accompanied by persistent intelligence and 
denied area access technologies to meet the needs of SOF operators. 
These systems must possess a reduced logistical footprint and withstand 
the rigors of various climates and operating environments.
                               conclusion
    SOF are deployed around the world engaged in the global war on 
terrorism fighting for our way of life. Your continued support of our 
soldiers, sailors, airmen, marines, and DOD civilians is the foundation 
of our success. Thank you. I look forward to answering your questions.

    Chairman Warner. Thank you, gentlemen.
    I had the privilege, together with Senator Stevens and 
Senator Hollings, to visit your forces in Iraq last week and 
then thereafter your forces in Afghanistan. You can rightfully 
be very proud of them.
    General Brown. Sir, we are.
    Chairman Warner. It is extraordinary.
    My first question--and it will come to you, gentlemen, and 
you might reflect on it, if you have not. Secretary Rumsfeld 
announced a rather widespread long-range program of changing 
base structures and deployment at forward bases. I think it has 
a significant and positive impact on your special charter in 
the defense plan.
    Now, Secretary McHale, we are glad to welcome you. You 
likewise have a strong set of credentials to take on this 
position, most notably having been a Member of Congress here in 
years past. So you understand this branch quite well and I 
expect you will be able to deal with us a little better.

 STATEMENT OF HON. PAUL McHALE, ASSISTANT SECRETARY OF DEFENSE 
                      FOR HOMELAND DEFENSE

    Secretary McHale. Mr. Chairman, I will try not to 
disappoint you.
    Chairman Warner, Senator Levin, distinguished members of 
the committee: It is a privilege to appear once again before 
this body. To be entrusted with national security 
responsibilities at any time, but especially at this point in 
our country's history, is a solemn and sacred duty. From past 
experience, I fully appreciate and respect your oversight 
obligations pursuant to article I, section 8, of the 
Constitution.
    My goal today is to provide the committee with a candid, 
accurate assessment of our current homeland defense 
capabilities and to describe emerging DOD mission requirements. 
Because I have submitted my formal testimony for the record, I 
would like to provide only a brief introduction at this point 
and thereafter allow maximum time for member questions.
    I appear before you today in my capacity as ASD-HD. My 
position was created by Public Law 107-314, the National 
Defense Authorization Act for Fiscal Year 2003. The statutory 
duty assigned to the ASD-HD is the overall supervision of the 
homeland defense activities of the DOD.
    I was nominated by President Bush in January 2003 and 
confirmed by the Senate 1 month later. As a result, I have been 
serving in this office for just over a year. In the interim, 
much has happened.
    Although my written testimony focuses in some detail upon 
the organizational changes within the DOD following the attack 
of September 11, 2001, I think the members of this committee 
are primarily interested in the recent steps that we have taken 
to ensure the physical safety of our citizens, their property, 
and our constitutional freedoms.
    The painful losses of September 11 produced not only grief, 
but resolute action. With regard to homeland defense, our 
Department's capabilities fall essentially into two categories: 
the warfighting defense of the United States; and military 
support to civilian authorities following an enemy attack. I 
would like to address these issues in that order.
    Our primary responsibility within the DOD is not merely to 
respond to enemy attacks, but, more importantly, to deter and 
defeat them. Each day since September 11 the men and women of 
the North American Air Defense Command (NORAD), commanded by 
General Eberhart, have patrolled the air space over Canada and 
the United States. In a completely integrated effort of U.S. 
and Canadian capabilities, the United States Air Force, Air 
Force Reserve, and Air Force Air National Guard have protected 
the skies over major metropolitan areas, critical 
infrastructure, historic monuments, and government facilities.
    These dedicated professionals have executed over 34,000 air 
defense sorties and responded to over 1,700 requests from the 
Federal Aviation Agency (FAA) to intercept potential air 
threats. The number of flights and their location changes daily 
and each day's flight data is shared in advance with the DHS. 
This level of air security is unprecedented in our Nation's 
history.
    Nearly every homeland defense exercise which we now conduct 
includes a threat scenario involving a terrorist takeover of a 
commercial airliner. As a result, our air defense training is 
realistic, focused, and subject to well understood rules of 
engagement.
    We have implemented similar improvements in our domestic 
land defense capabilities. While fully recognizing that 
domestic counterterrorism is a lead law enforcement mission, we 
now have active duty soldiers and marines on alert every hour 
of every day, prepared to deploy to any location within the 
United States where a land defense against a terrorist attack 
might be required.
    Such quick reaction forces did not exist on September 11, 
2001. They do now and they are both trained and ready.
    Even more importantly, we are working closely with the 
National Guard Bureau to ensure that the Army Guard forces will 
be mission-ready to provide immediate land security within 
their own States. In my judgment, the protection of critical 
infrastructure will likely become a core National Guard mission 
during the next decade.
    It is also important to note that the DOD has recently been 
assigned, with the signing of Homeland Security Presidential 
Directive 7, a lead responsibility for the protection of the 
defense industrial base. The achievement of this new mission 
will require a close coordination of private and public, 
military and civilian, security capabilities. The task is both 
enormous and essential.
    We now recognize that a 21st century maritime defense 
requires a common operating picture of the maritime domain, 
real-time tracking of threat vessels, appropriate ships in 
resources to support maritime intercept operations on the high 
seas against terrorists potentially armed with weapons of mass 
destruction (WMD), and a command and control structure that 
maximizes both Navy and Coast Guard capabilities.
    Our goal is to defeat any maritime threats with an 
integrated, layered defense long before such threats are able 
to enter our ports. To that end, the Secretary of Defense 
recently signed an expanded maritime intercept operations 
execute order. Through realistic maritime exercises and 
unprecedented Navy-Coast Guard cooperation, we are making daily 
progress toward that goal.
    Similar improvements have been made with regard to DOD's 
ability to support civilian authorities following a terrorist 
attack. Thirty-two National Guard WMD Civil Support Teams 
(CSTs) have been trained, equipped, and certified by the DOD. 
Twelve new teams will be created this year. We are planning to 
establish a total of 55 CSTs, sufficient to ensure that every 
State and territory will be served by a CST.
    If a more substantial WMD response is required, we have 
established, equipped, and organized large Joint Task Forces 
(JTFs) at dispersed locations throughout the United States 
sufficient to ensure that we will be able to respond to 
multiple near-simultaneous terrorist attacks involving WMD. 
Although this capability is not fully developed, we are working 
hard and with a sense of urgency to get there.
    In my view, multiple simultaneous attacks are not only 
possible; they are fully consistent with terrorist operational 
doctrine. Even in the absence of a large-scale enemy attack, 
the DOD civil support responsibility is substantial. Last year 
DOD acted on 75 separate civil support requests from more than 
20 civilian agencies, including the January 2004 deployment of 
the Marine Corps' Chemical-Biological Incident Response Force 
to the Dirksen Building when ricin was detected in Senator 
Frist's office.
    Finally, we at DOD recognize that an effective defense 
against terrorist activity requires a close daily partnership 
between our Department and the newly-created DHS. Our missions 
are complementary and mutually reinforcing. To make certain 
that partnership is a reality, employees from my office now 
work full-time in the Homeland Security Operations Center.
    A Defense Coordination Office has been established by DOD 
personnel at DHS. A memorandum of agreement for mutual support 
has been negotiated between the two Departments, and I meet 
routinely and regularly with the senior DHS leadership. Our 
homeland security and homeland defense exercise programs have 
now been fully integrated. The scenarios are challenging and 
involve complete inter-agency participation.
    This summary should make it clear that DOD, working with 
our partners in public and private sectors at the local, State, 
and national levels, is fully committed to the most capable 
homeland defense ever planned or executed in our country's 
history. Despite great progress, we are not comfortable. We are 
not satisfied. Rather, we are dedicated with a real sense of 
urgency to ever-improving homeland defense capabilities.
    In that effort, our men and women in uniform stand in 
common cause with the members of this committee. Success in the 
global war on terrorism is a national imperative, our 
generation's greatest challenge.
    I look forward to your questions.
    [The prepared statement of Secretary McHale follows:]
                 Prepared Statement by Hon. Paul McHale
                              introduction
    Chairman Warner, Senator Levin, distinguished members of this 
committee: Thank you for inviting me back to address the critical 
subject of our Nation's security. I appreciate the opportunity to 
return today to update you on our progress. When I appeared before this 
committee a year ago, new Department of Defense (DOD) organizational 
structures for homeland defense were still under development. With a 
continuing sense of urgency and focus, DOD has implemented substantial 
improvements in homeland defense capabilities over the past year, 
increasing the safety of the Nation. At the same time, there is no 
reason for complacency. We fully recognize that significant challenges 
lie ahead.
    Through prosecution of the global war on terrorism, DOD focuses on 
combating terrorism as far from our borders as possible. Thus, our 
first line of defense is abroad--to confront the enemy where they live, 
train, plan, and recruit, as we are doing today in Afghanistan and 
Iraq. The second line of defense also lies beyond the borders of the 
Nation--the air and maritime avenues of approach--where we will engage 
terrorists before they reach our borders. Inside our borders, the 
domestic law enforcement community is responsible for countering 
terrorist threats; DOD stands ready to provide capabilities in support 
of civil authorities, consistent with U.S. law.
    Within the Office of the Secretary of Defense (OSD), under the 
leadership of the Under Secretary of Defense for Policy, my office and 
that of my colleague, the Assistant Secretary of Defense for Special 
Operations and Low Intensity Conflict (ASD-SOLIC), work together to 
provide policy guidance and to supervise DOD's homeland defense and 
combating terrorism activities here in the United States and around the 
world. The combatant commanders of U.S. Northern Command (NORTHCOM) and 
U.S. Special Operations Command (SOCOM), also present today, lead our 
combating terrorism operations. Together, we combat terrorism at home 
and abroad, while diligently working to mitigate any potential policy 
and operational seams. My testimony today will address DOD homeland 
defense activities that have occurred since my last appearance, as well 
as the challenging work that lies ahead. Additionally, I will describe 
some of the key issues where homeland defense and combating terrorism 
intersect within our common fight against global terrorism.
     dod's role in the security of our nation: combating terrorism
    Within the DOD, our combating terrorism activities comprise four 
main areas:

        <bullet> Antiterrorism--defensive measures taken to reduce 
        vulnerabilities and protect our personnel, facilities, and 
        resources against a terrorist incident;
        <bullet> Counterterrorism--offensive response measures taken to 
        deter, preempt, and resolve a terrorist act;
        <bullet> Consequence Management--efforts to prepare for and 
        respond to the aftermath of a terrorist event; and
        <bullet> Intelligence--the collection, analysis, and 
        dissemination of terrorism-related information.

    Within the OSD, the responsibility for combating terrorism involves 
three main entities. First, the Bob Stump National Defense 
Authorization Act for Fiscal Year 2003 (Public Law 107-314) assigned 
responsibility for the overall direction and supervision for DOD's 
combating terrorism activities to the Under Secretary of Defense for 
Policy.
    Second, in accordance with section 138(b)(4) of title 10, U.S. 
Code, my colleague, the ASD-SOLIC, is responsible for the overall 
supervision of DOD's special operations and low intensity conflict 
activities.
    Third, as requested by the Secretary of Defense, Public Law 107-314 
also established the Office of the Assistant Secretary of Defense for 
Homeland Defense (ASD-HD). I am honored to serve as the first ASD-HD. 
My office was established to assist the Secretary of Defense in 
improving policy and providing guidance to combatant commanders 
regarding the air, land, and maritime defense of U.S. territory and the 
provision of defense support to civilian authorities. As stated in the 
establishing statutory language, I provide overall supervision of the 
homeland defense activities of DOD.
       dod's role in the security of our nation: homeland defense
    Following the terrorist attacks on the United States of September 
11, at the direction of the President and with congressional support, 
DOD moved quickly to establish new organizations focused on homeland 
defense and civil support: NORTHCOM and the Office of the ASD-HD noted 
above.
    You will recall that on October 1, 2002, DOD activated NORTHCOM, 
headquartered in Colorado Springs, Colorado. NORTHCOM conducts 
operations within its assigned area of responsibility (AOR) to deter, 
prevent, and defeat threats and aggression aimed at the United States, 
its territories, and interests. Accordingly, as directed by the 
President or Secretary of Defense, the Commander, NORTHCOM, would 
direct military operations within its area of responsibility, including 
combat operations. In addition, when directed by the President or 
Secretary of Defense, the Commander, NORTHCOM, would also provide 
support to U.S. civil authorities, including military assistance to 
civil authorities, military support to civilian law enforcement 
agencies, military assistance for civil disturbances, and incident 
management operations in response to a weapon of mass destruction (WMD) 
attack.
    NORTHCOM's AOR includes the continental United States, Alaska, 
Canada, Mexico, and the surrounding water out to approximately 500 
nautical miles. The defense of Hawaii and U.S. territories and 
possessions in the Pacific remains the responsibility of U.S. Pacific 
Command (PACOM). The Commander of NORTHCOM is also the commander of the 
bi-national U.S.-Canada North American Aerospace Defense Command 
(NORAD). NORTHCOM achieved full operational capability on September 11, 
2003, and is fully able to conduct missions assigned to the command by 
the President in the Unified Command Plan.
    As the first combatant command with a primary mission to defend the 
land, sea, and air approaches to the United States, NORTHCOM operations 
extend to all three domains.
Air domain
    NORAD guards, patrols, and monitors the airspace over Canada and 
the United States. Each and every day the men and women of the United 
States Air Force, United States Air Force Reserve, and the Air National 
Guard secure the skies over major metropolitan areas, our Nation's 
critical infrastructure, and historic monuments. Since September 11, 
2001, these dedicated professionals have executed over 34,000 air 
defense sorties and responded to over 1,700 requests from the Federal 
Aviation Administration (FAA) to intercept potential air threats.
Maritime domain
    Similarly, the U.S. Navy monitors the sea approaches to the United 
States and works with the U.S. Coast Guard to patrol international 
waters and our territorial seas. On a daily basis, U.S. Navy sailors 
vigilantly monitor the blue water approaches to our Nation's 
territorial seas, operating under new and expanded authority to 
interdict vessels potentially bearing terrorists or their weapons 
before they reach our shores. Further, under Operation Noble Eagle, 
naval maritime surveillance and engagement forces are designated for 
transfer to NORTHCOM command and control when directed by the Secretary 
of Defense.
Land domain
    The Homeland Security Act of 2002 (Public Law 107-296) assigns the 
Secretary of Homeland Security the responsibility for the security of 
the Nation's borders. That responsibility includes preventing 
terrorists and instruments of terrorism from penetrating our borders, 
protecting our ports of entry, immigration enforcement, and ensuring 
the speedy, orderly, and efficient flow of lawful traffic and commerce. 
DOD's role in that border security mission is to provide support to 
civil authorities, principally the Department of Homeland Security 
(DHS), when appropriate. DOD has established and maintains Quick 
Reaction Forces and Rapid Reaction Forces, which, when deployed, will 
operate under NORTHCOM command and control. These highly trained U.S. 
Army and Marine Corps personnel are postured to respond to the full 
range of potential threats to the United States.
            homeland defense and homeland security exercises
    DOD is committed to maintaining the readiness of military forces to 
execute the full spectrum of homeland defense operations and to support 
civil authorities, when necessary and appropriate. To this end, DOD has 
hosted its own exercises and participated in exercises sponsored by 
other government entities. Over the last year, these included: Unified 
Defense (February 2003); TOPOFF 2 (May 2003); Determined Promise 
(August 2003); Livewire (October 2003); Unified Defense (February 
2004); and Senior Official Exercise #3 (March 2004). These exercises 
addressed a range of potential threats to the United States, from cyber 
attacks to bioterror attacks, and from radiological attacks to a 
nuclear detonation. The exercises support the DHS National Homeland 
Security Exercise Program established by the December 2003 Homeland 
Security Presidential Directive-8 (HSPD-8) on National Preparedness. 
Homeland security and homeland defense exercises are critical in 
identifying gaps and potential weaknesses within each agency and across 
agencies in responding to terrorist attacks, including multiple, 
simultaneous challenges.
           dod support of critical infrastructure protection
    The Homeland Security Act of 2002 (Public Law 107-296) assigned DHS 
the responsibility to develop a comprehensive national plan to protect 
our Nation's critical infrastructure and key assets. The National 
Strategy to Secure Cyberspace (February 2003) and the National Strategy 
for the Physical Protection of Critical Infrastructure and Key Assets 
(February 2003), as well as HSPD-7 on Critical Infrastructure 
Identification, Prioritization, and Protection (December 2003), 
designate DOD as the sector-specific agency for the Defense Industrial 
Base sector. This designation recognizes DOD's important role in the 
protection of critical defense installations and facilities. In this 
capacity, DOD must work closely with private sector owners of critical 
defense infrastructure to deter, mitigate, or neutralize terrorist 
attacks in order to sustain military operations.
    In September 2003, the Secretary of Defense assigned me the 
responsibility for Defense Critical Infrastructure Protection. Since 
then, we have consolidated Critical Infrastructure Protection (CIP) 
funding within the OSD into a single program, managed by the newly 
established Defense Program Office for Mission Assurance. Under my 
oversight, this office conducts focused research and development using 
a systems approach for CIP activities supporting DOD missions. We have 
also taken steps to increase the preparedness of critical defense 
installations and facilities against chemical, biological, 
radiological, and nuclear threats. Pentagon efforts are helping to 
develop DOD-wide installation preparedness standards and requirements, 
which we will apply at 200 other key installations over the next few 
years.
                     dod relationship with the dhs
    DOD focuses on and is responsible for homeland defense, which is 
the protection of United States territory, domestic population, and 
critical defense infrastructure against external threats and 
aggression. It also includes routine, steady-state activities designed 
to deter aggressors and to prepare U.S. military forces for action if 
deterrence fails. DHS, on the other hand, focuses on homeland security, 
which is defined in the 2002 National Strategy for Homeland Security as 
``a concerted national effort to prevent terrorist attacks within the 
United States, reduce the vulnerability of the United States to 
terrorism, and minimize the damage and assist in the recovery from 
terrorist attacks.''
    In simpler terms, the Defense Department provides the military 
defense of our Nation from all attacks that originate from abroad, 
while DHS protects the Nation against, and prepares for, acts of 
terrorism. DOD is organized and prepared, however, at the direction of 
the President and the Secretary of Defense, to play a vital role in 
support of the DHS mission.
    As the Secretary of Defense's principal representative to the DHS, 
I have worked hard to build upon our excellent working relationships 
throughout the DHS. We have nearly completed a memorandum of agreement 
with DHS, under which DOD will continue to provide, some 64 detailed 
personnel to DHS to fill critical specialties, principally in the areas 
of communications and intelligence. We have also established a 24/7 DOD 
presence in the DHS Homeland Security Operations Center with direct 
connectivity back to DOD for rapid response. Additionally, we 
established planning teams to assist the DHS Interagency Incident 
Management Group--a group of senior interagency officials focused on 
incident response. This year, we are further enhancing our partnership 
with DHS by establishing a DOD advisory and liaison office--called the 
Homeland Defense Coordination Office--within DHS headquarters.
    In accordance with section 1401 of Public Law 107-314, I also serve 
as the ``senior official of the DOD to coordinate all DOD efforts to 
identify, evaluate, deploy, and transfer to Federal, State, and local 
first responders technology items and equipment in support of homeland 
security.'' In that capacity, I work closely with the DHS Under 
Secretary for Science and Technology (S&T). Recent examples of 
technology transfer initiatives include: information-sharing systems, 
such as the Disaster Management Interoperability Services; biometrics 
identification technologies; ground sensors and their application in 
border security; and unmanned aerial vehicle experimentation. 
Additionally, new Advanced Concept Technology Demonstration (ACTD) 
efforts are underway that have the potential to deliver capabilities 
supporting both DOD missions abroad and DHS missions at home.
          dod relationship with the homeland security council
    The President established the Office of Homeland Security (OHS) and 
the Homeland Security Council (HSC) on October 8, 2001 to develop and 
implement a comprehensive national strategy to secure the United States 
from terrorist threats. In the Homeland Security Act of 2002, Congress 
created the DHS and codified the HSC. DOD coordinates with the 
Assistant to the President for Homeland Security and staff as 
appropriate. The Secretary of Defense is, along with the President, 
Vice President, Secretary of Homeland Security, and the Attorney 
General, a statutory member of the HSC. DOD worked closely with the OHS 
from October 2001 to March 2003, and continues to do so with its 
successor, the HSC staff.
    As ASD-HD, I am DOD's principal representative to the HSC staff. My 
office represents DOD on the HSC's interagency policy coordination 
committees (PCCs) and subordinate working groups, with the 
participation of other DOD offices as appropriate. From personal 
experience, I can attest that the HSC has become an effective forum for 
interagency communication on homeland security and homeland defense 
matters, including evaluation of terrorist threats and the development 
of responses in a crisis environment. As one recent example, the HSC 
functioned effectively throughout the tense weeks of Code Orange alert 
during the December 2003 holiday season.
                  defense support to civil authorities
    DOD has a long tradition of support to civil authorities as 
necessary and appropriate while maintaining its primary mission of 
fighting and winning the Nation's wars. Since my last testimony before 
this committee, DOD has continued to lend necessary assistance to civil 
authorities when they were overwhelmed or faced with challenges 
necessitating the Department's unique capabilities. Last year we acted 
on 75 requests for assistance from more than 20 civilian agencies, 
including DHS, the Department of Justice, the Department of Health and 
Human Services, the Department of Transportation, the Department of 
State, the National Air and Space Administration (NASA), the U.S. 
Marshals Service, and the National Interagency Fire Center. To provide 
several brief examples of civil support activities last year, DOD 
provided emergency support in natural disasters such as Hurricane 
Isabel in September 2003 and the October 2003 California wildfires. DOD 
also provided support in responding to incidents such as the Columbia 
space shuttle accident in February 2003 and the January 2004 ricin 
incident on Capitol Hill. For the latter, NORTHCOM's Joint Force 
Headquarters-National Capitol Region, in its first operational use, 
provided command and control of U.S. Marine Corps Chemical-Biological 
Incident Response Force assistance to the U.S. Capitol Police.
             internal dod combating terrorism collaboration
    As described at the outset, combating terrorism includes a spectrum 
of activities that do not correspond neatly with geographic boundaries 
on a map or organizational boundaries within agencies. For example, the 
ongoing crisis in Haiti clearly requires the type of stability 
operations expertise resident in the office of the ASD-SOLIC. At the 
same time, in light of Haiti's proximity to the United States and 
potential homeland security dimensions of the situation, my office has 
been instrumental in facilitating coordination with DHS, the overall 
lead Federal agency on the migration aspects of this evolving issue. 
Similarly, terrorist use of manportable air defense systems (MANPADS) 
is a threat that does not respect borders. Thus, my office participates 
in an Interagency MANPADS Task Force to advance measures to reduce the 
vulnerability of aircraft to missile attacks domestically, while the 
ASD-SOLIC participates in interagency efforts to deny terrorists access 
to missiles throughout the world.
    The witnesses testifying before you today work diligently to ensure 
that ``seams'' do not hinder our combating terrorism efforts as we work 
to deter, dissuade, defend, and defeat potential terrorist attacks 
against the United States and our interests around the world.
Antiterrorism
    Within the United States, the military departments are responsible 
for force protection and taking appropriate defensive antiterrorism 
measures to protect their military facilities and personnel. Outside 
the United States, regional combatant commanders have these 
responsibilities. We are currently in the process of examining policy 
options for antiterrorism and force protection for DOD facilities and 
personnel within the United States to determine whether any changes are 
needed in the assignment of these responsibilities.
Counterterrorism
    Offensive measures overseas to deter and preempt terrorist attacks, 
largely a mission for Special Operations Forces, are crucial to 
preventing terrorist activities against the United States. For overseas 
counterterrorism operations, we rely on ASD-SOLIC for policy oversight 
and the Commander, SOCOM, for their execution. Domestic 
counterterrorism is first and foremost a civilian law enforcement 
function. By design, DOD's counterterrorism role within the United 
States is constrained. DOD provides military support to civilian law 
enforcement agencies (MSCLEA) consistent with applicable law and under 
my supervision. Authorized support under title 10, U.S. Code includes 
information sharing, loan of equipment and facilities, expert advice 
and training, and maintenance and operation of equipment.
Consequence Management
    The preparations for and response to terrorist events vary 
depending on the location of an incident. My office is responsible for 
DOD's support to civil authorities for domestic incident management, 
while ASD-SOLIC is responsible for DOD's support to the Department of 
State, which has the lead for foreign disaster assistance and foreign 
consequence management. There are multiple linkages between incident 
and consequence management, however. These include sharing information 
obtained in the course of incident and consequence management-related 
interagency deliberations and relevant exercises. Through formal 
bilateral exchanges and visits with our allies and friends, we also 
engage in information sharing and coordination regarding the 
preparedness and consequence management activities of other nations. 
These activities not only enhance preparedness and response 
capabilities across the board, but also strengthen our alliances in the 
global war on terrorism.
    In the case of a domestic WMD attack, as necessary and appropriate, 
the Joint Task Force Civil Support headquartered in Norfolk, Virginia; 
the Joint Task Force Consequence Management East headquartered at Fort 
Gillem, Georgia; or the Joint Task Force Consequence Management West 
headquartered at Fort Sam Houston, Texas; under the command and control 
of the Commander, NORTHCOM, would be available to provide incident 
management support to civil authorities. Additionally, we are working 
to strengthen DOD and civilian capabilities and surge capacity to 
address multiple, simultaneous chemical, biological, radiological, or 
nuclear (CBRN) attacks in the United States.
Intelligence and Information Sharing
    Throughout DOD we work closely with the constituent elements of the 
Intelligence Community to maintain maximum awareness of potential 
attacks against and emerging threats to the United States. My office 
and the office of the ASD-SOLIC both engage actively with the Under 
Secretary of Defense for Intelligence (USD-I), established in 2003 by 
Public Law 107-314, on all intelligence matters. USD-I is charged with 
ensuring that the senior DOD leadership receives the warning, 
actionable intelligence, and counterintelligence support needed to 
pursue all of the objectives of the updated defense strategy, including 
defense of the homeland. USD-I also provides a single point of contact 
for coordination of national and military intelligence activities with 
the Community Management Staff under the Director of Central 
Intelligence (DCI) and strengthens the relationship between the 
Secretary of Defense and the DCI.
    Additionally, DOD is a full partner in the Terrorist Threat 
Integration Center (TTIC), a multi-agency joint venture announced by 
the President in the January 2003 State of the Union address and 
launched in May 2003. TTIC integrates terrorist-threat related 
information, minimizing any seams between analysis of terrorism 
intelligence collected overseas and inside the United States, to form a 
comprehensive threat picture. On a daily basis, TTIC coordinates 
terrorist threat assessments with partner agencies, including DOD, DHS, 
the Federal Bureau of Investigation (FBI), the Central Intelligence 
Agency (CIA), and the Department of State.
             additional internal dod areas of collaboration
    In addition to collaboration across the range of combating 
terrorism activities, the ASD-HD, ASD-SOLIC, NORTHCOM, and SOCOM also 
work together on other issues where there is a nexus between combating 
terrorism and other functional activities.
Counternarcotics
    Counternarcotics is an area in which DOD has longstanding 
relationships with civil authorities, including U.S. border and law 
enforcement officials. By statute, DOD is the lead Federal agency for 
the detection and monitoring of aerial and maritime movement of illegal 
drugs toward the United States. DOD works with civil authorities to 
transmit information to enable law enforcement authorities to interdict 
such trafficking. DOD also supports requests from the Department of 
Justice, DHS, and the High Intensity Drug Trafficking Area (HIDTA) Task 
Force Headquarters for unique military assistance, such as 
reconnaissance (ground-based, aviation-based, and maritime), logistics, 
transportation, engineer support along the southwest U.S. border, as 
well as intelligence programs and training.
    Within the Office of the Secretary of Defense, ASD-SOLIC has the 
overall lead for DOD's counternarcotics activities, with assistance 
from the office of the ASD-HD, on issues with domestic implications. 
Since September 11, policy and operational changes in DOD have improved 
the alignment of resources and efforts where there is a link between 
terrorism and narcotics trafficking. Additionally, NORTHCOM is now 
charged with counternarcotics activities in its area of responsibility, 
including counternarcotics support to domestic law enforcement 
authorities and command of Joint Task Force-6 (JTF-6), headquartered in 
El Paso, Texas.
    Further areas of cooperation related to counternarcotics include:

        <bullet> ASD-HD support to ASD-SOLIC on drug interdiction and 
        counternarcotics activities plans developed by U.S. states and 
        territories in accordance with section 112 of title 32, United 
        States Code;
        <bullet> Collaboration to shape the future of JTF-6, originally 
        established in November 1989 to provide DOD counternarcotics 
        support to Federal, regional, State, and local law enforcement 
        agencies and assigned since October 1, 2002 as a component of 
        NORTHCOM; and
        <bullet> DOD installation of secure internet systems in many of 
        the HIDTA intelligence centers across the United States that 
        facilitate sharing of counternarcotics-related information with 
        national security and homeland security value.
Technology research and development
    Research and development (R&D) represents a final area of combating 
terrorism collaboration. DOD invests nearly $100 million yearly in the 
Technical Support Working Group (TSWG), a U.S. national forum that 
brings together over 85 Federal agencies to identify, prioritize, and 
coordinate interagency and international research and development 
requirements for combating terrorism. Within DOD, the ASD-SOLIC is the 
executive director and proponent for TSWG. The TSWG rapidly develops 
technologies and equipment to meet the high-priority needs of the 
combating terrorism community. Many of these technologies are also 
applicable to first responders and other homeland security missions. In 
recognition of that synergy, DHS has joined as a partner in the TSWG, 
and TSWG staff are also members of the Homeland Defense Technology 
Working Group.
                               conclusion
    Throughout our history, U.S. military forces--Active Duty, National 
Guard, and Reserves--have defended our Nation against its enemies on 
land, at sea, and in the air, adapting continuously to engage threats 
to our Nation.
    Today we face a challenge that is equal to or greater than any we 
have ever faced before. We must cope not only with the threats produced 
by the proliferation of WMD and missile technology among nation-states, 
but also with WMD threats posed by individual terrorists and terrorist 
organizations with global reach.
    Throughout DOD we are transforming, increasing our capabilities for 
combating terrorism and homeland defense on a daily basis, while 
continuing a long tradition of support to civil authorities. Homeland 
defense and homeland security are featured on Secretary Rumsfeld's top 
priorities list for this year. To support his priorities, we intend to 
develop a comprehensive Homeland Defense Strategy for the 21st century. 
This strategy will support the National Security Strategy, the National 
Strategy for Homeland Security, and the updated Defense Strategy. It 
will also provide the framework for pursuing operational capabilities 
to prepare for tomorrow's challenges.
    Mr. Chairman, I commend you and the members of this committee for 
your continued interest in and efforts in support of the Department's 
combating terrorism and homeland defense missions. The citizens of this 
Nation, its institutions, and our brave men and women in uniform have 
repeatedly demonstrated the patriotism, toughness, innovation, 
determination, and resiliency to defeat our enemies while retaining our 
freedoms. There is no doubt in my mind that those capabilities will be 
tested against this newest enemy threat--nor is there any doubt that we 
will prevail.

    Chairman Warner. Thank you very much, Mr. Secretary.
    It is interesting. Those of us that had an opportunity to 
follow the hearing in this very room yesterday where there was 
so much controversy over what we are doing, what we are not 
doing--your statement this morning and I expect that of General 
Eberhart lays down very clearly the established factual path of 
what has been done.
    I must remark on the CSTs. I worked with Secretary Cohen 
when he was on this committee and when he went to the DOD. He 
initiated them. We thought we only needed five, and then I am 
proud that this committee, under sequential leadership, has 
supported the increase of those teams to 55
    Secretary McHale. Yes, sir.
    Chairman Warner. That is a commendable step.
    General, we will hear from you. I enjoyed our visit 
yesterday and I hope in the course of the statement you are 
going to talk a little bit about some of that special work that 
you have been performing here in this great Nation's capital.

 STATEMENT OF GEN. RALPH E. EBERHART, USAF, COMMANDER, UNITED 
    STATES NORTHERN COMMAND, AND COMMANDER, NORTH AMERICAN 
                   AEROSPACE DEFENSE COMMAND

    General Eberhart. Yes, sir. Mr. Chairman, once again it is 
an honor and a privilege to be with you representing the men 
and women of NORAD and NORTHCOM. I echo the statements of my 
colleagues in thanking the members of this distinguished 
committee under your leadership for your continued support of 
the men and women who serve this great Nation. They are 
motivated, they are dedicated, they are selfless in their 
service, and they appreciate your support and they deserve no 
less.
    It is also an honor to testify this morning along with my 
distinguished colleagues and my good friends, our partners as 
we wage this global war on terrorism, especially Secretary 
McHale, as we work the homeland defense and the homeland 
security aspects.
    What a difference a year makes, Mr. Chairman. We were with 
you a year ago. At that time we were in the process of re-
engineering NORAD to look inward as opposed to outward, and 
Secretary McHale has given you the details, and we welcome your 
questions.
    We also at that time were 43 percent manned in NORTHCOM. 
Today I am glad to report, with your support and the support of 
the Services, we are 85 percent manned, on our way to over 90 
percent this summer. But more importantly, under our belt we 
have many events that we have participated in very 
successfully, and several of those, as you mentioned, Mr. 
Chairman, have been here in the national capital region, from 
support to the State of the Union Address to the ricin incident 
that Secretary McHale noted.
    We have reorganized, where we have a joint force 
headquarters for the national capital region, so no longer is 
it a pickup game in terms of the operational employment of DOD 
forces. There is a single belly button, if you will, that we 
have here in the national capital region to provide for the 
safety and security of the citizens of this great Nation and to 
protect our infrastructure.
    As we look ahead, as we talked about yesterday, there has 
been good news and bad news. The good news is we have come a 
remarkable distance. We have accomplished, in my view, 
remarkable things. I stand in awe of my colleagues who have 
been fighting what I call the ``away game,'' taking the fight 
to the enemy. That is the right way to win this global war on 
terrorism, to ensure there is no sanctuary, to capture and kill 
terrorists wherever we find them in the world, and to execute 
that away game.
    We also have to be prepared to fight the home game. Sadly 
and tragically, that was evidenced on September 11, and that is 
what we are all about in NORTHCOM and NORAD, and we are 
committed to do just that with your support. We must keep the 
pace, we must keep the momentum, we must remain alert, because 
I guarantee you that terrorists are waiting for us to let down 
our guard and when we do they will strike again.
    I look forward to your questions, Mr. Chairman.
    [The prepared statement of General Eberhart follows:]
           Prepared Statement by Gen. Ralph E. Eberhart, USAF
    Chairman Warner, Senator Levin and members of the committee: Thank 
you for this opportunity to appear before you again and to represent 
the outstanding men and women of North American Aerospace Defense 
Command (NORAD) and United States Northern Command (NORTHCOM). The 
soldiers, sailors, airmen, marines, Coast Guardsmen, National 
Guardsmen, reservists, and civilians serving in our commands are the 
foundation for deterring and defending threats to the U.S. and Canadian 
homelands. Due to their efforts, North America enjoys freedom and 
security.
                                 norad
    NORAD is a bi-national U.S. and Canadian command that is 
responsible for the aerospace defense of North America. NORAD ensures 
U.S. and Canadian air sovereignty against an ever-expanding range of 
threats and provides surveillance and warning of ballistic missile 
attack. Securing the skies of North America is our top priority.
Operation Noble Eagle
    NORAD maintains a robust defense against asymmetric air threats to 
the U.S and Canada with a series of alert fighters, tankers and 
airborne early warning aircraft cued by interagency warning and 
networked surveillance radars. NORAD also operates an Integrated Air 
Defense System consisting of ground-based air defense capabilities in 
the U.S. National Capital Region. In the past year, NORAD flew more 
than 6,000 sorties in support of Operation Noble Eagle, with Air 
National Guard and Reserve component aircraft flying 77 percent of 
them. Since the September 11 attacks, NORAD has flown more than 34,000 
sorties and scrambled or diverted fighters more than 1,700 times in 
response to potential threats, all without a single mishap.
Exercises
    In 2003, NORAD participated in 29 homeland defense exercises. The 
largest exercise, called Vigilant Overview, involved over 1,000 people.
Common Operational Picture
    NORAD and NORTHCOM are working hand in hand to develop a common 
operational picture that incorporates data from air, land, sea, and 
space-based surveillance platforms, as well as information from 
intelligence, law enforcement and civil sources. As part of this 
effort, we are expanding data link capability across North America to 
make a common operational picture available for commanders at all 
levels to give them the situational awareness they need to make sound 
and timely decisions.
Bi-National Planning Group
    In December 2002, the U.S. and Canadian governments established the 
Bi-National Planning Group to improve defenses against maritime and 
land-based threats to North America, as well as to coordinate our 
Nations' capabilities to respond to natural disasters. An early result 
of their efforts is that we now have bi-national awareness of maritime 
vessels of interest for the U.S. and Canada and are sharing information 
on assets available to deal with potential threats.
Federal Aviation Administration (FAA) Integration
    We are grateful to the FAA for their cooperation and technical 
support as we work to improve NORAD's surveillance and command and 
control capabilities. We have partnered with the FAA to install 
approximately 300 radios in FAA facilities to provide NORAD controllers 
the means to communicate with fighter pilots throughout our country. We 
also established connectivity with 70 FAA long-range interior radars 
and have plans to integrate an additional 39 FAA terminal/approach 
control radars into our command and control network by the end of this 
year.
                                northcom
    NORTHCOM stood up on October 1, 2002, to counter external threats 
and aggression to our Nation. We also command and control forces in 
emergency and domestic circumstances where the Secretary of Defense has 
approved military support. These are not new missions for the military. 
What is new is that these missions now have the full-time attention of 
a combatant command.
Full Operational Capability
    NORTHCOM achieved full operational capability on September 11, 
2003, 2 years after the September 11 terrorist attacks. This was based 
on an in-depth evaluation of our proven ability to execute missions in 
real-world circumstances, as well as during rigorous validation 
exercises.
Operations
    During the past year, we conducted homeland defense and military 
assistance operations for pre-planned events and emergencies. A summary 
of our recent operations follows:

    <bullet> Support to the U.S. Capitol Hill Police. In February 2004, 
in support of the U.S. Capitol Police, we activated Joint Task Force 
National Capital Region (JTF-NCR) to respond to ricin contamination 
within the U.S. Capitol complex. The JTF-NCR deployed a 145-person U.S. 
Marine Corps Chemical Biological Incident Response Force to assist in 
environmental assessment and decontamination of congressional office 
buildings.
    <bullet> Support to the State of the Union Address. In January 
2004, in support of the U.S. Secret Service, we provided command and 
control of all military support to the State of the Union Address, to 
include security, emergency medical, chemical and biological response 
forces.
    <bullet> Response to Increased Threat Level. We were fully engaged 
with national leadership, the Intelligence Community and our 
interagency partners to ensure the security and safety of our Nation 
during the late 2003-early 2004 high threat advisory period. NORAD and 
NORTHCOM increased alert levels and the number of aircraft available to 
respond to flights of interest. We also heightened force protection 
levels and shortened the response timeline for Quick Reaction Forces.
    <bullet> California Wildland Fire Fighting. In October 2003, at the 
request of the National Interagency Fire Center (NIFC), NORTHCOM 
responded to the Southern California fires. We deployed eight C-130 
aircraft equipped with Modular Airborne Fire Fighting Systems (the 
entire Department of Defense (DOD) fleet), six Marine Corps 
helicopters, a liaison officer at NIFC Headquarters and a Defense 
Coordinating Officer with a Defense Coordinating Element. March Air 
Reserve Base served as a Federal Emergency Management Agency (FEMA) 
mobilization center.
    <bullet> Support to 58th United Nations (U.N.) General Assembly. In 
September and October 2003, at the request of the U.S. Secret Service 
and the Department of State, we supported the 58th U.N. General 
Assembly with over 200 service members. We provided a command and 
control element and extensive explosive ordnance support.
    <bullet> Support to Hurricane Isabel Operations. In September 2003, 
Hurricane Isabel, a Category Two hurricane, made landfall on the North 
Carolina coast with winds in excess of 100 miles per hour, causing 
millions of dollars of damage in its path. At the request of FEMA, 
NORTHCOM deployed Task Force-East (First Army at Forest Park, Georgia) 
and provided Defense Coordinating Officers to Maryland, Virginia, and 
North Carolina. We also used Fort Bragg, North Carolina; Pope Air Force 
Base, North Carolina; Fort A.P. Hill, Virginia; and the Defense Supply 
Center Columbus, Ohio, as mobilization, flight operations and FEMA 
storage centers.
    <bullet> Montana Wildland Fire Fighting. In August 2003, at the 
request of the NIFC, we established Task Force Steel Dragon to support 
fire fighting efforts in Montana. We deployed an Army Battalion of fire 
fighters (over 500 soldiers) and a medical evacuation helicopter, as 
well as a Defense Coordination Officer with a Defense Coordinating 
Element and a liaison officer to NIFC Headquarters.
    <bullet> Support to Operation Iraqi Freedom (OIF). NORTHCOM has 
protected critical defense infrastructure and air and seaports of 
interest for units deploying and redeploying in support of OIF.
Organizational Refinements
    We are reorganizing our forces to improve our ability to defend and 
protect American citizens. This spring we will stand down the Joint 
Force Headquarters Homeland Security (a provisional unit) and establish 
a Standing Joint Force Headquarters North (SJFHQ-North). SJFHQ-North 
will be a full-time, trained and equipped, joint command and control 
element collocated with NORTHCOM. It will operate as an integrated part 
of NORTHCOM's planning and operations, but will focus on potential 
near-term trouble spots. SJFHQ-North is projected to achieve full 
operational capability by October 1, 2004.
    We are working with the interagency to transform JTF-6 in El Paso, 
Texas into Joint Interagency Task Force North (JITF-North) to engage 
transnational threats against our Nation. In doing this, we are 
leveraging 14 years of expertise of providing support to Federal, 
State, tribal, and local counterdrug law enforcement agencies.
Efforts to Share Intelligence with Federal, State and Local Officials
    To perform our mission, we rely on the sharing of actionable 
intelligence among Federal, State, and local agencies. Our Combined 
Intelligence and Fusion Center coordinates the acquisition, analysis 
and fusion of intelligence, counterintelligence, and law enforcement 
information for the NORTHCOM area of responsibility (AOR) and shares 
that information with organizations at the national, State, and local 
levels.
    We have made significant progress in improving the exchange of 
threat information. During the 2003-2004 holiday season, the entire 
homeland security and defense community pulled together, with time-
sensitive information moving quickly from intelligence and law 
enforcement agencies to the decisionmakers who were challenged with 
mitigating various threats.
Maritime Interception Operations
    NORTHCOM supports the Department of Homeland Security (DHS) in 
maritime homeland security, as needed. The U.S. Coast Guard has primary 
responsibility for maritime security in the approaches to the United 
States. NORTHCOM is tasked with identifying and intercepting maritime 
threats as far from our shores as practical. In coordination with 
interagency partners, we conduct maritime interception operations to 
degrade and disrupt terrorist acts, collect intelligence and prevent 
attacks against the U.S.and its allies.
Exercises
    NORTHCOM sponsors two large-scale exercises annually: Determined 
Promise and Unified Defense. Our exercise scenarios have involved air, 
maritime and port threats; consequence management operations; 
protection of critical infrastructure; maritime interception 
operations; bioterrorist attacks; weapons of mass destruction and 
natural disasters. To date, over 57 State and Federal agencies have 
participated in our exercises. We continue efforts to increase 
international participation with Canada and Mexico. In February 2004, 
Canadian representatives observed Exercise Unified Defense at 
Headquarters NORAD-NORTHCOM; representatives from Mexico observed the 
exercise at Headquarters, Fifth Army, Fort Sam Houston, Texas.
National Exercise Program
    We have worked with the DHS to synchronize our exercise program 
with the national homeland security exercise program, which will 
exercise the National Response Plan and the National Incident 
Management System. When fully implemented, the national homeland 
security exercise program will consist of one large-scale exercise per 
year, alternating between top officials in odd years and Unified 
Defense in even years. NORAD-NORTHCOM will continue to conduct the 
Determined Promise exercise series each year.
Theater Security Cooperation with Canada
    NORTHCOM has developed objectives, tasks, and milestones to expand 
defense cooperation with Canada in the maritime, land, and civil 
support domains. We look forward to having a series of shared 
contingency plans and cooperative procedures for bi-national defense 
and support to civil authorities with Canada.
Theater Security Cooperation with Mexico
    We are leveraging existing relationships with the Mexican military 
and are pursuing efforts to expand assistance to Mexico using 
counterterrorism and counterdrug funding. In addition, we are working 
with the National Guard to develop new training opportunities with the 
Mexican military in a variety of areas, such as biohazard and weapons 
of mass destruction incident management.
Bioterrorism Preparedness and Response
    NORTHCOM has the capability to assist local, State, and Federal 
authorities with planning and exercising to improve response to a 
bioterrorism attack. We provide trained experts in the areas of 
chemical, biological, and radiological incidents at the request of a 
lead Federal agency to help prevent or contain an epidemic and respond 
to an actual attack.
                        northcom's relationships
Interagency
    We have increased our level of commitment and involvement with 
interagency partners over the past year. Our Joint Interagency 
Coordination Group (JIACG) continues to be a force multiplier for the 
NORTHCOM across the board. The JIACG is comprised of 46 DOD and non-DOD 
agency representatives that include the Department of State, Department 
of Transportation, Central Intelligence Agency (CIA), FEMA, National 
Geospatial-Intelligence Agency, U.S. Coast Guard, FAA, Federal Bureau 
of Investigation (FBI), Immigration and Customs Enforcement, U.S. Army 
Corp of Engineers, U.S. Geological Survey, and Sandia National 
Laboratories.
Other Combatant Commands
    We have established the framework for a layered defense of the 
homeland in coordination with U.S. Joint Forces Command, U.S. Pacific 
Command (PACOM), U.S. Southern Command (SOUTHCOM), U.S. Special 
Operations Command (SOCOM), U.S. Strategic Command (STRATCOM), and U.S. 
Transportation Command (TRANSCOM). We are also working with the other 
regional combatant commands to eliminate threats to our homeland from 
outside our AOR. Our focus is to address and resolve gaps in coverage, 
as well as any overlapping responsibilities. In addition, strengthening 
these relationships further facilitates time-sensitive information 
exchanges to ensure emerging threats are visible to intelligence and 
law enforcement officials.
National Guard Bureau
    We have a strong relationship with the National Guard Bureau to 
execute homeland defense and homeland security missions, and we 
continue to seek ways to make it better. For instance, in order to 
improve awareness of our state of readiness and response, we are 
working on a robust information sharing network.
   potential future missions and capabilities for norad and northcom
Integrated Missile Defense
    As the combatant command tasked with defense of our homeland, 
NORTHCOM will be responsible for execution of the Ground-based 
Midcourse Defense (GMD). In coordination with the Joint Staff, PACOM, 
STRATCOM, and the Missile Defense Agency, we are refining operational 
concepts, command and control structures and establishing command 
relationships to ensure the effective employment of the GMD system when 
it becomes operational.
High Altitude Airship Advanced Concept Technology Demonstration
    The Office of the Secretary of Defense (OSD), NORAD, the U.S. Army, 
and the Missile Defense Agency are teamed to demonstrate the technical 
feasibility and military utility of an unmanned, untethered, long-
duration High Altitude Airship (HAA). The HAA will allow NORAD to look 
over-the-horizon throughout North America and out from our coastal 
waters for air, ground and maritime-based threats.
Full Spectrum Wide Area Surveillance
    The current homeland air surveillance system consists of multiple 
independent ground-based radar systems that are approaching or have 
exceeded their life expectancy and require modifications for continued 
operations. We are working to address sustainment issues to maintain 
the current capability until advanced technologies are available to 
improve our ability to detect, identify and track threats.
    Our ultimate objective is to field a wide area surveillance 
capability in the air and maritime domain that seamlessly connects all 
NORAD and NORTHCOM command elements with DOD, Canada, and other 
agencies. This objective system will reduce gaps in coverage and allow 
the sharing of surveillance data among pertinent U.S. and Canadian 
authorities.
Homeland Security/Homeland Defense Command and Control Advanced Concept 
        Technology Demonstration (HLS/HLD C2 ACTD)
    NORTHCOM is sponsoring the HLS/HLD C2 ACTD. We are working with the 
Assistant Secretary of Defense for Homeland Defense to identify DOD and 
non-DOD participants who can benefit from demonstrated information 
sharing technologies. Solutions showcased during this venue will 
provide the homeland security and defense communities with cutting-edge 
technologies that improve information sharing, collaboration and 
decision making in a trusted information exchange environment.
                               conclusion
    The defense of our homeland depends on the dedication, 
professionalism, and sacrifice of the men and women in our commands. We 
appreciate what the members of this committee have done to improve the 
quality of life for our service members. The National Defense 
Authorization Act for Fiscal Year 2004 reflects your concern for the 
members of our Armed Forces. We are grateful for your support. With 
your help, we will continue to strengthen our ability to protect our 
Nation's citizens where they live and work.

    Chairman Warner. Well, thank you, General, and I share in 
your observation about the threat. But I think in our prayers 
we must express our thankfulness that we have not had a major 
incident since September 11. I do not care how you want to 
argue all of this, who did what, when, why, and who did not. I 
think it is largely owing to what we have done, and we have 
done a lot.
    In this testimony this morning, you laid down the case of 
how much has been done and I was struck by the 1,700 missions 
you have had to fly where there was some question about a 
civilian aircraft operating in this country. You had to bring 
one of your own aircraft to close in and surveil that aircraft 
to make certain there was no aberration or otherwise that 
necessitated stronger action. Well, a lot has changed.
    Let us go to the first round of questions for our 
witnesses. Perhaps you have not had a full opportunity to study 
Secretary Rumsfeld's commendable and very well thought out plan 
by which he is going to diminish significant forward elements 
in size, leaving of course what he deems necessary. But that 
seems to me to put more emphasis on your particular area of 
responsibility (AOR) to have quick reaction forces to move in 
with these reduced units and supply such additional support as 
they may need.
    Which of you gentlemen would like to lead off on that? 
Secretary O'Connell or General Brown?
    Secretary O'Connell. I would be happy to, sir. I have had a 
chance just to glance at it. More importantly, in terms of the 
testimony you referred to, I have been present occasionally 
when some of these concepts have been developed. I have looked 
at issues as I see them developing in possible changes in the 
global footprint that may have an impact on SOCOM, and I will 
leave the operational details to General Brown.
    Are we going to be able to continue to support the 
combatant commanders with SOF that are working for them? The 
second thing we look at is, in terms of how the world is 
changing, who are our new friends and who are our new enemies, 
who are our old enemies, and where should we be positioned near 
them?
    We look carefully across the entire range of special 
operations, and of course we are talking about the maritime 
assets, the SEALs and their delivery systems, the special 
aircraft that SOCOM, Air Force Special Operations Command 
brings to the battle, the special requirements for gunships, 
the type of terrain that our MC-130 Talons and other aircraft 
might be required to negotiate. Certainly weather is a factor; 
relationship to other U.S. forces, the ability to integrate 
with marines, etcetera; how those locations might support a 
rotational concept that General Brown may want to look at in 
terms of repositioning his forces in the future.
    I think all those are extremely important issues. I had the 
opportunity, sir, about a month ago, General Brown and I both, 
to talk extensively to Admiral Fargo in the Pacific and with 
his theater SOCOM commander, Air Force Brigadier General Greg 
Trebone, about the unique requirements that we are facing in 
the South Pacific. As, sir, you are well aware of, perhaps new 
alliances or locations that we have not looked at before, such 
as Australia, could benefit us.
    There are ungoverned territories that we are very concerned 
about, where we know that terrorists will breed and retreat to. 
To the extent that the U.S. SOF can play an important role in 
assisting governments in bringing their territory under control 
and helping us monitor what is going on there, those locations 
will become more and more important.
    If that is satisfactory, sir, I would like to switch to 
General Brown.
    Chairman Warner. General Brown.
    General Brown. Sir, I think you hit the nail on the head. 
For us it is about being responsive. Our forces just by their 
very nature are agile, flexible, and very responsive small 
forces capable of moving very quickly. It is about where we are 
positioned around the world so that we can have maximum ability 
to respond, to influence an area where we want to influence it 
through our coalition relations. We do coalition training very 
well. Of course, there is also a quality of life piece for our 
soldiers, sailors, and airmen.
    We are working with the geographic commanders to see what 
their plans look like and where they think that we should be 
moving. Quite frankly, they are very supportive of their SOF in 
their AORs to accommodate where we think we ought to be so that 
we can be at the right place at the right time.
    Part of this will be done through a rotational basis, as 
Secretary O'Connell mentioned, but additionally through our 
exercise program, which is a pretty robust exercise program to 
get small groups of SOF, both civil affairs, psychological 
operations (PSYOPs), but mostly our Green Berets and our SEALs, 
out on the ground with our coalition partners to keep a 
presence in an AOR or a region just through training with our 
coalition allies.
    Chairman Warner. Formerly you were more or less in a 
supporting role to the forward-deployed commanders. When they 
needed the special expertise, they sent for it. But now you 
have the authority from the Secretary of Defense of a fully 
operational combatant command. In other words, you can sit down 
and plan an operation yourself.
    General Brown. Yes, sir.
    Chairman Warner. Within your ranks you can establish the 
forces to carry out that plan. So that is a very major and new 
large dimension to your responsibility.
    General Brown. Sir, I think you are exactly right. I think 
there are two pieces to that. One is that as part of this 
authority, where we were totally responsive in the past to what 
the geographic combatant commanders would want us to do in 
their AORs or their theater security cooperation plan, today 
those requests come to us and we prioritize where we need to go 
so that we are in the right locations around the world. That is 
a nuance, but it is a very important nuance in that now we are 
in charge of where we are deploying, as opposed to just 
responding. Quite frankly, we still are responsive to the 
combatant commanders if they have specific instances. But we do 
have the authority to be in charge of where we put our SOF.
    So that is one piece of it. The other piece is that as 
SOCOM we do not own bases and we do not own infrastructure. We 
simply own forces. So wherever we want to position our forces, 
we will work with the geographic combatant commanders to build 
the infrastructure there to support our forces.
    Chairman Warner. But I am wondering if while they do the 
drawdown in these forward-deployed areas, does that require you 
to have a larger force structure within your command? Now, I 
know that is a sensitive subject. You do not want to get out 
ahead of the Secretary of Defense, but I think it is an issue 
that Congress is going to have to focus on.
    General Brown. Yes, sir, I think you are right. We need to 
watch that very carefully.
    Chairman Warner. Thank you.
    Now, with regard to your Department and your 
responsibility, you are largely dependent on intelligence and 
real-time intelligence. People immediately think of the CIA, 
but it is not the primary agency here. It is really the Federal 
Bureau of Investigations (FBI), I presume, that you have to 
rely on for the domestic side of the intelligence picture. 
Share with the committee how you operate both with the CIA and 
the FBI in getting that real-time intelligence that enables you 
to carry out your responsibilities.
    Why do you not start off, Mr. Secretary?
    Secretary McHale. Senator Warner, I anticipate that General 
Eberhart will speak in some detail about the close daily 
cooperation that he has in his combatant command with the 
intelligence services that you have just made reference to. But 
from a civilian perspective, it is essential that we see 
intelligence as a whole and that we not distinguish, other than 
in those areas where the law requires it, between essential 
information that might be drawn from overseas sources versus 
those that might be collected in a lawful manner domestically.
    TTIC was really intended to address that kind of fusion of 
all-source collection, and in my experience, and it has been 
daily for the past year, that process has improved remarkably. 
Each morning I begin with a Defense Intelligence Agency (DIA) 
briefing, a JTF Counterterrorism briefing, where the backbone 
of that briefing is drawn from the TTIC matrix. That matrix 
reflects sources that are domestic international. It reflects 
both civilian and military collection capabilities.
    We have brought together into a single source of reference 
all of the collection capabilities that are available to our 
government worldwide. We synthesize that information. We 
present it in a comprehensive and readily digestible way each 
day. So senior policymakers have available to them a single 
source overview of the threat environment.
    That initial briefing guides what I do for the rest of the 
day. In a crisis environment, in my experience--and we have 
gone through a half dozen such periods in the past year--TTIC 
steps to the forefront. John Brennan, who runs TTIC, assumes a 
lead responsibility, along with George Tenet, in providing a 
briefing to very senior policymakers, typically at the Cabinet 
level, so that they have a common picture of the threat 
environment.
    So over the last year I have, on many occasions, become 
aware of domestic vulnerabilities from sources that on some 
occasions are international, on some occasions are domestic, in 
some cases are military, and in other cases civilian in 
character. The important lesson learned since September 11 is 
that we need to bring all of that together into a common 
operating picture, and that is TTIC's mission.
    Chairman Warner. Thank you.
    General.
    General Eberhart. Sir, such is the same case at NORTHCOM. 
Every morning our Intelligence Community is on a video 
teleconference with TTIC, the Joint Terrorism Task Force 
(JTTF), and the FBI folks. They make sure they have all the 
relevant information that might affect our area of operations 
(AO).
    So when you receive the briefing shortly thereafter, it is 
a compilation of all these various sources from DIA, from TTIC, 
from the JTTF, from all these different organizations, from 
CIA, FBI, and military intelligence around the world.
    Our command is just a little bit different, as Secretary 
McHale has suggested, in that we are interested in what is 
going on around the world that might affect our homeland 
security. So in fact, we ask questions. When we receive this 
information, we ask ourselves some very basic questions. The 
first question is, what else do we need to know about this 
incident, this information? Who else needs to know this? That 
is very important to us, because when I receive this briefing 
there will be a senior FBI representative in the room who is on 
our staff. There is a senior CIA representative on our staff. 
The National Security Agency (NSA) is involved as well, and the 
alphabet soup goes on and on, with all of the relevant players.
    So we make sure in that forum that everybody who needs to 
know this information knows. In fact, then we cross back and 
forth between law enforcement, homeland defense, and homeland 
security, which I think is very important and markedly 
different than before September 11, markedly different before 
NORTHCOM and the Assistant Secretary for Homeland Defense.
    Chairman Warner. Thank you. That is a very reassuring 
report.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    I thank you all for your service and what you are doing to 
make our national security and homeland security stronger for 
the American people.
    General Eberhart and Secretary McHale, retired Air Force 
Major General Larry Arnold was in command of all the NORAD 
fighters on September 11 and was quoted not that long ago as 
saying, ``We had so few airplanes on alert anywhere, if we got 
a resource airborne and it went in the wrong direction we did 
not have anything else to back it up.''
    Now, I understand that a lot has been done to improve the 
capability that we might have to intercept, interdict those 
unusual situations, 1,700 of them as you have indicated. Have 
you implemented any new policies with regard to firing on 
commercial aircraft during terrorist attacks, and do you 
believe that you have adequate assets now to do the job that 
might be required in that event?
    Perhaps we should start with you, Secretary McHale, then 
General Eberhart.
    Secretary McHale. Senator, if I may I will address the 
policy issue. The operational question, as to the adequacy of 
assets, I will defer to General Eberhart if I may.
    Senator Ben Nelson. That will be fine.
    Secretary McHale. Policy was made on September 11 because 
of immediate events. We were faced on that day, the Vice 
President in particular as I understand it was faced that day, 
with an unprecedented challenge. It is my understanding that 
the Vice President provided guidance as to how to respond to 
emerging threats that might involve additional commercial 
aircraft used as weapons platforms.
    In the wake of September 11, we in the DOD initiated a 
thorough review of all the policy and legal considerations 
related to the sobering yet foreseeable responsibility to shoot 
down a civilian aircraft. As a result, we have developed very 
detailed procedures, many of which would be inappropriate to 
discuss in this setting----
    Senator Ben Nelson. I think that is fine.
    Secretary McHale.--very detailed procedures regarding the 
level of our response, how we escalate from one level to the 
next, the way in which we confer in a secure telephone call to 
consider and ultimately implement any decisions that might be 
necessary.
    Senator Ben Nelson. Can that be done in a very timely 
manner?
    Secretary McHale. It can. Also, in the event that the 
senior person delegated with authority to make that decision is 
unavailable, we have, again in very detailed procedures, 
delegated that authority down to subordinate levels, but 
keeping that authority at senior general officer rank. It 
begins with an initial decision by an available civilian, but 
if that civilian is not available, if General Eberhart 
thereafter is not available, we have look-to contingency plans, 
nonetheless keeping that authority, as you might expect, at a 
very high level.
    Finally, we routinely train to that requirement. We conduct 
exercises on a periodic and frequent basis where that decision 
is faced and made in a training environment so that we are not 
exploring these very difficult choices in the middle of a real 
world crisis.
    Senator Ben Nelson. Which we may have been doing at the 
time of September 11, perhaps.
    Secretary McHale. We have certainly moved into a new 
chapter of detailed training, planning, and procedures so that 
the rules of engagement and the decisionmaking process now is 
quite clear.
    Senator Ben Nelson. General Eberhart?
    General Eberhart. Sir, first of all, as we look at the 
force structure we have today, we have manyfold the number of 
fighters on alert today as opposed to the morning of September 
11.
    Senator Ben Nelson. I understand that of those fighters 
that were available for interception, the closest were at Cape 
Cod.
    General Eberhart. That is correct, sir.
    Second, we have placed these fighters in different 
locations to ensure that, as we have done our analysis, we can 
respond to our major population centers and key 
infrastructure--nuclear power plants, chemical facilities, et 
cetera.
    Then there is an analysis at different force levels that, 
based on the threat we see, we can vary all the way from force 
level 5 to force level 1, where we again increase the number of 
fighters on alert based on the risk or threat we perceive.
    Senator Ben Nelson. In the case of multiple attacks, we are 
also capable of responding to multiple locations?
    General Eberhart. Exactly, sir.
    Then, second, we do fly regular air patrols, as Secretary 
McHale said in his opening statement. So we often have aircraft 
airborne that are readily available to respond, and I would say 
serve as a deterrent to those who might want to use an aircraft 
the way they used it on September 11.
    We do have clear responsibility and authority in terms of 
where these rules of engagement, this responsibility, and this 
authority are vested. Not only is it clearly stated on paper, 
we exercise this at the tactical level all the way to the 
strategic level from daily to weekly to monthly in these air 
defense exercises that Secretary McHale mentioned in his 
statement.
    Senator Ben Nelson. For those of us in the civilian world, 
would that be like fire drills?
    General Eberhart. It would be like fire drills, yes, sir, 
but we do not fire. It is very important.
    Finally, I think it is very important to note that I 
believe this does serve as a deterrence and that we have no 
other option. We must have these aircraft on alert. We must fly 
these irregular air patrols. But it is not the right way to 
work this problem, because if we have to use an aircraft that 
way, to shoot down another aircraft, the tragic thing is 
everyone on board will die.
    So the right way to work this problem again is to capture 
and kill terrorists in Afghanistan and Iraq and wherever we 
find them; second, to make sure that we have the right security 
at our airports and onboard our aircraft so terrorists cannot 
take over an aircraft again. That is the right way to work this 
problem.
    Senator Ben Nelson. Have we not resolved a great deal of 
that in terms of turning an aircraft into a flying missile by 
securing the cockpit door so that it does not open under any 
set of circumstances, therefore not enabling the terrorists to 
use the plane in that capacity?
    General Eberhart. Sir, I think that is a very important 
step and one that we have done. But, obviously there are people 
out there right now trying to figure out how to breach that 
door we say cannot be breached.
    Senator Ben Nelson. I understand.
    My time has expired. I would like to know--perhaps we can 
follow up with a letter to find out--if there is any 
coordination between what we do domestically, let us say with 
the North Atlantic Treaty Organization (NATO), because of the 
number of incidents recently where commercial aircraft have 
been grounded and asked not to fly into the U.S. Is there any 
coordination with NATO because of international travel?
    General Eberhart. Sir, there is. There is at the diplomatic 
level, at the Federal level from FAA to their counterparts, and 
then finally at the military level, military to military. That 
coordination exists.
    Senator Ben Nelson. So we are aware of what is happening 
there when it is happening, in real time?
    Secretary McHale. Senator, there is no question about that. 
We had a real world experience in that regard, over the holiday 
threat season, and I can tell you that we conducted conference 
calls every 6 hours during that period of time throughout the 
entire holiday season. We had direct input from our European 
allies through diplomatic channels during each and every one of 
those calls.
    So in a crisis environment, when we believe that there is 
an emerging threat coming, let us say, from Western Europe, the 
coordination is constant. Once the lines of communication are 
opened, they remain open throughout the entire crisis period 
until it is determined that the threat has passed.
    Senator Ben Nelson. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    A couple days before the chairman and Senator Stevens were 
in Iraq and in Afghanistan, Senator Akaka and Senator Allard 
and I were there. I want to say to you, General Brown, I took a 
particular interest and have for some time in getting into this 
Future Combat System (FCS), and I recall going to Fort Lewis, 
Washington, when the big debate on whether to continue with the 
M-113 or get into this thing which has evolved into the Stryker 
Brigade. At that time it was a Canadian vessel. I came back and 
said: We do not need competition. I just had the competition 
and it is over.
    Up in Mosul, being able to see the first of the Stryker 
brigades on the ground, I cannot tell you how revolutionary I 
believe that is and what a great benefit that is going to be to 
our guys on the ground. I just commend everyone who has had a 
participation in that.
    When I was serving with Secretary McHale in the other 
body--I came over here 10 years ago; that was 1994--I was on 
the Intelligence Committee, and one of my rude awakenings was 
when I would go to the NSA, the FBI, CIA, DIA, and all the rest 
of them, to find that this was one huge turf battle, and I 
could not believe what I was observing at that time.
    I know that Senator Warner has pursued this, but I want to 
carry it one last step. You have all these agencies. You have 
all of your unified commands. They have their intelligence-
gathering systems. Are you totally satisfied--and I would ask 
the question to Secretary McHale as well as General Eberhart--
that you are getting everything you need in terms of using all 
the resources? Are the turf battles over, and is that problem 
now resolved?
    Secretary McHale. I think the institutional competition, 
the culture that you described, Senator, has now passed. I 
think we are all sobered by the magnitude of the tragedy on 
September 11 and that prompted a lot of folks to grow up real 
quickly and break down those stovepipes, particularly the 
intelligence stovepipes, between institutions that previously 
had seen themselves in competition rather than cooperation.
    When I came before this body on my confirmation hearing, I 
said that if you catch me using the word ``satisfied'' you can 
ask for my resignation. I am not satisfied, and I can think of 
a number of areas, particularly in the maritime domain, where 
we need to make progress in making maximum use of existing 
surveillance capabilities as well as those that are under 
current R&D.
    But in terms of the culture that prevented the sharing of 
information----
    Senator Inhofe. I am talking about the culture, not the 
technology.
    Secretary McHale. I can tell you, sir, that I have been 
involved in most of the senior-level deliberations during real 
world crisis periods during the past year and I have sensed no 
remnant of that culture. The challenges are operational and 
technical. They are not institutional in terms of a false 
perception of agency competition.
    Senator Inhofe. General Eberhart, you would generally agree 
with what the Secretary said?
    General Eberhart. Yes, sir.
    Senator Inhofe. One of the other things we did when we went 
over there was go to Bilad Air Base and watch the Predators. I 
have been very interested over the years in the capabilities 
that we have, not just with the Predators, but also the U-2 and 
so forth. We now have this new airship, the High Altitude 
Airship, that apparently has some great capabilities. General 
Eberhart, I would like to ask you, when you look at the manned 
aircraft and the UAVs and the U-2 and then this new one, are we 
getting to the point now where you are satisfied that we are 
able to get the coverage that we need and gather the 
information that we need, insofar as doing it from up above?
    General Eberhart. Sir, I am not yet satisfied. Obviously, 
we are headed in the right direction because of the types of 
equipment that you just referenced. Between the Predator and 
the Global Hawk and other tactical UAVs, we have a capability 
and a capacity today that we did not have 5 or 10 years ago. 
But it still does not represent in my view the capability and 
capacity we need to have, the maritime domain awareness that 
Secretary McHale just referenced, to be able to use these types 
of platforms--which are still in my view high demand, low 
density platforms--to aid in homeland security when other 
Federal agencies might need or want them.
    So I believe this will continue to be a combination of 
space assets and air-breathing assets, both manned and 
unmanned. This High Altitude Airship demonstration that you 
reference, which actually will not be demonstrated until 2006, 
holds great promise. We need to stay the course, and if that in 
fact pans out then we need those to help secure the borders of 
this great Nation.
    Senator Inhofe. If that pans out. Now, I understand that 
they have a radius of 700 or so miles that they would be able 
to cover. My question would be, if this is something you would 
be using, how many of these vehicles would it take to cover 
North America and what is in there right now to get us to that 
point?
    General Eberhart. Sir, we can provide you that analysis. 
Obviously, the only thing that is in the budget right now is 
the concept demonstration to see if in fact it is worthy to 
invest in, and we will not know that until 2006.
    I would not advocate putting these all around North 
America. I would advocate using these on the threat axes that 
we anticipate being used by terrorists and others. So we can 
provide you the analysis that we have done along these lines, 
but I think it would be premature to invest in that High 
Altitude Airship until we see the concept demonstration.
    [The information referred to follows:]

    Analysis from the 2000 National Cruise Missile Defense Study 
indicated it would require 10 airships on station, with appropriate 
sensors, to cover the perimeter of the continental United States.
    The advanced concept technology demonstration budget for fiscal 
year 2005 is $29 million. The Missile Defense Agency provides $22 
million; $4 million comes from the Deputy Under Secretary of Defense 
for Advanced Systems and Concepts, with the remaining $3 million coming 
from the United States Army as the lead service.

    Senator Inhofe. General, my time has expired, but I am 
interested in the exercise 2004--what was that called, your 
exercise?
    General Eberhart. Yes, sir. Most recently we did the 
Determined Promise 2003, and then we just completed another 
exercise here in February.
    Senator Inhofe. Then how many to go?
    General Eberhart. Sir, we do two major exercises a year. 
What is really very promising about this is now we have linked 
these exercises into a national exercise program, including DHS 
and other Federal departments.
    Senator Inhofe. Including reaching first responders?
    General Eberhart. Sir, right down to first responders. In 
fact, the one that we will do, Determined Promise 2004, this 
August will take place--one of the States will be Virginia, and 
we will have a series of exercises there in the Chesapeake 
region and in Richmond.
    I believe that when you talk to the States who have 
participated in the past, most recently Alaska and Texas, they 
sing the merits of these types of exercises.
    Senator Inhofe. Thank you, General.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator Inhofe.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    General Eberhart, we talked a bit about this in the office, 
but I would be interested in your expanding on it publicly. You 
just reached your full operating capability last October and 
you have been referred to as an evolving command. Can you tell 
us what percentage of your staff is Reserve or civilian, and do 
these percentages present you with any problems? Do you expect 
those percentages to level off or to grow?
    General Eberhart. Sir, right now we are slightly different 
than the other unified commands, because obviously we are in 
the continental United States and our AOR is here in North 
America. So our target is 60 percent military, 40 percent 
civilian, which is a high civilian contribution to a command of 
this sort.
    When you look inside the military, I do not have the 
numbers and I will have to provide those for the record, but we 
have a higher percentage of National Guard, Army and Air, and a 
higher percentage of Reserves from all of the Services, than 
other commands. The homeland defense, homeland security mission 
lends itself to that type of civilian-soldier, civilian-airman 
participation and contribution.
    We are committed to leveraging their talents. If you look 
at our general officer and our senior leadership in terms of 
Guard and Reserve, we have, as we discussed yesterday, several 
Guard and Reserve full colonels, captain reservists and 
guardsmen. I think this, in fact, is the right way to go for 
our command, and we will continue to have more reservists and 
more guardsmen in our command.
    [The information referred to follows:]

    Seven percent of our staff is from the Reserve component; 31 
percent is civilian. In the future, we anticipate the Guard and Reserve 
presence will hold steady, and our civilian workforce will increase to 
approximately 40 percent. We are creating a balanced, total force team 
of active duty service members, reservists, guardsmen, civilians, and 
contractors capable of addressing all aspects of our missing, and 
foresee no issues at this time.

    Senator Levin. I know you have testified this morning about 
the relationship between the TTIC and CTC on the intelligence-
sharing issue, but I want to press that a bit further. 
Secretary McHale, perhaps you can address this issue. I 
understand that there are joint briefings and that there are 
people from all of the various components that are collocated 
at the intelligence analysis facilities. But what I am 
interested in--and again, Senator Collins as the chair of 
Governmental Affairs is equally interested in--is the question 
of where is the final responsibility for analyzing the foreign 
intelligence and domestic information relative to foreign 
terrorism in North America?
    Is it TTIC? Is it CTC? Who has that final responsibility to 
say, that is a major threat over there, and someone else is 
saying, well, I am not so sure about it. We get a massive 
amount of information, and I know we have these joint briefings 
and a lot of jointness in here. But you have to focus 
responsibility for making the ultimate call that then will go 
up to a decisionmaker. Is that CTC or is that TTIC?
    Secretary McHale. I believe it is TTIC. I can tell you, 
Senator, that based on my experience, in terms of the 
consumption of available intelligence, that is not a hard call. 
My contact with TTIC is daily. The contact my office has with 
TTIC in a crisis environment is almost continuous.
    When my office was created in the National Defense 
Authorization Act, that same legislation also created the 
position of the Under Secretary of Defense for Intelligence 
(USDI), and Dr. Cambone and I have discussed this issue in some 
detail and I have readily supported the lead of USDI in terms 
of the institutional relationship between DOD and TTIC.
    But we in the office of the ASD-HD are avid consumers of 
intelligence in both a peacetime and crisis environment.
    Senator Levin. Are you represented at the CTC?
    Secretary McHale. My office is not.
    Senator Levin. Where are the DOD representatives over 
there? Who is representing the DOD over at CTC? Is it DIA?
    Secretary McHale. DIA, subject to the supervision of the 
USDI. But by conscious choice the role that we play in ASD-HD 
is as a consumer of the information they collect, and USDI 
takes the lead in terms of the institutional relationships. As 
a practical matter, when there is a crisis I usually attend the 
senior level briefings provided by John Brennan. Clearly TTIC, 
working closely with the FBI and CIA, takes the overarching 
lead for the fusion of all intel sources overseas and domestic.
    Senator Levin. I am not talking about a crisis. I am 
talking about analysis to prevent a crisis. If you think TTIC 
is the place where the final responsibility lies, that is fine 
with me. I do not have any particular opinion as to where it 
ought to lie, providing it lies somewhere that is clear. If you 
could just do this for the record. If you could get us anything 
in writing which clarifies that ultimate responsibility, you 
will go a long way, I hope, in addressing the concern that many 
people have had about any confusion or overlap in this area.
    [The information referred to follows:]

    TTIC has the primary responsibility in the U.S. Government for 
terrorism analysis (except information relating solely to purely 
domestic terrorism) and is responsible for the day-to-day terrorism 
analysis provided to the President and other senior policymakers. It is 
presumed that all terrorism information has a link to international 
terrorism unless determined otherwise. When information has been 
determined to have no such link to international terrorism, the FBI has 
primary responsibility with regard to the analysis of such information. 
This FBI responsibility, like TTIC's, is independent of where the 
information was collected.

    Secretary McHale. Yes, sir.
    Senator Levin. We cannot afford to have any cracks or 
uncertainty here between the intelligence analysis folks.
    Secretary McHale. Senator, I will go back to Dr. Cambone 
and I will ask him for his guidance and assistance in the 
preparation of the answer to that question. But I can tell you 
as a practical matter, each and every day in a peacetime 
environment as well as a crisis environment the interface that 
we have with the Intelligence Community is through TTIC.
    Senator Levin. There are currently 32 operational WMD-CSTs. 
I believe that our last authorization bill directed the 
establishment of an additional 12 teams and the DOD has 
included funding for 5 of the 12. I am just wondering why all 
of the additional 12 were not put into the budget request this 
year.
    Secretary McHale. Senator, your numbers are very nearly 
accurate, but I would note a slight discrepancy, if I may.
    Senator Levin. Sure.
    Secretary McHale. In I think it was the National Defense 
Authorization Act of Fiscal Year 2003, though I am not 100 
percent certain in my reference, by statute Congress authorized 
and directed the DOD to create 55 CSTs, so that there would be 
a CST in each and every State. California has 2 CSTs, so we are 
talking about basically 54 different jurisdictions with 55 
CSTs.
    As I noted in my opening statement, we have already 
created, certified, trained, and funded 32 CSTs. So we have a 
remaining and outstanding obligation to go from 32 up to 55. In 
the most recent appropriations bill, funding was provided, and 
I believe it was $88 million, for 12 more. So we are going from 
32 up to 44.
    There are 11 remaining CSTs and in the President's budget 
we decided that in the next fiscal year 4 of the remaining 11 
would be funded, 4 in the year after that, and 3 in the final 
year. We believe that this can be done without degrading in any 
way the operational capabilities or the protection provided to 
citizens in those States and territories. A significant number 
of the remaining 11 consist of territories.
    We obviously will follow the law. Congress directed the 
creation of 55. Congress this year funded 12 more. We will 
create 12 more. My advocacy is in support of the President's 
budget submission and we will obey the law as you pass it.
    Senator Levin. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you.
    Senator Collins.
    Senator Collins. Secretary McHale, I want to follow up on 
Senator Levin's questions to you about the TTIC. Last year the 
Governmental Affairs Committee held 3 days of hearings on how 
the new center would work. In addition, Senator Levin and I 
followed up with two letters last fall, both of which remain to 
be answered in a satisfactory manner, to ask the question of 
who is ultimately responsible for the analysis of information 
affecting our country, and were the lines of authority clear.
    I am told that the reason we have not received an answer to 
our letters is that the DHS, DOD, and CIA cannot agree on an 
answer, which implies to me that the lines of authority are not 
clear and that the answer is still being devised. I am 
heartened today to hear you say that the new center has worked 
very well, and that you are playing a very active role. But do 
you believe that if we had the DHS and the CIA sitting here 
this morning they too would agree with you that the TTIC, not 
the CTC, is the lead entity?
    Secretary McHale. Senator, my answer earlier was really one 
as a consumer of intelligence. Frankly, I am not qualified as I 
sit here, and it is probably not appropriate for me in the 
billet that I hold, to make a judgment of legal responsibility 
and an analysis on that policy plate.
    However, from an operational standpoint and the 
dissemination of critically important information in an 
effective and timely manner during both peacetime and most 
especially in a crisis environment, my experience over the last 
year has been that John Brennan from TTIC has been the single 
source of fused information drawn from all sources, civilian 
and military, domestic and international. The information that 
I receive, which guides our activity, most especially in a 
crisis environment, has come to us through TTIC, and often that 
information includes information that has been provided to TTIC 
by both the FBI and the CIA.
    I have a fairly limited--important, but limited--viewpoint, 
and that is as an avid consumer of this information. Although 
the meetings that I attend often involve a senior briefing from 
the CIA, the briefing that follows that, which pulls it all 
together, is the TTIC briefing.
    So I am not prepared to make a legal judgment, but I can 
tell you from operational experience at the policy level John 
Brennan and TTIC have been the highest level of integrated 
intelligence to which I have been exposed.
    Senator Collins. General Eberhart, the Chief of Naval 
Operations (CNO) has spoken of the need for a maritime NORAD. 
This concept would allow the monitoring and tracking of cargo 
and passenger vessels in and around North America. I understand 
that you are also an advocate for that approach. Could you tell 
me if this remains in the theoretical stage or if you are 
already building a maritime NORAD based on existing military 
and law enforcement infrastructure?
    My concern is that I believe we have not paid enough 
attention to port security. There are a lot of interesting and 
worthwhile initiatives under way, but it strikes me as one of 
our greatest vulnerabilities. When you think that in our 
country we have some 6 million containers coming into our 
seaports every year, each of which could contain terrorists, 
the makings of a dirty bomb, or other dangerous weapons, we 
really need to have a better system for protecting our 
coastlines and our seaports.
    What is the status of the maritime NORAD?
    General Eberhart. Senator, I am in agreement with and a 
proponent of, at least figuratively, a maritime NORAD. 
Obviously, whether it is under a NORAD-type arrangement with 
Canada is one of the things that we are actively looking at 
right now with our bi-national planning group, with 
representatives from Canada and the United States, to see if we 
should change the complexion, the terms of reference, of NORAD 
as we know it today from air and space to include maritime, to 
include land, to include civil support.
    So that has been actively ongoing for about 6 months, and 
they will report out in the late summer, early fall in terms of 
their findings. Those will then be factored into the next NORAD 
agreement, which will be struck in the year 2006.
    Meanwhile, we are not just waiting for that study. We are 
taking active steps, steps that have been supported and 
promoted by the Congress of the United States in terms of the 
Transportation Act and other such pieces of legislation that 
allow us to make sure that people give us 96 hours notice, 
those kinds of things which are very important. Now, we do not 
expect a terrorist to give us 96 hours notice, but it helps us 
sort through the traffic that is coming to our ports.
    The Coast Guard enforces this. If you do not give them 96 
hours notice, you will wait out there or maybe you are in fact 
boarded to be checked out.
    I think we have made great progress since September 11 in 
terms of maritime security. But once again, we have a long way 
to go, and I think one of the approaches could be, again 
figuratively, a maritime NORAD, where people out there are 
transponding their position and identification, and that we 
have better security at the ports of embarkation so we know 
what in fact went on that ship as it left the port, the foreign 
port, where it stopped en route.
    So I am a big proponent of a maritime NORAD, coupled with 
what the Coast Guard is doing, as you are well aware, with the 
maritime domain awareness, which we think holds great promise. 
We are working this very hard. We have a long way to go, but I 
think it is important to note for the American people that we 
have come a long way since September 11.
    Senator Collins. Thank you.
    General Brown, I would like you to address an article that 
I read in a recent issue of Stars and Stripes, which talked 
about a potential exodus of highly experienced special 
operators to go to private security firms which can pay higher 
salaries and give greater benefits. It also quotes Secretary 
O'Connell as saying that the CIA and some of our other 
intelligence agencies are offering compensation packages and 
that there is some intergovernmental poaching going on that can 
be a significant problem for the military.
    Could you address what is being done to retain those 
special operators?
    General Brown. Yes, ma'am, I will be glad to. The retention 
of our SOF is a big issue. As a matter of fact, we had a 
meeting up here yesterday with all my component commanders to 
discuss exactly that issue. One of the problems that you 
brought up specifically is that in this new security 
environment we are in, the kind of people that we are training 
today in special operations are culturally aware, able to work 
overseas, experts with handguns and long rifles, physically 
fit, hand-selected guys that also speak a foreign language--
every Green Beret cannot graduate from school until he can 
speak a foreign language. These kind of people are very 
attractive to those kind of civilian private industries that 
provide security services, both at home and abroad.
    So it is a very lucrative opportunity right now for special 
operations folks to get out and take very high-paying jobs. 
Those that are at the 20-year point--and a good example of this 
is the one Mr. O'Connell mentioned--is that an E-9 at 20 years 
of service today will retire with about a $23,000 retirement 
pay per year. He can go out and immediately make five times 
that much with a security firm and keep his retirement.
    For us in special operations, oftentimes we do not get our 
people until they are a little more mature, because we 
traditionally, specifically in the Green Beret skill set, do 
not recruit them until they have already been in the service 
for a certain period of time. We are getting them later in 
their military career, and then we put them through this 
training, which lasts up to 18 months.
    So by the time we actually get this operator out in the 
field he has been in the Army for quite a while. So we are only 
going to get this 12 years of time to use him after very 
expensive training, unless we can keep him after the 20-year 
point. So while other skill sets can retire at 20, we really 
need to keep our guys after that if we can because of their 
skills.
    Real quickly, what we have done is during the first week of 
December at SOCOM headquarters in Tampa, I brought in about 20 
families. I brought the wife and the husband in. We conducted a 
workshop for about a week to come up with any possible 
initiatives that we can to get people past the 20-year hump and 
make them more readily available to stay in for a lot longer 
period of time.
    They came up with a lot of initiatives. We are culling 
through those right now. We have a tiger team. They made their 
first out-brief yesterday morning to my commanders and we are 
working through those issues.
    Senator Collins. Thank you.
    Chairman Warner. Thank you, Senator Collins.
    Senator Reed, would you indulge the chair for just one 
observation? Senator Collins, your comment about the maritime 
NORAD is one that interests me. I was not clear as I listened 
very intently to the replies of our witnesses.
    The concept is now being worked in your organization, am I 
not correct?
    General Eberhart. That is correct, sir.
    Chairman Warner. We are not going to go out and set up 
something separate from you just as it relates to the seas, 
correct? It is going to be expanded within your existing 
structure and kept there?
    General Eberhart. Exactly, yes, sir.
    Chairman Warner. Is that the Senator's understanding?
    Senator Collins. Yes.
    Secretary McHale. If I might briefly address that, the 
Secretary of Defense has directed that we in our office prepare 
a comprehensive homeland defense strategy by June 2004. General 
Eberhart has responsibility in a number of domains, the most 
obvious being the air domain with NORAD. In the land domain, 
where the mission is constrained by virtue of land missions 
within the United States, we normally play a supporting role 
for a lead Federal civilian agency.
    But the maritime domain in my judgment is comparable to, 
quite similar to, the defensive responsibilities that are 
traditional in the air domain. As we expand those capabilities 
and push out the maritime defense, that responsibility will be 
integrated under the affected combatant commander. It will be 
General Eberhart's responsibility, and that of his successors.
    Chairman Warner. Understood.
    I thank the Senator from Rhode Island.
    Senator Reed. Thank you, Mr. Chairman.
    General Brown and Secretary O'Connell, I understand that 
SOCOM is now authorized to operate in areas which were 
previously exclusively reserved for CIA. Their operations were 
governed by certain legal requirements for notifications to 
Congress, findings by the President. Does SOCOM operate under 
those same rules?
    General Brown. Sir, we do not have any new authorities to 
operate in any areas that the CIA previously operated in. All 
the rules remain the same. I think the difference is that now, 
as the chairman mentioned earlier, we have the requirement to 
be able to operate as a supported commander as well as a 
supporting commander. But we have no unique authorities to 
operate in those specific areas such as the CIA would operate 
in.
    That process for military in support of the CIA still 
exists and we still have to go through all those same channels.
    Senator Reed. But there seems to be an impression that you 
have been given heightened responsibilities in the war on 
terror that are more than simply complementary. Is that just an 
erroneous public impression?
    General Brown. No, sir. We have been given some additional 
authorities, but they are not operating in the area that the 
CIA would traditionally operate in. We have been given more 
authorities. We have been given some more force structure. We 
have stood up a bunch of initiatives down at our headquarters 
to help us take on this global war on terror mission.
    Senator Reed. Thank you very much, General.
    Secretary O'Connell, you are responsible in your office for 
DOD counterdrug policy, also.
    Secretary O'Connell. Counternarcotics, yes, sir.
    Senator Reed. That is a growing problem in places like 
Colombia and Afghanistan. Afghanistan has sort of leaped to the 
top as one of the number one producers of heroin. I understand 
that the position of Deputy Assistant Secretary for 
Counternarcotics Policy is not filled yet.
    Secretary O'Connell. That is correct, sir.
    Senator Reed. Do you have any plans, Mr. Secretary, to fill 
that?
    Secretary O'Connell. Yes, sir. I screened I believe seven 
candidates and put the leading candidate forward. It is in the 
process of getting a yea or nay someplace, sir.
    Senator Reed. Good. But that is a priority with you and 
with the DOD?
    Secretary O'Connell. Absolutely, sir.
    Senator Reed. Thank you very much.
    Secretary McHale, you have already commented on the WMD-
CSTs. Could you give a sense of the timing of what States will 
get their teams in some sort of order and the location of these 
teams within States? Is that location based upon population 
centers or mutual support to other teams, or is it simply kind 
of an ad hoc, first come first served, or other ways to 
allocate?
    Secretary McHale. It is the former, sir, and not the 
latter. When the first 32 CSTs were selected, and they were 
selected before I came on board, the dominant characteristic in 
the selection of those teams was population. Although that was 
not the universal characteristic, clearly those teams were 
chosen overwhelmingly because of the number of people who could 
be protected by the teams as they were proposed.
    When Congress directed us, as I described earlier, to 
create 55 CSTs, I began receiving questions from Members of 
Congress on both sides of the Capitol in terms of what the 
selection criteria would be, and I decided at that point that 
we needed to develop clearcut criteria to guide us in the 
process. I met with members of this committee individually to 
discuss that.
    Population remained extremely important, but in addition to 
population, for instance, I told Senator Nelson when I met with 
him, infrastructure would also be considered, particularly DOD 
infrastructure. You might have a rural State with extensive DOD 
infrastructure. We also look toward historic monuments, 
government centers, and other characteristics that could 
legitimately be brought into plan. I sent letters to many 
Members of Congress spelling out those criteria.
    Finally, the Defense Threat Reduction Agency (DTRA), one of 
our WMD capabilities, did a threat analysis with regard to 
various States, and DTRA came back with a recommendation. So I 
took the recommendations from DTRA and, with only one 
exception, applied those criteria in choosing the next 12. It 
is my intent, based on whatever level of funding is provided--
and I advocate the President's proposal, but on whatever level 
of funding is provided--we will apply those same criteria in 
the selection of the next 11.
    Now, if they are all done at once it is not a choice. But 
if we phase them in as the President has proposed, we would 
have to choose four, four, and three, and I would once again 
use the same criteria.
    Senator Reed. As I understand it, the roles of these teams 
are simply to go on the ground and then to begin to diagnose 
the extent of the situation. But in terms of dealing with 
consequences, they do not have the resources or the strength to 
do that. Consequence management, not just diagnosis of the 
problem, is a key element.
    Secretary McHale. Yes, sir, that is correct. The CSTs have 
22 people, men and women, and they are drawn from the active 
duty, National Guard, Air and Army Guard, and they have an 
assessment capability. They are, as I said, on active duty. 
They can deploy quickly to a site where we believe there is a 
WMD contaminant. Properly protected with their individual gear, 
they go into the hot zone and, using remote sensor 
capabilities, they assess the nature of the contaminant so they 
can provide that information to follow-on forces.
    They also have a communications package, which is a very 
helpful tool to have at that stage in the process. But you are 
correct, Senator. They essentially perform reconnaissance. It 
is an assessment capability.
    But, recognizing that we need a high end capability, 
General Eberhart has trained and equipped JTF-CSTs and some 
other JTFs to provide a very robust response. What we have 
recognized is there is an unmet mission requirement between the 
22 people on a CST and the thousands of personnel associated 
with a JTF. We are trying to close that, not only with 
organizations such as the Marine Corps' Chemical-Biological 
Incident Response Force (CBIRF), but, as Lieutenant General 
Blum, the Chief of the Guard Bureau, has proposed, the creation 
of 12 CBIRF-like capabilities within the National Guard built 
around existing CSTs, so we could go from the small CST to a 
larger CBIRF-like capability and then ultimately a response 
from a JTF if the magnitude of the attack required that.
    Senator Reed. I would ask General Eberhart to comment on 
both the criteria and allocation of these teams from his 
perspective as the unified commander.
    General Eberhart. Sir, first of all, I am a big fan of the 
CSTs. They are diagnostic in nature, but in many cases that 
early read on what we have is very important so we know how to 
react.
    Second, as Secretary McHale said, their communication 
package is very valuable, so that everybody can talk to each 
other, so it translates, it provides the communication 
capability that did not otherwise exist.
    Finally, a spinoff here, and not universally the case, but 
usually the States that have a CST do a lot more exercising for 
these types of events, all the way from the local responders in 
many cases to the Federal representatives in that State.
    So I think that CSTs are something we need to continue to 
pursue. We need to over time upgrade their equipment and, as 
Secretary McHale said, I am a strong believer that at least in 
each Federal Emergency Management Agency (FEMA) region or each 
set of States we need an enhanced CST, more like the capability 
we have in the CBIRF.
    Now, how we allocate those teams is a very difficult issue. 
Obviously, we take into account population, key infrastructure, 
and then the issue of distance. Therefore in some cases, 
especially when you look at our territories out there, it takes 
us a long time to get that type of capability to a territory. 
So I believe over time we have the right site picture in having 
55 of these, 1 in each State and territory, 2 that already 
exist in the State of California.
    Senator Reed. Thank you very much, General.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman. I just want to 
congratulate you on this hearing because I think this is an 
important and very timely hearing. As I look at this panel, 20 
years ago we never had these positions, and certainly from my 
point of view all these positions have become extremely vital 
to our Nation's security.
    General Eberhart, I want to extend a special welcome to 
you. We are glad to have NORTHCOM in Colorado. My understanding 
is that you are requiring a lot of technical training to the 
civil authorities and that you have reached out to academia to 
help you provide some of this technical training. I wonder if 
you might make a comment or two about it, and not take up my 
full time in the process, and tell me a little bit about how 
that is going and the problems you might be encountering?
    General Eberhart. Our overall vision, our strategy here, is 
much like you and I experienced during the Cold War, when in 
academia and in think tanks and industry we had all these 
people who were dedicated to the strategic mission, clearly 
understood the strategic mission, and therefore we had this 
intellectual resource which we could draw upon.
    I believe that we need to do the same thing today in terms 
of homeland defense and homeland security. We need to plant 
those seeds out there, grow people who clearly understand 
homeland defense and homeland security, not just in uniform, 
not just in the government, but in our academic institutions, 
in our think tanks and industry. That is the way we will 
clearly win this global war on terrorism. That is the way we 
will win this home game.
    So as you have stated, we have a consortium of universities 
out there that have committed themselves, and these 
universities are all the way from State universities to private 
universities to professional military education institutions. 
They have all come together, and they have sponsored programs, 
degrees, and courses. They send us interns, we send them 
people.
    I think this is exactly the right way to proceed so we can 
truly have this capability in our Nation to win this war.
    Senator Allard. I thank you for your answer.
    I am in the process of drafting some legislation that would 
allow us to reach out to our closest allies on our national 
missile defense system and work with them with compatible 
systems. If you have any thoughts about that, I hope that you 
would share those with us in the process.
    So this brings to mind our relationship with Canada. My 
understanding is that you might be negotiating with them. They 
are one of the partners I would have in mind for drafting this 
legislation because they have always been such close allies of 
ours. How are your discussions going with Canada as far as 
whether they would be a partner or not in our missile defense 
efforts?
    General Eberhart. Sir, this is at best right now a policy 
issue, but it is proceeding. Obviously, we have exchanged 
notes. We have agreed to discuss the issue. There is no 
specific timetable for a decision here and no decision has yet 
been taken. I believe it is the right way to go, but obviously 
the leaders of the two nations have to make that decision.
    Senator Allard. Now, as the commander responsible for 
ground-based midcourse defense, can you perform this mission 
effectively without Canadian support?
    General Eberhart. Sir, my belief is that we can. We can do 
this mission without Canadian support. It will complicate the 
missile warning portion, but we can do it.
    Senator Allard. Many potential adversaries continue to 
develop increasingly more advanced cruise missiles. As we saw 
in the recent conflict in Iraq, cruise missiles were a problem. 
Do they create a serious threat and a problem here to the 
mainland in the northern continent, and if so, are there some 
things that you can share with us on that particular threat?
    General Eberhart. Sir, I am on record as being concerned 
about the proliferation of cruise missiles and the possibility 
of a cruise missile threat. We know that threat is a 
combination of capability and intent. We know that the 
capability is out there. What we have not yet seen is the 
intent.
    Obviously, we had the same situation prior to September 11. 
So we are very concerned, and the Secretary of Defense is also 
on record. That is one of the reasons that we have promoted 
this High Altitude Airship, so that we have this wide-area 
surveillance to detect the carrier of a cruise missile, whether 
it be a maritime carrier or an airborne carrier, because we 
have to detect it before we will be able to kill it, neutralize 
it.
    So we believe that we are proceeding apace with the High 
Altitude Airship, but we must have a way for wide-area 
surveillance because that is the only way we will be able to 
defeat the cruise missile threat to North America.
    Senator Allard. Now, in your prepared testimony you noted 
that elements of the current homeland air surveillance system 
are approaching or have exceeded their life expectancy and 
require modifications for continued operations. What is your 
strategy for either recapitalizing or upgrading these assets?
    General Eberhart. Sir, over the years, as their lifetime 
came to an end, the FAA decision was to go ahead and not 
replace these radars, because the belief was that airplanes 
they wanted to keep track of would be transponding and would be 
on a flight plan. So it was a conscious decision made in the 
1980s and the early 1990s.
    But after September 11, it became apparent that we needed 
this capability, that threats might emanate from within, and we 
had to have a better air picture than we would have otherwise 
had if we let these radars' lifetime just expire on us. So, 
with Congress' help, over the last 3 years we have added money 
each year to continue to fund these FAA radars, and my belief 
is that we need to continue to do that until such time as we 
have an alternate technology to provide this situational 
awareness, this air picture to us, so that we can protect the 
skies of North America.
    Senator Allard. Now, you plan on fielding a wide-area 
surveillance capability that can seamlessly connect all NORAD 
and NORTHCOM with the DOD and Canada. When do you plan to have 
that in place?
    General Eberhart. Sir, for all practical purposes we have 
that in place today. We have netted scores of radar that were 
not previously linked together. We see that in our NORAD 
command centers. We have established radio contact and put 
radios in all of the air traffic control centers out there, so 
we have good connectivity in terms of communications. We have 
liaison officers in the air traffic control centers and the FAA 
has liaison in our command centers.
    So, we have in fact netted that together today. Obviously, 
the challenge will be to keep that netted together as these 
radars age out.
    Senator Allard. Thank you, Mr. Chairman. My time has 
expired.
    Chairman Warner. Thank you, Senator.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman.
    Thank you to all our witnesses for being here today. The 
chairman mentioned earlier the hearings that took place in this 
room over the last couple of days of the so-called 9/11 
Commission, and there was a lot of discussion about what was 
not done before September 11. I must say it is reassuring as I 
hear your testimony to see how much we have done, in your case 
through the DOD, obviously alongside the new DHS and a lot of 
other agencies, and I appreciate it.
    I am sure all of us would agree that we are not where we 
would like to be yet, but we are a lot further along than we 
were before September 11, and I think we all ought to take some 
satisfaction from that and we ought to express our gratitude to 
all of you for what you have done to make that happen.
    I did think in all the controversy and sound and fury of 
the last couple of days that one of the new pieces of 
information, at least at a harder level, was in the staff 
report by the commission yesterday. It stated that the FBI had 
identified two al Qaeda operatives associated with the attack 
on the U.S.S. Cole that were in the country, in our country, in 
August 2001, and apparently the White House and the 
Counterterrorism Security Group (CSG), which Mr. Clarke I guess 
headed, never knew about that.
    I take comfort in all the discussions that we have had--I 
take some confidence that that would not happen today, that 
there is enough interaction every day. I have been impatient 
about the coordination of the terrorism watch list, but there 
is enough going on that that would not happen. I worry, as my 
colleagues have, that there may be a proliferation of 
intelligence-gathering and fusion operations so that it may 
come to a point where there is not a clear sense of 
accountability.
    I note, General Eberhart, in your testimony that you have 
stood up a combined intelligence and fusion center in NORTHCOM. 
I would appeal to all of you to do what I am sure you will do 
anyway, which is to make sure that this profusion of such 
centers to fill the gaps that did not exist before do not 
become so diffuse that there is not a clear line of 
accountability when somebody is making decisions about what 
happens.
    But with that invocation and expression of appreciation, 
General Brown, I wanted to ask you a couple of questions. What 
is the number of active duty personnel that you have working 
under your command? In other words, how much SOF do we have?
    General Brown. Sir, today we have about 49,800 total 
soldiers, sailors, airmen, marines, and DOD civilians in SOCOM. 
Of that, about 14,900 are Reserve. So we have 49,000 on hand 
today, and about 14,000 of those are Reserve components.
    We will grow in 2005 to about 51,000 total people in SOCOM. 
About 14,000 will stay Reserve components.
    Senator Lieberman. Okay. So we are obviously calling on 
you. You are really are on the front lines in so many different 
ways.
    General Brown. Yes, sir.
    Senator Lieberman. If I caught your opening statement, you 
said that your forces in some sense were stressed, but that the 
OPTEMPO was manageable. The question really for us as the 
authorizers, knowing that everybody would always like more, is 
to urge you to be very direct with us in telling us if you are 
not getting the kind of personnel and support you need to carry 
out the missions that we all desperately and deeply want you to 
be able to carry out.
    General Brown. Yes, sir, I will.
    Chairman Warner. Could I make an observation?
    Senator Lieberman. Yes.
    Chairman Warner. You have raised a very important point.
    Of that 14,000 Reserves, how many are there by virtue of 
volunteering, as opposed to being called up?
    General Brown. We have 14,000 total assigned to our force.
    Chairman Warner. Yes.
    Well, maybe you can provide that answer for the record.
    General Brown. I really have to provide that for the 
record.
    [The information referred to follows:]

    SOCOM has approximately 14,900 authorized Reserve positions from 
all Services. All of those reservists have volunteered for Reserve 
assignment within SOCOM. Following the events of September 11, 2001, 
and in response to the presidential call up to active duty, many of our 
Reserve Forces were needed to support OEF, then OIF. In compliance with 
guidance of the Services, prior to mobilization, all of the 
subsequently-mobilized reservists signed a mobilization volunteer 
statement. Mobilization extensions for a second year also required 
those volunteers to sign a mobilization volunteer statement. As of 
March 2004, approximately 62 percent (9,238) of SOCOM Reserve Forces 
have been mobilized.

    Chairman Warner. I think a lot of them are persons who 
really want to be a part of your force and, even though they 
are in the Reserve Army, they are there because they really 
want to be there.
    General Brown. We have a great history of using our Reserve 
component.
    Senator Lieberman. Would I subtract them and say that you 
have about 35,000 on active duty?
    General Brown. Yes, sir.
    Senator Lieberman. That is a relatively small percentage of 
our overall active duty personnel, in an area where you are 
really being asked to do a lot. There are high demands on you. 
So I hope you will come forward and let us know how we can be 
of support to you.
    Let me focus on Iraq for a moment, because clearly I know 
we face many threats, and we have talked about them here, to 
homeland security, but our ability to secure Iraq in the near 
and mid-term so that the transfer of sovereignty can occur, so 
that the elections can occur--I do not know in all the 
responsibilities we have that there is anything more important 
that we are going to have to try to do in the next 6 to 8 
months.
    What lessons have you learned from what is going on there 
now in a broad sense? There is such good news happening there, 
in terms of the interim constitution, the oil industry picking 
up and producing more, and the polling showing the number of 
Iraqis who are optimistic about their future. But in the mean 
time, of course, these terrorists are killing a lot of 
Americans and a lot of Iraqis, and until that security is 
restored all the other good things that are happening are going 
to hit a wall.
    Can we stop this insurgency?
    General Brown. Sir, I think we are doing a great job over 
there doing it. All the SOF over there today are in support of 
General Abizaid. We are out on the ground and we are developing 
the situation, developing intelligence, taking bad guys off the 
street, and we are doing it at a very rapid rate. We are 
working very hard on that.
    Additionally, we are, from a special operations 
perspective, adding that stability and security to the country. 
We in special operations play a big role because we also have 
the civil affairs forces, of which we have over 1,200 deployed 
over there, about 800 or so in Iraq and the other 400 in 
Afghanistan. Additionally, we play a big role in the security 
and stability of Iraq because we also own the psychological 
operations forces, which are the experts in providing 
information.
    We play a big role in all those and I think the progress is 
very good in every one of those areas.
    Senator Lieberman. Let me ask you this final question. In a 
country that I guess is about as large as California, with a 
lot of vulnerable targets obviously, and an enemy that wants to 
frustrate the progress, stop it, turn it around, and create 
chaos, how do we stop them?
    General Brown. Sir, I think we just keep hacking away at 
it. For them it is a target-rich environment.
    Senator Lieberman. Right.
    General Brown. The inert explosive devices (IEDs) are a big 
problem for us over there. It is very difficult to defeat the 
IEDs. We have a great program going on to try and work to stop 
those, but it is just one of the things that creates this 
perception of chaos over there.
    But I think we just keep working on it. We try and take the 
bad guys off the street and defeat them. We continue to build 
the infrastructure and stabilize the country, and we get the 
information out of exactly all the good news and good things 
that are going on.
    Senator Lieberman. Is our intelligence on the enemy there 
improving? It is not an enemy in a conventional sense, 
obviously. They are disparate, they are operating in cells; 
they are connected, they are not connected. Are we breaking 
through?
    General Brown. Sir, we have a great intelligence lashup 
over there. Our SOF, specifically, that are operating out in 
the villages and towns, are able to work intelligence very 
rapidly. That is one of the great success stories that we are 
learning over there. A lot of that is based on our ability to 
have interrogators and interpreters and have a language 
capability and some cultural awareness, so that when they go in 
and hit these targets, the intelligence gets instantly 
processed, so that if the target has a data point where you can 
go and immediately take out another target, that will just 
continue to build success upon success.
    At the operational and tactical level on the ground, the 
intelligence processing between SOF and the other folks that do 
that is very good.
    Senator Lieberman. Thanks, General. I thank you all.
    I have so many more questions, but Senator Roberts is next. 
He is a very important and busy man and I do not want to keep 
him waiting, so I will yield.
    Senator Roberts [presiding]. Thank you, Senator. Three 
years ago, the Subcommittee on Emerging Threats and 
Capabilities, which is the subcommittee that was initiated 
through the farsighted commitment by Senator Lieberman and 
Senator Coats of Indiana, and then the chairman who led the 
effort, we became concerned that there was no single 
accountable official in the DOD specifically responsible for 
combatting terrorism. That obviously led to the ASD-SOLIC being 
designated as that number one official.
    This question is for Secretary O'Connell--and Paul, it is 
good to see you. Thank you for your service and thank you for 
your service in the House.
    Secretary McHale. Thank you, sir.
    Senator Roberts. Who now is the single accountable official 
in the Department that is responsible for combatting terrorism 
policy?
    Secretary O'Connell. Sir, I am.
    Senator Roberts. You are? You are the one?
    Secretary O'Connell. Yes, sir.
    Senator Roberts. So 3 years ago, when we asked the four 
witnesses to come in and sit down in order of their 
accountability and in regards to who was in charge, and they 
really could not figure out where to sit--so we have made some 
progress without question in that regard.
    I was going to ask General Eberhart about his experience in 
exercising the Nation's response plans with regard to the DHS 
and the lessons learned from the exercises that you have 
described, but Senator Inhofe has asked that question and you 
have responded very well. I just encourage you to keep those 
exercises coming and I think they are very valuable.
    I do have another question for Secretary McHale. A recent 
Defense Science Board (DSB) study concluded that if the 
homeland were attacked, DOD could be called on or it probably 
would be called on without question to assist with a response 
to the various incidents. This study stated, and I am quoting 
here, ``The execution of this mission could require 
capabilities in areas where the Department is deficient,'' and 
listed the following three:
    One was in regards to mitigation; two, the ability to surge 
medical capabilities. Within that statement was the figure that 
if you go nationwide and take a look at the hospital beds that 
are available in our Nation's hospitals, obviously it will vary 
from place to place, but we get down to about an average of six 
beds per hospital. That is a rather critical concern. Then the 
third one was in regards to the communication operability.
    The report went on to call for increased emphasis and 
priority obviously in funding for these areas. Could you tell 
me just briefly what the DOD is doing to address this very 
critical shortfall in each of these areas?
    Secretary McHale. Senator, my office worked very closely 
with the DSB in preparation of that study. A member of my staff 
was the secretary for the DSB study and our coordination could 
not have been closer. So there was nothing in the study that 
surprised me, and I am in general agreement with really the 
superb effort that they completed.
    Ordinarily when we would have a domestic attack, the 
President would declare a major disaster under the Stafford 
Act. The DHS would take the lead. FEMA would be the subordinate 
element of the DHS that operationally would take the lead, and 
FEMA would then have the authority by law to come to the DOD 
with a request for assistance so that we might provide various 
capabilities, up to and including for instance JTF-CSTs, a very 
large task organization specifically trained for WMD response.
    Long-term mitigation would not ordinarily be seen as a DOD 
mission. Depending upon the nature of the contaminant, it might 
well be an Environmental Protection Agency (EPA) mission. But 
certainly in the immediate aftermath of an attack we would have 
a response capability that could be vitally important. We now 
have that capability in JTF-CSTs, and under General Eberhart's 
leadership we are developing similar capabilities in other JTFs 
of similar size, so that within hours after such an attack very 
large DOD forces are trained and equipped to deploy in support 
of the FEMA-led civilian mission.
    Senator Roberts. That was my next question, in terms of 
time. You are saying that is within several hours in regards to 
the presidential declaration and then you go through those 
various chains of events that you've described.
    Secretary McHale. Yes, sir.
    Senator Roberts. So you could respond within several hours 
to a chemical, biological, radiological, or nuclear (CBRN) 
attack or a mass casualty event?
    Secretary McHale. Yes, sir. The actual time frame is I 
believe classified, but it is measured in hours. The capability 
is one of echeloning forces into the theater. That is, the lead 
elements--and General Eberhart is more expert in this area, but 
the lead elements of JTF-CSTs would be able to deploy very 
quickly, and the follow-on elements similarly would deploy 
within hours, hours being measured in slightly more than days.
    But we are talking about a rapid, almost immediate response 
in terms of initial capabilities, with very robust capabilities 
following shortly thereafter. These units involve a range of 
capabilities, everything from assessment, decontamination, 
medical capabilities, everything up to and including mortuary 
affairs, which is a very challenging mission requirement in a 
contaminated environment.
    Senator Roberts. I remember the hearing that we had here 
about, oh, 2\1/2\ to 3 years ago, and we actually had members 
of the Intelligence Committee, the Armed Services Committee, 
and even the Appropriations Committee here. We asked 46 
agencies at that particular time, in regards to homeland 
security: Number one, who is in charge; number two, what is 
your mission; number three, what do you really do; and number 
four, what do you need in terms of priority funding?
    Of course, the answer to all four was: yes, I am in charge, 
and here is our mission and here is what we want to do.
    Then we had the sheriff from Arapaho County, Colorado, who 
was the very last witness, and he said: Senators, I will tell 
you what. It is going to take you feds about 72 hours to come 
out to where I am and I have news for you. Until you get there, 
I am in charge; and I have not seen one damn thing yet.
    Now, that was 3 years ago. We have come a long ways from 
that and I credit all of you in regards to that effort.
    My time has expired. I would like to ask General Brown how 
well you think we are doing in transferring technology from the 
research labs to the warfighter on emerging threats. We have 
that jurisdiction, and we just had the Defense Advanced 
Research Projects Agency (DARPA) gizmo show--those are my 
words, not theirs--in regards to the technology to get 
something off-the-shelf, to get it into the warfighters' hands, 
to respond to the immediate concern, i.e., the protective armor 
in regards to the high-mobility multipurpose wheeled vehicles 
(HMMWVs), all of that.
    Do we have the process now down to where you can get what 
you need?
    General Brown. Sir, we have a great process. Under our 
acquisition authority I have a group of people that are out 
looking for high tech solutions. We work very closely with 
DARPA. We routinely run exchange days to make sure that our 
operators have a chance to see everything that DARPA's working 
on.
    But quite frankly, it is not only that. We are reaching out 
to industry. I have a group of people that work very closely, 
that go to all the trade shows and are out there searching for 
what our requirements are. Many of those people came out of the 
field and are operators, so they know what they are looking 
for.
    Senator Roberts. I appreciate that.
    Thank you, Mr. Chairman.
    Secretary O'Connell. Excuse me, Mr. Chairman. Senator 
Roberts, if I could be permitted to respond or to expand the 
response to Senator Roberts' question when he was addressing 
Secretary McHale and myself. The single DOD point for 
counterterrorism within the office of the Under Secretary for 
Policy, who is my boss, he of course is responsible to the 
Secretary of Defense. But in the chain of command for 
counterterrorism activities, that would flow of course not 
through me or through Under Secretary Feith. It would flow 
directly from the Secretary to a combatant commander such as 
General Brown. Counterterrorism is in his portfolio and in my 
portfolio on the policy side. But I do report to Under 
Secretary Feith and I just wanted to clear that up, sir. I 
thought you were referring between Secretary McHale and myself.
    Chairman Warner. I think it is important that clarification 
is in there.
    Senator Roberts. That is fine. Thank you.
    Chairman Warner. I would like to note that Senator Roberts 
hosted a SOF event last night in this building, and I was 
privileged to join. I was very impressed. I hope you were too, 
Senator, by the ability of those young troops to interpret the 
most complicated and technical operating equipment.
    Senator Roberts. I stood at parade rest, Mr. Chairman, and 
that is pretty good for a marine who very grudgingly admits 
that SOCOM is second to none in regards to their capability, in 
part because they have marines on board. [Laughter.]
    General Brown. Thank you very much for hosting us the other 
night.
    Senator Roberts. Does the Secretary agree?
    Secretary McHale. I would certainly support the Senator.
    Senator Roberts. Semper fi.
    Chairman Warner. Let us get back to business here.
    Senator Pryor, restore order, please.
    Senator Pryor. General Brown, I would like to ask you about 
something you said a few minutes ago, or maybe I should say a 
few Senators ago, when you were talking about retirement. I 
assume you are talking about SOF?
    General Brown. I am.
    Senator Pryor. Tell me again? At 20 years a lot of SOF get 
out of the military? Tell me about the 12 year, 20 year?
    General Brown. We have many skill sets in the special 
operations community. Every one is different and has unique 
challenges to retention and recruitment. But the one I am 
specifically discussing is our Green Berets, and that is the 
core of the Army special operations component.
    We traditionally recruit those guys out of the force at 
large. So these individuals may already be in the Service for 6 
or 7 years or less, but they are usually at about the 6-year 
point. We then bring them in and put them through about an 18-
month course to make them a Green Beret. Once they graduate 
from that, then we will get 12 to 14 years of service out of 
them before they hit the 20-year point.
    If we can keep those guys past the 20-year point, out to 
the 26-year point or the 28-year point, that saves us somebody 
we obviously do not have to recruit, retain, and train. While 
we want to retain all those guys below the 20-year point also--
and we do have some of them getting out to take these lucrative 
jobs--one of the key points in the article I was referencing 
talked about the folks that retire at the 20-year point.
    Senator Pryor. So give me your ideas on how that should 
work, then? Should we have special incentives for them to stay 
in? How do you think that should work?
    General Brown. I think that there are a lot of options and 
we are mulling over a bunch of those from this focus group. We 
brought in the wives and the special operators. By the way, 
those were not just Green Berets that we brought in. We also 
brought in our SEALs, Air Commandos, and others, so that we got 
a good view from all of our special skill sets.
    An incentive package may be one of those issues. Education 
opportunities may be another. The number one retention issue in 
any Armed Force is job satisfaction. Our folks on the 
battlefield today have great job satisfaction, but they also 
have a concern to take care of their future and their families, 
and at the 20-year point if you can get out and go right back 
and do much of what you are trained to do and make five, six, 
or even eight times the money that you are making, it is a very 
lucrative opportunity for them.
    Senator Pryor. Right. In Secretary O'Connell's statement on 
page 8, it said: ``In many respects, force management is the 
most critical problem facing SOF.'' This kind of begs the 
question about recruiting and retention. Should we, in your 
view, General, differentiate with special operations, even to 
the extent of making them into some sort of specialized branch 
of the service? I am not quite sure how but should we 
differentiate, given the fact that we do have quite an 
investment in these soldiers and they are extremely good at 
what they do? Should we differentiate in some way?
    General Brown. We already do to a certain extent. There are 
provisions for special duty assignment pay, which our A-Teams, 
our Green Berets, and our SEAL teams get. So we already do 
differentiate between them and other skill sets in the 
military, but it is not a great deal. Those are the kind of 
things that we need to address in how we are going to work this 
retention problem.
    I will say quickly on the recruiting issue you mentioned 
that today our recruiting is very good for SOF. Every seat in 
every special operations school we have is filled. Now, that 
does not mean that you will immediately run a couple classes 
and fill up the force, because today only about 23 percent of 
the people that sign up to be a Green Beret or a SEAL actually 
make it all the way through the course.
    Senator Pryor. Really? I did not realize that.
    Secretary O'Connell, what about your thoughts on--I do not 
mean this in a bad way--special treatment for special 
operations? What is your view of how much we should 
differentiate or incentivize them?
    Secretary O'Connell. Sir, it is a very good question. We 
could literally spend weeks addressing it and I know we do not 
have weeks. I was privileged to spend yesterday with General 
Brown and his combatant commanders and his senior enlisted 
advisers and other specialists that have looked specifically at 
this program. I think there is a range of options that can be 
taken.
    We have to remember first of all that these special 
operators come from the Services and we need to coordinate with 
the Services. Sometimes they go back to their own Services. It 
is a continuous problem. I will say that I think we need to 
understand that as technology moves forward the unbelievable 
capability of many of the special operators, particularly on 
the Green Beret side, the Ranger side, the SEAL side, Air Force 
Special Tactics personnel, and others, as they are able to 
integrate themselves more effectively on the battlefield with 
technology and using our other Services, they can impose a 
tremendously lethal blow on the battlefield working in small 
units, as we have seen.
    Therefore, their ability to equate to the combat power that 
used to be handled by 8, 10, 12, maybe 100 people is something 
we should take into account as we look forward down the line in 
transformation.
    But your question is a good one. We could give you many 
responses across the board, but it is something we are very 
conscious of. We do not want to get an ``us versus them'' 
capability, but the reality is that the ``us'' is pretty darn 
good.
    Senator Pryor. Thank you.
    General Brown. Sir, could I readdress that one last time?
    Senator Pryor. Yes.
    General Brown. I do not believe it is about special things 
for SOF. I think as you look across all of the Services there 
are other areas where we have had shortages and that we have 
had to make special considerations to keep those kind of 
skills. Aviators are a great example, all the initiatives that 
we started to keep aviators and doctors. There are special 
considerations already being made. I think that is more what we 
are talking about. We are not talking about singling them out 
for special consideration for special people.
    Senator Pryor. Thank you.
    Chairman Warner. Thank you very much, Senator. That was an 
interesting line of questioning.
    Senator Clinton. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    Secretary McHale, during your confirmation hearing last 
year I raised concerns about the numbers of firefighters, 
police officers, and emergency personnel who were being called 
up, and of course we have seen an increased OPTEMPO even since 
your confirmation hearing. In February of last year I wrote to 
Secretary Rumsfeld about this issue, and I appreciated your 
pledge and that of the Secretary to find answers as to what the 
impact of the call-up of these first responders are, because it 
connects with what you are doing on homeland security with 
these new CSTs. It is a very critical question to much of what 
we are discussing today.
    Now, I have been trying on my own to gather some of this 
information. For example, the latest information I could get is 
that in 2002 the New York Police Department spent more than 
$200,000 a week to cover their reservists and firefighters. 
Well, they covered their reservists who were in the police 
department. The fire department spent more than $100,000 a 
week. We have $300,000 a week coming out of the New York City 
budget.
    We also have problems in smaller communities, like Niagara 
Falls. The Niagara Falls Police Department spent more than 
$350,000 last year to cover their officers away on military 
leave. They expect to spend the same now. I have gotten 
information from a variety of other States, from Utah to North 
Carolina to Texas to Georgia.
    We are still concerned about this because it is a 
deployment of personnel and resources and, just as the SOF take 
a lot of time to learn their job, to get ready to carry it out, 
we found tragically on September 11 that a lot of our 
firefighters and police officers also take a while to 
understand exactly what they need to do, and we are losing a 
lot of those people to their Reserve and Guard duty.
    Have you been able to conduct the study that I requested 
last year and do you plan to publicly release the results of 
that? Are there any policy changes that you might consider 
because of the impact?
    Secretary McHale. Senator, the issue that you raise is very 
challenging, not only in the public sector, but for private 
sector employers as well. When you had asked me the question 
during the confirmation hearing, I did not have the 
information. The issue that you raise is one that falls within 
the jurisdiction of the ASD for Reserve Affairs. We in ASD-HD 
operationally, we provide the policy guidance; General Eberhart 
operationally commands those Reserve Forces that are actually 
dedicated to the homeland defense mission. But issues of 
mobilization, recruitment and retention fall under the 
authority of the ASD for Reserve Affairs.
    In response to your inquiry I went back to Mr. Hall and he 
told me at that point that we did not have in our database of 
information the ability to identify which of our reservists 
were simultaneously deployed as first responders. It was 
challenging, not so much in the case of professionally employed 
first responders, but because so many of our communities, 
particularly in your State, in the rural areas, are served by 
volunteers.
    We knew that an individual reservist was employed working 
for, let us say, a manufacturing company. What we did not know 
was that in his or her part-time hours he or she might have 
been a volunteer for a paramedic unit.
    You and I had met on the subject and I had given you at 
that point the latest information that I had. I also brought to 
your attention that there is what I will call a delayed entry 
program. That is, if a first responder is notified that he or 
she is being brought to active duty, the community in which 
that first responder works can request and will be granted by 
the DOD a brief delay to bridge the gap so that we do not have 
an abrupt departure of that first responder.
    Lastly, I will now get back to Secretary Hall and find out 
what progress has been made in the database, to see if we can 
identify how many professionally employed and volunteer first 
responders are also reservists, so that we can quantify not 
just for the public sector but for the private sector as well 
the dual obligation.
    Senator Clinton. I appreciate that very much, Mr. 
Secretary.
    I am also concerned about the continuing coordination 
between the DOD and the DHS, and I would like to ask you, Mr. 
Secretary, and you, General, as well that--last year we were 
told that the DOD did not coordinate their heightened threat 
levels with the DHS's color code. Now, can you tell me whether 
there have been any changes to code orange or code red with 
respect to DOD and NORTHCOM? In the event of a decision to 
increase the threat level, who makes the call on whether we 
increase defensive measures for New York? I am very focused on 
our continuing vulnerability and the fact that we remain such a 
high target.
    Suppose the DHS initiated a higher code level of alert, but 
the DOD and NORTHCOM decided not to. Where are we supposed to 
end up there in New York, particularly New York City? The 
police and firefighters and the mayor's office, they have their 
own intelligence because we are so big and we feel the threat 
so intimately. But obviously the coordination with all of you 
is equally critical.
    Can you explain where we are in all of that thinking now 
and what the sequence would be?
    Secretary McHale. Senator, I would be happy to and I think 
General Eberhart would probably want to comment then perhaps on 
the air threat levels and some of the operational matters that 
fall within his purview.
    At the highest level, I can give you a complete assurance 
that we have made dramatic progress in the last year, in terms 
of coordinating DHS and DOD activity. I mentioned briefly a 
little bit earlier that members of my staff now work full time 
in the Homeland Security Operations Center out on Nebraska 
Avenue, completely engaged 24-7, 365----
    Senator Clinton. Mr. Secretary, if I could just stop you a 
second. Does that mean that if we see Secretary Ridge on 
television raising the threat level that there has been an 
agreement and a signoff in the DOD on that increased threat 
level?
    Secretary McHale. There is certainly a coordination. There 
is not a signoff in that the statute that sets the level, as I 
recall, the system level, is the Homeland Security Act of 2002, 
and the Secretary of Defense does not have a veto, he does not 
have to sign off.
    But I can tell you from my own experience and 
participation, there is robust communication and coordination. 
Before the Secretary of DHS, in consultation with the Attorney 
General, raises it, let us say, from yellow to orange, the 
Secretary of Defense has full situational awareness of what is 
going on, and ordinarily he or a designated representative--at 
times it has been me in the past--can participate in that 
discussion as Secretary Ridge makes his statutorily assigned 
decision.
    Now, the Secretary of Defense, within the NORTHCOM AOR, 
decides our force protection condition. He confers directly 
with his combatant commander. He discusses that issue 
ordinarily with General Eberhart. General Eberhart may make a 
recommendation. But the actual decision for force protection of 
DOD facilities is made personally and directly by the Secretary 
of Defense within the United States.
    Senator Clinton. Of course, I am concerned about DOD 
facilities, but I am also concerned about civilian facilities 
and obviously the assets to provide whatever additional 
support, overflights, whatever kind of resources are needed 
more likely to come from DOD than from DHS. At what point, 
General, do you get into that conversation, and do you then 
make the decision or is that not yours to make?
    General Eberhart. I think what is important to note here is 
why we are going to change the color code or the threat level. 
What is the threat? What have we perceived that would make us 
change? To give you an example, maybe it is a threat to a 
subway system. That may not be a reason to increase the air 
patrols. So that is what Secretary McHale is referring to. We 
talk about what the threat is and why we are changing the color 
code or why we are changing the force protection or the anti-
terrorism measures that we are taking.
    If it is a threat we think we can deter, defeat, and 
prevent by using a combination of things, then you will see 
those two things running side by side, just like we saw over 
the holiday season. When we changed the color code, we also 
changed our force protection measures--our air patrols, the 
number of aircraft we had on alert, et cetera.
    What is important to note is why we are changing it and 
what the relevance is to what the DOD could provide or the DHS 
and other law enforcement agencies can provide. But now we are 
talking. Frankly, at the beginning we were not. So we might 
read about a change in a color code, we might read about a 
change in the force protection. Now it is very well linked. We 
know why. We can take the appropriate measures.
    Senator Clinton. Thank you.
    Chairman Warner. Thank you, Senator. That was very 
interesting.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    General Eberhart, this afternoon in a subcommittee of this 
committee we have to start making some decisions about keeping 
a second line open for expendable launch vehicles. That is not 
your AOR, but perhaps in a side bar conversation, because of 
the former hat that you wore at Space Command, I would be 
appreciative of your thoughts on this. It is going to be a 
pretty critical decision and we cannot afford to mess it up.
    Let me ask you, on the subject of this hearing, rumors 
continue to abound that Secretary Rumsfeld wants to combine 
NORTHCOM with Southern Command (SOUTHCOM). In your professional 
opinion do you think NORTHCOM is prepared to accept a 
significant increase in duties and an expanded AOR that would 
include all of SOUTHCOM?
    General Eberhart. Sir, despite the rumors, the ground truth 
is that the Secretary of Defense, as he has done for the past 3 
years, has requested a review of the Unified Command Plan 
(UCP), something that we do every year as a matter of course. 
Part and parcel to that, is there a way to organize better in 
terms of perceived or real seams between commands and 
commanders' responsibilities and authorities? Is there a way to 
organize better for this global war on terrorism and what we 
see in the 21st century versus what we saw in the Cold War?
    I think the steps the DOD, under the Secretary's 
leadership, has taken over the last 3 years show he is very 
objective. So the Secretary has not decided that he is going to 
combine them. He has not said he wants to combine them or 
establish a new command. ``Combine'' is probably not the right 
verb. But he wants a good, objective look at what the pros and 
cons would be of combining them. That is what SOUTHCOM, 
NORTHCOM, the Joint Staff, and offices in the Office of the 
Secretary of Defense (OSD) are doing as we speak.
    Would it work? Sure, we can make anything work. Is it the 
right thing to do? I am not sure, because I have not seen the 
analysis yet, and the only thing I would give you would just be 
my intuition.
    So I believe it is something that warrants a look, and 
probably will warrant a look every year for many successive 
years, as we have looked at it since the early 1990s.
    Senator Bill Nelson. Well, at some point I would like your 
professional opinion. So if you do not want to offer that now, 
at some point in the future I would like to have it.
    I will give you my professional opinion. With the 
excellence of the four-stars that we have had there, like 
General Hill now and General Pace before him, that is an area 
of enormous responsibility. They not only have to be a military 
commander, they have to be a diplomat as well, dealing with the 
heads of government of all of those scores of countries.
    The other thing is there is a distinct military challenge 
for the future, because as terrorism moves from Asia and the 
Middle East into Africa and then into Latin America, we have a 
significant military threat.
    Let me move on. General Brown, you have the SOF that are 
getting busier and busier, especially as we reorganize the 
forces. There is an article on the front page of the paper 
today about reorganization, which I have discussed with General 
Jones at length. The thrust of the article is about how we are 
going to reorganize the troops over in Europe.
    But wherever we are, your troops are really going to be a 
major component. My question is, how are you going to manage 
this ever-increasing OPTEMPO when you have a limited size of 
special operations units?
    General Brown. Sir, right now we are involved in the 
biggest deployment in the history of special operations. 73 
percent of all our deployments are in the Central Command 
(CENTCOM) AOR right now in Iraq and Afghanistan. This is the 
highest OPTEMPO special operations has ever had, to include our 
civil affairs and psychological operations forces.
    For example, traditionally, we take a SOF group and they 
are oriented on a region of the world. The way we are 
accomplishing it today, and to sustain our Green Berets over 
there, is we are using other special group forces, including 
our two great 19th and 20th SOF and National Guard units, and 
we are putting them into the fray in Afghanistan and Iraq so 
that we can get a manageable OPTEMPO for our SOF.
    We just increased the amount of SOF over in Iraq over the 
last 4 or 5 months significantly and it is still manageable. We 
are working very aggressively to try and fill up our units. We 
traditionally stay about 85 percent full in a regular SOF or 
SEAL unit not because we cannot get the people, because we have 
to get them through the training.
    So what we are doing is enhancing our schools so that we 
can increase the throughput without changing any of the 
standards of what it takes to be a special operator.
    So in those forces I think all that is manageable. As I 
mentioned earlier, the place we are getting stressed right now 
is in our civil affairs forces, because out of our 28 
battalions, 27 of them are in the National Guard or in the Army 
Reserve, and we are coming up to a mobilization problem with 
them. We are taking that on right now for the AOR that has 
taken all those forces a couple ways.
    One is that we think the requirement for them will reduce 
as the infrastructure continues to build over there. It is 
already starting to reduce the requirement for our civil 
affairs forces. Additionally, in our fiscal year 2005 budget we 
will grow additional civil affairs forces, both active and 
Reserve, so that will help us with some of those problems.
    We will grow from fiscal year 2004 to fiscal year 2009; 
about 2,700 total people will be added to SOF. Some of our most 
stressed areas are going to grow. We are going to grow a brand-
new MH-47 Echo battalion. That is very important. We are going 
to grow for a brand-new C-130 Combat Talons. That is already 
happening. We have just added four AC-130 gunships.
    There is a combination of all of these things going on that 
will help us manage our OPTEMPO in the future. Additionally, as 
I mentioned, we are prioritizing the deployments now and we are 
in charge of where they are going, and that helps us a good 
deal in managing OPTEMPO. Additionally, as we go into the 
theater geographic combatant commanders' AORs, some of our 
presence will be done through our exercise programs and our 
joint combined exercise training and joint exercise programs, 
that will allow us to maintain that presence, but it will be on 
a rotational basis.
    This is a big one. We work force management every single 
day to make sure we are doing the best possible job we can to 
sustain our force.
    Senator Bill Nelson. I think your command is the place to 
be for the future.
    General Brown. So do I, sir.
    Senator Bill Nelson. So good luck.
    Mr. Chairman, I have a couple more questions.
    Chairman Warner. Go ahead.
    Senator Bill Nelson. Secretary McHale, obviously we are 
using the National Guard a lot more than we have in the past, 
and so the question is homeland security. If you have the 
National Guard over there--and we are well aware of that in 
Florida, by the way, because at one point, because the 124th is 
so good, you had them in there first and it was right in the 
middle of hurricane season. If we had had another monster 
hurricane we would have had difficulty, and the head of the 
National Guard can tell you that.
    My question to you is about homeland security. If we are 
relying on the National Guard and Reserve so much in the force 
protection over there, what do we do to keep ourselves 
protected here?
    Secretary McHale. Senator, when I served back in the House 
there was a lot of discussion back in those days--the late 
1990s--about excess force structure and end strength in the 
National Guard. We had eight Guard divisions at that point that 
were not written into the war plans and there were frequent 
discussions. I was the co-chair of the Guard and Reserve Caucus 
and I am very familiar with the Florida Guard. General Harrison 
is a very close friend of mine.
    There were significant debates that took place as to 
whether or not we had too many folks within the National Guard 
at that time. I do not hear that discussion taking place these 
days. As I indicated earlier, by the spring of this year I 
think 37 percent of our force in Iraq will be drawn from the 
Reserve components and a large piece of that from the National 
Guard.
    Lieutenant General Blum, who is the Chief of the Guard 
Bureau, has looked very carefully at the specific issue that 
you have raised. What we are looking at is a continuation of 
Guard warfighting responsibilities overseas, with more than 
sufficient assets remaining at home for the anticipated 
homeland defense missions. Those missions typically would 
involve things we talked about earlier, such as the CSTs and 
perhaps integration into our consequence management 
capabilities.
    Also, Lieutenant General Blum is now forming joint forces 
headquarters for all of the Services, title 10 as well as the 
National Guard, at the State level under the immediate 
leadership of a National Guard staff, National Guard in the 
sense that the leadership at the senior levels would be 
coordinated by the National Guard.
    The most manpower-intensive mission that we see emerging 
for the National Guard is critical infrastructure protection. 
So if in Florida there is a credible threat, let us say, to a 
nuclear power plant and that threat is so detailed that we 
believe that civilian law enforcement cannot adequately protect 
that facility, it is anticipated that the National Guard may 
well be deployed by the governor in State status or perhaps in 
the future in Title 32 status for the physical defense of that 
facility.
    At the end of the day, a very careful analysis conducted by 
Lieutenant General Blum in reviewing existing force structure 
and end strength has led him to believe that we do have 
sufficient forces for the Guard to continue participating both 
in overseas warfighting requirements as well as the foreseeable 
homeland defense missions. We have enough folks to do it.
    Senator Bill Nelson. I would like to also ask you and 
perhaps General Eberhart a question. There was a new criteria 
that was added for the Base Realignment and Closure (BRAC) 
Commission to consider, which was the measurement of an 
installation's value to homeland security. So are you going to 
be personally, the two of you, are you going to be personally 
involved in that BRAC analysis and decisionmaking process?
    Second, what are the elements that you use to measure the 
value of a base to homeland security?
    Secretary McHale. The BRAC process obviously involves the 
close consultation with and insights provided by the military 
commanders. I would certainly expect that General Eberhart's 
opinion would be solicited because it is an important opinion. 
He has insight operationally into many of these matters.
    But the BRAC process itself is being led primarily by 
civilians, with the input of military commanders who help to 
shape their judgment. Ray DuBois has that lead for the DOD. He 
and I met yesterday on this very issue. The criterion that you 
cited I think is the number two criterion that was listed among 
the points to be considered when determining whether or not a 
given installation will be BRAC'ed.
    Points one and three also have relevance to homeland 
security implications, and I will be directly and personally 
engaged with Mr. DuBois as he makes these determinations during 
the BRAC process as to whether or not a given installation is 
so crucial to homeland defense that it ought to be spared from 
consideration of closure.
    Having said that, because of the nature of homeland defense 
missions, there are very few installations that have unique 
infrastructure that would require their continuing operation to 
support the more general homeland defense requirements--
infantry requirements, for instance, for site security. Some 
exceptions might be unique port facilities or perhaps 
facilities that have been constructed to support training with 
regard to WMD.
    But fortunately, for the most part we can train and deploy 
homeland defense forces in a wide variety of circumstances at a 
wide variety of locations.
    Senator Bill Nelson. I am not concerned about the process 
as long as I know that the uniformed military is involved in it 
and making decisions.
    Secretary McHale. Yes, sir.
    Senator Bill Nelson. General Eberhart, are you going to be 
involved in making these decisions?
    General Eberhart. Sir, I have not been told that I will 
specifically be involved, but I have every reason to believe I 
will be involved, and I will certainly ask to be involved. In 
fact, the criterion you cite is one that we promoted from 
NORTHCOM and NORAD, because we believed that criterion was not 
there before, and understandably so, in previous BRAC 
processes. But, when you look at the global war on terrorism, 
when you look at proximity to our population centers and key 
infrastructure, we think it is a criterion that should be 
included this time, and we applaud its inclusion.
    Chairman Warner. Thank you, Senator, very much.
    Senator Bill Nelson. Thank you.
    Chairman Warner. I think those were very relevant 
questions. I started out this morning talking about Secretary 
Rumsfeld's plan for relocating, and that will have an impact on 
the current BRAC process, I am sure, if he brings a lot of 
those troops home.
    Senator Bill Nelson. Mr. Chairman, as long as the uniformed 
military is directly involved in the decisionmaking, then I 
have a lot less worry. It is when they are excluded that the 
suspicion-caution flags come up.
    Chairman Warner. In the BRAC process they give specific 
recommendations to the Secretary. I think that would constitute 
active participation.
    I want to wrap up the hearing. We have really had a very 
good hearing today and I am exceedingly pleased with the 
information that you have imparted to the committee.
    In my trip to Afghanistan, Secretary O'Connell and General 
Brown, I was troubled to learn of the large increase in 
cultivation and trafficking in opium in these countries. The 
National Defense Authorization Act for Fiscal Year 2004 gives 
the DOD new authority to use DOD counterdrug funding in those 
countries. Are either of you involved in the decisionmaking 
about the Department's plan for combatting drug cultivation and 
trafficking in the region, and what efforts have been 
undertaken to fully synchronize these plans with the Department 
of State efforts?
    I have talked with General Jones about this, because there 
are plans for enlargement of NATO's role. Now, I realize that 
is out of your sphere of activities, but I stressed to General 
Jones my great concern that NATO should not be responsible for 
trying to curtail this drug trafficking. Yet, the amount of 
money being generated is enormous, and that is spreading into 
the communities, to the warlords and so forth, and of course it 
seems to me that complicates the work being done by our task 
forces over there as we try and bring about a greater degree of 
democracy.
    To what extent are either of you involved in this?
    Secretary O'Connell. Yes, sir. First, thank you for the 
question. As you may be aware, sir, the House has recently held 
several hearings on this and we have been able to testify. 
First, we do realize, the DOD does realize, that there is a 
nexus between the sins of narcoterrorism and the connections to 
terrorism itself.
    Within Afghanistan, sir, we asked for a supplemental, which 
was provided by Congress, of $73 million. Within this context, 
we recognize under several international agreements that the 
United Kingdom has the lead for counternarcotics activities 
within Afghanistan. However, the U.S. plays a significant 
supporting role. With the Department of State as the lead 
Federal agency, we coordinate very closely with International 
Narcotics and Law (INL) in the State Department.
    What we have come up with is a very good strategy. It is 
not a ``go out and hit the little guys''----
    Chairman Warner. Let me ask, who is the ``we?'' What ``we'' 
have come up with?
    Secretary O'Connell. We within SOLIC, sir, as the lead 
within Mr. Feith's office.
    We work very closely with international law enforcement, 
with the State Department, with Assistant Secretary Charles. In 
fact, we have testified I think three times together. We have 
also worked very closely with Drug Enforcement Administration 
(DEA) Administrator Karen Tandy to come up with a comprehensive 
program that dovetails with the stability operations that are 
being put in place by not only U.S. forces, but the U.S. 
Ambassador and the Afghan government.
    We do not believe that we can do anything by going out and 
whacking the little guy, the farmer. There has to be an 
alternative. Any country that has 60 percent of its gross 
national product (GNP) coming directly from the cultivation of 
drugs obviously has to contribute to terrorism. Additionally, 
we have the problem in Iran, in the United Kingdom, certainly 
in Russia, where a great amount of the drug product goes 
directly to those countries.
    With that $73 million this year, sir, we have worked with 
the CENTCOM, General Abizaid and his J-3, to come up with a 
comprehensive series of strategies that allows us to focus that 
money on the following items: One, to be able to strengthen the 
border check points against known smuggling routes.
    Two, we are using additional funds to tap the intelligence 
agencies, particularly the National Geospatial Agency, to be 
able to identify those--we know the areas of cultivation, but 
the areas that we are most concerned about at this point in 
time, sir, are the labs. We want to additionally increase the 
capability that the Afghan police and army have to target drug 
labs and to develop intelligence and use communications 
successfully.
    Additionally, we have provided a joint fusion cell which 
will include the DEA and United Kingdom activities to better 
coordinate our activities in country.
    Lastly, CENTCOM has developed specific targeting activities 
to better integrate, not only within their normal military 
operations, to better integrate the fight against 
narcoterrorism. But it must be done in conjunction with what 
the Afghan government can tolerate and what they can enforce, 
sir.
    But I am very pleased with what progress the DOD has been 
able to make.
    Chairman Warner. Senators Stevens and Hollings and myself 
took it up directly with President Karzai. He was rather bold 
on it. He said: You know, we all make mistakes and the British 
made a mistake, because they started a program where they paid 
farmers to get out of the business. So the farmer down the road 
who was not growing poppy said: I am going to get into the 
business so I get some of the pay. All of a sudden this thing 
began to grow exponentially. That, coupled with I think a 
weather pattern that has enhanced the overall crop 
productivity, has worsened this situation to enormous 
proportions.
    I do not want our troops, whether they are American troops 
or coalition forces over there, subjected to the evils that 
drug profits can render.
    Well, look. You gave me a good long bureaucratic answer.
    Secretary O'Connell. Sir, that answer was hammered out with 
lots of hours with the Secretary, the Deputy Secretary, and the 
State Department. We believe that we have a reasonable 
approach.
    Chairman Warner. Are the Brits still in charge?
    Secretary O'Connell. Yes, sir. The Brits by agreement----
    Chairman Warner. By agreement with whom?
    Secretary O'Connell. With the U.S., sir. We signed an 
agreement I believe in 2001 between the DOD and various 
elements in the United Kingdom with respect to who took certain 
responsibilities in Afghan reconstruction and the United 
Kingdom has the lead. We have a very substantial part of that 
operation.
    Chairman Warner. We gave you $73 million to implement some 
of your initiatives.
    Secretary O'Connell. Yes, sir.
    Chairman Warner. What sort of money are they putting into 
it?
    Secretary O'Connell. Sir, I do not have the exact money. It 
is very significant.
    Chairman Warner. Very significant.
    Secretary O'Connell. Absolutely, as is the German----
    Chairman Warner. They are going to stop this paying off the 
farmer bit?
    Secretary O'Connell. Sir, I do not believe that that is 
currently part of the strategy. As a matter of fact, in looking 
for alternatives, one of the things that seems to have been 
useful, instead of growing wheat, they are looking at flocks. 
Increasing flocks of livestock seems to be helpful. But there 
has to be punishment and there has to be a shutdown of the drug 
labs and there has to be some risk associated with this 
activity, and right now in many places there is no risk.
    Chairman Warner. I personally am going to just follow this. 
I would like to see you perhaps in another 90 days and let's 
you and I sit down and check on it.
    Secretary O'Connell. I would be happy to, sir.
    Chairman Warner. I thank you very much for that.
    Unmanned systems. This committee, and I had a role in it 
through the years, has really put a lot of emphasis on these 
unmanned systems. I only wish Americans could have seen that 
array of unmanned systems that you had down there at that 
exhibit last night. It was remarkable.
    Secretary O'Connell. Yes, sir.
    Chairman Warner. To be a little prosaic, it reminded me of 
when I was a youngster many, many, many years ago and I built a 
lot of model airplanes. Those unmanned planes are just like 
model airplanes. Some of them had an 8-inch wingspan, some of 
them had an 8-foot wingspan. They have very simple engines, but 
they worked better than the old clunkers that we used to have.
    But this is just wonderful, because they are force 
multipliers, they are lifesavers. I hope that you feel you have 
adequate resources and incentive just to turn loose your young 
people to put their minds on how to build all of these things.
    Secretary O'Connell. Sir, we think that is a great area 
that we are putting a lot of time, energy, and money into, 
because if you put a SOF team of 12 men out by themselves hours 
from any other friendlies, having a hand-held UAV to provide 
them their own reconnaissance around or force protection, it is 
just a very valuable piece of gear to them. So we are working 
hard to field those as fast as we can.
    Chairman Warner. Good.
    Well, we wrote into our National Defense Authorization Act 
for Fiscal Year 2004 the requirement to make a study. The study 
is due on April 1, which is only a few days away. I would be 
astonished if it makes deadline. It would be the first in a 
long time. But did you have a role in that study being 
prepared?
    Secretary O'Connell. Sir, I do not believe we did. I am not 
sure. I will have to go back and take a look. But I am not 
sure.
    Chairman Warner. You would be eminently qualified to have 
had a role in it. I will find out.
    Now, closing down the hearing today, I bring back something 
that I have been hung up on for a long time, and that is posse 
comitatus, which those following the hearing might not 
remember. Way back in 1876 there was an election that was 
allegedly jiggered by use of Federal troops and, I think 
wisely, Congress and others tried to limit the role of our 
Federal forces as it relates to State activities.
    But now it has to be reviewed in the context of the ever-
growing complexity of terrorism. General Eberhart, you very 
strongly said yesterday you are able to live under the existing 
law. I just want the record to reflect a little bit about your 
own professional views on that issue.
    General Eberhart. Yes, sir. As you said, you and I have 
discussed this on several occasions, at the confirmation 
hearing and last year's homeland defense hearing. In every one 
of these real world events, every one of these exercises, all 
these scenarios we run, we always take a very close look at 
whether or not posse comitatus or any other laws, procedures, 
or instructions tie our hands and keep us from doing what we 
need to do, and that is protect the American people and our key 
infrastructure.
    I am happy to report as of this date we have not found the 
situation. But I assure you, as I have in the past, just as 
posse comitatus has been modified many times since 1870 or 
whenever, if we find a situation where we think it should be 
modified in the interest of the citizens of this great Nation, 
we will not be reluctant to take that information to the 
Secretary of Defense and in turn to you and propose those 
changes.
    So I cannot sit here and say it never needs to be changed. 
I can just sit here and say as of now I do not know a change 
that needs to be made.
    Chairman Warner. That is a very clear answer.
    Do you have anything further, Secretary McHale?
    Secretary McHale. Sir, the only thing I would add to it is, 
as the General noted, there are numerous exceptions to posse 
comitatus. Posse comitatus only limits the use of Title 10 
forces for law enforcement purposes. If within the United 
States we use Title 10 forces for a military purpose, it falls 
under what is called the military purpose doctrine. 
Particularly if that involves foreign terrorists or a foreign 
policy consideration, then that activity is not covered by 
posse comitatus.
    So for instance, our quick reaction forces can deploy 
within the United States under the military purpose doctrine. 
They are not deploying for law enforcement purposes. They are 
deploying to defeat al Qaeda. That activity is not covered by 
posse comitatus.
    Then finally, sir, it is important to emphasize that the 
National Guard, both in State status and Title 32 status is 
similarly exempt from posse comitatus. So we have a combination 
of Guard capabilities and military capabilities when used for a 
military purpose, and that is a pretty big range of discretion 
in terms of the use of military force.
    Chairman Warner. On that issue I close out with a story 
from Senator Roberts, and I was listening in the hearing room 
when the old sheriff got up and said: It is going to take a 
long time for you folks to get here and I am going to be in 
charge, and I will do damn well as I please to straighten this 
situation out. So apply a little of that old guts to it and it 
will work out.
    Lastly, the force protection of our military bases and 
facilities here in the continental limits of the United States, 
which we now recognize is a potential area for problems. 
Overseas, the combatant commanders have the right to establish 
a uniform set of force protection measures throughout their 
AORs. Here, however, it falls to the individual Service 
chiefs--the Chief of Staff of the Air Force, the Chief of Staff 
of the Army, and so forth. I am concerned that we do not have 
someone looking at the uniformity of this situation.
    Now, what should we do here? Does this lend itself to some 
legislation on this subject? You may not be able to answer this 
today, but I would like to have you provide information in the 
next week or 2, Mr. Secretary, the views of you and perhaps the 
DOD on whether or not any legislation is needed to ensure that 
there is some uniformity among our bases and installations here 
in this country.
    [The information referred to follows:]

    The Secretary of Defense has made a decision on the force 
protection of our military bases and facilities here in the continental 
limits of the United States. Effective not later than October 1, 2004, 
the Commander, U.S. NORTHCOM (CDRUSNORTHCOM), will exercise 
responsibility for antiterrorism and force protection within the 
continental United States. This responsibility is subject to the 
following conditions: First, CDRUSNORTHCOM cannot move DOD personnel 
unless faced with a time-critical event involving potential lost of 
life, or personnel movement is required to prevent significant damage 
to mission critical infrastructure. CDRUSNORTHCOM will notify the 
Secretary of Defense immediately of such time-critical personnel 
movements. Second, CDRUSNORTHCOM will seek Secretary of Defense 
approval of pending changes to the force protection condition no later 
than 24 hours prior to implementation or as soon as practicable if 
faced with a critical event.
    Based on the decision by the Secretary of Defense, I do not believe 
legislation on this topic is necessary.

    Secretary McHale. Sir, this issue is right now before the 
Secretary of Defense and he has not yet made a decision. I 
think there is a consensus that the status quo is not 
acceptable in that the status quo does not provide for the 
uniformity of antiterrorism force protection conditions that 
you have described. As a matter of fact, at least three of us 
seated at this table have been deeply involved in that 
discussion.
    I anticipate that it will go to the Secretary of Defense 
within the next 2 weeks, and my expectation is that his 
decision will render unnecessary any legislation on the 
subject. He is going to decide what kind of command authority a 
combatant commander should have within his own AOR to achieve 
uniformity of antiterrorism force protection and what the 
relationship in terms of command authority should be between 
the combatant commander and the forces that are now within the 
individual services.
    So although there is spirited discussion on the issue, I 
think the Secretary is going to settle it within the next 
couple of weeks.
    Chairman Warner. General Eberhart, do you have some views 
on this?
    General Eberhart. Sir, I will echo what Secretary McHale 
said. Obviously, we have looked at several different ways to do 
this. The Secretary is concerned by what you said. He does not 
like the fact that in the past one Service might be at force 
protection condition alpha and another Service at bravo here in 
this AOR. In fact, now he is the person who synchronizes the 
force protection level for this AOR.
    So I think the question will remain whether or not he 
continues to do that or whether or not he has me do that in 
consultation with him. But, I make a recommendation.
    Chairman Warner. I think it would be very wise to repose in 
your command that authority. We would like to have a point of 
accountability and that would be a good idea.
    General Eberhart. Sir, that is one of the options he is 
considering.
    Chairman Warner. Well, indicate that I endorse that option.
    Thank you very much, gentlemen and those ladies that are in 
attendance and support, and all others. We have had an 
excellent hearing, with some very reassuring testimony.
    [Questions for the record with answers supplied follow:]
              Question Submitted by Senator Lindsey Graham
                       arrow technology ventures
    1. Senator Graham. General Brown, the Central Intelligence Agency 
(CIA) has a venture capital program called ``In-Q-Tel'' that identifies 
and invests in companies engaged in cutting-edge technologies for the 
Intelligence Community. Similarly, the Army has a venture capital 
effort, mandated by Congress, focusing on new battery and power 
technologies. I understand that Special Operations Command (SOCOM) 
wants to establish a program akin to ``In-Q-Tel'' called, ``Arrowhead 
Technology Ventures,'' that would leverage innovative technologies for 
Special Operations Forces (SOF). Could you expand on Arrowhead's 
mission, how and when you would plan to execute it, and the benefits 
that your warfighters would gain from it?
    General Brown. During the past year, SOCOM has evaluated the 
potential for venture capital type initiatives in support of SOF and 
our global war on terrorism mission. Seeking the advice and mentorship 
of the CIA and ``In-Q-Tel,'' we have found two aspects of their success 
with the venture capital process which appear applicable to SOCOM 
requirements. The first is the opportunity to gain an early familiarity 
with start-up technologies that could prove beneficial for transforming 
SOF capabilities. Second, the venture capital process itself provides 
an excellent venue for working with emerging companies who have limited 
government development and/or acquisition experience but who have 
created cutting edge technologies. Should we receive such funding, I 
would envision a competitive environment wherein Arrowhead Technology 
Ventures as well as a number of other promising venture capital 
companies could be of assistance.
                                 ______
                                 
           Questions Submitted by Senator Joseph I. Lieberman
                 information sharing and communications
    2. Senator Lieberman. General Eberhart, in your written testimony 
you noted briefly that we ``have made significant progress in improving 
the exchange of threat information.'' You cited the example of the 
recent orange alert during the holiday season, when ``time-sensitive'' 
information moved quickly from intelligence and law enforcement 
agencies to those decisionmakers who were challenged with mitigating 
various threats. I have no doubt that, when the threat alert is 
heightened, officials at all levels of government redouble their 
efforts to communicate. But, what has been done to change the day-to-
day communication processes that many believe still do not result in 
adequately sharing information across all levels of government?
    General Eberhart. We are promoting information sharing among 
homeland defense and homeland security partners. To date we've outlined 
how to communicate with over 800 potential mission partners and share 
our Common Operational Picture with 35 different organizations, 
including 17 non-Department of Defense (DOD) agencies. In addition, we 
have established linkages with the Department of Homeland Security's 
(DHS) Information Analysis and Infrastructure Protection Directorate, 
the Federal Bureau of Investigation's National Joint Terrorism Task 
Force, the Terrorist Threat Integration Center (TTIC) and the CIA's 
Counterterrorist Center (CCTC).

    3. Senator Lieberman. General Eberhart, what is Northern Command's 
(NORTHCOM) role in effectively creating new processes and paradigms, 
where critical information is shared routinely, and not just during 
heightened alerts?
    General Eberhart. Homeland defense requires that we take an active 
role in eliminating impediments to information sharing. In June 2004, 
we will host the Chairman of the Joint Chiefs of Staff Joint Warrior 
Interoperability Demonstration to assess the military utility of 
potential homeland defense information sharing capabilities. This 
demonstration will involve 32 trials at 5 locations across the United 
States and include participation from the DOD and DHS. We will nominate 
successful results as joint standards and, if approved, provide these 
capabilities to our mission partners.

    4. Senator Lieberman. General Eberhart, what do you believe are the 
major obstacles that must be overcome before critical homeland security 
information is shared routinely, across all levels of government and 
with the private sector?
    General Eberhart. We believe the primary obstacle is cultural vice 
technical and more limited by policy and procedures than system 
incompatibilities. In real-world operations and exercises, we are 
promoting a ``need to share'' approach and are committed to improving 
situational awareness at the local, State, and Federal levels.

    5. Senator Lieberman. Secretary McHale, just as in combat 
operations, robust communication capabilities are essential to the 
successful execution of crisis response operations. The horrific 
attacks on September 11, 2001, exposed not only that our Nation is 
vulnerable to hostile acts, it also showed that the communication 
infrastructure relied upon by our first responders and regional and 
national leaders needs improvement. On that fateful morning, 
firefighters and police forces were not able to communicate with each 
other, and in some cases with local command posts, to attain better 
situational awareness. It is argued that many lives were lost due to 
the failures of our communication systems. This problem must be dealt 
with. Our Nation requires reliable communication capabilities linking 
state command posts, National Crisis Management Centers (such as 
NORTHCOM and the Department of Homeland Security Operations Center), 
first responders and our national leadership. What projects are the DOD 
and DHS undertaking to improve the Nation's crisis response 
communications infrastructure?
    Secretary McHale. In order to improve the Nation's communication 
infrastructure, the administration created the SAFECOM program, an 
initiative managed within the Department of Homeland Security, with the 
mission to help local, tribal, State, and Federal public safety 
agencies improve public safety response through more effective and 
efficient interoperable wireless communications. The program was 
designed specifically to coordinate the efforts of all Federal agencies 
in order to ensure that all levels of government will become 
interoperable. SAFECOM, at the invitation of my office, is working 
actively with major elements of the Department of Defense, including 
NORTHCOM, the National Guard Bureau, the Army Land Mobile Radio System, 
the Joint Tactical Radio System, and others. SAFECOM has also included 
my office in briefings and planning sessions and we have included 
SAFECOM personnel in appropriate strategic planning sessions.

    6. Senator Lieberman. Secretary McHale, are National Guard Bureau 
requirements being considered in any of these projects?
    Secretary McHale. The Director of the SAFECOM Program Office, in 
coordination with my Office, has met with the Chief of the National 
Guard Bureau and many of the State Adjutants General to develop 
coordinated interoperability strategies. My office further arranged for 
the SAFECOM Program Office to brief the Defense Science Board on two 
different occasions and has included SAFECOM in our Strategic Planning 
Guidance Study to ensure that opportunities for coordination are 
identified and undertaken.

                         intelligence analysis
    7. Senator Lieberman. General Eberhart, in your written testimony, 
you point out that NORTHCOM has established a Combined Intelligence and 
Fusion Center, which ``coordinates the acquisition, analysis and fusion 
of intelligence, counterintelligence and law enforcement information . 
. . and shares that information with organizations at the national, 
State, and local levels.'' As you describe it, the Fusion Center 
appears to overlap with other intelligence analysis units focused on 
homeland security. What is the relationship between the Combined 
Intelligence and Fusion Center at NORTHCOM with other intelligence 
analysis centers, specifically the Information Analysis and 
Infrastructure Protection Directorate at the DHS; the TTIC; the CTC at 
the CIA; and the intelligence analysis unit at the Federal Bureau of 
Investigation (FBI)?
    General Eberhart. The Combined Intelligence and Fusion Center 
collaborates with the analytic centers in Washington, DC, to develop 
and exchange products and to ensure threat intelligence and information 
is shared among the watch centers.

    8. Senator Lieberman. General Eberhart, what issues have you 
identified that relate to how these centers might complement, rather 
than compete with, one other, and how are they being addressed by the 
agencies involved?
    General Eberhart. We do not believe there is a problem with 
``competing'' analysis from various centers. While they share 
intelligence and information, each agency has its own audience, views 
the threat based on its mission and reports the threat to its 
consumers.

    9. Senator Lieberman. General Eberhart, what is your center's 
relationship with State and local governments and local law enforcement 
and how are you cooperating with DHS in establishing these 
relationships?
    General Eberhart. We work with the DHS and the FBI to share 
information with State and local governments. We pass threat warning 
information to the FBI's National Joint Terrorism Task Force for 
subsequent relay to the Joint Terrorism Task Force in each State, as 
appropriate. In concert with the lead Federal agency, we coordinate 
directly with State-level Joint Terrorism Task Forces for special 
events that may involve DOD assets.

    10. Senator Lieberman. General Eberhart, does NORTHCOM maintain a 
list of suspected terrorists who might be operating inside or outside 
the U.S. and, if so, how is what you are doing related to the watch 
lists being consolidated by the Terrorist Screening Center?
    General Eberhart. NORTHCOM does not maintain lists of suspected 
terrorists who might be operating inside the United States. We do 
follow the movements and activities of known and suspected terrorists 
outside the United States via intelligence and law enforcement sources 
and methods to help ascertain if they have contacts or operatives in 
the continental United States, Canada, or Mexico.
    We are aware of the DHS's Terrorist Screening Center watch list; 
however, we do not participate in this law enforcement activity. 

    11. Senator Lieberman. General Eberhart, does your intelligence 
center produce intelligence products that analyze the threat to our 
homeland? If so, how often are these products produced and with whom 
are they routinely shared?
    General Eberhart. Yes, we share intelligence products daily with 
the DHS, the FBI and the TTIC, as well as other agencies within the 
Intelligence Community.

            weapons of mass destruction civil support teams
    12. Senator Lieberman. Secretary McHale, the DOD is in the process 
of expanding the number of Weapons of Mass Destruction-Civil Support 
Teams (WMD-CSTs), comprised of Army and Air National Guard members. The 
CSTs are ``federally resourced, trained, and evaluated, but fall under 
the command and control of the State governors.'' On March 9, 2004, the 
DOD announced that 12 new CSTs would be funded, including one in my 
State of Connecticut--bringing to 44 the total that have been 
announced. However, the goal is to ensure that every State and 
territory has at least one of these teams in place. I also understand 
that some States, because of their size, may need more than one. When 
will the full complement of WMD-CSTs be in place?
    Secretary McHale. Congress appropriated funds for the establishment 
of 12 teams in fiscal year 2004. In August 2004, the President signed 
the Fiscal Year 2005 Defense Appropriations Act, which provided funds 
for 11 additional WMD-CSTs, thus meeting the requirement of Section 
1403 of Public Law 107-314 (Section 12310 of Title 10 United States 
Code (U.S.C.), which required WMD-CSTs in all 55 States and U.S. 
territories.

    13. Senator Lieberman. Secretary McHale, since the CSTs are under 
the command of governors, how will they be integrated into NORTHCOM's 
planning for response to WMD events?
    Secretary McHale. CSTs normally operate in Title 32 U.S.C. status 
(State control, Federal funding) under the command of the State 
Governor; NORTHCOM has no command and control relationship with the 
CSTs. In this status, NORTHCOM has no command and control relationship 
with the CSTs. However, given the possibility that CSTs under State 
command and control and Title 10 forces under NORTHCOM command and 
control will find themselves responding to a WMD event in the same 
area, there is a need for command relationships that enable unity of 
effort. Unity of effort, as defined by Joint Publication 3-0 ``Doctrine 
for Joint Operations,'' ``requires coordination and cooperation among 
all forces toward a commonly recognized objective, although they are 
not necessarily part of the same command structure.'' Unity of effort 
is paramount to best serving the needs of the Nation.
    Command relationship protocols are necessary to allow for the 
seamless unity of effort essential to successfully complete the task at 
hand. These relationships are also an inherent element of the NORTHCOM 
and Pacific Command (PACOM) exercise programs and a common focus of the 
Commanders, NORTHCOM and PACOM, the National Guard Bureau, and the 
State Adjutants General. For example, the Federal response to the 
tragic end of the Shuttle Columbia saw many Reserve component forces 
and resources operating under the integrating command and control of 
NORTHCOM.
    Alternatively, in the case of a catastrophic WMD event where the 
DOD support has been requested by civil authorities and approved by the 
Secretary of Defense, some CSTs could be Federalized and integrated 
into the overall response efforts of NORTHCOM in the continental United 
States, Alaska, Puerto Rico, and the U.S. Virgin Islands or PACOM in 
Hawaii or Guam.

    14. Senator Lieberman. Secretary McHale, what initiatives are 
underway to expand NORTHCOM's WMD response capabilities, and how do 
these capabilities relate to other national WMD response capabilities, 
such as the U.S. Department of Energy's (DOE) Nuclear Emergency Search 
Team (NEST)?
    Secretary McHale. When authorized by the Secretary of Defense, 
Joint Task Force Civil Support, headquartered in Norfolk, Virginia, 
Joint Task Force Consequence Management East, headquartered at Fort 
Gillem, Georgia, or Joint Task Force Consequence Management West, 
headquartered at Fort Sam Houston, Texas, under the command and control 
of NORTHCOM, would provide consequence management support to civil 
authorities.
    When needed, other existing assets such as the Marine Corps' 
Chemical, Biological Incident Response Force, the Army's Tech Escort 
Units, Chemical, Biological Rapid Response Teams, Domestic Response 
Causality Decontamination Units, or, when federalized, the National 
Guard WMD-CSTs can be also assigned to NORTHCOM to provide consequence 
management support to civil authorities.
    Additionally, the following initiatives contribute to improved DOD 
WMD consequence management capabilities that can be employed by 
NORTHCOM:

        <bullet> Headquarters, Army Chemical, Biological, Radiological, 
        Nuclear and High Yield Explosive (CBRNE) Command. The 
        Department of the Army recently approved the creation of 
        Headquarters, CBRNE Command. With an initial operational 
        capability of fiscal year 2004, this headquarters will provide 
        worldwide command and control of Army CBRNE response assets, to 
        include the Army's Explosive Ordnance Disposal units and the 
        Army's Technical Escort Units. Currently, the Army plans to 
        place this organization under the command and control of U.S. 
        Army Forces Command, with a strong supporting relationship to 
        NORTHCOM.
        <bullet> National Guard CBRNE Enhanced Response Force Package 
        (NG CERFP): The National Guard Bureau is currently developing 
        regional CBRNE response force packages. Their mission: on 
        order, respond to a CBRNE incident and assist local, State, and 
        Federal agencies in conducting consequence management by 
        providing capabilities to conduct personnel decontamination, 
        emergency medical services, casualty search and extraction and 
        perimeter security. During a CBRNE event, the CERFP will work 
        in coordination with Federal military forces under the command 
        and control of NORTHCOM as part of the overall national 
        response. If federalized for a mission in the NORTHCOM area of 
        responsibility, the CERFP will likely be under the operational 
        control of NORTHCOM.
        <bullet> Project Guardian: To ensure DOD installation emergency 
        preparedness for WMD events, Project Guardian will enhance the 
        capabilities of 200 DOD installations (185 in CONUS, 15 
        overseas). This program includes enhancements in CBRN 
        detection, identification, and warning; protection; 
        decontamination; CBRN information management; medical 
        protection, surveillance and response; and emergency first 
        responders; while simultaneously leveraging existing 
        installation physical security, logistics, sustainment, 
        maintenance, and command and control. As with other DOD 
        resources employed in support of civil authorities after a 
        CBRNE event, NORTHCOM would have operational control of the 
        resources in their area of responsibility.

                           special operations
    15. Senator Lieberman. Secretary O'Connell, under existing budget 
authority, SOCOM has the ability to procure off-the-shelf equipment and 
manage/fund modification efforts to enhance current military hardware 
to meet the unique requirements of special operations troops. Is it 
your opinion that SOCOM currently has sufficient input into the 
requirements definition, planning, and acquisition of major defense 
programs?
    Secretary O'Connell. Yes, through close cooperation and 
collaboration with the military departments, SOCOM is able to provide 
significant input throughout the research, development, and acquisition 
process for major defense programs. Examples of Major Defense 
Acquisition Programs with significant SOCOM involvement include the 
following:

        <bullet> Blackhawk Upgrade (UH-60M)--Utility Helicopter Upgrade 
        Program
        <bullet> CH-47F--Cargo Helicopter Upgrade Program
        <bullet> ATIRCM/CMWS--Advanced Threat Infrared Countermeasures/ 
        Common Missile Warning System
        <bullet> V-22 Osprey--Joint Advanced Vertical Lift Aircraft
        <bullet> SSGN--Ohio Class Conversion
        <bullet> SSN 774--Virginia Class Submarine
        <bullet> ASDS--Advanced SEAL Delivery System
        <bullet> C-130J--Hercules Cargo Aircraft
        <bullet> C-130 AMP--C-130 Aircraft Avionics Modernization 
        Program

    16. Senator Lieberman. Secretary O'Connell, on page 8 of your 
testimony, you cite that one effect of the global war on terrorism has 
been a significant increase in operational tempo for SOF. The DOD has 
added 3,700 additional personnel during the period fiscal years 2004-
2009 for SOCOM. You stated that the increases are focused on fixed and 
rotary-wing aviation specialists, SEAL teams, civil affairs (CA), 
psychological operations (PSYOP), and Theater Special Operations 
Commands. Is there also a requirement for additional training of SOCOM 
linguists?
    Secretary O'Connell. Yes. SOCOM has both linguists and language-
capable operators built into these 3,700 additional billets. SOCOM will 
gain 60 active component military intelligence linguists, 147 language 
capable CA specialists, and 154 language capable PSYOP specialists. 
Naval Special Warfare Command will gain 254 language capable SEALs and 
Special Warfare Combat Crewman (SWCC). All of these carry additional 
language training costs for SOCOM with the exception of the 
intelligence linguists which are provided by the Army. All of these 615 
billets have been validated at proficiency level 2/2/2.
    Overall, SOCOM's language program requires less than 10 percent of 
the Defense Foreign Language Program budget and trains 12,100 special 
operations personnel. The SOF proficiency level, currently 0+/0+, is 
being re-looked and will likely be validated at level 2/2/2 for four 
soldiers on each Special Forces Operational Detachment-A and level 1/1/
1 for all other soldiers.

    17. Senator Lieberman. Secretary O'Connell, based in the expected 
future operational workload for SOCOM, do you foresee the need for even 
larger increases in your personnel?
    Secretary O'Connell. Yes. SOCOM will add 1,594 SOF personnel in 
fiscal year 2005. Additional growth is required over the next 5 years 
to increase capabilities in critical areas such as CA, PSYOP, U.S. Navy 
SEALs, SOF, and special operations aviation. These additions will 
enhance the Command's ability to prosecute the war on terrorism. As the 
war progresses we will continue to monitor the situation as special 
operations forces cannot be mass produced and our Reserve and active 
component mix requires careful balancing. With SOF personnel in high 
demand in the civilian sector, we are experiencing some loss of 
personnel that must also be carefully monitored. SOCOM will remain 
focused on personnel end strengths and will request additional growth 
when necessary to support the war on terrorism.

    18. Senator Lieberman. General Brown, what resources do you feel 
SOCOM forces require in the future to further improve their 
effectiveness as they continue world-wide operations in support of the 
global war on terrorism?
    General Brown. SOCOM continues to focus resources to address three 
critical challenges: planning and directing the global war on 
terrorism; preserving readiness of our SOF; and transforming SOF to 
more agile, adaptive, and responsive warriors. In terms of force 
structure, we will continually need to recruit, assess, train and 
develop more SOF. Congressional support of our fiscal year 2005 budget 
request at current levels is critical to sustaining our fiscal year 
2004 and fiscal year 2005 force structure increases. As indicated 
during the hearing, if we find any requirements for additional 
resources we will let you know.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                           hawaiian security
    19. Senator Akaka. General Eberhart, I understand you are 
responsible for all policies and programs involving the Air Force and 
Navy strategic nuclear forces in support of national security 
objectives. In your written statement, you say that NORTHCOM is working 
with other regional combatant commands to eliminate threats to our 
homeland from outside your area of responsibility. Could you provide 
information on what you are doing regarding the coordination between 
NORTHCOM and PACOM regarding national homeland security for Hawaii and 
the Pacific Island Territories?
    General Eberhart. NORTHCOM and PACOM have exchanged liaison 
officers who coordinate on issues impacting the commands--this 
arrangement is working well. In addition, planners from both commands 
regularly discuss our common mission. For operational issues, officers 
in our Domestic Warning Center contact PACOM's Joint Operations Center 
for events affecting Hawaii and the PACOM area of responsibility.
    As a point of clarification, please note NORTHCOM does not have 
responsibility for strategic nuclear forces; United States Strategic 
Command has that mission.

    20. Senator Akaka. Secretary McHale, your office has stated that 
good working relationships have been established with all homeland 
security players to include NORTHCOM, the DHS, and law enforcement 
agencies to help make the United States more secure. Hawaii is a unique 
State out in the Pacific as you are well aware. Since your confirmation 
last year, could you tell me what special needs of Hawaii were 
considered by your office when developing homeland security policy?
    Secretary McHale. Since my confirmation, I have ensured that we 
consider our homeland defense responsibilities in their fullest 
context. The PACOM and its responsibilities in Hawaii, as well as the 
Pacific territories of Guam, American Samoa, and the Commonwealth of 
the Northern Marianas Islands have been given equal consideration as 
the NORTHCOM and its responsibilities within the continental United 
States.
    I made a point of traveling to Hawaii early in my tenure, in May 
2003, to meet with our military commanders and officials of the state 
of Hawaii to gain a first hand impression of their views. One of my 
deputy assistant secretaries was a speaker at the Governor's Inaugural 
Asia-Pacific Homeland Security Summit last December and joined in the 
Emergency Response panel hosted by Hawaii state officials and the 
Hawaii National Guard.
    We have recognized the vital role that the Hawaii National Guard 
plays in both the defense of Hawaii and its emergency response 
capabilities to deal with natural and manmade disasters. Let me give 
you an example:
    Military mission success depends upon the readiness, reliability, 
and sustainability of our military forces. The successful training, 
equipping, deploying, and supporting of these forces is dependent upon 
critical supporting infrastructures, e.g., power, water, 
communications, transportation, etc. My office, in concert with Admiral 
Fargo's staff, recognized the interdependencies that exist between 
PACOM and its forces and  the State of Hawaii. Towards that end, PACOM 
and our Defense Program Office for Mission Assurance undertook a 
comprehensive study and analysis of Hawaii's critical infrastructure, 
in order to determine its vulnerabilities and potential single points 
of failure. This information is now the basis of planning between the 
command, the Hawaii National Guard, and the State's Emergency 
Management staff and directly contributes to our homeland defense and 
security preparedness as well as enhancing Hawaii's ability to deal 
with natural and man-made disasters. Furthermore, my Director of 
Critical Infrastructure visited Hawaii's Emergency Management 
Operations Center to ensure our efforts were synergized to meet the 
State's needs and was assured of their complete satisfaction.

    [Whereupon, at 12:26 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

                              ----------                              


                        THURSDAY, APRIL 1, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

    UNIFIED AND REGIONAL COMMANDERS ON THEIR MILITARY STRATEGY AND 
                        OPERATIONAL REQUIREMENTS

    The committee met, pursuant to notice, at 9:36 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, Allard, 
Sessions, Ensign, Levin, Reed, Akaka, Bill Nelson, E. Benjamin 
Nelson, and Pryor.
    Committee staff member present: Judith A. Ansley, staff 
director.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Gregory T. Kiley, professional staff 
member; Thomas L. MacKenzie, professional staff member; Paula 
J. Philbin, professional staff member; Lynn F. Rusten, 
professional staff member; and Diana G. Tabler, professional 
staff member.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; and Evelyn N. Farkas, professional 
staff member.
    Staff assistants present: Michael N. Berger, Sara R. 
Mareno, and Bridget E. Ward.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; Arch Galloway II, assistant to 
Senator Sessions; D'Arcy Grisier, assistant to Senator Ensign; 
William K. Sutey, assistant to Senator Bill Nelson; and William 
Todd Houchins, assistant to Senator Dayton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, all. Thank you for 
weathering a rather difficult day to get here.
    We meet today to receive testimony from: Admiral Fargo, 
Commander of the Pacific Command (USPACOM); General Hill, 
Commander of the Southern Command (USSOUTHCOM); and General 
LaPorte, Commander, United States Forces in Korea (USFK). We 
welcome all of you this morning and thank you for finding the 
time to visit with some members of the committee prior to the 
hearing.
    This is the last in a series of hearings by this committee 
this year, conducted over the past few weeks, to receive 
testimony from our Nation's combatant commanders. Gentlemen, 
you are our warfighters. We welcome your insight on 
developments in your area of responsibility (AOR) as well as 
your assessment of the 2005 defense budget request.
    Each of you has a long and distinguished record of service 
to our Nation. I want to thank you, on behalf of the committee 
and indeed Congress, for your leadership, dedication, and 
service. We ask you to convey to the very fine men and women 
and their families under your commands the gratitude of this 
committee and indeed the Congress. The entire Nation, I think, 
is at an all-time high in supporting and recognizing their 
sacrifices, their professionalism, their dedication to the 
cause of freedom.
    I continue to view with great concern developments in the 
Korean Peninsula, particularly the developments relating to 
North Korea's ongoing nuclear program. Over the past year, 
North Korea has withdrawn from the Nuclear Nonproliferation 
Treaty and appears to have resumed reprocessing activities. 
Resumption of North Korea's nuclear weapons program poses a 
grave threat to the region and indeed to international 
stability.
    The United States, in conjunction with its allies and 
friends in that region, is working responsibly to try to 
resolve this situation through diplomatic means. Hopefully, 
this diplomatic approach will be successful.
    I look forward to hearing Admiral Fargo's and General 
LaPorte's assessments of the situation on the peninsula. I am 
particularly interested in any changes you have seen over the 
past year in North Korea's military posture as well as your 
assessment of North Korea's nuclear program, ballistic missile 
and proliferation activities--underline the ``proliferation 
activities,'' and the readiness of our forces to deter and, if 
necessary, to respond to any developments on the peninsula both 
now and in the future.
    Developments in China are always of concern to this 
committee. The recent election period in Taiwan was a period of 
increased tensions across the Taiwan Strait. We are interested 
in Admiral Fargo's views on the current China-Taiwan 
relationship and how concerned we should be about the potential 
for miscalculation in that situation. I would also appreciate 
an update on the U.S.-China military-to-military relationship 
and I commend you, Admiral, for taking a leadership position in 
this area.
    In the Asia-Pacific region, the global war on terrorism is 
being waged in Singapore, Malaysia, Thailand, the Philippines, 
Indonesia, and other nations. Through Operation Enduring 
Freedom (OEF)-Philippines, the U.S. military continues to 
provide training, advice, and assistance to the armed forces of 
the Philippines to improve their capability to deal with 
terrorist threats. I look forward to hearing your update on 
your efforts to counter numerous terrorist and transitional 
threats in your critical AOR, Admiral.
    As elsewhere in the world, it has been a busy year in 
USSOUTHCOM. Detainee operations at Guantanamo--my distinguished 
colleague Mr. Levin was down visiting a short time ago--
political unrest in Haiti, and continuing efforts to assist the 
government of Colombia in its struggle with narcoterrorists are 
but a few of the many issues that General Hill has confronted 
over the past year.
    Recently the President of Colombia came up to visit with 
the leadership in the Senate and I was privileged to join in 
that important meeting. Of particular interest to the committee 
is the current situation, again, in Colombia. There are 
indications that the president of Colombia has made 
considerable progress in defeating the drug-funded terrorist 
insurgency in his country and that a modest increase in support 
from the U.S. could be decisive.
    We look forward to General Hill's assessment of this 
situation as well as the update on operations in Haiti and an 
overview of the challenges and priorities in this important 
region.
    The committee is very interested in the plans of the 
Department to restructure the basing of U.S. military forces 
worldwide. I ask all of you to comment on the global footprint 
and its impact on your respective AORs.
    Yesterday, Admiral, we had a particularly interesting 
discussion--Senator Levin joined us for a while--on the subject 
of how, understandably, so much of our attention is focused on 
the situation in Iraq and Afghanistan, but at the same time the 
threats primarily in your AOR cover the entire spectrum of 
types of challenges to the military. For example, fortunately 
there are no submarines involved in the conflicts that I have 
just enumerated, whereas there are some 250, you said, 
different types of submarines operated by different nations in 
your AOR. That is very significant.
    So we look forward to your testimony and I hope that you 
will touch on how, as we address these situations in Iraq and 
Afghanistan with tremendous efforts, we have to be mindful of 
the entire spectrum of threats worldwide.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman. Let me first join 
you in welcoming our three distinguished witnesses here this 
morning. We have asked each of these commanders to share with 
us a threat assessment in their AOR, a report on current 
military operations under their command, an assessment of how 
adequately the budget request for fiscal year 2005 and beyond 
meets their operational readiness and quality of life 
requirements.
    In Asia, we face on the Korean Peninsula the most serious 
nuclear crisis since 1994. In South and Southeast Asia, another 
breeding ground and AOR in the war on terrorism. In the Taiwan 
Straits, political-military tensions. On the South Asian 
continent, two nuclear rivals, India and Pakistan, in an uneasy 
truce.
    Last October, the North Koreans declared that they had 
repro-cessed all 8,000 plutonium fuel rods that had been canned 
and frozen for 7 years under the Agreed Framework from 1994 to 
2003. This came after North Korea had expelled the 
International Atomic Energy Agency inspectors, withdrawn from 
the Nonproliferation Treaty, and stated that it had restarted 
its 5-megawatt nuclear reactor. In January the North Koreans 
demonstrated to a U.S. delegation that they have removed the 
plutonium fuel rods from storage and that they have restarted 
their reactor.
    On March 2, Assistant Secretary of State for East Asian and 
Pacific Affairs James Kelly testified that it was, in his 
words, ``quite possible'' that North Korea had reprocessed all 
of the fuel. He subsequently told the media that the 
intelligence estimate had not changed and that, ``the operative 
phrase I use is `we do not know for sure.' ''
    According to a report released in January by the 
International Institute for Strategic Studies, if they 
processed all the fuel, the North Koreans could have as many as 
seven nuclear weapons. Meanwhile, the report adds, the 5-
megawatt reactor could provide enough plutonium for about 
another bomb this year. By the end of 2004, we could be 
confronted with a situation where North Korea, in just the last 
year, has added six new nuclear weapons to its arsenal. If the 
North Koreans completed construction on two larger reactors, 
50- and 200-megawatts respectively, the picture could be 
exponentially worse.
    Meanwhile, the third round of talks in the last year 
concluded with only an agreement to establish working groups 
for technical discussions and a commitment to meet again before 
the end of June. The administration insists that the North 
Koreans must agree to a complete and verifiable and 
irreversible dismantlement of their nuclear weapons before we 
negotiate with them.
    The administration should also be putting forward a package 
that addresses North Korea's core demands. That does not mean 
meet all their demands. It means address their core demands, 
respond to them. The North Koreans appear to have used the last 
year and a half to further their nuclear ambitions. Serious 
negotiations are the only hope of ending their nuclear programs 
and potential nuclear proliferation.
    I hope that Admiral Fargo and General LaPorte can tell us 
more about their assessment of North Korea's nuclear, missile, 
and conventional capabilities, their drug-related activities, 
and the quality of our intelligence regarding North Korea.
    The North Korean threat derives some of its potentially 
deadliest features from the specter of proliferation to 
terrorists. The war on terrorism in Asia, the Western 
Hemisphere, and elsewhere is a race to neutralize the terrorist 
leaders and to prevent their replacement and new recruits to 
these networks of death.
    Secretary Rumsfeld reportedly asked, in an internal memo 
last October, the following: ``Are we capturing, killing, or 
deterring and dissuading more terrorists every day than the 
madrassas and the radical clerics are recruiting, training, and 
deploying against us?'' I hope that Admiral Fargo and General 
Hill will answer that question with respect to their respective 
AORs.
    In the Western Hemisphere, the threat comes primarily from 
narcoterrorists and from failing states. The work of our 
military in supporting the Colombian government's fight against 
narcoterrorists is bearing fruit as the government increases 
its control over its territory, captures or kills the top 
terrorist leaders, eradicates increase hectares of coca, and 
moves towards negotiations with the paramilitaries. Much 
remains to be done and most of it is hard political, economic 
work.
    I hope General Hill will also update us on the U.S. 
military involvement in Haiti, the prospects for restoring 
stability in that unfortunate country, and any plans for U.S. 
participation in the multinational force.
    Finally, I would note that the military operations in Iraq, 
Afghanistan, Haiti, the Horn of Africa, and elsewhere have put 
enormous strains on our military forces, both active and 
Reserve. As the chairman also requested, I would ask each of 
our witnesses to assess the impact of this high operational 
tempo (OPTEMPO) on the forces assigned to or earmarked for 
their area and the challenges that would result if conflict 
broke out in their AOR.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Levin.
    Senator Reed, do you have a remark or two?
    Senator Reed. Just to welcome General LaPorte, Admiral 
Fargo, and General Hill and thank them for their service to the 
country. Thank you.
    Chairman Warner. Thank you.
    Admiral Fargo, please proceed. We will place into today's 
record your statements in their entirety.

STATEMENT OF ADM THOMAS B. FARGO, USN, COMMANDER, UNITED STATES 
                        PACIFIC COMMAND

    Admiral Fargo. Thank you. Mr. Chairman, Senator Levin, and 
distinguished members of the committee: Thank you for this 
opportunity to testify on the posture of the USPACOM. I have 
the honor to represent thousands of men and women, Active, 
Guard, Reserve, and civilians, and of course their family 
members, who are providing superior service to the Nation in 
the Asia-Pacific region and indeed around the world. Their high 
readiness and effectiveness can be directly attributed to the 
generous support of this esteemed body and of the American 
people as a whole.
    Today I would like to survey our primary security concerns 
in the region and then I look forward to answering your 
questions, and I appreciate your placing my statement into the 
record, Mr. Chairman.
    Dramatic events in Southwest Asia, for which the USPACOM 
continues to be a primary force provider, have not eclipsed the 
importance of the Asia-Pacific threats to global security, nor 
our attention to them. First and foremost, we are keenly 
focused on the Korean Peninsula. General LaPorte and I 
carefully monitor any indications of North Korean military 
readiness and, frankly, I do not think that war is any more 
likely today than it was 18 months or 24 months ago, but 
clearly the stakes would be very high if war occurred on the 
peninsula. Millions of South Koreans live within range of North 
Korea's artillery, and the stakes of course would be even 
higher if North Korea continues to pursue a nuclear capability.
    But North Korea's ability to threaten peace is not limited 
to the peninsula. The world's largest proliferator of ballistic 
missiles already has demonstrated the ability to deliver 
missile payloads beyond even Japan, and the reach of its 
illicit activities, such as narcotics, extends as far as 
Australia, as was demonstrated just last summer.
    Now, of course, North Korea's highly-enriched uranium 
program, along with its plutonium reprocessing program, raise 
the specter of nuclear weapons either in armed conflict or 
proliferated into the hands of terrorist groups--perhaps our 
biggest fear and one that clearly would threaten all nations. 
President Bush repeatedly has stated our commitment to a 
peaceful resolution of the North Korean nuclear issue. The 
diplomatic initiative is moving forward through the six-party 
talks and our role at USPACOM has been to ensure that diplomacy 
is backed by a viable military capability. We continue to do 
just that, posturing our forces not to provoke but to deter 
conflict.
    Next, we worry about miscalculation resulting in conflict 
between India and Pakistan or in the Taiwan Strait. Recent 
constructive dialogue between India and Pakistan and the 
relaxation in tensions are positive signs. The Taiwan Strait is 
another place where a miscalculation could result in terrible 
destruction and poses the possibility of expanding into a wider 
regional conflict.
    The Taiwan issue remains the largest friction point in the 
relationship between China and the United States. President 
Bush has stated our support for the one-China policy in the 
three communiques. It should be equally clear that our national 
leadership and USPACOM are prepared and committed to meet our 
obligations under the Taiwan Relations Act. We continue to 
watch closely the developments associated with the recent 
Taiwan election. To date we have seen no indication of imminent 
military crisis.
    Asia-Pacific nations face a number of transnational threats 
to regional stability, the most significant of which is 
terrorism. The war on terrorism is our highest priority at 
USPACOM. Regional and local terror groups with ties to al Qaeda 
continue to pose serious threats to U.S. and friendly 
interests, especially in Southeast Asia. This region is a 
crucial front on the war on terrorism. Destabilization of the 
governments of this region, which are moderate, secular, and 
legitimately elected, and with large Muslim populations, would 
result in decades of danger and chaos.
    The Jemaah Islamiyah (JI) directly targets the region for 
instability through terrorism, supporting its goal of a pan-
Islamic state in Southeast Asia. The JI followed up its October 
2002 Bali bombing with a deadly attack on the J.W. Marriott 
Hotel in Jakarta just last August.
    I am pleased to report that the nations of the region are 
cooperating well against these threats. Singapore, Malaysia, 
Thailand, and the Philippines have thwarted a number of attacks 
and have detained or arrested almost 200 members of the JI. 
Indonesia, too, has been particularly effective in the arrest 
and prosecution of some 34 JI members who participated in the 
Bali bombing, most of whom have now been sentenced for their 
crimes. Australia, of course, plays an active role, 
facilitating bilateral counterterrorist efforts throughout the 
Pacific.
    But the JI is resilient and pervasive. Other key leaders 
remain at large and new terrorist generations are being 
trained. We are learning more about the degree of JI 
involvement in terror operations in southern Thailand and in 
the southern Philippines.
    It is against this backdrop of challenges that we reach my 
final priority, and that is transformation. Specifically, we 
call it operationalizing the Asia-Pacific defense strategy. We 
are examining new ways of commanding, supporting, and employing 
our forces. First we are updating our operational plans to 
incorporate not only our improvements in speed and precision 
and lethality and knowledge, but also the lessons learned from 
operations in Iraq and Afghanistan.
    Second, we are strengthening our command and control 
constructs to execute those plans responsively, leveraging 
joint and interagency arrangements. We are also working hard to 
develop expeditionary capabilities for immediate employment 
both in the Pacific and anywhere else they might be needed and 
to integrate those capabilities into new operating patterns and 
concepts.
    You have already provided us major improvements, like the 
Stryker armored vehicle and the C-17 aircraft, and you are well 
aware of two transformational efforts designed to improve our 
global force posture and footprint. Our global posture review 
aims to arrange our forces most effectively to assure friends 
and allies while deterring, and if necessary, defeating our 
adversaries. The Base Realignment and Closure (BRAC) 
Commission, scheduled for 2005, supports posture improvements 
by eliminating unneeded facilities and infrastructure that 
absorb dollars needed elsewhere.
    In sum, we are looking for ways to effectively array combat 
power as appropriate for uncertain threats of the future while 
reducing the burden we place on friends and allies in the 
region. Our goal is an enduring posture and footprint that 
demonstrates our commitment and is sustained for the long term. 
Finally, we are looking for access and logistic prepositioning 
opportunities throughout the theater that minimize lift 
requirements and increase responsiveness whenever and wherever 
we are threatened.
    You should all know, and I am sure you do, Mr. Chairman and 
members of the committee, that I am proud to represent the men 
and women of USPACOM. I sincerely thank you for the opportunity 
to testify today and I look forward to your questions.
    [The prepared statement of Admiral Fargo follows:]
             Prepared Statement by ADM Thomas B. Fargo, USN
                              introduction
    Mr. Chairman and members of the committee:
    On behalf of the men and women of USPACOM, I thank you for this 
opportunity to testify on the posture of our command, including an 
assessment of security in the Asia-Pacific region.
    Dramatic events of the past year in Southwest Asia, for which 
USPACOM has been a primary force provider, have not eclipsed the 
importance of Asia-Pacific threats to global security.
    First and foremost, we remain keenly focused on the Korean 
peninsula, where although I believe the likelihood of war is low, the 
stakes would be very high if war occurred--and even higher if North 
Korea continues to pursue nuclear weapons capabilities. Our role at 
PACOM has been to ensure diplomacy is backed by viable military 
capabilities. We continue to do so.
    Next, we are actively working to prevent miscalculation resulting 
in conflict between India and Pakistan or in the Taiwan Strait. Recent 
dialogue between India and Pakistan and the resulting relaxation in 
tensions are very positive signs. Our modest but constructive military-
to-military relationship with China features high level exchanges like 
Defense Minister Cao's visit to Washington and Hawaii last year, and 
events that demonstrate the high quality of our forces, such as the 
recent port call of U.S.S. Blue Ridge in Shanghai. Meanwhile, Taiwan 
clearly remains the largest source of friction in our relationship with 
China. We remain prepared and committed to meet our obligations under 
the Taiwan Relations Act.
    Transnational threats are a continuing concern in the Pacific 
region. Despite recent and notable successes in the global war on 
terrorism, we remain deeply concerned about transnational terror 
organizations including al Qaeda and JI, and by more localized groups 
like the Abu Sayyaf Group (ASG) in the southern Philippines. We also 
sense increasing synergy between transnational threats like terrorism, 
illicit drugs, trafficking in humans, piracy, and especially the 
proliferation of Weapons of Mass Destruction (WMD). We have a number of 
creative initiatives ongoing to address these transnational concerns.
    It is against this backdrop of security challenges and 
opportunities that we reach my final primary concern--transformation. 
Responding to the new threat context, recent strategic guidance directs 
the global transformation effort. Our initiatives at USPACOM reflect 
that guidance and support the global effort, starting with updated 
plans and extending to resulting improvements in command and control, 
immediately available capabilities, and force posture. We are 
coordinating with our friends and allies in the region to effect 
enduring improvements while strengthening our ability to respond to 
emerging threats.
    Our relationships in the region, including five treaty allies and 
numerous friendships, are as strong as ever. I am gratified to report 
nations within our region are making smart and generous contributions 
to regional and global security, including support of OEF and Operation 
Iraqi Freedom (OIF). Since September 11, the region has demonstrated a 
heightened awareness of our interdependent vulnerabilities and the 
resulting necessity of cooperation for security. This mutually 
supportive environment facilitates both our forward presence in theater 
and the security programs necessary to promote a peaceful, stable, and 
prosperous Asia-Pacific region.
    This security context is reflected in our five top priorities at 
USPACOM. The following update on our defense posture is organized 
within those five priorities.
         sustaining and supporting the global war on terrorism
    Sustaining and supporting the global war on terrorism is our 
highest priority at USPACOM. In addition to addressing terror threats 
in the Pacific AOR, we are also a primary force provider to OEF and 
OIF.
    Nations of the region continue excellent cooperation against terror 
threats. Singapore, Malaysia, Thailand, Indonesia, and the Philippines 
have detained and arrested almost 200 members of the JI terror group. 
Thailand has both publicly articulated its terrorism concerns and taken 
aggressive steps to eliminate them. Despite significant domestic 
complications, Indonesia, too, has been particularly effective in the 
arrest and prosecution of 34 JI members who committed the October 2002 
bombing in Bali, 27 of whom have now been sentenced for their crimes.
    But regional and local terrorist groups with ties to the al Qaeda 
network continue to pose dangerous threats to U.S. and our friends, 
especially in Southeast Asia. Southeast Asia is a crucial front in the 
global war on terrorism. The destabilization of the governments of this 
region--moderate, secular, legitimately elected, with large Muslim 
populations--would sentence the region to decades of danger and chaos.
    The JI--an al Qaeda network affiliate--directly targets the region 
for instability, through terrorism, supporting its ultimate goal of a 
pan-Islamic state in Southeast Asia. The JI followed up its October 
2002 bombing in Bali with a deadly attack on the JW Marriott hotel in 
the heart of the Indonesian capital just last August.
    Several of the JI's key leaders are now in custody, including 
spiritual leader Abu Bakar Bashir and interim leader Abu Rusdan, who 
was recently convicted for his role in the Bali bombing. Most notable 
was the 2003 capture by Thai officials of terrorist Hambali, the JI's 
operational head and direct link to al Qaeda.
    But the JI is resilient and pervasive. Other key leaders remain at 
large, and new terrorist generations are being trained. We are learning 
more about the degree of JI involvement in terrorist operations in 
southern Thailand and the southern Philippines.
    The Philippines is a strong partner both globally and regionally in 
the global war on terrorism. President Gloria Macapagal-Arroyo recently 
identified the JI as her government's top terrorism priority.
    Of course the Philippines is coping with other terror threats as 
well, including the New People's Army and the ASG. Primarily a hostage-
for-ransom enterprise, the ASG was responsible for the death of a U.S. 
Special Operations soldier in 2002, conducted several bombings in 2003, 
and most recently claimed responsibility for the bombing of an 
interisland ferry in late February. The Philippine Armed Forces (AFP) 
have improved their effectiveness against the ASG, highlighted by 
December's arrest of terrorist Galib Andang, aka ``Commander Robot'', 
on Jolo Island.
    We are concerned about JI influence in the activities of some of 
these indigenous terror groups, including sponsorship of bombings in 
Davao City last spring that left 38 people dead. We continue OEF--
Philippines to provide training, advice, and assistance to the AFP to 
improve their capability and capacity to deal with terror threats.
    Philosophically, our approach to the terror threat has both near-
term and long-term components. In the near term, we have to stop 
immediate threats against our citizens, our friends, property, and 
vital infrastructure--in short, we have to stop the violence. So this 
near-term effort includes defeating actual attacks, disrupting the 
enemy's plans, and proactive defensive measures. Clearly, we don't see 
military action as the sole or even primary instrument of national 
power in this fight--intelligence sharing and law enforcement lead much 
of this effort.
    These near-term efforts are an essential but incomplete solution 
because the global war on terrorism, like the fight against other 
transnational threats, cannot be won by attrition alone. Terrorists can 
multiply faster than they can be captured or killed.
    So our long-term effort is focused on strengthening the region's 
democratic institutions that provide security at the economic, social, 
and physical (i.e., education, law enforcement, basic services) levels. 
Many of our efforts, including the Theater Security Cooperation Program 
(TSCP) (discussed below) directly support this long-term goal. We 
believe we'll reach a tipping point in the global war on terrorism when 
sound governance prevails, and citizens value their institutions more 
than they fear the terrorists.
    Meanwhile, near term efforts include both proactive defenses and 
direct efforts to go on the offensive, if necessary, to capture or kill 
terrorists in the Pacific theater.
Homeland Defense and Civil Support
    The USPACOM Homeland Defense AOR includes the State of Hawaii, the 
territories of Guam and American Samoa, and the Commonwealth of the 
Northern Mariana Islands, Federated States of Micronesia, Republic of 
the Marshall Islands, Republic of Palau, referred to as Compact States; 
and the following possessions: Wake Island, Midway Islands, Johnston 
Island, Baker Island, Howland Island, Palmyra Atoll, Kingman Reef, and 
associated territorial waters. We are leveraging our TSCP to build 
support and capabilities throughout the USPACOM AOR to support 
overarching homeland defense efforts. We are coordinating with U.S. 
Northern Command (USNORTHCOM) to ensure the same seamless strategy for 
defense in depth of the U.S. mainland.
    Our Strategic Concept Plan for Homeland Defense is in the final 
stages of coordination, but many aspects of the plan are already 
operational. All USPACOM service components contribute to the mission. 
Programs such as the Joint Rear Area Coordinators (JRAC), Critical 
Infrastructure Protection (CIP), Homeland Air Security, Consequence 
Management for Chemical, Biological, Radiological, Nuclear, and High-
yield explosives (CBRNE), and Domestic Support Operations are just a 
few of the activities coordinated under the Homeland Defense Plan. We 
appreciate your continued support to ensure we have the resources 
necessary to continue these essential missions.
    USPACOM's Biological Warfare Countermeasures Initiative was 
established last year, leading Department of Defense (DOD) efforts to 
incorporate biological warfare mitigating measures into deliberate 
plans, coalition needs, and domestic interagency efforts. We are 
partnered with the Defense Threat Reduction Agency and Department of 
Homeland Security in this initiative.
    Civil Support (CS) is another key part of the overall Homeland 
Security effort. CS operations enhance our existing Domestic Support 
Operations to civil authorities. We have well-established relationships 
and mutual cooperation plans with these authorities and provide support 
as directed by the Secretary of Defense (SECDEF). Our Homeland Defense 
Plan addresses the full spectrum of CS responses from terrorist acts to 
natural disasters like recent typhoons in Guam. I support a 
standardized security clearance system that facilitates the immediate 
sharing of appropriate time-sensitive intelligence with local law 
enforcement and civil authorities.
    JRACs in Guam, Hawaii, Japan, and Korea (and Joint Task Force--
Alaska) provide the command and control construct to synchronize our 
DOD antiterrorism/force protection (AT/FP) efforts for military 
installations and property with Federal, State, and local agencies and 
with host nations in the cases of Japan and Korea. Once again, we are 
coordinating our efforts and procedures with USNORTHCOM.
    USPACOM has an aggressive vulnerability assessment program for our 
DOD bases, ports, airfields, and training areas throughout the AOR. We 
use assessment teams from the Defense Threat Reduction Agency, the 
Services, and our components to ensure our facilities have updated 
assessments and proactive AT/FP plans. We also work closely with the 
State Department to ensure host-nation support is adequate to help 
protect our deployed forces using the latest AT/FP procedures.
    Theater and country specific Force Protection Conditions are 
continually reviewed and updated as necessary. Random Antiterrorism 
Measures are employed to complicate terrorist planning. USPACOM also 
employs a travel restriction program, providing a tool to declare 
entire countries or portions thereof ``off-limits'' to DOD members as 
necessary. In addition, FP plans are required for all travel in our 
AOR, from major unit deployments to individuals on leave. The resource 
commitment for increased FPCONs, however, presents a formidable 
challenge, both in terms of manpower and essential technologies. Your 
continued support to PACOM's FP objectives is necessary to sustain the 
progress we are making in this area.
    Our CIP Program assesses infrastructure upon which USPACOM depends 
for missions ranging from offensive combat operations to homeland 
defense. This broad-based program includes personnel, health 
operations, financial services, logistics, transportation, space, 
defense information, command, control, communications, intelligence, 
and public works sectors. We recently published the first CIP Appendix 
to one of our primary theater operational plans and fielded a CIP 
database that identifies relationships between mission-critical 
supporting assets, associated vulnerabilities, and protection 
requirements. Another building block is the development of our Theater 
Infrastructure Assurance Plan, which describes how we fundamentally 
conduct CIP throughout the AOR. Additionally, our bilateral CIP 
activities with friends and allies in the region have laid the 
groundwork to protect infrastructure outside the U.S. upon which we 
depend to fulfill our regional security obligations.
    The Combating Terrorism Readiness Initiatives Fund (CbT RIF) 
provides commanders additional resources to defend against emergent 
terrorist threats. USPACOM has received $9 million in CbT RIF funds in 
fiscal year 2004 and hopes to receive additional funds after completion 
of the second round of CbT RIF. The first submission of fiscal year 
2004 CbT RIF included 58 new and 20 revalidated projects from fiscal 
year 2003 totaling $26 million. Our fiscal year 2004 requests include a 
barrier wall for the Asia Pacific Center for Security Studies, 
hydraulic gates for the USPACOM headquarters, a Mobile Observation Post 
for Yokota airbase, and closed circuit TV and intrusion detection 
systems in Japan, Korea, and Camp Pendleton. Thank you for supporting 
this fund.
Coordination with law enforcement
    We have established a model for theater counterintelligence 
operations by fusing DOD, law enforcement, and other government agency 
information, and incorporating allied contributions. DOD intelligence 
analysts embedded in the Federal Bureau of Investigation's (FBI) Joint 
Terrorism Task Force (JTTF)--Hawaii markedly enhance our ability to 
identify threats and gain insights into terrorist organization planning 
and operations. JTTF members participate in USPACOM planning for 
counterterrorist operations in the region while simultaneously 
supporting Homeland Defense efforts. The Patriot Act, which facilitates 
such interagency coordination, has enhanced our ability to share 
information on terrorist threats.
    Our Joint Interagency Coordination Group for Counterterrorism 
(JIACG-CT) is the USPACOM staff entity responsible for coordinating DOD 
and other government agency counterterrorism (CT) activities within the 
USPACOM AOR. Last year, the JIACG combined intelligence, operations, 
and training goals with interagency representation to produce our first 
theater CT Campaign Plan. This plan, aligned with Department of State 
goals embedded in embassy Mission Performance Plans, focuses on both 
near-term and long-term global war on terrorism efforts. These efforts 
include CT resource creation, terrorist identification and destruction, 
and the long-term effort to strengthen democratic institutions of 
governance. As the lead staff element in USPACOM's fight against 
transnational threats, the mission of JIACG-CT is being broadened to 
include coordination of our counterdrug and counterproliferation 
efforts.
    The Joint Interagency Task Force-West (JIATF-W) has long been 
USPACOM's premier operational counterdrug entity. Formerly based in 
California, JIATF-W is relocating to Hawaii to better confront the 
narcotic threat in the western Pacific. Its experience, assets, and 
interagency relationships will also be relevant against related 
transnational threats like narcoterrorism, piracy, human trafficking, 
and especially weapons proliferation. JIATF-W's interagency approach 
facilitates contributions of law enforcement, host nations, and Special 
Operations Forces.
Regional Maritime Security Initiative (RMSI)
    The ungoverned littoral regions of Southeast Asia are fertile 
ground for exploitation by transnational threats like proliferation, 
terrorism, trafficking in humans or drugs, and piracy. The President's 
Proliferation Security Initiative (PSI) and State Department's Malacca 
Strait Initiative are designed to improve international cooperation 
against these threats.
    RMSI is USPACOM's effort to operationalize these initiatives. 
Fundamentally, we need to gain an awareness of the maritime domain to 
match the picture we have of our international airspace. Working first 
with other navies of the region, our approach is to assess and then 
provide detailed plans to build and synchronize interagency and 
international capacity to fight threats that use the maritime space to 
facilitate their illicit activity. Of course, there are other 
government agencies that play a key role here, too. We have found this 
concept well received by our friends and allies in the region.
    This is a large undertaking that requires us to harness available 
and emerging technologies to develop that maritime situational 
awareness. It also requires responsive decisionmaking architectures and 
the right kinds of immediately available, expeditionary forces to take 
action when the decision has been made to do so.
    Our long-term effort in the global war on terrorism focuses on 
strengthening democratic institutions to enhance governance and address 
the underlying problems that give rise to terrorist movements in the 
first place. This element includes civil-military education programs 
and especially our TSCP.
    Regional Defense Counterterrorism Fellowship (RDCTF) funds are a 
valuable tool in our efforts to combat terrorism in the Pacific. 
Through this flexible and responsive program, we've trained over 130 
students from 7 partner nations (Bangladesh, Indonesia, Malaysia, 
Nepal, Philippines, Sri Lanka, and Thailand) and are building a 
community of counterterrorism experts and practitioners who share a 
common perspective on the proper response to terror threats.
    International Military Education And Training (IMET) exposes future 
leaders to U.S. values, including commitment to the rule of law, the 
role of a professional military in a democratic society, and overall 
military professionalism. Grant funding has removed financial barriers 
to U.S. military education and training for friends and allies located 
in regions subject to untoward influences, and has contributed to the 
readiness of troops providing post-hostility engineering and 
peacekeeping support in Afghanistan and Iraq. Combined with training 
offered through the Foreign Military Sales process, IMET promotes U.S. 
military education and training as the recognized standard worldwide. 
Consequently, demand has surpassed supply as it relates to school 
capacity. Innovation has addressed this issue in the near-term but real 
capacity increases are necessary to build upon our success. I 
appreciate your support of this valuable program.
    Our TSCP is the vehicle through which we extend U.S. influence, 
develop access, and promote competence among potential coalition 
partners. These activities directly support the global war on terrorism 
and enhance readiness for contingency actions against emerging threats. 
We also coordinate the TSCP with the country teams in our embassies to 
ensure our efforts complement their Mission Performance Plans. TSCP 
activities clearly help strengthen institutions of governance, directly 
contributing to our long-term counterterrorism effort.
improving readiness and joint warfighting capability of pacific command 
                                 forces
    Improving the readiness and joint warfighting capability of USPACOM 
forces is critical to assuring our friends and allies, dissuading 
military competition, deterring threats against U.S. interests, and 
defeating an adversary if deterrence fails. This priority includes 
providing the spare parts, operating dollars, and training needed to 
maintain ready forces. It also means innovating, transforming, and 
improving those capabilities and technologies needed to keep our forces 
ready for a wide range of alternative futures.
    Past investments in readiness paid off in 2003. Approximately 
51,000 USPACOM active duty personnel have or are scheduled to deploy in 
support of operations in Afghanistan and Iraq. Pacific Fleet (USPACFLT) 
units deploying to OEF and OIF last year included the U.S.S. Abraham 
Lincoln, Carl Vinson, Constellation, Nimitz, and Kitty Hawk Carrier 
Strike Groups; independently deploying submarines; maritime patrol 
aircraft; Naval Mobile Construction and Explosive Ordnance Disposal 
Units, and a significant portion of our Reserve Force including Harbor 
Defense, Coastal Warfare, Mobile Inshore Undersea Warfare, and Inshore 
Boat Units. The Tarawa and Essex Amphibious Ready Groups deployed with 
the 15th and 31st Marine Expeditionary Units embarked. The seven-ship 
Amphibious Task Force West, built around amphibious assault ships Boxer 
and Bonhomme Richard deployed with the First Marine Division, and the 
year closed out with the initial deployment of Expeditionary Strike 
Group ONE with flagship U.S.S. Peleliu and the 13th MEU (Special 
Operations Capable) embarked.
    About 2,000 Pacific Air Forces personnel already have deployed to 
Southwest Asia supporting Aerospace Expeditionary Forces for OEF and 
OIF. Our Army Forces in the Pacific (USARPAC)--active, Reserve, and 
Guard--are also making important contributions in the U.S. Central 
Command (CENTCOM) AOR. An airborne task force from Alaska and an 
aviation maintenance unit from the Hawaii Army National Guard have been 
in Afghanistan for the past 6 months.
    More USARPAC contributions are in progress. The 25th Infantry 
Division (ID) headquarters and one Brigade Combat Team (BCT) are 
deploying to Afghanistan now, and another 25th ID BCT is currently 
serving in Northern Iraq. CH-47 aircraft of the Hawaii Army National 
Guard and the 411th Engineer Battalion (U.S. Army Reserve) are also en 
route to Iraq. The 1st Brigade of the 25th ID at Fort Lewis, 
Washington, now a Stryker BCT, will deploy to Iraq later this year, 
replacing the 3d Brigade of the 2d ID, also stationed at Fort Lewis. At 
the peak, approximately 16,500 USARPAC forces will be assigned to 
CENTCOM.
    In light of our impressive combat performance in Southwest Asia, it 
would be easy to conclude that our current programs are more than 
adequate to meet every conceivable threat. But even as we incorporate 
the lessons learned from those conflicts, and with great appreciation 
for the exceptional quality of our people and equipment, we also 
recognize that many of USPACOM's most demanding current and future 
warfighting challenges were simply not stressed in Southwest Asia. 
These missions include missile defense, undersea warfare, and air 
superiority.
Missile Defense
    Cruise and ballistic missile threats are rapidly increasing in the 
USPACOM AOR. Our ability to defend against them is fundamental to 
homeland defense, regional peace and stability, and to successful 
execution of our contingency plans. We need an integrated, tiered 
missile defense system.
    Our Forward Deployed Naval Forces, Command and Control elements, 
and interceptor assets will be ready to support Missile Defense Initial 
Defensive Operations on or before October 1. We still need to increase 
the numbers of Patriot GEM and PAC-3 missiles ashore and develop a sea-
based terminal missile defense capability. Sea-based systems reduce our 
overall footprint ashore while providing flexible, more secure options. 
I applaud your efforts to date, supporting development and fielding of 
our missile defense systems.
Undersea Superiority
    USPACOM faces the greatest undersea warfare challenge in the world. 
Two hundred fifty submarines call the Pacific home--but only 30 percent 
of these submarines belong to allied nations. A robust and integrated 
Anti-Submarine Warfare (ASW) architecture, more capable force 
structure, and a committed investment in future technologies are 
essential to counter the growing submarine threat.
    Submarines remain the premier ASW asset. Our new Virginia class 
boats will meet our ASW needs well into the future, particularly in the 
challenging littoral environment. Congressional efforts last year also 
provided funding to refuel two additional 688 class submarines. To 
ensure sufficient submarines are available to counter future threats 
and defeat anti-access strategies, we must seriously consider funding 
the remaining refuelings of 688 class submarines and sustain an 
adequate Virginia class submarine build rate.
    Maritime Patrol Aircraft provide quick responding long range ASW 
and high demand intelligence, surveillance, and reconnaissance (ISR) 
capabilities. The P-3 Maritime Patrol Aircraft sustainment program and 
follow on multi-mission aircraft are critical to respond to emergent 
submarine threats. I also strongly support the acquisition of Automatic 
Periscope Detection technology for both surface ships and Maritime 
Patrol Aircraft employed in littoral regions.
Air Superiority
    The F/A-22 Raptor will deliver quantum air power improvements with 
great relevance in the Pacific theater. Combining stealth, high speed, 
and precision weaponry, Raptor will buy back battlespace and increase 
warfighting options for the joint force commander. We need your support 
to fund and field this aircraft.
               intelligence, surveillance, reconnaissance
Signals Intelligence (SIGINT)
    The global war on terrorism and traditional military threats demand 
ever-increasing agility and innovation in intelligence. SIGINT remains 
critical to our requirements for timely threat information. Access to 
signals is challenging and requires a concentrated effort to expand 
collections capacity and increase technical capabilities to ensure we 
can adapt to changes in adversary Command and Control (C2) systems and 
processes.
    The National Security Agency and Service SIGINT capabilities are 
crucial to our counterterrorism efforts. The ability to integrate both 
national and tactical SIGINT is key to daily operations and the 
execution of deliberate and contingency plans. However, rapid advances 
in telecommunications technologies, and their use by our adversaries, 
are outpacing intelligence-gathering capabilities.
    I strongly support the NSA's transformation efforts to meet the 
challenges of the digital technology revolution. They must have the 
resources necessary to remain technically strong and provide 
capabilities to meet our requirements. NSA's capabilities against 
modernized militaries and transnational entities such as terrorists and 
weapon proliferators remain key to USPACOM objectives.
    Regarding tactical systems, I continue to advocate the accelerated 
development and fielding of joint, interoperable, modular, rapidly 
reconfigurable land, sea, and air SIGINT platforms. These improvements 
should be integrated into collaborative intelligence processing systems 
to make the best use of the increased data gathered.
    Without concurrent improvements in NSA's capabilities and in 
Service tactical cryptologic systems, it will be increasingly difficult 
to predict, find and target the most serious threats to U.S. national 
security interests.
Human Intelligence (HUMINT)
    Improving our HUMINT collection capability against key USPACOM 
challenges, especially as it relates to hard and deeply buried C2, WMD 
facilities, proliferation, and terrorist activities is critical. 
Sustained resources for both CIA and DOD (Defense HUMINT Services) will 
yield the progress we need. Our military commanders must have insight 
into the plans and intentions of our potential adversaries--something 
that HUMINT is uniquely capable of providing.
Cryptologic Linguists
    To be successful in counterterrorism we require linguists with a 
high degree of proficiency in many different languages and dialects. 
The minimum requirement is for 3/3 language capability; many targets 
require 4/4 (native) speakers. Maintaining a permanent cadre of 
cryptologic linguists with that degree of proficiency across a wide 
range of low-density languages and dialects is prohibitively expensive. 
So in addition to expanding training and recruiting initiatives, we 
must ensure the Defense Manpower Data Center's Automated Language 
Finder database tracks those personnel who are native speakers or who 
have acquired the requisite skills, and that the Defense Language 
Institute can test for those language skills.
Imagery Intelligence (IMINT)
    The requirement for electro-optical, radar and infrared imagery 
remains crucial. IMINT converted into geospatial data and integrated 
with other source material is critical to the commanders in the field 
and provides much-needed context to decisionmakers.
Unmanned Aerial Vehicles (UAV)
    The broad expanse of the USPACOM AOR and lack of access into denied 
areas make surveillance a significant challenge. We need a dynamic mix 
of national and airborne assets capable of maintaining access for IMINT 
and SIGINT coverage over target areas for extended periods. Persistent 
ISR assets greatly enhance our ability to perform counterproliferation 
and counternarcotics missions, combat piracy, and combat terrorism. 
Scientific and technical advancements like multispectral imaging aboard 
high altitude, high endurance assets such as the U-2 and Global Hawk 
UAV are ideally suited to support our requirements. Early fielding of 
Global Hawk in the USPACOM AOR is essential.
    Tactical level systems like the Predator UAV are also of great 
value in this theater. However, limited airframes, sensors, and 
dissemination systems prevent us from taking full advantage of these 
capabilities. This complementary arrangement of persistent surveillance 
using both theater and national systems is critical to ensuring 
sufficient warning and situational awareness.
Tasking, Planning, Exploitation, and Dissemination (TPED)
    USPACOM requires a complete, joint TPED architecture to support 
future plans and contingencies. This architecture must accept inputs 
from a multitude of ISR assets and share this data freely among service 
Deployable Common Ground System (DCGS) nodes as well as intelligence 
users worldwide. Effective TPED of geospatial intelligence is crucial 
to providing the combatant commander, operational, and tactical forces 
with an incontrovertible view of the battlespace. Limited resources, 
coupled with great distances make interoperability among service DCGS 
nodes a critical element to accomplishing TPED and ISR missions within 
the theater.
     command, control, computer, communication (c\4\) improvements
C\4\ Modernization
    We have made significant improvements in bandwidth availability 
through leases with commercial providers. We are on track with 
Satellite Communications Programs to replace failing satellites. 
Defense Information Systems Agency (DISA) assures bandwidth will be 
available whenever and wherever needed, at least to an installation's 
``front door.''
    But we cannot deliver sufficient bandwidth from the front door of 
the installation to the warrior. The dated wires, cables, and switches 
installed on our bases have insufficient capacity to support 
applications and services that are based on the steady improvements in 
telecommunications technology. There is also a digital gap between 
strategic and tactical environments. Most tactical users rely on Radio 
Frequency (RF) links, but RF links can only deliver a fraction of same 
bandwidth available from landlines. As we greatly expand landline 
capacity through the Global Information Grid-Bandwidth Expansion, we 
must tailor applications for the bandwidth capacity that tactical users 
have available to perform their missions.
Joint Information Capabilities Enhancement Environment (JICEE)
    True transformation involves changing the way we implement 
information systems from industrial-age, single-purpose systems, to 
information-age methods, wherein we define the framework of the entire 
information infrastructure then align programs-of-record to capability-
areas within the framework.
    To move this transformation along, we need to develop a JICEE. This 
requires decomposition of existing programs, reassembling associated 
systems into a common networked environment. We've defined a framework, 
and with the support of the Command Information Superiority 
Architecture program, have partnered with U.S. Joint Forces Command 
(USJFCOM) to develop and test a model to capture existing programs and 
costs to illustrate their contribution to end-to-end capability for gap 
and duplication analysis. We intend to use JICEE to define the 
objective information and knowledge services network with the roadmap 
that shows how to integrate, interface, leverage and decompose when 
necessary, projects, initiatives and programs-of-record to get there.
Combined Enterprise Regional Information Exchange System (CENTRIXS)
    CENTRIXS is the effort to establish permanent, classified coalition 
networks between U.S. and coalition partners. Today, CENTRIXS networks 
support maritime forces and shore planning staffs for escort and 
maritime interdiction missions for OEF and OIF. The communities of 
interest for CENTRIXS now include Australia, Canada, United Kingdom, 
United States, Japan, Thailand, the Republic of Korea, Singapore, and 
New Zealand. CENTRIXS provides e-mail, web access, chat and common 
operational picture capabilities with our coalition partners. With 
CENTRIXS we've made significant strides working with our allies to 
support the global war on terrorism and have planned extensive 
expansion of these networks for the near future. USPACOM is working in 
concert with other regional combatant commanders, USJFCOM, and the 
CENTRIXS Program Management Office toward a common network architecture 
that continues to support global joint operations.
Agile Coalition Environment (ACE)
    Our ability to connect networks to, and share information with, our 
allies and security cooperation partners is a major challenge. The ACE 
effort is developing crypto devices agile enough to create virtual 
private networks to support bilateral and tailored multi-lateral 
relationships without having to build or lock-down unique networks for 
each community-of-interest security enclave. ACE enables CENTRIXS to 
converge from a set of independent networks to a single network that 
supports multiple security enclaves on an on-demand basis.
    Computer Network Defense (CND) is a major part of our comprehensive 
Information Assurance strategy. Our adversaries are constantly 
developing new ways to use computer vulnerabilities to deny access to 
or exploit our information resources. We need constant training on the 
latest tools, techniques, and vulnerabilities to sustain a highly 
trained team of CND professionals. This team maintains a strong 
relationship with the Joint Task Force for Computer Network Operations, 
the DISA Pacific Computer Emergency Response Team (CERT) and the DOD 
CERT to stay abreast on the latest information assurance advisories to 
maintain the tightest perimeter security possible.
    Deployable Joint Command and Control is critical to the success of 
future joint task force (JTF) operations across the operational 
spectrum from Non-Combatant Evacuation to high intensity warfare. This 
communications-enabling package has significant potential to strengthen 
command and control for the joint task force (JTF) by providing a rapid 
deployment capability, standardized C2 processes across the components, 
and standardized C\4\ systems from the strategic to operational levels. 
I am concerned, however, that DJC2 lacks organic mobility and the 
ability to interface anticipated C\4\ systems with our coalition 
partners. Both USJFCOM and the Office of the SECDEF (OSD) are working 
to resolve these issues, but these capabilities may require additional 
resources to ensure they are delivered on schedule in March 2005.
Exercises
    Exercise events provide essential opportunities to hone a spectrum 
of security skills in multilateral settings, and are a key component of 
both our Joint Training Plan and TSCP.
    Exercises such as Cooperative Cope Thunder provide an opportunity 
for engagement in the Pacific Alaska Range Complex (PARC), a facility 
more than five times the size of the Red Flag range in Nevada. This 
year's Cope Thunder participants included: Australia, Bangladesh, 
Canada, Germany, India, Japan, Malaysia, Mongolia, the Philippines, 
Singapore, Sri Lanka, and the United Kingdom.
    Our Balikatan series in the Philippines is a critical element of 
our continuing effort to build an enduring CT capacity and capability 
in the armed forces of the Philippines. It also provides excellent 
training opportunities for U.S. forces, and does so in a manner that 
both exercises contingency access and relieves training pressures due 
to encroachment elsewhere in theater.
    Our premier multilateral exercise in the Pacific is Cobra Gold, an 
annual event hosted by Thailand. This exercise is specifically designed 
to promote capabilities and cooperation to deal with foreign 
consequence management, humanitarian assistance, peacekeeping/
enforcement operations, noncombatant evacuation operations, and 
transnational threats like terrorism and illicit narcotics.
    Our Advanced Concept Technology Demonstration (ACTD) Program allows 
us to influence and leverage our Nation's investment in science and 
technology, expediting advanced technologies to our warfighters.
    Today USPACOM is sponsoring 18 ACTD projects--more than any other 
regional combatant command. We have distributed the workload across the 
whole theater--almost all service component and subunified commanders 
and most of my staff directors have responsibility for at least one 
ACTD. A number of our ACTDs have accelerated state-of-the-art 
technologies into OEF and OIF. For example, the Thermobaric Weapon ACTD 
accelerated its tunnel-penetrating-munition development for combat use 
in Afghanistan. The Language and Speech Exploitation Resources ACTD 
currently provides language translation support for intelligence 
collection and ongoing operations in both Afghanistan and Iraq. The 
Joint Explosive Ordnance Disposal ACTD has provided networked reachback 
support for hundreds of explosive ordnance events in Iraq and 
Afghanistan. In all, eight USPACOM ACTD projects are directly 
contributing to the global war on terrorism.
    We have been awarded three new ACTD Projects starting in fiscal 
year 2004. These include the Theater Effects Based Operations ACTD, 
which is a partnership with USFK and USJFCOM and has direct application 
in the work of our Standing Joint Force Headquarters.
                     training facilities and ranges
    Transformation of the PARC into a 21st century joint training 
complex and joint national training capability venue is important. 
Integrating virtual capabilities with existing training ranges is the 
next step in providing our warfighters the optimum combat training 
environment.
    USPACOM forces are performing an increasing number of missions 
ranging from major combat in OIF to humanitarian assistance. Mission 
success requires realistic training--something inert ordnance cannot 
completely provide. The first exposure to live fire faced by our forces 
must not come in a hostile combat environment, but rather in a 
controlled but authentic training environment where they can learn from 
their experiences and condition themselves to face the ``real thing.'' 
We are integrating virtual training technologies with live facilities 
and exercises to maximize training value within existing physical 
restrictions.
    However, we are increasingly limited in our ability to conduct this 
training, because of restrictions on space, hours, ordnance, and radio 
frequencies. PACAF and U.S. Army Alaska work closely with State and 
Federal agencies to minimize range encroachment and to mitigate the 
environmental impacts associated with the PARC. Our primary live-fire 
range in the western Pacific, Farallon de Medinilla (FDM) is heavily 
used now only because we received legislative relief associated with 
the Migratory Bird Treaty Act.
    Training at Makua Range on Oahu is limited in the number and type 
of training cycles we can conduct, so more of our annual small unit 
training is achieved via deployment to the Pohakuloa range which also 
supports battalion level and higher combined arms live-fire exercises 
on the Island of Hawaii. We have also established a Joint Training 
Requirements Group to ensure effective use of available training areas 
in support of all service components and allies training in Hawaii and 
the Pacific AOR. This initiative will be fully integrated with the 
Joint National Training Capability through our new Pacific Warfighting 
Center. Finally, we are leveraging our TSCP to supplement our training 
locations as encroachment continues to restrict our training 
opportunities.
    Many military facilities are also becoming foci for biodiversity, 
with development and expansion encroaching on our facilities. Where 
once our bases and training areas were remote sites, urban expansion 
now surrounds them, forcing some species, including some endangered 
species, into relatively safer environments of military facilities.
    We are very good stewards of the environment. We have set aside 
space for protected species, altered or deferred some units' training 
to avoid interference in nesting areas, and developed specific programs 
to increase the populations of protected or endangered species.
    For the most part, the military's answer to encroachment challenges 
has been to work around the immediate problems while attempting to 
minimize the impact on the quality and quantity of training. For 
example, environmental concerns now impose noise restrictions that 
force important low altitude maneuvers to use unrealistically high 
altitudes and limit the use of ranges. Maneuver space is reduced, 
training lanes become narrow, and our individual maneuvers become too 
predictable or repetitive. The central question is how all these 
important interests can be advanced in a balanced and cooperative way.
    As part of our efforts to seek this balance, we sought and received 
narrowly focused clarifications to the Marine Mammal Protection Act and 
the Endangered Species Act that provide us the needed flexibility to 
train our forces for combat while continuing our commitment to 
environmental stewardship through necessary protection of marine 
mammals and endangered species.
    You also clarified the Endangered Species Act by specifying that 
Integrated Natural Resource Management Plans (INRMP) be used in lieu of 
designating critical habitat. DOD is already obligated under the Sikes 
Act to develop INRMPs for lands under military control. INRMPs are 
prepared in cooperation with the Fish and Wildlife Service and State 
agencies, which recommend ways for DOD to better provide for species 
conservation and recovery. While we understand there are attempts to 
roll back these new provisions, it is critical that we be given an 
opportunity to implement them on our military ranges and operating 
areas. We will use the increased flexibility to ensure that we have 
access to ranges and operating areas vital to training our forces for 
future conflicts. We appreciate your efforts to help us maintain our 
readiness while protecting the environment.
                         logistics and mobility
    We continue to improve our ability to adapt plans and rapidly flow 
forces and equipment. At the same time, we must efficiently sustain 
these forces as they move forward. Working in partnership with U.S. 
Transportation Command (USTRANSCOM), we have made steady progress 
identifying and prioritizing existing strategic air and sealift 
infrastructure improvement projects to support the global war on 
terrorism, or if required, a major theater war in the Pacific. Our 
Pacific Command En Route Infrastructure Steering Committee (PERISC) 
commissioned the study of several strategically located airfields in 
the theater, gathering appropriate infrastructure data and applying 
this information to model personnel and cargo throughput capability.
    Our current enroute airlift system includes Elmendorf Air Force 
Base (AFB) Alaska, Hickam AFB Hawaii, Andersen AFB Guam, and Japan's 
Iwakuni Marine Corp Air Station, Kadena Air Base (AB), Misawa AB, and 
Yokota AB. The PERISC has validated and championed over $100 million in 
fuel hydrant, ramp and runway projects at these locations to support 
the National Military Strategy and Mobility Requirements Study 2005. We 
also identified seven projects at Elemendorf AFB, Alaska and Hickam 
AFB, Hawaii in fiscal year 2005 to support the assignment of C-17 
aircraft at both locations. These and other investments throughout the 
AOR will ensure we have the required infrastructure readiness.
    Theater In-Transit Visibility is required to allow the Joint Force 
Commander to see force closure for deployments and avoid unnecessary 
costs and inefficiencies for sustainment and distribution. In the past, 
intransit visibility was typically provided to Joint Force Commanders 
from Ports of Embarkation (POE) to Ports of Debarkation (POD) (i.e. the 
USTRANSCOM air and sea channels). End-to-end visibility for either 
deployment or sustainment distribution prior to the POE, or in-theater 
from the POD to the ultimate destination did not exist.
    In October 2003, OSD published the first Department-wide Radio 
Frequency Identification (RFID) policy. Recently updated in February 
2004, this policy mandates the implementation and expansion of Active 
RFID. The immediate implementation of this policy will provide USPACOM 
with enablers for both In-Transit Visibility and Total Asset Visibility 
(TAV).
    USPACOM's current RFID infrastructure is limited and Army-centric, 
primarily supporting Army deployments to the Korean theater. To meet 
OSD's mandate and USPACOM's requirement for TAV, extensive RFID 
instrumentation must be obtained and installed in USPACOM. 
Instrumentation locations encompass our strategic and multi-nodal 
ports, including transload locations, and extend to supply activities 
and originating bases of deploying forces, ultimately including final 
destinations. To mirror CENTCOM's current capability for TAV in our 
theater, every effort should be made to fund and train personnel needed 
to activate this capability.
Preferred munitions
    Emergent requirements in support of OEF and OIF resulted in reduced 
availability of preferred munitions and have forced us to rely on older 
stocks for a period of time. A robust near term inventory of global 
positioning system-aided and laser-guided bombs such as the Joint 
Direct Attack Munition, Wind Correct Munitions Dispensers and GBU-10/12 
pre-staged ashore, supplemented by more weapons available from afloat 
or deployable stockpiles would provide USPACOM with a more accurate, 
reliable capability. In the future, we'll also need significant 
quantities of emerging weaponry, such as Small Diameter Bomb and Joint 
Air to Surface Standoff Munition. Positioning these weapons forward in 
theater will reduce lift requirements in the early stages of a conflict 
when those assets are most critical.
C-17 aircraft
    USPACOM strongly supports U.S. Air Force and USTRANSCOM efforts to 
procure at least 222 C-17 aircraft as the minimum baseline to ensure 
responsive global mobility and provide the flexibility and capacity to 
support DOD warfighting transformation. Our number one strategic lift 
shortfall is airlift due to retirement of aging C-141 aircraft, poor C-
5 reliability. The C-17 is one of only two strategic airlift platforms 
in the Air Mobility Command inventory capable of providing over- and 
outsized cargo lift capacity. The only other aircraft is the less 
reliable C-5. The current Air Force Program Objective Memorandum funds 
180 C-17 aircraft, however, in light of increasing global war on 
terrorism demands, additional C-17 aircraft should be procured.
    USPACOM anticipates basing eight C-17s each at Hickam AFB, Hawaii 
in December 2005 and Elmendorf AFB, Alaska starting in 2007. Active 
duty Air Force and Air Reserve component forces--Hawaii Air National 
Guard and Alaskan Air Force reservists--will operate these strategic 
mobility aircraft. These aircraft will bring vastly increased 
reliability, versatility and large capacity to and through the Pacific 
theater.
    High Speed Vessels (HSV) provide a flexible alternative for 
intratheater movement in USPACOM, including its use to augment airlift. 
Since October 2001, III Marine Expeditionary Force (MEF) has been 
testing a leased HSV with great success and cost savings for exercise 
deployments and redeployments, as well as operational employment. Joint 
Venture HSV X1, the Joint Army/Navy HSV that participated in Millennium 
Challenge 2002 and other exercises, was scheduled to support U.S. Army 
training in the USPACOM Theater from March to April 2003, but was 
diverted to support CENTCOM for OEF and OIF. Without a doubt, HSV 
capabilities were critical to the early success of OIF. The speed and 
range of the HSV-X1 allowed it to rapidly deploy to CENTCOM. There, it 
was successfully employed as an afloat staging base for Naval Special 
Warfare combatant craft operations. In October 2003, a new HSV-X2 
Swift, replaced the HSV-X1, and is serving as a Mine Warfare Command 
and Support ship. In the USPACOM AOR, USARPAC will use HSV-X1 to 
conduct exercises and training under our ACTD program. We fully support 
continued leasing of tailorable High Speed Vessels as force projection 
and lift platforms.
Tanker Aircraft
    Our National Security Strategy cannot be executed without air-
refueling tankers, yet many of ours are nearly 50 years old. The 
average age of the fleet is 43 years, and the cost of keeping these 
aging aircraft mission capable is increasingly prohibitive. In the 
USPACOM, air-refueling tankers are critical to execution of theater war 
plans as early deployers in support of the Pacific Tanker Air Bridge. 
Meanwhile, OEF, OIF, and Operation Noble Eagle have demonstrated the 
operational impact air refueling capability has in support of the 
global war on terrorism. The KC-135 aircraft comprises 90 percent of 
the tanker fleet, and their usage has increased 45 percent over 
employment programmed before 11 Sept 01. The fiscal year 2002 DOD 
Appropriation Bill authorized the Air Force to negotiate the lease/
purchase of 100 commercial B-767 aircraft for air refueling use--an 
issue currently under DODIG investigation. Regardless of the tanker 
lease resolution, we still need a viable option to replace the aging 
tanker fleet.
Aircraft Mission Capable (MC) Rates
    We continue to be concerned about low USPACOM aircraft MC rates. 
Aging aircraft inventory and parts shortages continue to drive reduced 
MC rates, reduced fill rates for our ``go to war'' Readiness Spares 
Packages, and high cannibalization rates. Although funding for spare 
parts has 31 improved over the past several years, shortages still 
exist. As an example, only one of six PACAF A-10, F-15, and F-16 wings 
maintained minimum MC standards during fiscal year 2003. The F-15Cs at 
Kadena AB are, on average, 26 years old--11 years beyond the Air 
Force's maximum desirable age for fighter aircraft. We must 
recapitalize our fighter force structure.
           improving quality of service for our men and women
    Improved quality of service (QoS) for our men and women is our 
third priority. Inseparable from combat readiness, it is certainly more 
than just good quality of life. It also means providing the high 
quality operating facilities, the tools, and the information technology 
necessary for our personnel to achieve their goals and execute their 
missions with efficiency and a minimum of frustration. The QoS 
initiatives included in the National Defense Authorization Act for 
Fiscal Year 2004 demonstrate the commitment of military and 
congressional leadership to meet the needs of our deserving 
servicemembers and their families.
    Quality of life in USPACOM is good and improving. In the near term, 
we're focused on retention, operating tempo, and housing and school 
improvements.
Competing for and retaining the best people
    We must not take current high retention rates for granted. High 
operating tempo associated with OEF and OIF, coupled with a recovering 
economy, could challenge our ability to retain quality personnel at 
required levels. A proactive approach featuring competitive 
compensation and thoughtful force management is required.
    On behalf of the men and women of USPACOM, thank you for your 
support of recent initiatives including: an average 4 percent pay 
raise, increases in allowances for family separation, housing, and cost 
of living, and pay premiums that recognize special sacrifices like 
Assignment Incentive Pay in Korea and Hostile Fire/Imminent Danger Pay. 
Deployed personnel in harm's way will also be more at ease knowing that 
additional family assistance has been provided in the form of child 
care, education, and youth services for their loved ones back home. 
These initiatives will help us recruit and retain our highly skilled 
troops and their families.
Operating Tempo
    Our forces have performed magnificently during OEF and OIF. In 
2003, USPACOM's forwardbased forces largely remained in place during 
these conflicts to help maintain our deterrent posture. Air and naval 
forces that did participate were quickly returned to their home bases 
for rest, repair, and readiness for further assignment. As we enter 
2004, marines from the III MEF and soldiers from the 25th Infantry 
Division are beginning rotations to Afghanistan and Iraq. We will work 
to mitigate resulting impacts on these troops and their families while 
compensating with additional forces to maintain our readiness posture 
forward.
Reserve Mobilization
    We continue to rely on our Reserve and Guard members to help us 
accomplish our missions in the Pacific. These outstanding citizen-
servicemembers contribute hard work and unique talents. As a matter of 
policy, USPACOM relies heavily on volunteers. Since September 11, we 
have mobilized approximately 5,000 servicemembers who have served tours 
up to 2 years in length.
    Today there are about 40 mobilized reservists working at our 
headquarters and about 1,700 mobilized reservists throughout the 
USPACOM AOR, serving within the ranks of our service components. All of 
these members are making important contributions in key roles such as 
force protection, planning, logistics flow, and myriad other critical 
areas.
    We will continue to promote judicious use of our Reserve Forces. We 
actively support Secretary Rumsfeld's initiatives to relieve the 
pressure on the Guard and Reserve and to rebalance the force for the 
future. America can be proud of the way our Reserve Forces have 
responded to our Nation's needs.
Force Health Protection
    We are working with OSD to ensure Smallpox and Anthrax Vaccines are 
authorized and will be available for those who need it. Last year, the 
emergence of Severe Acute Respiratory Syndrome (SARS) posed a new 
global threat. Although we didn't have a single case among our troops, 
we remain vigilant, and will take steps to limit our forces' exposure 
whenever possible. Another continuing threat in the Pacific is HIV/
AIDS. We've partnered with select countries for HIV/AIDS Prevention 
Programs in their militaries--a significant step in fostering both 
healthy peacekeepers and economic stability.
    I also want to emphasize the need for integrated and standardized 
medical information systems across DOD. Unified Commands, among others, 
are responsible for reporting and tracking disease surveillance and 
vaccination data. However, no military wide automated systems exist to 
support these tasks. To this end, I support a USPACOM-led demonstration 
project to test and evaluate DOD's Theater Medical Information Program, 
currently under development, to integrate a joint medical information 
system, both in garrison and deployment.
Military Housing
    Quality housing provides peace of mind for our forces and 
underscores our commitment to quality of life. Recent increases in 
basic allowance for housing support the DOD goal of zero out-of-pocket 
housing expenses by fiscal year 2005 for personnel living on the 
economy.
    Meanwhile, our service components remain committed to replace or 
renovate substandard military family housing, relying on housing 
privatization initiatives (such as Public Private Venture and 
Residential Communities Initiative) and Military Construction (MILCON). 
These initiatives are a ``win-win'' for the community and serve to 
provide high quality, welldesigned military housing developments. 
Pacific service components and USFK are in the process of adding or 
replacing over 1,200 family housing units in fiscal year 2004 alone. 
Your continued support of military housing privatization initiatives is 
appreciated. Still, MILCON is required to meet Defense Planning 
Guidance goals, especially overseas. In our fiscal year 2005 program, 
we have nearly $300 million in MILCON family housing projects.
    Continued funding is also essential to improve bachelor housing. 
For fiscal year 2005, $291 million is required to keep all components 
on plan. Navy, Air Force, and Marine components are on track to 
eliminate open bay and central latrine barracks. Army will meet this 
goal in Hawaii and South Korea by fiscal year 2008 and fiscal year 
2009, respectively.
Schools
    Competitive schools are a top quality of life concern, especially 
in Guam and Hawaii. DOD Education Activity school projects in Guam will 
provide a new high school (fiscal year 2005 at $28 million) and a new 
elementary/middle school in the future.
    In Hawaii, we are leveraging our Joint Venture Education Forum 
(JVEF) to improve school quality, strengthen our partnership with the 
State and its citizens, and increase attractiveness of Hawaii as a duty 
station. The JVEF is a collaborative effort between the Hawaii 
Department of Education and USPACOM to improve education and facilities 
in the military impacted public schools. Over the past 4 years, the 
Forum has focused on repair and maintenance, and on upgrading textbooks 
and technology. More recently the JVEF has focused on the transition 
issues of military dependent children by helping schools develop 
transition assistance programs and offering a military culture course 
to school staffs. Subsequent USPACOM school surveys reveal 
significantly improved perceptions of Hawaii schools by military 
families.
Transformation
    Improved QOS is an intended and essential product of our 
transformation initiatives. As we posture forces to ensure security in 
the new threat context, we also seek to place forces such that they can 
be efficiently employed against unpredictable threats--minimizing 
optempo while posing a minimal burden on friends and allies in the 
region. In short, we want to be relevant, welcomed, and immediately 
employable.
Base facilities and infrastructure
    Sustainment, Restoration, and Modernization (SRM) of facilities and 
infrastructure throughout USPACOM remains an important concern. Current 
funding levels limit our ability to achieve the 67-year 
recapitalization rate directed by DOD. We have equally important 
infrastructure requirements above SRM needs, including environmental 
requirements and new mission bed-downs for transformational 
capabilities like C-17 aircraft and Stryker BCTs. We are working to 
ensure transformation-related changes are integrated into our MILCON 
plans to prevent wasted expenditures.
Military Construction (MILCON) in Korea
    As Commander, U.S. Forces Korea is testifying, our facilities in 
Korea remain among the worst in USPACOM. MILCON is essential to rectify 
these shortcomings and to advance our transformation initiatives. We 
plan on consolidating USFK into two hubs of enduring installations--an 
air-oriented hub focused on Osan AB, and a sea-oriented hub in the 
southeast near Pusan. These consolidations will improve unit readiness, 
force protection, and quality of life while reducing adverse impact on 
our host nation. This long term but essential program requires stable 
MILCON funding.
    We appreciate your support for fiscal year 2004 projects in South 
Korea to upgrade hardened aircraft shelters and to construct family 
housing, barracks complexes and dormitories. We also understand your 
reservations about reprogramming MILCON projects before achieving the 
precondition of obtaining necessary land on which to construct them. We 
are working closely with the Republic of Korea (ROK) government to 
pursue the land purchases necessary to make these projects viable, and 
we will abide by the provisions of the 2004 Military Construction 
Appropriations Act regarding their planning and construction.
    We request your support for the fiscal year 2005 MILCON projects 
submitted by the services for South Korea, including U.S. Air Force 
family housing and dormitory projects and the sewer system upgrade at 
Camp Humphreys.
Guam MILCON
    Guam's geostrategic importance cannot be overstated. Both Navy and 
Air Force facilities will continue to figure prominently in Guam's 
increasing role as a power projection hub. But Guam's environment can 
be harsh, and major infrastructure improvements are needed to support 
its further utility. USPACFLT plans to upgrade the KILO Wharf near 
Orote Point in fiscal year 2005 ($13 million) to better support weapons 
handling, and has further plans to develop the Orote peninsula into a 
fully capable munitions hub in the out years. Three future projects are 
also essential to improve wharves at Apra Harbor. In fiscal year 2005, 
USPACAF plans to construct a $20 million war reserve material storage 
facility at Andersen AFB, and has out year projects to repair the south 
runway and construct munitions storage igloos.
Joint POW/MIA Accounting Command (JPAC)
    The JPAC stood up on 1 October 2003, combining assets of JTF--Full 
Accounting and Central Identification Lab-Hawaii (CILHI), with a global 
mission. The command will eventually be housed in a new combined 
facility at Hickam AFB that will improve efficiency while reducing 
overall footprint.
    In 2003, joint field activities in Vietnam, Laos, Burma, North 
Korea, and Cambodia recovered 26 possible human remains believed to be 
those of unaccounted-for Americans. Meanwhile, the CILHI identified a 
total of 64 Americans previously unaccounted for: 37 from the Vietnam 
War, 5 from the Korean War, and 22 from World War II. We remain fully 
committed to this mission.
Pacific Warfighting Center (PWC)
    USPACOM's exercise simulation and support infrastructure is 
obsolete. This shortfall significantly reduces the ability to train 
USPACOM and JTF commanders in crisis action readiness procedures, 
limits their ability to rehearse key operational orders, and degrades 
the ability to improve combined interoperability with friends in the 
region. The current exercise simulation facility also does not support 
future technologies or meet force protection requirements. A planned, 
state-of-the-art operations and simulation center will improve total 
force readiness by exploiting emerging technologies to create a 
networked, live, virtual, and constructive training and mission 
rehearsal environment for joint and combined force commanders and their 
staffs.
    The PWC will be a key node on DOD's global grid of warfighting 
centers that create the Joint National Training Capability. PWC will be 
fully integrated with, and extend the capability of, USJFCOM's Joint 
Training Analysis and Simulation Center and U.S. European Command's 
Warrior Preparation Center. It will also be home to our most important 
new joint command and control development--the Standing Joint Force 
Headquarters, discussed below.
    PWC promises to save exercise funds and enhance regional security 
cooperation using Internet-based information exchange opportunities via 
the Asia-Pacific Area Network (APAN). We estimate a $30 million need in 
fiscal year 2006 for this facility.
Nimitz-MacArthur Pacific Command Center (NMPCC)
    The NMPCC is complete and will be dedicated on April 14. This 
modern facility and its robust information technology will 
fundamentally change the way we command and control forces in the 
Pacific theater. We are working hard on information and knowledge 
management processes to maximize efficiency while minimizing 
frustrations. Thank you for making this important headquarters a 
reality.
           reinforcing the constants in asia-pacific security
    Our longstanding bilateral alliances in the Asia-Pacific region, 
our friendships both old and new, and the presence of our forward-
deployed combat forces continue to be the foundation of the region's 
peace and stability. Based upon my extensive travels throughout Asia 
and the Pacific, it is clear that more and more nations appreciate the 
constructive role forward-based American forces play in regional peace 
and stability. We are capitalizing on these sentiments to build 
bilateral relationships while nurturing multinational efforts that 
support regional security needs.
    The USPACOM TSCP enhances U.S. influence, expands U.S. operational 
access to train (and deploy) forwarddeployed and forward-based combat 
forces, and increases competence of our coalition partners. Every TSCP 
activity is designed to enhance our joint/combined capabilities and 
communicate assurance to our friends while dissuading or deterring our 
enemies. Seminars and multilateral exercises continue to be inexpensive 
but powerful ways to develop the capabilities to work effectively as 
partners against all manner of transnational threats.
    TSCP is an engine of change that, along with our Joint Training and 
Experimentation plans, solidifies the link between national strategy 
and focused, enduring regional security.
    The dividends of a relevant, adaptive TSCP are clear--our treaty 
allies and friends have provided incomparable support to OEF, the 
global war on terrorism, and now OIF as well. We have new security 
partners. Mongolia, for example, has made historic contributions in the 
war on terrorism and in the reconstruction of Iraq. Many other 
countries within the Asia-Pacific region also share our security 
interests, and it is due in part to their efforts to combat terrorism 
that the analytical depth and breadth of shared actionable intelligence 
on the terror threat has improved so significantly. Their 
demonstrations of support are positive signs that meaningful regional 
cooperation on these threats will continue.
Japan
    The U.S.-Japan alliance remains the most important pact in the 
Pacific and is as strong as it has ever been. Nearly 54,000 U.S. Armed 
Forces personnel are stationed in Japan, including units of the 5th Air 
Force, III MEF, and 7th Fleet. Without these forces, it would be very 
difficult to meet our commitments both to Japan and to the rest of 
Asia-Pacific region. Last year, Japan contributed about $4 billion just 
to host our forces--the most generous of any U.S. ally.
    Since becoming Prime Minister nearly 3 years ago, Prime Minister 
Koizumi has stressed the importance of the alliance and has exerted 
exceptional leadership in support of both regional and global security 
efforts. Japan acted swiftly and historically after September 11 to 
provide airlift services and over 89 million gallons of fuel to 
coalition ships in the Arabian Sea in support of OEF. Last year, the 
Government of Japan (GOJ) approved an extension to the basic plan to 
continue these valuable contributions to the global war on terrorism. 
Japan's Coast Guard also participated in the first PSI exercise last 
September.
    But arguably the most significant symbol of Japan's commitment to 
regional and global security was its December 2003 decision to 
contribute up to 1,000 Japan Self-Defense Force personnel for Iraq--a 
plan they are now implementing. Additionally, they've pledged $5 
billion in loans and grants for Iraqi reconstruction, second only to 
the United States. We take every opportunity to express our 
appreciation to the GOJ for Japan's incredible support.
    We continue to strengthen this vibrant alliance through open 
dialogue and a continuing infusion of creativity. We benefit from 
robust relationships with the Japan Self Defense Forces, all of which 
have greatly matured in the last two decades. Although our deepest ties 
lie with the Maritime and Air Self Defense forces--mainly due to the 
day-to-day presence of the 7th Fleet and 5th Air Force--we are also 
looking for ways to increase interactions with the Ground Self Defense 
Force.
    The Defense Policy Review Initiative (DPRI) provides an important 
forum for deliberating alliance improvements. Working closely with OSD, 
the State Department, and our country team, we are consulting with the 
GOJ on ways to improve our command structures, assist the Self Defense 
Forces in their own transformation efforts, and make modest adjustments 
to address noise and safety concerns in places like the Kanto plain and 
Okinawa.
    Efforts continue to implement the Special Action Committee Okinawa 
(SACO) final report. While 15 of 27 SACO initiatives have been 
completed, 12 are still being worked. Two of 5 noise reduction 
initiatives and 10 of 11 SACO land release initiatives have yet to be 
completed. Considerable progress on the 12 outstanding initiatives has 
been made, and the initiatives are continually being pursued.
    The cornerstone of the SACO final report is the Futenma Replacement 
Facility (FRF). GOJ approval of a basic plan for the offshore portion 
of the FRF highlights the progress made in the SACO process last 
summer. However, we continue to emphasize to the GOJ that a complete 
replacement facility as identified in the SACO final report--not just 
the offshore portion--is required before Futenma can be fully returned.
    We continue our frank and open dialogue with Japan to nurture this 
robust alliance. We will also continue to improve U.S.-Japan 
coordination with other countries in the region to address cooperation 
on regional security issues.
Republic of Korea
    Our solid partnership with South Korea has contributed to peace and 
security on the peninsula for 50 years. Today, units of the 8th U.S. 
Army and 7th Air Force comprise the majority of our 38,000-troop 
strength in South Korea. We have also witnessed continued growth in the 
capability and capacity of ROK forces. They are modern, professional, 
and growing rapidly in tactical sophistication.
    Of course our partnership is focused on the most immediate security 
threat to the South Korean people--North Korea, or the Democratic 
People's Republic of Korea (DPRK). Although the likelihood of war on 
the peninsula remains low, the stakes posed by the North Korean 
conventional threat remain high, and are even higher if North Korea 
continues its pursuit of nuclear programs. The DPRK maintains more than 
70 percent of its forces within 100 kilometers of the Demilitarized 
Zone (DMZ), and the Kim regime persists in its ``military first'' 
policy, keeping its large force fed, equipped, and trained while 
average citizens face deprivation and starvation.
    North Korean missile and missile technology exports pose a grave 
proliferation concern. Its missile inventory includes over 500 short-
range SCUD missiles and medium range No Dong missiles capable of 
delivering conventional or chemical payloads well beyond the peninsula. 
Ongoing research on a multiple-stage variant of the Taepo Dong missile 
may provide North Korea the means to target the continental United 
States. Its other illicit activities, including probable State-run 
narcotics and currency counterfeiting enterprises, also pose a broad 
threat to regional security.
    After trilateral talks in April 2002 and two rounds of Six Party 
Talks to date, it is clear diplomacy must continue to be backed by a 
strong ROK-US defense partnership to eliminate North Korea's nuclear 
programs and reduce the North Korean conventional threat.
    We recognize the importance of reconciliation efforts to the Korean 
people and support those efforts by maintaining a position of mutual 
strength. Nations of the region are aligned on the goal of achieving 
complete, verifiable and irreversible dismantlement of the North Korean 
nuclear program.
    Meanwhile, the ROK has steadily increased its regional security 
role. USPACOM is working with the ROK Joint Staff to ensure our 
regional security cooperation efforts are in consonance with one 
another and integrated where appropriate. The return of Korean troops 
from United Nations (U.N.) peacekeeping duty in Timor-Leste in October 
2003 underscored Korea's commitment to regional peace and stability. 
The ROK continues to support USPACOM's Multinational Planning 
Augmentation Team (MPAT) program. South Korea's growing security role 
provides regional contributions while meeting its peninsular defense 
responsibilities.
    The ROK continues to support our global security efforts as well. 
In September 2003, we released the last of four ROK amphibious ships 
after their 18 months of logistical support and aircraft recovery 
operations related to OEF. In December 2003, the ROK Air Force 
completed 2 years of airlift support, having logged almost 3,000 flight 
hours and moved over 300 tons of cargo and passengers throughout the 
AOR. The ROK Army has deployed a Construction Engineer unit and medics 
to Bagram, Afghanistan since February 2003. By May 2003, over 600 ROK 
engineers and medical service personnel were working in Iraq along side 
the U.S. military.
    Most significantly, we anticipate the ROK government will dispatch 
up to 3,000 more troops to Iraq later this year, making it the third 
largest coalition troop contributor to OIF. These contributions have 
been, and will continue to be, important to global security, and we 
thank the Korean people for their support.
    Occasional anti-American sentiment reminds us that South Korea is a 
vibrant, democratic society, with a profusion of free and diverse 
voices. Nevertheless, we clearly have reached an important juncture in 
ROK-U.S. relations. While the majority of South Koreans support the 
alliance, we know we must strengthen the alliance to meet the 
challenges of the new international security environment.
    ROK Minister of Defense Lee Jun and U.S. SECDEF Donald Rumsfeld 
established the future of the ROK-U.S. Alliance Policy Initiative at 
the 34th Security Consultative Meeting in Washington D.C. on December 
5, 2002. Its charter is to develop options and make recommendations to 
adapt the alliance to reflect the changing regional and global security 
circumstances. The ultimate objective is to build a balanced and 
enduring alliance that will be more effective but less intrusive in the 
lives of the Korean people.
    Despite this challenging political environment, future of the 
alliance meetings have produced considerable progress. Most notable are 
the agreement to relocate U.S. forces from the Seoul metropolitan area, 
a more regional role for USFK, greater information sharing to 
coordinate force improvement plans, terms of reference for a command 
relations study, and the transfer of appropriate military missions to 
ROK forces. Final details to relocate U.S. forces from Seoul and 
consolidate U.S. forces into two hubs south of the Han River remain for 
ongoing ROK-U.S. discussions.
    Australia is a strong ally and special partner in the Pacific. 
Australia's support for a new joint antiterrorism center in Indonesia 
and its Regional Assistance Mission to the Solomon Islands are just two 
recent examples of Australia's solid leadership throughout Oceania. The 
Australian people have demonstrated a steadfast commitment to winning 
the global war on terrorism, and they continue to make valuable 
contributions to OEF and OIF.
    Improving the already high level of interoperability between U.S. 
forces and the Australian Defense Force remains a top priority. A 
comprehensive 2-year study on Strategic and Operational Level 
Interoperability has just concluded. The implementation of its 
recommendations will ensure interoperability continues to advance.
    Australia has the most robust set of range and training facilities 
for air, land and sea operations in the Pacific Rim. The facilities 
range from well-developed, instrumented training ranges to austere 
sites with little existing infrastructure. We have embarked on a 
comprehensive plan to study expanded use of these training areas to 
support the Talisman Saber exercise series and other future training 
initiatives. Future Australia/U.S. combined training events will 
exercise Combined Task Force-level air, land, and sea operations to a 
level rarely found outside the United States.
Republic of the Philippines (RP)
    Designated a Major Non-North Atlantic Treaty Organization (NATO) 
Ally in October 2003, the RP is a strong partner in the global war on 
terrorism. Our bilateral relationship promotes mutually beneficial 
training, Philippine military reform, and increased counterterrorism 
capacity and capability. Despite significant domestic security 
concerns, the RP generously supported OEF with access to facilities and 
airspace, and recently deployed approximately 100 medical, engineering, 
and security personnel for Iraqi reconstruction.
    OEF-Philippines (OEF-P) continues. Last year, we executed a focused 
security assistance plan to support our CT objectives in the 
Philippines. Five security assistance modules enhanced near-term needs 
like light infantry training, night vision skills, and intelligence 
fusion. We also executed the region's most robust Foreign Military 
Financing (FMF) Maintenance Assistance Plan to improve the AFP tactical 
mobility on both land and sea. In February, a refurbished 180 patrol 
craft (ex-U.S.S. Cyclone) was provided to the RP under the Excess 
Defense Articles program. This vessel is now the most capable maritime 
interdiction platform in the Philippine Navy.
    The AFP have improved their effectiveness against the ASG, 
highlighted by December's arrest of ASG terrorist Galib Andang, aka 
``Commander Robot'', on Jolo Island. We continue OEF-P to provide 
training, advice, and assistance to the AFP to improve their capability 
and capacity to deal with terror threats.
    Incremental progress toward our mutual defense goals has prompted a 
complete review of the pace and direction of the AFP as an institution. 
The resulting Joint Defense Assessment is both a template for long-term 
AFP reform and a mechanism by which we are managing near-term CT 
improvements.
    Philippine Defense Reform (PDR) is the engine by which these 
improvements will proceed. The PDR is a broad-based, multi-year 
cooperative effort between the Philippine and U.S. Governments. PDR 
recommendations, implemented in a coordinated and deliberate fashion, 
are designed to address systemic organizational deficiencies, correct 
root causes of strategic and operational shortcomings and achieve long 
term, sustainable institutional improvements in management, leadership 
and employment of the AFP. While we will assist the Philippines through 
normal security assistance processes and through routine military-to-
military exchanges and exercises, the reforms are principally the 
responsibility of the Philippine Government. The Philippines' most 
senior military and civilian leaders are completely supportive of the 
PDR process. We appreciate your continued support of the Philippines 
through Security Assistance funding.
    Thailand also was granted Major Non-NATO Allied Status in December 
2003. Thailand's valuable contributions to regional security stem in 
large part from the capacity building we have mutually pursued.
    Since the October 2002 Bali bombings in Indonesia, Thailand has 
been particularly open and cooperative in the global war on terrorism, 
highlighted by the arrest on Thai soil of JI leader Hambali and other 
JI operatives. Thailand currently has about 450 engineers and medical 
personnel supporting Iraqi reconstruction, completed a significant 
engineering deployment to OEF in Afghanistan, and led military peace 
observers in Aceh, Indonesia, building on the Thai military's previous 
sustained peacekeeping effort in East Timor.
    Thailand routinely supports our access and training requirements 
and plays generous host to USPACOM's premier multilateral exercise, 
Cobra Gold. Cobra Gold 2004 will be our 23rd combined/joint bilateral 
exercise with the Royal Thai Armed Forces. Cobra Gold is our flagship 
vehicle for building regional competencies to respond to an expanding 
range of transnational security situations. By adding this 
multinational exercise dimension in an environment that trains for 
peacekeeping in addition to responding to transnational threats, 
Thailand assumes an active role in promoting South East Asia security 
and demonstrates capability as a regional leader.
    Singapore is emerging as a regional leader and eager contributor to 
Asia-Pacific security. Its aggressive approach to important issues 
ranging from SARS to counterterrorism to maritime security, coupled 
with its outspoken support for a strong U.S. presence in Southeast 
Asia, make this relationship among the most important in the Pacific 
theater.
    Our friendship with Singapore--more than just a friendship--has 
matured beyond expectations. Soon we will conclude a Strategic 
Framework Agreement, providing structure and organization to our 
bilateral efforts with sufficient flexibility to continue to mature 
along with our relationship. Together, we are exploring opportunities 
for expanded access to Singaporean facilities while increasing 
information and technology exchange.
Malaysia
    Our relations with the Malaysian Armed Forces continue to weather 
periodic hurdles, most often characterized by opposition to U.S. 
policies in general and military operations in the global war on 
terrorism in particular. Despite the rhetoric, our military ties are 
cordial and cooperative, sharing information and best practices in 
maritime security and counterterrorism.
    Malaysia's influence extends beyond Southeast Asia. It currently 
holds the chairmanship of the Organization of Islamic Conference and 
the Non-Aligned Movement. Regionally, Malaysia is an influential 
leader, focused on the terror threat from JI. The recently inaugurated 
Regional Counterterrorism Training Center in Kuala Lumpur and combined 
Celebes Sea patrols with the Philippine Navy are but two examples of 
its willingness to contribute to regional security.
India
    Our military-to-military program with India leads the larger 
bilateral relationship and is already providing security benefits in 
South and Southeast Asia. In the past year, mutual understanding has 
improved, exercise complexity has increased, and interest in foreign 
military sales has risen dramatically.
    All USPACOM components have conducted a number of successful 
training events with the Indian military, including the first-ever 
exercise between U.S. front line fighter jets and Su-30K Flankers. 
These events contribute to the combat effectiveness of U.S. forces.
    We have developed a long-range plan outlining mutually beneficial 
activities that build upon this momentum. These programs are designed 
to increase our proficiency and interoperability with Indian forces 
while addressing shared interests like maritime security. Our military 
cooperation directly contributes to the expansion of our strategic 
partnership with India.
    Indonesia is the world's most populous Muslim nation and third 
largest democracy. Sitting astride vital trade routes and targeted for 
destabilization by terrorists, Indonesia's success is crucial to peace 
in the Pacific. Its democratic development requires both effective CT 
efforts and Tentara Nasional Indonesia (TNI) professional reform.
    The government has effectively responded to the bombings in Bali 
and Jakarta, arresting and convicting many key participants and sharing 
information with its neighbors. We continue to assess opportunities to 
increase Indonesia's capacity and cooperation against the JI.
    The TNI is the most coherent government institution and will play a 
central role in shaping the future of the democracy. It is also an 
organization tainted by past human rights abuses, a lack of 
accountability, and corruption--conditions that led to restrictions on 
our military-to-military relationship. Indonesia now acquires non-
western military hardware and training that is incompatible with our 
own. These conditions move Indonesia further away from the U.S. sphere 
of influence.
    The TNI appears committed to reform, and there is evidence of 
positive change in the military. To positively shape that reform, and 
working with our embassy country team in Jakarta, we have developed a 
plan of activities that meets all legal constraints. We will leverage 
electronic IMET, Regional Defense Counterterrorism Fellowships, and 
other authorized multilateral venues to expose Indonesian officials, 
including appropriate TNI officers, to non-lethal U.S. professional 
military standards.
    East Timor is hard at work developing the governing institutions 
and the political culture for enduring democracy. Though progress is 
being made, this is a long-term and daunting challenge. The country 
faces a weak economy, high youth unemployment, and low literacy levels.
    Our security goals for Timor-Leste are to support the development 
of a civil-military defense establishment that is fully subordinate to 
civilian authority and the rule of law, and to assist in the 
development of the 1,500-man Falantil-Force Defense Timor-Leste (F-
FDTL) as a credible self-defense force. Our program is coordinated with 
Australia. IMET and FMF programs are being used to fund English 
language training, and Mobile Training Teams are being planned to 
provide education and training to support the development of civil/
military defense capabilities. We are also conducting small unit 
exercises that enable USPACOM forces to train with the F-FDTL. This 
allows our forces to take advantage of the F-FDTL's jungle warfare 
experience in challenging mountainous terrain.
China
    Our modest but constructive military-to-military relationship with 
China continues. Guided by Public Law 106-65 (National Defense 
Authorization Act of 2000), it is limited to non-warfighting venues 
such as high-level exchanges and Humanitarian Assistance/Disaster 
Relief cooperation.
    The last year has featured U.S. warship visits to Zhanjiang and 
Shanghai. The Chinese reciprocated with a two-ship visit to Guam in 
October. Late last year, USPACOM also hosted the Nanjing Military 
Region Commander, Lieutenant General Zhu Wenquan, and Defense Minister, 
General Cao. These exchanges communicate our values and demonstrate the 
high quality of our people.
Taiwan
    Our relationship with Taiwan is guided by the Taiwan Relations Act 
of 1979. Taiwan's ability to defend itself remains the focus of our 
efforts, given added emphasis by the Chinese military buildup across 
the Strait. Our relationship supports development of a modern and joint 
military institution that promotes stability, democracy, and prosperity 
for Taiwan.
Vietnam
    Our military-to-military relationship with Vietnam is progressing 
on a modest but positive vector. The Vietnamese Defense Minister's 
historic visit to Washington last year was followed in November by our 
first port call to Ho Chi Minh City since 1975. These events, combined 
with my visit to Vietnam in February 2004, represent straightforward 
but symbolic steps in our relationship.
    We share a number of security concerns with Vietnam. Of course, our 
most robust military-to-military program focuses on POW/MIA recovery. 
But there may also be room to cooperate in counternarcotics, 
counterterrorism, and peacekeeping. We hope the next year will benefit 
from Vietnam's new openness to build a relationship that looks to the 
future while respecting the past.
    Asia-Pacific Center For Security Studies (APCSS) continues to bring 
together current and future military and civilian leaders to discuss 
nonwarfighting security concerns in programs that promote our regional 
security cooperation objectives. Through its Executive Courses and 
Conference program, the APCSS provides Asia-Pacific leaders a premier 
venue to address security challenges from a multinational perspective. 
We are careful to include countries like Pakistan and Russia which, 
though not within USPACOM's AOR, clearly have security stakes in the 
Pacific. The Center is attracting the right people to reinforce U.S. 
policy, address relevant regional issues, and assure access to nations 
in the region. Congressionally appropriated RDCTF Program funding will 
be used to develop and conduct a semiannual course designed to 
facilitate comprehensive regional solutions in the fight against 
terrorism.
    Center of Excellence (COE), a USPACOM Direct Reporting Unit 
established by Congress in 1994, manages capacity building programs in 
peacekeeping, stability operations, HIV/AIDS mitigation for military 
forces, and disaster response and consequence management planning. 
These activities, typically conducted on a multilateral basis with 
current and potential coalition partners, reinforce relationships and 
develop confidence across the AOR. They also expand regional 
capabilities to support multinational coalition and peacekeeping 
operations around the world.
    Through its tailored education programs for U.S. force components, 
COE improves understanding of and relations with civilians active in 
complex contingencies, crisis transition, and peace support operations. 
For example, COE supports USARPAC's coordination of responses to CBRNE 
incidents at U.S. installations in Hawaii, Alaska, and across the AOR. 
I ask for your continued support of this important institution.
Chiefs of Defense (CHOD) Conference
    One of our premier senior level theater security cooperation 
activities, USPACOM annually hosts this regional conference that brings 
together Asia-Pacific CHOD Chairmen of the Joint Chiefs of Staff 
(CJCS), equivalents for a series of discussions on regional defense 
issues of mutual interest. The October 2003 conference was held in 
Honolulu, with senior military leaders from 23 nations, including our 
CJCS, General Myers, in attendance. The conference theme, ``Security 
Transformation in the Asia-Pacific Region,'' provided an open forum for 
candid dialogue among the largest group of CHODs to participate since 
the conference's inception in 1998. The ``Transformation'' theme 
focused on three areas; Emerging Concepts for Maritime Security, 
Responding to Terrorism and Insurgencies, and Multilateral and Intra-
governmental Operations. The CHOD's Conference continues to provide an 
excellent forum to foster understanding, build confidence, strengthen 
relationships, and promote stability. Next year, the conference will be 
co-hosted by the Japan Self Defense Force in Tokyo.
    Foreign Military Financing provides vital support to developing 
countries involved in combating terrorism and other transnational 
threats. Funds provided in the Foreign Operations, Export Financing and 
Related Appropriations Act, 2003 and the emergency FMF Supplemental 
directly supported security cooperation priorities throughout the AOR. 
FMF and Sales contributed directly to the successful prosecution of al 
Qaeda network-linked terrorists in the Philippines and met basic needs 
to improve the security environment in several other countries.
    USPACOM typically receives approximately 7 percent of the 
discretionary FMF funds. Legislative proposals to improve the security 
assistance process and add flexibility in the use of O&M funding have 
been submitted by my staff for your consideration.
    IMET continues to be an effective, low-cost component of the 
Security Assistance effort. The program provides U.S. access to and 
disproportionate influence with foreign governments. Furthermore, it 
exposes future leaders to U.S. values and commitment to the rule of 
law, the role of a professional military in a democratic society and 
promotes military professionalism. Grant funding has removed financial 
barriers to U.S. military education and training for friends and allies 
located in regions subject to untoward influences and contributed to 
the readiness of troops providing post-hostility engineering and 
peacekeeping support in Afghanistan and Iraq. Combined with training 
offered through the Foreign Military Sales process, IMET has supported 
the promotion of U.S. military education and training as the recognized 
standard worldwide. Consequently, demand has surpassed supply as it 
relates to school capacity. Innovation has addressed this issue in the 
near-term but real capacity increases are necessary to build upon our 
success. I appreciate your support of this valuable program.
    Acquisition Cross-Servicing Agreements (ACSA) or Mutual Logistic 
Support Agreement have enhanced interoperability, readiness, and 
provided a cost-effective mechanism for mutual logistics support for 
U.S. and allied forces supporting the war on terror. USPACOM forces 
that participated in fiscal year 2003 Bilateral/Multinational Exercises 
(Cobra Gold and Balikatan) were able to greatly reduce their logistics 
footprint by using ACSAs. Countries that deployed outside the AOR 
(Mongolia, the Philippines, South Korea and Thailand) in support of OEF 
and OIF have benefited significantly from these ACSAs as well.
    PACOM currently has 11 ACSAs in place (Australia, Philippines, 
South Korea, Japan, Singapore, Malaysia, Mongolia, Thailand, New 
Zealand, Fuji, and Tonga). Nine other countries are ACSA--eligible 
(India, Indonesia, Bangladesh, Nepal, Brunei, Maldives, Madagascar, 
Mauritius and Sri Lanka), and we anticipate completing three agreements 
in the very near future. Additionally, we are renegotiating Malaysia's 
ACSA (expires in March 2004) and just signed a revision to Japan's ACSA 
to make it more inclusive for support to the war on terror. Last year 
we finalized Mongolia's ACSA in May and renegotiated Thailand's in 
September.
promoting change and improving our asia-pacific defense posture for the 
                                 future
    Our top security concerns in the Pacific include the possibility of 
conflict on the Korean peninsula, miscalculation in places like Kashmir 
or the Taiwan Strait, and transnational threats like terrorism. These 
concerns--some longstanding and others just emerging--form only a 
subset of the global security challenges to which we and our partners 
must respond. This new threat context demands profound and enduring 
improvements in the way we command, equip, and employ our forces. 
Guidelines for these improvements have been clearly articulated by DOD.
    At Pacific Command, like all regional combatant commands, our job 
is to transform that guidance into action. Several principles direct 
our work.
    First and foremost, it is clear that our longstanding alliances, 
our strong friendships, and the forward presence of our combat forces 
will continue to form the foundation for our security posture in the 
Asia-Pacific region. This fact is reflected in the ``reinforcing the 
constants'' priority outlined earlier. Posture improvements and 
capability improvements, discussed below, are being developed in full 
consultation with our allies. Several mechanisms facilitate our 
dialogue, including the DPRI (Japan), Future of the Alliance Initiative 
(South Korea), Australia Ministerial/Military Representatives, Mutual 
Defense Board (Philippines) and the pending Strategic Framework 
Agreement with Singapore.
    Second, our posture improvements must meet both current and future 
threats. Each change we make is intended to enhance our capability to 
meet security commitments not just in the Pacific, but also around the 
world.
    While studying and incorporating the lessons learned from OEF and 
OIF, we also recognize that many of our warfighting challenges in the 
Pacific were not stressed in those conflicts. Missions like missile 
defense, anti-submarine warfare, and air combat figure prominently in 
many potential conflicts and must continue to be improved.
    Of course, clearly we recognize that just as our own capabilities 
have improved, so too have the military forces of our friends and 
allies. By incorporating these advances into our planning, we will 
improve the effectiveness of combined operations and reduce our 
reliance on forward based support functions.
    Finally, we intend these adjustments to be enduring--improvements 
that not only meet our mutual security needs over the long term but in 
doing so, ease the burden we pose on friends and allies in the region.
    With those principles in mind, USPACOM has developed a sixelement 
construct within which to organize our initiatives. We call it, 
``Operationalizing the Asia-Pacific Defense Strategy.''
           operationalizing the asia pacific defense strategy
Updating Plans
    Our plans and our planning process are being updated to reflect the 
new threat context. Essentially every plan is being revised to support 
the 4-2-1 force planning construct while addressing both state- and 
non-state threats. This construct calls for regionally tailored forces, 
forward stationed and deployed in four primary areas of the globe to 
assure our allies and friends and deter potential aggressors. If 
deterrence fails, our forces must be able to swiftly defeat the efforts 
of two aggressors and, if the President so directs, decisively defeat 
one of those two enemies. In the process, we are incorporating 
improvements in our capabilities--speed, precision, and lethality--
while taking into account advancements in the capabilities of friends 
and allies. Lessons learned from OEF and OIF also inform the process.
    The revision process is being accelerated, and resulting plans 
feature inherent flexibility. In short, we recognize that success 
against emerging threats requires us to sense, decide, and act inside 
the enemy's timelines.
    We're also integrating the resources of relevant government 
agencies into our day-to-day planning and operations. Our inclusion of 
diplomatic, economic, and public diplomacy efforts reflects the fact 
that there simply aren't any strictly military solutions to today's 
security challenges.
Strengthening Command And Control
    Benefiting from habitual command relationships, and using common 
tactics, techniques, and procedures, the synergy offered by joint 
command arrangements provides the speed of command necessary to 
successfully meet future threats.
    Our evolving command and control constructs benefit from 
interagency relationships. The JIACG-CT and JRAC mentioned earlier are 
two examples of joint staff elements that support combatant command and 
joint task force efforts. The expanding mission of the JIATF-W 
demonstrates the great facility of interagency integration.
Standing Joint Force Headquarters
    Last year, PACOM stood up and exercised its first Standing Joint 
Force Headquarters (SJFHQ). In its current configuration, the SJFHQ 
rapidly augments a Joint Task Force command element to accelerate its 
readiness for action. When not specifically tasked, core SJFHQ staff 
plan and train to prepare for a variety of contingencies.
    My vision for the SJFHQ is to have a habitually trained 
organization that reduces long lead times routinely experienced in 
standing up Joint Task Forces. This organization will be trained on 
cutting edge planning and communication processes, tools and equipment 
in order to rapidly deploy and immediately facilitate command and 
control. The SJFHQ needs to be supported with adequate manning. Our 
SJFHQ is currently manned with 22 permanent and 36 augmented personnel. 
As we go forward in developing the SJFHQ (and its processes) for the 
Pacific, we are working closely with USJFCOM, which has been assigned 
overall responsibility for SJFHQ operating procedures.
    We have also developed several concepts and tools to facilitate 
coalition contributions to regional security efforts. Our MPAT program 
is one such initiative that has enjoyed great success. MPAT is designed 
to facilitate the rapid and effective establishment and/or augmentation 
of multinational coalition task force headquarters.
    One of the first products of the MPAT program was a Multinational 
Force Standing Operating Procedure (MNF SOP). These procedures 
standardize processes, promote cooperation, increased dialogue, and 
provide baseline concepts of operation for coalition task force 
efforts. They also serve as a centerpiece for multinational workshops, 
seminars and exercises aimed at improving coalition interoperability 
and operational readiness within the region. The MNF SOPs support the 
Secretary's Transformation Plan and have been shared with USJFCOM to 
support their coalition transformation efforts. Developed by the 
combined efforts of 30 MPAT nations, the procedures are truly a 
multinational initiative.
    Multinational participation in the MPAT program is robust, with 31 
nations participating to date. Participation is not limited to Asia- 
Pacific nations. Canada, France, Germany and the United Kingdom have 
also supported MPAT program events and the development of multinational 
force standing operating procedures.
    Currently, programs to support coalition building are financed by 
headquarters O&M funds. Additional funding marked specifically for 
multinational transformation efforts would greatly improve the Unified 
Commander's ability to improve ongoing efforts and develop new 
transformation efforts.
    As we strengthen ties with multinational and coalition partners, 
USPACOM continues to develop restricted-access and secure Internet 
opportunities with programs such as CENTRIXS and APAN. Protection of 
our coalition networks with information assurance technologies is a key 
component of our experimentation and transformation effort. We're also 
transforming our capability to communicate with coalition partners 
using machine language translation through a variety of text, voice, 
and pictorial translators.
    The ability to place instructional material on the APAN to provide 
Internet-based training and Advanced Distributed Learning would benefit 
our Asia-Pacific partners and support our TSCP. We could more 
effectively use focused military education programs to develop regional 
skills required to accomplish cooperative security missions, improve 
civil-military relations, increase respect for human rights, and 
strengthen democratic principles. For this reason, legislative 
initiatives have been drafted aimed at amending law to allow for the 
SECDEF, after consultation with the Secretary of State, to authorize 
the combatant commander to provide traditional and Internet-based 
education and non-lethal training to military and civilian government 
personnel of friendly foreign nations.
    Partnering with USJFCOM on a joint fires initiative, USPACOM has 
integrated leading-edge time-sensitive targeting technology into joint 
operations across the strategic and operational force levels. Over the 
next 2 years, with your help, we envision extending our joint fires 
capabilities to the tactical level through a mix of fires and common 
picture technologies, such as Joint Task Force Wide Area Relay Network 
(JTF WARNET) and FORCEnet. We've already reduced the targeting cycle 
from hours to minutes by improving cross-component collaboration and 
targeting efficiencies, but there's still room to improve. The end 
result will be a more seamless battle space with coordinated fires and 
reduced risk of fratricide.
    We are increasing our capabilities for immediate employment, 
emphasizing expeditionary combat power. Each of these capabilities has 
been evaluated to ensure support for regional contingency plans while 
meeting global requirements. Missile defense has already been 
discussed.
Stryker Armored Vehicle
    The Stryker armored vehicle combines adaptability, firepower, and 
high technology in an expeditionary package. Lifted by C-17 aircraft or 
High Speed Vessels, Strykers have great relevance throughout the 
theater and are currently proving themselves under combat conditions in 
Iraq, demonstrating a readiness rate that exceeds current requirements. 
We look forward to the future Stryker brigades in Hawaii and Alaska.
F/A-22 Raptor
    We need your support to fund and field the F/A-22 Raptor in the 
USPACOM AOR. The transformational capabilities of this remarkable 
aircraft will have enduring relevance for our warfighting needs, and 
promise to directly enhance both warfighting effectiveness and war plan 
options in the near future.
Nuclear-Powered Cruise Missile Attack Submarines (SSGN)
    The conversion of four Trident class submarines to cruise missile/
Special Operations Force (SOF) carriers has particular appeal in the 
Pacific, where our most demanding potential warfights and the 
continuing threat of terrorism converge. We appreciate your far-sighted 
support of this important platform.
New Operating Patterns And Concepts
    These immediately employable forces are in turn integrated into 
operating patterns and concepts that satisfy both peacetime and wartime 
requirements. For example, the Navy's first Expeditionary Strike Group 
recently completed a very successful deployment to Southwest Asia and 
the western Pacific. Tailored air packages, based and launched from 
such maritime platforms, can satisfy a variety of missions ranging from 
non-combatant evacuation to maritime interdiction. This concept is 
particularly adaptable in joint and combined settings.
    As yet another example, we routinely deploy bomber elements to 
Guam, demonstrating both the responsiveness and flexibility of the U.S. 
Air Force and America's ability to respond quickly to any crisis in the 
AOR.
Improving Force Posture And Footprint
    Changes in the global security environment provide both the 
opportunity and the necessity to improve our force posture, positioning 
forces where they have the greatest warfighting relevance while 
reducing irritants to host nation citizens. We are considering a number 
of posture improvements--each of them a response to new threats, 
updated plans, and increased capabilities of allied and friendly 
forces.
    This element of our transformation strategy is underwritten by five 
primary assumptions. First, our network of alliances and partnerships 
in the Pacific region is a strategic asset for the Nation--it will not 
be undermined. We also know that our posture must allow us to deal with 
uncertainty--because in the future, we probably won't fight from our 
current positions. Of course, we are designing posture adjustments to 
facilitate employment of forces both within and across combatant 
command regions. Fourth, the immediately employable forces discussed 
above argue for forward force presence. In short, we're not looking to 
move combat power back toward the U.S. mainland. Finally, technological 
advances allow us to focus on capabilities, as numbers no longer 
reflect actual combat power.
    We are well aware of the domestic and international political 
sensitivities associated with these changes. We also appreciate the 
complexity these changes add both to the upcoming BRAC process in 2005 
and to our continuing MILCON programs. We will keep our friends, 
allies, and Congress informed.
Diversifying Access And Enroute Logistics
    Finally we want to diversify contingency access opportunities in 
the Pacific region. Increasing our access options improves training 
opportunities, contributes to theater security cooperation objectives 
and, most important, provides warfighting flexibility when we need it 
most. We are looking at a number of Cooperative Security Locations 
throughout the Pacific--``places'' rather than ``bases'' that meet 
these goals.
                           summary statement
    In USPACOM, our dedicated men and women, both in and out of 
uniform, continue to operationalize our Nation's strategic guidance, 
assuring our allies, dissuading our adversaries and deterring 
aggression. The combined talents and energies of our region's friends 
and allies continue to promote peace and prosperity in the Asia-Pacific 
region. We are fully committed--in every conceivable way--to winning 
the war against terrorism. Meanwhile, we are maintaining a ready and 
viable fighting force capable of decisively defeating any adversary, 
all the while mindful that our personnel, our friends, and allies and 
our progressive transformation efforts will continue to improve our 
Asia-Pacific defense posture for the future.
    Our finest citizens wear the cloth of the Nation. They have never 
doubted nor failed to appreciate your advocacy. On behalf of the men 
and women of U.S. Pacific Command, thank you for your support, and 
thank you for this opportunity to testify on our defense posture.

    Chairman Warner. Thank you for a very good statement, 
Admiral. We are very proud of you and your distinguished career 
of service to this Nation.
    Admiral Fargo. Thank you.
    Chairman Warner. You fulfill your role with a great deal of 
enthusiasm and wisdom. Thank you.
    Admiral Fargo. Thank you, sir.
    Chairman Warner. We will now listen to General LaPorte.

   STATEMENT OF GEN LEON J. LaPORTE, USA, COMMANDER, UNITED 
 NATIONS COMMAND AND REPUBLIC OF KOREA/UNITED STATES COMBINED 
  FORCES COMMAND, AND COMMANDER, UNITED STATES FORCES KOREA; 
  ACCOMPANIED BY MAJ. GEN. TIMOTHY DONOVAN, USMC, C-5, UNITED 
                      STATES FORCES KOREA

    General LaPorte. Senator Warner, Senator Levin, and 
distinguished committee members: I am honored to appear before 
the committee to update you on the current situation in the 
ROK. I want to extend the thanks of all the soldiers, sailors, 
airmen, marines, and DOD civilians who serve in Korea. Your 
unwavering support provides these dedicated men and women with 
the resources to maintain the readiness that underpins 
peninsula security and regional stability. You can be 
justifiably proud of your servicemembers and DOD civilians 
serving in Korea.
    The security and stability of the Northeast Asia region is 
a long-term interest of the United States. Along with our 
allies and friends, we continue to deter threats to security, 
promote freedom, and contribute to regional prosperity. The 
presence of the United States forces in Northeast Asia 
signifies our enduring commitment to these goals.
    The ROK has long been a key U.S. regional ally and leading 
democracy in Northeast Asia. In the ROK, democratic processes 
continue to govern the nation, demonstrated by the peaceful 
constitutional processes being used to address allegations 
against President Roh.
    The ROK-U.S. military alliance exemplifies cooperation 
among democratic nations to promote shared enduring interests. 
Our alliance remains steadfastly committed to the fundamental 
purpose, to deter and defend against North Korean threats and 
to strengthen mutual commitment to regional security and 
stability. The combined forces of the ROK and the U.S. remain 
trained and ready to accomplish its security missions.
    In addition to its predominant role in peninsula defense, 
the ROK has demonstrated a sustained commitment to coalition 
operations in Afghanistan and Iraq. Since 2002, the ROK has 
contributed up to 500 rotational medical and engineer troops to 
Afghanistan and the ROK Air Force and Navy have flown and 
sailed in support of the United States forces engaged in the 
war on terrorism. Last year the ROK deployed a 675-person 
contingent for stability operations and pledged $260 million 
for reconstruction in Iraq.
    This past February, the national assembly approved the 
dispatch of up to 3,000 additional troops to Iraq. When this 
contingent deploys, the ROK will have the third largest troop 
contingent in support of the Iraqi coalition.
    On the Korean peninsula, the combined forces of the ROK and 
the United States alliance are transforming, guided by the 
enhanced, shape, and align construct which synchronizes our 
efforts and ensures that the ROK-U.S. alliance remains relevant 
to the security needs of both nations. Together we are working 
to enhance our combined military capabilities to bring state-
of-the-art military technologies and operational concepts to 
the Korean theater, strengthening our combined peninsula and 
regional deterrence and readiness.
    These enhancements include improved armored vehicles, air 
defense systems, chemical and biological defense, and advanced 
precision weapons. Advanced concept technology demonstrations 
programs such as Theater Effects-Based Ops, Tactical Missile 
System Penetrator, and Joint Blue Force Situation Awareness 
have demonstrated promising ways to enhance the capabilities of 
U.S. forces based in Korea. We also will continue to improve 
individual protective equipment, including Interceptor body 
armor and chemical protective equipment.
    United States forces continue to demonstrate the ability to 
rapidly reinforce the Korean peninsula with advanced 
capabilities, such as the C-17 aircraft, deploying Stryker-
equipped Army units, and high-speed vessels moving MEFs to the 
peninsula.
    We have begun to shape the combined forces by transferring 
military missions from the United States forces to the ROK 
forces. These changes acknowledge the growing capabilities of 
the ROK military in its predominant role in peninsula defense 
while maintaining the firm United States commitment to 
peninsula security and regional stability.
    We continue to align the United States forces into two hubs 
of enduring installations that support an enduring United 
States military presence in the ROK. Consolidating and 
realigning United States forces, including the Second Infantry 
Division and units stationed in the Seoul metropolitan area, 
will increase our operational capabilities while improving 
readiness and quality of life for United States servicemembers. 
These enduring hubs, coupled with the prepositioned equipment, 
provide the strategic flexibility to rapidly reinforce the 
Korean peninsula and to promptly respond to regional security 
concerns.
    The realignment of the Second Infantry Division, begun 
under the 2003 land partnership plan, is a major component of 
transforming the USFK to meet future security requirements. The 
realignment of the Second Infantry Division depends on stable 
funding to existing projects in the future years defense plan.
    We are concluding negotiations to relocate the United 
States forces from Seoul. The Yongsan relocation, done at the 
request and the expense of the ROK government, will enhance the 
operational readiness of the alliance, improve facilities and 
quality of life for the United States forces, and return 
valuable land to the Korean people. With your continued 
support, transformation of the USFK will result in a more 
capable and sustainable U.S. military presence in Korea and 
produce a stronger military alliance.
    Improving community relations and quality of life remain 
top priorities in Korea. Our good neighbor programs, 
implemented at all command levels, continue to promote positive 
community relations with our Korean hosts. These programs, such 
as English language tutoring, cooperative humanitarian and 
conservation projects, and local Korean-American friendship 
associations, build mutual understanding and cultural 
appreciation.
    Service member quality of life in Korea is trending upward. 
With your support, we continue to improve the operational 
facilities, housing, and community support facilities through 
renovation and construction. These improved facilities along 
with incentives such as increased family separation pay, cost 
of living allowances, and assignment incentive pay have 
increased retention in Korea.
    On behalf of those serving in Korea, I want to thank you 
for your continuing support for these key initiatives and 
directly addressing the substandard living and working 
conditions, thus improving the quality of life in Korea.
    USFK shares your concern about sexual assaults involving 
servicemembers. The command treats sexual misconduct in any 
form as a serious matter and we are taking stringent measures 
to address the issue. We have charged leaders at all levels 
with personal responsibility for rigorously enforcing policies 
and establishing a working group to identify ways to eliminate 
risk factors that may contribute to sexual assault.
    Equally important, we have reinvigorated our educational 
programs, stressing risk factor awareness, prevention, and 
compassionate victim care. This is clearly a leadership issue 
and the leadership in Korea is engaged.
    I thank you for the opportunity to appear before this 
committee and look forward to your questions. Thank you.
    [The prepared statement of General LaPorte follows:]
             Prepared Statement by GEN Leon J. LaPorte, USA
    Mr. Chairman and distinguished members of the committee, I am 
honored to again appear before you as Commander, United Nations 
Command; Commander, Republic of Korea-United States Combined Forces 
Command; and Commander, United States Forces Korea. On behalf of the 
more than 37,500 soldiers, sailors, airmen, marines, and 5,700 DOD 
civilians serving in Korea, I thank you for your unwavering support 
which enables us to maintain readiness and accomplish our deterrence 
mission on the Korean peninsula. I appreciate this opportunity to 
present my assessment of the command and our implementation plan for 
continued military transformation of the ROK-U.S. Alliance.
    Much has changed in the more than half century of the ROK-U.S. 
Alliance, and the pace of change has quickened since the events of 
September 11, 2001, violently demonstrated that the world security 
would be governed by a new paradigm. A new generation of young South 
Koreans, cognizant of their national achievements and aspiring to a 
larger role in international affairs, is now assuming leadership of the 
ROK. Last year, North Korea posed renewed threats to global security by 
acknowledging its pursuit of nuclear weapons, and withdrawal from the 
Nuclear Nonproliferation Treaty and other related international 
agreements. At the same time, the United States' security 
responsibilities, and our interdependence with allies and coalition 
partners, have grown throughout the world.
    While the dynamics of the security environment have changed and our 
security relationships continue to mature, the fundamental purpose of 
the ROK-U.S. Alliance remains unwavering: deter and defend against the 
North Korean threat; and mutual commitment to regional security and 
stability. Together, we continue to steadfastly oppose North Korea's 
renewed efforts to divide the Alliance and threaten peaceful nations. 
We are engaged in a detailed policy dialogue for the military 
transformation of the ROK-U.S. Alliance over the next few years. This 
transformation plan includes momentous changes for an enduring United 
States military presence in Korea and a stronger alliance. This 
military transformation will bolster the U.N. Command and the ROK-U.S. 
Combined Forces Command, the guarantors of regional security and 
stability.
    Today, I will address the importance of continued stability and 
security in Northeast Asia, the North Korean threats to the region and 
the world, the changes in South Korean society, the ROK's contributions 
to global and regional security, and the progress toward strengthening 
the alliance through ``Enhance, Shape, and Align'' initiatives. 
Finally, I will outline areas needing your sustained investment for the 
future of United States Forces based in Korea and the ROK-U.S. 
Alliance.
                the northeast asia security environment
    The United States has significant, long-term interests in the 
Northeast Asia region. These interests include economic cooperation and 
interdependence, mitigating threats to regional stability, and 
fulfilling our commitments to allies and friends. Economic 
interdependence is a result of improved information technologies and 
transportation networks that speed the flow of capital, goods, and 
services around the globe. United States trade with the People's 
Republic of China, Russia, Japan, Taiwan, and the ROK approaches one 
fourth of our total international trade, exceeding our trade with the 
European Union, and is second only to the United States trade within 
the North American Free Trade Agreement. Bilateral ROK-U.S. trade 
exceeded $59 billion last year, and United States--Japan trade was over 
$155 billion. In addition to bilateral trade, United States direct 
investment in the larger Northeast Asia approached $100 billion in 
2003. United States trade with, and investment in, the region is 
substantial and projected to continue growing in the near term.
    Even with the trends toward economic cooperation and 
interdependence, well documented historical enmity and a tenuous 
balance of power remain potential sources of instability. The Northeast 
Asia region is the crossroads of five of the world's six largest 
militaries and three of the world's declared nuclear powers.\1\ There 
has been an upward trend in regional military expenditures over the 
last decade, with the regional average budget for force improvement 
increasing 15 percent, while the global average declined by 35 percent. 
North Korea's efforts to strengthen its military, in light of its 
bellicose rhetoric and history of provocation, remain the most 
substantial threat to regional peace.
---------------------------------------------------------------------------
    \1\ The world's six largest militaries, measured by personnel 
strength, are: The People's Republic of China, United States, India, 
North Korea, Russia, and the Republic of Korea. The declared nuclear 
powers under the Nuclear Nonproliferation Treaty (NPT) are: United 
States, Russia, China, France, and Britain. India and Pakistan are 
considered self-declared nuclear powers, acknowledged to possess 
nuclear weapons, but not signatories of the NPT.
---------------------------------------------------------------------------
    The longstanding presence of United States Forces and the strength 
of our strategic partnerships are the foundation of regional stability 
that is the catalyst for continued cooperation and prosperity. Forward-
deployed United States Forces demonstrate our resolve to strengthen and 
expand alliances, eliminate threats from WMD, work with partners and 
friends to defuse regional conflicts, and stand with our partners to 
oppose threats to freedom wherever they arise. Robust United States 
Forces based in Korea, along with the ROK and other regional partners, 
continue to deter an increasingly manipulative North Korea.
        north korean challenges to regional and global security
    North Korea poses a variety of threats to regional and global 
stability. Its leader, Kim Jong Il, shows little regard for the welfare 
of ordinary citizens, and uses brutal internal security measures to 
ensure that no internal challenge to his regime emerges. He maintains 
large conventional and SOF. He sustains an active chemical and nuclear 
weapons development program, and is a major proliferator of missiles 
and related technologies. He increasingly supports illicit activities 
such as drug trafficking and counterfeiting to generate hard currency. 
North Korea demonstrates little regard for international convention or 
agreements. The regime repeatedly uses the threat of large-scale war 
and weapons of mass destruction in order to extort aid or other 
concessions from the international community.
    While reunification of the peninsula under North Korean control 
remains the primary stated purpose of the regime, Kim Jong Il's 
immediate overriding concern is to remain firmly in control. He 
personally occupies all key party, military, and government leadership 
positions. Kim Jong Il rules the Nation through a small cadre of 
lavishly rewarded elites who control all aspects of North Korean life. 
There is little evidence that any significant threat to the regime 
exists.
The North Korean Economy
    The North Korean economy continues to decline and shows little 
prospect of recovery. Despite North Korea's limited experiments with 
reform, total economic output has dropped nearly 50 percent since 1992. 
Today, factories operate at less than 25 percent of 1992 capacity. The 
Nation's power and transportation infrastructure are in need of massive 
overhaul. Agricultural output can only feed 66 percent of the 
population. North Korea's economic decline is largely due to poor 
policy, mismanagement, under-investment, and a lack of resources. The 
regime's ``Military First'' policy directs approximately one-third of 
the domestic output to the military, thus limiting resources that could 
be used to improve the welfare of its people. North Korea's economy 
remains bolstered by aid from the international community and profits 
from regime-sanctioned illicit activities such as drug production, 
smuggling and counterfeiting.
The North Korean Military
    The North Korean People's Army ensures regime survival by deterring 
external threats and providing the tool that enables the Kim regime to 
extort aid from the international community. North Korea has the fifth 
largest armed force in the world.\2\ The ground force has almost 1 
million active duty soldiers. About 70 percent of the North Korean Army 
is deployed south of Pyongyang, where they are capable of attacking 
with little tactical warning. A large number of North Korean long-range 
artillery systems can strike Seoul from their current locations. The 
North Korean air force has over 1,700 aircraft. The navy has 
approximately 800 vessels. The derelict North Korean economy has 
impaired the readiness, modernization, and sustainability of their 
conventional forces over the past decade, crippling Pyongyang's 
capacity to reunify the peninsula by force. However, the size, 
firepower, and proximity of North Korea's conventional forces to 
Seoul--coupled with their lethal asymmetric threats--give North Korea 
the capability to inflict great destruction and casualties if they 
chose to attack.
---------------------------------------------------------------------------
    \2\ North Korea has a population of 22 million; over 1 million are 
active duty military, an estimated 2 million are employed in military 
support or state security work, and over 6 million are members of the 
Armed Forces Reserve.
---------------------------------------------------------------------------
North Korean Asymmetric Threats: Special Operations Forces, Missiles, 
        and Weapons of Mass Destruction
    North Korea's asymmetric capabilities are large and dangerous. 
North Korea's 122,000-man SOF is the world's largest, and a high 
funding priority for the regime. They are tough, dedicated, well-
trained, and profoundly loyal to the Kim regime. During conflict, these 
forces would direct long-range fires against key facilities, attack to 
disrupt command facilities of the ROK-U.S. Combined Forces Command, and 
seek to destroy force generation and reinforcement from beyond the 
peninsula.
    The North Korean ballistic missile inventory includes over 500 SCUD 
missiles that can deliver conventional or chemical weapons across the 
entire peninsula. They continue to produce and deploy medium-range No 
Dong missiles capable of striking cities and military bases in Japan 
with these same payloads. Continued research on a three-stage variant 
of the Taepo Dong missile could provide North Korea the capability to 
target the continental United States.
    North Korea has an assessed significant chemical agent stockpile 
that includes blood, blister, choking, and nerve agents. These weapons 
threaten both our military forces and civilians in the ROK and Japan. 
We also assess Pyongyang has an active biological weapons research 
program, with an inventory that may include anthrax, botulism, cholera, 
hemorrhagic fever, plague, smallpox, typhoid and yellow fever. North 
Korea believes that these missile, chemical, and biological weapons 
programs measurably contribute to its security from external threats 
and supplement their conventional military capabilities.
    North Korea's abandonment of the 1994 Agreed Framework and 
International Atomic Energy Safeguards Agreement, withdrawal from the 
Nuclear Nonproliferation Treaty, restart of the Yongbyon nuclear 
reactor, and declarations they have reprocessed 8,000 spent nuclear 
fuel rods indicate they are following a path that may lead to 
additional nuclear weapon production. The intelligence community 
assesses North Korea already has one or two nuclear weapons, and that 
they have the potential to make several additional nuclear devices. The 
Kim regime has clearly stated it will continue to increase its 
``nuclear deterrent capability'' unless it receives significant 
economic assistance, security guarantees, and appropriate political 
concessions from the international community. In this context, 
proliferation of North Korean advanced weapons and related technologies 
remains a significant concern to the United States and its allies.
Assessment of the North Korean threats
    North Korea poses a dangerous and complex threat to peace and 
security in the region and throughout the world. The Kim regime 
maintains a delicate balance of threats to ensure regime survival. They 
maintain a massive, offensively postured, conventional force that far 
exceeds the requirements to defend their country. Their continuing 
weapons of mass destruction programs constitute a substantial threat to 
Northeast Asia and the world. The Korean People's Army continues to 
invest heavily in military programs designed to offset our operational 
superiority. We see no indications the Kim regime will change its 
``Military First'' policy, brinkmanship, nuclear challenges, missile 
proliferation, and illegal activities that ensure regime survival. The 
North Korean people will continue to suffer under an oppressive regime. 
For the foreseeable future, North Korea remains a major challenge to 
security in Northeast Asia.
             the republic of korea--united states alliance
    The ROK-U.S. Alliance was formed to deter North Korean aggression 
and preserve peace and security in the region. For over 50 years, we 
have accomplished these tasks in a dynamic political and security 
environment. Much has changed in those 50 years, and many of the 
changes are irreversible. Our economies have prospered and become more 
intertwined. Democratic institutions are stronger, reflecting the 
aspirations of new generations. Though these changes have not always 
been smooth in either country, the Alliance has evolved to remain the 
foundation of regional deterrence and security. The ROK has been, and 
remains a reliable ally in regional and global security.
The Republic of Korea Today
    Throughout our half-century of economic and security cooperation, 
the ROK has become one of the leading economic powers and a pre-eminent 
democracy in the region. The ROK has the 11th largest gross domestic 
product in the world, and the third largest in Northeast Asia. This 
growth has been fueled by global exports of high technology and 
consumer goods. The United States is the ROK's largest trading partner, 
with 2003 annual bilateral trade exceeding $59 billion. The United 
States was the second largest source of foreign direct investment in 
the ROK, totaling about $1.2 billion (19.2 percent of total) in 2003.
    While the ROK has firmly secured its place as an independent 
economic force in the global economy, 2003 has not been without 
challenges. Declines in domestic consumption slowed the growth of their 
domestic economy from 6.3 percent in 2002 to 2.9 percent in 2003. High 
household debt, rising unemployment, increasing individual and 
corporate bankruptcy, and disruptive labor strikes combined to further 
slow their economy. Rising labor costs and appreciation of the won 
against the dollar accompanied a shift in ROK foreign direct investment 
toward China and efforts to conclude bilateral free trade agreements 
with several nations. Most forecasts indicate a ROK economic recovery 
throughout 2004, with gross domestic product growing at rates between 
4.5 and 6 percent. Analysts expect the ROK's current and trade account 
surpluses to grow over 60 percent in 2004 on the strength of its export 
economy, particularly in the electronics and automobile sectors. 
Fostering economic recovery remains a top priority for the ROK 
government, essential to achieving President Roh's vision of 
transforming the ROK into the transportation, financial, and 
information technology hub of Northeast Asia. Beyond economic growth, 
the Roh administration is focusing on improving the domestic democratic 
process in ways that reflect new societal values of a younger 
generation.
    2003 can be considered a watershed in the development of democracy 
in the ROK. Older, less vocal conservative South Koreans continue to 
support a United States military presence on the Korean peninsula, 
reciprocal security cooperation under the Mutual Defense Treaty, and a 
pragmatic approach to North Korea. However, a generation born after the 
end of the Korean War has begun to assume a larger role in business and 
government. These younger Koreans are keenly aware of their 
achievements and motivated by a heightened sense of nationalism. 
Younger South Koreans generally want a more independent role in world 
affairs, a role consistent with the ROK's economic power. They advocate 
domestic and foreign policies based on national interest, particularly 
with respect to ROK-U.S. relations. Impassioned editorial debate and 
public demonstrations regarding the presence of USFK, the ROK's 
dispatch of troops to Iraq and resolving the North Korea nuclear issue 
demonstrate the strength of their views and the dynamics of domestic 
Korean politics. These dynamics firmly demonstrate that the ROK 
continues to be a healthy democracy, fully capable of managing change 
through constitutional processes.
    Generational perspectives on North Korea clearly illustrate the 
changing social and political dynamics in ROK society. There is a clear 
generational divide over the military threat posed by North Korea. 
Older South Koreans, who recall the devastation caused by the Korean 
War, express a desire to maintain a strong defense against the North 
while following a path of pragmatic engagement to reduce North Korean 
military threats in a sustainable multi-lateral way. Younger South 
Koreans view North Korea as peaceful cultural brothers and potential 
trading partners. Some younger Koreans perceive little military threat 
from the North, expressing the view that North Korea would never use 
its military against the ROK. However, most South Koreans agree on two 
issues: first, a nuclear armed North Korea is an intolerable threat to 
stability; and second, catastrophic failure of the North Korean system 
would destabilize the entire region and have substantial adverse 
consequences for South Korea. To avoid these adverse consequences and 
accommodate domestic views, the ROK has adopted a patient approach 
toward inter-Korean relations.
    The Roh administration developed the ``policy for peace and 
prosperity'' to guide inter-Korean relations.\3\ This policy formally 
opposes North Korea's pursuit of nuclear weapons while continuing 
efforts toward inter-Korean rapprochement through humanitarian 
assistance, family reunions, tourism, and trade. Under the Ministry of 
Unification's ``policy for peace and prosperity'', inter-Korean 
commerce has steadily grown to $670 million per year. The Ministry of 
Unification plans to expand access to the Mt. Gumgang tourist resort, 
develop investment in the proposed Kaesong Industrial Complex, and use 
the inter-Korea transportation corridors to further advance the ROK as 
the transportation hub of Northeast Asia. The ``policy for peace and 
prosperity'' envisions this increased economic prosperity as the engine 
of peace and the key to replacing the Armistice Agreement with a peace 
agreement.\4\ However, full implementation of this policy is predicated 
on resolving the North Korean nuclear issue.
---------------------------------------------------------------------------
    \3\ ``The Policy for Peace and Prosperity'' was developed by the 
Republic of Korea Ministry of Unification and published in 2003; 
updated in January 2004. In summary, the goals of the policy are: (1) 
promote peace on the peninsula; and, (2) pursue mutual prosperity for 
North and South Korea while contributing to prosperity in Northeast 
Asia. Guiding principles and implementing actions include: resolve 
issues through dialogue; promote international cooperation ``based on 
the principle of the parties directly involved''; expand public 
participation in rapprochement dialogue; peacefully resolve the North 
Korean nuclear issue, fully accounting for the positive impact of 
inter-Korean economic cooperation; and replace the Armistice Agreement 
with a Peace Agreement. Available from http://www.unikorea.go.kr/en/
main.php, accessed January 20, 2004.
    \4\ The ``Policy for Peace and Prosperity'' seeks ``the eventual 
replacement of the current armistice agreement with a peace agreement 
between South and North Korea.'' It acknowledges that ``International 
institutional arrangements safeguarding the peace regime should also be 
pursued.'' This Republic of Korea policy seeks a bilateral inter-Korean 
agreement, rather than a comprehensive solution that involves the 
parties represented by the Armistice Agreement.
    The Armistice Agreement, between senior representatives from the 
Korean People's Army, Chinese People's Volunteers, and, the United 
Nations Command, was signed on July 27, 1953 to govern cessation of 
hostilities on the Korean Peninsula. Because the Armistice Agreement 
has not been replaced by a permanent peace settlement, it remains the 
governing authority over all activity inside the Demilitarized Zone, 
including inter-Korean commerce and humanitarian visits. Article I of 
the Armistice Agreement establishes the Military Demarcation Line and 
Demilitarized Zone (DMZ) between the forces and prevents access to the 
DMZ without consent from the Military Armistice Commission. Today, the 
northern side of the DMZ is controlled by the Korean People's Army and 
the southern side of the DMZ is controlled and administered by United 
Nations Command. Article II establishes concrete measures to ensure 
separation of forces along the DMZ. The balance of the Armistice 
Agreement outlines composition, authorities and responsibilities of the 
Military Armistice Commission; recommends that the governments seek 
peaceful settlement of the Korean question, and provides measures for 
amending the Armistice by mutual agreement.
---------------------------------------------------------------------------
    Diverse public opinion reflects the growth of democratic freedoms 
and nationalism in the ROK. The ROK is experiencing changes familiar to 
other democracies--healthy growth and generational transfer of 
authority. It seeks to adapt its foreign policy, establishing more 
egalitarian relations based on mutual interests rather than historical 
attachment. Undoubtedly, United States policies in general, and the 
nature of United States military presence in Korea, are likely to 
remain a central issue in the domestic Korean policy debate, 
particularly in the weeks before the April 2004 quadrennial National 
Assembly elections. Biased media portrayal of the ROK-U.S. Alliance 
will likely continue; however, the foundations of such expressions of 
bias are as much a function of Korean domestic politics as it is an 
expression of genuine anti-American sentiments. However, continued 
cooperation on security interests shows that the Republic of Korea 
continues to be a reliable ally.
Growth in the Republic of Korea--United States Alliance
    This past year marked the 50th Anniversary of the ROK-U.S. Mutual 
Defense Treaty and the Armistice Agreement. Veterans of many nations 
who defended the Republic of Korea during the 1950-1953 war returned to 
Korea to commemorate these historic events. South Koreans of all ages 
welcomed these Korean War veterans, proudly displaying the democratic 
society and economic miracle that grew from the dedication and 
sacrifice of those who defeated unprovoked North Korean aggression.
    During their May 2003 Summit Meeting, President Bush and President 
Roh noted the significance of the 50-year partnership and highlighted 
the importance of building a dynamic alliance relationship for 
continued peace and prosperity on the Korean Peninsula and in Northeast 
Asia. Noting the ROK's growing national strength, the presidents 
pledged to increase mutual security cooperation and to modernize the 
Republic of Korea--United States Alliance by improving military 
capabilities, and consolidating United States Forces south of the Han 
River, including the relocation of United States Forces from the Seoul 
metropolitan area at an early date. The shared views of President Bush 
and President Roh have reinforced the importance of frank dialogue and 
mutually beneficial cooperation between our Nations.
The Republic of Korea's support to global and regional security
    Consistent with this spirit of mutual cooperation, the Republic of 
Korea continues to increase its contributions to allied defense 
burdensharing through troop contributions and pledges of humanitarian 
assistance for Afghanistan and Iraq, participation in United Nations 
peacekeeping operations, and sharing the costs of stationing United 
States Forces in Korea.
    The Republic of Korea remains a consistent contributor to regional 
security and the war on terror. The Ministry of National Defense 
maintains liaison officers at USPACOM and CENTCOM to coordinate support 
for ROK contingents participating in United States-led coalition 
operations in Iraq and Afghanistan. The ROK continued its second year 
of troop and financial support to operations in Afghanistan. Throughout 
2003, the ROK provided a 56-man medical unit and a 150-member engineer 
construction unit in Afghanistan, along with a 38-man medical 
detachment in Kyrgyzstan. ROK contributions to Afghanistan, valued at 
$155 million, included transportation support, radios for two newly 
formed Afghan National Army battalions, and in-kind military 
contributions to stability and reconstruction. The ROK maintains its 
pledge to provide $45 million in reconstruction funds focused on Afghan 
vocational-technical education and medical assistance, $150,000 for 
Interim Afghan Administration expenses and $12 million for regional 
humanitarian aid to Afghanistan's neighbors in the 2002-2004 period.
    Following the defeat of the Saddam Hussein regime in Iraq, the ROK 
provided a 675-man noncombatant contingent for stability operations and 
donated $60 million for reconstruction projects. In October 2003, the 
Roh administration pledged an additional $200 million, delivered over 
the next 4 years, for reconstruction projects in Iraq. In December 
2003, the Roh government pledged to send additional troops to assist 
with reconstruction and humanitarian operations. In February 2004, the 
National Assembly authorized deployment of up to 3,000 additional 
troops composed of both non-combat forces for reconstruction and 
infantry and special operations troops for force protection.\5\ CENTCOM 
and the ROK Ministry of National Defense continue to coordinate the 
details of this additional troop deployment. We congratulate the ROK 
for their continued pledges of commitment to the growing global 
coalition assisting with Iraqi recovery.
---------------------------------------------------------------------------
    \5\ On February 13, 2004, the Republic of Korea National Assembly 
authorized deployment of up to 3,000 additional troops ``for the 
purpose of peace-keeping and reconstitution to Iraq from 1 April to 31 
December 2004.''
---------------------------------------------------------------------------
    Beyond Afghanistan and Iraq, the ROK has been a partner in U.N. 
peacekeeping operations around the globe. After approximately 4 years 
of supporting the U.N. mission in East Timor, the ROK withdrew its 250-
man infantry battalion last October. Six ROK staff officers remain in 
East Timor to support the United Nations operation in the world's 
newest nation. The ROK continued to post 20 medical officers in the 
Western Sahara, 9 military observers to the Kashmir mission, and 7 
military observers in Georgia. Additionally, Lieutenant General Hwang 
Jin-ha continued to command the U.N. Peacekeeping Force in Cyprus, the 
first instance of the Republic of Korea commanding a United Nations 
peacekeeping force. Collectively, these contributions are a strong 
testament to the ROK's commitment to stability and security beyond the 
Korean Peninsula.
The Republic of Korea's support to United States Forces Korea
    The ROK government continued to increase its contributions to 
offset the cost of maintaining USFK. In 2003, the ROK provided support 
equivalent to approximately 40 percent of the non-personnel stationing 
costs of USFK. Last year's indirect cost sharing was valued at 
approximately $544 million and direct cost sharing was $540 million.\6\ 
Based on the current rate of cost-sharing increases, the ROK is poised 
to enter the top half of allied nations contributing to the cost of 
maintaining the installations and services supporting USFK stationed 
within their borders. The upcoming negotiations for the ROK-U.S. 
Special Measures Agreement provide a welcome opportunity to develop a 
long-term agreement for sustained real growth in ROK defense cost-
sharing contributions.
---------------------------------------------------------------------------
    \6\ Indirect cost sharing includes foregone rents for facilities 
used by United States Forces Korea and tax exclusions for goods and 
services provided under the Status of Forces Agreement. Direct cost-
sharing contributions are governed under the existing Special Measures 
Agreement, which will expire in 2004. Under this agreement, the 
Republic of Korea annually increases direct cost sharing by 8.8 
percent, adjusted for inflation. Direct cost sharing contributions are 
a combination of cash payments and in-kind services. Republic of Korea 
direct cost-sharing contributions for 2004 are estimated to be $602 
million based on current economic projections.
---------------------------------------------------------------------------
      strengthening the republic of korea--united states alliance
    Efforts to strengthen the alliance begin with improving the South 
Korean people's appreciation of United States Forces based in Korea. 
The ``Good Neighbor'' programs at every command level continue to 
emphasize the importance of reaching out to our South Korean hosts to 
foster a better understanding of our shared values and interests. To 
connect directly with the South Korean people, we established an 
interactive Korean language web site as a source of information on 
United States Forces Korea. A Korea Advisory Council meets quarterly 
and remains a productive venue for senior USFK leaders to dialogue with 
the ROK's leading citizens, religious leaders, academics, and 
government and business officials. The Korea Advisory Council, coupled 
with the interactive Korean language web site, ensures that our Korean 
hosts have the opportunity to present their views directly to senior 
leaders at every command level of United States Forces based in Korea.
    All commanders of United States units have continued their ``Good 
Neighbor'' programs that are centered on community outreach programs to 
improve mutual understanding with their local hosts. ``Good Neighbor'' 
programs include the Adopt-A-School program, cultural tours and 
exchanges, volunteer English language tutors, and sponsorship of 
orphanages. These efforts contribute to mutual appreciation and allow 
our servicemembers to contribute to the communities in which they live 
and work. Particularly impressive was the large number of United States 
soldiers, sailors, airmen, and marines who volunteered their time to 
assist local communities to clean up after Typhoon Maemi ravaged 
several communities last September.
    These community outreach programs have been accompanied by a 
measurable reduction in the frequency and intensity of protest 
demonstrations in South Korean host cities. Our efforts to improve 
mutual understanding cannot guarantee that United States presence in 
Korea will not be manipulated for domestic political purposes. However, 
we can safely deduce that these community outreach programs contribute 
to building individual friendships that will strengthen the South 
Korean appreciation for the contributions that the men and women of 
USFK bring to the Korean peninsula and Northeast Asia.
Transforming the Commands
    The ROK-U.S. Alliance--a security partnership forged during the 
Korean War and exemplified today through the United Nations Command and 
ROK-U.S. Combined Forces Command--is the foundation for the security of 
the Korean peninsula and continued regional stability. The ROK-U.S. 
Presidential Summit Meeting in May 2003 reinforced the importance of 
the alliance for maintaining vigilance towards North Korea and 
preparing the alliance to contribute to broader regional stability in 
the longer term. The two presidents reinforced their mutual desire to 
establish a stable stationing plan that supports a sustainable, long-
term United States presence and contributes to continued regional 
stability. These mutual presidential commitments reinforce the ongoing 
policy dialogue to foster military transformation and improve the 
alliance through the Future of the ROK-U.S. Alliance Policy Initiative.
    The Future of the ROK-U.S. Alliance Policy Initiative is a 2-year 
long series of consultations, jointly chartered by the United States 
SECDEF and ROK Minister of National Defense at the 34th Security 
Consultative Meeting in December 2002, designed to strengthen and 
transform the alliance.\7\ Key tasks of this consultative body include: 
integrate the transformations of the United Nations Command, ROK-U.S. 
Combined Forces Command, and USFK; establish a sustainable stationing 
environment for United States Forces based in Korea; and examine ways 
to strengthen the alliance in the mid- to long-term. The first year's 
discussions made significant progress on each of these issues, 
resulting in agreements to enhance, shape, and align forces to deter 
North Korea and prepare for future security missions to enhance 
stability in the broader Northeast Asia region. Briefly stated, the 
objectives of the ``Enhance, Shape, and Align'' concept are to ensure 
that we: have the right capabilities on the peninsula to deter and, if 
necessary, defeat North Korean aggression; assign roles and missions to 
the appropriate units; and replace the post-Cold War basing plan with 
less intrusive, enduring hubs. The subsequent paragraphs describe how 
the ``Enhance, Shape, and Align'' concept, supported by command 
priorities, has strengthened the ROK-U.S. Alliance and contribute to 
transformation of United Nations Command, Combined Forces Command, and 
USFK.
---------------------------------------------------------------------------
    \7\ The Future of the Republic of Korea--United States Alliance 
Policy Initiative is a fully integrated interagency consultative effort 
of both governments. The United States delegation includes 
representatives of the Department of State, Office of the Secretary of 
Defense, United States Joint Staff, United States Pacific Command, and 
United States Forces Korea. The Republic of Korea delegation represents 
the National Security Council, the Ministry of Foreign Affairs and 
Trade, the Ministry of National Defense, and the Republic of Korea 
Joint Staff.
---------------------------------------------------------------------------
United Nations Command
    The United Nations Command, the longest standing coalition in the 
history of the United Nations, represents the international community's 
enduring commitment to security and stability on the Korean 
peninsula.\8\ On behalf of the 15 member nations, the United Nations 
Command actively supervises compliance with the Armistice Agreement, 
fulfilling the mutual pledge to ``fully and faithfully carry out the 
terms'' of the Armistice and ``if there is a renewal of the [North 
Korean] armed attack, challenging again the principles of the United 
Nations, we should again be united and prompt to resist.'' Today, the 
members of the United Nations Command coalition in Korea remain 
vigilant in an uneasy peace; ensuring compliance with the Armistice 
Agreement.
---------------------------------------------------------------------------
    \8\ U.N. Security Council Resolutions following the 1950 North 
Korean invasion established the United Nations Command. United Nations 
Command member nations are: Australia, Belgium, Canada, Columbia, 
Denmark, France, Greece, The Netherlands, New Zealand, Norway, 
Philippines, Thailand, Turkey, United Kingdom, and the United States.
---------------------------------------------------------------------------
    United Nations Command responsibilities include Armistice-related 
meetings, impartial investigations of alleged Armistice violations 
committed by either side, and supervision of the two transportation 
corridors through the Demilitarized Zone. Last year, United Nations 
Command officers held 26 meetings with representatives of the North 
Korean People's Army at Panmunjon to discuss matters related to the 
Armistice. These meetings continue to be an important forum for frank 
dialogue, preventing potential miscalculation or misinterpretation by 
the forces deployed along the DMZ.
    Impartially investigating allegations of Armistice violations on 
both sides of the Military Demarcation Line prevents relatively minor 
incidents from escalating into destabilizing crises. In 2003, the 
United Nations Command conducted 22 special investigations of 
incidents, concluding that the North Korean People's Army had committed 
13 major violations of the Armistice Agreement. These violations, an 
increase over last year, raised significant concerns because they 
involved unauthorized Military Demarcation Line crossings or discharge 
of weapons inside the DMZ. The prompt and transparent United Nations 
Command investigation of Armistice-related incidents prevented 
escalation or miscalculation.
    The United Nations Command also monitors Armistice compliance and 
approves DMZ crossings associated with the ongoing construction of the 
two transportation corridors through the DMZ. These transportation 
corridors are integral to the ROK's efforts to foster inter-Korean 
reconciliation and cooperation. Because of the threat posed by North 
Korea's forward deployed forces, the United Nations Command rigorously 
enforces Armistice rules for activities inside the DMZ. This diligence 
ensures that the transportation corridors cannot be exploited for 
prohibited purposes that may adversely affect the security of the ROK.
    The United Nations Command has full responsibility for enforcing 
the Armistice. It has delegated responsibility for patrolling the 
southern half of the DMZ, except the Joint Security Area at Panmunjon, 
to ROK Army units. A combined ROK-U.S. battalion, organized under the 
United Nations Command, provides the physical security of the Joint 
Security Area. During the 25th meeting of ROK-U.S. Military Committee 
in December 2003, our two nations agreed to transfer primary 
responsibility for the protection of the Joint Security Area from 
United States to ROK forces in 2004.\9\ The Military Committee agreed 
that the United States will continue to command the United Nations 
Joint Security Area Security Battalion and provide the nucleus of 
staff, while the ROK will replace all United States personnel directly 
involved in security patrols, manning observation posts, and base 
operations support. This mission transfer is part of a more 
comprehensive agreement adjusting the roles and missions of the 
respective Armed Forces, which acknowledges the increased capabilities 
of the ROK Army and the predominant ROK role in its national security.
---------------------------------------------------------------------------
    \9\ The Republic of Korea--United States Military Committee, 
established by the Combined Forces Command's Terms of Reference and 
Strategic Directives, includes the Senior United States Military 
Representative in Korea, the Chairman of the United States Joint Chiefs 
of Staff, the Chairman of the Republic of Korea Joint Chiefs of Staff, 
the Commander of Combined Forces Command and appropriate members of 
their respective staffs. The Military Committee holds annual meetings 
to review combined defense policy issues and act on directives from the 
Republic of Korea--United States Security Consultative Meeting.
---------------------------------------------------------------------------
    For the foreseeable future, the United Nations Command will 
continue its significant contributions to security and stability on the 
Korean peninsula and in the region. Beyond its direct responsibilities 
to enforce the Armistice, the United Nations Command has the potential 
to become a forum for improving regional military cooperation between 
the ROK and Japan. This near-term cooperation centers on the seven 
United Nations Command bases located in Japan that provide logistical 
support in the event of a conflict on the Korean Peninsula.\10\ 
Notably, the USPACOM TSCP recognizes this opportunity to enhance 
regional security cooperation. This year's visit to United Nations 
Command rear bases in Japan by the ROK's Chairman of the Joint Chiefs 
of Staff is but one example of the United Nations Command's ability to 
facilitate regional security cooperation. Rest assured that the 
dedicated members of the United Nations Command, backed by the 15 
member nations and Combined Forces Command, continue to guard the 
security of the ROK, and contribute to improved regional security 
cooperation and confidence building. Congressional approval of Title 
XII provisions that allow the United States to support our foreign 
coalition liaison officers will continue to enhance the effectiveness 
of the United Nations Command and Combined Forces Command.
---------------------------------------------------------------------------
    \10\ Eight of the United Nations Command (UNC) member nations 
maintain liaison with the UNC rear headquarters in Japan: Australia, 
Canada, France, New Zealand, Philippines, Thailand, United Kingdom, and 
the United States. Use of UNC bases in Japan is governed by a status of 
forces agreement between United Nations Command and the Government of 
Japan. UNC rear bases are located on Honshu (Camp Zama, Yokota Air 
Base, and Yokosuka Naval Base), Kyushu (Sasebo Naval Base), and Okinawa 
(Kadena Air base, Futenma Marine Corps Air Station, White Beach Naval 
Facility).
---------------------------------------------------------------------------
Combined Forces Command
    Since its inception a quarter century ago, the Combined Forces 
Command has been the cornerstone of deterrence on the Korean peninsula: 
vigilant; well trained; ready to fight tonight and win. This combined 
deterrence is achieved by an integrated team of approximately 680,000 
active and 3,040,000 Reserve personnel from the ROK and more than 
37,500 United States military personnel forward deployed on the Korean 
peninsula.\11\ The United States Forces assigned to Korea add state-of-
the-art operational capabilities to the Korean peninsula. Together, 
these forces are a potent, integrated team with the military prowess 
and dominant military capabilities to defeat any provocation on the 
Korean peninsula, deterring escalation that could destabilize the 
region.
---------------------------------------------------------------------------
    \11\ Republic of Korea Ministry of National Defense, Parcipatory 
Government Defense Policy 2003. Active Forces include 550,000 Army, 
67,000 Navy and Marine Corps, 63,000 Air Force. Active Forces are 
predominantly composed of conscripts with a 24-28 month term of 
service.
---------------------------------------------------------------------------
    Readiness is the hallmark of the ROK-U.S. Combined Forces Command. 
The robust annual Combined Forces Command exercise program, supported 
by subordinate command training programs, ensures that the command is 
prepared for likely contingencies. The theater-level exercises, Ulchi-
Focus Lens; Reception, Staging, Onward Movement, and Integration; and 
Foal Eagle collectively train over 400,000 active and Reserve component 
personnel in the critical tasks essential to deterring, and if 
necessary, defeating a limited warning attack against the alliance. 
These command post and field training exercises use battle simulations 
technologies to train leaders in battle command, leveraging the 
significant theater-wide investment in C\4\ and Intelligence systems. 
These combat enablers provide the means to collaboratively plan, 
execute, and assess effects from distributed locations; allowing the 
Combined Forces Command to see, understand, and act to dominate the 
battlespace. Ulchi-Focus Lens is a simulation-driven command post 
exercise focused on joint and combined effects-based operations, and 
sustaining command and control, logistics, and dominant maneuver skill 
sets. The objective of the Reception, Staging, Onward Movement, and 
Integration exercise is to improve the ability to rapidly reinforce and 
sustain operations in the Korean theater. Foal Eagle is where the 
``rubber meets the road,'' providing a field training environment for 
tactical-level joint and combined warfighting skills and 
interoperability. These exercises, supplemented by subordinate command 
training programs, ensure that the Combined Forces Command remains 
ready to fight tonight and win decisively.
    As we have for the last 25 years, the Combined Forces Command 
continues to adapt to the changing security environment. This 
transformation is taking place in three key areas: enhancing combined 
capabilities; shaping roles and missions; and aligning forces for the 
mid- to long-term. Close cooperation between the defense leadership of 
the ROK and the United States, and the leaders of the Combined Forces 
Command and USFK ensures that these changes enhance readiness and 
combined deterrence.
    Enhancing Combined Capabilities
    Most visible are the capabilities enhancements we are making 
through force modernization. In November 2003, the ROK-U.S. Military 
Committee reaffirmed mutual commitment to complementary, interoperable 
capabilities enhancements. The United States presented a force 
modernization program that brings state-of-the-art equipment to the 
Korean peninsula over the next 3 years. United States Forces based in 
Korea have already received tactical unmanned aerial vehicles, improved 
command, control, communications, and computers systems, and are 
beginning improvement programs for United States major combat systems 
and munitions. In 2003, the United States deployed enhanced 
capabilities to protect key installations and conducted rotational 
deployments to demonstrate the ability to rapidly deploy ground, air, 
and maritime forces to the peninsula. These programs are essential to 
the readiness that has deterred conflict on the Korean peninsula while 
the United States and its coalition partners prosecute the war on 
terror. The powerful deterrent capabilities of forward deployed forces 
continue to be a key enabler for our defense strategy.
    The Ministry of National Defense views continued security 
cooperation with the United States as a cornerstone of the ROK's 
defense strategy. The Ministry of National Defense Modernization Plan 
seeks to enhance complementary ROK defense capabilities. This plan 
includes purchases of many defense systems produced by the United 
States and joint ventures to domestically produce advanced weapons in 
the ROK. Highlights of the Ministry of National Defense Mid-Term 
Defense Modernization Plan include missile defense systems, advanced 
aircraft, precision munitions, and advanced naval combat and amphibious 
ships.
    The ROK Air Force's recent procurement of the F-15K fighter is on 
schedule, with the first deliveries scheduled for 2005. These aircraft 
will be capable of employing a wide range of all-weather precision 
munitions that have proven extremely effective during recent United 
States-led coalition operations. The ROK Army will complete fielding in 
2004 of a second Multiple Launch Rocket System battalion consisting of 
29 launchers, 310 extended range ammunition pods, and 110 Army Tactical 
Missiles to enable long-range precision strike by this new 
organization. The ROK Navy has signed a contract to purchase eight 
additional P-3 anti-submarine warfare aircraft, received its third KDX-
II destroyer this year, and the KDX-III, equipped with the Lockheed-
Martin AEGIS system, is on track for delivery in 2008.
    The Ministry of National Defense Mid-Term Defense Modernization 
Plan also includes several developmental programs to improve self-
defense capabilities. Highlights include an improved missile defense 
system, air-to-air refueling platforms for high performance aircraft, 
advanced warning and airspace control aircraft, a multi-role helicopter 
system to replace an aging fleet, as well as advanced amphibious 
support ships, frigates, and patrol boats. These programs, commencing 
after 2007, are a needed step toward a self-reliant, modern defense 
capability.
    The ROK's self-defense strategy goes beyond equipment 
modernization. It includes developing organizational and operational 
concepts that gain efficiencies by taking full advantage of increased 
equipment capabilities. The Ministry of National Defense is studying 
options to restructure its forces with more equally balanced air, 
naval, and ground components. These proposed changes will improve 
deterrence and are consistent with ongoing materiel and doctrinal 
capabilities enhancements. USFK continues to closely coordinate with 
the Ministry of National Defense to ensure that the United States 
capabilities resident in Korea provide the appropriate mix of skilled 
personnel, equipment, and infrastructure to maintain deterrence and 
promote regional stability.
    However, the Republic of Korea defense budget is insufficient to 
fully implement its Mid-Term Defense Modernization Plan--a fundamental 
obstacle to achieving the Ministry of National Defense's goals. Even 
after this year's minimal defense budget increase to 2.8 percent of 
Gross Domestic Product (GDP), the ROK's defense purchasing power 
remains near 1997 levels. Rising operations and maintenance costs, 
limited force development appropriations, and a defense spending at 
less than 3 percent of Gross Domestic Product will likely delay the 
overall Ministry of National Defense capabilities enhancement program.
    Shaping Roles and Missions
    Enhancing ROK military capabilities, the Military Committee agreed 
to transfer certain Combined Forces Command missions from United States 
Forces to ROK forces over the next 3 years. These changes will not 
decrease readiness or deterrence. Moreover, these mission transfers 
take full advantage of the strengths of ROK forces, and tailor United 
States Forces in Korea for the unique contributions that they make to 
the peninsula and the region. The ROK-U.S. Combined Forces Command is, 
and will remain, the cornerstone of deterrence on the Korean peninsula 
for the foreseeable future. These efforts to transform the command will 
improve interoperability and maintain operational dominance into the 
future.
USFK
    Transformation of USFK is underway. Your recent investments in 
equipment and infrastructure have improved operational capabilities and 
the quality of life for United States servicemembers, DOD civilian 
employees, and family members. This total transformation effort--
enhance, shape, and align--contributes to increased strategic relevance 
and flexibility for United States Forces based in Korea and around the 
globe. Our transformed forces and basing posture enable more rapid 
reinforcement of the Korean theater in the event of a crisis and 
improves deterrence, on the peninsula and beyond, by providing 
strategically mobile overmatching power to dissuade potential threats 
to Alliance interests. Your continued support will ensure we achieve 
our transformation goals, providing our forces with the resources 
needed to deter aggression and contribute to regional stability.
    The capabilities enhancements and mission transfers previously 
presented are key elements of USFK transformation. Consolidating United 
States Forces based in Korea into two hubs is the final component of 
this transformation effort. This consolidation consists of two parallel 
actions: relocation of United States Forces from the Seoul metropolitan 
area (commonly referred to as Yongsan Relocation), and realignment of 
the United States Second Infantry Division.
    Relocation of United States Forces from the Seoul metropolitan area
    Relocation of United States Forces from the Seoul metropolitan area 
is an important initiative with a long history. In 1990, at the request 
of the ROK and under the authority of the Status of Forces Agreement, 
the two governments completed a written agreement to relocate all 
United States Forces from Seoul to locations south of the Han River 
near Osan AB and Camp Humphreys. This relocation would have provided a 
more sustainable stationing environment for United States Forces and 
returned valuable land to the citizens of Seoul. The terms of the 
agreement--negotiated in good faith and consistent with the domestic 
laws of both nations at the time of signing--optimized capabilities 
while ensuring no degradation to readiness, operational capability, 
safety, force protection, or quality of life for the Korean and United 
States citizens who support the United Nations Command, the Combined 
Forces Command, and USFK. Under these agreements, the United States 
promptly returned a sizeable portion of the Yongsan Garrison to the 
ROK, on which a ROK national museum has been built. However, in 1993 
the United States received notification that the ROK would unilaterally 
suspend its implementation of the agreements.
    As part of the Future of the ROK-U.S. Alliance Policy Initiative, 
the ROK government asked to renew discussions on implementing the 
relocation of United States Forces from the Seoul metropolitan area. 
These discussions have been candid and productive, with agreement on 
major points: all relocations will be completed by 31 December 2007, 
with the understanding that the target date for the relocation of the 
headquarters of United Nations Command, Combined Forces Command, and 
USFK will be 31 December 2006; a small residual United States military 
presence will remain in Seoul to coordinate with the Ministry of 
National Defense and maintain a United States armed forces recreation 
center; and the ROK responsibility to fund this relocation, providing 
all necessary facilities and infrastructure to optimize operational 
capabilities for the headquarters', and maintain quality of life for 
personnel supporting those commands. When completed, these agreements 
will preserve the principles of the 1990 agreements, comply with the 
domestic laws of both nations, and ensure no reduction in readiness, 
deterrence, operational capability, safety, force protection or quality 
of life for the ROK and United States personnel affected by the 
relocation. We look forward to concluding the necessary agreements 
promptly, providing the National Assembly ample time to consider and 
ratify them according to the domestic requirements of the ROK.
    Realignment of United States Second Infantry Division
    The second facet of consolidating United States Forces into two 
hubs is realignment of Second Infantry Division. This realignment 
serves two main goals: transform the United States basing posture from 
its inefficient post-Korean War posture to a stable, less intrusive 
footprint; and focus construction investments into enduring facilities 
within the two hubs south of the Han River. While some Koreans have 
expressed anxiety that this realignment may send the wrong message to 
North Korea, we have clearly explained how this plan leverages our 
improved capabilities to improve readiness and deterrence while 
supporting a long-term United States military presence in the ROK.
    Representatives of the Office of the Secretary of Defense and the 
Ministry of National Defense have agreed on a two-phased process to 
realign the Second Infantry Division. The first phase--a logical 
extension of the Land Partnership Plan--consolidates the Second 
Infantry Division into existing installations while construction takes 
place south of the Han River.\12\ This plan allows all construction for 
the realignment of Second Infantry Division to be completed by 2008. In 
November 2003, we completed the necessary documents to modify the Land 
Partnership Plan to accommodate this realignment plan. The Ministry of 
National Defense has procured the first 200 acres needed to expand Camp 
Humphreys with funds provided by the return of the first property under 
the Land Partnership Plan. The Ministry of National Defense is 
diligently working to purchase all of the land required to expand both 
Camp Humphreys and Osan Air Base. The second phase of this plan will 
consolidate all of the Second Infantry Division units in Korea into the 
new facilities south of the Han River. Stable funding of United States 
military construction projects in the Future Years Defense Plan remains 
a crucial element of this plan. I remain enthusiastic about this win-
win approach to recapitalizing our infrastructure in a sustainable, 
enduring way and look forward to accelerating our progress toward 
completing this necessary consolidation.
---------------------------------------------------------------------------
    \12\ The ROK ratified the Land Partnership Plan in 2003. This plan 
reduced the number of United States installations in Korea from 41 to 
23. The Land Partnership Plan shares relocation costs between both 
governments--each nation bearing the costs of the relocations it 
requested. Stable United States military construction appropriations 
are essential to implementing the Land Partnership Plan.
---------------------------------------------------------------------------
                  sustained investment for the future
    My command priorities remain consistent with my previous testimony: 
ensure peace and stability on the Korean Peninsula; readiness and 
training; strengthen the ROK-U.S. Alliance; transformation of the 
command; and, making Korea an assignment of choice. I have addressed 
most of the actions to enhance, shape, and align the force to meet 
these priorities. However, two areas merit additional comment: 
readiness and training; and, making Korea the assignment of choice.
Readiness
    Readiness remains my top priority. Your continued support to 
capabilities enhancement and our training program is crucial. Key focus 
areas for modernization are: joint and combined C\4\; ISR; pre-
positioned equipment and logistics; and counterfire capabilities and 
precision munitions. With your help, we have made meaningful progress 
in joint and combined C\4\ integration. We also improved the 
survivability of intra-theater communications networks and established 
a state-of-the-art Common Operational Picture and Collaborative 
Planning System that shares information among all commanders on the 
peninsula in real time. The next step is accelerated development of 
automated data filter devices to expand the real time information 
exchange between United States and ROK Forces. We need to continue 
these improvements and couple them with emerging coalition warfighting 
C\4\ systems to establish a hardened, secure long-haul strategic 
communications network to support our missions both on the peninsula 
and throughout the region.
    The regional missile threat requires a robust theater missile 
defense system to protect critical United States capabilities and 
personnel in the ROK. Last year's deployment of Patriot upgrades and 
improved munitions was a significant enhancement. To protect all 
critical United States facilities in Korea, we need to continue 
fielding advanced theater missile defense capabilities in the near-
term. Your continued support to these service component programs 
remains integral to protecting United States Forces.
    Robust ISR capabilities are essential to rapid, decisive 
operations. Our long-term program of continuous improvement is working. 
Last year, short-range UAVs that improved our tactical ISR capability 
were fielded in Korea. The next step is fielding long-range, high-
altitude UAVs that can conduct some of the missions now performed by 
manned reconnaissance aircraft. Beyond collection platforms, we 
continue to improve our intelligence analysis capabilities to provide 
commanders with the timely, accurate assessments necessary to establish 
conditions that enable rapid dominance of the battle space. Your 
continued support for modernizing ISR capabilities is a wise investment 
for the future.
    Logistically supporting United States Forces based in Korea is a 
complex, monumental undertaking. The proximity of the North Korean 
threat, coupled with the long distances from the United States 
sustainment base, requires a robust and responsive logistics system to 
support United States Forces based in Korea. The capabilities 
enhancements programmed for United States Forces based in Korea will 
improve our core logistics functions through modern prepositioned 
equipment, responsive strategic transportation, and modern logistics 
tracking systems. Pre-positioned equipment sets, which include critical 
weapons systems, preferred munitions, repair parts, and essential 
supplies, are critical to the rapid power projection to reinforce the 
Korean theater. Responsive strategic transportation--fast sealift ships 
and cargo aircraft--remain indispensable to rapidly reinforce the 
Korean theater and sustain United States Forces. Expeditious fielding 
of the Air Force's C-17 fleet and the Army's Theater Support Vessel to 
the USPACOM AOR remains a high priority to support United States Forces 
based in Korea. Equally important is the ability to maintain intransit 
visibility of supplies and equipment with a modernized joint Logistics 
C\4\ and Information system. Lessons from Operation Iraqi Freedom and 
Operation Enduring Freedom have highlighted several areas where 
relatively small investments in asset tracking systems and theater 
distribution will yield significant efficiencies and improve the 
overall effectiveness of the logistics system. Your continued support 
for improved logistics and sustainment programs will ensure that United 
States Forces have the right equipment and supplies at the right time.
    Counterfire and precision strike are core capabilities for all of 
our contingency plans, allowing us to change the dynamics of a conflict 
and rapidly achieve campaign objectives. Increasing the forward stocks 
of preferred munitions is critical to operational success in the Korean 
theater. Our priority ordnance requirements include: the Army Cruise 
Missile System, the extended-range Multiple Launch Rocket System, 
precision guided munitions, air-to-ground missiles, and air-to-air 
missiles. Your continued support to these programs provides the 
overmatching capabilities that undergird deterrence.
Making Korea an Assignment of Choice--building momentum on success
    Recapitalizing the USFK infrastructure and establishing a stable 
stationing environment enhances readiness, force protection, and 
overall quality of service. These key actions, along with equitable 
compensation for our servicemembers, are helping to make Korea an 
assignment of choice. This translates into increased personnel 
stability in Korea--fewer of our men and women are declining assignment 
to Korea, and higher percentages are choosing to stay in Korea for 
longer tours because of the improvements we've recently made. These 
improvements allow us to continue to recruit and retain the talented, 
motivated people who accomplish our mission in Korea; we need to 
continue to build on the momentum of recent successes.
    Our challenge to recapitalize the infrastructure is substantial. 
Our facilities are old--over one third of all buildings in the command 
are between 25 and 50 years old, and one third are classified as 
temporary buildings. These substandard facilities pose force protection 
challenges because they lack sufficient standoff and structural 
strength to withstand attack. Many of our single and married 
servicemembers continue to live in substandard base housing that is 
increasingly difficult and expensive to maintain.\13\ Others must live 
in expensive, densely crowded urban areas outside our installations, 
where force protection and safety are significant concerns. Along with 
the service components, we are working diligently to correct these 
deficiencies by 2009. We have a coordinated construction program--
supported by our ongoing master planning at Camp Humphreys and Osan 
AB--that is executable with stable military construction funding under 
the Future Years Defense Plan (FYDP). We will continue to maintain 
existing permanent facilities through an aggressive Sustainment, 
Restoration, and Modernization program--funded with O&M accounts--while 
we move forward with our overall construction master plan. With your 
support, we will continue to improve living and working facilities in 
Korea.
---------------------------------------------------------------------------
    \13\ Currently 8,000 unaccompanied servicemembers live in 
inadequate government quarters. More than 1,300 of the 2,000 available 
family housing units in Korea do not meet United States government 
standards.
---------------------------------------------------------------------------
    Though there is more to be done, we have made progress. In 2003 we 
focused efforts at our southwestern hub located at Camp Humphreys and 
Osan AB. Figures 1 and 2 illustrate the modern facilities that you have 
made possible. Fifty-two newly constructed family housing units opened 
at Camp Humphreys, and we awarded contracts for an additional 48 units. 
We also converted an existing bowling alley into an elementary school 
that now serves 150 students. At Osan AB, United States MILCON funded a 
new dormitory that provides adequate housing for 156 servicemembers. We 
also awarded contracts for phase one of a three-phase program that will 
provide over 300 family housing units at Osan AB. You also authorized 
important provisions that extend the allowable build-to-lease period to 
15 years. These provisions, approving the supplemental authority for 
acquisition and improvement of leased military housing in Korea, will 
allow us to add an additional 1,500 build-to-lease family housing units 
at Camp Humphreys.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    We have made progress toward recapitalizing our infrastructure in 
Korea. To maintain momentum in correcting these deficiencies, we need 
stable military construction funding in the FYDP. Your support, along 
with the ROK's contributions under cost-sharing agreements, will ensure 
that we complete this infrastructure renewal program. The President's 
fiscal year 2005 budget request includes several projects that are 
important for United States Forces based in Korea. These projects are 
summarized in Table 1.

           TABLE 1--2005 KOREA MILITARY CONSTRUCTION PROJECTS
                        [In millions of dollars]
------------------------------------------------------------------------
       Project Description              Location       Program Authority
------------------------------------------------------------------------
Family Housing Tower, Phase III   Osan AB............         $46.83
 (117 units).
156 Person Dormitory............  Osan AB............          18.60
144 Person Dormitory............  Kunsan Air Base....          18.55
144 Person Dormitory............  Kunsan Air Base....          18.55
Sewer System Upgrade............  Camp Humphreys.....          12.00
                                                      ------------------
  Total.........................                             $114.53
------------------------------------------------------------------------

    The additional family housing units at Osan AB will provide the 
necessary quality of life for servicemembers and their families. These 
facilities are a key part of the plan to provide more command-sponsored 
family housing to eligible servicemembers and will ensure that United 
States standards for space, safety, and force protection are met. The 
dormitory projects at Osan and Kunsan ABs will also improve the housing 
and quality of life for our unaccompanied servicemembers. These 
additions will provide adequate space in modern facilities for the 
individual servicemembers and allow them to live on our installations, 
thereby improving force protection and readiness. The sewer system 
upgrade project at Camp Humphreys is required to support the current 
population and the expected growth from our consolidation into hubs. 
This project is located on existing land granted for use by USFK, and 
will ensure compliance with health and environmental protection 
standards. Improving our infrastructure, along with expanded use of 
build-to-lease housing around our hubs of enduring facilities, will 
allow an increase in the number of accompanied tours, greatly improving 
quality of life across the services and attracting the high-quality 
personnel we need in Korea.
    We have moved toward equitable pay, long a concern for 
servicemembers stationed in Korea. Last year, servicemembers in Korea 
were authorized a cost of living allowance for the first time. This 
allowance has reduced the pay disparity and offset the rising out-of-
pocket costs of serving in Korea. We are also working with the Services 
to implement the assignment incentive pay that you enacted. This 
legislation provides continued opportunity to reduce perceived pay 
inequities. On behalf of the people serving in USFK, I want to extend 
our sincerest thanks and ask that you continue supporting DOD efforts 
to provide equitable pay for the soldiers, sailors, airmen, and marines 
serving in Korea.
In conclusion, I'd like to close with these thoughts:
    Northeast Asia will continue to grow in importance for the United 
States and our partners. The presence of United States Forces in Korea 
demonstrates our commitment to shared interests: regional peace and 
stability; free trade; and the spread of democratic principles. The ROK 
continues to be a reliable ally and partner in the region.
    United States Forces in Korea, along with our ROK counterparts, are 
trained and ready. We remain confident in our ability to deter and if 
necessary, defeat any potential North Korean aggression.
    United States Forces in Korea are transforming now. Our plan to 
enhance capabilities by modernizing equipment and implementing new 
operational concepts, shape roles and missions to optimize the force 
structure, and align the stationing plan for a sustainable presence has 
begun. Your continued support to these initiatives provides our 
servicemembers with state-of-the-art capabilities to deter and, if 
necessary, defeat threats in the Northeast Asia region.
    The ROK-U.S. Alliance has weathered challenges for over 50 years, 
and this partnership will continue to mature. Your investments in Korea 
have, and will continue to make a significant difference for our 
servicemembers and the stability of the region.
    You can be justifiably proud of all the soldiers, sailors, airmen, 
marines, and civilians in Korea who serve the American people. Their 
daily dedication and performance reflect the trust and support that 
you've placed in them.

    Chairman Warner. Thank you, General. Your enthusiasm and 
dedication to your assignment and to the welfare of your men 
and women come through. It is a difficult post to live in, 
having had some modest personal experience myself on that 
peninsula a half century ago, and I judge from your comments 
that the conditions have improved. So we will hear further.
    General Hill, sir.

 STATEMENT OF GEN JAMES T. HILL, USA, COMMANDER, UNITED STATES 
                        SOUTHERN COMMAND

    General Hill. Thank you, Mr. Chairman, Senator Levin, 
distinguished members of the committee. I am honored for this 
opportunity to appear before you today to provide my assessment 
of Latin America and the Caribbean and of what the USSOUTHCOM 
is doing to advance United States interests in this very 
important region of the world.
    I am very appreciative of the support of the committee for 
the USSOUTHCOM, the soldiers, sailors, airmen, marines, Coast 
Guardsmen, and civilian personnel whom I am so privileged to 
command. They are fine men and women and are serving our Nation 
admirably.
    The security picture in Latin America and the Caribbean has 
indeed grown more complex over the past year, as the events in 
Haiti, Bolivia, and Venezuela amply illustrate. Deep-seated 
frustrations over the failure of democratic and free market 
reforms to improve the standard of living for all citizens are 
significantly challenging many of the region's governments. 
This frustration is exacerbated by endemic corruption and by 
the insidious impact on societies of the threats I addressed 
last year: narcoterrorism, urban gangs and other illegal armed 
groups, arms and human trafficking, and support to 
international terrorism.
    Unfortunately, as a consequence some leaders in the region 
are tapping into this frustration to move radical agendas 
forward and are manipulating democratic processes to diminish 
rather than to protect individual rights. Our country's focused 
support is critical to ensuring that the strong democratic 
tides of the past 25 years do not reverse their flow, but 
instead are strengthened and reinforced.
    Haiti's breakdown of law and order and its rising violence 
led to the voluntary resignation and departure of former 
President Aristide, a constitutional transfer of power, and the 
rapid deployment of the United Nations-mandated multinational 
interim force. Currently in Haiti the multinational force 
consists of 2,014 U.S. troops, 838 French, 500 Canadian, 329 
Chilean, deployed with the mission of setting the conditions 
for the follow-on deployment of a U.N. force in June. We are 
preparing for that follow-on force by stabilizing the security 
environment in Haiti, containing migration, and facilitating 
the provision of humanitarian assistance.
    I have been to Haiti twice since the crisis erupted. I will 
go back again on Monday. The first time I went was 3 days after 
the deployment of our forces, and again just last week. I was 
impressed by the positive change between my visits. The 
multinational force is performing well in a difficult and 
complicated environment. The troops in Haiti are progressively 
reestablishing the security and stability necessary for the 
interim government to function.
    I am particularly pleased by the seamless cooperation among 
our multinational force allies. Thanks to the quick response 
and meaningful contributions of our government, along with 
those of Chile, France, and Canada, our troops are working side 
by side with those other nations, bringing a new spirit of 
cooperation to the difficult task at hand.
    Despite the very complex security situation in the region, 
much is going well. Although there remains work to be done, our 
country's significant investment in Plan Colombia is showing 
substantial results. The Colombian economy is growing. The 
Colombian government has established a presence in all major 
municipalities. Major categories of criminal activity are down. 
Narcotics production is down. Demobilizations by the 
narcoterrorist organizations are increasing, as are desertions 
from their ranks. The Colombian military has grown into a 
professional, competent force that reflects human rights and 
the rule of law and has gained the strategic initiative over 
its narcoterrorist enemies.
    As a result of this substantial progress, a window of 
opportunity has opened in which the Colombian government has 
the potential to deal a decisive blow to the narcoterrorists. 
The Colombians have developed a campaign plan which takes them 
into the heartland of the territory controlled by the illegal 
armed groups.
    To provide the maximum amount of support to this effort, 
the administration has recommended that the congressionally-
mandated cap of 400 military and 400 contractors be raised to 
800 and 600 respectively. This increase will allow us to 
provide the Colombians the greatest possible assistance and 
maximize their potential for success.
    I have worked closely over the past year with President 
Uribe and the leaders of the Colombian military. I have visited 
all corners of Colombia. I have seen first-hand the 
professionalism and increased capabilities of the Colombian 
military. I have been inspired by the dedication of the 
Colombian soldiers in their daily fight to defend their 
democracy against vicious narcoterrorists.
    It is vitally important that we sustain Plan Colombia's 
progress. As one of the oldest democracies in this hemisphere, 
a key trading partner and supplier of oil, a staunch ally, and 
only 3 hours from Miami, a stable, secure Colombia is important 
to our national security interests.
    In stark contrast to the situation 25 years ago, democracy 
is now the accepted model for governments in this hemisphere. 
However, transnational threats, poverty, and corruption are 
destabilizing governments and impeding the consolidation of 
democracy. The continued progress as a region of democracy and 
prosperity is fundamentally important to our national security.
    With very few resources and a modest presence, the men and 
women of USSOUTHCOM are working to further that progress and to 
ensure our Nation's security. We will remain steadfast in our 
efforts and look forward to your continued support.
    Thank you again for this opportunity to appear before you, 
and I look forward to your questions.
    [The prepared statement of General Hill follows:]
              Prepared Statement by GEN James T. Hill, USA
                              introduction
    Mr. Chairman, Senator Levin, members of the committee, it is my 
privilege to present the posture statement of the USSOUTHCOM. The men 
and women of our command are making enormous contributions to the war 
on terrorism and the defense of this country on a daily basis. Your 
soldiers, sailors, airmen, marines, Coast Guardsmen, and DOD civilians 
are working throughout the region to promote U.S. national security 
interests. Their work has done much to preserve stability and 
strengthen relationships with our allies. Simultaneously we are 
building a cooperative security community that will advance security 
and stability in the generation to come.
    The security picture in Latin America and the Caribbean has grown 
more complex over the past year. Colombia's considerable progress in 
the battle against narcoterrorism is offset by negative developments 
elsewhere in the region, particularly in Haiti, Bolivia, and Venezuela. 
These developments represent an increasing threat to U.S. interests. We 
face two primary types of threats in the region: an established set of 
threats detailed in previous years and a nascent set likely to raise 
serious issues during this year. On the traditional front, we still 
face threats from narcoterrorists and their ilk, a growing threat to 
law and order in partner nations from urban gangs and other illegal 
armed groups, which are also generally tied to the narcotics trade, and 
a lesser but sophisticated threat from Islamic radical groups in the 
region. These traditional threats are now complemented by an emerging 
threat best described as radical populism, in which the democratic 
process is undermined to decrease rather than protect individual 
rights. Some leaders in the region are tapping into deep-seated 
frustrations of the failure of democratic reforms to deliver expected 
goods and services. By tapping into these frustrations, which run 
concurrently with frustrations caused by social and economic 
inequality, the leaders are at the same time able to reinforce their 
radical positions by inflaming anti-U.S. sentiment. Additionally, other 
actors are seeking to undermine U.S. interests in the region by 
supporting these movements.
    These traditional and emerging threats are overlaid upon States in 
the region that are generally marked by weak institutions and 
struggling economies. This resulting frailty of state control can lead 
to ungoverned or ill-governed spaces and people, corruption, and 
clientalism. The militaries we work with in the AOR are feeling the 
brunt of both threats and weak governments, but for the most part have 
supported their respective constitutions, remained professional, and 
respected human rights. They will be under increasing pressure from 
these stressors over the next several years. Consequently, we must 
maintain and broaden our consistent military-to-military contacts as a 
means of irrevocably institutionalizing the professional nature of 
those militaries with which we have worked so closely over the past 
several decades.
    We are assisting our partner nations' efforts to address these 
threats and underlying structural factors through consistent, patient 
cooperation. We work closely with the interagency to build a coherent, 
long-term vision and to coordinate our efforts, but to realize that 
vision will require considerable time, energy, and resources. As in 
Colombia, the work will be hard and will require long-term dedication 
and commitment. The security, economic well being, and demographic 
fortune of our country is inextricably linked with Latin America and 
the Caribbean. The entire Americas, working as one, can confront these 
existing and emerging threats, and they can do so while providing for 
economic growth and opportunity. Consequently, this region of the 
world, despite all the other very real and pressing demands on our 
national attention and resources, requires increased attention in the 
coming year.
    To describe the current state of affairs in USSOUTHCOM, I will 
outline in detail the threats we are facing, both traditional and 
emerging. I will provide a regional assessment, with particular 
emphasis on the progress we are seeing in Colombia under the Uribe 
administration, followed by an assessment of our progress in the war on 
terrorism. Finally, I will address USSOUTHCOM's requirements.
                                threats
    The narcoterrorists in Colombia remain the largest and most well 
known threat in our region and have continued their illicit activities, 
yet not without a price. All three narcoterrorist groups are named on 
the Department of State's list of designated foreign terrorist 
organizations: the Revolutionary Armed Forces of Colombia, or FARC; the 
National Liberation Army, or ELN; and the United Self-Defense Forces, 
or AUC. Most observers now understand that these groups are 
narcoterrorists rather than romantic guerillas crusading for the 
downtrodden. While a few might retain some of their founding ideology, 
by and large these groups consist of terrorists and criminals who 
operate outside the rule of law in pursuit of illicit profits rather 
than political revolution.
    The FARC still comprises the largest threat, with an estimated 
13,000-15,000 members. The FARC has continued to conduct terrorist 
activities in Colombia and still holds three Americans hostage. Despite 
their numbers, they have suffered many setbacks this past year, with 
the capture or elimination of a number of valuable leaders and front 
commanders. Most notably a high-level financier, Simon Trinidad, was 
captured by the Ecuadorians and turned over to Colombian custody. Over 
2,000 FARC members have demobilized since August 2002. The ELN, a 
smaller organization with an estimated 3,500 to 4,000 members, is 
declining in importance. There has been some progress in encouraging 
the ELN to demobilize via peace talks, although those who refuse may 
merge with the FARC. Much of the AUC, while still a threat and still 
heavily involved in narcotics trafficking, is in peace negotiations 
with the Government of Colombia. 10,000 to 12,000 members of the 
illegal self-defense groups are estimated to be involved in the peace 
process, though another 2,000 to 4,000 remain outside the process.
    The narcoterrorist influence is bleeding over into what we see as a 
second and increasing threat to the region: growingly sophisticated 
criminal gangs. While not all gangs are fueled by illicit narcotics, 
most bolster their criminality by drawing substantial support from the 
drug business. The World Health Organization has described Latin 
America as the world's most violent region based on the numbers of 
homicides per capita, surpassing even war-torn Africa. Homicides and 
violent crime take a direct toll daily on Latin Americans. There is 
another insidious second order effect. The Inter-American Development 
Bank has estimated that per capita GDP in Latin America would be nearly 
25 percent higher if Latin American crime rates resembled those of the 
rest of the world. Violent crime causes capital flight from within the 
country and stifles investment from outside the country. It literally 
takes money out of the pockets of those who need it most and most hurts 
those who have the least. This second threat faced by many Latin 
American countries is difficult and complex because it falls precisely 
on a seam between law enforcement and military operations. Latin 
American leaders need to resolve this jurisdictional responsibility 
issue to promote cooperation among their police and military forces 
while simultaneously restructuring their states' security forces.
    Beyond narcoterrorist and gang violence, branches of Middle Eastern 
terrorist organizations conduct support activities in the Southern 
Command area of responsibility. Islamic radical group supporters, 
extending from the Caribbean basin to the tri-border area of Paraguay, 
Argentina and Brazil, conduct fund raising activities. Terrorists who 
have planned or participated in attacks in the Middle East and the 
United States, such as captured high profile al Qaeda terrorist Khalid 
Shaihk Mohammed, have spent time in the region. Supporters generate 
illicit funds through money laundering, drug trafficking, arms deals, 
human smuggling, piracy, and document forgery. They funnel tens of 
millions of dollars every year back to their parent organizations in 
the Middle East, thus extending the global support structure of 
international terrorism to this hemisphere. Not surprisingly, Islamic 
radical groups, narcoterrorists in Colombia, and urban gangs across 
Latin America all practice many of the same illicit business methods.
    Radical populism is another emerging concern in the region. 
Populism in and of itself is not a threat. Rather, the threat emerges 
when it becomes radicalized by a leader who increasingly uses his 
position and support from a segment of the population to infringe 
gradually upon the rights of all citizens. This trend degrades 
democracy and promises to concentrate power in the hands of a few 
rather than guaranteeing the individual rights of the many. Anti-
American sentiment has also been used to reinforce the positions of 
radical leaders who seek to distract the populace from their own 
shortcomings. Anti-American sentiment also troubles our partner nations 
as well, as elected leaders must take into account the sometime very 
vocal views of their constituents. The threats and trends in the region 
paint a negative picture in many regards and certainly bear close 
scrutiny in the coming year. We will maintain vigilance. We will also 
continue our work with partner nations and the interagency to shore up 
stability and promote increasing security cooperation.
                          regional assessments
Andean Ridge
    Colombia is where the most is at stake. The United States made an 
enormous investment in the Government of Colombia 3\1/2\ years ago with 
our support to Plan Colombia. That investment is beginning to pay 
dividends. Under President Uribe, the Government of Colombia, with 
robust popular support, is making impressive progress in defeating the 
narcoterrorists and rejoining the ranks of peaceful, safe and secure 
states. I have been to Colombia 23 times since I took command, and I 
have seen progress on every visit.
    President Uribe is a unique leader who has galvanized the will of 
the people and motivated his armed forces. He has personally 
demonstrated that one individual can change the course of events. 
Without his personal leadership, energy, and dedication, I don't think 
the Colombians would have achieved the remarkable progress we have 
seen. Yet his personal charisma and drive only go so far, and he well 
knows it. That is why he is building the structures to sustain momentum 
and institutionalize success beyond that of his term and beyond that of 
Plan Colombia.
    The Colombian military has become much better and more aggressive 
in their operations against the FARC, the ELN, and the AUC. They have 
nearly doubled the number of narcoterrorists captured while also 
seizing the initiative on the battlefield. They have had increasing 
success against the enemy's leadership. Demobilizations are up, with 
some 3,500 members of illegal armed groups having voluntarily given up 
arms since President Uribe took office. There have been fewer terrorist 
attacks on the electrical grid, the oil pipeline, communications 
towers, roads, bridges, and towns. Cocaine eradication is up along with 
interdiction and seizures. Colombia has resumed a thoroughly vetted and 
robustly staffed Air Bridge Denial Program. Across the entire country, 
homicides, kidnappings, robberies, and thefts are down. Colombia's 
economy is growing as measured in its GDP, stock market, foreign 
investment, exports, and banking revenues. I am heartened by the 
progress the Colombians are making, of their own volition, and with our 
aid. We need to stay the course in our support of their efforts to 
ensure that the Plan Colombia dividend is paid in full.
    The Colombians are abiding by the norms of International 
Humanitarian Law in their struggle. The State Department has certified 
this performance. Under President Uribe's ``Democratic Security 
Policy,'' extrajudicial executions in 2003 were down 48 percent, 
assassinations were down 41 percent, homicides of trade unionists were 
down 68 percent and forced displacements were down 68 percent. None of 
the units U.S. forces have vetted and trained have been found to have 
committed human rights abuses. Alleged human rights abuses by Colombian 
security forces are now less than 2 percent of those reported and the 
institutionalization continues with the opening of Colombia's Armed 
Forces School of International Humanitarian Law, Human Rights, and 
Military Justice that teaches human rights and international 
humanitarian law to attorneys, commanders, officers, and sergeants. I 
am confident that President Uribe and the Colombian military have taken 
respect for human rights to heart, unlike their adversaries, who commit 
the vast majority of human rights abuses. In 2003, as members of the 
illegal armed groups demobilized, over 77 percent of those who did so 
turned themselves into government forces. If those demobilizing 
suspected they would be subject to torture and abuse, they would turn 
themselves into non-governmental organizations and the Church as they 
did in years past, before human rights became an integral part of the 
Colombian military's ethos. That professional ethos is also reflected 
in public opinion that now lists the Colombian military as the second 
most respected institution in the country just behind the Church. The 
Colombian military is at war, which it will win while fighting justly.
    Venezuela remains an oil rich nation that provides some 13 percent 
of oil imported into the United States. The domestic political 
situation continues to be exceedingly complex, and the prospects of the 
presidential recall referendum are still in considerable doubt. 
Venezuelan society is deeply polarized and will continue to be so as 
long as the Government of Venezuela continues along an authoritarian 
path. Well-organized street protests numbering in the hundreds of 
thousands occurred on a frequent basis over the past year.
    Bolivia faced significant turmoil over the past year. Bolivia has a 
very deep geographic divide between two parts of the country, the La 
Paz region and the lowlands around Santa Cruz, which is mirrored by 
deep ethnic and social divisions. There are legitimate and historic 
grievances, manifested partially in tension over indigenous traditions 
that revolve around growing coca in limited amounts as a part of their 
native culture. Yet the limited amounts never seem to stay limited, and 
the cocaleros who seek expanded rights to grow coca certainly envision 
the profits from illicit narcotics rather than the practice of ancient 
traditions. These cocaleros have found leaders who have tapped into 
indigenous and other social tensions. Indigenous groups, working with 
labor unions and others, mounted violent protests last October that led 
to the eventual resignation of then President Gonzalo Sanchez de 
Lozada. If radicals continue to hijack the indigenous movement, we 
could find ourselves faced with a narco-state that supports the 
uncontrolled cultivation of coca. Since his elevation to the presidency 
in October, however, President Mesa has been able to stabilize the 
country. Still, Bolivia bears very close scrutiny in the upcoming year.
    Ecuador has demonstrated over the past year that it has the 
political will to secure its border with Colombia and to fight drug 
traffickers. Despite limited resources and a vast expanse of thickly 
vegetated country that needs to be covered, the Ecuadorian military has 
placed many of its best troops on its northern frontier and has 
established cross-border communications with the Colombian military. 
Ecuador continues to host one of the USSOUTHCOM's Cooperative Security 
Locations (CSL) in Manta, which has been especially critical in 
providing coverage on the eastern Pacific vector of drug smuggling.
    In Peru, President Toledo suffers from very low popularity ratings 
despite a good economy. Peru's large indigenous population remains 
relatively politically inactive and has not been mobilized to the 
extent seen in Bolivia. Sendero Luminoso (SL) remains an ongoing 
problem. The Peruvian military has aggressively pursued them, and they 
do not possess the strength or capabilities they once displayed. 
Ominously, SL has now adopted the FARC model of protecting narcotics 
traffickers in exchange for funding. In a reassuring example of 
regional cooperation, the defense ministers from Peru, Colombia, and 
Brazil signed a three-way agreement to combat illegal drug trafficking 
in the Amazonian region on February 10, 2004.
Caribbean
    Following the resignation and departure of former President 
Aristide, there was a constitutional transfer of power to the interim 
government in Haiti, and with it, an opportunity to move forward. With 
United Nations support and in conjunction with our partners, we have 
established the Multinational Interim Force, consisting of forces from 
the United States, France, Chile, and Canada. We are working to 
reestablish security and stability for the Haitian people until such 
time that Haitian institutions have been sufficiently bolstered to 
resume that task. This operation has had the effect of saving the lives 
of innocent Haitians, preventing a mass migration during a time of 
rough seas, protecting U.S. interests in the Caribbean, and fostering 
regional and international cooperation to assist a nation in need. Much 
work remains to be done, and we will continue providing our assistance 
to the Multinational Interim Force's efforts and to developing plans 
for a potential follow-on U.N. Multinational Stabilization Force.
    Beyond Haiti, the primary challenges in the Caribbean come from 
narcotrafficking, terrorism, document fraud, and corruption. Democratic 
institutions remain relatively immature, rendering many countries 
unable to police fully their sovereign territory, resulting in porous 
borders and coastlines and ungoverned spaces. Migration remains a 
concern should Caribbean governments be unable to meet the needs of 
their people. Additionally, violent crime has grown over the past 
decade, much of it related to narcotrafficking, arms trafficking, and 
money laundering. To meet these challenges regional governments are 
attempting to focus on cooperative efforts such as the Regional 
Security System, the Caribbean Disaster Emergency Response Agency, the 
Caribbean Information Sharing Network, and the U.S. Coast Guard's 
Caribbean Support Tender. A key element of USSOUTHCOM's efforts in the 
Caribbean is the uniquely focused Tradewinds exercise. Conducted 
annually, Tradewinds exercise objectives focus on combating 
transnational threats, counterdrug operations, and disaster 
preparedness.
    Aruba and the Netherlands Antilles continue active support of 
USSOUTHCOM counterdrug efforts with their respective CSL. Of all our 
allies in the Caribbean, the Dominican Republic has the strongest 
military and has often been the most supportive. Their military 
capability and political leadership allowed them to support 
multinational forces in Iraq with a battalion sized task force. The 
Dominicans will be key partners in expanding the Third Border 
Initiative to build a Caribbean zone of confidence. The Enduring 
Friendship initiative will help synchronize all maritime activities in 
the Caribbean, deny terrorist access, protect legal trade, and suppress 
illicit trafficking.
Central America
    Democratic governance continues to be the accepted model throughout 
Central America and the region is generally pro-United States. Central 
American leaders have shown a commitment to free trade and open 
economies and have also begun laying the groundwork for greater 
regional integration. They are overcoming historical border differences 
and tensions in order to pursue regional economic and military 
integration. Honduras, El Salvador, and Nicaragua sent forces to 
support OIF. Current relations with Nicaragua are a testament to how 
much improvement has been made in just two decades with patient, 
cooperative efforts. Additionally, El Salvador provides USSOUTHCOM the 
use of Comalapa Airport as a Cooperative Security Location for counter-
trafficking coverage throughout Central America, the eastern Pacific, 
and the western Caribbean. JTF Bravo in Honduras continues to provide a 
logistical support base to the critical humanitarian missions of the 
region, as well as to counter illicit trafficking operations.
    Despite progress, Central American countries lack resources and 
remain susceptible to the ills of narcotics and arms trafficking. This 
region is also a primary avenue for illegal migrants and drugs entering 
the United States. Especially troublesome is the growth in gangs and 
drug related crime we are seeing across Central America. Unemployment 
and poverty, together with a demographic surge in the younger 
population and thousands of leftover weapons from the wars of the 
1980s, make Central America a fruitful recruiting ground for organized 
criminals. Violence is a major problem in this area with local 
vigilantism taking the place of judicial systems that do not work. 
There are estimated to be at least 25,000 gang members in Honduras, El 
Salvador and Guatemala, the three countries where the problem is worst. 
There is also some evidence that many of those gang members have close 
connections with gangs in the United States, either from drug 
distribution networks or from immigration and re-migration to their 
home countries.
Southern Cone
    The Argentine economic crisis has caused many to question the 
validity of neo-liberal reforms, manifested in the Buenos Aires 
Consensus signed last October by Presidents Kirchner and Lula and 
stressing ``respect for poor countries.'' Southern Cone countries, 
traditionally strong supporters of multilateralism and the United 
Nations, were also the most vociferous in opposition to OIF. 
Limitations related to the American Servicemember Protection Act (ASPA) 
have added yet one more complaint. Brazil continues along a moderate 
path but is suffering from narcotics fueled urban gang violence. The 
Brazilian minister of justice stated that violence in Brazil's three 
biggest cities costs $4.5 billion a year. Nevertheless, progress and 
stability in Brazil is not in question.
    We are maintaining strong military-to-military relations with the 
countries of the Southern Cone. USSOUTHCOM has developed relationships 
with the new Argentinean military leadership and expects sustained 
cooperation in the future. Cooperation with the Brazilian 
administration and the Brazilian military continues routinely. We have 
received good cooperation from Argentina, Brazil, and Paraguay in 
disrupting terrorist activities in the Tri-Border Area. A Chilean 
platoon and a Paraguayan platoon are serving under Argentine command in 
the United Nations Peacekeeping Operation in Cyprus, with additional 
military personnel from Bolivia, Brazil, Peru and Uruguay also serving 
with the Argentine-led force. Chile, the fourth largest user of the 
Panama Canal behind the United States, Japan, and China, took an active 
leadership role in the Southern Command sponsored Panamax exercise 
designed to guarantee the security of the Panama Canal. The Chileans 
rapidly deployed a force to Haiti during the recent crisis. We look 
forward to a growing and cooperative relationship with Chile and its 
armed forces.
                            war on terrorism
    Terrorists throughout the Southern Command area of responsibility 
bomb, murder, kidnap, traffic drugs, transfer arms, launder money, and 
smuggle humans. USSOUTHCOM gains actionable intelligence on these and 
other terrorist activities that is then used by U.S. law enforcement 
agencies and our partner nations to disrupt terrorist operations and 
means of support. To further these efforts, we train, equip, build, and 
exercise partner nation capabilities to control borders, eliminate safe 
havens, and project government presence. Our primary efforts are in the 
areas of improving Colombian military capabilities, conducting 
detention operations, improving interagency cooperation, resetting our 
strategic architecture, promoting security cooperation, and 
institutionalizing partner nation professionalism and human rights 
adherence.
Colombia's Military Capabilities
    USSOUTHCOM assistance programs are helping Colombia develop the 
capabilities to achieve security and stability. Military training of 
Colombian units that are vetted for human rights abuses is a key 
enabler in their fight. In addition to working closely with the 
Colombian Ministry of Defense, Army, Navy, and Air Force, we developed 
over the past year a close working relationship with the Colombian 
Special Operations Command, the 1st Commando Battalion, the Lancero 
Battalion, and their urban counterterrorist unit. We assist in 
providing operational support and developing thorough logistics 
systems, with a particular emphasis on casualty evacuation. We continue 
training the Counternarcotics Brigade and its aviation units. The Plan 
Colombia helicopters have proven to be a major asset in the fight 
against narcoterrorism, and the procedures for coordinating their use 
have been optimized and institutionalized. As we look to the future, 
careful consideration should be given to the eventual nationalization 
of these assets, while maintaining and respecting Congressional intent 
in their provision. We work on riverine techniques with the Colombian 
Marines and assisted in the establishment of operationally focused 
Riverine Combat Elements. We assisted in infrastructure security 
planning, and ensured that all systems were in place to resume the 
State Department-managed Air Bridge Denial program. We are working 
closely with Colombian Military Intelligence to assist them in 
developing intelligence driven operations. We sent Planning Assistance 
Teams to support Colombian units in numerous locations throughout 
Colombia. We helped develop Civil Affairs capabilities that have been 
well used as the government reestablished its official presence in all 
municipalities. With funds made available from the original fiscal year 
2000 Plan Colombia emergency supplemental, we have helped the Colombian 
Ministry of Defense institute legal reforms through the creation of a 
Military Penal Justice Corps, similar to our Judge Advocate General's 
Corps. To provide for the long-term institutional health of the 
Colombian Army, we assisted them in establishing a Command Sergeants 
Major Academy to develop a robust non-commissioned officer corps. 
Finally, drawing on lessons learned in our own operations, we are 
assisting in Colombian efforts to strengthen interagency cooperation.
Detention Operations
    In addition to its work in Latin America and the Caribbean, 
USSOUTHCOM has directly and actively supported the war on terrorism 
since January 2002 by operating a terrorist detention and intelligence 
operations facility at Guantanamo Bay, Cuba. Intelligence operations at 
Guantanamo have provided critical information regarding terrorist 
organizations' leadership, organization, finances, planned attacks, 
potential attacks, and other specific information that has thwarted 
terrorist activities. As Guantanamo operations continue, we will 
improve intelligence exploitation, detainee review and repatriation 
procedures, and quality of life for servicemembers. We are prepared for 
our role as host of military commissions.
Interagency Cooperation
    JIATF-South continues to serve as a model joint, interagency, and 
multinational organization as it coordinates source and transit zone 
activities from Key West, Florida. With the proven nexus between 
terrorists, drugs, and arms trafficking, counter illicit trafficking is 
becoming an increasingly important expansion of counterdrug efforts. 
JIATF-South and the Joint Southern Surveillance Reconnaissance 
Operations Center successfully merged last July, with a gain in 
efficiency by concentrating the trackers and planners in one 
headquarters. In January JIATF-South hosted a successful interagency 
counternarcotics trafficking conference that included high-level 
Colombian participation and set the course for future operations.
    Responding to Secretary Rumsfeld's guidance to establish a Joint 
Interagency Coordination Group, USSOUTHCOM meets monthly to focus on 
the war on terrorism with representatives from the Department of 
Treasury, Drug Enforcement Agency, Department of State, Department of 
Homeland Security, the intelligence agencies, and DOD. The Joint 
Interagency Coordination Group is also a venue for sharing intelligence 
and effectively coordinating our regional counterterrorism efforts. 
Within the interagency terrorist financial designation process, 
USSOUTHCOM is partnering with the Department of Treasury's Office of 
Foreign Assets Control to assist in interdicting the flow of capital 
acquired through illicit activities.
Strategic Architecture
    USSOUTHCOM serves as a model unified command with modest forward 
presence and ability to respond regionally. Over the past year we have 
relocated some of our components and will continue throughout this 
year. U.S. Army South (USARSO) relocated from Fort Buchanan, Puerto 
Rico, to Fort Sam Houston in San Antonio, Texas. Special Operations 
Command South is in the process of relocating from Roosevelt Roads, 
Puerto Rico, to Homestead, Florida. This move is in conjunction with 
the U.S. Navy's decision to leave Roosevelt Roads, which also involves 
Naval Forces South moving from that location to Naval Station Mayport, 
Florida. USSOUTHCOM, USNORTHCOM, and USPACOM successfully agreed to 
establish a Joint Operating Area (JOA) that gave JIATF-South the area 
responsibility in the eastern Pacific all the way to the California 
border. This JOA is just one example of combatant commands cooperating 
to resolve seam issues. Additionally, USSOUTHCOM has established a J-7 
directorate for transformation and is establishing a Standing Joint 
Force Headquarters (SJFHQ) in cooperation with Joint Forces Command. 
This prototype SJFHQs deployed from the headquarters for the first time 
to Soto Cano Air Force Base, Honduras, in January and conducted a 2-
week long exercise with full connectivity to USSOUTHCOM in Miami. 
Overall, these changes in Southern Command's strategic architecture 
will allow us to prosecute the war on terrorism in a more effective 
manner.
Security Cooperation
    USSOUTHCOM's security cooperation activities expand U.S. influence, 
assure friends, and dissuade potential adversaries. The overarching 
goal is to promote regional security and stability through training, 
equipping, and developing allied security force capabilities that 
improve competence and professionalism while underscoring respect for 
human rights. Command programs are also intended to strengthen respect 
for the rule of law, civilian control of the military, and support for 
democratic ideals. We do this not only because it is in tune with the 
highest values of the American people, but also because it is a 
strategic, operational, and tactical necessity. Security forces must 
earn the trust and confidence of their people before they can be 
effective. Only by respecting the law and the dignity of all the 
citizens they are sworn to defend can security forces hope to gain the 
respect of those they protect.
    We annually coordinate and direct more than 30 legal engagement 
activities among military counterparts, regional governments, and non-
government organizations. Throughout the USSOUTHCOM area of operations 
we have advocated reform of military justice codes and procedures, 
education on human rights and law of war, and the inclusion of military 
lawyers in the planning and execution of military operations. 
Complementing this training are disaster relief programs to teach 
militaries how to respond to their civilian authorities when disasters 
occur. Fuerzas Aliadas Humanitarias is the cornerstone of this program 
and will be hosted by Panama this year. More than 20 nations will 
participate, including our regional partners.
    Beyond disaster relief, New Horizons exercises provide unique and 
rigorous training opportunities to engineer, medical, and civil affairs 
units. These activities hone U.S. forces' engineering and medical 
skills in challenging environments under conditions nearly impossible 
to replicate in the United States. Last year the New Horizon exercises 
completed 31 engineer projects consisting of schools, medical clinics, 
wells, and rudimentary road construction and repair. The 70 
humanitarian medical deployments treated more than 300,000 patients. 
During these deployments, our veterinary teams treated approximately 
57,000 animals in varying livestock categories, which contributed 
significantly to sustaining local economic health. Ecuador, Guatemala, 
and Honduras will host New Horizons exercises this year.
    The annual naval exercise, Unitas, is conducted throughout the 
region with significant participation by several countries. This year, 
Peru will host the Unitas Pacific Phase and the Unitas Amphibious 
Phase, while Uruguay is scheduled to host the Unitas Atlantic Phase in 
November. Central American nations will host several exercises this 
year to include Peacekeeping Operations (PKO) North that will focus on 
strengthening the peacekeeping skills and capabilities of the 25 
participating nations. All the Central American countries and the 
majority of Caribbean nations will participate. We will also conduct 
PKO South and Cabaas to strengthen the peacekeeping skills, 
cooperation, and capabilities of the rest of the region's military 
forces.
Professionalism and Human Rights
    A number of countries in Latin America and the Caribbean have a 
history of military dictatorships, authoritarian governments, violent 
internal conflicts and rampant human rights abuses dating back to the 
1950s and into the early 1990s. Many countries in the USSOUTHCOM area 
of responsibility are dealing with the legacy of human rights abuses 
committed during military dictatorships by strengthening judiciary and 
democratic institutions and by cementing civilian control of the 
security forces. Since 1996, USSOUTHCOM has conducted the Human Rights 
Initiative (HRI), ``Measuring Progress in Respect for Human Rights,'' 
focusing on developing regional standards for human rights programs in 
the military and security forces. The HRI is a major strategic enabler 
tool for USSOUTHCOM and is a key component of the Command's Theater 
Security Cooperation Plan. We also ensure that all units that receive 
U.S. security assistance are vetted for human rights violations in 
accordance with the Leahy Amendment.
                              requirements
    As the war on terrorism progresses we will increasingly pursue 
operations of mutual interest with goals that increase interoperability 
with our allies. We will pool our resources to the extent possible, but 
we foresee additional threats to U.S. security interests that may 
require additional resources or the reprioritization of programmed 
funds. To reinforce success in Colombia we will address the current 
personnel cap. We also expect an increase in requirements for 
persistent ISR and additional stress on our theater communications 
architecture, as well as a requirement for the renewal of Expanded 
Authorities legislation.
Colombia Personnel Cap
    The current personnel cap limits the U.S. presence in Colombia to 
400 military personnel and 400 contractors. We manage the cap on a 
daily basis, rigorously remain under the ceilings, and frequently must 
cancel or postpone planned personnel travel to Colombia, request 
aircraft to reduce crew size, create complicated work-around schedules 
for aircraft flights, or simply cut back on training. Part of the 
difficulty lies in the types of personnel that we have counted against 
the cap, which include, for example, the permanent party military group 
itself, those in aircraft flying over but not stationed in the country, 
and personnel who have completed their assignments but have not yet 
left the country. A review of whether such personnel should be counted 
would be warranted.
    The decision for the DOD and Department of State to seek an 
increase in the personnel ceilings is a change from our previous belief 
that we could continue our programs efficiently under the previous 
ceilings. The progress made by President Uribe and Colombia have led us 
to conclude that there is a real opportunity, with only a small 
increase in U.S. personnel, if we are to achieve our policy goals in 
Colombia. I would emphasize that we do not seek to change the 
prohibition on U.S. involvement in combat.
    To date the impact of the personnel cap has been small. In the 
coming year, however, as the Colombian Military conducts full-scale 
operations across the depth of the country, the personnel cap will 
begin to have a deleterious effect on the mission. While U.S. personnel 
will not be directly on the front lines with the Colombian troops, more 
training and planning assistance at a variety of headquarters is 
required since a greater portion of the Colombian Military will be 
directly engaged on a broader front in operations to defeat the 
narcoterrorists. We should reinforce success this year rather than 
constraining ourselves with a cap number that made sense at the 
beginning of Plan Colombia but has not been adjusted for the current 
and future situation on the ground. Consequently, the administration 
has requested an increase of the personnel cap to 800 military 
personnel and 600 civilian contractors in Colombia in support of Plan 
Colombia.
Persistent Intelligence, Surveillance, and Reconnaissance
    We conduct varied detection and monitoring (D&M) operations that 
require a high state of readiness and a joint effort to link multi-
intelligence collectors targeted against strategic, operational, and 
tactical requirements. This melding of organic and national collection 
resources will improve operations and fulfill the Quarterly Defense 
Review Transformation requirement for continuous and persistent ISR. 
Southern Command's role in Operation Enduring Freedom includes the 
employment of national, airborne, ground, and maritime ISR assets that 
are targeted against regional terrorist groups and transnational 
support cells. Their combined products create a common operating 
picture of regional activity that can be shared with our allies as 
appropriate. Still, the majority of assets available to us are focused 
on the tactical fight in Colombia and thus unavailable for other 
missions. A capability to support Colombia and our other areas of 
concern in the war on terrorism is essential to gain the situational 
awareness requirement to disrupt terrorist activity. When sufficiently 
funded, D&M programs provide a formidable capability to detect and 
monitor illicit trafficking of arms, drugs and other illegal activities 
that fuel terrorist groups. Overall, this capability further provides 
critical information used by the U.S. and host nations to effectively 
counter the expansion of narcoterrorism and international terrorism.
Command, Control, Communications, and Computers
    Improving C\4\ architecture for fixed and mobile operations 
throughout the region has been a consistent priority, as outlined in 
previous testimonies. The current C\4\ infrastructure lacks the 
flexibility to execute the assigned mission due to over-reliance on 
inadequate commercial communications systems, limited communications 
bandwidth, and fragmented operations and maintenance support. 
Consequently, Southern Command is unable to effectively and efficiently 
support a counterdrug mission simultaneously with another contingency 
operation such as antiterrorism, noncombatant evacuation, migrant 
operations, disaster relief, or defense of the Panama Canal.
    Since existing military systems alone are insufficient, it is my 
intention to transform, expand, and maintain a cost-effective, 
efficient, centrally managed, and robust infrastructure that supports 
the Theater Security Cooperation Strategy. This strategy includes 
counterterrorism operations, regional engagement, crisis response, and 
counterdrug missions. We are partnering with DISA and the Department of 
State's Diplomatic Telecommunications Service Program Office to explore 
commercial alternatives such as fiber optic communication links. This 
effort shows promise for improving C\4\ effectiveness throughout the 
region.
Expanded Authority
    In 2003 and 2004, Congress gave us expanded authority to use 
counterdrug funds for counterterrorism missions in Colombia because it 
concluded that there is no useful distinction between a narcotrafficker 
and his terrorist activity, hence the term narcoterrorist. This link 
between narcotics trafficking and terrorism in Colombia was also 
recognized in the National Security Presidential Directive 18 (NSPD-18) 
concerning support to Colombia. Operations today are more efficient and 
effective because our expanded authorities allow the same assets to be 
used to confront the common enemy found at the nexus between drugs and 
terror. Expanded Authority permits greater intelligence sharing and 
allows Colombia to use U.S. counterdrug funded equipment for 
counterterrorism missions. Expanded authority from Congress is 
essential to this command's ability to deal with narcoterrorists. We 
are requesting that Congress again pass expanded authority for fiscal 
years 2005 and 2006.
Reprogramming of $50 Million
    We request congressional support of DOD reprogramming of $50 
million to support Colombia's campaign plan. Along with expanded 
authority and the increased troop cap, this reallocation of funds will 
synchronize U.S. Government efforts in assisting Colombia at this 
critical juncture in their fight against narcoterrorism.
                               conclusion
    I'm proud of the effort the men and women of USSOUTHCOM have made 
over the past year. They have been able to protect our interests in the 
area of responsibility while the Nation's attention was focused 
elsewhere, and their dedication and focus has paid off, especially in 
Colombia where the Colombian government is making real progress against 
narcoterrorists and criminal groups. These successes, however, may not 
be enough to stem the growth of radical populism and popular 
dissatisfaction in some countries where reforms have failed to solve 
underlying social and economic woes. We continue to work to improve 
both the capabilities and professionalism of our partner nations' 
militaries, so they can maintain their own security and can assist in 
combating common transnational threats. Our partner nation military 
forces are currently under tremendous stress while simultaneously 
institutionalizing their roles in democratically elected governments. 
These forces, if properly trained and equipped, can ameliorate aspects 
of the struggles many countries face. We will continue to encourage 
professionalization through what we are doing in Colombia, and through 
what we are doing throughout the AOR with security assistance, theater 
security cooperation, and exercises. We will continue working 
diligently with the interagency to build the coherent long-term policy 
that will improve the security, and resulting economic and social 
health, of the entire Americas.
    I would like to thank the chairman and the members of the committee 
for this opportunity and for the tremendous support you have provided 
this command. USSOUTHCOM is a good investment of both your dollars and 
your trust. I can assure you that the men and women of the USSOUTHCOM 
are working to their utmost to accomplish their missions for our great 
country.

    Chairman Warner. Thank you, General Hill. Again, I have 
been privileged to work with you and your enthusiasm and 
commitment to this post come through very clearly.
    We will now proceed to a 6-minute round. I would like to 
start off again, Admiral Fargo, on the China-Taiwan situation. 
You are well aware, of course, of Congress' longstanding 
interest in this. We have the Taiwan Relations Act, and that 
potentially aligns us with trying to preserve the integrity of 
Taiwan as we know it today. The President has spoken very 
clearly and precisely on this.
    I was struck very positively by your observation--I believe 
I have it in mind--that the situation, you feel, is well in 
hand and it has not really changed in terms of military 
potential in some time now. Could you expand on that?
    Admiral Fargo. Yes, Mr. Chairman, I certainly can. As you 
remarked, the President has made it very clear that the United 
States opposes any attempt, by either side, to unilaterally 
change the status quo in the Taiwan Strait, and certainly it is 
our top goal--peace and stability in the Strait. That is the 
only way where the region will see the economic prosperity that 
everybody is looking for.
    I think my role is very clearly laid out in the Taiwan 
Relations Act. I have responsibility to continually assess and 
report to the Secretary and the President, to help Taiwan 
develop the capability to defend itself, and then, if so 
ordered, I have to make sure that our forces are ready and 
capable to defend Taiwan.
    So we are paying very close attention to this. As I 
mentioned to you yesterday, we do not see any indications, or 
any movements, that would cause us to believe that we have an 
imminent military crisis. They just are not there right now. 
Levels of activity are normal, the kinds of exercises you would 
normally expect for this time of the year.
    We are watching the Chinese military modernization very 
closely. Their economic success over the last few years, that 
growth of 7, 8, 9 percent, has certainly fueled a military 
modernization that is bringing to the People's Liberation Army 
modern ships and submarines and aircraft.
    Chairman Warner. Thank you. Your answer is very 
encouraging. Again I refer back to, I thought, a very clear 
statement by the President indicating our commitment. But I 
hope the political leadership on both sides down there do not 
allow the heat of politics, which all of us here on this side 
of the rostrum understand very clearly, to develop into some 
sort of a military confrontation. I thought the President spoke 
to that very clearly.
    General LaPorte, I see that you have with you a 
distinguished flag officer of the United States Marine Corps 
who, as I understand, has had a number of years of service. 
Would you introduce him to the committee, please?
    General LaPorte. This is Major General Timothy Donovan. He 
is my C-5. He has served in Korea 3 years. He is a tremendous 
asset to me personally, but to the command in general, and he 
is going to assume command of the Marines at Camp Pendleton.
    Chairman Warner. General, we welcome you and look forward 
to when your promotion comes before this committee. Three years 
of service you have put in on the Korean peninsula?
    General Donovan. Yes, sir.
    Chairman Warner. Quite a period.
    The incentive pay, General; it is a subject that you and I 
have worked on for the years that you have been in your post. I 
understand, from our conversation yesterday, that the Army has 
approved assignment incentive pay for soldiers who volunteer to 
extend their tour of duty in Korea. Those who are willing to 
remain in Korea receive an extra $300 a month.
    Do you have any assessment of how this is going to benefit 
your command? What is the status of the Air Force's decision 
regarding assignment incentive pay for airmen?
    General LaPorte. Senator, first of all, I would like to 
thank you personally and the committee for the tremendous 
support you have given the servicemembers in Korea relative to 
what was perceived as a pay disparity. Since I last appeared 
before you last year, the servicemembers serving in Korea have 
benefited tremendously, first of all with the increase in the 
family separation allowance from $100 to $250 a month. That is 
very much appreciated.
    Second, we were able to work very diligently to justify the 
cost of living allowance that servicemembers in Korea have 
started to receive about 8 months ago. Up to this point in 
time, Korea was the only place in the Pacific that was not 
receiving a cost of living allowance. That is not the 
responsibility of Admiral Fargo. That is the responsibility of 
my command to justify, and we have been able to do that over 
the past year. So the servicemembers are benefiting from that.
    Recently we looked very closely at the assignment incentive 
pay that you just mentioned. The Army has established a pilot 
program. We implemented it on March 12. The report I received 
last night indicated that at the closeout at the end of March, 
we have had 3,600 soldiers in Korea request this assignment 
incentive pay to either extend 1 year or 2 years in Korea.
    We think this is a tremendous vote of confidence in terms 
of the mission, the training that they receive in the command, 
and also an opportunity to make a few extra dollars for a 
difficult assignment.
    The status of the Air Force program: My understanding is 
that General Jumper approved the program this week and it is 
moving to the Secretary and then up to the OSD for approval, 
and I expect that will be approved shortly.
    Chairman Warner. Would you provide for the record, are 
other servicemembers of, say, the Department of the Navy, 
either naval or Marine Corps, serving in billets that would 
enable them to qualify under the Army's program?
    General LaPorte. The Navy has used the assignment incentive 
program very well over the past 2 years since they have been 
given the authority. I will provide you the details for the 
record, sir.
    [The information referred to follows:]

    Each of the Services is reviewing ways to improve servicemembers' 
quality of life incentives for personnel assigned to Korea, including 
overseas tour extension incentives. However, members of other Services 
are not eligible to participate in the U.S. Army's Assignment Incentive 
Pay Program.
    The U.S. Navy does have an assignment-related pay program, named 
the Assignment Incentive Pay Program, for eligible enlisted sailors; 
however, it is not currently applied to those enlisted sailors assigned 
to Korea because they receive Sea Duty Credit--for their service at a 
land-based Navy activity in Korea instead.
    The U.S. Marine Corps does not have an assignment-related incentive 
pay program. Headquarters, U.S. Marine Corps is currently evaluating 
its need for assignment-related incentive pay program for marines.
    The U.S. Air Force has established an assignment-related incentive 
pay program similar to the Army's program; the program has been 
approved by OSD and the Air Force is in the process of implementing 
their program.
    The U.S. Army's Assignment Incentive Pay Program is leading the way 
to provide Army units and organizations in Korea with options to 
increase servicemember stability and, at the same time, provide 
substantial fiscal savings to the Army by reducing the number of 
soldier and family member moves. This is a ``great news'' story, and I 
hope that the other Services will look at this program closely.

    Chairman Warner. I want to make sure, Admiral Fargo, that 
it is uniform for all service persons who have an assignment in 
that area.
    Admiral Fargo. Yes, sir.
    Chairman Warner. The Colombia troop cap, this is something 
that is being very actively considered. General Hill, the 
United States military presence in Colombia is currently 
limited to 800 personnel, 400 military and 400 contractors. The 
administration is asking for an increase in this troop cap. Can 
you give us your understanding of the justification for that 
and the size of increase that you think would be optimum?
    General Hill. Thank you, Senator. The troop cap issue and 
the request for an increase is directly linked to the great 
success that the Colombian military has had over the last 18 
months since President Uribe assumed the presidency in 
Colombia. He developed a strategic plan for the nation, the 
military developed a military plan for security for the nation, 
and they have now developed an operational plan to literally 
carry the fight to parts of Colombia where they have not had a 
presence for the last 15 or 20 years. They are going to take 
the fight to the enemy.
    When I was briefed on that plan, and I was shown the 
complexity of it, and I was shown the size of it, and they 
asked my support of it, what I saw was the need to increase our 
planning assistance teams, the need to help them logistically 
in terms of planning for sustained land combat, and also 
communications and intelligence.
    Chairman Warner. And transportation?
    General Hill. Transportation, to help them plan that 
transportation, yes, sir.
    As we began to look at the numbers, we saw quickly that we 
could not do that amount of work with them underneath the 
existing cap. What we have been doing over the last 6 to 8 
months is pulling some people out and putting some people in 
that are doing the more appropriate mission, and we have been 
managing the cap at exactly about the 400 level.
    This is an opportunity for us to see success of Plan 
Colombia. The United States Congress 3 years ago--we are in our 
fourth year of Plan Colombia--has put a lot of money into 
Colombia, about $2 billion. That investment is beginning to pay 
tremendous dividends, and we need to stay the course and part 
of that is to, in my view, allow me the flexibility to better 
assist the Colombian military in their undertakings.
    Chairman Warner. General, while we want to support that 
government in its effort to preserve freedom in its country and 
to stabilize the governmental situation, the drugs that emanate 
from that region cause a tremendous cost to this country in 
life, disease, and harm, and law enforcement and the like. Can 
you say that there is a direct correlation between that flow of 
narcotics from that region and this troop cap? In other words, 
will the troop cap hopefully further try to limit that flow?
    General Hill. In my view the answer to that question is 
yes, it will. The FARC, the AUC, and the ELN derive their 
resources to conduct their narcoterrorist activities out of 
narcotics. The region that the Colombian military is going into 
is one of the highest growing narcotics areas. We will continue 
to take down their ability to finance themselves, they being 
the illegal armed groups.
    We have seen over the last year the progress that the 
Colombian military has had. It has in fact played a significant 
role in making life much more difficult for especially the FARC 
to operate in their areas because of lack of resources.
    Chairman Warner. So there is a clear correlation and a 
clear benefit to our Nation to give this added support?
    General Hill. In my view, yes, sir.
    Chairman Warner. In your professional view. I thank you 
very much.
    Senator Levin.
    Senator Levin. Thank you.
    Admiral Fargo, in order to meet the current demand for 
forces in Southwest Asia the Marines decided to redirect to 
Iraq some of the battalions usually assigned to Okinawa. In 
your view, does that increase the risk that you will not be 
able to meet operational requirements?
    Admiral Fargo. Senator, we took a very careful look at 
this. In the first rotation of forces to Southwest Asia the 
Pacific was largely untouched. We did move the carrier Kitty 
Hawk into the Gulf, but it was immediately backfilled by the 
carrier Carl Vinson. This rotation we have moved forces and the 
marines off of Okinawa, those three battalions, are part of 
that.
    General LaPorte and I looked at this very carefully and 
felt that the risk that we would accept by moving those marines 
was both reasonable and prudent. In addition, the Navy and the 
Air Force have had the opportunity to pretty much reset. They 
have been able to come back and reconstitute, recock, if you 
will. We have the ability to use those forces to help mitigate 
that risk.
    Senator Levin. Admiral, this question is either for you or 
General LaPorte. It relates to our intelligence regarding North 
Korea's nuclear capabilities. I am wondering whether or not you 
believe that they have reprocessed all of the 8,000 fuel rods 
over the last 6 months?
    Admiral Fargo. I will give you my initial answer and I am 
sure General LaPorte can add to that. Senator, I do not know 
whether they have or not. I do not think we have enough 
intelligence to tell that.
    Senator Levin. General?
    General LaPorte. I would agree with that. Obviously, they 
have had the opportunity to in terms of time, but we do not 
have the intelligence that tells us they in fact have done 
that.
    Senator Levin. Now, how good is our intelligence generally 
relative to North Korea?
    General LaPorte. Senator, North Korea is a very tough 
intelligence target because of the closed nature of its 
society. They have worked very hard at countering technical 
intelligence means, such as using fiber optics, developing 
indigenous frequency-hopping radios. They have a tremendous 
number of underground facilities. So technical intelligence 
becomes problematic when you are addressing a target of that 
nature.
    From the HUMINT intelligence standpoint, because it is such 
a closed and controlled society, that is also challenging for 
us.
    Senator Levin. Do you disagree with that or do you want to 
add anything to that, Admiral?
    Admiral Fargo. No. I think it is a very tough target, as 
General LaPorte said. The society makes it tough to penetrate. 
We have had numerous conversations with our intelligence 
community and certainly we have laid out our requirements with 
them, and they are working on them and they are working on them 
hard. But it is a tough target.
    Senator Levin. General LaPorte, have you noticed anything 
different or unusual in North Korea's military posture, 
training, or operations?
    General LaPorte. Sir, since I last appeared before the 
committee I would say no, we have not. I agree with Admiral 
Fargo's assessment. The likelihood of war on the peninsula, my 
assessment is that it is low at this point in time. During the 
past 12 months there have been no tactical provocations along 
either the DMZ or in the west sea. Their conventional forces 
continue to train within seasonal norms that we have seen. They 
are just recently completing their winter training cycle, and 
there has been an average level of training that we have seen 
over the past 5 years.
    Senator Levin. The South Koreans seem to think that 
instituting a freeze, going back to the Agreed Framework as a 
starting point, is more desirable than the current situation 
where the 5-megawatt reactor continues to produce enough 
plutonium for about another device each year and where 
reprocessing has and may continue to occur.
    Do you have an opinion on the issue of whether or not it 
would be desirable to re-institute that freeze or do you think 
that we should basically insist the they dismantle everything 
up front? Do you have an opinion on that issue?
    General LaPorte. First of all, I would like to say that the 
United States many times is accused of unilateral action, but 
in this case the United States has been the driving force in 
developing the six party talks and getting other nations who 
have a vested interest in keeping the peninsula nuclear-free 
involved in the process.
    I think we need to have a very strong diplomatic effort 
that is backed up with a very strong military readiness 
posture.
    Senator Levin. On the specific issue, however, as to 
whether, since the South Koreans apparently believe that re-
instituting a freeze would be a good starting point or an 
adequate starting point compared to the position of requiring 
the North Koreans to dismantle everything first, do you have an 
opinion on that issue?
    General LaPorte. The challenge always with the North 
Koreans is getting them to abide by any agreements that they 
make.
    Senator Levin. Either way.
    General LaPorte. They do not have a history associated with 
complying.
    Senator Levin. Admiral, do you have an opinion on the 
question I asked?
    Admiral Fargo. I think that General LaPorte has stated it 
very properly. Getting the North Koreans to abide by the 
agreement is the toughest proposition, and getting to the end 
state we are looking for, which is a nuclear-free Korean 
peninsula, is where we need to be.
    Senator Levin. Okay. General Hill, if we raise that cap 
that you and the chairman talked about, will that increase the 
risk in any way that U.S. troops will be drawn into combat?
    General Hill. No, sir. I am not asking for a change in the 
rules of engagement. I do not propose to put American troops 
into a combat situation, nor frankly would the Colombians like 
that to happen. The Colombians understand that this is their 
war, it is their war to win, and they are going about doing 
that.
    Senator Levin. So in your judgment specifically, if we 
increase the cap as you requested, that does not increase that 
risk?
    General Hill. I do not believe so, no, sir.
    Senator Levin. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator, your question is very important, 
but I think the record should reflect that our troops by virtue 
of their physical presence in that region are subjected to a 
fairly high degree of risk.
    General Hill. Senator Warner, that is correct, and if that 
is the context of Senator Levin's question----
    Senator Levin. I was talking about combat, whether they 
will be drawn into combat.
    General Hill. No, sir.
    Senator Levin. That is the risk I referred to. There are a 
number of risks that you are referring to, but I had limited 
the question to that risk.
    General Hill. But on the force protection issue, Senator 
Warner, we have a vigorous force protection policy in Colombia, 
and we work that every day very hard.
    Chairman Warner. I do not question that.
    General Hill. Yes, sir.
    Chairman Warner. But our attention is drawn this morning to 
a tragic picture of contractors and others. But at any moment 
elsewhere in the world our troops, while they are not in direct 
combat----
    General Hill. Yes, sir.
    Chairman Warner.--they are in harm's way. Let it be very 
clear.
    General Hill. Clearly.
    Senator Levin. I agree with that.
    Chairman Warner. Thank you.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    I want to thank all of you for your testimony today and 
thank you for your service to America and its citizens.
    The first question I want to direct to Admiral Fargo, and 
this deals with an issue that I have been working on through my 
office. Two Americans were murdered and several others were 
injured in Indonesia on August 31, 2001, when they were 
attacked as they were returning from a picnic. As a result of 
Indonesia's lack of progress in investigating this attack, last 
year I, along with Senator Russell Feingold, inserted language 
in the Fiscal Year 2004 Foreign Appropriations Act restricting 
funding for the International Military Education and Training 
to Indonesia until the Secretary of State has certified that 
Indonesia has made progress in its investigation and is 
cooperating with the Federal Bureau of Investigation.
    Are you satisfied with Indonesia's progress in 
investigating this attack?
    Admiral Fargo. Senator, I think we all recognize that 
Indonesia is a tremendously important place. This is the 
largest Muslim country in the world, over 200 million people, 
larger than Russia. Right now it is a moderate secular 
democracy and a relatively immature democracy. They are going 
to hold their first direct election for president in April. A 
lot of their institutions are immature and require a large 
degree of reform, and the TNI is one of those.
    The latest reports that I have from the country team on the 
TNI's cooperation with the FBI are actually very positive. They 
indicate that the cooperation has improved dramatically and the 
FBI is getting very close to being able to file their report. 
So I am encouraged by that.
    I have had direct conversations with General Sutarto, the 
Chief of Defense for Indonesia, about the importance of their 
full and open participation in this investigation and he has 
assured me he is going to provide his complete cooperation.
    Senator Allard. It sounds like you have emphasized the 
importance of finding those responsible and holding them 
accountable to Indonesian leaders and I appreciate your helping 
us out in that and being involved in that very crucial issue.
    The next one I want to address also to you, Admiral Fargo, 
and then also General LaPorte. It regards missile defense. In 
your prepared testimony you both underscore the problems and 
concerns with the growing proliferation of weapons of mass 
destruction and ballistic missiles. It is no secret that the 
North Koreans are assembling a significant missile inventory of 
great ranges and are one of the most aggressive proliferators 
across the globe.
    I am glad to hear in your testimony the added emphasis on 
ballistic missile defense programs. Could you share with us 
your respective efforts and progress in completing your 
concepts of operations and operator training activities for 
initial ballistic missile defense operations later this year? 
In particular, I would appreciate hearing any resource concerns 
you may have.
    Admiral Fargo. Yes, sir. Senator, let me start if I may. We 
think missile defense in the Pacific is tremendously important 
and of course on the national level also. It is one of my top 
three priorities that I have submitted in my integrated 
priority list.
    Right now we are moving to an initial capability this year. 
In the Pacific, that will involve the deployment of Aegis ships 
that provide a search and track capability and that will fit 
into the larger national architecture. We also think it is 
particularly important that we move ahead on theater ballistic 
missile and cruise missile defenses because of our clear 
responsibilities to protect our forces, our ships, and 
personnel ashore as well as our allies. So the early fielding 
of systems like the Theater High Altitude Air Defense system 
and expanding the Patriot PAC-3 capability, the fielding of the 
Navy's mid-course sea-based system and sea-based terminal 
system are particularly important to me to meet my 
responsibilities.
    Senator Allard. General?
    General LaPorte. Senator, let me just add to what Admiral 
Fargo has said. My responsibilities, obviously, are localized 
to the peninsula. During the past 12 months we have been able 
to significantly upgrade our Patriot capabilities on the 
peninsula as a result of integrating the PAC-3 missiles and 
technology into the forces that are currently on the peninsula.
    Senator Allard. Thank you.
    General Hill, there seems to be a growing trend among 
terrorist elements to partner with drug traffickers for 
financing their terrorism. This direct and growing linkage 
between the narcotraffickers and the global terrorists I think 
is becoming more of a direct threat to the United States. Is it 
time to start looking beyond just foreign military assistance 
programs and toward direct U.S. military action against these 
illicit partnerships?
    General Hill. Senator Allard, you raise a true concern of 
mine also. In my region, there is a growing Islamic community, 
some of it longstanding, some of it fairly new. They are 
involved in all manner of illegal activity, including 
narcotrafficking. There is a connection between many of those 
groups and Hamas, Hezbollah, and other organizations where 
illegal funds generated in our region pay for and help support 
international terrorism.
    We watch those groups very carefully in the region. To this 
point, we have never found, have not found, an operating 
terrorist cell. Were those to be found, then I would recommend 
appropriate action.
    Senator Allard. Thank you.
    Mr. Chairman, I see my time has expired.
    Chairman Warner. Thank you, Senator.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Iraq has become a drain on our land forces of considerable 
scope. We have talked about the marines that have been deployed 
from Okinawa. The 25th Infantry Division has significant 
deployments into Southwest Asia. In addition, I assume that 
there are items of equipment that are in high demand, such as 
airlifters and other pieces of equipment. Beyond the units, 
there is a huge demand for special forces, special operators.
    Can you comment, Admiral Fargo and General LaPorte, on the 
effect on the Pacific of this commitment in Iraq? Do you have 
areas where you have less forces? Obviously you have less 
forces today, but that they are draining your ability to 
respond?
    Admiral Fargo. Certainly, Senator, we have less forces that 
are specifically based in the Pacific. As you point out, the 
deployment of the 25th Infantry Division to both Iraq and 
Afghanistan in this rotation as well as the marines--but of 
course, we source forces for all of our efforts globally from 
the entire capacity, really the immense capacity of the United 
States military. That is precisely what we are doing in these 
cases.
    As I responded earlier to Senator Levin's comment, we do 
have the ability to achieve comparable effects with other 
forces other than ground forces, such as the air that is 
provided by both the Navy and the Air Force, which are largely 
reset. So I think that, based on what we have available and our 
evaluation of the risk, we are in an adequate posture right 
now.
    Senator Reed. General LaPorte?
    General LaPorte. Senator, your concern is a concern that we 
need to stay focused on. I will tell you the forces resident to 
the peninsula have been minimally affected by the Iraqi 
operation. We continue to be trained and ready. I work very 
closely with Admiral Fargo in terms of the reinforcing forces, 
and we have exercised those reinforcing forces globally, not 
just in simulation, but in real life movements of those forces.
    I am confident that we have the capability as a Nation to 
reinforce the Korean peninsula if required.
    Senator Reed. Admiral Fargo, you pointed out that the 
administration is pursuing a diplomatic approach to the North 
Korean nuclear situation and that the military stands by as a 
complement or an exclamation point, if you will, to their 
diplomatic efforts. The North Koreans seems to be intransigent, 
noncooperative. Might that be a result of their simply looking 
around the Pacific and seeing the 25th in Southwest Asia, the 
Marines from Okinawa are now in Southwest Asia, even though you 
do have considerable air power? I guess the question would be, 
do you think our military posture is complementing effectively 
this diplomatic initiative?
    Admiral Fargo. Senator, what I have seen is that the North 
Koreans are complaining about our presence. As General LaPorte 
just mentioned, we just finished up our annual exercises, 
Reception, Staging, Onward Movement and Integration, Full 
Eagle, and Freedom Banner, on the peninsula. As General LaPorte 
mentioned, we used forces that were sourced globally for some 
of those efforts. We have maritime forces, a carrier strike 
group and an expeditionary strike group, that was fully 
involved in that effort. We rotate forces into the Pacific on a 
regular basis from the continental United States that maintain 
a very level and deterrent posture.
    The response we have gotten out of the North Koreans is one 
of: they notice that, and in some cases they object to it.
    Senator Reed. General LaPorte?
    General LaPorte. Senator, I would only add that my command 
is a combined command of both ROK and U.S., and the ROK 
military is an extremely capable military force. They are well-
trained, well-equipped, well-led, and highly-motivated. So the 
U.S. and the ROK alliance together complement and allow us to, 
first of all, accomplish our deterrent mission; and second of 
all, to be ready to fight tonight if required.
    Senator Reed. Thank you.
    General Hill, following up in USSOUTHCOM, there have been 
stories about the drain of special operators from the Active 
Forces for private employment and other endeavors, and also 
obviously the demand in Southwest Asia for these special 
operators. Your Colombia operations seem to have a particular 
rationale for additional special operators. Will you find a 
problem there filling these additional slots that you 
requested?
    General Hill. No, sir. In context to the whole OPTEMPO-
PERSTEMPO issue, which I am very sensitive to, not only just 
for Iraq but for other operations, most of the requirements and 
many of the requirements that I am going to fill in terms of 
upping from 400 to, as we see it, in 2005 about 726 people max, 
are short-term. They will be mostly filled from forces already 
assigned to me or from headquarters assigned to me. Some SOF, 
but in many regards not Special Operations Forces.
    Senator Reed. Thank you.
    Admiral Fargo, the Philippines has been a source of 
concern. Can you comment upon the situation now with the JI and 
their Abu Sayyaf operatives? What is the situation?
    Admiral Fargo. Sir, from the outset the Philippine 
government has provided superb support on the war on terrorism. 
They do have significant concerns, as we do, about the Abu 
Sayyaf Group and the Jemaah Islamiyah. The ASG was really 
pretty much a hostage for a ransom group that operated in the 
southern Philippines really in the archipelago.
    President Arroyo has recently stated that the JI is their 
top threat and concern. The Philippines has made some progress 
against the ASG. There were reports this weekend of the arrest 
of four to six ASG members and the recovery of some number of 
explosives. We are still trying to corroborate those reports.
    The JI are a regional concern. The region--the countries of 
this region, Southeast Asia, have cooperated very thoroughly, 
and I mean the Philippines and Indonesia and Thailand and 
Singapore, to arrest or detain some 200 JI members. But I think 
we need to be concerned about the JI. I am concerned about the 
potential for JI training in the Philippines and certainly our 
goal and our effort with the armed forces of the Philippines is 
to provide them the intelligence and the training and advice so 
that they can develop a long-term and sustainable counter-
terrorist capability to deal with these threats.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator.
    The Senator from Alabama.
    Senator Sessions. Thank you, Mr. Chairman.
    General Hill, what is the troop strength you have under 
your command in SOUTHCOM?
    General Hill. Sir, I have about 1,200 people in my 
headquarters, and then my command--I derive forces from JFCOM. 
I am a force user. So I do not have a lot of people under my 
personal command.
    Senator Sessions. I think about Germany. We recently had an 
opportunity to be there and examine our strength there, and I 
think we are around 88,000 in Germany. I am not sure that we 
have any threats to United States interests of significance in 
Germany that require 88,000 troops.
    It is pretty clear to me that USSOUTHCOM has the potential 
to have some real problems and as part of our realignment and 
restructuring of our forces I am inclined to believe you should 
gain strength out of that process. Do you have any comment on 
that?
    General Hill. Senator, I think that the American people 
have gotten a big bang for their buck out of USSOUTHCOM for 
many years. I operate right now at .22 percent of the defense 
budget. We get a lot of goodness out of USSOUTHCOM for that.
    Senator Sessions. I think we are a bit of a Eurocentric 
government around here, but we have a big world. We have a lot 
of responsibilities in the world, and I do not expect that we 
can expect a lot of European help if there is a problem in 
South America. That is just the way it is. So I think we need 
to consider that.
    General LaPorte, I know you are restructuring your bases, 
thinking completely anew about how we ought to be positioned in 
South Korea. I visited very poor housing for some of the 
soldiers there, that had not been changed since we first came 
into Korea, and I know you want to change that, create better 
circumstances.
    I guess my questions would be: How is that going? Are you 
on pace? Do you have the funds to make that move? Will that 
allow you to reduce troop strength in South Korea without 
diminishing our capabilities?
    General LaPorte. Senator, our program in Korea is an 
enhance, shape, and align program. Over the past 2 years and in 
the next 3 years, we will make significant enhancements in our 
military capabilities. That runs the range from command and 
control all the way through missile technology to naval and air 
forces.
    So that helps tremendously in our ability to shape the 
force and align it into what we call two strategic hubs. One 
hub would be in the Osan-Camp Humphreys area that you visited 
and the other would be down in the southeastern portion of 
Korea.
    We are making progress. We have a long series of 
negotiations called the Future of The Alliance Study ongoing 
with the ROK. The ROK has agreed in general principle to the 
Second Infantry Division's relocation south of Seoul and also 
the relocation of forces that are in the greater Seoul 
metropolitan area. We have 7,000 servicemembers in 41 different 
locations in the metropolitan area. Those forces no longer are 
required in that area. They can be much more effective in an 
area south.
    So we are moving in that direction. The South Korean 
government has begun to purchase land. We have developed a 
master plan and have submitted it to the Department of the Army 
that will submit it to Congress here very shortly, a master 
plan for Camp Humphreys that will allow us to continue on. We 
continue to negotiate the timing of this move with the ROK 
government. So we are moving very aggressively on this project.
    The discussion of troop reductions has not entered into our 
discussions at this point.
    Senator Sessions. You do not expect, however, that you 
would need more troops, and is it possible that you could use 
less troops as you reconfigure your positions in Korea?
    General LaPorte. I think we have to take a look and assess 
our capabilities, not necessarily the number of personnel but 
the capabilities that we are able to put towards our deterrent 
mission and our warfighting mission.
    Senator Sessions. Thank you.
    General Hill, with regard to Colombia, I know you have made 
some comments about how the war is going against the 
narcoterrorists there, and I am very proud of the people of 
Colombia. I know they for many, many years tried talking. They 
tried working with the insurgents that threatened the oldest 
democracy in South America, and it did not work. They have, I 
think, pulled together effectively and have taken strong 
military action.
    Do you sense that they are continuing to pursue the 
advantages they gained? Are they losing momentum? Are they 
willing to see it through so that they can rid themselves of 
this terrible problem they have been having for so many years?
    General Hill. Senator, I think your opening statement was 
exactly on the mark. I think that what happened in August 2002 
when President Uribe was inaugurated, he was elected to that 
post by a people who had said to themselves, we are fed up with 
this. He maintains about an 80 percent popularity rate. The 
Colombian military is today the second most respected 
institution in the country, right below the church. They are 
respecting human rights in their way of dealing with their 
people. The people are responding.
    I believe that there is a momentum in Colombia today to see 
this through. There is a desire to see this through. They can 
travel on roads today they could not have traveled on 2 years 
ago. They like that. They have a sense of security that they 
did not have 2 years ago. They like that.
    So I think that there is a momentum that will continue 
beyond President Uribe, and they will see this through.
    Senator Sessions. General Hill, one of the things that has 
frustrated me is that a group out there continues to criticize 
the American military for training foreign militaries. I 
believe we have the highest standards in the world in human 
rights and civil rights. Are you telling me, it seems to me 
that you are saying, that the troops that we have helped 
train--we have not trained them all, but helped train--the 
values that we have taught are being applied and they are being 
respected by the population as a result?
    General Hill. I do not think there is any doubt about that. 
If the Colombian military was abusing its citizenry, they would 
not be the second most respected institution in the country.
    Another anecdote on that issue. Several years ago--for the 
last several years, as members of the FARC, the ELN, or the AUC 
have deserted or demobilized, they have almost always gone to 
the church or to a nongovernmental organization of some kind to 
turn themselves in--75 percent of those demobilized last year--
about 3,000 folks--turned themselves in to the military. Now, 
if they feared that they would be abused by the military, they 
would not do that.
    In 2002 less than 3 percent of the human rights allegations 
in Colombia were against the military. In 2003 that number is 2 
percent, less than 2 percent.
    I feel strongly that they are on the right approach. In my 
view also, the Colombian military looks at it in two ways. It 
is a very practical solution to them because they know that 
they have to have the support of the people; and they will not 
gain that support if they are abusing their people.
    Senator Sessions. Thank you very much, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you for what you do on behalf of the American people 
and the world to make us safe and our democracies free. I have 
a couple of questions.
    Admiral LaPorte, it is good to see you again after having 
seen you twice last year in South Korea. This would really be 
to either you or Admiral Fargo. As you are making progress with 
the relocation of the troop locations in Korea, do you have any 
kind of a time line that you might expect to have the 
discussions finished with the South Korean government? I know 
you are working on the cost of the relocation because it seems 
that South Korea, the government there, would pick up a 
considerable amount of the costs of the relocation.
    Can you give us some idea of what kind of time frame 
progress might mean?
    General LaPorte. Yes, Senator. We have made significant 
progress to be where we are today. The Future Of The Alliance 
(FOTA) initiative was a 2-year program and we are 12 months 
into that program. We have had seven sessions and we have an 
eighth session scheduled next month. Our desire is to complete 
these negotiations so that legislation in the South Korean 
National Assembly can be presented after the 15 April elections 
when a new National Assembly takes office on 1 June.
    Senator Ben Nelson. Of this year?
    General LaPorte. Of this year, yes, sir. So we would like 
to complete these negotiations this year, have them approved 
and ratified by the National Assembly.
    Senator Ben Nelson. Can you give us some expectation of 
what the costs may be that we will bear versus the costs that 
their government would be expected to bear?
    General LaPorte. Senator, that is all under study right 
now, so I would hate to mention any numbers because I really do 
not have a good firm grasp on that.
    Senator Ben Nelson. But you are going to try to get a good 
deal, I take it?
    General LaPorte. Yes, Senator.
    Senator Ben Nelson. Okay. Good luck with the discussions 
and negotiations.
    Anything further, Admiral, that you might want to add to 
that?
    Admiral Fargo. The only thing I would add, Senator, is that 
I think, as General LaPorte said, the South Koreans are going 
to pick up a very significant portion of these costs. There 
will be some military construction costs to us, but I think it 
will be on locations that will facilitate our enduring presence 
on the peninsula, and I think strategically that is absolutely 
where we want to be.
    Senator Ben Nelson. Then with respect to North Korea, 
because the lack of intelligence is so obvious in dealing with 
the North Korean nuclear activity, is it safe to say that over 
the last year or so that it is very likely that they could have 
increased the use of those 8,000 rods by making them into 
significant nuclear potential devices?
    General LaPorte. Senator Levin in his opening comment 
really gave a great synopsis of that process. The answer is: it 
is possible.
    Senator Ben Nelson. Well, likely?
    General LaPorte. But we do not know, Senator. We just do 
not know.
    Senator Ben Nelson. But because we do not know, we also 
have to assume that it is likely that they have done that, 
because it would be consistent with what they have been doing 
to become a fairly significant one-stop shop for technological 
and weapon-grade equipment; is that fair?
    General LaPorte. That is a fair assessment, yes, sir.
    Senator Ben Nelson. That is why last year I said that we 
ought to stop debating and talking about whether we are going 
to talk and propose they--and this is for the diplomacy side, 
not the military side. But it seemed to me that we--and I 
developed a simultaneous model, where we would begin mutual 
talks with mutual agreement, that we would agree during the 
talks not to take action against them if they would stop in 
place and begin to talk about reducing their nuclear activity 
and their nuclear stock.
    I am worried that the time that continues to go on while 
talking about talking is occurring, that we are losing ground, 
that the potential is for them to increase their activity, 
although I applaud the fact that the Chinese government is now 
engaging in some of those conversations. But I am very, very 
much concerned about their expanding their ability because of 
their lack of a significant economy outside of selling 
technology to increase the shelf stocks, if you will, for those 
who might otherwise come buy and purchase what they have to 
sell.
    Let me ask as it relates to Colombia, General Hill. In 
2001, I think it was, a couple of my colleagues, Senators 
Nelson, Reed, Levin, and I visited Colombia and USSOUTHCOM when 
General Peter Pace was the commander. I notice that we feel 
like we are making some true progress with respect to the 
narcotrafficking. I have heard from those who are involved in 
dealing with the problem of methamphetamine use in the United 
States that maybe part of the progress is because there is less 
demand, maybe less demand for Colombian product, based on the 
fact that there is a growing demand for meth here in the United 
States.
    Do you have any thoughts or any knowledge of that?
    General Hill. Senator, I would defer on that to experts on 
meth use in the United States. But if I could, just one point 
on that. Let us just say that the hypothetical number is about 
900 metric tons of cocaine that are generated in the Andean 
region every year. We do not know exactly how much comes to the 
United States, but about 550 metric tons begin to make their 
way to the United States. We interdict anywhere from 150 to 200 
metric tons. That means that 300 or so tons get in the United 
States.
    But if the United States consumers stop doing cocaine 
tomorrow afternoon, there would still be a huge market for 
cocaine in the world.
    Senator Ben Nelson. In the world, yes.
    General Hill. In the world. That would still lead to 
destabilization in the region, and we have to go after that 
because that affects us.
    Senator Ben Nelson. I am not going to suggest for a minute 
that we abandon Plan Colombia, because I think it is of course 
a very important part of dealing with narcotrafficking. But it 
did strike me as sort of at least ironic that the drug of 
choice might move from one to the other, which could affect 
some production in Colombia.
    General Hill. I do not think there is any doubt about that, 
that there is a growing market for methamphetamines, there is a 
growing market for heroin, and that is cutting into the market 
for cocaine, along with our efforts to counter it.
    Senator Ben Nelson. It does seem ironic and perhaps it is 
poetic justice for the production of that narcotic in that area 
by those narcotraffickers.
    General Hill. Yes, sir.
    Senator Ben Nelson. Thank you, Mr. Chairman. I appreciate 
it.
    Chairman Warner. Thank you, Senator.
    Senator Bill Nelson, it is your turn.
    Senator Bill Nelson. Is it my turn? Well, bless you. I 
defer to my senior Senator so that he can go. Oh, no, I insist.
    Chairman Warner. The distinguished Senator from Hawaii.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to add my welcome to our witnesses and tell you that 
we are very proud of what you are doing and what our troops are 
doing outside of our country.
    I want to follow up on the discussions with Senator 
Sessions and Senator Ben Nelson on the status of overseas 
basing strategy, basing strategy that was being developed by 
the Joint Chiefs in cooperation with the Under Secretary of 
Defense for Policy. This question is primarily to Admiral Fargo 
and General LaPorte. Has DOD decided which installations in the 
Pacific region we intend to make our enduring bases? Can you 
tell this committee what is the status of our discussions with 
the host nations, such as Korea and Japan? Have we reached 
agreement with them on long-term basing of our forces in their 
country?
    As a part of this global basing strategy, will DOD be 
seeking to base our forces or build any new facilities in the 
Pacific region in countries where U.S. forces are not currently 
stationed? If so, what would be the financial impact? The 
comment was made here that South Korea is picking up a lot of 
the costs of relocation there.
    So will you please give me your views on these? Admiral 
Fargo?
    Admiral Fargo. Thank you, Senator. To answer your question 
directly, these processes are still ongoing with our good 
friends and allies in the Pacific. We have very solid 
processes. General LaPorte alluded to one of them, the FOTA 
initiative with the Koreans. We have a similar process with the 
Japanese called the Defense Policy Review initiative. Of 
course, we have arrangements with Australia, another treaty 
ally, through the Australian-U.S. ministerial where we go 
through and collaborate with them to work through these 
particular issues.
    I think what is clear is certainly the need to transform 
and to improve our posture and footprint. I think this is well-
recognized. I think we have also settled on some pretty clear 
principles to move forward with. First and foremost, these 
alliances that we have in the Pacific are tremendously 
important to us and have been the basis for our security for 
the past 50 years, the alliances with Japan and Korea and 
Thailand and the Philippines and Australia. They are very 
important and we are not going to do anything to diminish those 
alliances because of their importance.
    We are going to move forward with our allies and our 
partners in close consultation. That is a key principle. We are 
also going to take into account the changes in capability. Our 
capability has changed markedly in recent years and you 
recognize that in terms of speed and precision. But our allies' 
capability has also changed remarkably and they are much more 
capable and much more professional than they were say 15 or 20 
years ago.
    We have to produce a posture that can deal with the 
uncertainty in the world and the changed global threat 
spectrum. We have to make sure that we focus globally, that we 
are not just looking at this regionally, that we are looking at 
how the Pacific fits together with the CENTCOM, and also how it 
fits together with the European Command. So we are going to 
take a global look.
    Then the last point that I would mention is we have to make 
sure that our forces are immediately employable, because we 
recognize that warning is reduced and we have time lines in 
this world where speed is particularly important. So forces for 
immediate employability are also key to our strategy.
    So we are going to move ahead on that basis. We recognize 
that the Asian-Pacific region is tremendously important to the 
future. If you just look at Northeast Asia alone, it is some 44 
percent of the gross domestic product of the world. Certainly 
the future of Asia is very bright and our security concerns in 
Asia are preeminent.
    Senator Akaka. General LaPorte?
    General LaPorte. Senator, I would just reinforce what 
Admiral Fargo has said. Korea is very important to the 
stability of Northeast Asia. Our enduring presence is going to 
be there for many, many years, to include after possible 
reconciliation with North Korea. We have the mechanisms with 
the land partnership plan and the FOTA Initiative to address 
the issue of consolidation and reorganization of our forces in 
Korea. We are aggressively pursuing that plan.
    Senator Akaka. To all of you, and I would like to get your 
views on it: The Navy's new Fleet Response Plan (FRP). As I 
understand it, one of the goals of FRP is to reduce continuous 
presence in various areas of responsibility and instead provide 
naval forces on a surge as-needed basis. This should allow the 
Navy to achieve some savings, but it seems to me that there are 
also some potential down sides. For example, it may decrease 
opportunities for low-level engagement activities, and it might 
mean that units have fewer opportunities to conduct training in 
a variety of different locations so that training is less 
scripted.
    In a sense, each of you is a customer of the Navy. Could 
you each please give me your views on what you think the impact 
of the FRP will be in your theater and whether you think some 
of the possible negative consequences I can imagine might in 
fact come to pass? Do you have any concerns about the ability 
of the Navy to respond quickly enough to possible crisis if it 
reduces its forward presence? Finally, do you have any concerns 
about extending FRP to the Marine Corps?
    Admiral Fargo?
    Admiral Fargo. Senator, I see the FRP as a positive 
initiative, a very positive initiative. I do not see it 
diminishing our forward presence. In fact, I think it is going 
to complement those forward forces that we have right now in 
the western Pacific.
    The way the FRP is going to work as I understand it is it 
is going to make better utilization of the capacity that we 
have right now. We are going to change the maintenance and 
training of those carrier strike groups and expeditionary 
strike groups such that we will have six carriers available 
within 30 days, so that we can respond with greater capacity 
more quickly.
    It will still require the movement of these carriers into 
the region at appropriate times and on a pretty regular basis. 
I think the CNO calls it presence with a purpose, which I think 
is good. As we will see this summer, we will move a carrier 
from the West Coast into Northeast Asia, into the central 
Pacific, and we will meet a lot of those requirements that you 
talked about: making sure that our theater security cooperation 
plan is well-resourced, making sure that we are sending the 
right signals to our allies and friends, making sure that we 
are doing the kind of training, not only with our joint forces, 
but also with our allies, that will ensure that our collective 
readiness is improved.
    Senator Akaka. General Hill?
    General Hill. Senator Akaka, USSOUTHCOM has had a 
longstanding exercise called Unitas. That is a naval exercise 
on both the Atlantic and the Pacific sides of the region. That 
program continues as we speak. We are also engaging our 
regional partners in an exercise called Enduring Friendship. 
More than an exercise, it is in fact an operational training 
event inside the Caribbean, and we will expand that later.
    Finally, what I would say to you is that we are engaging 
the navies of our region with my naval component in a true 
regional manner. I will point to one exercise we did last year. 
The Chileans are the fourth largest user of the Panama Canal, 
and I asked them would they like to help in the defense of the 
Panama Canal? They responded: Absolutely. So we ran an exercise 
last year on the Pacific approaches to the canal with the 
Chileans, the United States Navy, and the Panamanian naval 
forces. That exercise was a counterterrorism exercise.
    That will expand this year to nine nations operating with 
the Panamanians as we collectively work to ensure the defense 
of the canal.
    Senator Akaka. General LaPorte?
    General LaPorte. Senator, in the FRP, as other plans, I 
look at it through an availability of warfighting capabilities 
lens, because I need to be prepared to fight immediately. I am 
confident that the Navy can provide these capabilities in the 
times that would be required, both in a deterrent role and also 
in a warfighting role. So I support Admiral Fargo's position on 
this.
    Senator Akaka. Thank you very much, and I thank my friend 
from Florida for the time.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator Bill Nelson.
    Senator Bill Nelson. Mr. Chairman, one of the delights of 
your committee is having the opportunity to visit with the 
commanders, in this case combatant commanders, as I have 
visited with all three in their headquarters. Indeed, we can be 
very proud of them. So it is a pleasure.
    Chairman Warner. Senator, I would like to thank you. You 
have been able to find the time to travel to a number of places 
in the world, by and large alone, to carry out your oversight 
responsibilities. I thank you.
    Senator Bill Nelson. I am trying to next week as well if I 
can get Powell Moore off his duff and find me a military 
aircraft so I can get into the Dominican Republic and also into 
Haiti. [Laughter]
    Chairman Warner. I do not want to get into this dogfight. 
[Laughter.]
    Senator Bill Nelson. I would like in a more secure 
environment, Admiral, to discuss with you the question of North 
Korea having shot an intercontinental ballistic missile over 
Japan and what you think their intentions are; and, General 
Hill, to follow up with you after--we did an extensive trip, 
Mr. Chairman, throughout Latin America back in December--
following up regarding the tri-border region and what you see 
there. I want to make the committee aware that we have to be 
concerned about terrorism coming out of Central Asia and the 
Middle East, through Africa, and now into Latin America. 
General Hill and I were concentrating on that in several areas, 
particularly the tri-border region.
    But also, in a closed session, if you would also bring me 
up to date with the three Floridians that are held as hostage 
somewhere in the jungles of Colombia.
    But let me start on the record here in the public session. 
There is a rumor going around that Secretary Rumsfeld wants to 
combine USNORTHCOM with USSOUTHCOM. Of course, I asked this of 
the combatant commander of USNORTHCOM. What you can say and 
what you cannot say, I will respect that, but I will just give 
you my two cents as long as we are here and then whatever you 
can say I would like for you to say for the record.
    This USSOUTHCOM is not only in need of a military 
commander, but the USSOUTHCOM, as evidenced in General Hill and 
General Pace before him, has to be a diplomat and has to engage 
almost on a daily basis with the heads of government of all 
these countries to protect the interests of the United States. 
I just do not see how we combine a USNORTHCOM, if there is 
anything to that rumor--and I hope there is not--with the 
USSOUTHCOM.
    But General Hill, say whatever you can for the record.
    General Hill. What I ought to ask is, what did General 
Eberhart say, but I will not do that.
    My view on this, Senator Nelson, is that it is under study 
and advisement. We are conducting the study and will give an 
honest appraisal to it. But all of the points that you just 
said about USSOUTHCOM are strong points.
    Senator Bill Nelson. It might be of interest also for me to 
just note for the record, Mr. Chairman, that, interestingly, as 
General Hill and General Pace before him conduct their 
activities, and where it is necessary for them to see so many 
of the elected heads of government and other cabinet members, 
interestingly the place of easiest destination for all of those 
world leaders is not somewhere in Latin America. Because of the 
flights, it is Miami, Florida, and indeed, that is where we 
have our headquarters of USSOUTHCOM.
    Chairman Warner. Senator, I think that this matter has not 
come before the committee, but it appears to me that, just out 
of the profound respect that we have for the Central and South 
American countries and given the volume of leaders that you 
have to deal with and the fact that in my judgment USNORTHCOM 
has a very full platter right now, that I think it would be 
well-advised to leave things status quo for the present time.
    Senator Bill Nelson. Mr. Chairman, those words are golden, 
and those will be duly noted.
    General Hill, in Haiti do you have enough operations and 
maintenance resources for the ongoing operations?
    General Hill. I do, Senator Nelson.
    Senator Bill Nelson. How long do you expect this operation 
to last?
    General Hill. The operation that we are conducting right 
now by U.N. mandate is to accomplish three tasks: to stabilize 
the country for a follow-on force; to work with repatriation 
and migration; and to assist in humanitarian assistance to the 
country. In my view, we are accomplishing all of that with the 
force that we were given. The U.N. mandate says right now that 
there will be another vote within 30 days to establish the 
longer force. We are to be there for 3 months until the follow-
on force comes.
    I think that that is a doable issue. I met 2 weeks ago with 
the U.N. assessment team in Port au Prince and we all believe 
that that is a doable operation.
    Senator Bill Nelson. So in 3 months what you envision, do I 
understand, is a replacement of these existing U.S., French, 
Canadian, and Chilean troops by some other international team?
    General Hill. Yes, sir. The U.N. will pass--is supposed to 
pass another resolution, and I suspect that they will, for a 
follow-on force. Then the U.N. will organize that follow-on 
force around participating nations, and that force can be 
anywhere from 3,500 to 6,000. I think that that will be about 
the size of the force that they will generate.
    Senator Bill Nelson. Does this committee need to take note 
of any of the terrorist and narcotrafficking that is going on 
in Colombia that might be seeping into Venezuela?
    General Hill. The borders of all the countries that border 
Colombia are porous. The most porous of those borders is the 
Venezuelan border, and the Colombians have let it be known in 
strong terms, at the presidential level and at the military 
level, that the Venezuelans need to do more on their side of 
the border, and they need to.
    Senator Bill Nelson. Are we seeing any of the kidnapping 
that has been in Colombia start moving over into Venezuela?
    General Hill. Sir, there has always been not only FARC but 
ELN and AUC presence in the Venezuelan side of the border, and 
they go back and forth with essentially impunity into Colombia. 
Kidnapping does in fact take place on both sides of the border.
    Senator Bill Nelson. We have spent, as you stated in your 
testimony, billions of dollars down in Colombia. State again 
for the record whether or not you think that with our help that 
the Colombian government is winning the war against FARC?
    General Hill. I believe that the Colombian government has a 
strategic momentum against all the illegal armed groups, in 
particular the FARC. I believe that they have done it on the 
battlefield and they have also done it with the will of the 
people. They have--the phrase I use sometimes is they have 
turned the corner. How far around that corner they have gone, I 
am not sure. Can they be kicked back? Yes, if they do not 
sustain that momentum and, frankly, if we do not sustain our 
momentum.
    Senator Bill Nelson. In these upcoming elections in the 
Dominican Republic that we are worried about some questions of 
honesty in the elections, do you have a force structure that 
you can call on if chaos were to erupt there or, for example, 
in Venezuela; where the interests of Americans were suddenly 
threatened, that you would be able to get your hands on the 
assets to respond to that?
    General Hill. We very quickly put in a Marine Forward Area 
Support Team into the embassy in Haiti, in a matter of hours, 
to bolster the Marine Force defending the embassy in Haiti. We 
were able to put in Marines and then follow-on forces from the 
French and the Chileans within a matter of 24 hours into Haiti. 
There is no doubt in my mind that we can respond in my area if 
the United States administration wants to do that.
    Senator Bill Nelson. One thing that I was surprised, Mr. 
Chairman, to learn is that we have quite a number of U.S. 
troops in Honduras. Why do you not share with the committee the 
force that is there and what their mission is?
    General Hill. Sir, we have about 600 Americans at Soto 
Cano, Honduras. They have been there for many years and their 
mission is to maintain an operating base with the Honduran Air 
Force to facilitate humanitarian assistance down in the region 
and to provide assistance to law enforcement in the conduct of 
illegal--or in the conduct of drug busts.
    I am working on it with them and the militaries of the 
region, to develop at very little cost a regional training 
center so that the Central American militaries can come 
together in even more meaningful ways as a regional force, vice 
simply acting in their own stead.
    Senator Bill Nelson. Thank you, Mr. Chairman. I would like 
in a more secure environment also--every Floridian, indeed 
member of this government, ought to be concerned about events 
occurring in the Caribbean that would cause a mass migration as 
we have seen in the past from Cuba, also from Haiti. The plans 
that you have on the shelf coordinated with the Department of 
Homeland Security, I would like for us to discuss that.
    Thank you, Mr. Chairman.
    General Hill. Senator, I think you and I are scheduled to 
meet right after this, and I will be happy to go over both 
those points with you.
    Chairman Warner. I think that would be very helpful because 
at the moment I do not believe we will--we are going to start 
voting at 12:00 and there would be some difficulty trying to 
have an additional follow-on.
    Senator Pryor.
    Senator Pryor. Mr. Chairman, thank you.
    General Hill, I have a Bloomberg News report from about a 
week ago where it talks about us increasing our troops and 
contractor presence in Colombia. I had a couple questions about 
that, and these are follow-ups to the chairman's questions 
earlier when he was asking about those. With regard to the 
troops and the contractors there, the first question I have is 
what do the contractors do and how does that differentiate from 
what the troops do?
    General Hill. Sir, the contractor support in Colombia, 
working mostly for the embassy and the Department of State, fly 
the drug eradication planes. They do training with the 
Colombian military operating Plan Colombia helicopters and a 
variety of other tasks. But those are--the big numbers would be 
those numbers.
    Senator Pryor. Right. The reason I ask that is because we 
focus a lot of times just on the troops, but there is this 
other group of people that are impacted by this and obviously 
there are U.S. dollars, tax dollars, that follow that. So I 
just wanted to ask that question.
    Also, with regard to Plan Colombia, I believe Senator 
Sessions mentioned that a few minutes ago. Under the lessons 
learned category, are you satisfied with Plan Colombia or are 
there things that we can improve there, can do better in the 
future?
    General Hill. I think Plan Colombia has been a visionary 
endeavor between the United States, the United States Congress 
which funded it, and the Colombian military and people. Several 
things happened. There was the commitment of the Congress of 
the United States to the Colombians and the Colombians have 
responded. The helicopter support has allowed the Colombian 
military to make the tactical and operational moves that they 
could not have made without that helicopter support, and the 
operational advice and mentorship that we have provided them 
has allowed them to exponentially improve themselves as a 
military.
    I think Plan Colombia has been a significant investment and 
it is truly beginning to pay off.
    Senator Pryor. Are there ways to improve upon it?
    General Hill. To continue to sustain it, and we need to 
begin to think our way through in the next couple of years how 
do you nationalize the helicopters that we have been paying for 
under Plan Colombia to provide them to the Colombians in a way 
that they can sustain that effort. We are beginning to develop 
those plans and will be coming to the Congress later with that.
    Senator Pryor. Great. I look forward to working with you on 
that.
    Admiral Fargo, I have a question for you about missile 
defense. In your testimony, on page 15, you talked about ``Our 
forward-deployed naval forces, command and control elements, 
and interceptor assets will be ready to support missile defense 
initial defense operations on or before 1 October.'' We still 
need to increase the numbers of Patriot, Gem, and PAC-3 
missiles offshore to develop a sea-based terminal missile 
defense capability.
    I would like to ask you about the Patriot, Gem, and PAC-3. 
Does this mean that you think we need to increase those over 
and above what we are requesting right now, over and above the 
President's request?
    Admiral Fargo. I think there are a couple of aspects of 
this, Senator. One is that the Patriot PAC-3 is an effective 
system. We know it provides solid terminal defense. We need to 
look at our requirements throughout the region. We also need to 
look at the requirements of our friends and allies with respect 
to Patriot PAC-3, very specifically Taiwan.
    That does not diminish the requirement for the sea-based 
systems that you just mentioned. They are self-lifting, they 
have the ability to move into locations on short notice to 
provide defense. I think it is all part of the larger 
architecture that has to be in place to defend our homeland as 
well as our forces that are forward.
    Senator Pryor. One reason I ask that question is I notice 
that, in terms of authorization, we have authorized 144 PAC-3s 
and we are capable of building that many, we have the capacity 
to do that. But I believe that the current budget request is 
for only 108. So actually I plan on trying to get that 
increased up to the level that we had originally authorized, 
because from everything I hear they work wonderfully, they are 
very proven, they are very good at what they do.
    So I just wanted to hear your comments on that. I thought 
it was interesting, your testimony was very consistent with 
what my impression is.
    Mr. Chairman, that is all I have.
    Chairman Warner. Thank you, Senator Pryor.
    We will now proceed with another round of questions, 
bearing in mind that in probably 25 minutes or so the Senate 
will be voting and we will have to depart, of course.
    General LaPorte, I have always taken quite an interest in 
the situation in Korea, and I think you lay out on page 16 of 
your very well-prepared statement--indeed, I want to commend 
all the witnesses for the preparation and thoroughness of their 
statements. I would like to read it: ``Since its inception a 
quarter of a century ago, the Combined Forces Command has been 
the cornerstone of deterrence on the Korean Asia-Pacific 
peninsula--vigilant, well-trained, ready to fight tonight and 
win. Combined deterrence is achieved by an integrated team of 
approximately 680,000 active and 3 million plus Reserve 
personnel from the ROK and more than 37,500 U.S. military 
personnel forward deployed in Korea. The United States forces 
assigned to Korea add a state-of-the-art operational capability 
to the Korean peninsula.''
    Now, that is a very significant force structure, certainly 
numerically, that the South Koreans have. I would like to have 
you tell us a little bit about how the command and control of 
this entire force structure, including ours, is exercised and 
your own professional judgment as to the professionalism and 
the equipment of the South Korean military structure, as we are 
always concerned that something could happen, given the 
extraordinary uncertainties surrounding the government of North 
Korea and indeed the unpredictability.
    But basically, as I look at this, 680,000 active on the 
South Korean forces and 37,500 on ours, we are a relatively 
small part with regard to numerical statistics. I presume--how 
quickly can the 3 million reservists be called up and 
activated? It would be helpful if you expanded a little bit on 
that in response to my question, and then I would hope you 
would provide the committee, I ask you to provide the 
committee, an expanded dissertation on this force structure and 
the command and control.
    [The information referred to follows:]

    Senator Warner, your question regarding the command structure and 
capabilities of the ROK military forces and the command structure of 
the ROK-United States Combined Forces Command is relevant and timely as 
the United States transforms its forces and basing strategy.
    The ROK armed forces are trained and ready to deter and defend 
against external threats to the ROK. Under the current Armistice 
conditions, the Active-Duty Force structure of the ROK military is 
commanded by the ROK Joint Chiefs of Staff and consists of 550,000 
Army, 67,000 Navy and Marine Corps, and 63,000 Air Force. Three million 
forty thousand Reserve personnel, all of whom have completed 
approximately 2 years of compulsory active service, can augment these 
formidable, professional, and well-equipped ROK forces.
    ROK Army forces are organized into three field armies that defend 
specified geographic areas of the peninsula, and are augmented by 
functional commands performing support and special operations missions. 
ROK Army units are equipped with modern tanks, artillery, and infantry 
fighting vehicles tailored for defense on the Korean Peninsula. The ROK 
Army continues to pursue advanced precision strike, operational 
maneuver, intelligence, reconnaissance, and surveillance systems to 
enhance the effectiveness of its warfighting formations.
    The ROK Air Force has over 700 fighter, bomber, airlift, and 
reconnaissance aircraft--including a large number of older F4 and F5 
fighter aircraft, along with modern F-16s and a program to procure 40 
F-15K and long-range refueling aircraft. The ROK Air Force is procuring 
advanced precision munitions to enhance its close air support and 
interdiction capabilities. Additionally, the ROK Air Force commands 
peninsula air defense artillery composed of three brigades currently 
equipped with HAWK and NIKE missiles. The air defense command is 
seeking to enhance peninsula defense capabilities by fielding an 
advanced surface-to-air missile system.
    The ROK Navy is organized into three fleets and two flotillas 
performing coastal defense and amphibious operations. The ROK Navy has 
over 200 ships, comprised of a variety of submarines, destroyers, 
frigates, coastal patrol, mine warfare, amphibious operation and 
support ships, and rotary and fixed-wing aircraft to accomplish its 
missions. The ROK Navy is in the process of bringing advanced 
destroyers, submarines, amphibious landing craft, anti-submarine 
systems, and advanced missiles into service. These enhanced 
capabilities will transform the ROK Navy from a coastal fleet to a 
strategically mobile, regionally capable force.
    ROK Marine Corps consists of 25,000 well-trained and highly-
motivated personnel organized into two divisions and a separate 
brigade. The ROK Marines are equipped with amphibious landing vehicles, 
tanks, and artillery to support operational maneuver. The ROK Marine 
Corps, like the other services, is in the process of enhancing its 
capabilities with upgraded equipment.
    ROK Army Special Warfare Command is a highly trained, experienced 
special operations force. This command has participated in peacekeeping 
operations in East Timor. The ROK Army Special Warfare Command will 
provide many of the 3,000 additional troops pledged for deployment to 
Iraq later this year.
    Overall, the ROK military is well-organized and equipped to defend 
the peninsula against threats from North Korea. Ongoing ROK 
transformation efforts will only improve these capabilities in the 
future.
    United States forces based in Korea provide state-of-the-art 
command and control, intelligence, precision strike, air superiority, 
and dominant maneuver to augment ROK forces during Armistice and 
crisis. The 37,500 U.S. forces based in Korea, along with other forces 
that can rapidly reinforce the peninsula, ensure that the combined 
forces of ROK and United States based in Korea have the capabilities to 
deter and if necessary, rapidly overwhelm and defeat aggression. 
Transformation of U.S. forces based in Korea will significantly enhance 
our ability to accomplish these missions. Moreover, the presence of 
U.S. capabilities on the peninsula reassures allies and friends of our 
commitment to peace and stability in the region.
    During Armistice conditions, our normal day-to-day condition in 
Korea, command is exercised through national lines; that is United 
States forces are commanded through the United States Joint Chiefs of 
Staff, and ROK forces are commanded through the ROK Joint Chiefs of 
Staff. To formally establish command relations in the event of crisis 
on the peninsula, ROK-U.S. Combined Forces Command was established in 
1978. Because the Combined Forces Command is a binational command, the 
U.S. Secretary of Defense and the ROK Minister of Defense provide 
strategic guidance for training, readiness, and operations to the ROK-
U.S. Military Committee. The ROK-U.S. Military Committee, which 
includes the Chairman of the U.S. Joint Chiefs of Staff, the Chairman 
of the ROK Joint Chiefs of Staff, and the Commander of Combined Forces 
Command, implements these guidelines to ensure military readiness and 
deterrence. The Military Committee provides the Commander of the 
Combined Forces Command with overall command of ROK-U.S. forces during 
crisis and substantial armistice authorities to prepare ROK and U.S. 
forces to accomplish wartime missions; for example, assignment of roles 
and missions, operational planning, training exercises, and making 
recommendations for capabilities enhancements and modernization.
    The Combined Forces Command is a truly integrated headquarters, 
commanded by a U.S. four-star general with a ROK four-star general as 
deputy commander. The joint and combined staff of ROK and U.S. 
officers, from all the military services and branches, works and trains 
together every day of the year. This combined headquarters, and the 
close integration of the joint and combined units on the Korean 
peninsula, ensures that the forces remain trained and ready to 
accomplish the core purposes of deterring threats, defeating 
aggression, and strengthening regional security and stability.

    General LaPorte. It is certainly my pleasure to expand on 
that question. I think it is a very good news story. First of 
all, I get in my duties to travel around the peninsula and 
visit all the Army, Air Force, Navy, and Marine Forces, both 
ROK and U.S. I will tell you, Senator, you would be very proud.
    It is truly a combined force. At most of these headquarters 
you would see U.S. personnel sitting side-by-side with a ROK 
soldier, sailor, airman, or marine. We clearly do everything in 
a combined manner. My headquarters is combined.
    We have made tremendous advancements in our command and 
control, communications, and intelligence apparatus, and 
infrastructure, over the past 2 years. I am very confident in 
our ability, the ability to battle command that force. The ROK 
military, as I mentioned previously, is well-trained, well-
equipped, all their forces, and highly-motivated, and they have 
extremely competent military leaders who have trained, many of 
them, in U.S. service schools.
    I am very confident of this force. The Reserve Force can be 
mobilized within 4 days, and this is a process that takes place 
and it is practiced yearly as part of two major exercises.
    I have just returned to the United States from Korea, where 
we just conducted a 10-day exercise called Reception, Staging, 
Onward Movement, Integration. We rehearsed and trained on our 
ability to reinforce the peninsula. Again, this is a very, very 
professional effort on the behalf of both the ROK and the U.S. 
forces, tremendous combined operations: Air Force flights being 
led by ROK pilots with U.S. forces integrated; an amphibious 
operation conducted primarily by the ROK marines, supported by 
the U.S. Navy; Army and naval, the same type of operation.
    Chairman Warner. I guess I accept those personal 
observations, but 37,500 is a very significant number in 
relation to our total Armed Forces and, given that that is 
about 5 percent compared to the Active Force in just the army 
of the ROK, is it the equipment that we possess? That equipment 
is presumably, of course, state-of-the-art. But is comparable 
equipment found in the South Korean forces?
    General LaPorte. The South Korean forces have the 
predominance of the forces, as you mention. The United States 
complements that with tremendous strategic and operational 
capabilities that we can bring to bear both in a deterrent role 
and in a warfighting role.
    Chairman Warner. Is it your judgment that that 37,500 is 
the number of forces you need to, I presume the word is, 
augment the forces of South Korea, although I would presume you 
have a sort of----
    General LaPorte. It is really a complementary role that we 
have. Senator, my professional assessment is that we have the 
force structure, both ROK and U.S., to be able to accomplish 
our mission.
    Chairman Warner. We will take a closer look after you 
provide your paper to us as to that force level. Once again, is 
the military equipment of the South Korean forces comparable to 
ours in quality and state-of-the-art?
    General LaPorte. In most cases, yes, Senator. For instance, 
they are buying an Aegis cruiser. They have purchased the F-15 
aircraft. They fly F-16 aircraft and have very capable naval 
forces.
    Chairman Warner. All right, let us look at it further.
    Lastly, to each witness: In my opening statement I reported 
that you address the Secretary of Defense's global force 
posture review and how that would impact on your AOR. First, 
Admiral Fargo?
    Admiral Fargo. I think that, as I mentioned earlier, the 
global force posture review, its time has certainly come. It 
has been really 50 years since after World War II, we have 
reset the force properly. We have been working on this for 
almost a year in the Pacific, providing our recommendations to 
the Secretary of Defense, and we will have another session this 
week.
    I am very confident that we are going to meet all of those 
principles I outlined a few minutes ago in terms of 
strengthening our alliances and immediate employability and 
certainly dealing with the new and uncertain threat environment 
for the future. I think it is probably premature to talk about 
the specifics with respect to that global posture. It is a 
large and complex effort and one that working through with our 
allies, I think, is particularly important to its success.
    Chairman Warner. General Hill?
    General Hill. Senator Warner, I would echo all of Admiral 
Fargo's comments and then just add that, as you are aware, my 
forward presence is very modest. We have some 600 folks at Soto 
Cano and we operate four cooperative security locations, which 
used to be known as forward operating locations, at Manta, 
Ecuador; Comalapa, El Salvador; Aruba, and Curacao. Those are 
joint ventures with those respective countries where we share 
an airfield and do drug interdiction and monitor flights out 
of.
    Chairman Warner. Thank you.
    General LaPorte?
    General LaPorte. Sir, I agree with Admiral Fargo and 
General Hill. I think this is a good program to continue.
    Chairman Warner. Thank you.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    First, General Hill, according to a U.S. Army War College 
paper that was published in March 2003, some of the gains under 
the administration of President Uribe could be credited to 
former President Pastrana's efforts, including increasing the 
size of the army, retaining effective commanders, and certain 
operational successes.
    I visited Colombia when Pastrana was the President and I 
did have the feeling that he was really trying to move Colombia 
in the right direction. Would you agree with that assessment, 
by the way? If so, would you have hopes and expectations that 
Uribe's successor, I guess a couple years now down the road, 
would continue in this pattern?
    General Hill. Yes, sir, I think that that is a correct 
assessment. I think the Pastrana government was in fact 
modernizing and growing the Colombian military. If there is 
anything that--the Pastrana government gave us two things, I 
think. One, it gave us Plan Colombia and their ability to work 
with this Congress to develop Plan Colombia. That was 
visionary.
    The second thing it did was the whole idea of the dispeje 
(safe haven), where they gave the FARC a portion of Colombia 
about the size of Switzerland and said, let us all kind of 
negotiate through this, clearly proved that there is no 
negotiating with the FARC and it set--it clearly showed them to 
be the evil people that they are, and that helped the Colombian 
people understand the real threat against them.
    I also believe that when President Uribe leaves office in 2 
years that his successor will continue those, because I believe 
that the Colombian people want that to continue.
    Senator Levin. Thank you.
    General Hill, relative to Haiti, do you expect that U.S. 
forces will remain in Haiti after a U.N. peacekeeping force 
deploys, if it deploys?
    General Hill. Sir, I do not know what the U.S. role will be 
in the follow-on U.N. force. That will be a matter of 
negotiation over the coming months.
    Senator Levin. There is no decision made yet on that?
    General Hill. No, sir, there has not been.
    Senator Levin. Admiral Fargo, I think you may have made a 
brief reference to this, but let me ask you to expand a bit. 
Have the Chinese changed their military posture or operations 
in any way in response to the political situation in Taiwan and 
their distrust of the Taiwanese president?
    Admiral Fargo. No, sir, not that we have detected. They are 
doing the kinds of exercises we would expect them to be doing 
this time of the year.
    Senator Levin. Let me go back to you, General Hill. I want 
to ask you about the Panama Canal, as to whether or not the 
location of Hutchison Whampoa at either end of the Panama Canal 
has had a negative security impact?
    General Hill. It has not, sir.
    Senator Levin. Switching back to you, Admiral Fargo. Has 
the situation in Taiwan affected our military relations with 
China?
    Admiral Fargo. I would say, Senator, that the modest 
military-to-military relationship that we have with China is 
actually on a positive vector. I have visited once in my 
capacity as Commander of the U.S.PACOM and once as the 
U.S.PACFLT Commander. I hosted my counterpart, the Nanjing 
military region commander, this year in Hawaii. What I have 
noticed over these successive visits is the dialogue has 
improved in terms of candid conversations and developing some 
understanding of what our shared interests are, and also what 
our differences are.
    We had two port calls in China over the last 12 months. I 
think this modest military-to-military relationship is healthy. 
It does provide us an opportunity to show the People's Republic 
of China the quality of our capability and the quality of our 
relationships.
    Senator Levin. Finally, Admiral Fargo, you have made 
reference to Indonesia and the investigation in the aftermath 
of the Bali bombing and also other acts of terrorism in 
Indonesia. I want to just quote to you from that March 2 
Associated Press story. It says that, ``A senior U.S. official 
familiar with the investigation of the August 2002 killing of 
the two U.S. teachers and an Indonesian colleague asserts that 
there was Indonesian military involvement and that `it is only 
a question of how high up this went within the chain of 
command.' ''
    Now, that is a pretty serious statement. In your judgment, 
is it accurate, and, if so, have you raised this issue with the 
Indonesian military?
    Admiral Fargo. I have not seen an FBI report that says 
that, Senator. This is something we are tracking very closely 
and obviously I am looking at every piece of information and 
investigation that comes out. But I have not seen that.
    Certainly, as I mentioned earlier, I have had a number of 
conversations with General Sutarto about the importance of 
their full and complete cooperation with this investigation, 
and the most recent reports that I have received from our 
country team there is that cooperation has been good.
    Senator Levin. But as of this point, at least, it has not 
been brought to your attention any evidence that the Indonesian 
military was involved in those killings?
    Admiral Fargo. I have not seen any evidence to that 
respect. I read the same stories, but I have not seen a report 
that so indicates.
    Senator Levin. I assume that if and when such evidence is 
presented to you that you would take appropriate action and 
raise that issue very strongly with the Indonesian military?
    Admiral Fargo. I certainly raised both points with General 
Sutarto and he has told me that if these investigations come 
out and indicate that the Indonesian military was involved that 
he will take disciplinary action.
    Senator Levin. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator Bill Nelson.
    Senator Bill Nelson. No questions. I am going to do it 
privately, Mr. Chairman.
    Chairman Warner. Senator Pryor.
    Senator Pryor. I do not have any questions, Mr. Chairman. 
Thank you.
    Chairman Warner. I would like to do one or two wrap-up 
questions.
    General Hill, we recognize that the U.S.NORTHCOM has Cuba 
in its AOR. I will have to go back and check the record of our 
hearings at the time the U.S.NORTHCOM commander was here. At 
one time it was in your command, was it not?
    General Hill. It was in my AOR, correct, in my space.
    Chairman Warner. But I think the situation in Cuba has a 
direct impact on the situations in your AOR and I think it 
would be helpful for our record today to have your professional 
summary of what you view as taking place in Cuba today and how 
it impacts on the responsibilities that you have.
    General Hill. I will provide that for the record, Senator, 
if that is what you would like. But also, to just----
    Chairman Warner. I think I would like to have a clear 
statement for the record, but perhaps you can comment a little 
bit.
    [The information referred to follows:]

    [Deleted.]

    General Hill. Yes, sir. The fact that it is not in my area, 
I still have operational issues with Cuba.
    Chairman Warner. That is correct.
    General Hill. I still run Guantanamo, for example, and if 
there were operational needs in Cuba, I would do that. We have 
had very solid relations with the Cubans around Guantanamo, 
especially as we have brought in the detainees, and we watch 
what happens there very carefully.
    Short of that, I need to provide you for the record, sir.
    Chairman Warner. All right.
    Admiral Fargo, India and Pakistan. I think it would be 
important that our record reflect today some expansion of your 
views on that, the tensions along the line of control, and its 
current status. Would you provide that now orally and then 
provide such additional comments as you wish to have for the 
record?
    Admiral Fargo. Mr. Chairman, we are very encouraged by the 
current dialogue that is ongoing between India and Pakistan. 
Certainly these are two very important countries. India of 
course, being the largest democracy, will be a natural partner 
with the United States. The dialogue that is occurring in our 
assessment is reducing tensions along those borders and we 
would hope would proceed toward some resolution of the issues 
in Kashmir. But right now I would tell you it is encouraging.
    [The information referred to follows:]

    Recent dialogue between India and Pakistan and the resulting 
relaxation in tensions are very positive signs. As a result of the 
President's vision to transform relations with India and forge strong 
ties with Pakistan, the United States now enjoys excellent and 
productive relations with New Delhi and Islamabad at the same time. 
Both countries are important strategic partners--we work each 
relationship on its own merits and our mutual security needs.
    We strongly support the ongoing dialogue between India and 
Pakistan. We welcome the steps they have taken to rapprochement, such 
as the cease-fire along the Line of Control and the reopening of some 
transportation links.
    Both governments have put forward a comprehensive dialogue agenda 
on a measured timetable. The new Indian Government has asked for a 
short delay in progression of talks in order to prepare for the 
upcoming meetings. By all accounts Prime Minister Manmohan Singh's 
government will continue the Indo-Pak peace process. Expert level talks 
on nuclear confidence building measures will be held 19-20 June while 
the Foreign Secretaries will sit down at the end of June. Additional 
dialog between India and Pakistan will occur throughout the summer, 
which is a positive sign that the subcontinent is focused on peace 
rather than conflict.

    Chairman Warner. I have had the opportunity to visit 
Pakistan twice, the first time recently with my distinguished 
colleague and this last time with Senator Stevens and Senator 
Hollings. We had a very thorough opportunity to visit with the 
president and other leaders in that country.
    The recent U.S. announcement that Pakistan would be 
declared a ``major non-NATO ally,'' did that in any way 
destabilize this relationship?
    Admiral Fargo. No, sir, I do not think so.
    Chairman Warner. I think they are deserving of it. That 
country is pivotal in our war on terrorism and they have been a 
strong ally.
    Senator Levin, do you want to take a question or two?
    Senator Levin. I am all set. I am all questioned out. That 
is off the record, by the way. [Laughter.]
    Chairman Warner. I think we should have a quick mention by 
General LaPorte of the ROK's contribution to the coalition of 
forces serving in Iraq. Could you describe that for the record, 
please?
    General LaPorte. Yes, sir. Since 2002 the ROK has 
steadfastly supported the global war on terrorism. They are 
providing forces to Iraq and Afghanistan. Their navy and air 
force have supported the logistics efforts. They have medical 
personnel serving now in Iraq and they are deploying 3,000 
troops. That will make them the third largest nation 
contributing forces, and they will deploy here shortly.
    General Hill. Senator Warner, could I add something for the 
record in that same vein?
    Chairman Warner. Yes, of course.
    General Hill. That is to recognize the contributions of El 
Salvador, the Dominican Republic, Nicaragua, and Honduras to 
the OIF also.
    Chairman Warner. That is important.
    Admiral Fargo, are there nations in your AOR involved?
    Admiral Fargo. The nations in our AOR have made a wide 
range of contributions. When you look from north to south, of 
course the Japanese are making historic deployments. As General 
LaPorte mentioned, Korea, Thailand, the Philippines, Mongolia, 
Nepal, and even Fiji and Tonga have offered up troops. 
Singapore has been very supportive. The Indians of course 
provided the first Strait of Malacca patrol after September 11. 
So the support has been superb.
    I need to mention Australia, too, of course, and New 
Zealand. I hope I have not forgotten somebody, but I am moving 
north to south here.
    Chairman Warner. I think it is important to share credit 
for the coalition of forces that are working towards freedom 
for the Iraqi people.
    General LaPorte, as we close, I must say that I am very 
encouraged by your assessment of the South Korean military 
forces. My modest knowledge on that is over a half century old, 
but I remember you are still loading a U.N. force, which I 
think is interesting. I think we should remind people of that. 
The United Nations, that is the umbrella under which you 
operate, am I not correct?
    General LaPorte. That is correct, sir.
    Chairman Warner. I remember in the conflict, 1951-1952, the 
front lines were drawn up such that nations were sort of in 
parallel in their positions, and there was an old axiom among 
the marines: When a ROK division was on your flank you could 
sleep tonight; they were good soldiers.
    Thank you very much. The hearing is adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
                         transnational threats
    1. Senator McCain. Admiral Fargo, from your statement, you 
identified that transnational threats of terrorism, narcotics 
trafficking, and proliferation as a primary concern to you in PACOM. 
They are also a challenge to all of us in the global war on terrorism. 
What initiatives, multinational approaches, or arrangements are you 
suggesting that we support to handle this very serious concern in the 
Pacific and can they be extended elsewhere?
    Admiral Fargo. Thank you, Senator, for the opportunity to address 
this extremely important issue. I am often asked whether I am a 
``multilateralist'' or ``bilateralist.'' My answer, of course, is 
``both,'' because while some activities, such as Operation Enduring 
Freedom-Philippines which is building counterterrorist capacity, are 
more easily conducted in a bilateral format, most transnational threats 
demand multinational solutions. Clearly, the evolving character of 
transnational threats demands creativity in response. So let me provide 
some examples that illustrate the cooperative and interagency flavor of 
PACOM's approaches to transnational threats.
    Multilateral approaches include our Regional Maritime Security 
Initiative (RMSI) to promote cooperation against transnational maritime 
threats.
    Secure waterways are vital to peace and prosperity of the Asia-
Pacific region. The oceans provide trade, communication, travel, and 
access to precious energy resources on which the growing economies of 
Asia depend. The narrow straits of Southeast Asia, through which one-
third of the world's shipping and half of its oil pass each year, are 
of strategic importance to us all. So clearly the seas, and the 
resources that flow through them, must be both shared and protected.
    Transnational threats not only challenge maritime security itself, 
but also abuse the maritime environment for illicit purposes. Unsecured 
or ungoverned seas are potential havens for criminal or terrorist 
activity, providing relatively cheap and inconspicuous movement. The 
thousands of miles of coastline many of us enjoy are sometimes 
uninhabited and often difficult to regulate.
    A RMSI would provide a plan of action to address these concerns. 
The goal of RMSI is to develop a partnership of willing regional 
nations with varying capabilities and capacities to identify, monitor, 
and intercept transnational maritime threats under existing 
international and domestic laws.
    This collective effort will empower each participating nation with 
the timely information and capabilities it needs to act against 
maritime threats in its own territorial seas. As always, each nation 
will have to decide for itself what response, if any, it will take in 
its own waters.
    Information sharing will also contribute to the security of 
international seas, creating an environment hostile to terrorism and 
other criminal activities. Any RMSI activity in international waters 
will, again, be in accordance with existing international law.
    We believe there are five primary elements of maritime security. 
Operationally, this initiative has to start by leveraging technology to 
build and share a clear picture of the maritime environment to match 
that which we have of international airspace today. So we need to 
enhance situational awareness of the maritime environment, establish 
protocols, processes, and standards to fuse that information, and then 
share it between like-minded governments.
    Then, participating nations will need responsive information 
sharing and decisionmaking arrangements and appropriate maritime 
interdiction capabilities to carry out those decisions. In most 
instances, these will take the form of law enforcement or customs 
vessels, but military forces may be needed for more organized threats, 
especially on the high seas.
    The fourth element for RMSI is the ability to provide security in 
challenging littoral regions. Most nations need a coast guard before 
they need what I would call a ``blue water'' navy. Once established, 
integration of coast guard operations with naval forces is essential to 
eliminate seams at sea, just as that same coast guard must have 
established protocols and procedures to integrate its efforts with 
harbor security agencies ashore. Of course, port security measures like 
the Container Security Initiative are key elements in the continuum of 
protection.
    Finally, 21st century maritime security is much more than the 
application of military capability. In fact, RMSI will often be a law 
enforcement effort. So clearly, maritime threats that span oceans, 
threaten straits, and prey on international trade will demand 
cooperation among a wide array of agencies and ministries to 
synchronize all elements of our regional capability.
    The RMSI is still in its infancy. We are discussing the RMSI 
concept with friends and allies in the region, both to clarify the 
concept and to explore existing technologies and best practices 
relevant to maritime security. My sense is there is already much good 
work ongoing throughout the region that we can leverage. Although RMSI 
is a Pacific Command initiative, its elements, and the underlying 
concerns that precipitated this initiative, certainly are applicable 
worldwide.
    I should also mention our premier multilateral exercise in the 
Pacific, Cobra Gold, an annual event hosted by Thailand. This exercise 
is specifically designed to promote capabilities and cooperation to 
deal with military operations other than war and transnational threats 
like terrorism and illicit narcotics.
    We also have crafted creative U.S. interagency approaches to 
transnational threats. Let me provide just two examples.
    Our Joint Interagency Coordination Group for Counterterrorism 
(JIACG/CT) is the PACOM staff entity responsible for coordinating DOD 
and other government agency CT activities within the U.S.PACOM area of 
responsibility. Last year, the JIACG combined intelligence, operations, 
and training goals with interagency representation to produce our first 
theater CT Campaign Plan. This plan, aligned with Department of State 
goals embedded in embassy Mission Performance Plans, focuses on both 
near-term and long-term war on terrorism efforts. These efforts include 
CT resource creation, terrorist identification and destruction, and the 
long-term effort to strengthen democratic institutions of governance. 
As the lead staff element in U.S.PACOM's fight against transnational 
threats, the mission of JIACG-CT is being broadened to include 
coordination of our counterdrug and counterproliferation efforts. Other 
regional combatant commands also employ JIACGs for a variety of 
missions.
    The Joint Interagency Task Force-West (JIATF-W) has long been 
U.S.PACOM's premier operational counterdrug entity. Formerly based in 
California, JIATF-W is relocating to Hawaii to better confront the 
narcotic threat in the western Pacific. Its experience, assets, and 
interagency relationships will also be relevant against related 
transnational threats like narcoterrorism, piracy, human trafficking, 
and especially weapons proliferation. JIATF-W's interagency approach 
facilitates contributions of law enforcement, host nations, and Special 
Operations Forces.

           promoting reform and counterterrorism in indonesia
    2. Senator McCain. Admiral Fargo, Indonesia is the world's most 
populous Muslim nation and third largest democracy. I believe that 
enhancing stability and democratic reforms in this country are critical 
to peace in the region. Indonesia is proving to be an active supporter 
in the global war on terror assisting in the arrest and prosecution of 
34 Jemaah Islamiyah terrorists who committed the Bali bombing in 
October 2002. From your statement you stated that Australia is 
supporting a joint antiterrorism center in Indonesia. What efforts can 
we pursue to advance counterterrorism efforts and promote Tentara 
Nasional Indonesia (TNI) professional reform in this critical country?
    Admiral Fargo. The TNI is one of the most coherent Indonesian 
government institutions and will play a central role in shaping the 
future of the democracy. It is also an organization tainted by past 
human rights abuses, a lack of accountability, and corruption--
conditions that led to restrictions on our military-to-military 
relationship and must be resolved.
    The TNI appears committed to reform, and there is evidence of 
positive change in the military. I have discussed these reform efforts 
with TNI Chief of Defense, General Sutarto, and rate it as one of the 
highest priorities for PACOM security cooperation with Indonesia. I 
believe that the most effective means of aiding reform efforts and 
increasing the professionalism of TNI is by providing in-depth and 
prolonged exposure to our own military through education, training, and 
exercises.
    To that end, and working with our embassy country team in Jakarta, 
we have developed a plan of activities that meets all legal 
constraints. We will leverage E-IMET, Regional Defense Counterterrorism 
Fellowships, and other authorized multilateral venues to expose 
Indonesian officials, including appropriate TNI officers, to non-lethal 
U.S. professional military standards.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard
              indonesian connection to murdered americans
    3. Senator Allard. Admiral Fargo, during your oral testimony, you 
indicated that you had no knowledge of information or intelligence 
suggesting that the Indonesian military could be tied to the murder of 
two Americans on August 31, 2001 in Papua, Indonesia. Yet press reports 
and other administration officials have indicated otherwise. Is there 
intelligence that suggests the Indonesian military was responsible for 
the murder of these two Americans on August 31, 2001?
    Admiral Fargo. Investigation and accountability for the Freeport-
McMoran Mine slayings is the primary issue shaping our relationship 
with Indonesia today. I have discussed this incident with the TNI Chief 
of Defense, General Sutarto, and emphasized the importance of full 
accountability. He assured me that if this investigation shows that 
there are members of the TNI that took part in this attack that he is 
going to hold them completely accountable, and there will be the kind 
of discipline that we would expect would be proper in this particular 
situation.
    I have also pressed for open cooperation with FBI investigators, 
including interrogation without the presence of TNI minders and 
forensic investigation in the continental United States. I have 
received several recent reports of enhanced cooperation and I believe 
the investigation is on track. I have not seen a final FBI report and, 
as the investigation is still ongoing, it would be inappropriate for me 
to speculate as to the outcome.

    4. Senator Allard. Admiral Fargo, some have suspected that the 
attack was ordered by military commanders in Jakarta, Indonesia. Do you 
believe the Indonesian military command authority was involved in the 
planning and execution of the attack?
    Admiral Fargo. Investigation and accountability for the Freeport-
McMoran Mine slayings is the primary issue shaping our relationship 
with Indonesia today. I have made this point clear to TNI leadership, 
and have pressed for open cooperation with FBI investigators, including 
interrogation without the presence of TNI minders and forensic 
investigation in the continental United States.
    I have received several recent reports of enhanced cooperation and 
I believe the investigation is on track. As the investigation is still 
ongoing, it would be inappropriate for me to speculate as to the 
outcome.

    5. Senator Allard. Admiral Fargo, last year you stated that 
withholding IMET funding would not result in the satisfactory 
conclusion of this investigation. Why do you believe this?
    Admiral Fargo. On the contrary, withholding IMET funding only 
serves to further reduce U.S. influence in Indonesia and will likely 
lead to less satisfactory outcomes.
    In numerous discussions with Indonesian military and government 
officials, I have clearly identified accountability for the Freeport-
McMoran Mine slayings as the primary issue shaping our relationship 
with Indonesia.
    I have also been thoroughly briefed by General Sutarto, the 
Indonesian Chief of Defense, on TNI reform efforts that eliminate their 
involvement in politics and emphasize civilian control of the military 
under the rule of law.
    I believe that we can best serve as role models and positively 
influence Indonesia's future through cooperation rather than isolation. 
IMET is one very useful influence tool for this purpose.

    6. Senator Allard. Admiral Fargo, I offered legislation last year 
that prohibited IMET funding for Indonesia until the Secretary of State 
certifies that Indonesia is proceeding with its investigation into the 
August 31, 2001 attack. I believe the United States cannot be seen as 
providing military assistance to a foreign military that might be 
responsible for murdering Americans. Until the Indonesian military is 
exonerated, wouldn't you agree that the United States cannot be seen as 
aiding a foreign military that might be responsible for murdering 
innocent Americans?
    Admiral Fargo. Thank you, Senator, for the opportunity to comment 
on this extremely important matter.
    I believe it is important to note from the outset that U.S.PACOM 
conducts military-to-military activities in full consideration of and 
adherence to DOD and Department of State regulatory procedures as well 
as in accordance with the Leahy Amendment emphasizing civilian 
authority over the military and respect for the rule of law.
    As the world's third largest democracy and largest Muslim nation, 
Indonesia's success is crucial to peace and stability in Southeast Asia 
and to our efforts in the war on terrorism. It is a critical crossroad 
in Southeast Asia and sits squarely in the sights of the region's 
primary transnational terror group, the JI. To allow this strategically 
important nation, one that is currently attempting to cement its 
nascent democracy, to remain both unknown to us and unaided could carry 
unfortunate consequences.
    The Indonesian government is moderate, secular and still developing 
as a free market democracy. I want to assure you that we share the same 
goals regarding the Indonesian military (TNI) and that I have discussed 
with General Sutarto our desire to see genuine reform of the TNI, 
accountability for human rights abuses, and full cooperation with the 
Timika investigation. We believe it is important to provide
Indonesian military a role model and take an active part in their 
reform. By operating in accordance with existing guidelines for our 
activities with Indonesia, we maintain insight into their military's 
progress with their own reform program as well as position ourselves 
for future cooperation as Indonesian reform goals are achieved.

    [Whereupon, at 11:52 a.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2005

                              ----------                              


                         THURSDAY, MAY 13, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                    CONTINGENT RESERVE FUND REQUEST

    The committee met, pursuant to notice, at 9:42 a.m., in 
room SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Allard, Sessions, Collins, Ensign, Talent, Chambliss, Dole, 
Levin, Kennedy, Byrd, Lieberman, Reed, Akaka, Bill Nelson, E. 
Benjamin Nelson, Dayton, Clinton, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Ambrose R. Hock, professional staff 
member; Gregory T. Kiley, professional staff member; Thomas L. 
MacKenzie, professional staff member; Lucian L. Neimeyer, 
professional staff member; Paula J. Philbin, professional staff 
member; Lynn F. Rusten, professional staff member; Scott W. 
Stucky, general counsel; and Diana G. Tabler, professional 
staff member.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Richard W. Fieldhouse, professional 
staff member; Creighton Greene, professional staff member; 
Jeremy L. Hekhuis, professional staff member; Bridget W. 
Higgins, research assistant; Maren R. Leed, professional staff 
member; Gerald J. Leeling, minority counsel; Peter K. Levine, 
minority counsel; Michael J. McCord, professional staff member; 
and William G.P. Monahan, minority counsel.
    Staff assistants present: Michael N. Berger, Sara R. 
Mareno, and Pendred K. Wilson.
    Committee members' assistants present: Cord Sterling, 
assistant to Senator Warner; Christopher J. Paul and Marshall 
A. Salter, assistants to Senator McCain; John A. Bonsell, 
assistant to Senator Inhofe; Jayson Roehl, assistant to Senator 
Allard; D. Armand DeKeyser, assistant to Senator Sessions; 
Derek J. Maurer, assistant to Senator Collins; D'Arcy Grisier, 
assistant to Senator Ensign; Lindsey R. Neas, assistant to 
Senator Talent; Clyde A. Taylor IV, assistant to Senator 
Chambliss; Christine O. Hill, assistant to Senator Dole; 
Russell J. Thomasson, assistant to Senator Cornyn; Sharon L. 
Waxman, Mieke Y. Eoyang, and Jarret A. Wright, assistants to 
Senator Kennedy; Christina Evans, Terrence E. Sauvain, and Erik 
Raven, assistants to Senator Byrd; Frederick M. Downey, 
assistant to Senator Lieberman; Elizabeth King, assistant to 
Senator Reed; Davelyn Noelani Kalipi and Richard Kessler, 
assistants to Senator Akaka; William K. Sutey and Pete 
Mitchell, assistants to Senator Bill Nelson; Eric Pierce, 
assistant to Senator Ben Nelson; William Todd Houchins, 
assistant to Senator Dayton; Todd Rosenblum and Rashid 
Hallaway, assistants to Senator Bayh; Andrew Shapiro, assistant 
to Senator Clinton; and Terri Glaze, assistant to Senator 
Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee meets this morning to 
receive testimony from Deputy Secretary of Defense, Paul 
Wolfowitz; Vice Chairman of Joint Chiefs of Staff, General 
Peter Pace, United States Marine Corps; and Deputy Director of 
the Office of Management and Budget (OMB), Joel Kaplan, on 
President Bush's request for a fiscal year 2005 contingent 
reserve fund for ongoing military operations in Iraq and 
Afghanistan. We look forward to your testimony.
    On May 5, 2004, President Bush announced his intention to 
request a $25 billion contingent reserve fund for fiscal year 
2005 for United States military operations in Iraq and 
Afghanistan. The President stated that, ``while we do not know 
the precise cost for operations next year, recent developments 
on the ground and increased demands on our troops indicate the 
need to plan for contingencies to make sure that there is no 
disruption in funding and resources for our troops.''
    This is a prudent course of action which I personally 
support. Congress received the President's formal request for 
this additional funding just yesterday. It's important to note 
that even with this reserve fund, the administration will still 
request a full fiscal year 2005 supplemental after the first of 
next year, 2005, when it can better estimate the costs of the 
ongoing war on terrorism.
    When the President made his announcements last week, the 
committee was in the process of marking up the fiscal year 2005 
National Defense Authorization bill. At the request of Senator 
Byrd, the committee deferred action on this request for 
additional funding until we could hold a hearing to receive 
more information on this request. I'm pleased that we're able 
to conduct this hearing prior to the floor action on the 
defense bill and I would say the ranking member was very active 
in putting this hearing together, and it was one that you also 
wanted very much.
    When the administration presented its budget request for 
fiscal year 2005 in February, the request did not include 
funding for costs associated with the ongoing global war on 
terrorism. This is in keeping with longstanding tradition of 
funding ongoing military operations through supplemental 
appropriations. At that time, the administration stated that it 
expected to request a supplemental to cover the costs after the 
start of calendar year 2005.
    Prior to the passage of a supplemental, the administration 
planned to cover the costs of the war with funds from other 
military accounts, a process commonly called cash flowing. 
Administration officials assured the committee in February and 
March that cash flowing ongoing military operations presented 
acceptable and manageable risk.
    However, circumstances have changed. Increased demands on 
our troops, particularly in Iraq, have led to concerns that 
additional funding may be needed prior to the start of calendar 
year 2005. Thus, the need for contingency funding. The proposed 
contingent reserve fund would act as a bridge between the 
fiscal year 2005 budget request and the fiscal year 2005 
supplemental expected in February 2005.
    If the President determines that additional resources are 
needed for ongoing military operations, he would first report 
to Congress and then be able to use funds in the contingent 
reserve up to $25 billion. The Senate is scheduled to begin 
consideration of the 2005 authorization bill this coming 
Monday, May 17. This hearing is designed to inform the Senate 
of the specifics of the proposed contingent reserve fund prior 
to floor action. We will then be in a better position to decide 
how and whether to authorize the additional funding for 2005 as 
part of our bill.
    I look forward to hearing from our witnesses the reasons 
for this request for a contingent reserve fund, and how the 
fund will be used to provide the additional resources our 
troops need to consider military operations in Iraq and 
Afghanistan.
    I'm also interested in administration recommendations on 
how the fund should be structured, including any suggested 
mechanism to govern the dispersal of these funds and necessary 
reporting requirements to ensure accountability for the use of 
these funds. I concur with the President that our first 
commitment must be to America's security and that our troops 
``have the resources they need when they need them.'' We stand 
by to assist.
    There were a number of colleagues on my side of the aisle, 
including Senator Sessions whom I spoke with this morning, and 
others, such as Senator Allard, who is on the Budget Committee, 
who spoke of the need for this hearing.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    The committee meets this morning to receive testimony from Deputy 
Secretary of Defense Paul Wolfowitz, Vice Chairman of the Joint Chiefs 
of Staff General Peter Pace, USMC, and Deputy Director of the Office of 
Management and Budget (OMB), Joel Kaplan, on President Bush's request 
for a fiscal year 2005 contingent reserve fund for ongoing military 
operations in Iraq and Afghanistan. We look forward to your testimony.
    On May 5, 2004, President Bush announced his intention to request a 
$25 billion contingent reserve fund for fiscal year 2005 for United 
States military operations in Iraq and Afghanistan. The President 
stated that, ``While we do not know the precise costs for operations 
next year, recent developments on the ground and increased demands on 
our troops indicate the need to plan for contingencies. We must make 
sure there is no disruption in funding and resources for our troops.'' 
This is a prudent course of action, which I support. Congress received 
the President's formal request for this additional funding yesterday.
    It is important to note that, even with this reserve fund, the 
administration will still request a full fiscal year 2005 supplemental 
after the first of the year, when it can better estimate the costs of 
the ongoing war on terror.
    When the President made his announcement last week, the committee 
was in the process of marking up the National Defense Authorization 
Bill for Fiscal Year 2005. At the request of Senator Byrd, the 
committee deferred action on this request for additional funding until 
we could hold a hearing to receive more information on this request. I 
am pleased that we are able to conduct this hearing prior to floor 
action on the defense authorization bill.
    When the administration presented its budget request for fiscal 
year 2005 in February, the request did not include funding for costs 
associated with the ongoing global war on terrorism. This is in keeping 
with longstanding tradition of funding ongoing military operations 
through supplemental appropriations. At that time, the administration 
stated that it expected to request a supplemental to cover these costs, 
after the start of calendar year 2005. Prior to the passage of a 
supplemental, the administration planned to cover the cost of the war 
with funds from other military accounts--a process commonly called 
``cash flowing.'' Administration officials assured this committee in 
February and March that ``cash flowing'' ongoing military operations 
presented acceptable and manageable risk.
    However, circumstances have changed. Increased demands on our 
troops, particularly in Iraq, have led to concerns that additional 
funding may be needed prior to the start of calendar year 2005, thus 
the need for contingent funding. As proposed, the contingent reserve 
fund would act as a ``bridge'' between the fiscal year 2005 budget 
request and the fiscal year 2005 supplemental expected in February 
2005. If the President determines that additional resources are needed 
for ongoing military operations, he would first report to Congress and 
then be able to use funds in the contingent reserve, up to $25 billion.
    The Senate is scheduled to begin consideration of the National 
Defense Authorization Bill for Fiscal Year 2005 on Monday, May 17. This 
hearing is designed to inform the Senate on the specifics of the 
proposed contingent reserve fund prior to floor action on the bill. We 
will then be in a better position to decide whether to authorize this 
additional funding for fiscal year 2005, as part of our bill. 
    I look forward to our witnesses outlining the reasons for the 
request for a contingent reserve fund, and how the fund will be used to 
provide the additional resources our troops may need to continue 
military operations in Iraq and Afghanistan. I am also interested in 
the administration's recommendations on how the fund should be 
structured, including any suggested mechanisms to govern the 
disbursement of these funds, and necessary reporting requirements to 
ensure accountability for the use of these funds.
    I agree with the President that our first commitment must be to 
America's security and that our troops ``have the resources they need, 
when they need them.'' We stand ready to assist in this goal.

    Chairman Warner. Senator Levin, do you have a few comments?

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman. Today we're meeting 
to hear testimony on the administration's request for $25 
billion to fund the cost of ongoing operations in Iraq and 
Afghanistan over the first few months of fiscal year 2005. U.S. 
Armed Forces are currently spending over $5 billion per month 
for operations in Iraq and Afghanistan, and the homeland 
defense activities known as Operation Noble Eagle (ONE).
    A supplemental for fiscal year 2004 was enacted in early 
November, 5 weeks into the fiscal year, so that the Services 
would not have to absorb these tremendous incremental costs out 
of their regular budgets.
    In his State of the Union address in January, President 
Bush told us, ``in 2 weeks I will send you a budget that funds 
the war.'' But the fiscal year 2005 budget that the President 
sent to Congress contained no funding to fund the substantial 
costs of these ongoing operations.
    On February 24, I wrote to the Senate Budget Committee on 
the need to provide this type of funding to cover the expenses 
for these ongoing operations during the first few months of 
fiscal year 2005. I wrote the Budget Committee as follows: ``We 
should not wait until sometime during fiscal year 2005 to 
submit a supplemental budget request, as the administration did 
last year. Circumstances are different this year. Last year the 
war had not begun. Now having U.S. troops on the ground is a 
fact and recognizing this reality and paying for it is the 
responsible thing to do.''
    While it is certainly true I wrote that no one can predict 
with precision what these fiscal year 2005 costs will be, we 
could certainly provide funds to cover likely requirements for 
some period of the year, and I suggested in that letter 
increasing the budget authority and the national defense 
function by $30 billion in fiscal year 2005 to cover up to 6 
months of the incremental costs for the current pace of 
operations.
    The Senate Budget Committee agreed with that proposal and 
Section 312 of the Senate Budget Resolution provides for up to 
$30 billion to fund activities in Iraq and Afghanistan if the 
President makes a request for such funding. This language was 
contained in the resolution adopted by the Senate on March 11.
    On April 15, the Department of Defense (DOD) announced it 
was extending the tours of 20,000 servicemembers in Iraq, 
effectively increasing the size of our forces there and 
guaranteeing that the so-called burn rate, which already 
exceeds $5 billion a month for these operations, will climb 
still higher. Yet, when Deputy Secretary Wolfowitz appeared 
before this committee to discuss Iraq and Afghanistan a week 
after that announcement, there was still no acknowledgment of 
the need to adopt a supplemental budget.
    Last September, Section 8139 of the 2004 Defense 
Appropriations bill stated that the cost of ongoing operations 
in Iraq and Afghanistan should be included in the budget 
request, and last October, the chairman of the House Budget 
Committee told the DOD comptroller that these costs should be 
included in the 2005 budget request. Yet for months, DOD 
witnesses have asserted that no supplemental was needed until 
sometime next year.
    Since September 11, 2001, Congress has provided this 
administration with considerable sums of money and considerable 
flexibility in using that money. That flexibility has led to 
problems. In April 2003, the conferees on the fiscal year 2003 
supplemental for Iraq and Afghanistan stated the following: 
``Approximately $750 million appropriated to operation and 
maintenance (O&M) accounts has been obligated for construction 
activities supporting the global war on terrorism and 
operations in Iraq.'' Funds for these projects have been 
expended without providing notice to Congress, despite repeated 
requests for information by both House and Senate 
Appropriations Committees and House and Senate Armed Services 
Committees, and as required by law.
    Given the recent statements by Senator Byrd and other 
Members of Congress that the DOD failed to keep Congress 
properly informed about how emergency funds have been spent, we 
need to find a way to act quickly to support our troops while 
still holding the executive branch accountable for how these 
funds will be used.
    We have to do better as we move forward. Congress has 
recognized that our Federal budget should not sweep these costs 
under the rug until after November and pretend that because we 
can't predict the exact cost of these operations, that we 
should not estimate the costs and budget for them now.
    On May 5, the President issued a statement finally 
acknowledging the problem, requesting that Congress, 
``establish a $25 billion contingent emergency reserve fund to 
support operations in Iraq and Afghanistan.'' When the 
President announced his intention to submit this budget 
amendment, I had already prepared an amendment for last week's 
mark-up to authorize the $30 billion in additional funding that 
the Senate Budget Resolution has provided. The amendment that I 
circulated at that time contained budget detail.
    On learning of the President's statement, Senator Byrd very 
appropriately asked that our committee withhold action on 
providing these funds for 2005 until we could hold a hearing on 
how the administration intends to use such funds. The Defense 
Authorization bill, as our chairman has mentioned, is scheduled 
to go to the floor next week, and it's essential that we 
address this issue. We cannot pretend that our bill addresses 
the most pressing needs of our men and women in uniform if we 
do not address a major readiness issue facing our forces. Our 
bill does not yet fund the cost of these ongoing operations. We 
should act to do so in order not to damage the readiness of our 
forces by forcing them to borrow against their entire year's 
budget just to get through the first 4 or 5 months of the year.
    But to budget responsibly, we need information from the DOD 
and OMB, and we need to have control over these funds and the 
detail which is proposed and necessary so that we can budget in 
a reasonable and responsible way, and that is what today's 
hearing is intended to be.
    Over a week now has elapsed now since the President 
announced his decision, and yet there was no formal request 
made until last night. The administration has acted too 
unilaterally in many ways in the Iraq war. They failed to 
budget for the costs of the war. Now they want, apparently, as 
I read these letters, what amounts to a blank check for the 
supplemental costs.
    Congress should write a check. In fact, we've been pressing 
to write a check, but not a blank check. We need to support our 
men and women in uniform who are performing very difficult and 
challenging tasks under dangerous circumstances, but we should 
do so in a way which provides the accountability that the 
taxpayers expect and deserve.
    Finally, Mr. Chairman, while this hearing is focused on 
funding these operations for fiscal year 2005, many of us are 
concerned that the Army in particular does not have sufficient 
funds to make it through the rest of fiscal year 2004, 
especially in light of the DOD's decision to increase our 
planned troop levels in Iraq by about 20,000 personnel. I hope 
our witnesses are prepared to tell us whether or not we have 
the resources necessary to sustain our forces for the rest of 
this fiscal year. Thank you.
    Chairman Warner. Thank you, Senator Levin. Colleagues, I'd 
like to turn to an administrative announcement and request to 
the committee. Indeed, the President and the Secretary of 
Defense and Deputy Secretary have been in consultation with the 
committee about the promotion of General David H. Petraeus from 
the rank of Major General to be Lieutenant General. The 
President has asked him to return to Iraq where he once 
commanded the 101st Airborne to take on the really challenging 
and vital task of working with strengthening the security 
forces.
    In consultation with my colleague, Mr. Levin, we feel that 
we'll take his nomination out of order, and if confirmed by the 
committee here today, we'll send it to the floor for full 
confirmation. So a quorum being present, I ask the committee to 
consider the nomination of Major General David H. Petraeus to 
be Lieutenant General and Chief, Office of Security Transition-
Iraq.
    Senator Levin. So moved.
    Senator Clinton. Second.
    Chairman Warner. The nomination before the committee the 
required length of time, so moved, seconded. All in favor say 
aye. [A chorus of ayes.]
    Opposed? [No response.]
    The ayes have it. The nomination is confirmed.
    Colleagues, also, it's the desire of the chair to move 
through this morning the important testimony with regard to the 
budget. Should Senators have questions other than what's 
specifically before the committee this morning, I would ask 
that you defer them and the chair, working with the ranking 
member, will see that hopefully an opportunity is made to have 
our witnesses reply.
    I know, having worked here daily with Secretary Wolfowitz 
and indeed General Pace, that both of you have been 
concentrating on the ongoing business of the building, and as 
such, there are some details about the prison that has been 
handled by the Secretary himself and the chairman, but 
nevertheless, we'll see what occurs by way of desired and 
future questions.
    Senator Kennedy. Mr. Chairman, I must express some 
reservation about that. We've had limited amount of time to try 
and deal with something which is of enormous importance. The 
Secretary was directly informed by the Red Cross about some of 
these allegations and abuses that took place in the prison and 
I have intention of questioning him.
    Chairman Warner. We'll try and make that arrangement.
    Senator Kennedy. I'm glad to conform with the chair, but 
I'd like to be able to reserve my 6 minutes for matters which I 
think are enormously important.
    Chairman Warner. The Senator is heard. I would like to, 
however, continue with the budget hearing and we'll make that 
possible towards the end. Thank you very much.
    Secretary Wolfowitz.

   STATEMENT OF HON. PAUL D. WOLFOWITZ, DEPUTY SECRETARY OF 
                            DEFENSE

    Secretary Wolfowitz. Thank you, Mr. Chairman, and members 
of the committee, and I'd like to actually begin by thanking 
you for that speedy action on the nomination of General 
Petraeus. It is a very important appointment to a critical 
post, because as you pointed out, he is going to be pulling 
together all the different pieces involved in training, 
equipping, and organizing Iraqi security forces, which is one 
of the key elements for our strategy for success in Iraq. I 
can't imagine a better qualified individual to take on that 
assignment and I appreciate the speed with which the committee 
has addressed that nomination.
    Chairman Warner. Many members of the committee met him in 
the course of their individual visits to the country of Iraq.
    Secretary Wolfowitz. In fact, Senator, I think one can even 
see in some of the success that's been achieved, in spite of 
the difficulty of recent weeks in Mosul and in the area that 
General Petraeus was in charge of that he has fundamental 
understanding of what it takes to succeed.
    Mr. Chairman and members of the committee, I appreciate the 
opportunity to testify today in support of President Bush's 
request for a $25 billion reserve fund and to receive your 
input on the structure of that reserve.
    Chairman Warner. If I might interrupt you, we'll put into 
the record the statements by each of you in their entirety, and 
we also note the presence at the witness table of Mr. 
Lanzillotta. We welcome you back, a former, very valued staff 
member of our committee, and you're here as they say, as back 
up, is that correct? Thank you. Thank you, Mr. Secretary.
    Secretary Wolfowitz. He's performing efficiently, as you no 
doubt are aware.
    The reserve fund we are requesting will provide an 
insurance plan so that the DOD has adequate resources for both 
its core defense activities and its operations in Iraq and 
Afghanistan. It is critical so that we can avoid any disruption 
in funding for our military forces.
    The DOD's plan had been to cash flow fiscal year 2005 
operations in Iraq and Afghanistan until a supplemental budget 
request could be prepared with more precision in the first 
quarter of calendar year 2005. However, our higher projected 
troop levels increase the risk that certain accounts, 
especially operation and maintenance (O&M) Army, could have 
difficult cash flowing operations beyond the February and March 
time frame in 2005. This reserve fund will eliminate that risk 
and provide a margin of safety.
    The reserve fund would be used primarily for O&M 
requirements, but a portion is expected to be used for force 
protection needs as well. Requirements are likely to include 
fuel for helicopters, tanks, and other vehicles; transportation 
costs for movement of personnel and equipment in and out of the 
theater of operations; equipment maintenance and logistics 
supplies; force protection needs, such as body armor and up-
armor and high-mobility multipurpose wheeled vehicles (HMMWVs); 
and very importantly, continued momentum to achieve a more 
modular Army and a larger brigade structure in the Army.
    The administration still anticipates submitting a 
supplemental appropriation request to Congress in early 2005 to 
fund the incremental costs for contingent operations in fiscal 
year 2005. But as of today, it continues to be impossible to 
know what our total supplemental funding needs will be for the 
next fiscal year, particularly after the election in 
Afghanistan and after sovereignty is transferred in Iraq. 
Depending on the circumstances, we could face the need for 
either more troops or fewer troops, for more intensive 
operations or less intensive operations.
    Mr. Chairman, support of this request will ensure that our 
wonderful men and women in uniform have the tools that they 
need to continue winning the fight in Iraq, a victory that will 
also make our country more secure. America's commitment to 
success in Iraq was underscored again this past Monday when the 
President visited the Pentagon. As the President said on that 
occasion, the United States has a vital national interest in 
the success of free institutions in Iraq as the alternative to 
tyranny and terrorist violence in the Middle East.
    As we carry out this mission, we are confronting problems 
squarely and we are making changes as needed. Despite recent 
violence, and at a time when so much attention is being focused 
properly on the abuses of detainees in Iraq, we need to 
continue to move forward on all fronts, implementing the 
coalition's strategy to set conditions that will ensure a free 
Iraq that is stable and at peace with its neighbors.
    Our strategy involves three interdependent lines of 
operation to build indigenous Iraqi capacity and to transition 
responsibilities from the Coalition to Iraq rapidly but not 
hastily. While there are lessons to be learned from the violent 
events of the past few weeks, which will affect the way we 
pursue these lines of operation, we think these are still the 
three key elements that will bring us success in Iraq.
    The first line of operation involves building capable Iraqi 
security forces to achieve stability. That is the effort that 
Lieutenant, now Major General Petraeus, will undertake. We have 
redoubled our efforts to recruit, train, equip, and most 
importantly, mentor Iraqi security forces, all five branches, 
the police, the Iraqi Civil Defense Corps, the army, the Border 
Police, and the Facilities Protection Service. Over the next 
few months, our aim is to certify the ability of these forces 
that they are ready to assume greater responsibilities from 
coalition forces.
    Similarly, through technical assistance and mentoring by 
U.S. prosecutors and judges of their Iraqi counterparts, we 
have been helping to build a capacity of the Iraqi criminal 
justice sector.
    The second line of operation involves nurturing Iraq's 
capacity for representative self-government with the aim of 
creating a government that the Iraqi people will feel is 
theirs, and that moves us out of the position of being an 
occupying power.
    While many think that June 30 will be a magical date on 
which the Coalition Provisional Authority (CPA) will suddenly 
transition out of all of its responsibilities to a new Iraqi 
Government, it is actually just one step in the process. 
Already, free Iraqis have been gradually assuming 
responsibility for governmental functions for quite some time. 
Many Iraqi ministries report to the Governing Council rather 
than to the CPA.
    Iraq now has a functioning judiciary. At the local and 
provincial levels, elected assemblies are up and running. When 
the interim government assumes office on June 30, its most 
important task will be to prepare the way for elections to 
establish a transitional government in January 2005, another 
step in the process. That government in turn will be replaced 
by elections for a fully constitutional government at the end 
of 2005.
    The third line of operation involves the reconstruction of 
Iraq's infrastructure and the restoration of essential services 
to provide better lives for Iraqis and put people back to work. 
Iraq has tremendous potential. It has well-educated and 
industrious people. It has fertile land, water resources, and 
abundant natural resources. Our strategy aims to put Iraq on 
course to realizing that potential and setting conditions for 
Iraqis to reap greater prosperity in the future.
    This strategy remains a valid guide to working through new 
realities and uncertainty about events after Iraqis begin 
governing themselves. We have encountered intense armed 
resistance in recent weeks, but that does not invalidate these 
three basic elements of the strategy. In fact, what the enemy 
fears most is that Iraqis will be in charge of their own 
country, and then the enemy will face what that key terrorist, 
Abu Musab al-Zarqawi, called suffocation.
    The surviving hard core elements of Saddam's regime have 
everything to lose from eradication of the old order and the 
prospect of being held to account for their crimes. They and 
the terrorists and foreign fighters with whom they make common 
cause, are tough and ruthless killers, but they have no 
positive vision to offer Iraq, only fear and death and 
destruction. They are trying to destabilize the country before 
it has a chance to stand on its own feet. While we cannot 
inspire fear the way that they do, and we would not want to, we 
offer a hopeful vision of a new Iraq that the great majority of 
Iraqis look forward to. The transition to Iraqi sovereignty and 
elected constitutional government will eventually make the 
enemy's position untenable.
    Let me say a word to thank the committee for its support of 
our request for authority for the commander's emergency 
response program. As I think most of you know, this has been a 
remarkably successful way of helping the people of Iraq and 
Afghanistan and gaining their support for our operations there.
    I'd also like to thank you for providing train and equip 
authority to help us enhance the ability of Iraqi and Afghan 
military and security forces to combat terrorism and to support 
U.S. and coalition military operations, and I appreciate the 
expansion of that authority as we requested to all Iraqi and 
Afghan security forces.
    As I think you know, in the past our military commanders 
have been hampered by the lack of flexible funding for 
indigenous security forces, especially in Iraq. As you move 
toward conference, I ask that you let us discuss with you the 
possibility of building on this important step to adopt the 
fuller authority the President requested, and in particular, to 
raise the ceiling above $150 million.
    In closing, I would also like to thank the wonderful men 
and women who wear the uniform of the United States of America, 
and particularly the nearly 140,000 in Iraq and more than 
15,000 in Afghanistan who serve on the front lines of the 
global war on terrorism. Words cannot adequately express how 
proud and grateful we are for their service.
    I also thank this committee for the strong support given to 
U.S. security and to our military people in your National 
Defense Authorization Bill for Fiscal Year 2005. The 
President's staff and the DOD are still reviewing the details 
and we will provide you our views shortly. We look forward to 
working with you in achieving the best possible support for 
America's Armed Forces and our vital missions around the globe. 
Thank you, Mr. Chairman.
    [The prepared statement of Secretary Wolfowitz follows:]
               Prepared Statement by Hon. Paul Wolfowitz
    Mr. Chairman and members of the committee, I am happy to be here 
today to testify in support of President Bush's request for a $25 
billion reserve fund and to receive your input on the structure of this 
reserve.
                the president's $25 billion reserve fund
    The reserve fund we are requesting will provide an insurance plan 
so the Department of Defense (DOD) has adequate resources for both its 
core defense activities and its operations in Iraq and Afghanistan. It 
is critical to avoid any disruption in funding for our military forces.
    The DOD's plan had been to cash flow fiscal year 2005 operations in 
Iraq and Afghanistan until a supplemental budget request could be 
prepared by early 2005. Now, however, our higher projected troop levels 
increase the risk that certain accounts--especially Operation and 
Maintenance, Army (OMA) would have difficulty cash flowing operations 
beyond the February-March timeframe in 2005. This reserve fund will 
eliminate that risk and provide a margin of safety.
    The reserve fund would be used primarily for operation and 
maintenance (O&M) requirements, but a portion is expected to be used 
for force protection needs. Requirements are likely to include:

        <bullet> Fuel for helicopters, tanks, and other vehicles.
        <bullet> Transportation costs for movement of personnel and 
        equipment in and out of the theater of operations.
        <bullet> Equipment maintenance (such as lubricants, repair 
        parts) and logistics supplies.
        <bullet> Force protection needs such as individual body armor 
        and up-armored HMMWVs.
        <bullet> Continued momentum to achieve a more modular Army.

    The administration still anticipates submitting a supplemental 
appropriation request to Congress in early 2005 to fund incremental 
costs for contingent operations. It continues to be impossible to know 
what our total supplemental funding needs will be for fiscal year 
2005--particularly after the election in Afghanistan and after 
sovereignty is transferred in Iraq. Depending on the circumstances, we 
could face the need for either more or fewer troops--and more or less 
intensive operations.
          the coalition's strategy to achieve victory in iraq
    Support of this request will ensure that our wonderful men and 
women in uniform have the tools that they need to continue winning the 
fight in Iraq, a victory that will also make our country more secure. 
America's commitment to success in Iraq was underscored again this past 
Monday during the President's visit to the Pentagon with his strong 
statement of support. As the President said, ``The United States has a 
vital national interest in the success of free institutions in Iraq as 
the alternative to tyranny and terrorist violence in the Middle East. 
As we carry out this mission, we are confronting problems squarely, and 
we are making changes as needed.''
    Despite recent violence and at a time when so much attention is 
being focused properly on the abuses of detainees in Iraq, we need to 
continue to move forward on all fronts implementing the coalition's 
strategy to set conditions that will ensure a free Iraq that is stable 
and at peace with its neighbors. Our strategy involves three 
interdependent lines of operations to build indigenous Iraq capacity 
and transition responsibilities from the coalition to Iraq rapidly, but 
not hastily. While the lessons to be learned from the violent events of 
the past few weeks affect the way we pursue these three lines of 
operation, these are still the three key elements that will bring 
success in Iraq.
    The first element involves building capable Iraqi security forces 
to achieve stability. Accordingly, we have redoubled our efforts to 
recruit, train, equip and, most importantly, mentor Iraqi security 
forces--Police, Iraqi Civil Defense Corps, Army, Border Police, and the 
Facilities Protection Service. Over the next few months our aim is to 
certify the ability of these forces, that they are ready to assume 
greater responsibilities from coalition forces. Similarly, through 
technical assistance and mentoring by U.S. prosecutors and judges of 
their Iraqi counterparts, we have been helping to build the capacity of 
the Iraqi criminal justice sector.
    The second element involves nurturing Iraq's capacity for 
representative, self-government with the aim of creating a government 
that the Iraqi people will feel is theirs and that moves us out of the 
position of being an occupying power. While many think that June 30 
will be a magical date on which Coalition Provisional Authority (CPA) 
will suddenly transition all of its responsibilities to a new Iraq 
government, it is actually just one step in a process. Already, free 
Iraqis have been gradually assuming responsibility for governmental 
functions for quite some time. Many Iraqi ministries report to the 
Governing Council rather than the CPA. Iraq now has a functioning 
judiciary to provide equal justice for all. At the local and provincial 
levels, elected assemblies are up and running. When the Interim 
Government assumes office on June 30, its most important task will be 
to prepare the way for elections to establish the Transitional 
Government in January 2005. That government in turn will be replaced by 
elections for a fully constitutional government at the end of 2005.
    The third element involves the reconstruction of Iraq's 
infrastructure and the restoration of essential services that are 
providing better lives for Iraqis and putting people back to work. Iraq 
has tremendous potential. Iraq has well-educated and industrious 
people. It has fertile land and water resources, and it has abundant 
natural resources. Our strategy aims to put Iraq on course to realizing 
that potential and to setting conditions for Iraqis to reap greater 
prosperity in the future.
    This strategy remains a valid guide to working through new 
realities and uncertainty about events after the Iraqis begin governing 
themselves. We have encountered intense armed resistance in recent 
weeks, but that does not invalidate our strategy. In fact, what the 
enemy fears most is that Iraqis will be in charge of their own country, 
and they will face what the key terrorist, Zarqawi, calls 
``suffocation.''
    The surviving hard-core elements of Saddam's regime have everything 
to lose from eradication of the old order and the prospect of being 
held to account for their crimes. They and the terrorists and foreign 
fighters with whom they make common cause are tough and ruthless 
killers, but they have no positive vision to offer Iraq--only fear and 
death and destruction. They are trying to destabilize the country 
before it has a chance to stand on its own feet. While we cannot 
inspire fear the way they do--and would not want to--we offer a hopeful 
vision of a new Iraq that the great majority of Iraqis look forward to. 
The transition to Iraqi sovereignty and elected constitutional 
government will eventually make the enemy's position untenable.
                       more flexible authorities
    Regarding the special authorities that President Bush requested, I 
thank the committee for its support of the Commander's Emergency 
Response Program (CERP). This has been a remarkably successful way of 
helping the people of Iraq and Afghanistan and gaining their support 
for our operations there.
    I also thank you for providing ``train and equip'' authority to 
help us enhance the ability of Iraqi and Afghan military and security 
forces to combat terrorism and support U.S. and coalition military 
operations. In the past our military commanders have been hampered by 
the lack of a flexibility funding authority that included security 
forces, especially in Iraq. As you move toward conference, I ask that 
you let us discuss with you the need to build on this important step by 
adopting the fuller authority that the President requested.
                                closing
    In closing, I want to thank all the wonderful men and women who 
wear the uniform of the United States of America, and particularly the 
nearly 140,000 in Iraq and more than 15,000 in Afghanistan serving on 
the front lines of the global war on terrorism. Words cannot adequately 
express how proud and how grateful we are for your service.
    I also thank this committee for the strong support given to U.S. 
security and our military people in your National Defense Authorization 
Bill for Fiscal Year 2005. The President's staff and the DOD are still 
reviewing the details and will provide you our views shortly. We look 
forward to assisting you in achieving the best possible support for 
America's Armed Forces and our vital missions around the globe. Thank 
you.

    Chairman Warner. Thank you, Mr. Secretary.
    Director Kaplan.

  STATEMENT OF HON. JOEL D. KAPLAN, OFFICE OF MANAGEMENT AND 
                             BUDGET

    Mr. Kaplan. Thank you, Mr. Chairman and members of the 
committee, for inviting me to appear before you today to 
discuss the President's request. I do have a full text I'll 
submit for the record, but in the interest of time and because 
Secretary Wolfowitz covered much of what I have to say, I'll 
highlight the key factors that shaped our thinking in working 
with the DOD in putting together the President's request.
    First, we were guided by the President's clear and 
consistent direction, making sure the commanders and the men 
and women in the field have the resources they need to 
accomplish the mission.
    Second, the funding is requested as a contingent emergency 
reserve, with funds activated only after the President submits 
a request designating all or parts of the funding as an 
emergency and essential to operations in Iraq or Afghanistan.
    Third, relatedly, the reserve is intended for operations in 
Iraq and Afghanistan only.
    Finally, I'd just like to note, as Deputy Secretary 
Wolfowitz has, that we continue to plan to come to Congress 
with a full supplemental request for 2005 early next year when 
we can have more precise and reliable estimates of what 
operational needs are likely to be in Iraq and Afghanistan in 
2005.
    Thank you again, Mr. Chairman. I look forward to answering 
the committee's questions.
    [The prepared statement of Mr. Kaplan follows:]
                  Prepared Statement by Joel D. Kaplan
    Thank you, Mr. Chairman and members of the committee, for inviting 
me to appear before you today to discuss the President's request for a 
$25 billion contingent emergency reserve fund for operations in Iraq 
and Afghanistan, which the President formally submitted to Congress 
yesterday.
    In his remarks at the Pentagon on Monday, the President reiterated 
this Nation's commitment to the brave men and women of our Armed Forces 
who are engaged in Iraq, Afghanistan, and elsewhere around the world in 
the war on terror. The President has never wavered in his commitment to 
provide those men and women in the field the resources they need to 
accomplish their missions. Consequently, his direction to us has been 
clear and consistent: make sure the commanders have the resources they 
need to accomplish the mission and protect our men and women in 
uniform.
    It is with those men and women in mind that the President last week 
decided to propose this contingent emergency reserve, to provide the 
commanders and the troops in the field the confidence that the 
resources they need will be there when they need them. This reserve, if 
enacted by Congress, will guarantee we have the ability to respond to 
rapidly changing conditions in the region, while affording the 
necessary time and experience after the transition in Iraq and the 
elections in Afghanistan to ensure that a supplemental request made of 
Congress in early 2005 more accurately reflects real needs.
    There are several core principles that guided the administration's 
request for this reserve. First, it should be made available as a 
contingent reserve activated only after the President submits a request 
designating the funds as an emergency and essential to operations in 
Iraq or Afghanistan. While the levels requested in the 2005 base 
defense request may well be sufficient to meet all operational needs 
until Congress acts on a fiscal year 2005 supplemental early next year, 
the President, based on the advice and recommendations of the Secretary 
of Defense, believed it was prudent to have an insurance policy in 
place.
    Based on our work with the Department of Defense (DOD) and the 
Services, it is clear that they will need to--and can without 
disruption--pull forward funds planned for the second half of the year 
to use in the first and second quarter for operational needs if the 
tempo continues at the current high pace. In the current environment, a 
need to ``cashflow'' from the last two quarters in 2005 has the 
potential to raise concern about the reliability of resources later in 
the year. We wanted to provide commanders, as well as the troops 
serving in the field, with the confidence that nothing will stand in 
the way of the President's pledge to provide them with the resources 
they need to accomplish their mission. A reserve guarantees they will 
have what they need when they need it.
    Second, the reserve should provide adequate flexibility to allow us 
to respond to a fluid operational environment and emerging 
requirements. The DOD and we believe that at the current pace the 
pressure points in planning and executing are likely to develop in the 
Operation and Maintenance (O&M) accounts, and particularly Army and 
Marine Corps O&M. This understanding is reflected in the allocations we 
have requested in the language we sent to Congress yesterday. We also 
are seeking to assure that these resources are matched with transfer 
authority to promptly address changing requirements, including emerging 
procurement requirements related to force protection.
    Third, the reserve should address requirements in Afghanistan and 
Iraq only. We believe the base 2005 request provides ample resources to 
meet requirements unrelated to the critical operational missions in 
Iraq and Afghanistan.
    Fourth, we want to assure that enactment of the contingent 
emergency reserve does not come at the expense of the President's 2005 
base request for the DOD of $401.7 billion. Early in his 
administration, the President determined that predictability in funding 
was critical to fulfilling the DOD's transformation agenda. That 
predictability is even more important now as the Services are asked to 
fully engage in the war against terror abroad even as it fundamentally 
transforms it organization, infrastructure, force, and doctrine. While 
some may argue to shift requirements identified in the 2005 base 
request into the proposed reserve, such a shift risks creating 
uncertainty and disruption in the DOD's planning and execution of key 
national security missions.
    Finally, I'd just like to note that this administration has 
tremendous respect for Congress' Constitutional role, and its 
responsibility, in authorizing and appropriating resources for our 
armed services. It is in deference to this role that we want to make 
sure that the next supplemental request you consider is accurate and 
precise as to the military's needs. Some have recommended that we 
simply extrapolate from today's costs, multiplying those costs over 
some fixed period as the basis for a request. We have found that such 
estimates often mean funds are mismatched with accounts and the 
requirements that actually develop. The combination of a reserve that 
can be activated as needed with a future supplemental built on actual 
2005 conditions assures we will spend what is necessary to support our 
troops and their vital mission.
    Thank you again for the privilege of appearing before this 
committee with my distinguished colleagues. I will be happy to take 
your questions.

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Warner. General Pace. Thank you.

STATEMENT OF GEN. PETER PACE, USMC, VICE CHAIRMAN OF THE JOINT 
                        CHIEFS OF STAFF

    General Pace. Mr. Chairman and members of the committee, 
thank you very much. I want to get to your questions as quickly 
as possible. I'd be remiss though if I didn't say thank you on 
several levels. First, to this committee, and indeed to all of 
Congress for your very strong bipartisan support of your 
military. We're on a very difficult mission. You are making 
sure, you have made sure, and you continue to make sure, that 
we have the assets available to get the job done and we thank 
you very much for that.
    Second, to the magnificent young men and women who are in 
fact carrying forth the missions in Iraq and Afghanistan and 
around the world. They are making us proud. To their families, 
whose sacrifices are equal to that of the soldiers in combat. 
Lastly, to the employers of our tremendous members of the Guard 
and Reserve. They have shown incredible flexibility and 
support, and we know that this is a sacrifice for them as well 
and we'd like to publicly thank them for that. Sir, thank you.
    Chairman Warner. I've carefully looked through all the 
documents that have come up requesting that the committee take 
up this issue. I'd like to put this in some historical context, 
so I will start with you, Director Kaplan. This particular type 
of financial arrangement, I'm not talking about the substance 
at the moment for what the funds are needed, it seems to me 
clear documentation, but the mechanism by which this particular 
vehicle was chosen and titled. What is the historical 
precedent, if any, for this type of financing?
    Mr. Kaplan. Thank you, Mr. Chairman. Certainly the first 
element of the character is the account structure which we've 
identified. We've tried to put this into the Iraqi Freedom Fund 
(IFF), which was a creation of Congress in the April 2003 
supplemental.
    Chairman Warner. Yes, I'm familiar with that.
    Mr. Kaplan. Within that account structure, we've tried to 
identify those areas where we think there will be the greatest 
pressure points or are likely to be the greatest pressure 
points as we enter the beginning of the next calendar year. As 
Secretary Wolfowitz mentioned, we had intended to cash flow. We 
want to make sure that in particular the Army O&M accounts, the 
commanders, and the Service, knows that it has the confidence 
that as we get into calendar year 2005, those resources will be 
there.
    So, again, the account that we've identified is the IFF.
    Chairman Warner. It's an existing fund and ongoing 
expenditures are being made out of it. Is that correct?
    Mr. Kaplan. I believe that's correct. Ongoing expenditures 
are still being made out of it, yes, sir.
    Chairman Warner. To what extent was the normal supplemental 
route considered?
    Mr. Kaplan. Mr. Chairman, as many administration witnesses 
and officials have noted, we did consider a supplemental when 
we submitted the President's budget in February 2005. We 
concluded that the best way to proceed would be to come forward 
with a full-year supplemental later in the year rather than in 
the beginning of fiscal year 2005 when we could identify, with 
some reliability and precision, what those needs would be.
    As I said in my testimony, that is still our intention. As 
Secretary Rumsfeld and Secretary Wolfowitz talked to their 
commanders and their Service Chiefs, they concluded that we 
needed to provide some additional assurance that as we 
progressed in the beginning part of the fiscal year 2005 and 
particularly early calendar year 2005, they would have those 
resources. It is still our intention to cash flow, and we 
believe, and the Services believe, as I understand it, that 
that can be done without disruption to ongoing operations. It's 
still our intention to do that. It's just that we want to make 
sure, as we get into the early months of calendar year 2005, 
the Services have the confidence that the money will be there. 
If there is a delay in getting a supplemental in early 2005, 
either because of the congressional calendar or----
    Chairman Warner. Does this procedure give the executive 
branch any advantages of more flexibility over the use of the 
funds in comparison to the normal supplemental, and most 
specifically the funds in the 2003 supplemental? Did you 
designate it?
    Mr. Kaplan. I believe it gives similar flexibility that 
existed in the IFF component of the 2003 supplemental. I think 
that flexibility is important and it does go to why we've 
requested it in this fashion. That again is that we don't know 
right now what the needs are going to be as we proceed later 
into the year. We want to make sure that commanders, the 
Secretary, and the President have the flexibility, after 
notification to Congress, to direct those resources to the 
needs.
    Chairman Warner. So there's flexibility over and above what 
was agreed upon between the executive branch and legislative 
branch with regard to the 2003 supplemental.
    Mr. Kaplan. I think--and maybe Larry can correct me if I'm 
wrong--it's similar flexibility.
    Chairman Warner. Similar's a nice word, but I want to know 
how it varies.
    Mr. Kaplan. I think, Mr. Chairman, that within the IFF 
language----
    Chairman Warner. You think. Does anybody know? Excuse me, I 
don't mean to be embarrassing. Mr. Secretary, would you like to 
deal with this for a few minutes?
    Mr. Lanzillotta. Mr. Chairman, the flexibilities in this 
reserve account as submitted to Congress are the same 
flexibilities and transfer authority that we already have.
    Chairman Warner. Over and above previous procedures?
    Mr. Lanzillotta. The general transfer authority would be 
over and above previous procedures. It allows us as an 
insurance fund to reduce the risk to our ongoing program. 
Normally, to go back to your original point, historically the 
DOD submits a supplemental in late winter, early spring, and it 
is a normal procedure for the Services to cash flow those 
expenses to that time period.
    Chairman Warner. We understand that.
    Mr. Lanzillotta. This fund though will allow us to reduce 
the risks to the program, especially Army O&M, who has an 
exceptionally high burn rate at this point----
    Chairman Warner. We understand that.
    Mr. Lanzillotta.--to restore to the commanders the 
stability and funding that they need to continue their program 
so it'll have no negative effects on readiness.
    Chairman Warner. According to the General Accounting Office 
(GAO), the incremental costs of the global war on terrorism are 
about $5 billion a month. Such a monthly expenditure rate could 
translate into a requirement for $60 billion for the cost of 
the war for all of fiscal year 2005. Do you agree with those 
cost estimates?
    Mr. Lanzillotta. Currently, Mr. Chairman, our operational 
costs in Iraq, a marginal cost right now, is running about $4 
billion. Some months it's $4.1, some months it's $3.9, but it's 
about $4 billion, and Afghanistan has been running between $600 
million to $800 million, but is seeing a downward trend. 
Generally it's about $4.6 billion. This isn't the supplemental. 
This is only an insurance fund and the supplemental will be a 
larger number in the spring.
    Chairman Warner. Why $25 billion? If you used that formula, 
you should have a higher amount for this.
    Mr. Lanzillotta. What this reserve fund will allow the DOD 
to do, when we look at the burn rate, particularly for the 
Army, who is carrying the burden for this burn rate right now 
in the operations, is allow us to ensure that the Army accounts 
have sufficient funding to when we think it is a probable 
outcome to get a supplemental submitted and approved in 
Congress. This would allow the Army to reduce their risk into 
the March/April time frame when a supplemental is likely to be 
approved.
    Mr. Kaplan. If I could just make it clear, it is not 
intended to be the amount that we need for the first 6 months. 
It is intended to allow us to cash flow during that period 
without disrupting key programs.
    Chairman Warner. That's clear.
    Mr. Kaplan. That's the point.
    Chairman Warner. But we want to ensure that Congress has 
its traditional oversight responsibilities to monitor the 
expenditures, and I think we have to focus in very closely on 
how this particular--and I think it's a first of a kind. Would 
that not be correct?
    Mr. Kaplan. As far as I'm aware.
    Mr. Lanzillotta. It's unusual.
    Chairman Warner. Unusual's a different word, but it's a 
first of a kind, and we want to make certain that it is in 
conformity with the traditional practices to the extent we can 
so that we can maintain our oversight.
    Now, my time is up so I cannot pursue other questions.
    Mr. Kaplan. Could I just say one thing to be clear?
    Chairman Warner. Yes.
    Mr. Kaplan. There will be a request for a full year's 
supplemental early next calendar year. It will likely be much 
larger than $25 billion.
    Chairman Warner. There's no question of that, but this is a 
very significant sum of taxpayers' money over which Congress 
must exercise its appropriate oversight.
    Mr. Kaplan. Absolutely.
    Chairman Warner. Senator Levin.
    Senator Levin. According to the letter to the President, 
this contingent emergency reserve fund would be accessed should 
there be a need for additional resources. As a matter of fact, 
your testimony makes it very clear that there will be a need 
for additional resources, isn't that not clear? General Pace, 
is there any doubt in your mind we're going to need additional 
resources?
    General Pace. There is no doubt in my mind, sir.
    Senator Levin. So when the letter reads, ``should there be 
a need,'' you're already fudging. This is your letter, I think, 
Director Kaplan. Or this is Director Bolton's letter.
    Mr. Kaplan. Yes, Senator. The letter states--should there 
be a need to provide additional resources prior to enactment of 
a fiscal year 2005 supplemental that can't reasonably be 
covered by cash flow. We know and we've consistently said there 
will be a supplemental.
    Senator Levin. That's not what the letter says. The letter 
says, ``the emergency reserve fund would be accessed should 
there be a need for additional resources.'' In any event, it's 
clear in everyone's mind we're going to need additional 
resources. We're presently spending about $4.6 billion more 
than we have appropriated for Iraq and Afghanistan. The 
question is, why not consider a supplemental at this time? This 
is not a very great range, by the way. This is not some highly 
speculative expenditure. This is a very obvious expenditure 
that we know we're going to need of about $4.6 billion a month, 
that's pretty precise. Why don't we consider a supplemental for 
that and be honest about it?
    Mr. Kaplan. Senator, the problem is, we really don't know 
what the number is. It easily could be higher, it might be 
lower.
    Senator Levin. If it's higher, fine, we'll have another 
supplemental. If it's lower, fine, don't spend it. But you say 
it's $4.6 billion, I mean, you actually added up the exact 
amount for Iraq, the exact amount for Afghanistan, and it came 
to somewhere around $4.5 or $4.6 billion. That's plenty precise 
for us to consider a supplemental. There's no reason not to be 
direct on this issue and to acknowledge what the costs are of 
this war, and to simply call this a speculative or a possible 
or a contingent emergency reserve fund it seems to me just 
continues to fudge the reality, which is that this war is 
costing us about $4.6 billion a month more than the President 
requested in his budget. I think we ought to have an honest 
presentation of a supplemental request rather than presenting 
it this way. That's number one.
    Number two, in terms of the flexibility, the way this is 
written, it says you divide it among six categories here. Then 
you say that, in addition to the transfers authorized in the 
previous proviso, which are already plentiful, after 
consultation, DOD may transfer funds provided here into any 
appropriation or fund of the DOD. So under this letter, this 
request, the Secretary of Defense, after consultation, 
basically inside the administration, can transfer that money 
from any of those areas to any of the other areas. Is that 
right, Director Kaplan?
    Mr. Kaplan. Yes, Senator, that's correct.
    Senator Levin. This is just a $25 billion blank check.
    Mr. Kaplan. Senator, I don't think so.
    Senator Levin. Where's the congressional control? Do you 
say here that Congress has to approve these expenditures? I 
know there's notice of 5 days. Is there any approval either 
before the expenditure or after the proposed expenditure 
required by Congress?
    Mr. Kaplan. No, Senator, other than the appropriation and 
this committee's authorization.
    Senator Levin. You're asking for $25 billion to go anywhere 
you want.
    Mr. Kaplan. For purposes in Iraq and Afghanistan.
    Senator Levin. For any purpose you determine in Iraq and 
Afghanistan. All this is window dressing. When you allocate $14 
billion for O&M, $1 billion for O&M Navy, $2 billion for O&M 
Marine and so forth, that's just window dressing because you 
can move it from one account to another at your whim. Is that 
not correct?
    Mr. Kaplan. Senator, that's our attempt as we sit here 
today to identify where we think the pressure points are most 
likely to occur.
    Senator Levin. I understand that. But you have the 
authority under--if given the authority--to move that money 
from any account to any other account without any congressional 
involvement other than a 5-day notice. Is that correct?
    Mr. Kaplan. For use in Iraq and Afghanistan, yes, Senator.
    Senator Levin. That's the only limit? Here's $25 billion 
more for use in Iraq and Afghanistan, so these numbers that 
you're giving us are just window dressing numbers.
    Mr. Kaplan. No, Senator, they represent the DOD's best 
estimate today.
    Senator Levin. But they don't limit you expenditure in any 
way, do they?
    Mr. Kaplan. No, sir.
    Senator Levin. All right. So you have an unlimited $25 
billion. That's what this amounts to. I think that's the 
definition of a blank check. I can't think of a better 
definition of a blank check.
    Before my time runs out----
    Chairman Warner. Could we allow Mr. Lanzillotta to answer?
    I'll add additional time so that he can answer the 
question.
    Senator Levin. Sure.
    Mr. Lanzillotta. Senator, what this will allow us to do, 
and we outlined it for the operational cost, we know during 
this period of time that we're going to have operational costs 
and force protection needs. The reason we allowed that 
flexibility, because we're going through the 2004 right now, is 
because when we got very specific as to where the accounts are, 
we were trying to match the money to where the bills are. We 
currently have a stress point with general transfer authority, 
and so what we were trying to do is find that balance with 
Congress, because we know we need to support the operational 
costs and force protection costs as they happen on the ground 
and have the flexibility to deal with that, especially the 
force protection, without going through lengthy processes which 
would delay us getting that equipment to the troops in Iraq.
    Senator Levin. I understand. That's exactly what Director 
Kaplan said basically. But you need to understand, you're not 
talking about balance with Congress here. You're talking about 
$25 billion for Iraq and for Afghanistan, and you can spend 
that in any way that you want. By the way, you don't provide 
any personnel costs to those additional 20,000 troops, which is 
another problem I have with this.
    But because I'm going to run out of time, this is the 
definition of a blank check. I think most of us want to provide 
funds. We want a supplemental. It's pretty ironic here. We've 
been trying to pressure this administration to cough up a 
request for the additional money, and to come forth with a 
reasonable request for additional money. The administration 
refused to do that until now, and this is what we get as a 
result of all our effort to have some responsible budgeting for 
the cost of this war. It's Congress which has said this war's 
costing $5 billion a month at least more than you have 
requested. That's not responsible budgeting. Give us a 
responsible request. It hasn't been forthcoming until last 
night and this is not responsible because it's just a blank 
check for $25 billion.
    So in terms of balance with Congress, there's no balance 
here. There's no balance here at all that I can see.
    Here's my last question, and Secretary Wolfowitz, it seems 
to me you opened up an area of questions with your opening 
statement. I must say your opening statement is not limited at 
all to the budget issues in front of us. I understand the 
chairman's desire to have this be a budget hearing, and I think 
that is what it should be too, but your statement, Mr. 
Secretary, went way beyond budget issues, and it seems to me it 
is then appropriate that people use their time if they want to 
ask you questions about what you testified to here this 
morning.
    I want to ask you just one question about the prison 
situation in Iraq.
    Chairman Warner. I'm just going to ask if Senator----
    Senator Levin. I think his statement opened this up. His 
statement was not limited to budget numbers. His statement was 
an argument for the administration's whole position in Iraq, it 
was not just a budget presentation. So I think, Mr. Chairman, 
that in fairness, if we're going to hear an opening statement 
like that, that Senators ought to have an opportunity, if they 
want to use their time, to ask questions of Secretary Wolfowitz 
on the subject of Iraq, because he went way beyond the budget 
issues which we were supposed to be talking about this morning.
    Chairman Warner. I suppose that this is the responsibility 
of the chairman. The notice that went out to all members was 
related to the budget hearing. Many members are here for that 
purpose. I'd like to contain the questioning to the questions 
of the budget, and as soon as that is over, we will then 
recognize members for the purpose of asking other questions. I 
thank the indulgence of all members.
    Senator Levin. Well, then, I have one question.
    Chairman Warner. Well, I----
    Senator Levin. No, this is my question. It's not my 
substantive question, it's my procedural question. Did 
Secretary Wolfowitz get a copy of the notice of this hearing? 
Because he sure didn't comply with the notice of this hearing 
in his opening statement.
    Secretary Wolfowitz. Senator Levin, I thought since we're 
asking for funding for operations in Iraq that it was 
appropriate to say something about the purposes of those 
operations.
    Senator Levin. Thank you, Mr. Chairman.
    Chairman Warner. I thank the indulgence of my members. I 
will not take further time. I'll put into the record at this 
place my own study of the reports by Congress with reference to 
the October 23 conference report on the IFF and the April 12, 
2003 report, in which language is adopted by Congress, I think 
closely related to what you're here for today. I'll ask those 
be placed in the record.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Warner. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. I believe that 
every member of this committee wants to provide the executive 
branch with whatever funds are necessary to prosecute the 
conflict in Iraq in the most successful fashion. But I am very 
troubled because I have never seen a request that basically 
outlines some priorities and then states that it can be ``used 
for any fund.'' I've never seen anything like that, Mr. 
Chairman. There may be some precedent for it, but I agree with 
Senator Levin's characterization. This is a blank check.
    I am intrigued that there's no mention in this set of 
priorities, Director Kaplan, about the increased personnel 
costs. We have 20,000 additional personnel there now. I think 
we need more. I said we needed more 9 months ago when the 
unanimous response was, well, the commanders on the ground 
haven't asked for them, which is one of the most disingenuous 
answers I've ever heard in response to what was clearly a 
requirement, which we're paying a very heavy price for right 
now, lack of enough sufficient troops on the ground.
    So now we're going to give you $25 billion, which by the 
way, just a very short time ago it wasn't going to be needed in 
testimony, now we're going to give $25 billion, and I'll give 
$50 billion, I'll give $100 billion. But it seems to me, Mr. 
Chairman, that we do have an oversight responsibility as to 
where this money is spent. I don't think that all of that money 
has been well spent in the past.
    So I guess my first question is, what about personnel 
costs, Mr. Secretary? I hope I'm within the confines of the 
chairman's narrow interpretation of what this hearing is all 
about. Do we need more troops, and if so, how many?
    Secretary Wolfowitz. Senator McCain, I think on personnel 
costs we're talking about an account that is large enough that 
we think we can cash flow until we have a clear idea of how 
many troops we need. You're absolutely right. We needed more in 
the recent months than we had anticipated and we don't know 
what we're going to need next winter or next spring, but by 
next January we should have a much clearer idea of it.
    The Army personnel account is large enough, I believe, and 
I'll ask Mr. Lanzillotta to correct me if I'm wrong, not to 
create that problem. Army O&M is only $26 billion, and at the 
rate we're going to be consuming our Army O&M, we can run into 
serious problems early next spring without this kind of reserve 
available.
    Let me emphasize this is not any number designed to get us 
through any fixed period. It is a number designed to allow us 
to cash flow in a responsible way without breaking the momentum 
of the key Army modularization program or requiring us to short 
change the troops on things they need in the field.
    Senator McCain. I won't take up the time of the committee, 
Mr. Chairman, except to say that I have never seen a request 
exactly like this. If we want to, again, give up all oversight 
responsibilities, which apparently is the case, then that's the 
wish of the majority to do that. I want to give them sufficient 
funding. I think they're going to need more money. I think they 
need a lot more than $25 billion given the tempo of operations, 
but the way I read this proposal is that we will be notified 
perhaps within 5 days and that will pretty much sum it up.
    This committee has become a very interesting debating 
institution, but I don't know where our oversight 
responsibilities lie, and I hope that at some point we would 
respond to our constituents' desire to have much more careful 
scrutiny over this conflict and the way it is being conducted 
and the mistakes that have been made which have led us to a 
situation which I think is very grave at this particular point 
in the history of this conflict. I have believed from the 
beginning and believe now, it is of the most vital importance 
to the future of the world and our democracy and freedom that 
we win in this conflict.
    I don't believe very frankly, Mr. Chairman, that we are 
playing nearly the role that is our constitutional 
responsibility to carry out. Thank you, Mr. Chairman.
    General Pace. Mr. Chairman, may I take a minute and just 
add a bit more information on the troop strength? Because, 
Senator McCain, you are absolutely correct, sir. It would be 
disingenuous for any of us in a leadership position to simply 
take numbers from the field and either say, that's what they 
need or that's what they don't. You are correct, sir.
    I will speak for myself. I am a member of the Joint Chiefs 
of Staff. I have a responsibility to absorb the data that first 
General Franks gave to us and now General Abizaid is giving to 
us, to do my own analysis, and to provide my best guidance--
correction, my best recommendations.
    As recently as this past Monday, the Joint Chiefs met via 
video teleconference (VTC) with General Abizaid, and we 
reviewed his plans for the coming months and his request to 
maintain the current 19,000 to 20,000 man increase for the 
foreseeable future. I personally, and we collectively, agreed 
with that assessment, is not to lay this on the commanders in 
the field. It is a responsibility of us collectively as leaders 
to absorb that data and to make judgments.
    Senator McCain. I sure wish the answer hadn't been for 
months, when those of us who believed that we needed more 
troops, and the answer was, that, the commanders in the field 
haven't asked for it. That was the response given for the 
record on 50 to 100 occasions. Again I want to emphasize, I 
want us to do everything possible to help you win this 
conflict. I mean that with all sincerity. I am concerned about 
where we are in this conflict today. I believe we can and will 
still win it, but I wish we played a more participatory role, 
not because of my own ego, but because I believe the 
Constitution has deemed that we do so.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    Mr. Kaplan. Mr. Chairman, may I clarify something for the 
record?
    Chairman Warner. Gentlemen, I have to continue.
    Mr. Kaplan. Sorry.
    Chairman Warner. Senator Kennedy, I appreciate your 
indulgence to defer----
    Senator Kennedy. Mr. Chairman, I want to just point out in 
the Secretary's statement, he talks on page 2 about Iraq's 
capacity for representation. He talks about assuming 
responsibility for governmental function. He talks about a 
functioning judiciary. He talks about elected assemblies. He 
talks about preparing the way for elections. He talks about 
reconstruction of Iraqi infrastructure. He talks about fertile 
ground, water resources, and natural resources. In his first 
page, he says, ``despite recent violence at a time when so much 
attention is being focused properly on the abuses of detainees 
in Iraq,'' I think I'm entitled to ask my question and I intend 
to use it for the 5 minutes.
    Chairman Warner. Senator, I respectfully ask that you 
indicated you'd be willing to defer----
    Senator Kennedy. Excuse me, Mr. Chairman, I didn't. I 
recognized that you mentioned that comment, but I've been on 
this committee for 24 years, I've been in the Senate 42 years, 
and I have never been denied the opportunity to question any 
person that's come before a committee on what I wanted to ask. 
I resent it and reject it on a matter of national importance. 
We're talking about prison abuses, we're talking about the Red 
Cross meeting with Secretary Wolfowitz in January of last year, 
we're talking about published reports about this, we're talking 
about what he did do and what he didn't do, and the activities 
as the number two person in the DOD, and we are entitled to 
answers, Mr. Chairman. I'm going to use my 6 minutes.
    Chairman Warner. I indicated to you I would recognize you 
immediately upon the conclusion of the first round.
    Senator Kennedy. Mr. Chairman, then you're going to have to 
rule me out of order and I'm going to ask for a roll call of 
whether the committee is going to rule me out of order. I think 
I am entitled to ask a question on a subject which is relevant 
to his testimony on it. I'm entitled to that, Mr. Chairman. 
This is the United States Senate.
    Secretary Wolfowitz. Senator Kennedy, I'd be happy to 
answer your question about the meeting with the Red Cross.
    Senator Kennedy. I'd appreciate it.
    Chairman Warner. You have opened the inquiry broader than 
the scope that was the intended, Mr. Secretary, so I expect 
that the Senator has a point. It had been my intention to 
conduct this hearing on the budget. That was the notice, that 
was the purpose, and then at the conclusion of the testimony on 
the budget, I was perfectly willing to allow Senators to ask 
other questions.
    Secretary Wolfowitz. Sorry. I'll do it your way, Mr. 
Chairman.
    Chairman Warner. You have opened it up in your opening 
statement to I think any legal construction, you've opened it 
up to all issues.
    Senator Kennedy. We're limited by our 6 minutes.
    Chairman Warner. I will not detract from your time.
    Senator Kennedy. I appreciate it.
    Chairman Warner. So let us proceed with your 6 minutes at 
this time.
    Senator Kennedy. I want to say, Mr. Chairman, at this time, 
you've always been a respected chairman. Once in a while we get 
worked up around here.
    Chairman Warner. That's all right. That's the way the 
committee should work. But I see the point that you and the 
ranking member make.
    Senator Kennedy. Thank you.
    Chairman Warner. But I would hope that we could continue on 
this budget and then have a second round.
    Senator Kennedy. Thank you, Mr. Chairman, and thank you, 
Mr. Secretary, for your willingness to address this issue. The 
question I have is, as you saw in The New York Times report 
this week, the President of the Red Cross was here for 2 days 
in January to talk with the State Department, Secretary Powell, 
Condaleeza Rice, and yourself about detention problems. At 
least on their calendar, and my conversations and contacts with 
the President, he raised the detention issues at Guantanamo as 
well as in Iraq. He didn't get into the specifics as your aide 
has reported, but he raised the issues of abuses in Iraq jails.
    My question to you is, when those issues were raised to 
you, what did you do about it? You came here about 5 weeks ago 
and made a very eloquent statement about human rights issues, 
about the concern that the administration had about the abuses 
of the previous regime which was very legitimate, but there was 
no mention of any of the violations or the problems in Iraqi 
jails. My question to you is, when the head of the Red Cross 
briefed you that there were going to be problems, and that 
there was going to be a report later in February, what did you 
do? You heard the bells go off. Did you ask to read the 
previous reports in the DOD? Did you ask for an early report 
from the Red Cross so that you would have been alerted on 
February? Did you check with the DOD to find out that this is 
just the time that Sanchez was supporting Taguba to do an 
independent report already in the DOD, and that actions were 
already being taken?
    What did you do at that time when you as the number two 
person in the DOD had this notification by the Red Cross?
    Secretary Wolfowitz. Mr. Chairman and Senator Kennedy, I'm 
as horrified as anybody at these abuses, and I think Secretary 
Rumsfeld has made it clear just how horrified he is, how 
seriously he takes this issue, how determined he is to find out 
what has happened to make sure that in an appropriate legal 
fashion we deal with people who have committed offenses, and 
that we find out what we need to do to prevent these kinds of 
things from taking place in the future.
    At the same time, we have incredibly important business at 
DOD to run. He's designated a considerable number of officials 
to assisting him in getting to the bottom of this whole issue 
and to going through hours of testimony before this committee 
and other committees of Congress, and hours and hours of 
briefings from the various investigations that have been 
launched, and I would emphasize launched by the Army and by the 
DOD, and it's a very time-consuming business.
    He's asked me and General Pace to make sure that the 
remaining business of the DOD, the critical issues of training 
and equipping and making sure our forces have what they need, 
and most of all that our forces in the field have what they 
need, that those things are being properly staffed, and he 
specifically asked the two of us to focus on that.
    I can't answer in detail on those issues. I can tell you I 
do remember the meeting with the chairman of the Red Cross, and 
I took it very seriously. My recollection of it was that it was 
entirely about Guantanamo. There are some serious issues 
between us and the Red Cross about Guantanamo. I might 
emphasize they have nothing to do with the kinds of abuses that 
we've been hearing about in Iraq. The central issue is this 
issue that everyone is aware of is the impact of long-term 
detention. That's not the issue in Iraq.
    The abuses that took place in Iraq were clearly outside of 
anything that was authorized in any circumstances anywhere by 
U.S. military officials.
    Senator Kennedy. My time is up, but your own staff, Charlie 
Cooper, indicated that the Iraqi prison issue was discussed at 
that time.
    Secretary Wolfowitz. Some people in the meeting believe 
that the chairman of the Red Cross mentioned that there was a 
report coming on Iraq. I honestly don't remember.
    Senator Kennedy. There was no follow-up, no further follow-
up from your own people?
    Secretary Wolfowitz. We were waiting for it.
    Chairman Warner. Thank you very much, Senator Kennedy.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. I might add that 
after listening to all the testimony, there are 7 people 
responsible primarily for the problems that existed. They are 
all in some stage of prosecution under the Uniform Code of 
Military Justice (UCMJ) at this time, and I might add they were 
before any of this came to the public's eyes. That was already 
underway and that was done swiftly.
    In your opening statement, you may have addressed this, I 
just have one question. Your requests are entirely of funds 
allocated to O&M accounts, and yet there are some other areas 
that we know are going to have to be covered like some of the 
equipment that's been destroyed and so forth. Do you have a way 
of using this for those purposes that become necessary?
    Mr. Lanzillotta. Senator, this was just meant to be a 
bridge account to allow us to support operational costs and 
force protection costs. Equipment losses and some of the major 
expenses that we're incurring will be in the full supplemental 
request that would be submitted later.
    Senator Inhofe. That's good. Let me use this opportunity to 
recall something that happened 3 years ago. I think it was 
during the Secretary's confirmation hearing, I asked a question 
about the problems we seem to have, and I've experienced this, 
not for 42 years, but for 18 years, that it always seems like 
we're under crisis control. Something will come up and all of a 
sudden we're going to have to come up with the money and we're 
going to have to do it. I remember during the 1990s, in order 
just to get bullets, some of the training commanders were 
actually taking money out of their real property maintenance 
(RPM) accounts, but I think they call it something else now. 
Consequently, we didn't have roofs on our barracks down at Fort 
Bragg and different places. So it's also kind of in a crisis.
    I asked the question of Secretary Rumsfeld at that time, 
how can we overcome this, looking down the road, not just 
looking at today and the problems today? I'd like to ask you to 
being doing that. He said, if you go back all throughout the 
20th century, the percentage of gross domestic product (GDP) 
that went to the defense budget has been an average of 5.7 
percent on non-war years. That slowly went down in the 1990s to 
2.7 percent. Now I understand the most current percentage is 
3.6 percent.
    At that time, he said, I think we're going to have to look 
at it someday in order to be able to resolve these problems and 
not always be meeting at a crisis, around 4.5 percent. I would 
only observe that what he said 3 years ago seems to have been 
pretty prophetic, because it seems to be that way to me. I 
would just hope that your staff as time goes by might look to 
the future, and look where are we going to be 10 years from 
now.
    By the way, General Pace, our mutual friend from Texas 
called the other day and sent along his best wishes to you and 
his congratulations for the great job you're doing.
    General Pace. Thank you, sir.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much. Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman, Mr. Secretary, 
General, Mr. Kaplan, and Mr. Lanzillotta. Mr. Secretary, on 
this Senate Armed Services Committee you have Senators who have 
been steadfastly and fervently in support of our military 
involvement in Iraq, you have members here who are skeptics 
about it, and you have some who have been opposed to it. But 
there's not a member of this committee that doesn't want to 
provide our military with the resources they need to do the job 
that you and we are asking them to do.
    In that regard, having listened to Senator Levin and 
Senator McCain, with whom on this matter I agree, I believe 
we're heading into a situation that is already conflicted 
enough and difficult enough, and into an unnecessary 
disagreement about whether this money is provided through this 
committee and Congress by a reserve fund, which is very 
unusual, and perhaps unprecedented, or through a supplemental 
request.
    Of course, the skeptics will say that the administration is 
doing this because people were demanding in Congress all along 
that you come in with a supplemental and because you didn't 
want to yield to that, you're calling it a reserve fund. In the 
interest of achieving some unified ground here in pursuit of 
what I believe we all support, which is adequate resources for 
our personnel in Iraq, would you consider reshaping this 
request as a more traditional request for supplementary funding 
for the war in Iraq?
    Secretary Wolfowitz. I think the problem, Senator 
Lieberman, is, if you start to do that, then you start to try 
to predict the unpredictable, and you either underestimate what 
you're going to need and then that has consequences. When you 
later come in with a larger number, then people say, you 
weren't honest with us or you got it wrong. If you overestimate 
what you need, you end up with money that doesn't get spent 
wisely, and frankly, not only are we not pretending this is not 
the supplemental, we're not pretending this is 6 months of the 
supplemental. It is very likely, and you can do the arithmetic, 
Senator, we're not hiding the bill on what we're spending now. 
It's roughly--and I'm not using the precise $4.4 billion--it's 
roughly $4.5 billion, or if you add in some other things, it's 
pushing closer to $5 billion a month. It is $50 to $60 billion 
if you look at all of our operations in Iraq and in 
Afghanistan. It's a big bill.
    We'll manage much better if you will give us the time to 
wait until early next year when we really know what that bill 
is going to be. If it turns out miraculously, or happily, to be 
significantly lower, it will be much better to ask for a 
smaller amount. If it turns out to be higher, we will ask for a 
larger amount.
    This is a war. It's a war in Iraq, it's a war in 
Afghanistan. War is unfortunately a very unpredictable 
operation, and we're not pretending that we are predicting, and 
we're not pretending it's cheap.
    With respect if I might add too, to this issue about a 
blank check. We're not looking for a blank check. We are 
looking for the kind of flexibility that will make sure that 
when a need arises we can allocate funds to where that need 
exists.
    Senator Lieberman. I hear you, and I understand what you 
are saying, but I want to repeat what I said before. We're 
heading down a road to an unnecessary fight in a circumstance 
where that battle may do damage to our cause and may lead 
others to question more than they should the willingness of 
Congress to support our troops regardless of the individual 
attitudes of Members of Congress on this.
    We all agree. You've said it, all of you on the panel, we 
know it. This is not a supplemental request for all the money 
we're going to need to prosecute the war in Iraq through the 
end of fiscal year 2005. But the answer to that is just to come 
in with a partial supplemental request. We all know that, and 
we won't be deceived by it. We know that there's going to need 
to be one more coming in next year. I just worry that we're 
heading down a road here where we all ought to be unified, 
where we're going to hear a lot more use of the term blank 
check, and more conflict over this than I think we need to 
have.
    Therefore, I got your answer, and I just want to ask you to 
go back and speak to the Secretary and perhaps the White House 
about whether this is really a fight you want to fight.
    I want to go briefly, if I can, to the prison abuse scandal 
which troubles us all. Here's another case where no matter 
where you stand on the war, everybody agrees this was horrific, 
unacceptable, damaging behavior.
    Chairman Warner. If the Senator would indulge me. I don't 
intend to prolong this, but the chair did ask with regard to 
the restriction by members, in no way have I ever in my 26 
years in the Senate tried to curtail a Senator's right to 
question. But it was pointed out, and I wasn't fully aware of 
your opening statement, as we would say in the law, opens up 
the subject. As such, the chair hereby withdraws the request to 
the members to confine their questions to matters related to 
the budget.
    I did not want to go to a vote because I know how to count 
votes. Having said that, the chair withdraws that admonition, 
but bear in mind, we're here on the question of this budget. I 
do not deduct from the time of the Senator.
    Senator Lieberman. Thank you.
    Senator Levin. Could I just add one quick comment and also 
request it not be deducted. I just want to thank the chair. 
He's always very reasonable, a gentleman, and maintains the 
dignity, decorum of this committee, and the good relations of 
our members sometimes under very difficult circumstances. I 
just want to commend him publicly for the way he is able to do 
all that at the same time.
    Senator Dayton. You'd have all the votes on that one.
    Chairman Warner. I thank my good friends. I always remember 
Yogi Berra said good guys finish last. I'm still trying to 
place up here.
    Senator Levin. You'll finish first by that standard, Mr. 
Chairman.
    Chairman Warner. Go ahead.
    Secretary Wolfowitz. If I might just say it, I addressed 
the issues I did in my opening statement because I think it is 
perfectly proper for the committee to ask what the $25 billion 
is being used for. As I said earlier, if you want to get into 
the issue of the prisoner abuse scandal, you really need to get 
people who are able to devote pretty much full time to digging 
into the facts, and we have multiple officials who've been 
testifying over 20 hours on those issues.
    Chairman Warner. I indicated at the beginning of the 
hearing, that you and I, in the course of our conversations 
preparatory to this hearing, said that your full attention 
really had been put on the maintenance of the DOD and the 
everyday demands, together with to a great extent General Pace. 
Is that correct, General? But the questions will be asked and 
you'll respond to the best of your knowledge. Thank you very 
much.
    Senator Lieberman. Mr. Chairman, thank you.
    Chairman Warner. Your time is restored. You have another 
minute.
    Senator Lieberman. I appreciate it. One question, and I'll 
try to draw a line from your initial purpose to the wider 
agenda now, and it is this: to support and maintain public and 
congressional support for the troops and the mission, it seems 
to me that we have to guarantee that there is the widest and 
most unfettered investigation of how the prison abuse scandals 
happened, including up the chain of command, to look wherever 
responsibility for action or inaction should be placed.
    I wanted to ask you in that regard whether you think the 
various investigations going on now have the latitude to do 
that. Particularly, I thought one of the most important things 
Secretary Rumsfeld said last Friday, which was lost in the 
coverage of his testimony, was the creation of the four-person 
independent investigating group with Secretaries Schlesinger 
and Brown, General Horner, and former Congresswoman Fowler.
    Am I correct that they will have independent staff and that 
they will independently review the other investigations, 
including any culpability, and not only by those in the prisons 
but up the chain of command?
    Secretary Wolfowitz. Senator, this is where I feel I'm not 
sufficiently informed on the details to give you a confident 
answer. I'd like to give it to you for the record. I think the 
answer is yes, but I'd like to confirm it. I think they also 
have the ability to recommend additional investigations if they 
think additional investigations are needed. I will confirm that 
for the record.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Lieberman. General Pace, do you have a response to 
that?
    General Pace. Sir, I have not read the document, if there 
is one, that the Secretary may have signed on that to the 
members. I do know that in the discussions leading up to it, 
the concept was that these would be four individuals who would 
have the opportunity, the authority, and the support to take 
all investigations, no matter what level they were derived 
from, read them, look at them, cross-reference them, and make 
recommendations to the Secretary about what other 
investigations might be needed to flesh out the story. I do not 
know the specific guidance he has given to the individual 
members.
    Senator Lieberman. I thank you and I just say finally that 
as a supporter of the war, I think it is critically important 
that at some level, and that looks to me like the most natural 
level, there be that independent review by people outside of 
the Pentagon who can guarantee the American public and the 
world that they have looked without limits at anyone who may 
bear a blame for this scandal and hold them accountable.
    I thank you, Mr. Chairman. You're both a winner and a good 
guy as far as I'm concerned.
    Chairman Warner. Thank you very much. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman, and I just want to 
say that along with all my colleagues here on this committee 
that have stated that they fully support our men and women in 
Iraq and Afghanistan and really respect the great job that 
they're doing, we want to make sure that the money that we're 
making available has some oversight, at least as far as 
Congress is concerned. We've had this discussion on the Budget 
Committee on which I serve, Mr. Chairman. We have worked out a 
solution which I thought might take care of your concerns. I 
can understand when we have a supplemental, everybody adds 
their own projects because they're outside the budget and it 
gets abused. There are members on this committee who have 
abused that and there are Members in Congress who have abused 
that, because it goes beyond what was intended in the 
supplemental. It ties it up, and it doesn't make dollars 
available for the DOD. I can understand all that concern.
    But on this side, we need to have some oversight. So what 
the Budget Committee came up with in their resolution--this is 
another reason why we need to get it passed--is a provision 
where the committee set aside $30 billion to go through a 
process where you make your request to the Committee on 
Appropriations, and then the Appropriations Committee is in a 
position to manage that request. That expedites the procedure 
so you don't have a supplemental out here that gets abused. It 
goes ahead and makes the process move much faster, so that as 
your needs come up you can go ahead and make those requests to 
the appropriators and they can make the money available to you.
    It seems to me like that's a reasonable approach. It's 
Section 312 in the Budget Committee that we're working to get 
passed, and I wish you'd take a look at it. Maybe you'd like to 
comment further on this approach. Maybe General Pace would like 
to comment. You can perhaps comment on it, Mr. Secretary, and 
even Director Kaplan, would maybe like to comment on that 
provision.
    Secretary Wolfowitz. Let me just say first I think you're 
absolutely right that it is important. There's a temptation 
when you have emergency accounts available to start using them 
for things that are not emergencies. I think it was Senator 
Inhofe who correctly pointed out that when Secretary Rumsfeld 
testified here in his confirmation hearings and in the summer 
of 2001, we were working very hard to make sure that we stopped 
funding regular expenditures and pretending that they were 
emergencies. It had very bad effects on the management of the 
DOD.
    The other side of the coin is if you over budget for 
something that you predict is going to be an emergency 12 
months from now, you're inevitably going to have people using 
those funds in an undisciplined way. I think that's the 
philosophy for waiting until part way into the fiscal year when 
we have a better fix on things.
    I'm not familiar with the vehicles and I think Director 
Kaplan might want to address that.
    Mr. Kaplan. Senator, we're of course appreciative of any 
efforts and ideas that Congress has to provide expedited 
procedures to make sure that the flexibility exists to get the 
resources where the DOD and the commanders say they need them. 
We want to be mindful of course of the appropriators, their 
ability to consider these requests, and expect that they will 
act on this contingent emergency reserve fund as well as the 
ultimate 2005 supplemental.
    If I may back up for a minute, I think I may have led to a 
bit of confusion by my imprecision of language in saying that 
this proposal was similar to the IFF. I didn't have the 
language in front of me. But it is in fact modeled after the 
IFF that Congress created in the fiscal year 2003 supplemental. 
It identified several accounts and said money shall be 
available for transfer for the following activities, and then 
proceeded to say not less than up to several enumerated 
specific accounts. It then provided that in addition to those 
transfers, the Secretary of Defense may transfer the funds 
provided herein to appropriations for military personnel, O&M, 
overseas humanitarian, disaster assistance and civic aid, 
procurement, research and development (R&D), and proceeds to 
list, actually in some ways a more expansive list even than 
we've asked for because it goes outside of the fence.
    So we were mindful of Congress' prerogatives and recognized 
that that was something that Congress had supported and created 
in the past.
    Senator Allard. I want to emphasize again that this 
provision we have in the budget, which is an agreement between 
the House and the Senate, is to accommodate incremental 
expenditures associated with ongoing military operations in 
Iraq and Afghanistan, and this is just exactly what you're 
asking for. There's $30 billion that we're setting aside in 
there to do that, and then the only caveat that we have here is 
that you just go to the appropriators and explain the items 
that you want to use that for, and the appropriators can make 
that available.
    It seems to me like we have the proper balance between 
congressional oversight. It becomes a part of our budget 
process, so we have accountability there. It meets your needs 
as you run across these incremental expenditures, so you can go 
ahead and make those requests and the appropriators can provide 
them.
    Mr. Kaplan. Senator, I think that's not inconsistent with 
what you and the Budget Committee have----
    Senator Allard. It is inconsistent in this regard in that 
we do have some oversight there, which I don't believe we have 
in the provision that you're asking for. But I don't think it's 
excessive oversight. I think that you can rapidly get a 
decision from our appropriators when you need those dollars.
    Mr. Chairman, thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Levin. What was their answer?
    Senator Allard. I'm not sure that I asked a question. We 
were just having a discussion here and I was explaining how I 
felt like this provision that we have in our current budget 
right now would work and would work in an expedited way so that 
we would have congressional oversight and they could have the 
resources they need there for those incremental expenditures 
that come up that need to be met on a rather urgent basis.
    Senator Levin. I agree.
    Senator Allard. Fiscal year 2005 is what this is providing 
for.
    Chairman Warner. The chair recognizes Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman, and thank you, 
gentlemen, for being here today. I think it's important to say 
as others have that we certainly want to support the needs of 
our men and women in uniform, both here and abroad, 
particularly as it relates to the continuing costs associated 
with the war in Iraq and the war in Afghanistan, and we need to 
fund the needs.
    But I also agree with my colleagues that the process is at 
the very least confusing, and at the very worst it looks like 
it might be a complete, or if not complete, partial erosion of 
oversight responsibility which causes us all some concern. I 
don't think anybody sitting here wants our oversight to morph 
into a blank check scenario, so that's why I think there is a 
lot of concern and there are a lot of questions that are being 
asked regarding this.
    But think of the confusion. We have budget supplements, and 
insurance funds that are not supplements, intended to cash 
flow. We have a burn rate that conceivably will utilize the $25 
billion in a fairly short period of time, and a request for 
flexibility in the midst of what we provide for accounts.
    So if we're not confused, that will surprise me, and I 
suspect that there is some effort underway to try to help us 
understand that. It's hard to accept in the halls of Congress 
making a budget the way you make a pie, a piece at a time. We 
think we have a budget, but then we find out we don't have a 
budget. Nevermind the fact that whatever we do can be changed 
with 60 votes, so it's hard to call anything permanent, let 
alone temporary.
    I guess what I'm really trying to get to is that I'm not 
adverse to block grants. My question would have to be, how 
realistic is the figure $25 billion? Just how realistic is 
that? We have a burn rate at nearly $5 billion, depending on 
how you account for it, so why would we do it for 5 months? I 
do understand the importance of not leaving money on the table 
for a longer period of time than you would account for under 
most circumstances because money does get spent. When I was 
Governor I used to worry about the legislature spending it. Now 
I see the administration worrying about the administration 
spending it because of the money being there.
    But how realistic is this figure of $25 billion? Any one of 
you can answer. I'm not trying to pick on you, Mr. Secretary.
    Secretary Wolfowitz. Let me try and when I mess it up I'll 
go to the experts. Senator Nelson, I don't think the idea is 
that we'll go $5 billion a month out of the $25 billion until 
that runs out. The idea is that we will cash flow, where 
accounts are adequate, and they're all adequate to transfer, to 
use up some fourth quarter money in the first and second 
quarters.
    Where we don't want to end up is in a position, and there 
are particularly some Army accounts where you could be in this 
position, where by in the middle of the second quarter you're 
already using third quarter money. Then you start to discipline 
your expenditures in a very harmful way. You break programs, 
you short people on things, and you cut corners in the way any 
business will cut corners if they see themselves heading into a 
financial crunch. We don't want that kind of thing to happen.
    Senator Ben Nelson. But can we have the assurance that the 
kind of assets that are required, such as the appropriate armor 
for vehicles or for personnel, the number of personnel that 
we're looking to increase to take care of the continuing 
mission or changing mission as we go along, will be funded? I 
think that's our fear.
    One of the issues about having some oversight is being able 
to direct where the money is spent in advance, and I think 
there is a lot of concern that we have not had adequate armor 
protection for vehicles, therefore unnecessarily exposing 
personnel to harm. That's why we have the lines of authority, 
and that's why it's a line-item budget. How can you assure us 
that we're going to be comfortable, that the money will be 
spent on what we consider to be priorities, not simply what DOD 
considers as its priorities?
    Secretary Wolfowitz. Again, I'm going to turn to the 
experts in a minute, but we are not looking for a blank check, 
at least I don't think that's what we're looking for. What we 
are looking for is the flexibility to move money when you need 
to move it. In fact you mentioned up-armored HMMWVs, and that's 
precisely one of the places where, as you probably know, the 
Army requirement has grown and grown.
    Senator Ben Nelson. Is that one of the areas identified as 
an illustration as opposed to a line-item account, Director 
Kaplan?
    Mr. Kaplan. As has been pointed out, the accounts are 
broad, O&M for the various----
    Senator Ben Nelson. For illustrations, not accounts. But 
when we're dealing with illustrations, not accounts, anything 
goes that's not on there, or what's on there may not be funded, 
if you're following where I'm going. So it's the flexibility 
that almost begins to look like any of the above or whatever we 
decide in the future.
    Mr. Kaplan. There's no question that we're looking for 
flexibility, and it's for the reasons Secretary Wolfowitz 
pointed out. It's to make sure that the DOD is able to respond 
quickly to an emerging threat environment, and as the needs 
change, to make sure, that the troops in the field--and I 
expect Congress--have the comfort and the confidence that those 
resources will be there.
    Senator Ben Nelson. Is there a way to limit the number of 
accounts so that we don't have something going outside of one 
of these accounts that is nothing more than an illustration? I 
think that might give us more comfort about our oversight.
    Secretary Wolfowitz. I think that might be possible, 
Senator. Mr. Lanzillotta?
    Mr. Lanzillotta. Senator, to continue using your example of 
the up-armor HMMWVs and why we need the flexibility, we have 
funded the requirement for up-armored HMMWVs three times. When 
we put the supplemental in, we put in what we thought was the 
full requirement for up-armored HMMWVs. The requirement grew 
because of reality on the ground. We fully funded again but the 
reality changed again and so we fully funded it again. We don't 
have a specific----
    Senator Ben Nelson. I'm not challenging you on that point. 
I think you're doing what you need to do. My point is, couldn't 
we fence in all the things for which it could be spent, 
recognizing that between accounts or among accounts you might 
have some flexibility to be able to do exactly what you're 
doing, or, as circumstances change, you're able to redirect 
some money in that way. But at least we would know what the 
parameters are, not just by the total amount of money, but also 
by where it might be spent.
    Mr. Lanzillotta. Our attempt when we structured it for 
basically O&M was to assure Congress that we were using it for 
operational support costs associated with Afghanistan and Iraq.
    Senator Ben Nelson. Or anything else that might come up. I 
mean, that's a problem.
    Mr. Lanzillotta. That's the flexibility. But the 5-day 
reporting period where we come down there and tell you if 
something changes was to give Congress notice. I'll give you an 
excellent example. There are certain R&D efforts that have 
helped us immensely with the booby traps and the explosive 
devices that we've encountered. We wanted to be able to have 
the flexibility if we find something to be able to transfer an 
amount of money to R&D to be able to rush that to the 
battlefield.
    Now, that has happened already with the same flexibility 
that Congress was able to give us in the IFF account. We're 
able to find something new, rush it up there, and do it. Our 
problem is without the flexibility, and the reason why the 
account was structured this way, is because right now as we sit 
a year out, I don't know what that technology may be.
    Senator Ben Nelson. But you're going to come back to us 
between now and 12 months.
    Secretary Wolfowitz. Senator Nelson, I think there's some 
room here to work on something that gives the troops the 
flexibility they need, gives Congress the oversight it needs, 
and frankly, a little discipline on the process so that people 
can't go and use this fund for whatever suits their fancy. That 
would be quite all right with me.
    Senator Ben Nelson. I thank the chair and I thank the 
Secretary for picking up the point that I think we're making. I 
may not have made it very well, but I think you have the idea. 
Thank you, Mr. Chairman.
    Chairman Warner. The committee thanks you, Senator, because 
while in our opening round of questions we expressed these 
concerns, we now hear you proffering some type of document to 
this committee which could be incorporated should we move 
forward on the floor, and that would lend itself to give the 
specificity and the restrictions on the flexibility that we 
feel appropriate. Is that correct? Did I hear you say that?
    Senator Ben Nelson. I didn't quite get to the point of a 
document, Mr. Chairman, but let me----
    Chairman Warner. I think I like things in writing.
    Senator Ben Nelson. I understand the need. I need some 
expert advice though.
    Chairman Warner. Will you please communicate with the chair 
and the ranking member and we'll see that the committee is so 
advised. I believe you detect the concern among the committee, 
and this is a case of first impression. If we go forward with 
it, we want to make sure we do it right, and we will work in 
consultation with the Appropriations Committee, which in many 
respects have the principal authority for this type of package.
    Thank you. Senator Collins.
    Senator Collins. Mr. Chairman, I'm going to follow up and 
try to get that commitment for that document. Mr. Secretary, we 
need to strike the right balance here between the 
administration's understandable need for flexibility and the 
congressional need to closely oversee spending. I recognize 
that the administration will be submitting a traditional 
supplemental request next year, but I want to echo the concerns 
of many of my colleagues, Senator Lieberman, Senator Allard, 
Senator Nelson, and others, in encouraging you to consider 
either resubmitting this $25 billion request in the form of a 
traditional supplemental appropriation, or along the lines 
suggested by my colleague from Colorado.
    We really do need to preserve the important role that 
Congress plays. It is our duty. This is not a case where we're 
not eager to give you the money you need. We are eager to 
ensure that our troops have all the resources that they need. 
You don't need this dispute, and I would encourage you to work 
with the committee to come up with some controls on the 
spending. We're very eager to move quickly to give you the 
funding that you need, but I hope you will consider working 
with the committee to come up with a more traditional request 
with checks and balances in it so that we can move forward 
without having this needless dispute.
    Secretary Wolfowitz. I appreciate the spirit of that 
comment, Senator Collins, and we will work with you.
    Senator Collins. Thank you.
    Chairman Warner. Senator Collins, without interrupting you, 
I think it would be nice to get Director Kaplan on the record.
    Senator Collins. Thank you for that admonition.
    Chairman Warner. Direct your question to Director Kaplan.
    Senator Collins. Director Kaplan, since you're representing 
OMB, which tends to play a very important, deciding role in 
these issues, I would like to get from you also a commitment to 
work with the committee to resolve the concerns that you've 
heard expressed on both sides of the aisle. Again, I want to 
emphasize this is not a dispute over giving you the resources 
that our troops need. All of us want to make sure that we do 
that quickly and fully.
    But we do need to exercise our constitutional 
responsibilities, so I would ask for the same commitment from 
you.
    Mr. Kaplan. Of course, Senator, and thank you, Mr. 
Chairman, for giving me the opportunity to get on the record as 
well. We share Secretary Wolfowitz's commitment to working with 
members of this committee and other committees and members with 
interest to try to strike that balance between making sure 
Congress can exercise its constitutional oversight prerogatives 
while still providing the flexibility that the commanders and 
the Services need.
    Chairman Warner. Fine. Bear in mind we're on the floor 
Monday, so you have your weekend work cut out. Thank you. You 
can take another minute.
    Senator Collins. Thank you. General Pace, I continue to 
receive e-mails from soldiers in Iraq who tell me that they 
still lack the equipment they need, and that is just so 
troubling to me. Just a few days ago, a member of my staff 
received an e-mail from a friend serving in Iraq, who doesn't 
happen to be from Maine, but let me tell you what he said. He 
said, despite numerous requests, he still had no long-range 
communications, only light-armored vehicles, and the only 
ammunition he had for one of his weapons came from the 
generosity of a local Danish military unit. That really 
troubles me.
    Do you believe that this additional $25 billion will be 
sufficient to ensure that our troops have what they need? We're 
sending them into such a dangerous environment, and I feel we 
have a moral obligation to make sure that they have all of the 
supplies and equipment, and most of all, protection that they 
need. Are you confident that the $25 billion that the 
administration has requested will solve those concerns once and 
for all?
    General Pace. Senator, thank you. That e-mail and the way 
you just described it troubles me as well, and whatever way you 
think appropriate, if you could share as much information from 
that as you can with me, I would like to get directly to 
answering that specific problem.
    Second, I am confident that this Congress has already 
allocated sufficient resources for that problem to not exist 
today. So if it does exist, it is not because you have not 
given us the wherewithal, it exists for some other reason. You 
have funded very quickly, for example, when we identified to 
you the need for up-armored vehicles, for more armor on them, 
when we identified the need for the new state-of-the-art 
personal body protection. All those requests that we have 
brought forward to this Congress, were funded very quickly. I 
am confident that you have already given us the assets we need 
to answer that question, but I cannot answer that question 
without having more specifics.
    Senator Collins. I'll see what we can share with you. 
Obviously I don't want to get the soldier in trouble in any way 
who brought this to our attention, because it's not just one 
soldier. I keep hearing similar reports, and we do need to 
remedy it.
    In my remaining time, could you please explain more 
precisely, General Pace, to the committee how you arrived at 
the $25 billion figure?
    General Pace. Ma'am, I did not personally arrive at that 
number, but I can tell you that it is specifically based on the 
numbers that Mr. Lanzillotta indicated, which is a utilization 
today of about $5 billion per month combined between Iraq and 
Afghanistan. It is based on our understanding that if things 
did not change, if come 1 October of this year we are operating 
exactly the way we are today, and that's not a known, but if it 
is, then that would take us through the first 5 months of the 
coming fiscal year in a way that would allow us to not have to 
reach deep into 2005 to come forward with training and fuel and 
things that we would buy in the fourth quarter to pay for the 
current expenditures at that time.
    Senator Collins. Mr. Secretary or the comptroller, if 
either of you could add to that.
    Secretary Wolfowitz. Senator Collins, it was intended to 
give us a very comfortable margin of error, which doesn't mean 
that we wouldn't be paying for some first quarter expenses with 
fourth quarter money. That we think we can do, but we don't 
want to end up in a situation where we're paying for second 
quarter expenses with third quarter money and people start to 
see their accounts running dry, especially Army O&M, which I 
mentioned earlier.
    Sometimes businessmen come and say, you have a $400 billion 
budget. Certainly that gives you a lot of latitude to move 
money around. But the account that is most critical here is the 
Army's $26 billion O&M account, and it's the Army as we all 
know that is incurring the greatest share of that supplemental 
funding. So we need to make sure that those accounts don't 
start to run dry and the managers of those accounts start to 
say, I have to cut back on something that's pretty important 
because I need to fund something that's absolutely essential. 
We want to make sure, and particularly when it comes to 
maintaining the momentum of key Army programs like the brigade 
restructuring.
    If I might just make a comment reinforcing what General 
Pace just said, if there are issues, we want to find them and 
fix them as fast as we can in the area of force protection. In 
fact, Ron Sega, who's the director of defense research and 
engineering, has a task force that reports to me on force 
protection measures across the board. The Joint Staff also has 
an Army-directed or Army-led force protection effort that 
focuses particularly on equipment issues. We've already 
accomplished nearly $2 billion. In fact, $1,931,000,000, to be 
precise, out of fiscal year 2004 funding, particularly for up-
armored HMMWVs, interceptor body army, and there's another $720 
million in process. In other words, it's over $2.6 billion, 
which is another reason why we do need some considerable degree 
of flexibility. Many of those expenditures were different from 
what we anticipated a year ago.
    Chairman Warner. Thank you very much, Senator Collins. I 
think, Senator Collins, we have made an incremental landing 
here. [Laughter.]
    We're all waiting until your turn comes, Senator Byrd.
    Senator Dayton.
    Senator Dayton. Mr. Chairman, I would be honored to defer 
to Senator Byrd.
    Chairman Warner. I've made that proffer, but there's been a 
bit of a stiff resistance. He wants to maintain his order out 
of respect for his colleagues. Now, once more, Senator Byrd, do 
you wish to go forward? Your colleagues have invited you to do 
so.
    Senator Dayton. I'll defer to you, sir.
    Senator Byrd. Thank you, and thank you my colleagues. These 
are the invincible 23 who stood against the resolution of shame 
of October 16, 2002. Now, Mr. Secretary, and Mr. Chairman, 
thank you. Mr. Secretary, turning to the $25 billion request, 
which reads that the President would be able to transfer any 
amount from the fund at his discretion at any time effective 
October 1, which would exempt the spending from any limits on 
discretionary spending.
    This would further transfer authority to the Secretary of 
Defense in consultation with the Director of OMB, and would 
give the administration a blank check, limited only by the 
requirement that funds be used to support operations in Iraq 
and Afghanistan. There is no requirement for consultation with 
Congress. Shame. There is a modest reporting requirement that 
Congress included in the fiscal year 2003 and fiscal year 2004 
supplemental for the IFF. That is not part of the President's 
request.
    Mr. Secretary, I want to compliment the lady from Maine. 
She is entitled to the plaudits of the entire committee for the 
wisdom that she has demonstrated here today. She has brought 
some common sense to the committee and I compliment the 
panelists for their joining and indicating their support for 
her proposal.
    The proposal is deficient in a number of ways. Further, 
there should be a requirement to consult with the chairman and 
the ranking member of the Armed Services and the Appropriations 
Committees prior to transferring funds. There should be a 
requirement to report to Congress on the expenditure of funds. 
There should be detailed justification for the request.
    In support of the $25 billion request, there is a four-page 
request. We don't know how much is for pay, how much is for 
procurement, how much is for classified projects, or for 
military construction projects. The proposal provides for a 
blanket $25 billion transfer authority with no requirements for 
detailed justification, no consultation, and no reporting.
    Mr. Chairman, there must be consultation with the chairman 
and ranking member of this committee, and consultation with the 
chairman and ranking member of the Appropriations Committees of 
both Houses. The language is ambiguous about whether the funds 
would be used for dual use purposes that could result in 
missions outside of Iraq and Afghanistan. We need absolute 
clarity and assurances that these funds will not and cannot be 
used to export war to get into another country.
    Mr. Chairman, our forefathers would have scorned such 
arrogance as has been demonstrated by this administration and 
this request. Let me call to your attention, it shouldn't have 
to be done but I think it should be done, here is the 
Constitution of the United States. I hold it in my hand. 
Section 9, let me call it to the attention of the messengers of 
this administration: No money shall be drawn from the Treasury 
but in consequence of appropriations made by law and a regular 
statement and account of the receipts and expenditures of all 
public monies shall be published from time to time. 
Appropriations made by law.
    Let me read where that comes from. That comes from Section 
1, Article 1, all legislative powers herein granted shall be 
vested in a Congress of the United States, which shall consist 
of a Senate and House of Representatives. God bless the 
Constitution of the United States. God bless the Constitution 
of the United States. I call this to the attention of my 
colleagues. Let us keep in mind this Constitution. Let us keep 
in mind this Constitution and let us adhere to it. Let us 
remember that we swore under oath to uphold this Constitution, 
and when we appropriate these monies, Mr. Secretary, we're 
going to keep in mind this Constitution and we're going to put 
limitations on this appropriation, and it's not going to be in 
this appropriation when we appropriate it.
    The President is not going to be able to take these monies 
from one account to another as he has requested through you. 
No, we're not going to allow him to do that. No, the people 
still reign in this country of ours, the people still reign, 
and this Constitution guarantees that. I'm going to support 
this $25 billion, but we're going to put limitations on it. 
We're supposed to do that, because we're sworn to protect the 
people's money. Remember that great Roman Senator who said, 
there is no fortress so strong that money cannot take it.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator. Senator Dole.
    Senator Dole. Senator Warner, I want to thank you for your 
tireless efforts in support of our military and I certainly 
want to thank our witnesses. I applaud your efforts in 
protecting our country through your respective positions, and I 
appreciate your willingness today to facilitate a discussion of 
the importance of seeing this war through to its completion.
    Thousands of men and women from my home State of North 
Carolina have proudly gone to serve in Iraq. While some have 
come home, many more remain in theater fighting for the safety 
of our world and the freedom of millions, and sadly some will 
never come home. The 25-year-old lieutenant whose first child 
was just born, the 33-year-old sergeant who can no longer 
support his five children, the 19-year-old private who leaves 
behind an 18-year-old widow, and the four guards from 
Blackwater whose families will be forever haunted by the 
horrific images of their deaths.
    I am proud of our men and women who are risking their lives 
in the name of freedom, and in the last few months the 
operation in Iraq has proven to be, as we all know, much more 
dangerous and grinding than some had expected. Adequate 
resources are essential to providing security and allowing our 
troops to complete their assignments in Iraq, and these must be 
our first priority. We must stay focused on what is most 
important, providing whatever funding is necessary to move 
forward.
    General Pace, this committee, as is clear today, has been 
closely monitoring the supply of up-armored HMMWVs, protective 
vests, personnel communications systems, and other equipment 
vital to the safety of our individual servicemembers. Does this 
supplemental fund your strategic lift needs for the remainder 
of this calendar year?
    General Pace. Senator, to my knowledge, this supplemental 
that takes effect October 1 does not fund this fiscal year's 
strategic needs. I believe this fiscal year's strategic needs 
are already taken care of in the monies you've already 
allocated. But we do have sufficient funding in the current 
budget to do the transfer of troops that is ongoing as we 
speak.
    Senator Dole. Secretary Wolfowitz, DOD contractors and 
private business representatives are critical to the rebuilding 
effort, of course, in Iraq. Terrorists have shifted their focus 
and are targeting these unarmed civilians. Again, I just want 
to be assured that we do have funds that will increase security 
for these Americans.
    Secretary Wolfowitz. That's certainly one of the possible 
requirements in our operations that is critical. I would also 
emphasize I think it's a reason why, as I emphasized in my 
opening statement, that we put Iraqis forward as much as 
possible to do the rebuilding of their own country. It is their 
country. If someone's going to be targeted, they're the ones 
appropriately who should. But I also think that as Iraqis 
they're much less likely to be targeted. We're working very 
closely with our division commanders to make sure that they, 
the contractors and the very brave civilians that work for U.S. 
Agency for International Development (USAID) and other agencies 
are working together so that this effort can go forward safely.
    Senator Dole. Now, I understand that the Army has shifted 
resources to provide tighter protection along the lengths of 
food and supply convoys. Has that left other areas like oil 
fields, pipelines, and weapons caches, more vulnerable?
    General Pace. Ma'am, one of the reasons that General 
Abizaid asked to retain 19,000 more troops that he needed, 
which basically is an additional division plus their support, 
was to in fact cover the kinds of additional security 
requirements you're talking about. Part of the ongoing support 
for pipelines and the like is underneath the auspices of the 
Iraqi Minister of Interior and the troops that he has in his 
security forces. We work in combination with them.
    Senator Dole. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator Dole. Now, 
Mr. Dayton, you've exercised great patience. Please proceed.
    Senator Dayton. Thank you, Mr. Chairman. Thank you for your 
wise guidance of our committee today, and thank you, Senator 
Byrd, for all the incredible education I've received from you 
about the Constitution and its true meaning to our country. 
Your service on behalf of that Constitution has been 
extraordinary, sir, both of yours, I thank you both.
    Last spring, we approved a $75.5 billion supplemental and 
then last fall a $87.5 billion supplemental for a total of $163 
billion. Next year, fiscal year, starting in 5 months, we have, 
as others have pointed out, not received a formal request, and 
I gather that this today does not constitute such. Rather, it's 
what is called a contingent emergency reserve fund.
    I'm going to support it, but I'm very concerned about doing 
so before receiving any accounting as to how the $163 billion 
that has been appropriated in the previous two supplementals 
has been spent or is being spent now. I'd like to ask that this 
committee receive that, not dollar for dollar but in the basic 
categories, and I would ask for that by close of business 
Friday, because I'd like to have it before we take it up next 
week.
    As I recall, the last supplemental provided $15 billion for 
reconstruction costs of Iraq. I've read some reports that that 
money has not been expended. I saw in the last monthly report 
in terms of the status in Iraq that to date, I believe it was 
through April, Iraq's oil revenues are $5.4 billion. I'd be 
interested to know if that is meeting, falling short, or 
exceeding your expectations, and at what point will those funds 
become available for use in Iraq's own reconstruction.
    As I recall, the last supplemental provided $5 billion for 
security force training. I'd like to know if that's been fully 
expended. I believe there was a certain amount, I don't recall 
the amount, provided to extend, or provide unemployment 
benefits to some 1.8 million Iraqis, which is more than we've 
been able to get out of the Senate this week for American 
workers. So I'd like to know to what extent financial aid to 
Iraqis not currently employed is still being expended.
    Also, Mr. Kaplan, if you could update the figure that you 
provided us today. If I heard you correctly, the monthly 
expenditure approximating $4 billion, I believe is a figure 
that preceded the retention of the additional 20,000 troops and 
some of the other intensified activities. I would appreciate 
receiving a current fix on what is being expended on a monthly 
basis, say last month, this month, and expected for next month 
either now or in writing.
    My first concern regarding this request is without having 
received, I believe, any kind of accounting. Maybe the 
Appropriations Committee has, but certainly this committee, 
this Senator has not seen accounting for $163 billion that has 
been provided literally in the last 12 months.
    Then I'm also concerned about approving something when we 
don't know what plan it is that we're forward funding. I heard 
a quote this morning attributed by Fox News--to Secretary 
Rumsfeld, ``there is a very real possibility that we may not 
succeed in Iraq and we've got to realize that now. These 
pictures could have done immeasurable harm. The alleged acts of 
these soldiers could have made the difference.''
    I don't know what the context was for that statement, I 
don't know if that reflects any shift in the administration's 
thinking or planning for what our purposes in continuing to 
keep the force level that's been described in Iraq. But I would 
like, Mr. Chairman, to ask if, not in this hearing--and again I 
expect this supplemental will be approved, so it wouldn't be in 
time for that decision next week in the full Senate--that this 
committee devote a hearing either in open or closed session to 
what is the plan for the operation in Iraq, what are the 
objectives, military and diplomatic, and what is the time table 
for realizing those goals so that we know what it is we're 
buying into here.
    Chairman Warner. I assure you that the ranking member, 
Senator Levin, and I are reviewing options to do just that 
shortly after we get back from the recess period. Could you 
further define the origin of that quote?
    Senator Dayton. It was approximately 8:30 a.m. on Fox News.
    Chairman Warner. Was this attributed to him or was he on 
Fox News himself?
    Senator Dayton. There was footage of him. It was attributed 
to him. The commentator or the anchor person was E.D. Hill, and 
the quote was attributed to Secretary Rumsfeld. I wrote it down 
carefully, in fact, because I was on the program, I had my 
staff video it so I get a chance to get it over again.
    Chairman Warner. So you have it on tape then?
    Senator Dayton. I have it on tape. What she said, what she 
attributed to him.
    Chairman Warner. That transcript should be available and 
we'll ask staff to immediately get that transcript. I thank the 
Senator.
    Senator Dayton. I'd be open to any comments.
    Secretary Wolfowitz. On that last point, I don't know what 
was said or the context. I do know that in the hearing before 
the Appropriations Committee yesterday, the Secretary was asked 
in a question by an individual who felt that the situation was 
a--I don't remember the exact context--but what the Secretary's 
response was, ``I understand an individual feels that way, I 
can understand that, we all go through strong emotions when 
something like this Abu Ghraib thing occurs. We see it and 
we're shocked and we're stunned and we're disgusted and we know 
in our hearts we're better than that. I know it doesn't 
represent our country, that isn't American.''
    Then he went on to say that ``the conclusion that that 
young person came to that we're at the beginning of the end, I 
submit, will prove to be wrong, and the good Lord willing I'll 
be right, and his understandable concern and comment and 
emotional reaction I hope and pray will be wrong.''
    I don't know the context of the other quote, but I 
certainly think, and the Secretary believes, in spite of some 
difficulties in the last few months and a real body blow from 
this prisoner abuse, that we are succeeding and this is 
something that we can win and is very important to win, and 
that's why I addressed those issues in my opening statement.
    We will give you the full accounting that you've asked for. 
I would note on the reconstruction numbers, they keep growing, 
so they tend to change on a daily basis. The numbers that I 
have as of a few days ago are that nearly $11 billion of the 
$18.4 billion has been apportioned. I notified Congress as to 
the provisions, and I think it's section 2207. Of that, $6.6 
billion has been committed against specific projects and $3.1 
billion has been obligated.
    That's by no means the total of reconstruction work that's 
going on in Iraq, and if you will permit me, the fact is that 
this was done more or less overnight by CPA and they'd like 
more time to be sure the numbers are accurate. Let me just say 
in round numbers, over $5 billion of Iraqi funds have been 
budgeted from July of last year to the end of this year for 
reconstruction, and of that, nearly $3 billion of Iraqi funds 
have been obligated or expended.
    So there is a lot going on. We don't want that $18 billion 
to go out the door overnight. It wouldn't be prudent and it 
would diminish our ability to manage with that over the coming 
couple of years. So I think it's moving at a reasonable pace.
    Senator Dayton. I just want to conclude by saying I think 
we have succeeded in very important respects. Our military won 
a tremendous victory in 3 weeks last year from the border to 
taking over Baghdad and toppling the Saddam Hussein regime, 
which was one stated goal. We determined that there are no 
weapons of mass destruction (WMD) there that threatened our 
national security. This June 30, we are turning over the reins 
of government in the initial phase to a successor Iraqi 
Government, so I think we should recognize and be very proud of 
our military and proud of what has been accomplished.
    I just want to know what it is that our objectives are and 
I'm glad the Secretary is, if he is reassessing, or assessing 
anyway, based on current realities, what the time table is 
going to be. We're talking about 134,000 troops into the year 
2006, what their role is going to be, and what the role of a 
couple hundred thousand Iraqis that have been equipped to train 
now. They should be taking over responsibility.
    I don't have time to get into what's happening in Fallujah, 
but I know that General Conway has ceded some authority there. 
The volatile situation is not in the news. Well, it sure is 
volatile, but at least it's not exploding currently. I don't 
know what the assessment is of that success, but that seems to 
me to augur what ought to be the goal to get the Iraqis 
responsible for walking the streets and policing their own 
communities and enforcing law and order rather than our troops.
    I hope we can have time to devote to that in the near 
future. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much. If my colleagues 
would indulge me a minute, I've just been handed a press 
report, New York Daily News, today. It's titled, ``Rumsfeld Has 
Doubts.'' But as I read through it, his quotes, which I'll 
read, are very cryptic, and I think he's addressing the 
turnover of authority on June 30.
    Rumsfeld said the prison abuse scandal had delivered, ``a 
body blow to the nation building effort in Iraq that has cost 
the lives of more than 770 U.S. troops. Will it happen right on 
time? I think so. I hope so. Will it be perfect? No. Is it 
possible it won't work? Yes.'' In the overall war on terror, 
Rumsfeld said the U.S. is making progress in Afghanistan, but, 
``I look at Iraq and all I can say is, I hope it comes out well 
and I believe it will and we're going to keep at it.''
    I think it expresses his resolve, but a pragmatic 
observation of the events that we've see in the last 30 or so 
days. Thank you very much.
    Senator Dayton. Thank you very much, Mr. Chairman.
    Chairman Warner. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman, and I would just 
add that I hope those remarks and decapitation of the American 
recently there will cause Iraqi leaders to realize they have to 
step up, that it's time for them to lead in Iraq.
    Mr. Chairman, or Mr. Secretary, as I understand this 
situation, we have a number of accounts with money in it, some 
with some extra money in it, some with some monies, and some 
accounts that may be running low. I don't think we can afford 
this item because that account is running low and we have a 
soldier lost because we didn't have the money necessary to give 
to him, because they have certain responsibilities not to let 
the account run over. I don't want them to get panicky and say, 
make those kind of decisions. Is that part of your concern?
    Secretary Wolfowitz. It's exactly our concern, Senator 
Sessions, and I would add we also don't want them to say, well, 
we have money, but it's in the wrong account and it's going to 
take a month to reallocate it. We don't want them to say, well, 
we have a lot of money for tank ammunition, but we don't have 
any money to give you body armor, and radios for the Iraqi 
police whom you're trying to equip. That was a problem last 
fall and, as I said in my opening statement, I appreciate the 
flexibility this committee is trying to get us in the next 
fiscal year. But flexibility is very important, not just the 
total amounts that you have, but the ability to meet an 
emergency need when it arises.
    So exactly in the spirit of Senator Collins' comment 
earlier, we want to work with Congress to make sure Congress 
has the right degree of oversight and the troops have the right 
degree of flexibility.
    Senator Sessions. I felt strongly that this was really an 
unacceptable event when we had this bureaucratic problem with 
getting money to the security forces in Iraq who are critical, 
I believe, to the stability and success there. Has that been 
solved to date? Also, will this money allow commanders and 
General Petraeus, who is going there to deal with this specific 
problem, to bring that force up to the highest level?
    Secretary Wolfowitz. In terms of total quantity of money, 
yes. In terms of flexibility, largely, since the supplemental 
money is now flowing. There is one issue which I think is more 
in the area of the Appropriations Committees with respect to 
the authorities for which certain funds can be used, and we 
want to make sure that we have the right understanding on the 
flexibility there.
    Senator Sessions. I'll ask General Pace, are you confident 
that we can get the funds necessary to bring the Iraqi security 
forces up to their highest possible level under the current 
circumstances with this supplemental or this account that 
you're requesting? Will this help in that area also?
    General Pace. Sir, it will help in that area, and it has 
been pointed out, there has been in the past understandable 
problems with allocation of dollars on the battlefield for 
hiring Iraqi military, Iraqi police, and local civilians to do 
work by the commanders on the battlefield. We should be 
accountable for every single dollar you've given us and every 
dollar you may give us. That goes absolutely unquestioned.
    Secretary Wolfowitz. Senator Sessions, I do want to add, we 
did request $500 million in authority, nonfunding authority, to 
use accounts for training and equipping Iraqi security forces 
and I believe this committee reduced that to $150 million, and 
I would encourage any effort that could be made to raise that 
ceiling.
    Senator Sessions. I have been concerned about that, since I 
went there in August of last year. I visited with the local 
security forces and they will tell the tale. Their success, and 
lack of it, will make the key difference here.
    Just with regard to the philosophy of where we are, I have 
felt that a supplemental is all right for this effort. In fact, 
I think it allows us to separate the costs of the war from the 
cost of operating the DOD. I've not agreed with Senator Levin, 
although he brilliantly raised the question earlier today, on 
the fundamental idea that it's appropriate to fund an 
extraordinary military effort by a separate account. I think it 
leaves Congress in a better position to watch it.
    Now, I tend to agree with the others, however, that this 
lacks a transparency that we'd like to have and we feel like we 
need to have, so I'm glad that you are willing to look at it 
and help us get some more transparency and oversight.
    General Pace, we've increased the DOD funding, but not 
greatly. As Senator Inhofe said, as a percentage of the GDP of 
this country, we're less than we were probably in the 1990s, 
certainly in the 1980s, or early 1990s, late 1980s. I'd like to 
know that the supplementals that are going to Iraq and 
Afghanistan are not being used to fulfill some DOD wish list on 
the theory that whatever you need for this war you're going to 
get, so as much as you can stack in there to fill other needs 
would be a temptation, I would think. Are you watching that?
    General Pace. Sir, we are watching that, and we should 
watch that and we should be accountable to you for that. You 
have my commitment to ensure that the money you allocate for us 
to use in Afghanistan and in Iraq is used properly in both 
those countries.
    Senator Sessions. We voted by better than three-fourths in 
this Congress and the American people have supported sending 
our soldiers there. We have an absolute obligation to support 
them completely. We committed them. They are performing 
exceedingly well under very dangerous conditions. Many of them 
this very moment are in dangerous conditions, perhaps executing 
the policies of this Congress, so we need to support them.
    I thank you for your answer and thank you, Mr. Chairman.
    Chairman Warner. Senator, thank you very much. Senator 
Akaka has not come yet, has he? All right.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman. Senator Byrd, 
thank you for reminding us of the Constitution. It's not 
honoring the Constitution when we relinquish our constitutional 
authority without requiring the specificity. I want to give a 
couple of examples. We've now gotten into a routine where we 
pass an appropriations bill and then shortly thereafter we pass 
a supplemental appropriations bill. It happened just last year. 
We passed the appropriations bill in October, or in September, 
and low and behold, 1 month later, we pass a supplemental 
appropriations bill. Now, that's not a way to run a railroad.
    We have the administration's request coming to us earlier 
this year in the Budget Committee, and they do not request in 
their budget request any of the money for the operations in 
Afghanistan and Iraq. That's not a way to run a railroad. 
That's not a way for us to exercise our constitutional 
authority as the appropriators.
    I think you all have gotten the message here today that we 
need some specificity. For example, last year in the 
supplemental, I put in a $10 million little item which was for 
family readiness in the National Guard. That was in October of 
last year that it was passed and it has yet to obligated by the 
DOD. That was to help the family members since the National 
Guard members were being extended on duty.
    Since the DOD is relying so heavily on the Guard and 
Reserves these days, it's going to be necessary to refit the 
National Guard and the Reserves when they are then going to be 
returned to Iraq. So a logical question for me that you all 
can't answer today is, how much is in this $25 billion request 
to reset the Guard and the Reserves so that we know that they 
are prepared? It's not here, you don't have that information. 
Ultimately what's going to have to be done is we're not going 
to have 105,000 or 130,000, but I think we're going to have to 
go to 150,000 troops.
    I think sooner or later that the world community is going 
to be convened and some kind of consensus is going to come and 
the North Atlantic Treaty Organization (NATO) is going to be 
asked to come in, led by the U.S. To stabilize Iraq for the 
long term is going to take some 150,000 troops, so we're going 
to have more expenditures, which I'm willing to support, but I 
need to know the specificity so that I know what I'm doing, and 
as Senator Byrd has so eloquently pointed out, that I am 
fulfilling the oath that I took to uphold the Constitution. I 
think this is kind of the message that you all are clearly 
getting today.
    On the prisoner abuse issue, I would just say this in 
passing, that one of the photographs that struck me the most 
was the one that had already been printed in the newspaper, 
which was of the cell block where the bodies were clumped 
together naked and, in this particular photograph, it looked 
like that they were shackled together.
    What was instructive about the photograph that we saw in 
the newspaper was that it seemed that the troops there were 
just going on about their normal business. In the photograph 
that we saw that was not tightly cropped like it was in the 
newspaper, we could see other troops there. Senator Clinton and 
I counted seven or eight troops, as if this was business as 
usual. Now, you can't tell me that seven or eight Army privates 
are going to be responsible for this and that it is our 
responsibility, indeed, it's your responsibility, to go up that 
chain of command and to find out how these troops were ordered 
to do what they were doing.
    I personally think that it's not going to lead to General 
Miller. I think he went over and made a recommendation on what 
he saw happen in Guantanamo. I think clearly it's not going to 
lead to General Sanchez, because in the report that I've seen 
and the time line, he clearly started the inquiry immediately 
after he was notified. But we need to know where this goes, Mr. 
Secretary. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator. Thank you very much 
for your observations on this question. We will now turn to 
Senator Reed.
    Senator Reed. Thank you, Mr. Chairman, and I understand 
that your original guidance has been withdrawn.
    Chairman Warner. The Senator is correct, for reasons which 
I stated clearly.
    Senator Reed. So I will pose the following question. 
General Pace, if you were shown a video of a United States 
marine or an American citizen in the control of a foreign power 
in a cell block naked with a bag over their head, squatting 
with their arms uplifted for 45 minutes, would you describe 
this as a good interrogation technique or a violation of the 
Geneva Conventions?
    General Pace. I would describe it as a violation, sir.
    Senator Reed. Would your conclusion be different if it was 
ordered by a high-ranking officer of that foreign power?
    General Pace. No, sir.
    Senator Reed. As I read General Sanchez's guidance, 
precisely that behavior could have been employed in Iraq. Let 
me ask, since you said in respect to this supplemental 
appropriation, your responsibility, and I respect it, is to 
absorb all the details and all the data from the theater of 
operations and make recommendations and decisions.
    Did the Joint Staff review General Sanchez's 
recommendations and his interrogation rules?
    General Pace. Sir, I'm not aware--what recommendations?
    Senator Reed. The rules that we were shown by General 
Alexander and others, which would allow, with his permission, 
keeping someone in a squatting position and presumably naked 
with their arms up for 45 minutes. Did you review any of those 
rules or standard operating procedures which General Sanchez 
approved?
    General Pace. Sir, I did not personally see them and I do 
not know to what level they were visible or reviewed.
    Chairman Warner. Senator, that's an important question. I 
think the witness should be given a full opportunity to answer 
that promptly for the record. I think we should also provide 
him with the document that was utilized by this committee and 
the Intelligence Committee yesterday to which you refer.
    General Pace. Yes, Mr. Chairman, I concur.
    Senator Reed. Were there any discussions of these 
interrogation techniques by the Joint Staff since General 
Sanchez is commanding a joint operation?
    General Pace. Senator, the only discussions of which I am 
aware with regard to interrogation techniques and procedures 
had to do with our operations in Guantanamo. I am not 
personally aware of any discussions beyond the theater of the 
interrogation techniques in Iraq.
    Senator Reed. Mr. Secretary, are you aware of any 
discussions about these interrogation techniques and General 
Sanchez's order?
    Secretary Wolfowitz. I'm not aware, no. I am aware of 
discussions about Guantanamo, and I can tell you that what I'm 
aware of, those certainly would not have been remotely 
permitted in Guantanamo.
    Senator Reed. I've just heard General Pace say that the 
behavior that General Sanchez authorized, subject to his order, 
is a violation of the Geneva Convention. That was unvetted by 
the senior members, civilian members of the DOD, no discussion, 
no suggestion to General Sanchez that he could pursue this 
either in writing or verbally?
    Secretary Wolfowitz. Senator Reed, as I said earlier, 
there's an enormous amount of detail involved in this 
investigation. You're talking about things that General Pace 
and I have not seen and don't think are in a position to fairly 
comment upon. We will answer you for the record. You've heard 
hours of testimony and, including closed testimony, from people 
who are digging into this subject in great detail and great 
depth at the Secretary's instruction. His instruction to the 
two of us is to make sure that while that work is going on, 
that the other business of the DOD is being attended to.
    Mr. Chairman, I'll be happy to understand for the record 
what this question refers to and give you a clear and honest 
answer, and I know General Pace will also.
    Senator Reed. Mr. Secretary, we've heard hours of 
responses, but until General Pace's response, I haven't heard 
anything as candid and as forthright, frankly. What I've heard 
from you is dissembling and avoidance of answers, and lack of 
knowledge, pleading legal process.
    Secretary Wolfowitz. I'm not dissembling, Senator Reed. I 
have General Pace's same reaction. What you've described to me 
sounds to me like a violation of the Geneva Convention. It's 
the first time I've heard that it was in General Sanchez's 
direction and I believe it's the first time General Pace has 
heard that it was General Sanchez's direction.
    Senator Reed. I would suggest, Mr. Secretary, that you're 
not doing your job then. These were the orders issued to a 
joint intelligence operation in that prison presented to us in 
a hearing yesterday by a representative of the DOD as the 
standard procedures that could be followed.
    Chairman Warner. Senator, let me interrupt here just for a 
moment. In preparing for this hearing, I talked at length with 
the Deputy, expressing the absolute essential need that he and 
the Vice Chairman come up today. He told me very candidly that 
for the past week or so he has had to focus on the daily 
operations of the DOD, and such questions that might be put to 
him regarding the prisoner situation in Iraq, he said, Senator 
Warner, I simply haven't had the opportunity to keep the pace 
of all the work that the Secretary of Defense and the chairman 
are doing on this question.
    So I'd like to say in fairness to our two witnesses today, 
to me they were very forthcoming about their working on these 
budget issues at the same time the Secretary is working on the 
other issues. They may not be able to fully respond to 
questions today, and I think he's honestly said that.
    Senator Reed. Mr. Chairman, I respect immensely your 
leadership of this committee.
    Chairman Warner. Let's just let the Senator finish. Thank 
you.
    Senator Levin. I wonder if Senator Reed will yield on this 
issue just for 1 minute.
    Senator Reed. I will yield.
    Senator Levin. If you haven't seen these rules, they were 
at a public hearing before this committee, and were presented 
by General Alexander. You ought to see them. Maybe could we 
have somebody take them out to them? If you folks don't know 
about what happened in open session on this issue, there's a 
problem. This goes to the heart of the issue.
    Here's what he said on the interrogation rules of 
engagement. We brought with us the rules--that's what's coming 
down to you right now--of engagement that were in effect at the 
Combined Joint Task Force 7 in Iraq prior to October 2003. 
These rules are in compliance with the Geneva Convention, he 
says, and I think as Senator Reed has just pointed out, if you 
look at those rules there--stress positions up to 45 minutes, 
that's what I assume Senator Reed is referring to, directly 
stem from the interrogation manual. These are the rules that 
interrogation soldiers are trained on, and what you were asked 
about were those rules right there. If that's a stress 
position, which I agree with Senator Reed about, I think he 
said 40 minutes is a violation of the Geneva Convention. It 
pretty clearly seems to me, the fact that a commanding general 
(CG) approves it, as you'll see in that right hand column where 
it says CG approval, does not eliminate the violation of the 
Geneva Convention.
    So those are the rules, but Secretary Wolfowitz, this was 
in public session in front of this committee here, and it just 
amazes me that you're not familiar with something that goes to 
the heart of the issue of the Iraq interrogation.
    I have to point out one more thing, and I'm taking too much 
of Senator Reed's time. Perhaps the chairman would allow this 
not to be counted against his time. But take a look at the 
title. Have you ever seen a title about rules of engagement 
relative to interrogation? Rules of engagement relative to 
interrogation. General, have you ever seen that description 
before?
    General Pace. Not those words, no, sir.
    Senator Levin. Rules of engagement have to do with the use 
of force. The title of that document seems to me to 
dramatically say it all. That was approved. Secretary 
Wolfowitz, you're saying you don't know or you've never seen 
that document before? That's a formal document.
    Chairman Warner. But it came out of Central Command.
    Senator Levin. I know. I'm just asking. I want to make sure 
and I'll go back, because it seems to me this dramatizes the 
failure of leadership here. It goes into a lot more than just 
the six enlisted personnel, as Senator Nelson said. Those are 
rules of engagement for confronting detainees, using the very 
term which is not supposed to be used against detainees?
    Secretary Wolfowitz, you're not familiar with that document 
at all?
    Secretary Wolfowitz. I saw this document for the first time 
this morning. It seems to me, but I don't know, and this is why 
I'm very reluctant to start commenting, that what Senator Reed 
described is something that goes quite beyond what is permitted 
here.
    Senator Levin. No, no, look at the two dots, those two 
dots, stress up to 45 minutes.
    Secretary Wolfowitz. No, Senator Reed described something 
that went quite a lot beyond just stress positions.
    Senator Levin. Okay, I'm sorry.
    Secretary Wolfowitz. Let me say, it says here, detainees 
will never be touched in a malicious or unwanted manner, and 
approaches must always be humane and lawful. I don't think that 
what Senator Reed described is either humane or lawful.
    Senator Reed. Mr. Secretary, do you think crouching naked 
for 45 minutes is humane?
    Secretary Wolfowitz. Not naked, absolutely not.
    Senator Reed. So if he's dressed up, that's fine, but this 
also has other environmental manipulation. Let me put it this 
way, 72 hours without regular sleep, sensory deprivation, which 
would be a bag over your head for 72 hours. Do you think that's 
humane? That's what this says, a bag over your head for 72 
hours. Is that humane?
    Secretary Wolfowitz. Let me come back to what you said the 
work of the Department----
    Senator Reed. No. Answer the question, Mr. Secretary. Is 
that humane?
    Secretary Wolfowitz. I don't know whether it means a bag 
over your head for 72 hours, Senator, I don't know.
    Senator Reed. Mr. Secretary, you're dissembling, and 
nonresponsive. Anybody would say putting a bag over someone's 
head for 72 hours, which is----
    Secretary Wolfowitz. I believe it's not humane, it strikes 
me as not humane, Senator.
    Senator Reed. Thank you very much, Mr. Secretary. Thank 
you, Mr. Chairman.
    Chairman Warner. Thank you very much, and again, as I 
pointed out, it was made clear to the chair that these 
witnesses for the past week or 10 days have been heavily 
engaged in the daily operations of the DOD. I can understand in 
a situation of this magnitude how the Secretary needs to 
allocate responsibilities among his principal subordinates.
    So we'll continue now and we have our wonderful and 
patient----
    Secretary Wolfowitz. Mr. Chairman, if I might point out, 
the reason we know so much about this is because since we first 
understood back in January there was a problem, DOD has 
undertaken extensive investigations. That's where this 
information comes from, and one of my problems is that I don't 
know what some of these words mean. If they mean what Senator 
Reed says, then I can tell you, I think it's not humane. I 
don't know what the words mean on the piece of paper.
    Chairman Warner. I think, Mr. Secretary, you and General 
Pace have done your very best to be responsive to the 
questions. I do not detect any evasiveness. To the extent of 
your knowledge, you've spoken out forthrightly.
    The Senator from New York.
    Senator Clinton. Thank you, Mr. Chairman. Before I get to 
my questions, I just want to clarify that this entire committee 
has been supportive of the DOD and particularly of our men and 
women in uniform and the questioning and even the contentious 
nature of our concerns should not in any way be taken as an 
indication of any lessening of that support.
    We are properly focused on the behavior that has been 
brought to our attention because it is an issue that must be 
investigated, not only because the actions of a few should not 
be permitted to besmirch the honorable service of all of our 
men and women in uniform, but also because we are a Nation that 
abides by the rule of law, and we are a Nation that understands 
not only the necessity of adherence to our Constitution, but 
that due process is one of the great inventions of Western 
civilization.
    These issues go to the real heart of the use of power. An 
occupying army by its very nature is in a powerful and dominant 
position. We deplore the barbaric conduct of those who murdered 
Mr. Berg. We deplore the extraordinary cruelty that they have 
evidenced with respect to our civilians and military personnel. 
But we are not them.
    It is not just in the nature of ensuring that our conduct 
is held to a higher standard, but that we safeguard the rule of 
law. I have to say, Mr. Secretary, you come before this 
committee with respect to this budget request, in my view, 
having seriously undermined your credibility over a number of 
years now. When it comes to making estimates or predictions 
about what will occur in Iraq and what will be the costs in 
lives and money that the people in the United States, 
particularly our young men and women in uniform will bear, you 
have made numerous predictions time and time again that have 
turned out to be untrue and were based on faulty assumptions.
    For example, in March 2003, you said, ``there's a lot of 
money to pay for this reconstruction. It doesn't have to be 
U.S. taxpayer money. We are dealing with a country that can 
really finance its own reconstruction and relatively soon.'' 
Again, another quote, ``the Iraqi people understand what this 
crisis is about, like the people of France in the 1940s, they 
view us as their hope for liberator.''
    I want to commend General Pace for his candor today. It 
reminds me very clearly of another United States officer who 
served honorably, General Shinseki, who before this committee 
told us, based on his best judgment and experience, that it 
would take several hundred thousand American troops. In 
response to that prediction, you said, ``the notion that it 
would take several hundred thousand American troops just seems 
outlandish.''
    Now, Mr. Secretary, the challenge we face in dealing with 
this request is one that has increasingly caused concern on 
both sides of the aisle. The competence and credibility of the 
leadership team on the civilian side in the DOD has certainly 
been called into question for good reason. So when you come 
before us and ask for a $25 billion blank check, which indeed 
is what it is, that raises questions among my colleagues on 
this committee and throughout the Senate, but it for me goes 
beyond just the issue of this particular request.
    It reminds me very much of what happened according to Bob 
Woodward's book, Plan of Attack, when President Bush 
acknowledged that months before Congress voted an Iraqi war 
resolution in October 2002, he approved 30 projects in Kuwait 
that helped set the stage for war with no real knowledge or 
involvement of Congress. Now, I know in all the explanations 
we've heard about how it wasn't really this and it was 
contingent that. It did not come out of any account however 
that Congress appropriated for the purposes for which the money 
was unintended.
    Secretary Wolfowitz, several weeks ago Secretary Rumsfeld 
said in response to a question, if you had said to me a year 
ago, describe the situation you'll be in today one year later, 
I don't know many people who would have described it the way it 
is today. I would not have described it the way it happens to 
be today. I certainly would not have estimated that we would 
have had the number of individuals lost that we have lost in 
the last week.
    Mr. Secretary, there have been many veteran members of this 
committee and elsewhere in Congress who have repeatedly urged 
the administration to increase troop strength. There have been 
a number of our military leaders who have made the same 
argument. That has been resisted time and time again. I think 
it is appropriate that you have accepted the suggestion made by 
Senator Collins, and I hope you take it to heart. The United 
States Congress is a full and equal party in our government. 
That is the way it was set up, that is the way it has worked 
very well, and that is the way it should continue to work. No 
matter how strongly anyone in the administration feels about 
this mission, that cannot be an excuse for undermining the 
time-proven method of our doing business in this Congress.
    I, for one, will join my colleagues in supporting the money 
that is needed, but I will not do it without further 
specificity and without a greater understanding of where we are 
headed. I look forward to the further consultations that the 
chairman has suggested will be held. If we're going to be 
responsible for sending along with you these young men and 
women to Iraq, Afghanistan, and elsewhere, then we should 
accept the full responsibility for what that entails, and that 
means working with you as a co-equal branch of government. 
Thank you.
    Secretary Wolfowitz. Senator Clinton, I can't respond to 
everything you just said, but I would like, Mr. Chairman, to 
just comment on this issue about troop strengths. You leave the 
impression that this is a civilian decision and by quoting 
General Shinseki that the military has a different view. The 
reason I said what I said some time ago was because in fact 
General Shinseki's estimate was very different from the 
combatant commander, General Franks. In fact I had a discussion 
in a previous conflict in Afghanistan with General Franks 
pressing him on the question of whether or not more troops were 
needed and he was quite insistent that he not only didn't need 
them, he didn't want them.
    I believe in hindsight that General Franks was absolutely 
right, and that he was right to hold down our troop levels in 
Afghanistan. We've had many discussions back and forth between 
the civilian leadership, the military leadership back here and 
our combatant commanders in the field about troop levels, and 
about whether you can leave the Shia heartland to a coalition 
division or if you need American troops. There is not a 
military view and a civilian view, as you try to suggest. There 
has been a unified view and an attempt to realistically 
estimate what we need.
    It is a mistake, it is a serious mistake, to put in more 
troops than you need. As General Abizaid would say, it 
increases the hostility toward us as on occupying power, and of 
course it exposes us to more casualties. Equally it's a mistake 
to put in too few troops, and when we needed more troops 
because the situation in Najaf and Karbala in particular had 
grown into something that that multinational division couldn't 
handle, we kept the 1st Armor Division to deal with the job.
    We're trying to get the numbers right. We are working 
closely with military and civilian. It's what General Franks in 
a long and eloquent presentation to a combatant commanders 
conference called iterative planning. It's a constant back and 
forth. There is no ignoring of military advice, I can assure 
you of that.
    Chairman Warner. We note the vote is on. We're very late. 
We will return as quickly as possible. [Recess.]
    Senator Sessions [presiding]. All right. Senator Warner 
asked that I chair the remainder of the hearing or until he 
returns. I hope he does because he's such a great presider and 
it's a pleasure and an honor to work with him. Next is Senator 
Talent. I would note that we had indicated to the panel that 
you had some things that had to be done and 12:30 was when we 
were trying to finish up. We're past that. Thank you for 
staying past that time and I recognize Senator Talent.
    Senator Talent. There could hardly be anybody else next, 
Mr. Chairman, nobody else being here.
    Senator Sessions. There may be. You never know.
    Senator Talent. I appreciate your sticking around, and I 
came back because I had a few things I wanted to say that 
actually differ somewhat from some of the sentiments my 
colleagues have expressed. First of all, a lot of people have 
said this appropriately, we're grateful for your being here and 
answering these tough questions. I'm grateful for your service 
on behalf of a very noble cause, and one that I share and 
believe in very much.
    Let me phrase it this way to you. If I had been drawing up 
this supplemental and I'd been in your shoes, I'd have had some 
concerns about how it was going to go over on the Hill and how 
it was going to be treated. I think I might have said to 
myself, if I ask for a big number, I'm going to be accused of 
asking for more than I need so that I don't have to come back 
very soon and get some more money from Congress and I'm going 
to be criticized for undermining accountability with Congress. 
If I ask for a small number, I could be criticized for not 
saying exactly what it was I really think I'm going to need. If 
I say specifically what I think we're going to need, my best 
guess now as to what we're actually going to spend this money 
on, and I'm probably going to have to change some of that 
later, war being what it is, then I'm going to be accused of 
incompetence and not knowing what I was talking about. But if I 
don't say specifically what I'm going to need for the money, 
then I'm going to be accused of undermining Congress' oversight 
ability by not telling Congress exactly what it is I want.
    I've sat through a lot of these hearings over the years and 
I know, and I think everybody here knows, that there's 
oversight and then there's second-guessing and sometimes it's 
possible that this institution doesn't know the difference. I 
know you had a problem. A war is a messy and difficult thing. 
I've heard a lot here about our oversight responsibilities and 
that's very important. I'm a huge believer in the checks and 
balances in the system.
    The question I ask myself when I consider your request is, 
will it help us win the war? Yes, our oversight 
responsibilities are very important, but more important than 
preserving that is, will giving you this money in this form 
help us win the war? I want you to know, I think it makes some 
sense what you're doing. You're saying, look, we don't know 
what the next 5 or 6 months or 8 or 10 months is going to 
entail exactly. Maybe the transition's going to mean we need to 
train a whole lot more Iraqis or it's going to be a whole lot 
more difficult than it's been. Maybe there will be some 
insurgent leader in some other town besides Fallujah and we're 
going to need more money for that. Maybe we're going to need to 
shift this money here or there.
    I think it makes sense to come in to ask for a relatively 
small number, and to say to us that you're going to report all 
the time to us what you're doing and you're going to have to 
come back pretty quickly and if you don't like what you've done 
with it, you know you're going to hear about it when you come 
back again. I think it's a pretty useful compromise.
    I'll say something else. We're going to end up with some 
compromise version of this, I think, along the lines of what 
Senator Collins had suggested. If you had come in and suggested 
a compromise version, you probably would have ended up being 
told hook, line, and verse exactly what to do. I know it was 
difficult figuring all this out. I think it's going to end up 
that you did a pretty good job, and I'm one Senator on this 
committee who supports the approach that you've taken. Thank 
you, Mr. Chairman.
    Senator Sessions. Thank you, Senator Talent.
    Secretary Wolfowitz. Can I just make one comment apart from 
saying thank you?
    Senator Talent. If you dare, go ahead.
    Secretary Wolfowitz. You've described the needle we're 
trying to thread, but you cited one case, which is we may 
decide we need a lot more Iraqi security forces than we'd 
planned on, and that is the one thing that isn't covered, 
because let me be clear. We have a lot of money for Iraqi 
security forces in the supplemental. We have Iraqi budget money 
that's been applied to Iraqi security forces, over $1 billion. 
I don't know the exact amount, but I'll get it for the record.
    [The information referred to follows:]

    There are two types of funding that have been used in fiscal year 
2004 for Iraqi security forces; the Iraqi Relief and Reconstruction 
Fund Iraq (IRRF) and the Defense Fund Iraq (DFI). The IRRF contains 
$4.281 billion that represents the Department of Defense's funding to 
support security forces. The DFI contains $172 million which has been 
used specifically for security forces.

    If this committee's proposal goes through, we will have 
$150 million for Iraqi security forces that will no longer be 
limited to just the Army. We did ask for $500 million, which 
would give us an extra margin. I must say and I'll say it 
again, we tie our troops' hands when it comes to equipping 
indigenous forces that are fighting with them in a way we 
wouldn't conceive of tying their hands when it comes to 
providing them ammunition. Yet, Iraqi troops in the front lines 
are better than ammunition. They're people dying for their own 
country. More than 300 of them have already died in the line of 
duty. There have been some big disappointments in the last 
couple months, but there were some big successes, especially up 
in Mosul where General Petraeus trained and equipped the Iraqi 
security forces up there.
    So I'll make one more appeal. If this committee would grant 
the President's request in the main budget for $500 million in 
authority rather than $150, we would be very appreciative.
    Senator Talent. I think if all of us would recognize, and 
we do, and I could tell you the respects in which I'm a little 
critical also. I do think you're going to need this money, and 
maybe calling it a contingent is a mistake. This back and forth 
is very important. I think we all have to recognize, sometimes 
you fail to think adequately and sometimes we fail to, that 
there is no way to predict in war with any degree of 
specificity exactly what's going to happen. I'm always worried 
when people ask you for predictions, about what you are going 
to need 6 months from now, because again, if you don't predict, 
then you're accused of not saying what you think, and if you do 
predict, it's probably going to be wrong.
    I think the overall effort on a strategic level is going 
very well. We have the finest people who have ever served in a 
military in the history of mankind, and I think they're pretty 
well led too. Thank you, Mr. Chairman.
    Senator Sessions. Thank you, Senator Talent. Just to get 
this straight, the President has requested in this budget $500 
million for this fiscal year defense bill for training local 
police and security forces?
    Secretary Wolfowitz. Training and equipping security 
forces. We define it somewhat more broadly. This committee 
narrowed it to Iraqi and Afghan security forces.
    Senator Sessions. So if you get that, you'd be able to 
handle that without having to handle this money perhaps.
    Secretary Wolfowitz. No. What I'm saying is we have no 
authority beyond that to dip into this money for Iraqi security 
forces.
    Senator Sessions. All right.
    Secretary Wolfowitz. Or in any other money in our budget. 
We are limited to what's already in the supplemental. Let me 
not be misleading. There's a lot of money in the supplemental, 
but if it's allocated, and sometimes it's tightly allocated and 
we're having some difficult decisions about how much goes to 
the Iraqi army, and how much goes to the civil defense corps. 
Senator Talent referred to the distinct possibility, especially 
if they're successful, that we'll want more Iraqi security 
forces and better equipped Iraqi security forces. The only 
margin we have beyond the considerable money that's already 
budgeted is, because of limitations on authorities, $150 
million. We'd like to raise it to $500 million.
    We have expansive authorities for pretty much everything 
else we do, which is why with consultation and reprogrammings 
and so forth we can move within military accounts. What we 
don't have is the ability to move into this account, which 
people have correctly been concerned that it could be viewed as 
actually doing foreign security assistance by the back door.
    Let me assure you it's not that either. We will not do any 
of that funding without the concurrence of the State 
Department. We've been clear about that and explicit.
    Senator Sessions. Thank you, Mr. Secretary. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman. There was a 
commitment from other countries to contribute towards the 
reconstruction of Iraq, and I'm wondering if you can tell us 
how much money has actually been received.
    Mr. Kaplan. Senator, I don't have those numbers in front of 
me. I know it was included in the most recent quarterly report, 
under section 2207. I'd be happy to take that for the record 
and get you that information.
    Senator Levin. Do you know how many countries made a 
commitment and how many have come through with their 
commitment?
    Mr. Kaplan. Senator, I don't have that number. I am happy 
to respond for the record.
    [The information referred to follows:]
       Implementing Madrid Pledges: Non-U.S. Donor Disbursements
        <bullet> Of the $32 billion in pledges for 2004-2007 at the 
        Madrid Donors' Conference, $13.584 billion was from non-U.S. 
        sources. Of this, $5.55 billion was pledged by the World Bank 
        and IMF in lending programs. The remaining $8.034 billion was 
        from 36 countries and the European Commission.
        <bullet> Now that there is an internationally recognized 
        government in Baghdad, the World Bank and IMF are discussing 
        with the new Iraqi Interim Government its interest in their 
        lending programs.
        <bullet> As of June 30, 2004, of the roughly $8 billion in 
        donor assistance, other donors had disbursed $1.148 billion of 
        their pledges, according to State Department estimates. This 
        does not include other assistance these donors already provided 
        to Iraq, such as humanitarian assistance, military assistance, 
        or other aid to Iraq and the coalition.
        <bullet> It also undercounts some donors where we do not have 
        detailed information or confirmation from the donor countries 
        on amounts disbursed for bilateral assistance. For example, the 
        State Department understands the U.K. has disbursed about 
        another $60 million in bilateral project assistance in addition 
        to the U.K. figure reflected in the attached chart that is not 
        yet captured in the disbursement numbers.
        <bullet> The bulk of the $1.148 billion disbursed by donors has 
        been in the form of deposits to the International 
        Reconstruction Fund Facility for Iraq (IRFFI), which is 
        comprised of U.N. and World Bank trust funds. The U.N. and 
        World Bank trust funds are now starting implementation of their 
        initial IRFFI projects.
        <bullet> Disbursements and implementation have been complicated 
        by the security situation in Iraq, but nonetheless are 
        continuing.
        <bullet> Disbursements by non-U.S. donor countries of over 
        $1.148 billion in the first 6 months of a 4-year pledge of $8 
        billion indicate a disbursement rate comparable to disbursement 
        rates by our donor partners for previous post-conflict 
        assistance efforts, though on a bigger scale.
        <bullet> The Iraqi Interim Government (IIG), through its Iraqi 
        Strategic Review Board (ISRB), is playing a central role in 
        coordinating donor assistance and setting assistance 
        priorities.
        <bullet> For additional information on reconstruction progress, 
        including examples of progress on the ground attributable to 
        international donations, please refer to the Quarterly Section 
        2207 report on reconstruction progress. This report is posted 
        on the White House Web site. Appendix 2 includes international 
        donation information.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Levin. Secretary Wolfowitz, Secretary Rumsfeld, in 
referring to the Geneva Convention in the Iraq context, said 
just a few weeks ago on NBC that the Geneva Convention did not 
apply precisely. Do you know what he meant?
    Secretary Wolfowitz. I think the Geneva Convention, both 
Geneva Conventions 3 and 4, apply in Iraq.
    Senator Levin. Do you know what the Secretary might have 
meant when he said that they did not apply precisely then?
    Secretary Wolfowitz. I don't know.
    Senator Levin. Were you aware of that comment before right 
now?
    Secretary Wolfowitz. I think I had heard something like it, 
and I could speculate, but I'd be speculating.
    Senator Levin. All right. Mr. Feith has made commitments to 
provide materials that he has not kept. Last time you were in 
front of us on April 20 you said you would look into the delay 
of the materials that I had requested back in November 2003. On 
February 26, Mr. Feith promised in a letter to me that he would 
provide those materials quickly and promptly. I still didn't 
receive the letters. Do you know what is going on what that 
commitment?
    Secretary Wolfowitz. Senator, I think there was a big 
package of materials that should have come up yesterday. I'm 
not 100 percent sure. We will check that.
    Senator Levin. Will you let us know what is going on? One 
way or the other, will you get back to us?
    Secretary Wolfowitz. Yes.
    Senator Levin. Tell us when that's going to be forthcoming.
    Secretary Wolfowitz. I hope I can tell you it's here.
    Senator Levin. The way I see these pledges of other 
countries to Iraq reconstruction is that there's $13 billion 
that had been promised by 1, 2, 3, 4, 5, 6, 7, 8, 9, 10 
countries. Does that sound right, Mr. Kaplan? Does anybody 
follow this? Japan committed $4.9 billion. Do you have any idea 
how much of that they've come through with?
    Mr. Kaplan. Senator, I have in front of me the amounts of 
the pledges.
    Senator Levin. I don't want the pledges. I want to know 
whether they've kept their pledges.
    Mr. Kaplan. Senator, I don't have that in front of me, but 
as I say, we'll be happy to provide it for the record.
    Senator Levin. Do you have a sense as to whether most of 
the pledges have been kept by most of the countries?
    Secretary Wolfowitz. Senator Levin, we've had difficulty in 
Afghanistan, I know, in slow delivery by the international 
community on their pledges. I think it's even slower in Iraq 
because of the security conditions there. We'll have to get you 
the exact numbers.
    Senator Levin. So the security conditions are difficult 
enough. That's no excuse for the pledges not being fulfilled, 
is it?
    Secretary Wolfowitz. The pledge was not for an expenditure 
by this particular month. It's over a period of time.
    Senator Levin. But some of it has been owing so far, I 
assume, right? Some of the pledges have supposed to have been 
arrived by now?
    Secretary Wolfowitz. You'd have to ask the State Department 
or Secretary Powell, who chaired the Madrid meeting. I don't 
believe they pledged a specific time schedule. I think they 
pledged certain amounts within a couple of years.
    Senator Levin. Does OMB know? Does OMB track this?
    Mr. Kaplan. We collect the information from the appropriate 
Departments, Senator.
    Senator Levin. Okay. Would you let the committee know 
something that I think we should be on top of? I mean, it's 
already pretty tiny compared to what our commitment is. It 
seems to me at a minimum somebody ought to be knowing whether 
or not other countries that have made these minimal pledges 
have come through with even whatever they've pledged.
    The $25 billion that you request also is funding that does 
not expire, so it's a no-year request. Would you agree with 
that characterization?
    Mr. Kaplan. Yes, Senator.
    Senator Levin. There's no time limit on it?
    Mr. Kaplan. That's correct, Senator, although it's our 
intention that if Congress funds our forthcoming supplemental 
request for fiscal year 2005, those funds would supersede 
whatever is remaining in the contingent emergency reserve.
    Senator Levin. All right. I just want to be clear on this 
one question, which came up before about these interrogation 
rules. There were rules for Guantanamo, is that correct, 
Secretary Wolfowitz?
    Secretary Wolfowitz. Yes.
    Senator Levin. Were you familiar with those?
    Secretary Wolfowitz. Familiar might be overstating it, but 
yes, I've seen them.
    Senator Levin. Okay. Were you part of the approval process 
for those rules of interrogation for Guantanamo?
    Secretary Wolfowitz. Yes.
    Senator Levin. Okay. But on these rules relative to Iraq of 
General Sanchez, you were not aware of these until just a 
couple of days ago?
    Secretary Wolfowitz. Actually, I was not aware of them 
until this morning.
    Senator Levin. Okay. General Pace, does that also go for 
you and the chiefs, that you were not aware of these until the 
last few days, or were you?
    General Pace. I do not know about the other chiefs, sir. I 
personally was aware of the ones for Guantanamo. I was not 
aware of the ones for Iraq.
    Senator Levin. Could you check out and see whether or not 
these rules were ever submitted to the chiefs or whether they 
were aware of them?
    General Pace. I will find out the individual chiefs. They 
were not submitted to the Joint Chiefs. I will find out if any 
of the service chiefs knew.
    Senator Levin. Okay. General Pace, I asked you before about 
this use of the term, rules of engagement, relative to 
interrogation, and I found it so shocking that that term, rules 
of engagement, which normally applies to when force is going to 
be permitted, would apply to that term interrogation. Do you 
remember, either of you, relative to the Guantanamo rules of 
interrogation, whether or not they were called rules of 
engagement?
    General Pace. To my knowledge, they were not, sir. That is 
a term that does not have any military definition to it to my 
knowledge, rules of engagement for interrogation. Rules of 
engagement apply to the use of force and the way they are 
authorized to use force.
    Senator Levin. What about you, Secretary Wolfowitz? Do you 
remember whether or not that term was used relative to 
Guantanamo?
    Secretary Wolfowitz. I certainly don't remember it being 
used.
    Senator Levin. Mr. Chairman, if I could have just one more 
question, even though my time, I notice, is expired. I think 
this would be all that I would need. Let's see if I can find 
this term. This was a statement in the annex of the Taguba 
report. It was an unclassified, December 12, 2003, situation 
update to Major General Miller, and the document describes 
interrogation techniques permissible for use in the Iraqi 
theater. It includes the following statement: ``Interrogation 
officer in charge will submit memoranda for the record 
requesting harsh approaches for commanding General's approval 
prior to employment, sleep management, sensory deprivation, 
isolation longer than 30 days, and dogs.'' Is that something 
that either of you are familiar with, Secretary Wolfowitz?
    Secretary Wolfowitz. No, I'm not.
    Senator Levin. General Pace?
    General Pace. No, sir, I haven't seen that.
    Senator Levin. Have you ever seen the term, harsh 
approaches, used relative to interrogation as being something 
that would be permitted? Is that a term which is used in a 
sense that harsh approaches can be authorized under certain 
circumstances, Secretary?
    Secretary Wolfowitz. I don't recall it being used in any of 
the Guantanamo techniques that we discussed.
    Senator Levin. Or anything else you've seen?
    Secretary Wolfowitz. No.
    Senator Levin. General Pace?
    General Pace. It's not a term I'm familiar with, sir.
    Senator Levin. Has Secretary Rumsfeld or you ever signed 
exceptions or approvals for the use of force in specific 
instances, either in Guantanamo or in Iraq that you know of? 
Has there ever been a request for authorization to use certain 
techniques relative to specific detainees that required 
secretarial approval that have come to your attention in 
Guantanamo or in Iraq?
    Secretary Wolfowitz. I think you had testimony in closed 
testimony yesterday on issues about interrogation. I don't 
believe they talk about the use of force, but there are certain 
things, and I think you were in that session and I'd be happy 
to have someone come back and answer any further questions you 
have on it in a closed session.
    Senator Levin. The Guantanamo rules did provide for a 
certain secretarial approval, did they not, of certain kinds of 
techniques?
    Secretary Wolfowitz. That's right.
    Senator Levin. Without asking you which cases, do you know 
whether there were some approvals given relative to Guantanamo?
    Secretary Wolfowitz. I believe there were.
    Senator Levin. I'm not saying that was use of force. I'm 
just saying there was use of certain techniques which 
required----
    Secretary Wolfowitz. To the best of my recollection, and my 
recollection is pretty old on this, it did not involve the use 
of force, and so we're clear on this, it was a very exceptional 
authority to be used in the case of people who had information 
about possible major terrorist plots against the United States. 
That's why that authority was there. The extreme care with 
which any special techniques, all of which had to comply with 
human treatment standards.
    Senator Levin. Under Geneva?
    Secretary Wolfowitz. Under Geneva. I mean, even the special 
techniques were judged by the lawyers to be compliant. The 
extreme care with which some of those could only be used 
emphasizes the fact that there was nothing about the Guantanamo 
operation that can explain the incredible abuses that took 
place in Iraq.
    Senator, you and many other members of this committee have 
been to Guantanamo. I think you've seen first hand that this is 
an operation that we believe met very high standards.
    Senator Levin. Thank you.
    Senator Sessions. Thank you, Senator Levin. I know we've 
kept you past your time. I served on the Judiciary Committee 
for a brief few years, filled a Judge Advocate General (JAG) 
slot, although I'll admit I did not do JAG officer schooling, 
at the Army Reserve that I served in for several years. With 
regard to the Geneva Convention and Secretary Rumsfeld's 
statement that it did not apply precisely, I would assume, and 
anybody, you're wise not to speculate, but I'll speculate that 
what he meant was unlawful combatants who are in Iraq, just 
like the unlawful combatants in Guantanamo, are not entitled to 
protection under the Geneva Conventions.
    However, the DOD said regardless they will all be treated 
under the Geneva Conventions. Is that correct?
    Secretary Wolfowitz. Yes, with one qualification as I 
understand it, and I'm not a lawyer. The Geneva Convention 
requires----
    Senator Sessions. Senator Levin will catch us if we make an 
error.
    Secretary Wolfowitz.--humane treatment for all detainees. 
It gives special and very important privileges to lawful 
combatants that are prisoners of war.
    Senator Sessions. Yes, and just to follow up on that, in 
Guantanamo, you had required approval higher up. General Pace, 
you've been a commander in the field. General Sanchez's 
memorandum about harsher approaches, that's a restrictive 
memorandum, is it not? In other words, General Sanchez said, 
some of these things may be legitimate, if you desire to go 
into these category of interrogation techniques, I want a 
written request from the field and I want to approve it first. 
Isn't that what he was saying?
    General Pace. That would be a restrictive guidance from the 
commander, the way it was read and the way I heard it, I heard 
that as restrictive.
    Senator Sessions. It was not a permissive memorandum to go 
do all these things. It said, if you're thinking about these 
things, seek my approval in writing. Does he have a legal 
officer on his staff there that could help him?
    General Pace. He does, yes, sir.
    Senator Sessions. They know all these case histories of the 
Geneva Conventions and can advise him correctly. Things went 
awry. We're not happy with it. They went awry and it's not 
good. I don't think that memorandum should be seen as a 
permissive suggestion that they should go beyond the Geneva 
Conventions.
    I agree with Senator Levin about these pledges. I think 
it's time for us to ask our allies why they are not on board, 
not having come along. I know some of them did not make 
specific dates as to when they would do this, but sometimes the 
time is now it seems to me.
    Secretary Wolfowitz. I agree with both of you. Maybe I 
should have been clearer about that. I think we should be 
careful about whether they've broken a pledge, but I think our 
allies should be doing more, not less, absolutely.
    Senator Sessions. They're helping a good bit in 
Afghanistan, although some of that has been slow. There was a 
suggestion earlier that the administration made these promises 
about how many troops there would be utilized and how long we 
would be there. Mr. Secretary, have you ever stated, or the 
Secretary of Defense, or the President to your knowledge, said 
that by a certain date we would be out of Iraq, that we'd only 
use so many troops? Isn't it true the President has told us 
we're going to do what it takes to be successful and it's going 
to take a long time to win the war on terrorism?
    Secretary Wolfowitz. Yes, Senator, and I've tried always to 
emphasize the great uncertainty of war. I frankly anticipated 
many things much worse than we've encountered that fortunately 
didn't take place, and actually I shared Senator Levin's fear 
that the greatest danger in this war was going to be the 
possibility that he would actually use WMD, because we both 
believed he had them.
    There are a lot of things that didn't happen that would 
have been much worse. The thing that did happen that has led to 
this continuing war is that the enemy that was defeated in 
major combat on May 2 dispersed into the countryside, and what 
we're dealing with now are some tough, ruthless killers who 
were the core of that abusive regime for 35 years. They know 
how to build bombs, they know how to murder people, they know 
how to kill and assassinate and that's what their specialty is. 
They offer no hope for the country, that's what I said before.
    We need to speed up the process so that Iraqis understand 
we're not there to own their country. They have to step up and 
take responsibility. There's a really positive vision and 
Iraqis are hungry for it.
    Senator Sessions. I think this has been a good hearing. I 
think you've heard from this side of the aisle and the desk and 
you've indicated you'll try to respond as you can to meet the 
concerns. The Senate committee has made it clear that we're 
willing to support the troops and get this funding as you need 
it.
    Senator Levin. Just one more question for General Pace. 
General Pace, there was a decision made basically to expand the 
Iraqi army or not to try to reconstitute elements of the Iraqi 
army right after the war. Was that a decision of the chiefs or 
was that made by someone else?
    General Pace. Sir, I think it happened at first on the 
battlefield when the Iraqi army disintegrated, so that the 
units that we expected might be there----
    Senator Levin. I mean after the battles were over. We 
understand. There was a decision made not to attempt to 
reconstitute those units even eliminating the top level 
officers of the Baath party. There was a specific decision that 
was made not to try to reconstitute those units. Did the chiefs 
support that or make that decision or recommend that decision?
    General Pace. Sir, to my knowledge, certainly I know I did 
not have a discussion about that with my fellow chiefs in the 
tank. That decision to my recollection was made inside of Iraq 
in the CPA, who had the responsibility, Ambassador Bremer and 
his team had the responsibility to work with rebuilding the new 
Iraqi army with the Governing Council. That was a decision made 
in theater.
    Senator Levin. A decision of that magnitude which has had 
such implications and such ramifications surely should have 
involved our top military leadership, and I've been critical of 
the decision right from the beginning, but I'm also critical of 
the failure to involve our top military leadership from what I 
can tell. I've been unable to identify our top military uniform 
leaders that have been involved in that decision and I think it 
was the wrong decision, but it was surely wrong not to include 
the chiefs.
    General Pace. From my perspective, sir, the enemy had 
disintegrated on the battlefield.
    Senator Levin. We wanted them to disintegrate too, didn't 
we? We urged them not to fight, didn't we?
    General Pace. We urged them not to fight. We were hopeful 
that some might surrender en masse and actually start working 
for the future of the Iraqi people. That did not happen. Then 
after we were stood up as the governing authority, and the 
question was, how to go out and resurrect these units that have 
dispersed to places we don't know, and if we did, how do we do 
that? Or do we start recruiting for the new Iraqi army?
    Senator Levin. Reconstituting the units, right.
    General Pace. I'm sorry, sir.
    Senator Levin. Right. That was the question. But you're 
saying you were not involved----
    Secretary Wolfowitz. Senator Levin, it was a conscript 
army. These people went home.
    Senator Levin. I understand.
    Secretary Wolfowitz. I remember television coverage of 
people walking from northern Iraq to southern Iraq. The issue 
was what do you do with the officer corps? I think hindsight is 
20/20. This was, as General Pace said, a CPA decision. I think 
it was recommended back here and approved back here.
    Senator Levin. By?
    Secretary Wolfowitz. By Ambassador Bremer.
    Senator Levin. It was recommended to you?
    Secretary Wolfowitz. To Secretary Rumsfeld. He reports to 
the President through Secretary Rumsfeld.
    Senator Levin. But my point is that the uniform 
leadership----
    Secretary Wolfowitz. Can I finish for a minute?
    Senator Levin. Sure.
    Secretary Wolfowitz. Because you say it was an obvious 
mistake.
    Senator Levin. But that's not my point.
    Secretary Wolfowitz. First of all, there wasn't an army to 
hang together. The mistake with 20/20 hindsight, I believe, and 
I think most people would agree, was that when it was 
disbanded, it took a long time before it was clear that the 
people who were cashiered would get pensions. If that had been 
made clear from the beginning, we would have avoided a 
significant problem. The officer corps is not by any means 
black and white. We just brought back one of those officers in 
Fallujah and we pretty much had to sideline him immediately 
because he was working with the enemy. We need clean, new 
officers.
    Senator Levin. We agree on that. The question isn't whether 
it was black and white. I think it was a mistake, okay, and I 
said so at the time, so it wasn't 20/20 hindsight, but that's 
beside the point who's right on this. My point here is 
apparently our top uniform military leadership here were not 
involved in that decision. That's my point.
    General Pace. Sir, I should stand up to my responsibilities 
there. I was certainly aware that that decision had been taken. 
I was certainly aware that that recommendation had come 
forward. I had the opportunity as an adviser and a 
responsibility as an adviser that if I thought that was a wrong 
thing to have stood up and be counted. I looked at it. I 
thought it was a correct decision based on----
    Senator Levin. So you were asked for your advice?
    General Pace. No, sir. I was not specifically asked for my 
advice on that. However, I have a responsibility as a member of 
the Joint Chiefs to proffer my advice, to be knowledgeable, and 
to as best I can give my best advice. We looked at this, I 
looked at it for sure. They had disintegrated, and the decision 
that was made was whether we go out and try to resurrect units 
that have disappeared or should we start recruiting to a new 
army and vet those as we come on board. That made sense to me.
    Senator Levin. My only question is whether you were 
consulted and you weren't. You're now saying that you feel you 
should have initiated comment had you disagreed with it, and I 
agree with that. My only question is, were the Joint Chiefs 
consulted for formal consideration, but apparently they 
weren't. I think that's just a generally bad, ineffective, and 
insufficient process. That's my only point here. Whether it was 
right or wrong we can differ on.
    Secretary Wolfowitz. Senator Levin, do you think we should 
have called the army back, summoned these conscripts back to 
the army? I think that would have been a terrible mistake. I 
think it was a mistake not to let them know that when they were 
in effect being retired, that they would also be paid. That I 
think we might agree on, but I think it would have been a big 
mistake to summon Saddam's army back to active duty when they--
--
    Senator Levin. You can call it Saddam's army, but as you 
point out, it was a conscript army. Many of that army hated 
Saddam, and didn't fight for him. We wanted them not to fight 
for him.
    Secretary Wolfowitz. They didn't want to be drafted back 
in.
    Senator Levin. It was not a matter of being drafted back 
in, it was a matter of whether they would voluntarily rejoin 
units to defend a new Iraq. Instead we have no army. We still 
have about 9,000 out of a huge need much greater than that in 
an army. But we can argue back and forth whether it was a wise 
decision or not. I just think that what is not wise is not to 
formally inquire of our top uniform leadership what they think. 
I think General Pace is magnanimously saying that he should 
have initiated if he had disagreed with it. That's fine, that's 
magnanimous. That's not the way this process should work. Our 
top uniform, and best thinking, should be solicited on an issue 
of that magnitude. It shouldn't be left up to just some kind of 
a point paper, which is what it was.
    Senator Sessions. Thank you, Senator Levin. I know you've 
expressed that prior to the decision being made and he still 
adheres to it and that's all right.
    If there's nothing else, you're beyond the time that we 
asked you to stay. We thank you for your service and for your 
support. This Senate will give you, and our soldiers, the money 
they need. We just need to work out the details about how it'll 
get done. Thank you. We are adjourned.
    [Question for the record with answer supplied follows:]
               Question Submitted by Senator Mark Dayton
                  rest and recuperation leave program
    1. Senator Dayton. Secretary Wolfowitz, it is very important to me 
that the military continue to pay travel expenses in relation to the 
Rest and Recuperation (R&R) Leave Program for servicemembers deployed 
in support of Operation Iraqi Freedom (OIF) and Operation Enduring 
Freedom (OEF). Do you currently have the funds available to continue 
the R&R Leave Program, including the travel between the domestic point 
of entry and the servicemembers' homes?
    Secretary Wolfowitz. On September 25, 2003, the United States 
Central Command initiated the R&R Leave Program for Active and Reserve 
servicemembers and DOD civilian employees serving on a 12-month tour of 
duty within Central Command Area of Responsibility in support of the 
global war on terror. On January 1, 2004, we implemented the Fully 
Funded Onward Travel Program, which pays the air travel expenses to the 
commercial airport nearest the leave destination.
    P.L. 108-220, April 22, 2004, requires the Secretary of Defense to 
reimburse military R&R travelers for certain transportation expenses 
incurred on R&R leave before the program was expanded to include 
domestic travel. The law does not provide additional funding, however, 
and we expect that these costs will range from $13 million to $19 
million.
    Implementation instructions for retroactive reimbursement of R&R 
travel are still pending. The $55 million supplemental that was 
established for onward travel is not sufficient to cover onward travel 
and retroactive reimbursement through fiscal year 2004. The DOD should 
be able to cover the cost by reallocating operations and maintenance, 
Army (OMA) funds already earmarked for other R&R expenses.

    [Whereupon, at 1:17 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
